<html>
<title> - NOMINATIONS OF THE 112TH CONGRESS</title>
<body><pre>[Senate Hearing 112-399]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-399
 
            NOMINATIONS OF THE 112TH CONGRESS--FIRST SESSION

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS



                             FIRST SESSION



                               ----------                              

                   MARCH 16 THROUGH DECEMBER 8, 2011

                               ----------                              



       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/












                                                        S. Hrg. 112-399

            NOMINATIONS OF THE 112TH CONGRESS--FIRST SESSION

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS



                             FIRST SESSION



                               __________

                   MARCH 16 THROUGH DECEMBER 8, 2011

                               __________



       Printed for the use of the Committee on Foreign Relations




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
74-273 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS          
                112th CONGRESS--FIRST SESSION          

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
            *Frank G. Lowenstein, Staff Director            
        Kenneth A. Myers, Jr., Republican Staff Director        

   *Note: William C. Danvers (assumed Staff Director position as of 
                        October 3, 2011)        

                             (ii)          









                            C O N T E N T S

                              ----------                              

    [Any additional material relating to these nominees may be found
              at the end of the applicable day's hearing.]

                              ----------                              
                                                                   Page

Wednesday, March 16, 2011........................................     1

Joseph M. Torsella, of Pennsylvania, to be Representative to the 
  United Nations for U.N. Management and Reform, with the rank of 
  Ambassador and Alternate U.S. Representative to the 65th 
  session of the U.N. General Assembly...........................     6
                                 ------                                
Tuesday, March 29, 2011..........................................    43

Suzan D. Johnson Cook, of New York, to be Ambassador at Large for 
  International Religious Freedom................................    47
                                 ------                                
Tuesday, April 5, 2011 (a.m.)....................................    71

Robert Patterson, of New York, a Career Member of the Senior 
  Foreign Service, Class of Counselor, to be Ambassador to 
  Turkmenistan...................................................    75
Mara E. Rudman, of Massachusetts, to be an Assistant 
  Administrator of the United States Agency for International 
  Development....................................................    78
                                 ------                                
Tuesday, April 5, 2011 (p.m.)....................................   109

Scott Gration, of New Jersey, to be Ambassador to the Republic of 
  Kenya..........................................................   114
Michelle Gavin, of the District of Columbia, to be Ambassador to 
  the Republic of Botswana.......................................   115
                                 ------                                
Wednesday, April 6, 2011.........................................   137

David Bruce Shear, of New York, to be Ambassador to the Socialist 
  Republic of Vietnam............................................   142
Kurt Walter Tong, of Maryland, for the rank of Ambassador during 
  his tenure as U.S. Senior Official for the Asia-Pacific 
  Economic Cooperation (APEC) Forum..............................   144
                                 ------                                
Wednesday, May 4, 2011...........................................   163

Daniel Benjamin Shapiro, of Illinois, to be Ambassador to Israel.   168
Stuart E. Jones, of Virginia, a Career Member of the Senior 
  Foreign Service, Class of Minister-Counselor, to be Ambassador 
  to the Hashemite Kingdom of Jordan.............................   172
Hon. George Albert Krol, of New Jersey, a Career Member of the 
  Senior Foreign Service, Class of Minister-Counselor, to be 
  Ambassador to the Republic of Uzbekistan.......................   181
Henry S. Ensher, of California, a Career Member of the Senior 
  Foreign Service, Class of Counselor, to be Ambassador to the 
  People's Democratic Republic of Algeria........................   185
Thursday, May 26, 2011...........................................   207

Hon. Gary Locke, of Washington, to be Ambassador to the People's 
  Republic of China..............................................   211
                                 ------                                
Tuesday, June 7, 2011............................................   263

Jeanine E. Jackson, of Wyoming, to be Ambassador to the Republic 
  of Malawi......................................................   269
Geeta Pasi, of New York, to be Ambassador to the Republic of 
  Djibouti.......................................................   271
Donald Koran, of California, to be Ambassador to the Republic of 
  Rwanda.........................................................   274
Lewis Lukens, of Virginia, to be Ambassador to the Republic of 
  Senegal and to serve concurrently as Ambassador to the Republic 
  of Guinea-Bissau...............................................   277
Ariel Pablos-Mendez, of New York, to be Assistant Administrator 
  of the United States Agency for International Development......   279
                                 ------                                
Wednesday, June 8, 2011..........................................   299

Jonathan D. Farrar, of California, to be Ambassador to the 
  Republic of Nicaragua..........................................   302
Lisa J. Kubiske, of Virginia, to be Ambassador to the Republic of 
  Honduras.......................................................   304
James H. Thessin, of Virginia, to be Ambassador to the Republic 
  of Paraguay....................................................   307
D. Brent Hardt, of Florida, to be Ambassador to the Co-operative 
  Republic of Guyana.............................................   309
                                 ------                                
Tuesday, June 21, 2011...........................................   341

Hon. Anne W. Patterson, of Virginia, to be Ambassador to the Arab 
  Republic of Egypt..............................................   346
Michael H. Corbin, of California, to be Ambassador to the United 
  Arab Emirates..................................................   366
Susan L. Ziadeh, of Washington, to be Ambassador to the State of 
  Qatar..........................................................   369
Matthew H. Tueller, of Utah, to be Ambassador to the State of 
  Kuwait.........................................................   371
Kenneth J. Fairfax, of Kentucky, to be Ambassador to the Republic 
  of Kazakhstan..................................................   374
                                 ------                                
Wednesday, June 29, 2011.........................................   411

Derek J. Mitchell, of Connecticut, to be Special Representative 
  and Policy Coordinator for Burma, with the rank of Ambassador..   416
Frankie Annette Reed, of Maryland, to be Ambassador to the 
  Republic of the Fiji Islands, and to serve concurrently as 
  Ambassador to the Republic of Nauru, the Kingdom of Tonga, 
  Tuvalu, and the Republic of Kiribati...........................   422
                                 ------                                
Wednesday, July 13, 2011.........................................   439

Paul D. Wohlers, of Washington, to be Ambassador to the Republic 
  of Macedonia...................................................   442
William H. Moser, of North Carolina, to be Ambassador to the 
  Republic of Moldova............................................   445
John A. Heffern, of Missouri, to be Ambassador to the Republic of 
  Armenia........................................................   447
Thomas M. Countryman, of Washington, to be Assistant Secretary of 
  State for International Security and Non-Proliferation.........   460
Jeffrey DeLaurentis, of New York, to be Alternate Representative 
  of the United States of America for Special Political Affairs 
  in the United Nations, with the rank of Ambassador, and 
  Alternate Representative of the United States of America to the 
  Sessions of the General Assembly of the United Nations.........   463
                                 ------                                
Tuesday, July 19, 2011...........................................   483

David S. Adams, of the District of Columbia, to be Assistant 
  Secretary of State for Legislative Affairs.....................   486
Joyce A. Barr, of Washington, to be Assistant Secretary of State 
  for Administration.............................................   488
                                 ------                                
Wednesday, July 20, 2011.........................................   507

Hon. Earl Anthony Wayne, of Maryland, to be Ambassador to Mexico.   511
Arnold Chacon, of Virginia, to be Ambassador to the Republic of 
  Guatemala......................................................   517
                                 ------                                
Thursday, July 21, 2011..........................................   539

Sung Y. Kim, of California, to be Ambassador to the Republic of 
  Korea..........................................................   543
                                 ------                                
Tuesday, August 2, 2011..........................................   555

Hon. Norman L. Eisen, of the District of Columbia, to be 
  Ambassador to the Czech Republic...............................   562
Hon. Francis Joseph Ricciardone, Jr., of Massachusetts, to be 
  Ambassador to the Republic of Turkey...........................   565
Hon. Robert S. Ford, of Vermont, to be Ambassador to the Syrian 
  Arab Republic..................................................   571
                                 ------                                
Wednesday, September 7, 2011.....................................   621

Hon. Wendy R. Sherman, of Maryland, to be Under Secretary of 
  State for Political Affairs....................................   626
                                 ------                                
Wednesday, September 21, 2011....................................   669

Robert A. Mandell, of Florida, to be U.S. Ambassador to 
  Luxembourg.....................................................   673
Hon. Thomas Charles Krajeski, of Virginia, to be U.S. Ambassador 
  to the Kingdom of Bahrain......................................   676
Hon. Dan W. Mozena, of Iowa, to be U.S. Ambassador to the 
  People's Republic of Bangladesh................................   678
Michael A. Hammer, of the District of Columbia, to be Assistant 
  Secretary of State for Public Affairs..........................   681
                                 ------                                
Wednesday, October 5, 2011.......................................   713

Susan Denise Page, of Illinois, to be Ambassador to the Republic 
  of South Sudan.................................................   718
Adrienne S. O'Neal, of Michigan, to be Ambassador to the Republic 
  of Cape Verde..................................................   721
Mary Beth Leonard, of Massachusetts, to be Ambassador to the 
  Republic of Mali...............................................   724
Mark Francis Brzezinski, of Virginia, to be Ambassador to Sweden.   726
                                 ------                                
Wednesday, October 12, 2011......................................   745

Dr. Michael Anthony McFaul, of California, to be Ambassador to 
  the Russian Federation.........................................   750
                                 ------                                
Tuesday, November 8, 2011........................................   807

Hon. Roberta S. Jacobson, of Maryland, to be an Assistant 
  Secretary of State for Western Hemisphere Affairs..............   810
Hon. Mari Carmen Aponte, of the District of Columbia, to be 
  Ambassador to the Republic of El Salvador......................   830
Adam E. Namm, of New York, to be an Ambassador to the Republic of 
  Ecuador........................................................   833
Elizabeth M. Cousens, of Washington, to be Representative of the 
  United States of America on the Economic and Social Council of 
  the United Nations, with the rank of Ambassador; and, to be an 
  Alternate Representative of the United States of America to the 
  Sessions of the General Assembly of the United Nations, during 
  her tenure of service as Representative of the United States of 
  America on the Economic and Social Council of the United 
  Nations........................................................   836
Thursday, December 8, 2011.......................................   891

Earl W. Gast, of California, to be an Assistant Administrator of 
  the United States Agency for International Development.........   893
Tara D. Sonenshine, of Maryland, to be Under Secretary of State 
  for Public Diplomacy...........................................   895
Anne Claire Richard, of New York, to be Assistant Secretary of 
  State for Population, Refugees, and Migration..................   899
Robert E. Whitehead, of Florida, to be Ambassador to the Togolese 
  Republic.......................................................   902


                               NOMINATION

                              ----------                              


                       WEDNESDAY, MARCH 16, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Joseph M. Torsella, of Pennsylvania, to be Representative to 
        the United Nations for U.N. Management and Reform, with 
        the rank of Ambassador and Alternate U.S. 
        Representative to the 65th session of the U.N. General 
        Assembly
                              ----------                              

    The committee met, pursuant to notice, at 10:20 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, presiding.
    Present: Senators Casey, Rubio, DeMint, and Lee.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    First of all, I want to thank the nominee, Joe Torsella, 
for being here and for taking the time to come back.
    And I appreciate the attendance here of our ranking member, 
Senator DeMint.
    Today the Foreign Relations Committee meets to examine the 
nomination of Joe Torsella to be Representative of the United 
States of America to the United Nations for Management and 
Reform, with the rank of Ambassador and Alternative U.S. 
Representative to the 65th session of the U.N. General 
Assembly.
    Joe Torsella has been here before, and we're grateful that 
he's back. His wife, Carolyn, is with us. And I'm told that 
your daughter, Grace, is here and your son, Joe--is that--did I 
get that right? Thanks very much for being here. We're 
grateful.
    And we know that--as I think I said before, that when a 
public official, elected or appointed, puts themself forward 
for public service, I know that's a commitment that you make, 
but also that your family makes. And I know that's a challenge, 
and we're grateful that your family is here to support you.
    In the past 2 years, the world has witnessed a shift, in 
the United States foreign policy, toward a comprehensive 
multilateralism which is embodied in our renewed commitment to 
the international system that the United Nations represents. 
This new direction is critically important to how we conduct 
foreign policy and how we relate to the United Nations.
    The United States was one of the primary architects of the 
United Nations and its affiliated bodies. And as a world 
leader, the United States not only has role to play to be an 
active participant in the United Nations, but also has an 
obligation to ensure that the U.N. has measures of 
accountability applied to it.
    To that end, Joe Torsella's record as a dedicated in 
innovative reformer will serve him well in this important post 
as U.S. Representative to the United Nations for Management and 
Reform.
    In these times of sweeping geopolitical change, the 
administration has worked, for the past 2 years, to make 
America stronger and more secure by pursuing a strategy of 
national renewal and energetic global leadership. Ambassador 
Rice has made this case before, and I'd like to take the 
opportunity to discuss briefly how the United Nations fits into 
that strategy--why we need the U.N., how it makes us all safer, 
and what we're doing to fix its shortcomings and help fulfill 
its potential.
    In these tough economic times here in the United States, 
and indeed, around the world, we're all focused on a growing 
economy. We're in recovery, but we've got a long way to go. We 
want to make sure we're doing everything possible to provide 
jobs for Americans who are hurting and out of work.
    Yet, even as we get our own house in order, we cannot 
afford to ignore problems beyond our borders. When nuclear 
weapons materials remain unsecured in many countries around the 
world, we are all put at risk. When states are wracked by 
conflict or ravaged by poverty, they can incubate threats that 
spread across borders, from terrorism to pandemic disease, from 
criminal networks to environmental degradation. Like it or not, 
we live in a new era of challenges that cross borders as freely 
as a storm, challenges that even the world's most powerful 
country often cannot tackle on its own. In the 21st century, 
indifference is not an option. Withdrawing from the world 
community is not only bad policy, it is, in fact, dangerous.
    America cannot police every conflict and every crisis, 
and--or shelter every refugee. The United Nations provides a 
real return on our tax dollars by bringing the world's 
countries together to share the cost of providing stability, 
vital aid, and hope in the world's most broken places. Because 
of the U.N., the world doesn't look to America to solve every 
problem alone. Our participation in the U.N. is a wise 
investment. But, with any investment, I should say, we must 
constantly work to better ensure that management and effective 
reforms are in place for that organization; in this case, the 
United Nations.
    The Foreign Relations Committee has taken steps to address 
our Nation's arrears to the U.N. over the past 2 years. 
However, in doing so, the committee has called upon the U.N. to 
implement a series of reforms and to improve its evaluation and 
transparency policies. As the biggest contributor to the U.N., 
we expect, and we deserve, accountability to ensure that our 
taxpayer dollars are spent wisely and efficiently.
    The United Nations can be more efficient and effective, and 
I know that Joe Torsella has ideas on how to make that happen. 
I support his confirmation to serve our country at the U.S. 
mission at the United Nations, because I believe he has the 
background and experience and commitment to public service to 
enhance our active U.S. presence at the U.N. by ensuring that 
our tax dollars are spent wisely.
    Joe has been a faithful public servant and a leading 
entrepreneur in Pennsylvania throughout his career. As deputy 
mayor for policy and planning in Philadelphia, he helped lead 
Philadelphia out of its economic and fiscal crisis by 
implementing strategic reforms that the New York Times 
described as ``the most stunning turnaround in recent urban 
history.''
    Most recently, he has served as the chairman of the 
Pennsylvania Board of Education, one of the Nation's largest 
public school systems, with over 500 public school districts 
and 14 State universities. Under Joe Torsella's leadership, the 
Board of Education adopted and implemented groundbreaking State 
education standards and new high school graduation 
requirements. These reforms require students to demonstrate 
proficiency in core subject matters in order to receive a 
diploma, thereby strengthening public education in the 
Commonwealth and holding schools accountable. These reforms 
don't come easily. They are a result of building consensus with 
a variety of stakeholders. And Joe has gotten results.
    Joe has also been instrumental in the establishment of 
Philadelphia's National Constitution Center. The center is 
dedicated to increasing the public's understanding of, and 
appreciation for, the U.S. Constitution.
    Finally, I will enter into the record a letter from 
President George Herbert Walker Bush which indicates his close 
working relationship with Joe Torsella when Joe was the 
chairman of the board of the Constitution Center. And I'll 
enter that into the record and just read, for the record, one 
sentence from that letter. And I'm quoting former President 
Bush. ``As a former Ambassador to the United Nations, I could 
not be more confident in Joe's qualifications for this job. I 
would have been proud to have him on my team. He's a man of 
character and principle and will represent our Nation well.''
    I think that's well said by one of our former Presidents.
    With Joe Torsella representing the United States on 
management reform issues, we can have the confidence that our 
Nation's interests will be effectively championed and that this 
portfolio will be professionally and efficiently managed on 
behalf of the people of the United States.
    [The letter referred to by Senator Casey follows:]
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Casey. And, with that, I turn to our distinguished 
ranking member, Senator DeMint.

                 STATEMENT OF HON. JIM DeMINT,
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman.
    Thank you, Mr. Torsella. I appreciate your meeting with me 
in our office. I feel very good about your nomination.
    I appreciate the chairman pointing out the importance of 
the United Nations. Having an international body is obviously 
critical to a lot of things in the world, which makes the 
problems perhaps that much more important, as well.
    And whether it comes to budget processes or peacekeeping 
operations, oversight, or transparency, the United Nations has 
been unacceptably slow to reform. Waste, fraud, abuse, and 
general mismanagement are widespread at the U.N. Yet, the 
position of U.S. Representatives the United Nations for 
Management and Reform has been vacant for over 2 years. That 
makes it appear that the United Nations oversight has simply 
not been a priority to the administration, which I hope you can 
change.
    This is unfortunate. The United States is by far the 
largest contributor to the United Nations, donating more than 
$6 billion in 2009 alone. I believe American taxpayers deserve 
more accountability for their dollars.
    One major area of concern is the mandated items Americans 
are forced to pay for our nonvoluntary U.N. contributions. 
Because of this, Americans end up paying for programs that do 
not align with our national security and foreign policy 
objectives. For example, since 2006, nearly half of the 
country-specific resolutions passed by the United Nations 
Humans Rights Council, which Americans are required to fund, 
have focused on condemning Israel. Meanwhile, notorious human 
rights offenders, like Iran and Cuba, have been ignored.
    In the past, the United States has pressured the U.N. to 
review their mandates. This process has stalled, largely 
because U.N. member states are focused on protecting the 
funding for their pet programs. Over 9,000 of these programs 
currently exist. Programs that duplicate each other, and 
outdated mandates, must be streamlined, eliminated, and merged.
    The United States also sends the United Nations voluntary 
contributions. President Obama's bipartisan debt commission 
proposed making a reduction in the amount of voluntary 
contributions the United States gives the U.N. on its draft of 
spending-cut proposals. And we should go much further. The 
United Kingdom, as you're aware, has recommended cutting 
funding for four agencies, and put on notice--put others on 
notice for urgent improvement, or they would face cuts, as 
well. The United States should examine these cuts and take 
similar actions.
    Finally, U.N. peacekeeping missions must have more 
accountability--much more. According to a 2007 report by the 
United Nations Office on Internal Oversight Services, of 
roughly $1.4 billion in peacekeeping contracts examined, 
significant corruption schemes were involved in roughly 44 
percent of these contracts, totaling about $619 million. This 
is a topic I'd like to pursue further during the question-and-
answer period, but I'll stop and let you give your statement.
    And Mr. Chairman, I suspect if they call the vote 
sometimes, we can listen to his statement, and then come back 
and ask some questions, if that suits you.
    Senator Casey. Thank you, Senator DeMint.
    Mr. Torsella, if you could provide your opening. And we may 
have to take a brief break to go to vote.
    Mr. Torsella. Thank you.
    Senator Casey. Thank you.

    STATEMENT OF JOSEPH M. TORSELLA, OF PENNSYLVANIA, TO BE 
 REPRESENTATIVE TO THE UNITED NATIONS FOR U.N. MANAGEMENT AND 
   REFORM, WITH THE RANK OF AMBASSADOR AND ALTERNATIVE U.S. 
REPRESENTATIVE TO THE 65TH SESSION OF THE U.N. GENERAL ASSEMBLY

    Mr. Torsella. Chairman Casey, thank you for that 
introduction.
    Senator DeMint, thank you for your comments and for your 
courtesy on our recent visit.
    Chairman, Ranking Member, Senator Lee, I'm honored to be 
here today.
    I will abbreviate my full statement slightly, in the 
interest of the voting you have to do, and submit the full 
testimony for the record.
    Senator Casey. Let me just say, it will be made part of the 
record.
    Mr. Torsella. Thank you. And I would also like to 
recognize--in addition to the family members who are here 
today--our two children, Kelly Logan and Travis Logan, who are 
older, and who are not here--for good reasons, in one case, 
because she has a job; and, in the second case, because he's 
enlisted in the National Guard Reserve and is at basic 
training. So, they're with us in spirit and behind the 
nomination, as well.
    I'm deeply honored to come before you as the President's 
nominee for this position, and grateful to the President, to 
Secretary Clinton, and Ambassador Rice for their confidence in 
me.
    And I want to echo what you said, Chairman Casey, that the 
United Nations was born, in part, here in this committee, that 
your predecessors were among the earliest advocates and 
architects and, when appropriate, constructive critics of the 
United Nations, because they believed that an effective U.N. 
that had vigorous American leadership was in our national 
security interest. Their beliefs, in my judgment, remain true 
today. At its best, the U.N. can be a powerful tool to the 
United States, and a force multiplier to advance our interests 
and our values.
    When U.N. peacekeepers are on the ground, they are there at 
a fraction of the cost and the risk of the United States acting 
alone. When the U.N. builds the civic muscles of a failing 
state, or a fragile state, it helps protect American citizens 
from the threats that can grow in failed states. And when U.N. 
agencies, such as UNICEF, for example, work to eradicate polio 
around the globe, we're protecting the health of Americans here 
at home.
    But, neither the U.N. nor its member states are always at 
their best. And all too often, we have seen them at their 
worst. As Ambassador Rice has said, there is a serious gap 
separating the vision of the U.N.'s founders from the 
institution of today. And the investments that we've made and 
the challenges that we face are both too great for us to 
tolerate any waste, inefficiency, or abuse anywhere in the U.N. 
system. The global stakes are too high to allow biased agendas, 
narrow interests or political grandstanding to prevail anywhere 
in the U.N.'s Chambers.
    In recent years, U.S.-led comprehensive reform efforts have 
gathered steam and achieved some real, meaningful results, but 
there is much, much more work to be done to help the U.N. 
achieve a culture of economy, effectiveness, ethics, and 
excellence. I can further detail the steps that I believe lie 
ahead. In general, oversight and auditing must be strengthened, 
management and procurement systems must be upgraded, human 
resource reforms must be undertaken, and business processes 
need to be streamlined and brought into the 21st century. Those 
early steps that have been taken, on whistleblower protection, 
for example, need to be fully protected and fully implemented.
    I've spent much of my career bringing reform and 
accountability to public organizations in challenging contexts. 
As chairman of the Pennsylvania State Board of Education, as 
you said, Senator, I oversee a system with 500 school districts 
and 14 universities. And the hallmark of my tenure there has 
been implementing an accountability measure that was contested 
and hard-fought in the face of some determined opposition that 
guarantees that taxpayers get results for the dollars that we 
spend on education in Pennsylvania.
    When I was deputy mayor of Philadelphia that city was on 
the verge of bankruptcy--decades of poor management practices 
made it a city, in the words of one magazine, ``that set the 
standard for municipal distress in the 1990s.'' My portfolio 
was management reform. I helped negotiate groundbreaking 
contracts with Philadelphia's 25,000 employees, of which the 
Wall Street Journal said, ``Taxpayers can only applaud.'' I 
spearheaded reforms, from contracting out to civil service 
reforms, overhauling a bloated disability benefit system, and 
making innovative investments in productivity that closed a 
$1.4 billion cumulative deficit without raising taxes. As you 
said, the New York Times and others called it the most stunning 
turnaround in history.
    And finally, when I came to the National Constitution 
Center, that project was in some public and financial turmoil. 
And I'm proud to say that I steered it to an on-time, on-
budget, and bipartisan success. And I led it to a thriving 
program of public diplomacy. The Constitution Center has 
introduced tens of thousands of international visitors to 
American ideas and ideals. We've worked in Afghanistan on 
democracy education efforts. We've hosted hundreds of 
international leaders, heads of state and heads of government, 
to grassroots democracy activists, from Australia, Brazil, and 
Cameroon, to Serbia, Tunisia, and the U.K.
    So, I come here today as a proud patriot who also has a 
deep commitment to America's engagement with the world and at 
the United Nations, a demonstrated history of managing taxpayer 
dollars carefully, a willingness to listen to good ideas from 
all quarters, and a lifetime of experience as a strong voice 
for reform in public institutions, and a builder of coalitions 
to achieve it.
    It would be a great privilege, if confirmed, to use that 
experience, working with others in the administration, in 
Congress, and most especially here in this committee, to help 
the U.N. live up to both its ideals and potential, to renew and 
strengthen it for our century, just as your predecessors, in 
1945, did for theirs.
    Thank you. And I look forward to answering questions.
    [The prepared statement of Mr. Torsella follows:]

                Prepared Statement of Joseph M. Torsella

    Thank you Chairman Casey, Ranking Member DeMint, and distinguished 
members. I am honored to come before you as the President's nominee to 
be the U.S. Representative to the United Nations for Management and 
Reform, and I am grateful to President Obama, Secretary Clinton, and 
Ambassador Rice for their confidence.
    The United Nations was born, in part, in this committee. Your 
predecessors were among its earliest architects, advocates and, 
occasionally, constructive critics because they believed that an 
effective United Nations--with vigorous American leadership--was in 
America's national security interest.
    Their beliefs remain true today. At its best, the U.N. can be a 
powerful tool and force multiplier for advancing our interests and 
values. When U.N. peacekeepers are on the ground helping to protect 
civilians and advancing peace globally, they do so at a fraction of the 
cost and risk of the U.S. acting alone. When the U.N. builds the civic 
muscles of fragile states, American citizens are made safer from the 
threats that grow in failed states. When U.N. agencies such as UNICEF 
work to eradicate polio around the globe, we protect the health of 
Americans here at home.
    But neither the U.N. nor all its member states are always at their 
best; all too often, we have seen them at their worst. As Ambassador 
Rice has said, a serious gap still separates the vision of the U.N.'s 
founders from the institution of today. Both the investments we've made 
and challenges we face are too great to tolerate waste, inefficiency, 
or abuse anywhere in the U.N. system. And the global stakes are too 
high to allow biased agendas, narrow interests, or political 
grandstanding to prevail in any of the U.N.'s chambers.
    In recent years, U.S.-led comprehensive reform efforts have 
gathered steam and achieved some meaningful results. But there is much 
more work to be done to help the United Nations nurture a culture of 
economy, effectiveness, ethics, and excellence.
    Oversight, auditing, and evaluation must be strengthened to better 
ensure that U.S. funds are spent wisely and cleanly. Management and 
procurement systems must be upgraded and updated for accountability and 
transparency throughout the U.N.'s activities worldwide. Critical human 
resource reforms are essential to equipping the U.N. with a workforce 
that is held accountable for delivering results. Business processes 
need to be streamlined, aligned with best practices, and brought into 
the 21st century. And important first steps achieved in the areas of 
whistleblower protection, financial disclosure, and budgetary 
discipline must be protected and fully implemented.
    I have spent much of my career bringing reform and accountability 
to public organizations in challenging contexts. As chairman of the 
Pennsylvania State Board of Education, I oversee a system with 500 
school districts, 14 universities, and billions in public funds. Under 
my leadership we've made the board's workings more transparent and open 
to the public, and passed a landmark accountability measure--in the 
face of determined opposition--which implemented rigorous new high 
school graduation requirements, the first such change in a generation.
    As a deputy mayor of Philadelphia at a time when that city was on 
the verge of bankruptcy and decades of poor management practices had 
made it, in the words of City and State Magazine, ``the city that . . . 
set the standard for municipal distress in the 1990s,'' my portfolio 
was management and reform. I helped negotiate groundbreaking contracts 
with Philadelphia's 25,000-person workforce of which The Wall Street 
Journal said ``taxpayers can only applaud.'' I spearheaded reforms--
from competitive contracting out of city services to civil service 
reform, from overhauling a bloated disability benefits system that 
encouraged abuse to innovative investments in productivity--that closed 
a $1.4 billion cumulative deficit without raising taxes. The New York 
Times called it ``the most stunning turnaround in recent urban 
history.''
    And I came to the National Constitution Center when that $185 
million project was in public and financial turmoil. I'm proud to say 
that I steered it to an on-time, on-budget, and bipartisan success, and 
led it to a thriving program of public diplomacy.
    The Constitution Center has introduced tens of thousands of 
everyday international visitors to American ideas and ideals, worked in 
Afghanistan on democracy education efforts, and hosted hundreds of 
international leaders, from heads of state and government to grassroots 
democracy activists, from countries ranging from Australia, Brazil, and 
Cameroon to Serbia, Tunisia, and the United Kingdom.
    So I come here today as a proud patriot who also has a deep 
commitment to America's engagement with the world and at the United 
Nations, a demonstrated history of managing taxpayer dollars carefully, 
a willingness to listen to good ideas from all quarters, and a lifetime 
of experience as a strong voice for reform in public institutions and a 
builder of coalitions to achieve it.
    It would be a privilege, if confirmed, to use that experience--
working with others in the administration, in Congress, and especially 
in this committee--to help the U.N. live up to both its ideals and 
potential, to renew and strengthen the U.N. for our century, just as 
your predecessors in 1945 did for theirs.
    Thank you, and I look forward to answering your questions.

    Senator Casey. Thank you Mr. Torsella.
    We will take a break for what are two votes, and get back 
here as soon as possible.
    Thank you.
    Mr. Torsella. Thank you.
    [Recess.]
    Senator Casey. Well, thanks, everyone. We're back. And I 
know that other members will be joining us. We just had two 
votes, and I did a little running, so I got a little exercise 
in between.
    But, let me start with some questions. And I know that 
Senator DeMint, and maybe Senator Lee, will be back, as well, 
for questions.
    I wanted to ask you about your experience, which obviously 
is relevant to any nomination hearing. But, I did note, for the 
record, some of the experience, but, in my judgment, it's a 
substantial body of experience that bears directly on the 
assignment you'd have at the United Nations. It's easy to talk 
about reform in management and accountability. It's harder to 
do it in the real world of the private sector, or even, maybe 
even harder on some days, the real world of government. And as 
someone who's not only run for public office, but was in a 
position in two different State government agencies where we 
had to change the way business was done, and throw out the old 
ways and start down a new path. I know how difficult that can 
be, so I have great admiration for what you've done.
    But, I wanted to give you some time just to kind of walk 
through some of what you covered in your statement, your 
previous experience and how that bears directly on the job 
you'll have.
    Mr. Torsella. Thank you, Senator. Thank you.
    As I alluded to in my statement, I began my career in 
public affairs as deputy mayor of Philadelphia at a very 
difficult time. And almost all the attention of those of us who 
were in government then, and I was one of the deputy mayors for 
the city, was around a crisis of management, reform, and 
accountability. It was not only a financial crisis, but a 
broader crisis of confidence that people had in government. And 
over the course of several years and painstaking coalition-
building, we changed the way the city did business, and did it 
in a way that translated to the bottom line, and didn't do it 
by any of the easy, obvious solutions, which, at the time, was, 
you know, raising taxes, because our judgment was that the city 
couldn't bear it.
    I later had my own business, and subsequently was at the 
Constitution Center on two different tours of duty, for a total 
of 10 years, both in the institution ``building'' phase of the 
project, which was a nearly $200 million project, and then in 
the running of it. I am proud to say that, for all the years I 
ran it, despite the situation when I got there, we never ran a 
deficit, we never borrowed a dime, and we, as I suggested, 
debuted it in a way that won bipartisan applause, and has put 
it above politics.
    And then, finally, at the State Board of Education, when I 
came in, the proposal to require graduates to pass competency 
exams in basic subjects was dead. It had been dead on arrival 
for more than about 6 months in a State where 40 percent of our 
graduates weren't reading or doing math at grade level. And we 
had a total of many billions of dollars in the system, 
producing graduates who had diplomas that weren't worth all 
that much. And I sorted through the issues, found the common 
ground, persuaded opponents to become supporters, and pushed 
something across the finish line.
    All these are complicated public institutions with multiple 
constituencies and high stakes and in circumstances where 
people didn't expect results.
    Now, I want to note that if confirmed, I'd have the 
profound honor of being ``our ambassador,'' standing up for 
``our interests and our values,'' not full authority over the 
whole system, but I think that those talents of building 
coalitions, finding common ground on reform, standing up, 
making progress when you can, with partners when you can, 
standing up when you can't, and calling attention to things. I 
think all those things are relevant and will be useful, and I 
look forward, if confirmed, to deploying them.
    Senator Casey. Before turning to Senator DeMint, who was 
very patient when I was running late, earlier today, so I will 
stay within my question timeframe, but--and you may have to do 
this more than just in the 2 minutes or so, please preview, 
based upon your knowledge of the United Nations, and the 
management and other reforms you'd have to bring to bear on 
the--at the United Nations--just maybe a list or a summary 
would be helpful, I think.
    Mr. Torsella. Well, I do--thank you for the opportunity to 
talk about this--I do want to reserve my final say on this 
until I have the benefit of talented people in the mission and 
the State Department and, I hope, like-minded reform colleagues 
from different member states at the U.N. But, as I see it 
today, I think there are three broad priorities for the next 
Representative for Management and Reform.
    No. 1 is institutionalizing and strengthening the oversight 
function at the U.N. Senator DeMint alluded to a report of a 
few years ago about procurement. That report is what a healthy 
oversight function can do. The United States led the effort to 
establish the Office of Internal Oversight Services at the U.N. 
There is a terrific new head of that office, who is at the 
beginning of her 5-year term but it is not fully staffed, not 
fully staffed at some high levels. And it has not been given 
the financial and operational independence it needs to be the 
watchdog, which is, I know, a term from your past, Senator, 
that you are familiar with--that keeps things on the straight 
and narrow.
    No. 2 is, broadly, budget discipline. As we heard, the U.N. 
budget has grown substantially, and we are the largest 
contributor to the U.N. budget. And it is eminently in our 
interest that there be appropriate belt-tightening and 
management for effectiveness. It is also, though, I want to 
say, in the interest of other members states in the U.N., and 
the U.N., as an institution, because its credibility is 
directly related to the perceptions people have. So, broadly, 
the budget discipline and budget processes, and dealing with 
those resources.
    And then, third, those reforms that I believe can have a 
systematic impact, not just the impact of 1 month or a 
headline, but whether that's extending the ethics framework--
the disclosure requirements on financial interests, or whether 
it's software systems that'll reap tens and hundreds of 
millions in benefits, things that make real, longstanding 
change.
    Senator Casey. Thank you very much.
    Senator DeMint.
    Senator DeMint. Thank you, Chairman Casey.
    I'd like to focus for a minute on the peacekeeping 
operations and the U.S. contributions to those. Even though the 
United Nations supposedly has a zero-tolerance policy when it 
come to abuses against women and children, peacekeeping 
missions have been plagued with allegations of misconduct by 
U.N. peacekeepers. I mean, this is deeply disturbing. And I 
know that this has been none of your doing, at this point, but 
I think the record is important. And I'd like to start by 
reading you a few figures about these allegations, and how much 
money American taxpayers have spent on those very missions.
    In 2010, 83 allegations of misconduct against U.N. 
peacekeepers and civilian personnel were reported. The U.S. 
contribution to U.N. peacekeeping activities was roughly $2.13 
billion that year.
    In 2009, there were 40 reported allegations of sexual abuse 
by U.N. peacekeepers in the Democratic Republic of Congo. The 
U.S.-assessed contribution for that year in the DRC was roughly 
$210 million.
    In 2007, U.N. peacekeepers were accused of serious 
allegations of widespread sexual exploitation and abuse in the 
Ivory Coast. U.S. contributions to that mission in 2007 were 
roughly $138 million.
    A 2007 source reported that 20 allegations of U.N. 
peacekeeping sexual misconduct with children in Southern Sudan. 
U.S. taxpayer-funded contributions for that mission in 2007 was 
roughly $215 million.
    Just a couple of more of these. But, in November, 2007, 
peacekeepers were removed from Haiti following allegations of 
sexual exploitation and abuse of children. U.S. contributions 
to this peacekeeping mission were around $96 million.
    In 2005, U.N. peacekeepers were reported to have traded in 
gold and sold weapons to militia groups. U.S. taxpayers, in 
2005, gave over $293 million to the peacekeeping mission in the 
DRC.
    That brings me to my question. Are you willing to cut 
funding for these missions where women and children have been 
abused? If not, why should American taxpayers continue to pay 
for missions where women and children have been hurt?
    And we realize that, again, the special interests that are 
involved here are going to be very determined to keep the 
funding without the oversight that you talk about. And the 
culture of the U.N. is going to be very difficult to change. 
But, as you look at these figures, as you hear them--and I'm 
sure you're aware of a lot of them--how do you intend to 
address it? And what are you going to do, as far as funding 
versus mission, if we know there's a problem of this kind?
    Mr. Torsella. Well, thank you, Senator. I want to 
wholeheartedly agree that any incidence of sexual exploitation, 
by any peacekeeper, is something that ought to trouble us 
greatly and is unacceptable. Even against the context of 
120,000 deployed in 14 different missions, the numbers of 
incidents is deeply troubling, offensive, and unacceptable.
    Peacekeeping is something that cuts across many of the 
portfolios of the senior team at the mission, from the 
Permanent Representative to others. And I would look forward to 
working with my colleagues to continue to make strides on this 
problem. There have been some recent reforms put in place. 
There are now conduct and discipline teams deployed who weren't 
before. But, there is clearly much to do to support the zero-
tolerance policy that the U.S. Government has gotten behind, 
that there should be no more such reports as we go forward. And 
we need to work with the whole U.N. system, and other member 
states, to make sure that that is the case.
    Senator DeMint. Can you help explain--and again, I know 
you're looking at this, relatively new--but, what could be the 
explanation, after, you know, more than 5 years of these 
reports--and some of them have been publicized in the 
international media--why so little has been done at the U.N. to 
address this? You would think they understand the importance of 
the credibility and the international community, but there has 
been resistance even to deal with this.
    Mr. Torsella. Well, as you suggest, Senator, it's difficult 
for me to talk about what precedes what I hope will be my 
tenure.
    Senator DeMint. Right.
    Mr. Torsella. But, I think one of the broader contexts that 
you alluded to is that this has been an area of tremendous 
growth in a very short period of time, that the size and scope 
and complexity of peacekeeping operations, over approximately 
the last decade, has almost, I think, essentially quadrupled, 
and not just in size, but what used to be very conventional 
kinds of truly peacekeeping missions have become much more 
complicated in some much more difficult circumstances. So, that 
obviously makes everything that has to do with peacekeeping 
more challenging. And I think that the architecture of managing 
this has lagged behind what we've expected them to do.
    Now, I think what we need to do is make sure that that's no 
longer the case, not just to be a moral voice, but to 
understand this comes down to who are the leaders of each 
mission, which is something we need to devote attention to, and 
how are they pursuing these matters.
    Senator DeMint. Just a quick question before I run out of 
time. Will you be willing to hold the budget hostage, in 
effect--our payments, our contributions to various aspects of 
the United Nations--in order to get the attention of these 
people here? Are you willing to come back to us and suggest we 
withhold funding until we get certain reforms? Because I think 
that's the only leverage we are ultimately going to have.
    Mr. Torsella. Well, Senator, I am willing to get the 
attention and make the progress. And I'm willing to--and hope 
to work with you to do that. The U.S. Government position on 
withholding has been that our best chance of getting reforms 
comes from advocating from the position of strength that, 
thanks to all of you, we now have. No one can say the United 
States has not done its share and is not paying its assessed 
dues.
    I understand that there are valid concerns. There are good 
people with different points of view around this issue. And 
what I want to take away from that debate is a universal 
commitment to changing the results that we see, and leveraging 
the resources we have to get those results.
    Senator DeMint. Thank you, Mr. Torsella.
    Senator Casey. Senator Lee.
    Senator Lee. Thank you for joining us today, Mr. Torsella.
    I had some questions about the U.N. Human Rights Council. 
Since 2006, the Human Rights Council has adopted a total of, I 
believe, 67 country-specific resolutions. Of those 67, 32, 
almost half of them, focused specifically on Israel. And the 
U.S. membership on the U.N. Human Rights Council hasn't exactly 
reversed this trend. In 2010 alone, I think there were a 
total--there have been a total of eight resolutions adopted 
condemning Israel in some way, or Israel's actions.
    Can you tell me whether you perceive an anti-Israel bias in 
this? And, if so, what can be done about that?
    Mr. Torsella. Thank you, Senator.
    As I believe it's been described by senior officials in 
this administration, the Human Rights Council has been a poster 
child for some of what's wrong with the U.N. And there has 
been, as Ambassador Rice has said, a grotesquely unbalanced 
treatment of Israel in the resolutions, for example, that 
you've talked about.
    The administration's decision to join the Human Rights 
Council is based, again, on the premise that, as I've heard it 
said, ``If we're not at the table, we're probably on the 
menu,'' and that we can do best by such allies by showing up 
for the fight. It doesn't mean we're going to win all of them, 
but we'll win more than we would if we didn't show up.
    Now, I would hope to be a part of the efforts that the 
Ambassador described, to remedy that disproportionate 
treatment, and to stand up against it. And I do think the Human 
Rights Council is an institution that is in need of reform. And 
I'd hope, working with others in the administration and in the 
mission, to advance that cause.
    Senator Lee. Yes. No; I think that's good. I'm pleased to 
hear that.
    Do you know what, if anything, the Human Rights Council has 
done to address serious human rights problems in China, Iran, 
and Venezuela, just to name a few examples?
    Mr. Torsella. Well, the Human Rights Council is widely 
considered by the administration to be far from what we and 
others hoped it would be when it replaced its predecessor body. 
There is a good argument to be made that the engagement of the 
administration has resulted in progress--three examples that I 
could talk about, quickly. One is the extension of the mandate 
for the special expert on Sudan, which was opposed by others 
and we succeeded at. No. 2, the appointment of a special 
rapporteur for freedom of assembly, which was again resisted by 
some of the notorious violators. And No. 3, our very visible 
efforts to keep Iran from winning a seat on the Human Rights 
Council to avoid making a further mockery of its intent.
    Now, those are three examples where it worked. There are 
other examples, as you point out, where the results aren't 
acceptable. But, I think what it comes down to is the elbow 
grease and determination to keep showing up, keep having the 
fights, and use the platform for the purpose for which it was 
intended.
    Senator Lee. OK. Thank you.
    Now, funding for some U.N. programs, including the U.N. 
Office on the High Commissioner--Office of the High 
Commissioner for Human Rights and the U.N. Environmental Fund--
are funded on a voluntary basis. Are there other programs that 
you think could be funded on a voluntary basis that are not, 
currently?
    Mr. Torsella. I would not want to express a judgment today 
about particular programs. And I'd also note that it is the 
strong view of the administration that assessed programs are a 
treaty obligation, but also, the administration believes 
voluntary programs are a platform from which we can argue 
effectively for looking broadly.
    What I'd say from following some of the discussions that 
have been going on over the last few months, and what I hear 
when people talk about the voluntary programs, is that they 
maintain a higher standard of transparency, a higher standard 
of accountability, and a very natural sense of wanting to be 
responsive to donors, and deliver results. I think those themes 
and things like sharing audit information are something that 
ought to apply across the board, period, in the U.N. system.
    Senator Lee. Right. Accountability is an important thing in 
any government or any quasi-government body or international 
group. And yet, within the United Nations, you don't have quite 
the same forces that apply here. It comes with some of the 
trappings of a legislative body. It appears, on some levels, to 
be something like that. And yet, the people serve on that body, 
not as elected representatives of any group of people, but as 
representatives of various countries. And some of the 
countries' officials are not, themselves, elected; some of them 
are despots and tyrants and so forth. So, accountability 
becomes a difficult thing. It's not like they can vote and then 
expect to be accountable to any one group of people. Is there 
anything we can do to offset the lack of accountability that 
happens as a result of that?
    Mr. Torsella. Well, the short answer is, I hope so. And the 
longer answer is that I don't want to give you the impression 
that my arrival is going to be greeted with ticker-tape parades 
and champagne.
    Senator Lee. It should be. It should be. [Laughter.]
    Mr. Torsella. Thank you, Senator.
    But, I believe--as I outlined, at the beginning of my 
testimony, a case that an effective U.N. is in our interest. 
But, I believe that it's also in the enlightened self-interest 
of the U.N., as an institution, and in the interest of many 
Member States, obviously not all, and never all. I will do my 
best to make that argument and to figure out the practical 
politics of moving these issues forward.
    There was recently, by the way, at great effort and cost to 
the U.S. political capital, the adoption by the General 
Assembly, for the first time ever, of a definition of 
accountability for all U.N. employees. That was a herculean 
struggle, and that's a start.
    Senator Lee. Great.
    Thank you very much, sir.
    Senator Casey. Thank you, Senator Lee.
    Senator Rubio.
    Senator Rubio. Thank you.
    Good morning, Mr. Torsella.
    A couple of questions. I want to build on what Senator Lee 
asked about the human rights entity. It has such distinguished 
members, now, as Libya and Angola. Libya, in fact, was approved 
by 145 of the U.N. Member States, which is appalling since 
Libya, today, is what they were back then, too. So, my question 
is, when the United States--when this administration made the 
decision to join the commission--you stated earlier--and I get 
the point you're trying to make--that you're not on the table, 
you're on the menu. The counterargument to that, however, is 
that joining it gives this organization, or this entity, 
legitimacy, that, in essence, it makes it look like a real 
organization, when, in fact, it appears to be largely a 
collection of human rights abusers, for the most part.
    So, obviously, you don't agree with that assessment. I 
would hope you can expand further on why it's important that we 
are a member of that. And the previous administration chose not 
to join it; they felt that our participation in it gave this 
organization legitimacy.
    Mr. Torsella. Thank you, Senator. And again, I want to be 
careful not to speak to decisions that I wasn't a part of, or 
to suggest that decisions will be only in my portfolio. But, 
the administration's view of vigorous engagement is the guiding 
principle, and has been the guiding principle, across the 
board, that with that engagement comes the opportunity to be a 
critic, when that's appropriate, and that that's easier to do, 
and easier to do effectively, when we're around the table.
    Now, I know that there are strong critics of the Human 
Rights Council. And I believe people of goodwill can disagree 
on this. There are strong critics of the Human Rights Council, 
though, who are glad that we're there to stand up, as we do. 
And there have been a number of votes that have been won--or, 
in the past, lost--by a margin of one, where there would have 
been some difference, if we weren't involved.
    I don't want to, even for a minute, suggest that it's an 
institution that is living up to what the hopes of the U.N. 
founders might have been. I don't want to suggest, for a 
minute, that the disproportionate and biased treatment of 
Israel ought to be acceptable. But, there has been progress 
made. And when you talk about, for example, the case of Libya 
being elected--a lot of what happened in the past was that--
because of the way that the election system worked, there were 
uncontested regional elections. And since engaging, the U.S. 
Government has been active in the politicking. And I think you 
saw, in the expulsion of Libya from the Human Rights Council, a 
historic first, may be one of the fruits of that policy.
    So, I would argue that we ought to continue to use our 
voices and our votes. And as I say, we will not win all those 
fights, but we will win more than if we weren't there.
    Senator Rubio. Well, that premises the notion that we would 
see behavior after we joined that looks different from behavior 
before we joined it. And yet, it's hard to find any examples of 
things that we prevented from happening.
    For example, the Council still has not addressed human 
rights violations in China, in Cuba, in Iran, and other places. 
In essence, I'm struggling to find examples of how joining it 
has actually influenced, or whether the Council continues to 
behave exactly the same way it did before we joined it. The 
only difference being, of course, that now the U.S. is a part 
of it. So, instead of pointing it out for what it is--you know, 
a charade--people can now say, ``But, you're a member, you're 
at the table, and ultimately, you've blessed and legitimized 
this process.''
    Mr. Torsella. Senator, I'd like to take the particulars of 
the cases you raised for the record and get you some further 
information.
    [The written information from Joseph Torsella follows:]

    Generally, I do believe that there are differences. Where on the 
spectrum they are between what the unacceptable reality is and where 
the ideal ought to be, I think we can both agree, they're at the real 
low end. But, in the case of action on Sudan, in the case of keeping 
Iran off, in the case of the number of special sessions devoted to 
Israel in the time that we were off versus the time that we were on, I 
do believe that it's progress. And so, we're both going to agree that, 
on the scale of where it ought to be, it is not moved nearly far enough 
along.
    While there is still much work to be done to reform the Human 
Rights Council into an institution that lives up to U.N. values and 
U.S. aspirations, in recent months, the Council has achieved several 
victories for human rights that could not have been accomplished 
without U.S. leadership and support:

  <bullet> In March 2011, the Council took assertive action to 
        highlight Iran's deteriorating human rights situation by 
        establishing its first country-specific Rapporteur--a Special 
        Rapporteur on the Human Rights Situation in Iran.
  <bullet> In February 2011, the United States played a pivotal role in 
        convening the Council's Special Session in which the Council 
        condemned the recent human rights violations and other acts of 
        violence committed by the Government of Libya, created an 
        independent Commission of Inquiry to investigate those 
        violations, and recommended to the U.N. General Assembly that 
        it suspend Libya's membership rights on the Council. Days 
        later, in an unprecedented consensus decision, the General 
        Assembly suspended Libya.
  <bullet> The United States was instrumental in galvanizing support 
        for a consensus resolution that marks a sea change in the 
        dialogue on countering offensive speech based upon religion or 
        belief through the ``Combating Discrimination and Violence'' 
        resolution, rejecting limitations on free speech and embracing 
        dialogue and education. This effort was lauded by the U.S. 
        Commission on International Religious Freedom.
  <bullet> After the violence following elections in Cote d'Ivoire last 
        December, we worked closely with the African Group to hold a 
        special session on the human rights crisis that was taking 
        place. This led directly to the establishment of a Commission 
        of Inquiry for Cote d'Ivoire in the March session.
  <bullet> In September 2010, the U.S. Government cosponsored a 
        resolution to create the first-ever Special Rapporteur to 
        protect Freedom of Assembly and Association, to monitor 
        crackdowns on civil society groups and advance protection of 
        the right to free assembly and association through its vigilant 
        exposure of state conduct.
  <bullet> Just last week, U.S. efforts led to a Human Rights Council 
        Special Session on the human rights situation in Syria 
        resulting in a resolution condemning the ongoing violence and 
        calling for a mission to investigate violations and ensure full 
        accountability.
  <bullet> The United States has maintained a vocal, principled stand 
        against the Council's biased focus on Israel. We've been there 
        to contest moves to single Israel out unfairly. The United 
        States is by far Israel's strongest supporter on the Council. 
        The Government of Israel has regularly expressed appreciation 
        for the role the United States plays in the Council. The March 
        session included six resolutions targeting Israel. The United 
        States opposed all six resolutions and issued strong 
        explanations of votes pointing out how biased and unhelpful 
        these resolutions are. We cast the only ``no'' vote on five of 
        these resolutions. If the United States were not on the 
        Council, we would not have the opportunity to make these 
        statements from the floor and these resolutions would have 
        passed by consensus.

    Mr. Torsella. Generally, I do believe that there are 
differences. Where on the spectrum they are between what the 
unacceptable reality is and where the ideal ought to be, I 
think we can both agree, they're at the real low end. But, in 
the case of action on Sudan, in the case of keeping Iran off, 
in the case of the number of special sessions devoted to Israel 
in the time that we were off versus the time that we were on, I 
do believe that it's progress. And so, we're both going to 
agree that, on the scale of where it ought to be, it is not 
moved nearly far enough along.
    Senator Rubio. And again, I know you didn't make this 
decision, but, I do want to drive the point home, because it's 
an important thing, going forward. Sudan is really low-hanging 
fruit. I mean--OK, Sudan. But, where we really--where an entity 
like this would really grow and be a legitimate entity that you 
could look at and say, ``Boy, I'm glad we have this,'' is for 
them to say something about--like torture and other outrageous 
things that are happening in places like China; the constant 
daily roundup of dissidents in Cuba and multiple other places 
like that, where they don't get to. On the other hand, they 
dedicate this inordinate amount of time to Israel. And so, it's 
hard for me to see where us joining this Council has changed 
what it is, other than the fact that us joining it may have 
given it legitimacy it once did not have.
    But, I want to--my time is running out--I did want to ask 
your view--and, in particular, the administration's view--on 
the propriety and effectiveness of using funding as leverage to 
achieve reforms. I think there is, in my opinion, a well-
documented history of U.N. reforms that have been the result of 
a congressional determination to withhold funding for the 
organization or certain functions of the organization. What are 
your views on it? What are the administration's views? Is this 
a legitimate tool in our arsenal that we will use to hopefully 
push for some of these reforms, or not?
    Mr. Torsella. Thank you, Senator. And I guess I would 
answer that I think that using the resources that we bring to 
bear to this as a tool is legitimate. The disagreement may be 
about whether using that means using the authority they give 
you, or withholding them at the beginning. And I think that's 
where the administration would differ.
    In terms of the assessed contributions that we make to the 
U.N., the administration clearly believes, and I agree, that we 
have a better ability to effect change by having paid our dues, 
as we have done, and that, within that U.N. budget, there are 
going to be things that we and any reasonable person ought to 
think are inappropriate. But, there are also things that are 
vitally important to our national interest--like the enormous 
programs that the U.N. is responsible for, in both Afghanistan 
and Iraq, where there are close to 4,000 civilians in the 
civilian surge, letting us bring our troops home--that is in 
the regular budget, for example.
    So, I don't disagree that we ought to use the position of 
being the largest funder, use the talents of the U.S. 
Government, and use that authority to speak for reform.
    Senator Rubio. I'm sorry. Now I'm over time. I want to ask 
one quick question. This administration has brought us current. 
What reforms have we gotten? What meaningful reforms have 
happened as a result of that?
    Mr. Torsella. Senator, I would hope to be able to give you 
the best answer to that after I've been on the job for a year 
or two, if I have the honor to be confirmed. There has been 
real progress in establishing the Office of Internal Oversight 
Services. There is a terrific and talented and independent and 
tough auditor, the Canadian, Carman LaPointe, who's the head of 
that. There is the new establishment of a U.N. ethics office, 
although its writ has not been extended far enough. And there 
has been, within the last week, the news report of the 
Secretary General instructing a 3-percent cut in the budget, 
from current levels, which is--that we may argue, and I 
probably will, about whether that's sufficient. But, that is 
the first time in 10 years that's happened.
    Now, against the larger story of some of the troubles that 
were revealed over the course of the last few years, are we 
where we need to be? No. But, I believe that we ought to use 
the investments that we've made to demand that those changes be 
made and to put together, carefully, the coalitions that it 
takes to get them.
    Senator Rubio. Thank you.
    Senator Casey. Thank you, Senator Rubio.
    I'll make three quick points before turning to--Senator 
DeMint, I know, has at least one question, if not more.
    First of all, on the question of Libya, what has transpired 
recently. We know that--as you noted in your testimony, that 
Libya's been suspended from the Human Rights Council. It was a 
unanimous vote, I guess, on March 1, if I'm correct. So, I 
think--I just wanted to amplify the record on that.
    Second, with regard to the important questions that Senator 
DeMint raised, I don't think there's much, if any, disagreement 
in this room that not only will the administration demand 
results from the U.N. and from the administration itself, but 
this committee will demand results. And I think the United 
Nations needs to know that, and the administration needs to 
know that, when it comes to those horrific crimes that were 
committed that Senator DeMint spoke to.
    And finally--and I would say, in the interests of further 
endorsing the nominee who is before us, Mr. Torsella, in his 
record--if you read his record, and read the results that come 
from that record, when it comes to all of these issues, in 
terms of getting results and ensuring that justice is served, 
especially for people that are vulnerable, I think he'll be 
unyielding, and will insist upon results.
    And one final point. Some of these issues are a little 
beyond his purview. I just want to note, for the record, the 
basic responsibilities of the U.S. Representative for the 
United Nations for Management Reform. It's, basically, five. 
One is on the issue of U.N. reform; second, budget management; 
third, fraud and mismanagement; fourth, procurement practices; 
and then, fifth, interaction with business. And I think that's 
a pretty broad portfolio, but I know that, even if a question 
arose that came across his radar screen that he had any voice 
that would speak--that he had a chance to speak to with his 
voice, I think it'll be unyielding, and not just getting 
results, but also protecting the vulnerable people.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    We'll keep honing in, here, on really, cleaning up the act 
of the U.N., because of its importance. I don't think anyone 
here is trying to undermine the importance. But, it has been 
frustrating, over the years, to see things that just were 
unaddressed that seemed so obvious.
    Right now, the acting director of the U.N.'s Investigation 
Division, Michael Dudley, is under investigation. The U.N.'s 
Internal Oversight Office is suffering from a lack of 
credibility. Secretary General ignores its recommendations. And 
the former head of the office wrote a scathing end-of-mission 
report, which described the Secretary General as unaccountable 
and unworthy of the position.
    If confirmed, will you use the voice and vote of the United 
States to ensure that a reputable, independent, and qualified 
chief investigator is appointed?
    Mr. Torsella. Yes. Senator, I think that goes to the core 
of giving every interested party an assurance that things 
really are different and there will be a new day. I think, as 
you know from your experience in government, the existence of 
oversight institutions which cannot be tampered with and that 
don't have their budgets and their authority changed is 
absolutely crucial. I think that is among the first items on my 
list. And having someone in that position, as well as having 
the staff slots on the Financial Crimes Unit of that office, 
which we were instrumental in demanding be formed--having those 
positions filled is virtually my highest priority.
    Senator DeMint. Well, thank you for your answers. Thank you 
and your family for being here. And I know we all look forward 
to your confirmation.
    Mr. Torsella. Thank you, Senator.
    Senator Casey. Thank you, Senator DeMint, our ranking 
member.
    And, Mr. Torsella, thank you very much. And I'm using the 
``Mr.'' to be formal here, but I--once in a while, I can call 
you Joe.
    But, you've done well in this hearing and in your previous 
engagement with this committee. We're grateful for your time 
and your commitment to public service. I think you've done well 
on behalf of your family and your friends and supporters in 
southeastern Pennsylvania. But, I want to note, for the record, 
that you're a proud son of Danville, Pennsylvania.
    So, we thank you very much.
    This hearing is adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]

       Additional Questions and Answers Submitted for the Record


        Responses of Joseph Torsella to Questions Submitted by 
                        Senator Richard G. Lugar

    Question. Various administration officials have stated that the 
administration is fighting hard to increase transparency, 
accountability, and budgetary restraint at the United Nations. However, 
few specific details have been offered about what reforms have been 
adopted and implemented to address these goals over the past 2 years.

  <bullet> Please provide a detailed account of the U.N. reforms 
        achieved at the behest of the United States over the past 2 
        years, the degree to which those reforms have been implemented 
        and are being observed, and specific examples of how those 
        efforts are serving to improve transparency and accountability 
        in the U.N. and resulting in reductions in the U.N. regular and 
        peacekeeping budgets.

    Answer. The administration has pushed aggressively for sound 
management and budgeting, accountability, and transparency at the U.N. 
For example, the United States has been a force in achieving the 
following recent reforms.
    1. In December 2008, the United States, along with other likeminded 
Member States, succeeded in securing a General Assembly resolution to 
transfer the function and caseload of the Procurement Task Force (PTF) 
to the Investigations Division of the Office of Internal Oversight 
Services (OIOS).
    2. As a result of strong U.S. leadership, the General Assembly in 
June 2009 endorsed a 3-year pilot for investigations hubs of the Office 
of Internal Oversight Services (OIOS) in Nairobi, Vienna, and New York 
designed to enhance investigative capacity in the field.
    3. In July 2009, with strong U.S. support, a new comprehensive 
internal justice system for addressing staff grievances came into 
effect that consists of professional and independent tribunals to 
expedite the resolution of cases and an informal dispute resolution 
process to enable staff to seek redress before resorting to litigation. 
The new internal justice system enhances transparency, fairness, 
efficiency, and accountability in the management of U.N. personnel.
    4. In the past 2 years, the United States has led efforts to 
streamline the U.N.'s myriad staff contract arrangements and 
harmonizing conditions of service across the U.N. system. In December 
2010, the General Assembly established parameters for granting 
continuing contracts and made significant strides in harmonizing the 
conditions of service for staff across the U.N. system serving in 
nonfamily duty stations.
    5. The United States played a leading role in the establishment of 
U.N. Women, which on January 1, 2011, consolidated four U.N. agencies 
into one, strengthening and streamlining the U.N.'s work to advance 
gender equality and women's empowerment.
    6. The United States led efforts in the Security Council to adopt 
Resolution 1820, which gives the U.N. better tools to combat sexual 
violence in conflict zones and established the first-ever U.N. Special 
Representative for Sexual Violence in Conflict in order to bring more 
focus on these serious issues.
    7. The United States succeeded in securing General Assembly 
adoption of the U.N. Global Field Support Strategy, which will yield 
greater efficiencies in administrative and logistics support for U.N. 
field operations.
    8. The United States was instrumental in achieving the passage of a 
General Assembly resolution in March 2010 on accountability that will 
hold U.N. officials responsible for safeguarding resources and 
achieving results.
    9. The United Nations has not established a single new peacekeeping 
mission in the past 2 years. In 2010, the U.N. peacekeeping budget 
decreased for the first time in 6 years. The United States supported 
the closure of MINURCAT (U.N. peacekeeping mission in Chad and the 
Central African Republic), saving up to $600 million per year. The 
United States also led efforts to end the U.N. Special Political 
Mission in Nepal once its contributions reached the point of 
diminishing returns.
    I would also like to mention two areas where the United States was 
successful in ensuring that hard-fought reforms remain in place. First, 
in 2009 during negotiations over the scale of assessment for the U.N. 
regular budget, the United States succeeded in beating back attempts to 
increase the U.S. share of the U.N. budget and thereby averted hundreds 
of millions in possible new assessments. Second, the United States in 
March 2010 was critical in securing a General Assembly resolution that 
preserves the existing mandates governing OIOS as well as those that 
allow access to OIOS reports by Member States. Maintaining access to 
OIOS audit reports is crucial to fulfilling our fiduciary 
responsibilities and building a culture of transparency and 
accountability at the U.N. The United States continues to ensure that 
OIOS has the resources it needs and serves as the primary investigative 
oversight role in the U.N.
    The administration's commitment to U.N. reform is clear, as is the 
need for much more to be done throughout the U.N. system. If confirmed, 
my mission would be to build on the progress made to accelerate the 
implementation of reforms that would make it more efficient, 
transparent, and productive.

    Question. The U.N. Headquarters is undergoing a major renovation.

  <bullet> What is the current projected budget of the Capital Master 
        Plan?
  <bullet> Is the CMP schedule on time?
  <bullet> What is the next major benchmark?
  <bullet> What is the cost to the United States for the CMP?
  <bullet> Will the administration require any additional funding?

    Answer. In 2006, the U.N. General Assembly approved a project 
budget of $1.88 billion in 2006 for the U.N. Headquarters renovation. 
The United States is paying 22 percent: $75.5 million annually over 5 
years, plus contributions made during the design phase for a total of 
approximately $415 million.
    Construction began in May 2008 and is expected to be complete in 
2014, with the project being bid in multiple parts. Additional time is 
being built into the project schedule in order to complete perimeter 
security enhancements.
    During 2011, construction work will continue on the Secretariat and 
Conference buildings and the basement areas of the complex. The 
Secretariat building is scheduled for completion in 2012. Work on the 
General Assembly building will commence in 2012 as well.
    The U.N. has been steadily reducing the projected cost overruns on 
the project and remains confident this project will be completed on or 
very close to budget. The U.N. continues to work with its design team 
to find ways to reduce costs through the value engineering process and 
has been able to bring some parts of the project in under budget 
through competitive bidding and tough negotiations. This does not take 
into account additional costs of approximately $162.5 million for items 
related to but not included in the scope of the Capital Master Plan 
such as permanent furnishings and construction security. The General 
Assembly is expected to consider in the fall how these costs will be 
financed (i.e. through the CMP budget or in the regular budget) given 
that the U.N. has indicated not all of these costs will be able to be 
absorbed within the Capital Master Plan budget.

    Question. Earlier this year, the House voted on legislation to seek 
the reimbursement of $179 million owed to the United States from the 
U.N. Tax Equalization Fund. On the morning of the vote, the State 
Department notified Congress that it had given the U.N. $100 million of 
that money to the U.N. for unspecified security upgrades.

  <bullet> Who authorized this decision and when was the decision made?
  <bullet> Under what legal authority did the State Department make 
        that decision?
  <bullet> Have you received a detailed plan for those upgrades and a 
        comprehensive explanation of how the U.N. arrived at the $100 
        million cost for the upgrades?
  <bullet> Why weren't these upgrades included as part of the U.N. 
        Capital Master Plan, which would have reduced the U.N. share of 
        the costs from $100 million to $22 million?
  <bullet> Does Congress have your guarantee that none of the $100 
        million will be used to pay for upgrades inside the U.N. 
        building or on the grounds or for any other purpose that should 
        be handled jointly by the U.N. Member States under the Capital 
        Master Plan?
  <bullet> Is it true that the city of New York requested these 
        changes--please provide a copy of any such request.

    Answer. Under Secretary Kennedy informed the relevant committees, 
including the Senate Foreign Relations Committee, in a December 29, 
2010, letter that the United Nations is taking action to address 
significant physical security concerns related to the protection of the 
U.N. Headquarters complex in New York and will use $100 million from 
the U.N. Tax Equalization Fund (TEF) to fund these critical 
enhancements. It is the view of the Department of State that the United 
Nations' application of those fund balances, since the original U.S. 
contributions had been previously obligated and disbursed, does not 
require further authorization under U.S. law.
    I would make it a high priority, if confirmed, to see that the 
formulas and procedures related to the TEF are changed so that such 
fund balances do not accrue in the future.
    In a January 11, 2011, letter to the U.N., Under Secretary Kennedy 
acknowledged the United Nations' use of these funds, and, to ensure 
appropriate oversight of the project, asked that the United Nations 
provide detailed monthly updates on its status.
    In response to this request, the U.N. has agreed to provide the 
Department with monthly reporting on the project's progress and the 
associated use of funds. This report provides a mechanism for the 
United States to monitor how the funds are being expended and to ensure 
that it is consistent with the agreed elements of the project. I have 
been informed that providing structural upgrades within the U.N. 
complex is the best practical measure for mitigating the security 
threat from adjacent New York City streets, given the inability to 
close or realign those streets. As a result, some of the work to 
implement the perimeter security enhancements will be completed within 
the U.N. complex.
    The U.N. had shared plans and cost documents with the Department on 
the security work it plans to undertake as a result of extensive 
consultations with the Department and the city of New York. The city of 
New York has urged the U.N. to incorporate more stringent security 
measures into the ongoing renovations [see attachment].
    These heightened security requirements evolved during the execution 
of the CMP. In recent years the U.N. has faced increasing attacks 
around the world, such that the threat environment for the institution 
had significantly increased. The proposed upgrades adapt the project 
design to the new threat environment since the CMP scope originally 
agreed in 2006 was based on a lower anticipated threat level. I 
understand that in order to fully integrate the perimeter security 
enhancements into the CMP, General Assembly agreement would have been 
needed, which would have further delayed vital upgrades to the 
Conference Building, and would have likely resulted in cost escalation 
for the overall CMP.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. The Secretary General called for the next U.N. budget to 
be cut by 3 percent. As you know, the current proposed 2-year budget 
for 2012 and 2013 is $5.5 billion.

  <bullet> What areas would the administration like to see reduced or 
        eliminated from the U.N. budget?
  <bullet> On what basis are these cuts being justified since the U.N. 
        has failed to follow through with its mandate review?
  <bullet> Why do U.N. funds and programs that receive vast amounts of 
        funding such as UNEP and UNWRA, which both receive less than 5 
        percent of their budgets from the U.N. regular budget still 
        receive funding through the U.N. regular budget? Shouldn't the 
        United States look to trim the U.N. regular budget by ending 
        the token support for these offices through the regular budget?
  <bullet> In December 2009, the U.N. approved a 2-year budget of 
        $5.156 billion for 2010 and 2011. Thus, even assuming that the 
        Secretary General is able to get a 3-percent cut from the 
        proposed budget, the U.N. budget would be growing by 3 percent 
        based on the previous budget. As you know, the U.N. budget has 
        grown even faster than the U.S. budget since 2000. Is that 
        expansion justified?
  <bullet> Do you think that the Secretary General's proposed 3-percent 
        budget cut is sufficient?
  <bullet> Why doesn't the United States insist on a zero-growth budget 
        proposal based on the initial proposal in 2009?

    Answer. The United States has consistently sought to make 
reductions in those areas of the U.N. budget where resources are not 
being utilized as efficiently and effectively as possible. We believe 
the U.N. can meet its responsibilities without growing the budget by 
increasing efficiencies through streamlining processes, examining 
structural costs at all levels, eliminating unproductive administrative 
practices and obsolete functions, leveraging modern technology, and 
adopting proven best practices. We also believe that the U.N. should 
critically review its staffing levels and opportunities for competitive 
contracting of some services. These efforts to increase efficiencies 
and reduce the budget can be accomplished without eliminating mandates. 
However, it is important to recognize the difficulties inherent in 
trying to achieve U.S. priorities within the U.N.'s framework of 
universal membership and consensus-based decisionmaking. The U.S 
Government strives to strike a balance between making what reductions 
are possible while also maintaining the support needed from others to 
achieve our highest diplomatic and security priorities.
    For programs such as UNWRA and UNEP, my understanding is that the 
USG goal has generally been to prevent the provision of additional 
resources from the U.N. regular budget.
    In 2010, the General Assembly invited the Secretary General to 
prepare the 2012-13 biennium budget on the basis of the $5.397 billion 
estimate, reflecting an increase of less than 1 percent over the 
current 2010-11 biennial budget of $5.367 billion. Although the U.N. 
regular budget has more than slightly doubled since the 2000-01 
biennium, Special Political Missions (SPMs) have increased from $115.3 
million to $1.2 billion during this same period, with much of the 
increase in SPMs attributable to the U.N. Assistance Missions in Iraq 
and Afghanistan. As we work to contain unnecessary growth in the U.N. 
budget, we must keep in mind the extent to which U.S. priorities have 
contributed to expansion of the regular budget.
    While I do not believe that any single step, such as the Secretary 
General's proposed 3-percent reduction, is itself sufficient to achieve 
the effective, economical U.N. we hope for, I strongly support the 
Secretary General's initiative to try to implement a 3-percent 
reduction in the regular budget. This would be the first proposed 
reduction compared to the previous year of spending in 10 years. It is 
notable that the U.N. has recognized the need to demonstrate greater 
budget discipline in response to the difficult budgetary environment 
faced by many Member States. This initiative will create challenges for 
the U.N. given such exercises have typically been poorly received by 
many Member States. However, if the Secretary General is successful in 
putting this forward to the General Assembly, it offers a more 
favorable basis for discussions on the 2012-13 budget during the fall 
UNGA, which we and many like-minded Member States will seek to 
capitalize on. We will work with other Member States to achieve a 
budget outcome that reflects restraint while allowing the U.N. to 
maintain operational effectiveness.

    Question. Please provide a breakdown (by percent and dollar figure) 
showing the top five recipient countries of U.N. procurement orders for 
the following U.N. agencies/offices/programs, for the most recent U.N. 
fiscal year: U.N. Peacekeeping operations; World Food Programme; U.N. 
Capital Master Plan; UN/UNDP Headquarters in New York.

    Answer. U.N. Systemwide: Across the entire U.N. system, which 
includes the U.N. Secretariat, funds and programs, and specialized 
agencies, procurement orders totaled $13.8 billion in 2009*. The 
breakdown of the top five recipient countries of procurement contracts 
systemwide is as follows:

------------------------------------------------------------------------
            Countries                                        Percent
------------------------------------------------------------------------
United States....................     $1,734,000,000           12.57
Switzerland......................        843,800,000            6.11
India............................        676,700,000            4.90
Sudan............................        641,700,000            4.65
Russian Federation...............        463,200,000            3.36
Other............................      9,440,600,000           68.41
------------------------------------------------------------------------
* A thorough breakdown for 2010 is not yet available.


    U.N. Capital Master Plan (CMP): Skanska trade contracts represent 
the majority of CMP procurement orders. The Skanska trade contracts for 
2009 * total $633,197,529. The breakdown of the top five recipient 
countries of CMP procurement contracts is as follows:

------------------------------------------------------------------------
            Countries                                        Percent
------------------------------------------------------------------------
United States....................       $605,363,903         **95.60
Mexico...........................          8,055,998            1.27
Germany..........................          2,243,446            0.35
Canada...........................          1,113,347            0.18
China............................          1,048,412            0.17
Other............................         15,372,423            2.42
------------------------------------------------------------------------
* A thorough breakdown for 2010 is not yet available.
** Of the total procurement contracts.


    U.N. Peacekeeping Operations: The Department of Peacekeeping 
Operations (DPKO) procurement for 2010 totaled $2,483,011,729. The 
breakdown of the top five recipient countries of DPKO procurement 
contracts is as follows:

------------------------------------------------------------------------
            Countries                                        Percent
------------------------------------------------------------------------
Sudan............................       $269,614,943           10.86
United States....................        187,838,135            7.56
Switzerland......................        139,590,239            5.62
Italy............................        132,391,948            5.33
Panama...........................         75,360,992            3.03
Other............................      1,678,215,472           67.59
------------------------------------------------------------------------


    World Food Programme (WFP): In 2010, WFP globally procured 
3,166,320 metric tons of food commodities, with a total cash value of 
US$1,250,000,000. The breakdown of the top five recipient countries of 
WFP procurement contracts is as follows:

------------------------------------------------------------------------
            Countries                                        Percent
------------------------------------------------------------------------
Pakistan.........................       $214,356,000           17.15
Ethiopia.........................         88,416,000            7.07
South Africa.....................         65,738,000            5.26
Ukraine..........................         63,644,000            5.09
Indonesia........................         60,235,000            4.82
Other............................        757,611,000           60.61
------------------------------------------------------------------------


    United Nations Development Programme (UNDP): The UNDP awarded 
$252,109,847 worth of contracts in 2010. The breakdown of the top five 
recipient countries of UNDP procurement contracts is as follows:

------------------------------------------------------------------------
            Countries                                        Percent
------------------------------------------------------------------------
Germany..........................        $64,744,075           25.69
The Netherlands..................         36,759,115           14.58
Germany/Cyprus*..................         35,108,085           13.93
Austria..........................         30,643,265           12.15
India............................         16,155,931            6.41
Other............................         68,699,376           27.25
------------------------------------------------------------------------
* The contract was jointly awarded to both countries, and a breakdown
  was not provided.


    Question. As you may be aware, some have expressed concern with a 
February 2009 report by the U.N. Independent Audit Advisory Committee 
(IAAC), Vacant Posts in the Office of Internal Oversight Services, 
which found that OIOS had vacancies in over 27 percent of its 
authorized posts, including all three director-level positions. The 
report expressed concern that the high vacancy rate will have an 
``adverse impact on the capacity and ability'' of OIOS to accomplish 
its work. Please provide a staffing pattern for OIOS showing all 
positions and indicating which are vacant and the length of their 
vacancy. Identify which positions are encumbered by American nationals.

    Answer. I am providing the most recent staffing chart for OIOS, 
dated February 28, 2011.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. In your remarks to the committee, you mentioned concern 
regarding the U.N.'s Whistleblower policy. What are the strengths and 
weaknesses of the current policy?

    Answer. In 2005, the Secretary General issued the U.N. 
whistleblower protection policy (ST/SGB/2005/21). This policy was 
developed after months of consultation with outside experts and State 
Department officials. The Government Accountability Project, a public 
advocacy group dedicated to advancing corporate and public 
accountability and promoting whistleblower protections, hailed the U.N. 
whistleblower policy as the ``benchmark for other Intergovernmental 
Organizations (IGOs)'' to follow.
    The U.N.'s whistleblower policy clearly establishes that reporting 
misconduct and cooperating with U.N. audits and investigations are 
protected activities. It also establishes a recourse mechanism for U.N. 
personnel who are subjected to retaliation or threatened with 
retaliation.
    While the Secretary General's ethics framework for the U.N. funds 
and programs (ST/SGB/2007/11) created the U.N. Ethics Committee to 
unify ethical standards across organizations, whistleblower protections 
vary greatly across the various funds and programs. Compared to the 
Secretariat's policy, whistleblower protections at the funds and 
programs are considered weaker and less comprehensive. If confirmed, I 
would work to ensure the strengthening and implementation of 
whistleblower protections throughout the U.N. system.

    Question. As part of your pledge to help institute oversight 
responsibilities, if confirmed, will you continue the policy 
established during the Bush administration of posting U.N. audits on 
the USUN Web site? If not, why not?

    Answer. The Obama administration has continued the practice of 
posting audits by the U.N. Office of Internal Oversight Services (OIOS) 
on USUN's public Web site, and if confirmed I plan to continue to post 
U.N. audits on USUN's public Web site.
    You can find these reports at: http://usun.state.gov/about/
un_reform/oios/index.htm.

    Question. The United Nations Development Program is a major 
implementer for the Global Fund to Fight AIDS, Malaria, and 
Tuberculosis. According to the UNDP, as of January 2011, UNDP is 
currently Principal Recipient in 27 countries, managing a total of 60 
active grants amounting to more than $1.1 billion. Policies of the 
Executive Board of the UNDP only allow Member States, not 
nongovernmental organizations such as the Global Fund or World Bank, 
access to internal audits, even when fraud is suspected in the grants.

  <bullet> What actions should the United States pursue to increase the 
        transparency and ensure the integrity of United States taxpayer 
        investments in the Global Fund that are managed through UNDP?

    Answer. The United States is committed to ensuring Global Fund 
resources reach people in need and are used as effectively and 
efficiently as possible to save lives. We strongly support the Global 
Fund's Office of the Inspector General (OIG), and its ongoing efforts 
to strengthen the Global Fund's oversight systems. We have consistently 
advocated for increased transparency, accountability, and oversight 
over U.S. contributions to the Global Fund, including Global Fund 
resources managed by UNDP.
    The United States has had high-level discussions with UNDP 
management on the importance of sharing relevant audit information with 
the Global Fund's OIG and cooperating with the OIG in instances of 
suspected fraud. While UNDP does not currently share its internal audit 
reports with the Global Fund, UNDP has taken several interim steps to 
coordinate with the Global Fund's OIG, including (1) consulting with 
the OIG on development of UNDP's annual audit plan; (2) sharing 
summaries of UNDP's Global Fund-related audits; and (3) bringing 
potential irregularities involving Global Fund projects to the 
attention of the OIG whenever and wherever they are found. These steps 
are helpful but not sufficient, and the United States is continuing to 
push for full Global Fund access to relevant UNDP audit reports.
    With strong U.S. encouragement, UNDP management has agreed to 
present options for allowing increased access to its audit reports to 
the UNDP Executive Board for consideration and approval in September 
2011. The United States is working to build support among UNDP Board 
members for amendments to UNDP's audit disclosure policies that would 
allow increased transparency, accountability, and oversight over 
resources under UNDP management.
    In addition, the United States is committed to sound management and 
accountability within the Global Fund and strongly supports the 
establishment of the Global Fund Board's Comprehensive Reform Working 
Group and the High-Level Panel on Global Fund Fiduciary Controls and 
Oversight, which is being chaired by Former Secretary for Health and 
Human Services, Michael Leavitt, and the former President of Botswana, 
Festus Mogae.

    Question. On March 1, 2011, the United Kingdom Department for 
International Development issued a Multilateral Review. This report 
evaluated the 43 international funds and organizations to which the 
United Kingdom contributes on value for the money and each fund's and 
organization's effectiveness in combating poverty, taking in account 
transparency and accountability. In trying to maximize our multilateral 
investments, should the Department of State, in consultation with USAID 
and Department of Treasury conduct a similar study?

    Answer. I am reviewing the DFID Multilateral Review and look 
forward to discussing its findings with U.N. officials, if confirmed.
    A broad and standardized review of agency performance, such as the 
DFID Review, is a worthwhile approach that merits thorough and 
thoughtful consideration. If confirmed I would review the suggestion of 
such a study carefully, against the background of the U.S. Government's 
current evaluation mechanisms.
    I understand that the previous U.S. Ambassador for Management and 
Reform established the U.N. Transparency and Accountability Initiative 
(UNTAI) to verify that concrete improvements in management and 
accountability are being made by the U.N. system. If confirmed, I look 
forward to reviewing the successful UNTAI initiative and possibly 
improving its usefulness and relevance. In the current budget 
environment, it is important for international organizations to show 
that they are having the impact that recipients and donors expect. If 
confirmed, one of my main tasks will be to assess the U.N.'s 
performance and push for improvements wherever necessary. I would keep 
Congress, and this committee in particular, fully informed of what I 
find.


                               NOMINATION

                              ----------                              


                        TUESDAY, MARCH 29, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Suzan D. Johnson Cook, of New York, to be Ambassador at Large 
        for International Religious Freedom
                              ----------                              

    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-19, Dirksen Senate Office Building, Hon. Barbara Boxer, 
presiding.
    Present: Senators Boxer, Menendez, Lugar, DeMint, and Lee.
    Also Present: Senator Gillibrand.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Could you take your seat, and we will start.
    The full Foreign Relations Committee of the Senate meets to 
consider the nomination of Dr. Suzan B. Johnson Cook to be 
Ambassador at Large for International Religious Freedom.
    Last month, President Obama nominated Dr. Cook to be the 
Ambassador at Large for International Religious Freedom for the 
second time. Dr. Cook was nominated for this post in the last 
Congress, but the Senate did not complete action on her 
nomination before adjourning in December.
    We hope Dr. Cook's second nomination hearing in 5 months 
will give all members of this committee the opportunity they 
need to complete questioning of Dr. Cook so that we can get her 
into her position as soon as possible.
    This nomination is very important, particularly to 
Secretary of State Hillary Clinton, who specifically requested 
that we move on Dr. Cook's nomination when she appeared before 
this committee a few short weeks ago. During that hearing--hang 
on.
    [Pause.]
    Senator Boxer. During that hearing, Secretary Clinton noted 
that she believes Dr. Cook's professional background and 
demeanor are particularly well suited for the post. Dr. Cook 
holds a Doctor of Ministry from the United Theological Seminary 
and a Master of Divinity from the Union Theological Seminary, 
in addition to a number of other professional degrees.
    From 1996 to 2009, she was the senior pastor at the Bronx 
Christian Fellowship Baptist Church. She also served as the 
first female president of the Hampton University Ministers 
Conference, which brings together thousands of African-American 
clergy members from various denominations across the country.
    You are a real pioneer here for women. You were the first 
female chaplain of the New York City Police Department; served 
as an associate dean of Harvard Divinity School at Harvard; 
served on the advisory board of President Bill Clinton's 
Initiative on Race. Most recently, she founded Wisdom Women 
Worldwide, which brings together women religious leaders from 
all over the globe.
    If confirmed, Dr. Cook will serve as the principal adviser 
to the President and the Secretary of State on matters 
affecting religious freedom abroad, and we all know how 
important that is. She will be specifically charged with 
developing strategies and policies to promote religious freedom 
around the world, recommending appropriate responses by the 
United States when violations of religious freedom occur, and 
helping to promote reconciliation in areas where religion is a 
factor in conflicts. And again, we know this happens too often.
    These are important responsibilities that will require 
tremendous dedication and persistence. In December 2009--would 
you just sit in any one of those chairs that you wish? In 
December 2009, the Pew Research Center's Forum on Religion and 
Public Life issued a report highlighting the fact that 64 
nations in the world have high or very high restrictions on 
religion. Religious minorities bear the brunt of these 
restrictions.
    The people living in these countries account for nearly 70 
percent of the world's population of 6.9 billion. These figures 
are staggering and should serve as a reminder of why we should 
quickly fill this post.
    As Secretary Clinton has said, ``Religious freedom provides 
a cornerstone for every healthy society.'' At this time of 
tremendous change throughout the world, it is more important 
than ever that there be a strong voice from the United States 
to stand up for those who may be enduring brutality or seeing 
their rights slip away for no other reason than their religion.
    And I am going to turn to Senator DeMint for any comments 
he may have, unless he yields to Senator Lugar. It is up to 
Senator DeMint.
    Senator DeMint. Senator Lugar, would you like to go first?
    Senator Boxer. Either way. All right.
    Then I will turn a moment and as soon as my colleagues 
finish, I am going to call on Senator Gillibrand because I know 
that she will briefly introduce Dr. Cook, and she is excited to 
do that. And then I know she has to depart for another 
commitment. But can you wait until the two Senators? OK.
    Let us do it, 5 minutes each. Yes?

             OPENING STATEMENT OF HON. JIM DeMINT,
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Madam Chairman.
    Thank you, Dr. Cook. I appreciate your being here.
    And thank you for your willingness to serve our country.
    The Ambassador at Large for International Religious Freedom 
is intended to be the principal adviser to the President of the 
United States and the Secretary of State regarding matters 
affecting religious freedom abroad. This person also advises 
the U.S. Government on our policies, including appropriate 
responses when rights are violated.
    Religious freedom is a very serious issue and requires 
effective leadership, attention, and, when necessary, pressure. 
Religious freedom is a cornerstone of the foundation that makes 
democracy and free enterprise work worldwide. Whether in Iraq, 
in Afghanistan, where we are giving blood and treasure, or 
India, the world's largest democracy where they are on the 
watch list for failing to ensure the rights of religious 
minorities, religious freedom must be a priority of our Nation.
    As you know, there have been questions raised about the 
long vacancy of this post, who controls the International 
Religious Freedom Office, and how much of a priority this 
office is to the State Department. Just as important, there are 
a number of indications that international religious freedom is 
not your passion, nor your area of particular expertise.
    Having an Ambassador that is well respected and prepared to 
address the challenges we face today is important to me and 
vital to our country. In fact, it is one of the biggest issues 
that I hear about around the world from missionaries and others 
doing humanitarian aid is the concern that the people we have 
there could not even openly practice their faith because of 
oppressive governments or the lack of freedom of religion.
    And frankly, I have found it takes a very compelling 
argument and a lot of pressure to even get these other 
governments to listen to these concerns. So I am concerned 
about a person in this position we are talking about having the 
passion, the courage, the boldness to deal with this issue.
    But thank you for being here. I am interested in hearing 
from you and look forward to your vision, your leadership for 
this position.
    Senator Boxer. Thank you, Senator, very, very much.
    And Senator Lugar, and then followed by Senator Gillibrand.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Madam Chairman.
    Today, the Foreign Relations Committee again considers the 
nomination of Dr. Suzan Johnson Cook to serve as Ambassador at 
Large for International Religious Freedom. If confirmed, the 
nominee would serve as principal adviser to the President and 
Secretary of State on religious liberty issues.
    Her responsibilities would include submitting the annual 
report on the state of religious freedom to Congress, engaging 
other nations on religious freedom issues, and recommending 
appropriate responses to violations of religious liberty.
    Before Dr. Cook's hearing in November, I submitted 37 
questions for the record to her regarding the organization and 
mission of the Office of International Religious Freedom, as 
well as countries of particular concern, such as Burma, China, 
Iraq, Iran, North Korea, and Sudan. I appreciate Dr. Cook's 
answers to these questions, as well as several more that I have 
submitted since that time. Dr. Cook's answers are posted on my 
Web site for members and the public to review.
    During the last decade, the Office of International 
Religious Freedom has engaged numerous countries on ways to 
improve their religious freedom practices. For example, an 
agreement negotiated with Vietnam involved new laws on 
religion, the release of dozens of religious prisoners, and the 
reopening of hundreds of places of worship. The office worked 
extensively in Saudi Arabia to remove intolerant teachings from 
school books and to advocate for the right of religious 
minorities to hold meetings. Advances of this type require 
painstaking diplomacy, but I believe it is important for the 
U.S. Government to be seen unmistakably as an advocate for 
religious freedom.
    Dr. Cook, if confirmed, will have a difficult challenge 
ahead of her. The administration waited a year and a half 
before making this appointment, leaving the IRF office without 
the leadership and institutional strength that comes with an 
ambassador. Inevitably, this was perceived as a signal that the 
administration did not place a high priority on the role of the 
IRF Ambassador.
    At the end of the last Congress, this nomination was 
delayed further when the nominee did not get a vote in the 
Senate. I join many Members of Congress who believe that the 
IRF office has a vital role to play in U.S. foreign policy. The 
office has shown that it can produce excellent results if it 
enjoys institutional backing from the State Department and the 
White House.
    It is especially important that Dr. Cook has access to the 
Secretary of State and other top decisionmakers; that she has 
hiring and supervisory authority over her staff; that the staff 
is allowed to focus on the core mission of international 
religious freedom; and that the office retains independence and 
has sufficient operating funds.
    I welcome Dr. Cook to the Foreign Relations Committee and 
look forward to her insights on religious freedom priorities.
    I thank you, Madam Chairman.
    Senator Boxer. Thank you so much. We are very honored that 
you are here, both of you. We are very happy.
    And Senator Gillibrand.

             STATEMENT OF HON. KIRSTEN GILLIBRAND,
                   U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you, Madam Chairwoman.
    I am delighted to be here today to introduce Dr. Suzan 
Johnson Cook for the position of Ambassador at Large for 
International Religious Freedom.
    Chairwoman Boxer, Ranking Member DeMint, I really 
appreciate you holding this hearing. It makes an enormous 
difference, and I am very grateful to be here.
    Not only has Dr. Cook distinguished herself as a New 
Yorker, she clearly has the experience and qualities needed to 
be a successful Ambassador at Large. And Senator DeMint, you 
have asked for passion, concern, and boldness. I can assure you 
Dr. Cook has so much of each of those qualities, she will not 
only astound you, she will very much fit the bill.
    She is a religious leader of high character and 
accomplishment, having served as the first woman senior pastor 
at the American Baptist Churches USA and the first female 
chaplain of the New York City Fire Department. Beyond her 
pastoral experience, she has been a leader in bridging faith 
and public service. She served with distinction in the Clinton 
White House and as a faith liaison at the U.S. Department of 
Housing and Urban Development.
    She is also experienced working at the international level, 
having led delegations to critical countries, such as South 
Africa, Israel, Jordan, and Egypt. Additionally, she is the 
immediate past president of the Hampton University Ministers 
Conference and founder of the Wisdom Women Worldwide, the first 
global center for women religious leaders.
    As you know, religious minorities have recently suffered 
from recent attacks in a number of countries, including 
Indonesia, Pakistan, and Egypt. It is urgent that we promptly 
confirm an Ambassador at Large for International Religious 
Freedom. It is vital that the United States has the leadership 
in place to work with the international community to protect 
the rights of religious minorities and advance the cause of 
religious freedom and tolerance across the globe.
    I believe Dr. Cook will represent our country with great 
honor and distinction, and with great enthusiasm, I support 
this nomination as Ambassador at Large for International 
Religious Freedom.
    And Dr. Cook, when you do give your testimony, please 
introduce your family.
    Senator Boxer. Thank you, Senator.
    Dr. Cook.

    STATEMENT OF SUZAN D. JOHNSON COOK, OF NEW YORK, TO BE 
    AMBASSADOR AT LARGE FOR INTERNATIONAL RELIGIOUS FREEDOM

    Dr. Cook. Madam Chair, Senator Gillibrand, and members of 
the committee, thank you so much for the opportunity to appear 
before you today.
    I am truly grateful for your consideration of my nomination 
by President Obama as United States Ambassador at Large for 
International Religious Freedom. I am deeply honored by the 
trust that President Obama and Secretary Clinton have placed in 
me by nominating me to serve our Nation in advancing the right 
for religious freedom.
    I would like to thank my family and extended family, who 
are here with me today. This whole section here represents my 
family and extended family and two sons who have returned to 
school for premed and for law. I would like to thank them for 
your sacrifice, for your love, and for your endurance, and, 
most of all, your presence today.
    As President Obama so eloquently stated in his historic 
speech in Cairo in 2009, ``People in every country should be 
free to choose and live their faith based upon the persuasion 
of the mind and the heart and the soul.''
    Religious freedom is the birthright of all people 
everywhere. It is a foundation of civil society. It is a key to 
international security, and it must always be a pillar of U.S. 
foreign policy.
    The dramatic events in the Middle East and North Africa 
remind us that the desire for freedom within the human spirit, 
that inherent desire of all people to live according to their 
beliefs without government interference and with government 
protection should be had. Secretary Clinton has also made clear 
that we need to do much more to stand up for the rights of 
religious minorities. She also said we must speak out more and 
hold governments accountable. If confirmed, this will be my 
core mission.
    In my travels, I have found that my experience as an 
African-American woman and faith leader has enabled me to 
identify with other minority communities, both religious and 
ethnic. African-Americans, as you know, did not enjoy full 
religious freedom in this land for centuries, and religion was 
used by many to justify slavery and segregation. So I am 
particularly committed to this issue in the United States, for 
people of all faiths around the world.
    Immediately following and since the attacks of 9/11, where 
I served on the front line as the chaplain for the New York 
City Police Department, I have been called upon to aid many 
citizens from many faiths and diverse national backgrounds. We 
were tragically reminded just weeks ago that the universal 
value of religious freedom is not embraced by all. The 
assassination of Shahbaz Bhatti, Pakistan's Minister for 
Minority Affairs and a courageous champion for religious 
freedom, is a painful reminder that our challenge is not easy. 
It requires an unwavering commitment to support those around 
the world who are risking their lives to stand up for religious 
freedom.
    If confirmed, I will carry out the full congressional 
mandate, as established in the IRF Act, including serving as 
the principal adviser to the President and the Secretary of 
State on religious freedom. I will bring bold and passionate 
leadership to advance and defend religious freedom abroad. I 
will ensure the integrity of the annual international religious 
freedom report to Congress and draw on these reports, while 
engaging governments and societies toward safeguarding the 
right of individuals to believe or not to believe.
    If confirmed, I will press for the timely and appropriate 
designation of countries of particular concern and Presidential 
actions, a critical tool to motivate progress on religious 
freedom. And I will seek to expand training projects that 
address systemic issues, including blasphemy, apostasy, and the 
right to change one's religion.
    The life and professional background I offer this position 
is unique. My international experiences have particularly 
shaped my perspectives. I have brought people of different 
faiths together to achieve common objectives, including 
religious freedom and respect for people of all faiths and 
beliefs.
    I have traveled to five continents to engage Muslims, 
Catholics, Orthodox Christians, Protestants, Jews, and those of 
other spiritual traditions. I have led interfaith delegations 
to Israel, Jordan, and Egypt, and the Caribbean. And I have 
worked with World Vision in Ruschlikon, Switzerland, in its 
efforts to combat global poverty.
    In Zimbabwe and South Africa, I met with Zulu faith leaders 
to promote religious freedom and tolerance. And I have worked 
and lived with Operation Crossroads Africa, having participated 
in a cross-cultural exchange group with spiritual groups in 
Ghana, Liberia, and Nigeria.
    Now, if confirmed, I will also engage grassroots faith-
based communities, which have enormous impact on cultivating a 
climate more receptive to religious freedom in difficult 
places. As a religious leader myself, I would bring this 
perspective to encourage diverse religious communities to 
jointly defend and advance religious freedom and foster a 
climate of mutual respect.
    America has learned much from our experience with religious 
diversity. We must share our lessons, stand with the 
persecuted, and encourage all governments to respect and 
protect the universal rights of all people.
    As President Obama said on Religious Freedom Day on January 
14, ``The United States stands with those who advocate for free 
religious expression and works to protect the rights of all 
people to follow their conscience, free from persecution and 
discrimination.''
    If confirmed, I will seek to work with all religious 
groups, as well as human rights organizations, think tanks, 
universities, media partners, foreign governments, Congress, 
and of course, the U.S. Commission on International Religious 
Freedom, or USCIRF. I will work with colleagues across our 
Government to assure that, together, we advance religious 
freedom. The mission is too important to be left to one 
official or one office in the U.S. Government.
    If confirmed, I especially look forward to working closely 
with you, Congress, in advancing this agenda together on behalf 
of the American people, our national interests, and the values 
that we all hold dear.
    I thank you for considering my nomination. I thank you for 
this opportunity for a hearing, and I look forward to answering 
any questions you may have.
    Thank you.
    And thank you for your introduction.
    [The prepared statement of Dr. Cook follows:]

              Prepared Statement by Suzan D. Johnson Cook

    Madam Chair and members of the committee, thank you for this 
opportunity to appear before you today. I am truly grateful for your 
consideration of my nomination by President Obama as United States 
Ambassador at Large for International Religious Freedom. I am deeply 
honored by the trust that President Obama and Secretary Clinton have 
placed in me by nominating me to serve our nation in advancing the 
right to freedom of religion abroad. I would like to take this 
opportunity to thank my family and extended family, who are here with 
me, for their sacrifice, love, and endurance.
    As President Obama so eloquently stated in his historic speech in 
Cairo in 2009, ``People in every country should be free to choose and 
live their faith based upon the persuasion of the mind and the heart 
and the soul.'' Religious freedom is the birthright of all people 
everywhere; it is a foundation of civil society, it is a key to 
international security, and it must always be a pillar of U.S. foreign 
policy. I believe this in my mind, heart, and soul. Religious freedom 
is a universal principle, enshrined in the Universal Declaration of 
Human Rights and protected in the International Covenant on Civil and 
Political Rights (ICCPR).
    The dramatic events unfolding in the Middle East and North Africa 
remind us that the desire for freedom lies deep within the human 
spirit. No greater freedom exists than the inherent desire of all 
people to enjoy the freedom to live according to their beliefs without 
government interference and with government protection. I am deeply 
disturbed by the increase of persecution and violence against religious 
minorities in this region and in many other parts of the world. These 
developments belie both our values and our security.
    In addition to violence, Christians, Bahais, Jews, Ahmadis, and 
other religious minorities often face social, political, and economic 
exclusion or marginalization. Secretary Clinton has made clear that 
``We need to do much more to stand up for the rights of religious 
minorities'' She also said we have to speak out more and to hold 
governments accountable. If confirmed, this will be my core mission.
    In my travels around the country and around the world, I have found 
that my experience as an African-American woman and faith leader has 
enabled me to identify with other minority communities, both religious 
and ethnic. African-Americans did not enjoy full religious freedom in 
this land for centuries, and religion was used by many to justify 
slavery and segregation. So I am particularly committed to this issue, 
in the United States and for people of all faiths around the world. 
Immediately following and since the attacks of 9/11, as the Chaplain 
for the New York City Police Department, I have been called upon to aid 
many citizens from many faiths and diverse national backgrounds.
    We were tragically reminded just weeks ago that the universal value 
of religious freedom is not embraced by all. The March 2 assassination 
of Shahbaz Bhatti, Pakistan's Minister for Minority Affairs, and a 
courageous champion for religious freedom, is a painful reminder that 
our challenge is not easy. It requires an unwavering commitment to 
support those around the world who are risking their lives to stand up 
for religious freedom. President Obama paid tribute to Minister Bhatti 
with these words: ``Minister Bhatti fought for and sacrificed his life 
for the universal values that Pakistanis, Americans, and people around 
the world hold dear--the right to speak one's mind, to practice one's 
religion as one chooses, and to be free from discrimination based on 
one's background or beliefs.''
    If confirmed, I will carry out the full congressional mandate as 
established in the IRF Act, in letter and in spirit, including serving 
as the principal advisor to the President and the Secretary of State on 
religious freedom. I will bring bold leadership to advance and defend 
religious freedom abroad. I will ensure the integrity of the annual 
International Religious Freedom Report to Congress and draw on these 
reports, while engaging governments and societies on the importance of 
respecting and protecting religious communities and safeguarding the 
right of individuals to believe or not believe. If confirmed, I will 
press for the timely and appropriate designation of Countries of 
Particular Concern (CPCs) and Presidential Actions, a critical tool to 
motivate progress on religious freedom. I will seek to expand training 
of diplomats on religious freedom. I will use program resources to 
implement projects that address systemic issues challenging religious 
freedom--including blasphemy, apostasy, and the right to change one's 
religion.
    The life and professional background I offer this position is 
unique. My international experiences have particularly shaped my 
perspectives and brought me to this point. I have been privileged to 
enjoy a range of experiences in bringing people of different faiths 
together to achieve common objectives--including religious freedom and 
respect for people of other faiths and beliefs. I have traveled to five 
continents to engage Muslims, Catholics, Orthodox Christians, 
Protestants, Jews, and practitioners of several other spiritual 
traditions. I have led interfaith delegations to Israel, Jordan, and 
Egypt, and throughout the Caribbean. I worked with World Vision, in 
Ruschlikon, Switzerland, in its efforts to combat global poverty. I 
have traveled to Zimbabwe and South Africa to meet with Zulu faith 
leaders to promote religious freedom and tolerance. As a young woman, I 
worked with Operation Crossroads Africa, and participated in a cross-
cultural exchange with spiritual groups in Ghana.
    If confirmed, I will engage government and religious leaders, as 
well as grassroots faith-based communities around the world, which have 
enormous impact on cultivating a climate more receptive to religious 
freedom in difficult places. As a religious leader myself, I would like 
to bring this perspective and use my skills and experience to encourage 
diverse religious communities to jointly defend and advance religious 
freedom and foster a climate of mutual respect.
    America has learned much from its experience with religious 
diversity. We must share our lessons, stand with the persecuted, and 
encourage all governments to respect and protect the universal rights 
of all people. As President Obama said, on Religious Freedom Day, 
January 14, ``The United States stands with those who advocate for free 
religious expression and works to protect the rights of all people to 
follow their conscience, free from persecution and discrimination.''
    I have learned important lessons and wisdom from each of my 
experiences. If confirmed, to serve as Ambassador at Large, I will seek 
to work with all religious groups. And I will work with human rights 
organizations, think tanks, universities, media partners, foreign 
governments, Congress, and, of course, the U.S. Commission on 
International Religious Freedom. If confirmed, I will seek appropriate 
resources needed both for the IRF Office and for innovative programs 
and other activities to advance our priorities. I will work with 
colleagues at the Department, our Ambassadors overseas, and the White 
House to ensure that all parts of our government are working together 
to advance religious freedom. This mission is too important to be left 
to one official or one office in the U.S. Government.
    I also want to acknowledge and commend the efforts of the two 
previous Ambassadors at Large, Robert Seiple and John Hanford. Both 
embraced the mandate of the IRF Act and were responsible for overseeing 
the Office of International Religious Freedom in the Department of 
State. If confirmed, I pledge to build on their efforts as faithful 
stewards of this congressional mandate and President Obama's vision of 
focusing U.S. attention on issues of religious freedom and working with 
persons of all faiths to pursue this critical goal.
    If confirmed, I especially look forward to working closely with 
Congress in advancing this agenda together on behalf of the American 
people, our national interests and the values we hold dear. I look 
forward to answering any questions you may have.

    Senator Boxer. Thank you so much, Dr. Cook.
    And we are having this hearing because a couple of folks 
wanted to hear more about you. And I have got to say, I am so 
impressed. It is impressive.
    And you speak about traveling to five continents, which I 
think is a tremendous education. And is it true you speak 
Spanish?
    Dr. Cook. Yes; it is. I lived in Valencia, Spain.
    Senator Boxer. That is very good, too. And that, you know, 
to me, you have presented just a wonderful resume and a very 
strong presence here.
    I would like to ask those who came with you, family and 
extended family, just to stand for a minute. If they would 
stand? You don't need to introduce them all. I just feel they 
should be recognized because I know you traveled to be here 
with Dr. Cook, and I just want to thank you for that.
    Because when people come before us like this, they need 
support, and thank you very much for being here. Really, it 
means a lot to her, and I know I am very impressed that you are 
all here.
    So let me say I am convinced in terms of all that you have 
done in your life that you are ready for this challenge. And I 
so admire Secretary Clinton and Senator Gillibrand, who know 
you so well. And so, I am excited that you are willing to do 
this.
    I have a couple of questions on topics that I hope you are 
prepared for. If not, you can just get back to me on the 
record.
    As you know, violent attacks against Coptic Christians in 
Egypt have increased significantly in recent years. In January 
2010, on Coptic Christmas Eve, six Coptic Christians and a 
Muslim security guard were killed in a driveby shooting outside 
a church.
    On New Year's Day 2011, a suicide bomber killed 23 people 
in an attack on a church in Alexandria, Egypt. And just a few 
weeks ago, violent clashes between Muslims and Coptic 
Christians in the capital of Cairo left at least 13 dead and 
140 wounded.
    This violence against Coptic Christians, who make up 10 
percent of Egypt's population, is concerning, especially now 
while the Egyptian people are looking forward to a new lease on 
life for them. In her testimony before the Tom Lantos Human 
Rights Commission in January, Nina Shea, a commissioner of the 
U.S. Commission on International Religious Freedom, stated, 
``The U.S. and the community of nations have a fundamental 
obligation to address the violence and protect those religious 
minorities.''
    If confirmed, how will you work to ensure that U.S. 
prioritizes the protection of religious minorities and the 
prosecution of violators in its discussions with Egypt about 
its future?
    Dr. Cook. Thank you, Senator.
    I share your concern certainly about the Coptic Christians 
and other minorities in Egypt. Having traveled there and lived 
there, I know many of the religious leaders. It has been 
disheartening to learn of all the institutions that have been 
forbidden to be built or be renovated. So it has been ongoing.
    In this transition, it is important that there be dialogue 
and engagement with civil society. The U.S. Government high-
level officials have had numerous occasions to have dialogue 
with Egypt, including Secretary Clinton. And if confirmed, I 
would build upon those conversations and draw on the tools that 
are available to me, at my disposal.
    One of the keys that is happening is that religious leaders 
are emerging as voices, and it would be important, if 
confirmed, to sit down with all sectors and begin a dialogue 
that would include protection for Coptic Christians and others.
    Senator Boxer. So you would agree that this is a moment in 
time that we shouldn't waste when it comes to religious 
freedom----
    Dr. Cook. Without question.
    Senator Boxer [continuing]. In Egypt particularly, and 
these other countries that are going through this dramatic 
revolution, some peaceful, some not. I would say in that vein, 
and this would not be your portfolio, but I think this is 
really a moment in history where we should look at religious 
freedom and also equality for women because, you know, this is 
a rare moment.
    The other question I have, and then I will yield to Senator 
DeMint. I have questions for the record on the Congo. If I 
don't have a chance to answer it and some others, but this one 
I thought I would ask you.
    The spiritual leader of many of my constituents and 
hundreds of millions of Orthodox Christians around the globe is 
His Holiness Ecumenical Patriarch Bartholomew. As you know, his 
nearly 2,000-year-old sacred see is in Istanbul, Turkey, has 
faced tremendous discrimination at the hands of the Turkish 
Government over the better part of the past century.
    Fortunately, Turkey has taken some steps regarding the 
religious freedom of the Ecumenical Patriarch in recent months, 
including providing Turkish citizenship to potential successors 
of the patriarch and returning important property to the 
church. But much remains to be done, including reopening an 
important orthodox seminary that was closed by the Turkish 
Government in 1971 and recognizing the title of Ecumenical 
Patriarch.
    If confirmed, how would you work to significantly improve 
religious freedom and human rights for the Ecumenical Patriarch 
and for ethnic Greeks living in Turkey?
    Dr. Cook. Thank you for your question.
    A large part of my constituency is also Greek Orthodox. I 
had the pleasure of serving with Father John Poulos in Astoria, 
Queens, as a police chaplain. And so, for many years, that 
issue has been a highlight of my priorities.
    I have also had the pleasure of serving with Father Alex 
and Archbishop Demetrios in the New York region. And just 
Friday at the White House, I celebrated Greek Independence Day 
with them. So I am very attuned to the subject matter.
    If confirmed, I would continue to press the government to 
recognize the Ecumenical Patriarch. We are pleased that 12 
metropolitans were confirmed as citizens, which broadens the 
pool for the next Ecumenical Patriarch. But that would be one 
of the first trips in my priorities that I would like to take, 
to visit and see the Ecumenical Patriarch. Long overdue.
    Senator Boxer. Well, it is music to my ears. I thank you.
    Senator DeMint, the floor is yours.
    Senator DeMint. Thank you, Madam Chairman.
    I am sure the State Department would take exception to my 
comments. But over several administrations, I have seen an 
unwillingness at the State Department to address seriously 
religious freedom and religious persecution issues. I think, 
when pressed, they tend to pat you on the head, and I am 
speaking of my head at this point, and saying, ``That is 
important,'' rhetorically. But it is, frankly, too messy to 
compromise a political or economic relationship.
    And that is why I mentioned the importance of a real 
passion and boldness because I don't expect this administration 
or the next within the State Department culture to really take 
these issues as seriously as they should. Because one of the 
things that I know is important and true, that we are not going 
to have economic and political freedom where no religious 
freedom exists.
    I just would like to ask your response. As we look at 
violations in Afghanistan, where we have Americans of all 
faiths fighting, giving their lives, billions of dollars being 
spent, an Afghani who converted to Christianity was sentenced 
to death, effectively. And fortunately, because of I think a 
lot of political pressure, that is not going to happen, but 
that person no longer can live in their home country.
    What would you do? How would you deal with this? Because it 
is not just Afghanistan. It is Iraq. It is other places where 
American blood has been shed, and now we are faced with 
governments we have helped install who are not supporting 
religious freedom. What would you do in Afghanistan?
    Dr. Cook. Thank you for your question, Senator.
    I share the concern deeply because there is a lot of 
violence and persecution, and there are many laws that are 
written totally against those who are religious minorities. If 
confirmed, I will work together with partners, international 
partners who have been working on religious freedom issues for 
a long time.
    We are heartened by the release of Said Musa, who, although 
he is not able to live any longer in his country, it was the 
U.S. Government, as well as many of my partners, NGO partners, 
who have worked for his release and his reuniting with his 
family. So we are concerned. And if confirmed, I would continue 
to press the Afghan Government for protection of all of its 
citizens and to also work with them in terms of promoting 
religious freedom.
    Senator DeMint. Would you be willing to do that publicly, 
to speak to the media, or I know is the State Department will 
tell me and you, let us do this under the radar. Let us not 
make any waves. And so, the international pressure that we 
would like to be there is often not present.
    And I am not saying that some of the behind the scenes work 
does not pay dividends. As in Afghanistan, we did not establish 
religious freedom, but we saved the person's life. Frankly, for 
what we are fighting for, I am not sure that that should be our 
end goal.
    But you have mentioned working with our partners, or I 
mean, can you be more specific? We have that very real 
situation right now where countries where our troops are on the 
ground, where religious freedom does not exist. How would you 
work with our Government and those governments? How would you 
exert the pressure that is needed to get the attention here as 
well as there?
    Dr. Cook. Thank you for your question.
    The beginning of your question was would I certainly use 
public diplomacy as one of the tools? I would use all of the 
tools that are available to me to elevate religious freedom to 
the highest level, both in our Government and around the world.
    There are times situationally that public pressure and the 
headlines is important, and there are times, in the case of 
Said Musa, situationally that you need to do it more quietly. 
And Afghan is a very complicated situation, and there are times 
that you have to move quietly for the saving of a person's life 
and for the reunification of his family.
    So one of the tools that I am strong at is public 
diplomacy, and when appropriate, certainly I will use that and 
all the tools that are available to me.
    Senator DeMint. OK. Just one final question. It appears 
from what we see that this position has kind of been lowered in 
status at the State Department. Yet we expect you to be the 
primary adviser to the President on religious issues, which 
means, again, probably in the pecking order, you would have to 
use strong personality and a lot of push in order to get some 
attention. And again, that is very important.
    How do you anticipate dealing with that inside the 
structure there at the State Department?
    Dr. Cook. Well, thank you again for your question.
    I bring a 30-year, three-decade-long experience. You asked 
initially in your opening statement for boldness, courage, and 
passion, and those are three qualities that I have. But I don't 
see the position as lowered. I see it as being a premier 
bureau, the DRL bureau. I see a team of 20 wonderful full-time 
civil servants and also Foreign Service officers who are really 
on their game, their A game, and have worked very hard.
    They are just missing an Ambassador at Large to complete a 
strong team. And so, if confirmed, I would join that team, and 
we would elevate, again, religious freedom to the highest 
levels possible.
    Senator DeMint. Thank you, Dr. Cook.
    Senator Boxer. Senator DeMint, thank you for those 
excellent questions.
    Senator Menendez, welcome.
    Senator Menendez. Thank you, Madam Chair.
    Reverend Cook, thank you for coming again. I was ready to 
vote for you the last time you were here.
    Dr. Cook. Thank you, Senator.
    Senator Menendez. And I, having heard some of your answers 
that were preempted by the chair that I had to the questions of 
the Ecumenical Patriarch and the Ecumenical Patriarchate, which 
is something that I am passionate about. Senator Snowe and I, 
in a bipartisan effort, are circulating a letter to the 
President on this issue, which we expect many Senators to join 
us on.
    And we are concerned that while we have made some progress 
with Turkey on this issue, especially with regard to objecting 
to referring to his All Holiness as ecumenical and proving some 
aspects of patriarchal succession, but there is a lot more that 
needs to be done. And you and I have had the opportunities in 
your visits before your nomination or as you were nominated, 
but before you were in the committee, in your responses to me 
the last time.
    And from what I have heard of your responses to Senator 
Boxer that are in line with the type of advocacy that I would 
want someone in this position to have, not only as it relates 
to the Ecumenical Patriarchate, but to religious freedom 
internationally. And I know one thing. That until we get 
someone in this position, there will be no advocacy in the 
world for the religious freedom that we all believe in and 
espouse passionately. And so, I think it is incredibly 
important to get someone into this position as the Ambassador 
at Large for International Religious Freedom.
    Let me ask you, since I know some of my colleagues have the 
concern about the nature of the position and the structure of 
it and what not, before you took this nomination, I am sure you 
wanted to have a role to be effective.
    Dr. Cook. Yes.
    Senator Menendez. So what understandings did you come to in 
terms of what is going to be your ability, both individually 
and within the State Department and beyond, to be able to be 
that voice and make that case and to have the ear of those who 
can shape policy?
    Dr. Cook. Thank you for your question, Senator. It is good 
to see you again.
    As I came to this position, I read very carefully the IRF 
Act and understand critically that I would be the principal 
adviser to both the Secretary of State and the President of the 
United States, and I would carry out the IRF mandate as it is 
written fully to its potential. I have no problem doing that. 
The structure that is in place still allows me to do that.
    Again, I share we have a tremendous team of Foreign Service 
officers and civil service workers who make up or comprise 
about 20. I would head the IRF office and would do that to my 
full ability. I don't feel the position is diminished 
whatsoever. What is lacking is the person in the post of 
Ambassador at Large for Religious Freedom.
    So I am prepared to do that. I am ready to do that. And 
certainly, visiting the Ecumenical Patriarch and the Vatican is 
something this office has not done, and that would be one of my 
priorities when assuming the post, if confirmed.
    Senator Menendez. I appreciate that. Now do you know 
Secretary Clinton?
    Dr. Cook. I know her very well, and I would have access to 
the Secretary.
    Senator Menendez. You have known her since before she was 
the Secretary of State?
    Dr. Cook. I knew her before. I was in the Clinton White 
House when she was the first lady. Also, she was the Senator 
for my very famous State, New York.
    Senator Menendez. And she must have known you during that 
period of time?
    Dr. Cook. Very much so and very closely.
    Senator Menendez. And so, therefore, you know the Secretary 
in a way that maybe some other nominee would not know the 
Secretary and be able to get her ear. Is that fair to say?
    Dr. Cook. That is very fair to say, sir.
    Senator Menendez. OK. Do you know President Obama?
    Dr. Cook. I know President Obama as well, thank you. And I 
could have his ear also.
    Senator Menendez. Do you know him well enough that you will 
have the wherewithal to be able to, when you feel that it is 
fitting and appropriate and necessary on some issue of 
religious freedom in the world, to be able to make your case to 
him?
    Dr. Cook. Yes, sir. I do.
    Senator Menendez. Well, that is ultimately the two main 
opportunities that we want, for this person who would have this 
position to be able to speak to the Secretary of State and to 
the President of the United States when they feel that it is 
important, appropriate, fitting, and necessary to promote 
religious freedom in the world and to have the ears of those 
individuals.
    So I am once again ready and willing to vote for your 
confirmation. I believe from my conversations with you, not 
only as it relates to the Ecumenical Patriarch, but other 
concerns I have in the world, that you will be a strong 
advocate and not a shrinking violet in this respect.
    And so, thank you very much for coming once again before 
the committee.
    Dr. Cook. You are welcome, and thank you.
    Senator Boxer. Thank you, Senator.
    Senator Lugar.
    Senator Lugar. Dr. Cook, my colleagues have tried to help 
us all define your role as Ambassador at Large, and of course, 
you have related responses to questions from Senator Menendez 
your relationship with the President and the Secretary of 
State.
    Let me ask a question this way. A Pew Foundation study from 
December 2009 indicated that approximately 70 percent of the 
population of the world lives in areas where religious freedom 
is severely restricted. Now I suppose whether it is your own 
initiative, that of the 20 talented persons who are working 
with you, or even on occasion a thought from the President or 
the Secretary of State, how do you go about prioritizing what 
exactly you are going to do, and which countries you will be 
visiting?
    I ask this question because if you have two-thirds of the 
world where restrictions on religious freedom are very 
substantial, there is, of course, a long list of possibilities. 
How do you plan to occupy your time most profitably? Or, is 
this a situation where you wait for a crisis to occur and then 
head out to the front and see what you can do?
    Dr. Cook. OK. Thank you, sir, for your question, Senator 
Lugar.
    The Pew study goes on to say that not only 70 percent are 
persecuted daily, but also more than 200,000 million Christians 
each day are persecuted and discriminated against. And in the 
20th and 21st centuries, more people have been killed because 
of their faith than in the other 19 centuries combined. So I am 
very concerned about the lack of this office being filled.
    My priorities would be such that we can't cover all the 198 
countries, but we are mandated by the IRF Act to give a report 
on those countries. I would sit down with our staff and our 
team and our wider partners, NGOs and academy and others who 
have been working on religious freedom, and determine those 
priorities.
    Certainly the Middle East right now is urgent, and that 
cannot be ignored. I would want to travel immediately to Egypt 
and to Iraq. In Asia, I would love to travel to Vietnam and to 
Afghanistan and Pakistan and certainly China, where we are 
developing relationships. And then, in sub-Saharan Africa, 
would love to go to Nigeria, which is also of urgent concern, 
as well as stopping by Liberia, which is having the same 
conflict as Nigeria. But they are one of what we call a 
``promising practice,'' and I would use that as a model perhaps 
for Nigeria and other countries that are experiencing religious 
freedom issues.
    So those would be my priorities immediately. Certainly 
sitting down domestically with people who have been working on 
religious freedom for issues. Just as when religious freedom, 
the IRF Act was developed, there was a summit called of the 
academy scholars, NGOs, who were working on religious freedom, 
I would want to have those conversations as well. But those 
would be my priorities.
    Certainly a visit to the Ecumenical Patriarch and to the 
Vatican, which this office has not done for the last decade, I 
think, out of respect and as a priority.
    Senator Lugar. Well, you have named some very excellent 
priorities. But now how do you conduct yourself when you 
arrive? You come on the scene. You have already made a study 
indicating that things are not going well in terms of religious 
freedom.
    In a concrete sense, what do you actually propose? A plan 
for better conduct by that government, by the society? In other 
words, specifically what action does an Ambassador at Large 
take that makes any particular difference in the minds of those 
leaders?
    Dr. Cook. Thank you for your question.
    Certainly the tools that are available to me, first of all, 
is getting, securing the report and reporting on religious 
persecution in the 198 countries. But the second tool is 
diplomacy. We would work with the embassies and posts where we 
have a post on the ground as my first point of entry, and then 
also with the NGOs and civil society in those societies.
    Where there are diplomatic relations that are lacking, I 
would work with multilateral fora and also partners who are 
related to those countries. So there will be a strategic plan. 
I would not go without a plan. I would move strategically, not 
emotionally, and certainly work with those partners that are 
already on the ground.
    But wherever we have embassies, we would secure that 
relationship first.
    Senator Lugar. How do your responsibilities interact with 
those of the U.S. Commission on International Religious 
Freedom? Where do they fit into the picture?
    Dr. Cook. Oh, they fit very complementarily. We have not 
had a chance to sit down, but that would be part of the 
conversations I would have initially if I am confirmed. That 
would be one of the first conversations with the commissioners, 
and I would be an ex officio member of USCIRF. And so, part of 
that would be to have presence.
    One of the acronyms--this is a city of acronyms, and so I 
have had to learn a new language coming before you. So I have 
developed one, which is MAP, putting religious freedom on the 
MAP. And the M is for multilateral relationships and meetings 
that matter. A is for accessibility and availability of the 
Ambassador. And P is for policy, partnerships, and presence and 
using those tools that are available to me.
    So USCIRF would be one of those entities that I would sit 
with, that we, together, would put religious freedom on the map 
and work in a complementary collaborative relationship.
    Senator Lugar. Thank you very much.
    Dr. Cook. You are welcome.
    Senator Boxer. Thank you very much, Senator Lugar.
    Senator Lee.
    Senator Lee. Thank you for joining us today, Ms. Cook.
    Dr. Cook. Thank you.
    Senator Lee. I wanted to talk to you for a minute about 
Iraq's indigenous Christian population. Do you have any 
thoughts that you could share with us about what you would do 
to help Iraq's Christians?
    Dr. Cook. Yes; thank you, sir, for your question, and 
welcome.
    It is good to--there has certainly been a lot of violence 
and a lot of discrimination against Iraq's Christian 
population. There has been a shift certainly in military action 
there, and so part of what is going to be necessary is to also 
have conversations with General Petraeus and the military 
chaplains who are there.
    Being a religious leader, I also bring that camaraderie of 
relationship with the chaplains who are on the ground. But also 
we have Ambassador Bodde, who has been assigned to Iraq, and 
there also is Deputy Assistant Secretary Corbin, who has been 
assigned to Iraq. Those would be conversations that I would 
need to have with them as well, because they have been doing 
the work, and also partner with them and build upon the 
relationships that they have built in Iraq.
    Senator Lee. OK. What about in Pakistan, defamation laws? 
Those have proven problematic for religious liberty, as I 
suspect you would agree. Have you given any thought to those 
and how you might deal with those in this capacity?
    Dr. Cook. Well, yes. Pakistan is very complicated. It has 
some societal issues, as well as religious freedom issues. But 
we are thankful that on last Thursday, the antidefamation 
resolution, an alternative was presented by Pakistan, and 
defamation is no longer in the title. The United Nations Human 
Rights Council met in Geneva, and an alternative resolution was 
passed unanimously so that it will protect religious 
minorities.
    We are very concerned certainly about the Ahmadi 
communities there and the Christian communities and other 
religious minorities. And in our wider group of friends and 
partners, I have a wonderful friendship with an Ahmadi family, 
Mr. Nasir Ahmad. And so, talking with those persons from those 
communities which have been oppressed is certainly something 
that we want to continue to do.
    But Pakistan represents many complexities, and we will 
continue to work forward. We will certainly--our condolences 
certainly went out to Prime Minister Bhatti's family and to 
Governor Taseer's family, and we would hope that as we continue 
that they will have a new champion for religious freedom. But 
in the meantime, we certainly have to build upon the work that 
they did.
    Senator Lee. Do you feel well equipped to come into a role 
that is still in the process of being defined?
    Dr. Cook. I think the role is very defined, and I feel very 
equipped and compatible with this role. So I think that I am 
very prepared. Courageous and boldness and passion is what 
Senator DeMint asked for, and I bring those qualities to it, as 
well as a wealth of experience.
    Senator Lee. Thank you.
    Senator Boxer. Thank you very much, Senator.
    Well, Dr. Cook, I want to thank you and all of your family 
and extended family who came today. I speak for myself in 
saying you are an incredible witness before this committee. You 
have acquitted yourself, I think, magnificently. You have 
answered every question in detail. You never ducked a question.
    And I think you have shown, I hope--I hope--this committee 
that you are ready. I think you are more than ready for this 
job. So I thank you.
    I know Senator DeMint has a few questions. I have a couple 
of questions. Others may. So we will leave the record open for 
24 hours. So stay close to us, and get those answers back.
    Senator Boxer. And then we will work with the Foreign 
Relations Committee to have your nomination moved forward.
    Again, thank you so very much.
    And this hearing stands adjourned. Thank you, colleagues.
    Dr. Cook. Thank you, Senator.
    [Whereupon, at 3:16 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


       Responses of Suzan Johnson Cook to Questions Submitted by
                         Senator John F. Kerry

    Question. What level of input will you have in the administration 
of the Human Rights and Democracy Fund (HRDF)? How would you ensure 
that religious freedom considerations are taken into account during the 
programming of HRDF funds?

    Answer. Established under President Clinton, the HRDF has funded 
such projects as promoting the rule of law, advancing democratic 
values, and supporting religious freedom efforts and worker rights in 
over 50 countries. Over the last 3 years, more than $10 million of the 
HRDF has been committed to religious freedom programming. As Ambassador 
at Large, if confirmed, I would be directly involved in the review and 
selection process on all proposals related to religious freedom.
    Religious freedom programming currently supports such areas as: (1) 
training religious groups, civil society, and lawmakers to develop 
legal and policy protections for religious freedom, (2) addressing 
expressions of intolerance, antidefamation, anticonversion, and 
antiblasphemy laws that restrict religious expression; (3) increasing 
public awareness of religious freedom through media outlets and opinion 
makers; and (4) strengthening capacity of religious leaders to promote 
faith-based cooperation across religious and sectarian lines.
    If confirmed, I will collaborate closely with DRL's programming 
office, on HRDF programs that are reviewed and approved generally under 
DRL authority, paying particular attention to those proposals where 
religious freedom is integrated with the larger promotion of freedom of 
expression. For example, programming on Internet freedom has direct and 
significant benefits for the advancement of freedom of religion.

    Question. The forces of change in the Middle East may pose a risk 
to religious minorities, particularly in those countries experiencing 
violent turmoil. What steps would you take to protect the religious 
freedom of minority communities in that region? How would you support 
moderate voices and encourage dialogue on religious freedom among 
representatives of different faiths?

    Answer. If confirmed as a principal advisor to the President and 
Secretary of State on international religious freedom issues, I look 
forward to promoting religious freedom as a core objective of U.S. 
foreign policy. Religious freedom is a fundamental human right and a 
pillar of a democratic society. The Middle East must be a top priority 
for promoting religious freedom, especially given recent attacks on 
religious minorities in the region. I am deeply disturbed by the 
increase of persecution and violence against religious minorities in 
this region and in many other parts of the world. I will impress upon 
governments that religious freedom enhances stability, and that 
restrictions on religious communities only serve to encourage more 
sectarian tensions and violence.
    The changes that we are seeing in the Middle East have been 
dramatic and often inspiring, yet violence and intolerance remain 
sources of concern--particularly for religious minorities in this 
region. We are observing a mixed picture in the region, and I would 
encourage those voices promoting religious freedom among the emerging 
political leadership and strengthened minority-community voices. 
Minority religious communities in Middle Eastern countries where they 
had previously been repressed should have new opportunities for 
engagement with governments, interfaith dialogue, and progress toward 
greater religious tolerance and religious freedom. It will be one of my 
top priorities to support those voices inside the region using these 
opportunities to increase respect for religious freedom and interfaith 
dialogue.
    If confirmed, I will lead the U.S. Government's efforts to press 
for reform with governments that violate religious freedom, work with 
governments that share our views, and reach out to religious leaders 
worldwide to urge them to work with the United States in this region to 
promote religious tolerance and freedom. The Secretary is deeply 
engaged on religious freedom issues, and the first line of defense on 
religious freedom is our hard-working embassies and missions worldwide. 
The IRF Act provides many tools to advance this agenda. I will use all 
the tools of diplomacy and engagement, including public and private 
messaging, pressure, and programs.
    I will work with my colleagues in the State Department and with 
civil society to advocate for a change in the Egyptian law to remove 
severe restrictions on building and renovating Christian places of 
worship. I would also press the Iraqi Government to protect vulnerable 
religious minorities by taking effective measures to prevent future 
attacks and to bring to justice the perpetrators of attacks on 
Christians and other minorities.
    If confirmed, I also look forward to engaging political and civic 
leaders directly to encourage greater reforms and protection of 
religious minorities. I specifically hope to travel to Egypt and Iraq 
soon to meet with my counterparts in the governments to urge them to 
fulfill their international obligations to respect freedom of religion 
and ensure the safety of its religious minorities. I will work more 
broadly with communities around the region to advance religious freedom 
by engaging religious leaders and civil society; through programming 
and exchanges; and by promoting interfaith dialogue, tolerance, and 
mutual respect through education.

    Question. In Uzbekistan, government restrictions on religious 
freedom have led to the arrest and imprisonment of thousands of 
persons, including many Muslim individuals and registered and 
unregistered religious groups. What strategy would you employ to 
encourage the Government of Uzbekistan to abide by its international 
commitments on religious freedom, including its commitments under the 
International Covenant on Civil and Political Rights?

    Answer. I am deeply concerned about the Uzbekistan Government's 
restrictions on and abuses of religious freedom. If confirmed, I intend 
to build on the important work of State Department colleagues and press 
the Government of Uzbekistan to take specific actions to support 
religious freedom. Uzbekistan has been designated a Country of 
Particular Concern (CPC) since 2006. Since the CPC designation, State 
Department officials have met numerous times with Uzbek officials, both 
in Uzbekistan and in Washington, most recently during the Annual 
Bilateral Consultations in Tashkent in February 2011. Secretary Clinton 
also raised religious freedom, among other human rights issues, with 
President Karimov during her December 2010 visit to Tashkent following 
the OSCE summit.
    If confirmed, I would work with U.S. colleagues, key international 
partners, USCIRF, and NGOs to advocate for progress and help Uzbekistan 
improve its practices and legislation. If confirmed, I plan to travel 
to Uzbekistan to reinvigorate and elevate our dialogue on religious 
freedom. I will press hard for the Uzbek Government to simplify the 
registration process for religious groups and reduce the requirements 
for registration, and will also urge the Uzbeks to reduce or eliminate 
the civil and criminal penalties for unregistered religious activity. I 
will work to ensure that advocacy for religious freedom continues to be 
an integral part of future Annual Bilateral Consultations and will work 
with my colleagues to utilize all diplomatic tools to motivate and 
persuade the Uzbek Government to make improvements. I would use 
appropriate public diplomacy and program assistance toward that goal.

    Question. The status of the Rohingya in Burma, Bangladesh, 
Thailand, and other Southeast Asian countries remains precarious. 
Lacking citizenship, they often face restrictions on access to 
education and other basic services, live in deplorable conditions, and 
do not enjoy the right to certain fundamental human freedoms, including 
rights to freedom of religion, association, and movement. What role 
would your office play in encouraging greater protections for the 
Rohingya against policies that discriminate on the basis of religion?

    Answer. I am very concerned about the plight of the Rohingya, 
particularly in Burma where the government continues to refuse to 
recognize them as citizens, rendering them stateless, and imposes 
restrictions on their movement and marriage. I am also concerned about 
the treatment of Rohingya refugees in Thailand and Bangladesh. If 
confirmed, I will work with our embassies in the region as well as the 
Bureau of Population, Refugees and Migration to continue to press for 
the rights of Rohingya in Burma and throughout the region. I will 
follow this issue closely, highlight Rohingya human rights problems in 
our annual reports, engage governments in the region to end 
discrimination against the Rohingya, and work toward developing 
regional solutions to address their plight.
    Burma is designated a Country of Particular Concern for its ongoing 
violations of religious freedom. The U.S. Government has a wide array 
of financial and trade sanctions in place against Burma for its 
violations of human rights. Our Embassies also offer support to local 
NGOs and religious leaders and exchange information with otherwise 
isolated human rights NGOs and religious leaders.
                                 ______
                                 

       Responses of Suzan Johnson Cook to Questions Submitted by 
                         Senator Barbara Boxer

    Question. As you may know, DRC has been called the ``rape capital 
of the world.'' The United Nations estimates that 200,000 women and 
girls have been raped in the DRC over the past 12 years, and that 
15,000 women were raped in eastern DRC in 2009 alone. This level of 
brutality is simply incomprehensible and it must be stopped once and 
for all. According to the U.S. State Department's 2010 Report on 
International Religious Freedom, ``Nearly 90 percent of the 
population'' of DRC ``attends religious services each week.'' Given 
that the vast majority of Congolese citizens regularly attend religious 
services, what, in your opinion, is the role of religious communities 
in raising awareness about violence against women? If confirmed, how 
will you work to encourage religious communities to take a leadership 
role in stopping violence against women in DRC?

    Answer. I know your staff visited the Democratic Republic of the 
Congo recently and applaud your efforts to raise awareness of these 
human rights issues. I share your concern about the broader human 
rights issues in the country, particularly the horrific widespread 
violence against women. As a religious leader myself, I believe that 
communities of faith, working in concert with traditional leaders, can 
and should play an important role in raising awareness to combat 
violence against women and elevating the role and status of women in 
society.
    If confirmed, I would strongly encourage churches and all religious 
communities to use their combined influence to address this horrific 
problem. Communities of faith can and should have a voice in reducing 
violence against women. If confirmed, I hope to travel to the DRC to 
help bring together these communities and urge them to demonstrate 
leadership in this important issue.

    Question. On Thursday, March 24, the United Nations Human Rights 
Council (UNHRC) passed a resolution on ``Combating Intolerance and 
Violence Against Persons Based on Religion or Belief.'' This was widely 
hailed by many religious groups and religious freedom advocates as a 
victory over a ``defamation of religions'' resolution that has long 
been championed by the Organization of the Islamic Conference (OIC). 
Many feared that the ``defamation of religions'' resolution would be 
used to further criminalize peaceful criticism of religion, including 
reinforcing blasphemy laws in countries such as Pakistan where 
violations carry the risk of death. As noted by the U.S. Commission on 
International Religious Freedom, the new resolution ``properly focuses 
on protecting individuals from discrimination or violence, instead of 
protecting religions from criticism.''

  <bullet> If confirmed, how will you work to build on this resolution? 
        And how will you work to encourage countries to eliminate 
        blasphemy laws, particularly those that carry the death penalty 
        such as in Pakistan and Afghanistan?

    Answer. The consensus resolution adopted by the U.N. Human Rights 
Council (UNHRC) represents a significant step forward in the global 
dialogue on countering intolerance, discrimination, and violence 
against persons based on religion or belief. The State Department, 
including staff from the Office of International Religious Freedom, 
worked intensively on developing this new approach.
    If confirmed, working with member states from the Organization of 
the Islamic Conference and the European Union, I will urge robust 
implementation of the concrete measures outlined in the resolution such 
as education, awareness building, government outreach, service 
projects, dialogue, and countering offensive speech with more speech. I 
will also partner with governments, civil society, and religious 
leaders on constructive joint initiatives to combat intolerance, 
discrimination, and violence against persons based on religion or 
belief.
    In countries such as Pakistan and Afghanistan, I am deeply 
concerned about abuses under the blasphemy laws. In Pakistan, the 
implementation of these laws has resulted in the arrest of, and attacks 
on, hundreds of Pakistani citizens, both Muslim and non-Muslim. If 
confirmed, I will urge the Government of Pakistan to address these 
problematic laws. I will also actively engage with the country's 
religious leadership and civil society actors advocating for tolerance 
and interfaith efforts. Our message is simple: we need to work together 
to reduce interfaith tensions and violence; blasphemy laws have 
actually contributed to violence and are thus counterproductive to 
their stated aims.
    In Afghanistan, although in recent years the death penalty has not 
been carried out either by local or national authorities, these kind of 
discriminatory laws and practices are rooted in intolerance that 
governments should combat. If confirmed, I will urge the Government of 
Afghanistan to uphold its international obligations to freedoms of 
religion and expression, and also work in coordination with the 
international community, including our European partners, the United 
Nations Assistance Mission in Afghanistan (UNAMA), and other like-
minded partners to reinforce the importance of freedom of religion, 
tolerance, and respect. This will be a long process and progress will 
be measured in increments. If confirmed, I will use all of the tools at 
my disposal to engage with religious leaders and civil society--like 
the Afghan Independent Human Rights Commission (AIHRC), and I will help 
develop programs and exchanges to support these policies.

    Question. The Government of Vietnam has a long history of 
intolerance to religious freedom despite provisions contained within 
the Vietnamese Constitution that provide for individual belief.
    The government is especially harsh to individuals associated with 
religious groups that are not officially recognized. However, even 
members of churches that are acknowledged by the government, such as 
the Catholic Church, suffer persecution. Security officials interfere 
with religious gatherings, confiscate religious literature, and harass 
religious leaders with frequent interrogation.
    In some instances, government officials have destroyed churches and 
religious structures. Religious groups and activists are threatened, 
harassed, and even sometimes imprisoned, such as in the case of former 
prisoner of conscience, Father Nguyen Van Ly, who was sentenced to 8 
years in prison in 2007. He was released last year on medical parole; 
an order that expired on March 15, 2011. As a result, Father Ly faces 
possible rearrest by the government.

  <bullet> If confirmed, how would you personally work to protect 
        individuals who are at risk of harassment and detainment as a 
        result of their religious activities?
  <bullet> How will you work to more broadly to advance religious 
        freedom in Vietnam?

    Answer. If confirmed, Vietnam will be one of my top priorities, and 
I will use all the tools at my disposal to promote true religious 
freedom there, including reporting, diplomatic engagement, public 
diplomacy, and targeted programming. While there has been some overall 
progress in religious freedom over the last decade, Protestant 
minorities in the Central and Northwest Highlands, the Catholic Church, 
and individual religious believers of a variety of faiths still face 
serious problems. The State Department already engages regularly with 
the Government of Vietnam in Hanoi and in Washington, including at our 
annual Human Rights Dialogue, the most recent of which was led by 
Democracy, Human Rights, and Labor Assistant Secretary Michael Posner 
in December 2010 in Hanoi.
    If confirmed, I will travel to Vietnam to meet with religious 
freedom activists and with the families of imprisoned activists to 
consult on how best to advocate for them. I will advocate with the 
Vietnamese Government in Hanoi, and I will engage the Embassy of 
Vietnam in Washington. If confirmed, I will raise individual cases and 
I will address the broad institutional and societal issues that 
obstruct full freedom of religion. I will also work with my colleagues 
in the State Department, the United States Commission on International 
Religious Freedom and other NGOs in the United States working on these 
issues, with Members of Congress, Vietnamese civil society, and the 
Vietnamese diaspora in the United States to bring about positive 
improvement toward full religious freedom in Vietnam.
                                 ______
                                 

       Responses of Suzan Johnson Cook to Questions Submitted by
                           Senator Jim DeMint

    Question. Do you believe the international standard for religious 
freedom protects the right of individuals to share their faith publicly 
(proselytism) and to change their faith (conversion)? If so, how will 
you work with foreign governments that have laws that criminalize the 
peaceful expression, teaching, or sharing of religion? Please be 
specific on how you intend to work with the most egregious government 
violators.

    Answer. It is clear to me that international human rights standards 
protect the ability of individuals to change their beliefs and to share 
their beliefs in public. These rights are protected under the freedoms 
of religion, of expression, and of associations as stated in the 
Universal Declaration of Human Rights and the International Covenant on 
Civil and Political Rights. If confirmed, I will address this issue 
directly through communications with governments that place 
restrictions on the ability to proselytize or convert. The State 
Department has closely followed the development and implementation of 
anticonversion laws, blasphemy laws, and apostasy laws in South Asia, 
East Asia, and the Middle East. These laws generally violate human 
rights law. Moreover, they can often lead to increased societal 
tensions and violence.
    Therefore, in addition to directly pressing governments to bring 
their laws into conformity with international law, I will also engage 
civil society and religious leaders to hear their concerns and to 
engage them in building cultures of religious tolerance. I will also 
engage like-minded partners in the international community and raise 
these issues in regional and international human rights fora.
    In countries such as Pakistan and Afghanistan, I am particularly 
concerned about abuses under the blasphemy laws. In Pakistan, the 
implementation of these laws has resulted in the arrest of and attacks 
against hundreds of Pakistani citizens, both Muslim and non-Muslim. 
Last fall these laws led to a death sentence for a Christian convert, 
Aasia Bibi. If confirmed, I will urge the Government of Pakistan to 
address these problematic laws. I will also actively engage with the 
country's religious leadership and civil society advocates for 
tolerance and interfaith efforts.
    In Afghanistan, although in recent years the death penalty has not 
been carried out either by local or national authorities, 
discriminatory laws and practices that ban conversion are rooted in 
societal intolerance. If confirmed, I will urge the Government of 
Afghanistan to uphold its international obligations and commitments to 
respect freedom of religion and freedom of expression, and I will also 
work in coordination with the international community, including our 
European partners, the United Nations Assistance Mission in Afghanistan 
(UNAMA), and other like-minded partners to reinforce the importance of 
freedom of religion, tolerance, and respect. This will be a long 
process and progress will be measured in increments. If confirmed, I 
will use all of the tools at my disposal, such as engaging religious 
leaders and civil society, like the Afghan Independent Human Rights 
Commission (AIHRC). I will also rely on programming and exchanges, and 
will promote interfaith efforts, tolerance, and mutual respect through 
education.

    Question. Will you recommend sanctions for the most egregious 
violators? What actions will you recommend for Countries of Particular 
Concern (CPCs) for the most egregious violators?

    Answer. The IRF Act mandates a Presidential Action for all CPCs, 
and provides specific examples of sanctions. If confirmed, I will 
recommend for consideration by the Secretary sanctions against 
egregious violators of religious freedom as appropriate to motivate 
improvement of the country's respect for religious freedom. The 
President also has the authority to waive the action only if the waiver 
would ``further the purposes of the Act,'' or if ``an important 
national interest'' is at stake. The CPC status remains, even if a 
waiver is granted.
    Presidential Actions are a critical tool in an effort to push a CPC 
toward improving conditions of religious freedom. For the most 
egregious violators, any sanction listed in the section 405 (9)-(15) of 
the IRF Act, or a commensurate action is appropriate. Sanctions are one 
of a number of tools under the IRF Act. To expect real progress on 
religious freedom, they should be part of a broader engagement strategy 
to address restrictions on religious freedom. The ultimate goal 
underlying the CPC designation process is to realize actual progress 
and improvements in religious freedom. If confirmed, I will seek as 
many opportunities and use as many tools as possible to achieve this 
goal.

    Question. Please explain how the Human Rights and Democracy Fund 
(HRDF) operates. You stated that roughly $4 million in HRDF funding 
would be at your disposal. Is that figure correct? For what purpose do 
you intend to use the HRDF? What measurable outcomes have there been, 
related directly to religious freedom, as a result of this funding?

    Answer. The HRDF supports the U.S. foreign policy goals of 
defending human rights and strengthening democratic institutions. The 
Bureau of Democracy, Human Rights and Labor (DRL) has administered the 
HRDF to implement innovative projects in over 50 countries since the 
HRDF was established. The HRDF supports projects that advance U.S. 
foreign policy goals such as promoting the rule of law, strengthening 
democratic institutions, and defending religious freedom and worker 
rights.
    Over the last 3 years, more than $10 million of the HRDF has been 
committed to religious freedom programming. These programs support: (1) 
training religious groups, civil society, and lawmakers to develop 
legal and policy protections for religious freedom; (2) addressing 
expressions of intolerance, antidefamation, anticonversion, and 
antiblasphemy laws that restrict religious expression; (3) increasing 
public awareness of religious freedom through media outlets and opinion 
makers; and (4) strengthening capacity of civil society leaders to 
promote interfaith cooperation.
    For example, the HRDF has funded a group of experts to analyze, 
identify, and eliminate hateful language in textbooks and increase 
content on tolerance in Israeli and Palestinian schools. In Vietnam and 
Laos, HRDF funds have supported joint trainings on religious freedom 
for government officials and religious leaders from diverse 
backgrounds. HRDF religious freedom programs are in place to increase 
discourse on religious freedom in the Middle East, Indonesia, and 
Pakistan in a wide variety of media, through print programming.
    If confirmed, I will work with my colleagues in the International 
Religious Freedom office, DRL, and throughout the State Department to 
strengthen the creative development, monitoring, and evaluation of this 
programming.

    Question. Will you be responsible for hiring and other employment 
decisions for the Office of International Religious Freedom? Please 
explain.

    Answer. If confirmed as Ambassador at Large, under the mandate of 
the IRF Act, I will head the Office of International Religious Freedom. 
This mandate includes overseeing hiring and employment for the office, 
within U.S. Government guidelines. The Office Director and the Deputy 
Director, in their supervisory capacities, handle the day-to-day 
responsibilities of personnel management.

    Question. Do you intend to meet with all new Ambassadors before 
they leave for their posts? Do you believe that the level of current 
training is sufficient?

    Answer. If confirmed, I would make it a priority to meet with 
ambassadors appointed to serve in countries where we have concerns 
about religious freedom. In some cases, I would also want to meet with 
ambassadors going to countries or missions with whom we collaborate to 
advocate for religious freedom. I will seek opportunities in my travel 
and when Chiefs of Mission are in Washington to promote collaborative 
strategic initiatives to promote religious freedom. Ambassadors and 
their staffs are the critical front line in advancing U.S. religious 
freedom policy. It is crucial that we work together to pursue common 
goals. If confirmed, my priority will be to cultivate constructive 
working relationships with our embassies.
    If confirmed, I look forward to participating in the new courses 
being developed at the Foreign Service Institute, our National Foreign 
Affairs Training Center, to help officers in Washington and abroad 
promote human rights and religious freedom. Much of the current 
training for ambassadors and other State Department officers is 
excellent in focusing on the challenges in the field of promoting 
religious freedom.
    The Bureau of Democracy, Human Rights, and Labor--including the 
Office of International Religious Freedom--together with the National 
Foreign Affairs Training Center (FSI), are working to create new 
courses dealing with religious freedom issues, for both senior and 
working levels, and including interagency courses. In a recently 
developed course, religious freedom has been a significant part of 
training on human rights. A new 3-day course in June will be offered 
with a specific focus on Religion and Foreign Policy, and the Office of 
International Religious Freedom is providing significant input on 
course design. I understand demand for all these courses is very high. 
If confirmed, I will also personally work with FSI, to ensure they have 
the resources and expertise they need on religious freedom issues to 
prepare diplomats to engage boldly and constructively on issues of 
religious freedom.

    Question. What is the Muslim Brotherhood?

    Answer. The Muslim Brotherhood is a transnational Islamic 
organization founded in Egypt in 1928 by Hassan al-Banna as a 
religious, political, and social movement. It was established to 
advocate the centrality of Islam to all facets of life--including 
politics--and it argued for the creation of an Islamic state in Egypt 
based on Islamic law (Sharia). In modern times, the organization seeks 
to implement Islamic law in Egypt. Offshoots of the Muslim Brotherhood 
have spread throughout Egypt, Sudan, Syria, Palestinian Territories, 
Lebanon, and North Africa. The Muslim Brotherhood in Egypt renounced 
domestic violence in the early 1970s, although it has defended the 
right to armed jihad in some cases, such as for Palestinians.
    The Brotherhood can also be seen as a broad ideological movement 
that has given birth to political parties in several countries, such as 
the Islamic Action Front in Jordan and Hamas in Gaza and the West Bank. 
These parties liaise and sometimes receive support from the Egyptian 
Brotherhood but today generally remain operationally independent from 
Cairo. In Egypt under Mubarak, the group was the frequent target of 
large-scale campaigns of arrest and intimidation by the government and 
was not allowed to participate legally in the political process, 
although ``independent'' candidates aligned with the Muslim Brotherhood 
were occasionally elected to Parliament, most notably in 2005.
    The stated goal of the Egyptian Brotherhood's current leader or 
General Guide, Muhammad Badie, is to ``show the world the true Islam, 
the Islam of moderation and forgiveness that respects pluralism in the 
whole world.'' However, in 2008, Muhammad Madhi Akef, then the 
Brotherhood's General Guide, said his organization supports democracy, 
but only the ``right kind . . . one that honors Sharia.'' While the 
Brotherhood continues to eschew violence and has consistently condemned 
al-Qaeda, its leadership has generally viewed attacks by groups such as 
Hamas and Hezbollah as legitimate because the Muslim Brotherhood views 
attacks by Hamas and Hezbollah as being categorically distinct from al-
Qaeda violence. In their mind, Hamas and Hezbollah are using violence 
in pursuit of legitimate national liberation goals in the face of 
foreign occupation. They view al-Qaeda attacks as indiscriminate, 
disconnected from any achievable political goals, and guilty of killing 
too many Muslims. In 2007 it released a draft political party platform 
statement that indicated a broad commitment to democratic norms, 
although some elements suggested ongoing ambiguity regarding universal 
civil rights and the status of Sharia. The movement's youth wing, which 
took part in the demonstrations in Tahrir Square, has expressed 
interest in reforming the Muslim Brotherhood by elevating the role of 
women within the organization, incorporating religious minorities, and 
placing less emphasis on the direct implementation of Islamic law.
    The Muslim Brotherhood has expressed its intention to participate 
in the post-Mubarak political process in Egypt and supported the 
constitutional amendments. A number of other Islamic parties have 
emerged since Mubarak's fall, some of which have come out of the 
Brotherhood itself. This reflects the variety of agendas and 
generational differences found today within this broad movement.

    Question. Do you believe that past actions by the United States 
against countries labeled by the Department of State as Countries of 
Particular Concern (CPCs) have been effective? If so, how? Please give 
examples.

    Answer. The effectiveness of past actions against CPCs has varied 
between countries. I am committed to the use of CPC designations and 
will use Presidential Actions as appropriate. The range of CPCs, the 
diversity of the abuses and restrictions on religious freedom, and in 
some cases the restrictions on direct engagement (such as North Korea 
and Iran), require evaluation on a case-by-case basis and targeted 
strategies. Past actions have yielded significant results in some 
countries. For example, an agreement in 2006 with the Government of 
Vietnam led to enactment of a new legal framework that opened the door 
to recognition of new religious groups and increased registration of 
Protestant churches. Despite this progress, significant issues remain, 
and, if confirmed, I will focus on Vietnam as a priority country. Even 
when CPC designation leads to progress toward religious freedom, we 
must remain vigilant and continue our diplomatic engagement.
    Actions taken by the United States against a country of particular 
concern must be part of a broader engagement strategy with that country 
to truly realize progress. If confirmed, I will develop broad 
engagement strategies--tailored to each country--that complement the 
important tool of a Presidential Action under the IRF Act. This 
engagement is critical to the IRF Act mandate for the Ambassador at 
Large ``to advance the right to freedom of religion abroad.'' For 
example, we can complement the threat or use of a Presidential Action 
through a range of tools, including diplomatic advocacy, working 
directly with religious and other civil society leaders, consulting 
with diaspora communities in the United States, funding effective and 
creative programs on the ground, and collaborating with other 
governments and NGOs to advance religious freedom.

    Question. What tools will you use other than public diplomacy?

    Answer. If confirmed, I will lead the U.S. Government's efforts to 
press governments that violate religious freedom, engage governments 
that share our views, and reach out to religious leaders and civil 
society worldwide to urge them to work with me on an agenda in their 
countries and regions to promote religious tolerance and freedom. I 
would work with my colleagues throughout the U.S. Government, 
particularly our ambassadors overseas, to develop robust strategies to 
monitor, promote, and report on religious freedom around the world. The 
IRF Act provides many tools to help advance these goals, including 
sanctions and other Presidential Actions when appropriate.
    We must also leverage multilateral efforts, especially in 
collaboration with like-minded partners, to reinforce the importance of 
freedom of religion. I would also work with religious leaders and other 
civil society groups in an effort to increase their influence on 
government policies and assist their efforts to confront societal 
pressures that cause religious persecution. Exchanges are also an 
important tool, bringing government and religious leaders to the United 
States to experience firsthand our policies on religious freedom and 
sending speakers from the United States to promote religious freedom 
abroad. In multireligious societies, there are many opportunities for 
creative programs such as training religious groups, civil society, 
lawmakers, and government officials to develop legal and policy 
protections for religious freedom; increasing public awareness of 
restrictions on religious freedom and international rights; and 
promoting interfaith tolerance and mutual respect through education, 
training, and media tools. Each country presents unique challenges and 
opportunities, and almost always will require a multi-faceted approach.

    Question. Given the recent unrest in Middle East, what new 
opportunities for involvement do you see that did not previously exist? 
Please outline in detail your strategy for the region.

    Answer. The Middle East must be a top priority for promoting 
religious freedom, especially given recent attacks on religious 
minorities in the region. I am deeply disturbed by the increase of 
persecution and violence against religious minorities in this region 
and in many other parts of the world. I will impress upon governments 
that religious freedom enhances stability, and that restrictions on 
religious communities only serve to encourage more sectarian tensions 
and violence.
    The changes that we are seeing in the Middle East have been 
dramatic and often inspiring, yet violence and intolerance remain 
sources of concern--particularly for religious minorities in this 
region. We are observing a mixed picture in the region, and I would 
encourage those voices promoting religious freedom among the emerging 
political leadership and strengthened minority community voices. 
Minority religious communities in Middle Eastern countries where they 
had previously been repressed should have new opportunities for 
engagement with governments, interfaith dialogue, and progress toward 
greater religious tolerance and religious freedom. It will be one of my 
top priorities to support those voices inside the region using these 
opportunities to increase respect for religious freedom and interfaith 
dialogue.
    If confirmed, I will lead the U.S. Government's efforts to press 
for reform with governments that violate religious freedom, work with 
governments that share our views, and reach out to religious leaders 
worldwide to urge them to work with the United States in this region to 
promote religious tolerance and freedom. The Secretary is deeply 
engaged on religious freedom issues, and the first line of defense on 
religious freedom is our hard-working embassies and missions worldwide. 
The IRF act provides many tools to advance this agenda. I will use all 
the tools of diplomacy and engagement, including public and private 
messaging, pressure, and programs.
    In Egypt, if confirmed, I would lead U.S. efforts to foster 
strategic dialogue between Muslims and minority groups who desire a 
civil state where all people, irrespective of religious identity, share 
equal rights, duties, and opportunities. I will work with my colleagues 
in the State Department and with civil society to advocate for a change 
in the Egyptian law to remove severe restrictions on building and 
renovating Christian places of worship. In Iraq, I would work with 
other U.S. officials to continue to press the Iraqi Government to 
protect vulnerable religious minorities by taking effective measures to 
prevent future attacks and to bring to justice the perpetrators of 
attacks on Christians and other minorities. I would also focus on Saudi 
Arabia, in particular pressing for meaningful reform of educational 
curriculum, which continue to incite hatred and intolerance toward non-
Muslims and certain Muslims. I will seek to reinvigorate our dialogue 
with the Saudis to reduce systemic restrictions on religious freedom 
for all Saudis, including Shia Muslims.
                                 ______
                                 

       Responses of Suzan Johnson Cook to Questions Submitted by
                        Senator Richard G. Lugar

    Question. The International Religious Freedom Act of 1998 
established the United States Commission on International Religious 
Freedom (USCIRF) to review annually the state of international 
religious freedom and to make policy recommendations to the President, 
Secretary of State, and Congress. The Commission's mandate is set to 
expire September 30, 2011. Does the administration support the 
reauthorization of the Commission? Why or why not?

    Answer. USCIRF has played and continues to play an important and 
positive role in advocating for religious freedom throughout the world. 
The respective roles of the Department of State and USCIRF under the 
International Religious Freedom Act (IRF Act) are complementary. Each 
continues to focus on the mutual goal of promoting religious freedom 
while fulfilling their statutory mandates, which include publishing 
annual reports. If confirmed I will seek out USCIRF's input and will 
welcome their recommendations. I will increase collaboration between 
USCIRF and the Department of States' Office of International Religious 
Freedom (IRF Office) toward our shared goal of ending religious 
persecution and advancing freedom of religious belief and practice 
around the world. With regard to a reauthorization, I understand that 
the legislation that has not yet been introduced. Since I am not 
confirmed, I am not yet in a position to speak on legislative matters.
    When enacted 13 years ago, the IRF Act envisioned clear and 
distinct roles for the Ambassador at Large as head of the IRF Office, 
and USCIRF as an independent congressionally funded Commission. Passage 
of the IRF Act brought heightened emphasis to the cause of religious 
freedom as a central component in U.S. human rights policy and U.S. 
foreign policy generally. In 1998, as evidenced by the structure of the 
IRF Act itself, Congress created USCIRF as an additional voice on 
religious freedom, and to evaluate progress on U.S. religious freedom 
policy and make recommendations accordingly.

    Question. In Pakistan, a Christian government official, and the 
first-ever Federal Minister for Minorities, Shahbaz Bhatti, was shot 
and killed after advocating the reformation of local blasphemy laws. 
This assassination followed on the heels of the assassination of Punjab 
Governor, Salman Taseer in January 2011 who also called for the 
reformation of these laws. What strategy would you employ to combat 
such religious intolerance?

    Answer. I am very concerned about the attacks on religious 
minorities in Pakistan, including abuses under the blasphemy laws; the 
treatment of Christians, Ahmadis, and reform-minded Muslims; and the 
increase in the number and severity of reported high-profile cases 
against members of religious minorities.
    I am deeply saddened by the brutal killing of Minister Bhatti and 
Governor Taseer and condemn the killings in the strongest possible 
terms. My deepest sympathies are with their families and friends. Both 
men gave their lives to defend the principles of religious freedom, 
equality, and human rights for all Pakistanis. The assassination of 
Minister Bhatti, merely 2 months after the assassination of Governor 
Taseer, emphasizes the need for aggressive advocacy of religious 
freedom and tolerance in Pakistan.
    I am committed to the same principles Minister Bhatti and Governor 
Taseer fought for, and, if confirmed, I will prioritize and elevate 
U.S. efforts to promote freedom of religion in Pakistan. I will work 
with Government officials to urge them to take the necessary measures 
to address the serious religious freedom problems in the country and to 
address discriminatory and repressive blasphemy and anti-Ahmadi laws. 
These laws have been exploited to harass religious minorities, 
sectarian opponents, and Muslims, and to retaliate in personal 
disputes. I will also work with civil society, including religious 
leaders, to encourage voices of tolerance and to support their efforts 
to promote religious freedom and interfaith respect and understanding 
in Pakistan.

    Question. A New Year's Day car bombing in Alexandria, Egypt killed 
21 worshippers at a local Coptic church and marked one of the deadliest 
terrorist attacks in Egypt since 2006. Many Coptic Christians worry 
that religious persecution will escalate given the uncertain political 
landscape in Egypt at this time. What role, if any, would your office 
play in addressing religious violence in the region and protecting 
religious minorities?

    Answer. The Middle East must be a top priority in promoting 
religious freedom, now more than ever, given both the attacks on 
members of religious minorities in the region and opportunities to 
build upon the common purpose that emerged as Muslims and Christians 
supported each other in Cairo's Tahrir Square. If confirmed, I will 
work with my colleagues in the U.S. Government to support those in 
Egypt and throughout the region who seek meaningful progress on 
religious freedom. If confirmed, I will encourage opportunities that 
have emerged from calls for political reform. I will join forces with 
my colleagues to combat efforts to exploit sectarian tensions. I remain 
very concerned about longstanding violence and discrimination against 
members of religious minorities in Egypt and elsewhere in the region.
    If confirmed, I would plan to visit this region soon and press the 
governments to protect religious freedom, and to discourage sectarian 
violence and societal intolerance. Governments that justify restricting 
religious freedom out of security and stability concerns only encourage 
impunity and often lead to more sectarian violence. I would emphasize 
that point to governments in the region. I would work with my USG 
colleagues to press governments to protect members of vulnerable 
religious minorities by taking effective measures to prevent future 
attacks and to bring to justice the perpetrators of attacks on 
Christians, Jews, and members of other religious minorities.
    I will also work to strengthen civil society that promotes 
religious tolerance, and programs that promote tolerance and mutual 
respect between different religious communities. If confirmed, I will 
advocate for increasing U.S. programs and activities to support 
initiatives in several areas directly related to religious freedom, 
such as funding for programs that work with Coptic and Muslim community 
groups, reform of official curricula to remove religious bias, as well 
as support for NGOs that monitor the country's media for occurrences of 
sectarian bias.
    Regarding Egypt in particular, if confirmed, I will work closely 
with our Ambassador and other USG officials to advocate for an end to 
acts of sectarian violence, for greater protection of religious freedom 
and equal rights under the law for persons of all faiths. I will 
advocate for the removal of laws that discriminate against religious 
minorities and for the adoption of a unified law on places of worship. 
I will also work with the Government of Egypt in its efforts to address 
concerns of the Coptic community. I am heartened to see that the 
Egyptian Prime Minister has met with the leadership of the Coptic 
community following the recent destruction of a Coptic church in Sol.
    I have also been encouraged by calls for unity and mutual respect 
among Egypt's various religious groups. If confirmed, I will support 
and encourage our Embassy in Cairo in its continuous efforts to promote 
religious freedom values with government officials, civil society, and 
political and religious leaders. I will also strongly support our 
Embassy's efforts to maintain and broaden an active dialogue with 
leaders of the Jewish, Christian, Muslim, and Baha'i religious 
communities, human rights groups, and other activists.

    Question. While religious minorities in Iran face constant 
persecution and harassment, many members of the Baha'i community have 
been arrested for proselytizing in Tehran, Bam, and Kerman, and seven 
Baha'i leaders who were sentenced to 20 years in prison in August 2010. 
Given the lack of diplomatic relations the United States has with Iran, 
what strategies, if any, would your office employ to foster religious 
freedom in Iran?

    Answer. I have been following the persecution of Baha'is and other 
religious communities in Iran with great concern. I understand that the 
State Department is working closely with representatives of these 
communities and other like-minded countries to develop best strategies 
for improving both religious freedom in Iran and the morale of the 
persecuted populations. President Obama's criticism of the Iranian 
Government's persecution of the Baha'i and Sufis in his March 20 
remarks marking the Persian holiday Nowruz, got the attention of the 
Iranian Government and was enthusiastically received by Baha'is and 
other religious minorities in and outside of Iran.
    If confirmed, I will continue these efforts of targeted and 
effective statements, partner with like-minded governments and the 
newly created U.N. Special Rapporteur for Human Rights in Iran, and 
develop additional opportunities to sanction those who continue to 
persecute Baha'is because of their faith.
    Under the Comprehensive Iran Sanctions, Accountability, and 
Divestment Act of 2010, the U.S. Government has applied targeted 
sanctions against Iranian officials for serious human rights abuses. 
Just last month, the Prosecutor General of Tehran--who among his many 
actions against minorities and others, ordered the arrest of seven 
Baha'i--was added to the sanctions list.


                              NOMINATIONS

                              ----------                              


                         TUESDAY, APRIL 5, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Mara E. Rudman, of Massachusetts, to be an Assistant 
        Administrator of the United States Agency for 
        International Development
Robert Patterson, of New York, a Career Member of the Senior 
        Foreign Service, Class of Counselor, to be Ambassador 
        to Turkmenistan
                              ----------                              

    The committee met, pursuant to notice, at 10:15 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey Jr., presiding.
    Present: Senator Casey.
    Also Present: Senator Reed.

         OPENING STATEMENT OF HON. ROBERT P. CASEY JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    I want to thank everyone for being here this morning.
    The way we will proceed is, I will present an opening 
statement. I will turn to my colleague Senator Reed of Rhode 
Island. We are grateful he is here with us. And then, of 
course, we will turn to our nominees and go from there.
    But first of all, I want to thank everyone for being here. 
Today, the Senate Foreign Relations Committee, meets to examine 
the nominations of Mr. Robert E. Patterson to be Ambassador to 
Turkmenistan and Ms. Mara Rudman to be the Assistant 
Administrator for the Middle East at the U.S. Agency for 
International Development.
    First, with regard to Turkmenistan, the United States has 
not had an Ambassador in Turkmenistan for nearly 5 years. As 
the country begins to open up to the outside world, it is 
critical that the United States is fully represented to pursue 
a range of interests, including human rights, energy, and 
security interests.
    The human rights situation remains of serious concern in 
Turkmenistan. Last May, I signed a letter, led by Senators 
Durbin and Brownback, to Secretary Clinton on behalf of three 
prisoners of conscience detained in Turkmenistan. Just last 
week, Turkmen authorities confined a Radio Free Europe 
contributor to a psychiatric hospital after he criticized a 
local government official of corruption. This Soviet-era 
practice of committing political dissidents to psychiatric 
facilities, unfortunately, continues in Turkmenistan.
    As Turkmenistan continues to open more to the outside 
world, it is important for the United States, working with the 
Organization for Security and Cooperation in Europe, to take an 
active role in advancing our interests and our values. I know 
that Mr. Patterson shares these concerns, and I look forward to 
hearing how he will address human rights issues amid our other 
important interests in Turkmenistan.
    Many in the Senate have concerns about Turkmenistan's 
energy resources and their export abroad. I understand that 
Turkmenistan shares a desire to diversify its energy export 
routes and has indicated that participating in the Nabucco 
Project is a possibility, and I look forward to hearing from 
Mr. Patterson on how he will encourage this diversification of 
Turkmenistan's energy export routes and how this important 
market can become more open to U.S. companies.
    Turkmenistan has played a positive role with respect to its 
neighbor Afghanistan. The Government of Turkmenistan has built 
hospitals and schools in parts of Afghanistan inhabited by 
Turkmen. We should be working to further encourage this kind of 
activity.
    Recognizing the deep historic ties between Afghanistan and 
the countries of Central Asia, some have expressed concern 
about the level of coordination among our diplomatic assets in 
the region. As the importance of the Northern Distribution 
Network through Central Asia to Afghanistan has grown, regular 
coordination among our diplomats in South and Central Asia will 
become even more important. I hope that communication and 
coordination among the posts in these countries will be a top 
priority for the State Department.
    Mr. Patterson is a career Foreign Service officer who has 
served in challenging posts around the world. He currently 
serves as the senior adviser for the Somali diaspora and has 
served in our embassies in Kenya, Russia, Hungary, Ukraine, and 
Armenia. His experience in the former Soviet Union will 
especially serve him well in this post, if confirmed. Mr. 
Patterson has served the United States in the U.S. Air Force.
    Mr. Patterson, I want to thank you for your longstanding 
service to the country and for your willingness to take on 
another challenging assignment. We are grateful.
    Next, to the Middle East. The Middle East is right now 
experiencing change of historic proportions. That is a dramatic 
understatement. There is almost no way to capture what we are 
seeing playing out every day in the Middle East on television 
news or in so many other ways that we get information.
    And if confirmed, Mara Rudman will assume a very 
challenging assignment in overseeing USAID's programs in the 
Middle East. As countries in the region continue to experience 
unrest, the work of USAID will be essential in helping to 
ensure political transitions based upon democratic institutions 
and economic reforms.
    USAID has missions in seven countries and two regional 
missions in the Middle East, for a total FY 2010 budget of $1.6 
billion. These programs are targeted toward health, education, 
good governance, and economic development.
    But more important than these statistics is how we 
calibrate our approach to development in a region where the 
United States foreign assistance has been historically 
criticized for supporting undemocratic governments. In this new 
environment, USAID will need to be more agile, responsive, and 
able to engage directly with more citizens in places like 
Egypt, Tunisia, Yemen, and Syria, more so than it has in the 
past.
    How we implement these programs and America's profile in 
supporting civil society and democratic governance is just as 
important as the programs themselves. During this seminal 
period in history and in the history of the Middle East, the 
developmental challenges in the region seem to grow by the day. 
I would like to touch on just a few.
    As we have transitioned responsibility for enforcing U.N. 
Security Council Resolution 1973 to NATO, the United States 
will continue to play an active role in providing humanitarian 
relief to the people of Libya. The President has declared as 
U.S. policy that Gaddafi must go. But he has also said that we 
will not use our military to effect this change.
    In this environment, the tools of USAID are all the more 
essential. Humanitarian and medical support for Libya's people 
and democratic institution-building for an emerging political 
class will be necessary in preparation for a democratic Libya.
    In Egypt, a political transition continues that will soon 
produce new leadership. Without improvements in Egypt's 
economic prospects, the accomplishments of those courageous 
people who marched and demonstrated in Tahrir Square, those 
activists' progress and accomplishments will be jeopardized.
    The United States has an important role to play in Egypt's 
economic development and must also encourage political reforms 
that reflect the democratic aspirations of the Egyptian people.
    Next, to Yemen. Yemen, the poorest country in the region, 
has faced severe development problems ranging from water 
shortages to debilitating poverty. USAID's ability to conduct 
assistance in this country is critically important, and the 
deadly protests against the government have already had an 
impact on our ability to do that.
    Maintaining our ability to deliver assistance to the people 
of countries like Yemen amid the political turmoil will be 
increasingly important in the months to come. All of this takes 
place amid a challenging budget climate here in Washington.
    Administrator Raj Shah has made serious efforts to reform 
USAID and assure accountability and programmatic efficiency to 
the American taxpayer. And it is important that he is doing 
that, and it is important that we support him in doing that. 
Dr. Shah takes on this task not only in the name of fiscal 
responsibility, but also because our assistance needs to be 
strategic and targeted in order to best take advantage of these 
transformational openings and opportunities in the region.
    Events in the region demand a smart development approach by 
the United States that takes a long-term view. President 
Obama's nominee, Mara Rudman, has the experience to fulfill 
this strategic vision for the region. We are fortunate that she 
has accepted the President's appointment, and if confirmed, she 
will be a true asset during this historic period of change in 
the region.
    She currently serves as the Chief of Staff for Presidential 
Envoy for Middle East Peace, former Senator George Mitchell, 
where she has a unique perspective on the formulation of United 
States foreign policy in the region. Her public service at the 
State Department, at the National Security Council, and here on 
Capitol Hill will serve her well in her new position.
    And because today we don't have a ranking member with us 
for the hearing, I will turn immediately to our witnesses. But 
first, to my colleague, Senator Jack Reed of Rhode Island. We 
are honored he is here. He is someone that was a mentor to 
young Senators like me when I got here in 2007.
    And I am always grateful that he is with us to provide his 
perspective on so many important foreign policy challenges we 
have. He is here today in a more limited sense, unless he wants 
to expound upon his comments about Mara Rudman. But we are 
grateful, Senator Reed, that you are here, and you have the 
floor.

                  STATEMENT OF HON. JACK REED,
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman.
    It is a great pleasure and privilege to have the 
opportunity to introduce Mara Rudman, the President's nominee 
to be the United States Agency for International Development's 
Assistant Administrator for the Middle East.
    No one is as superbly qualified as Mara to address the 
critical challenges you have laid out, Mr. Chairman. She has an 
extraordinary background, extraordinary intellect, and 
extraordinary dedication.
    I first had the privilege to work with her about 15 years 
ago, when Lee Hamilton, the chairman of the House Foreign 
Relations Committee, detailed her to the Task Force on National 
Security organized by our leader, Dick Gephardt. I was part of 
that task force and extraordinarily impressed by her intellect, 
by her contribution, and by her sincere and absolute dedication 
to advancing our ideals and also good public policy.
    She has an extensive background, as you laid out, in terms 
of the Middle East. It began a long time ago at Dartmouth 
University, and continued at Harvard Law School. Then she went 
on to clerk for Judge Stanley Marcus in the Southern District 
of Florida, and was an associate in a Washington law firm.
    But really, it was on Capitol Hill where she found not only 
her niche, but also had so much of a profound and meaningful 
impact, working first for Gerry Studds and then as chief 
counsel to Lee Hamilton on the House Foreign Affairs Committee.
    She also served on the National Security Council, under 
both President Clinton and President Obama. So she has the 
experience of both the executive, and the legislative, and all 
of it, indeed, in the context principally of Middle East 
policy. And as you pointed out, she has served the last few 
years as the Chief of Staff to George Mitchell in his 
extraordinarily important work as Special Envoy in the Middle 
East.
    She has also been in the private sector. She has worked 
with our former Secretary of Defense, Bill Cohen and the Cohen 
Group. All of this experience underscores how well prepared she 
is for the most challenging assignment I can think of, trying 
to provide the soft power in a region that requires that.
    She is a pragmatist, and a problem-solver. She is going to 
do a great job, and I would urge your immediate consideration 
and favorable consideration.
    And thank you, Mr. Chairman.
    Senator Casey. Senator Reed, thank you very much.
    We are honored that you are here today, and that is quite a 
significant testimony about a nominee. We are grateful you are 
able to provide that. You are welcome at the Foreign Relations 
Committee anytime.
    Thank you, everyone, and we will go right to our witnesses 
now.
    Mr. Patterson, you have the floor. Of course, if you want 
to submit your statement for the record, both of your 
statements, will be made part of the record in full.
    And of course, if you want to go through your statement, 
that is fine. We will try to keep it roughly to about 5 
minutes, if you can. Or if you want to just summarize that 
would be fine also.

STATEMENT OF ROBERT PATTERSON, OF NEW YORK, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
                   AMBASSADOR TO TURKMENISTAN

    Mr. Patterson. Thank you, Mr. Chairman.
    Mr. Chairman, I am honored to appear before you as 
President Obama's nominee to become U.S. Ambassador to 
Turkmenistan. I am grateful to the President and to Secretary 
Clinton for their trust in me. If confirmed, I will work with 
you to advance America's interests in Turkmenistan.
    The United States recognized Turkmenistan in February 1992 
and since that time has supported its development as a stable, 
secure, democratic, and prosperous Central Asian state. 
However, Turkmenistan lies in a tough neighborhood bordering 
Iran and Afghanistan and faces many challenges in building 
democratic institutions and in fighting corruption.
    A key U.S. priority in Central Asia is to encourage efforts 
to aid in the stabilization of Afghanistan. Turkmenistan shares 
a long border with Afghanistan and is aware of the danger that 
continuing instability there poses to itself and to other 
countries in the region.
    Turkmenistan has acted in accordance with its policy of 
positive neutrality to provide discounted electricity, housing, 
hospitals, and other forms of humanitarian aid to its Afghan 
neighbors. President Berdimuhamedov's recent announcement of 
the intention to increase electricity supplies fivefold to 
Afghanistan is a welcome sign of continued engagement in that 
important effort. If confirmed, I will encourage Turkmenistan 
to continue to provide all possible support to Afghanistan.
    Turkmenistan has significant natural gas reserves and is 
seeking to diversify their distribution. President 
Berdimuhamedov has expressed Turkmen interest in supplying gas 
to Europe through a Trans-Caspian Pipeline. We continue to 
strongly encourage Turkmenistan to send its gas across the 
Caspian to Europe via the Southern corridor.
    Another potential project is the Turkmenistan-Afghanistan-
Pakistan-India, or TAPI, pipeline, which President 
Berdimuhamedov has taken a leading role in promoting. If built, 
TAPI would strengthen economic ties between Central and South 
Asia by sending needed resources to growing markets.
    U.S. firms have the experience and a demonstrated track 
record in major energy projects. And if confirmed, I would work 
hard to support their efforts to invest in Turkmenistan.
    Of course, our commercial relationship with Turkmenistan 
goes beyond energy. U.S. companies are active in various 
sectors of the Turkmen economy, from agriculture to civil 
aviation. If confirmed, I will actively support U.S. firms and 
seek to expand economic ties with Turkmenistan, particularly in 
light of the President's National Export Initiative.
    As recent events have yet again demonstrated, respect for 
human rights, the rule of law, and transparent and accountable 
governmental institutions are essential to peace and long-term 
stability in any country. If confirmed, I will energetically 
engage the Government of Turkmenistan on the full range of 
human rights issues, including arbitrary detentions and 
arrests, limitations on freedom of movement and expression, 
allegations of torture and prisoner abuse, and human 
trafficking.
    A frank and detailed discussion of human rights concerns 
already has a prominent place in our Annual Bilateral 
Consultations with high-ranking Turkmenistan Government 
representatives. These consultations began in June 2010, and I 
am certain that we will use future such meetings and other 
contacts to discuss important human rights issues.
    Turkmenistan's border with Afghanistan and its outlet to 
the Caspian Sea have made it a significant drug transit 
corridor. In recent years, the United States has had some 
success in increasing cooperation with Turkmenistan on 
counternarcotics programs, including improved control of its 
borders and ports.
    Much remains to be done, and if confirmed, I will seek 
opportunities to strengthen our emerging counternarcotics and 
border security cooperation with Turkmenistan, with the goal of 
improving regional stability. A better capacity to combat the 
drug trade at its source ultimately contributes to the well-
being of the United States.
    Much of my 25 years in the State Department has been spent 
at U.S. missions overseas, and I have come to believe that we 
make our greatest impact on a country through engagement with 
its people in their own communities. Some of these contacts 
fall under the formal heading of public diplomacy, but much 
happens when you simply get out and live life in the country to 
which you are assigned.
    In Turkmenistan, the small number of foreign visitors and 
residents makes such incidental contacts all the more 
important. And if confirmed, I will encourage colleagues in our 
mission to demonstrate American values in their daily 
interactions with citizens of Turkmenistan.
    Finally, I know that, if confirmed, I will ultimately be 
responsible for the welfare of the U.S. mission, my U.S. 
mission colleagues, and their families in a fairly remote part 
of the world. Their well-being and that of other Americans in 
Turkmenistan will be a top priority.
    Thank you. I look forward to answering your questions.
    [The prepared statement of Robert Patterson follows:]

               Prepared Statement of Robert E. Patterson

    Mr. Chairman and members of the committee, I am honored to appear 
before you as President Obama's nominee to become U.S. Ambassador to 
Turkmenistan. I am grateful to the President and to Secretary Clinton 
for their trust in me. If confirmed, I will work with you to advance 
America's interests in Turkmenistan.
    The United States recognized Turkmenistan in February 1992 and 
since that time has supported its development as a stable, secure, 
democratic, and prosperous Central Asian state. Turkmenistan lies in a 
tough neighborhood bordering Iran and Afghanistan, and faces external 
and internal challenges in building democratic institutions and civil 
society, open media, and in fighting corruption.
    A key U.S. priority in Central Asia is to encourage efforts to aid 
in the stabilization of Afghanistan. Turkmenistan shares a long border 
with Afghanistan and is aware of the danger that continuing instability 
there poses to itself and to other countries in the region. 
Turkmenistan has acted in accordance with its policy of ``positive 
neutrality'' to provide discounted electricity, housing, hospitals, and 
other forms of humanitarian aid to its Afghan neighbors. President 
Berdimuhamedov's recent announcement of the intention to increase 
electricity supplies fivefold to Afghanistan is a welcome sign of 
Turkmenistan's continued engagement in that important effort. If 
confirmed, I will encourage Turkmenistan to continue to provide all 
possible support to Afghanistan.
    Turkmenistan has significant natural gas reserves and is seeking to 
diversify their distribution. In recent statements, President 
Berdimuhamedov has expressed Turkmen interest in supplying gas to 
Europe through a Trans-Caspian Pipeline. We continue to strongly 
encourage Turkmenistan to send its gas across the Caspian to Europe via 
the Southern Corridor. Another potential project is the Turkmenistan-
Afghanistan-Pakistan-India, or TAPI, pipeline, which President 
Berdimuhamedov has taken a leading role in promoting. If built, TAPI 
could strengthen economic ties between Central and South Asia by 
sending needed resources to growing markets. U.S. firms have the 
experience and a demonstrated track record in major energy projects, 
and, if confirmed, I would work hard to support their efforts to invest 
in projects in Turkmenistan, including projects like the Trans-Caspian 
Pipeline and TAPI.
    Our commercial relationship with Turkmenistan goes beyond its 
prominent energy sector, however. U.S. companies are active in various 
sectors of the Turkmen economy--ranging from agriculture to civil 
aviation. If confirmed, I will actively support U.S. firms and seek to 
expand economic ties with Turkmenistan, particularly in light of the 
President's National Export Initiative.
    As recent events have yet again demonstrated, respect for human 
rights, the rule of law, and transparent and accountable governmental 
institutions are essential to peace and long-term stability in any 
country. If confirmed, I will energetically engage the Government of 
Turkmenistan on the full range of human rights issues, including 
arbitrary detentions and arrests, limitations on freedom of movement 
and expression, allegations of torture and prisoner abuse, and human 
trafficking. A frank and detailed discussion of human rights concerns 
already has a prominent place in our Annual Bilateral Consultations 
with high-ranking Turkmenistan Government representatives. Those 
consultations began in June 2010, and I am certain that we will use 
such meetings and other contacts with the Turkmen Government in the 
future, to discuss important human rights issues.
    Turkmenistan's border with Afghanistan and outlet to the Caspian 
Sea have made it a significant drug transit corridor. In recent years, 
the United States has had some success in increasing cooperation with 
Turkmenistan on counternarcotics programs, including improved control 
of its borders and ports. Much remains to be done, and if confirmed I 
will seek opportunities to strengthen our emerging counternarcotics and 
border security cooperation with Turkmenistan with the goal of 
improving regional stability. A better capacity to combat the drug 
trade at its source ultimately contributes to the well-being of the 
United States.
    Much of my 25 years in the State Department has been spent at U.S. 
missions overseas, and I have come to believe that we make our greatest 
impact on a country through engagement with its people in their own 
communities. Some of these contacts fall under the formal heading of 
``public diplomacy,'' but much happens when you simply get out and live 
life in the country to which you are assigned. In Turkmenistan, the 
small number of foreign visitors and residents makes such incidental 
contacts all the more important, and, if confirmed, I will encourage 
colleagues in our mission to demonstrate American values in their daily 
interactions with citizens of Turkmenistan. I believe that ``public 
diplomacy,'' promoting more official people-to-people exchanges, should 
also be a major priority. More than 740 Peace Corps Volunteers have 
been actively engaged in this effort in Turkmenistan since the start of 
the program there in 1993, teaching English and promoting health 
education in remote parts of the country.
    Finally, I know that, if confirmed, I will ultimately be 
responsible for the welfare of my U.S. mission colleagues and their 
families in a fairly remote part of the world. Their welfare will be my 
top priority, as will the well-being and interests of other American 
citizens living in Turkmenistan.
    Thank you. I look forward to answering your questions.

    Senator Casey. Thank you, Mr. Patterson.
    Ms. Rudman.

    STATEMENT OF MARA E. RUDMAN, OF MASSACHUSETTS, TO BE AN 
    ASSISTANT ADMINISTRATOR OF THE UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Rudman. Mr. Chairman, it is an honor to appear before 
you today.
    I want to express my appreciation for the trust and 
confidence that President Obama and Administrator Shah have 
placed in me through this nomination. And I am grateful to have 
the strong support of Secretary Clinton.
    It is difficult to conceive of a more challenging time to 
be considered for this portfolio. In country after country, the 
people of the region have, in a word, inspired. As the 
President said last week, ``We must stand alongside those who 
believe in the same core principles that have guided us through 
many storms.''
    If confirmed, I look forward to working with the dedicated 
women and men of USAID and colleagues throughout the U.S. 
Government, laying the foundation for diplomatic and 
development strategies that will serve us and the peoples and 
countries of the Middle East in the months and years ahead. I 
want especially to recognize the dedicated public service of 
George Laudato, who has led the Bureau for the past 3 years.
    This transition and period of regional change are providing 
a rapid-fire chance to operationalize Secretary Clinton and 
Administrator Shah's shared goal--to modernize and strengthen 
USAID, reaffirming its status as the premier development agency 
in the world. If confirmed, I can assure you that no one will 
work harder to see that we are responding effectively to the 
great challenges and historic opportunities that we face.
    In that regard, my objectives for the Middle East Bureau go 
to areas that I believe are critical to the sustainability, 
growth, and success of our policy missions. If confirmed, I 
would focus on managing our relationships with key countries so 
as to move from assistance to cooperation and partnership.
    I would work to ensure that the best and most innovative 
initiatives are not only developed, but implemented 
effectively. And I would coordinate closely with colleagues at 
State, Treasury, and the White House and Defense to see that we 
are truly practicing smart diplomacy, using development, 
diplomacy, and defense as mutually reinforcing policy platforms 
to make the objectives of the QDDR come alive.
    I focus on the pragmatic, on the details of how to get 
things done and bridge the gaps with a range of actors, across 
cultures internationally and domestically. I recognize that it 
is important to have a political horizon, a strategic vision. 
But once we have it, we must be able to maintain the vision 
while we implement programs and projects with maximum 
effectiveness.
    Under the leadership of Administrator Shah, USAID is 
implementing an aggressive agenda to streamline development 
work, the USAID Forward agenda, which you mentioned. In this 
context, I am excited that the Middle East Bureau is already 
brokering new approaches to development.
    I appreciate the enormity of tasks ahead in this region and 
in this position. I also recognize how fortunate I am to have 
worked with and for people who helped me prepare to take this 
challenge. I would like to specifically thank Representatives 
Lee Hamilton, Howard Berman, and Sam Gejdenson, leaders on the 
House Foreign Affairs Committee, for the investment they have 
made in guiding me.
    I also owe much to Senator Reed and Senator Shaheen, who 
have been gracious with their counsel to me over the years, and 
to Chairman Kerry. Among other things, Chairman Kerry showed me 
how, by example, to conference a bill in my early days as 
HFAC's chief counsel.
    I have spent much time deeply involved in the Middle East, 
from my first position as a legislative assistant for my 
hometown Congressman to my current work as a deputy to Senator 
Mitchell, where, among other things, I coordinate United States 
efforts to support Palestinian institution-building.
    Through my time in Government, I have learned to appreciate 
the dynamics among and between the agencies and actors that 
play a role on foreign assistance and foreign policy. To 
implement programs effectively and meet foreign policy 
objectives, it is critical to navigate smoothly in this 
environment. I also value the time I have spent working on both 
ends of Pennsylvania Avenue, in different parts of the 
executive and with the judiciary.
    When working on governance challenges in other parts of the 
world, it has made a huge difference for me to be able to draw 
upon the experience I have had in our own Government--a 
contentious floor debate, an intricate conference bill 
negotiation, a complex set of jury instructions to be drafted, 
advising a President, working out budget differences with a 
legislature controlled by the opposition party.
    I discovered the magic of how quickly this makes the world 
a much smaller place when I found myself explaining the House 
Rules Committee operations to a group of villagers in a remote 
part of the West Bank when the Palestinian Legislative Council 
had just run its first election in the mid-1990s, and rules 
that would govern its proceedings were at the time heavily 
debated among its citizenry.
    This is because, as President Obama described in Cairo 
nearly 2 years ago, ``All people yearn for certain things--the 
ability to speak your mind and have a say in how you are 
governed, confidence in the rule of law and the equal 
administration of justice, government that is transparent and 
doesn't steal from the people, the freedom to live as you 
choose.''
    As President Obama, Secretary Clinton, and Administrator 
Shah believe, we have the power to create the world we seek if 
we have the courage to embrace opportunity and the willingness 
to do things smartly, sometimes differently, and together.
    I am honored to be considered for this position and fully 
appreciate the responsibility and challenges it entails. I am 
deeply committed to the mission of USAID and the role it plays 
in advancing our national security, promoting economic 
opportunity, and embodying our core American values.
    Thank you for the opportunity to appear before you today. I 
welcome any questions you might have.
    [The prepared statement of Mara E. Rudman follows:]

                  Prepared Statement of Mara E. Rudman

    Mr. Chairman, ranking member, distinguished members of the 
committee, it is an honor to appear before you today as President 
Obama's nominee to be the next Assistant Administrator for the Middle 
East at the U.S. Agency for International Development.
    I want to express my appreciation for the trust and confidence that 
President Obama and Administrator Shah have placed in me through this 
nomination. And I am grateful to have the strong support of Secretary 
Clinton.
    It is difficult to conceive of a more challenging time to be 
considered for this portfolio. In country after country the people of 
the region have, in a word, inspired. As the President said last week, 
``we must stand alongside those who believe in the same core principles 
that have guided us through many storms: our opposition to violence 
directed against one's own citizens, our support for a set of universal 
rights . . . [and] our support for governments that are ultimately 
responsive to the aspirations of the people.''
    If confirmed, I look forward to working with the dedicated women 
and men of USAID, and colleagues throughout the U.S. Government, laying 
the foundation for diplomatic and development strategies that will 
serve us and the peoples and countries of the Middle East in the months 
and years ahead. I want especially to recognize the dedicated public 
service of George Laudato, who has led the Bureau for the past 3 years, 
having been called back to USAID from retirement to do so.
    This transition and period of regional change are providing a 
rapid-fire chance to operationalize Secretary Clinton and Administrator 
Shah's shared goal: to modernize and strengthen USAID, reaffirming its 
status as the premier development agency in the world. If confirmed, I 
look forward to picking up the baton as my colleagues are working to 
make important progress. I can assure you that no one will work harder 
to see that we are responding most effectively to the great challenges 
and historic opportunities that we face.
    In that regard, my objectives for the Middle East Bureau go to 
areas that I believe are critical to the sustainability, growth, and 
success of our policy missions. If confirmed, I would:

  <bullet> Focus on managing our relationships with key countries so as 
        to move from ``assistance'' to ``cooperation and partnership.''
  <bullet> Work to ensure that the best and most innovative initiatives 
        are not only developed, but implemented effectively; that we 
        evaluate the results, and learn from and apply those lessons 
        going forward.
  <bullet> Coordinate closely with colleagues at State, Defense, 
        Treasury, and the White House to see that we are truly 
        practicing smart diplomacy, using development, diplomacy, and 
        defense as mutually reinforcing policy platforms to make the 
        objectives of the Quadrennial Diplomacy and Development Review 
        (QDDR) come alive.

    I believe in the importance of focusing on the pragmatic--on the 
details of how to get things done and ``bridge the gaps'' with a range 
of actors, across cultures internationally and domestically. I 
recognize that it is important to have a political horizon, a policy 
objective, a strategic vision. But once we have it, we must be able to 
maintain the vision while we implement programs and projects with 
maximum effectiveness.
    Under the leadership of Administrator Shah, USAID is implementing 
an aggressive agenda to streamline development work, the ``USAID 
Forward'' agenda, which builds on Secretary Clinton's QDDR and the 
Presidential Policy Directive on Global Development. In this context, I 
am excited that the Middle East Bureau is already brokering new 
approaches to development.
    I appreciate the enormity of tasks ahead in this region and 
position. I also recognize how fortunate I am to have worked with and 
for people who have helped prepare me to take on this challenge. I 
would like to specifically thank Representatives Lee Hamilton, Howard 
Berman, and Sam Gejdenson, leaders on the House Foreign Affairs 
Committee, for the investment they have made in guiding me. I also owe 
much to Senators Jack Reed and Jeanne Shaheen, who have been gracious 
with their counsel, and to Chairman Kerry. Among other things, he 
showed me by example what it really meant to conference a bill in my 
early days as HFAC's chief counsel.
    I have spent much time deeply involved in the Middle East, from my 
first position as a legislative assistant for my hometown Congressman, 
who served on the House Foreign Affairs Committee; to a research 
fellowship in the region; to work as chief counsel at the House Foreign 
Affairs Committee, where I focused among other matters on rule of law 
efforts and programs.
    When I served President Clinton as a deputy national security 
advisor and Chief of Staff at the National Security Council, I helped 
to coordinate strategic and budget aspects of the Middle East peace 
negotiations efforts. I explored yet another aspect of these issues in 
my work in the private sector, where I assisted in creating the 
nonprofit economic development oriented Middle East Investment 
Initiative. Now, as a deputy to Senator Mitchell, I have spent the 
majority of my time focusing on coordinating U.S. efforts to support 
the Palestinian institution-building program, across U.S. agencies, in 
Washington and in the field, and among Palestinian Authority, Israeli, 
and international actors.
    Through my time in government, I have learned to appreciate the 
dynamics among and between the agencies and actors that play a role on 
foreign assistance and foreign policy matters. To implement programs 
effectively, and meet policy objectives, it is critical to navigate 
smoothly in this environment.
    I also value the time I have spent working on both ends of 
Pennsylvania Avenue, in different parts of the executive, and with the 
judiciary. Given the critical role of the legislative branch in funding 
and overseeing foreign assistance programs and policy, the executive 
branch in setting and developing policy, and the powerful balancing 
role of our judiciary, having an insider's familiarity with these 
institutions has served me well, and will continue to do so in this 
role, if confirmed.
    When working on governance challenges in other parts of the world, 
it has made a huge difference for me to be able to draw upon experience 
I have had in our own government: a contentious floor debate, an 
intricate conference bill negotiation, a complex set of jury 
instructions to be drafted, advising a President, or working out budget 
differences with a legislature controlled by the opposition party. I 
discovered this firsthand when I found myself explaining the House 
Rules Committee operations to a group of villagers in a remote part of 
the West Bank when the Palestinian Legislative Council had just run its 
first election in the mid 1990s and rules that would govern its 
proceedings were at the time heavily debated among the citizenry.
    Indeed, as President Obama described articulated in Cairo nearly 2 
years ago, ``[A]ll people yearn for certain things: the ability to 
speak your mind and have a say in how you are governed; confidence in 
the rule of law and the equal administration of justice; government 
that is transparent and doesn't steal from the people; the freedom to 
live as you choose.''
    In presenting the foreign assistance budget request recently, 
Secretary Clinton noted ``Generations of Americans . . . have grown up 
successful and safe because we chose to lead the world in tackling the 
greatest challenges. We invested the resources to build up democratic 
allies and vibrant trading partners. And we did not shy away from 
defending our values, promoting our interests, and seizing the 
opportunities of each new era . . . the world has never been in greater 
need of the qualities that distinguish us: our openness and innovation, 
our determination, our devotion to universal values.''
    As President Obama, Secretary Clinton, and Administrator Shah 
believe, we have the power to create the world we seek if we have the 
courage to embrace opportunity and the willingness to do things 
smartly, sometimes differently, and together.
    I am honored to be considered for this position and fully 
appreciate the responsibilities and challenges it entails. I am deeply 
committed to the mission of USAID and the role it plays in advancing 
our national security, promoting economic opportunity, and advancing 
our embodying our core American values.
    Thank you again for the opportunity to appear before you today. I 
welcome any questions you might have.

    Senator Casey. Thank you very much.
    I wanted to, for the record, just read the heading of a 
statement for the record that Senator Shaheen made available to 
us. This is a statement for the record for today's nomination 
hearing in support of the nomination of Mara Rudman to be 
Assistant Administrator for the Middle East, U.S. Agency for 
International Development. And that is, of course, dated today.
    I wanted to make sure that Senator Shaheen's statement was 
made part of the record.
    [The prepared statement of Senator Shaheen follows:]

               Prepared Statement of Hon. Jeanne Shaheen,
                    U.S. Senator From New Hampshire

    Chairman Casey and Ranking Member Risch, thank you for holding this 
important nomination hearing.
    I am pleased today to speak in strong support of Mara Rudman's 
nomination as the next Assistant Administrator for the Middle East at 
the U.S. Agency for International Development (USAID). At a critical 
time in the volatile and dangerous Middle East region, President Obama 
and USAID Administrator Shah have made an exceptional choice in 
nominating Mara to fill this important role.
    I had the great pleasure of traveling with Mara to the Palestinian 
West Bank on NDI election monitoring missions during the historic 
elections in both 2005 and 2006. During these missions, I had the 
opportunity to witness firsthand Mara's impressive grasp and 
understanding of this complex region, as well as her sharp intellect 
and her focused commitment to peace for the people of the Middle East. 
Mara has remained a good friend to my office, and her valued counsel 
over the years has been insightful, prudent, and sound.
    Mara's impressive background and experience in Middle East issues 
is substantive and wide-ranging. She is currently the Deputy Envoy and 
Chief of Staff to one of our country's most prominent and capable 
diplomats, Senator George Mitchell, the current Special Envoy for 
Middle East Peace at the State Department. Under President Clinton, as 
a Deputy National Security Advisor, she helped to coordinate U.S. 
efforts to negotiate Middle East peace.
    Mara has served in distinguished positions throughout government 
and the private sector--including stints on Capitol Hill, on the 
National Security Council staff, and at the Cohen Group. Her degree 
from New Hampshire's own Dartmouth College further adds to her 
impressive resume. Mara will face daunting challenges and enormous 
opportunities, should she be confirmed, but I am confident that Mara's 
experiences and background have prepared her well to take on these new 
responsibilities and to succeed at USAID.
    In today's complex international environment, it is critical for 
USAID and the State Department to recruit and retain America's best and 
brightest if we are to overcome the difficult security challenges of 
the 21st century. Mara Rudman is clearly one of our Nation's more 
capable and experienced foreign policy minds, and I am proud to fully 
support Mara's nomination for this important position at USAID.
    I would urge my colleagues to quickly and positively act on her 
nomination. I want to thank the committee for your time and 
consideration, and thank you to Mara for again returning to public 
service. I look forward to working with her in her new endeavor.

    Senator Casey. I want to thank you both for your 
willingness to serve again and again in difficult assignments, 
and I have a number of questions. I will try to alternate. I 
will start with Mr. Patterson, just by way of the order of 
speaking.
    First of all, I wanted to focus on Iran. As much as we have 
had a focus in the region, it seems like every other week, 
there is a new country that comes into sharper focus in the 
region, and that is understandable. We have, I think, an 
ongoing challenge presented by the Iranian regime. And I know 
that this Sunday, the New York Times had a review on that, and 
I thought it was very helpful.
    One of the strategies that we have employed with regard to 
Iran, and I think it is the right strategy--is to do everything 
we can to isolate the regime. And I think we have made some 
good progress on that, especially as it relates to sanctions.
    As we move down the pathway to further implementation of 
that particular part of our strategy of isolation, we know that 
the assignment you are about to undertake upon confirmation 
will have some tension with that. Based upon both geography and 
history, Turkmenistan has longstanding ties with Iran, and I 
guess I would ask you, as Ambassador, how you help to manage 
that in your own work, where one of our policy objectives is 
isolation as it relates to the regime. How are you supporting 
that policy, while not discouraging Turkmen investment and also 
the cooperation that takes place with Iran's energy sector?
    How do you manage all that in the context of a difficult 
assignment?
    Mr. Patterson. Mr. Chairman, thanks for that question.
    One of the key issues, obviously, is the sanctions regime 
that is in place with Iran. And the State Department, the 
administration has gone out of its way to make sure that the 
Government of Turkmenistan is aware of the sanctions that are 
currently in place. There have been demarches from our Embassy 
in Ashgabat on a number of occasions to the Turkmenistan 
Government to keep them aware of sanctions in place and as they 
change.
    Last week, a small delegation from the State Department 
traveled to Ashgabat and met there with American companies that 
are represented in Turkmenistan to brief them on sanctions 
regimes as well and to make sure that in the course of doing 
business with the Government of Turkmenistan and in the region, 
that they didn't, inadvertently do anything that would 
contravene the sanction regime in place.
    If confirmed as Ambassador, I would work very hard to make 
sure that the government is aware. I am aware, as are you, Mr. 
Chairman, that Turkmenistan shares a border with Iran, and 
there is a trading relationship in place. Part of it is as the 
result of people of the same nationality on both sides of the 
border, and this has been going on for centuries.
    But certainly our concerns would be first and foremost in 
my mind as I take up this post, if confirmed, and I would make 
sure that the Government of Turkmenistan was aware of them.
    Thank you.
    Senator Casey. No, thank you. And I know that probably one 
of the challenges is to be able to encourage leaders to be able 
to compartmentalize, to be able to understand and appreciate a 
strategic objective we have, but also knowing that we can also 
have a constructive relationship with Turkmenistan.
    I have another question that relates to energy and, of 
course, natural gas is central to that. I would ask you, if you 
are confirmed, what efforts would you make to encourage 
Turkmenistan to pursue alternative routes with regard to 
natural gas exports?
    Mr. Patterson. Thank you, Mr. Chairman.
    Turkmenistan has already taken a few steps in diversifying 
its markets. As you know, it has a relationship with China, and 
a pipeline was built and inaugurated in December 2009 that 
ships significant amounts of natural gas to China. In place at 
the time that the Soviet Union fell apart in 1991 were routes 
that took natural gas to Russia, of course.
    The administration has been encouraged by President 
Berdimuhamedov and the Turkmen Government's interest in 
aggressively exploring the possibility of the TAPI pipeline 
that I mentioned in my testimony. If built, and there are many 
challenges in building this pipeline, that pipeline would bring 
natural gas to India and to Afghanistan and to Pakistan.
    Much remains to be done, but we have made it clear to the 
Government of Turkmenistan that American companies are able and 
have the skills necessary to help the government overcome 
technical challenges as it considers going forward with that 
project. We have also been encouraged by recent statements that 
have been made supporting the Trans-Caspian pipeline, the 
Southern corridor that I mention in my testimony.
    Again, we believe that there are challenges to completing 
the construction of that pipeline, but American companies are 
in place in Ashgabat, as I mentioned earlier, and are more than 
eager to get involved in that kind of a project. So, if 
confirmed, I would work hard to make sure that this process of 
diversification that has already begun continues.
    Thank you.
    Senator Casey. I have one more question, and then I do want 
to turn to the Middle East. One question I have is just based 
upon your own review of the data and to the extent to which you 
can get a good sense of the economy in Turkmenistan. What is 
your assessment of their economic situation now?
    Because we know that throughout the world, we have lived 
through a couple of years of pretty fragile economies in many 
places. And of course, energy plays a big role in that. But how 
would you assess the strengths and the challenges in their 
economy?
    Mr. Patterson. Thank you, Mr. Chairman.
    Turkmenistan remains heavily dependent on natural gas 
resources. Attempts are being made to diversify, but at this 
point, much of the income that comes into the country comes 
from the distribution of natural gas and other such resources.
    It is difficult to find authoritative economic statistics 
on Turkmenistan. The statistics that we do have seem to show a 
major growth in the economy. Much of the basic purchases of the 
population are subsidized in one form or another by the 
government as a result of these natural gas and other incomes.
    But it seems that since coming to office in 2007, President 
Berdimuhamedov has understood the need to do more than just 
rely on natural gas and has begun looking for other 
opportunities for the economy. This includes in agriculture to 
a much lesser extent, of course, and manufacturing.
    American companies, again--and I see this as part of my 
mandate, if confirmed--have played a role in some of the 
sectors of the economy that have been explored by the 
Government of Turkmenistan. Agriculture, there are companies 
like Case, Caterpillar, and construction and others that are in 
place there. And if confirmed as Ambassador, I would make an 
effort to make sure that the expertise that U.S. companies have 
can help expand this process of diversification of the economy.
    Thank you.
    Senator Casey. Thank you.
    I want to turn to the Middle East for a couple of minutes. 
Ms. Rudman, thank you for your testimony, and I know when we 
were talking yesterday, one of the challenges that we discussed 
was how you do your job and how USAID approaches the region in 
light of this remarkable change.
    And again, it is hard in a few words to be able to 
summarize or fully encapsulate what has happened in the Middle 
East and what will happen yet ahead of us. For anyone who has 
any exposure at all to the challenges within the region, that 
is a difficult assignment. But how do you approach it in terms 
of rebalancing our priorities and our approach to the region?
    And I realize that you cannot simply think of it as one 
region, as one jurisdiction. You have to approach each country 
individually, in addition to having a regional strategic 
vision. But how do you approach that as you start down this 
road?
    Ms. Rudman. Mr. Chairman, thank you for the question.
    I appreciate the opportunity to look at these issues. I am, 
obviously, at this point in the position of looking at this 
from an ``if confirmed'' perspective, and I have had the 
opportunity, through the briefings I have been going through, 
to be looking at these issues prospectively.
    And so, in responding in that way, I would say that you, 
Mr. Chairman, brought up a number of points in your opening 
statement that I think are consistent with an approach that 
would be a sensible one here. In other words, to look at the 
region in a way that takes into account both, as you said, a 
country-by-country perspective, but also requires the U.S. 
Government as a whole, as well as the Agency for International 
Development, to be agile, to be more agile perhaps than the 
agency has been to date but is getting more so.
    To be agile, to be responsive, and to look carefully at how 
we respond, how the Agency for International Development 
responds and not just where the agency responds going forward 
as well. I would say that USAID has been going through a very 
thorough review of all of its programs across the board in the 
region, as well as a very significant country-by-country 
review, and has shown a significant degree of flexibility in 
terms of what it is able to do to respond with, I believe, a 
significant degree of flexibility. I think we have seen that.
    You mentioned Libya, for example, and what has been 
happening there in terms of humanitarian response. I know there 
has been a great deal of briefing on Egypt to date. And again, 
that is a whole of government response.
    And so, there is both a need to look at this in a--and we 
talked about this yesterday--in a country-by-country way. There 
is a need to look at it in terms of regional strategic 
approach, and there is a need to look at it in terms of a 
response to other countries in the region, consistent with some 
of the questions that you asked of my colleague here at the 
table as well.
    And in each of these cases, we are going to need to apply a 
variety of filters. We, the U.S. Government, as well as those 
specifically within the Agency for International Development, 
must be able to, from the soft development perspective, do our 
part for the whole of government response and be as agile as 
possible in doing so.
    Senator Casey. Yes; I guess in a region like the Middle 
East where you always have tension, that is one of the 
realities that will persist, even in this new environment. You 
probably have more instability now than you did before, but 
there are also some opportunities. Because prior to this, 
depending on the country, USAID might have been, in a sense, 
more limited, because you were dealing with a very strong, 
authoritarian government that would only let you do so much. 
Now you have opportunities.
    You have a fervor for change and for helping folks on the 
ground, and support for democratic change and human rights and 
development. These are all positive developments, I think. So 
you have both opportunities, but you also have some uncertainty 
about the institutions you are dealing with--who will be the 
leader, and how you will deliver that aid.
    So in a word, you have to be nimble, and you won't have as 
much predictability as you might have had before. And I don't 
underestimate the change.
    One of the difficulties that USAID will have, is a set of 
budget constraints and, I think, a focus on results and a 
heightened degree of scrutiny on the work that USAID does in 
this context. Because I think that the American people are 
paying much closer attention to the Middle East and to these 
developments in the context of not just what is happening 
there, but also in the context of budget constraints.
    I mentioned in our meeting yesterday that I was in the 
region in July. And it is just remarkable the difference 
between then and now. We were in Egypt and had a meeting at the 
Embassy with civil society leaders, and their the major focus 
was on fairness in the monitoring of elections. That was the 
extent, that was the full ambit of what they were thinking of 
at that time and focused on.
    I would have a much different meeting and much different 
visit now. We wouldn't even be meeting with the same government 
officials. And I think that is true of other places in the 
region.
    One of the places we visited was Lebanon. As I mentioned 
yesterday, the overwhelming and predominant presence of 
Hezbollah and the influence that Hezbollah has in that country 
is just extraordinary, at least from my own experience. I have 
never been in a place where there was that kind of predominant 
presence of one organization, in this case a terrorist 
organization.
    The Lebanese Government officials, as well as the leaders 
of their Armed Forces, were very grateful to the American 
people for helping train their army and their police, and I was 
happy that they recognized that. But of course, now the 
situation has changed in Lebanon as well. And with that change, 
with the ascendancy of Hezbollah and the greater impact and 
influence that Hezbollah will have, we have to consider whether 
or not our strategy will change with regard to aid, military 
and otherwise.
    I know that we have provided that kind of assistance, and 
the President requested $100 million in assistance for Lebanon 
for fiscal year 2012, the budget that we have not quite begun 
to debate here on Capitol Hill. But given the influence that 
Hezbollah has, I am worried about how we will approach this 
assistance.
    How do you deal with that as it relates to your work, upon 
confirmation, at USAID? How do you assess that in the context 
of all the changes, even apart from the region, just within 
Lebanon itself? Because we want to, obviously, continue to be 
helpful, but how do you approach that in your work?
    Ms. Rudman. Sure, Mr. Chairman, I appreciate the question. 
I appreciate your concerns about it.
    I know that you raised the question with Secretary Clinton 
as well. So I know the depth of your concern on this issue.
    As you know, the government, of course, is still being 
formed in Lebanon. We are watching that very closely, and we 
will review, are in the process of reviewing our assistance 
closely and are continuing, however, to plan our assistance 
program so that we can be prepared for a variety of different 
outcomes and possibilities.
    So that for exactly I think what you observed when you were 
over there, that we are prepared to be able to have an impact 
in a variety of different circumstances so that we can have the 
greatest possible impact, understanding, of course, that we 
can't, won't, do not engage with Hezbollah under any 
circumstances. And so, we are watching very closely, obviously, 
the development of that government.
    That said, the USAID portfolio has been one that has had, 
we believe, a significant and useful impact in the country. 
USAID works in a number of low-income areas in that country, 
has worked in microenterprise, has created jobs, in significant 
ways has also worked in civil society. And so, USAID has had 
impact in some significant ways and has the opportunity to 
continue to have and build upon that kind of impact going 
forward, again, nongovernmental opportunities.
    And so, USAID has the ability to continue to do that kind 
of work, and the agency would look to, going forward, do that 
kind of work. And if confirmed, I would hope to have the 
opportunity to engage with you as we see what happens with the 
development of the government as we go forward.
    And we certainly know, are quite cognizant both of the 
budget situation and of the need to consult. We have heard loud 
and clear what your concerns are, and we would share those 
concerns as we see how that government develops.
    Senator Casey. I should say, are there lines, bright lines, 
redlines, whatever phrase you use? But I guess I would ask 
this. Do you think the lines will change in terms of how we 
deal with Hezbollah, or is there a kind of standard that you 
would use to approach how USAID deals with Lebanon with regard 
to Hezbollah?
    Is there a standard in place now, or is that something that 
would have to develop or be altered based upon the changed 
circumstances? Because the American people understand that when 
we provide aid to a country, sometimes there are figures within 
the government that cause us real concern.
    Hezbollah has, as you know, controlled ministries, and I 
want to get a sense of whether or not you would have to develop 
new standards or whether you would apply the same set of 
standards even in the aftermath of this change?
    Ms. Rudman. Mr. Chairman, the standards that are in place 
in terms of the rules that govern USAID and, in fact, the rest 
of our Government with respect to lack of contact and lack of 
assistance, it would be hard for me to imagine those changing 
under any circumstances.
    Senator Casey. I know the President's fiscal year 2012 
budget request includes $400.4 million in economic assistance 
to the West Bank and Gaza to strengthen the Palestinian 
Authority, and I am quoting here, ``To strengthen the 
Palestinian Authority as a credible partner in Middle East 
peace and security efforts and continue to respond to 
humanitarian needs in Gaza.''
    And the request also states that the assistance will 
``provide significant resources to support Palestinian 
Authority reform efforts,'' and it goes on from there about 
what that entails.
    Based on your own significant experience and on what you 
see ahead of us in terms of support for those efforts in the 
West Bank, in regard to the Palestinian Authority. In July, 
myself, Senator Shaheen and Senator Kaufman delivered a message 
on behalf of our government to our counterparts in Saudi Arabia 
encouraging Saudi Arabia, among others, to pay its dues, so to 
speak, to help the Palestinian Authority as we have done.
    But tell us a little a bit about that, and then I will move 
back to Mr. Patterson.
    Ms. Rudman. Thank you, Mr. Chairman.
    My challenge in responding to this question is being brief. 
So I will try to take that into account.
    Senator Casey. We do have a lot of time because I am not 
going to call on anybody unless the staff wants to do some 
questions.
    Ms. Rudman. The effort for the United States Government 
with respect to Palestinian state-building is one where we have 
a real partnership with the Palestinian leadership with respect 
to President Abbas and Prime Minister Fayyad and also with 
respect to the Israeli side. And I say this from a position of, 
as I said in my opening statement, in the coordination role 
that I currently work in.
    I work on a regular basis both across our Government with a 
whole of government approach and with the Palestinian 
leadership and the Israeli leadership on a daily, if not 
sometimes an hourly, basis in moving forward with these 
programs. And so, in this case, we have a Palestinian 
leadership vision in a number of key areas from governance to 
health, education, infrastructure, which focuses on water 
issues; where we are very much focused point right now for both 
the West Bank and Gaza and working in close coordination, 
again, with the Israeli Water Authority and the Israeli Defense 
Ministry in moving forward on those key issues, as well as road 
infrastructure, and then also on economic development issues.
    And without close cooperation, again, with the Israeli 
side, we would not be able to advance in any of those issues. 
And we work very closely with key leaders of the international 
community as well.
    On all of these issues, I have often said it is a privilege 
to work with the doers, and often it is the doers more than the 
talkers on the state-building, institution-building side of 
things. And so that I do believe a number of real results have 
been achieved.
    Folks here may hear less about those results than you do, 
frankly, on the negotiating track side of things, and the 
United States has a dual track approach, on institution-
building and on the negotiating side of things. The 
institution-building side of things has been able to achieve a 
little bit more of late than the negotiating side has. We 
certainly very much hope that the negotiating side is able to 
pick up.
    But both sides are mutually reinforcing. And what we have 
said all along is that they need to be mutually reinforcing, 
and one ultimately cannot succeed without the other. And both 
are necessary for both Israelis and Palestinians and for the 
United States ultimately and for our interests in the region.
    And so, to get back to your initial question, the $400.4 
million request is one that folks should have every confidence 
is funding that is well spent, is money that is going toward 
tangible benefits on the ground for Palestinian people and for 
Israelis to be able to see the results of how that funding is 
spent.
    Senator Casey. On our trip, we had a chance to spend some 
time on the West Bank and we sat down with Prime Minister 
Fayyad. He was very focused on specific projects, literally 
hundreds, if not thousands of them. And so, the aid that our 
Government and a lot of governments have provided is bearing 
fruit.
    I do want to move back to Mr. Patterson for a few 
questions. I wanted to raise a question that I referred to in 
my opening statement about political prisoners in Turkmenistan. 
If confirmed, what steps would you take to persuade the 
government to free these prisoners, in the interim, to allow 
for free access for independent monitors to include the 
International Committee of the Red Cross?
    I realize that these kinds of challenges don't have a 
textbook that is prepared for you, but can you give us a sense 
of the kind of the steps you would take as you begin?
    Mr. Patterson. Thank you, Mr. Chairman. It is an important 
question.
    We have in place some mechanisms for discussing human 
rights issues, including those with specific prisoners like the 
ones you mentioned in your opening statement. We compile 
reports every year, as you know, that get the best possible 
information. Both our religious freedom report and our human 
rights report and our trafficking in persons report cover human 
rights practices in Turkmenistan.
    And we take the information from those and from other 
sources and meet at our newly inaugurated Annual Bilateral 
Consultations where human rights plays a prominent role. The 
first meeting of the ABC was in June 2010. We recently, in 
February, had a review. And at both of those meetings, high-
level U.S. Government officials discussed with their Turkmen 
Government counterparts specific cases and specific practices 
and the challenges that they pose.
    We saw today perhaps a little bit of very modest progress 
on that agenda. We received--our Embassy in Ashgabat received 
information from the government about the status of two of the 
prisoners that you mentioned that you had signed a letter 
about, Mr. Amanklychev and Mr. Khadzhiev. The Turkmen 
Government provided us information about the medical care that 
they have received, visits they have had from their families, 
et cetera.
    So this is modest, as I said. But it is, perhaps, a sign 
that the kind of dialogue that we have is beginning to bear 
some fruit. If confirmed, I would hope to go to Ashgabat, build 
a constructive relationship with Turkmen Government 
representatives, and use that constructive relationship to make 
human rights an important part of the interactions that I have 
there.
    You mentioned visits to prisoners and the problem with the 
ICRC. It is a difficult nut to crack. The ICRC has felt that 
the conditions that have been offered it aren't acceptable. I 
would do what I can to ensure that some access to prisons is 
made available. It is not clear to me at this juncture, to be 
honest, how I will proceed. But certainly, it will be one of my 
major concerns when I am there.
    Thank you.
    Senator Casey. And of course, the earlier that you can 
raise it, the earlier you can implement a strategy, the better. 
But I realize as well sometimes we have expectations that can 
exceed the reality. Upon confirmation, you will be walking into 
an assignment that hasn't been filled in quite a while, and you 
will have to develop relationships and build some confidence 
and trust. But obviously, the earlier that you can move on 
that, the better.
    Also one question about nongovernmental organizations, 
NGOs, and the restrictions that the government places on them. 
Can you tell us anything about how you will approach that 
issue?
    Mr. Patterson. Yes, Mr. Chairman. Again, a very good 
question.
    The Mejlis, the Turkmen Parliament, has been considering 
changes to the public organizations law. We will have to see 
what those changes might produce. Some changes that are 
contemplated, if implemented, might mean a somewhat better 
environment for nongovernmental organizations to operate in.
    In the meantime----
    Senator Casey. Statutory change of some type?
    Mr. Patterson. These would be, if implemented, statutory 
changes. Again, adopting the law and implementing the law, as I 
understand it, are two different things. But perhaps there is a 
possibility here.
    As I mentioned in my opening statement, I would like to 
focus a lot on people-to-people exchanges. I think we have had 
some modest success in building a degree of trust with the 
Turkmen Government about those exchanges, about bringing 
students and others to the United States. I am for having 
representatives from Fulbright programs and other programs go 
to Turkmenistan.
    I didn't mention in my statement, but in the part that is 
for the record, we have a Peace Corps that is in place with 31 
members throughout Turkmenistan. And from what I have heard, 
their presence has done a good deal toward perhaps trying to 
erase stereotypes about the United States and giving people 
some firsthand contact with Americans.
    So I would foresee an incremental approach to this 
difficult problem, hope for changes in the law that will create 
a better environment, but in the meantime, work on the people-
to-people front. And of course, talk to the Turkmen Government 
about how more opportunities for participation among more of 
its citizens ultimately is in the interests and engendering 
stability in the country.
    Thank you.
    Senator Casey. I will ask you one broad question. If you 
had to point to one or more experiences you have had around the 
world in different places and different assignments, is there 
one or a combination of experiences you had that you think will 
be particularly helpful in this assignment if you are 
confirmed?
    Mr. Patterson. Thank you, Mr. Chairman.
    I wouldn't point to one specific experience. Much of my 
career was spent in what was then the Soviet Union, and I had a 
good deal of experience at the times that I was there in 
working with NGOs that were attempting to move their agendas 
forward in a difficult environment.
    I feel that I understand, although this may be a little bit 
too optimistic before going there, the kind of environment that 
awaits me in Turkmenistan. I hope that some of the experiences 
that I had in the Soviet Union during the Perestroika period 
and before and also experiences that I had in Russia after the 
Soviet Union fell apart will come to my aid as I attempt to 
grapple with these problems.
    To be sure, Turkmenistan is not Russia, and I don't mean to 
imply that it is. But it was part of the Soviet Union for some 
time, and there is a certain legacy that it shares. That legacy 
is fading with time, as all things do. But I think, 
nevertheless, that some of the ideas that I had in working with 
people there and some of the practices that I saw might be 
useful as I approach this new assignment, if confirmed.
    Senator Casey. Thank you.
    Along those same lines, Ms. Rudman, as you have the 
experience of working with Democrats and Republicans in the 
House and the Senate, you are probably prepared for just about 
anything. And I know that experience will help you enormously.
    One of the places that we hear most about when it relates 
to al-Qaeda in the Arabian Peninsula, or when President Saleh 
might be moving to a different chapter in his life, is Yemen. 
And this is true of a lot of countries in the Middle East; we 
hear most about them when there are stories that relate to 
violence. We hear a lot about Yemen in those contexts, but we 
don't hear nearly enough about the poverty, the water shortage, 
the human misery that sometimes creates the foundation or the 
wellspring of a lot of the difficulties that that country is 
having.
    In some ways, a place like Yemen is almost ready-made for 
all that USAID does well. And I wanted to get your sense of 
that in light of not just the problems, the horrific poverty 
and the challenges there, but also in light of both those 
problems juxtaposed with substantial unrest and change at the 
highest levels of the government. How do you approach that?
    What was a difficult set of circumstances before, but maybe 
now even more difficult in light of what you would be trying to 
do with USAID there. What is your sense of that? And I know it 
is kind of a broad, difficult question. But as you know, we 
have some time here.
    Ms. Rudman. Thank you, Mr. Chairman. I appreciate the 
question.
    And USAID has been looking, not surprisingly, at the 
situation in Yemen. It has been working there, USAID, for some 
time. It has been doing capacity-building work in Yemen. It 
continues to work in Yemen, even now with the situation as it 
is, and has been able to continue working there, even with the 
difficult situation.
    It has been looking at changing some of its programming, 
obviously, with the situation on the ground. And the work that 
it has been doing in the capacity-building context, some of 
that work has been at the level of technocrats in the 
government. So it is not that all work is--there is a 
transitional element to it, even with, as you say, President 
Saleh, with some transition going on there, there is a level 
within the bureaucracy that would continue to benefit from the 
types of capacity-building work that has been ongoing.
    But more broadly, the type of negotiation and dialogue and 
discussion that is very important within Yemen and that has 
been opening up more broadly across a greater part of the 
population is something that USAID has been involved in, 
continue to be involved in, and is looking help to foster more 
of and to be able to support in broader ways, in addition to 
the type of economic support with the very poor parts of that 
population, as you pointed out, and in ways that USAID is well 
situated to be able to do with a number of its partner 
organizations.
    And so, it has--USAID has that kind of outreach within the 
country and will continue to look for opportunities to be able 
to do that work, again through this transition period.
    Senator Casey. And USAID, like every part of our Government 
now, is under budget constraints and is somewhat limited. In a 
place like Yemen, and I will ask another question because I 
know it is in the news today even more so than it has been in 
the last couple of weeks. But there is certainly a water 
shortage issue, and part of the problem there is true of other 
countries in the region. Regardless of who is in charge, there 
seems to be an institution-building challenge.
    When you come into a country that has issues of poverty and 
instability and that kind of turmoil, the institutions often 
need to be either built up or reformed. If you are in Yemen 
today, where would you start in terms of making progress on the 
institutions?
    I am assuming that the challenges are almost across the 
board. But are there places in Yemen's Government where the 
most attention would be warranted, or do you have a sense of 
that yet?
    Ms. Rudman. Well, Mr. Chairman, it is a fair question, and 
it is a good question.
    Where I think that USAID has some opportunities here is the 
fact that there are programs in place that USAID has been 
working on. So there is the ability to know who different 
players are, and I say this without myself personally having 
that information. But what I would do, if confirmed, is to go 
and talk to the folks who have been running those programs for 
USAID in the mission to understand who the technocrats are who 
have been working the different programs.
    So to get a feel for whom USAID has worked with effectively 
and who has been less effective in the different ministries. 
And again, this is at the technocrat working level. But in my 
experience in other places, you can get a pretty good feel 
pretty quickly about who runs programs well and who doesn't 
from your partner organizations. And when you have people at 
missions who are in the field, you get that kind of direct 
information very quickly.
    That is very useful, and you also obviously have an embassy 
and your ambassador and your DCM, and you get a mix of that 
type of information. It helps to inform, obviously, your policy 
judgments, but also your ability to use your precious 
assistance resources carefully.
    You want to make sure. You have limited dollars to use. You 
want to put it toward the programs that are going to use those 
dollars most effectively, and you want to make good judgments 
about it.
    And that is where, even if you are going to be shifting 
those resources, the fact that you have had a mission and that 
that mission has experience, and even if some of the players in 
that government are shifting, you have been working with some 
of them for a while. And so, you should be using the judgments 
from your people in the field to make some of the assessments 
about how you are going to be shifting things.
    I don't have that data at my fingertips, but I have some 
sense about how to go about getting that data to be able to 
come back and talk with you all and be making those assessments 
going forward.
    Senator Casey. Some of the biggest challenges you have 
involve working with and coordinating among the various 
departments of our Government. I know that in your testimony, 
when you focus on your approach, your third bullet point was 
``coordinate closely with colleagues at State, Defense, 
Treasury, and the White House to see we are truly practicing 
smart diplomacy using development, diplomacy.''
    Just that coordination alone is difficult. I think that 
both of our nominees will run into that kind of challenge in 
managing within the boundaries of our own Government and our 
own institutions.
    Well, I think we are coming almost to the close of our 
hearing. I don't know if there is any further statement either 
of you would want to make or any point you would want to 
amplify? We won't take audience questions today. [Laughter.]
    But I wanted to give you an opportunity if you had any 
further statement or further information you wanted to give to 
the committee. And of course, we may send questions that will 
be for the record that you would submit answers to in writing. 
But if there is anything that either of you wanted to add to 
the record now, I can certainly give you that opportunity.
    We don't need a closing statement, but if there is 
something you wanted to add?
    Ms. Rudman. Mr. Chairman, I would just thank you, 
obviously, for the opportunity to appear before you.
    And on your last point, as with any challenge, including 
the challenge of coordinating with the rest of my colleagues in 
Government, I actually really do see it as an opportunity 
because you don't get to solve any problems if you don't get to 
use the resources of everyone all together.
    And so, if there is anything I think I have had experience 
with, it is figuring out how to kind of work together with 
everyone on the team. And I fully appreciate that it is not 
always easy, but if you don't get process right, you don't get 
policy right.
    And so, I recognize the challenges, but I really do see it 
as an opportunity to try to get it right in the whole of 
government way of doing things.
    So thank you. Thank you.
    Senator Casey. Well, thank you. And I appreciate both of 
you putting yourself forward for further and challenging 
service, especially at this time.
    And as I think I have shared with Ms. Rudman, I could also 
apply to you, Mr. Patterson. You could be doing other things in 
the private sector and making a lot of money, I am sure, and 
you have chosen to serve your country. And we appreciate both 
of you putting yourself forward for that kind of service, and 
we are particularly grateful.
    We hope that we can move your nominations as expeditiously 
as possible through the committee and then through the Senate. 
I will never make a prediction or a promise about that because 
there is a great deal of uncertainty about the process here. 
And we are going to try to move it as fast as we can.
    But we are grateful for your service, for your testimony, 
and for your willingness to take on these difficult 
assignments.
    Thank you very much.
    And we are adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


          Responses of Mara Rudman to Questions Submitted by 
           Senator John F. Kerry and Senator Richard G. Lugar

    Question. Please describe your responsibilities as an officer for 
International Commission for Holocaust Era Insurance Claims (ICHEIC) 
and the ICHEIC Trust from 2002-09. Please indicate, in particular, what 
role, if any, you played in the following areas:

  <bullet> Developing or implementing policies or procedures for 
        identifying relevant insurance policy records and publishing 
        names of policyholders;
  <bullet> Developing standards of proof or providing guidance to 
        claims arbitrators on criteria to be used in making decisions 
        on or related to claims; and
  <bullet> Developing or implementing policies or procedures for 
        responding to requests for information from the U.S. Department 
        of State pursuant to Section 704 of the Foreign Affairs 
        Authorization Act of 2003 (Public Law 107-228).

    Answer.
   introduction to icheic and my responsibilities as chief operating 
                                officer
    I was the Chief Operating Officer (COO) for ICHEIC from 2002 to 
2007 (former Secretary of State Lawrence Eagleburger was the Chairman/
Chief Executive). As COO, my primary responsibility was to do 
everything possible to carry out the mission of the organization, that 
is, to help ICHEIC to find previously uncompensated claimants and pay 
them.
    ICHEIC was created several years earlier, in August 1998. By the 
late 1990s, the question of Holocaust-era asset restitution had 
reemerged and numerous class action lawsuits were filed. U.S. insurance 
regulators recognized that given the understandable challenge of 
documentation, the length of time that had passed, and the effort and 
costs involved, the path of litigation presented significant 
difficulties. Working through state insurance regulators, the National 
Association of Insurance Commissioners (NAIC), identified the companies 
most likely affected and worked with these companies to arrive at a 
means of resolving the issues presented. These issues were identified 
working with Holocaust survivors, by conducting interviews, researching 
the historical background, and organizing informational hearings across 
the country. ICHEIC was the result.
    I began working with ICHEIC 4 years into this pioneering startup's 
efforts. It faced many bumps in the road in its early years, with 
initial high administrative costs combined with a lengthy development 
period for claims forms that led to slower initial outreach and claims 
processing and awards. In April 2003, several months after I had 
joined, 59,117 claims had been submitted to date, only $38 million had 
been paid to claimants, and a low percentage of claims had been decided 
overall. Critics said ICHEIC would run out of funds long before its 
member companies made decisions on the claims that had been submitted, 
and that the Commission would never make the completion deadlines it 
had set.
    Four years later, when ICHEIC closed its doors, we had moved more 
than $500 million in total for Holocaust-related work. More than $306 
million had been paid to more than 48,000 Holocaust victims or their 
heirs for previously unpaid insurance policies (of a total of 91,558 
claims submitted and decided), along with nearly $200 million 
distributed for humanitarian purposes. Of the $306 million paid out 
directly to claimants, more than half went to individuals with so 
little information about their potential claim that they were unable to 
identify even the company that may have issued the policy.
    Upon joining ICHEIC, my team and I worked hard to make sure that 
ICHEIC's mission could be implemented effectively and expeditiously. At 
Chairman Eagleburger's direct instruction, we were charged with 
addressing concerns that had been raised about the Commission's 
operations prior to our coming on board. We increased its transparency 
and outreach; we succeeded in reaching terms of agreement among 
Commission members with respect to the German Foundation, and the 
French and Swiss insurance companies (AXA, Winterthur, and Zurich) that 
were critical to implement claims decisionmaking timelines and funding 
structures; and we reduced administrative costs, ensuring that overall 
operating expenses would absorb less than 18 percent of the overall 
ICHEIC budget.
    Additionally, as COO, my work, with my staff, included:

<bullet> Transparency/Accessibility:

    <all>  Redesigning the ICHEIC Web site to make it user friendly and 
            make available information including the final valuation 
            guidelines as well as committee structures, claims 
            processing statistics, audit reports, quarterly reports, a 
            guide to how the process worked, and annual meeting 
            presentations;
    <all>  Working to publicize ICHEIC mission and no-cost procedures 
            to make sure potential claimants worldwide knew how to file 
            a claim;

<bullet> Costs/Service Quality:

    <all>  Moving international call center operations (for claimants) 
            from a for-profit contractor to the nonprofit Claims 
            Conference, with operators trained by my staff, to lower 
            costs and improve quality of service;
    <all>  Instituting measures to reduce administrative costs 
            including changing locations for the annual meeting, 
            instituting and strictly enforcing member and staff travel 
            reimbursement policies, etc.;

<bullet> Service Quality/Effectiveness:

    <all>  Using the agreed upon audit process to examine insurance 
            company files, and ensuring database built which was 
            constructed from research in archives across Europe;
    <all>  Establishing systems to process the more than 90,000 claims 
            submitted from all over the world;
    <all>  Administering an independent appeals system presided over by 
            jurists who, over the life of the process, reviewed 
            hundreds of appeals that provided every claim that named a 
            company the opportunity for review. The relatively small 
            percentage of reversals on original decisions underscored 
            the strength of the initial system of checks and balances 
            my team constructed. This included internal ICHEIC staff 
            verification of every company decision, as well as outside 
            independent audits of companies' records and decisionmaking 
            practices, to make sure they complied with ICHEIC rules and 
            guidelines.
I. Developing/ implementing policies or procedures for identifying 
        relevant insurance policy records and publishing names of 
        policyholders
    In addition to these tasks, when I started working with ICHEIC, my 
team and I built upon the work that had been underway since the late 
1990s with respect to archival research and building a research 
database and lists of possible policyholders.
            I.A. Research and matching
    Working closely with European insurance companies, I accelerated 
implementation of the protocols developed by ICHEIC committees prior to 
my arrival to make sure that information provided by claimants was 
matched to all available and relevant surviving records in the 
companies' possession. Since many claimants had little or no 
information about specific insurance policies, ICHEIC also conducted 
archival research to locate documents that were relevant to Holocaust-
era life insurance claims. I ensured that where necessary, we 
commissioned experts to conduct additional research in public archives 
and repositories in Central and Eastern Europe, Israel, and the United 
States to collect as much relevant information as possible. These 
efforts augmented the database ICHEIC created that provided a critical 
tool used by companies and ICHEIC to further enhance information 
provided by claimants and thus the chances of identifying policies on 
submitted claims.
    Our research spanned 15 countries and included over 80 archives. 
Researchers reviewed three types of records. The first, representing 
the bulk of the material reviewed, consisted of Nazi-era asset 
registration and confiscation records. Files pertaining to the post-war 
registration of losses made up the second category. The third category 
was comprised of insurance company records located in public and 
regulatory archives. ICHEIC researchers located almost 78,000 policy 
specific records. This research augmented the often limited information 
provided with claims. This research effort had a significant positive 
impact on the disposition of claims. More than half of the total amount 
awarded to claimants was based on this archival research and went to 
individuals who were unable to identify a policy or name a company that 
was the source of their claim.
            I.B. Publishing potential policyholders' lists
    In my role as COO, I participated in ICHEIC's work to develop and 
publish these lists, and to maintain the lists on the Yad Vashem Web 
site after ICHEIC ceased operations. Development of lists of potential 
policyholders' names was a by-product, however, of our efforts to match 
claim form information with relevant policy information discovered 
through archival research or in companies' records. Finding one's name 
on a list published by the Commission was never intended as necessary 
to file a claim. Our extensive outreach efforts made that clear.
    Consistent with the Commission's mission of reaching out to the 
broadest possible universe of interested parties, ICHEIC published on 
its Web site its research and the 519,009 potential Holocaust-era 
policyholder names who were thought likely to have suffered any form of 
racial, religious, or political persecution during the Holocaust.\1\ In 
so doing, however, the Web site also carried a clear warning that 
finding a name on the Web site was not evidence of the existence of a 
compensable policy. There were many similar names with spelling 
variations, policies that might have been surrendered or paid out prior 
to the Holocaust, and some policies that had already been the subject 
of previous government compensation programs, making them ineligible 
for further payments under the ICHEIC process. The list remains 
accessible through the Yad Vashem Web site (www1.yadvashem.org/
pheip).\2\
---------------------------------------------------------------------------
    \1\ The number of policies issued during the period (1920-1945) 
would be considerable and in many cases, records, when available, would 
not be in a database but on microfiche, film, and paper. The prewar 
proportion of the persecuted population (as determined by ICHEIC's 
research) was only a fractional part of the prewar insurance market.
    \2\ ICHEIC's published lists--as components of ICHEIC's research 
database--result from working closely with archival experts in Germany, 
Israel, the United States, and elsewhere, and drawing on information 
from company policyholder records. During the ICHEIC process, companies 
had to identify which policyholders might potentially fit the 
definition of Holocaust victim. For companies with many surviving 
records, this presents a considerable challenge, because in most 
instances, insurance companies did not identify policyholders based on 
racial, religious, political, or ideological factors. Nor was it 
possible to filter solely on the basis of ``Jewish''-sounding last 
names: the name Rosenberg, for example, often believed to be a typical 
Jewish name, was also the name of one of the Nazi party's highest 
ranking ideologues. Similarly, Anne Frank shares her last name with the 
notorious governor-general of occupied Poland, Hans Frank, who was 
hanged at Nuremberg.
      The Commission considered all these factors, and culled out from 
an overall list of policyholder names that are those most likely to 
have been persecuted during the Holocaust. The Commission's list also 
contained many more names of policyholders likely to have been 
previously compensated on their policies because the majority of 
policies issued in Germany had already been subject to prior postwar 
compensation programs.
---------------------------------------------------------------------------
II. Developing standards of proof or providing guidance to claims 
        arbitrators on criteria to be used in making decisions on or 
        related to claims
    I was able to implement ICHEIC's relaxed standards of proof as 
criteria to be used in making decisions on or related to claims among 
companies and ICHEIC's claims verification team. I also ensured the 
distribution of the relaxed standards of proof, and all ICHEIC's rules 
and guidelines, through all available routes, including to claims 
arbitrators.\3\ I could do so because these relaxed standards of proof 
were developed by ICHEIC prior to my arrival. Very early on as claims 
were coming into ICHEIC, it became clear that the bulk of the claim 
forms contained little detailed information, that policy documentation 
was the exception rather than the rule, and that many claims did not 
name a specific company, or named a company that ceased to exist before 
1945. So ICHEIC worked, through its committee structure--with Jewish 
organization representatives, insurance regulators, and companies--to 
establish relaxed standards of proof and create valuation standards 
that could be calculated without the usual policy documentation. This 
is also when decisions were made to develop an extensive research 
database and matching system.
---------------------------------------------------------------------------
    \3\ Appeals process judges (arbitrators) were to be provided copies 
of ICHEIC rules and guidelines as part of their initial training; 
though part of that training also included informing them that while 
they had the use of legal advisors to staff them and help with 
researching and drafting their decisions, they had absolute discretion 
and independence in the ultimate determination of decision outcome.
---------------------------------------------------------------------------
    Under my tenure, my staff and I created and instituted the separate 
but related humanitarian claims payment process for unnamed unmatched 
claims, and for Eastern European claims on companies that had been 
liquidated, nationalized, or for which there were no known 
successors.\4\ All these elements became part of the critical 
architecture of the Commission. The audits to which all companies were 
subjected, conducted by outside independent auditors, proved the 
effectiveness of this architecture; and our ability to carry out our 
mission depended on it.
---------------------------------------------------------------------------
    \4\ ``ICHEIC not only facilitated the payments of claims against 
existing companies, it also paid out claims against now defunct 
companies and funded survivor assistance programs.'' Eric Fusfield, 
Director, Legislative Affairs, B'nai B'rith International, Letter to 
Chairman Barney Frank and Ranking Member Spencer Bachus, House 
Financial Services Committee, February 6, 2008.
---------------------------------------------------------------------------
    With respect specifically to relaxed standards of proof: during its 
existence, the Commission directly or through its member companies/
partner entities offered payment to more than 48,000 of the 91,558 who 
made inquiries. As noted, only a small percent of all the claim forms 
the Commission received named a specific company and far fewer 
contained policy documents. Survivors who had attempted to recover the 
proceeds of insurance policies during the immediate postwar period had 
been frustrated by companies' demands for death certificates and proof 
of entitlement that they could not provide. Understanding that 
expecting such documentation was both insensitive and in most cases 
impossible, the relaxed standards of proof adopted by the Commission 
did not require claimants to submit such evidence to make a claim.
    Under ICHEIC's relaxed standards of proof, the claimant produced 
whatever evidence the claimant had available. Individuals filling out 
claim forms were asked to provide all information available to them, 
including copies of existing documents in their possession that might 
be relevant. Sometimes claimants had actual copies of policies, but 
there was no expectation that such would be the case. The relaxed 
standards of proof allowed claimants to provide nondocumentary and 
unofficial documentary evidence for assessment.
    Companies were similarly required to produce the evidence they had, 
with the objective of helping claimants to establish sufficient 
evidence of a contractual relationship. Once the existence of a policy 
was substantiated, the burden shifted to the company to show the status 
of the contract or to prove the value of the contract had been adjusted 
or the contract had been paid. All parties agreed, however, that the 
relaxed standards of proof were to be interpreted liberally in favor of 
the claimant.
    ICHEIC established independent third party audits for the claims 
review process for each participating company to assess the status of 
existing records, and to ensure that records were appropriately 
searched and matched, in accordance with ICHEIC rules and guidelines. 
The ground rules for these audits were dictated by written agreements 
ICHEIC entered with its participating companies and partner entities 
such as the German Insurance Association and the German Foundation, 
reviewed and ultimately approved by ICHEIC's Audit Mandate Support 
Group, a committee on which regulators and Jewish organization 
representatives served.
    The relaxed standards of proof adopted by the Commission aimed to 
ensure that every claim, no matter what evidence the claimant could 
produce, would be reviewed to identify whether evidence could be 
located sufficient to substantiate the existence of a contract.
    Finally, during my tenure we instituted an in-house verification 
team to cross-check every company decision. The verification team also 
conducted a series of large-scale exercises to review decisions made by 
member companies. Discrepancies were reported back to the companies for 
reassessment and, where appropriate, remedial action. At the conclusion 
of ICHEIC's work, the verification team also carried out major 
reconciliation exercises, to make sure that all research information in 
ICHEIC's database conformed to and had been matched against companies' 
policyholder information, and that all claims filed had been checked 
against all companies' decisions.
III. Developing/implementing policies or procedures for responding to 
        requests for information from the U.S. Department of State 
        pursuant to Section 704 of the Foreign Affairs Authorization 
        Act of 2003 (Public Law 107-228)
    I worked with staff to make as much information as possible 
publicly available on the ICHEIC Web site at www.icheic.org. ICHEIC 
also provided the State Department an observer position on the 
Commission, in addition to the public information to which the State 
Department had easy access. Through ongoing consultation with State 
Department representatives, my team at ICHEIC viewed this cooperative 
approach as an effective way to ensure that the Department had the most 
extensive possible array of information to report to the Congress 
pursuant to the obligations of the State Department under section 704. 
In addition, we provided U.S. state insurance regulators with regular 
updates on claims submitted by claimants residing in their states, both 
through electronic statistical reports and participation in NAIC 
International Holocaust Commission Task Force quarterly meetings and 
monthly teleconference calls.
IV. Responsibilities as an officer for the ICHEIC Trust
    The final meeting of the ICHEIC board of directors and members on 
March 20, 2007, decided that ICHEIC would cease its legal existence at 
a time to be determined by Chairman Eagleburger. This occurred on July 
17, 2007, at which point a trust, which became the ICHEIC Trust, 
undertook the final closedown of ICHEIC's operations. Lawrence 
Eagleburger, Pat Bowditch, (formerly ICHEIC's Chief Financial Officer), 
and I served as the Trust's officers; I resigned my position early in 
the administration.
    The responsibilities of officers of the ICHEIC Trust include: 
paying all outstanding obligations and liabilities of ICHEIC as they 
become due; preparing the final financial audit of ICHEIC and causing 
it to be posted on ICHEIC's Web site; preparing, signing, and filing 
ICHEIC's wholly owned U.S. subsidiary, ICHEIC LLC's, final U.S. tax 
return and other tax reporting; overseeing and controlling defense and 
disposition, including litigation and settlement, of all claims, 
lawsuits, and other forms of litigation, if any, asserted against 
ICHEIC, its officers or directors, or any person who has been 
indemnified by ICHEIC, serving as the notice party in all outstanding 
contracts to which ICHEIC is a party, signing all required documents, 
including tax returns, on behalf of ICHEIC, and providing all required 
administrative functions on behalf of ICHEIC after its legal 
termination.

    Question. Some have questioned the work of ICHEIC, for which you 
served as CEO. It has been reported in the press that, in response to 
such criticisms, you explained that: ``Everybody expected too much. . . 
. We at ICHEIC have had a lot of ground to make up.'' (Tom Tugend, 
Jewish Telegraphic Agency, ``ICHEIC Hit By New Broadside,'' available 
at http://www.jta.org/news/article/2004/06/15/11639/ 
Inbroadsideoffici2004.) Please provide any additional information 
concerning this statement that you believe would be helpful to the 
committee in considering your nomination.

    Answer. I was asked to respond to criticism that we were not going 
to complete our mission, would still be deciding claims in 2011, and 
would run out of funds. I felt confident that we were going to get done 
in time, though I recognized we had considerable work ahead. Events 
proved me right. In the interview, I explained my view that while the 
critics' assertions would not prove correct, I also appreciated the 
basis for concern that had led to some of the statements. I understood 
that when the Commission was in its early years, those involved were 
pioneers. All involved had acknowledged to me that they had 
underestimated the complexity and timeframe for carrying out the 
centerpiece of ICHEIC's mission: finding previously uncompensated 
claimants and paying them. This makes me particularly proud to report 
that by 2007, when ICHEIC closed its doors, we had moved over $500 
million directly supporting Holocaust-related purposes. We had 
processed (decided and verified) decisions on more than 91,000 claims, 
more than $306 million in claims had been paid, and we distributed 
nearly $200 million for humanitarian purposes.

    Question. Information has come to the committee's attention that in 
2007, you, as ICHEIC CEO, may have announced that certain of ICHEIC's 
records would be sealed for several decades, or no longer retained. 
Please provide any additional information concerning this matter that 
you believe would be helpful to the committee in considering your 
nomination.

    Answer. The goal was and remains preserving important historical 
information, making everything publicly available that we possibly 
could, while appropriately protecting the privacy rights of 
individuals.
    There is evidently confusion with respect to ICHEIC records that 
were provided to the U.S. Holocaust Memorial Museum and are publicly 
available there, and personal files of individuals who filed claims 
with ICHEIC, which were archived at the Museum. The terms of the 
agreement between ICHEIC and the museum were proposed and explained 
generally at ICHEIC's concluding meeting on March 20, 2007, and are 
available on the ICHEIC Web site. Under this agreement, the museum 
maintains and hosts the ICHEIC Web site (www.icheic.org); it maintains 
ICHEIC key documents, including all relevant historical and research 
database in its library, and makes them available to visitors to the 
library. These documents include key policy decision memoranda as well 
as meeting minutes produced over the lifetime of the organization, as 
well as the research information that ICHEIC culled from its work in 
archives across Europe.
    With respect to individual claimants' files, applications and 
appeals, the museum maintains these in its archives. Given that these 
documents contain personal and sensitive information, this material 
must be closed to research by third parties for a period of 50 years. 
In reaching this agreement, ICHEIC sought legal guidance from privacy 
law experts, who reviewed the releases that individuals signed when 
they filed with ICHEIC and recommended that based on the strong 
commitments made by ICHEIC regarding data confidentiality and use of 
data only for the limited purpose of investigation/claims processing, 
combined with relevant data protection laws, ICHEIC would need to 
obtain specific consent from claimants prior to sharing of any claimant 
data with a third party. Given ICHEIC's 90,000+ claimants, the costs in 
March 2007 of obtaining such specific consent were estimated in the 
millions, and the more prudent outcome was deemed to be restricting 
access to this data for the 50-year period (recommended given range of 
ages of individuals filing.)
    There was also a reference made at the March 2007 ICHEIC meeting to 
ICHEIC's routine financial and administrative records, which would be 
maintained in storage for a period of 5 years; I have been told that 
the ICHEIC Trust has since determined that those will be maintained for 
a period of 10 years, consistent with Swiss law for corporate entities 
(since ICHEIC was an unincorporated Swiss verein).

    Question. Your 2007 Lobbying Disclosure Form describes certain work 
that you performed on behalf of the American Insurance Association 
(AIA) as ``supporting work done by International Commission on 
Holocaust Era Insurance Claims (ICHEIC), including defending against 
legislative attacks on its efforts and ability to carry out its 
mission.''

  <bullet> a. Please provide additional information concerning the 
        nature and scope of the lobbying work you performed on behalf 
        of AIA.

    Answer. Once ICHEIC closed, there was no one available to do work 
for the organization. In the transition period after it closed but when 
it was subject to an organized public attack, I was asked by its 
members, including European insurance companies, to continue my work 
for a transitional period. This transitional year was the practical 
next step to ensure that our previous several years' efforts at ICHEIC 
were not rolled back or undone. I registered under the Lobbying 
Disclosure Act when these efforts involved advocacy on behalf of 
ICHEIC. ICHEIC's members believed it was important to maintain a clear 
record on the work it had done, through participation in congressional 
hearings, briefings, and the like, and responding to ongoing inquiries 
regarding ICHEIC (including those from Congress and survivor groups). 
The AIA was a membership association for several European insurance 
companies who were ICHEIC participants. It was the available mechanism 
because ICHEIC was no longer in existence.
    This work included preparing draft written testimony for Secretary 
Lawrence Eagleburger to submit to the House Foreign Affairs Europe 
Subcommittee; preparing Diane Koken, Vice Chairman of ICHEIC, former 
Pennsylvania Insurance Commissioner and former President of the NAIC, 
for testimony before the House Financial Services Committee and helping 
with subsequent followup communications; preparing Ms. Koken and 
Secretary Eagleburger for testimony before the Senate Foreign Relations 
Committee, and helping to prepare Anna Rubin, of the Holocaust Claims 
Processing Office of New York, and Stuart Eizenstat, for testimony 
before the Senate Foreign Relations Committee on the same day, as well 
as helping Secretary Eagleburger with drafting initial responses to 
follow up questions for the record from that hearing. I also worked 
through the latter half of 2007, with Diane Koken and Anna Rubin 
particularly, in following up with European companies to gain their 
written commitments to what they had previously pledged orally at the 
closing ICHEIC meeting: to continue to process individual claims 
consistent with ICHEIC rules and guidelines. We also discussed the 
extent to which the New York Holocaust Claims Processing Office had the 
capacity to monitor informally the ongoing claims decisionmaking by 
companies, and communicated with congressional staff on these matters.

  <bullet> b. Please describe the extent, if any, to which you had any 
        responsibility for or involvement in matters relating to 
        ICHEIC, Holocaust-era insurance claims, and any legislation or 
        litigation related thereto, during your employment by the 
        Department of State from 2009 to the present.

    Answer. I had neither responsibility for nor involvement in matters 
related to ICHEIC, Holocaust-era insurance claims, and any legislation 
or litigation related thereto, during my employment by the Department 
of State from 2009 to the present.

  <bullet> c. Please describe the extent to which, if any, you expect 
        to have responsibility for or involvement in matters relating 
        to ICHEIC, Holocaust-era insurance claims, and any legislation 
        or litigation related thereto, if you are confirmed as USAID 
        Assistant Administrator for the Middle East.

    Answer. I would not expect to have any responsibility for or 
involvement in any matters related to ICHEIC, Holocaust-era insurance 
claims, or any legislation or litigation related thereto, if I am 
confirmed as USAID Assistant Administrator for the Middle East.

    Question. Please provide any further information on your work for 
ICHEIC or AIA that would be useful to the committee in considering your 
nomination.

    Answer. In closing, I appreciate the time and care you have taken 
in putting together these questions. I have tried to respond with the 
same attention to detail in response. I was and remain committed to the 
work that the Commission accomplished. Putting together these responses 
have made me reflect, with some pride, at the mission ICHEIC developed 
in 1998, the disparate stakeholders who were brought together, the 
hurdles that were overcome. It was an organization that almost 
necessarily was going to be confronted with constant challenges. I knew 
when I stepped in to take on the responsibilities of COO, 4 years into 
its operations that I was taking on a troubled but worthy organization. 
I am comfortable that my team and I were able to accelerate 
significantly ICHEIC's ability to achieve its mission.
    In 5 years, we moved more than $500 million in Holocaust-related 
funds to those who deserved them. In the process, we made the 
organization more transparent and accessible to people worldwide. After 
the organization closed, I made what I considered a practical decision, 
at the urging of ICHEIC members, to see that the work of the 
organization was not undone. The European insurance companies had 
provided ICHEIC's operating funds as well as the funds to compensate 
claimants and for humanitarian purposes. I did this work fully 
anticipating that I would operate in the same manner as I did as 
ICHEIC's COO--I would provide my best and most forthright advice and 
guidance on what was most important and necessary to fulfill the effort 
at hand: to support the work done by ICHEIC, and defend it against 
efforts that we viewed as undermining its mission.
    Again, I thank you for your efforts to understand ICHEIC's work and 
mission, and the work that I did with and for it. As always, I stand 
ready to respond to any additional questions you may have.
                                 ______
                                 

           Responses of Mara Rudman to Questions Submitted by
                        Senator Richard G. Lugar

    Question. With dramatic change taking place in countries throughout 
the Middle East on almost a daily basis, what is your view on how USAID 
programs in these countries should be reviewed and recalibrated in 
order to most effectively promote democratic principles? How will you 
lead in promoting increased flexibility of USAID programs to respond to 
these changes? How do you plan to work with Mission Directors in these 
countries in your decisionmaking process for responding to these 
changes?

    Answer. If confirmed, I will ensure that every USAID mission in the 
region is maintaining a close watch on local political conditions, 
engaging in scenario planning and reviewing existing and projected 
resource flows to anticipate and rapidly respond to changing 
conditions, as well as short and medium opportunities, as they arise. 
This is an unprecedented moment of opportunity for political reform in 
the region--reform necessary for longer term regional stability. 
Missions need to ensure they are agile, so they can work with the broad 
range of civil society groups that are defining and leading the popular 
movements in each of these countries, consistent with U.S. law and 
policy. If confirmed, I will work aggressively to ensure that USAID 
utilizes the necessary procurement and personnel instruments to act 
quickly in support of openings in the political environment, including 
utilizing centrally based rapid response mechanisms.
    It is my understanding that USAID is working to provide assistance 
as needed and requested--to pursue credible transitions to democracy 
and to meet expressed social and economic needs throughout the Middle 
East. These transition programs will be demand-driven, but are expected 
to cover needs related to the political transition, youth engagement, 
economic recovery, and rebuilding social networks and support 
institutions.
    If confirmed, I would seek to build on these efforts, specifically 
by:

  <bullet> Redirecting ongoing programs and putting in place new 
        programs to respond to the rapidly unfolding situations in 
        Egypt, Tunisia, and Yemen and to be prepared to meet new needs 
        as they emerge;
  <bullet> Utilizing contacts with implementing partners and civil 
        society to significantly increase direct engagement with a wide 
        range of critical actors, including civil society 
        organizations, youth, political party representatives, labor, 
        and others who have been mobilized by recent events.
  <bullet> Reviewing previous commitments and identifying new ways of 
        partnering through a renewed focus on implementation by those 
        most engaged in their own transition, while tapping an 
        extensive network of existing programs and relationships.

    As for my approach vis-a-vis the Mission Directors, if confirmed, I 
will maintain regular communication with USAID's Mission Directors to 
benefit from their on-the-ground analysis and deep knowledge of local 
conditions. As we move forward, it will also be critical to consult 
regularly with interagency partners and with Congress.
    USAID is hosting a forum in Morocco later this spring to discuss 
how missions can best support the historic trend toward political 
liberalization underway in the region. I understand that this meeting 
will be both a brainstorming and a practical discussion generating 
actionable recommendations. It should provide help in revising mission 
strategies to reflect the evolving environment. If confirmed, I would 
consider this Morocco discussion a starting point for (1) my ongoing 
dialogue with Mission Directors; (2) readjustments and reinvigoration 
as needed on existing programs; and (3) implementation of new efforts.

    Question. As you are testifying, the U.S. Government's support for 
Yemen President Ali Abdullah Saleh has begun to shift. What do you 
believe should be the highest priority investment for U.S. development 
assistance in the country at this time?

    Answer. Al-Qaeda in the Arabian Peninsula remains a major threat 
not only to the U.S. homeland, but also to Yemen's stability and that 
of the region. AQAP has taken advantage of insecurity and poor 
governance in regions of Yemen that suffer from ongoing internal 
conflicts, resource challenges, insufficient delivery of services, and 
an ineffective security architecture. For this reason, the United 
States has adopted a two-pronged strategy for Yemen--helping the Yemeni 
Government confront its security concerns in the near term, and 
mitigating the serious political, economic, and governance issues that 
the country faces over the long term.
    USAID, in conjunction with Embassy Sanaa, supports a peaceful 
political solution. Existing programs are being reviewed based on their 
ability to respond to current needs and the extent to which they can 
take advantage of new openings and future opportunities. Since the 
programs were designed as stabilization projects, there is considerable 
flexibility consistent with the ``stabilization'' objective.
    Elections and political process reform are clearly a priority at 
this time of political transition. Economic stability programming and 
fiscal reform will also be necessary to address severe economic 
challenges facing the country. It is my understanding that USAID is 
currently analyzing needs in this regard, and will continue to 
rigorously test the hypothesis that meeting the development needs of 
underserved communities is causally related to improving political and 
social stability. If confirmed, I would look forward to seeking the 
Congress' counsel on USAID's overall approach to development assistance 
in Yemen.

    Question. In addition to significant funding through the new 
Overseas Contingency Operations (OCO) Account at the State Department, 
the administration is proposing over $300 million again in FY12 for 
continued funding for Iraq through the Economic Support Fund. What 
kinds of programs will USAID promote in developing Iraq's agriculture 
sector and in building its private sector economy? What examples can 
you provide? What programs will be ending/discontinued? With the 
transition to a civilian-led mission, will the Joint Campaign Plan 
still be the guiding document? Are there any sectors that, despite 
their problems, will not receive funding from USAID?

  <bullet> a. What kinds of programs will USAID promote in developing 
        Iraq's agriculture sector and in building its private sector 
        economy?

    Answer. USAID is not receiving funding through the OCO account in 
the FY12 Iraq request. Rather, USAID's requested ESF funds are 
accounted for in the base request. USAID/Iraq will implement three 
existing programs focusing on economic growth and agriculture and may 
consider new programs focused on private sector competitiveness 
contingent on funding and interest from potential Iraqi beneficiaries. 
The current programs are:
    i. The Provincial Economic Governance program, which supports 
microfinance, small business development centers, access to credit for 
small and medium size enterprises, and technical assistance to the 
Iraqi Government on trade and investment reforms leading to possible 
WTO Accession.
    ii. The Financial Sector Development program, which improves the 
soundness of Iraqi private financial institutions by establishing and 
developing a credit bureau, a financial sector training institute, a 
payments system and modern centralized data Repository System, and 
enhancing the sectors' ability to advocate for private sector 
investment, growth and development.
    iii. The Agribusiness program, which works to improve the value 
chain of existing Iraqi agribusinesses, farmers, and marketers to 
improve productivity and marketing, increasing agricultural revenues, 
incomes, and employment.
    Since the inception of USAID-supported microfinance institutions in 
Iraq since 2004, the Provincial Economic Growth program has disbursed 
more than 257,200 microloans worth a combined value of $593 million, 
with the average loan valued at $1,400 at 15-18 percent annual interest 
rates with a repayment rate of over 98 percent. For the period of April 
2008 to February 2011, USAID-sponsored programs have generated 206,456 
jobs through sustainable microfinance, SME Bank lending, its youth 
initiative and Small Business Development services.
    USAID's FY12 request for Iraq, as reported in the Congressional 
Budget Justification, contains a line item on Private Sector 
Competitiveness intended for a new program to assist the Government of 
Iraq in leveraging private sector resources to improve the delivery of 
electricity. Effective electricity delivery is critical to Iraq's 
economic growth and development.
    The Financial Sector Development program started in the summer of 
2010. It is implementing USAID's Memorandum of Understanding with the 
Central Bank of Iraq to build its capacity to oversee and promote the 
private financial sector in Iraq.

  <bullet> b. What programs will be ending/discontinued? Are there any 
        sectors that, despite their problems, will not receive funding 
        from USAID?

    Answer. USAID is no longer engaged in counterinsurgency (COIN) 
programming in Iraq. Programs such as the Community Stabilization 
Program (CSP) have ended. CSP was vital in helping stabilize urban 
communities in priority areas by creating employment opportunities for 
insurgent-prone Iraqis. However, as conditions have improved and with 
the drawdown of the U.S. military, it is my understanding that USAID is 
now focused on development programs that will help bolster Iraq's 
economy, create jobs, restore essential services, and build Iraq's 
institutional capacity.

  <bullet> c. With the transition to a civilian-led mission, will the 
        Joint Campaign Plan (JCP) still be the guiding document?

    Answer. After the U.S. military departs by December 31, 2011, my 
understanding is that there will be no JCP and all American citizens 
will be under Chief of Mission authority. This means that 2012 will be 
the first critical year of full civilian leadership of the U.S. 
bilateral relationship with Iraq. Provincial Reconstruction Teams will 
be fully demobilized and replaced by at least two consulates and two 
Embassy Branch Offices.
    Additionally, USAID will have at least one regional representative 
and one locally employed specialist in each of the two consulates in 
Erbil and Basrah. USAID is currently determining how security 
requirements may change for its development programs in the absence of 
a U.S. military presence.

    Question. The State Department's Middle East Partnership Initiative 
(MEPI) has a mission of developing more pluralistic, participatory, and 
prosperous societies throughout this region through economic and 
political empowerment. How do you plan to work with MEPI during this 
historic time in the region? How do you plan to work to prevent 
duplication in your efforts in individual countries?

    Answer. I have a longstanding and excellent working relationship 
with Tamara Wittes, the Deputy Assistant Secretary at the State 
Department with responsibility for MEPI. We have worked together 
closely in our current responsibilities, and if confirmed, I have every 
expectation that cooperative partnership would continue into my next 
role at USAID.
    MEPI and USAID have worked together since MEPI's establishment in 
2002. Their work is both complementary and should be well-coordinated 
at embassies and in Washington. USAID maintains a mission and field 
presence in seven countries in the region, while MEPI operates, in some 
capacity, in every country in the region, except Iran. This allows MEPI 
and USAID to play to their respective strengths and comparative 
advantages.
    Each NEA embassy has an internal coordination committee chaired by 
the Deputy Chief of Mission. The committee's core responsibility is to 
coordinate all USG foreign assistance programming in the host country. 
Broad representation from embassy sections, including coordination with 
public diplomacy and representational activities, assures maximum 
possible cross-fertilization among programs and projects, whether 
USAID, MEPI, or DRL.
    The committee looks to each embassy's Mission Strategic Resource 
Plan (MSRP) and to its Democracy Strategy for overarching guidance as 
it responds to queries and proposals from Washington agencies and 
offices. USAID, DRL, and MEPI participate in the annual review process 
for each embassy's MSRP, providing an additional feedback loop in the 
coordination process.
    MEPI, DRL, and all embassies receiving foreign assistance are 
required to submit an Operational Plan, which is a budget and 
programmatic proposal for the use of new foreign assistance resources. 
The operational plan contains detailed information on how foreign 
assistance resources are coordinated by various implementers
in each country. After an interagency review designed to resolve any 
areas of conflict or overlap, each operational plan is approved by the 
Director of U.S. Foreign Assistance.
    Again, if confirmed, I look forward to working closely with the 
MEPI office, and discussing with Mission Directors as well, how the 
current system is functioning and where there may be room for 
improvement.

    Question. Please put U.S. Assistance to the Palestinian Authority 
into the broader political context. With Israeli-Palestinian political 
negotiations frozen, is U.S. budget support for the Palestinian 
Authority and development assistance in the West Bank and Gaza building 
trust between the parties? Are projects designed to increase 
cooperation, in trade, private sector development, infrastructure, etc? 
If so, please provide examples. Also, please provide current trade 
figures through the Jalameh crossing in the northern West Bank, as 
compared to the period prior to USG reconstruction of that facility.

  <bullet> a. With Israeli-Palestinian political negotiations frozen, 
        is U.S. budget support for the Palestinian Authority and 
        development assistance in the West Bank and Gaza building trust 
        between the parties?

    Answer. The United States Government is committed to achieving a 
two-state solution to the Israeli-Palestinian conflict as part of the 
administration's comprehensive regional peace between Israel and its 
Arab neighbors. U.S. policy is premised on the assumption that 
establishing sustainable peace requires forward movement on two 
simultaneous and mutually reinforcing tracks: political negotiations 
and the hard work of building institutions and the capacities of the 
future Palestinian state.
    While the political negotiations track is outside the purview of 
USAID, USAID's efforts with respect to supporting Palestinian Authority 
(PA) capacity-building and institutional reform and economic 
development efforts regularly show results with respect to building 
trust between the parties. I have seen these results in ways small and 
large: most recently in the resumption of bilateral working-level 
discussions between Ministries of Finance, similarly in productive 
working level discussions between justice officials, and with respect 
to ongoing cooperation on immediate and long-term needs on the 
difficult issues surrounding water resources.
    USAID programs are designed and implemented to help the PA to 
become more effective and credible partners with respect to governance 
and institutional capacity. Budget support to the PA is the most 
tangible and direct means of helping the PA to build the foundations of 
a viable, peaceful Palestinian state. U.S. budget assistance helps 
ensure that the PA remains solvent and thus can be an effective and 
credible partner in Middle East peace efforts and continue progress on 
reforms and capacity-building.
    The United States has made it clear that we will work only with a 
PA government that unambiguously and explicitly accepts the Quartet's 
principles: a commitment to nonviolence, recognition of the State of 
Israel, and acceptance of previous agreements and obligations.

  <bullet> b. Are projects designed to increase cooperation, in trade, 
        private sector development, infrastructure, etc? If so, please 
        provide examples.

    Answer. Facilitating trade into and out of the West Bank and Gaza 
is critical to improving Palestinian economic growth, and it must occur 
consistent with Israeli security needs. More than 240,000 truckloads of 
imports and exports crossed through the three main West Bank commercial 
cargo crossings last year; USAID provided scanning equipment and other 
assistance to the Government of Israel to expand the capacity of the 
crossings while addressing Israeli security concerns.
    USAID has supported the tourism sector in Bethlehem by setting up 
festivals and concerts to attract local and international tourists; and 
is working with the Government of Israel to open up Bethlehem's three 
checkpoints for tourist buses, ensuring that the Arab-Israeli 
communities had transport to Bethlehem during the high-volume Christmas 
period. All three checkpoints are now open for tourist buses and the 
long waiting lines in front of the previously lone access point to 
Bethlehem have disappeared.
    USAID has partnered with international information technology (IT) 
firms such as HP, Apple, Microsoft, and Cisco to help to develop 
Palestinian IT firms in particular and the IT sector in general to be 
able to provide world-class services. USAID introduced many Israeli 
high-tech firms to Palestinian counterparts, and the Israeli firms have 
signed several contracts for Palestinians to provide IT services.
    In response to both Israeli and Palestinian Water Authority (PWA) 
concerns that groundwater quality is deteriorating due to the lack of 
wastewater treatment, the United States will focus significant energy 
and resources in coordinating donor efforts to respond. USAID completed 
an assessment of 10 small-sized wastewater treatment plants for several 
villages in the northern West Bank. Design of these facilities began in 
October 2010 and is expected to be completed by November 2011, with 
permitting and land acquisition to begin once design is complete.

  <bullet> c. Also, please provide current trade figures through the 
        Jalameh crossing in the northern West Bank, as compared to the 
        period prior to USG reconstruction of that facility.

    Answer. Facilitating trade into and out of the West Bank and Gaza 
is critical to improving Palestinian economic growth. USAID's 
assistance helped to reopen the Jalameh vehicle crossing between Israel 
and the northern West Bank. What was previously a closed facility 
without traffic is now a busy crossing with an average of more than 
8,000 cars and buses entering the West Bank every week. USAID's 
investment of less than $2 million for upgrades at the crossing has had 
important impacts on commerce, trade, and investment in Jenin and the 
northern West Bank. Last year, Arab-Israeli visitors through the 
crossing made over $40 million in purchases in Jenin.

    Question. There are concerns about anti-Semitic and anti-Israeli 
incitement in Palestinian Authority textbooks. Please provide the 
latest assessment of the textbooks used by the Palestinian Authority 
and describe any USG involvement in their development or 
implementation.

    Answer. USAID supports the Palestinian Ministry of Education and 
Higher Education in its efforts to provide quality education for 
Palestinian youth. USAID assistance in education focuses on 
improvements in teaching methodologies, introducing contemporary 
approaches to teaching and learning, integrating information technology 
into the classroom, and expanding the impact of early childhood 
programming throughout the West Bank and Gaza.
    Since 2000, when the Palestinian Authority (PA) began introducing 
new textbooks that included many references to promoting values of 
reconciliation, human rights, religious tolerance, and respect of law, 
diversity and environmental awareness, a succession of studies has 
found that the new textbooks represent a significant improvement and 
constitute a valuable contribution to the education of young 
Palestinians.
    Although not a USAID-funded program, UNRWA has developed an 
expanded human rights curriculum for use in all UNRWA regional schools 
based on the history and content of the 30 articles that comprise the 
1948 Universal Declaration of Human Rights. Despite opposition from 
Hamas in Gaza, the new curriculum is being taught in grades 1-6, with 
plans to roll out a more advanced set of lessons for grades 7-9.
    Additionally, the State Department/MEPI's My Arabic Library program 
works with the PA Ministry of Education to deliver libraries to schools 
in the West Bank, organize teacher training sessions, and provide 
after-school programming. This program encourages independent reading, 
thinking, and analytical skills in young readers.
    The Palestinian curriculum is transparent, and all textbooks are 
available for review in Arabic on the Web site of the official 
Palestinian Curriculum Development Center at http://www.pcdc.edu.ps/.
                                 ______
                                 

         Response of Robert Patterson to Question Submitted by
                       Senator Benjamin L. Cardin

    Question. As cochairman of the Helsinki Commission, I remain deeply 
concerned over the dismal human rights situation in Turkmenistan. Over 
the weekend, we received a report that an elderly gentleman of 80 years 
old, Mr. Shapudakov, has been detained by Turkmen authorities and 
confined to a psychiatric facility. Reportedly, his activities in 
uncovering and reporting on corruption may have prompted this apparent 
reprisal by local officials.

  <bullet> Has the State Department looked into this case and raised it 
        with Turkmen officials?

    Answer. The U.S. Government has received reports from RFE/RL and 
other sources that civic activist Amangelen Shapudakov was recently 
detained and committed to a psychiatric hospital. According to some of 
these reports, Mr. Shapudakov's confinement may be linked to a family 
dispute over property.
    Our Turkmenistan Desk officer in Washington and the Public Affairs 
Office at Embassy Ashgabat are in daily contact with RFE/RL 
headquarters in Prague regarding the Shapudakov case. We are following 
the situation surrounding Mr. Shapudakov's detention. DAS Susan Elliott 
raised Mr. Shapudakov's case with the Turkmenistan Ambassador to the 
United States and our Embassy is also raising his case with Turkmen 
officials. We have asked the Turkmen government to verify the 
circumstances surrounding the case in order to ensure that it was 
handled appropriately by local officials, and that Mr. Shapudakov is 
afforded access to any legal counsel or proceedings, consistent with 
Turkmen law.
    The State Department remains actively engaged with the Government 
of Turkmenistan on human rights through the Annual Bilateral 
Consultations (ABC) process, launched in June 2010 by Assistant 
Secretary Robert Blake. At the 6-month ABC review in Ashgabat on 
February 16, A/S Blake raised several specific human rights concerns by 
the USG, including the recent uptick in harassment and blacklisting of 
RFE/RL journalists and family members by Turkmen security services. We 
have also raised issues of government harassment of journalists with 
the Turkmenistan Ambassador to the United States.
                                 ______
                                 

 Responses of Mara Rudman to Questions Submitted by Senator Marco Rubio

    Question. For decades, the United States consented to authoritarian 
Arab regimes' requests not to engage opposition groups in exchange for 
regime cooperation on security matters. The previous administration 
started to reverse these policies, but the current administration has 
rolled back or significantly limited many of those initiatives. I 
believe this practice has severely restricted our influence in many of 
these countries. Can you define the aims and principles that would 
guide USAID's programs in the Middle East following the Arab Spring? 
Have the recent events changed our engagement policy with opposition 
groups in countries like Syria and Yemen? How is the U.S. Government 
preparing for contingencies in Syria and Yemen?

  <bullet> a. Can you define the aims and principles that would guide 
        USAID's programs in the Middle East following the Arab Spring?

    Answer. This is an unprecedented moment of opportunity for 
political reform in the Middle East. It is my understanding that USAID 
is providing assistance as needed and requested--to pursue credible 
transitions to democracy and to meet expressed social and economic 
needs throughout the Middle East. These transition programs are demand-
driven, but are expected to cover needs related to the political 
transition, youth engagement, economic recovery, and rebuilding social 
networks and support institutions.
    In the short term, I understand, USAID is reviewing its 
partnerships with government entities and pursuing programs aimed at 
empowering civil society with democratic transition and governance 
issues. In the long term, it is my understanding that the Agency will 
focus on addressing those underlying conditions that were a catalyst 
for popular unrest, including unemployment and education.
    As the situation evolves, it is my understanding that USAID will 
continue reviewing how best to use its assistance to support democratic 
transition, economic development, and the aspirations of the local 
population. If confirmed, I will work aggressively to utilize the 
necessary personnel and procurement instruments to act quickly in 
support of openings in the political environment, including utilizing 
centrally based rapid response mechanisms.
    If confirmed, I would build on USAID's existing efforts by:

  --Redirecting ongoing programs and putting in place new programs to 
        respond to the rapidly unfolding situations in Egypt, Tunisia, 
        and Yemen and to be prepared to meet new needs as they emerge;
  --Utilizing contacts and grants with implementing partners and civil 
        society to significantly increase direct engagement with a wide 
        range of critical actors, including civil society 
        organizations, youth, political party representatives, labor, 
        and others who have been mobilized by recent events; and
  --Reviewing previous commitments and identifying new ways of 
        partnering through a renewed focus on implementation by those 
        most engaged in their own transition, while tapping an 
        extensive network of existing programs and relationships.

  <bullet> b. Have the recent events changed our engagement policy with 
        opposition groups in countries like Syria and Yemen?

    Answer. It is my understanding that USAID is willing to work with 
elected, peaceful groups, provided they operate through democratic 
institutions and the rule of law, with respect for equal rights, and 
reject violence as a way to achieve their political goals. 
Additionally, I understand, USAID will also continue to work with USG 
counterparts providing democracy and governance programming to explore 
appropriate USG assistance opportunities in support of unfolding events 
in the Middle East.
    I am aware that it is USAID's view that the transitions in the 
Middle East and North Africa must be locally owned processes and that 
any organization or individual that adheres to the principles of 
democracy, including the principle of nonviolence, should be able to 
participate in these processes.

  <bullet> c. How is the U.S. Government preparing for contingencies in 
        Syria and Yemen?

    Answer. It is my understanding that every U.S. Embassy and USAID 
mission in the region is maintaining a close watch on local political 
conditions and in some instances is engaging in scenario planning. I am 
aware that USAID also has a Middle East Strategic Planning Group 
conducting a range of strategic and contingency planning in USAID 
presence and nonpresence countries in the Middle East.
    As we face tough fiscal decisions as a nation, the United States 
will need to be creative and flexible in identifying resources to 
support security and prosperity in Syria, Yemen, and other regions of 
great strategic value. I understand that USAID is actively reevaluating 
its programming and assistance to prepare for contingencies and adapt 
its support to the transitions underway across the region.

    Question. As you know, the Department of Defense constantly 
develops and updates contingency plans on possible U.S. responses to 
conflicts and crises that may arise abroad. Does USAID have a similar 
process to guide our response in times of crisis? If not, would you 
recommend legislative mandates to help USAID implement such practices?

  <bullet> Does USAID have a similar process to guide our response in 
        times of crisis? If not, would you recommend legislative 
        mandates to help USAID implement such practices?

    Answer. It is my understanding that USAID maintains contingency 
plans for humanitarian disasters in all overseas missions. Missions in 
the Middle East are currently reviewing their country programs to 
identify short- and medium-term needs in the region in order to be able 
to provide assistance as needed and requested.
    Additionally, I understand that USAID also maintains internal 
processes to regularly develop, review, and update contingency plans 
for conflicts or crises abroad. As a result of this planning, I am 
aware that USAID is currently engaged with the Department of Defense in 
a joint review of stabilization contingencies in the Middle East and an 
interagency ``defense, diplomacy, and development'' review for steady 
(nonconflict) state planning.
    Finally, I understand that USAID possesses contingency funding 
capabilities to provide the U.S. Government with the flexibility 
necessary to respond to rapidly developing political, humanitarian, and 
security scenarios, without forcing the Agency to divert funding from 
other priority programs.
    At this time, I do not believe that additional legislative mandates 
are needed to help USAID implement contingency planning practices. If 
confirmed, I would assess USAID contingency plans in detail to 
determine more fully whether legislation in this regard would be 
beneficial.

    Question. Under the Millennium Challenge Account, American foreign 
aid is disbursed through Compacts to recipient countries that 
demonstrate a commitment to just and democratic governance, investments 
in the country's population, and economic freedom. Going forward, would 
the administration support applying the policy indicators of the 
Millennium Challenge Compacts to all USAID programs in the Middle East?

    Answer. The Millennium Challenge Corporation (MCC) and USAID are 
intricately linked, but their purposes and mission are distinct. The 
link between the two agencies is codified in the Millennium Challenge 
Act of 2003. USAID assistance regularly plays a transformative role in 
countries throughout the world in ways that support progress toward 
consideration for MCC compact eligibility. For example, USAID 
implements almost all of MCC's threshold programs in countries not 
quite ready for compact assistance. In addition, the USAID 
Administrator serves as a permanent board member on the MCC Board of 
Directors and has a voice in MCC policy and selection decisions. 
USAID's Office of Development Partners (ODP) supports interagency 
coordination efforts on U.S. Government development policies.
    MCC works in synergy with USAID's core development policies. MCC 
was created, in part, by incorporating some of USAID's best practices 
and lessons learned into its model, but it was not designed to 
substitute for USAID's range of development programs. In countries 
where MCC and USAID are both active, their programs augment and 
complement each other.
    Most developing countries do not meet the MCC eligibility criteria, 
since MCC was created to work only with a select group of developing 
countries that meet high hurdles in terms of governance in the areas of 
ruling justly, investing in people, and economic freedom. Yet the 
United States still has a compelling foreign policy and national 
security interest to provide foreign assistance in nonqualifying 
countries, and USAID is the primary agency to provide that assistance.
    MCC compact assistance focuses on economic growth; USAID's mandate 
is much broader and includes global health, food security, democracy 
and governance, and disaster relief, among other areas. Applying MCC 
policy indicators to USAID programs in the Middle East would preclude 
the United States from doing some of our most important work.

    Question. Since joining the Obama administration, have you had any 
contact with any organizations or persons in connection with the 
Holocaust-era insurance claims issue or the government's position on 
the Generali litigation? For the purposes of this question, the word 
contact includes discussion(s) on the Holocaust-era insurance claims 
issue with any insurance company; lawyer, lobbyist, or representative 
of any insurance company associated with Holocaust-era claims; any 
federal department or agency concerning Holocaust-era claims; any 
Member of Congress or staff concerning Holocaust-era claims?

    Answer. Shortly after joining the Obama administration, I was 
recused from matters related to World War II Holocaust restitution 
programs for a period of 2 years from the date of my appointment.
    I thus had no contacts of the nature referenced, for this period. 
However, I did have limited contacts with colleagues at ICHEIC Trust, 
the close-down entity that filed taxes and carried out other 
administrative functions when ICHEIC ceased to exist, which were 
required to complete my administrative responsibilities, prior to 
resigning as an officer.
    As a direct result of the correspondence sent to the Senate Foreign 
Relations Committee about me, and this issue, I have since been in 
touch with several colleagues with whom I worked closely on Holocaust-
era insurance claims issues, and others who were familiar with the 
history of its efforts.
    I have not had any contacts related to government's position on the 
Generali litigation since joining the Obama administration.


                              NOMINATIONS

                              ----------                              


                         TUESDAY, APRIL 5, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Scott Gration, of New Jersey, to be Ambassador to the Republic 
        of Kenya
Michelle Gavin, of the District of Columbia, to be Ambassador 
        to the Republic of Botswana
                              ----------                              

    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons, presiding.
    Present: Senators Coons, Isakson, Inhofe, and Lee.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to call to order the first 
Africa Subcommittee nomination hearing of the 112th Congress 
and will start by saying that I am both humbled and honored to 
assume the chair of this subcommittee. Africa is a continent of 
tremendous strategic importance to the United States and the 
world, and I am extremely grateful to our committee chairman, 
Senator Kerry, and my colleagues on the committee for 
entrusting me with the gavel.
    I look forward to working with my friend, Senator Isakson, 
to accomplish our shared vision and strategic goals for the 
subcommittee and hope to serve as a model for bipartisan 
cooperation on issues pertaining to Africa in the 112th 
Congress and beyond.
    Before I go any further, I want to just say a few words, if 
I could, about my predecessor in this role, Senator Russ 
Feingold of Wisconsin, who chaired this subcommittee for 4 
years with great integrity and focus and resolve. I only hope 
to bring to the table the degree of substance, direction, and 
drive which made Senator Feingold such a well respected 
chairman of the subcommittee and Senator.
    Today I am honored to chair the confirmation for Ms. 
Michelle Gavin, nominated to be Ambassador to Botswana, and 
Maj. Gen. Scott Gration, nominated to be the Ambassador to 
Kenya. While these are different countries with divergent 
histories, accomplishments, and challenges before them, the 
issues we will discuss today in the context of these nomination 
hearings and in the context of Botswana and Kenya, issues of 
governance, of democratic institutions and elections, of health 
initiatives, human rights, and trade, counterterrorism, U.S. 
interests, and a broader regional strategy, are the larger 
themes that will serve as focal points for this subcommittee in 
the year ahead.
    Kenya, as some of you may know, has special meaning for me. 
I developed a deep interest in Africa during my junior year of 
college when I studied at the University of Nairobi through St. 
Lawrence University and traveled through Kenya and Tanzania in 
an attempt to immerse myself in African culture. After college, 
I wrote about antiapartheid divestiture strategies while 
serving as an analyst for a research center here in Washington 
and subsequently returned to Africa as a volunteer for the 
South African Council of Churches. So my ties to Kenya and 
Africa are both professional and personal.
    And today's nominees bring to their positions significant 
and meaningful experiences. Ms. Michelle Gavin knows this 
subcommittee extremely well, having previously served as staff 
director under Senator Feingold for whom she also served as 
foreign policy advisor. Following her tenure with Senator 
Feingold, Ms. Gavin was legislative director to Senator Salazar 
and most recently served as special assistant to the President 
and senior director for Africa at the NSC. Prior to joining the 
National Security Council, Ms. Gavin was an adjunct fellow for 
Africa and an international affairs fellow at the Council on 
Foreign Relations where she focused on democracy and governance 
issues. Perhaps most importantly, I am extremely proud that she 
and I and her husband all by coincidence are Truman Scholars.
    Gen. Scott Gration has most recently served as the 
President's special envoy from March 2009 until, I believe, 
just last week--special envoy on Sudan when Ambassador 
Princeton Lyman was appointed to that post. I recently met with 
Ambassador Lyman and look forward to working with him on 
priorities relating to Sudan such as the humanitarian 
conditions in Darfur and preparations for Southern Sudan's 
impending independence for which both General Gration and Ms. 
Gavin have played an instrumental role in their immediate past 
capacities. Today I look forward to hearing from General 
Gration the lessons he learned as the envoy in Sudan that may 
apply or be relevant to Kenya, with a particular focus on 
accountability and human rights and transitions to sustainable 
democracies.
    General Gration served in the United States Air Force from 
1974 to 2006, began his career as an F-5 and F-16 instructor, 
including a 2-year assignment with the Kenyan Air Force. In 
1995, General Gration took command of an operations group in 
Saudi Arabia during the Khobar Towers bombing. The following 
year, he was transferred to Turkey to oversee Operation 
Northern Watch, enforcing a no-fly zone over Iraq. Since then 
he has served as deputy director for operations in the Joint 
Staff, director of regional affairs for the Deputy Under 
Secretary of the Air Force for International Affairs, and 
commander of the Joint Task Force-West during Operation Iraqi 
Freedom, among many other roles.
    General Gration speaks Swahili and has served as the CEO of 
Millennium Villages, an organization dedicated to reducing 
extreme poverty, as well as the Safe Water Network, an 
organization helping to provide safe water to vulnerable 
populations in India, Bangladesh, and Ghana.
    I look forward to hearing from both of you about how we can 
advance United States interests in Botswana and Kenya, two 
strong allies which play distinct, yet critical regional roles. 
Since the 1960s, Botswana has moved on a path of outstanding 
governance and economic growth. It is a model of stability in 
Southern Africa and a close partner of our country, including 
in its extraordinary battle with HIV and AIDS. I look forward 
to hearing from Ms. Gavin about how we can deepen bilateral 
ties in a manner that furthers shared diplomatic, political, 
and economic goals in the region.
    I look forward to hearing from General Gration about the 
role he will play in this critical period as Kenya implements a 
new constitution and prepares for elections, emerging from the 
dark period of the 2007-08 violence in a manner that holds 
those responsible at the International Criminal Court. As 
President Obama has recently said, the United States stands 
with the Kenyan people as they continue to reach for a better 
future, and I hope that brighter future is near, especially as 
it relates to democracy, accountability, and national 
reconciliation.
    I would now like to turn to the distinguished ranking 
member with whom I am honored to serve for his opening remarks.
    Senator Isakson.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman, and 
congratulations to you on your appointment to this committee. 
And for the benefit of all, we have already met on a couple of 
occasions to discuss the subcommittee and its role in the 
committee. And I look forward to working with Senator Coons, 
and he will be a great chairman, I am confident.
    I am also delighted to see Michelle Gavin and Gen. Scott 
Gration here before the committee today. I fortunately have 
worked with General Gration on a number of occasions before in 
his role as special envoy to the Sudan, and I appreciate the 
guidance and help he has given to me as I have gone to that 
region and gone to Darfur and tried to work as a supporter of 
what we all want, which is: liberation, and better health care, 
and better food, and better accommodations for the people of 
Darfur, but also a peaceful settlement to the split between the 
North and the South. And I think it should be noted that we all 
realize how dangerous the potential was for another civil war 
in the Sudan.
    I commend General Gration and his support for the 
comprehensive peace agreement and his ability to see to it that 
peaceful elections were held, and hopefully between now and, I 
guess it is--July--when that takes effect, we can continue to 
have basically a peaceful and respectful division of the Sudan. 
Hopefully the fledgling South will be a good democracy and a 
good partner with the United States.
    And further, if it is peaceful, it will allow us to really 
focus on Darfur where we need to continue to focus on the 
humanitarian tragedy in that region of the West Sudan.
    And I congratulate General Gration on his nomination to be 
Ambassador to Kenya. Kenya is an equally important country to 
the United States in Africa, and it has some similarities in 
ways to the Sudan. One, it has a refugee area in the northern 
part, bordering on Somalia, the Dadaab, which is going to be an 
important area for us to deal with and to help the Kenyans deal 
with. And then second, I know the ICC is in Kenya investigating 
post-election difficulties which that country had, and General 
Gration's experience, I am sure, will help in assisting that to 
take place.
    And finally, hopefully General Gration will be as committed 
to the NGOs in Kibera as he has been to the NGOs in Darfur. Two 
of the most tragic scenes I have personally ever seen in my 
life were the slum of Kibera in Nairobi, Kenya, and the Darfur 
situation. And we deserve to support those NGOs with every 
strength that we possibly can.
    For Michelle Gavin, I will simply say, if she sends her 
daughter to all the meetings, she will be the greatest diplomat 
this country ever had. She has got an infectious smile and 
beautiful eyes, and she is a pretty 2-year-old young lady. And 
I congratulate Michelle on her nomination.
    Botswana is a country the United States sees as a real 
shining star in Africa, but like all African countries, it does 
have its challenges, none greater than the HIV/AIDS epidemic 
and explosion that has taken place there. And I look forward to 
working with her in the role of PEPFAR and the other things we 
do in that country to help bring about a moderation of the 
infection rate and hopefully a decline in years to come.
    I congratulate both of you on your nomination and look 
forward to the question and answer period to follow.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson.
    I am now going to read a statement from Chairman John 
Kerry. It was his specific request to me that rather than 
simply introducing this into the record, that I read it at the 
outset of this hearing.
    Senator Inhofe. Mr. Chairman, could I make a special 
request? I am not sure that you are going to be able to get to 
everyone. I have a commitment. I may have to leave a little 
earlier. Could I just make a comment about our two nominees?
    Senator Coons. Certainly.

                STATEMENT OF HON. JAMES INHOFE,
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. All right. I appreciate it.
    First of all, I have had the chance and the opportunity to 
spend a long time with each one of you guys, and as you know, 
the only thing I look for with someone going into a position as 
an ambassador is to have a real heart for Africa. And I talked 
about that. And I did go back and see, Scott. After our visit, 
I found out that the year after I came from the House to the 
Senate, when you were in Saudi Arabia, that is when I first met 
you because I was over there and we looked up our notes. And to 
think that we have someone with your background who is willing 
to do this.
    And I have to say to you, Michelle, I echo the words about 
your cute, little 2-year-old daughter. When I showed her the 
picture of my 20 kids and grandkids, she picked out the one she 
thought was the prettiest, and I will be calling Jesse Swan to 
tell her that she won.
    But let me just say, in case I do have to leave, that it is 
very rare that we get people who honestly have a heart for 
Africa, and when Joel Starr, back here who is with me, told me 
that he first met you when he was with Tom Campbell, I figured 
you must have been about 12 years old at that time. [Laughter.]
    But it is nice that you have kept your heart for Africa. 
And after 116 African country visits, it is showing you my 
commitment to Africa. I am always really happy when I see 
someone who has not just a formal commitment to a job but a 
heart for Africa. Both of you are high on the list of that.
    So I just thank you for letting me to get that off in case 
I have to leave before it is my turn.
    Senator Coons. Certainly, Senator.
    I am now going to move to reading a statement that Chairman 
John Kerry wanted introduced at the beginning of this 
nomination hearing.
    [The prepared statement of Senator John F. Kerry, as read 
by Senator Coons follows:]

               Prepared Statement of Hon. John F. Kerry,
                    U.S. Senator From Massachusetts

    Today, I would like to express my strong support for the 
nominations of Scott Gration and Michelle Gavin.
    General Gration has spearheaded the Obama administration's Sudan 
policy since 2009. On January 9, 2011, we saw the fruits of those 
efforts when the people of Southern Sudan went to the polls to vote for 
independence. I had the tremendous privilege to be there that day, with 
General Gration, and to bear witness to that historic moment--to the 
triumph of the forces of peace over those of war.
    Much remains to be done in Sudan to secure long-term peace between 
North and South and to strengthen the ties between what will be two 
separate but interconnected nations. The status of Abyei must be 
resolved, and the people of Darfur still wait for their peace 
agreement. It is therefore absolutely critical that we remain fully 
engaged in Sudan, and particularly in Darfur. For that reason, I am 
glad that the President has named Ambassador Princeton Lyman to succeed 
General Gration as Special Envoy.
    But we must recognize the tremendous achievements that have been 
made to date. Just a few months ago, many were predicting that the 
referendum would not even take place. But it did, and both the nominees 
before the committee this afternoon played a key role in helping to 
make success possible--General Gration through his direct negotiations 
with the Sudanese and Ms. Gavin through her work at the White House.
    This experience will serve them well in their new posts. I have met 
and traveled with both General Gration and Ms. Gavin, and we have 
worked closely in our shared quest to help the peoples of Sudan find a 
lasting peace. They are both dedicated public servants with deep 
experience in the region, and I strongly support their nominations.

    Senator Coons. That having been said, I would like to now 
turn to the nominees for their opening remarks. And if I might, 
I would like to specifically invite you to also introduce your 
families who we have already had the pleasure of meeting but 
who should be recognized, I think, for the sacrifices they have 
made to support your commitment to public service. If I might 
first, General Gration.

STATEMENT OF SCOTT GRATION, OF NEW JERSEY, TO BE AMBASSADOR TO 
                     THE REPUBLIC OF KENYA

    Mr. Gration. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee.
    It is an honor to appear before you this afternoon to seek 
your approval to be America's next Ambassador to the Republic 
of Kenya. I am truly grateful to President Obama, to Secretary 
Clinton for the confidence that they have placed in me for the 
nomination to represent our country in Kenya. If confirmed, I 
will work with you and other Members of Congress to advance 
American interests in Kenya, to promote a common understanding 
between our two countries.
    I appreciate the opportunity to introduce my wife Judy, the 
mother of our four children and my full partner in over 35 
years of public service. If confirmed, Judy will bring a wealth 
of knowledge to this assignment. She was born in Nairobi. She 
spent her childhood in Kenya as the daughter of missionary 
teachers. And in fact, both of her parents are buried there in 
Kenya.
    Like Judy, I was also raised in Africa, in Congo and Kenya. 
I learned to speak Swahili as a toddler and developed a 
lifelong interest in the region. In 1974, I returned to Kenya 
to do humanitarian work. In the early 1980s, I spent time as an 
F-5 instructor pilot in Kenya for 2 years. And during the last 
20 years, I have returned to Kenya numerous times, on military 
duty, as CEO of Millennium Villages, and with an NGO working to 
increase access to safe drinking water.
    For more than five decades, Kenya has been one of our most 
reliable partners in Africa. If confirmed, I look forward to 
leading our diplomatic efforts in this next important period of 
Kenya's history.
    Since the terrible period of post-election violence in 
2007, Kenyans have embarked on an ambitious program of reform. 
Implementing the new constitution, cooperating fully with the 
ICC, and advancing accountability are critical elements that 
must be in place to ensure a peaceful, transparent, and 
credible Presidential election next year.
    As the reform process moves forward, I am committed to 
working privately and publicly to protect human rights, to 
fight corruption, and to promote democratic values, 
development, accountability, and national reconciliation.
    The 1998 attack on our Nairobi Embassy, an attack that 
killed 218 people, is a solemn reminder of the constant 
terrorist threat. Furthermore, the conflict in Somalia 
continues to increase Kenya's security and humanitarian 
challenges. If confirmed, I will support Kenya's efforts to 
secure its borders, to protect its citizens, and to care for 
those who seek refuge.
    You can count on me to protect Americans living and 
traveling in Kenya. If confirmed, I will reach out to the 
estimated 20,000 Americans in Kenya. We will work together to 
find ways to strengthen the economic and cultural ties between 
our two countries.
    Mr. Chairman and members of the committee, if approved, I 
will be grateful and exceedingly proud to serve as the next 
U.S. Ambassador to the Republic of Kenya.
    And I will be pleased to respond to any questions you may 
have for me. Thank you very much.
    [The prepared statement of Mr. Gration follows:]

                  Prepared Statement of Scott Gration

    Mr. Chairman, Ranking Member, and members of the committee, it is 
an honor to appear before you this afternoon as you consider my 
nomination to be our country's next Ambassador to the Republic of 
Kenya. I am truly grateful to President Obama and to Secretary Clinton 
for the confidence they have placed in me and for the nomination to 
represent our Nation in Kenya. If confirmed, I will work with you and 
the Congress to advance American interests in Kenya and to promote a 
common understanding between our two countries.
    I would like to introduce my wife, Judy--mother of our four 
children and my full partner in over 35 years of public service. If I 
am confirmed, Judy will bring a wealth of knowledge to this assignment. 
She was born in Nairobi and spent her childhood in Kenya, where both of 
her parents are buried.
    Like Judy, I was also raised in Africa, in Congo and Kenya, where I 
learned Swahili and developed a lifelong interest in this region. In 
1974, I returned to Kenya to do humanitarian work. In the early 1980s, 
I served as an F-5 instructor pilot with the Kenyan Air Force for 2 
years. During the last 20 years, I've returned to Kenya numerous 
times--on military duty, as CEO of Millennium Villages, and with an NGO 
working to increase access to safe drinking water.
    For more than five decades, Kenya has been one of our most reliable 
partners in Africa. If confirmed, I look forward to leading our 
diplomatic efforts in this important period of Kenya's history.
    Since the terrible period of post-election violence in 2007, 
Kenyans have embarked on an ambitious program of reform. Implementing 
the new constitution, cooperating fully with the ICC, and advancing 
accountability are critical elements that must be in place to ensure a 
peaceful, transparent, and credible Presidential election next year.
    As the reform process moves forward, I am committed, if confirmed, 
to working both privately and publicly toprotect human rights, to fight 
corruption, and to promote democratic values, development, 
accountability, and national reconciliation.
    The 1998 attack on our Nairobi Embassy that killed 218 is a solemn 
reminder of the constant terrorist threat. The conflict in Somalia 
continues to increase Kenya's security and humanitarian challenges. If 
confirmed, I will support the Government of Kenya's effort to secure 
its borders, to protect its citizens, and to care for those seeking 
refuge.
    If confirmed, you can count on me to protect Americans living and 
traveling in Kenya. I will work with the estimated 20,000 Americans in 
Kenya; to seek ways to strengthen economic and cultural ties between 
Kenya and the United States.
    Mr. Chairman and members of the committee, if confirmed, I will be 
grateful and proud to serve as the next U.S. Ambassador to the Republic 
of Kenya. I would be pleased to respond to any questions you might 
have.

    Senator Coons. Thank you, General.
    Ms. Gavin.

STATEMENT OF MICHELLE GAVIN, OF THE DISTRICT OF COLUMBIA, TO BE 
             AMBASSADOR TO THE REPUBLIC OF BOTSWANA

    Ms. Gavin. Thank you, Mr. Chairman, Senator Isakson, 
Senator Inhofe. It is a great honor and privilege to appear 
before you today as President Obama's nominee to be the 
Ambassador to the Republic of Botswana, and I deeply appreciate 
the confidence the President and Secretary Clinton have placed 
in me by putting my name forward for your consideration.
    I am also deeply, deeply grateful for the support of my 
husband, David Bonfili; my daughter Clara; and my parents, 
Michael and Jeanette Gavin.
    My own professional background has left me keenly aware of 
the importance of working with this committee and the Congress, 
if confirmed, in order to advance U.S. interests in Botswana, 
including maintaining a strong tradition of democratic 
governance, encouraging economic diversification, and combating 
the HIV/AIDS epidemic. For many years, as you mentioned, I 
served on the staff of Senator Russ Feingold who focused 
intensely on African issues during his tenure on this 
committee, and most recently I was a special assistant to 
President Obama and senior director for African affairs at the 
NSC, a position that gave me new insight on the importance of 
our partnerships on the continent and a rich understanding of 
the critical role that interagency cooperation plays, both in 
Washington and in the field, as we work to achieve our foreign 
policy objectives.
    At independence in 1966, Botswana was, by many measures, 
one of the poorest countries on earth. Now it is a middle-
income country and an exemplar for the continent, having 
consistently maintained a democratic government, responsibly 
managed its natural resources, and invested in its people and 
infrastructure. Botswana is an excellent partner and our 
bilateral relationship is strong, grounded in a shared 
commitment to democracy, good governance, and human rights.
    The United States and Botswana also share an interest in 
ensuring the sustainability of Botswana's success by deepening 
economic diversification, promoting regional economic growth 
and development. Botswana aims to strengthen the nondiamond 
sectors of its economy, creating jobs and opportunities for the 
next generation, and supporting this endeavor through 
partnerships with the United States, including increased 
bilateral trade, will be one of my priorities, if confirmed.
    In addition, if I am confirmed, I will serve as the United 
States representative to the Southern African Development 
Community, or SADC. Regional integration and cooperation are 
essential to the long-term stability and prosperity of all of 
southern Africa's countries. So I look forward to exploring 
appropriate opportunities to work with SADC to promote these 
objectives.
    Despite a remarkable commitment on the part of the 
Government of Botswana to save its citizens from HIV/AIDS, and 
despite strong support from the United States and 
nongovernmental entities, Botswana still has the second highest 
HIV/AIDS prevalence rate in the world. Much has been done to 
combat the epidemic, particularly with regard to treatment. And 
currently, depending on the measure you use, either 83 or 
closer to 95 percent of Botswana who need antiretroviral 
treatment receive it free of charge from the government--of 
Botswana, not our Government. This success could not have been 
achieved without the $480 million in support provided by the 
United States through PEPFAR since 2004. And if confirmed, I 
will do my utmost to ensure that taxpayer resources are used 
effectively in combating HIV/AIDS in Botswana, working to build 
on existing successes and focusing critical attention on 
prevention where more gains must be made.
    In Accra in 2009, President Obama said, ``I do not see the 
countries and peoples of Africa as a world apart; I see Africa 
as a fundamental part of our interconnected world, as partners 
with America on behalf of a future we want for all of our 
children. That partnership must be grounded in mutual 
responsibility and mutual respect.''
    Botswana is a small country but plays an important role 
both regionally and globally. It has been a strong, clear voice 
in support of human rights around the world. In fact, it was 
one of the first countries in the world to sever relations with 
Libya when it became clear that the regime in Tripoli was 
prepared to massacre its own citizens in order to cling to 
power.
    In partnership with the United States, Botswana hosts an 
International Law Enforcement Academy that helps law 
enforcement professionals from around the continent sharpen 
their skills and improve their capacity to combat transnational 
crime.
    Botswana is an international leader in conservation and has 
important insight to offer in global discussions regarding 
environmental issues.
    If confirmed, I look forward to encouraging leadership by 
Botswana on a range of issues where our interests align.
    Mr. Chairman and members of the committee, thank you so 
much for the opportunity to appear before you today, and I 
would be happy to answer any of your questions.
    [The prepared statement of Ms. Gavin follows:]

                  Prepared Statement of Michelle Gavin

    Mr. Chairman and members of the committee, it is a great honor and 
privilege to appear before you today as President Obama's nominee to be 
Ambassador to the Republic of Botswana. I appreciate the confidence the 
President and Secretary Clinton have placed in me by putting my name 
forward for your consideration. I am also deeply grateful for the 
support of my husband, David Bonfili, my daughter Clara, and my 
parents, Michael and Jeanette Gavin.
    My own professional background has left me keenly aware of the 
importance of working with this committee and the Congress. If 
confirmed, I pledge to work with you to advance U.S. interests in 
Botswana, including maintaining its strong tradition of democratic 
governance, encouraging economic diversification, and combating the 
HIV/AIDS epidemic. For many years I served on the staff of Senator Russ 
Feingold, who focused intensely on African issues during his tenure on 
this committee. Most recently, I was a Special Assistant to President 
Obama and Senior Director for African Affairs on the National Security 
Staff, a position that gave me new insight into the importance of our 
partnerships on the continent and a rich understanding of the critical 
role that interagency cooperation plays both in Washington and in the 
field as we work to achieve our foreign policy objectives.
    Upon independence in 1966, Botswana was, by many measures, one of 
the poorest countries on earth. Today it is a middle-income country and 
an exemplar for the continent, having consistently maintained a 
democratic government, responsibly managed its natural resources, and 
invested in its people and infrastructure. Botswana is an excellent 
partner and our bilateral relationship is strong, grounded in a shared 
commitment to democracy, good governance, and human rights.
    The United States and Botswana also share an interest in ensuring 
the sustainability of Botswana's success by deepening economic 
diversification and promoting regional economic growth and development. 
Botswana aims to trengthen the nondiamond sectors of its economy, 
creating jobs and opportunities for the next generation of Batswana, 
and supporting this endeavor through partnership with the United 
States, including increased bilateral trade, will be one of my 
priorities. In addition, if confirmed, I will serve as the United 
States representative to the Southern African Development Community or 
SADC. Regional integration and cooperation are essential to the long-
term stability and prosperity of all of southern Africa's countries, 
and I look forward to exploring appropriate opportunities to work with 
SADC to promote these objectives.
    Despite a remarkable commitment on the part of the Government of 
Botswana to save it citizens from HIV/AIDS, and despite strong support 
from the United States and nongovernmental entities, Botswana still has 
the second highest HIV/AIDS prevalence rate in the world. Much has been 
done to combat the epidemic, particularly with regard to treatment. 
Currently 83 percent of Batswana who need antiretroviral treatment 
receive it free of charge from the Government of Botswana. This success 
could not have been achieved without the $480 million in support 
provided by the United States through PEPFAR since 2004. If confirmed, 
I will do my utmost to ensure that taxpayer resources are used 
effectively in combating HIV/AIDS in Botswana, working to build on 
existing successes and focusing critical attention on prevention, where 
more gains must be made.
    In Accra in 2009, President Obama said, ``I do not see the 
countries and peoples of Africa as a world apart; I see Africa as a 
fundamental part of our interconnected world, as partners with America 
on behalf of the future we want for all of our children. That 
partnership must be grounded in mutual responsibility and mutual 
respect.'' Botswana is a small country, but plays an important role 
both regionally and globally. Botswana has been a strong, clear voice 
in support of human rights around the world; in fact it was among the 
first countries to sever relations with Libya when it became clear that 
the regime in Tripoli was prepared to massacre its own citizens in 
order to cling to power. In partnership with the United States, 
Botswana hosts an International Law Enforcement Academy that helps law 
enforcement professionals from around the continent sharpen their 
skills and improve their capacity to combat transnational crime. 
Botswana is an international leader in conservation and has important 
insight to offer in global discussions regarding environmental issues. 
If confirmed, I look forward to encouraging leadership by the Batswana 
on a range of issues where our interests align.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to appear before you today. I will be happy to answer any 
questions you may have.

    Senator Coons. Thank you, Ms. Gavin. Thank you, General 
Gration.
    We are now going to begin 7-minute rounds with members of 
the committee asking questions.
    General Gration, thank you for your service to our Nation, 
both in the Air Force and as special envoy.
    The U.S. Embassy in Nairobi is the largest in sub-Saharan 
Africa with roughly 1,400 employees, and as the Sudan envoy, 
you managed roughly 30, obviously in your military experience, 
much larger contingents.
    I would be interested in your overall plan for running an 
effective and operating an efficient Embassy, what your 
priorities are for that Embassy, and in particular, given there 
are 86 who are Department of Defense direct hires, comment, if 
you would, on how as a retired general from the Air Force who 
served both in a military and diplomatic capacity what you view 
is the relationship on unity of effort between our civilian and 
military representatives in Nairobi.
    Mr. Gration. Thank you very much. It will be a big 
challenge because there are people from many different 
organizations who represent many different agencies. But I 
believe my job is to orchestrate and to provide a vision where 
all of these people who represent America do just that: 
represent America. And I want to create within the Embassy, 
within the country a team, a strong team that is an all-of-
Government team, where it is not just the military or it is not 
just USAID or it is not just CDC and other people working 
independently, but we are working together to further the 
interests of our great Nation in Kenya and in the region. So 
there are many things that I want to do in terms of 
establishing the priorities.
    First of all, I think in building the team, we have to make 
sure that it is an inclusive team, a team where everybody can 
contribute, where everybody is resourced, and where they have a 
sense of what the mission is. So I will be creating that very 
early in my time there.
    I have worked on a speech that I plan to give in Swahili 
within the first couple days to all the local employees, so 
that they are part of the team because without them, we really 
cannot do the mission we have in Kenya and in the region.
    So the concept is to start bringing that team together.
    And then I want to put no question in anybody's mind who 
works for who. I think, as you point out, when you have 
military people and you have other people--that is why I spent 
a lot of time understanding the NSDD-38, Chief of Mission 
authorities, and what is my responsibility and what I am 
accountable for, and how I can continue on to control and 
manage those processes.
    As for the military people, I understand that they work for 
the COCOM, but again, it is the communication, the personal 
relationship that I have with the commanders of the military. I 
plan to work very hard to strengthen those.
    But the concept that I am trying to get to right now is 
making sure that everybody understands the mission, understands 
our objectives in the country and works as a team to make that 
all happen. I believe I can do that based on the experience I 
have had in the military and based on my experience that I have 
had in the State Department.
    Senator Coons. Thank you, General.
    You have, as we mentioned, served as President Obama's 
special envoy to Sudan since March 2009, and in that capacity, 
you have received both criticism and praise for your handling 
of an array of challenges, ranging from the expulsion of 
humanitarian groups working in Darfur in 2009 to the southern 
Sudan referendum in January which Chairman Kerry's statement 
lauded you for playing a critical role in moving forward. Some 
have said that you compromised on humanitarian issues while 
others have lauded your ability to be an effective negotiator 
with the Government of Sudan. Some have criticized you in your 
tenure as special envoy for being too close with Khartoum in 
negotiating with them, and others believe that that was 
critical to achieving progress on the referendum.
    Do you believe the advocacy groups and other critics have 
accurately characterized your approach toward Darfur, and what 
are the lessons you might have learned from your experience as 
envoy and how would they inform your approach if confirmed as 
Ambassador to Kenya?
    Mr. Gration. When I took this job, the President was very 
clear. He said my primary mission was to save lives, and that 
was when we were facing 1.5 million people at risk in Darfur 
after the NGOs were thrown out. And to do that, it became 
increasingly clear to me, as I thought about how I would 
conduct this mandate that I had, that I had to be able to talk 
with the Government of Khartoum. As we thought about ending the 
conflict that displaced so many people in Darfur, the conflict 
with the proxy forces between the Government of Khartoum and 
Chad, it became increasingly clear that I had to talk to 
N'Djamena and I had to talk to Khartoum. When we thought about 
implementing the comprehensive peace agreement and the 12 
outstanding issues that had to be negotiated, it was clear that 
I had to have a relationship with Juba and Khartoum. And in 
every situation, it was obvious that I had to have a 
relationship.
    And so it became a question of how do you build that 
relationship. And I believe that in all relationships, it has 
to be transparent. There has to be trust, and there has to be 
respect if you want to have influence. I also believe that you 
have to have both a blended application of both incentives and 
pressures, and that is what we tried to achieve in Sudan, using 
all the tools to achieve our national interests and desired 
results and behavior changes that were required by using a 
blend of both sticks and carrots, as some people say. I would 
say pressures and incentives.
    And that is what I think I will take also to Kenya, an 
ability to look at a situation, to build the relationships that 
are based on trust and respect, to create an atmosphere of 
transparency where we can talk clearly, where we can express 
opinions in a way that are accepted by both sides, and that we 
can use the appropriate mix of pressures and incentives to 
achieve America's interests in that land.
    Senator Coons. Thank you, General.
    We are now going to move to the first round of questions 
from Senator Isakson. I understand there is a vote underway on 
the floor. And so my suggestion--hopefully this meets the needs 
of the other members of the committee as well--is that we allow 
Senator Isakson to go through his first 7-minute round, and 
then we will recess so that all the members of the subcommittee 
can go and vote, return, and resume the hearing.
    Senator Inhofe. Mr. Chairman, I am not going to speak 
anyway. I am aware of the bipartisan support for both of these 
nominees and the challenges that they face. And I will yield to 
Senator Isakson. Thank you, Senator.
    Senator Coons. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    General Gration, I appreciate your answer to the question 
asked by Chairman Coons. Having been to Khartoum myself and 
then to Darfur, but dealing with the Khartoum Government, the 
comments that you were criticized for are understandable 
comments when put in the context of what you were dealing with 
at the time. And I commend you on your effort there and what 
you did and the fact that the results have proven to be a 
peaceful transition, at least as far as it has gone with the 
election. And I hope you will give continuing advice to 
Princeton Lyman, so that continues through July and we can 
actually get to a point where we resolve the remaining issues.
    Now, to Kenya, are our Somalia efforts still housed in the 
Kenyan Embassy?
    Mr. Gration. Yes, sir; they are. There will be, though, 
some changes that are happening right now.
    There will be an ambassador-rank individual that will be 
part of the Somalia unit, and that individual will report 
directly to Assistant Secretary of State Carson and will be 
responsible for all policy decisions having to do with the 
Somalia portfolio.
    The Kenya Embassy will still have the operators, the people 
that interface on a day-to-day basis, and they will all be 
housed and be the responsibility of the chief of mission.
    And if confirmed, I will stay very closely involved with 
this new ambassador and with all the units to make sure that 
there is continuity and make sure that everything is taking 
place in accordance with procedures and policy that have been 
given to me.
    Senator Isakson. But the special mission will report 
directly to Johnnie Carson?
    Mr. Gration. The Somalia unit that is responsible for 
policy and about nine people will report directly to him.
    And it makes sense that they are located in Kenya because 
many of the TFG members, many of the people that work directly 
in Somalia are there in Nairobi right now. So it certainly 
makes sense that that organization is there and is sponsored by 
the American Embassy under the Chief of Mission authority.
    Senator Isakson. How deep is your knowledge of the refugee 
camp at Dadaab?
    Mr. Gration. I have never been there, but I want to get 
more knowledgeable, but I have a basic understanding.
    Senator Isakson. My understanding is it continues to grow 
and has the potential to be a real problem.
    Mr. Gration. Yes, sir. There are somewhere between 315,000 
to 350,000 people there, and that number continues to grow. It 
needs more land. I understand the Kenyans' reluctance to do 
that because they don't want it to get too big, but the reality 
is that we have to do a better job not only to help these 
people with nourishment, sanitation, and health care, but to 
give them the hope that they need to make the adjustment to a 
normal life and also to life after Dadaab.
    So that means we have to have a policy in Somalia that will 
restore the country and give it some stability so people can 
return because just to house people in Kenya is not the right 
answer and to house them better. The answer is to bring peace, 
stability, and the conditions where they can come back and 
return to their normal livelihood.
    So I believe that the two-track policy the United States 
has right now is the right approach, but it is going to take a 
tremendous amount of effort because for 20 years there has been 
unrest. There has been so little governance, and we have got to 
treat Somalia with a higher sense of priority in my view to be 
able to create the environment so that there can be governance 
and there can be the stability that they so need to be able to 
restore the refugee problem that is spilling out into Kenya.
    Senator Isakson. I appreciate that answer.
    Ms. Gavin, I am sorry your 2-year-old left. She was 
stunning and as pretty as her mother. It is good to have you, 
and I congratulate you on your nomination.
    Botswana is a country that the United States sees as a 
shining star. One of the things that I am most interested in as 
I have been to Africa is: the tremendous Chinese investment 
that is being made on that continent and the challenge between 
the Chinese extracting natural resources with their own 
workers, and the United States investing money and trying to 
create a climate of United States business investment. What 
will you do as Ambassador to try and foster that type of 
investment in Botswana?
    Ms. Gavin. Thank you so much, Senator. I think that, if 
confirmed, that will actually be one of my highest priorities. 
The Government of Botswana is a willing partner in wanting to 
diversify its economy, and there are a lot of positives to that 
particular investment climate. But it is also a very small 
market, 2 million people. So one thing that I think is going to 
be essential is going to be to work closely with Ambassador 
Gips in South Africa and others in the region to take a 
regional approach to economic development. It is a much more 
attractive investment, I think, for U.S. businesses. There is 
much more opportunity for the United States that would be 
extremely beneficial to Botswana as well if we address this 
regionally.
    You are absolutely right. China has been increasing its 
involvement in Botswana and in the rest of southern Africa 
largely in extractive industries, but also getting involved on 
some health issues, getting involved with the University of 
Botswana to increase sort of their Asian studies capacity. So I 
will also look for opportunities to work with the Chinese where 
we do have some shared objectives so that I am not reacting in 
a way that suggests this is always a zero-sum game.
    Senator Isakson. Well, I commend both of you on your 
nomination and look forward to working with you.
    And I will end where I began in my opening statement. I 
hope both of you will do everything you can to support the NGO 
efforts, in particular, what is happening in Kibera: CARE, 
USAID, Save the Children, Catholic Relief. You saw what they 
did, obviously, in Darfur. Those organizations are doing an 
awful lot to bring some degree of quality of life to very 
impoverished people, and I know in terms of Botswana, I assume 
there is PEPFAR money in Botswana and CDC, which is based out 
of Atlanta, and the other volunteers that are there--the 
support for those volunteers and those NGOs is critical to the 
future of that continent and the betterment of those people.
    Again, I congratulate both of you on your nomination.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator.
    We are going to recess for a period of 15 minutes so that 
members of the subcommittee can vote, and then we will resume. 
The subcommittee stands in recess.
    [Recess.]
    Senator Coons. We are going to resume the nomination 
hearing of the Africa Subcommittee. Thank you for being patient 
with our recess while members of the committee cast their 
votes.
    The ranking minority member may or may not rejoin us, but 
he urged me to proceed and complimented you both on your 
statements and answers so far.
    General Gration, if I might. The International Criminal 
Court has recently summoned--I believe it is six individuals 
from Kenya accused of crimes against humanity during the post-
election violence of 2007. And I believe they are appearing in 
The Hague just a few days from now.
    If confirmed as Ambassador, what would be your approach to 
handling these ICC cases in Kenya?
    I noted that the Kenyan Government has called for an 
Article 16 delay, arguing instead for local tribunals to 
address these questions of violence, and the AU has endorsed 
Kenya's request. What is your view of the issue of deferment?
    Do you believe the ICC process threatens peace and 
stability in Kenya as some have claimed? And given your prior 
experience with the ICC in Sudan, how will you handle this in 
the context of Kenya?
    Mr. Gration. Thank you. Certainly I believe that the 
underlying issues have to be resolved, and I will talk about 
that in a minute.
    But just to answer your questions directly, in terms of an 
Article 16 deferment, I do not support that and neither does 
our country and do not believe that if there was a deferment, 
that it would change the peace and security situation either in 
Kenya or regionally. And the fact is it may in some way 
exacerbate the situation.
    There are other processes that the Kenya Government is 
pursuing. One is asking whether article 17 and article 19 would 
be appropriate, and that would be where they would appeal to 
the ICC to have the process moved back into Kenya, but the ICC 
would have to approve that process. If indeed they do that and 
ICC approves the process, that may be one other avenue that the 
government has, but in terms of article 16, we do not support 
that.
    But I think the most important element is that we cannot 
have a situation where a culture of impunity, where corruption 
is not curbed, where human rights are at risk, where people are 
looked at as tribesmen and not as citizens of the country. 
Those issues have to be resolved.
    And that is why as a government we support the reform 
actions that have been put in place. On the 4th of August, 
Kenya put together a new constitution, but that constitution 
has to be implemented. The fact is there are almost 25 
different legislative pieces that have to be passed to fully 
implement it. In addition to that, there are committees, 
courts, commissions, things that have to be set up, and then 
people have to be able to understand and buy into this process. 
And the government has to show that they are committed to 
making sure that these reform measures become part of practice 
and become part of the process and there is a democratic 
process where people can demonstrate their will through 
elections and that they can do this freely and in a transparent 
way and a peaceful way. This is what we will be aiming for.
    And I think the ICC is part of this, showing accountability 
for those, and if they are not guilty, that will come out. But 
if folks are proven to have been involved in issues, in crimes, 
then they would have to be held accountable for that.
    Senator Coons. Thank you.
    Ms. Gavin, in the Botswana context, Botswana has often been 
recognized as one of the most stable democracies in all of 
Africa, one of the most transparent, and President Khama has 
spoken out about some of the challenges in Zimbabwe, was one of 
the first, in fact, to come out and recognize President 
Ouattara as the winner of the elections in Cote d'Ivoire.
    Could you just comment on to what do you attribute the 
stability, the predictability, the regularity of elections in 
Botswana? What actions might we take to strengthen the 
multiparty nature of electoral democracy in Botswana, and then 
what are we going to do, should you be confirmed as Ambassador, 
to strengthen their hand in being a regional supporter of 
initiatives that we have taken both in questioning the 
legitimacy of elections in Zimbabwe and in strengthening the 
region as it has to do with civil institutions?
    Ms. Gavin. Thank you so much. It is an interesting thing to 
think about, why has Botswana been able to achieve so much 
success, and I think it can certainly be attributed to good 
leadership, some decisions early on particularly when the 
country's diamond wealth was discovered regarding natural 
resource management that are highly relevant for the rest of 
the region where there are so many mineral-rich economies that 
have not been managed as well.
    There is also a culture in Botswana of open debate and 
dialogue that has existed for a very long time that I think 
helps to inform the democratic culture that has developed 
there.
    I also think it is important to avoid treating Botswana as 
the exception to the rule and sort of letting everybody else 
off the hook as if Botswana had some special set of ingredients 
that other countries do not have, which I think gets to another 
part of your question about how to help to amplify their voice 
in the region and sometimes globally where we, in fact, have 
shared interests and shared objectives, and that, if confirmed, 
is certainly something I would hope to work on by encouraging 
the Botswanan Government to participate in some global 
dialogues and discussion, encouraging the head of state to come 
to the U.N. General Assembly, for example, and make sure that 
their voice is heard.
    I think that as far as strengthening the multiparty aspect 
of Botswana's democracy, there are some very encouraging signs 
that the opposition is alive and well. In the last election, 
the opposition--well, the ruling party received something like 
53.3 percent of the vote. So it is not as if no one is out 
there voting for opposition parties. They recently, in fact, 
came to some agreement to unify and try and rally around the 
same candidates the next time they take a go at this.
    The press is extremely free in Botswana, and sometimes 
highly critical of the government.
    So I think what I could do, if confirmed as Ambassador, is 
to continue a dialogue with representatives of all political 
parties in Botswana and continue engaging the Botswanans and 
particularly young Botswanans on issues of just civic 
participation, civic activism, make sure that as long as 
everybody is participating in the dialogue and the dialogue 
stays rich, I think that multiparty democracy is likely to 
remain quite strong.
    Senator Coons. General Gration, to follow up on that, if I 
might. As we go toward the 2012 elections in Kenya, what are 
the things that we can and should be doing to continue to push 
along the path of reform to strengthen democratic institutions 
in Kenya to ensure we do not have a repeat of the 2007 
elections and their irregularities? And what do you think 
should be our major concerns in terms of potential flashpoints 
as we move toward those elections?
    Mr. Gration. Certainly we need to encourage all segments of 
the population to become involved in this. In other words, we 
have to have programs that not only help the government itself 
with the implementation programs--and we do need to help 
those--but we need to help people like Patrick Lumumba and 
folks that are working with corruption. We need to engage again 
and continuously with the civil society to make sure that the 
people understand the process and they understand that 
democratic reform will give them a voice that is clear and that 
represents exactly what they are saying and that it does that 
without fear.
    We need to engage the youth because much of the actual 
violence was done by the youth even though they may have been 
controlled by other aspects of the government or individuals. 
But the youth have to become part of the solution. They have 
understand that it is not about bullets. It is about ballots. 
It is not about machetes, but it is about getting out there and 
making a difference with words and votes and concepts.
    So it is going to take an education process, and that is 
something we can do through our USAID grants, through things 
that we become involved in, things we put our fingerprints on.
    But the bottom line is just to, again, push on 
accountability, push on these wherever we are through all 
aspects of our Embassy so that in my view that should be the 
highest priority of getting from now until whether it is next 
August or next December when the election is held, that we have 
done everything possible so that we can ensure that it is 
peaceful. And if for some reason it is not, we will look back 
and say we have done everything we could have done.
    And that is why in my view, if confirmed, I want to get out 
there as soon as possible to start building the relationships 
with the government so I can have influence, that I can 
understand the situation, and that I can do everything I can to 
prepare not only our Embassy to get involved but to bring the 
rest of the multilateral organizations, our international 
partners, and other people around so that we are all going the 
same way same day on this very, very important issue. It is a 
high priority and I believe that we can make a difference.
    But we cannot waste another day. There is so much that 
remains to be done. We saw it in Sudan in both the election and 
in the referendum. We can, through right training, through 
right programs, and right focus, produce an election that does 
represent the will of the people. That is what we will continue 
to do, and if I am confirmed, I will put my effort toward this 
because in my view it is one of the highest priorities I have.
    Senator Coons. One concern I have around sort of 
legitimacy, given the recent protests throughout north Africa 
and the Middle East, is transparency and corruption. A recent 
BBC report projected that maybe as much as a third of the 
Kenyan national government spending is lost or wasted through 
corruption. It has not ranked high on transparency indices.
    How pervasive do you think a problem or challenge 
corruption is for Kenya? Is it potentially a source of some 
tension or difficulty in the same way that it has been in other 
countries that have recently seen popular uprisings? What sort 
of a barrier is it to United States-Kenya trade, and what can 
we do to help those elements within Kenyan society and 
leadership that really want to tackle and fight corruption 
within Kenya?
    Mr. Gration. Exactly right. From what I understand, Kenya 
is rated 154 out of 178 in terms of the corruption index. This 
is in my view has to stop, and it is not going to be able to 
stop maybe even under my tenure. But I think that, if 
confirmed, this is something that we need to put a big dent in 
because while the government officials and other people who are 
in a position to take, while they gain, what it is doing is it 
is just destroying the opportunities for creating wealth at the 
local level. Kenya is suffering with--well, they already have 
about half their population under 18, but if you take a look at 
folks under 30, only about 30 percent really have jobs that are 
producing incomes upon which they can support a family and 
their desired livelihood.
    So when you have corruption, it just hurts, and it also 
takes the motivation out of people. If they see somebody else 
getting rich by not working hard, it undermines the work ethic. 
So in my view for the good of future generations, this has got 
to be a priority.
    And while I do not know yet all the tools we can use, I 
think that there are a lot of tools that we can. And the first 
is the whole concept of reform and making sure that as is laid 
out in the new constitution, that ministers and Cabinet 
officials, I should say, have to get appointed and approved, 
that there is a new system of representation, a new house, the 
eight provinces are going into 47 counties, and they will have 
representation. And you will not have the cronyism, hopefully, 
as in there right now.
    So it is going to start at the government, but it has got 
to go right down to the individual people because, having lived 
there--and I am sure you experienced too--even down at the 
local level, there are elements of corruption and a way of 
doing business. And somehow that has got to change. And I 
believe we have to use all elements to help it change, whether 
it is the church with Judeo-Christian values or whether it is 
part of the Muslim community through their outreach, whether it 
is through schools and teaching ethics from grade school on up.
    I do not know what the right solution is, but I got to tell 
you this is so pervasive and such a big problem and it is 
keeping Kenya from having access to the Millennium Challenge 
Account. It is keeping the people down, and I believe that we 
need to work together.
    Maybe this is something that we can form a task force among 
the international community to try to figure out how do we all 
together help make a difference because I do not think this is 
something America can solve. I think it is going to have to be 
done by the government itself, by the people themselves, by the 
Kenyans themselves, but it is going to take the full support of 
all the international community to help make this happen 
because it is going to involve that kind of dramatic change for 
it to be able to make a difference and be able to stick.
    Senator Coons. Ms. Gavin, Botswana has often been cited on 
those same rankings as among the most transparent in the world. 
And you previously cited the longstanding cultural traditions 
of openness and debate. I do not have much insight into how 
Botswana, an extraction economy that experienced a sudden rise 
in wealth, has managed to avoid the same challenges that many 
other governments of all kinds have fallen into of exactly the 
sort of widespread corruption, large- and small-scale, that has 
characterized many other developing nations and some developed 
nations.
    Any advice or insight for us on how in a multilateral way, 
either through the international community or through values 
and ethics changes, we might make progress in nations 
throughout the region and the world? What lessons might we 
learn from Botswana?
    Ms. Gavin. Well, I hope to, if confirmed, certainly learn 
more about why the things that work so well in Botswana work 
that way. But I do think there is real value simply in their 
example of a resource-rich country where the rule of law 
prevails, and in fact, government officials, controversial 
cases--sometimes the courts rule against the government. So you 
have a truly independent judiciary and a police force that 
protects the citizens rather than preying on them.
    I do think that the International Law Enforcement Academy 
that Botswana hosts and that the United States Government 
supports is an interesting example of trying to highlight 
Botswana's reputation for good governance, rule-governed 
procedures, and respect for the rule of law to help build 
capacity internationally. Some 29 African countries participate 
in training there, largely focused on different aspects of 
transnational crime. But simply having the seat of this academy 
in a country with such a low level of corruption, I think is a 
good example of trying to maximize the value of the Botswanan 
story and make it relevant to the rest of the region.
    Senator Coons. Ms. Gavin, one of the biggest challenges, as 
you mentioned in your opening statement, facing Botswana is a 
very high rate of AIDS and HIV infection. There has been 
significant progress made to some large extent because of 
United States investment, but it is now moving to being one 
more directly led by the Botswana Government but where I 
understand there might be some great progress being made 
through a partnership between Merck and the Bill and Melinda 
Gates Foundation and the nation of Botswana.
    What can you suggest about lessons for us and challenges 
ahead to have an adult population that is, I think, at about 25 
percent infection? It must be an enormous challenge for 
Botswana. How do you see the path ahead in terms of the 
American role, the multilateral role, and the role for the 
private sector and the philanthropic sector in tackling this 
greatest challenge for Botswana?
    Ms. Gavin. I think you are right. There is no single thing 
that the United States Government does in Botswana that is more 
important than continuing this fight against HIV and AIDS, and 
I think that we probably can extract some valuable lessons for 
other countries hard hit by the epidemic, particularly in the 
success they have had in rolling out treatment and also almost 
eliminating mother-to-child transmission.
    But on prevention, there is still a tremendous amount of 
work to be done, and it will take interagency collaboration. 
PEPFAR, as you know, Senator, works best when the CDC and AID 
are working in a collaborative and complementary way and not 
engaged in a constant tussle for resources.
    In Botswana, we also have some interesting other elements. 
DOD participates helping to work on HIV/AIDS issues with the 
Botswana defense forces.
    And our Peace Corps Volunteers in Botswana work exclusively 
on health issues. Botswana had graduated out of Peace Corps and 
then invited the Peace Corps back when the pandemic hit and 
they realized the magnitude of the challenge.
    So I think that there are very positive lessons that we can 
extract on the treatment side, much more to do on the 
prevention side, and I think critical to all this is going to 
be that interagency collaboration, making sure all those 
interagency elements are working together in conjunction then 
with the nongovernmental elements, Merck, Gates, and others, 
and critically, the most important partner, the Government of 
Botswana, in trying to address the prevention challenge.
    Senator Coons. Thank you.
    General, Kenya is a major focus for both the Global Health 
Initiative and the Feed the Future initiative, and both of 
these are signature initiatives for the administration and 
critical to our role in the region. But Congress is facing 
understandable significant pressure to reduce Federal spending, 
reduce the Federal deficit, and there is the very real 
possibility being discussed literally now of significant 
reductions in spending in the current fiscal year or possibly 
going forward in these areas.
    I would be interested in hearing what role you think there 
might be for urging either the Government of Kenya or other 
multilateral partners to contribute more of the funding, what 
kinds of changes you think there might be in terms of our role 
in Kenya, our progress in Kenya if funding is dramatically 
reduced, and what you see as the contribution that you could 
make as Ambassador in advancing both the Global Health 
Initiative and Feed the Future initiative on the ground in 
Kenya and then regionally.
    Mr. Gration. In terms of Feed the Future, I think it is a 
very important program, but I think that we have to think about 
what we are trying to accomplish. And in my view, Kenya is too 
dependent on rain-fed agriculture, and there are a lot of ways 
you can get around that.
    First of all, I think what Feed the Future is doing in 
terms of understanding the lay of the land and the threats that 
people face are very important.
    But second, I think what they are doing in terms of 
subsistence farming is important. With better seed, better 
fertilizer, natural fertilizers, planting legumes, and in 
addition to nitrogen enrichment and planting of other crops in 
rotation is important. And so those kinds of things are very 
important. Even in terms of planting, techniques are important.
    But the piece that I believe would really help Kenya is if 
we think more about value chain analysis, what are the right 
crops, and then marketing and banking. If you build banks to 
where you can take the grain and bank it for a year, if it does 
not rain the next year, you can eat it, and if it rains, then 
you sell it. With fumigation and other techniques, you can 
store grain for a year very, very easily.
    The second part of banking--it sort of evens out the 
market. Instead of having a glut of food when the harvests come 
around and then a dearth 4 months later, banking allows you to 
put food on the market in a way that it is stabilized.
    So there is a whole lot of things that I think can be 
included in the Feed the Future initiative so we can actually 
get more bang for the buck and ensure people when it does not 
rain.
    In terms of the Global Health Initiative, I think you are 
exactly right. We need to think about programs so that they can 
be absorbed by the government. The problem is that when you 
infuse a lot of capacity, clinics, more people on 
antiretroviral medicines, that kind of thing and then stop the 
funding and the government is not in a position to absorb it, 
it really creates a lot of problems. So I think two things need 
to happen.
    One is we need to be partnering with the government when we 
put these in so that there is a transition program built into 
the Global Health Initiative program or the Feed the Future 
program such that if there is going to be public sector 
adoption of this, then it is built right in in the beginning, 
and the governments know that they have to produce more nurses, 
they have to get a way to bring more medicines in so they can 
bring it in, which means that our programs may have to be 
smaller in the beginning or else we have to take the risk that 
we are going to have to fund these for a longer period of time. 
But the reality is build a program so the government can accept 
it, build a program that helps them accept it. So maybe the 
right answer is in the Global Health Initiative is not so much 
putting in more clinics but building more nurse training 
programs or more other ways that you can build the capacity for 
them to take this over in a way that allows you not to skip a 
beat when you do the transition.
    So I will be looking at both of these programs. I think 
they are both good programs, but I understand that they should 
be stopgap programs. They should not be programs that are still 
there 25 years from now. And if we are not building programs to 
work ourselves out of that program, then I think there is a 
mistake.
    If you know anything about me, I am a big believer in 
affordability, sustainability, self-sustaining ability, and 
then scalability. If the program is really good, it should be 
able to take off on its own. So what I look for in the Feed the 
Future programs is while we put in pilot programs, we ought to 
be doing this in a way that they are self-sustaining or 
government-sustainable and then that they take off by 
themselves so that you are not always building a program, but 
they will end up growing by themselves.
    So these are the things that I think--those principles--we 
can look at in both the Global Health Initiative and Feed the 
Future to make sure that these programs do last without a 
constant infusion of U.S. dollars. But then again, bringing the 
international community in and mulilats into the program is 
also very important.
    Senator Coons. Thank you, General.
    Ms. Gavin, one of the criticisms of the Botswana Government 
that some indigenous people's advocates have had is that there 
has been a resettlement policy for the San people mostly in the 
Central Kalahari Reserve, and the challenge has been raised 
that it is viewed as having been done largely to advance 
diamond extraction and at the expense of a traditional culture.
    If confirmed as Ambassador, what would you do to be 
involved in this issue and what do you see as the opportunities 
for some progress in dealing with the loss of this traditional 
culture in the Kalahari?
    Ms. Gavin. This has been a longstanding, very difficult 
issue in Botswana, and I think that they have tried to address 
it both through direct dialogue between the government and 
different representatives of the San people, and sometimes the 
issue has been taken to court. It is a positive indicator that 
the government is not always on the winning side of the court 
decisions and it shows there is merit in seeking redress in the 
courts certainly. But it is not an issue that has been 
resolved, and I think it will remain very difficult.
    I think what the U.S. Government can do is try to determine 
if there are ways we can help facilitate better communication 
between the community still residing in the Central Kalahari 
Game Reserve which is actually quite small, but there are 
different elements of the community and different voices in the 
government itself. If there are things that we can do to help 
facilitate those lines of communication, it is certainly I 
think well worth exploring every avenue to see what is the 
world of the possible there.
    Senator Coons. General, I would be interested in your 
thoughts on Kenya's role in fighting terrorism. Obviously, 
there is a significant challenge with piracy off the coast of 
Somalia and now extending out into the Indian Ocean quite a way 
and affecting not just the horn but the whole region. Also, 
Nairobi was the scene of one of the most horrific attacks on an 
American installation in the bombing of our Embassy.
    Your view on what as Ambassador you can and should be doing 
to be part of our fight against terrorism both within the 
nation of Kenya and in the region.
    Mr. Gration. I think Kenya can be a very good ally and a 
partner in this effort. Kenyans understand terrorism. As you 
pointed out, a facility in their country was bombed. But if you 
take a look at the number of people killed, they bore the brunt 
of that attack many, many times over what Americans lost: 218 
people and most of them Kenyan.
    They are also keenly aware of what happened on the 10th of 
July in Kampala when the al-Shabab bomb went off. Perpetrators 
of that crime, some of them potentially Kenyans. And so they 
are aware of that.
    And they are also aware that every time that one of these 
attacks happens, they lose income from tourism. Their economy 
is disrupted.
    So I think they are willing and ready to be partners.
    We have put a lot of effort into training police units and 
also military units, and in doing that, we are making sure that 
we are vetting properly to make sure that the people that we 
train will not be perpetrators of crimes of human rights 
violations and that kind of thing.
    Kenya has also proven themselves to be a strong partner in 
supporting out-of-country operations. They are involved in 
southern Sudan, and they have been involved in other 
contingencies around the world. So I think Kenya is a great 
foundation.
    Now, what do we need to do? I think we need to continue 
programs but maybe a little bit more specific. So we will take 
a good look at what are the ways that the Kenyans can be used 
more effectively.
    One area I think that we can do better is in intel. The 
Kenyans have their ear to the ground. They know a lot of things 
that are happening, as do governments throughout that region. 
And if we are going to operate, whether it be in Somalia or 
whether it be against piracy or whether it be in other 
transnational things that are happening in and around Kenya, 
they are probably going to know about it before we know about 
it. And to develop a relationship with them so that they will 
share intelligence, number one, but to develop a relationship 
with them and that we can train them in the areas where they 
are deficient so they can become more effective in helping us 
in the global effort, I think that would be important.
    So I will take a look and make sure that the training that 
we are doing meets the need not only for Kenyans, but for the 
rest of the international community and then look for areas 
that we can help with areas where they are deficient to improve 
their capacity to help. Kenyans can be and are already strong 
partners in the war on terrorism.
    Senator Coons. Ms. Gavin, what role do you see for the 
United States in promoting bilateral trade with Botswana and 
what opportunities, if any, are there for them to take 
advantage of United States technology transfer, partners with 
us for things like alternative energy, for water generation, 
for pharmaceuticals and otherwise? And what role do you see for 
yourself as Ambassador in promoting bilateral trade with 
Botswana?
    Ms. Gavin. Thank you. If confirmed, I think that will be an 
absolutely essential part of my role as Ambassador. 
Particularly because Botswana is a middle-income country, it 
does not qualify for things like Millennium Challenge 
Initiative. Playing a role in bringing investors together with 
Botswanan businesses, in some cases the Botswanan Government, 
and critically taking a regional approach since it is such a 
small market I think is an absolutely essential part of trying 
to facilitate the economic diversification that is such a high 
priority for Botswana. So I think you have hit on a number of 
sectors that appear to have some real potential.
    Southern Africa has tremendous energy needs. South Africa, 
which provides the lion's share of energy to the region, is 
strapped. It is clear that there is going to be a growing 
demand. And so there are some interesting small-scale projects 
in Botswana now around solar that probably bear a closer look. 
And I think that it is going to be essential to let people know 
what kind of investment climate Botswana has to offer and also 
to let people know what kind of regional infrastructure is 
there and see if we cannot be creative and get more done 
without using a lot of foreign assistance dollars to help what 
has been a very strong partner, sharing a lot of our interests 
and values, sustain that strength into the future.
    Senator Coons. Thank you.
    General--and this will be my last question--how do you see 
your role, if confirmed as Ambassador, in advancing United 
States-Kenyan bilateral trade ties? We export and import 
roughly the same amounts. Have there been opportunities for 
Kenya to take advantage of the African Growth and Opportunities 
Act and are there other things we could be doing to promote 
their adoption of U.S.-distributed energy generation, for 
example, or water technologies or new developments in seed or 
grains or other things that you have spoken about before? How, 
as Ambassador, would you advance both the development of Kenya 
and American export opportunities?
    Mr. Gration. I think there is a great opportunity to create 
jobs in America by increasing trade in Kenya. We already have a 
great process going where we actually have quite a bit of 
trade. There is a surplus and the surplus has been for the last 
5 years. Last year it was $34 million.
    The issues that you point out are ones that I think we have 
to grapple with. Right now, AGOA is pretty much a textile kind 
of thing. In fact, I believe it is somewhere around 72 percent 
of the products that are exported from Kenya to the United 
States under AGOA would be in the textile. But there are so 
many other things that Kenya could add to this, and to help 
them diversify and increase their base so they do not take 
precut and just assemble them and ship them off to America, but 
they actually do things that would create jobs for Kenya. And 
then in return, I think there are so many things that can be 
done in Kenya on the IT side, on the energy production side.
    The Kenyans are bright. They are highly educated. The 
literacy rate is extremely high.
    I think that there is a way that we can import in a way 
that creates jobs, wealth creation opportunities in Kenya but 
would also create jobs back here. And I look forward to being 
part of that, working with our international community, 
Americans that are there. There are almost 20,000 Americans 
that are involved in private volunteer activities, NGO 
activities, but also in commercial business opportunities. 
Right now we are going to have to take a look at where our 
competitive advantages are and where we can strengthen them.
    The other thing I would say is that I want to make sure 
that we level the playing field. There are some competitions to 
American firms, whether they come from China or other kind of 
places, where we can probably do more to give our products a 
better shot of taking hold in the country.
    So those are the kind of things I will work with and I hope 
to work with the American community to come up with their ideas 
to know how I can help them better.
    Senator Coons. Thank you, General. Thank you, Ms. Gavin. 
Thank you to your families. Thank you for your service. Thank 
you to Clara for her great patience and persistence. She is 
asleep I know. I am grateful for your parents before us and 
your testimony.
    The record of this hearing will remain open until the close 
of business tomorrow, Wednesday, April 6, in the event there 
are other members of the subcommittee who were not able to join 
us today but who wish to submit additional questions for the 
record.
    Again, thank you very much.
    And with that, this hearing is adjourned.
    [Whereupon, at 4:08 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


          Responses of Scott Gration to Questions Submitted by
                         Senator John F. Kerry

    Question. Previous reports by the Office of the Inspector General 
described a number of problems within the Africa Bureau, including 
poorly led posts and particularly notable failures in public diplomacy. 
In your testimony to the committee, you discussed ways you will 
approach some of the management challenges that result from the size 
and scope of the Embassy in Nairobi. How has your previous experience 
shaped your views regarding effective public diplomacy and if confirmed 
as Ambassador, how would you seek to approach related issues?

    Answer. Effective public diplomacy is a core element of diplomacy, 
and an exceedingly challenging one. As Special Envoy to Sudan, I saw 
firsthand how important it was to understand the many audiences with 
whom I was sharing my messages. I endeavored to reach out beyond 
government officials in all parts of Sudan to understand the 
perspectives of people from all segments of society and to engage in a 
substantive dialogue on their views about their country and about U.S. 
policy. In complex situations such as Sudan, effective public diplomacy 
builds confidence and trust that the policy and actions of the United 
States are based on an understanding and appreciation of the people and 
history of the host country. Such confidence and trust lays the 
foundation for effectively sharing our values and experiences in a way 
that furthers achievement of mutual interests. If confirmed, I expect 
to encounter that same diversity of background and perspectives in 
Kenya and plan to mobilize all sections of the embassy to support 
public diplomacy efforts.

    Question. Kenya is one of the original focus countries of the 
President's Emergency Plan for AIDS Relief (PEPFAR), and HIV/AIDS 
funding makes up the largest portion of U.S. assistance to Kenya. In 
your testimony to the committee, you discussed the importance of 
partnering with the Government of Kenya on these issues. What aspects 
of such cooperation have been most successful and where do you see room 
for improvements?

    Answer. The Kenya PEPFAR program, together with other USG health 
investments there, is one of the U.S. Government's largest health 
portfolios. The PEPFAR program in Kenya has been very successful since 
its inception in 2004 and, in many ways, serves as a model in terms of 
success in delivering services, efficient program implementation, and 
country ownership. In 2009, the Government of Kenya (GOK) and the U.S. 
Government signed the Partnership Framework. This 5-year joint 
strategic agenda was based on the GOK's National AIDS Strategic Plan, 
and is organized around its four core pillars: health sector HIV 
service delivery, mainstreaming of the HIV and AIDS response, 
community-based HIV programs, and governance and strategic information. 
In addition, the U.S. team in Kenya team has worked together with the 
GOK to reform the Country Coordinating Mechanism (CCM) of the Global 
Fund. The CCM in Kenya is now performing coordination and oversight of 
all donor funding in the health sector for improvements in bilateral 
cooperation--not just Global Fund. The committee is assuming 
accountability for overall health sector performance. This is a new 
model for Africa and promises to be a best practice.
    Our joint efforts have delivered strong results. For example, in FY 
2010, 410,300 individuals were receiving antiretroviral treatment 
thanks to PEPFAR support. In addition, 1,384,400 HIV-positive 
individuals received care and support (including TB/HIV) and 673,000 
orphans and vulnerable children (OVC) received support services. On the 
other hand, HIV incidence has remained stable from 2001 to 2009, 
showing that Kenya continues to face challenges in preventing new HIV 
infections. The Kenya PEPFAR program has also been a leader among 
PEPFAR-supported countries in streamlining service delivery and 
supporting development of Kenyan Government disease surveillance and 
monitoring capacity. As a Global Health Initiative (GHI) Plus country, 
the U.S. team in Kenya, together with the GOK, has developed a strategy 
that exemplifies a whole-of-government approach thereby increasing 
impact through strategic coordination and integration.
    Moving forward, if confirmed, I will work to strengthen national 
systems, including the health care workforce, and to build capacity and 
political will in Kenya for sustainable, long-term Kenyan-led 
responses. If confirmed, I expect to be personally engaged in the 
effort to promote these objectives.

    Question. In your work on Sudan, you sought to ensure that life-
saving assistance reached people in Darfur, to support the 
international peace process, and to help North and South navigate their 
way to a lasting and sustainable peace. While there have been setbacks, 
the January 9 referendum was a great achievement for the people of 
Sudan and a testament to U.S. engagement. If confirmed, how will your 
experience in Sudan guide your work in helping Kenya to address its 
challenges, including implementation of the constitution, and free, 
fair, and safe elections in 2012?

    Answer. There are some general principles that guided my work in 
Sudan which I believe will also help me effectively work with Kenya as 
it moves through this challenging and exciting time in its history. 
First, I believe that the United States needs to be actively engaged 
throughout the country, talking to all parties and helping to create an 
environment where they can forge home-grown solutions and lasting 
reconciliation. Second, these efforts in country need to be supported 
by sustained, high-level U.S. government attention and commitment to 
achieving those objectives. Third, we must work closely not only with 
Kenyans but with the international community, including multilateral 
organizations, regional states and other countries providing financial 
support to ensure a coordinated, coherent, and effective approach.
                                 ______
                                 

         Responses of Michelle Gavin to Questions Submitted by
                         Senator John F. Kerry

    Question. Previous reports by the Office of the Inspector General 
described a number of problems within the Africa Bureau, including 
understaffed, sometimes poorly led posts and particularly notable 
failures in public diplomacy. If confirmed as Ambassador, how would you 
seek to address these issues? How has your previous experience prepared 
you for such a post and shaped your views regarding managing an 
embassy?

    Answer. I have consulted extensively with the Africa Bureau and 
with the U.S. Embassy in Gaborone to understand the management 
challenges that I would face at Embassy Gaborone if confirmed as 
Ambassador. I have reviewed the 2009 Inspector General Report of the 
Africa Bureau that identified concerns over leadership and the need to 
engage proactively in broader public diplomacy. I have had discussions 
here in Washington about how to address these issues. If confirmed, I 
will ensure solid leadership and recognize that the success of Embassy 
Gaborone will be founded on a valued and productive mission team that 
incorporates a whole-of-government approach, which I will be honored to 
lead. I will ensure we have strong communication among our mission team 
and the Africa Bureau to deliver consistent messages and develop a 
vibrant public outreach strategy to share our U.S. policy goals. 
Embassy Gaborone is already working closely with government, the media, 
nongovernmental organizations and private citizens in Botswana to 
ensure that our close bilateral partnership continues and remains 
strong. I would continue ongoing Embassy efforts to reach out to key 
sectors of Batswana youth to expose them to U.S. culture, peers, and 
mentors; build close relationships with Botswana's media outlets and 
provide opportunities to the media for professional development and 
exposure to U.S. counterparts; ensure that rising stars in Botswana 
participate in academic and cultural exchanges to the United States; 
and I will strive to use social media tools to reach a broad segment of 
Batswana, especially youth, with information about U.S. policies and 
programs.
    In my position as Special Advisor to the President for African 
Affairs, I gained considerable experience facilitating cooperation and 
coordination between different U.S. Government agencies at the national 
level. If confirmed, I look forward to translating these skills into 
managing interagency relationships at the country level. In my position 
as legislative director for then-Senator Salazar, I had the privilege 
of mentoring a staff that was enthusiastic and dedicated but almost 
entirely new to Capitol Hill. I look forward to taking on the role as 
guide and mentor to the hardworking and dedicated staff at the Embassy 
in Gaborone, particularly the entry-level officers.

    Question. As you noted in your testimony to the committee, if 
confirmed you will serve as the United States representative to the 
Southern African Development Community (SADC). Given that regional 
integration and cooperation are essential to long-term stability, what 
are the benefits and challenges to Botswana stemming from its 
membership in SADC and the Southern African Customs Union (SACU)? How 
do you envision your role vis-a-vis SADC?

    Answer. Botswana has the privilege of hosting the SADC Secretariat 
in Gaborone. Botswana also benefits from its proximity to the regional 
economic hub of South Africa and from shared customs revenues from 
SACU. Nevertheless, Botswana has often been a lone voice in SADC on the 
peace and security front, particularly regarding Zimbabwe, and SADC 
itself has had difficulty emerging as an organization that is greater 
than the sum of its parts. With regards to SACU, Botswana may see 
reduced customs revenue as a result of a South African proposal to 
change the current revenue-sharing formula.
    If confirmed, I would work with Chiefs of Mission in other SADC 
countries on ways to help broaden the U.S.-SADC relationship so that 
Zimbabwe is only one of many issues we have to discuss. I hope to 
engage where appropriate to encourage greater regional integration that 
would promote U.S. trade as well as further economic diversification in 
Botswana. I also hope to encourage Botswana to continue their advocacy 
in the region on transparency and good governance in the mining sector 
and beyond.


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

David Bruce Shear, of New York, to be Ambassador to the 
        Socialist Republic of Vietnam
Kurt Walter Tong, of Maryland, for the rank of Ambassador 
        during his tenure as U.S. Senior Official for the Asia-
        Pacific Economic Cooperation (APEC) Forum
                              ----------                              

    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Office Building, Hon. Jim Webb, presiding.
    Present: Senator Webb.

              OPENING STATEMENT OF HON. JIM WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. This hearing will come to order.
    Today the subcommittee will consider the nominations of Mr. 
David Shear to be the U.S. Ambassador to the Socialist Republic 
of Vietnam and Mr. Kurt Tong to have the rank of Ambassador 
while serving as the U.S. Senior Official to the Asia-Pacific 
Economic Cooperation Forum (APEC).
    I would like to begin this hearing, as chair of the 
Subcommittee on East Asia, by expressing my condolences to the 
people of Japan and commending them for their courage and 
tenacity in facing the recovery from the terrible earthquake 
and tsunami that occurred nearly 1 month ago. Japan is a key 
security ally, a diplomatic partner and a great friend of the 
United States. And as these events have tragically illustrated, 
the nations of East Asia and Southeast Asia remain of critical 
importance to our economic, strategic and diplomatic interests.
    Following the earthquake and tsunami, the United States 
military and civilian agencies rapidly offered support to the 
Japanese Government to assist in the search and rescue of 
civilians. To date, the United States has delivered more than 
200 tons of food, 2 million gallons of water, 16,000 gallons of 
fuel, and 186,000 tons of other relief commodities. Also, teams 
from the Department of Energy and the Nuclear Regulatory 
Commission continue to actively monitor and support the 
Government of Japan, as needed, and to mitigate the situation 
at the Fukushima Nuclear Power Plant.
    Japan's economy and social system face enormous 
ramifications from this disaster, with the World Bank now 
estimating the cost of an economic recovery at more than $230 
billion. Our assistance and attention to this issue obviously 
will be for the long term, given the close relationship that we 
have with Japan and the role that Japan plays in the regional 
and global economy.
    It is vital that we remain engaged in this region, even as 
we balance diplomatic engagement in Asia with other global 
crises, particularly again in the Middle East. And for this 
reason, our relationship with Vietnam and our leadership in 
multilateral organizations such as APEC, will play a key role 
in promoting stability and prosperity in the region.
    I have had the good fortune to have observed and 
participated in United States/Vietnam relations now for more 
than 40 years. In the past 16 years, since the normalization of 
our relationship, I have seen dramatic improvements in the 
relationship, especially in the past 6 or 7 years. Our military 
effort in Vietnam, during that war, was characterized by 
strongly held and differing views, both here and there. Views 
that were sincerely held by well-meaning people across the 
spectrum. These divisions, the terrible cost of the war and its 
bitter aftermath, have made reconciliation between our two 
countries a long and complicated process. The process of 
reconciliation has been even more challenging for the 2 million 
overseas Vietnamese in the United States, many of whom suffered 
greatly under the victorious communist regime and have had to 
build new lives and chart a new course to reconnect with their 
homeland.
    In the years since normalization our governments have 
carefully, but demonstrably, come to communicate openly and 
positively. We have begun to cooperate on bilateral and 
regional challenges, including sovereignty disputes in the 
South China Sea and water security challenges along the Mekong 
River region.
    Last year, in large part due to Vietnam's successful 
chairmanship of the Association of Southeast Asian Nations, 
ASEAN, we saw increasing momentum in our relationship. At the 
ASEAN regional forum, in July of last year, Secretary Clinton 
announced a new American policy on sovereignty disputes in the 
South China Sea, arguing that the resolution of these disputes 
and freedom of navigation in the South China Sea are American 
national interests. This new policy offers American Government 
assistance to facilitate a multilateral resolution in these 
disputes. I will say for the record that I have not only 
supported these initiatives, but also suggested them, including 
while chairing a subcommittee hearing on maritime territorial 
disputes in July 2009.
    In addition to our regional cooperation, our trade 
relationship with Vietnam has grown, from $220 million in 1994 
to more than $18 billion 2010. The United States was the 
leading source of foreign direct investment in Vietnam in 2009 
and Vietnam is the second largest source of American clothing 
imports.
    Building off its 2007 entry into the World Trade 
Organization, Vietnam is moving to implement the structural 
reforms needed to modernize and open its economy. Moreover, 
Vietnam has joined the Trans-Pacific Partnership trade 
negotiations for an agreement, that if successfully 
implemented, will further open Vietnam's market and allow 
American trade with Vietnam to grow.
    With these developments there remain challenges to our 
relationship. The United States continues to encourage Vietnam 
to protect individual freedoms, including religious freedom, 
freedom of the press, expression and labor rights. In this 
process it is also important for both countries to make efforts 
to bridge the deep divisions affecting both American and 
Vietnamese societies, some of which still languish from the war 
and from the treatment of those who fought alongside Americans 
in that war. We must continue to push forward with an inclusive 
dialogue that allows for meaningful reconciliation among all 
sides.
    Just as our engagement with Southeast Asia has grown 
through ASEAN, our participation in APEC has illustrated the 
benefits of expanded American involvement in East Asia 
multilateral organizations. Our active participation in APEC 
supports our strategic and economic interests and it 
demonstrates that our commitment to this region's growth is 
permanent.
    Furthermore, this year the United States will serve as host 
for the annual APEC meetings, including the leaders' meeting in 
November. This role will allow us to continue the discussion 
initiated by Japan last year on regional economic integration, 
development and human security. Regional economic integration 
with likeminded trade partners, such as Japan and Korea, will 
be an important step forward in our long-term economic 
recovery, especially as Japan recovers from the recent 
earthquake and tsunami. This integration is best implemented in 
a way that maximizes the advantages of our respective economies 
and also protects our workers from unfair competition. And this 
principle is even more important when considering the growing 
interdependence of our economy with many of the economies of 
East Asia.
    The 21 member economies at APEC generate more than half of 
global trade. Five of our fifteen top trading partners are in 
East Asia and six of the top fifteen are members of APEC. This 
demonstrates that the United States is truly an Asia-Pacific 
nation and it is important to recognize that our economic and 
strategic future will be tied to this region. Therefore, I hope 
American participation in APEC can encourage an economic 
recovery for all members based on reduced barriers to trade, 
sustainable growth, and improved transparency. For our part, 
fulfilling commitments on free trade agreements, such as 
ratifying the United States-Korea free trade agreement and 
putting forward a comprehensive trade policy for the 21st 
century, can support these efforts.
    I look forward to the testimony of our nominees. I welcome 
both of them. And before we hear their remarks, I would like to 
briefly introduce them and then invite them to recognize those 
who have come with them today to support their nomination.
    And I would also state at this point that Senator Inhofe 
has an opening statement which will be included in the record 
at this point.
    [The prepared statement of Senator Inhofe follows:]

 Prepared Statement of Hon. James M. Inhofe, U.S. Senator From Oklahoma

    Thank you, Senator Webb, for chairing this full committee 
confirmation hearing today for Kurt Walter Tong and David Bruce Shear 
to be Ambassadors for the Asia-Pacific Economic Cooperation and the 
Socialist Republic of Vietnam, respectively.
    Mr. Tong is currently the Economic Coordinator for the Bureau of 
East Asian and Pacific Affairs, organizing bureauwide efforts on 
economic policy issues. He is also U.S. Senior Official for APEC (Asia 
Pacific Economic Cooperation), managing all aspects of U.S. 
participation in the organization. Mr. Tong has spent 17 years working 
and studying in East Asia, including service at the U.S. Embassies in 
Manila, Tokyo, Beijing, and Seoul. Most recently, he served as Director 
for Korean Affairs at the Department of State from 2008 to 2009. Prior 
to that, he was Director for Asian Economic Affairs at the National 
Security Council from 2006 to 2008. He was a Visiting Scholar at the 
Tokyo University Faculty of Economics from 1995 to 1996. Prior to 
joining the Foreign Service, Mr. Tong was an Associate with the Boston 
Consulting Group in Tokyo.
    I have met with Mr. Tong and am convinced that his long and 
distinguished diplomatic record has prepared him well to be the 
Ambassador to APEC.
    APEC is the premier economic organization in the Asia-Pacific 
region. It was founded in 1989 for the purpose of promoting trade and 
investment liberalization in the Asia-Pacific as a means of fostering 
sustainable economic growth and prosperity in the region. APEC is one 
of a few international fora in which both China and Taiwan are members. 
And has made trade facilitation a major priority, something that I 
strongly support.
    APEC has two distinct features among multilateral trade 
organizations. First, all the liberalization measures taken by its 
members are voluntary. Members announce their liberalization measures 
via ``Individual Action Plans.'' Second, these liberalization measures 
are generally extended to all economies--not just APEC members--under 
the concept of ``open regionalism.'' However, there have also been 
criticisms that the United States is not sufficiently emphasizing U.S. 
ties to Asia. In 2010, plans for a Presidential trip to Australia, 
Indonesia, and other countries were repeatedly postponed due to 
domestic events. In addition, while the United States was the first 
nation to announce it would appoint a full-time, resident ambassador to 
the Asian Association of Southeast Asian Nations (ASEAN), David Lee 
Cardin was not confirmed until March 3, 2011. The delay in appointing a 
U.S. Senior Official for APEC, especially when the United States is 
hosting the ongoing 2011 APEC meetings can be seen by some in Asia as 
another sign of insufficient prioritization of this important region.
    The U.S. is hosting APEC in 2011 for the first time since 1993. The 
United States has chosen for its theme, ``Creating a seamless economy 
in the Asia-Pacific region by strengthening regional integration and 
expanding trade, promoting a green economy, and better coordinating 
trade regulations.'' Mr. Tong commented on the significance of this 
before House Foreign Affairs Committee in 2009 by stating that, 
``Hosting APEC will be a tremendous opportunity for the United States 
to promote U.S. business and investment opportunities, which will 
benefit American workers, farmers, and businesses of all sizes. It will 
also be an important opportunity for the United States to define a new, 
21st century economic policy agenda for the Asia-Pacific region.'' I 
agree.
    I support the nomination of Mr. Tong, and I believe he will work 
with Congress, the business community, and his colleagues in the 
executive branch to utilize our hosting of APEC this year to the 
fullest as an opportunity to both restore confidence at home and 
promote new opportunities for our exporters overseas. If confirmed, 
Kurt Tong will work to advance U.S. interests through the Asia-Pacific 
Economic Cooperation (APEC) forum as we strive to create an economic 
system in the Asia-Pacific region that supports growth and job creation 
here at home.
    Mr. Shear is also a career Foreign Service officer--joining in 
1982--and is currently serving as Deputy Assistant Secretary for East 
Asian and Pacific Affairs. He has a distinguished overseas career 
serving in Sapporo, Beijing, Tokyo, and Kuala Lumpur. In Washington, he 
has served in the Offices of Japanese, Chinese, and Korean Affairs and 
as the Special Assistant to the Under Secretary for Political Affairs. 
He was Director of the Office of Chinese and Mongolian Affairs in 2008-
09. With this distinguished background, I believe that Mr. David Shear 
will serve honorably and effectively as our Ambassador to the Socialist 
Republic of Vietnam.
    Although U.S. relations with Vietnam have become increasingly 
cooperative in the years since political normalization, the freedom to 
practice religion and to express religious thought--an inalienable 
right to all individuals--is still not fully recognized in Vietnam. I 
feel that there is a dire need to focus on religious freedom in 
Vietnam, and should you be confirmed Mr. Shear, I charge you with 
taking up this dire need.
    In 2005, Vietnam passed comprehensive religious freedom 
legislation, outlawing forced renunciations and permitting the official 
recognition of new denominations. Since that time, the government has 
granted official national recognition or registration to a number of 
new religions and religious groups, including eight more Protestant 
denominations, and has registered hundreds of local congregations 
particularly in the central highlands. As a result, in November 2006, 
the Department of State lifted the designation of Vietnam as a 
``Country of Particular Concern,'' based on a determination that the 
country was no longer a serious violator of religious freedoms, as 
defined by the International Religious Freedom Act. This decision was 
reaffirmed by the Department of State in 2007, 2008, and 2009.
    Nevertheless, I strongly feel there is room for further progress. 
The government's slow pace of church registration, particularly in the 
northwest highlands, and harassment of certain religious leaders for 
their political activism (especially Father Ly Tong), including leaders 
of the unrecognized United Buddhist Church of Vietnam and Hoa Hao faith 
were an ongoing source of U.S. concern. Violence against the Plum 
Village Buddhist order at the Bat Nha Pagoda in Lam Dong and Catholic 
parishioners in Con Dau parish outside of Danang and outside of Hanoi 
at
Dong Chiem parish at the hands of the police and organized mobs is 
particularly troubling.
    Thus, there must remain focus on increasing the Vietnamese 
Government's respect for human rights and religious freedom. There 
remains a deep concern about the imprisonment of dissidents, 
restrictions on the media and the Internet, and the harassment of 
religious groups. Vietnam will not realize its full potential without 
greater respect for human rights, and its troubling record in this area 
could limit the growth of our relationship. I believe that if Mr. Shear 
is confirmed, and I will support his nomination, he will make human 
rights and religious freedom a central part of his conversations with 
Vietnam's communist leaders.
    Thank you again, Senator Webb, for chairing this full committee 
nomination hearing for ambassadorial posts in the East Asian and 
Pacific Affairs region.

    Senator Webb. First I would like to welcome David Shear, 
the nominee to be the Ambassador to Vietnam. He currently 
serves as the Deputy Assistant Secretary for East Asian and 
Pacific Affairs at the State Department. Previously he was 
Director of the Office of Chinese and Mongolian Affairs. His 
overseas assignments include Sapporo, Beijing, Tokyo, and Kuala 
Lumpur and he has served several assignments here in 
Washington.
    Deputy Assistant Secretary Shear speaks Chinese, Japanese, 
and is practicing Vietnamese. He just tried some on me when I 
said hello. And has a first degree rank in Kendo Japanese 
fencing.
    Kurt Tong, who is the nominee for the rank of Ambassador 
while serving as the U.S. senior official to the APEC Forum, is 
with us also. Prior to this assignment, Mr. Tong was the 
Director for Korean Affairs in the Bureau of East Asia and 
Pacific Affairs. He led the White House National Security 
Council's Asian Economic Affairs Bureau from 2006 to 2008. In 
his 17 years of work and study in Asia, Mr. Tong has completed 
assignments in Manila, Tokyo, Beijing and Seoul and was a 
visiting scholar at the Tokyo University Faculty of Economics. 
He speaks Japanese, Mandarin Chinese, Korean and Tagalog.
    And again, I welcome both of you here today. I will look 
forward to your testimony.
    And Mr. Shear, why don't you begin and please feel free to 
recognize anyone who has come to support you in the hearing 
today.

 STATEMENT OF DAVID BRUCE SHEAR, NEW YORK, TO BE AMBASSADOR TO 
               THE SOCIALIST REPUBLIC OF VIETNAM

    Mr. Shear. Thank you, Mr. Chairman. Before I introduce my 
family members I would like to make sure that everybody 
understands that a first degree rank in Kendo is the lowest 
rank----
    [Laughter.]
    Mr. Shear [continuing]. Not the highest rank. It took a few 
years to get to----
    Senator Webb. You still swing a bad stick, I am sure.
    Mr. Shear. Sir, I have a large family cheering section here 
and I will--I would like to introduce my wife, Barbara, and my 
daughter, Jennifer, and my sister, Laurel. And I have a whole 
crowd of nieces and nephews here today, too, as well as our 
family friend, Dr. Barry Manning.
    Senator Webb. Well, we welcome all of you to the hearing 
today.
    Mr. Shear. Thank you, Mr. Chairman.
    I am honored to appear before you as the President's 
nominee to serve as Ambassador to the Socialist Republic of 
Vietnam. I am deeply grateful for the confidence that President 
Obama and Secretary Clinton have shown in me. And if confirmed, 
I look forward to working closely with Congress to advance U.S. 
interests in Vietnam.
    Thirty-five years ago our two countries ended a war that 
left an indelible mark on both of our peoples. For Americans of 
my generation, the experience of that war represents an 
important juncture in our history. Yet today, just 16 years 
after restoring diplomatic relations, we are already seeing the 
benefits of the commitment, on both sides, to move beyond our 
difficult past and forge a constructive relationship.
    As Secretary Clinton said in Hanoi last year, our two 
countries have reached a level of cooperation that would have 
been unimaginable just a few years ago. That is why, in her 
conversations with Vietnam's senior leaders in Hanoi last year, 
she proposed that we consider establishing a strategic 
partnership with Vietnam. This is the logical next step for a 
relationship that has moved toward increased cooperation and 
dialogue.
    The range of senior level engagement last year was quite 
extraordinary. If confirmed, I will continue to deepen our 
engagement in areas such as regional security, 
nonproliferation, law enforcement, health and climate change.
    I am also committed to increasing educational and other 
people-to-people exchanges. These people-to-people connections 
enrich us and strengthen the bonds between our two societies.
    Trade, of course, will remain a lynchpin of our 
relationship. Our two-way trade continues to grow, from $15.7 
billion in 2009 to $18.5 billion last year. If confirmed, I 
will do everything I can to increase U.S. exports to Vietnam 
through the President's National Export Initiative. I also look 
forward to continued negotiations what the Vietnamese to 
advance the Trans-Pacific Partnership.
    Improved military-to-military ties will also contribute to 
stronger bilateral relations. Currently we already cooperate in 
such areas as maritime security, search and rescue, 
humanitarian assistance and disaster relief and peacekeeping 
operations. We have also established a successful record of 
ship visits including an historic port call to Da Nang by the 
USS John S. McCain last year.
    As we develop a strategy partnership with Vietnam, we must 
remain focused on increasing the Vietnamese Government's 
respect for human rights and religious freedom. We remain 
concerned about the imprisonment of dissidents, restrictions on 
the media and the Internet and the harassment of religious 
groups. Vietnam will not realize its full potential without 
greater respect for human rights, and its troubling record in 
this area could limit the growth of our relationship. If 
confirmed, I will make human rights and religious freedom a 
central part of my conversations with Vietnam's leaders and 
with the Vietnamese people.
    Mr. Chairman, while major strides have been made in our 
relationship, 16 years is still too short to have completely 
overcome the painful legacy of our past. If confirmed, I will 
continue to strengthen our cooperation with Vietnam on the 
solemn task of accounting for Americans missing from the war. I 
will work hard to maintain our assistance with efforts to 
remove unexploded ordnance. And by January 2012 I expect that 
we will have broken ground on a major effort to remediate 
dioxin residue from the soil at Da Nang Airport, one of several 
hotspots where the defoliant, Agent Orange, was stored during 
the war. We also continue to provide assistance to Vietnam's 
disabled citizens, without regard to cause.
    Sir, I have spent my career in the Asia-Pacific region and 
I am personally committed to using all of the knowledge and 
skills I have gained over the past 29 years to pursue the 
American peoples' interests in Vietnam. If confirmed, I will do 
my utmost to ensure that our relationship with Vietnam is among 
the strongest in the East Asia region.
    There is much work to be done and I look forward to earning 
your confidence. Thank you for your consideration of my 
nomination and I welcome your questions.
    [The prepared statement of Mr. Shear follows:]

                Prepared Statement of David Bruce Shear

    Mr. Chairman and members of the committee, I am honored to appear 
before you as the President's nominee to serve as Ambassador to the 
Socialist Republic of Vietnam. I am deeply grateful for the confidence 
that President Obama and Secretary Clinton have shown in me and, if 
confirmed, I look forward to working closely with Congress to advance 
U.S. interests in Vietnam.
    Thirty-five years ago our two countries ended a war that left an 
indelible mark on both of our peoples. For Americans of my generation, 
the experience of that war represents an important juncture in our 
history. Yet today, just 15 years after restoring diplomatic relations, 
we are already seeing the benefits of a commitment on both sides to 
move beyond our difficult past and forge a constructive relationship.
    As Secretary Clinton said in Hanoi last year, our two countries 
have reached a level of cooperation that would have been unimaginable 
just a few years ago. That is why in her conversations with Vietnam's 
senior leaders in Hanoi last July, and again in October, she proposed 
that we consider establishing a strategic partnership with Vietnam. 
This is the logical next step for a relationship that has moved 
consistently toward increased cooperation and dialogue.
    The range of U.S. senior-level engagement last year was 
extraordinary. If confirmed, I will continue to deepen our engagement 
in areas such as regional security, nonproliferation, law enforcement, 
health, climate change, and science and technology. I am also committed 
to increasing educational and other people-to-people exchanges. These 
connections enrich us and strengthen the bonds between our two 
societies.
    Trade will remain a linchpin of our relationship with Vietnam. Our 
two-way trade continues to grow--from $15.7 billion in 2009 to $18.5 
billion last year. If confirmed, I will do everything I can to increase 
U.S. exports to Vietnam through the President's National Export 
Initiative; in addition to continuing negotiations with the Vietnamese 
to advance the Trans-Pacific Partnership.
    Improved military-to-military ties will also contribute to stronger 
bilateral relations. Currently, there is already cooperation on 
maritime security, search and rescue, humanitarian assistance and 
disaster relief, peacekeeping operations, defense academy exchanges, 
and military medicine. There is also a successful record of ship 
visits, including a historic port call to Danang by the USS John S. 
McCain last year.
    Additionally, I hope that we will continue to provide funding to 
strengthen Vietnam's health systems and to help the country build the 
capacity it needs to address the scourge of HIV/AIDS and emerging 
pandemic threats.
    As we develop a strategic partnership with Vietnam, we must remain 
focused on increasing the Vietnamese Government's respect for human 
rights and religious freedom. There remains a deep concern about the 
imprisonment of dissidents, restrictions on the media and the Internet, 
and the harassment of religious groups. Vietnam will not realize its 
full potential without greater respect for human rights, and its 
troubling record in this area could limit the growth of our 
relationship. If confirmed, I will make human rights and religious 
freedom a central part of my conversations with Vietnam's leaders and 
with the Vietnamese people.
    While major strides have been made in our relationship, 15 years is 
still too short to have completely overcome the painful legacy of our 
past. If confirmed, I will continue to strengthen our cooperation with 
Vietnam on the solemn task of accounting for Americans missing from the 
war. I will work hard to maintain our assistance with demining and 
efforts to remove unexploded ordnance. By January 2012, we will have 
broken ground on a major effort to remediate dioxin residue from the 
soil at Danang Airport, one of several ``hotspots'' where the defoliant 
Agent Orange was stored during the war. We also continue to provide 
assistance for Vietnam's disabled citizens, without regard to cause.
    I have spent my career in the Asia-Pacific region, and I am 
personally committed to using all of the knowledge and skills I have 
gained over the past 29 years to pursue the American people's interests 
in Vietnam. If confirmed, I will do my utmost to ensure that our 
relationship with Vietnam is among the most successful in the East 
Asian region. There is much work to be done, and I look forward to 
earning your confidence.
    Thank you for your consideration of my nomination. I welcome your 
questions.

    Senator Webb. Thank you very much.
    Mr. Tong, welcome and if there are people you would like to 
introduce, please feel free to do so.

   STATEMENT OF KURT WALTER TONG, MARYLAND, FOR THE RANK OF 
 AMBASSADOR DURING HIS TENURE AS U.S. SENIOR OFFICIAL FOR THE 
         ASIA-PACIFIC ECONOMIC COOPERATION (APEC) FORUM

    Mr. Tong. Yes. Thank you, Mr. Chairman.
    I would like to introduce my wonderful wife, Mika, and 
daughter, Reia. I have another daughter, Mia, and a son, Kyle. 
They were not able to make it today. They are equally wonderful 
children as well.
    Senator Webb. Let the record show, you love all your 
children equally. [Laughter.]
    Welcome to those of you who are here. And I know it's a 
great day for you.
    Mr. Tong. Thank you. Thank you very much.
    I've also submitted a written record--written statement for 
the record.
    Senator Webb. Yes. Both of your full statements will be 
entered into the record of this hearing.
    Mr. Tong. So thank you, Mr. Chairman.
    I am truly honored to appear before you today to seek 
Senate confirmation as the U.S. Senior Official for APEC with 
the rank of Ambassador. Mr. Chairman, if confirmed, I look 
forward to working very closely with you and with other Members 
of Congress to leverage the considerable potential of APEC to 
build an economic system in the Asia-Pacific region that 
supports growth and job creation here at home.
    As you know, APEC is the premier economic organization in 
the Asia-Pacific region and a key venue for engaging the most 
economically dynamic region of the world. APEC's 21 members, 
stretching from Chile to China, account for more than half of 
the global economy. They purchase 58 percent of our goods 
exports and comprise a market of $2.7 billion consumers. 
Through APEC the United States aims to tackle a wide range of 
issues critical to long-term prosperity around the Pacific rim.
    Most important, the United States uses APEC to open markets 
in the Asia-Pacific region, and to connect those markets to 
American exporters. Our focus includes eliminating barriers to 
trade and investment and creating better environments for our 
citizens to do business overseas. APEC initiatives lay the 
foundation for high standard, comprehensive trade agreements 
such as the Trans-Pacific Partnership now being negotiated, 
that can help deepen America's economic ties to the region and 
build a more level economic playing field for Americans to 
compete successfully.
    At the same time, the United States and the other APEC 
members recognize that rapid growth is not the sole objective. 
We must also achieve high quality growth to provide widespread 
benefits to society. APEC has undertaken useful initiatives to 
help promote growth that is balanced between and within 
economies, includes all segments of society, and is sustainable 
in the environmental sense.
    In 2011, as you noted, the United States is hosting APEC 
for the first time since 1993. This is a tremendous opportunity 
for the United States to exhibit leadership by forging a 21st 
century economic agenda for the Asia-Pacific and by building an 
enduring economic architecture for the region that is open, 
free, transparent and fair.
    Mr. Chairman, much is at stake. As President Obama has 
stated, if we can increase our exports to APEC countries by 
just 5 percent we can increase the number of U.S. jobs by 
hundreds of thousands. In 2010, a recovery year, U.S. exports 
to APEC actually expanded by 25 percent. American products, 
innovation and know-how are competitive and in high demand in 
Asia.
    APEC 2011 is a critical chance to showcase our strengths. 
If confirmed as U.S. Senior Official for APEC with the rank of 
Ambassador, I pledge to work tirelessly with Congress, the 
business community and my colleagues in the executive branch to 
leverage APEC to both restore confidence at home and to promote 
new opportunities for our exporters overseas. If confirmed, I 
pledge to put all of my experience and energy to work to 
advance our overall economic interests in the Asia-Pacific 
region.
    During my 21 years as a career Foreign Service officer, as 
you noted, I have handled trade, finance, and development 
issues at our Embassies in Manila, Tokyo, Beijing, and Seoul 
and have also served at the Department of State and in the 
National Security Council.
    Mr. Chairman, it would be a great privilege to serve my 
country as the U.S. Senior Official for APEC with a rank of 
Ambassador. The Asia-Pacific regions represents the future of 
the global economy, but the exact contours of that future have 
yet to be fully defined. APEC plays a key role in shaping the 
region and I stand ready to help seize this opportunity to 
promote growth and job-creating opportunities in the Asia-
Pacific for American businesses and citizens.
    And finally before closing, Mr. Chairman, I would like to 
take note of the condolences which you offered to Japan and 
share those condolences and also pledge that we will look for 
ways to utilize our hosting of APEC in 2011 to consider ways 
that that organization can be of assistance, both to Japan and 
to future sufferers of similar tragedies.
    Thank you for considering my nomination and I look forward 
to your questions.
    [The prepared statement of Mr. Tong follows:]

                 Prepared Statement of Kurt Walter Tong

    Mr. Chairman, and members of the committee, I am honored to appear 
before you today as the President's nominee to serve as the U.S. Senior 
Official for APEC with the rank of Ambassador. I appreciate the 
confidence that President Obama and Secretary Clinton have shown in me 
and, if confirmed, I look forward to working with you to advance U.S. 
interests through the Asia-Pacific Economic Cooperation (APEC) forum as 
we strive to create an economic system in the Asia-Pacific region that 
supports growth and job creation here at home.
    APEC is the premier economic organization in the Asia-Pacific 
region and a key venue for engaging the most economically dynamic 
region of the world. APEC's 21 members, stretching from Chile to China, 
account for more than half of the global economy. They purchase 58 
percent of our goods exports, and comprise a market of $2.7 billion 
potential consumers.
    Through APEC, the United States works to tackle a wide range of 
issues critical- to long-term prosperity around the Pacific Rim.
    For example, the United States works within APEC to open markets in 
the Asia-Pacific region and connect them to American exporters. Their 
focus includes eliminating barriers to trade and investment and 
creating better environments for our citizens to do business overseas. 
APEC initiatives also lay the foundation for high-standard, 
comprehensive trade agreements--including the Trans-Pacific 
Partnership--that can deepen America's economic ties to the region and 
build a more level economic playing field that will help Americans to 
compete successfully.
    At the same time, the United States and the other APEC members 
recognize that attaining high rates of growth is not enough to ensure 
meaningful prosperity. We must also achieve high quality growth that 
provides widespread benefits to society. This is why efforts have been 
made to work within APEC to promote growth that is balanced between and 
within economies, sustainable environmentally, fosters innovation, and 
empowers all citizens with the skills and opportunities to prosper in 
the global economy.
    In 2011, the United States is hosting APEC for the first time since 
1993. In early March, we successfully held the first APEC Senior 
Officials Meeting of the year here in Washington. Hosting APEC this 
year presents a tremendous opportunity for the United States to exhibit 
leadership by forging a 21st century economic agenda for the Asia-
Pacific, and by building an enduring economic architecture for the 
region that is open, free, transparent, and fair.
    Much is at stake. As President Obama has stated, ``if we can 
increase our exports to APEC countries by just 5 percent, we can 
increase the number of U.S. jobs supported by exports by hundreds of 
thousands.'' American products, innovation, and know-how are 
competitive and in high demand in Asia. APEC 2011 is a critical chance 
to showcase our strengths. If confirmed, I will work with Congress, the 
business community, and my colleagues in the executive branch to 
utilize our hosting of APEC this year to the fullest as an opportunity 
to both restore confidence at home and promote new opportunities for 
our exporters overseas.
    If confirmed, I will put my experience and energy to work to 
advance our overall economic interests in the Asia-Pacific region. 
During my 21 years as a career Foreign Service officer, I have handled 
trade, finance, and development issues at our Embassies in Manila, 
Tokyo, Beijing, and Seoul. I have also served as Director for Korean 
Affairs at the State Department and Director for Asian Economic Affairs 
at the National Security Council.
    Mr. Chairman, it would be a great privilege to serve my country as 
the U.S. Senior Official for APEC with the rank of Ambassador. The 
Asia-Pacific region represents the future of the global economy, but 
the exact contours of that future have yet to be fully defined. APEC 
plays a key role in shaping the region, and I am ready to help the 
United States work through the organization to promote growth and job-
creating opportunities in the Asia-Pacific for American businesses and 
citizens.
    Thank you for considering my nomination. I look forward to your 
questions.

    Senator Webb. Thank you very much and again both of your 
full statements will be entered into the record.
    And what I would like to do, and I will have some specific 
questions obviously, but there are a couple of areas that I may 
ask both of you to comment on that I think overlap in where 
your interests are and your future responsibilities will be.
    First, Mr. Shear, you have had a distinguished career in 
Asia, but this will be your first posting to Vietnam. Would you 
like to tell us how you prepared for this position?
    Mr. Shear. Well, Mr. Chairman I started to prepare by 
taking Vietnamese language training. And I have got about a 
month under my belt and I've got 4 months to go.
    Senator Webb. [Speaking in Vietnamese] [Laughter.]
    OK. You don't need to try on that.
    Mr. Shear. Thank you very much for that lesson. I started 
by studying Vietnamese with my wife. She will be working with 
me in Hanoi and we both hope to interact very intensively not 
only with the Vietnamese Government but with the Vietnamese 
people. And I hope that what little Vietnamese language I can 
cram in before that time helps me do that.
    Second, I have done a fair amount of reading, both on 
attitudes toward our history as well as on the international 
relations of Vietnam and the region since learning of my 
nomination.
    And third, I think my experience in the region, both in 
Northeast Asia and Southeast Asia as well as with China, will 
suit me well for conducting the kind of intensive diplomacy we 
need to conduct both with Vietnam and in the region to continue 
pursuing our interests there.
    Senator Webb. To what extent have you reached out to the 
Vietnamese community here in the United States?
    Mr. Shear. Sir, I have not yet begun to reach out to the 
Vietnamese community, because I have not been confirmed. But as 
soon as I am confirmed I hope to start doing that. I will----
    Senator Webb. Well, I hope you will.
    Mr. Shear [continuing]. The Vietnamese community in the 
United States it plays an important role in this relationship. 
Their support for us during the war was important during that 
time and I recognize that importance. And it is my intention to 
stay very closely connected with the Vietnamese American 
community here.
    Senator Webb. I don't even think you need to be confirmed, 
quite frankly, to do that. But I hope you will take that 
opportunity before you post.
    As you know, this is probably one of the most complex 
relationships in American foreign policy because, I like to 
say, there are four different components that have had to come 
together in the aftermath of the war: those who fought the war 
here and those who opposed it; and those who were with us over 
there and those who opposed us. I have spent a great deal of my 
adult life, as you know, trying to build bridges so that we 
could move it forward. And the biggest hurdle, really, is the 
people who were with us, inside Vietnam, who remain inside 
Vietnam and also the involvement of the Vietnamese community 
here, in terms of the policies that we implement.
    In that respect, the issue inside Vietnam, when it comes to 
human rights, is supplemented by the issue of how people who 
were with us and their families are able to be embraced inside 
Vietnam itself.
    Would you comment on that?
    Mr. Shear. Well, I think that first of all, with regard to 
the Vietnamese community here and the four elements you 
mentioned, I agree with you completely. And I would like to 
stay in touch with you as I stay in touch with the Vietnamese 
community as well here, both before I leave for Hanoi and after 
I have gotten out there.
    Certainly continued contacts between the Vietnamese 
diaspora and their home country will be important, I think, for 
the develop--social--both the social and the economic 
development of Vietnam and I look forward to encouraging those 
contacts as--if confirmed as Ambassador.
    Senator Webb. Another question with respect to religious 
and other freedoms inside Vietnam today. I would say, first of 
all, we would be remiss if we did not recognize that there has 
been dramatic improvement in this area over the years. The 
first time I returned to Vietnam after the war was almost 20 
years ago today. I was in Hanoi on Easter. I went to Easter 
Mass at the Cathedral in Hanoi and there were maybe 10 people 
in there and they were older people. I went to Christmas Mass 
in 2008 in that same chapel and there were probably 2,000 
people in there. So credit needs to be given where it is 
deserved.
    And, at the same time there are issues that have come up 
over the past several months with respect to religious freedom 
and others areas and I wonder if you have any comment on that.
    Mr. Shear. Mr. Chairman, we agree with you that there have 
been improvements in religious freedom in Vietnam and the 
government's treatment of this issue. And that is why we 
removed Vietnam from the countries of concern list in 2006.
    This does not mean that we no longer have concerns about 
religious freedom in Vietnam, in fact we watch the issue very 
closely. We recognize that there continue to be improvements in 
religious practice in Vietnam, more religious organizations are 
being registered by the government and thereby made legal, more 
kinds of religious gatherings are being allowed to take place, 
more priests are being ordained. And with regard to 
Catholicism, the relationship between Hanoi and the Vatican has 
improved considerably over the past year or so.
    So we recognize that improvements have taken place, while 
at the same time, watching for setbacks very closely. And we 
are particularly concerned about the treatment of religious 
practices by the government in the Central Highlands, among the 
Montagnards, for example. This remains an issue in which 
frictions continue to be generated. We are also watching land 
disputes involving several church groups, particularly in 
Northern Vietnam. So while we recognize that improvements have 
taken place, we also believe that much more can be done and I 
hope to work with the Vietnamese Government and people to 
improve the basis for religious freedom.
    Senator Webb. Thank you. This week a Vietnamese legal 
scholar, Co Huy Ha Vu, who is a member of a prominent Communist 
family that was revolutionary antecedents--was convicted of 
propaganda against the State, sentenced to 7 years in prison, 
and 3 years house arrest. Are you familiar with this case?
    Mr. Shear. I am, sir.
    Senator Webb. What is the administration's position?
    Mr. Shear. The State Department issued a public statement 
the day after we heard that Dr. Vu had been sentenced. We 
stated in that release that we were deeply concerned by the 
sentencing and we called for the release of Dr. Vu.
    We've also noticed that two human--other activists, Pham 
Hong Sun and Le Quoc Quan had been detained since the 
sentencing of Dr. Vu and we are watching that situation very 
closely as well.
    Senator Webb. I personally have had strong concerns over 
many years about territorial claims in the South China Sea by 
the Chinese. Their activities have increased over the past 
several years, and particularly over the last year. And, part 
of these relate to claims by the Vietnamese Government that are 
in dispute. When Secretary Clinton was in Vietnam last year she 
raised these issues and announced that the administration was 
interested in pursuing a strategic partnership with Vietnam 
with respect to those issues. Would you have a comment on what 
that partnership would entail?
    Mr. Shear. The strategic partnership has yet to defined. 
And I expect that one of my main tasks as Ambassador, if I am 
confirmed, will be to define and implement that strategic 
partnership.
    I think it will basically consist of four parts:
    First, we hope to intensify and deepen our exchanges at the 
senior-most levels of government. Last year marked a good start 
to that with two visits, for example, by Secretary Clinton to 
Hanoi in July and October. We hope to continue that trend.
    A second aspect of a strategic partnership would be 
enhanced diplomatic cooperation with Vietnam in regional 
diplomacy. And again, we've already seen a good example of how 
that might work in the way in which we coordinated with the 
Vietnamese in the runup to the ASEAN regional forum last July. 
We think that the Secretary's statement on the South China Sea 
was very effective and since she made that statement the 
Chinese and the ASEAN claimants to the South China Sea have 
conducted, I believe, two or three meetings at the working 
level to discuss how to move forward, now to manage their 
conflicting claims and perhaps how to conclude a code of 
conduct for claimants in the South China Sea. So we consider 
the Secretary's intervention on this subject at the ARF last 
July to have been successful.
    A third area in which we will pursue a strategic 
partnership will be in improving military-to-military ties. As 
I mentioned in my statement, we are already implementing a 
fairly broad range of activities at the military-to-military 
level. We hope to further broaden those activities and deepen 
them as well.
    And fourth, the economic relationship, of course, will be 
key. The good news about the economic relationship is that we 
did almost $4 billion in export business with Vietnam last 
year. The bad news we have an $11 billion trade deficit and I 
hope that that trade deficit will narrow during my tenure, if I 
am confirmed. And I will do whatever I can to increase American 
exports and help create more American jobs back here.
    So those, I think, are four essential components to a 
strategic partnership. Of course, as we move forward in those 
areas we would also like to see progress on the human rights 
piece as well.
    Senator Webb. Thank you. There is another issue with 
respect to sovereignty, if not directly then certainly 
indirectly, and that relates to Mekong River and other riparian 
water areas. And actually, I would like to get an answer or an 
observation from both of you.
    I will start with you, Mr. Tong, on this. I have been among 
those here who are very concerned about what is happening in 
the Mekong River Delta. Also, in terms of Vietnam, if you have 
been following what has been happening with the Red River in 
North Vietnam, and north of Hanoi with the impact of 
hydroelectric damming of these waterways and other 
environmental concerns, but particularly the impact of the 
hydroelectric dams and the plans to do more of them. China, and 
in particular Laos, which has recently indicated it wants to 
become the battery of Asia with hydroelectric dams on the 
Mekong River.
    My understanding is China is one of the few countries in 
the world that does not recognize downstream water rights of 
other countries, that is riparian water rights. And Laos 
apparently is intent on moving forward with some of these 
larger dam projects without respect to what is happening 
downstream. I was in the Mekong River area in Vietnam last 
July, where I was briefed about what is happening with the 
increased salinity moving up as the water levels have gone 
down. Some people say this is simply climate change or 
industrial pollution. Certainly there may be elements of that, 
but I would say that the real challenge in the region is for a 
multilateral approach toward trying to resolve these issues. 
There is not one country in the region that has the diplomatic 
power in and of itself to stand up and start talking with the 
Chinese about the impact of what is going on.
    I introduced, or developed, a piece of legislation that 
would require environmental standards to be met before moneys 
from organizations like the ADB would go into the construction 
of these dam projects.
    Mr. Tong, because APEC strongly supports sustainable, green 
growth model, and you mentioned in your own testimony about the 
environmental considerations that were on the table with APEC, 
is this a matter that could be raised in an energetic way in an 
APEC environment?
    Mr. Tong. Thank you, Mr. Chairman, for an opportunity to 
comment on this problem that is very important to the Lower 
Mekong Region, and as you noted, the Red River, which runs from 
China into Vietnam.
    Exactly as you pointed out, although advocates of 
hydroelectric dams point to the benefits from electricity as 
well as flood control, these dams can have a major and negative 
impact on downstream residents, in terms of issues like 
salinity, as you pointed out, and also fisheries. There is a 
natural rhythm to the flood cycle that replenishes the soil for 
agriculture. And so these are very legitimate concerns that 
residents downstream have regarding the resources that come 
from upstream.
    APEC, I think, would be a good venue to raise this question 
and consider it, and if confirmed I will certainly look into 
doing so. I would also like to point out the Lower Mekong 
Initiative that the State Department has initiated to work with 
the countries of the Lower Mekong on development issues and try 
to foster a sense of shared mission with regard to that river 
basin. It seems to be having a useful impact on that dialogue 
and hopefully using that we can then work with China to foster 
a greater dialogue in that region. Certainly it is the view of 
the United States that that kind of upstream/downstream 
communication needs to be enhanced and improved.
    Senator Webb. Thank you.
    Mr. Shear, any comment on that?
    Mr. Shear. Senator, you are absolutely right about the 
strategic importance of these rivers and many of these rivers 
that rise in China, including the Red River and the Mekong 
River. A variety of rivers that flow through Southeast Asia and 
South Asia all rise in China. All of the downstream countries 
have expressed concern about possible Chinese damming on the 
upstream portions of these rivers and while the Chinese have 
disclosed--recently started disclosing more information, for 
example, about conditions of river flow on the Mekong to Lower 
Mekong countries, certainly we believe that more Chinese 
transparency in this regard is called for. And we would like to 
see the Chinese interact more intensively with those Mekong 
River Commission, for example, as the Mekong River Commission 
considers future mainstream dams on the Lower Mekong.
    The Lower Mekong Initiative is a primary way in which we 
have been interacting with the countries of the Lower Mekong, 
including Laos, Thailand, Cambodia, and Vietnam. The Vietnamese 
are particularly concerned about the proposed construction of a 
dam in Xayaburi in Laos, south of Luang Prabang. The Mekong 
River Commission I expect will meet to determine whether or not 
to move forward on this dam project later this month.
    For our part, Secretary Clinton announced at the Mekong 
River summit in October in Hanoi, that we supported a pause in 
dam construction that would allow Mekong River countries to 
better assess the environmental and economic impacts that 
damming the Lower Mekong will have. We are very sympathetic in 
this regard to Vietnamese concerns, and we will be watching, 
very closely, in the run up to the next Mekong River Commission 
meeting how this decision plays out.
    Senator Webb. Thank you.
    I visited the Mekong River Commission headquarters in Laos 
nearly 2 years ago. First of all, I would point out that the 
Vietnamese representatives there were very bright and focused 
on this and quite impressive.
    But what I did not hear there, and what I wasn't hearing 
last year when I was visiting the Mekong areas and having 
discussions inside Vietnam, was anybody taking a deep breath 
and saying this is going to have to be a riparian water rights 
issue. This is, indirectly, a sovereignty issue. Water, that is 
the availability of water in that region, can become a national 
security issue too if one country or another decides they can 
shut water off. Seventy million people are in that Lower Mekong 
area, the Red River, from what I am reading, is at the lowest 
level it has been in decades, at least decades and only through 
a rational, but multinational approach, are we going to be able 
to get our arms around this.
    Mr. Tong, I would like your thoughts on the situation in 
Japan in terms of the devastation and the clear slowdown 
impacting other countries as a result. There was a figure that 
I saw the other day of about 40 percent slowdown in terms of 
automobile manufacturing or portions of the automobile industry 
that will trickle out in terms of the impact on other 
countries.
    What are your thoughts about that, and is there any role 
that APEC could play in assisting this recovery?
    Mr. Tong. Thank you, Mr. Chairman.
    I think that the impact of this natural disaster on the 
Japanese economy and how that impacts other economies plays out 
in several ways. One is through financial markets, and 
fortunately to date we have not seen that much impact through 
that channel. One is through trade: Japan's role both as a 
buyer of goods from other nations and an exporter in gross 
terms of its products. And again, in that area there has been, 
thus far, limited impact.
    This was an enormous natural disaster affecting hundreds of 
thousands of people, however the Japanese economy is very large 
and very resilient and has a strong capacity to, in a 
macroeconomic sense--in the broadest sense of that term--bounce 
back very quickly.
    The issue of most concern perhaps at this point is with 
regard to specific products where particular Japanese factories 
produce important inputs into other processes around the world, 
including the United States. And the various elements of the 
U.S. Government, not necessarily the State Department, but a 
number of them have been watching this and with an eye toward 
seeing if there are issues of concern. I would say at this 
point that the jury is still out on that question. It may be 
that there will be, but it may be that these will be only 
short-term concerns. And so I think we need to keep an eye on 
it.
    The March 11 tragedy happened the day before the last 
Senior Officials' Meeting here in Washington. And the Senior 
Officials took some special time to consider what we can do as 
an organization, as a collection of economies, to address this 
kind of situation. Two things happened, really. There was a 
renewed sense of shared mission which is useful and important, 
and then some discussion about whether, through the APEC 
Emergency Preparedness Working Group, we can implement some 
projects that help private sector businesses, in particular 
small or medium enterprises, prepare for these kind of 
disasters so that they can recover more quickly in a financial 
sense or in a production sense.
    And we hope to, and if confirmed, I hope to continue this 
work and accelerate it. And I believe we have the support of 
the other APEC economies in this regard as well. We did ask 
that one project which had not received APEC funding, be 
renewed, and Senior Officials agreed to do that on an 
accelerated basis as a result of the events in Japan.
    Senator Webb. Thank you.
    I'm interested in your thoughts with respect to the Trans-
Pacific Partnership as a concept and how it is evolving and 
whether and how developed economies can also proceed in this 
arrangement with developing economies given the standards and 
those sorts of things. What do you think about that?
    Mr. Tong. Thank you, sir. The Trans-Pacific Partnership 
really is an enormously important initiative for the United 
States in several respects. And I would refer you to the speech 
that Secretary Clinton gave on this matter on March 9. This 
agreement, if we are able to conclude it, has some very unique 
characteristics which would set up the region very well for a 
much faster pace of economic integration going forward. And you 
have pointed to one very important aspect of that, which is the 
fact that TPP includes both developed and developing countries.
    So if we can, through that negotiation, come up with ways 
that developing countries find it within their means and their 
interests to sign up to some very tough disciplines as 
envisioned for this agreement, and see that the kind of rapid 
economic change that this sort of agreement will foster is in 
their interest, then we will have made some good progress 
toward really bringing a very diverse economic region together 
under this idea of a platform for economic activity which is 
free and open and transparent and fair.
    You know, with my colleague headed to Hanoi here I think we 
should make special mention of the fact that Vietnam, which has 
the lowest per capita income of all the TPP partners, has made 
a very, if you will, courageous decision to pursue a 
negotiation on terms which are quite challenging.
    Senator Webb. That actually was my next question, with 
respect to Vietnam and the hurdles that it faces in order to 
participate in TPP.
    Mr. Shear. I'll ask my colleague to chime in in the areas 
in which he is much stronger than I am. But, I think the TPP 
and Vietnamese participation in TPP offers the United States an 
opportunity to further increase our exports and to broadly 
strengthen our economic relationship with Vietnam and to 
further bring Vietnam into the international economic 
community.
    In the process, in the course of our negotiations on TPP we 
of course will also be looking at Vietnamese labor and 
environmental practices and we hope that as a result of 
concluding the TPP that those practices in Vietnam will 
improve.
    Mr. Tong. Well, I certainly share those sentiments and 
would just emphasize again that I do believe that it is a 
challenging negotiation--we are, collectively, the nine 
countries of TPP negotiation, setting the bar quite high. That 
is an intentional strategy which they have all bought into of 
establishing a state-of-the-art agreement which other economies 
in the future can join. We will find out this year really, 
whether this is an achievable objective, but it is certainly, I 
believe, a very strategically intelligent objective on the part 
of all nine countries.
    Senator Webb. Thank you. I would like to thank both of you 
for your willingness to serve and wish you both the best in 
your positions, should you be confirmed and I think you will be 
confirmed.
    Let me close with just a few thoughts. I have been very, 
very concerned for a number of years, and particularly over the 
last 10 or 11 years, that the United States has been ignoring 
this part of the world, as our attention has been so distracted 
with what happened after 9/11. This was something I was writing 
about and speaking about before 9/11, but it certainly is true 
today. The future of this country is so inextricably 
intertwined with this region, as both of you know, and as I 
think everyone in this room appreciates. There is no more vital 
place for the future of the United States than in East and 
Southeast Asia.
    And I have done everything I can since I have been in the 
Senate, to reinvigorate--do my part in reinvigorating our 
relationships with this part of the world. I hesitate to say 
the second tier countries, but the countries that are not 
China, which I think have fallen off the radar screen here in 
the Congress.
    I was very proud to have served as a Marine in Vietnam. I 
believed then that Vietnam was one of the most important 
countries in terms of our relationships in this part of the 
world, and I continue to believe it today. Vietnam is 86 
million people, a country larger in population than Germany.
    It has an enormous future and in terms of our own strategic 
interests I think we need to do everything we can, under the 
rubric of fairness and being loyal to the people who were with 
us when times were different, to strengthen this relationship 
and others on the mainland of Southeast Asia for the stability 
of the region and for the good of our own country.
    And that has been our focus here on this committee. And 
both of you, I think, will play a vital role in doing this. And 
I look forward to working with you in the future.
    This hearing is adjourned.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of David Bruce Shear to Questions Submitted by
                         Senator John F. Kerry

                                security
    Question. Responding to concerns expressed by the United States, 
Vietnam, and many other Southeast Asian countries, China recently 
entered into multilateral negotiations with other claimants to reach a 
code of conduct for managing territorial disputes in the South China 
Sea. How do the United States and Vietnam plan to coordinate to achieve 
a successful conclusion to these negotiations?

    Answer. Secretary Clinton's statement on the South China Sea at 
last year's ASEAN Regional Forum (ARF) Ministerial Retreat in Hanoi was 
very effective in generating action on the South China Sea. Since the 
Secretary's remarks, ASEAN member countries and China have conducted 
several working-level meetings to discuss how to move forward on 
implementing guidelines for the 2002 Declaration on the Conduct of 
Parties in the South China Sea. The United States encourages the 
parties to reach agreement on a full code of conduct. The United States 
is prepared to facilitate initiatives and confidence-building measures 
consistent with the Declaration.
    The United States will continue to discuss South China Sea issues, 
and broader maritime security, with Vietnam, as well as the other 
members of ASEAN and China. We will discuss how the United States can 
be helpful in advancing our shared interests and promoting peace and 
stability in the South China Sea.
    Secretary Clinton made it clear in her ARF remarks that the United 
States has enduring national interests in the South China Sea, 
including continued peace and stability and respect for international 
law, including freedom of navigation and unimpeded lawful commerce. We 
oppose the use of force or threat of force by any claimant to advance 
its claim. We share these interests with the region, as well as other 
maritime states and the broader international community.
    While the United States does not take sides on the competing 
territorial disputes over land features in the South China Sea, the 
United States supports a collaborative diplomatic process by the 
claimants for addressing the territorial disputes and finding means to 
build trust and reduce tensions in the region.
                              environment
    Question. Recent U.N. and Asian Development Bank reports--along 
with Vietnamese Government studies--describe how rising sea levels, 
increasingly frequent and intense typhoons and drought, and salt-water 
intrusion could affect Vietnam, with its heavily populated, low-lying 
areas. These reports also highlight that the future impacts of climate 
change will only serve to exacerbate these conditions. I have discussed 
the potentially far-reaching consequences with Vietnam's leaders, and 
they have expressed a willingness to work together to address this 
challenge, in areas like data collection and dissemination and 
transitioning to renewable energy sources. What steps will you take, if 
confirmed, to broaden and deepen cooperation to enhance climate 
security?

    Answer. If confirmed, I will both build on our existing cooperation 
and seek new opportunities to work with Vietnam to enhance climate 
security, which is advanced by our work on climate change mitigation 
and adaptation. The U.S.-Vietnam Climate Change Working Group 
established under the bilateral Science and Technology Agreement is one 
avenue I will use to promote cooperation on climate change adaptation 
and mitigation. Another program for continued support and possible 
expansion is the DRAGON Institute, which the U.S. Geological Survey 
launched with Can Tho University to facilitate joint research on 
climate change and other environmental issues threatening the Mekong 
Delta.
    In regard to new programs, Vietnam will be one of the first 
countries worldwide to participate in a new Low-Emission Development 
Strategy (LEDS) interagency initiative, under which the United States 
will support the development of a long-term strategy for robust, low-
carbon growth. As part of the Reducing Emissions from Deforestation and 
Forest Degradation (REDD+) initiative, the United States will offer 
training and technical cooperation to government agencies and NGOs to 
improve forest and watershed management capability and to better 
respond to the impacts of climate change on forests.
    If confirmed, I will also encourage Vietnam's continued 
participation in the Lower Mekong Initiative, our partnership with the 
countries of the Lower Mekong Basin, to build capacity in tackling 
regional and global challenges, including adaptation to and mitigation 
of climate change impacts.
                               governance
    Question. Some observers see the Vietnamese National Assembly 
assuming a greater role in domestic policymaking. How do you assess the 
National Assembly's evolving role in Vietnam?

    Answer. Although the Communist Party of Vietnam exerts ultimate 
influence and control over all governing bodies, primarily through its 
Central Committee and Politburo, the National Assembly, once a mere 
legislative arm of the Party, has taken on a more significant and 
quasi-independent role in recent years. The 493-member body, elected to 
a 5-year term, has a variety of powers, including the ability to amend 
the constitution and elect members of the Council of Ministers. Members 
of the National Assembly have openly debated sensitive political issues 
and produced original legislation. Over 1,000 candidates, including 
nonparty members, will contest an election in May to seat Vietnam's 
13th National Assembly. Although the process falls significantly short 
of a full-fledged democratic undertaking, it may produce a legislative 
body that better represents the interests of the Vietnamese people than 
in past versions.
                   human rights and religious freedom
    Question. How will your experience working with the Chinese 
Government on human rights concerns inform your thinking on these 
issues with respect to Vietnam?

    Answer. My work on human rights in China and elsewhere throughout 
my career has underscored for me the importance of human rights in 
overall U.S. foreign policy. My experience has also demonstrated for me 
our ability to achieve progress when we combine persistence with a 
well-defined agenda.
    Over the past year, we have seen an increase in suppression of 
political dissent by the Vietnamese Government, a worsening of the 
respect for rule of law, the imprisonment of dozens of activists, and 
new restrictions on the media and the Internet. If confirmed, I will 
seek an active and open dialogue with my Vietnamese counterparts. 
Vietnam cannot achieve its full potential without greater respect for 
the rights of its citizens.
    If confirmed, I will continue to seek progress on human rights 
issues, partly through the Human Rights Dialogue we have established 
with Vietnam. In December 2010, Democracy, Human Rights, and Labor 
Assistant Secretary Michael Posner led an interagency delegation in a 
successful 2-day visit to Vietnam to participate in the 15th round of 
the dialogue with the Vietnamese Government. The U.S. delegation 
expressed its concern about a wide range of human rights issues, 
including freedom of expression, freedom of the press, and Internet 
freedom. These meetings followed up on Secretary Clinton's July and 
October visits to Vietnam and yielded concrete outcomes and next steps.
                              human rights
    Question. I was disappointed to hear of Cu Huy Ha Vu's sentencing 
this week and am concerned that Vietnam may be following the example of 
intolerance being established elsewhere. Cu's conviction is the latest 
evidence of a troubling crackdown against freedom of expression in 
Vietnam. If confirmed, what steps will you take to encourage greater 
official tolerance for the views of Vietnam's people?

    Answer. If confirmed, I will regularly engage the Vietnamese 
Government at the highest levels to express our concerns about the 
country's recent increase in suppression of political dissent. The 
bilateral Human Rights Dialogue with Vietnam held last December in 
Hanoi was successful in raising a wide range of human rights concerns, 
including freedom of expression. The Department of State continues to 
press those points with the Government of Vietnam. The long-term 
success of our growing relationship, and the long-term prosperity of 
Vietnam, depends in large part on its people enjoying the freedom to 
freely express their views.

    Question. Can the full potential of this growing bilateral 
partnership be realized in the absence of greater official respect for 
freedom of expression?

    Answer. I strongly believe that the strength of our long-term 
bilateral relationship depends heavily on the ability of the Vietnamese 
people to freely express their views, including political opinions that 
challenge the policies or positions of the government. If confirmed, I 
will encourage the government to respect the freedom of expression as 
enshrined in Vietnamese law, bolster the rule of law, end restrictions 
on the media and the Internet, and engage all political voices in 
Vietnam in meaningful dialogue.
                   human rights and religious freedom
    Question. What is your assessment of Vietnam's progress in 
enlarging religious freedom, including its treatment of Montagnard 
Christians?

    Answer. Since 2006, the overall situation in Vietnam has improved, 
prompting the Department of State to remove Vietnam from the Country of 
Particular Concern list. Nevertheless, freedom of religion continues to 
be subject to uneven interpretation and protection by the Government of 
Vietnam. Significant problems remain, especially at the provincial and 
village levels and for some minority groups, such as the Montagnard 
Christians. The Vietnamese Government can and should do more. If 
confirmed, I will make the promotion of religious freedom one of my top 
priorities.
    Among the problems that remain on this issue are occasional 
harassment and excessive use of force by local government officials 
against religious groups in some outlying locations. Specifically, 
there were several problematic high-profile incidents in 2009 and 2010 
when authorities used excessive force against Catholic parishioners in 
land disputes outside of Hanoi at Dong Chiem parish, against the Plum 
Village Buddhist Community in Lam Dong province, and against Catholic 
parishioners outside of Danang at Con Dau parish. Registration of 
Protestant congregations also remains slow and cumbersome in some areas 
of the country, especially in the Northwest Highlands.
    However, Protestants and Catholics throughout the country continue 
to report significant improvements in their situation despite 
occasional setbacks. The government granted national-level recognition 
or registration to eight new Protestant churches, the Baha'i faith, the 
Bani Muslim Sect, and four indigenous Vietnamese religious 
organizations. Over 1,000 meeting points that had been closed in the 
Central Highlands were reopened with additional meeting points 
registered, and hundreds of new pastors were ordained and assigned to 
newly registered meeting points. Over 228 Protestant congregations were 
registered in the Northwest Highlands. The Catholic Church of Vietnam 
also continues to report that its ability to gather and worship has 
improved and restrictions have eased on the training and assignment of 
clergy. In January 2011, the Vatican named a nonresident representative 
as a first step toward full diplomatic relations with Vietnam.
                    agent orange/dioxin remediation
    Question. Last spring, Senators Whitehouse and Kerry, along with 
seven other senators, submitted a letter to Chairman Leahy and former 
Ranking Member Gregg of the Subcommittee on State, Foreign Operations 
and Related Programs of the Senate Committee on Appropriations 
requesting $26 million for dioxin remediation in Vietnam. As you know, 
$12 million was appropriated to commence cleanup efforts at Danang 
International Airport. What is the status of these efforts, and how do 
you assess their impact on United States-Vietnam relations? What 
additional efforts in Danang would the outstanding sum (that is yet to 
be appropriated) be able to sustain?

    Answer. We expect to have contracts in place by the end of this 
year and excavation to start about January 2012. New data (as of 
February 2011) show the need to excavate roughly 18 percent more soil 
and sediment than originally planned. Because we now have a more 
comprehensive understanding of site conditions and ongoing and future 
expansion plans at the Danang airport, the project is now anticipated 
to be completed by the end of 2015 and cost about $43 million.
    FY 2010 funding, including $12 million in supplemental funds, will 
enable USAID to fund contracts for project planning, construction 
management and oversight, and thermal design between now and the end of 
2011. However, with the anticipated award around November or December 
2011 of the excavation and the thermal construction contracts, 
estimated at $11.5 million and $21.6 million, respectively, the FY 2011 
requested $18 million would enable us to sufficiently fund these 
contracts initially. Both contracts will have major upfront costs. If 
the $18 million in FY 2011 funding is approved, additional funding of 
between $8 and $9 million would be required to meet total project cost 
requirements.
    Successful project completion will result in the elimination of the 
risk of future exposure to dioxin due to Agent Orange for the estimated 
800,000 Vietnamese living near the Danang airport. As we advance to 
each new project milestone with our Vietnamese partners, they continue 
to express heartfelt appreciation for this U.S. assistance.
                                 ______
                                 

           Responses of David Shear to Questions Submitted by
                        Senator Richard G. Lugar

    Question. In 2010, President Obama announced his intention to 
double U.S. exports in 5 years. If confirmed as U.S. Ambassador to 
Vietnam, what strategy will you employ to double U.S. exports to 
Vietnam by 2015?

    Answer. Providing greater opportunities for U.S. companies in 
Vietnam will be one of my core goals, if I am confirmed. U.S. exports 
to Vietnam in 2010 totaled US$3.7 billion, up 19.8 percent compared to 
2009. This increase follows equally impressive growth in 2009 when U.S. 
exports to Vietnam increased by 11 percent. However, U.S. exports 
accounted for just 4.2 percent of Vietnam's merchandise imports in 
2010, indicating a major opportunity to expand our limited share of 
this growing market and deepen our bilateral relationship through 
trade.
    Under the National Export Initiative (NEI), State Department, U.S. 
Commercial Service, and Foreign Agricultural Service officers at 
Embassy Hanoi and Consulate General Ho Chi Minh City work as a team to 
support the NEI Country Plan for Vietnam, which has been designated as 
a ``high priority market'' in Asia under the NEI. USAID also provides 
support for capacity development and technical assistance in 
establishing new legal mechanisms to facilitate trade and investment.
    If confirmed, with support from this strong Country Team, I would 
work to eliminate both tariff and nontariff barriers to U.S. exports of 
goods and services as well as advocate for implementation of 
commitments under existing agreements. I would also work with Vietnam 
to encourage them to meet the high standards of the Trans-Pacific 
Partnership free trade agreement that is currently being negotiated. 
Helping U.S. industry identify new export opportunities would be 
another key component of my strategy, particularly in the areas of 
energy, information and communication technology, education, 
transportation, infrastructure development, and agricultural products. 
I would also work closely with the American business community in 
Vietnam to maintain a favorable environment for business and U.S. goods 
and take action on concerns as they arise. I would actively reach out 
to U.S. companies interested in doing business in Vietnam and would 
advocate for U.S. business at all appropriate opportunities.

    Question. Several American families, including four from Indiana, 
have adoptions pending for Vietnamese children. This has been a long 
and laborious process with families frustrated by inconsistencies in 
information received from U.S. authorities as well as other challenges, 
some of which result from an evolving adoption mechanism and process on 
the part of the Government of Vietnam.
    Although Vietnam recently became a signatory to The Hague 
Convention on Protection of Children and Cooperation in Respect of 
Intercountry Adoption, U.S. officials indicate it will be several 
months before a formal agreement is implemented.
    Although the United States is awaiting the formal implementation of 
a new adoption agreement, it's my understanding that the two countries 
had agreed that six of the pending adoptions, ``already in the 
pipeline,'' could go forward. Your full assessment of this situation 
would be appreciated. Please inform me how you intend to proceed.

    Answer. Following the expiration of our bilateral agreement, the 
United States and Vietnam continued to process adoption cases for U.S. 
prospective adoptive parents who had received an official referral 
prior to September 1, 2008. The Department of State made every effort 
to encourage the Vietnamese to expeditiously complete all 
investigations and seek resolutions as quickly as possible in the best 
interest of each child.
    The Government of Vietnam took significant time to make a final 
decision in many of the cases in the province of Bac Lieu in part 
because of delays by the Bac Lieu orphanage in providing the government 
with needed documentation. In order to approve each case, the 
Government of Vietnam had to determine that each child was eligible for 
intercountry adoption and that the dossier could be processed.
    On September 14, 2010, the Ministry of Justice sent the U.S. 
Embassy in Hanoi a diplomatic note denying the remaining pipeline cases 
because of a lack of sufficient legal grounds on which to approve them. 
The U.S. Embassy has followed up with the Vietnamese Government on 
these cases and provided available information to all of the families.
    In order for intercountry adoptions to resume from Vietnam, 
Vietnamese law requires that either a new bilateral agreement must be 
in place between the United States and Vietnam, or Vietnam must ratify 
The Hague Convention on Protection of Children and Co-Operation in 
Respect of Intercountry Adoption (the Convention). Vietnam has stated 
its intention to ratify the Convention and in June 2010, the Vietnamese 
legislature passed a new adoption law which took effect January 1, 
2011. Vietnamese officials have recently finished drafting necessary 
regulations and will now need to implement the new law and regulations 
prior to their ratification and compliance with the standards 
established by the Convention.
    While the Government of Vietnam's steps toward Hague ratification 
and implementation are encouraging, we remain concerned that sufficient 
safeguards may not be in place and that the proposed implementation 
timeline may be too short. Under U.S. law, if/when Vietnam becomes a 
party to the Convention, the U.S. Central Authority must be able to 
certify that procedures leading to the adoption of a child in Vietnam 
conform to both the standards established by the Convention and the 
U.S. Intercountry Adoption Act. This decision, however, cannot be made 
prior to Vietnam's Hague ratification.
    Following the resolution of all pipeline cases, the Department of 
Adoptions has informed the Department of State that the children 
previously matched with U.S. prospective adoptive parents are now 
subject to the country's new adoption law. The new law requires that 
Vietnamese officials follow different procedures from those in the 
past, such as making children available for adoption for 2 months at 
the communal level, 2 months at the provincial level, and 2 months at 
the national level. If no qualified domestic family successfully 
completes an adoption of the child, the Department of Adoptions (DA) 
will then determine the eligibility of the child for intercountry 
adoption based on Vietnamese laws and regulations. The DA Director has 
expressed willingness to rematch the final remaining group of six 
children with their previously matched U.S. prospective adoptive 
parents under the new adoption law (i.e., that they first be made 
available for adoption in Vietnam.)
    The DA Director, however, has confirmed that Bac Lieu provincial 
officials have thus far refused to comply with Vietnam's new adoption 
law requirements for making the six children whose adoptions were 
denied in September 2010 available for domestic adoption at the 
provincial level. In addition, officials have refused to correct birth 
certificates with fraudulent information. The DA Director said he was 
not certain why these officials were unwilling to move forward and 
noted that he did not have authority to compel them to act. He said he 
will continue to communicate with these officials on the requirements 
of the new law necessary for these children to be eligible for 
intercountry adoption. When Special Advisor for Children's Issues Susan 
Jacobs was in Vietnam in March, she discussed these cases at length 
with the Director of the Department of Adoptions and urged him to find 
a way to provide these children with permanent homes. Special Advisor 
Jacobs urged him to rematch the children and the parents. The Director 
said he planned to hold a training seminar on the new law in the Bac 
Lieu province and he hoped the seminar would prompt local officials to 
comply with the new law's provisions.
    The Department of State has pressed for a strong regulatory 
framework and continues to communicate directly with the Government of 
Vietnam on implementation efforts. The U.S. Embassy in Hanoi has also 
worked closely with other countries in the Inter-Embassy Adoption 
Working Group in addressing concerns within the adoption process and 
regulations.
    The Office of Children's Issues and Embassy Hanoi continue to 
communicate directly with all of the Bac Lieu families regarding 
Vietnam's efforts to ratify the Hague Adoption Convention and to 
explain the processing of cases under the Convention if/when Vietnam 
ratifies the Convention.

    Question. Within Vietnam, there appears to be decreasing emphasis 
on matters related to human rights. Is this perception correct, and if 
so, what is the basis?

    Answer. The Vietnamese Government increased the suppression of 
dissent over the past year, arresting over two dozen political 
activists and convicting over a dozen more arrested over the last 3 
years. The government also increased measures to limit privacy rights 
and tightened controls over the press and Internet. Freedom of religion 
continued to be subject to uneven interpretation and protection; in 
spite of some progress, significant problems remained, especially at 
the provincial and village levels, including for some ethnic minority 
residents in the Central and Northwest Highlands. At the same time, the 
Vietnamese Government continues to engage with the United States and 
other countries in a series of regular human rights dialogues.

    Question. Some suggest that select Communist Party leaders in 
Vietnam are in large part responsible for limits on political dissent 
within the country. Is this accurate? Please describe the nature of 
interaction between the Communist Party leaders in Vietnam and 
Communist Party leaders in China.

    Answer. Vietnam is an authoritarian state ruled by the Communist 
Party of Vietnam (CPV). Political opposition movements are prohibited 
and Vietnamese citizens cannot change their government. Under Article 4 
of the Vietnamese Constitution, the CPV assumes the leading role in 
leadership of the state and society. As such, the highest levels of the 
Vietnamese Communist Party are aware of, and most likely approve, the 
prosecution and imprisonment of high visibility dissidents. We 
regularly urge the Vietnamese Government to engage all political 
opinions in a genuine dialogue and to respect fundamental human rights, 
including freedom of expression.
    As the United States and Vietnam celebrated 15 years of normal 
diplomatic ties in 2010, Vietnam and China were celebrating their 60th 
anniversary of relations. Vietnam was among the first countries to 
recognize the People's Republic of China, and China was the first 
country to establish official diplomatic ties with Vietnam. While 
China-Vietnam relations have been marked by periods of conflict over 
territorial and other issues, it appears that the deep historical ties 
between the CPV and the Chinese Communist Party (CCP) remain strong.
    Mao Zedong and Ho Chi Minh famously summarized their friendship 
ties as ``both comrades and brothers.'' More recently, President Hu 
Jintao described China-Vietnam relations as a ``treasure'' of the two 
parties. Lines between party and government are blurred in both 
countries, making it difficult to differentiate between official 
government interaction and party-to-party interaction, but the two 
parties appear to maintain a robust schedule of senior-level visits and 
consultations.

    Question. Le Cong Dinh and Nguyen Tien Trung were among political 
reformers arrested in June of last year by Vietnamese officials and 
found guilty of ``organizing to overthrow the State.'' They received 
lengthy prison terms. Has the U.S. Government expressed concern 
regarding those political reformers arrested last June? What is the 
present status of Le Cong Dinh and Nguyen Tien Trung? Both have pending 
invitations from the Indiana University Maurer School of Law to study 
law at the Center for Constitutional Democracy at Indiana University.

    Answer. We are aware of the cases of Le Cong Dinh and Nguyen Tien 
Trung and remain very concerned over their continued imprisonment. Dinh 
and Trung were arrested in June and July 2009, respectively. Both were 
tried and convicted in January 2010, in a joint trial with two other 
activists. Dinh received a sentence of 5 years in prison; Trung was 
sentenced to 7 years. The U.S. Consul General in Ho Chi Minh City 
sought and was granted permission to attend both trials.
    The State Department has repeatedly condemned the arrests and 
convictions in strong terms, both publicly and privately, including in 
the form of public statements issued at the time of the arrests and 
convictions. Former Ambassador Michael Michalak and current Charge 
d'Affaires Virginia Palmer have regularly called for the release of 
Dinh and Trung. Assistant Secretary for Democracy, Human Rights, and 
Labor (DRL) Michael Posner also pressed for their release during the 
2009 and 2010 human rights dialogues with Vietnam. DRL Deputy Assistant 
Secretary Dan Baer just reiterated these concerns during his visit to 
Vietnam in February, as did Deputy Assistant Secretary for East Asia 
Pacific Affairs Joe Yun in March.
    The Embassy and the Consulate General keep in regular contact with 
family members of Dinh and Trung, and officials at the State Department 
have met with both Mr. Trung's fiance and with Professor David 
Williams, Director of the Center for Constitutional Democracy at 
Indiana University.
                                 ______
                                 

           Responses of Kurt Tong to Questions Submitted by 
                        Senator Richard G. Lugar

    Question. In 2010, President Obama announced his intention to 
double U.S. exports in 5 years. If confirmed as U.S. Ambassador to 
APEC, what strategy will you employ to double U.S. exports to APEC 
countries by 2015?

    Answer. The Asia-Pacific region is essential to the success of the 
President's National Export Initiative (NEI) and our goal of doubling 
U.S. exports by 2015 to help create jobs at home. In the first year of 
the NEI, U.S exports to APEC economies totaled $774 billion, up 25 
percent from 2009, while U.S. exports to non-APEC member economies grew 
about 15 percent to reach $503 billion. We need to work hard to 
maintain this momentum.
    This year is particularly important as we host APEC for the first 
time since 1993. If confirmed, I will work with my interagency 
colleagues to increase the private sector engagement and input into the 
APEC discussions, and exercise U.S. leadership in delivering concrete 
outcomes through the APEC process to address barriers to trade and 
investment that American companies face and enhance regional economic 
integration. We will leverage APEC 2011 to advance work to make it 
cheaper, easier, and faster to do business in the Asia-Pacific, which 
will increase export opportunities for our businesses, particularly 
small- and medium-sized enterprises. Specifically, we will address 
nontariff barriers to trade and work to prevent new barriers from 
emerging; foster greater openness in the trade in green technology; and 
promote regulatory convergence and cooperation to tackle the regulatory 
issues within and between economies that increasingly inhibit trade and 
investment.

    Question. What is your perspective on the United States 
establishing a long-term strategy toward pursuing a Free Trade 
Agreement (FTA) with ASEAN?

    Answer. In Asia-Pacific trade negotiations, the administration is 
currently focusing on developing the Trans-Pacific Partnership (TPP) as 
an advantageous pathway toward regional economic integration and an 
eventual Free Trade Area of the Asia Pacific (FTAAP) that could include 
all 21 members of APEC. APEC leaders last year endorsed the TPP as one 
of possible pathways toward FTAAP, and four ASEAN member countries, 
Malaysia, Singapore, Vietnam, and Brunei, are already party to the 
negotiations; others may be interested in joining in the future.
    At the same time, I believe the administration should continue and 
expand its efforts to deepen relations with the ASEAN nations, and 
ASEAN as an organization, on both strategic and economic issues. In 
particular, on trade policy, it makes sense for the United States to 
make concerted efforts to work with the ASEAN nations and the ASEAN 
Secretariat on issues such as trade facilitation and regulatory reform. 
Working hard on these matters will help build capacity and accelerate 
the reform and opening of the non-TPP ASEAN economies, increasing their 
readiness to negotiate high-standard free trade agreements with the 
United States.
    The U.S.-ASEAN Trade and Investment Framework Agreement (TIFA) 
process is an especially useful channel in this regard, along with the 
U.S.-ASEAN Enhanced Partnership.

    Question. What is your perspective on the so-called ``centrality of 
ASEAN''?

    Answer. ASEAN, as an organization and as a group of nations, is 
playing an absolutely critical role in the development of the Asia-
Pacific's emerging regional architecture. ASEAN plays a formative and 
essential role in each of the ASEAN-centered institutions and summits 
such as the ASEAN Regional Forum, ASEAN+3, ASEAN+6, ASEAN Defense 
Ministers Meeting Plus, the Asia Regional Forum, and the East Asia 
summit. Many of these institutions include the United States. In 
addition to engaging these institutions, the United States is 
strengthening its engagement with ASEAN by sending our first Resident 
Representative to ASEAN, Ambassador David Carden, to Jakarta this 
month. If confirmed, I look forward to working closely with Ambassador 
Carden and other colleagues to develop new areas of cooperation with 
ASEAN.

    Question. Do you envision a situation whereby the United States 
could participate in the Trans-Pacific Partnership (TPP) while 
concurrently working to develop a long-term strategy toward pursuing an 
FTA with ASEAN?

    Answer. Through the Trans-Pacific Partnership process, the United 
States is negotiating a high-standard free trade agreement with four 
ASEAN members, plus four other partners. We will continue to work for 
the successful conclusion of these negotiations on an ambitious 
timetable.
    At the same time, considering the great strategic and economic 
importance of ASEAN, I do believe it makes sense for the United States 
to continue to consider long-term strategies that would most 
effectively expand the United States trade and investment relationships 
with the ASEAN member nations, individually and as a group. The main 
issue, of course, is the readiness of partner economies and their 
governments to enter into high-quality, comprehensive trade and 
investment arrangements with the United States, on terms that would be 
of benefit to our economy and be acceptable to the U.S. Congress. In 
order to lay a foundation, we should continue to work intensively with 
the ASEAN Secretariat and the ASEAN governments, including through the 
U.S.-ASEAN Trade and Investment Framework Agreement (TIFA) process, as 
well as our bilateral TIFAs and other dialogues, to help build their 
capacity, accelerate reform, and create opportunities for realizing 
long-term trade goals.


                              NOMINATIONS

                              ----------                              


                         WEDNESDAY, MAY 4, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Daniel Benjamin Shapiro, of Illinois, to be Ambassador to 
        Israel
Stuart E. Jones, of Virginia, a Career Member of the Senior 
        Foreign Service, Class of Minister-Counselor, to be 
        Ambassador to the Hashemite Kingdom of Jordan
Hon. George Albert Krol, of New Jersey, a Career Member of the 
        Senior Foreign Service, Class of Minister-Counselor, to 
        be Ambassador to the Republic of Uzbekistan
Henry S. Ensher, of California, Member of the Senior Foreign 
        Service, Class of Counselor, to be Ambassador to the 
        People's Democratic Republic of Algeria
                              ----------                              

    The committee met, pursuant to notice, at 2:42 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr., presiding.
    Present: Senators Casey, Risch, and Lee.
    Senator Casey. The hearing will come to order. I know we 
are starting maybe 3 minutes early, but that is not all that 
bad to do once in a while.
    Today the Senate Foreign Relations Committee meets to 
examine the nominations of Daniel Shapiro for the position of 
Ambassador to Israel, Stuart Jones to be Ambassador to Jordan, 
George Krol to be Ambassador to Uzbekistan, and Henry Ensher to 
be Ambassador to Algeria.
    I would like to, first of all, welcome Senator Bill Nelson 
of the State of Florida. I know we will be joined by Senator 
Lieberman as well, both of whom will provide introductions of 
Mr. Shapiro.
    But in the interest of keeping the Senate on an efficient 
path of time this afternoon, I am going to forgo my opening 
statement, which is traditionally the start of a hearing, and 
give the floor to Senator Nelson so he can make his 
introductory remarks. And that way we can keep the Senate 
moving at a good pace.
    But I am grateful to Senator Nelson for his appearance here 
today, and for his willingness to take time to help us have 
this hearing proceed. Senator Nelson, the floor is yours.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, thank you for your personal 
courtesies.
    I must say that in the 11 years that I have been here, this 
is one of the prouder moments that I have had to introduce a 
nominee to any of our committees. There are times in life when 
you know that what is about to occur is exactly the right 
thing, and the position of Ambassador to Israel and Dan Shapiro 
is the right thing.
    We have an extraordinary individual that I can commend to 
this committee because I know him very well. Dan was our 
legislative director for the first 6 years, my first term as 
Senator, and since I was then a member of this committee, 
Foreign Relations, as well as Armed Services, we traveled 
extensively. And of course, whenever we were traveling anywhere 
in the world, I had a walking encyclopedia with me, but that 
was magnified once we got anywhere into the Middle East and 
Central Asia.
    Just for starters, he speaks fluent Hebrew and fluent 
Arabic, not a shabby start for an Ambassador to Israel. And his 
depth of knowledge, even back when he was with this little 
country boy from Florida, was extensive in his advice and 
counsel to me. You can imagine what that depth of knowledge is 
now that he has been a member of the National Security Council 
with the portfolio in that council of the Middle East. And so 
we have someone who is uniquely qualified for this position.
    Second, I would point out that among all of the White House 
staff, when it comes to a matter of the Middle East, who does 
the President draw on for his advice, but the fellow who knows 
the Middle East backward and forward in order to give advice? 
That is an important component as well, so that as our 
representative in Israel, when Dan will speak as our 
Ambassador, everybody knows that he has got a direct pipeline 
to the Oval Office.
    And third, let me say that as he represents America, he 
will represent all of America. It is true that among the Jewish 
community, he is probably as popular as Benjamin Netanyahu. But 
I said Dan represents all of America. I so well remember how he 
was so capable of putting the interest of the United States 
first in whatever interest group that it was that came in 
seeking legislation or a change in legislation or having to 
deal with our foreign policy. And I particularly watched Dan as 
he interacted with a group of our Muslim constituents, of which 
I have a sizable representation in the State of Florida, and he 
was just so adept with such graciousness as he would carry on 
the affairs of our office.
    And so I give to this committee my unlimited 
recommendation, the highest recommendation, and I would ask 
that the committee--and I have already spoken to Chairman John 
Kerry--that you all proceed with this expeditiously so that we 
can have our new Ambassador in Israel.
    Thank you very much, Senator Casey.
    Senator Casey. Senator Nelson, thank you very much. We are 
welcoming you back to this committee. We appreciate the words 
that you expressed here about the nominee, and you have given 
us an assignment and we appreciate that.
    In furtherance of Senate courtesies before my opening, I 
wanted to also turn to Senator Lieberman who, of course, is the 
chairman of the Homeland Security Committee and has been a 
leader in the Senate for so many years. And we are grateful 
that he is here. We are honored by your presence as well, 
Senator Lieberman, and you have the floor.

            STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thank you, Mr. Chairman. I am honored to 
be here to help introduce Dan Shapiro to the committee and also 
to join with our colleague, Senator Bill Nelson, in praising 
him.
    I cannot say that Dan ever worked for me as Bill could, but 
I am so proud to say that I have known Dan even longer for a 
much more important reason: his wife Julie taught my youngest 
child when she was very young. And we were very impressed with 
Julie. And, you know, Dan was not bad either. [Laughter.]
    Of course, I did get to know Dan when he worked with 
Senator Feinstein before that. As the record will show, he 
worked with Chairman Lee Hamilton in the House of 
Representatives and then, of course, his time with Bill Nelson.
    This is really a superb appointment. I endorse Dan's 
nomination wholeheartedly. He has an extraordinary background, 
as Bill said. When Bill said that Dan Shapiro was fluent in 
Hebrew and Arabic, I turned to him and wanted him to know that 
I knew that he was not bad in English either, and I know that 
will help him in his work. [Laughter.]
    But more to the point, he brings expertise. He brings a 
very informed judgment. He also brings--and I want to stress a 
point that Bill Nelson made. At this moment of really 
extraordinary change in the Middle East, which has a tremendous 
potential for good but also creates uncertainty, Dan Shapiro 
will bring to this position his obviously close relationship 
with President Obama. And this is a moment when I think it is 
more important than ever for there to be close and direct 
communications and a relationship of deep trust between the 
Government of the United States and the Government of Israel 
and really more particularly between the Oval Office here in 
Washington and the Office of the Prime Minister in Jerusalem. 
And Dan Shapiro as Ambassador will guarantee, I think, that 
there is that kind of trust on both sides.
    I always say to groups around the country who are concerned 
about Israel's security that since the founding of the modern 
state and the very rapid recognition of the State of Israel by 
then-President Harry Truman, which was so significant to 
Israel's immediate legitimacy among the nations of the world, 
that the United States has remained Israel's most steadfast 
ally and supporter, and it is a natural relationship because we 
are two great democracies. The relationship continues strong 
both from the White House and really broad bipartisan support 
for the United States-Israel relationship. I think Dan Shapiro 
understands all that and will bring all that with him.
    I will say, just to echo what Bill Nelson said, that in the 
pro-Israel community in America--and in that community, there 
is a range of opinion. I was quite impressed by the range of 
endorsements for this nomination after it was made, going on 
one side from the Zionist Organization of America to, on the 
other side, the Americans for Peace Now. And that covers quite 
a lot of real estate ideologically speaking. But it is a 
tribute to Dan's credibility and his accessibility and his 
personality that he enjoys that support.
    So I know you have a lot of business. I want to leave it to 
that. But I will come back to what I said at the outset. Dan 
will make a great Ambassador and Julie will make a great wife 
of a great Ambassador, and together I know that they will 
strengthen our already remarkably strong relationship with 
Israel.
    Thank you very much.
    Senator Casey. Senator Lieberman, thank you very much. We 
are grateful you are here with us today.
    We will move to my opening statement and then, of course, 
we will go to our nominees.

         OPENING STATEMENT OF HON. ROBERT P. CASEY, JR,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Let me speak first about our nominee for the 
post of Ambassador to Israel.
    The United States relationship with Israel is a cornerstone 
of United States foreign policy, as we all know. It is all the 
more important during the current historic period of upheaval 
in the Middle East. The United States and Israel have an 
unbreakable and unshakeable bond based upon common values and a 
commitment to democratic institutions, and our strong 
relationship with Israel is in the national security interest 
of the United States.
    The United States relationship with Israel is more 
important than ever, given the increasing unrest in the region. 
In recent weeks, I and others have voiced concern about the 
democratic transition process in Egypt, the threat posed by 
extremism in that country, and the prospects for the Camp David 
Peace Accords. Countries like Libya, Syria, Bahrain, and Yemen 
continue to experience significant unrest. The United States 
must lead with policies that reflect our national security 
interests as well as our values.
    In light of all of these uncertainties, Israel's security 
in the region is of utmost concern. United States assistance to 
Israel is critical to supporting Israel's security and 
maintaining stability in the region. United States assistance 
for Israel's missile defense system has already proved 
successful in limiting attacks by terrorist groups, as 
demonstrated in Ashkelon last month, with the Iron Dome System 
which struck down eight short-range rockets fired by Hamas. In 
an ever-changing threat environment, the United States must 
ensure that Israel maintains its qualitative advantage over 
potential threats at home and abroad.
    Iran poses a uniquely significant threat to both Israel and 
United States national security as a result of its ongoing 
pursuit of nuclear weapons, failure to abide by its 
international obligations, and rejection of Israel's right to 
exist. We have recently seen disturbing instances of Iranian 
force projection into the region, including support for 
terrorist groups such as Hamas and Hezbollah which continue to 
launch attacks on innocent Israeli citizens and civilians. The 
United States must stand firm in its commitment to Israel's 
security by steadily increasing pressure on the Iranian regime. 
It is clear that stronger United States and multilateral 
sanctions have weakened Iran, but we must continue to work with 
our international partners to limit Iran's influence in the 
region.
    The recent announcement of a Palestinian unification 
agreement between Fatah and Hamas has raised serious concerns 
over the fate of the peace process. As we know, Hamas is a 
terrorist organization committed to the destruction of Israel 
itself. The United States must stand firm in our opposition to 
any Hamas role in the Palestinian Government and discourage 
Palestinian efforts to work outside the parameters of direct 
peace negotiations. These efforts are counterproductive and 
will only serve to delay the day in which we see Israelis and 
Palestinians living side by side in peace and security.
    Given Mr. Shapiro's extensive experience, I look forward to 
hearing from him about how he will manage this increasingly 
challenging environment in the region.
    Mr. Shapiro currently serves as the NSC Senior Director for 
the Middle East and North Africa and has been an adviser to 
President Obama since 2007.
    I would like to welcome Mr. Shapiro's family members who 
are joining us today, his wife, Julie, and daughters, Leat and 
Marav and Shirak, and parents, Elizabeth and Michael. I do not 
want to embarrass them, but if they would like to stand, we 
would certainly like to acknowledge their presence.
    Thanks very much.
    I tell you why I do that. Because I know, as a public 
official, that when someone is putting themselves forward to 
provide public service, especially of the kind we are talking 
about here today with our nominees, I know a family serves with 
them in one way or another. So we are grateful for your 
commitment as well as members of a family.
    Let me just move quickly to our second nominee, Mr. Jones.
    Jordan, as we know, is an important partner in 
counterterrorism and has been a key ally in the Middle East 
peace process. Since signing a peace treaty with Israel in 
1994, Jordan has provided a strategic buffer to more 
adversarial neighbors such as Syria. U.S. support has been 
critical to helping Jordan address internal and external 
challenges and, in turn, has helped ensure stability in an 
increasingly unstable region. Jordan has experienced a series 
of prodemocracy protests in recent months with youth-led groups 
calling for political reforms and criticizing the lack of 
government response to the demonstrations. As public criticism 
of the monarchy grows and the government crackdown in 
neighboring Syria worsens, the United States must assess how to 
best support the Jordanian Government's efforts to balance 
political and economic reforms with political stability. I look 
forward to hearing how Stuart Jones will navigate this complex 
political landscape.
    Mr. Jones is currently serving as Deputy Chief of Mission 
at the U.S. Embassy in Iraq, a tough assignment. He has 
previously served as Deputy Assistant Secretary of State for 
European and Eurasian Affairs, Deputy Chief of Mission at the 
U.S. Embassy in Egypt, and Director for Iraq at the National 
Security Council. If confirmed, Mr. Jones' depth of experience 
in the Middle East will serve him well in this position.
    And so I now invite Mr. Shapiro to provide his remarks.
    Senator Risch.
    Senator Risch. Yes, very briefly.
    Senator Casey. Our ranking member, Senator Risch.

           OPENING STATEMENT OF HON. JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you very much, Mr. Chairman.
    First of all, let me associate myself with the remarks of 
both Senator Lieberman and Senator Casey. We get a lot of 
publicity here about partisan issues, and our relationship with 
Israel is truly a bipartisan affair and has been for some time. 
And in that regard, we are all pulling the wagon together.
    Mr. Shapiro, thank you for taking the time to meet with me 
and with my staff. I sincerely appreciate it. I think this is a 
good appointment.
    Mr. Jones, let me say this. You are going to a country that 
is a friend of the United States and has been a good partner of 
ours in the region. Probably one of the great success stories 
that we hear very little about in the media is the peace treaty 
between Israel and Jordan. Certainly it is a model, and we 
obviously support that. It has worked very well, and I know 
that you will work to see that it continues to work. Obviously, 
there are going to be challenges with the recent matters that 
have arisen there. So we look forward to hearing from you as to 
how you are going to do that.
    With that, thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Risch.
    We are joined by Senator Lee from Utah as well, and we have 
time now or we can have comments later. But I think we will 
just move to the testimony and then questions.

      STATEMENT OF DANIEL BENJAMIN SHAPIRO, OF ILLINOIS, 
                   TO BE AMBASSADOR TO ISRAEL

    Mr. Shapiro. Mr. Chairman, thank you very much for the warm 
welcome.
    I have submitted a written statement which I would ask be 
made part of the record, and in the interest of time, I will 
summarize my remarks.
    Senator Casey. Your statement and all the statements will 
be made a part of the record.
    Mr. Shapiro. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Risch, Senator Lee, members of the 
committee, thank you for the opportunity to appear before you 
today. I am humbled and honored by the trust President Obama 
and Secretary of State Clinton have placed in me with the 
nomination to serve as United States Ambassador to Israel. If 
confirmed, I will do my utmost to meet that trust and 
responsibility and to promote the interests of the United 
States.
    I also recognize the vital role of this committee in our 
Nation's foreign policy as well. If confirmed, I look forward 
to close cooperation with its members and its staff and with 
the Congress as a whole on strengthening our close and 
unbreakable relationship with the State of Israel.
    I am grateful, of course, to Senator Nelson for his 
introduction and for his support and guidance over the past 
decade, and I thank Senator Lieberman for his support and 
introduction as well.
    Mr. Chairman, I have been involved with Israel most of my 
life. I lived in Israel as a young child during the 1973 war. I 
went there twice for university studies, and I worked here in 
the Congress for many years to support Middle East peace 
efforts, strengthen the United States-Israel relationship and 
combat terrorist threats against both our nations. I have 
gained through those experiences a deep understanding both of 
Israel's security needs and its people's justifiable concerns 
about the threats they face and Israel's strengths, and its 
people's dreams manifested in the building of a modern state 
and the unrelenting search for peace. And I have also gained a 
deep appreciation for the importance of the United States-
Israel relationship for our own national security.
    The United States has stood by Israel as its partner and 
ally since its creation. It is a bipartisan commitment, as 
Senator Risch says, and I have been privileged to serve 
President Obama as he has continued, deepened, and advanced 
that partnership. Israel has been and remains our most 
dependable ally in the Middle East. We share both common 
strategic interests and the values of open democratic 
societies. Our militaries train together and learn from one 
another. We share critical intelligence to counter terrorist 
threats, and our economic ties continue to grow.
    The United States has an unwavering commitment to Israel's 
security and to ensuring Israel's qualitative military edge. 
With Congress' support, we have provided full funding for 
Israel's foreign military financing under the terms of the 10-
year memorandum of understanding and helped achieve tangible 
success in the development of missile defense technologies such 
as Arrow and Iron Dome, and we have seen dramatic evidence of 
that success, Mr. Chairman, as you mentioned recently with the 
Iron Dome system. We conduct joint exercises and maintain very 
close, high-level consultations between our civilian and 
military leaders.
    We coordinate closely with Israel also on the threat posed 
by Iran. President Obama is determined to prevent Iran from 
acquiring a nuclear weapon. Israel is a key partner in that 
effort, supporting the strong sanctions contained in the U.N. 
Security Council resolution 1929 and the Comprehensive Iran 
Sanctions, Accountability, and Divestment Act, and we maintain 
extremely close consultations with Israel at all times on the 
nature of this threat.
    We firmly reject all attempts to delegitimize Israel. We 
consistently oppose anti-Israel resolutions in all U.N. bodies. 
We withdrew from the Durban Review Conference in 2009, and we 
supported Israel's right to defend itself in the wake of the 
deeply flawed Goldstone Report.
    We also continue to seek a comprehensive peace between 
Israel and all its neighbors. President Obama believes that a 
two-state solution to the Israeli-Palestinian conflict is 
essential to safeguarding Israel's future as a secure Jewish 
democratic state, as well as to achieving the Palestinian 
people's legitimate aspirations for independence in a viable 
state of their own. It is also profoundly in the United States 
own interests. We also believe that direct negotiations are the 
only way to achieve this goal, and we oppose unilateral actions 
by any party that would prejudice the outcome of a negotiated 
settlement.
    Mr. Chairman, if confirmed by the Senate, I look forward to 
strengthening and deepening the excellent cooperation between 
the United States and Israel.
    Thank you very much. I will be pleased to answer any 
questions you and the committee may have.
    [The prepared statement of Mr. Shapiro follows:]

             Prepared Statement of Daniel Benjamin Shapiro

    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for the opportunity to appear before you. I am humbled and honored by 
the trust President Obama and Secretary of State Clinton have placed in 
me with the nomination to serve as United States Ambassador to Israel. 
If confirmed, I will do my utmost to meet that trust and responsibility 
and to promote the interests of the United States.
    I am truly honored by the opportunity to appear before this 
committee today. I have spent hundreds of hours in this room, but this 
is my first time in this seat. For more than a decade, I worked for 
Senator Feinstein and Senator Nelson, and sat on the staff benches 
behind the dais. From that experience, I have a deep appreciation for 
the vital role that this committee plays in the conduct and oversight 
of our Nation's foreign policy. If confirmed, I look forward to close 
cooperation and consultation with the members and staff of this 
committee and with the Congress as we pursue our shared commitment to 
strengthening our close and unbreakable relationship with the State of 
Israel.
    I am grateful to Senator Nelson for his introduction, and for his 
support and guidance over the past decade. I owe much of my 
professional development to the opportunities he gave me. And I thank 
Senator Lieberman, with whom I have worked closely on our shared 
commitment to the closest of United States-Israel relations. I am 
grateful to him for coming here today and for his support and 
introduction.
    Mr. Chairman, my own interaction with Israel has taken many forms 
over the years, each of which has helped me gain a greater appreciation 
of the unique experience and perspective of the Israeli people. I first 
went to Israel at the age of 4. My parents, who were academics, took 
our family there for a 6-month sabbatical. It was 1973, and I was there 
during the Yom Kippur war. There were air raid sirens, followed by 
hours spent in bomb shelters. I saw soldiers driving through the 
streets on their way to the front. This was very different from my life 
in Illinois, where we never experienced such visible and vivid threats 
to our security and way of life. I remember, at the same time, our 
family enjoying many examples of the warmth and generosity of the 
Israeli people, from the Israeli schools my siblings and I attended to 
long hours spent together with other families in our Jerusalem 
neighborhood.
    I returned to Israel after high school and again during college. In 
1988, as the country was reeling from the violence of the first 
intifada, rocks rained down on the bus I took to Hebrew University and 
my Israeli classmates intensely debated the meaning of these events for 
their country's future.
    As a congressional staffer, I traveled to Israel as the hopes born 
of the Oslo Accords made peace seem within reach, celebrated the 
signing of the peace treaty with Jordan, mourned the assassination of 
Yitzhak Rabin days after he had returned to Israel from Washington, and 
worked to address the threats posed to our nations by Hamas and 
Hezbollah.
    As my professional involvement with Israel has deepened, so too has 
my understanding of Israel's security needs and its people's 
justifiable concerns about Iran's nuclear weapons program, suicide 
bombers, missile attacks from Hamas and Hezbollah, and the ongoing 
efforts of some to delegitimize the Jewish state. But I have also grown 
more keenly aware of Israel's deep-rooted strengths and its people's 
dreams--manifested in the building of a modern state, the flowering of 
Jewish culture and democracy, the Start-up Nation, and the unrelenting 
search for peace.
    The United States has stood by Israel as its partner and ally from 
the first minutes of its creation, and I have been proud to serve 
President Obama as he has continued, deepened, and advanced that 
relationship.
    In a region beset by wars, terror, and autocracy, and in which we 
have much at stake, Israel has been our most dependable ally. Our 
militaries train together and learn from one another. We share critical 
intelligence to counter the threats of terrorist organizations that 
target the United States and the West, as well as Israel. Our economies 
have grown progressively more intertwined, particularly in the high-
tech and renewable energy sectors. And, perhaps most importantly, we 
share the fundamental tenets of open and democratic societies.
    The United States security relationship with Israel has 
strengthened and deepened under President Obama. Our commitment to 
ensuring Israel's Qualitative Military Edge is reflected in our 
security assistance, joint exercises, and an extraordinarily close 
level of consultation and cooperation at the highest levels of our 
civilian and military leaderships. The Congress is our partner in this 
commitment, fulfilling the President's request to fully fund Israel's 
Foreign Military Financing even in tight budgetary times.
    As a candidate, President Obama went to Sderot and saw a community 
damaged by rockets and people living in fear of the next attack. As 
President, he acted to see that Israeli defenses were significantly 
strengthened. With Congress' full support, there has been tangible and 
important success in the joint development of missile defense 
technologies. The Arrow missile defense program provides Israel with a 
significant strategic missile defense capability. More recently, the 
Iron Dome short-range missile defense system successfully intercepted 
several rockets fired from Gaza last month. The additional $205 million 
the President requested and Congress provided for this program will 
help produce and deploy additional Iron Dome batteries to protect 
Israeli civilian lives in northern and southern Israel. If confirmed, I 
will work to provide continued support for United States-Israeli 
missile defense cooperation.
    Our security relationship also encompasses close coordination on 
the threat posed by Iran's nuclear program. President Obama is 
determined to prevent Iran from acquiring a nuclear weapon, and has 
dramatically ramped up pressure on Iran, passing in the U.N. Security 
Council the most sweeping and biting international sanctions ever 
enacted to increase Iran's isolation and cut off sources of funds and 
resources to advance their missile and nuclear programs. Israel is a 
key partner in that effort, supporting the strong sanctions contained 
in U.N. Security Council Resolution 1929 and the Comprehensive Iran 
Sanctions, Accountability, and Divestment Act. If confirmed, I will 
seek to intensify our regular consultations, in which we share 
assessments and exchange ideas on ways to increase international 
pressure on Iran.
    Defending Israel's security also means fighting attempts to 
delegitimize Israel. The Obama administration's record is one of 
unshakeable opposition to this campaign. We've been steadfast in our 
opposition to anti-Israel resolutions in the U.N. Human Rights Council, 
the General Assembly, the Security Council and other U.N. bodies; we 
withdrew from the Durban Review Conference in 2009; and we've supported 
Israel's right to defend itself in consideration of the deeply flawed 
Goldstone report.
    Our agenda with Israel in these international fora is not purely 
defensive--we are working to ensure that Israel receives full and equal 
treatment in all international organizations. Israel has much to offer 
the world, and the United Nations and other international organizations 
would benefit from Israeli capabilities and expertise. If confirmed, 
one of my goals will be to work with the Israeli Government to identify 
further opportunities for Israeli participation in the international 
civil service, across the U.N. system, and in the governance of the 
bodies they serve.
    Economic ties between the United States and Israel are also at 
their highest levels ever. As Silicon Valley taps into the amazing 
Israeli high-tech talent pool and startup culture, we see an 
astonishing $32.3 billion in bilateral trade, despite the global 
economic slowdown. The Department of Energy and the Government of 
Israel have just renewed the bilateral Agreement that frames our joint 
research program on alternative energy, which promises to further 
enhance our ties in technology cooperation. If confirmed, I will work 
hard to expand these successes in areas such as energy production, 
green technologies, and defense and aerospace technologies.
    No commitment to Israel's security is complete without absolute 
dedication to achieving a comprehensive peace between Israel and all 
its neighbors. The peace agreements with Egypt and Jordan, which have 
brought so much stability to the region, are vital and must be 
protected and strengthened. The Obama administration believes that a 
two-state solution to the Israeli-Palestinian conflict is essential to 
safeguarding Israel's future as a secure, Jewish, democratic state, as 
well as achieving the Palestinian people's legitimate aspirations for 
independence in a viable state of their own. It is also fundamentally 
in the United States own interest.
    We have been consistent and clear in our call for direct 
negotiations as the only way to achieve this goal, and we have 
consistently opposed unilateral actions by either side that would 
prejudice a negotiated settlement.
    We are closely following developments regarding the announced 
agreement between Fatah and Hamas. Many of the details remain unclear, 
and its implementation is uncertain. What is clear, however, is that 
Hamas is a terrorist organization which targets civilians and calls for 
the destruction of Israel. To play a constructive role in achieving 
peace, any Palestinian Government that emerges must renounce violence, 
abide by past agreements, and recognize Israel's right to exist. As we 
have said many times, the United States strongly supports Palestinian 
reconciliation, but it must be on terms that support the cause of 
peace.
    Mr. Chairman, it has been a deep honor to be part of President 
Obama's team working on these complex and critically important issues. 
If confirmed by the Senate to be the United States Ambassador to 
Israel, I will work to the best of my abilities to further strengthen 
and deepen the excellent cooperation and communication that already 
exists between our nations, as we work together toward a more peaceful, 
stable, democratic, and prosperous Middle East.
    Thank you for your attention, and I would be pleased to answer any 
questions you may have.

    Senator Casey. Thanks very much.
    Mr. Jones.

 STATEMENT OF STUART E. JONES, OF VIRGINIA, A CAREER MEMBER OF 
             THE SENIOR FOREIGN SERVICE, CLASS OF 
 MINISTER-COUNSELOR, TO BE AMBASSADOR TO THE HASHEMITE KINGDOM 
                           OF JORDAN

    Mr. Jones. Thank you, Mr. Chairman, and thank you, Senator 
Risch, and thank you, Senator Lee, for being here.
    It is an honor to appear before you today as President 
Obama's nominee to serve as Ambassador to Jordan. I am grateful 
to the President for this nomination and to Secretary Clinton 
for her confidence in me and for her leadership of the 
Department of State. If confirmed, I will do my best to live up 
to their trust and to work as closely as possible with this 
committee to advance United States goals in Jordan.
    With your permission, Mr. Chairman, I would like to 
introduce my family. My wife, Barbara, is here, a former 
Foreign Service officer, and my two sons, Thaddeus and Woody, 
are here. My daughter, Dorothy, is unable to join us because of 
school obligations. I am grateful for their support, especially 
during this year while I have served as Deputy Chief of Mission 
at the Embassy in Baghdad.
    Mr. Chairman, Jordan, as you said, is one of our closest 
partners in the Arab world. We share mutual interests and 
values. It is well known that Jordan has been a powerful agent 
for peace in the region, as one of only two Arab States to sign 
a peace treaty with Israel. Jordan is committed to a 
comprehensive peace in the Middle East and to a two-state 
solution. Jordan has also been a valued partner on Iraq. It 
accepted hundreds of thousands of refugees and hosted them with 
dignity, opening its schools and its hospitals, and 
collaborating with the international community in providing 
humanitarian aid.
    In this Arab Spring, as other countries have faltered, 
Jordan has undertaken important reforms. King Abdullah is a 
leader who has long listened to his people. In November 2010, 
Jordan held free and fair elections under procedures that met 
international standards. In February, we welcomed the new 
Jordanian Government with an ambitious mandate for political 
reform.
    We support the King's and the government's efforts to 
respond to the aspirations of Jordan's citizens. Our efforts 
include working with Jordanian Government institutions and 
civil society to expand citizen participation in the country's 
political and economic systems, strengthen independent media, 
strengthen the judicial system and the rights of women and 
laborers, and increase religious tolerance.
    Our economic assistance programs are aimed at addressing 
structural challenges in the Jordanian economy. Our security 
assistance also strengthens Jordan's capabilities to support 
and contribute to Middle East peace efforts, international 
peacekeeping operations, counterterrorism efforts, and 
humanitarian assistance within the region. If confirmed, I will 
work with the Jordanian Government and people to ensure that 
all of our assistance advances a sustained and comprehensive 
partnership and to ensure that these programs create genuine 
benefits in the lives of the people of Jordan.
    We have a large Embassy in Amman. I care deeply about the 
welfare and security of our personnel, American and Jordanian. 
If confirmed, I will also dedicate myself to ensuring efficient 
and cost effective stewardship of our programs.
    I appreciate and value this committee's oversight of our 
mission in Jordan. If confirmed, I look forward to welcoming 
this committee's members and staff to Amman. Your presence and 
interest are a vital element in ensuring that we remain 
successfully engaged with the government and people of Jordan.
    Mr. Chairman and members of the committee, again thank you 
for this opportunity. It is an honor to be here. Thank you.
    [The prepared statement of Mr. Jones follows:]

                 Prepared Statement of Stuart E. Jones

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as President Obama's nominee to serve as Ambassador to 
Jordan. I am grateful to the President for his nomination and to 
Secretary Clinton for her confidence in me and for her leadership of 
our Department. If confirmed, I will do my best to live up to their 
trust and to work as closely as possible with this committee to advance 
U.S. goals in Jordan. I will also build on the excellent work of my 
predecessor and friend, Ambassador Steve Beecroft, to deepen our 
partnership with the government and people of Jordan.
    With your permission, Mr. Chairman, I would like to introduce my 
family. My wife, Barbara, a former Foreign Service officer, and my two 
sons, Thaddeus and Woody, are here today. My daughter, Dorothy, is 
unable to join us because of school obligations. I am grateful for 
their support, especially during this year while I have served as 
Deputy Chief of Mission at our Embassy in Baghdad.
    Mr. Chairman, Jordan is one of our closest partners in the Arab 
world. We share mutual interests and values. It is well known that 
Jordan has been a powerful agent for peace in the region. As one of 
only two Arab States to sign a peace treaty with Israel, Jordan is 
committed to the achievement of comprehensive peace in the Middle East 
and to a two-state solution to the Israeli-Palestinian conflict. Jordan 
has also been a valued partner on Iraq. It accepted hundreds of 
thousands of refugees and hosted them with dignity, opening its schools 
and hospitals and collaborating with the international community in 
providing humanitarian aid. The Jordanian Prime Minister was the first 
high-level visitor to Baghdad after Iraq's new government was formed in 
January.
    As other countries have faltered, Jordan has undertaken important 
reforms. King Abdullah is a leader who has long listened to his people. 
In November 2010, Jordan held free and fair elections under procedures 
that met international standards according to both international and 
domestic election observers. In February, we welcomed a new Jordanian 
Government with an ambitious mandate for political reform. The King has 
also established a National Dialogue Commission with a
3-month timeline to enact electoral and political party reform.
    We support the King's and the government's efforts to implement a 
reform agenda that responds to the aspirations of Jordan's citizens. 
Our efforts include working with Jordanian Government institutions and 
with Jordanian civil society to expand citizen participation in the 
country's political and economic systems; strengthen independent media, 
the judicial system, and the rights of women and laborers; and increase 
religious tolerance.
    Our economic assistance programs are also aimed at addressing 
structural challenges in the Jordanian economy. Jordan is one of the 
most water-starved nations in the world. The Millennium Challenge 
Corporation is funding a 5-year program on water management in Zarqa 
which we hope will provide a template for water management throughout 
the nation. Jordan has also been impacted by rising energy costs; we 
are now engaging the Government of Jordan to promote energy efficiency 
and explore the potential for shale gas production. These are just two 
examples of our extensive programs in Jordan. Assistance also 
strengthens Jordan's capabilities to support and contribute to Middle 
East peace efforts, international peacekeeping operations, 
counterterrorism efforts, and humanitarian assistance within the 
region.
    If confirmed, I will work with the Jordanian Government and people 
to ensure that all of our assistance effectively and efficiently 
advances a sustained and comprehensive partnership and to ensure that 
these programs create genuine benefits in the lives of the people of 
Jordan.
    We have a large Embassy in Amman. I care deeply about the welfare 
and security of our personnel--American and Jordanian. If confirmed, I 
will also dedicate myself to ensuring efficient and cost-effective 
stewardship of our programs.
    I appreciate and value this committee's oversight of our mission in 
Jordan. If confirmed, I look forward to welcoming the committee's 
members and staff to Amman. Your presence and interest are a vital 
element in ensuring that we remain productively and successfully 
engaged with the government and people of Jordan.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to address the committee. I would be pleased to respond to 
any questions you may have.

    Senator Casey. Mr. Jones, thanks very much. I should have 
provided the opportunity to introduce your family. If they 
would like to stand. I want to make sure that we give them that 
opportunity.
    Mr. Jones. Thank you.
    Senator Casey. Thank you very much.
    I would reiterate what I said before about a family serving 
with you in public service. We appreciate not only their 
presence here but also the work that they do to make it 
possible for you to serve.
    Mr. Jones. Thank you.
    Senator Casey. And we commend both of you for your 
willingness to serve.
    I will start the first round of questions. I wanted to 
start, Mr. Shapiro, with a rather difficult topic related to 
what has been happening just in the last couple of days and 
weeks: the decision of the Palestinian Authority to form a 
unity government with Hamas. We are aware of all of the 
difficulties and concerns that that presents. As you know, and 
as most Americans I think have a sense of, we have always, and 
I think the international community has always said, that the 
only way that Hamas could be a legitimate partner in any effort 
is if they do at least three things: that they recognize Israel 
and renounce violence and agree to abide by the previous 
obligations and agreements of the Palestinian Authority. They 
have not done that yet.
    And I have profound and deep concerns about what is 
happening, and I wanted to get your sense of what our policy is 
or what it should be going forward, making sure that we are 
adhering to those conditions that we have always insisted upon 
as it relates to Hamas, which is a terrorist organization.
    Mr. Shapiro. Thank you, Mr. Chairman.
    There is no question that we in the administration share 
many of the concerns that you have just articulated, and I know 
many of your colleagues share as well, about the reconciliation 
agreement that was announced and signed this morning in Cairo. 
We are closely following this in part because we need to learn 
more about it. There are many details that are as yet unknown 
about this agreement. There are ambiguities in the language of 
it. There are deep uncertainties about its prospects for 
implementation. And so we will be following that very closely 
and staying in close touch with the Congress and also 
maintaining, as we always do, very close consultations with our 
colleagues and our partners in the Israeli Government to ensure 
that we have the closest possible common understanding of the 
meaning of these events.
    We share the characterization that you provided of Hamas. 
Hamas is a terrorist organization that calls for Israel's 
destruction and that directs violence against civilians. We 
have no disagreement about that whatsoever.
    Now, Palestinian reconciliation ultimately is a desirable 
goal, but it must take place on terms that support peace, and I 
think you have articulated them well. Only a Palestinian 
Government that recognizes Israel and renounces violence and 
abides by previous agreements between the PLO and Israel can 
really be a true partner for peace.
    So those are the considerations. We will be watching very 
closely as we gain further understanding and facts about the 
agreement that was announced.
    Senator Casey. Well, I just want to reiterate what I know 
to be a bipartisan consensus, as you know, on that issue and 
want to remind--I am not saying it is necessary--but I want to 
remind 
the administration of that commitment that we have to Israel's 
security.
    I have made a number of trips to the region. When I was in 
Israel in July 2010, I had the chance to tour part of Sderot, a 
community, among others, that has been assaulted for many 
years, to actually see the shrapnel and the results of the 
rockets that have landed there, to the point where children, as 
you know--and again, you know better than I, but it bears 
repeating--couldn't play in playgrounds. They literally built, 
as many people here know, a bomb-fortified indoor playground. 
So something as simple as playing in a community playground is 
virtually impossible, at least at various periods in recent 
history, because of those rockets. There have been thousands 
and thousands that have landed as a result of the violence 
perpetrated by Hamas.
    I note that Hamas' leader--this is timely and I think it is 
important for the record--his response to the killing of Osama 
bin Laden referred to the assassination of an Arab holy 
warrior. I do not know what more we can say about the threat 
that Hamas poses to Israel and to the region.
    So let me move to at least one more question before I turn 
to our ranking member, Senator Risch.
    A lot of us have worked long and hard on making sure that 
we do everything possible to hold the Iranian regime in check, 
especially as it relates to the potential nuclear capability, 
but also to the ever-present and ongoing threat that is posed 
by the Iranian regime's support for extremists and terrorist 
organizations in the region, not the least of which are Hamas 
and Hezbollah. I spent some time last summer in Beirut, and you 
do not have to be on the ground in that country very long 
before you feel the overwhelming sense of the power of 
Hezbollah in Lebanon, not to mention the impact it has on the 
region as a terrorist organization.
    But because of that support that the Iranian regime has 
provided, we need to be determined and even more determined, I 
think, than we have been to make sure that the sanctions we 
have applied to the regime work. We are getting some results 
from that, but frankly not enough, and we need to consider 
tightening up or increasing the sanctions in my judgment.
    I wanted to get your thoughts on that in terms of the 
impact as you see it of those sanctions and what other steps we 
can take to hold the Iranian regime in check.
    Mr. Shapiro. Mr. Chairman, we share the concern and the 
assessment about the threat posed by Iran not just to Israel, 
but to the region--and of course, the threat is very real. It 
is articulated openly by the President of Iran who calls for 
Israel's destruction. It is a threat to the United States and 
it is a threat to our allies and our interests and, indeed, 
international stability throughout the region. It is posed both 
by Iran's pursuit of nuclear weapons and by its support for 
terrorist organizations like Hezbollah and like Hamas which it 
attempts to arm.
    As I said, President Obama is determined to prevent Iran 
from acquiring a nuclear weapon, and the sanctions enacted by 
the U.N. Security Council resolution, additional measures 
coordinated and taken by the European Union and a number of our 
other partners, and the sanctions passed by this Congress have 
all created several layers of economic sanctions against Iran 
that have had a real impact and that has made Iran struggle in 
ways economically that it has not previously done and begin to 
feel the pain of the result of its continued pursuit of these 
policies.
    Now, obviously, we will look for additional measures that 
may be available to tighten those sanctions. We are in close 
consultations with a number of international partners about 
ways that can be done, whether it is countries acting on their 
own or in concert. It is something that my colleagues at the 
State Department will remain in close consultation with this 
committee about, but I can assure you it has our full and 
undivided attention.
    Senator Casey. Thank you.
    Mr. Jones, I will get to you in the next round, but Senator 
Risch.
    Senator Risch. Thank you very much.
    Mr. Shapiro, when you travel over there, you cannot help 
but be struck by the difference between what is happening in 
the West Bank and what is happening in Gaza. So I guess this 
new reconciliation pact raises the question in my mind--and I 
would like your personal view on this. With that reconciliation 
or whatever it turns out to be, is the population going to move 
more toward what is happening in the West Bank or is the West 
Bank going to move more backward toward what is happening in 
Gaza? What is your personal view on that?
    Mr. Shapiro. Well, Senator Risch, I think it is hard to 
judge exactly how public opinion will react to this agreement. 
I would say there is strong support among Palestinians for 
reconciliation, and I think that was a driving factor in this 
agreement being reached at this time.
    We agree with you. There have been tremendous gains made in 
the West Bank through an improved economy that is growing 
rapidly through improved security that is carried out both by 
the Israeli forces and by the Palestinian security forces and 
an improved governance under the reforms initiated by Prime 
Minister Salam Fayyad. So there is much progress that has been 
made, and it is in our interest, as well as Israel's interest 
and the Palestinians' interest, that it be sustained.
    That will certainly be a priority for us as we again 
evaluate the details of this agreement that has been announced 
and assess its prospects for implementation. We are very 
mindful of that progress and want to see it sustained.
    Senator Risch. You didn't really get to your personal view 
as to what you think is going to happen, but if you had to 
guess, what direction are they going to slide?
    Mr. Shapiro. Senator, it is very hard not being on the 
ground to get a sense of the reaction. I think at least within 
the West Bank we have seen Palestinians appreciating the kinds 
of changes that they have experienced in their lives in the way 
I have just described. They certainly have other aspirations as 
well, as I mentioned, for statehood and for reconciliation. But 
I think we would certainly hope the Palestinians would try to 
support a government that would allow that progress to be 
sustained, and that is what we will be working toward.
    Senator Risch. One cannot help but think that those that 
live in Gaza have to look across and see what is happening in 
the West Bank and say, look, what they are doing is working and 
what we are doing is not working, how can we move more in that 
direction. One would hope that that is the thought process that 
an intelligent person would pursue.
    Mr. Jones, your view, please if you would, about the 
instability in Syria and how that potential is affecting or 
could potentially affect things on the ground in Jordan.
    Mr. Jones. Thank you, Senator.
    I think all of us are watching developments in Syria with 
real concern. People of Syria are demonstrating their 
frustration and their lack of satisfaction with the Government 
in Syria, and the response of the Assad regime has been 
extremely brutal. It is a source of concern from a humanitarian 
standpoint and, as you said, from a political standpoint.
    I think that the situation in Jordan is quite distinct. The 
King has long listened to his people, as I said in my 
statement. He had already put in place a series of reforms to 
address people's concerns, and for the relatively minor 
demonstrations that we have seen in Jordan, there has been a 
completely different relationship between the people and the 
security forces where you see Jordanian security forces 
actually providing water and juice to the demonstrators.
    Any instability in the region, of course, is a cause for 
concern and this is something we are going to have to continue 
to watch. But I think certainly our continued support for 
Jordan will be essential through this period.
    Senator Risch. I appreciate that.
    Back to you, Mr. Shapiro. You are at least modestly an 
expert on Syria. Do you agree with that assessment? We all 
understand the difference between the two governments, but do 
you agree with the assessment that that will carry the day?
    Mr. Shapiro. I do. I do, sir.
    Senator Risch. Thank you. Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Risch.
    Senator Lee.
    Senator Lee. Thank you both for coming to join us today, 
and thank you for your willingness to serve your country.
    Mr. Shapiro, I want to echo the comments that have been 
made by my colleagues, and I will echo what Senator Casey was 
saying a minute ago. I have visited that same village, Sderot, 
and visited the same playground. On the outskirts of that city, 
I visited this little lookout point where you could look out 
and see into Gaza. I have it on good authority that within 
about 72 hours after I visited that lookout spot, it was 
destroyed by rockets coming over from Gaza. So I am very 
sympathetic to the security risks that Israeli citizens face 
every single day and my heart goes out to them. I hope that we 
can be a support to Israel as we acknowledge that they are in a 
very vulnerable position and do everything we can to help them 
maintain defensible, secure borders.
    In light of the involvement of Hamas and the Palestinian 
Organization, is that something that has caused you to consider 
whether we should withhold United States funding to the 
Palestinian Organization until such time as it clearly and 
thoroughly disassociates itself from Hamas?
    Mr. Shapiro. Well, Senator, as I stated earlier, there are 
a lot of details about this agreement that has been announced 
that are still rather obscure, and many of them may not become 
clear until it is implemented or attempted to be implemented. 
And those details, I think, will bear very much on the question 
that you have raised about assistance. There are clear laws 
regarding our Palestinian assistance program. I can assure you 
that the administration will remain in full compliance with 
those laws, and I have already articulated the kinds of 
conditions that we think represent a Palestinian Authority that 
is committed to peace. So we will, obviously, be considering 
that question, but it requires a much greater and better 
understanding of an agreement that has not yet begun to be 
implemented.
    Senator Lee. Sure, but there does come a point at which we 
turn that off. Do we not?
    Mr. Shapiro. Well, the law is very clear. There are 
circumstances under which we would not be able to provide 
assistance to the Palestinian Authority.
    Senator Lee. And so notwithstanding the fact that there is 
sometimes wiggle room--particularly in laws relating to foreign 
relations, there is sometimes wiggle room--you stand by the 
proposition that the law does have limits. This is a law. This 
is not just an aspirational statement.
    Mr. Shapiro. Yes, I agree with that.
    Senator Lee. I appreciate a statement made recently by 
Israel's Prime Minister, Benjamin Netanyahu, who said it is 
clear that an Egypt that is anchored in democratic values would 
never be a threat to peace, particularly a threat to peace in 
Israel. I hope that he is right. Do you agree with his 
assessment?
    Mr. Shapiro. Well, we certainly support the transition that 
is underway in Egypt and believe it represents an incredible 
opportunity for the Egyptian people to experience the kind of 
self-rule and democracy and the realization of those 
aspirations. We think it is absolutely critical that Egypt 
remain, as it goes through that transition, the responsible 
regional leader that it has been, and a big component of that 
is the peace treaty between Israel and Egypt which has been not 
only so important to Israel's security but really an anchor of 
regional stability and key to our own interests. So we have 
been very pleased that the Egyptian transitional government has 
repeated its commitment to all of Egypt's international 
obligations, including that treaty, and we would certainly have 
the expectation that any Egyptian Government would live up to 
those obligations and maintain the treaty.
    Senator Lee. Thank you very much. Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Lee.
    Mr. Jones, I wanted to get back to you. I meant to do that 
in the first round and I ate up all my time and actually took 
more time. So I owe the committee a minute and 22 seconds or 
something like that.
    You have been asked before and your answers, as well as 
your statement, acknowledge the challenge in the region and the 
impact on Jordan and obviously the reaction by King Abdullah, 
as well as Jordanian leaders other than he, have been of marked 
contrast to what we have seen in other places in the region.
    I wanted to develop that a little further in the sense that 
we know that in this fight against terrorism we have had to 
develop new relationships and even stronger relationships. I 
think it can be said without contradiction that Jordan has been 
a strong counterterrorism partner. We appreciate that probably 
even more so in the last couple of days. We know that that 
fight has been and will continue to be against Islamist groups 
in the Middle East.
    We also know that even as Jordan is a strong 
counterterrorism partner, its peace treaty with Israel has also 
played an important role in the Middle East as well.
    But given the unrest in the region and given the increasing 
influence of terrorist organizations that I mentioned before 
like Hamas and Hezbollah, what measures should the United 
States take to support King Abdullah's reform efforts 
especially at this time?
    Mr. Jones. Thank you, Senator. Thank you, Chairman.
    As you know, the United States is an important provider of 
assistance to Jordan, both economic support funds and foreign 
military financing. The economic support funds I think can play 
a vital role in terms of helping grow the economy, helping it 
address some of its structural challenges. Jordan is an 
importer. It imports 96 percent of its fuel. We are involved in 
helping Jordan look for alternative fuel sources and look at 
nontraditional fuels.
    We are also helping them address their water problem. 
Jordan is one of the most water-starved countries in the world, 
and through the Millennium Challenge Corporation, we have just 
issued a $275 million grant over 5 years to work with the 
community of Zarqa to develop water management techniques that 
we hope will be a model for the rest of the country.
    So I think at this level, helping communities, helping 
create prosperity--that is a very important way to help combat 
terrorism.
    Of course, the security side is also very important. Jordan 
has been an outstanding partner with us in the struggle against 
terrorism, and at all levels we should continue the work that 
we are doing with them, supporting their efforts and working 
closely with them as a partner.
    Senator Casey. I know we are almost ready to wrap up 
because we are going to move to our second panel, and we have 
had almost 50 minutes so far. So I do want to wrap up.
    Senator Risch, do you have any questions?
    Senator Risch. No. I am going to pass. Thank you very much, 
Mr. Chairman. I appreciate it.
    Senator Casey. I would thank our ranking member for being 
here.
    After we move to our second panel, we may have to adjourn 
briefly because of a potential vote, but that is not certain 
yet.
    I do, as well, want to offer each of you the opportunity to 
make any closing statement or any point that you want to 
emphasize that we did not ask about or something you did not 
have a chance to cover--not that we encourage closing 
statements, but if you really feel the need to say something 
else.
    Mr. Shapiro. No, thank you, Mr. Chairman.
    Senator Casey. Thank you very much.
    Mr. Jones. Thank you, Mr. Chairman. It is an honor to be 
here.
    Senator Casey. I do want to mention, which I should have 
earlier, that Mr. Jones, I am told you are a Pennsylvania 
native. That is what the record shows. You grew up in, and your 
mother still lives in, Lafayette Hill, PA?
    Mr. Jones. Correct.
    Senator Casey. I want you to know that that will not have 
any impact on your confirmation. [Laughter.]
    But it is possible it will have some impact on me.
    Thank you very much to both of you and we will move to our 
second panel.
    What I will do, as we are changing seats, so to speak, is I 
will begin a statement so that we can keep the hearing moving.
    We have two more nominees today and I wanted to start with 
our nominee for Uzbekistan. As many people in this audience 
know, Uzbekistan is an important partner in the Northern 
Distribution Network which is a major strategic priority for 
the United States war in Afghanistan. The airbase in Uzbekistan 
provides a vital supply route for the United States and NATO 
efforts to defeat al-Qaeda and its allies in Afghanistan and 
western Pakistan. The Uzbek Government also cooperates with 
United States security forces on counterterrorism and drug 
trafficking, two serious international threats.
    The United States, however, must balance our strategic 
interests in Uzbekistan with the need to hold the government 
accountable for serious human rights abuses, including the use 
of force to oppress its own citizens as demonstrated by the 
massacre in Andijan in the year 2005. According to the State 
Department's 2010 Human Rights Report, the Uzbek Government 
continues to commit serious human rights violations, including 
arbitrary arrests and detention, restrictions on freedom of 
speech and assembly, and forced child labor in the cotton 
industry.
    I would like to especially acknowledge Senator Harkin's 
efforts to expose child labor in Uzbekistan, which remains of 
critical concern.
    I look forward to hearing how Mr. George Krol will 
encourage the Uzbek Government to abide by its international 
human rights commitments while maintaining our important 
security cooperation.
    Ambassador Krol is Deputy Assistant Secretary of State for 
South and Central Asian Affairs. He has served as United States 
Ambassador to Belarus from 2003 to 2006 and has served in 
several other challenging posts in Poland, India, Russia, and 
Ukraine. I am confident that his broad knowledge and experience 
working in the former Soviet Union will serve him well in this 
post if confirmed.
    Algeria is an important strategic partner of the United 
States in the fight against al-Qaeda-linked groups in north 
Africa, most notably Al Qaeda in the Islamic Mahgreb, so-called 
AQIM. The Algerian Government has taken an active leadership 
role in the African Union's efforts to combat terrorism, and 
the recently announced U.S.-Algeria Bilateral Counterterrorism 
Contact Group will help to expand our existing cooperation to 
ensure greater security, peace, and development in the region.
    Algeria's protest movement has remained limited compared to 
other countries in the region, but economic factors and 
longstanding political grievances have contributed to a series 
of strikes and demonstrations.
    Algeria's decision in February to lift the 1992 state of 
emergency law was a welcomed step, but more needs to be done to 
address the human rights concerns such as freedom of assembly 
and association, prisoner abuse, and violence against women.
    I look forward to hearing from Henry Ensher about how the 
United States can work with the Algerian Government to promote 
further democratic reforms while also strengthening our 
security relationship.
    Mr. Ensher is currently serving as adviser to the Office of 
Afghanistan Affairs. He recently returned from southern 
Afghanistan where he served as Senior U.S. Civilian 
Representative. He has also served in our Embassies in Algeria, 
Saudi Arabia, Oman, Syria, Israel, Iraq, and was the Director 
of Political Affairs for Iraq in the State Department's Bureau 
of Near Eastern Affairs in 2006. That is a mouthful.
    I would also like to welcome Mr. Ensher's wife, Mona, and 
two sons, Henry and Tariq, who are here with us today. And if 
they do not mind, we offer the chance, but we would love to 
have them stand up and be acknowledged. Thank you for being 
here today and thank you for your support for what I know is a 
family commitment to public service.
    Mr. Krol, would you like to start? Thank you.

 STATEMENT OF HON. GEORGE ALBERT KROL, OF NEW JERSEY, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
   COUNSELOR, TO BE AMBASSADOR TO THE REPUBLIC OF UZBEKISTAN

    Ambassador Krol. Thank you, Mr. Chairman, Senator Risch.
    I am honored to appear before you today as President 
Obama's nominee to become Ambassador to Uzbekistan, and I am 
grateful for the trust and confidence the President and 
Secretary Clinton have placed in me with this nomination.
    Unfortunately, my family is not here today. My wife is 
serving our Nation abroad, but she and I think my family are 
watching on the Webcast. So I say hello to them. You can stand 
up. Right? [Laughter.]
    Senator Casey. That is permitted. I want to give them a few 
minutes to stand up. [Laughter.]
    Ambassador Krol. Since establishing diplomatic relations 
nearly 20 years ago, the United States has supported 
Uzbekistan's sovereignty and independence and encouraged its 
development as a prosperous, tolerant, internationally 
responsible, and democratic state at peace with its neighbors 
and the world. And those remain our fundamental goals to this 
day.
    Most recently, as Deputy Assistant Secretary of State for 
Central Asia, I came to appreciate firsthand Uzbekistan's 
unique importance to United States foreign policy interests.
    Uzbekistan has provided crucial assistance to its neighbor 
Afghanistan and to international efforts to stabilize the 
situation there. Electricity from Uzbekistan keeps the lights 
on in Kabul. And Uzbekistan is also, as you noted, Mr. 
Chairman, an important part of the Northern Distribution 
Network, a major supply route for coalition forces. And if 
confirmed, I will encourage Uzbekistan to maintain this 
critical support.
    As you also noted, illegal narcotics flows, trafficking in 
persons, terrorism, extremism, and weapons of mass destruction 
proliferation concerns plague Uzbekistan's neighborhood. Over 
recent years, our cooperation with Uzbekistan has grown in 
addressing these transnational challenges through engagement 
and vetted training programs, and if confirmed, I would work to 
strengthen our partnership with Uzbekistan in these areas.
    With the largest population in Central Asia and huge energy 
and mineral resources and its strategic location, Uzbekistan 
has a great economic potential, and if confirmed, I will 
encourage Uzbekistan to take steps to attract United States 
companies to help develop and diversify its economy and to buy 
American goods and services.
    Mr. Chairman, almost 30 years' experience in the Foreign 
Service has taught me that long-term peace and durable 
stability are only possible with respect for human rights, the 
rule of law, transparent and democratic institutions, a vibrant 
civil society, and an open and free media. If confirmed, I will 
engage the government and the people of Uzbekistan fully and 
forthrightly on human rights issues such as preventing 
arbitrary arrests, addressing the allegations of torture and 
mistreatment in prisons, ending forced child labor, and 
allowing the free practice of faiths.
    If confirmed, I will encourage the Government of Uzbekistan 
to increase space for civil society in Uzbekistan and for 
international and domestic nongovernmental organizations to 
register and function freely.
    In 2009, the administration established regular bilateral, 
interagency consultations with Tashkent, and in these high-
level meetings, the full range of bilateral and multilateral 
interests, including political, security, economic, and 
commercial issues, as well as human rights, are discussed 
frankly and comprehensively. And flowing from these 
consultations, an ambitious work plan is being developed to 
make realistic progress in all these areas.
    As Secretary Clinton stressed in Tashkent last December, we 
desire to move from words to actions. And if confirmed, I look 
forward to applying my energy and experience, creativity and 
leadership to constant, consistent engagement that meaningful 
action in these areas demands.
    I know from past ambassadorial experience that being an 
Ambassador is not only an honor but a responsibility, and if 
confirmed, I will endeavor to be a responsible and accountable 
steward of the American people's trust and property, a caring 
leader for the entire embassy community, and a faithful 
representative of our values and word and deed. And I will 
ensure that our mission looks out for the interests of American 
citizens living and traveling in Uzbekistan.
    If confirmed, I will aim not only to develop effective 
relationships with the government but also to get out among the 
people of Uzbekistan and engage all elements of Uzbek society. 
Public diplomacy is a critical element of our work, and I will 
encourage all members of the mission team to be ambassadors to 
the people of Uzbekistan, helping to increase understanding of 
American policies and values. And fostering greater exchanges 
and contacts between our peoples and communities and not just 
between our governments will be a major priority.
    Finally, Mr. Chairman, I know success depends on building 
and leading a strong, dedicated mission team and keeping it 
fully in step with Washington and not only with the executive 
branch but also with Congress, and if confirmed, I will want to 
work closely with Congress, with you and the committee and your 
staff to advance America's goals and interests in Uzbekistan, 
hosting congressional visits and briefing you.
    Thank you, sir, and I look forward to your questions.
    [The prepared statement of Ambassador Krol follows:]

                Prepared Statement of George Albert Krol

    Mr. Chairman and members of the committee,I am honored to appear 
before you today as President Obama's nominee to become U.S. Ambassador 
to the Republic of Uzbekistan. I am grateful for the trust and 
confidence the President and Secretary Clinton have placed in me with 
this nomination. If confirmed, I will work with this committee and the 
entire U.S. Congress to advance America's goals and interests in 
Uzbekistan.
    Since recognizing Uzbekistan and establishing diplomatic relations 
nearly 20 years ago, the United States has supported Uzbekistan's 
sovereignty and independence and encouraged its development as a 
prosperous, tolerant, democratic society and internationally 
responsible state at peace with its neighbors and the world. Those 
remain our fundamental goals to this day.
    Most recently, as Deputy Assistant Secretary of State for Central 
Asia, I came to understand and appreciate the importance of Uzbekistan 
to U.S. foreign policy interests.
    Uzbekistan has provided crucial assistance to its neighbor 
Afghanistan and to coalition efforts to stabilize the security 
situation there. Electricity from Uzbekistan keeps the lights burning 
in Kabul. Uzbekistan is also an important part of the Northern 
Distribution Network, a major supply route for coalition forces. If 
confirmed, I will encourage Uzbekistan to maintain this support.
    Illegal narcotics, trafficking in persons, terrorism and extremism 
plague Uzbekistan's immediate neighborhood. Over the years, U.S. 
cooperation with Uzbekistan has grown in addressing these transnational 
challenges through engagement and vetted training programs. If 
confirmed, I will work to strengthen our partnership with Uzbekistan in 
these areas.
    Uzbekistan has the largest population in Central Asia and also is a 
major producer of energy and minerals. If confirmed, I will encourage 
Uzbekistan to take steps to attract U.S. companies to help develop and 
diversify its economy and to buy American goods and services.
    Almost 30 years experience in the Foreign Service has taught me 
that long-term peace and durable stability are only possible with 
respect for human rights, the rule of law, transparent and democratic 
institutions, a vibrant civil society and an open and free media. If 
confirmed, I will engage the government and people of Uzbekistan fully 
and forthrightly, to increase not only our bilateral security and 
economic engagement, but also our engagement on human rights issues 
such as preventing arbitrary arrests, addressing allegations of torture 
and mistreatment in prisons, ending forced child labor, and allowing 
free practice of faiths.
    If confirmed, I will encourage the government to make space for 
civil society in Uzbekistan and for international and domestic 
nongovernmental organizations to register and function freely. These 
steps can facilitate Uzbekistan achieving its self-declared goal to 
become a prosperous, tolerant, and stable society in full accord with 
its international commitments and rich heritage as a crossroads of 
cultures, education, and human values.
    The Obama administration has established an atmosphere and a 
mechanism of constructive dialogue and trust with the government and 
people of Uzbekistan. In February of this year the second series of 
comprehensive annual bilateral consultations with Uzbekistan were held 
in Tashkent. Secretary Clinton visited Tashkent last December to 
elevate our engagement with Uzbekistan's leadership and civil society. 
In these consultations the full range of bilateral and multilateral 
interests including political, security, economic and commercial 
issues, as well as human rights, are discussed frankly and 
comprehensively.
    An ambitious work plan is being developed to make realistic 
progress in all these areas. Many of these issues are not easy to 
resolve and will require great effort. The United States and, I 
believe, Uzbekistan are committed to this process and to achieving 
results. As Secretary Clinton stressed in Tashkent, we desire to move 
from words to actions. If confirmed, I look forward to applying my 
energy, experience, creativity, leadership and insight to the constant, 
consistent engagement that meaningful action in these areas demands.
    I know from my past ambassadorial experience that being an American 
ambassador is not only a great honor but also a great responsibility. 
If confirmed, I will endeavor to be a good steward of the American 
people's trust and property, a caring leader for my embassy colleagues, 
and a faithful representative of our values and our interests. I will 
ensure that our mission looks out for the interests of American 
citizens living and traveling in Uzbekistan.
    If confirmed, I will aim not only to develop effective 
relationships with the leadership and government authorities, but also 
to get out among the people of Uzbekistan and engage all elements of 
Uzbek society. To me, public diplomacy is a critical element of our 
diplomatic engagement. I will encourage all members of the mission team 
to be ambassadors to the people of Uzbekistan working to increase 
understanding of the United States, our policies and our values. 
Fostering greater exchanges and contacts between our peoples and 
communities, and not just between our governments, will be a major 
priority.
    Finally, I know success depends on my leadership in encouraging and 
supporting a strong, dedicated mission team and keeping it fully 
synchronized with Washington, not only with the executive branch, but 
with the Congress as well. If confirmed, I would look forward to 
continuing an active dialogue with you as we seek to strengthen our 
relations with the people of Uzbekistan.
    Thank you. I look forward to answering your questions.

    Senator Casey. Thank you, Mr. Ambassador. I will also note 
for the record that you were born in Pittsburgh. Is that 
correct?
    Ambassador Krol. Yes, sir.
    Senator Casey. That will have some impact on me. OK.
    Ambassador Krol. And I am a Pirate fan too I have to say. 
[Laughter.]
    Senator Risch. Do we have any Idaho appointees here, Mr. 
Chairman?
    Senator Casey. We are going to work on those. We are going 
to make that part of the next hearing.
    Mr. Ensher, we want to welcome you as well and thank you 
for your commitment to public service. You can provide a 
summary. Both your full statements will be made part of the 
record.

STATEMENT OF HENRY S. ENSHER, OF CALIFORNIA, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
   AMBASSADOR TO THE PEOPLE'S DEMOCRATIC REPUBLIC OF ALGERIA

    Mr. Ensher. This will be just a brief summary, Senator, if 
that is all right with you.
    Senator Casey. Thank you.
    Mr. Ensher. Mr. Chairman, Ranking Member Risch, thank you 
very much for the opportunity to appear before you today. I am 
honored by President Obama's nomination to be U.S. Ambassador 
to Algeria. I deeply appreciate the confidence he and Secretary 
Clinton have shown by making this nomination.
    If confirmed, my No. 1 goal will be to protect all 
Americans living and working in Algeria. I will work to advance 
critical United States foreign policy and national security 
interests in Algeria by using the full range of our diplomatic 
tools to promote security and economic prosperity. Both the 
President and the Secretary have emphasized the importance of 
outreach to civil society in countries of the region, 
especially women's organizations, and if confirmed, doing so 
will be a priority.
    Mr. Chairman, I wanted to thank you very much for 
acknowledging my family, but I feel I would be remiss if I 
didn't add just a couple of words. So with permission, I will 
do that.
    I have been away from the family for much of the last 
several years, 2 years, including time spent in Iraq and 
Afghanistan, and that would not have been possible particularly 
without Mona's unwavering love and support. She has done 
splendidly at home even while she was doing a very important 
job in service to the people of the United States. So I wanted 
to acknowledge that again.
    Thank you, sir, for that.
    [The prepared statement of Mr. Ensher follows:]

                 Prepared Statement of Henry S. Ensher

    Mr. Chairman, Ranking Member Lugar, members of the committee, I 
thank you for the opportunity to appear before you today.
    I am honored by President Obama's nomination of me to be U.S. 
Ambassador to Algeria. I deeply appreciate the confidence President 
Obama and Secretary Clinton have shown by making this nomination. If 
confirmed by the Senate, my No. 1 goal will be to protect the people 
who serve the United States at our mission in Algiers and to protect 
the Americans who live and work in Algeria. I will work to advance 
critical U.S. foreign policy and national security interests in Algeria 
by using the full range of our diplomatic tools to promote security and 
economic prosperity. Both the President and the Secretary have 
emphasized the importance of outreach to civil society in countries of 
the region and, if confirmed, doing so will be a priority.
    With your permission, I would like to introduce my wife, Mona, and 
our two sons, Henry and Tariq. I would not be here today without their 
unwavering love and support. The service to our country in Iraq and 
Afghanistan that have kept me away from them for more than 2 years 
would not have been possible without Mona's steadiness and grace at 
home, even while she excelled at her own very important job.
    The relationship between the United States and Algeria has never 
been stronger. As the third-most populous country in the Arab world, 
Algeria is the largest producer of oil and gas on the African 
Continent, and an important supplier of energy to both the United 
States and Europe. Algeria also plays a critical role on the front 
lines countering violent extremism, and knows firsthand how important 
it is to maintain constant vigilance against those who wish to do us 
harm.
    Like other countries in the region, Algeria has been impacted by 
events of the ``Arab Spring.'' President Bouteflika has recently 
announced important reforms of the Algerian system, and we look forward 
to their early implementation. Algerians will decide any next steps 
they wish to take and, if confirmed, I look forward to developing our 
relations with them as they continue to craft their own destiny.
    Algeria exports nearly 2 million barrels of oil a day. The United 
States is by far Algeria's largest trading partner, accounting for 
nearly a quarter of all hydrocarbon sales. However, when it comes to 
Algeria's imports, the United States doesn't even make it into the top 
five. While maintaining a constant flow of oil is critical, if 
confirmed I will work with American companies to develop Algerian 
partners to help them make use of Algeria's considerable resources for 
their shared benefit.
    Our relationship with Algeria is built on counterterrorism 
cooperation. President Bouteflika was the first Arab leader to call 
President Bush following the attacks on 9/11, which reflected our 
shared view of the dangers posed by terrorism and led to even greater 
cooperation. Algeria's fight against violent extremism in the 1990s 
cost tens of thousands of lives, imposing still more sacrifice on the 
Algerian people, who have such a long history of struggle to win and 
preserve their freedom and sovereignty. Actions of the government 
caused the level of violence to decrease, but Algeria knows as well as 
the United States that violent extremism remains a threat.
    To further improve our bilateral cooperation, we recently kicked 
off a Counterterrorism Contact Group. Additionally, Algeria has taken a 
leading role in international cooperation on counterterrorism, and, if 
confirmed, I will encourage them to continue to do so.
    Algeria has long had a significant role in Middle Eastern and 
African affairs. It is a key player in conflict resolution throughout 
the wider region. It is a leading member state of the Arab League, the 
African Union, and the Organization of the Islamic Conference. It is a 
longstanding member of the Organization of Petroleum Exporting 
Countries and a founding member of the New Economic Partnership for 
African Development. Its mediating role in conflicts in the Sahel will 
remain vital to finding peaceful solutions there. The ``frozen 
conflict'' over Western Sahara cannot be resolved without Algerian 
involvement. Not least, Algeria is literally at the confluence of 
Africa, the Mediterranean, and the Arab world. It would gain from 
increasing trade within the region, and its willingness to lead in this 
area will be critical to realizing long-held dreams of regional 
integration.
    Regarding the Embassy itself, our team has recently moved to a new, 
more secure facility, which is critical to our ability to promote our 
interests in an environment that still has the potential to be 
dangerous to us. To be clear, there has been a lot of improvement in 
our ability to operate freely in Algiers since I served there 11 years 
ago, but some necessary restrictions remain in place. If confirmed, I 
will have no higher priority than the security and safety of the entire 
American community in Algeria. Thank you for this opportunity to 
address you today. I would be pleased to address any questions that you 
may have.

    Senator Casey. Thank you very much and thanks for offering 
that personal note. That is probably not acknowledged enough in 
this city.
    I wanted to start with Algeria and some of the challenges 
we have with our relationship. We know that we are partners in 
counterterrorism and we know that as Ambassador you would have 
the chance and the opportunity to build on what is the newly 
formed U.S.-Algeria Contact Group, the Counterterrorism Contact 
Group. I guess I would ask you first how you see that part of 
our relationship and how you would build on that foundation.
    Mr. Ensher. That is a great word, Senator. There is a 
strong foundation there that goes back some time, even into the 
1990s, and takes into account the fact that the Algerians were 
the first to acknowledge and express condolences after the 
events of 9/11 from the Arab world. Since then, we have engaged 
in a number of activities designed to improve that 
counterterrorism cooperation, of which the recent beginning of 
a contact group is only the latest example.
    Sir, if confirmed, I would expect to intensify those 
relations across the full range of activities, including 
enhanced military cooperation and support for enhanced law 
enforcement cooperation and what can be done by improved 
relations with civil society as well. There are great 
opportunities here and we would look to exploit them fully, 
especially the Algerian desire to be a regional leader in this 
area, and we will look to support that in particular.
    Thank you, sir.
    Senator Casey. I was going to ask you another question that 
relates to what we have seen play out over the last couple of 
months in the region, starting in Tunisia. I was struck by the 
contrast, just having been to the Middle East in July, and with 
Egypt being the last stop on our trip. We met with civil 
society leaders and their request at that time seemed so 
limited because of the circumstances that were at work then. In 
a meeting with three U.S. Senators, they requested that we and 
the U.S. Government provide more help for a freer election in 
Egypt--nothing about regime change or the kind of changes we 
have seen. In every country in that region, over many years, 
there have been civil society leaders, many of whom are now 
among the leaders and the activists for change.
    In Algeria, the democratic movement or protest movement has 
been more limited compared to other countries in the region. 
There have been a series of prodemocracy protests and strikes 
and demonstrations that have their origins in economics. If you 
are confirmed, how would you work with Algeria's civil society 
leaders to make sure that the focus is on political reform? It 
is a two part question really. How do you see the reform 
movement and progress, if any, and two, how would you work with 
civil society leaders?
    Mr. Ensher. Thank you for that, Mr. Chairman.
    It is a two-part response to your two-part question.
    First of all, I could not agree more with my colleague, 
Ambassador Krol, on the importance of public diplomacy, simply 
being out there, making ourselves available as an embassy team 
to all aspects of society. We are supposed to be the embassy 
not just to the government but to the entire society, and we 
will do that under my leadership if I am confirmed, Senator. So 
that is one aspect of it.
    The other is that we have a number of really excellent 
programs under the Middle East Partnership Initiative which 
enable us to help certain parts of civil society and, in fact, 
even the government develop their capacity better to improve 
their capability to advocate effectively for their rights, 
which already exist under the Algerian Constitution. And so I 
will continue and intensify those.
    I would also point out that the Algerian people have long 
expressed a desire for broader participation in their own 
government, and we will support that as well.
    Thank you very much, Mr. Chairman.
    Senator Casey. Thank you.
    In my remaining time, I will turn to Ambassador Krol. Mr. 
Ambassador, like so many places where we have committed brave 
Americans serving in diplomatic posts, there are always 
tensions and conflicts that you have to try to resolve as 
Ambassador. And I do not envy the challenges that Ambassadors 
like you, and those who seek to serve, face.
    You are going to have difficulties balancing two things, at 
least. One of the problems is the Northern Distribution 
Network. I am told that when we move supplies to our troops in 
Afghanistan, an estimated 98 percent of the traffic in that 
network passes through Uzbekistan. So it is a critical route to 
getting supplies to our troops in Afghanistan.
    At the same time, we have got to be very tough and 
determined about making sure that Uzbekistan addresses the 
significant human rights abuses, the concerns that people have 
regarding a persecution of religious minority groups, forced 
child labor, restrictions on domestic and international 
nongovernmental organizations, torture, or illegal treatment in 
the criminal justice system. That is a long, long list.
    How do you see that challenge and can you give us some 
indication about how you will address that priority, in the 
context of the necessity for us to get supplies to our troops 
through the Northern Distribution Network?
    Ambassador Krol. Thank you, Senator. That is a very good 
question and certainly a very important one. It is a basic 
challenge that I will face, if confirmed, as have my 
predecessors.
    However, I do not view it so much as an either/or. We have 
to pursue both of these matters together, and I would say on 
the matter of the Northern Distribution Network, which is all 
part of the effort to stabilize the situation in Afghanistan, 
that it is clearly in the interest of Uzbekistan. And in our 
conversations with the leadership of Uzbekistan, they clearly 
wish to see Afghanistan, their neighbor, stabilized. And so I 
think they see it very much in their interest to facilitate and 
support the international efforts in Afghanistan for their own 
merits and for their own security for Uzbekistan. So it is not 
a matter that they are just doing this for us. We are doing 
this together, and they understand it. They live in a tough 
neighborhood, and when we have discussions with them at the 
highest level, as when Secretary Clinton was there last 
December, this is quite clear that they join us in wishing to 
see success in Afghanistan, stability on their border so that 
it does not spread into their own country.
    On human rights issues, that too is a security and a 
stability issue. And if confirmed, what I would like to do, as 
my predecessors have, is to develop an atmosphere of trust and 
confidence with the government and the people of Uzbekistan so 
that they understand that respect for human rights creates 
greater stability in a country in order to weather 
difficulties, whether they are economic and the like. And this 
is not something of simply because we like it to be done and 
simply because it is a matter of their obligations under their 
international commitments, but that having a respect for human 
rights in all the areas that you said do create a durable 
stability for a country, which is what is in everyone's 
interest, the Uzbek authorities, the Uzbek people, and 
ourselves. And so I would like to be able to encourage them to 
take steps that broaden this sphere, this space for civil 
society, for broadening the choices that people have.
    Another issue in Uzbekistan is that a very large percent of 
its population is young, very young, and they have aspirations. 
They need choices. And a lot of it will be finding jobs, what 
kind of a future that they have, and having a society that can 
provide those choices will stabilize that so you will not have 
resentments building up that could lead to some of the lessons 
we have seen elsewhere in the world of late.
    Thank you, sir.
    Senator Casey. Thanks very much.
    Senator Risch.
    Senator Risch. Well, thank you very much.
    Mr. Ensher, let me start with you. My chief of staff was in 
Algiers for a week during the recent break. So I am modestly 
informed as to what is going on on the ground there. But I 
would like to get your views generally as to how the popular 
uprisings, for want of a better word, will move forward in 
Algiers. How will that resolve? How do you see it?
    Mr. Ensher. Thank you very much for that.
    I have to say that because of the activities of your chief 
of staff, sir, you are well ahead of me. It has been 11 years 
since I have been in Algiers.
    But with that in mind, I would say----
    Senator Risch. By the way, there are still sandstorms there 
in case you forgot.
    Mr. Ensher. There always are, yes.
    It seems to me that there are a couple of ways that this 
could go. One way would be for the government to do, as it is 
apparently trying to do, which is to get out ahead of the 
demands of the population for greater openness, improved press 
freedom, broader access to the government, all those sorts of 
things. And they have done that by lifting the state of 
emergency that had been in place for 18 years and by 
promising--promising--the type of legislation necessary to 
achieve those goals to be passed sometime in fall of this year. 
So that would be the good course of action.
    And here I will point out that so far in Algeria, there 
have been very few calls for a change of regime. It all has 
been about economic and social and political aspirations within 
the framework as it exists, not requiring the departure of any 
particular leader. That is a huge difference I think from some 
of the other places in the region.
    The other way that it could go would be for the security 
situation to get out of control, and to lead to the sorts of 
things that we have seen elsewhere. I frankly do not expect 
that to happen. Algeria has a lot of resources to bring to 
bear. There is a longstanding demand, a tradition of democratic 
practice and a sense that democracy is already the right way to 
go. And so I am really quite optimistic about the future there.
    Thank you, Senator.
    Senator Risch. Thank you very much. Appreciate it.
    Mr. Krol, you have covered the waterfront I think pretty 
well. I wonder if you could comment a little bit in general 
terms about the terrorism issue in Uzbekistan. We know that 
there are Islamic extremists there that pose security threats. 
Can you give us your view of that, please?
    Ambassador Krol. Yes, Senator. That is again a very good 
question, a very pertinent one.
    Unfortunately, Uzbekistan has been the victim of terrorist 
attacks. There are organizations such as the Islamic Movement 
of Uzbekistan, as well as the Islamic Jihad Union, that are 
comprised in part of people from Uzbekistan who may be 
operationally working in places further to their south, 
Afghanistan, Pakistan, and the like. The Uzbeks are very 
concerned to keep that threat at bay. That is why they wish to 
maintain strong border controls, as well as controls within 
their country, to prevent these groupings from consolidating or 
taking action in Uzbekistan.
    And it also requires working with their neighboring 
countries. I think they are concerned that the neighboring 
countries, particularly Tajikistan and Kyrgizstan, that have 
long borders with Uzbekistan, that those countries are able to 
prevent terrorist groups from conducting or having a safe haven 
in these countries in order to have attacks on Uzbekistan or 
into Uzbekistan or in the whole region. This is certainly an 
area that is of great concern to everyone in the region and the 
United States even though we are not of the region, but as you 
know, we do have significant assets in Afghanistan as well. And 
so it is serious. It demands a great deal of attention, and it 
is certainly one of the areas that we wish to cooperate with 
Uzbekistan to address.
    Senator Risch. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Casey. Thanks very much, Senator Risch.
    Ambassador Krol, I wanted to go back to the concerns we 
have about human rights, and I know you share these. I wanted 
to refer back to a particular statement you made in 2008, and 
to get your reaction to some of the information that surrounds 
this issue.
    In a Voice of America interview in Uzbekistan in October 
2008, you commended the Uzbek Government for ``passing orders 
to enforce legislation about child labor.'' During the same 
year, during the 2008 cotton harvest, the School of Oriental 
and African Studies at the University of London found that 
approximately 2.4 million school children between the ages of 
10 and 15 were forcibly recruited to harvest cotton. A followup 
study by the same group released in November 2010 noted that 
the practice remains ubiquitous. Our own U.S. Department of 
Labor last year included Uzbek cotton on the list of ``goods 
produced by child labor and forced labor.''
    Clearly, it seems that the government has, in a real sense, 
thumbed its nose at the obligations under the ILO Convention 
182. I want to have you comment on that based upon those 
studies and based upon a previous statement you made.
    Ambassador Krol. Thank you, Mr. Chairman.
    It is a serious issue and a problem in Uzbekistan. It is 
one that we raise consistently with the Uzbek authorities, and 
if confirmed, I know it will be one of the ones that I will be 
dealing with with them.
    As you had mentioned, the Uzbek Government has acceded to 
all of the ILO Conventions dealing with child labor. The 
government and the President have passed and signed decrees 
that prohibit forced child labor in Uzbekistan. And so we 
commend them, as we say, for those actions that they have 
taken, at least in passing or at least adhering to these 
international conventions and signing the legislation.
    But as you said, we need to move from the words to actually 
fulfilling the commitments made to the ILO Conventions, as well 
as fulfilling even the decrees of the President. And most 
recently, one could say that there was encouraging news because 
the Government of Uzbekistan--and their Embassy here passed us 
the information--has set up an interagency commission across 
the entire government authorities of Uzbekistan for the purpose 
of implementing these commitments made under the ILO and other 
things.
    So again, it is welcoming to see that, but again, we will 
want to see that this goes beyond simply creating a commission 
to actually going to the action of addressing the children that 
are working in the fields. And I think our human rights report 
and other reports of our Embassy have made it clear that it 
does continue. So again, I would quote Secretary Clinton again 
when she was in Tashkent. ``We need to move from the words 
which are welcoming and good to hear to the actions of actually 
ending this practice.''
    Senator Casey. Well, we would urge you to continue to press 
them very aggressively. We appreciate the commitment you have. 
Your statements today are important to that.
    I will have a number of other questions for the record 
probably for both nominees and those that preceded you.
    Ambassador Krol, I did not get to prisoners of conscience, 
the criminal justice system. There is a long list that we do 
not have time to get into today, but we will make sure that the 
questions and the answers are made part of the record of this 
hearing and your nomination.
    We are grateful to both of you for your commitment to 
public service at a tough time internationally, and for the 
commitment of your families as well.
    Unless there is anything else to come before the 
committee--Senator Risch?
    Senator Risch. Mr. Ensher, on a personal note, is your 
family, your wife and your children, going with you?
    Mr. Ensher. They will be back and forth a great deal I 
suspect. Mona does have a very important job. The boys are in 
school and doing other things. But this will be a big change 
from Iraq and Afghanistan where at least we have the option. 
Thank you for asking.
    And, Senator, from those two experiences, the one thing 
that I have learned or a thing that I have learned is the 
absolute criticality of CODELs and STAFFDELs. It is so 
important to reinforce the message that they are getting from 
we diplomats out there. It is so important for them to 
understand the political environment that we operate in and 
that drives the things that we do. So I cannot urge you 
strongly enough. I cannot invite you more enthusiastically than 
to come to the Kasbah if confirmed.
    Thank you.
    Senator Risch. Thank you.
    Senator Casey. Ambassador Krol, any closing statements?
    Ambassador Krol. I would just echo my colleague Henry and 
welcome you all to Uzbekistan, the Great Silk Road, Samarkand, 
Bukhara, Khiva. It is a fascinating country and a very warm and 
hospitable people with long traditions and culture. I think 
having your staff and everyone coming out there makes a great 
deal of difference to the people.
    Thank you.
    Senator Casey. Thank you both very much.
    This hearing is adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Daniel Shapiro to Questions Submitted by
                         Senator John F. Kerry

    Question. 2011 has been a year of unprecedented change in the 
Middle East. How have the events in Egypt and Syria affected Israel's 
security situation? How do you see your role in supporting the Israeli-
Egyptian relationship? What can the United States do to help ensure the 
integrity of the 1979 Egypt-Israel Peace Treaty? What can the United 
States do to ensure that the turbulence in Syria does not spill over 
into Lebanon or threaten Israel?

    Answer. If confirmed, I will ensure that we continue our close 
cooperation and consultation with Israel regarding any developments 
that might pose a threat to Israel's security.
    Egypt is undergoing a period of significant transition. Our 
relationship with Egypt remains strong, and we continue to work 
constructively and collaboratively with the Egyptian Government on a 
range of issues. We remain encouraged that the current Egyptian 
Government has repeatedly expressed its commitment to adhere to past 
agreements, including its Treaty of Peace with Israel.
    The Department of State fully appreciates the significance of 
Egyptian-Israeli peace to our regional interests and to regional 
stability. In our discussions with Egyptian leadership across the 
political spectrum, we have and will continue to underscore the 
importance of upholding this and Egypt's other international 
obligations.
    On Syria, our policy is that the abhorrent and deplorable actions 
of the Syrian Government against the Syrian people must end 
immediately. The Syrian Government must also immediately stop arbitrary 
arrests, detention, and torture.

    Question. What can be done to counter efforts to delegitimize 
Israel? Are there steps that Israel could take that would decrease the 
popular pressures in Egypt and Jordan to recalibrate their relations 
with Israel?

    Answer. In the U.N. system and in many international organizations, 
members devote disproportionate attention to Israel and consistently 
adopt biased resolutions, which too often divert attention from the 
world's most egregious human rights abuses. We will continue our 
ongoing effort in the full range of international organizations to 
ensure that Israel's legitimacy is beyond dispute and its security is 
never in doubt.
    We will do all we can to ensure that Israel has the same rights and 
responsibilities as all states in these bodies--including membership in 
all appropriate regional groupings at the U.N.
    The peace agreements between Israel and Egypt, and Israel and 
Jordan, are fundamental for long-term regional peace and stability in 
the region. We strongly support Israeli, Jordanian, and Egyptian 
efforts ensure productive relations and strengthened connections 
between their governments and peoples in support of regional peace and 
stability.

    Question. What is the administration's position on the Hamas-Fatah 
unity government? What factors will it use in determining the future 
relationship with, and financial support for, the Palestinian 
Authority?

    Answer. We understand Fatah and Hamas have reached a reconciliation 
agreement. What is important now is that the Palestinians ensure 
implementation of that agreement advances the prospects of peace rather 
than undermines them.
    We will continue to seek information on the details of the 
agreement and to consult with Palestinians and Israelis about these 
issues.
    We understand the concerns of some Members of Congress. As a new 
Palestinian Government is formed, we will assess it based on its 
policies and will determine the implications for our assistance based 
on U.S. law.
    We are confident President Abbas remains committed to the 
principles of nonviolence, recognition of the state of Israel, and 
acceptance of previous agreements and obligations between the parties.
    To play a constructive role in achieving peace, any interim 
Palestinian Government formed in the period before elections must 
ensure its actions fully implement these principles. The U.S. stance 
toward such a government will be fully consistent with U.S. law.
    Our position on Hamas has not changed; Hamas is a designated 
Foreign Terrorist Organization.

    Question. In August 2010, the President said that he believed it 
might be possible to reach an Israeli-Palestinian peace agreement 
within a 1-year timeframe, a period which roughly corresponds with the 
end of Palestinian Prime Minister Salam Fayyad's 2-year institution-
building program.

  <bullet> Do you still believe a peace agreement is possible? How do 
        you evaluate Salam Fayyad's program?

    Answer. A comprehensive Middle East peace agreement remains a 
central U.S. policy objective. As we have said many times, the status 
quo between Israelis and Palestinians is not sustainable. Neither 
Israel's future as a democratic Jewish state, nor the legitimate 
aspirations of Palestinians can be secured without a two-state solution 
that is achieved through serious and credible negotiations that address 
issues of concerns to both sides.
    The Palestinian Authority has set forth a clear vision for 
strengthening the institutions of a future Palestinian state, improving 
delivery of essential services, and implementing a reform agenda. Over 
the past year and a half, the PA has made steady progress in putting in 
place policies to reform the security sector, foster economic growth, 
expand public services, decrease reliance on donor assistance, 
effectively manage public expenditures and improve tax revenue 
collection. However, as we have often stated, the Palestinian 
institution-building program is mutually reinforcing with efforts on 
the political track; it cannot achieve a Palestinian state absent a 
negotiated outcome.

    Question. On March 16, 2003, Rachel Corrie, an American citizen, 
was killed by an Israel Defense Forces bulldozer in Rafah, Gaza while 
protesting home demolitions. Both the Obama and Bush administrations 
have affirmed that Israel's investigation into Ms. Corrie's killing did 
not meet the standard of being ``thorough, credible, and transparent'' 
that was assured by the Israeli Government in 2003. On June 30, 2010, 
Department of State spokesperson P.J. Crowley stated, ``We continue to 
stress to the Government of Israel at the highest levels to continue a 
thorough, transparent, and credible investigation of the circumstances 
concerning her death.''

  <bullet> Please provide information on steps taken under the current 
        administration, including the U.S. Embassy in Tel Aviv, to 
        encourage the Government of Israel to undertake a thorough, 
        credible, and transparent investigation into Ms. Corrie's 
        death. What specific steps will the administration take to 
        ensure accountability is obtained in the case? What specific 
        steps will you commit to take, if confirmed, to encourage a 
        reopening of a credible investigative process?

    Answer. Since Rachel Corrie's death in March 2003, the Department 
of State and the U.S. Embassy in Tel Aviv have been in close contact 
with the Corrie family to provide them with support and assistance. For 
7 years, we have pressed the Government of Israel at the highest levels 
to conduct a thorough, transparent, and credible investigation into the 
circumstances of her death. The Israeli Government has responded that 
it considers this case closed and does not plan on reinvestigating the 
incident. In March 2010, an Israeli court began hearing the family's 
civil case against Israeli authorities. We hope that this venue will 
finally provide them with the answers that they seek.
    We will continue to work with and assist the Corrie family as 
appropriate.
                                 ______
                                 

          Responses of Stuart Jones to Questions Submitted by
                         Senator John F. Kerry

    Question. On February 20 King Abdullah of Jordan outlined an 
ambitious program for political and economic reform. What can the 
United States do to support these initiatives?

    Answer. The United States enjoys a warm relationship with King 
Abdullah and with the people of Jordan. If confirmed, I look forward to 
supporting their efforts to implement political and economic reform. 
Maintaining our MOU assistance levels is the first priority in 
supporting the Government of Jordan's political, economic, and social 
reform agendas. U.S. economic assistance aims to help Jordan on its 
path to growth and development by enhancing private sector 
competitiveness, trade, employment opportunities, and workforce 
development to promote economic growth. Our USAID programs are 
providing technical assistance to strengthen Jordan's tax 
administration and improve efficiencies through results-based budgeting 
and a more effective financial management information system. Democracy 
and governance (DG) programs capitalize on the renewed energy within 
civil society to promote civic participation, judicial independence, 
legal reforms (including electoral reform), respect for human rights, 
and anti-corruption measures.

    Question. An opening of the Jordanian political system could allow 
the Islamic Action Front to play a more prominent role in Jordanian 
politics. What is the United States policy toward the IAF?

    Answer. The Islamic Action Front (IAF), an opposition, Islamist 
party, has been a part of the Jordanian political system since 1992. 
They are a well-established, legal opposition party that participates 
nonviolently in the mainstream political process. In the previous 
Parliament, the IAF held six seats. The movement boycotted October 2010 
parliamentary elections and is therefore not represented in the current 
Parliament. The IAF continues to state its loyalty to the monarchy and 
allegiance to the system but has called for reforms to the system. The 
IAF opposed the appointment of the new Prime Minister in February 2011, 
refused to join the new Cabinet, and also boycotted the National 
Dialogue Committee. The IAF's specific statements are generally viewed 
as not representative of wider Jordanian popular opinion.
    The Embassy continues to meet at the working level with IAF 
officials, however, the IAF is often not interested in meeting with 
Embassy officers.

    Question. Jordan has expressed an interest in a bilateral agreement 
on peaceful nuclear cooperation. What is the status of these 
discussions?

    Answer. Negotiations between the United States and Jordan regarding 
an agreement for civil nuclear cooperation are ongoing. Since Jordan 
currently imports 96 percent of its energy needs, it is vulnerable to 
world energy prices which continue to strain its economy. We would like 
to help Jordan with its energy security by assisting with development 
of peaceful energy alternatives.
    Beyond the ongoing nuclear cooperation, we are also working on 
additional energy alternatives with Jordan. In order to promote the 
diversification of energy supply and a reduction in greenhouse gas 
emissions, the United States has engaged with the GOJ on unconventional 
natural gas resource development through the Global Shale Gas 
initiative (GSGI). A Jordanian delegation attended the inaugural GSGI 
Regulatory Conference in August 2010, and another GOJ delegation is 
scheduled to visit the United States at the end of 2011. Furthermore, 
in January 2011, a memorandum of understanding on shale gas development 
was signed between the United States and GOJ on shale gas development. 
This agreement set forth the framework under which the U.S. Geological 
Survey (USGS) plans to conduct a resource assessment of Jordanian shale 
gas resource potential and help build capacity through technical level 
workshops.

    Question. What has been Jordan's response to the Fatah-Hamas 
agreement signed in Cairo on March 4?

    Answer. The Government of Jordan took note of the agreement, is 
watching its implementation closely, and continues to engage in 
supporting a comprehensive peace in the Middle East and remains 
committed partner to that end. We are confident that the Jordanian 
Government will continue to play a constructive role in emphasizing to 
all parties the importance of securing a comprehensive peace.

    Question. As a result of the Arab Spring, there may be increasing 
pressure throughout the region to align policies more closely with 
public opinion. In the case of Jordan, there may be more pressure to 
recalibrate Jordan's relationship with Israel. What can the United 
States do to support this important relationship?

    Answer. Jordan, like the United States, remains committed to the 
vision of two democratic states, Israel and Palestine, living side by 
side in peace and security, and Jordan has been a critical partner in 
our efforts to make progress toward comprehensive peace in the Middle 
East. Jordan is one of only two Arab countries that have signed peace 
treaties with Israel (in 1994), and it considers the achievement of 
comprehensive peace a top priority for the region and one that is 
crucial to the security and well-being of future generations living in 
the region. King Abdullah and successive Jordanian governments have 
consistently spoken out publicly in support of comprehensive Middle 
East peace based on a two-state solution. Jordan views its peace 
agreement with Israel as an important component of the comprehensive 
peace it seeks to achieve.
    The United States will continue to encourage a strong bilateral 
relationship between Israel and Jordan by engaging both countries' 
leaders on the peace process, developments in the region, and regional 
security issues. We will continue to support ongoing programs that 
foster closer bilateral ties, especially between the two private 
sectors such as the Qualifying Industrial Zones program and encourage 
multilateral programming and partnership on resources, particularly on 
water use and science and technology.
                                 ______
                                 

           Responses of George Krol to Questions Submitted by
                         Senator John F. Kerry

    Question. Uzbekistan has assumed an increasingly prominent role in 
the Northern Distribution Network (NDN), an important series of air and 
ground routes that carry supplies to our troops in Afghanistan. 
According to recent figures, the United States now ships over 1,000 
containers each week to Afghanistan through the NDN, with an estimated 
98 percent of that traffic passing through Uzbekistan.

  <bullet> How are we balancing the need for reliable access to such 
        routes with our responsibility to address Uzbekistan's 
        significant human rights concerns, including persecution of 
        religious minority groups, forced child labor, restrictions on 
        domestic and international nongovernmental organizations, and 
        torture and ill-treatment in its criminal justice system?

    Answer. Encouraging Uzbekistan to continue its support for the 
Northern Distribution Network (NDN) and working with it to improve its 
respect for human rights are not mutually exclusive goals. Both 
increasing NDN capacity and respect for basic human rights are in 
Uzbekistan's and America's national security interests as they can lead 
to greater and more durable security and stability for Uzbekistan and 
the region. Uzbekistan understands that NDN helps address one of its 
major national security concerns: establishing a stable and secure 
Afghanistan on their southern border. On this basis, we seek to 
maintain Uzbekistan's support for NDN. At the same time, we argue that 
respect for human rights also establishes greater domestic stability 
and security, which also meets Uzbekistan's national interest. We will 
continue to encourage Uzbekistan's authorities at all levels privately 
and publicly, bilaterally and multilaterally, to meet its international 
obligations to respect the full range of universal human rights, 
including freeing prisoners of conscience, eliminating child labor, and 
ending torture and mistreatment in prisons. To these ends, we will 
engage multilaterally with other diplomatic missions in Tashkent, the 
European Union (EU) and in international organizations, including the 
Organization for Security and Cooperation in Europe (OSCE) and the 
International Labor Organization (ILO) to reinforce the message that 
the Government of Uzbekistan meet its human rights obligations. We will 
continue to vigorously assist, support, and take up the cause of civil 
society and victims of human rights abuses in Uzbekistan. We will 
continue to make clear to Uzbekistan's authorities that the type of 
partnership we can have with the Government of Uzbekistan and the 
assistance we can provide it under current congressional legislation 
depends on its respect for human rights in accordance with its 
international obligations. We have and will continue to be constant and 
consistent in this principled approach.

    Question. In its FY 2012 budget, the administration has requested 
$100,000 in Foreign Military Financing (FMF) for Uzbekistan. What 
specific conditions will Uzbekistan have to meet to be eligible for 
these funds?

    Answer. The administration requested $100,000 in Foreign Military 
Financing (FMF) assistance in the FY 2012 budget to help the Government 
of Uzbekistan protect the Northern Distribution Network (NDN) supply 
lines. The FMF request was made as a signal of our willingness to 
cooperate with Uzbekistan on security issues. The current conditions on 
Uzbekistan's eligibility for FMF assistance are included in the FY 2011 
State and Foreign Operations Appropriations Act and require progress on 
respect for internationally recognized human rights and a credible 
investigation of events in Andijon in 2005. The administration is 
working with the Government of Uzbekistan, through Annual Bilateral 
Consultations and other processes, to facilitate improvement in the 
areas related to the conditions currently included in the law and will 
continue to push for improvements in the government's respect for human 
rights.

    Question. On March 15, Human Rights Watch (HRW) announced that it 
was forced to end its 15-year presence in Uzbekistan after the 
government revoked its Tashkent office permit. HRW had maintained 
registration in the country after Andijan in 2005, but the Government 
of Uzbekistan constantly denied visas and accreditation for its staff.
    The committee understands that the matter of HRW's ``liquidation'' 
is now before the Supreme Court of Uzbekistan. What steps is the 
administration taking to urge the Government of Uzbekistan to allow the 
organization's office to operate freely and with full accreditation for 
its staff?

    Answer. We are raising the accreditation of Human Rights Watch and 
the legal proceeding to close its office in Tashkent vigorously at all 
levels of the Government of Uzbekistan. This issue, and the return of 
other reputable nongovernmental organizations supporting human rights 
in Uzbekistan, is one of the priority matters on our bilateral agenda 
with Uzbekistan, which is raised at our annual bilateral consultations 
and reviews. We also work with the European Union and in the 
Organization for Security and Cooperation in Europe (OSCE) to reinforce 
our efforts to press the Government of Uzbekistan to open its country 
to international NGOs and to increase space for all forms of civil 
society.

    Question. According to the State Department's 2010 Country Report 
on Human Rights Practices in Uzbekistan, ``torture and abuse were 
common in prisons, pretrial facilities, and local police and security 
service precincts.'' What strategy will you employ to encourage the 
Government of Uzbekistan to end torture in its criminal justice system?

    Answer. We will continue to raise the cases of torture and abuse 
that occur in prisons to all levels of the Government of Uzbekistan 
privately and, when warranted, publicly. We support programs 
implemented through the Organization for Security and Cooperation in 
Europe (OSCE) to train and educate Uzbekistani prison officials on 
respecting the human rights of prisoners and preventing abuse. We 
recently began a new USAID rule of law program that will work with 
defense lawyers and prosecutors to improve understanding and 
implementation of habeas corpus legislation, with the goal of reducing 
the overall number of citizens placed in pretrial detention where a 
significant portion of abuse occurs. We also are strongly encouraging 
the Uzbekistani authorities to continue to allow the International 
Committee of the Red Cross (ICRC) access to prisons run by the Ministry 
of Internal Affairs and to extend this access to individuals 
incarcerated in prisons run by the National Security Service. This 
issue continually is one of the priority agenda items in our bilateral 
consultations with the Uzbekistani Government and one that is part of 
our bilateral work plan. During her visit to Uzbekistan in December 
2010, Secretary Clinton spoke with President Karimov on a number of 
human rights issues, including several specific cases of concern and 
prison conditions in general. She also met separately with 
representatives of Uzbek civil society, including human rights 
activists.

    Question. If confirmed, what steps will you take to press the 
Government of Uzbekistan to release the growing number of prisoners of 
conscience, both secular activists and religious believers, being held 
in prison in that country?

    Answer. We will continue to vigorously raise the cases of prisoners 
of conscience at all levels of the Government of Uzbekistan both 
privately and when warranted publicly. Past efforts contributed to the 
release of some prisoners such as Mutabar Tadjibayeva; Sanjar Umarov, 
and Farhod Mukhtarov. We have made clear to the Uzbekistani authorities 
that the unjust imprisonment of religious believers and secular civil 
society activists severely restricts the extent of cooperation and 
assistance the United States can provide to the Government of 
Uzbekistan in many areas of potential joint endeavor. At the same time, 
the United States will support and champion the victims of unjust 
imprisonment and work multilaterally with other diplomatic missions, 
the European Union, and through international organizations including 
the Organization for Security and Cooperation in Europe (OSCE) and the 
U.N. Human Rights Council (UNHRC) for their release and for a change of 
approach by Uzbekistani authorities.
                                 ______
                                 

          Responses of Henry Ensher to Questions Submitted by
                         Senator John F. Kerry

    Question. Some have been surprised that the wave of unrest that 
swept through North Africa in recent months has been relatively weak in 
Algeria. Why do you suppose Algerians have been relatively less vocal 
in demanding change than their Tunisian, Egyptian, and Libyan 
counterparts? How would you characterize the Algerian opposition and 
civil society?

    Answer. While there have been numerous protests in Algeria since 
January, these have been more socioeconomic rather than political in 
nature, as various groups have called for higher wages, better housing, 
access to education, and stronger employment prospects. Algeria 
experienced horrific violence in the 1990s, with some estimating nearly 
200,000 deaths during a 10-year civil war. Algerian citizens are, 
therefore, treading cautiously as change sweeps through the region, 
preferring to address issues at their own pace. They nevertheless 
remain committed to demanding improvements along these issues. 
Specifically, we have not seen widespread calls for President 
Bouteflika to step down, and his government has begun the process of 
reform.
    In February, Algeria lifted the 19-year-old State of Emergency Law. 
The United States welcomed this action as a positive step and publicly 
reaffirmed our support for the universal rights of the Algerian people, 
including the freedom of assembly and expression. President Bouteflika 
on April 15 also announced a slate of democratic and economic reforms 
in response to popular protests, including the appointment of a 
commission to draw up amendments to the constitution. He proposed to 
submit to Parliament reform legislation on elections, political 
parties, NGOs, local government and women in government, and to revise 
the media laws so as to decriminalize press violations. We encourage 
the Government of Algeria to move swiftly toward the implementation of 
these measures, as we have encouraged other governments, including in 
Tunisia and Egypt, to do. We are committed to working with the 
Government of Algeria to ensure that it is responsive to the legitimate 
demands of its people.

    Question. In February, President Abdelaziz Bouteflika announced the 
lifting of the Algerian emergency law, in place for almost two decades. 
Please describe the implementation of this and other reform gestures 
the government has announced. To what extent are restrictions on the 
freedoms of assembly, association, and expression enshrined elsewhere 
in Algerian law? Has the Algerian Government indicated a willingness to 
initiate a broader reform of these limitations?

    Answer. Algeria's Government has repeatedly stated its commitment 
to democracy, and its most recent Presidential election in 2009 was 
certified by international observers as being generally free and fair--
one of the few elections for a head of state in the Arab world to be 
conducted under such conditions. Algeria's independent press is also 
one of the more active and outspoken in the Arab world. That said, 
Algerian democracy would benefit from a more empowered and effective 
legislature, stronger and more democratically governed political 
parties, a more independent judiciary, and a more professional and 
better protected press, including electronic media. We have ongoing 
Middle East Partnership Initiative (MEPI) programs of varying sizes and 
scopes that target our goals in each of these areas.
    We welcome President Bouteflika's announced reforms as a 
significant step forward for Algeria and its people. The proposed 
measures are wide-ranging and address many legitimate concerns of 
Algerian citizens, including reforming laws regulating political 
parties, NGOs, local government and women in government. President 
Bouteflika also announced that his government will take steps to 
decriminalize press offenses, which should lead to more open and free 
media. As both President Obama and Secretary Clinton have said on many 
occasions, there is a need for political, social, and economic reform 
throughout the region, and President Bouteflika's April 15 speech 
touched on each of these areas. President Bouteflika has announced a 
September deadline for legislative action on these reforms. We look 
forward to the concrete implementation of these reforms by the 
Government of Algeria and will closely monitor their effects on the 
situation in Algeria and the region. It is too early to predict how 
these measures will impact Algeria and its people, but we are pleased 
that the Government of Algeria has begun the process of reform.

    Question. How can the United States help foster a more conducive 
economic environment in Algeria that will successfully attract U.S. 
businesses to invest in the country, beyond the hydrocarbon industry?

    Answer. We are encouraged by growing economic ties between our two 
countries. President Bouteflika, during his April 15 speech on reforms, 
recognized economic enterprises--public as well as private--as key to 
job creation, and promised that the Government of Algeria would draft a 
``national investment program'' for companies.
    American companies are active in hydrocarbons, banking and finance, 
services, medical facilities, telecommunications, aviation, seawater 
desalination, energy production, and information technology sectors. 
Algeria is one of United States largest trading partners in the Middle 
East/North African region. We are supportive of Algeria's efforts to 
diversify its economy by attracting foreign and domestic investment 
outside the energy sector. We are working with the Algerian Government 
to help create appealing business conditions in key areas for foreign 
and domestic investors, including the adoption of clear rules and 
regulations, streamlining administrative processes, and increasing 
access to government decisionmakers. Algeria
has much potential, and U.S. firms could play an important role in 
realizing that potential.
    Additionally, an annual international trade fair in Algiers each 
June draws significant U.S. participation and highlights the U.S. 
corporate presence very positively. A trade mission this spring is 
being organized by the U.S.-Algeria Business Council which will 
demonstrate the interest of the Algerian Government and business 
sectors in working with U.S. businesses.

    Question. The Maghreb is arguably one of the world's least 
integrated regions. What is the potential for Algeria to play a more 
significant regional role in security, economic and political matters? 
How can the United States foster better regional integration in the 
Maghreb?

    Answer. Algeria has the ability to be a regional leader on a 
variety of fronts, including on economic, counterterrorism, and 
political issues. However, this capacity to lead is hampered by its 
cold relationship with its neighbor, Morocco. We consistently urge both 
Algeria and Morocco to recognize that better relations between their 
two countries will foster deeper regional integration, enable both 
countries to better address key bilateral and regional issues such as 
terrorism, illegal migration, drug trafficking, and trade promotion. 
While Algerian-Moroccan relations are uneven, we welcome the recent 
exchange of ministers and the signing of a Memorandum of Understanding 
on Agricultural Development. Practical cooperation at the working level 
has often coexisted even with the unhelpful rhetoric at higher levels 
in the past. We have consistently encouraged both Algeria and Morocco 
to de-link the issue of Western Sahara from their bilateral 
relationship. The launching of the North African Partnership for 
Economic Opportunity at last December's first U.S.-Maghreb 
Entrepreneurship Conference is just one example of the United States 
ability to foster closer regional cooperation among all the countries 
of North Africa.
    Algerian law also makes certain forms of defense sales very 
difficult. Their laws require payment for items after they have been 
delivered. Since this goes against U.S. law, participating in Foreign 
Military Sales is not possible. Algeria does buy some defense items 
through Direct Commercial Sales and is negotiating with the United 
States on workarounds to its restrictive laws. They are also increasing 
the number of individuals they send to the United States for training, 
creating a closer relationship between our nations.

    Question. In light of the Arab Spring, some observers have noted 
that American diplomats have tended to engage too narrowly on ruling 
elites and security officials in capital cities at the expense of 
broader civil society. Do you agree with this characterization? If 
confirmed, will you commit to encourage the Embassy in Algiers to 
engage with a diverse cross-section of Algerian society?

    Answer. Through a variety of programs, both within and outside of 
the State Department's Middle East Partnership Initiative (MEPI), we 
are working with the Algerian Government and civil society to develop 
key elements of a democratic society such as the media, political 
parties, and the judiciary, as well as reforming critical systems such 
as the education, banking and financial sectors. We also work closely 
with independent human rights organizations, journalists, political 
parties, and other nongovernmental organizations. Human rights are a 
significant part of our ongoing dialogue with the Algerian Government, 
as with all other governments.
    Additionally, while Algeria has traditionally been a country that 
afforded women considerable rights, we are always interested in ways in 
which we can help to further improve their status. Our educational 
programming, and in particular a judicial capacity-building program 
through the American Bar Association (ABA), have targeted building on 
Algeria's historical openness to equal rights for women. Algeria's 
women have an employment rate well above the average for the Arab 
world; several government ministers and leader of a large Algerian 
opposition party are women.
                                 ______
                                 

         Responses of Daniel Shapiro to Questions Submitted by
                        Senator Robert Menendez

                      fatah-hamas unity government
    Question. I am very concerned about the announcement that President 
Abbas has conceded to form a unity government with Hamas. Hamas rejects 
peaceful efforts to end the Israeli-Palestinian conflict and continues 
to call for the destruction of the State of Israel. While I welcome 
statements from the administration recognizing that Hamas is a 
terrorist organization and requiring that it accept the Quartet 
conditions of recognizing Israel's right to exist, rejecting violence, 
and endorsing previous Israeli-Palestinian peace agreements in order to 
participate in the transitional government and elections, I think this 
agreement is going to require more than supportive statements.

  <bullet> What is your view on whether the United States should work 
        with a Palestinian Authority government that includes an 
        unreformed Hamas? Do you support, pursuant to U.S. law, 
        suspending aid to the Palestinian Authority, if after reviewing 
        the situation it is determined that Hamas will not comply with 
        Quartet conditions?
  <bullet> Where do you see the peace process heading in light of 
        President Abbas' decision to reconcile with an unchanged Hamas? 
        Do you really expect Israel to sit down and negotiate with a 
        Palestinian Government which includes the terrorist group 
        Hamas?
  <bullet> Could you also comment on Egypt's role in bringing about the 
        agreement and whether their involvement foreshadows a change in 
        their longstanding relationship with Israel?

    Answer. We understand Fatah and Hamas have reached a reconciliation 
agreement. What is important now is that the Palestinians ensure 
implementation of that agreement advances the prospects of peace rather 
than undermines them.
    We will continue to seek information on the details of the 
agreement and to consult with Palestinians and Israelis about these 
issues.
    We understand the concerns of some Members of Congress. As a new 
Palestinian Government is formed, we will assess it based on its 
policies and will determine the implications for our assistance based 
on U.S. law.
    We are confident President Abbas remains committed to the 
principles of nonviolence, recognition of the state of Israel, and 
acceptance of previous agreements and obligations between the parties.
    To play a constructive role in achieving peace, any interim 
Palestinian Government formed in the period before elections must 
ensure its actions fully implement these principles. The U.S. stance 
toward such a government will be fully consistent with U.S. law.
    Our position on Hamas has not changed; Hamas is a designated 
Foreign Terrorist Organization.
    Egypt is undergoing a period of significant transition. Our 
relationship with Egypt remains strong, and we continue to work 
constructively and collaboratively with the Egyptian Government on a 
range of issues. We remain encouraged that the current Egyptian 
Government has repeatedly expressed its commitment to adhere to past 
agreements, including its Treaty of Peace with Israel.
    The Department of State fully appreciates the significance of 
Egyptian-Israeli peace to our regional interests and to regional 
stability. In our discussions with Egyptian leadership across the 
political spectrum, we have and will continue to underscore the 
importance of upholding this and Egypt's other international 
obligations.
               countering the delegitimization of israel
    Question. Over the last several years there has been a noticeable 
increase in anti-Israel and anti-Jewish sentiment, even by close U.S. 
allies. As you are aware, there has also been a concerted effort at the 
United Nations to demonize Israel, as well as to use U.N. bodies to 
circumvent the peace process. As U.S. Ambassador to Israel it will be 
important for you to oppose these efforts and to work within the 
administration to ensure that we do everything we can to blunt these 
destructive efforts.

  <bullet> What priority do you give to U.S. diplomatic efforts at the 
        U.N. and on a bilateral basis to draw attention to growing 
        anti-Israel bias and to efforts to jeopardize the peace talks 
        by circumventing the negotiating table?
  <bullet> If confirmed, how will you work to promote Israel's rightful 
        inclusion in the region and more broadly in the international 
        community?

    Answer. U.N. members devote disproportionate attention to Israel 
and consistently adopt biased resolutions, which too often divert 
attention from the world's most egregious human rights abuses. We will 
continue our ongoing effort in the full range of international 
organizations to ensure that Israel's legitimacy is beyond dispute and 
its security is never in doubt.
    We will do all we can to ensure that Israel has the same rights and 
responsibilities as all states--including membership in all appropriate 
regional groupings at the U.N. As the President said last September 
before the entire U.N. General Assembly, efforts to chip away at 
Israel's legitimacy will continue to be met by the unshakeable 
opposition of the United States.
    If confirmed, I will work to promote full and equal Israeli 
participation in consultative groups throughout the U.N. system as one 
of our highest priorities across the U.N. system. I will work with my 
Department of State colleagues at the Security Council, the General 
Assembly, and at all specialized U.N. agencies as they work closely 
with their Israeli counterparts to find ways to maximize Israeli 
participation.
    We strongly support Israel's continued election to U.N. bodies. 
With support from us and many others, Israel has been elected to all 
U.N. bodies and leadership positions to which it has sought membership 
over the last decade. In December 2009, for instance, the U.S. Mission 
to the U.N. in New York succeeded in formally adding Israel to the 
JUSCANZ negotiating group for the U.N. Fifth Committee, which handles 
budgetary matters. The United States achieved another major step 
forward when the JUSCANZ consultative group at the Human Rights Council 
in Geneva decided by consensus in January 2010 to include Israel in the 
group.
    In 2010 Israel chaired the Kimberly Process on conflict diamonds.
                                 syria
    Question. Over the course of the last 2 years you have played a key 
role in the formulation and execution of U.S. policy toward Syria. You 
have travelled to Syria and met with President Assad. Now in the last 
month we have seen the Assad regime brutally crackdown on the Syrian 
people. Hundreds of innocent Syrians have been killed with many more 
arbitrarily arrested or beaten.

  <bullet> Is it time to signal that it is time for Assad to go, as we 
        did with Mubarak and Ghadaffi?
  <bullet> How do you foresee events in Syria affecting Israel's 
        outlook on the region?

    Answer. I have been nominated to serve as the Ambassador to Israel. 
If confirmed, my responsibilities will not cover Syria. That said, the 
Obama administration's policy is that the abhorrent and deplorable 
actions of the Syrian Government against the Syrian people must end 
immediately. The Syrian Government must also immediately stop arbitrary 
arrests, detention, and torture.
    Given the number of variables involved, it would not be prudent to 
speculate on future developments in Syria.
    We are closely monitoring the constantly evolving situation 
throughout the region and consult with our Israeli counterparts on a 
regular basis on any developments that might pose a threat to Israel's 
security.
                                 ______
                                 

           Response of Stuart Jones to Question Submitted by
                        Senator Robert Menendez

    Question. Assistant Secretary Feltman is in Jordan this week to 
meet with King Abdullah and members of civil society to reportedly 
discuss the Israeli-Palestinian peace process, the Libya conflict and 
Jordan's domestic reforms.

  <bullet> Jordan, like many parts of the region has been the scene of 
        protests calling for political and economic reform. What steps 
        do you see the Kingdom taking to address the protestors 
        concerns? How important will the reform agenda--supporting 
        civil society actors, human rights activists, and independent 
        journalist, be for you as Ambassador? Are you willing to foster 
        moderate and peaceful communities who are seeking democratic 
        change by providing assistance and standing in solidarity with 
        their efforts? Are you concerned about the ambitions of 
        extremist elements in Jordan or do you see that concern as a 
        red herring being voiced by the King in order to limit reform?

    Answer. King Abdullah has been responsive to the demands of the 
Jordanian people. In early February, he dissolved the Cabinet and 
appointed a new Prime Minister. He established a National Dialogue 
Committee in March with a 3-month mandate to write new political 
parties and elections laws. On April 26, King Abdullah formed a royal 
committee to propose constitutional amendments designed to promote 
political reform.
    If confirmed, I hope to continue a strong U.S. assistance program 
for Jordan. U.S. economic assistance aims to help Jordan on its path to 
growth and development, while supporting the Government of Jordan's 
political, economic, and social reform agenda. Economic support funds 
promote economic growth/job creation by enhancing private sector 
competitiveness, trade, employment opportunities, and workforce 
development. Democracy and governance (DG) programs capitalize on the 
renewed energy within civil society to promote civic participation, 
judicial independence, legal reforms (including electoral reform), 
respect for human rights, and anticorruption measures. DG programs 
build the capacity of local governments, independent media, and 
political parties.
                                 ______
                                 

            Response of George Krol to Question Submitted by
                        Senator Robert Menendez

    Question. Uzbekistan has emerged as one of the most repressive 
countries in the former Soviet Union. President Karimov has ruled the 
country with an iron fist for over 22 years and has a well-documented 
track record of persecuting individuals perceived to be his critics. 
Next Friday marks 6 years since forces directly accountable to 
President Karimov killed hundreds of unarmed people who participated in 
a demonstration on May 13, 2005, without warning as they ran from the 
square. Last year, Uzbek authorities intensified their crackdown on 
freedom of expression, prosecuting a correspondent for the U.S. 
Government-funded Voice of America news service. Well over a dozen 
human rights defenders, political activists, and journalists--many of 
whose cases the U.S. Embassy has quietly raised with the Uzbek 
Government for years--remain in prison. Torture is widely reported to 
be endemic in the criminal justice system. At the end of 2010, the 
Uzbek Government continued to suppress even tiny public demonstrations 
calling for more democratic freedoms, and denied accreditation to Human 
Rights Watch's representative, effectively expelling the last 
independent international NGO from Uzbekistan.

  <bullet> The United States has raised many of these issues over the 
        years, but has usually opted for private rather than public 
        diplomacy, obtaining few results. What specific steps will you 
        take if confirmed to more effectively promote human rights in 
        Uzbekistan?
  <bullet> Given Uzbekistan's lack of credibility on human and civil 
        rights, how will you ensure that U.S. policy in Uzbekistan is 
        consistent with its public support for the aspirations of 
        democracy activists and peaceful protesters across the Middle 
        East and North Africa?

    Answer. Uzbekistan's harsh actions against civil society, the 
media, political, and religious figures and its policies restricting 
media, political, and religious freedoms have for a long time greatly 
concerned the United States. We have severely limited our assistance 
and cooperation with the Government of Uzbekistan since the 2005 
Andijon events and subsequent severe crackdown. But concern is not a 
policy. We will relentlessly raise individual cases of repression both 
privately and publicly at all levels of the Uzbekistani Government and 
will seek to identify opportunities to support and expand space for 
civil society and human rights activists. We will seek out the voices 
of civil society in the country and we will do all we can to support, 
protect, and expand civil society. We will work multilaterally with 
diplomatic missions, the European Union, Organization for Security and 
Cooperation in Europe (OSCE), the U.N. Human Rights Council, the 
International Labor Organization (ILO), and other relevant 
international organizations, institutions, and partners to promote 
human rights in Uzbekistan. We will continue vigorously and strongly to 
encourage the Uzbekistani Government to expand the space for civil 
society, media, political discourse and allow religious freedom for all 
peaceful believers. We will continue to advance the view that a robust 
and unfettered civil society and free media can provide greater 
stability and security for Uzbekistan lest popular resentments grow as 
choices become even more limited for the hugely growing youth sector of 
Uzbekistan. Regardless of regional, cultural, and historical 
differences between Central Asia and the Arab world, this is the major 
lesson we take from the recent events in the Arab world, which infuses 
our policy toward promoting human rights in Uzbekistan. We will 
continue to remind Uzbekistani authorities that there are, and will be, 
severe bilateral and international consequences for human rights abuses 
such as those maintained in current congressional legislation passed 
after the Andijon events restricting direct U.S. assistance to the 
Government of Uzbekistan and its designation as a Country of Particular 
Concern since 2006 for its restrictions on religious freedoms. At the 
same time we will continue to engage with and, if resources permit, 
expand our support for embattled civil society and independent media in 
Uzbekistan and seek creative ways to provide that support more 
effectively under harsh and restrictive conditions.
                                 ______
                                 

         Responses of Daniel Shapiro to Questions Submitted by
                      Senator Robert P. Casey, Jr.

    Question. Events of recent months have highlighted the unique role 
Israel plays in the Middle East as a reliable, stable, and democratic 
U.S. ally who not only shares our interests, but also our values. That 
said, ongoing unrest in the region has raised questions about Israel's 
qualitative military edge (QME) and the future of longstanding peace 
treaties with Egypt and Jordan.

  <bullet> How do you see the unfolding events in the region affecting 
        Israel's security, and what new challenges may Israel face in 
        the months ahead? If confirmed, what steps will you take to 
        ensure that Israel's security remains a top priority for U.S. 
        assistance funding?

    Answer. Since the Reagan administration, the United States has 
remained committed to safeguarding Israel's Qualitative Military Edge 
(QME). This administration has consistently reaffirmed its unshakable 
support to Israel's QME. We have expanded the level and frequency of 
our QME consultations with the Israeli Government. If confirmed, I 
would continue to fully uphold the U.S. commitment to Israel's QME.
    The United States also protects Israel's qualitative military edge 
through the provision of substantial security assistance. For roughly 
three decades, Israel has been the leading recipient of U.S. security 
assistance through the FMF program. Currently, Israel receives nearly 
$3 billion per year.
    The United State also grants Israel privileged access to advanced 
military equipment, such as the F-35 Joint Strike Fighter, to help it 
deter potential aggressors and maintain its conventional military 
superiority. Israel will be the only state in the region flying the F-
35.
    We are closely monitoring the constantly evolving situation 
throughout the region. Any developments that in our judgment pose a 
threat to Israel's QME will be carefully considered in pending or 
future sales of arms or services in the region.

    Question. The United States has clearly stated that the only path 
to a two-state solution to the Israeli-Palestinian conflict is direct 
negotiations based on the Quartet principles. However, Palestinian 
Authority President Mahmoud Abbas continues to seek support at the U.N. 
for recognition of Palestinian statehood, thereby circumventing the 
direct peace process. These efforts are counterproductive and will only 
serve to delay the day in which we see two states living side by side 
in peace and security.

  <bullet> Where do you see the peace process heading, particularly in 
        light of President Abbas' decision to form a unity government 
        with Hamas, a designated terrorist group? If confirmed, how 
        will you work to discourage the Palestinians from working 
        outside the parameters of direct peace negotiations?

    Answer. We believe that President Abbas remains committed to peace. 
He supports PLO commitments renouncing violence and recognizing Israel. 
He has remained firm in his faith that an independent Palestine living 
side by side with Israel in peace and security is both possible and 
necessary.
    As we have said many times publicly and privately, we object to 
attempts to resolve permanent status issues in international bodies 
like the U.N. The Israelis and Palestinians must work out the 
differences between them in direct negotiations. We are working closely 
with the parties to bring about a negotiated outcome that will lead to 
the establishment of an independent, viable state of Palestine and a 
secure future for an Israel that is fully accepted in the region.
    We understand Fatah and Hamas have reached a reconciliation 
agreement. What is important now is that the Palestinians ensure 
implementation of that agreement advances the prospects of peace rather 
than undermines them.
    We will continue to seek information on the details of the 
agreement and to consult with Palestinians and Israelis about these 
issues.
    We understand the concerns of some Members of Congress. As a new 
Palestinian Government is formed, we will assess it based on its 
policies and will determine the implications for our assistance based 
on U.S. law.
    We are confident President Abbas remains committed to the 
principles of nonviolence, recognition of the state of Israel, and 
acceptance of previous agreements and obligations between the parties.
    To play a constructive role in achieving peace, any interim 
Palestinian Government formed in the period before elections must 
ensure its actions fully implement these principles. The U.S. stance 
toward such a government will be fully consistent with U.S. law.
    Our position on Hamas has not changed; Hamas is a designated 
Foreign Terrorist Organization.

    Question. As Hezbollah gains an increasing amount of political 
influence in Lebanon in the wake of the government collapse in January, 
how do you assess the U.S. role in Lebanon and what actions can the 
United States take to ensure that military assistance to Lebanon does 
not fall into the hands of Hezbollah forces?

    Answer. I have been nominated to serve as the Ambassador to Israel. 
If confirmed, my responsibilities will not cover the U.S. relating with 
Lebanon. The Obama administration's policy is that we will do all we 
can to avoid a conflict between Hezbollah and Israel. As we saw in 
2006, such a war would be devastating for civilians in both Lebanon and 
Israel.
    The Government of Lebanon continues to state its support for the 
full implementation of U.N. Security Council Resolution 1701--our 
primary security-related goal in Lebanon--and to cooperating with 
UNIFIL to maintain the calm and a weapons-free zone in south Lebanon. 
Ending our assistance to the LAF would contradict this commitment and 
be seen as a victory for Hezbollah and Iranian interests in Lebanon.
    The Cabinet formation process is still underway in Lebanon. We 
continue to stress, both publicly and privately with the Government of 
Lebanon, that we expect that the next government will continue to meet 
Lebanon's international commitments, which include UNSCR 1559 and 1701, 
and the Special Tribunal for Lebanon. When the new government is 
formed, we will review its composition, policies, and behavior, 
including Lebanon's commitment to its international commitments. Since 
the government has not yet been formed, it is premature to judge it and 
to make any determinations about the future of U.S. assistance to 
Lebanon. It is important that we continue to plan for ongoing 
assistance through FY 2012 in order to leave all options open.
                                 ______
                                 

           Response of Stuart Jones to Question Submitted by
                      Senator Robert P. Casey, Jr.

    Question. Jordan is an important counterterrorism partner in the 
fight against Islamic groups in the Middle East, and its 1994 peace 
treaty with Israel has played an important role in the Middle East 
peace process. Given the growing unrest in the region and increasing 
influence of terrorist groups such as Hamas and Hezbollah, what 
measures should the United States take to support King Abdullah II's 
reform efforts? How might increased U.S. assistance to Jordan serve our 
interests in the region, particularly in regard to Israel's security?

    Answer. The Secretary has stated that we have no better ally than 
Jordan in countering terrorism and in modernizing the Middle East. 
Foreign assistance supports the United States-Jordan bilateral 
relationship, a critical alliance that continues to further U.S. 
global, regional, and bilateral objectives. Jordan continues to be a 
top recipient of U.S. economic and military assistance. As a sign of 
the strong, continuing U.S. commitment to Jordan, and in an effort to 
further our strategic goals in Jordan and in the region, the U.S. 
Government signed a Memorandum of Understanding with Jordan in 
September 2008, expressing the U.S. Government's support for providing 
predictable levels of assistance to Jordan over 5 years beginning in FY 
2010. The MOU stipulates the USG will provide $360 million in ESF and 
$300 million in FMF annually, subject to congressional appropriation 
and the availability of funds. The FY 2012 request reflects this 
commitment.
    U.S. security assistance supports the Jordanian Armed Forces' (JAF) 
5-year plan for modernization, readiness, and enhanced interoperability 
between the JAF, U.S., and NATO forces to advance regional and global 
security. In addition, our security assistance will support procurement 
and installation of technologies to enhance the Jordanian Government's 
control of its borders. This assistance strengthens Jordan's 
capabilities to support and contribute to Middle East peace efforts, 
international peacekeeping operations, counterterrorism efforts, and 
humanitarian assistance within the region.
                                 ______
                                 

            Response of George Krol to Question Submitted by
                      Senator Robert P. Casey, Jr.

    Question. A young Uzbek psychologist, Maxim Popov, has been 
imprisoned for 7 years for his work distributing a manual on HIV/AIDS 
and harm reduction. Funding for the creation and translation of 
versions of this manual has come from international donors, including 
USAID.

  <bullet> As Ambassador, what will you do to encourage the Uzbek 
        Government to release Mr. Popov and the growing number of 
        prisoners of conscience being held in the country's prisons?

    Answer. We will continue to vigorously advocate at all levels of 
the Uzbekistani Government for the release of Mr. Popov. His case has 
been a priority issue discussed in our bilateral consultations, along 
with the cases of other prisoners of conscience. We have made clear 
that continued imprisonment of prisoners of conscience like Mr. Popov 
restricts U.S. cooperation with the Government of Uzbekistan in other 
areas of mutual interest. We also work multilaterally with other 
diplomatic missions, the European Union and through international 
organizations such as the Organization for Security and Cooperation in 
Europe (OSCE) and the U.N. Human Rights Council to encourage Uzbekistan 
to release immediately such prisoners of conscience as Mr. Popov.
                                 ______
                                 

           Response of Henry Ensher to Question Submitted by
                      Senator Robert P. Casey, Jr.

    Question. Algeria's Berber community has experienced significant 
government discrimination and neglect, particularly in regard to 
language and cultural rights. For example, Berber activists continue to 
seek official language status for Tamazight, a Berber language, but 
President Bouteflika and other Algerian officials have opposed this 
change.

  <bullet> If confirmed, how will you work with the Algerian Government 
        to encourage enhanced respect for the rights of Berbers and 
        other minority groups in Algeria?

    Answer. The United States is committed to minority rights and 
freedom of religion in Algeria and around the world. The freedom of 
persons belonging to minority groups to practice their own customs and 
traditions, including learning and speaking a language, is a basic 
right that the United States supports. Algeria has allowed and 
supported the teaching of Tamazight in public schools and universities 
in Berber areas since 2001. Algeria must ensure that minorities are 
free to practice their religions and customs as they wish. We are in 
regular contact with a wide variety of religious and cultural leaders 
in Algeria, and maintain an active dialogue with the Algerian 
Government on religious and cultural freedom issues. With both we 
stress the need for the laws governing the operation of religious and 
cultural organizations in Algeria to be applied in an equal and 
transparent manner.
                                 ______
                                 

         Responses of Daniel Shapiro to Questions Submitted by
                       Senator Benjamin L. Cardin

    Question. A top priority for the government and people of Israel is 
ensuring Iran is not allowed to achieve a nuclear weapons capability. I 
believe that from a U.S. perspective as well, allowing Iran to achieve 
such a capability would pose an unacceptable risk to the safety and 
security of the United States, Israel, and our other allies. With 
events unfolding rapidly in the region, with Libya at war, and Syria 
brutally cracking down on its people, it is easy to lose focus on the 
Iranian threat. Do you agree a nuclear weapons capability in the hands 
of Iran would pose an unacceptable risk to the United States and 
Israel? As Ambassador, will you ensure Israel's perspective and 
thinking on the Iranian threat is communicated effectively back to 
Washington?

    Answer. A nuclear armed Iran poses an unacceptable risk to the 
United States, Israel, and globally. A strong international partnership 
including the United States and Israel stands united in opposition to 
Iran's illicit nuclear program. This coalition is determined to 
pressure Iran until it changes course. The clear message is that the 
Iranian leadership's continued defiance results in harsh political and 
economic penalties. If confirmed as Ambassador, I will ensure that 
Israel's perspective and thinking on Iran, and its nuclear program, is 
clearly conveyed to policymakers Washington.

    Question. Over the course of the last 2 years you have played a key 
role in the formulation and execution of U.S. policy toward Syria. You 
have travelled to Syria and met with President Assad. Now in the last 
month we have seen the Assad regime brutally crackdown on the Syrian 
people. Hundreds of innocent Syrians have been killed with many more 
arbitrarily arrested or beaten. Where should the United States go from 
here? Is it time to signal that it is time for Assad to go, as we did 
with Mubarak and Ghadaffi? How do you foresee events in Syria affecting 
Israel's outlook on the region?

    Answer. I have been nominated to serve as the Ambassador to Israel. 
If confirmed, my responsibilities will not cover Syria. That said, the 
Obama administration's policy is that the abhorrent and deplorable 
actions of the Syrian Government against the Syrian people must end 
immediately. The Syrian Government must also immediately stop arbitrary 
arrests, detention, and torture.
    Given the number of variables involved, it would not be prudent to 
speculate on future developments in Syria.

    Question. Israel is our strongest ally and the only democracy in 
the region. What is the administration doing to ensure respect for 
Israel and its security by the emerging new governments in Egypt and 
Tunisia?

    Answer. Egypt is undergoing a period of significant transition. Our 
relationship with Egypt remains strong, and we continue to work 
constructively and collaboratively with the Egyptian Government on a 
range of issues. We remain encouraged that the current Egyptian 
Government has repeatedly expressed its commitment to adhere to past 
agreements, including its Treaty of Peace with Israel.
    The Department of State fully appreciates the significance of 
Egyptian-Israeli peace to our regional interests and to regional 
stability. In our discussions with Egyptian leadership across the 
political spectrum, we have and will continue to underscore the 
importance of upholding this and Egypt's other international 
obligations.
    Tunisia, like most Arab States, does not currently have diplomatic 
relations with Israel. The administration continues to actively pursue 
the full normalization of relations between Israel and all countries in 
the region as part of a comprehensive peace.


                               NOMINATION

                              ----------                              


                         THURSDAY, MAY 26, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Gary Locke, of Washington, to be Ambassador to the 
        People's Republic of China
                              ----------                              

    The committee met, pursuant to notice, at 10:25 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Webb, Lugar, and 
Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. We are really 
delighted today to welcome our Secretary of Commerce, the 
former Governor of the State of Washington, and a very good 
friend, Gary Locke, who has been nominated by the President to 
be our Ambassador to the People's Republic of China.
    Welcome, Mr. Secretary. We're happy to have you here, and 
I'm excited about this appointment.
    I'm delighted also to welcome the Secretary's family. I 
just met Emily, who is 14 years old, who is sitting behind him 
there; and Dylan, who is 12; and Madeline, who is 6, who told 
me where she is going to school and that she would be much 
happier if the hearing were over and her dad could just leave 
right now. [Laughter.]
    And Gary's terrific partner in life and in this effort, 
Mona. We're really happy to have you all here.
    This nomination is a very important nomination. All of our 
Ambassadors are important, and we have great respect for the 
service of everybody. But it is without a doubt that the 
relationship with the People's Republic of China stands as one 
of the most important relationships for our country today, and 
much of our cooperation with China will help to shape this 
century, in terms of conflicts as well as economic 
opportunities and relationships.
    If confirmed by the Senate, which I fully expect, Secretary 
Locke will join an elite group of distinguished statesmen, from 
former President George H.W. Bush to Winston Lord and Stapleton 
Roy and others who have served in this position.
    I think it is obvious to all but, nevertheless, worth 
pointing out yet again that Secretary Locke's story is 
quintessentially American. It's the American story. A 
descendent of hardworking immigrants, Secretary Locke's 
personal integrity, intelligence, and strong work ethic led him 
from Seattle to college in New Haven, Yale University, and then 
on to Boston University Law School.
    Later, as Governor of Washington, he reached out to China 
and helped to strengthen the trade ties between his State and 
China. It's clear that that relationship really is a microcosm 
of the larger relationships that we need to develop and work on 
today. He doubled the State's exports at that time to over $5 
billion per year.
    At the Department of Commerce, Secretary Locke led the 
administration's first Cabinet-level trade mission to China, a 
clean-energy mission. He has also served as the cochair of the 
U.S.-China Joint Commission on Commerce and Trade.
    The President's latest assignment for Secretary Locke may 
well be his most challenging. The relationship between the 
United States and China is absolutely vital to get right. We 
need to avoid falling into the trap of zero-sum competition, 
and we need to forge a mutually beneficial relationship based 
on common interests.
    I think it's safe to say that the recent visit of the 
Presidents of China and the United States here in Washington 
advanced that effort, but there's still a lot of work to be 
done.
    I'm not going to speak at length about the long list of 
issues that we have to work on, but let me mention, 
particularly, advancing human rights; ensuring peace and 
stability across the Taiwan Strait; managing trade disputes; 
protecting the environment; and, most importantly, cooperating 
jointly to help lead the world out of conflicts in other areas 
where our joint leadership can have a huge impact on the course 
of events.
    I want to make just two overarching points. First, with its 
newfound economic clout, China, in my judgment, needs to do 
more than simply abide by international norms, although that's 
important. We are hoping that China will contribute to 
strengthening the international system that has helped it to 
prosper.
    Beijing, we believe, can step up and can shoulder more of 
the responsibility that comes with its growing power. We 
welcome the opportunity to share the exercise of that 
responsibility, together with other nations that care to step 
up.
    In the area of nonproliferation, for example, we need China 
not only to enforce U.N. sanctions and abide by Nuclear 
Suppliers Group guidelines, but we want China to be a full 
partner in efforts to secure a diplomatic solution to the 
nuclear weapons threats that are posed by Iran and North Korea. 
It is our judgment that all of our interests are put at risk by 
their current illicit efforts, to some degree.
    Convincing China that its own interests will be served by 
taking on more responsibility for strengthening the 
international system will be one of Secretary Locke's most 
important tasks as our Ambassador, and, obviously, it won't be 
easy.
    Even though China may have some of the hallmarks of a great 
power, some of its leaders have remained focused more on 
meeting their own domestic challenges rather than taking on new 
international obligations.
    This brings me to my second point. Even though China has 
one of the longest and richest histories on the planet, and 
even though it has vast global trading networks today, and it 
is the world's second-largest economy, it still lags behind 
many states, many nations, in its respect for basic human 
rights.
    In recent months, China's Government has intensified 
efforts to control access to information, to restrict freedom 
of speech and assembly, and to interfere in the peaceful 
practice of religion. This crackdown, in our judgment, and we 
have been clear about this at all times in our history, 
represents a violation of universal rights, rights specifically 
guaranteed under Chinese law. Such violations are ultimately 
contrary to the best interests, in our judgment, of any 
government, as we are seeing in the Mideast and elsewhere 
today.
    As Premier Wen Jia-bao himself pointed out last October: 
``The people's wishes and need for democracy and freedom are 
irresistible.''
    Some say that China is not ready for more democracy and 
freedom, but Premier Wen had his own rejoinder to that. He 
said, ``Freedom of speech is indispensable for any country, a 
country in the course of development and a country that has 
become strong.'' Premier Wen, in our judgment, is absolutely 
correct about this, but it is clear that some in China see 
things differently.
    Greater tolerance for dissent would, in our judgment, help 
China produce better results across a range of government and 
private-sector activities.
    Effectively integrating our concern for human rights into 
every facet of our relationship will be one of the Ambassador's 
most important and most daunting challenges.
    If confirmed, Secretary Locke will be responsible, 
obviously, for helping to build the kind of candid and 
cooperative partnership that is essential for both countries.
    I've had the pleasure of engaging with Chinese leaders on a 
number of these issues. I think we have made progress in those 
discussions. I think there has been an increased level of 
candor and an increased level of cooperation on a number of 
different vital issues of concern. And I look forward to 
Secretary Locke's ability to continue to help develop that 
relationship. We want a partnership with China.
    There are some, even in our country, who often talk about 
choices that would actually push China into a different 
relationship. There are some who even want China labeled as 
something other than a partner or a possible friend. I believe, 
personally, and I think others here do, that that would not 
serve our interests and that is not necessary.
    But all of these relationships take work. Countries always 
organize around and react to their needs. That's been true all 
through history. It's not going to change overnight. The art is 
to try to meld those needs into a common effort and to try to 
find ways to cooperate wherever possible in the greater 
interests and good of the larger global community, even as we 
meet our own needs at home.
    Mr. Secretary, I believe that the President has made a good 
and wise choice in nominating you. We certainly look forward to 
your testimony today and to confirming you. And most 
importantly, we look forward to working with you in this 
important task.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming 
Secretary Locke and his distinguished family. The post for 
which he is nominated is one of the most difficult and complex 
in the entire Federal Government. I appreciate this opportunity 
to express our views about the priorities of the United States-
Chinese relationship and learn about the nominee's vision.
    China's global leverage has increased as it has positioned 
itself as the leading creditor nation with more than 18 percent 
of the world's current account balance surplus. According to 
recent data, China is the United States Government's largest 
foreign creditor, holding approximately 25 percent of the 
almost $4.5 trillion we owe to other countries.
    Greater thought must be given to how we work with China to 
establish a more sensible global balance that depends less on 
Chinese credit.
    China remains an extremely important market for United 
States exports. For example, the American Soybean Association 
cites China as the largest export market for United States 
soybeans in 2010, with nearly $11 billion in sales to China.
    But the United States continues to have a severe trade 
deficit with China; the benefits of the Chinese market have not 
reached their full potential for American businesses and 
workers, in part because of impediments to fair competition in 
China. We continue to hear complaints about inconsistent 
application of rules, requirements for ``indigenous 
innovation,'' nontariff barriers to trade, inconsistent market 
access, and lack of enforcement of intellectual property 
rights.
    Civil society within China continues to face immense 
challenges in promoting the rule of law and human rights 
reform.
    In addition to economic issues, the next Ambassador to 
China will also have to focus on a wide array of security 
problems. These include obtaining greater Chinese cooperation 
on issues related to North Korea, Iran, Pakistan, Burma, and 
other nations, as well as maintaining the security of Taiwan.
    The Ambassador must confront the Chinese Government on 
stopping the cyber attacks on the United States Government, 
American companies, and individual Americans that originate in 
China.
    More broadly, our Government must work for a better 
understanding of the interaction between China's military and 
civilian leaders. Earlier this year, during the visit between 
the Senate leadership and President Hu, his role and 
relationship to Chinese military leaders were among the points 
raised by Senators. This topic underscores the need for closer 
communication between the United States and Chinese defense 
establishments, which has been frequently endorsed by Secretary 
Gates.
    The Ambassador must have a deep understanding of China's 
integration strategy for its Southeast Asian neighbors.
    China also is dedicating massive financial resources to 
securing and developing natural resources in many parts of the 
globe including Latin America and Africa.
    Another specific area of concern that has received too 
little attention is the incongruent reality of our public 
diplomacy in China. A Foreign Relations Committee minority 
staff report revealed that while China has more than 70 
``Confucius Centers'' operating in the United States, only five 
American Centers exist in China. The United States must press 
this point of equity for the establishment of American 
information outposts within China.
    Finally, the American Ambassador and our Government must 
give consistent attention to human rights deficiencies in 
China. Unfortunately, political and religious freedoms in China 
continue to deteriorate. This committee needs a firm commitment 
from the nominee that he will work to advance the rule of law 
and human rights in China. He must press Chinese leaders 
regarding the growing campaign of censorship, arbitrary 
detentions, repression, and disappearances.
    I look forward very much to today's hearing to learn more 
about Secretary Locke and his strategy for approaching the 
Chinese in ways that will effectively enhance the economic 
prosperity of Americans and the national security of our 
country.
    I thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Mr. Secretary, your full statement will be placed in the 
record as if read in full. We look forward to your testimony. 
Thank you.

 STATEMENT OF HON. GARY LOCKE, OF WASHINGTON, TO BE AMBASSADOR 
               TO THE PEOPLE'S REPUBLIC OF CHINA

    Secretary Locke. Thank you very much, Senator Kerry and 
Senator Lugar and Senator Webb.
    It's a pleasure to be in front of this committee, and I'm 
very humbled to come before you as President Obama's nominee to 
be the next United States Ambassador to the People's Republic 
of China.
    It's a sign of the importance of the bilateral relationship 
between our two great nations that the President has nominated 
a current member of his Cabinet to serve in this new capacity. 
I want to thank President Obama for his support and his 
confidence in me.
    I'm proud to be joined today by my family, my beautiful 
wife, Mona, and our three lovely children, Emily, Dylan, and 
Madeline. No matter where public service taken us, whether from 
the other Washington to this Washington, and, if the Senate 
confirms me, on to Beijing, they, and especially Mona, have 
been the irreplaceable constants, providing much love and much 
support.
    I also know that if my father, Jimmy, were still alive--he 
passed away this past January--he would be proud, that if I am 
confirmed, to see his son become the first Chinese-American 
U.S. Ambassador to the country of his and my mother's birth.
    My father came to United States as a very, very young boy. 
He joined the United States Army before the outbreak of World 
War II and was part of the Normandy invasion and some of the 
fiercest battles in France on their journey to Berlin. And 
after the war, he returned to China, where he met and married 
my mom, and he brought her back to Seattle where they started a 
family.
    China is a nation they would hardly recognize from their 
childhoods. It's a country filled with ultramodern cities, 
where hundreds of millions have been lifted out of poverty.
    The administration welcomes a strong, prosperous, and 
successful China, but this new status comes with important 
responsibilities. This administration seeks to engage China on 
regional and global affairs to advance international peace and 
stability in ways consistent with prevailing international 
norms, rules, and institutions.
    As Vice President Biden said recently, how the United 
States and China cooperate will define, in significant part, 
how we deal with the challenges the world faces in the 21st 
century.
    If confirmed by the Senate, I pledge to help build the 
positive, cooperative, and comprehensive relationship that 
Presidents Obama and Hu have agreed that our two nations should 
aspire to.
    For more than a decade, opening markets in China has been a 
focus of mine, as Governor of the State of Washington, as an 
attorney in private practice, and now as Commerce Secretary. If 
confirmed, helping United States companies do more business in 
China will be a big part of what I will do every day. 
Increasing exports to China will help create jobs and economic 
growth here at home, but it will also improve the quality of 
life of the Chinese people by providing more access to 
American-made products and services, the best in the world, and 
help China's leaders reach their goals of modernization.
    At the same time, as Ambassador, I will also work to expand 
bilateral cooperation on a host of critical international 
issues, from stopping nuclear proliferation, to rebalancing the 
global economy, to combating climate change. We've made 
significant progress on a number of those concerns, even as 
challenges remain.
    And our work together on North Korea and Iran, though we 
continue to encourage China to do even more, is an important 
sign that we can cooperate to address sensitive issues in the 
United States-China relationship.
    While there are many areas of collaboration, there are also 
areas of vigorous disagreement. That includes human rights, 
where we have very significant concerns about China's actions 
in recent months, especially the crackdown on journalists, 
lawyers, bloggers, artists, and religious groups.
    The protection and the promotion of liberty and freedom are 
fundamental tenets of U.S. foreign policy. And if confirmed, I 
will clearly and firmly advocate for upholding universal rights 
in China.
    And as much as the job of Ambassador is to communicate our 
position to China's leaders, I also pledge to reach out to the 
people of China. And my goal will be to directly convey and 
express the values that America stands for and the desire for 
ever-closer bonds of friendship between our two peoples.
    Let me close by saying that, should I be confirmed, I 
pledge to work closely with this committee, and I hope to host 
each of you and your staffs in China. We have an outstanding 
team of career professionals at the Embassy and at the 
consulates in China. And if granted the privilege of serving, I 
will do my best to honor their work as they pursue and promote 
American interests and objectives in China. We have much to do.
    Chairman Kerry and Senator Lugar, Senator Webb, thank you 
for this opportunity to address you, and I welcome your 
questions and your comments.
    [The prepared statement of Secretary Locke follows:]

                    Prepared Statement of Gary Locke

    Chairman Kerry, Ranking Member Lugar, and members of the committee, 
it is humbling to come before this committee as President Obama's 
nominee to be the next U.S. Ambassador to the People's Republic of 
China. It is a sign of the importance of the bilateral relationship 
between our two great nations that the President has nominated a 
current member of his Cabinet to serve in this new capacity. I want to 
thank him and Secretary Clinton for their support and their confidence 
in me.
    I am proud to be joined today by my family. No matter where public 
service has taken us--from one Washington to the other, and now on to 
Beijing--my wife, Mona, and our three children, Emily, Dylan, and 
Madeline, have been the irreplaceable constants, providing love and 
support.
    I also know that if my father Jimmy were still alive, he would have 
been proud to have seen this day and to reflect on its significance--
the first Chinese-American nominated to be the U.S. Ambassador to 
China, the country of his and my mother's birth.
    If confirmed, my family will join me in taking up the charge of 
representing the promise of America as a land of freedom, equality and 
opportunity.
    Of course, one of the highlights of this endeavor, if confirmed, 
will be joining a brand new family: U.S. Mission China. I know that the 
outstanding team of career professionals at our Embassy and consulates 
will provide the knowledge and advice critical to making this 
transition a smooth one. If confirmed, I will do my best to honor their 
service, as they pursue and promote American interests and objectives 
in China. We have much to do.
    Should I be confirmed, I will work to build the positive, 
cooperative, and comprehensive relationship that President Obama and 
Chinese President Hu have agreed our two countries should aspire to. In 
doing so, I will support our ongoing efforts to expand bilateral 
cooperation on a host of critical international issues, from climate 
change to stopping the proliferation of nuclear weapons and materials. 
I will support enhanced exchanges among our two peoples, especially our 
youth, which is so important to long-term mutual understanding. At the 
same time, I will be realistic and honest about the many challenges and 
differences that exist between us, including our serious differences on 
human rights, and will work toward managing those differences, while 
remaining true to our values as Americans.
    Please allow me to expand on these general comments by examining a 
few issues in greater detail.
    Developing commercial cooperation with China has been a focus of 
mine for more than a decade. As Washington State's Governor, I presided 
over the doubling of exports to China. As an attorney in private 
practice, I helped American companies navigate the Chinese business 
environment. And as Commerce Secretary, I have traveled to China four 
times, made it the first stop of the administration's first Cabinet-
level trade mission and cochaired two Joint Commission on Commerce and 
Trade sessions in which we've won important commitments from the 
Chinese Government.
    If confirmed, helping U.S. companies do more business in China will 
be a big part of what I do every day as Ambassador. It's a win-win 
proposition. American workers benefit, because the more U.S. firms 
export, the more they have to produce, and the more they have to 
produce, the more people they have to hire. That means more jobs here 
at home. But the people of China also benefit, because the more access 
they have to American-made products and services--the best in the 
world--the better the quality of life will be for the Chinese people. 
China's 12th Five-Year Plan also anticipates the need for a more 
balanced economic relationship that will require continued increases in 
U.S. exports and ever-broader collaboration with U.S. companies working 
with their Chinese counterparts. This is good for the United States and 
will help China reach its modernization goals.
    I firmly believe improved United States-China cooperation is 
critical to the world community, and if the Senate grants me the 
privilege of representing the U.S. in China, I will take with me a 
profound understanding of the promise our relationship holds.
    There is so much we can accomplish when we work together. From the 
search for new, cleaner sources of energy--our companies are working 
together through the Energy Cooperation Program--to our successful 
Innovation Dialogue--there are many issues where cooperation is not 
aspirational but reality. I have been proud to be part of that 
expanding cooperative relationship during my tenure as Commerce 
Secretary.
    But I am aware of the challenges that exist as well. The Obama 
administration has made frank and honest conversation an important part 
of our dialogue with China, and if confirmed, I intend to seek to 
engage China's leaders in the same manner. As our relationship 
continues to expand, candor between the leaders of our two countries is 
necessary to strengthen the bonds of trust.
    Action, of course, will also deepen that trust. That's why I will, 
if confirmed, closely follow Vice Premier Wang Qishan's recent pledge 
to continue China's campaign to improve intellectual property 
protection and enforcement, as well as President Hu's January 2011 
commitment to de-link innovation policy from procurement preferences. 
Demonstrating measurable progress on these and other commitments is an 
important element of building trust in the economic and commercial 
sphere between our two countries.
    We also want to see renewed efforts by China to reform state-owned 
enterprises (SOEs). We seek to ensure that large SOEs and other 
national champions are functioning as commercial enterprises within the 
Chinese economy. I have previously made clear that China's lack of 
followthrough on transparency and intellectual property rights 
protection and enforcement commitments made during previous bilateral 
dialogues has meant that U.S. companies have not seen the benefits of 
those commitments. Rebalancing our economic relationship will require 
the type of market opening that the implementation of these commitments 
will bring. The commercial relationship between our nations stands at a 
crossroads, a relationship that can no longer be characterized by China 
making and the United States taking. If confirmed, I will make 
implementation of existing and future commitments a policy priority in 
my interactions with the Chinese Government
    Should I be confirmed, it will be one among many priorities, as we 
work to ensure our shared goals of regional stability and increased 
prosperity.
    To that end, I hope to be an able messenger of the Obama 
administration's policies for the Asia-Pacific region generally and to 
the Chinese Government specifically, if confirmed. Working through a 
whole of government approach, the administration seeks to engage China 
on regional and global affairs to advance international peace and 
stability--and in ways consistent with international rules, norms, and 
institutions. At the same time, the administration will continue to 
work with allies and partners in Asia to foster a regional environment 
in which China's rise is a source of prosperity and stability for all 
its neighbors.
    Along these lines, developing the military-to-military relationship 
will lead to greater strategic trust between the United States and 
China, and we are working to strengthen our existing military-to-
military dialogues, The first meeting of the civilian-military 
Strategic Security Dialogue that took place at the S&ED earlier this 
month and the visit of People's Liberation Army Chief of the General 
Staff Chen Bingde last week were also important steps toward sustained, 
substantive dialogue to reduce misunderstanding, misperception and 
miscalculation.
    Given the pace of China's military modernization, building mutual 
trust is necessary to defuse tensions that may arise, but also 
critically important to living with each other as fellow Asia-Pacific 
nations. The United States is an Asia-Pacific power, and we have a 
strong commitment to defending U.S. interests and values in the region.
    While the United States and China will inevitably have differences 
from time to time, it is far from preordained that those differences 
should lead to conflict. As President Obama has stated, ``We need to 
improve communication between our militaries, which promotes mutual 
understanding and confidence.''
    With regard to Taiwan, the United States has welcomed the progress 
in cross-strait relations achieved over the past 2 years. The United 
States remains committed to our one China policy based on the three 
joint communiques and the Taiwan Relations Act. We do not support 
Taiwan independence. We believe that cross-strait issues should be 
resolved peacefully in a manner acceptable to people on both sides of 
the strait. We oppose unilateral actions by either side to alter the 
status quo across the Taiwan Strait. We urge China to reduce military 
deployments aimed at Taiwan and to pursue a peaceful resolution to 
cross-strait issues. If confirmed as Ambassador, I will continue to 
make these views clear to China's leaders.
    China has also been an important diplomatic player on issues 
concerning North Korea. That has included playing a central role as 
chair of the six-party talks. China has repeatedly stated that it 
shares our goal of a denuclearized Korean Peninsula. If confirmed, I 
will continue to work closely with China to press the DPRK to cease its 
provocative behavior, take meaningful steps to denuclearize, and to 
ensure full implementation of U.N. Security Council Resolutions 1718 
and 1874.
    China also has played an important role in the diplomatic efforts 
to address the threat posed by Iran's nuclear program. The United 
States has been pleased with the unity that China and other P5+1 
partners have maintained in our negotiations with Iran, and we continue 
to jointly insist that Iran comply with its international obligations. 
The administration worked closely with China to pass U.N. Security 
Council Resolution 1929 last June, and have called upon China to ensure 
that this resolution is fully implemented and to take additional steps 
to restrict any new economic activity with Iran that might provide 
support to its nuclear program, including in the energy sector. Iran's 
nuclear program was a key topic of President Obama's talks with 
President Hu, and we welcomed President Hu's assurance that China is 
committed to implementing U.N. Security Council Resolution 1929 and 
other resolutions on Iran fully and faithfully.
    The United States ability to work together on issues such as North 
Korea and Iran is an important sign that we can cooperate to address 
more sensitive issues in the relationship. That includes human rights 
issues. The protection and the promotion of liberty and freedom are 
fundamental tenets of American foreign policy. If confirmed as 
Ambassador, I will be a forceful advocate for promoting the respect of 
universal human rights in China. We do so not only because of who we 
are as Americans. Rather, we do so because greater respect for human 
rights is also in China's interest. As Secretary Clinton said at the 
S&ED earlier this month: ``[W]e know over the long arch of history that 
societies that work toward respecting human rights are going to be more 
prosperous, stable, and successful. That has certainly been proven time 
and time again, but most particularly in the last months.''
    So, the administration is troubled--and I am troubled--by the well-
documented deterioration of the human rights environment in China. To 
name just one prominent case, the detention of artist and activist Ai 
Weiwei raises many issues about China's commitment to building a 
society based on the rule of law. The United States is also very 
concerned about the increased repression of Tibetans and Uighurs, 
continuing restrictions on religious freedom, and increased efforts to 
control the Internet and constrain civil society. As my predecessors 
have, I will raise human rights issues and individual cases with 
Chinese Government officials at the highest levels.
    But as much as the job of Ambassador is to communicate the U.S. 
position to China's leaders, I will also make reaching out directly to 
the Chinese people a priority. Technology is providing new avenues of 
communication with ordinary Chinese citizens. My goal will be to 
express as directly as possible the values that America stands for and 
the desire for ever-closer bonds of friendship between our two peoples.
    I'll close by touching on the nuts and bolts of diplomatic work. I 
bring a personal history as a problem-solver and an effective manager. 
As such, if confirmed, I will focus our diplomacy on results. As 
Secretary of Commerce, I focused on delivering more effective and 
efficient services to American businesses and workers in a way that 
reduced costs and simplified the bureaucratic process. If confirmed, I 
will approach the U.S. mission in China in much the same way, looking 
for ways to engage in public diplomacy that work best to get our 
message across to the Chinese Government and out to the Chinese people.
    If confirmed, I also plan to aggressively confront a number of the 
challenges that Mission China faces. I understand that our facilities 
in Shanghai need to be upgraded to meet the demands that increased visa 
applications have put on the post there. Reduced ability to process 
visa applications has a concrete cost to our economy in lost travel and 
tourism exports. For this reason, I will continue the efforts made 
throughout our posts in China to improve visa appointment wait times 
without losing a focus on security. I have worked closely with the 
State Department's Bureau of Consular Affairs on visa issues as 
Governor and Commerce Secretary and now look forward to continuing that 
partnership as Ambassador, should I be confirmed.
    I have enjoyed the process of conferring with many of you as the 
nominee to be the next U.S. Ambassador to China. I hope that I have 
conveyed to you that I am prepared to undertake this unique opportunity 
to continue my service to our Nation.
    As I seek your support for my nomination, I look forward to having 
the opportunity to continue to learn from your deep experience and 
knowledge about the Asia Pacific region, China, and foreign relations 
generally. If you and your colleagues do vote to confirm me as 
Ambassador, I pledge to work closely with you and your staffs through 
regular consultation, and I hope I will have the privilege of hosting 
each of you and your staffs in China.
    Chairman Kerry, Ranking Member Lugar, and members of the committee, 
thank you for this opportunity to address you. I welcome your questions 
and comments.

    The Chairman. Thank you very much, Mr. Secretary.
    I neglected, in my opening, to point out, but I think it's 
more appropriate that you do anyway, your status as the first 
American of Chinese descent. I think that is really an amazing 
part of the story, and I'm confident it gives you a very 
special level of credibility and capacity to validate a number 
of issues. I think we're well-served in that regard.
    I would like to ask you--obviously, there are a lot of 
issues. But I want to get your sense of how we manage the 
economic component at this point in time. There is a degree of 
anxiety within the Congress with respect to the currency issues 
and the trade practices, some of the procurement practices, et 
cetera. We've had these meetings with the Chinese. We've 
discussed these things.
    Some Americans would suggest that this discussion has been 
going on for quite a while without the kind of results that 
impact their perception of the unfairness of the playing field, 
whether it's intellectual property or other things. The 
progress seems slow to a lot of folks. I wonder if you would 
comment on whether that's just the way it is going to be? Does 
that represent a difference of opinion over it? Does it 
represent the imbalance of negotiating leverage? What's your 
take on why it is taking so long to open up a greater level of 
both transparency and accountability with respect to those 
issues and accomplishing progress?
    Secretary Locke. Well, thank you very much. I think we 
would all agree that progress has been slow, but, in fact, we 
are making progress. And I think progress has been accelerating 
in just the last few years.
    Obviously, both China and the United States, and the G20 
nations, have talked about a rebalancing the world economy, and 
part of that rebalancing includes American consumers being less 
in debt. It also means that we, as a country, have to get our 
fiscal house in order. And the President has very ambitious 
goals, as evidenced by the budget he has proposed over the next 
several years that will freeze domestic spending. And there's a 
lot of discussion now on reducing our debt and our deficit.
    But, also, China recognizes that it must export less and 
must focus more on domestic consumption. And we in the United 
States must also export more.
    So these are opportunities of win-win before us that can 
actually have United States companies exporting more to China 
and, certainly, meeting the needs of both the Chinese leaders 
and the people of China.
    There's a great hunger and a great demand for things that 
are made and produced in America, from services to products to 
agriculture. And just in the last year alone, United States 
exports to China, goods rose by 32 percent, whereas, across the 
United States, exports to other countries grew on average 17 
percent. Our exports to China are growing at a faster rate, by 
roughly 50 percent, than elsewhere to the rest of the world.
    And we are seeing movement on the currency. China has 
recognized it needs to allow its currency to float more freely. 
We, of course, think that it should float more and faster. But 
when you also combine the effect of inflation in China in the 
last year, we've seen the movement of the currency by roughly 
10 percent. Obviously, we still want more.
    We have a variety of different fora, whether it's the 
Strategic and Economic Dialogue, as well as the Joint 
Commission on Commerce and Trade, where we address these very 
specific as well as global issues. We have made progress, but 
we have to make sure that we monitor the progress of China, 
make sure that they adhere to their commitments, whether it's 
on intellectual property--the Chinese have a campaign right now 
that's supervised by the State Council Vice Premier Wang 
Qishan. That campaign has been extended to really ensure that 
the Government agencies and state-owned enterprises purchase 
legitimate software. But we've got to monitor that, and we're 
demanding and insisting on accountability and audits to make 
sure that the Chinese follow through.
    But, still, it's a very important relationship, and 
certainly one in which we need to convey to the Chinese that it 
is in their mutual self-interests to engage in free and fair 
trade, and to also, as you indicated earlier, not just abide by 
international norms and institutions, but be a world player and 
help lead and help solve some of the many issues facing the 
world.
    The Chairman. Well, let me come to that for a minute. 
Obviously, everybody understands that the Chinese leadership 
and people are smart, very analytical, very capable of defining 
what they see as their interests. I wonder, given the fact that 
you constantly hear from them the refrain about, 
notwithstanding their wealth that has been created on one side 
of the ledger, they still have 450, 500 million people--perhaps 
twice the size of the United States even, to try to bring into 
a more urban/industrial standard of living out of agrarian 
roots. That's the constant challenge.
    There's a unique focus, as you're well aware, among Chinese 
leadership on their internal challenges. We talk about their 
interests, we want to persuade them to see that their interests 
are also served by an outward focus. How do you do that, in 
your judgment? What is it that you think they're missing, 
conceivably, when they see their interests as being very 
specifically focused on this internal struggle?
    Secretary Locke. Well, their interests, and with respect to 
some of their internal challenges, focus, for instance, on 
food, feeding a growing population, shortages of food, 
insufficient energy--in recent days, you've seen reports of 
limitations or reductions in electricity available for 
factories and even households--to the health and welfare of 
their citizens.
    And there is a great desire, given the contact with the 
West, given the ability of the people of China to either visit 
and see what other developing countries are enjoying, to even 
seeing American life on television shows, there is a hunger for 
greater prosperity and a higher standard of living. And the 
Chinese Government is very concerned about making sure that 
there is stability within the country.
    And these are the areas in which the United States 
companies and the United States Government can help meet those 
needs of both the Chinese leaders and the aspirations of the 
Chinese people that can, for instance, help reduce our trade 
deficit; help American companies sell more of their American-
made goods and services, including agriculture, to China; and 
to meet those objectives of the Chinese people and leaders.
    Those are just--we need to convince and inform both the 
leaders of China and the people of China that America stands 
willing to help, and it can result in a mutually beneficial 
relationship.
    The Chairman. Well, let me just ask one last question with 
respect to that, sort of hone in on China's interests.
    When we met with President Hu here, I raised, and I think 
some other people raised, the question with him about their 
efforts with respect to North Korea. They tell us that they 
don't want a nuclear North Korea, that North Korea's current 
activities are contrary to China's interests, and they voted 
with us, obviously, in the U.N. to impose sanctions. But 
despite the, sort of, public affirmations of being with us in 
terms of our goals, the methods they adopt, and even the 
enforcement, often takes a very different track.
    A recent U.N. report faulted China for not adequately 
enforcing the sanctions against North Korea. We know that the 
North Korean leader Kim Jong-il is in Beijing, I think right 
now, as we're here, focusing on the economic ties between the 
two countries.
    How do we get China to exert what we believe is greater 
leverage with respect to North Korea's behavior, particularly 
their aggressive behavior toward the South, and some of the 
dangerous moments that have been created in the last few years 
as a consequence of that? You would sort of think there was a 
greater ability. Are we misjudging their capacity, or are they 
judging their interests differently?
    Secretary Locke. No, I don't think that we're misjudging 
their capacity. In fact, China has been a vital partner in the 
six-party talks, and China has a very unique role, given its 
influence and its ties with North Korea.
    We, obviously, urge China to do more to influence North 
Korea's behavior. And I think that the recent provocations by 
North Korea and the reaction by the South is giving China pause 
and causing China to realize that it has to step up to diffuse 
the situation, to make sure that no further provocations occur, 
which could then result in retaliatory actions by South Korea, 
which would simply destabilize the entire region.
    So I think that there's a greater urgency and understanding 
of how delicate the situation is, and how North Korea must be 
brought back to the six-party talks, and how, simply, they must 
abandon their nuclear aims and objectives. I think that China 
understands that.
    The Chairman. Do you think China can do more?
    Secretary Locke. China can definitely and must do more.
    The Chairman. Thank you, Mr. Secretary.
    Senator Lugar.
    Senator Lugar. Secretary Locke, as I mentioned in my 
opening statement, I remain concerned, as do many Americans, 
that while we have welcomed the building of 70 Confucius 
Centers in the United States, China has authorized only five 
American Centers to be built on Chinese soil. I want to focus 
for just a moment to get your views on public diplomacy as it 
pertains to our relationship with China.
    In addition to this problem, recent budget prioritization 
efforts have rendered it likely that we are to see the Voice of 
America ending its effort to jam shortwave radio broadcasts but 
with a refocus on the Internet instead. Additionally, I'm 
pleased the Broadcasting Board of Governors received an 
additional $10 million recently to help circumvent what's known 
as the Great Firewall.
    The administration's efforts to get more American students 
to China through the 100,000-strong program are certainly 
laudable but remains very badly underresourced. Meanwhile, 
China's largest state-run media, Xinhua, opened its new office 
in Times Square just last week.
    These are just fragments of the problem, but 
nevertheless,how do you perceive American diplomacy being 
pushed, so that we are able to get an audience with the Chinese 
people themselves, in addition to the conversations we've been 
having with the Chinese leadership?
    Secretary Locke. Well, I think it's very important that we 
engage with the Chinese people directly. It's not enough just 
to talk with the Chinese leaders, because the appetite for more 
freedom and democracy among the Chinese people rests with the 
people themselves. The more exposure we can give them to 
American values, freedoms, democracies, the more interaction 
they have with Americans, whether it's American tourists, 
American students in China, or even Chinese tourists and 
Chinese businesspeople coming to the United States, will I 
think promote those democratic reforms and the appetite for 
greater liberties and freedom.
    Obviously, the State Department would welcome more funding 
for many of these programs of diplomacy, but I think we also 
need to be aware of the new methods by which people communicate 
with each other over the Internet. And so we will continue what 
Ambassador Huntsman did in terms of blogging and messages over 
the Internet to the Chinese people.
    But I also believe that, as I have experienced as Governor, 
we want to continue reaching out to the Chinese people using 
radio and television shows, and their versions of almost like 
Oprah, which reach hundreds of millions of people, which are 
repeated over and over and over again.
    And so those are the types of mechanisms and media 
strategies that we would like to deploy.
    Clearly, we need to--I believe that there is a growing 
interest among America's young people to study in China. We 
need to encourage more exchange programs by American colleges, 
universities, and just encouraging more semesters and years 
abroad. And that's how we can also help fulfill the President's 
goal of having at least 100,000 American students studying in 
China.
    Senator Lugar. Well, when you become our Ambassador and you 
have boots on the ground over there, I hope you will stay in 
touch with our committee and with those of us who are deeply 
interested in this, because, as you say, there are going to be 
budget problems. These are problems that Congress must face, as 
well as our Embassy in Beijing. I'm just hopeful that this will 
be a major focus of yours, as you've outlined very cogently 
this morning.
    I would also hope that you will be a champion for 
intellectual property rights. This issue challenges many 
American companies in China, as well as American individuals. 
What new lessons do you believe you've learned in improving the 
property rights situation during your time as Secretary of 
Commerce as these issues have come before you in that forum. 
And how do you think we might make progress, if you are in 
China?
    Secretary Locke. I think we certainly need to interact with 
not just the leaders of China but also businesses of China and 
especially the young people of China, the students in the 
colleges and universities there. Because as they begin to 
innovate, as they begin to engage in cutting-edge research, 
they also need to understand that, without intellectual 
property rights protection, their discoveries, their hard-
earned work, could be for naught.
    I believe that we simply must convey the message that it is 
in the economic self-interests of the Chinese people and the 
Chinese Government to have strong intellectual property rights. 
And without strong IPR, innovation will either occur elsewhere 
or not at all within China.
    And with state-owned enterprises or with government support 
of R&D, if there's not a strong intellectual property rights 
regime, those investments could be stolen, could be 
appropriated by others. And that's not in the self-interests of 
either Chinese entrepreneurs, Chinese companies, or the Chinese 
Government.
    We're already beginning to see some increase in enforcement 
and strengthening of intellectual property rights. And we have 
many exchanges through Commerce Department, Justice Department 
and even American Bar Association groups traveling to China to 
help develop a rule of law.
    But we must continue to push these issues, as we have in 
the Strategic and Economic Dialogue, and even in our Joint 
Commission on Commerce and Trade, cochaired by the Commerce 
Secretary and our U.S. Trade Representative, Ambassador Kirk.
    I can tell you that in this most recent JCCT meeting, the 
Chinese agreed to extend their campaign on legitimate software 
among government agencies, national and at the subregional 
level. We need to hold their feet to the fire. We need to make 
sure that there are audits that we can all depend on. And, in 
fact, the Chinese president, Hu Jintao, reiterated that support 
in his visit to the United States this past January.
    It is a very important, high-priority topic for the U.S. 
Government as a whole. It has been for me as Commerce Secretary 
and will continue to be a top priority as the Ambassador to 
China.
    Senator Lugar. Let me just ask one further question, 
without speculation that is undue, but many believe that 
inflation in China is picking up steam--at least many Chinese 
leaders seem to indicate that, in fact, a so-called bubble 
might form in the Chinese economy. This has many greater 
dangers than bubbles forming elsewhere, because of the enormity 
and the credit position we talked about earlier today, in which 
the Chinese are financing through sovereign funds a good part 
of our budget, as well as other countries'.
    What role, in your view as potential Ambassador to China, 
do you believe we can play in being helpful in that situation? 
Because this could be of great consequence to us, to Europe, 
and to the world, if for some reason the Chinese do have an 
inflationary bubble and a recession that markedly changes the 
current trends in international matters.
    Secretary Locke. I think that, clearly, there--we need to 
help open up the Chinese market to some of our services, 
whether it's in insurance, whether it's in pensions and other 
areas of the financial services market. We also need to help 
lend our expertise to China as they deal with some of these 
economic issues.
    But I really believe that the key is the rebalancing of the 
world economy, in which they are not so dependent on exports 
but also focusing more on domestic consumption.
    Of course, if they have a recession, that could have an 
impact on that type of domestic consumption. But it's something 
that we're going to have to watch very, very carefully, and we 
are going to have to encourage even more exchanges and 
deliberations between our top financial services sector, as 
well as our financial institutions and our Government 
officials. Secretary Geithner has a whole host of 
collaborations and exchanges with his counterparts in China.
    Let me just also add that 70 percent of Treasuries are 
actually held by domestic companies; 70 percent of our 
Treasuries are held by domestic entities. And of the 30 percent 
remaining held by other entities, China has about a third of 
that. And so China's hold on, or ownership of, our securities 
really is only 8 percent of our total debt, and in no way does 
China's position in any way influence U.S. foreign policy.
    Senator Lugar. Thank you very much.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Locke, I would like to congratulate you on your 
nomination, and I know how great a moment this must be--not 
only for you--but for your family. We wish you the best in this 
assignment. I want you to know that I appreciate your having 
come by my office for the extensive discussions that we were 
able to have.
    I have three questions that I would like to get your 
thoughts on today. The first is: I held a hearing, in my 
capacity as the chair of East Asia Subcommittee on this 
committee regarding the consistency and, lack thereof, in our 
characterization of governmental systems rather than human 
rights, per se.
    We talk about human rights. ``Human rights'' is something 
of an amorphous term when you're looking at relations with 
different countries. It's important, but for instance you could 
characterize, even in a country like the United States with a 
free and open governmental system, someone could allege that a 
first amendment violation is a human rights violation, or an 
eighth amendment violation is a violation of someone's human 
rights. But when you get to countries such as China, what we 
really have is a fundamental difference in governmental systems 
that rarely gets discussed when we're in hearings like this. 
They do not have democratic systems and they don't have 
elections, as we understand them.
    The Freedom House evaluations of freedom of the press rate 
China at the bottom among the 40 countries in the Asia-Pacific, 
other than Burma and North Korea, in terms of basic freedoms of 
the press.
    So we are, on the one hand, in an environment where we do 
want to push our economic interests forward, and we do want to 
ensure that there aren't misunderstandings in terms of security 
issues. And we want to work toward a time when those can be 
resolved for the stability of the region. But we're still 
talking about two completely different systems of government.
    What are your thoughts about the challenges of that, and 
what the future holds?
    Secretary Locke. Well, obviously, there are major 
differences between our histories as countries; our cultures, 
our values; and, certainly, our governmental systems.
    As you note, there's been much criticism of human rights 
issues and freedom of the press issues in China. 
Notwithstanding that, I believe that there's a great appetite 
and a hunger by the Chinese people for information as to what's 
happening all around the world. And the Chinese people are able 
to obtain much of that information. And what we must do as a 
country is to engage with the Chinese people directly and to 
convey the values that America stands for and our views on 
various issues.
    And while much of the press is controlled by China, there 
is also a growing movement for greater freedom among the press. 
I think that it's incumbent upon the Ambassador and other 
American Government officials who operate in China, whether 
it's from our Embassy or even visiting Members of the Congress, 
to take advantage of those different mechanisms of talk shows, 
radio shows, meeting with students, using the Internet to 
communicate and to express the values for which we stand.
    Senator Webb. Thank you. My second question relates to the 
concern that I and many people have regarding the role that the 
Chinese Government should be playing in assisting in the 
resolution of challenges--a role that is more at a level of its 
emerging power around the world. You mentioned some cooperation 
in the areas of Iran, Burma, and North Korea in your opening 
remarks. There are other issues where I think we could 
encourage the Chinese to become more visible and proactive in 
the international environment as we reach towards solutions.
    I've held two hearings on sovereignty issues, different 
kinds of sovereignty issues, both of which, I believe, we 
really could benefit from a more overt participation from the 
Chinese.
    The first are the sovereignty issues in the South China 
Sea--the Spratly Islands, the Senkakus, the Paracels--where the 
position of China has been that they will only negotiate in a 
bilateral environment, which makes it impossible to solve those 
issues, quite frankly.
    The other hearing, as I discussed with you when you visited 
my office, was on the issues of downstream water rights--the 
Mekong River particularly, but also the Red River that goes 
into the north of Vietnam. China is one of the few countries in 
the world that does not recognize riparian water rights 
downstream. With these hydroelectric dams being built, there 
are serious potential environmental consequences in the Lower 
Mekong and also in the northern part of Vietnam.
    What can we and you do to encourage the Chinese to 
participate in finding solutions to these sovereignty issues in 
other than a bilateral environment?
    Secretary Locke. I think that we need to impress on China 
that stability of the Asian region is, obviously, in the 
interests of not just the other countries but also China; and 
that, therefore, engagement on these issues is in its self-
interest as well, dealing with water, dealing with disputed 
territorial claims; and that they should be addressed in a 
peaceful, collaborative way that adheres to international norms 
and rules.
    Senator Webb. Thank you. The final question I have is with 
respect to China's continued status as a developing country in 
terms of per capita income, which allows their Government to 
receive billions of dollars in multilateral assistance and 
concessional lending for a lot of their development projects at 
a time when they're sitting on trillions of dollars of surplus, 
because of their trade balances. What would your comment be on 
that?
    Secretary Locke. Well, I think that there needs to be a 
more frank recognition that while China is considered a 
developing country, it is more developed than most other 
countries, and that various international mechanisms must 
recognize that.
    For instance, that's the position of the United States in 
the current negotiations over the Doha Round. There are degrees 
of developing countries, many that are more developed than 
others, and that not all should be lumped in the same 
categories. And I think that applies with some of these same 
issues that you've just raised.
    Senator Webb. Thank you very much.
    Senator Lugar. Senator Webb, Chairman Kerry has asked that 
the gavel be handed to you, as chairman of the subcommittee, at 
this juncture, and I'm pleased to yield that gavel to you to 
continue the hearing.
    Senator Webb. All right, I will continue on. Thank you very 
much, Senator Lugar.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service to our country. 
It's been exceptional, and I appreciate it very much.
    This is an incredibly important position that you have been 
nominated to, and I have three lines of questioning that I will 
pursue: one is on Taiwan; one is on Iran; and the other is 
intellectual property issues.
    I cochair the Senate Taiwan Caucus, and I am extremely 
concerned about the military imbalance in the Taiwan Strait. 
Successive reports issued by both Taiwanese and U.S. defense 
authorities clearly outline the direct threat faced by Taiwan 
as a result of China's unprecedented military buildup. And 
experts in both our country and in Taiwan have raised concerns 
that Taiwan is losing the qualitative advantage in defense arms 
that has served as its primary military deterrent against 
China. To counter this buildup, the Taiwanese have sought to 
modernize their fighter fleet, which I believe, in terms of 
Taiwan's defense and deterrent capacity, is in the U.S. 
national security interest, as well as is promoted and 
compelled by the Taiwan Relations Act.
    Later today, I'll be sending a letter to the President, 
along with 44 Members of the United States Senate, requesting 
that the administration accept Taiwan's letter of request and 
move quickly to notify Congress of the sale of F-16s.
    Could you share with me your view on the question of the 
military balance in the Taiwan Strait? And do you believe that 
the United States should proceed with the sale of 66 F-16s to 
Taiwan?
    Secretary Locke. Let me first say that the United States 
remains committed to our one-China policy based on the three 
joint communiques and the Taiwan Relations Act. We believe that 
the cross-strait issues must be resolved peacefully, in a 
manner that is acceptable to the people on both sides of the 
strait. And the administration will continue to follow the 
Taiwan Relations Act and make available to Taiwan defense 
articles and services necessary to enable them to have a 
sufficient self-defense capability. We also believe that China 
must reduce its military deployments aimed at Taiwan.
    Having said that, no decision has been made with respect to 
further sales of defensive items to Taiwan. That is under 
review, and that is being evaluated by both others within the 
Defense Department and the State Department.
    Senator Menendez. I expected that formal answer. Let me go 
further, since you are going to be the United States Ambassador 
to China. I understand the one government policy, but you can 
be devoured if you do not have the ability to defend yourself. 
Is it going to be very clear, from your position, should you be 
confirmed, that Taiwan has, within the one China structure, the 
continuing right to exist and to make its own self-
determinative efforts there?
    Secretary Locke. Well, that is a fundamental part of our 
one-China policy, that the United States stands with Taiwan to 
ensure that it can defend itself and that its self-defense 
capabilities are never eroded.
    Senator Menendez. The problem is that Taiwan has been 
seeking this help since 2006, which precedes this 
administration. We are going to close down the F-16 line, if we 
do not make this sale, leaving Taiwan in a position that is 
indefensible, at the end of the day. And to me, that will only 
exasperate matters for the one-China policy.
    So I do hope that, within the administration, you'll 
advocate for making sure that balance is retained, which 
ultimately is in our collective interest. I mean, it is very 
rare that we get 44 Members, in a bipartisan way, of the U.S. 
Senate to join together to send a message to the 
administration.
    Second, on Iran, there is a long history of Sino-Iranian 
relationship and nuclear cooperation. And both parties remain 
keen on enhancing their political and economic relationships. 
My concern is that the Chinese continue to share sensitive 
ballistic missile, chemical, and nuclear weapons technology 
with Iran.
    As a matter of fact, last month, Jane's Defense Weekly 
reported that the Chinese inaugurated a missile plant in Iran. 
Given this history, what steps will you take, as Ambassador, to 
address with the Chinese Government the serious concerns held 
by the United States, as well as the international community, 
about its support and engagement with Iran?
    Secretary Locke. Well, first of all, we note that China has 
actually played a very important role in diplomatic efforts to 
address the threat posed by Iran's nuclear program and was 
instrumental in helping craft the U.N. resolution. But we've 
also said that we're very concerned that China and Chinese 
companies not backfill, especially in the energy sector where 
other companies from around the world are leaving or departing 
Iran, because we know that, certainly, if other companies from 
China are engaged in helping develop Iran's energy sector, that 
will provide income, which can then be used to help develop and 
further develop Iran's nuclear capability, and that we very 
much oppose.
    So we very much believe that China can and must do more. 
And, of course, we have, in the United States, passed our own 
set of sanctions and legislation. And I want to inform you and 
reiterate that on Tuesday, the State Department announced 
various proliferation-related sanctions against several 
companies and individuals from around the world, including 
three Chinese companies and one Chinese individual.
    So we take what China is doing and what Chinese companies 
are doing very, very seriously. Any proliferation and 
additional work by Iran on nuclear arms is of paramount 
importance and of concern to the United States. And we believe 
that China can and must do more to not only abide by the U.N. 
resolution but help enforce it, and also to understand the 
position of the United States, even with respect to our 
sanctions policies.
    Senator Menendez. So you will do that robustly as the 
Ambassador?
    Secretary Locke. Very much so, sir.
    Senator Menendez. Finally, intellectual property 
infringement--you have been at the forefront of trying to 
promote America's opportunities to send its products and 
services abroad. But I know that you know that the U.S. 
International Trade Commission just released a 332-page report 
on IPR infringement and its effect on U.S. competitiveness. 
That report suggests that the losses to U.S. industry are 
valued at $48 billion, resulting in over 2 million lost jobs.
    When President Hu visited President Obama in early January, 
there were high hopes that the special intellectual property 
rights campaign would yield results, but we haven't seen any 
dramatic changes in China. One aspect of this issue that hits 
close to home in New Jersey, is the online journal piracy 
conditions that have not improved on the ground--we have a 
company in New Jersey with 50,000 workers in the United States 
and over 3,000 in my home State, that consistently finds itself 
with direct IPR violations where Chinese libraries consume the 
intellectual property rights of its medical and other journals.
    Will you vigorously, as our Ambassador, impress and pursue 
the Chinese to seek enforcement of these intellectual property 
issues, both in the online context and in the broader context?
    Secretary Locke. That was one of my top priorities as 
Commerce Secretary, and, perhaps, once a Commerce Secretary, 
always a Commerce Secretary. It's certainly a top priority for 
the United States Government, period. And that includes my work 
as Ambassador, if I'm confirmed.
    Senator Menendez. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Senator Webb, you can continue to chair. I'm 
here just for a few minutes. I have another meeting to go to, 
so I apologize. I wanted to come back and tell Secretary Locke 
I wasn't racing away, but we have competing Finance Committee 
and a couple other things going on. I apologize.
    Senator Webb [presiding]. All right.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Secretary, you certainly have a challenging job in 
front of you. There are lots and lots of different issues, and 
a lot of them have been aired here, and I'm not going to go 
over all of them.
    But one of the things that is important to me, and I think 
important to all Senators, and this is particularly true for my 
service on the Intelligence Committee and on this committee, is 
that the United States has a policy of trying to contain both 
Iran and North Korea, and contain their nuclear ambitions.
    And, of course, the only way countries like this can pursue 
their nuclear ambitions is to have very sensitive and highly 
technical materials that they buy from somewhere. And we all 
know that the United States is very diligent in containing the 
products that are produced here from winding up in the hands of 
either the Iranians or the North Koreans.
    Unfortunately, we do find that there are Chinese products 
that wind up there. And China says the right things. It, 
publicly, takes the position that they don't support that. And 
yet, it is Chinese companies that are doing business through 
the back door, or the black market, or what have you, that do 
allow certain technological equipment to get in the hands of 
both North Korea and to Iran.
    And so, I want to encourage you, in the strongest terms, to 
reinforce with the Chinese our concern about that, and how you 
can't talk about it in one setting and yet turn a blind eye in 
the other setting, as your companies profit from helping arm 
these particular countries. So that's as much a statement as it 
is a question, and I know you've talked about it a little bit, 
but I'd appreciate, perhaps, if you could enhance your 
testimony in that regard.
    Secretary Locke. Well, again, in both North Korea and in 
Iran, China played a very constructive role in helping pass and 
formulate the U.N. resolutions----
    Senator Risch. And we appreciate that.
    Secretary Locke [continuing]. That imposed sanctions on 
both North Korea and Iran. But it's important, as you 
indicated, that those obligations be enforced throughout the 
world.
    And that's why, for instance, on Tuesday the State 
Department announced proliferation-related sanctions against 
several companies, including Chinese companies and Chinese 
individuals, in addition to entities from elsewhere around the 
world.
    Stopping proliferation is the utmost priority of the United 
States Government, and that includes the Ambassador to China. 
And we need to convey to the Chinese people and to the leaders 
of China that it's also in their national security interests to 
avoid proliferation of weapons of mass destruction and the 
nuclear capability of both North Korea and Iran, and that 
whatever commercial benefits some of their companies may obtain 
by continuing to sell or transfer technology to North Korea or 
Iran, that the risks and the potential destabilizing order in 
the world are not outweighed, that peace and security for the 
entire world outweigh any potential commercial advantages 
gained by few companies or individuals.
    Senator Risch. And I think that's an important point to 
make, is that the profits are very modest compared to the harm 
that can be done internationally and overall, by putting these 
highly sensitive products that have been developed by a very 
sophisticated people into the hands of those who want to use it 
not for good. So I think that's a very important argument, and 
I appreciate that.
    Thank you very much, Mr. Secretary.
    Thank you.
    Senator Webb. Thank you, Senator Risch.
    Senator Cardin.
    Senator Cardin. Do you----
    Senator Webb. I have a follow-on question. I'm acting now 
in my capacity as chair of the East Asia Subcommittee. I know 
you outrank me. If you want the gavel, you got it, but I've 
still got one more question. [Laughter.]
    Senator Cardin. No, I----
    Senator Risch. Maybe we can have an election over there. 
You know, I can help. [Laughter.]
    Senator Cardin. Thank you, Mr. Chairman. I appreciate that 
very much, Chairman Webb.
    I want to follow up on a couple points that were raised by 
my colleagues.
    And, Secretary Locke, it's a pleasure to have you here, and 
I just personally want to thank you for your willingness to 
allow your name to come forward for this position. Your 
background and training is what we need representing our Nation 
in China. And your record in Commerce I think will be very 
valuable to your role as Ambassador. So I thank you, and I 
thank your family, for your willingness to continue in this 
role.
    I want to follow up on points raised by several of my 
colleagues on commerce issues, starting first with intellectual 
property. I know Senator Menendez just questioned on that.
    I just want to underscore the importance to American 
manufacturing and to American production that we impress upon 
the Chinese their international responsibilities on enforcement 
of intellectual property issues. It's in the manufactured 
products; it's in creative products; it's in so many different 
areas that China has been a major abuser of allowing products 
to be manufactured or stolen in their country, violating U.S. 
intellectual property issues.
    I just really wanted to underscore that point. And I heard 
your response to Senator Menendez, and I just want to encourage 
you to make this a very high priority.
    I want to talk a little bit about China as it relates to, 
also, the currency manipulation issue. You and I have had a 
chance to talk about that. But if there is one issue that 
probably is the most dominant, as far as a level playing field 
for U.S. manufacturers and producers and farmers, it's having a 
level playing field on currency. And I would hope that you 
would make that also a top priority on your portfolio.
    China has made some progress recently, only because they 
felt it was in their direct economic interest to do that. That 
seems to be the way that they move forward. They don't do it 
because of respect for a level playing field. And I would hope 
that our policy would be very clear that they must allow their 
currency to float, reaching its economic balance and not an 
arbitrary balance.
    Those two, I guess, are my principal economic issues that I 
would hope that you would take forward and move forward on, and 
I would be glad to get your response.
    Secretary Locke. Again, intellectual property rights in 
China remains very problematic. It's a top priority for the 
United States Government. It was a top priority for me in all 
of my discussions with Chinese officials as Commerce Secretary 
and even before joining the United States Government, even as a 
lawyer on behalf of U.S. companies helping open markets for 
U.S. companies in China. It will be a top priority for me as 
Ambassador to China, if confirmed by the Senate.
    And we know that the inability or the lack of China's 
currency floating and being set by market forces puts American 
companies at a disadvantage and at an unfair position.
    All of our work at the Department of Commerce, which will 
continue as Ambassador to China, if confirmed, is to ensure 
that American companies have fair and open access to China. And 
that includes nontariff barriers. It includes currency. It 
includes a level playing field. It also includes intellectual 
property rights, because as the recent report that Senator 
Menendez indicated, U.S. companies are losing tens of billions 
of dollars because of violations of intellectual property 
rights. That's of great concern to us in the United States 
Government and will continue as Ambassador to China.
    Senator Cardin. One final point and that is that China is 
becoming a more interesting country, as it relates to our 
policies in the Middle East. We've seen recent events between 
Pakistan and China indicating that they're becoming more 
interested in that region. China, of course, holds one of the 
permanent seats in the United Nations and, obviously, we have 
to work with China in that regard.
    I would just like to get your assessment as to where we 
think we can make advancements in China's help as it relates to 
our policies in Iran or Pakistan or Afghanistan, in the region, 
as to how China could be a more constructive partner for the 
United States.
    Secretary Locke. The United States and China actually have 
collaborated on a whole host of issues, including countering 
terrorism. And, of course, that's of great interest and of 
particular importance in Afghanistan and Pakistan. And so we 
share interests in stability in that region, and in countering 
terrorism.
    And we, therefore, are encouraging China, given its 
alliances with, for instance, Pakistan, to do more in the area 
of countering terrorism. And I believe that because Afghanistan 
and Pakistan are so close and part of the region bordering 
China that they have deep interests in ensuring stability in 
that region as well.
    So we need to really partner with them and urge China to do 
even more in helping promote and using the alliances that they 
have to promote that stability.
    Senator Cardin. Well, thank you. I know they since you have 
taken on the position in the Cabinet, you have been living in 
the State of Maryland. We welcome you in Maryland any time. We 
hope that you will come back soon, and we're very proud of your 
nomination.
    Secretary Locke. We've been very, very pleased to live in 
Maryland.
    Senator Cardin. Thank you.
    Senator Webb. As a Senator from Virginia----
    [Laughter.]
    Senator Webb [continuing]. Let me just say, we have pretty 
nice neighborhoods in Virginia as well.
    Senator Cardin. He made the right choice.
    Secretary Locke. Let me just say, it was a tough choice----
    [Laughter.]
    Secretary Locke [continuing]. No, honestly--between the 
great school systems in Virginia and in Maryland.
    Senator Webb. The thing I learned in politics is, quit 
while you are ahead. [Laughter.]
    Maryland has good places, too.
    Let me first just say, as a quick follow-on to something 
Senator Cardin said. I mentioned in a hearing about a week ago, 
when we had General Jones, that, in context of what we were 
discussing a little while ago, and then Senator Cardin raising 
it with the Afghanistan region, we tend to examine and debate 
the Afghanistan situation moving laterally out into Afghanistan 
to Pakistan, and Pakistan to India. But, I believe the movement 
toward resolution in that part of the world could give China a 
major opportunity to demonstrate that it can assume some 
leadership with a country that it has had a special 
relationship for a long time. And I would hope that you would 
find a way to encourage that.
    I want to ask you a question about the transshipment of 
arms. This is particularly troubling with respect to China's 
relationship with North Korea, and some allegations that have 
been made.
    Last week, China blocked the release of a United Nations 
report by a seven-member panel tasked with monitoring sanctions 
against North Korea. The report concludes that North Korea has 
been exporting missiles and technology in violation of U.N. 
sanctions, with diplomats saying that these shipments were 
transiting China to Iran.
    We have other allegations over the past year or so with 
respect to Burma, Congo, and Burundi. All of them go back to 
that fact that at some places in China there were 
transshipments, usually from North Korea, but not exclusively.
    One commentator a couple days ago said: ``Many analysts 
argue that China is committed to upholding its U.N. 
obligations, but it has a problem of lax export-control 
enforcement. But while China cannot marshal the resources to 
prevent the transshipment of North Korean weapons, it can 
commit 300,000 Internet police to monitor online traffic and 
stifle free speech.''
    What is the State Department's policy on this issue, and to 
what degree do you believe it is a priority issue in terms of 
our future relations?
    Secretary Locke. Well, we're very, very concerned about 
these allegations of transshipment, and we believe that the 
reports should be released so that there can be greater 
transparency and scrutiny on what is happening by North Korea.
    And getting back to the issue of the region itself, and the 
special relationships that China has developed with several of 
these countries, we believe that China should use its influence 
as a source for stability and security and prosperity for the 
entire region. And we will be encouraging China to use that 
special relationship to increase that security and stability of 
the region.
    That also applies to North Korea. We're very, very deeply 
concerned about transshipment of weapons systems material from 
North Korea to other parts of the world.
    Senator Webb. Thank you. Could you provide us with the 
State Department policy on this issue of the transshipment? 
We've had some difficulty getting a clear statement from the 
State Department on transshipment, per se.
    Secretary Locke. I will try to do that, sir.
    [The written information from Secretary Locke follows:]

    Stopping the transshipment of North Korean weapons is a high-
priority issue. The United States has strongly urged all member states, 
including China, to implement U.N. Security Council Resolutions 
(UNSCRs), 1718 and 1874 in a full and transparent manner. We have 
regularly communicated our concerns to the Chinese Government that 
North Korea may seek to use Chinese airports or seaports to transship 
items and technology that are banned for transfer to other states under 
UNSCRs 1718 and 1874 and reminded China that UNSCR 1874 calls upon 
States to inspect all cargo to and from North Korea in their territory, 
including seaports and airports, where there are reasonable grounds to 
believe that the cargo contains items that are banned for sale or 
transfer under the resolutions.
    We have ample ground for concern that these sorts of transactions 
have occurred. For example, the May 2010 report of Panel of Experts set 
up to advise the UNSCR 1718 (North Korea) Sanctions Committee stated 
that a shipment of T-54/T-55 tank parts and other military goods bound 
for the Republic of Congo and seized by South African authorities was 
transshipped via the port of Dalian in China.
    The United States has urged China to be more vigilant in its 
enforcement of both UNSCR 1718 and UNSCR 1874, as well as its own 
national export control laws, including through greater scrutiny of 
North Korean cargoes transshipping via Chinese ports. We continue to 
urge China to inspect North Korean cargoes and, if items prohibited 
under these UNSCRs are found, to seize and dispose of those items as 
required by UNSCR 1874. We routinely raise these concerns in our 
regular dialogues with China, and we have also offered to provide 
technical assistance to Chinese authorities to improve customs and 
other export control enforcement activities.
    Most recently, during the Dubai Transshipment Conference, Acting 
Assistant Secretary of State Vann Van Diepen announced a series of 10 
best practices that we would urge all states, including China, to adopt 
in order to better regulate the transshipment of sensitive items. As 
China is a key transshipment hub, we will continue to encourage China 
to adopt these measures and to increase its vigilance against North 
Korea proliferation activities.

    Senator Webb. Thank you. And with respect to your comment, 
and my follow-on to Senator Cardin on Pakistan, I again 
reiterate that I think this is a major opportunity for United 
States-China relations. If the Chinese were able to step in, 
given their history with Pakistan, to assist in a solution in 
that part of the world that they're going to benefit from it, 
quite frankly, with the increased stability in the region and 
their economic interests. It would be a great signal to be able 
to send in terms of cooperation between our two countries.
    Senator Risch, did you have a follow-on question?
    Senator Risch. Thank you very much.
    Senator Webb. I am instructed by Chairman Kerry to indicate 
that the hearing record will remain open for 48 hours for any 
Senator who wishes to make a further statement or ask questions 
for the record.
    Other than that, I, again, would congratulate you on your 
nomination, and I know what a special thing this must be for 
your family and also for those who went before you. It was very 
touching to hear about your father during your testimony this 
morning. And I wish you the best of luck.
    And the hearing is now closed.
    Secretary Locke. Thank you very much, Senator.
    [Whereupon, at 11:39 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


Responses of Gary Locke to Questions Submitted by Senator John F. Kerry

    Question. North Korea.--North Korea's development of nuclear 
weapons and long-range ballistic missiles represents a critical test of 
our ability to work together on matters critical to the security of 
both nations.

  <bullet> Over the past 2 years, what specifically has China done to 
        help restrain North Korea and maintain stability on the Korean 
        Peninsula?

    Answer. China is an important partner in regional diplomacy and in 
maintaining regional stability. Given its unique history and 
relationship with North Korea, China is well positioned to use its 
influence with North Korea. The administration has discussed with China 
on a regular basis the steps it can and should take to reduce 
provocations by North Korea. In June 2009, China's vote was critical 
for the adoption of U.N. Security Council Resolution 1874, which 
imposed additional sanctions on North Korea. The United States has 
called on all members of the U.N. Security Council and all U.N. Member 
States, including China, to fully and transparently implement U.N. 
sanctions and to urge North Korea to refrain from further provocations.
    We have been disappointed by China's insufficient reaction to 
provocative and irresponsible North Korea behavior in the past, but 
welcomed the progress made on North Korea during the January 2011 
summit between President Obama and Chinese President Hu Jintao. During 
the summit President Obama told President Hu that North Korea's nuclear 
and ballistic missile program is increasingly a direct threat to the 
security of the United States and our allies and expressed appreciation 
of China's role in reducing tensions on the Korean Peninsula. 
Furthermore, in the Joint Statement issued by both countries during 
President Hu's visit to Washington in January 2011, the United States 
and China ``expressed concern regarding the DPRK's claimed uranium 
enrichment program,'' ``opposed all activities inconsistent with the 
2005 Joint Statement and relevant international obligations and 
commitments,'' and ``called for the necessary steps that would allow 
for the early resumption of the six-party talks process to address this 
and other relevant issues.'' We welcome these statements and continue 
to look to China to take similar and additional positive steps to help 
maintain stability and prevent provocative actions by North Korea.

    Question. If confirmed, how would you seek to convince China that 
its own desire for stability on its borders requires it to do more to 
rein in its unruly neighbor?

    Answer. The United States and China share common goals of peace and 
stability on the Korean Peninsula and its denuclearization. We have 
continually discussed with China how it can and should best use its 
influence with the North, including during President Hu's January 2011 
state visit and the recently concluded Strategic and Economic Dialogue. 
During President Hu's state visit, the United States and China 
emphasized the importance of achieving an improvement in North-South 
relations and agreed that sincere, constructive inter-Korean dialogue 
is an essential step. The United States and China also expressed 
concern regarding North Korea's claimed uranium enrichment program. 
Both sides oppose all activities that are inconsistent with the 2005 
Joint Statement and relevant international obligations and commitments. 
We will continue to make North Korea one of the top items on the United 
States-China agenda and to press China to work toward advancing our 
shared goal of a denuclearized Korean Peninsula.

    Question. Does China's growing economic support for North Korea 
undercut U.N. sanctions designed to put pressure on the government of 
Kim Jong-il? What is the rationale behind China's investment?

    Answer. U.S. officials have repeatedly discussed with Chinese 
counterparts the importance of full and transparent implementation of 
U.N. Security Council resolutions related to North Korea. Despite a 
common concern with North Korean nuclear activities, China continues to 
give North Korea a significant role in its regional strategic security 
calculus. As such, ensuring North Korea does not collapse and 
maintaining regional stability appear to remain top priorities for 
Beijing, and China's ongoing economic aid and investment support those 
goals. I cannot speak on behalf of China, but Chinese officials have 
stated that they believe North Korea's economic development is a key 
step toward stabilizing the region.

    Question. Role in Afghanistan.--China is playing an active role in 
Central Asia through the Shanghai Cooperation Organization, expanding 
trade and security ties with nations that used to be under the shadow 
of the former Soviet Union. Next door in Afghanistan, China has focused 
on the narrow objective of extracting raw materials and minerals, 
despite the concerted efforts of Special Envoy Holbrooke and others to 
convince the Beijing Government to do more to promote peace and 
sustainable development.

  <bullet> If confirmed, what steps would you take to encourage China 
        to invest not only in Afghanistan's resources, but also the 
        country's long-suffering people?

    Answer. The administration believes that there is a role for China 
to play in helping the international community deal with the challenge 
of peace and stability in Afghanistan and in addressing the economic 
challenges that country faces. We have already discussed with the 
Chinese the importance of generating local employment in Afghanistan 
that creates self-sustaining economic development to replace aid with 
trade. If confirmed, I will work closely with the Secretary's 
Representative for Afghanistan and Pakistan to promote effective United 
States-Chinese cooperation in the region.

    Question. Human Rights.--I am troubled by China's recent crackdown 
against dissidents, lawyers, artists, bloggers, and democracy 
advocates--seemingly anyone who dares to criticize the government or 
question the Communist Party's supremacy. Some dissidents have simply 
disappeared after being taken into custody by plain-clothes security 
personnel. China's security services tightly control access to 
information and the use of the Internet, including new social media. 
China's leaders seem determined to preempt any move toward a 
``Jasmine'' democracy movement. At the Strategic and Economic Dialogue 
(S&ED) and the U.S.-China Human Rights Dialogue last month, the United 
States made it clear that China is ``backsliding'' on human rights.

  <bullet> If confirmed, will you make human rights a clear high-level 
        priority with China? What steps will you take to integrate this 
        issue into other aspects of this vast relationship such as 
        economics, the environment, and consumer product safety, to 
        name just a few areas?

    Answer. Promoting human rights--including freedom of religion, 
speech, and assembly--is a central objective of U.S. diplomatic 
engagement with China. If confirmed, I will make it a top priority to 
continue to urge China to uphold its internationally recognized 
obligations to respect universal human rights, including the freedoms 
of expression, association, assembly, and movement.
    The U.S. Government believes that by adhering more closely to 
international human rights standards, creating greater access to 
justice, and strengthening rule of law, the Chinese Government would 
help create the conditions necessary for greater long-term social 
stability. To emphasize that message, the administration has 
incorporated human rights into discussions with Chinese officials on a 
range of issues, including economic and environmental issues. If 
confirmed, I will ensure that U.S. human rights concerns are raised 
regularly, broadly, and at all levels.

    Question. What impact do you think the Arab Spring might be having 
in China? What is your assessment of the risk of major social unrest?

    Answer. The Arab Spring demonstrates to the world the universal 
desire for freedom and opportunity. The United States continues to 
stress to our Chinese counterparts that by adhering more closely to 
international human rights standards, creating greater access to 
justice, and strengthening rule of law, the Chinese Government would 
help create the conditions necessary for greater long-term social 
stability.
    Our message is simple: A nation must respect its citizens' 
fundamental rights, just as prosperous modern economies require rule of 
law, open information flows, and a vibrant civil society. Expansion of 
civil and political rights would ultimately be a source of stability in 
Chinese society.

    Question. What should the United States do to support greater 
Internet freedom in China? Do you support U.S. Government investments 
in circumvention technologies? What about broadcasting?

    Answer. The U.S. Government remains deeply concerned by China's 
efforts to censor the Internet. Last month's announcement that a new 
``State Internet Information Office'' has been established to direct, 
coordinate, and supervise online content management, as well as to 
investigate and punish illegal Websites, runs counter to our view that 
Internet freedom is an extension of the freedoms of speech, assembly, 
and expression.
    Governments that use security as a pretext for clamping down on 
free expression are making a mistake. In the long run, they are 
limiting their political and economic development. Censorship is 
ultimately unsustainable.
    The U.S. Government strongly supports increased freedom of 
expression in China, including on the Internet. As part of our ongoing 
dialogue with China, we have emphasized to the Chinese Government our 
view on the importance of an open Internet. The ability to operate with 
confidence in cyberspace is critical in a modern society and modern 
economy.
    The administration speaks out clearly and presses China to cease 
its censorship of its people. U.S. officials regularly urge China to 
respect internationally recognized fundamental freedoms, including 
freedom of expression, and the human rights of all Chinese citizens. 
The Internet should be available to all, and the administration will 
continue to push China to expand opportunities for its citizens to 
connect online domestically and globally.
    The State Department supports a number of organizations committed 
to Internet freedom. Enabling access for citizens in closed societies 
is a priority for the Department.

    Question. How will you approach individual cases of political 
dissidents such as Nobel Laureate Liu Xiaobo, respected human rights 
lawyer, Gao Zhisheng, and artist, Ai Weiwei? What are your views on the 
case of U.S. geologist, Xue Feng, who as you know, has been imprisoned 
under China's expansive ``state secrets'' law?

    Answer. The U.S. Government is deeply concerned by the trend of 
extralegal detentions, arrests, and convictions of lawyers, activists, 
and other individuals for exercising their internationally recognized 
human rights. The President and Secretary Clinton have specifically 
called for the release of Liu Xiaobo; U.S. officials have also urged 
the release of other political prisoners in China, including those 
under house arrest and those enduring enforced disappearances, such as 
Gao Zhisheng. Regarding Ai Weiwei, the United States continues to be 
deeply concerned by his detention, which is inconsistent with China's 
commitments to respect the fundamental freedoms and human rights of all 
Chinese citizens.
    If confirmed, I will continue to press for the individual release 
of Liu Xiaobo, Gao Zhisheng, Ai Weiwei, and other individual prisoner 
cases of concern. I will also engage with the Chinese people directly 
to convey the human rights values for which America stands.
    The U.S. Government has been closely involved in Dr. Xue's case 
since he was detained more than 3 years ago. The Embassy has conducted 
40 consular visits to Dr. Xue to monitor his welfare and deliver 
messages from his family, with the most recent visit on May 19, 2011. 
If confirmed, the Embassy under my leadership will continue to visit 
Dr. Xue regularly and press China to release him on humanitarian 
grounds and immediately return him to the United States.

    Question. Tibet.--A visit to Tibet by staff of the Senate Committee 
on Foreign Relations last year found a mixed picture: Economic 
development has improved the lives of many Tibetans. But they are also 
often discriminated against in employment and economic opportunities. 
Moreover, economic development is occurring against a backdrop of 
political repression, with intrusive Chinese controls on freedom of 
speech, freedom of association, and freedom of religion. China resists 
any effort by the United States to take an interest in Tibetan affairs. 
But it seems to me that it must be possible for us to find a way to 
work together on this issue as we do on other sensitive matters.

  <bullet> How can we work with China to ensure that the Tibetan people 
        can enjoy the benefits of economic development while protecting 
        their fragile environment and preserving their rich culture?

    Answer. The administration has not shied away from seeking 
opportunities to raise candidly with China's leaders our concerns about 
the poor human rights situation in Tibet, while at the same time 
recognizing there are benefits of economic development in Tibetan 
areas. If confirmed, I will continue to support further dialogue 
between China and the representatives of the Dalai Lama to resolve 
concerns and differences, including the preservation of the religious, 
linguistic, and cultural identity of the Tibetan people.
                                 ______
                                 

           Responses of Gary Locke to Questions Submitted by
                        Senator Richard G. Lugar

               addressing potential conflicts of interest
    Question. Prior to your service as Secretary of Commerce, you led 
the China practice of a major U.S. law firm. What steps do you intend 
to take to avoid any appearance of favoritism or conflict of interest 
with respect to former clients of yours if confirmed as Ambassador to 
China?

    Answer. If confirmed as U.S. Ambassador to China, I will strictly 
adhere to all ethics requirements and regulations. In all that I do, I 
will also behave in way that this committee, the White House, and the 
American people expect that I should.
    With regard to my former employer and clients before government 
service, I resigned from Davis Wright Tremaine LLP in March 2009 when I 
was confirmed by the U.S. Senate to serve as Secretary of Commerce. I 
severed all connections with the firm, financial and otherwise, upon my 
appointment.
    As Secretary of Commerce, I complied not only with the 1-year 
regulatory recusal period but also with the 2-year recusal period of 
the President's ethics pledge during which I was prohibited from 
participating in certain particular matters related to my former 
employers or former clients. If confirmed as U.S. Ambassador to China, 
on an ongoing basis I will continue to recuse myself from any 
particular matters involving the firm or a former client if I believe 
that to act otherwise would give rise to an appearance of partiality or 
impropriety in the eyes of a reasonable person.
                           trade and commerce
    Question. As Secretary of Commerce, what is the process by which 
you have evaluated the effectiveness of the International Trade 
Administration related to the promotion of U.S. exports?

    Answer. The Department of Commerce, particularly the International 
Trade Administration (ITA), has been leading implementation of 
President Obama's National Export Initiative (NEI). Expanding U.S. 
exports is important to our Nation's economic recovery and long-term 
economic growth.
    Exports contributed greatly to growing our economy in 2010, and 
supported over 9 million U.S. jobs. U.S. exports of goods and services 
in 2010 increased nearly 17 percent over 2009--the largest year-to-year 
percentage change in over 20 years. This puts us on pace to achieve 
President Obama's goal of doubling exports by the end of 2014.
    ITA supports the NEI by directly working with U.S. companies to 
expand their exports overseas, address trade barriers, and ensure a 
level playing field for U.S. exporters through trade enforcement and 
compliance. As Chair of the Trade Promotion Coordinating Committee, I 
have also worked to strengthen interagency cooperation between the 
multiple federal agencies engaged in trade promotion. I am pleased to 
report that the National Export Strategy, which will be delivered to 
Congress shortly, will include for the first time cross-cutting NEI 
metrics to better evaluate the Federal Government's efforts as a whole 
to expand U.S. exports.
    The reality is that only 1 percent of U.S. companies are currently 
exporting and, of that 1 percent, 58 percent are exporting to one 
overseas market only. As Secretary of Commerce, I directed ITA to focus 
their efforts on helping this 58 percent--typically small- and medium-
sized companies--export to additional countries.
    ITA's effectiveness is measured by the Government Performance 
Results Act, which includes the priority goal of increasing the number 
of small- and medium-sized enterprises (SMEs) that ITA assists in 
exporting to a second or additional country by 40 percent from 2009 to 
2011. In addition to these measures, I receive quarterly updates on the 
effectiveness of our core trade promotion programs-trade missions, the 
International Buyer Program, and advocacy.

    Followup Question. How did you evaluate how effectively ITA 
promoted U.S. exports?

    Followup Answer. Working with ITA, I set annual goals and received 
quarterly updates on the effectiveness of our core trade promotion 
programs-trade missions (including the number of participants and value 
of exports), the International Buyer Program (including the number of 
foreign buyers recruited to the United States and the number of U.S. 
companies participating in matchmaking activities with foreign buyers 
and value of U.S. exports facilitated), and advocacy (focused on the 
value of U.S. export content facilitated through government-led 
advocacy on behalf of U.S. companies competing for foreign 
procurements). Results from these evaluations are discussed in my 
original response to your third question for the record.
    In addition, to promote U.S. exports to China, it was the first 
country on my May 2010 clean energy trade mission, the first cabinet-
level trade mission of the Administration. On a trade mission, I act as 
a force multiplier for ITA's efficacy as an export promotion agency.

    Question. According to the evaluation process, what are the strong 
points of present U.S. trade promotion efforts through the Commerce 
Department and what are areas where additional attention should be 
focused?

    Answer. ITA continues to deliver high-value export promotion 
services and counseling to U.S. businesses, allowing them to take 
advantage of the 95 percent of consumers located outside the United 
States. Businesses often report that ITA's global footprint is 
important to ITA's effectiveness in ensuring access to overseas markets 
and proximity to local U.S. companies. ITA is located in 108 offices in 
the United States and over 125 offices in over 75 countries.
    During calendar year 2010, ITA helped over 5,500 U.S. companies 
export for the first time or expand their exports overseas, 85 percent 
of which were SMEs. ITA's Advocacy Center, which helps level the 
playing field for U.S. companies competing for foreign government 
procurement contracts, was particularly successful. In 2010, the 
Advocacy Center helped U.S. companies export $18.7 billion of U.S. 
content overseas, a 212-percent increase over 2009. ITA's International 
Buyer Program also performed well, recruiting nearly 13,000 foreign 
buyers to attend trade shows in the United States, a 43-percent 
increase over 2009 resulting in sales by U.S. companies of $818 
million. This program is particularly important for small- and medium-
sized companies who are export-capable, but do not have the resources 
to travel overseas to connect with foreign buyers.
    While our trade missions team had a strong year recruiting over 400 
companies to participate in 35 trade missions, the value of export 
successes achieved fell short of our goal. To address this issue, I 
have asked the team to increase the followup they do with participating 
U.S. companies to better understand and evaluate our services.
    To maximize limited resources to assist U.S. companies to expand 
their exports and create jobs here at home, the Department of Commerce 
is focusing on leveraging technology and expanding partnerships. 
Export.gov is the Federal Government's Website to provide U.S. 
companies access to all export information from market research and 
export financing to addressing issues of intellectual property rights 
protection and understanding foreign regulations. While I am proud of 
some initial steps we have taken to ensure that information is more 
accessible and user-friendly, additional focus on strengthening and 
customizing content will help the Department of Commerce deliver 
relevant information to U.S. companies seeking to export. Similarly, 
additional attention to expanding and strengthening our partnerships 
with state and local governments, trade associations, and the private 
sector will help ensure that more U.S. companies can compete and win in 
the global marketplace.

    Question. What specific steps will be included in your efforts to 
double U.S. exports to China as part of President Obama's initiative? 
What is the base line export figure (and date of its issuance), used by 
the Department of Commerce which must be doubled to meet the 
President's initiative as relates to China?

    Answer. We are actively engaged in helping U.S. exporters to China 
through advocacy, commercial diplomacy, policy discussions, and trade 
promotion. We participate with China in the Strategic & Economic 
Dialogue (S&ED) and Cochair the Joint Commission on Commerce and Trade 
(JCCT). Our policy efforts aim to open China's market to U.S. exports 
and reduce the incidence of intellectual property rights infringement. 
In the United States, we work closely with State and local partners and 
support trade missions hosted by the Department of Commerce's 
commercial section in the U.S. Embassy in China. In China we also 
recruit delegations of buyers to attend major trade shows held in the 
United States. We also work with other Department of Commerce units, 
such as the Patent and Trademark Office (PTO), which are colocated in 
the commercial section.
    Ensuring that U.S. companies and workers have the opportunity to 
compete on a level playing field is critical to advancing business 
competitiveness in the United States and abroad, and is a key component 
of the NEI. The goal of the NEI is to double the annual value of U.S. 
exports of goods and services from the baseline level of $1.57 trillion 
in calendar year 2009 to $3.14 trillion in calendar year 2014. The 
baseline number comes from the Bureau of Economic Analysis' estimate of 
Trade in Goods and Services available at: http://bea.gov/international/
index.htm#trade. In 2010, exports to China rose nearly 32 percent, 
almost double the rate of increase for the rest of the world. As a 
result of last year's strong performance by U.S. exporters, we are on 
track to meet the goal of doubling exports.
    Accordingly, a key focus of our efforts in the Department of 
Commerce is strong enforcement of our unfair trade laws. Foreign 
government subsidies can also have a debilitating effect on U.S. 
exporters' competitiveness abroad. ITA's subsidies enforcement 
activities help prevent or remedy the harm that foreign government 
subsidies cause to U.S. businesses and workers. The Department of 
Commerce also regularly advocates on behalf of U.S. exporters that are 
subject to foreign trade remedy (antidumping, countervailing duty, or 
safeguard) actions, in part by ensuring that the nations that pursue 
these actions do so in accordance with their WTO commitments.

    Question. As Commerce Secretary, you are most familiar with 
intellectual property right challenges for U.S. companies in China. 
What specific lessons have you learned which will assist in improving 
the IPR situation with China?

    Answer. During my tenure at the Department of Commerce, I believe 
that our progress on IPR issues has come from persistence and 
consistent pressure. On key issues, such as software legalization, we 
have made progress by consistently raising the issue at every 
opportunity, including this year's S&ED, President Hu's state visit, 
and at the JCCT. Apart from these high-level bilateral engagements, we 
maintain consistent pressure through the work of the International 
Trade Administration and U.S. Patent and Tradmark Office. ITA maintains 
a Website that provides live and archived webinars on important Chinese 
IPR issues affecting U.S. businesses and a China specific toolkit. PTO 
has two IPR attaches stationed in China, with a third on their way. 
Additionally, the JCCT IPR Working Group, cochaired by PTO, regularly 
discusses IPR challenges with the Chinese Government.

    Question. What progress in China, if any have you observed in the 
areas of data protection and counterfeiting?

    Answer. The Department of Commerce has been actively engaged in 
addressing counterfeit medicines and pharmaceutical data protection 
with the China State Food and Drug Administration (SFDA) and other 
ministries under the U.S.-China JCCT.
    The United States continues to advocate for effective 
pharmaceutical data protection in bilateral discussions with China 
under the JCCT. Over the past few years, China has increased its 
engagement in these discussions. In September 2009, the Department of 
Commerce and SFDA organized a workshop on pharmaceutical data 
protection to exchange views and information on how China and several 
other trading partners, including the EU, Japan, and the United States, 
protect pharmaceutical data against unfair commercial use. SFDA 
recently commissioned a study and is expected to amend Chinese data 
protection regulations in the coming years. As part of its JCCT 
commitments, China agreed to hold further discussions on pharmaceutical 
data protection in 2011. The Department of Commerce is working with 
other agencies and industry to advance progress on improving the data 
protection system in China.
    Although much remains to be done, China has made some progress in 
addressing the production, distribution, and export of counterfeit 
medicines. In 2009, China set up the Interagency Coordination 
Conference for Fighting the Production and Sale of Counterfeit Drugs 
(ICC) comprised of 13 Chinese ministries. Surveillance of counterfeit 
pharmaceutical ingredients sold on the Internet and advertised at trade 
shows has been elevated. In 2009, SFDA and the Public Safety Bureau 
reported concluding over 20 major counterfeiting cases with seized 
goods valued at over 250,000 RMB (US$38,600) and 231 suspects 
apprehended. China has increased penalties and punishment for 
counterfeiting and begun exposing persons or organizations involved in 
counterfeit medicines activities in the media. SFDA has also set up a 
Counterfeit Medicines Complaint Center, which is expected to be fully 
operational this summer. In addition, China has increased its technical 
capacity for detecting counterfeits, such as investing in mobile drug 
detection laboratories.

    Question. How are China's restrictions on the Internet affecting 
the operation of U.S. business related to China?

    Answer. U.S. companies have reported to the Department of Commerce 
a number of restrictions on the Internet that affect their business 
operations in China, including Website blocking and mandatory 
installation of Internet filtering software.
    A number of U.S. companies have reported that their Websites are 
inaccessible to Web users from within China, and they are frustrated by 
the loss of potential online business. Google, for instance, reported 
experiencing technical blocking of access to an entire Website service 
(e.g., search engine, online store). In July 2010, Google announced 
that the Beijing Government had renewed its license to operate a 
Website in mainland China, allowing them to offer products that do not 
require any censorship. Under the new arrangement, Google users on the 
Chinese mainland must deliberately click on a link to the Hong Kong 
search engine in order to access the uncensored Hong Kong domain. The 
U.S. Government will continue its efforts to engage the Chinese 
Government to allow U.S. companies to compete effectively in China's 
growing online service market.
    In June 2009, the U.S. information technology industry raised 
concerns regarding the Ministry of Industry and Information 
Technology's Circular 226, mandating all computers sold in China be 
preinstalled with Green Dam Internet filtering software as of July 1. 
Industry reported on the software's numerous technical problems as well 
as the adverse competitive impact of the technology mandate. Mandating 
the software risked the loss of billions of dollars of immediate and 
future revenue to U.S. computer manufacturers, because the technically 
flawed Green Dam software would have led to computer crashes, including 
screen blackouts, and sullied the reputation of major U.S. brands. 
After a 3-week period of escalating high-level U.S. Government 
engagement with China, MIIT indefinitely postponed the implementation 
of Circular 226.

    Question. The Economic Espionage Act of 1996 was established to 
protect trade secrets including proprietary information of U.S. 
companies. Based upon your tenure as Commerce Secretary would you 
recommend changes to the original legislation to enhance its intended 
effectiveness?

    Answer. As Commerce Secretary I am committed to protecting the U.S. 
economic sector, including U.S. businesses working in China, and to 
ensuring that the United States has implemented the strongest possible 
safeguards to prevent economic espionage. If confirmed, I will work 
diligently with my staff at the Embassy to ensure that everything 
possible is being done in this important area. It is most important 
that we use all the tools at our disposal to prevent economic 
espionage, including those set forth in the Economic Espionage Act. I 
defer to the Department of Justice, which can conduct prosecutions 
under the act, as to whether or not the act could be changed to enhance 
its intended effectiveness.

    Question. What are the primary sector targets of economic espionage 
originating in China directed at U.S. business and industry?

    Answer. Foreign collectors continued to target a wide variety of 
unclassified and classified information and technologies in a range of 
sectors. With regard to China, the FBI has reported that in 2010 they 
prosecuted more Chinese espionage cases than at any time in our 
Nation's history.
    Today, foreign intelligence services, criminals, and private sector 
spies are focused on American industry and the private sector. Their 
efforts compromise intellectual property, trade secrets, and 
technological developments that are critical to national security. If 
confirmed, I will work diligently with my staff at the Embassy to 
ensure that we use all the tools at our disposal to prevent economic 
espionage.

    Question. It is essential that the Trans-Pacific Partnership (TPP) 
contain strong intellectual property provisions, including those in the 
pharmaceutical area. As you know, the TPP will be viewed as a model on 
IP by some countries. Have you had opportunity as Commerce Secretary to 
provide input on this topic to U.S. officials involved with the TPP 
discussions?

    Answer. The Department has provided and continues to provide input 
on the intellectual property provisions of the TPP, including providing 
expert technical advice to the U.S. Trade Representative, who is the 
lead negotiator.

    Question. On May 10, 2011, in closing remarks made after the 
conclusion of the 2011 U.S.-China Strategic and Economic Dialogue with 
Secretaries Clinton and Geithner, Chinese Vice Premier Wang Qishan 
stated ``The United States commits to accord China fair treatment in a 
reform of its export control regime, [and] relax high-tech exports 
control towards China [.]''

  <bullet> What specific commitments have been made by the 
        administration to the PRC and in connection with which 
        technologies under the accord announced by Vice Premier Wang?

    Answer. In the U.S.-China S&ED Economic Track Joint Outcomes 
Document, the United States and China agreed to the following 
statement: ``The United States commits to give full consideration to 
China's request that it be treated fairly as the United States reforms 
its export control system. The United States will continue discussions, 
including technical discussions, on the export control status of 
designated parts, components, and other items of interest. Both sides 
agree to work through the U.S.-China High Technology Working Group 
(HTWG) to actively implement the Action Plan for U.S.-China High 
Technology Trade in Key Sectors Cooperation, hold U.S.-China fora on 
high-tech trade on a regular basis, and discuss high-tech and strategic 
trade cooperation through the HTWG.''
    The United States has not committed to relax high-tech export 
controls toward China, nor has the United States made any other 
commitments beyond those in the Joint Outcomes Document.

  <bullet> What specific commitments have been made by the 
        administration to the PRC and in connection with which 
        technologies under the accord announced by Vice Premier Wang? 
        How does the administration's export control reform initiative 
        take into account existing and future risks of diversion of 
        U.S. technology and data to Chinese military end uses, 
        particularly in space-related technologies, to include each of 
        the following:

      <all>  (a) Chinese development of counter-space systems, 
            including anti-satellite weapons (ASAT);
      <all>  (b) Chinese development of area-denial weapons;
      <all>  (c) Chinese development of offensive space capabilities;
      <all>  (d) Chinese development of improved capabilities to limit 
            or prevent the use of U.S. space-based assets during times 
            of crisis or conflict;
      <all>  (e) Enhanced Chinese C4ISR, including space-based sensors, 
            which could enable Beijing to identify, track, and target 
            military activities deep into the western Pacific Ocean.

    Answer. In the U.S.-China S&ED Economic Track Joint Outcomes 
Document, the United States and China agreed to the following 
statement: ``The United States commits to give full consideration to 
China's request that it be treated fairly as the United States reforms 
its export control system. The United States will continue discussions, 
including technical discussions, on the export control status of 
designated parts, components, and other items of interest. Both sides 
agree to work through the U.S.-China High Technology Working Group 
(HTWG) to actively implement the Action Plan for U.S.-China High 
Technology Trade in Key Sectors Cooperation, hold U.S.-China fora on 
high-tech trade on a regular basis, and discuss high-tech and strategic 
trade cooperation through the HTWG.
    The United States has not committed to relax high-tech export 
controls toward China, nor has the United States made any other 
commitments beyond those in the Joint Outcomes Document.
                              human rights
    Question. China continues to imprison Nobel Peace Prize winner Liu 
Xiaobo and harass his wife. Former colleagues have been arrested. Human 
rights lawyer Gao Zhisheng has also been detained. These are only two 
of so many individuals who disappeared or been detained. Likewise, 
China has the dubious distinction of being tied with Iran for the 
number of journalists imprisoned.

    Answer. I am deeply concerned by the trend of extralegal 
detentions, arrests, and convictions of lawyers, activists, and other 
individuals for exercising their internationally recognized human 
rights. President Obama and Secretary Clinton have specifically called 
for the release of Liu Xiaobo; the administration has also urged the 
release of other political prisoners in China, including those under 
house arrest and those enduring enforced disappearances, such as Gao 
Zhisheng. Chinese Government actions against family members and 
associates of activists are also very troubling. The State Department 
remains concerned that Liu Xiaobo's wife, Liu Xia, is being confined to 
her home in Beijing and her movements are being restricted. The 
Department has called on the Chinese Government to respect her rights, 
in accordance with Chinese law and international norms, and to allow 
her to move freely without harassment.
    The Department of State has urged China to respect internationally 
recognized conventions that guarantee freedom of the press and freedom 
of expression and has called for the rights of journalists to report in 
China to be respected and protected. If confirmed as Ambassador, I will 
continue to press the Chinese Government on these issues and to urge 
China to respect the universal right to freedom of expression and to 
freedom of association and assembly.

    Question. Religious leaders are routinely detained and services 
disrupted by security forces. Internet freedom activists and even 
ordinary citizens find themselves jailed for even the most innocuous 
statements regarding their government. With all of this, which cases 
will you be placing as a priority and how will you raise them with the 
Chinese Government? It has not been uncommon in the past for U.S. 
Ambassadors to publicly stand with dissidents living under repressive 
regimes. If confirmed, do you view yourself as having a similar role in 
China?

    Answer. Promoting human rights--including freedom of religion, 
expression, and assembly--is a central objective of our diplomatic 
engagement with China. The U.S. Government's priority is to ensure that 
China respects the rights of all of its citizens in accordance with its 
own constitution and international norms. Our message is simple: a 
nation must respect its citizens' fundamental rights, just as 
prosperous modern economies require rule of law, open information 
flows, and a vibrant civil society. Expansion of civil and political 
rights would ultimately be a source of stability in Chinese society. If 
confirmed as Ambassador, one of my key roles would be that of a 
spokesman for America and America's values, including the freedoms that 
are the foundation of our great Nation. I will raise human rights at 
every opportunity and continue to raise specific cases with Chinese 
officials. I will also support and promote our human rights agenda in 
the many dialogues we maintain with China, such as the Human Rights 
Dialogue and the Strategic and Economic Dialogue.

    Question. Xue Feng is an American businessman unjustly convicted of 
trafficking in state secrets. His case has been repeatedly raised by 
senior administration officials, including the President, and by many 
Members of Congress, to no avail. Your predecessor, Ambassador 
Huntsman, made it a practice for either he or his Deputy Chief of 
Mission to pay monthly visits to Xue.

  <bullet> If confirmed will you continue this practice? What other 
        steps will you take to make sure Mr. Xue is released and 
        returned to his family in Houston at the earliest possible 
        date?

    Answer. The U.S. Government has been closely involved in Dr. Xue's 
case since he was detained more than 3 years ago. We have no higher 
priority than the protection of American citizens' rights. The Embassy 
has conducted 40 consular visits to Dr. Xue to monitor his welfare and 
deliver messages from his family, including the most recent visit of 
May 19, 2011. If confirmed, I will ensure that Embassy officials 
continue to visit Dr. Xue regularly and will press China to release him 
on humanitarian grounds and immediately return him to the United 
States.

    Question. The United States and China have been holding human 
rights dialogues since 1991. China's Ministry of Foreign Affairs has 
shown itself to be increasingly unwilling to discuss cases of 
individuals jailed for the nonviolent expression of their political and 
religious beliefs. The Ministry has also refused to provide information 
on them, insisting that the cases like those of Liu Xiabao and detained 
artist Ai Weiwei ``have nothing to do with human rights.''

  <bullet> If in fact China is unwilling to address our concerns over 
        what is happening to these people do you favor continuing the 
        policy of holding human rights dialogues with China? Are you 
        concerned that by continuing this policy we are providing cover 
        to the Chinese Government in its relentless crackdown on 
        activists, journalists, artists, lawyers, and worshipers in 
        house churches?

    Answer. Promoting human rights is a central objective of our 
diplomatic engagement with China. We used the most recent Human Rights 
Dialogue to express our deep concerns about the deteriorating human 
rights situation in China, press for systemic changes, and raise 
individual cases. Although I am concerned about China's crackdown and 
the recent escalation in human rights cases, I also favor continuing 
our human rights dialogues. These dialogues provide the U.S. Government 
with an opportunity to engage in an in-depth dialogue on key human 
rights issues with a large number of Chinese ministries. This provides 
an important opportunity to advocate that China adhere to international 
human rights standards, create greater access to justice, and 
strengthen rule of law in order to create the conditions necessary for 
greater long-term social stability. But this is just one forum in which 
we raise our concerns over human rights. The U.S. Government raises 
such concerns regularly and at high levels. For example, the Secretary 
and Vice-President Biden also raised our human rights concerns at the 
Strategic and Economic Dialogue in May 2011.

    Question. Since October 2010, a Protestant house church leader, Fan 
Yafeng and his family have been subjected to house arrest while being 
denied access to legal counsel. Have U.S. officials expressed concern 
to Chinese authorities about this case? What is their response?

    Answer. The Department of State and Embassy Beijing are well aware 
of the case of Dr. Fan, and many others who, like him, have been 
subjected to extrajudicial punishments for exercising their universal 
rights. U.S. officials regularly raise our concerns about these cases 
with our counterparts, both in Beijing and in Washington. 
Unfortunately, to date, the Department has not received satisfactory 
answers from our interlocutors regarding the reasons or legal basis for 
these actions.

    Question. In addition to Falun Gong and Christian practitioners in 
China, what are other groups, organizations or religions that are 
targeted by the Government of China for ongoing harassment and 
persecution?

    Answer. There are several known groups of religious practitioners 
that are subject to official harassment based on their beliefs. These 
include several groups that, like Falun Gong, are designated 
``illegal'' by the Chinese Government, including the Guan Yin (also 
known as Guanyin Famin or the Way of the Goddess of Mercy) and the 
Zhong Gong (a qigong exercise discipline). The government also 
considers several Protestant Christian groups to be ``evil cults,'' 
including the ``Shouters,'' Eastern Lightning, the Society of Disciples 
(Mentu Hui), Full Scope Church, Spirit Sect, New Testament Church, 
Three Grades of Servants (or San Ban Pu Ren), Association of Disciples, 
Lord God Sect, Established King Church, Unification Church, Family of 
Love, and the South China Church. If confirmed, I will continue to urge 
the Chinese Government to respect its citizens' right to religious 
freedom. In the Xinjiang Uighur Autonomous Region and Tibetan areas, 
government authorities conflate separatism and religious extremism with 
peaceful religious practice and place severe religious restrictions on 
Uighur Muslims and Tibetan Buddhists. We express our concerns that 
these restrictions are unacceptable, alienating, and have a 
destabilizing effect.

    Question. Chinese authorities continue to use the children and 
grandchildren of Rebiya Kadeer as pawns in an effort to silence her 
criticism for their continuing persecution of the Uyghur people. 
Chinese authorities cut off her family phone lines so she can no longer 
contact her children and grandchildren who are not in prison. Ms. 
Kadeer also believes she is under active surveillance of the Chinese 
Government in the United States.

  <bullet> Will you press within the State Department for high-level 
        engagement with Rebiya Kadeer and would you make raising the 
        cases of her sons a priority in your engagement with the 
        Chinese Government?

    Answer. Department of State officials regularly hold meetings with 
individuals whose work supports enhanced freedom of expression, 
expansion of civil society, and democratic development, including Ms. 
Kadeer. The State Department continues to raise the cases of Ms. 
Kadeer's two incarcerated sons, most recently at the U.S.-China Human 
Rights Dialogue in April 2011. If confirmed, I will raise these cases 
and other cases of prisoners of conscience.
                         north korean refugees
    Question. In the past, North Korean refugees have approached U.S. 
Government facilities in China, seeking asylum, protection, or 
resettlement to the United States. If confirmed, what will be your 
instructions to all U.S. officials in China should they be approached 
by North Koreans seeking assistance? What is the guidance? Will you 
issue any other instructions?

    Answer. The Department of State annually issues formal guidance to 
all overseas posts regarding individuals presenting themselves at a 
U.S. Government facility seeking asylum. The Department has also issued 
specific guidance for North Korean asylum seekers; this guidance is 
regularly updated and reissued to all relevant posts. I have been 
briefed by the Department's experts on the situation of North Korean 
refugees in China, on the Department's guidance on handling North 
Korean asylum seekers, and on the role of Mission China as it pertains 
to these issues. If confirmed, I will ensure that all Mission China 
employees are aware of this guidance and follow it carefully. If 
confirmed, I will also review the guidance with my staff upon arrival 
in China. I would be happy to ask the Department to schedule a 
classified briefing for you or your staff on the details of the 
guidance.

    Question. What will be your recommendations to officials of U.S.-
related nongovernment interests in China; e.g., schools or corporations 
in the event they are approached by North Korean refugees seeking 
assistance? What is the guidance? What would you say to Americans (a 
U.S. company, for instance) in China if NK refugees seek assistance 
from them?

    Answer. The Department of State annually issues guidance to all 
overseas posts regarding individuals presenting themselves at a U.S. 
Government facility seeking asylum. The Department has also issued 
specific guidance for North Korean asylum seekers; this guidance 
includes provisions for U.S.-related nongovernment property. I have 
been briefed by the Department's experts on the situation of North 
Korean refugees in China, on the Department's guidance on handling 
North Korean asylum seekers, and on the role of Mission China as it 
pertains to these issues. If confirmed, I will ensure that all Mission 
China employees are aware of this guidance and follow it carefully. If 
confirmed, I will also review the guidance with my staff upon arrival, 
including how Mission China works with nonofficial Americans and 
American institutions on these sensitive issues. I would be happy to 
ask the Department to schedule a classified briefing for you or your 
staff on the details of the guidance.

    Question. Chinese officials have rejected a recommendation to allow 
the United Nations High Commissioner for Refugees (UNHCR) to establish 
an operation within China to receive North Korean refugees for 
resettlement to a third country. Will you encourage Chinese officials 
to allow UNHCR to establish a presence within their country for this 
purpose?

    Answer. China is one of the only Asian parties to the 1951 Refugee 
Convention and its 1967 Protocol. We encourage China to fulfill its 
obligations under the Convention and to cooperate with the U.N. High 
Commissioner for Refugees (UNHCR) and enable it to exercise its mandate 
without undue interference. We urge the Chinese Government to uphold 
the principles of international protection and to allow UNHCR to 
exercise its mandate fully, and free from government influence or 
pressure. We will continue to support efforts by the UNHCR to establish 
a presence in China, especially in the northeastern provinces.
                  united states-china public diplomacy
    Question. As mentioned earlier, I remain deeply concerned by the 
Chinese Government's refusal to allow us to open more American Centers 
in China while they have more than 70 ``Confucius Centers'' here. Why 
have U.S. officials not pressed the Chinese more on allowing equal 
consideration?

    Answer. The State Department also shares your concern about the 
obstacles we face in establishing American cultural centers in China. 
The barriers to the establishment of ``American Corners'' at public and 
university libraries--which the United States enjoys in almost every 
other country in the world--have effectively prevented us from similar 
operations in China. There are, however, alternative methods of 
creating places for Chinese audiences to learn about the United States 
and several options are being vigorously pursued. Recently, a number of 
U.S. universities such as Arizona State University, New York 
University, and University of Southern California, have entered into 
partnerships with Chinese universities to establish university-
sponsored American cultural centers on Chinese campuses. This is an 
encouraging trend. The Department hopes to see the establishment of 
additional American cultural centers in China.
    Discouraging Confucius Institutes in the United States would not 
lead to progress on our own cultural spaces in China. Confucius 
Institutes are the result of agreements between the Hanban, a quasi-
private entity with close ties to the Chinese Ministry of Education, 
and individual U.S. universities and answer a growing demand from 
Americans to learn Chinese.

    Question. Please provide a list, by all State-owned news outlets, 
of the number of journalists working for state media presently 
accredited to work in the United States. Please identify in which city 
or media market they are working. How many Voice of America and Radio 
Free Asia reporters have the Chinese Government granted visas to and 
where do they work?

    Answer. A total of 209 accredited Chinese journalists have 
voluntarily registered with the State Department's Foreign Press 
Centers in Washington, DC, New York, and Los Angeles. There are 101 
registered in New York, 89 in Washington, and 19 in Los Angeles. 
Because registration with the Foreign Press Center is voluntary, the 
list is not necessarily exhaustive for the entire United States.
    Voice of America currently has two fully accredited journalists 
working in Beijing: one from VOA Mandarin and one from VOA's news room. 
There are no RFA journalists accredited to work inside China. Most of 
the major privately owned U.S. and international media organizations 
have correspondents accredited to work in China; we estimate that there 
are 200 correspondents and producers in China. We have raised our 
concerns regarding the VOA's difficulty in obtaining visas with the 
Chinese, and intend to continue doing so in the future.
    The following is a list of accredited Chinese journalists by media 
outlet.

   Accredited Chinese Journalists by Media Outlet Registered with the
                          Foreign Press Centers
------------------------------------------------------------------------
                      Organization                       Media type
------------------------------------------------------------------------
New York:
  1. 21st Century Business Herald.................  NEWSPAPER
  2. 21st Century Business Herald.................  NEWSPAPER
  3. Beijing Review...............................  MAGAZINE
  4. Beijing Review...............................  MAGAZINE
  5. Beijing Review Magazine......................  MAGAZINE
  6. Caijing Magazine.............................  MAGAZINE
  7. CCTV.........................................  TV
  8. China Business News..........................  NEWSPAPER
  9. China Central Television.....................  WIRELESS NEWS AGENCY
  10. China Central Television (CCTV).............  TV
  11. China Central Television (CCTV).............  TV
  12. China Central TV............................  TV
  13. China Daily.................................  NEWSPAPER
  14. China Daily USA.............................  NEWSPAPER
  15. China Economic Daily........................  NEWSPAPER
  16. China News Service..........................  WIRELESS NEWS AGENCY
  17. China News Service..........................  WIRELESS NEWS AGENCY
  18. China News Service..........................  WIRELESS NEWS AGENCY
  19. China News Service..........................  WIRELESS NEWS AGENCY
  20. China News Service..........................  WIRELESS NEWS AGENCY
  21. China News Service..........................  WIRELESS NEWS AGENCY
  22. China Radio International...................  RADIO
  23. Economic Daily..............................  NEWSPAPER
  24. Economic Daily..............................  NEWSPAPER
  25. Jiefang Daily...............................  NEWSPAPER
  26. Jiefang Daily...............................  NEWSPAPER
  27. New Tang Dynasty............................  TV
  28. People's Daily..............................  NEWSPAPER
  29. People's Daily..............................  NEWSPAPER
  30. People's Daily..............................  NEWSPAPER
  31. People's Daily..............................  NEWSPAPER
  32. Phoenix Satellite Television (US) Inc.......  TV
  33. Science & Technology Daily..................  NEWSPAPER
  34. Shanghai Oriental Morning Post..............  NEWSPAPER
  35. Sina........................................  WIRELESS NEWS AGENCY
  36. Sing Tao Chinese Radio/Daily................  NEWSPAPER
  37. South China Morning Post....................  NEWSPAPER
  38. Wen Hui Daily...............................  NEWSPAPER
  39. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  40. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  41. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  42. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  43. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  44. Xinhua News Agency..........................  NEWSPAPER
  45. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  46. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  47. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  48. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  49. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  50. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  51. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  52. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  53. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  54. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  55. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  56. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  57. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  58. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  59. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  60. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  61. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  62. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  63. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  64. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  65. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  66. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  67. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  68. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  69. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  70. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  71. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  72. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  73. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  74. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  75. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  76. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  77. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  78. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  79. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  80. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  81. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  82. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  83. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  84. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  85. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  86. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  87. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  88. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  89. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  90. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  91. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  92. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  93. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  94. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  95. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  96. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  97. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  98. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  99. Xinhua News Agency..........................  WIRELESS NEWS AGENCY
  100. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  101. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
 
Los Angeles:
  102. Caijing Magazine...........................  MAGAZINE
  103. China Central Television (CCTV)............  TV
  104. China News Service.........................  WIRELESS NEWS AGENCY
  105. China News Service.........................  WIRELESS NEWS AGENCY
  106. China Television Company (CTV).............  NEWSPAPER
  107. Economic Daily.............................  NEWSPAPER
  108. Geo TV.....................................  TV
  109. People's Daily.............................  NEWSPAPER
  110. People's Daily / Global Times..............  NEWSPAPER
  111. Sing Tao Daily.............................  NEWSPAPER
  112. The China Press............................  NEWSPAPER
  113. TTV - Taiwan Television....................  TV
  114. TVBS.......................................  NEWSPAPER
  115. TVBS; Radio Free Asia......................  TV
  116. Xin Min Evening News.......................  NOT DETERMINED
  117. Xin Min Evening News.......................  NOT DETERMINED
  118. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  119. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  120. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
 
District of Columbia:
  121. 21st Century Business Herald...............  NEWSPAPER
  122. 21st Century Business Herald...............  NEWSPAPER
  123. Beijing Daily..............................  NEWSPAPER
  124. Beijing Youth Daily........................  NEWSPAPER
  125. Caixin Media...............................  MAGAZINE
  126. Caixin Media...............................  NEWSPAPER
  127. China Business News........................  NEWSPAPER
  128. China Central Television (CCTV)............  TV
  129. China Central Television (CCTV)............  TV
  130. China Central Television (CCTV)............  TV
  131. China Central Television (CCTV)............  TV
  132. China Central Television (CCTV)............  RADIO
  133. China Central Television (CCTV)............  TV
  134. China Central Television (CCTV)............  TV
  135. China Central Television (CCTV)............  TV
  136. China Central Television (CCTV)............  TV
  137. China Central Television (CCTV)............  TV
  138. China Central Television (CCTV)............  TV
  139. China Central Television (CCTV)............  TV
  140. China Central Television (CCTV)............  TV
  141. China Central Television (CCTV)............  TV
  142. China Central Television (CCTV)............  TV
  143. China Central Television (CCTV)............  TV
  144. China Central Television (CCTV)............  TV
  145. China Central Television (CCTV)............  TV
  146. China Central Television (CCTV)............  TV
  147. China Central Television (CCTV)............  TV
  148. China Central Television (CCTV)............  TV
  149. China Central Television (CCTV)............  TV
  150. China Central TV America...................  TV
  151. China Central TV America...................  TV
  152. China Central TV America...................  TV
  153. China Daily................................  NEWSPAPER
  154. China Daily................................  NEWSPAPER
  155. China Daily................................  NEWSPAPER
  156. China News Service.........................  WIRELESS NEWS AGENCY
  157. China News Service.........................  WIRELESS NEWS AGENCY
  158. China Radio International..................  RADIO
  159. China Radio International..................  RADIO
  160. China Radio International..................  RADIO
  161. China Radio International (CRI)............  RADIO
  162. China Youth Daily..........................  NEWSPAPER
  163. China Youth Daily..........................  NEWSPAPER
  164. China Youth Daily..........................  NEWSPAPER
  165. Economic Daily.............................  NEWSPAPER
  166. Feature Story News (FSN)...................  TV
  167. Global Times...............................  NEWSPAPER
  168. Guang Ming Daily...........................  NEWSPAPER
  169. Guang Ming Daily...........................  NEWSPAPER
  170. Humphrey Fellow............................  MAGAZINE
  171. Legal Daily................................  NEWSPAPER
  172. Legal Daily................................  NEWSPAPER
  173. Liberation Daily...........................  NEWSPAPER
  174. People's Daily.............................  NEWSPAPER
  175. People's Daily.............................  NEWSPAPER
  176. People's Daily.............................  NEWSPAPER
  177. People's Daily.............................  NEWSPAPER
  178. People's Daily.............................  NEWSPAPER
  179. People's Daily.............................  NEWSPAPER
  180. People's Daily.............................  NEWSPAPER
  181. Science & Technology Daily.................  NEWSPAPER
  182. Science & Technology Daily.................  NEWSPAPER
  183. Shanghai Media Group.......................  TV
  184. Shanghai Wenhui Daily......................  NEWSPAPER
  185. Shanghai Wenhui Daily......................  NEWSPAPER
  186. The China Press............................  NEWSPAPER
  187. The Economic Observer......................  MAGAZINE
  188. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  189. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  190. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  191. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  192. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  193. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  194. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  195. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  196. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  197. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  198. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  199. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  200. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  201. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  202. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  203. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  204. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  205. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  206. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  207. Xinhua News Agency.........................  WIRELESS NEWS AGENCY
  208. Xinhua News Agency.........................  NEWSPAPER
  209. Xinhua News Agency.........................  TV
------------------------------------------------------------------------

                               adoptions
    Question. As you are aware, many Americans are interested in 
international adoptions. China has reduced the number of children 
available for adoption internationally, leading to wait times of 5 
years or more. Is this change due in part to the consequences of 
China's one-child policy? Also, there are reports that China may be 
making it more difficult to relinquish children resulting with more 
children being abandoned often leading to their death. Are you familiar 
with these issues and will you raise these points with Chinese 
officials if confirmed?

    Answer. China is party to the ``Hague Convention on Protection of 
Children and Cooperation in Respect of Intercountry Adoption.'' 
Therefore, all adoptions between China and the United States must meet 
the requirements of the Convention and U.S. law implementing the 
Convention. For example, the Convention requires that China attempt to 
find a permanent family in-country before determining that a child is 
eligible for intercountry adoption. China's rapid economic development 
and other socioeconomic factors, including the one-child policy, have 
led to greater availability of domestic options for adoption. This may 
contribute to longer wait times for parents seeking an intercountry 
adoption of children without special needs from China. The United 
States has an excellent working relationship with the Chinese Central 
Authority, the China Center for Children's Welfare and Adoptions and 
will continue to work to facilitate adoptions from China pursuant to 
the requirements of the Hague Intercountry Adoption Convention.
    If confirmed, I will examine these issues in more depth with 
Embassy consular affairs officers to determine how we may best work 
with the Chinese to facilitate ethical and transparent adoptions by 
American parents. I will be sure to discuss American interest in 
adopting from China as opportunities arise.
    This is an area of personal interest for me, as well. When I was 
Governor of Washington State, I helped several families from the 
Pacific Northwest navigate the adoption process so they could adopt 
children from China.
                                 tibet
    Question. Have you read the bipartisan committee staff report on 
Tibet that was published earlier this year? Do you agree with all the 
recommendations for administration action and will you endeavor to 
carry them out? Will you commit to travel to Tibetan areas, including 
outside of Lhasa, to seek accurate information about these areas, which 
are among the few in China where foreigners do not have free access?

    Answer. The Department of State, including the Special Coordinator 
for Tibetan Issues, has reviewed and briefed me on the contents of the 
report. I welcome its analysis and recommendations for action. The 
Department continues to work steadily to help sustain Tibet's unique 
religious, linguistic, and cultural heritage. Among the report's 
recommendations, and consistent with the Tibet Policy Act, the 
Department continues to urge the Chinese Government to engage in a 
substantive dialogue with the representatives of the Dalai Lama that 
will achieve actual results. In addition, Department officials also 
have urged China to relax restrictions on movements of U.S. Government 
officials, journalists, and Tibetan pilgrims to and from Tibetan 
regions. Travel to Tibetan areas, including outside of Lhasa, is an 
important priority for our Embassy in Beijing, and if confirmed I look 
forward to continuing to press for the opportunity to travel to the 
Tibet Autonomous Region and other Tibetan areas.

    Question. Currently there is great concern over the events at Kirti 
Monastery, in the Tibetan part of Sichuan province, where a young monk 
immolated himself earlier this year. This prompted an unprecedented 
crackdown in April, when the Monastery was forcibly taken over by 
security forces; 25 monks remain in detention; 300 other monks have 
reportedly been taken away for ``patriotic education''; and two 
laypeople were reportedly killed by security forces. How will you 
respond to this situation if you are confirmed?

    Answer. The Department of State is closely following developments 
at Kirti Monastery. Department officials have expressed deep concern 
about reports that Chinese authorities forcibly removed 300 monks from 
the Kirti Monastery, sentenced two other monks to 3 years of 
imprisonment without due process, and that the whereabouts of 25 
detained monks and laypeople are still unknown. Assistant Secretary 
Posner discussed our concerns about Kirti Monastery and China's 
counterproductive policies in Tibetan areas of China during the most 
recent Human Rights Dialogue. If confirmed, I will continue to raise 
our concerns with the Chinese Government and urge China to respect the 
human rights, including religious freedom, of the members of the Kirti 
community and all Chinese citizens.
                         china and development
    Question. What steps is the United States taking, or should 
additionally take, to encourage China to disclose its lending to 
developing countries? Following years of debt relief from the 
multilateral financial institutions and bilateral donors for poor 
countries, many are concerned that those same poor countries are 
becoming increasingly indebted to China.

    Answer. For developing countries, China's assistance is welcomed as 
additional resources to complement those from other donors. However, 
over the past decade, China's ``foreign assistance''--a mixture of 
trade, loans, investment and aid--has raised governance and 
sustainability concerns, from both the traditional donor community and 
aid recipients. In addition, China remains reluctant to engage 
energetically on global development issues with the United States and 
other key donors.
    In order to improve the transparency and effectiveness of China's 
development activities in third countries, USAID has been engaging 
China in dialogue on overseas development assistance and is seeking to 
create a number of cooperative development projects with China in 
several African countries.
    If confirmed, I will continue to support and encourage more 
collaborative efforts and call for China to join multilateral groups of 
donor nations in devising and adopting best practices that address 
development challenges aimed at benefiting the poorest of the poor in 
developing countries.
                               sanctions

    Question. Earlier this week, the Department of State announced 
sanctions on four Chinese firms and individuals over trade links with 
Iran, Syria, and North Korea in goods or technology that may be used 
for missiles or weapons of mass destruction. How does the 
administration view Chinese cooperation on sanctions implementation, 
particularly since the passage of U.N. Security Council Resolution 1929 
last June?

    Answer. The prevention of the spread of nuclear weapons and related 
technologies is one of the Obama administration's highest priorities. 
Iran and North Korea were key topics of President Obama's talks with 
Chinese President Hu Jintao during his January 2011 visit. The 
administration will continue to uphold U.S. law and impose sanctions as 
necessary and warranted. Most recently, the United States imposed a 
number of sanctions under the Iran, North Korea, and Syria 
Nonproliferation Act (INKSNA) against Chinese firms and individuals 
that engaged in proliferation-related transfers with Iran.
    China has played an important role in the diplomatic efforts to 
address the threats from Iran and North Korea. China, as part of the 
P5+1 and U.N. Security Council, contributed to the crafting of U.N. 
Security Council Resolution 1929 and plays an important role in efforts 
to reach a resolution of the international community's serious concerns 
about Iran's nuclear program. In the January 19, 2011, United States-
China joint statement, both sides called for full implementation of all 
relevant U.N. Security Council resolutions. We have been pleased with 
the unity that China and other P5+1 partners have maintained in our 
negotiations with Iran, and we continue to jointly insist that Iran 
comply with its international obligations. China has stated that it is 
committed to implementing Resolution 1929 and the other resolutions on 
Iran fully and faithfully, but China has stated that it does not 
support sanctions beyond those contained in UNSCR 1929 and previous 
UNSCRs on Iran. China agrees with the United States that a nuclear-
armed Iran would pose a grave regional and international threat; 
however, we do not necessarily agree on the timeframe or method to 
solve the problem. We have worked closely with the Chinese on this 
issue, and will continue to raise this issue at all levels in meetings 
with Chinese officials.
    As Secretary Clinton has said, if we have information about 
technology transfers that we believe is inconsistent with Security 
Council resolutions and Chinese laws, we bring such information to the 
attention of the Chinese Government and request that it investigate and 
take appropriate action to prevent any prohibited transfers. 
Furthermore, we will not hesitate to enforce our sanctions laws, as the 
most recent imposition of sanctions against Chinese entities and 
individuals under INKSNA demonstrates. Chinese controls over such 
transfers remain inhibited by an as yet underdeveloped export control 
apparatus and an apparent continued lack of political will to develop a 
comprehensive control system.
    During their January 2011 meetings with President Hu, President 
Obama and Secretary Clinton both stressed the need for continued 
Chinese restraint in Iran's energy sector, by slowing existing 
activities and by not concluding any new deals. The administration has 
also pressed China not to ``backfill'' by assuming the business of 
other firms that have responsibly departed Iran's energy sector. We 
have seen some evidence in open sources that China has exercised some 
restraint in this area, but we continue to monitor closely China's 
activities in the energy sector. As Secretary Clinton has said, this 
administration will enforce the law with respect to Chinese firms. The 
United States and China share the same goal, and we need to work 
together to prevent Iran from becoming a nuclear weapons state.
    The administration also discusses on a regular basis with China how 
it can and should best use its influence with North Korea, given its 
unique history and relationship with the DPRK. In June 2009, China 
voted in favor of adoption of U.N. Security Council Resolution 1874, 
which imposed additional sanctions against the DPRK. The United States 
has called on all members of the U.N. Security Council and all U.N. 
Member States, including China, to fully and transparently implement 
these sanctions and to refrain from further provocations.
                                 ______
                                 

  Responses of Gary Locke to Questions Submitted by Senator James E. 
                                 Risch

    Question. Over the years, China's support of both conventional 
weapons transfers and Pakistan's nuclear and missile programs have 
caused concern. Recently, China has reached out to Pakistan to offer 
deeper relations as an alternative to the West. Given the instability 
in Pakistan, do you believe these overtures are helpful? What will you 
do to help the Chinese understand that instability in a nuclear-armed 
Pakistan does not promote stability?

    Answer. The administration believes that there is a role for China 
to play in helping the international community deal with the challenge 
of peace and stability in Afghanistan and in cooperating to allow 
Pakistan to strengthen its democracy and to deal with the economic 
challenges that country faces. If confirmed, I will work closely with 
the Secretary's Representative for Afghanistan and Pakistan to promote 
effective United States-Chinese cooperation in the region.

    Question. Recently, in front of the Senate Armed Services Committee 
Lieutenant General Carlisle said: ``You need only look across the 
Pacific and see what [China] is doing, not just their air force 
capability, but their surface-to-air [missile] capability, their 
ballistic missile capability, their antiship ballistic missiles. All of 
those things are incredibly disturbing to us for the future.''

  <bullet> Do you believe China's military buildup is benign or should 
        it be cause for U.S. concern? Do you agree with General 
        Carlisle's assessment?

    Answer. China has embarked on a comprehensive effort to transform 
its military into a modern force capable of conducting a growing range 
of military operations. The administration is mindful of China's 
military modernization plans and, in particular, the lack of 
transparency surrounding them. We monitor carefully China's military 
developments and, in concert with our allies and partners, will adjust 
our policies and approaches as necessary.
    Both President Hu and President Obama have stressed that a healthy, 
stable, and reliable military-to-military relationship is an important 
component of our overall bilateral relationship. President Obama told 
President Hu that we need to develop a military-to-military dialogue 
that is ongoing and sustainable even in the face of the inevitable ups 
and downs of the overall relationship. We have now made progress in 
resuming military-to-military dialogue, which we believe can help to 
build trust and reduce misunderstanding, misperception, and 
miscalculation.

    Question. China's neighbors are deeply concerned about China's 
assertion of sovereign control over the entire South China Sea. How 
should the United States deal with this issue? Do you think we could 
see another ``Mischief Reef'' scenario by the Chinese to assert its 
control over the sea? What should we do about similar Chinese 
assertions in the East China Sea?

    Answer. As Secretary Clinton stated in Hanoi at the Association of 
Southeast Asian Nations (ASEAN) Regional Forum (ARF) last year, the 
United States shares a number of national interests with the 
international community in the South China Sea. These interests include 
regional peace and stability, freedom of navigation, respect for 
international law, and unimpeded commerce under lawful conditions. We 
urge that all claimants exercise restraint in dealing with these 
competing claims. We support a collaborative and peaceful diplomatic 
process by all claimants to resolve the various territorial and 
maritime disputes without coercion, and we call on all claimants to 
conform all of their claims--both land and maritime--to international 
law. To advance these goals, the United States supports the ASEAN-China 
declaration on the conduct of parties in the South China Sea and 
encourages the parties to reach a full code of conduct. With regard to 
a Mischief Reef scenario, I would not want speculate about hypothetical 
situations. We believe territorial claims in the East China Sea should 
also be resolved peacefully and in accordance with international law. 
We oppose the use or threat of force by any claimant. The United States 
does not take sides in territorial disputes in the South China Sea or 
East China Sea.

    Question. Given how much U.S. debt is owned by the Chinese, will 
you let these economic issues, become an obstacle to addressing issues 
like human rights, political reforms, Chinese military buildup, or 
other substantive issues?

    Answer. Approximately 70 percent of U.S. Treasury securities are 
held by domestic investors or the U.S. Government, with only 30 percent 
of U.S. debt held by foreign entities. Externally owned U.S. debt is 
held by a diversified group of countries, and we are not overly reliant 
on any one overseas holder of U.S. Treasury securities. China's 
holdings represent only about 8 percent of U.S. Treasury securities 
outstanding.
    While China has a strong interest in the stability of our debt, as 
a creditor China's holdings of Treasury securities have no effect on 
any U.S. foreign policy decisions.

    Question. Your predecessor Ambassador Huntsman set a good standard 
with human rights outreach in China. He spoke publicly and privately 
about these issues, met with dissidents and families, cultivated 
independent Chinese media outlets, and took other critical steps to 
create a climate of support for these issues within the Embassy and 
reiterated the importance to Chinese interlocutors.

  <bullet> Do you see this as a floor or a ceiling in terms for 
        ambassadorial human rights advocacy?

    Answer. The protection and the promotion of liberty and freedom are 
fundamental tenets of American foreign policy. Promoting human rights--
including freedom of religion, speech, and assembly--is a central 
objective of our diplomatic engagement with China. U.S. officials will 
continue to make very clear both publicly and privately our concerns 
about the deteriorating human rights situation in China. If confirmed, 
I will be a forceful advocate with the Chinese Government and the 
Chinese people for promoting the respect of universal human rights in 
China.

    Question. Will you continue the practice of meeting with dissidents 
in and outside of China? What other kinds of initiatives do you 
envision taking to engage directly with Chinese people and promote 
universal values? Will you attend any part of dissident trials like 
other ambassadors?

    Answer. The Embassy maintains a wide variety of contacts within 
Chinese society, including with activists who work on a range of 
issues, and if confirmed I intend to continue such meetings but also to 
engage in broad outreach to both Chinese officials and the Chinese 
people to convey the human rights values for which America stands. 
Promoting human rights--including freedom of religion, speech, and 
assembly--is a central objective of our diplomatic engagement with 
China. Although the Embassy has submitted requests for permission to 
attend the trials of known activists, none has been granted to date. If 
confirmed, the Embassy under my leadership will continue to press for 
permission to attend such trials.

    Question. A number of U.S. NGOs work in China or provide financial 
support to Chinese NGOs working on areas considered sensitive by the 
Chinese Government, such as human rights NGOs and those working in 
Tibet. In recent years, many of these groups and their domestic 
partners have come under pressure from the Chinese Government, 
particularly those who have a U.S. Government funding source, such as 
organizations that work with the National Endowment for Democracy and 
its affiliates, and U.S. NGOs working in Tibetan areas.

  <bullet> Will you be willing to meet and consult with the U.S. NGOs 
        doing sensitive work in China on how the Embassy can best 
        support their efforts?

    Answer. Yes. If confirmed, I will consult with a wide range of 
American citizens and organizations that deal with the many aspects of 
United States-China relations, including human rights. The State 
Department's Bureau for Democracy, Human Rights, and Labor supports 
many active and important programs in the rule of law and civil society 
development, among others. I have already met with Assistant Secretary 
Michael Posner to discuss his views on human rights in China, and if 
confirmed, will continue to conduct further consultations, including 
with NGOs, to learn more about programs and how to promote our common 
objectives in China.
                                 ______
                                 

           Responses of Gary Locke to Questions Submitted by
                      Senator Robert P. Casey, Jr.

    Question. Under the Obama administration, China's record of blatant 
disregard for World Trade Organization (WTO) rules has remained 
abysmal, if not worsened.

  <bullet> Secretary Locke, can you explain how your leadership at 
        Commerce has helped address any of the major trade problems we 
        continue to have with China, including currency, rampant 
        intellectual property rights (IPR) theft, and massive 
        industrial subsidies?

    Answer. I fully appreciate your concerns regarding the currency 
practices of China. This is an important issue for me and the Obama 
administration. As you know, the authority to monitor and report on 
currency manipulation is delegated by law to the Department of 
Treasury. However, in all my meetings with Chinese officials I have 
repeated the administration's call for reform of Chinese currency 
practices. As the Secretary of Commerce, I have been steadfast in my 
commitment to vigorously enforce the U.S. trade remedy laws to ensure 
that U.S. workers and industries have the opportunity to compete on a 
level playing field. In every instance that a domestic industry filed 
an antidumping duty (AD) or countervailing duty (CVD) petition that met 
the statutory requirements for initiation, we initiated investigations. 
While the Department of Commerce has yet to receive a CVD allegation 
regarding China's currency that has met the statutory requirements for 
initiation, the Department has countervailed a variety of subsidy 
programs involving a wide range of imports from China and have placed 
duties to offset these unfair subsidies. Based on 2010 trade data, 
roughly $11.6 billion, or 3.2 percent, of imports from China were 
covered under orders in effect that year. At the end of 2010, there 
were 108 orders in place against Chinese products.
    On IPR, we have made significant progress with China during my 
tenure, but we must continue to push China to do more. At the 2009 
Joint Commission on Commerce & Trade (JCCT), China committed to 
clamping down on Internet piracy, strengthening the protection of IPR 
at state-run libraries, and addressing concerns over a Ministry of 
Culture circular relating to online music distribution.
    During the 2010 JCCT, China announced that it would take 
significant steps to ensure that software used on government computers 
is legitimate and promote legal software use in enterprises, while the 
judiciary would undertake a study that would lead to a judicial 
interpretation on Internet infringement liability. Also, cooperation 
between the United States and China would continue on strengthening IPR 
protection at libraries and discussions would continue on patents and 
standards issues. Furthermore, China would clarify the responsibilities 
of market managers and landlords, and China would not adopt or maintain 
measures that make the location of the development or ownership of 
intellectual property a direct or indirect condition for eligibility 
for government procurement preferences for products and services.
    At the 2010 JCCT and during President Hu's state visit to 
Washington, DC, in January 2011, we pushed China to commit to 
announcing more specific plans on software legalization and eliminating 
discriminatory innovation policies that take into account where IPR is 
developed when making government procurement decisions. China's 
commitments are only credible if they deliver results. We will be 
holding a JCCT midyear review to press for full implementation of 
China's 2010 JCCT commitments.
    Regarding industrial subsidies, the administration is committed to 
vigorously challenging any Chinese subsidies that are inconsistent with 
China's WTO obligations, whether through multilateral action at the WTO 
or the strong enforcement of U.S. trade laws to remedy unfairly 
subsidized and injurious Chinese imports. Addressing unfair and harmful 
Chinese Government subsidies has been a key priority during my tenure 
at the Department of Commerce. Indeed, trade compliance and enforcement 
are key components of the administration's National Export Initiative. 
One of the ways we have pursued these efforts is through the Department 
of Commerce's strong enforcement of the CVD law which provides U.S. 
industries and workers with a reliable process to obtain effective 
relief from the injurious effects of imports from China benefiting from 
Chinese Government subsidies. Moreover, the Department of Commerce has 
a strong subsidies enforcement program which devotes considerable 
resources to identifying and addressing potentially harmful Chinese 
Government subsidies that may impact our exports abroad. We are thus 
engaged in a wide range of activities that seek to confront harmful 
Chinese Government subsidies, and thereby promote a level playing field 
for American companies and its workers.

    Question. Senator Wyden and his staff estimate that only 1 percent 
of all countervailing and antidumping duties are collected, with the 
majority of evasion coming from China. What has the Commerce Department 
done under your leadership to deal with this problem?

    Answer. The Department of Commerce's role in detecting and 
deterring circumvention of antidumping and countervailing duties is 
addressed in section 781 of the Tariff Act of 1930 (the Act). If the 
Department of Commerce determines that an order is being circumvented, 
Commerce directs U.S. Customs and Border Protection (CBP) to suspend 
liquidation of the entries and require a cash deposit of estimated 
duties on all unliquidated merchandise determined to be circumventing 
the order.
    The Department of Commerce is currently investigating six 
allegations of circumvention of Chinese antidumping and countervailing 
duty orders. These include orders on steel wire garment hangers, 
laminated woven sacks, small diameter graphite electrodes, glycine, 
tissue paper, and cut-to-length carbon steel plate.
    In the tissue paper inquiry, for example, the Department of 
Commerce recently made a preliminary determination that certain tissue 
paper processed and exported to the United States by a Vietnamese 
company was circumventing the AD order on tissue paper from China. 
Commerce directed CBP to suspend liquidation and collect cash deposits 
at a rate of 112.64 percent for all exports from the Vietnamese company 
retroactive to the date we initiated the circumvention inquiry. We will 
be considering comments from interested parties prior to making a final 
determination in this case in August.
    In addition to the authority to address circumvention that is 
specifically prescribed to the Department of Commerce by statute, 
Commerce works in close cooperation with CBP, Immigration and Customs 
Enforcement (ICE) and the Department of Justice to assist them in 
responding to allegations of duty evasion, transshipment, and fraud 
that fall with within their jurisdiction.
    Over the past several years, Commerce and CBP have been working to 
improve communications between the two agencies in order to strengthen 
enforcement of the AD/CVD laws. Cooperation among IA, CBP, ICE, and the 
Department of Justice has resulted in indictments, convictions, and 
prison sentences for evaders of AD/CVD orders. To cite just one 
example, our interagency cooperation led to the indictment in 2010 of 
Alfred L. Wolff Gmbh, a German food conglomerate, and 10 executives for 
conspiracy to illegally import more than $40 million of honey from 
China between 2002 and 2009 and avoid paying nearly $80 million in AD 
duties.
    The Department of Commerce is committed to robustly enforcing the 
trade remedy laws in order to ensure that American businesses and 
workers have the opportunity to compete on a level playing field 
against their foreign competitors. The Department of Commerce will 
continue to work intensively to ensure the AD and CVD orders are not 
circumvented and will actively coordinate with its sister agencies to 
minimize evasion of AD and CVD duties.

    Question. Do you support Senator Wyden's bill, ``The Enforce Act,'' 
introduced last Congress, to enhance Custom's ability to enforce duty 
collection?

    Answer. The administration has taken no official position with 
respect to Senator Wyden's bill. Nevertheless, we stand ready to work 
with you and other Members of Congress--as well as with the Department 
of Homeland Security--to take appropriate measures that ensure all 
countervailing and antidumping duties imposed are properly collected 
and duty evasion schemes are rightfully prosecuted.

    Question. China's currency manipulation practices remain of serious 
concern. The Treasury Department's February 2011 report on 
international economic and exchange rate policies of U.S. major trading 
partners cited the need for greater flexible from China, noting that 
the Chinese currency remains ``substantially undervalued.'' However, 
diplomatic efforts to push China to allow the Chinese yuan to 
appreciate more quickly have achieved little progress to date.

  <bullet> As Ambassador to China, what ``creative diplomatic'' steps 
        will you take to encourage the Chinese Government to end the 
        unfair manipulation of its currency?
  <bullet> What impact do you foresee potential currency manipulation 
        legislation having on U.S. efforts to address this serious 
        concern?

    Answer. As President Obama and Treasury Secretary Geithner have 
clearly stated, China's decision to increase flexibility of its 
exchange rate will help safeguard global recovery in the wake of the 
financial crisis, and contribute to a balanced global economy. If 
confirmed, I will continue to press China to move forward in 
implementing an exchange rate policy that will be beneficial to both 
the global and domestic Chinese economy.

    Question. Most trade experts believe that China is in the process 
of backsliding from the commitments it has made since joining the WTO.

  <bullet> Do you agree with this assessment? If so, how will you use 
        your new role as Ambassador to work to defend what is left of 
        the U.S. manufacturing base?

    Answer. China's efforts to implement its WTO commitments since its 
2001 accession have led to increased exports and opportunities for U.S. 
companies. However, in some areas, China has yet to fully implement 
some of its commitments. We have also been seeing a troubling trend in 
recent years toward increased government intervention in China's 
economy. While bilateral trade with China continues to grow, a number 
of American businesses continue to face significant market access 
barriers and preferential policies that favor Chinese firms, especially 
SOEs. China must address these concerns, and if confirmed, I will work 
in concert with USTR to press the Government of China to fully 
implement and adhere to its WTO commitments. If dialogue fails, I am 
fully supportive of the administration using the full range of 
enforcement options, as it has been doing. We have been by far the most 
active--and successful--WTO Member in bringing WTO dispute settlement 
cases against China.

    Question. The Strategic and Economic Dialogue has failed to create 
any meaningful progress on important trade and economic issues in our 
relationship with China. As Ambassador, how will you work to boost the 
effectiveness of this dialogue?

    Answer. As Secretary Clinton has stated, the Strategic and Economic 
Dialogue is the premier forum in a bilateral relationship that is as 
important and complex as any in the world.
    The three rounds of the S&ED demonstrate the importance of this 
forum for advancing our most important policy objectives with China. We 
use the S&ED to expand the areas where we cooperate and to narrow the 
areas where we diverge, while holding firm to our values and interests. 
We also employ the S&ED to form habits of cooperation that will help us 
work together more effectively to meet our shared regional and global 
challenges and also to weather disagreements when they arise.
    This year's S&ED produced 48 concrete outcomes on the Strategic 
track. We announced, among other outcomes, the creation of the new 
U.S.-China Strategic Security Dialogue, the U.S.-China consultation on 
the Asia/Pacific, and announced new areas of cooperation in areas 
ranging from energy and environmental cooperation to scientific 
cooperation and people-to-people exchange. In the Economic Track, the 
United States secured important commitments to level the playing field 
for U.S. companies and workers, shift the orientation of China's 
economy toward domestic demand-led growth, improve IP protection, and, 
in the process, promote greater U.S. exports to the large and rapidly 
growing Chinese market. We are already working to make sure China 
implements these important commitments in an effective and decisive 
manner. If confirmed, I will do my utmost, working with my colleagues 
at the Departments of State, Treasury, Commerce and other agencies, to 
continue to utilize the S&ED to make further progress on critical 
issues.

    Question. In a letter to President Obama in January, I outlined the 
very real difficulties many Pennsylvania companies and workers face due 
to China's lack of enforcement of intellectual property rights. For 
example, C.F. Martin & Co.--
a world-renowned Pennsylvania guitar manufacturer--has been fighting to 
register its mark with the Chinese Government since 2005. According to 
the company, a Chinese individual has been illegally registering the 
mark in order to produce and sell counterfeit guitars of low quality. 
The lack of protection on the part of the Chinese harms not only C.F. 
Martin & Co., but also countless other Pennsylvania companies and 
workers--and American exports more broadly. I have urged the 
administration to work with the Chinese to address concerns over 
intellectual property rights infringement.

  <bullet> As Ambassador, how will you address the very real threat 
        that Chinese intellectual property infringement poses to 
        American businesses and workers?

    Answer. Improving the protection and enforcement of IPR remains a 
top priority for this administration. U.S. trade losses due to 
counterfeiting and piracy in China remain unacceptably high. In 
addition, a strong intellectual property regime is critical to ensuring 
safe products for both U.S. and Chinese citizens.
    At the December Joint Commission on Commerce and Trade, we made 
progress in ensuring the use of legitimate software in Chinese 
Government agencies and delinking the source and origin of IP from 
Chinese Government procurement preferences. During the January visit by 
President Hu, China further agreed to strengthen its efforts to protect 
IPR, including by conducting audits to ensure that government agencies 
at all levels use legitimate software and by publishing the auditing 
results as required by China's law.
    The specific case you mention with C.F. Martin & Co. is an example 
of trademark ``squatting.'' Unlike laws in most other countries, 
including the United States, Chinese law has a ``first to file'' system 
that requires no evidence of prior use or ownership, leaving 
registration of popular foreign marks open to third parties. Under 
Chinese law, these third parties (squatters) may then bring an 
infringement action or seek payment from the true brand owner if the 
owner attempts to use its brand in China. If confirmed as Ambassador, I 
will work with Chinese officials to update their laws to conform to 
international norms and alleviate this problem.
    More broadly, I am committed to protecting U.S. business interests 
and will continue to work within established fora such as the Joint 
Commission on Commerce and Trade (JCCT) and the Strategic and Economic 
Dialogue (S&ED) to engage the Chinese on protecting and enforcing 
intellectual property rights in accordance with internationally 
recognized standards and their World Trade Organization (WTO) 
commitments.

    Question. I believe a top priority in our relationship with China 
should be the Chinese Government's enforcement of international 
sanctions against Iran. It is no secret that while China eventually 
supported U.N. sanctions on Iran, it did so reluctantly and only after 
it succeeded in significantly watering down the sanctions. According to 
the State Department's Special Advisor for Nonproliferation and Arms 
Control, Bob Einhorn, Iran continues to use Chinese companies to 
procure proliferation-sensitive equipment for its nuclear and missile 
programs.

  <bullet> What diplomatic tools does the United States have to press 
        China to reduce its relationship with Iran? As Ambassador, how 
        will you encourage timely responses from the Chinese Government 
        to U.S. requests to stop specific shipments of proliferation 
        concern? As Ambassador, how will you work to convince China to 
        implement stricter export regulations to prevent the 
        proliferation of sensitive items to countries of concern? What 
        steps will you take to convince relevant Chinese companies to 
        sever business ties with Iran?

    Answer. The prevention of the spread of nuclear weapons and related 
technologies is one of the Obama administration's highest priorities. 
Iran and North Korea were key topics of President Obama's talks with 
Chinese President Hu Jintao during his January 2011 visit, and we 
continue to raise the issue at the highest levels. We will also 
continue to uphold U.S. law and impose sanctions as necessary and 
warranted. Most recently, the United States imposed a number of 
sanctions under the Iran, North Korea, and Syria Nonproliferation Act 
(INKSNA) against Chinese firms and individuals that engaged in 
proliferation-related transfers with Iran. In addition, we will 
continue to implement the Comprehensive Iran Sanctions Accountability 
and Divestment Act (CISADA), and in that regard, we have urged China to 
exercise restraint and refrain from making any investments in Iran's 
energy sector.
    China shares the international community's serious concerns about 
Iran's nuclear program, and has played an important role in the 
diplomatic efforts to address this threat. China, as part of the P5+1 
and U.N. Security Council, contributed to the crafting of U.N. Security 
Council Resolution 1929. In the January 19, 2011, U.S.-China joint 
statement, both sides called for full implementation of all relevant 
U.N. Security Council resolutions. We have been pleased with the unity 
that China and other P5+1 partners have maintained in our negotiations 
with Iran, and we continue to jointly insist that Iran comply with its 
international obligations. China has stated that it is committed to 
implementing resolution 1929 and the other resolutions on Iran fully 
and faithfully, but China has stated that it does not support sanctions 
beyond those contained in UNSCR 1929 and previous UNSCRs on Iran. China 
agrees with the United States that a nuclear-armed Iran would pose a 
grave regional and international threat; however, we do not necessarily 
agree on the timeframe or method to solve the problem. We have worked 
closely with the Chinese on this issue, and we will continue to raise 
it at all levels in meetings with China. We continue to emphasize the 
need for greater urgency in responses to this threat.

    Question. The United States has sanctioned 21 Iranian banks for 
providing financing for Iran's nuclear and missile programs. However, 
as Acting Treasury Undersecretary David Cohen noted, ``Iran has a well-
established practice of migrating illicit financial activities from one 
bank to another to facilitate transactions for sanctioned banks.'' As 
international banks throughout Europe are severing their ties with 
Iranian financial institutions, Iran has turned to Turkish, Emeriti, 
and Chinese banks to evade international sanctions--and there are 
ongoing reports that Chinese banks knowingly continue to do business 
with Iran likely in violation of U.S. sanctions.

  <bullet> What is your assessment of reports that Chinese banks 
        continue to facilitate Iranian financial transactions, in 
        violation of U.S. sanctions? As Ambassador, what will you do to 
        encourage the Chinese financial industry to sever its ties with 
        Iranian firms?

    Answer. As Secretary Clinton has said, if we have information about 
technology or financial transfers that we believe is inconsistent with 
Security Council resolutions and Chinese laws, we bring such 
information to the attention of the Chinese Government and request that 
it immediately investigate and take appropriate action to prevent any 
prohibited transfers. Furthermore, we do not hesitate to enforce our 
sanctions laws, as the most recent imposition of sanctions against 
Chinese entities and individuals under the Iran, North Korea, and Syria 
Nonproliferation Act (INKSNA) demonstrates. Chinese controls over such 
transfers remain inhibited by an as yet underdeveloped export control 
apparatus, weak financial industry controls, and an apparent continued 
lack of political will to develop a comprehensive control system. 
President Obama, Secretary Clinton, and other administration officials 
regularly stress to the Chinese the need for continued Chinese 
restraint in Iran's energy sector and urge that they slow down existing 
activities and not conclude any new deals. The administration has also 
pressed China not to ``backfill'' by assuming the business of other 
firms that have responsibly departed Iran's energy sector. We have seen 
some evidence in open sources that China has exercised some restraint 
in this area, but we continue to monitor China's activities in the 
energy sector. As Secretary Clinton has said before, this 
administration will enforce the law with respect to Chinese firms. If 
confirmed, I will continue to press these issues in my discussions with 
Chinese officials.

    Question. According to human rights activists in Washington, the 
Chinese Government's recent crackdown on dissidents is the biggest they 
have seen in more than 20 years. I welcomed Secretary of State 
Clinton's May 10 statement denouncing China's human rights abuses and 
brutal crackdown on antigovernment protesters, which is in large part a 
response to the wave of unrest that has spread across the Middle East 
and North Africa. Beijing's detainment of lawyers, artists, and 
activists serves to highlight the government's ongoing lack of 
commitment to upholding internationally recognized human rights.

  <bullet> If confirmed, what steps will you take the encourage China 
        to uphold its human rights commitments and end its brutal 
        crackdown on prodemocracy activists? How does this fit in with 
        the broader United States-China relationship, given China's 
        important role as a trade partner and main holder of U.S. debt?

    Answer. The administration has made clear that we have a 
fundamental commitment to the universal rights of all people, including 
those in China. Human rights is a central part of our United States-
China bilateral relationship. The United States and China can cooperate 
on critical global challenges, such as producing balanced global 
growth, as well as on our bilateral economic and trade concerns, while 
having candid and direct discussions about the issues where we do not 
see eye to eye, such as human rights. If confirmed, I will forcefully 
advocate for the Chinese Government to respect the universal human 
rights of all its citizens, including those who advocate peacefully for 
reform.

    Question. What signals can the United States send to Chinese 
dissidents to assure them of our steadfast commitment to universal 
human rights?

    Answer. The U.S. Embassy in Beijing maintains a wide variety of 
contacts within Chinese society, and if confirmed I intend to engage in 
broad public outreach to both Chinese officials and the Chinese people 
and to convey the human rights values for which America stands. 
Promoting human rights--including freedom of religion, speech, and 
assembly--is a central objective of our diplomatic engagement with 
China. If confirmed, I will be a forceful advocate for promoting the 
respect of universal human rights in China.
                                 ______
                                 

           Responses of Gary Locke to Questions Submitted by
                        Senator James M. Inhofe

                 freedom of religion and house churches
    Question. The persecution of ``House Churches'' has recently come 
to our attention. Chinese house churches are a religious movement of 
unregistered assemblies of Christians in the People's Republic of 
China. They are also known as the ``Underground'' Church or the 
``Unofficial'' Church. They are called ``house churches'' because as 
they are not officially registered organizations, they cannot 
independently own property and hence they meet in private houses, often 
in secret for fear of arrest or imprisonment. Because house churches 
operate outside government regulations and restrictions, their members 
and leaders are frequently harassed by local government officials. This 
persecution may take the form of a prison sentence or, more commonly, 
reeducation through labor. Heavy fines are also not unusual.

  <bullet> Do you believe that the opposition of house churches by 
        government officials arises from an ideological opposition to 
        religion and support of atheism or more out of fear of 
        potential disturbances to orderly society from mass 
        mobilization of believers, similar to the Tiananmen Square 
        protests of 1989, and mass protests of Falun Gong members in 
        Beijing in 1999? Do you believe the administration has taken a 
        strong enough approach in integrating religious rights at a 
        systematic and structural level or will our current approach 
        only lead to antipathy and further delays in cooperation on 
        other issues?

    Answer. With respect to religious freedom in China, the Secretary 
of State has designated it a ``country of particular concern'' every 
year that such designations have been made. We continue to engage China 
on its poor religious freedom record, including during the most recent 
U.S.-China Human Rights Dialogue and the Strategic and Economic 
Dialogue. The State Department raises cases of concern, including about 
individual incidents like the Shouwang Church in Beijing, on a regular 
basis at senior levels in both Washington and Beijing. If confirmed, I 
will continue to press the Chinese Government to respect all of its 
citizens' right to religious freedom, including for House church 
practitioners.

    Question. If confirmed what will you do to ensure that freedom of 
religion is assured for Chinese citizens?

    Answer. If confirmed, one of my primary roles would continue to be 
that of a spokesman for America and America's values, including the 
freedoms that are the foundation of our great Nation. That includes 
religious freedom. I will continue to advance the administration's 
policy of pressing China to improve its record on religious freedom and 
to respect the right to religious freedom of all its citizens.
                       china and taiwan relations
    Question. Presently China has over 1,400 short-range missiles 
pointed at Taiwan. This explicit threat from the Communist Chinese 
mainland was foremost in my mind when I addressed a letter to the 
administration, prior to the visit of President Hu Jintao early this 
year. In this bipartisan letter, signed by myself and 25 other 
Senators, I reminded the President of the U.S. commitment to Taiwan's 
defense under the Taiwan Relations Act of 1979.

  <bullet> What assurances can you give me that will ensure that the 
        Communist Chinese Government fully understands not only the 
        legal ramifications but the moral commitment the United States 
        has to guarantee the ability of Taiwan to defend itself?

    Answer. First let me note that this administration welcomes the 
impressive steps both sides of the Taiwan Strait have taken in 
improving relations. We hope these efforts will continue and expand. 
The U.S. Government is committed to our one China policy based on the 
Three Joint Communiques and the Taiwan Relations Act. Our one China 
policy has been consistent for the past eight U.S. administrations and 
will not change. If confirmed, I will continue to advance that policy 
in my interactions with Chinese officials.
    The United States has consistently told our Chinese counterparts 
that, in accordance with the Taiwan Relations Act, the United States 
makes available to Taiwan defense articles and services necessary to 
enable Taiwan to maintain a sufficient self-defense capability. We have 
also consistently said that cross-strait issues should be resolved 
peacefully in a manner acceptable to people on both sides of the strait 
and that we oppose unilateral actions by either side to alter the 
status quo. We urge China to reduce military deployments aimed at 
Taiwan and to pursue a peaceful resolution to cross-strait issues.

    Question. There are rumors that the present Taiwan Government may 
not fully purchase all items previously agreed for sale by the United 
States. Should this sale go through to completion however, how will 
this affect the United States-China relationship, since the Chinese 
Government reacted so negatively when the arms sales list to Taiwan was 
announced last year?

    Answer. I would prefer not to speculate on the hypothetical. I 
would simply note that China and Taiwan have made considerable progress 
in improving cross-strait relations and that we support these efforts 
and encourage both sides to continue these discussions, and that in 
accordance with the Taiwan Relations Act, the United States makes 
available to Taiwan defense articles and services necessary to enable 
Taiwan to maintain a sufficient self-defense capability. That policy 
has provided a basis for maintaining security and stability across the 
Taiwan Strait for decades. Decisions to make available to Taiwan 
defensive arms and services are considered through an interagency 
process based solely upon an evaluation of Taiwan's defensive needs.
                            china and africa
    Question. Africa is the world's second-largest and most-populous 
continent. Comprised of 53 nations and over 900 million people, it is 
both rich in minerals and oil. This has not gone unnoticed by the 
Chinese Government. China has stepped into somewhat of a vacuum, 
currying favor in both political and strategic alliances across the 
African Continent

  <bullet> To what extent do you see China furthering its exploration 
        into the African Continent and to what ends?

    Answer. China's overall trade with Africa exceeded $100 billion 
last year, with about 89 percent of its imports from Africa consisting 
of oil, minerals, and other raw materials. With our Chinese 
counterparts, we have discussed how to diversify and sustain trade, 
which would not only help Africa but also serve China's own interests.

    Question. Is the Chinese interest in Africa purely for the survival 
and economic interest of the Chinese and not the economic emancipation 
of Africa?

    Answer. China's presence in Africa reflects the reality that it has 
important and growing interests in Africa including access to resources 
and markets and development of diplomatic ties. These objectives are 
not inherently incompatible with U.S. priorities. As the President and 
Secretary Clinton have both made clear, we do not see power and 
influence in zero sum terms, and that is true in Africa as well. The 
United States and other donors are concerned, however, that China's 
foreign assistance and investment practices in Africa have not always 
been consistent with generally accepted international norms of 
transparency and good governance. Despite differences of opinion on 
certain issues, we believe it is important that our two governments 
remain engaged and work together to meet the development objectives of 
African countries. Our approach has been to demonstrate that, through 
greater cooperation on a wide range of issues affecting Africa, China 
can meet its responsibilities as a Security Council member in the U.N. 
while also meeting its economic goals.
                            china and africa
    Question. Use of soft power diplomacy will continue to be a key 
driver of China's strengthened relations with Africa and likely to 
propel China to higher global economic and military influence than it 
currently commands. The outcome of the growing China-Africa relations 
is the construction and reconstruction of infrastructure especially 
roads, water works, and hospitals. China is hand cementing and 
expending its relations with Africa.

  <bullet> How far do you think the use of soft power can propel China?

    Answer. China enjoys a degree of influence which one might expect 
from a major trading nation with significant economic ties to most of 
sub-Saharan Africa. The United States and China have sought to increase 
our dialogue about Africa in order to improve understanding and seek 
tangible ways to cooperate through our Africa subdialogue under the 
Strategic and Economic Dialogue (S&ED). We have also instructed our 
missions in Africa to reach out to their Chinese colleagues to explore 
potential areas of cooperation and assess China's overall role in their 
respective countries.

    Question. Does China support African led efforts to develop sound 
governance and sustainable development throughout the continent?

    Answer. The United States and other donors have concerns that 
China's ``no strings attached'' practices in Africa have not always 
been consistent with its commitment to adhere to international norms of 
transparency and standards of good governance. China adheres to the 
Paris Declaration on Aid Effectiveness and Accra Agenda for Action. We 
have made these concerns known to China, including through our Africa 
subdialogue under the Strategic and Economic Dialogue (S&ED).
                         human rights and china
    Question. I am concerned about the worsening human rights situation 
in China. In light of the ongoing crackdown on Chinese journalists, 
dissidents, and intellectuals, I remain disappointed that the 
administration has failed to integrate these issues into its policy at 
a systemic and structural level. It is often in the area of economics 
that human rights concerns are marginalized. Your background gives you 
a unique opportunity to help broaden the discourse with Chinese 
interlocutors on the need for political reform.

  <bullet> What is your view of the language that the administration 
        has used to discuss human rights issues?

    Answer. I fully support the administration's candid discussion of 
the inadequacies that we see in China's human rights record. Both 
publicly and privately, the administration has been consistent in 
stating our concerns about the deteriorating human rights situation in 
China, pressing China to respect its citizens' fundamental rights, and 
stating that expansion of civil and political rights would ultimately 
be a source of stability in Chinese society.

    Question. How will you contribute to efforts to incorporate human 
rights concerns into the relationship across the board, including on 
economic issues?

    Answer. I am committed to pursuing a positive, cooperative, and 
comprehensive relationship with China that is grounded in reality, 
focused on results, and true to our principles and interests. To keep 
our relationship on a positive trajectory, however, we must be honest 
about our differences. We can cooperate on critical global challenges 
such as producing balanced global growth, while having candid and 
direct discussions about the issues where we do not see eye to eye, 
including human rights. If confirmed, I will address sensitive issues 
in the bilateral relationship and will raise human rights issues and 
individual cases with Chinese Government officials at the highest 
levels. If confirmed, I will also be a forceful advocate for promoting 
the respect of universal human rights in China.

    Question. How will you bring other agencies into this discussion?

    Answer. Human rights played an important role in both our public 
and private meetings during the U.S.-China Strategic and Economic 
Dialogue in May, which included nearly every element of the interagency 
community. If confirmed, I will continue to support the 
administration's efforts to make very clear across all the agencies our 
concerns about the deteriorating human rights situation in China.

    Question. Will you work with like-minded governments on these 
issues, particularly our European and Asian friends and allies?

    Answer. If confirmed, I will continue to work with allies and 
partners to address the inadequacies that we collectively see in 
China's protection of human rights.

    Question. Your predecessor Ambassador Huntsman set a good standard 
in terms of human rights outreach in China. He spoke publicly and 
privately about these issues, and met with dissidents and their 
families, cultivated independent Chinese media outlets, and took other 
critical steps to both create a supportive climate for these issues 
within the Embassy and reiterate the importance of these issues to 
Chinese interlocutors. It should be done even when it seems futile and 
seems to invite repercussions. Chinese Government intimidation should 
not cause you to substitute your judgment for that of Chinese 
dissidents regarding the dangers they are willing to expose themselves 
to.

  <bullet> Will you commit to continuing the practice of meeting with 
        dissidents in China and outside of China?

    Answer. The U.S. Embassy in Beijing maintains a wide variety of 
contacts within Chinese society, including with activists who work on a 
range of issues, and if confirmed I intend to continue such meetings 
but also to engage in broad outreach to both Chinese officials and the 
Chinese people to convey the human rights values for which America 
stands. Promoting human rights--including freedom of religion, speech, 
and assembly--is a central objective of our diplomatic engagement with 
China. If confirmed, I will be a forceful advocate for promoting the 
respect of universal human rights in China.

    Question. What other initiatives do you envision taking to engage 
directly with Chinese people and promote universal values?

    Answer. If confirmed, one of my top priorities will be to engage in 
direct outreach to the Chinese people, including to underscore the 
importance of respect for universal rights and freedoms. The objective 
of our public diplomacy is to reach out directly to the Chinese public 
to promote universal values. If confirmed, I will work closely with the 
Department's Bureau for Public Diplomacy and Public Affairs and our 
Mission China officers to ensure that our message reaches the widest 
possible range of Chinese society.

    Question. I am concerned about the dozens of individuals who have 
disappeared or been detained and sentenced to political crimes because 
they advocated that the Chinese people should enjoy universally 
accepted freedoms. There are several cases that have come to my 
attention, because of the nature of the accused or the charges against 
them, should be given particular attention. In addition to Nobel Prize 
winner Liu Xiaobo and artist Ai Weiwei.

  <bullet> Will you raise the following cases in your testimony before 
        the committee and when you meet with Chinese officials as 
        examples of individuals of concern?

      <all>  Hada: http://en.rsf.org/china-authorities-holding-hada-s-
            wife-10-05-2011,402
            53.html
      <all>  Shi Tao: http://en.rsf.org/china-information-supplied-by-
            yahoo-06-09-2005,
            14884.html
      <all>  Huang Qi: http://en.rsf.org/china-cyber-dissident-huang-
            qi-kidnapped-12-06-2008,27465.html
      <all>  Tan Zuoren: http://en.rsf.org/china-as-china-justifies-
            online-10-06-2010,377
            06.html

    Answer. State Department officials raise individual cases of 
concern frequently and at all levels, in both Washington and at our 
Embassy in Beijing and our Consulates General throughout China. The 
Department urges the Chinese Government to treat detainees and 
prisoners humanely and in accordance with international standards and 
to release those detained unjustly. We press upon China the importance 
of affording all prisoners the protections of due process and 
transparent and fair legal proceedings. If confirmed, I will continue 
to emphasize the administration's message calling for the release of 
prisoners of conscience. I will also speak directly to Chinese leaders 
and call for the individual release of prisoners such as Liu Xiaobo, 
Gao Zhisheng, Ai Weiwei, and others such as those mentioned above. I 
will also engage with the Chinese people directly to convey the 
universal values for which America stands.
                            china and tibet
    Question. Tibetans have been enduring an intensifying crackdown 
since March 2008, exemplified by the crisis at Kirti Monastery in 
Sichuan province. Last month, the monastery was forcibly taken over by 
security forces; 25 monks remain in detention; 300 other monks have 
been taken away for ``patriotic education''; and two laypeople were 
killed by security forces.

  <bullet> Will you commit to travel to Tibetan areas, including beyond 
        Lhasa, to seek accurate information in these closed-off areas, 
        and to advocate for the religious, cultural, and human rights 
        of Tibetans?

    Answer. The Department of State has urged China to relax 
restrictions on movements of U.S. Government officials, journalists, 
and Tibetan pilgrims to and from Tibetan regions. Travel to Tibetan 
areas, including outside of Lhasa, is an important priority for our 
Embassy in Beijing, and, if confirmed, I will continue to press to have 
an opportunity to do so.

    Question. Will you continue efforts to establish a U.S. consulate 
in Lhasa, which was established by the State Department as a priority 
in 2008?

    Answer. The United States and China currently have six diplomatic 
posts in the other's country. Future post openings are subject to host 
government agreement, per the Vienna Convention on Consular Relations 
and our bilateral agreement with China.
    The Department sent diplomatic notes in 2008, expressing reciprocal 
interest in expanding U.S. diplomatic presence in China, with Lhasa at 
the top of the U.S. list. To date, the Chinese have not responded. The 
Department remains committed to pursuing a post in Lhasa as a priority, 
and if confirmed I will continue to work on this objective.

    Question. Will you work with the Special Coordinator for Tibetan 
Issues and her office to ensure that U.S. policy and communications to 
the Chinese Government are consistent and respect the longstanding two-
track U.S. policy of (1) supporting dialogue between the Chinese 
Government and the Dalai Lama and his representatives; and (2) 
supporting efforts to preserve the unique cultural, religious and 
linguistic heritage of the Tibetan people?

    Answer. If confirmed, I will work closely with the Special 
Coordinator for Tibetan Issues and her office to ensure that Tibetan 
issues are raised frequently and candidly with China's leaders. The 
Department of State is deeply concerned by the human rights situation 
in Tibetan areas and by the lack of progress during nine rounds of 
talks between the Chinese Government and the Dalai Lama's 
representatives. If confirmed, in consultation with the Special 
Coordinator, I will support further dialogue between China and the 
representatives of the Dalai Lama to resolve concerns and differences, 
including the preservation of the religious, linguistic and cultural 
identity of the Tibetan people.
                            china and travel
    Question. I am troubled with the across-the-board restrictions and 
policy of selective access that China has applied to travel within 
China by U.S. diplomats and visiting U.S. Chinese officials have the 
ability to travel anywhere they want in the United States, and have the 
freedom to engage in a broad range of Chinese cultural promotion 
activities on American soil.

  <bullet> Will you push for greater freedom of movement for U.S. 
        diplomats in China, including travel to ``sensitive'' areas 
        such as Tibetan areas and East Turkestan?

    Answer. I will continue to advocate for greater freedom of movement 
for U.S. diplomats everywhere in China. The United States can only 
generate accurate information on developments in China by traveling 
frequently to all parts of the country and engaging with the people 
there. With the notable and unfortunate exception of Tibet and some 
Tibetan areas at ``sensitive'' times, Embassy officers generally face 
few restrictions on travel within China. However, they are generally 
unable to meet with provincial and local Chinese officials or 
institutions (including universities) unless they obtain approval from 
the Foreign Ministry and its local offices. U.S. diplomats regularly 
visit the Xinjiang Uighur Autonomous Region and Tibetan areas outside 
of the Tibet Autonomous Region to advance the full range of U.S. 
interests in those areas--particularly the safety and welfare of U.S. 
citizens. Charge d'Affaires Robert Wang visited Xinjiang in May. None 
of these visits were officially approved, and hence U.S. diplomats 
could not engage with provincial and local officials or universities 
during their visits.
    Travel to the Tibet Autonomous Region is restricted by the Chinese 
Government, and our official visits are approved on a case-by-case 
basis and then only rarely. Although then-Ambassador Huntsman was 
allowed to travel there in September 2010, many other requests have 
been denied. Visits to Tibetan areas of Sichuan are often denied on the 
ground by local police although the area is open in principle. This is 
a serious problem that I will seek to address. The U.S. Government has 
long pressed for free and full access to the Tibet Autonomous Region 
for American diplomats and also for Members of Congress and foreign 
journalists. If confirmed, I will continue to raise this issue at high 
levels.

    Question. How do you plan to push back on Chinese restrictions on 
legitimate U.S. cultural and educational activities in China?

    Answer. Despite some opening up over the last few decades, China 
remains a challenging environment for the United States to conduct 
public diplomacy, due in large part to the Chinese Government's ongoing 
attempts to control the dissemination of information in China. In 
particular, in recent months, various Chinese authorities cancelled 
certain planned U.S. mission outreach activities. The Department of 
State has expressed our objections to these measures to senior Chinese 
officials on multiple occasions, and has emphasized how such actions 
impede our stated intention to improve people-to-people ties between 
our two countries. There has been a resumption of some of these 
activities in recent weeks.
    To address these challenges, the State Department has been pushing 
for greater access and programming, using the opportunities we find, 
and protesting obstacles we encounter.
    The Embassy has raised this issue repeatedly in meetings with 
Chinese leaders and other officials, including in both sessions of the 
U.S.-China High-Level Consultation on People-to-People Exchange (in May 
2010 and April 2011). I would also encourage congressional leaders to 
raise this issue in contacts with Chinese officials as well. If 
confirmed, I will ensure that we continue to raise the issue. But just 
as important, I will continue promoting the development of new and 
innovative programming tools and platforms for reaching out to the 
Chinese people.
                             china and ngos
    Question. There are a number of U.S. NGOs that work in China or 
provide financial support to Chinese NGOs working on areas considered 
sensitive by the Chinese Government, such as human rights NGOs and 
those working in Tibet. In recent years, many of these groups and their 
in-country partners have come under pressure from the Chinese 
Government, particularly those who have a U.S. Government funding 
source, such as organizations that work with the National Endowment for 
Democracy and its affiliates, and U.S. NGOs working in Tibetan areas.

  <bullet> Will you be willing to meet and consult with the U.S. NGOs 
        doing sensitive work in China on how the embassy can best 
        support their efforts?

    Answer. Yes. If confirmed, I will consult with a wide range of 
American citizens and organizations that deal with the many aspects of 
United States-China relations, including human rights. The State 
Department's Bureau for Democracy, Human Rights, and Labor supports 
many active and important programs in the rule of law and civil society 
development, among others. I have already met with Assistant Secretary 
Michael Posner to discuss his views on human rights in China, and if 
confirmed, will continue to conduct further consultations, including 
with NGOs, to learn more about programs and support our common 
objectives in China .

    Question. Should you be confirmed, will you meet with American 
organizations and individuals that work on human rights in China before 
you take up your post in Beijing?

    Answer. Yes. If confirmed, I will consult with a wide range of 
American citizens and organizations that deal with the many aspects of 
United States-China relations, including human rights.
  china, the macau special autonomous region and the expropriation of 
u.s.-owned viva macau airlines by the government of macau on march 28, 
                                  2010
    Question. The Chinese Communist Government has taken steps over the 
last decade to encourage the Macau Special Autonomous Region to open 
itself to foreign investment, to diversify its local economy, and serve 
as a platform for trade between China and the West. As a result of 
these initiatives, Macau has received billions of dollars in foreign 
investment and expertise from the United States, the largest source of 
foreign direct investment for Macau. This has all helped Macau expand 
its economy beyond the gaming industry.
    However, actions taken in recent months by the Macau Government 
appear to signal a troubling downward trend in the treatment of U.S. 
investors. This raises serious questions about the Macau Government's 
attitude toward foreign investors and the ability of foreign companies 
to protect their investments. Most glaring among these is the 
expropriation of U.S.-owned Viva Macau Airlines by the Government of 
Macau on March 28, 2010.
    This expropriation, apparently the first by the Macau Government 
against property owned by American investors, was recognized in the 
State Department's March 2011 Report on U.S. Citizen Expropriation 
Claims and Certain Other Commercial and Investment Disputes and 
represents not only a serious downward turn for the treatment of 
investors from the United States in Macau, but also a disregard for 
international aviation norms.
    Viva Macau was denied legal recourse for over 11 months, but 
Macau's Court of Last Instance has finally ordered a hearing on the 
merits of Viva Macau's case against the Macau Government; though a fair 
trial is far from guaranteed. During those 11 months, I along with 
other Members of Congress have pushed the Chinese Central Government in 
Beijing and the Government of Macau to respect the rule of law and 
ensure that such expropriations not occur with such impunity.
    Although the United States has limited leverage over the Government 
of Macau, the Chinese Communists Government obviously does. They 
oversee Macau's affairs through the State Council's Office of Hong Kong 
and Macau Affairs and the Foreign Ministry. In particular, I understand 
that Wang Guangya, the newly appointed Director of the State Council's 
Office of Hong Kong and Macau Affairs and China's former Ambassador to 
the United Nations, is the key policymaker with day-to-day 
responsibility for Macau.
    In my letter of February 10, 2011, to Secretary Clinton on this 
matter, I asked that Ambassador Huntsman raise the Viva Macau cause 
with Wang Guangya to ensure that American interests in Macau are 
protected. I believe several other Members of Congress interested in 
protecting the interest of U.S. businesses and seeking to promote a 
mutually beneficial United States-China trade relationship have sent 
similar letters.

  <bullet> In your potential new role as U.S. Ambassador to China, will 
        you be vigilant in protecting the commercial interests of U.S. 
        businesses injured by Chinese and Macau Government action, 
        including ensuring those U.S. entities seeking remedies before 
        local courts are given a fair trial?

    Answer. Developing commercial cooperation with China has been a 
focus of mine for more than a decade. If confirmed, helping U.S. 
companies do more business in China and ensuring that Chinese 
Government policies and actions create a level playing field for U.S. 
businesses will be a major part of what I do every day as Ambassador.
    As the second largest foreign investors in Macau after Hong Kong, 
U.S. businesses have invested more than $8 billion in Macau over the 
past 6 years. As a result, protecting U.S. business interests in Macau 
is one of the U.S. State Department's top priorities. Regarding Viva 
Macau, State and Commerce Department officials have met with MKW 
Capital Management's (MKW) partners and their Washington-based legal 
advisors Patton Boggs (PB) on numerous occasions since April 2010. U.S. 
diplomats at our Consulate General in Hong Kong continue to raise the 
matter with Macau Government officials on a regular basis, including 
with Macau's Chief Executive. In all such meetings, we have stressed 
the importance of transparency and due process for U.S. investors in 
Macau.
    The State Department continues to monitor developments in this case 
closely and understands that Macau's Court of Final Appeal ruled in 
Viva Macau's favor on February 23 by returning the case to the Court of 
Second Instance. That Court will have to decide whether there was an 
administrative act from the government instructing Air Macau to revoke 
Viva Macau's air operator certificate and, if so, if such an act was 
legal. State Department officers have explained to MKW that Viva Macau 
should continue to pursue all local remedies available.
    Longstanding U.S. policy toward the Macau Special Administrative 
Region of the People's Republic of China is to support ``one country, 
two systems'' and Macau's autonomy under the Basic Law. Under the Basic 
Law, Macau has jurisdiction over commercial/economic, legal, and all 
other matters outside national security and foreign affairs.

    Question. Will you commit to raising the Viva Macau issue with the 
Chinese Government, including with Wang Guangya, and communicating the 
U.S. Government and Congress' interest in ensuring that Viva Macau is 
treated fairly by the government and courts of Macau?

    Answer. Protecting U.S. business interests in Macau is one of the 
U.S. State Department's top priorities. Nonetheless, involving the 
Government of the People's Republic of China in Beijing in the Viva 
Macau case would, in our view, run counter to longstanding U.S. policy 
toward Macau, which is to support ``one country, two systems'' and 
Macau's autonomy under the Basic Law. Under the Basic Law, Macau has 
jurisdiction over commercial/economic, legal, and all other matters 
outside national security and foreign affairs. Therefore, we continue 
to believe that the best channel for expressing U.S. concerns to the 
Government of Macau is through the U.S. Consulate General in Hong Kong, 
which has responsibilities for Macau. U.S. diplomats at our Consulate 
General in Hong Kong continue to raise the viva Macau case with Macau 
Government officials on a regular basis, including Macau's Chief 
Executive.

    Question. Will you ensure that a representative of the U.S. 
Government attends any future court hearings related to this case to 
help further stress our interest in this matter?

    Answer. State Department officials have met with MKW Capital 
Management's (MKW) partners and their Washington-based legal advisors 
Patton Boggs (PB) on numerous occasions since April 2010. U.S. 
diplomats at our Consulate General in Hong Kong continue to raise the 
matter with Macau Government officials on a regular basis, including 
with Macau's Chief Executive. In all such meetings, officers have 
stressed the importance of transparency and due process for U.S. 
investors in Macau.
    The State Department continues to monitor developments in this case 
closely and understands that Macau's Court of Final Appeal ruled in 
Viva Macau's favor on February 23 by returning the case to the Court of 
Second Instance. That Court will have to decide whether there was an 
administrative act from the government instructing Air Macau to revoke 
Viva Macau's air operator certificate and, if so, if such an act was 
legal. State Department officers have explained to MKW that Viva Macau 
should continue to pursue all local remedies available.

    Question. Should you be confirmed, would you be willing to meet 
with representatives of Viva Macau Airlines before you depart for 
Beijing in order to receive a better understanding of its case?

    Answer. Longstanding U.S. policy toward the Macau Special 
Administrative Region of the People's Republic of China is to support 
``one country, two systems'' and Macau's autonomy under the Basic Law. 
Under the Basic Law, Macau has jurisdiction over commercial/economic, 
legal, and all other matters outside national security and foreign 
affairs. The U.S. Consul General in Hong Kong, Ambassador Stephen 
Young, has chief of mission authority for Macau and is the appropriate 
person to address issues concerning Viva Macau.
                                 ______
                                 

 Response of Gary Locke to Question Submitted by Senator John Barrasso

    Question. As you know, many U.S. industries have expressed a wide 
variety of concerns surrounding China's trade practices. Wyoming's soda 
ash and beef producers are prime examples of industries that have been 
battered by unfair trade policies.
    China continues to provide a 9 percent rebate on its 17 percent 
value-added tax (VAT) for soda ash exports in an attempt to give their 
producers an advantage in the international marketplace at the expense 
of U.S. producers. As a result, I would like to see the Department of 
Commerce and the U.S. Trade Representative's Office raise this specific 
issue at the highest levels with Chinese officials at the JCCT meetings 
this year.
    In addition, China's continued ban on U.S. beef imports has allowed 
Australia to take our place as the leading foreign beef supplier to 
China by value. The market that was once the 10th-largest for U.S. beef 
exports has disappeared.

  <bullet> If confirmed, will you work with the U.S. Trade 
        Representative, Secretary of State, and Chinese Government 
        officials to address these issues?

    Answer. I share your concern about the potential detrimental 
effects of China's export promotion practices.
    Soda ash is one of the United States more significant chemical 
exports, and the issues you have raised are important ones. I concur 
that these Chinese VAT rebate policies can adversely affect the ability 
of our producers to compete in third-country markets. Moreover, I 
appreciate that natural soda ash production processes, such as those 
that dominate in the United States, are more environmentally friendly 
and less energy-intensive than the processes used in some countries 
such as China.
    Regarding beef, China's restrictions on U.S. beef are inconsistent 
with the recommendations of the World Organization for Animal Health. 
The U.S. Government is in dialogue with the Chinese Government to agree 
on a beef protocol that is consistent with international standards and 
is commercially viable. Reopening beef trade with China is a top 
priority for U.S. ranchers, and we continue to work on resolving this 
issue.
    If confirmed, I will work closely with the U.S. Trade 
Representative, the Secretary of State and Chinese officials to resolve 
our concerns with China's export policies and to support the interests 
of U.S. exporters, including soda ash and beef producers.


                              NOMINATIONS

                              ----------                              


                         TUESDAY, JUNE 7, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Jeanine E. Jackson, of Wyoming, to be Ambassador to the 
        Republic of Malawi
Geeta Pasi, of New York, to be Ambassador to the Republic of 
        Djibouti
Donald Koran, of California, to be Ambassador to the Republic 
        of Rwanda
Lewis Lukens, of Virginia, to be Ambassador to the Republic of 
        Senegal and to serve concurrently as Ambassador to the 
        Republic of Guinea-Bissau
Ariel Pablos-Mendez, of New York, to be Assistant Administrator 
        of the United States Agency for International 
        Development
                              ----------                              

    The committee met, pursuant to notice, at 10:08 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons, presiding.
    Present: Senators Coons and Isakson.
    Also present: Senators Michael B. Enzi and John Barrasso.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I'd like to call the subcommittee to order. 
I'm honored to chair this hearing for the nominees to serve as 
United States Ambassadors to Rwanda, Djibouti, Malawi, Senegal, 
and Guinea-Bissau, and the USAID Assistant Administrator for 
Global Health.
    Today's nominees bring to the table a vast array of 
experience, specifically in Africa and serving our Nation 
around the world, and I look forward to hearing their vision 
for advancing U.S. interests and policy priorities.
    Before we begin, I'd like to reflect briefly on my very 
recent trip to West Africa with Senator Isakson. Traveling in 
Nigeria, Ghana, and Benin over the past week, we witnessed 
first-hand the implementation of critical food security, global 
health, and development programs, in addition to United States 
policy aimed at making critical improvements in governance, 
transparency, and sustainable economic growth.
    At each step, we met with elected officials, the U.S. 
Ambassadors, Embassy teams, Peace Corps Volunteers, and 
representatives from USAID, and I am proud and grateful for 
their service and commitment to diplomacy and impressed more 
than ever with the central role that our ambassadors play 
around the world.
    As Senator Isakson noted during our trip, Africa's vast 
array of potential opportunities makes it the continent of the 
21st century for the United States. During this nomination 
hearing, I look forward to continuing that conversation. I was 
grateful to Senator Isakson and his staff and the staff of this 
committee for putting together a very, very meaningful trip for 
all of us to West Africa.
    Our first nominee today is Donald Koran to be Ambassador to 
Rwanda, which has emerged from the shadows of the genocide of 
1994 to make progress in economic reform and health. Today 
Rwanda has one of the fastest growing economies in Africa, and 
United States policy encouraging economic liberalization while 
focusing on needed improvements to democracy and governance is 
essential to its future.
    Mr. Koran is a career Foreign Service officer currently 
serving as the Director of Africa Analysis in the Bureau of 
Intelligence and Research at State, and his previous relevant 
assignments include Division Chief for West and Southern 
African Affairs in the Bureau of Intelligence and Research; 
Deputy Chief of Mission in Kigali, Rwanda; and desk officer for 
the DRC, Cameroon, and Equatorial Guinea.
    Geeta Pasi is the nominee to be Ambassador to Djibouti, a 
key strategic ally in the region and home to the U.S. Combined 
Joint Task Force-Horn of Africa at Camp, I believe, Lemonnier. 
Djibouti is a valuable partner when it comes to combating 
piracy and other sources of instability in Somalia and the 
Horn, and I look forward to hearing from Ms. Pasi on balancing 
U.S. strategic interests in Djibouti with a broader set of 
regional concerns, including promoting democracy, good 
governance, and human rights.
    Ms. Pasi is a career member of the Foreign Service and 
currently serves as Director of the Office of East African 
Affairs in the Bureau of African Affairs. Her other relevant 
experiences include posts as political-economic and 
international relations officers in Ghana, Cameroon, and West 
African Affairs.
    Ms. Jeanine Jackson is the Ambassador nominee for Malawi. 
Malawi has made recent progress combating corruption and 
developing its largely agriculturally based economy, though 
many challenges still remain. In April, our country signed a 
$350 million Millennium Challenge Corporation compact with 
Malawi. I look forward to hearing about what steps are being 
taken to ensure the government does not pursue deeply 
concerning new laws aimed at restricting human rights and media 
freedom.
    Ms. Jackson is a career member of the Foreign Service, 
currently serving as the Minister Counselor for Management at 
the U.S. Embassy in Baghdad, and in addition to several posts 
coordinating diplomatic activities in Iraq and Afghanistan, Ms. 
Jackson previously served as U.S. Ambassador to Burkina Faso.
    Lewis Lukens is the nominee to be U.S. Ambassador to 
Senegal and, concurrently, Guinea-Bissau. He's a career member 
of the Foreign Service, currently serving as Executive Director 
of the Secretariat of the State Department. He previously 
served as Consul General in Vancouver, Executive Secretary in 
Baghdad, and Senior Director for Administration at the National 
Security Council in addition to tours in Cote d'Ivoire, China, 
and Australia.
    Senegal is a moderate and largely secular democracy, which 
has experienced economic growth over the past decade but still 
faces challenges alleviating poverty and disease. And I look 
forward to hearing from Mr. Lukens about how the United States 
can promote growth in Senegal, including through the MCC, while 
combating drug trafficking in the region, in particular Guinea-
Bissau.
    Finally, we will hear from Dr. Ariel Pablos-Mendez, the 
nominee to be Assistant Administrator for Global Health at 
USAID. Dr. Pablos-Mendez currently serves as managing director 
of the Rockefeller Foundation, where he works to develop 
initiatives to address the global challenge of health systems, 
including the role of the private sector in health systems in 
the developing world.
    His work in global health spans two decades, including as a 
researcher and physician focusing on multi-drug-resistant 
tuberculosis, developing public-private partnerships to combat 
disease, and delivery mechanisms for HIV/AIDS treatments to 
mothers and families.
    And I look forward to hearing from him about his plans for 
integrating global health programs, and transitioning authority 
for GHI, the Global Health Initiative, from State to USAID, as 
envisioned in the QDDR, or the Quadrennial Diplomacy and 
Development Review.
    This is a critical moment for USAID to demonstrate 
leadership over U.S. health programs globally, and Dr. Pablos-
Mendez will sit at the helm of this historic and important 
change.
    I look forward to hearing about plans for meeting the 
benchmarks in the QDDR and to better integrating GHI, so we can 
effectively promote global health.
    I'm very pleased to, thus, welcome all of today's 
distinguished nominees. I look forward to your opening 
statements. But first, I will turn it over to Senator Isakson 
for his opening statement and then to Senators Barrasso and 
Enzi, who have joined us to introduce Jeanine Jackson.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman, and welcome to 
Senator Enzi and Senator Barrasso.
    Ms. Jackson, you've been bragged about extensively in some 
of the meetings I've had with both these gentlemen already, so 
you do not come unnoticed, and you're very welcome to have you 
today, as we are all of the nominees for ambassadorship and 
USAID.
    I've had the privilege of being in both Rwanda and 
Djibouti, both of which are significant countries for the 
United States of America.
    President Kagame in Rwanda has done a remarkable job in 
transforming a nation from genocide to democracy, and in 
improving the health and the future of those people. And 
Djibouti is one of the most significant unknown investments of 
the United States of America there probably is on any continent 
in the world. And having visited our troops there, and the many 
things they do there on the Persian Gulf and on the East 
African coast are very much appreciated.
    I have not been to Guinea-Bissau, but, as the chairman 
said, we just returned from Benin and Ghana and from Nigeria, 
and many of the things that are going on in those three 
countries are pretty much germane to Guinea-Bissau, in 
particular with USAID.
    We had the privilege of participating in a signing of a 
memorandum of understanding where a United States NGO, through 
USAID, is developing a critical maternity ward in the largest 
maternity hospital in Accra, Ghana, and really going to develop 
a better chance for babies born at risk to actually survive. 
And it's a great investment of private United States money 
coordinated by USAID and the people of Ghana.
    We also had the privilege to work with USAID on a project 
in northern Ghana, or the north of capital, in their biggest 
agricultural asset, which is pineapple. Because of what's 
happened with Millennium Challenge investment and the 
assistance of USAID, we've turned some difficult situations for 
the farmers to actually make a living to where they now have a 
cooperative, like many in the United States. And through the 
investment of Millennium Challenge, we are working ourselves 
out of foreign assistance, because they are now profitable and 
productive in that product. And we're grateful for what USAID 
does in on a day-in-day-out basis, in terms of coordinating 
those events in Africa.
    But I do welcome all of you, and thank you very much for 
your willingness to serve in some very difficult parts of the 
world.
    And again, as the chairman has said, welcome Senator Enzi 
and Senator Barrasso to our hearing.
    Senator Coons. Thank you very much, Senator Isakson.
    And we'd now like to invite both of the Senators from 
Wyoming to make some introductory comments about Jeanine 
Jackson, the nominee to serve as Ambassador to Malawi.
    Following their comments, I'll invite Ms. Jackson to give 
her opening statement, if I might.
    Senator Barrasso. I'm sorry, Senator Enzi.

               STATEMENT OF HON. MICHAEL B. ENZI,
                   U.S. SENATOR FROM WYOMING

    Senator Enzi. Thank you, Mr. Chairman. It's my privilege 
and honor to be able to recommend to you the nomination of 
Jeanine Jackson to be the United States Ambassador to Malawi. I 
strongly support her nomination. She's an excellent candidate 
for this important diplomatic position, and she has the 
distinction of being from Sheridan, WY, where Diana, my wife 
who is also here today in support, and I graduated from high 
school along with Jeanine, although I graduated quite a while 
before Jeanine did.
    But my wife and Jeanine were classmates. They were best 
friends. They were fellow church members and fellow American 
Legion Girls State delegates.
    I'm proud that an outstanding Wyoming native, who I've 
known for decades, has been nominated to contribute to this 
important foreign-policy goal of the United States in Africa.
    I introduced Jeanine to this committee 5 years ago when she 
was nominated to be the Ambassador to Burkina Faso. That was 
also a country that, with her help, got a Millennium Challenge 
grant. And at this post she'll be able to work with a country 
that has one as they complete the tasks on that.
    She excelled in her role in Burkina Faso, and she had the 
distinction at that time of being Wyoming's first career 
Foreign Service officer to be an ambassador. Today I introduce 
her as the first Wyomingite ever to have a second 
ambassadorship.
    Ambassador Jackson's experience is extensive. She's a 
career senior Foreign Service officer and also served 30 years 
in the military and retired as a full colonel. She and her 
husband, Mark, have served together in the Army and the Foreign 
Service. Mark is now retired and will serve in an unpaid role 
of ambassador spouse, which also benefits our country and 
Malawi, so you could say we're going to get two for the price 
of one.
    Ambassador Jackson has served our country with the military 
in Vietnam, Germany, and Korea, and in the Foreign Service, 
she's been in Switzerland, Nigeria, Saudi Arabia, Hong Kong, 
Kenya, Afghanistan, Iraq, and Burkina Faso.
    Currently, she's completing 26 months as the Senior 
Management Counselor at the U.S. Embassy in Baghdad, by far the 
largest, most complex embassy in the world. She's leading all 
support-related planning and implementation to continue the 
efficient functioning of our Embassy in Iraq after the U.S. 
military completes its drawdown later this year.
    You can tell that Ambassador Jackson doesn't shirk hard 
assignments. We watched through her eyes and through her 
explanation, as she's lived around the world. She's helped us 
to understand the world and around the world. In 2001, she 
became the first senior U.S. diplomat to serve in Afghanistan 
after the fall of the Taliban. In Kenya, in the years after al-
Qaeda bombings, she played a major role in rebuilding the 
staff, operations, and infrastructure. In Hong Kong, she 
protected the interests of the U.S. Government agencies and 
employees at the time of the reversion to Chinese sovereignty. 
And here's one of the most fascinating ones to me, when the 
Soviet Union dissolved, she managed the establishment of U.S. 
embassies in 14 new countries.
    The United States faces diverse and dynamic challenges and 
opportunities in Malawi. Promoting development includes an 
emphasis on the elimination of poverty, transparent governance, 
economic reform, anticorruption practices, and greater 
political and economic participation.
    She was able to do those things in Burkina Faso, where she 
had to speak French. Here she gets to speak English.
    Individuals like Jeanine Jackson understand these 
complexities, and they'll help the United States to achieve its 
goal. Because of her diverse experience, she can evaluate and 
persuade. She understands cultural differences and can adapt 
her approach.
    Ambassador Jackson and Mark have taken on some very 
challenging assignments around the world and often enjoy 
driving to their new posts, once even driving from their post 
in Switzerland to the new post in Nigeria across the Sahara 
Desert. Nearly every weekend when I'm in Wyoming, I drive 
hundreds of miles across the State to visit my constituents. 
Ambassador Jackson probably has driven close to 20,000 miles 
across Africa. The deserts and mountains of Wyoming are a long 
way from Malawi, but I know that Ambassador Jackson's childhood 
in Wyoming has prepared her for the adventures and challenges 
of serving in Africa.
    It's a proud day for Diana and I. It's a proud day for 
Sheridan. It's a proud day for the State of Wyoming. And I want 
to enthusiastically endorse Jeanine Jackson on her nomination 
for Malawi.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you very much, Senator Enzi.
    Senator Barrasso.

                STATEMENT OF HON. JOHN BARRASSO,
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman and 
Senator Isakson. And I, too, want to add my congratulations as 
well as my support, along with that of Senator Enzi.
    And I want to take just a moment to speak in recognition 
and support of the nomination of Ambassador Jeanine Jackson to 
be the United States Ambassador to Malawi. She is an excellent 
nominee. She will bring a tremendous amount of knowledge, 
experience, and energy to this position.
    As you know, she's a native of Sheridan, WY, and I'm really 
pleased to have such a highly qualified, skilled individual 
from Wyoming to be nominated to serve the United States in this 
important diplomatic position.
    She's currently serving as Minister Counselor for 
Management at the U.S. Embassy in Baghdad, Iraq. And I've had 
the pleasure of meeting with her, as well as her husband, at 
the Embassy in Baghdad during visits there. She's demonstrated 
to me her knowledge, her focus, and her determination. So I'm 
very grateful for her willingness, as well as that of her 
husband, to serve our country and provide strong leadership in 
implementing the foreign-policy goals of the United States.
    Based on our discussions together and her extensive 
background in Africa, I'm confident that she grasps the 
opportunities and the challenges facing both Africa as well as 
Malawi. It is clear that she will make her family, as well as 
the people of Wyoming and our Nation, very proud. So I add with 
Senator Enzi my wholehearted endorsement and recommendation of 
her nomination to the committee and the full Senate.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you very much, Senator Barrasso.
    I think Senator Isakson would also like to add a comment.
    Senator Isakson. Senator Enzi, is Diana in the room?
    Senator Enzi. Yes.
    Senator Isakson. Where is Diana?
    Diana, stand up, would you? Don't sit down yet.
    You know, an awful lot of times, the spouses of U.S. 
Senators get no attention at all. I have traveled with Diana to 
India and to Sri Lanka to see a demonstration of the mine-
sniffing dogs that she has provided to countries around the 
world to save children from losing limbs or losing their lives.
    So a lot of times, we get all the pictures and the 
publicity and the attention, but this lady is exemplary of the 
other wives and spouses of Members of the Senate who also do 
their part to make this country a better country and the world 
a better world, and I commend you, Diane, for what you do.
    Senator Coons. Thank you, Senator.
    And thank you, Diane, for being with us.
    And Senator Enzi and Senator Barrasso, thank you very much 
for joining us today. Understanding your schedules may require 
you to be at other events, I'd welcome you to excuse yourselves 
at this point, if that's more convenient for you.
    Ms. Jackson, if I might encourage you to begin with your 
opening statement, and then we'll go through the rest of the 
nominees.
    And I would encourage all of the nominees to introduce your 
families, who should be recognized along with you for the great 
sacrifices they have made to support your commitments to public 
service, whether the military, the State Department, AID, or 
elsewhere.
    Ms. Jackson.
    Ambassador Jackson. Mr. Chairman----
    Senator Coons. I'm sorry, and I'll invite the other 
nominees to come forward to the table as well at this time.
    Forgive the interruption, Ms. Jackson.
    Thank you. Ms. Jackson.

    STATEMENT OF HON. JEANINE E. JACKSON, OF WYOMING, TO BE 
              AMBASSADOR TO THE REPUBLIC OF MALAWI

    Ambassador Jackson. Mr. Chairman, Mr. Isakson, it is a 
great honor and privilege to appear before you today as 
President Obama's nominee to be the United States Ambassador to 
the Republic of Malawi.
    I appreciate the confidence the President and Secretary 
Clinton have placed in me by putting my name forward for your 
consideration. I'm also deeply grateful for the support of 
Senator Enzi; his wife, Diane; Senator Barrasso; and my 
husband, Mark; as well as the terrific support of the State 
Department's Africa Bureau.
    Having served as Ambassador to Burkina Faso, I'm aware of 
the importance, if confirmed, of working with this committee 
and the Congress in order to advance United States interests in 
Malawi, including strengthening its democratic institutions, 
encouraging economic diversification, and building its health 
and education capacity.
    Since joining the Foreign Service in 1985, I have held 
numerous positions overseas and in Washington. This experience, 
in addition to my military service, impressed upon me a clear 
understanding of the critical role that interagency cooperation 
plays, both in U.S. missions and here in Washington, in 
developing and implementing U.S. foreign policy.
    My expertise with U.S. Government agencies is invaluable in 
my current assignment as Management Counselor of the United 
States Embassy in Baghdad. I lead large teams of U.S. 
Government civilians and military personnel to provide, in a 
hostile environment, the support platform for the world's 
largest embassy and the 35 U.S. Government agencies represented 
in our country team in Iraq.
    Malawi, from its independence in 1964 until 1994, was a 
one-party state under authoritarian rule. Since 1994, when the 
people of Malawi voted in their first democratic, free, and 
fair elections, Malawi has strengthened its democratic 
institutions and has undergone peaceful transfers of power 
among political parties. The people of Malawi are proud that 
women comprise 22 percent of Parliament.
    The economy of this small, landlocked country is heavily 
dependent on agriculture. This creates challenges, but the 
Malawian Government has taken steps to greatly increase 
productivity. Mineral deposits were recently discovered, which 
may present opportunities for Malawi to diversify its economy.
    If confirmed, I look forward to assisting Malawi in 
addressing some of its most pressing needs with a focus on 
strengthening its health systems, providing quality education, 
and further developing democratic processes. The United States 
has active U.S. Agency for International Development, Centers 
for Disease Control, and Peace Corps programs, many of which 
are supported through PEPFAR. Malawi was the first country to 
sign a PEPFAR partnership framework and was selected to be one 
of eight Global Health Initiative Plus countries.
    This year, the Millennium Challenge Corporation signed a 
$350 million compact with Malawi to improve access to 
electrical power and which should enable further economic 
gains.
    Malawi maintains good relations with the United States. It 
was the first southern African nation to receive United States-
sponsored peacekeeping training and recently contributed troops 
to the U.N. operation in Cote d'Ivoire.
    Malawi's cooperation on many issues is welcome, but we 
still have concerns. We are sensitive to the need for 
individual freedoms, including individual preferences. And we 
support a political space that is open to all.
    If confirmed, I would work to support such a space for all 
Malawians.
    Although Malawi is a small country, it remains one of the 
most underdeveloped. It is, nonetheless, a strategic partner of 
the United States. Despite ongoing challenges, Malawi holds 
great promise. If confirmed, I would look forward to working 
with the Government of Malawi and its people on mutual goals of 
a healthier, better educated, more prosperous citizenry that 
embraces democratic values.
    Mr. Chairman, thank you again for the opportunity to appear 
before you today. I will be happy to answer questions.
    [The prepared statement of Ambassador Jackson follows:]

                Prepared Statement of Jeanine E. Jackson

    Mr. Chairman and members of the committee, it is a great honor and 
privilege to appear before you today as President Obama's nominee to be 
the United States Ambassador to the Republic of Malawi. I appreciate 
the confidence the President and Secretary Clinton have placed in me by 
putting my name forward for your consideration. I am also deeply 
grateful for the support of my husband Mark, a retired Foreign Service 
officer.
    Having previously served as Ambassador to Burkina Faso, I am aware 
of the importance, if confirmed, of working with this committee and the 
Congress in order to advance U.S. interests in Malawi, including 
strengthening its democratic institutions, encouraging economic 
diversification, and building its health and education capacity.
    Since joining the Foreign Service in 1985, I have held numerous 
positions overseas and in Washington. This experience, in addition to 
my military service, impressed upon me a clear understanding of the 
critical role that interagency cooperation plays both in U.S. missions 
and here in Washington in developing and implementing U.S. foreign 
policy. My expertise with U.S. Government agencies is invaluable in my 
current assignment as Management Counselor of the U.S. Embassy in 
Baghdad. I lead large teams of U.S. Government civilians and military 
personnel to provide, in a hostile environment, the support platform 
for the world's largest Embassy and the 35 U.S. Government agencies 
represented on its country team.
    From its independence in 1964, Malawi was a one-party state under 
authoritarian control. Since 1994, when the people of Malawi voted in 
their first democratic, free, and fair elections, Malawi has 
strengthened its democratic institutions and has undergone peaceful 
transfers of power among political parties. The people of Malawi are 
proud that women comprise 22 percent of the Parliament.
    The economy of this small, landlocked country is heavily dependent 
on agriculture. This creates challenges but the Malawian Government has 
taken steps to greatly increase productivity. Mineral deposits were 
recently discovered which may present opportunities for Malawi to 
diversify its economy. If confirmed, I look forward to assisting Malawi 
in addressing some of its most pressing needs with a focus on 
strengthening its health systems; providing quality education; and 
further developing democratic processes. The United States has active 
U.S. Agency for International Development, Centers for Disease Control 
and Peace Corps programs, many of which are supported through PEPFAR. 
Malawi was the first country to sign a PEPFAR Partnership Framework, 
and was selected to be one of eight Global Health Initiative Plus 
countries. This year, the Millennium Challenge Corporation signed a 
$350 million compact with Malawi to improve access to electrical power, 
which should enable further economic gains.
    Malawi maintains good relations with the United States. It was the 
first southern African nation to receive U.S.-sponsored peacekeeping 
training and recently contributed troops to the U.N. Operation in Cote 
d'Ivoire.
    Malawi's cooperation on many issues is welcome, but we still have 
concerns: we are sensitive to the need for individual freedoms, 
including individual preferences, and we support a political space that 
is open to all. If confirmed, I would work to support such a space for 
all Malawians.
    Although Malawi is a small country and remains one of the most 
underdeveloped, it is nonetheless, a strategic partner of the United 
States. Despite ongoing challenges, Malawi holds great promise. If 
confirmed, I would look forward to working with the Government of 
Malawi and its people on mutual goals of a healthier, better educated, 
more prosperous citizenry that embraces democratic values.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to appear before you today. I will be happy to answer any 
questions.

    Senator Coons. Thank you very much, Ms. Jackson.
    Now if we might go to the other end of the panel and work 
our way down.
    Ms. Pasi.

 STATEMENT OF GEETA PASI, OF NEW YORK, TO BE AMBASSADOR TO THE 
                      REPUBLIC OF DJIBOUTI

    Ms. Pasi. Thank you, Chairman Coons, Ranking Member 
Isakson, members of the committee. It's an honor to appear 
before you today as the nominee to be the next United States 
Ambassador to the Republic of Djibouti.
    I'm grateful for the confidence the President and Secretary 
of State have shown by nominating me to this position and for 
the support of Assistant Secretary for African Affairs Johnnie 
Carson.
    First, Mr. Chairman, please allow me to acknowledge my 
family members who are here today. My sisters, Usha Pasi and 
Rita Pasi; my brother, Peter Pasi; and his wife, Halley Lewis, 
have all joined me this morning.
    Mr. Chairman, please allow me to tell you a little bit 
about myself. My career has included challenging assignments 
that required me to adapt to rapidly changing environments. 
I've served in several countries in transition and was in Ghana 
during its first democratic elections and Romania shortly after 
the fall of Nicolae Ceausescu. During a state of emergency, I 
helped steer Bangladesh toward democratic elections.
    In Washington, I served in several positions, including as 
the Afghanistan desk officer, where I was working on September 
11, 2001.
    I currently serve as office director for East African 
Affairs and have policy and program responsibility for 11 
countries in East Africa.
    Mr. Chairman, if confirmed, I look forward to leading 
Embassy Djibouti in advancing U.S. interests. Our main 
interests in Djibouti are peace and security, good governance, 
and economic development.
    Mr. Chairman, as you know, we share important interests and 
goals with Djibouti, an area of relative calm in a turbulent 
region, and an important partner in the fight against 
terrorism. Djibouti is surrounded by Eritrea, Ethiopia, and 
Somalia, and is less than 18 miles from Yemen. It has a 
strategic position at the Bab el Mandeb Strait, which joins the 
Red Sea and the Gulf of Aden, and through which some 40 percent 
of the world's shipping passes.
    If confirmed, Mr. Chairman, I will continue to reinforce 
our bilateral relationship, as well as contribute to efforts to 
promote a stable, functioning, and peaceful Somalia, in 
coordination with our mission in Nairobi.
    Djibouti hosts the only United States military forward-
operating site in sub-Saharan Africa, Camp Lemonnier, the 
headquarters for the Combined Joint Task Force-Horn of Africa, 
or CJTF-HOA, and approximately 3,000 troops. I understand that 
you, Senator Isakson, and Senator Inhofe have visited Camp 
Lemonnier. If confirmed, I will continue to expand cooperation 
and coordination between Embassy personnel and Camp Lemonnier 
and its tenant commands.
    If confirmed, I will also ensure that CJTF-HOA programming 
in Djibouti fits within the framework of U.S. Government 
priorities to advance our key interests.
    Mr. Chairman, Djibouti's Presidential election in April 
underscored the importance of democracy and governance reforms, 
including enlarging space for media and civil society. If 
confirmed, I commit to work with our Djiboutian partners on 
these issues.
    On the economic front, Djibouti's leadership has privatized 
its excellent deepwater port and airport, reducing corruption 
and increasing revenue flows. Construction of a new port 
facility is underway and will dramatically increase capacity.
    Djibouti remains very poor, however, ranked 149 out of 177 
countries on the UNDP Human Development Index. In addition, 
less than 5 percent of the land is arable. Our small USAID 
mission in Djibouti focuses on governance and democracy; health 
and education, particularly to combat low life expectancy; 
maternal and child mortality; and infectious disease. The 
United States also responds to food insecurity needs. If 
confirmed, I will make these programs a priority.
    Finally, Mr. Chairman, if confirmed, my highest priority 
will be the protection of Americans and American business 
interests, including mission personnel living and traveling in 
Djibouti. In the fall, the mission will move to a new Embassy 
compound, meaning that all mission personnel will work in the 
safest and most secure facilities available. I am committed to 
good stewardship of this significant U.S. Government 
investment.
    Mr. Chairman, I believe my prior experience in the Foreign 
Service has prepared me to serve as Ambassador to Djibouti. If 
confirmed by the Senate, I look forward to working closely with 
you and other members of the committee, and would hope to 
welcome you during my tenure.
    Mr. Chairman, thank you again for the honor to appear 
before the committee today. I would be happy to take any 
questions you may have.
    [The prepared statement of Ms. Pasi follows:]

                    Prepared Statement of Geeta Pasi

    Chairman Coons, Ranking Member Isakson, Members of the Committee, 
it is an honor to appear before you today as the nominee to be the next 
United States Ambassador to the Republic of Djibouti. I am grateful for 
the confidence the President and Secretary of State have shown by 
nominating me to this position, and for the support of Assistant 
Secretary for African Affairs Johnnie Carson.
    First, Mr. Chairman, let me acknowledge several family members and 
colleagues here today. My sister, Rita Pasi, brother, Peter Pasi, and 
his wife, Hallie Lewis, have all joined me. I am pleased to appear 
before you on this panel with my three colleagues, Don Koran, Lewis 
Lukens, and Jeanine Jackson.
    Mr. Chairman, please allow me to tell you about myself. My career 
has included challenging assignments that required me to adapt to 
rapidly changing environments. I have served in several countries in 
transition and was in Ghana during its first democratic elections and 
Romania shortly after the fall of Nicolae Ceaucescu. During a state of 
emergency, I helped steer Bangladesh toward democratic elections. In 
Washington, I served in several positions, including as the Afghanistan 
Desk Officer where I was working on September 11, 2001. I currently 
serve as Office Director for East African Affairs and have policy and 
program responsibility for 11 countries in East Africa.
    Mr. Chairman, if confirmed, I look forward to leading Embassy 
Djibouti in advancing U.S. interests with our team of Foreign and Civil 
Service personnel, military staff , and local employees. Our main 
interests in Djibouti are peace and security, good governance, and 
economic development.
    Mr. Chairman, as you know, we share important interests and goals 
with Djibouti. An area of relative calm in a turbulent region and an 
important partner in the fight against terrorism, Djibouti is 
surrounded by Eritrea, Ethiopia, and Somalia, and is less than 18 miles 
from Yemen. It has a strategic position at the Bab el Mandeb Strait, 
which joins the Red Sea and Gulf of Aden, and through which some 40 
percent of the world's shipping passes. If confirmed, Mr. Chairman, I 
will continue to reinforce our bilateral relationship as well as 
contribute to efforts promoting a stable, functioning, and peaceful 
Somalia in coordination with our mission in Nairobi.
    Djibouti hosts the only U.S. military forward operating site in 
sub-Saharan Africa, Camp Lemonnier, the headquarters for the Combined 
Joint Task Force-Horn of Africa (CJTF-HOA) and approximately 3,000 
troops. I understand that you, Senator Isakson, and Senator Inhofe have 
visited Camp Lemonnier. If confirmed, I will continue and expand 
coordination and cooperation between Embassy personnel and Camp 
Lemonnier and its tenant commands, including the CJTF-HOA contingent. 
If confirmed, I will also ensure that CJTF-HOA programming in Djibouti 
fits within the framework of U.S. Government priorities to advance our 
key interests.
    Mr. Chairman, Djibouti's Presidential election in April underscored 
the importance of democracy and governance reforms--including enlarging 
space for media and civil society groups that face constraints. If 
confirmed, I commit to work with our Djiboutian partners on these 
issues.
    On the economic front, Mr. Chairman, Djibouti's leadership has 
privatized its excellent deep-water port and airport, reducing 
corruption and increasing revenue flows. Construction of a new port 
facility is underway and will dramatically increase capacity. Making 
Djibouti an attractive place for investment and center for regional and 
international trade is essential for its economic development. Djibouti 
remains very poor, ranked 149 out of 177 countries on the UNDP Human 
Development Index. Less than 5 percent of its land is arable. The small 
USAID mission in Djibouti focuses on governance and democracy, health 
and education, particularly to combat low life-expectancy, maternal and 
child mortality, and infectious disease. The United States responds to 
food insecurity through support for the Famine Early Warning Network 
office in Djibouti, as well as through USG-funded Food for Peace and 
Office of Foreign Disaster Assistance programs. The United States has 
also been the leading donor in the area of democratic reform and good 
governance. If confirmed, I will continue to make these programs a 
priority.
    Djibouti's sole troubled relationship in the region is with 
Eritrea. Although Qatar's mediation efforts alleviated the conflict, 
the countries have not yet addressed the substantive issues of border 
demarcation. If confirmed, I will support international efforts to 
resolve this conflict peacefully and restore the border to the status 
quo ante.
    Finally, Mr. Chairman, if confirmed, my highest priority will be 
the protection of Americans and American business interests, including 
mission personnel, living and traveling in Djibouti. With only a few 
private Americans in-country, I would, if confirmed, remain in frequent 
contact with them, on consular and security issues but also to benefit 
from their wisdom. In the fall, the mission will move to a new Embassy 
compound, meaning that all mission personnel will work in the safest 
and most secure facilities available. Maintaining this technologically 
advanced building in Djibouti will be a challenge, but I am committed 
to good stewardship of this significant USG investment.
    Mr. Chairman, I believe my prior experience in the Foreign Service 
has prepared me to serve as Ambassador to Djibouti. If confirmed by the 
Senate, I look forward to working closely with you and other members of 
the committee, and would hope to welcome you during my tenure.
    Mr. Chairman, thank you again for the honor to appear before the 
committee today. I would be happy to take any questions you may have.

    Senator Coons. Thank you, Ms. Pasi.
    Mr. Koran.

 STATEMENT OF DONALD KORAN, OF CALIFORNIA, TO BE AMBASSADOR TO 
                     THE REPUBLIC OF RWANDA

    Mr. Koran. Mr. Chairman and members of the committee, it is 
an honor to have been nominated by President Obama to be the 
next United States Ambassador to Rwanda and to appear before 
you today.
    Here with me today are my wife, Cindy, and my daughter, 
Laura.
    Rwanda is known by most Americans for the 1994 genocide, 
which left the country and its people ravaged. I saw this 
legacy firsthand when I served there from 1999 to 2001. Since 
then, Rwanda has made great strides in rebuilding the country, 
as well as playing a positive role in the region and beyond. 
The United States works closely with Rwanda to advance these 
positive endeavors.
    With the assistance of the United States and other donors, 
the Rwandan Government has made remarkable progress in 
improving the living standards of its people, primarily through 
education and infrastructure development. It has improved the 
business climate, as evidenced by Rwanda's dramatic improvement 
in the World Bank's ease of business doing business index.
    If confirmed, I plan to promote economic development in 
Rwanda, as well as opportunities for American trade and 
investment. The United States and Rwanda signed a bilateral 
investment treaty in 2008, now pending advice and consent of 
the Senate, which would further improve the investment climate 
and provide additional protection to United States investors.
    We also support Rwanda's leadership in the East Africa 
community and its efforts to promote development and economic 
integration. Development assistance can have a great impact in 
Rwanda, due to the government's strong track record in 
implementing programs. That strong track record, along with 
remarkable results, contributed to its selection as a Global 
Health Initiative Plus country.
    The United States has been at the forefront of combating 
HIV/AIDS and malaria, and helping improve food security in 
Rwanda through the President's Emergency Plan for AIDS Relief, 
the President's Malaria Initiative, and the Feed the Future 
Initiative. Peace Corps returned to Rwanda in 2009 and 
currently has some 130 volunteers working in health and 
education programs.
    The advancement of democracy and human rights are important 
components of our policy toward Rwanda, and one which the 
United States and Rwanda are committed to working closely 
together to achieve. We believe it is important for Rwanda to 
continue to develop and strengthen its democratic institutions 
to ensure political space for the opposition and to promote a 
strong, independent media.
    In this context, I look forward, if confirmed, to build on 
and expand our mutual efforts with Rwanda on these important 
issues. Through our USAID mission, we have funded democracy and 
governance programs to strengthen the justice sector, media, 
and civil society.
    My past experience in Rwanda, and as desk officer for the 
Democratic Republic of the Congo, has given me a deep 
appreciation for the importance and complexity of the 
relationship between those two countries. Their rapprochement 
in 2009, which put an end to years of conflict by proxy, has 
been the cornerstone of recent improvements in regional 
stability. Peace and security in the eastern Congo remain 
elusive, however, and we believe that Rwanda continues to have 
a critical and proactive role to play in stabilizing the 
region.
    We strongly support the International Conference on the 
Great Lakes Region's recent declaration committing the DRC, 
Rwanda, and the Congo's other neighbors to addressing the 
illegal trade in minerals, and we commend the steps Rwanda is 
undertaking to ensure the trade continues only through legal 
and certified channels. The Democratic Forces for the 
Liberation of Rwanda, or FDLR, remains a violent threat to 
civilians in eastern Congo, though Rwanda continues to provide 
for the reintegration of FDLR members who demobilize.
    Rwanda is an increasingly important partner 
internationally. It has over 3,000 peacekeepers in Darfur and 
some 250 troops elsewhere in Sudan who have benefited from U.S. 
military's Africa Contingency Operations and Training 
Assistance program. It also has almost 200 police assigned to 
the peacekeeping mission in Haiti.
    President Kagame was among the strongest voices in the 
international community supporting action to prevent a massacre 
in Libya earlier this year.
    If confirmed as Ambassador to Rwanda, I will continue 
United States efforts to support economic and political 
progress. Rwanda's development and stability are essential for 
its citizens and critical to the stability of central Africa.
    I look forward to working closely with you, Mr. Chairman, 
and with the committee in this important endeavor, should I be 
confirmed. Thank you again, Chairman Coons and members of the 
committee, for the opportunity to appear before you today. I 
welcome any questions you might have.
    [The prepared statement of Mr. Koran follows:]

                 Prepared Statement of Donald W. Koran

    Mr. Chairman and members of the committee, it is an honor to have 
been nominated by President Obama to be the next United States 
Ambassador to Rwanda and to appear before you today.
    Rwanda is known by most Americans for the 1994 genocide, which left 
the country and its people ravaged. I saw this legacy first-hand when I 
served there from 1999 to 2001. Since then, Rwanda has made great 
strides in rebuilding the country, as well as playing a positive role 
in the region and beyond. The United States works closely with Rwanda 
to advance these positive endeavors.
    With the assistance of the United States and other donors, the 
Rwandan Government has made remarkable progress in improving the living 
standards of its people, primarily through education and infrastructure 
development. It has improved the business climate, as evidenced by 
Rwanda's dramatic improvement in the World Bank's ease of doing 
business index. If confirmed, I plan to promote economic development in 
Rwanda, as well as opportunities for American trade and investment. The 
United States and Rwanda signed a Bilateral Investment Treaty in 2008, 
now pending advice and consent of the Senate, which would further 
improve the investment climate and provide additional protections to 
U.S. investors. We also support Rwanda's leadership in the East African 
Community and its efforts to promote development and economic 
integration.
    Development assistance can have great impact in Rwanda due to the 
government's strong track record in implementing programs. That strong 
track record, along with remarkable results, contributed to its 
selection as a Global Health Initiative Plus country. The United States 
has been at the forefront of combating HIV/AIDS and malaria, and 
helping to improve food security in Rwanda through the President's 
Emergency Plan For Aids Relief, the President's Malaria Initiative, and 
the Feed the Future Initiative. Peace Corps returned to Rwanda in 2009 
and currently has some 130 volunteers working in health and education 
programs.
    The advancement of democracy and human rights are important 
components of our policy toward Rwanda, and one which the U.S. and 
Rwanda are committed to working closely together to achieve. We believe 
it is important for Rwanda to continue to develop and strengthen its 
democratic institutions, to ensure political space for the opposition 
and to promote a strong independent media. In this context, I look 
forward, if confirmed, to build on and expand our mutual efforts with 
Rwanda on these important issues. Through our USAID mission we have 
funded democracy and governance programs to strengthen the justice 
sector, media, and civil society.
    My past experience in Rwanda and as desk officer for the Democratic 
Republic of the Congo has given me a deep appreciation for the 
importance and complexity of the relationship between those two 
countries. Their rapprochement in 2009, which put an end to years of 
conflict by proxy, has been the cornerstone of recent improvements in 
regional stability. Peace and security in the eastern Congo remain 
elusive, however, and we believe that Rwanda continues to have a 
critical and proactive role to play in stabilizing the region. We 
strongly support the International Conference on the Great Lakes 
Region's recent declaration committing the DRC, Rwanda, and the Congo's 
other neighbors to addressing the illegal trade in minerals, and we 
commend the steps Rwanda is undertaking to ensure the trade continues 
only through legal and certified channels. The Democratic Forces for 
the Liberation of Rwanda, or FDLR, remains a violent threat to 
civilians in eastern Congo, though Rwanda continues to provide for the 
reintegration of FDLR members who demobilize.
    Rwanda is an increasingly important partner internationally. It has 
over 3,000 peacekeepers in Darfur and some 250 troops elsewhere in 
Sudan who have benefited from U.S. military's Africa Contingency 
Operations and Training Assistance (ACOTA) program. It also has almost 
200 police assigned to the peacekeeping mission in Haiti. President 
Kagame was among the strongest voices in the international community 
supporting action to prevent a massacre in Libya earlier this year.
    If confirmed as Ambassador to Rwanda, I will continue U.S. efforts 
to support economic and political progress. Rwanda's development and 
stability are essential for its citizens and critical to the stability 
of Central Africa. I look forward to working closely with you, Mr. 
Chairman, and with the committee in this important endeavor, should I 
be confirmed.
    Thank you again Chairman Coons and members of the committee for the 
opportunity to appear before you today. I welcome any questions that 
you might have.

    Senator Coons. Thank you.
    Mr. Lukens.

STATEMENT OF LEWIS LUKENS, OF VIRGINIA, TO BE AMBASSADOR TO THE 
               REPUBLIC OF SENEGAL AND TO SERVE 
         CONCURRENTLY AS AMBASSADOR TO THE REPUBLIC OF 
                         GUINEA-BISSAU

    Mr. Lukens. Mr. Chairman, Senator Isakson, I'm honored to 
appear before you today. I wish to thank President Obama and 
Secretary Clinton for the trust and confidence they have placed 
in me as their nominee for Ambassador to the Republic of 
Senegal and the Republic of Guinea-Bissau.
    Mr. Chairman, I would like to introduce my family. My wife, 
Lucy, and our daughters, Lallie and Leeza, have lived on five 
continents with me and have been exceptional representatives of 
the United States overseas. My Aunt Emily and my mother-in-law, 
Anne Buxton, are here today, and my parents, Alan and Susan 
Lukens, are here.
    My father served this country for 36 years as a diplomat, 
mostly in Africa, including in Dakar. In fact, he appeared 
before this subcommittee 27 years ago as nominee for U.S. 
Ambassador to Congo Brazzaville.
    For the past 22 years, I've dedicated my career to serving 
the United States through various positions at the White House, 
the State Department, and overseas. If confirmed, it would be a 
great honor and privilege to serve our country in this 
important post.
    The United States and Senegal share a long, bilateral 
relationship. As a critical partner in Francophone Africa, 
Senegal is a key ally in the fight against terrorism and 
narcotics, and has been an important player on regional and 
international issues.
    Senegal is one of the few African countries to have never 
experienced a coup d'etat and prides itself as a religiously 
tolerant nation. However, Senegal does face economic, 
governance, and press freedom challenges that threaten its 
democratic and development future. Senegal suffers from a 
crippling energy crisis that causes frequent power outages and 
has weakened economic growth. Senegal would like to emerge as a 
regional economic hub. And, if confirmed, I will work with the 
government to encourage enactment of economic reforms necessary 
to attract investment and expand market access.
    Senegal will host Presidential and legislative elections 
next February. These elections are important to the country's 
democratic future. Concerns about democratic backsliding and 
corruption have tarnished Senegal's longstanding democratic 
reputation.
    If confirmed, I will work with President Wade and the 
Government of Senegal in their efforts to prepare for 
transparent, fair, and credible elections.
    Senegal is a recipient of U.S. foreign assistance programs, 
most notably a $540 million Millennium Challenge Corporation 
Compact. The United States Government must be accountable to 
American taxpayers, and, especially in this difficult economic 
client, we'll ensure that every dollar is effectively used.
    If confirmed, I will work closely with our strong partners 
in Senegalese civil and religious society and with the 
government to ensure that Senegal continues to improve on all 
of its indicators.
    The small, former Portuguese colony of Guinea-Bissau is one 
the world's poorest countries with an economy based on almost 
entirely on cashew production. Its poverty, its geography, and 
its historic instability have contributed to a flourishing 
narcotics trade that has compromised many elements of its 
military and civilian leadership.
    U.S. law enforcement agencies have identified, and are 
currently working closely with, credible government 
counterparts. Through a memorandum of understanding signed with 
Portugal, we will have a United States diplomat placed in the 
Portuguese Embassy in Guinea-Bissau. This will help us increase 
our knowledge of the narcotics-trafficking situation and 
encourage the host government to raise its profile on this 
important issue.
    U.S. goals there are to promote sustainable democratic 
political development, combat narcotics trafficking, and lay 
the foundations for economic growth. We are currently running 
successful, cost-effective programs that feed 50 percent of 
this country's school-aged children and that destroy unexploded 
ordnance and landmines laid since Bissau's war for 
independence.
    To its credit, Guinea-Bissau recently held free and fair 
elections, is working to stabilize its economy, and recently 
qualified for debt relief by implementing fiscally sound 
policies.
    Thank you, Mr. Chairman, for your continued interest in the 
United States relations with Africa. If confirmed, I look 
forward to working with you, your committee, and other Members 
of Congress in representing the interests of the American 
people in Senegal and Guinea-Bissau. I would be happy to answer 
your questions.
    [The prepared statement of Mr. Lukens follows:]

                 Prepared Statement of Donald W. Koran

    Mr. Chairman and members of the committee, it is an honor to have 
been nominated by President Obama to be the next United States 
Ambassador to Rwanda and to appear before you today.
    Rwanda is known by most Americans for the 1994 genocide, which left 
the country and its people ravaged. I saw this legacy first-hand when I 
served there from 1999 to 2001. Since then, Rwanda has made great 
strides in rebuilding the country, as well as playing a positive role 
in the region and beyond. The United States works closely with Rwanda 
to advance these positive endeavors.
    With the assistance of the United States and other donors, the 
Rwandan Government has made remarkable progress in improving the living 
standards of its people, primarily through education and infrastructure 
development. It has improved the business climate, as evidenced by 
Rwanda's dramatic improvement in the World Bank's ease of doing 
business index. If confirmed, I plan to promote economic development in 
Rwanda, as well as opportunities for American trade and investment. The 
United States and Rwanda signed a Bilateral Investment Treaty in 2008, 
now pending advice and consent of the Senate, which would further 
improve the investment climate and provide additional protections to 
U.S. investors. We also support Rwanda's leadership in the East African 
Community and its efforts to promote development and economic 
integration.
    Development assistance can have great impact in Rwanda due to the 
government's strong track record in implementing programs. That strong 
track record, along with remarkable results, contributed to its 
selection as a Global Health Initiative Plus country. The United States 
has been at the forefront of combating HIV/AIDS and malaria, and 
helping to improve food security in Rwanda through the President's 
Emergency Plan For Aids Relief, the President's Malaria Initiative, and 
the Feed the Future Initiative. Peace Corps returned to Rwanda in 2009 
and currently has some 130 volunteers working in health and education 
programs.
    The advancement of democracy and human rights are important 
components of our policy toward Rwanda, and one which the U.S. and 
Rwanda are committed to working closely together to achieve. We believe 
it is important for Rwanda to continue to develop and strengthen its 
democratic institutions, to ensure political space for the opposition 
and to promote a strong independent media. In this context, I look 
forward, if confirmed, to build on and expand our mutual efforts with 
Rwanda on these important issues. Through our USAID mission we have 
funded democracy and governance programs to strengthen the justice 
sector, media, and civil society.
    My past experience in Rwanda and as desk officer for the Democratic 
Republic of the Congo has given me a deep appreciation for the 
importance and complexity of the relationship between those two 
countries. Their rapprochement in 2009, which put an end to years of 
conflict by proxy, has been the cornerstone of recent improvements in 
regional stability. Peace and security in the eastern Congo remain 
elusive, however, and we believe that Rwanda continues to have a 
critical and proactive role to play in stabilizing the region. We 
strongly support the International Conference on the Great Lakes 
Region's recent declaration committing the DRC, Rwanda, and the Congo's 
other neighbors to addressing the illegal trade in minerals, and we 
commend the steps Rwanda is undertaking to ensure the trade continues 
only through legal and certified channels. The Democratic Forces for 
the Liberation of Rwanda, or FDLR, remains a violent threat to 
civilians in eastern Congo, though Rwanda continues to provide for the 
reintegration of FDLR members who demobilize.
    Rwanda is an increasingly important partner internationally. It has 
over 3,000 peacekeepers in Darfur and some 250 troops elsewhere in 
Sudan who have benefited from U.S. military's Africa Contingency 
Operations and Training Assistance (ACOTA) program. It also has almost 
200 police assigned to the peacekeeping mission in Haiti. President 
Kagame was among the strongest voices in the international community 
supporting action to prevent a massacre in Libya earlier this year.
    If confirmed as Ambassador to Rwanda, I will continue U.S. efforts 
to support economic and political progress. Rwanda's development and 
stability are essential for its citizens and critical to the stability 
of Central Africa. I look forward to working closely with you, Mr. 
Chairman, and with the committee in this important endeavor, should I 
be confirmed.
    Thank you again Chairman Coons and members of the committee for the 
opportunity to appear before you today. I welcome any questions that 
you might have.

    Senator Coons. Thank you, Mr. Lukens.
    Dr. Pablos-Mendez.

       STATEMENT OF ARIEL PABLOS-MENDEZ, OF NEW YORK, TO 
  BE ASSISTANT ADMINISTRATOR OF THE UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Dr. Pablos-Mendez. Chairman Coons, Senator Isakson, good 
morning, and thank you for the opportunity to testify before 
you today and for your longstanding, bipartisan support for 
global health. It is an honor to appear before you as President 
Obama's nominee for the position of Assistant Administrator for 
Global Health at the United States Agency for International 
Development.
    If confirmed, I will have the even greater privilege of 
serving the American people in fostering a healthier, safer, 
and more prosperous world.
    USAID makes a profound statement about what America stands 
for. I am humbled by the trust and confidence that President 
Obama and Administrator Shah have placed in me, and I'm 
grateful to have the support of Secretary Clinton.
    If confirmed, it will be a privilege to work under their 
leadership and with USAID's talented and dedicated staff to 
reaffirm the agency's status as the premier development 
institution in the world.
    I would like to recognize USAID's Susan Brems, the Senior 
Deputy Assistant Administrator, and Amie Batson, the Deputy 
Assistant Administrator, for their leadership to date in the 
Bureau for Global Health and the Global Health Initiative.
    I also wish to acknowledge the support and love of my 
family and friends, including my wife, Mercedes, and three of 
my children, Ariel, Fernando, and Alejandra, who are with me 
here today.
    I am a physician. Over the last 25 years, my career in 
academic medicine has been inspired by the lives of my 
patients, and the potential of the medical students and 
residents that I had the opportunity to teach. I am also a 
public health professional who, through research on 
tuberculosis, entered into the exciting arena of global health. 
I have dedicated my professional career to science and 
humanity, working with Columbia University, the New York City 
Department of Health, the United Nations, and the Rockefeller 
Foundation. My engagement with the Federal Government has until 
now been in an advisory capacity. If confirmed, I very much 
look forward to the opportunity to serve actively.
    I grew up in Mexico in the 1960s, in an area where green 
revolution research, supported by USAID and the Rockefeller 
Foundation, transformed agricultural production and directly 
improved the lives of millions, my family included.
    I trained in internal medicine in New York in the late 
1980s. During those years, I watched young lives ravaged by 
HIV/AIDS before the advent of life-saving treatment and saw the 
threat of tuberculosis reemerge and intensify through multidrug 
resistance. These experiences made a strong impression on me 
and have shaped my career.
    Recognizing that infectious diseases do not respect borders 
and that effective responses here at home largely depend on 
what happens in other countries, I ventured into global health. 
In this sphere, I have been fortunate to work in a range of 
initiatives, including the development of innovative public-
private partnerships for new drugs and vaccines for the poor, 
like the Global Alliance for TB Drug Development; mobilizing a 
research coalition together with the NIH and other partners to 
scale up full treatment of HIV-positive mothers and their 
families--a prelude to PEPFAR; working with the World Health 
Organization to bridge the ``know-do'' gap with information 
technology or e-Health; and since returning to the Rockefeller 
Foundation, leading the initiative on the transformation of 
health systems in Africa and Asia.
    If confirmed, I will draw upon these diverse experiences to 
provide leadership for evidence-based innovations, public-
private partnerships, and interagency collaboration to promote 
access to proper health services at an affordable cost, 
especially for the world's poorest and most vulnerable people.
    As we enter the second decade of the new millennium, global 
health has never been more central to the development agenda, 
and the United States is a leader in both. Thanks to the 
foresight and leadership of members from both sides of the 
aisle, the President's Emergency Plan for AIDS Relief, the 
President's Malaria Initiative, and the Global Alliance on 
Vaccines and Immunization, as well as working in women's 
health, we have saved millions of lives and reestablished hope 
for the future, especially in Africa.
    I have been a witness and a partner to this work, which is 
having an impact similar to the agricultural green revolution 
three generations ago. The American people can be very proud of 
these accomplishments.
    President Obama's Global Health Initiative, GHI, signals 
the next phase of American leadership in world health and 
charges USAID to work with other agencies and partners to 
crystallize that vision. GHI will consolidate the fight against 
diseases of poverty while strengthening country-led health 
systems, with a focus on women and children. We expect by the 
year 2016 to contribute to save the lives of 3 million 
children, prevent more than 12 million HIV infections, and 
avert 700,000 malaria deaths. This is an ambitious agenda, 
commensurate with the extraordinary challenges faced by poor 
and vulnerable people in the world, and requiring both our 
commitment and new ways to solve problems.
    Mr. Chairman, there cannot be a better time to join USAID 
and serve the American people. I am humbled to be considered 
for this position. If confirmed, I will be honored and excited 
to contribute, under the guidance of Congress, to realizing 
these mandates and those in the future fitting a changing 
world. Thank you very much for your consideration, and I look 
forward to your questions and recommendations.
    [The prepared statement of Dr. Pablos-Mendez follows:]

               Prepared Statement of Ariel Pablos-Mendez

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, good morning and thank you for the opportunity to testify 
before you today and for your longstanding, bipartisan support for 
global health. It is an honor to appear before you as President Obama's 
nominee for the position of Assistant Administrator for Global Health 
at the United States Agency for International Development. If 
confirmed, I will have the even greater privilege of serving the 
American people in fostering a healthier, safer, and more prosperous 
world.
    USAID makes a profound statement about what America stands for. I 
am humbled by the trust and confidence that President Obama and 
Administrator Shah have placed in me and am grateful to have the 
support of Secretary Clinton. If confirmed, it will be a privilege to 
work under their leadership and with USAID's talented and dedicated 
staff to reaffirm the Agency's status as the premier development agency 
in the world.
    I would like to recognize USAID's Susan Brems, the Senior Deputy 
Assistant Administrator, and Amie Batson, the Deputy Assistant 
Administrator, for their leadership to date in the Bureau for Global 
Health and the Global Health Initiative. I also wish to acknowledge the 
support and love of my family and friends, including my wife and 
children, who are with me here today.
    I am a physician. Over the last 25 years, my career in academic 
medicine has been inspired by the lives of my patients and the 
potential of the medical students and residents I have had the 
opportunity to teach. I am also a public health professional who, 
through research on tuberculosis, entered into the exciting arena of 
global health. I have dedicated my professional career to science and 
humanity, working with Columbia University, the New York City 
Department of Health, the United Nations and the Rockefeller 
Foundation. My engagement with the Federal Government has until now 
been in an advisory capacity. If confirmed, I very much look forward to 
the opportunity to serve actively.
    I grew up in Mexico in the 1960s, in an area where green revolution 
research--supported by USAID and the Rockefeller Foundation--
transformed agricultural production and directly improved the lives of 
millions, my family included. I trained in Internal Medicine in New 
York in the late 1980s. During those years, I watched young lives 
ravaged by HIV/AIDS before the advent of life-saving treatment and saw 
the threat of tuberculosis reemerge and intensify through multidrug 
resistance. These experiences made a strong impression on me and have 
shaped my career.
    Recognizing that infectious diseases don't respect borders and that 
effective responses here at home largely depend on what happens in 
other countries, I ventured into global health. In this sphere, I have 
been fortunate to work in a range of exciting initiatives, including: 
(1) developing innovative public-private partnerships for new drugs and 
vaccines for the poor, like the Global Alliance for TB Drug 
Development; (2) mobilizing a research coalition together with the NIH 
and other partners to scale up full treatment of HIV-positive mothers 
and their families--a prelude to PEPFAR; (3) working with the World 
Health Organization to bridge the ``know-do'' gap with information 
technology or e-Health; and (4) since returning to the Rockefeller 
Foundation, leading the initiative on the transformation of health 
systems in Africa and Asia.
    If confirmed, I will draw upon these diverse experiences to provide 
leadership for evidence-based innovations, public-private partnerships, 
and interagency collaboration to promote access to appropriate health 
services at an affordable cost, especially for the world's poorest and 
most vulnerable people.
    As we enter the second decade of the new millennium, global health 
has never been more central to the development agenda--and the United 
States is a leader in both.
    Thanks to the foresight and leadership of Members from both sides 
of the aisle, the President's Emergency Plan for AIDS Relief, the 
President's Malaria Initiative, the Global Alliance on Vaccines and 
Immunization and work in women's health have saved millions of lives 
and reestablished hope for the future, especially in Africa. Public-
private partnerships are no longer seen as optional, but rather as 
essential to achieving long-term strategic goals.
    I have been a witness and a partner to this work, which is having 
an impact similar to the agricultural green revolution two generations 
ago. The American people can be very proud of these accomplishments.
    President Obama's Global Health Initiative, GHI, signals the next 
phase of American leadership in world health and charges USAID to work 
with other U.S. Government agencies and partners to crystallize that 
vision.
    GHI will consolidate the fight against diseases of poverty while 
strengthening country-led health systems, with a focus on women and 
children. At a time of financial constraint, GHI calls for better 
evidence, game-changing innovation, integrated services and novel 
partnerships to take on grand challenges.
    As stated by Administrator Shah, by building country-led health 
systems, harnessing new technologies and improving the efficiency of 
our efforts, we can save the lives of 3 million children, prevent more 
than 12 million HIV infections, and avert 700,000 malaria deaths by 
2016. We can also ensure 200,000 pregnant women give birth safely, 
prevent 54 million unintended pregnancies and cure nearly 2.5 million 
people infected with tuberculosis.
    This is an ambitious agenda, commensurate with the extraordinary 
challenges faced by poor and vulnerable people in the world, and 
requiring both our commitment and new ways to solve problems.
    Mr. Chairman, there could not be a better time to join USAID and 
serve the American people. I am humbled to be considered for this 
position. If confirmed, I will be honored and excited to contribute, 
under the guidance of Congress, to realizing these mandates and those 
in the future fitting a changing world.
    Thank you very much for your consideration. I look forward to your 
questions and recommendations.

    Senator Coons. Thank you, Doctor.
    And I'd like to thank all five of our nominees for your 
concise, yet broad opening statements that give both of us a 
strong sense of your background and skills, and the challenges 
that you will face in your countries or areas of appointment.
    I'd like to begin our first round of questions, if I might. 
I'm going to ask a very broad question and then invite each of 
the five of you, in turn, to answer, to the extent it's 
directly relevant to your service.
    As you know, we in Washington and in our country face 
unprecedented budgetary challenges. We have record deficits and 
a record national debt, and are making some very tough choices 
going forward about spending. What, in your view, are the 
principal goals of U.S. assistance in your country of 
appointment or in your area of intended work? And how can we 
report back to the people we represent that these investments 
make good sense for the United States, from a strategic 
perspective, a humanitarian perspective, a development 
perspective?
    And then if I could, just a subquestion: We just visited 
the West Africa Trade Hub in Ghana--2 days ago? I've lost track 
of time. And economic development and the potential of trade 
was an issue in all three countries. To what extent has your 
country of potential appointment taken advantage of AGOA? 
There's about to be another AGOA conference. And what more 
could we be doing to encourage trade and trade as a means 
towards development?
    So what impact do you believe our investment in U.S. 
assistance in your country of appointment may make? What role 
do you see development playing in that?
    If I might invite Ms. Pasi to begin and then the members of 
the committee, for the rest of my time.
    Ms. Pasi. Thank you, Mr. Chairman.
    As far as the budget is concerned, the money that we're 
spending in Djibouti on assistance is really very targeted on 
quality of life, life expectancy, and is being put to excellent 
use. The U.S. Government is leading the way in providing food 
assistance to rural areas in Djibouti. We feed about 40,000 or 
50,000 Djiboutians every day. The population is about 850,000 
people, so that's quite significant.
    Second, the life expectancy in Djibouti is very low, only 
about 56 years for women, 53 for men. And many of the projects 
that we're involved in through USAID focus on maternal health, 
child health.
    Also, interestingly, as I mentioned in my opening 
statement, Djibouti has an excellent port, and that port serves 
Ethiopia, primarily for food aid and other products that are 
headed to Ethiopia. Truck drivers who come from Ethiopia drive 
up a corridor toward the port, and that area has now become an 
area where HIV has become increasingly prevalent.
    So the money we receive, which is fairly limited, goes both 
to provide education to prevent the spread of HIV/AIDS, as well 
as to treat those who are affected. And Djibouti has the 
highest HIV-infection rate in the Horn, including the Arabian 
Peninsula.
    As far as AGOA and trade, Djibouti has very little in terms 
of agriculture, because of the lack of arable land. Where their 
economic strength actually lies, I think, is extending services 
through the port. The port is doing an excellent job, and the 
Government of Djibouti hopes to expand it.
    So our focus, in addition to democracy and governance, is 
on basic support for people to ensure they have a reasonable 
life, to try to assist them to get an education, and then to 
help them find employment in a country which has limited 
natural resources but has an extremely strategic location.
    Senator Coons. Thank you, Ms. Pasi.
    Mr. Koran.
    Mr. Koran. Thank you. Rwanda has an aid program of roughly 
$210 million for fiscal 2010. The bulk of that, by far, is in 
health, about $164 million. And there's been remarkable success 
in a number of areas. I think Dr. Pablos-Mendez could probably 
address it better than I could, but let me just give you one 
statistic, that from 2005 to 2008, the infant mortality rate 
was reduced from 86 to 62 per thousand live births, so that's a 
pretty dramatic and concrete effect of our assistance.
    The next big chunk of our assistance is in education. 
Rwanda has aspirations to move to middle-income status within a 
generation, and, to do that, they need an educated population. 
And both USAID but also Peace Corps are working in that area.
    Your question about the development of trade is 
particularly pertinent because Rwanda just recently has 
received substantial U.S. investment related to the export of 
coffee and tea by U.S. companies. And as I mentioned in my 
statement, there's a bilateral investment treaty pending before 
this committee--I believe there's actually going to be a 
hearing on it this afternoon--which would provide legal 
protections to United States companies and help foster greater 
United States investment in Rwanda. Thank you.
    Senator Coons. Thank you.
    Mr. Lukens.
    Mr. Lukens. Thank you, Mr. Chairman. Most of the aid that 
goes from the United States to Senegal is focused on two areas: 
health and agricultural development.
    The $540 MCC compact is being spent to develop road 
networks and also irrigation in both the north and south of the 
country to enable Senegal to boost its agricultural production. 
Senegal currently imports 70 percent of its food needs, which 
is a higher level than any other country in sub-Saharan Africa, 
so a lot of our development assistance is aimed at helping them 
to become more self-sufficient in the area of food.
    The other part of our assistance falls under the health 
category. We have a very strong program there helping them 
combat malaria, and we have also developed health clinics to 
assist with prenatal and then mother and infant health care.
    On trade, there's not a lot of Senegalese trade coming to 
the United States. Where we have worked with the Senegalese 
Government--and if confirmed, I'll continue to work with them--
is to ensure that they develop trade policies that allow for 
transparency of trade and for businesses doing business there. 
That allows them to have a good sense of what the situation is 
there.
    Thank you.
    Dr. Pablos-Mendez. Thank you very much.
    The goal of the Global Health Bureau at USAID is to save 
lives, particularly the poor and most vulnerable people in the 
world, and to strengthening country-led health systems, both to 
contribute to a safer and more prosperous world.
    The Global Health Initiative, as a whole-of-government 
initiative, is indeed trying to find efficiencies across the 
many health programs in the U.S. Government through interagency 
collaboration, through procurement reforms and harmonization, 
through smart service integration, game-changing innovation 
such as eHealth-Rwanda's going to be a fantastic laboratory for 
eHealth in coming years--as well as a relentless pursuit of 
results through proper learning and evaluation.
    Senator Coons. Thank you, Doctor.
    Ms. Jackson.
    Ambassador Jackson. Thank you, Senator. The assistance 
programs in Malawi really need to stay the course in that very 
poor country.
    If our goal is a stable and democratic world, we need to 
stay the course in education and health, as a country that has 
better educated, healthy people is more likely to be democratic 
and treat its citizens with great respect.
    As with the other countries, our programs there are focused 
on health and education. I'm very excited about the Global 
Health Initiative, because it integrates all the different 
health programs and better uses resources.
    Our PEPFAR program has made an impact, and it has decreased 
the prevalence of HIV/AIDS, particularly in the group of ages 
15 through 26, which is a significant group. And the education 
has focused on girls.
    Malawi has exported a lot of goods through AGOA. It's 
anxious to do more. I intend, if confirmed, to work with them 
on their strategic plan to develop other ideas for exports, but 
also to encourage policies and actions that will encourage 
private investment, that will allow for that. The Millennium 
Challenge Corporation energy sector reform project will help a 
long way toward economic growth in Malawi.
    Senator Coons. Thank you, Ms. Jackson.
    Senator Isakson.
    Senator Isakson. Well, I'm going to follow the same line 
that the chairman started with, because the biggest challenge 
we're going to have as a committee is to be able to sustain 
United States investment in foreign assistance at a level where 
it makes sense and it makes a difference.
    Ms. Jackson made a statement in her opening statement about 
the importance of coordinating interagency roles in foreign 
countries, and I think coordination of that and the funding 
that funds those rules is a part of that program.
    And, Dr. Pablos-Mendez, you've been published a couple of 
times talking about the importance of integration of global 
health initiatives. You talk about coordination and you talk 
about integration; to me, that says you're looking at things in 
a global perspective and trying to prioritize the money that's 
spent, and make sure we don't have duplication or redundancy in 
terms of programs.
    So let me start by asking Ms. Jackson first, and then Dr. 
Pablos-Mendez, what have you done, such as your role in the 
Baghdad Embassy, or what you have done in terms of health, to 
maximize the return of invested dollars and find savings, or 
coordination of those dollars to increase the benefit to the 
people it's intended?
    Ambassador Jackson. Senator, thank you. There are two parts 
to that question: one is operations; one is programs. My 
expertise at this time is on administrative operations. And 
both in Malawi and in Embassy Iraq, and throughout the world, 
the State Department has integrated administrative services at 
embassies, and that has provided significant savings. 
Additionally, we have done a lot of off-shoring of 
administrative services that allows for fewer people to be at 
an embassy at any given location, and particularly in Baghdad.
    In terms of health, the Embassy in Malawi has already begun 
the process of integrating its programs, and I look forward to 
working with USAID, CDC, and Peace Corps in doing that. I think 
it has a lot of potential for making a bigger impact at the 
local level, and it's really at the local level that it is 
accountable.
    Thank you.
    Dr. Pablos-Mendez. Thank you. There are many specific 
opportunities that are taking place as we speak. Duplication 
and waste, certainly we don't want any of that. The portfolio 
review process that the Global Health Initiative is conducting 
is allowing us to see exactly who is doing what where, to make 
sure that we are maximizing the value of our dollars.
    When it comes to the integration, the smart integration of 
services, a couple of examples may be illustrative. In Mali, 
the distribution of vitamin A, as well as the fight against 
neglected tropical diseases, deworming parasites, intestinal 
worms, have been put together now. And this has allowed the 
Government of Mali to scale up nationally with the same 
resources that they were doing before in just a couple of 
districts.
    In Kenya, the integration of HIV/AIDS services with 
maternal-child services has also allowed the Government of 
Kenya, with the same resources invested by USAID, to scale up 
from three to eight provinces.
    So there are many opportunities in working with our mission 
staff to look exactly at how we can bring that about. It's not 
automatic. It has to be really put together, but I'm very, very 
confident of the resourcefulness we have seen already. And we 
would like to make this systematic throughout all of our 
investments.
    Senator Isakson. Well, I think the stewardship of the 
United States taxpayers' money, in terms of foreign assistance 
and foreign service, is going to be--not that we haven't been 
good stewards, but it's even more important now, given the 
difficult pressure on the budget, that we demonstrate how we 
are finding savings or efficiencies, and improving the return 
on our investments, such as Millennium Challenge.
    The second thing I'll talk about real quickly, for Mr. 
Lukens, Mr. Koran, and Ms. Pasi, after you get past that 
importance, the second biggest challenge for all of us is to 
get our arms around corruption in Africa and the importance of 
those governments to reduce corruption.
    Chairman Coons and I saw a demonstration. I'm not going to 
get into which country; all the countries we visited had ports, 
so that won't identify them. But we saw one country where you 
had to pass through 17 checkpoints to get from the port to the 
next country, and at each checkpoint, you had to pay somebody 
off to get to the next checkpoint.
    That type of situation is a great depressant, in terms of 
U.S. investment and, for that matter, European investment or 
any other investment in a foreign country. So I'd like to know 
from the three of you, to the extent that you're familiar with 
it or would want to work on it, what will you do to help raise 
the importance of reducing corruption in the countries you'll 
go to in Africa?
    Mr. Lukens.
    Mr. Lukens. Senator Isakson, thanks for that question.
    This is an issue that we follow very closely in Senegal, 
and I will just say that I think the MCC has been a very 
effective tool in raising the awareness of the local population 
on corruption issues.
    As you know, countries have to meet certain standards to 
qualify for MCC. And in the case of Senegal, those standards, 
their rankings on international lists has been slipping, and 
it's created a great deal of attention in Senegal because we 
hold them to these standards.
    The way that we run the MCC there, we run it through 
programs that require strict accountability and transparency 
and serve as a role model for government dealings in the rest 
of country. So it's certainly an issue that we're aware of and 
that we will continue to follow, and use MCC as an example to 
promote transparency and anticorruption efforts.
    Mr. Koran. Rwanda rates as generally one of the least 
corrupt countries in Africa. It ranks, as I mentioned, very 
high or very favorably on the transparency international index. 
As I mentioned, it's made dramatic improvement in the World 
Bank ease of doing business index.
    That said, obviously, it could do better, as any country 
could. And I think, if confirmed, some of the areas I would 
look at in particular are building strong institutions, 
fostering rule of law, and good governance.
    One area that I think is particularly interesting in Rwanda 
is USAID would like to do more programs through the government, 
provide the government money in order to build a road as 
opposed to directly contracting with it. And as part of this, 
USAID would work with the Rwandan Government to improve its 
government procurement system, so it meets international 
standards. Obviously, you can't run our tax dollars through the 
government if you're not confident that it'll be done correctly 
and with minimal or no corruption. And so this will be an 
interesting test case, I think one of the first in the world, 
that will be piloted in Rwanda.
    Senator Isakson. Thank you.
    Ms. Pasi.
    Ms. Pasi. Thank you, Senator Isakson.
    In a way, I feel that Djibouti has made a very positive 
step in the area of dealing with corruption by modernizing and 
improving the port and putting the port under management that 
is considered world-class. It's an excellent port.
    Of course, much remains to be done, and corruption 
continues to be an issue there. If confirmed, it would 
certainly be something I would follow closely.
    And another angle of looking at it, I think, would be 
coordinating with other donors. This gets back to the earlier 
question about how we're going to manage our limited funds to 
make sure that all the funds that are being given to Djibouti, 
whether by us or other partners, are being used efficiently and 
effectively. Thank you.
    Senator Isakson. Thank you.
    Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson.
    I have a whole series of questions here now that are 
individual to your specific countries and roles, so please, if 
we could keep--I'll try to keep the questions short. If you can 
keep the answer short, that would be constructive as well.
    Ms. Pasi, if I could, if confirmed as Ambassador, what 
steps would you take to ensure better coordination with the 
commander at Camp Lemonnier, and what degree of oversight will 
your post, in particular, require, given you've got 3,000 DOD 
personnel on the ground.
    Ms. Pasi. Thank you, Mr. Chairman.
    There is already an excellent working relationship between 
the current Ambassador and the head of Camp Lemonnier, 
something I would plan to continue.
    The Horn of Africa contingent of CJTF-HOA has 
representatives all over East Africa in each of our embassies. 
So I would see my role, if confirmed as Ambassador, to 
coordinate on regional projects, since there bilateral 
coordination going at each embassy, and to make sure that we 
are working closely and collaboratively. That is going on now, 
and I would plan to continue it.
    Thank you.
    Senator Coons. In the most recent elections, I think they 
were in April, President Guelleh was elected for another term. 
But there were some real questions about whether those 
elections were really fair and open, given the arrest of 
opposition figures and the expulsion of some U.S.-funded 
monitors in the lead-up. What could you do, what could the post 
do, what can the Nation go, to more effectively advocate for 
democratic reform within the Guelleh administration or in 
partnership with them?
    Ms. Pasi. Thank you, Mr. Chairman.
    You're right that President Guelleh was elected with 80 
percent of the vote in April. The opposition figure received 20 
percent of the vote. That said, we're working toward and 
continue to use our limited funding for democracy and 
governance to create space for the opposition, to ensure a 
level playing field so that in the future, the opposition 
members will feel comfortable running, will have access to 
media. It's something that we continue to work on.
    The issue of democracy and governance is a top priority for 
us in Djibouti and we work closely with the Djiboutians.
    The government did invite Democracy International, a U.S. 
Government NGO, to leave over what they----
    Senator Coons. They invited them to leave or they told him 
to leave?
    Ms. Pasi. They told them to leave, yes.
    Senator Coons. Very diplomatic.
    Ms. Pasi. They told them to leave, because they explained 
that they were dissatisfied with the actions of a fairly junior 
member of Democracy International.
    We were, naturally, disappointed, but we were very pleased 
that Djibouti agreed to welcome any other U.S. NGO to work in 
Djibouti, and we're currently looking to find another NGO that 
would be able to continue the work.
    We view our involvement--it's going to take time in 
Djibouti. I think democracy is not made in a day, but it's 
certainly a top priority. Thank you, sir.
    Senator Coons. Thank you, Ms. Pasi.
    Mr. Koran, what's your assessment of the state of democracy 
in Rwanda? And do you consider the Rwandan Government tolerant 
of dissent? And what's your assessment of their elections? I 
think they were in August 2010.
    Mr. Koran. The elections were peaceful and orderly. But as 
the White House statement on the elections highlighted, there 
were a number of issues with the registration of political 
parties, arrests of journalists, arrests of political party 
leaders. So I think, if confirmed, one of my top priorities 
would be working with the Rwandan Government to ensure that 
both local and international NGOs and the media are allowed to 
operate freely.
    Senator Coons. There are also two last things, if I might. 
There was some leadership taken by Rwanda in the U.N. on some 
difficult issues around tolerance and orientation. How do you 
plan to encourage that? It's rare on that continent. And then 
last, the relationship with the DRC is very complex, as you 
referenced in your opening statement. And what do you see as 
the path forward in terms of strengthening Rwanda's role in 
stabilizing the DRC.
    Mr. Koran. Your first question, I think, refers to the 
Human Rights Council in Geneva discussions on LGBT rights.
    Senator Coons. That's right. That's correct.
    Mr. Koran. Rwanda has stood out on the continent to some as 
advocating a very tolerant position on that. And as far as I 
can tell in my research, there's no issue in Rwanda with LGBT 
rights. They're quite in contrast to some of their neighbors on 
that. I'm not sure what motivates it, but it's certainly a 
positive development.
    On the Congo, I think relations are probably better now 
than they have been any time in the last probably 17, 18 years. 
When I served in Rwanda before, it was occupying about a third 
of the Congo. As I mentioned in my statement, Rwanda and Congo 
have now reached a rapprochement, and they're working very well 
together to deal with common security threats in the eastern 
Congo.
    Senator Coons. Thank you.
    Mr. Lukens, thank you to you and your extended family, your 
wife and your father, for apparently two generations of service 
to our Nation.
    There have been some real concerns, as you mentioned, about 
the gradual erosion of good governance and transparency in 
Senegal. What are your assessments of these trends? And what 
would you do, if confirmed as Ambassador, in terms of advancing 
tolerance and the strength of democratic institutions in 
Senegal?
    Mr. Lukens. Thank you, sir.
    If confirmed, I'll continue to work with our agencies at 
post and with the Government of Senegal to encourage them to 
stay on the path that they really have been on for over 4 years 
of a moderate, democratic nation.
    There are elections, as you know, in February, coming up in 
February. While no candidates have officially declared yet, 
there are many testing the waters, and there's great 
expectation that President Wade will run again. There are 
currently 166 opposition parties in Senegal, so it's a very 
thriving democracy, but that poses its own challenges.
    So we will continue to work with the Government of Senegal, 
with civil society to ensure voter registration, and really 
work altogether to encourage free and transparent elections.
    Thank you.
    Senator Coons. I'll simply mention, as I wrap up and hand 
the microphone over to Senator Isakson, that in Nigeria, in 
particular, I was quite impressed with the chairman of their 
national electoral commission, and with the constructive role 
that SMS technology played in allowing a rapid vote tabulation 
that was then deemed an independent and fair way of evaluating 
the effectiveness of the voting process.
    We also saw a demonstration, I think it was Ghana, if I'm 
not mistaken, of SMS technology assisting smallholder farmers 
in getting access to information about market conditions and 
pricing. It's really striking what technology is doing for both 
economic development as well as democracy.
    I will continue with a few more questions, but I'll defer 
to Senator Isakson at this point.
    Senator Isakson. Mr. Koran, when I was in Rwanda a few 
years ago, I guess it was 2008, I was struck by the things that 
President Kagame did to take that nation from genocide to 
democracy and stability. One of the things that impressed me 
was, I believe I'm right, it's pronounced Umuganda Sunday. Are 
you familiar with what that is?
    Mr. Koran. It's a voluntary workday.
    Senator Isakson. Right, where you had one Sunday a month, 
they shut down the roads. They close everything and everybody 
works on community projects that they jointly decide are 
necessary.
    In fact, Senator Corker and I helped dig up a stump in a 
village somewhere in Rwanda. I still don't remember the name of 
the village today.
    But he did a lot of things to bring people together and get 
a sense of community. With that said, I read recently of some 
arrests of journalists, and difficulties in terms of opposition 
leaders and things of that nature, that are little inconsistent 
with the Rwanda that I saw when I was there. Is there any 
deterioration in terms of that, or were those just isolated 
instances?
    Mr. Koran. Well, certainly areas of concern, but, 
obviously, Rwanda, as you said, has come a long way since 1994. 
It's remarkable what they've done.
    I think President Kagame, in particular, has focused quite 
correctly on the economy, with the idea that if you can have a 
growing economy, opportunities for everybody, you're going to 
reduce these ethnic and political tensions. And Rwanda has been 
quite successful at that, enjoying real gross domestic product 
growth rates of 5 to 6 percent over the last 15 years.
    But there have been incidents in the past. I wouldn't say 
it's necessarily a trend getting worse, because you're seeing 
incidents happening on occasion, going back for 10 or 15 years. 
And it's obviously something we're concerned about.
    I think one of the issues which, if confirmed, I would hope 
to work with Rwanda on, or continue working, because I think 
the Embassy is doing quite a job on it already, are the laws 
against divisionism or genocide denial, which are somewhat 
ambiguous. And while I appreciate the logic behind the laws, 
their interpretation is sometimes vague and ambiguous and can 
at times be used to stifle legitimate political discourse.
    So I think it's a question of clarifying those laws, so 
that they address the very real issues of concern but without 
going beyond those issues.
    Senator Isakson. Mr. Chairman, I really don't have another 
question. If I have anything specific, I'll submit it for the 
record.
    But I do have a comment to make to each of you. Each of you 
has accepted a responsibility to go to a place few Americans 
will ever see, and many Americans have never even heard of, but 
are very important in terms of our country and the future of 
our country. So when you're on duty in a place that few people 
are paying attention to back home, remember that the chairman 
and I on this committee are a line of communication. If there's 
some way that we can help and support your effort, or get 
information to the attention of people higher than ourselves, 
we consider that part of our responsibility and hope you will 
keep in contact with our offices throughout your terms of 
service in each of the countries and, in your case, in terms of 
USAID.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator.
    I just have one more question each for the remaining three, 
if I could, and then I think we'll conclude.
    I just want to associate myself with Senator Isakson's 
comments, in terms of our being available to you as a resource. 
I think it is very challenging service on which you embark. We 
noted, in our most recent trip, as I have in another trip I've 
taken as a Senator, just the critical role that Ambassadors 
play, and how difficult, at times, it can be to have clarity of 
direction, to have unity of effort, across many different 
agencies. And what a difference it makes when there is a well-
functioning and well-led Embassy.
    So I'm grateful for your service and appreciate your 
willingness to stay in touch with us, to the extent there are 
things that we need to be informed about.
    If I might, Mr. Lukens, I just wanted to also ask about 
Guinea-Bissau. I'm very concerned about what I read in the 
backgrounder about narco-trafficking and emerging criminality, 
and the real challenges at the very highest level of 
government, in terms of our engagement with them. And I'd be 
interested in how you see the challenge of the limitations of 
our engagement with Guinea-Bissau; how having an officer in the 
Portuguese Embassy is going to work; and then what sort of 
additional resources, training, skills you're going to need to 
reach out to from other agencies in order to be effective in 
this sort of malleable structure, where you're an Ambassador in 
Senegal, in charge of Senegal and so forth, but also 
responsible for our relations with a country that poses some 
real threats to our interests in the region and the world.
    Mr. Lukens. Thank you, Mr. Chairman. I intend to fully 
engage on the issues to do with Guinea-Bissau and travel there 
frequently. As you mentioned, and as I mentioned in my 
statement, having a full-time State Department officer actually 
living and working in Guinea-Bissau will help us tremendously, 
as we try to learn more about the situation there and how we 
might better help the government there, and help us to identify 
factions within the government that we can trust, and work with 
them to solidify rule of law and antinarcotics trafficking 
efforts.
    The agreement we have is that the diplomat, our Foreign 
Service officer, will live and work out of the Portuguese 
Embassy. We also have leased office space there that is used 
for temporary visitors, and there's a continual flow of 
visitors from different government agencies that have a stake 
in the economic development and anticorruption efforts in 
Guinea-Bissau. So our officer there will be able to assist 
other agency temporary duty personnel as they come through. I 
think that'll give us much greater insight than we have had up 
until now into the key players in the government and the 
situation on the ground, and also help us to--quarterly visits 
by the U.S. Ambassador can help. But I think having someone 
there full time, really getting to know people in the 
government, will really help us to send a strong message of 
what our values and priorities are.
    Senator Coons. Thank you. Good luck on that very difficult 
mission. I look forward to hearing back from you about some of 
the challenges.
    Dr. Pablos-Mendez, as I referred to in the opening, the 
QDDR suggests that GHI should be transferred largely from State 
to AID. And this is, I think, in some ways may be a challenging 
undertaking. How do you assess USAID's ability to meet the 
benchmarks that are outlined in the QDDR and what do you think 
are the challenges in continuing this sort of dual role, where 
there is still oversight from State's Office of Global AIDS 
Coordinator and yet actual execution through USAID on the 
overwhelmingly majority of the actual funds and activity under 
PEPFAR, for one example?
    Dr. Pablos-Mendez. Thank you. As you point out, the QDDR 
already specifies a transition of the leadership of the Global 
Health Initiative to USAID. This is specified over a period of 
18 months to conclude in September 2012, after meeting a set of 
benchmarks, a set of 10 or so of them, including program 
reviews by areas, country plans, evaluation plans, and so on, 
that already crystallize the vision of GHI as a whole-of-
government integrated approach to global health.
    These exercises are being conducted already, and, indeed, 
half of them are already quite along the way. I feel very 
confident of the teams involved across the U.S. Government to 
crystallize these in the remainder of the time. During this 
transitional period, Secretary Clinton has appointed Lois Quam 
as executive director to facilitate the coordination in this 
transition period.
    If confirmed, this is one of my priorities. I know that 
this has created some confusion or lack of clarity, but 
there's, I think, an understanding among all the parties 
involved, all the agencies, to get there, and the sooner, the 
better. As a priority for USAID, if we can accelerate this 
process of benchmarks in the next 12 to 15 months, we will do 
so.
    The final determination, of course, is that of Secretary 
Clinton, and we will be working closely with the Secretary of 
State, in this regard. PEPFAR, itself, which is another whole-
of-government initiative that has been quite successful in the 
last 10 years or so, and a large percent of that already is 
implemented through USAID. To some extent, many of the major 
initiatives are already implemented through USAID across the 
U.S. Government and in an integrated fashion in country 
missions.
    So I feel very confident, if confirmed, that we can get 
there. If we can do it faster than specified, I'll be very 
happy.
    Senator Coons. And so would we.
    Ms. Jackson, thank you for your service, and your 
husband's. And I was intrigued by the trip across the Sahara, 
as we were speaking before.
    As you know, the United States recently signed a $350 
million MCC pact with Malawi, but it was delayed for several 
months over concerns about press freedoms, and basic human 
rights respect, and the criminalization of homosexuality, among 
other things. But this is a critical investment, as you 
referenced in your opening, in the electricity sector, and 
could contribute dramatically to Malawi's economic development.
    What steps do you intend to take to ensure that those 
issues don't reemerge as major problems in Malawi, that they're 
not sort of backsliding on human rights or democracy? And what 
do you see as the major challenges to successfully implementing 
the MCC?
    Ambassador Jackson. Thank you, Senator.
    The $350 million compact for the energy sector is a very 
important one for Malawi. It was put on hold due to amendments 
to two of 197 penal codes in the Malawi Constitution, the first 
one dealing with the government potentially being able to stop 
publication of material that was contrary to public interest. 
The Government of Malawi publicly and repeatedly reaffirmed its 
constitutional press freedoms, and I will, if confirmed, 
continually remind them of that. They do have a very vibrant 
media.
    The second related to the threat of the rights to lesbian, 
gay, bisexual, and transgendered individuals has caused a 
vibrant and very public debate, which, heretofore, has not 
occurred in Malawi. So just the press freedom and being allowed 
to express people's opinions on that particular issue validates 
that MCC's stand on the case was very, very important.
    Malawi truly understands that if there is a criminal 
punishment against an individual, that MCC will immediately 
take action to investigate for suspension or termination of the 
MCC compact.
    I carry with me the MCC indicators, and I'm constantly 
using those as a means to remind governments--I did this in 
Burkina Faso, and I intend to do in the Malawi--that the MCC 
indicators are a representative of U.S. Government values, and 
that we are very serious about them.
    Thank you.
    Senator Coons. Thank you, Ms. Jackson.
    I'd like to thank all five of our nominees who testified 
today.
    Senator Isakson, you have no further questions?
    Senator Isakson. No.
    Senator Coons. I will state that we're going to leave the 
record open until the close of business tomorrow, Wednesday, 
June 8, to the extent there are other members of the committee 
who were not able to join us here today but wish to submit 
additional questions, or if there are any additional 
amplifications you choose to submit.
    But I am grateful for your testimony. I'm grateful for your 
service. And I think Senator Isakson and I both expressed our 
enthusiasm for finding opportunities to come visit you in the 
field and to be a resource to you, should there be challenges 
that arise in your service.
    Thank you very much. This concludes today's hearing.
    [Whereupon, at 11:26 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


     Responses of Dr. Ariel Pablos-Mendez to Questions Submitted by
                         Senator John F. Kerry

    Question. Please differentiate between your role, if confirmed, and 
that of the Executive Director of the Global Health Initiative (GHI).

    Answer. As set forth in the Quadrennial Diplomacy and Development 
Review (QDDR), pursuant to the direction of the Secretary of State and 
the GHI Operations Committee (USAID Administrator, Global AIDS 
Coordinator, and Director of the Center for Disease Control and 
Prevention), the Executive Director of GHI was appointed by the 
Secretary of State to facilitate the coordination of agency programs to 
meet GHI goals, including the transition of GHI leadership to USAID 
upon completion of the benchmarks, and support the objectives for 
global health.
    If confirmed, I look forward to working with Administrator Shah, 
the other members of the Operations Committee and the GHI Executive 
Director to meet GHI goals. My unique role is to ensure that all 
USAID's work embraces GHI's seven principles and that USAID's 
programming contributes optimally to achieving GHI's ambitious health 
targets in a whole-of-government mode.
    If confirmed, I will also work to ensure the effective transition 
of GHI leadership to USAID within the next year, as mandated in the 
QDDR. I will do this by ensuring that USAID is poised to lead GHI 
inclusively. I will continue to implement and strengthen USAID 
processes for broad evidence-based consultations to ensure that our 
investment portfolio, funding decisions and country health plans are 
aligned to achieve maximum health impact.If confirmed, I will also 
ensure that USAID is leading an effective GHI interagency 
communications strategy, and streamlining information management to 
focus on accountability for performance. I will promote a culture in 
USAID of interagency collaboration that leverages domestic government 
capacity to achieve global health impact; and work to ensure country 
ownership of USAID's efforts under GHI. To do this, I will work closely 
with the Executive Director and the members of the GHI's Operations 
Committee.
                                 ______
                                 

     Responses of Dr. Ariel Pablos-Mendez to Questions Submitted by
                        Senator Richard G. Lugar

    Question. Next week, the Global Alliance for Vaccines and 
Immunizations (GAVI) will hold their first ever pledging conference. 
The United States has played a huge role in the creation of GAVI. As a 
strong supporter of vaccines, I have closely followed the rollout of 
the pneumococcal vaccine. Should the United States make a multiyear 
pledge to GAVI; and if so, how much should the United States commit?

    Answer. On June 13, 2011, at the GAVI Pledging Conference in 
London, USAID Administrator Rajiv Shah announced a $450 million 
commitment from the United States over 3 years (FY 2012-14), subject to 
congressional appropriation. With this pledge, the United States 
surpassed $1 billion in commitments to GAVI for the purchase of 
vaccines. In his statement, Dr. Shah said ``I am pleased to announce 
that the United States will continue one of the best, most cost-
effective life-saving investments we have ever made. Over the next 3 
years, subject to congressional approval, we will devote $450 million 
to GAVI's mission, which seizes upon the opportunity to save 4 million 
lives by 2015 . . . This multiyear commitment leverages the billions of 
dollars that other donors have committed to GAVI, multiplying the 
impact of our funding more than eightfold. At a time when budgets 
around the world are being scrutinized, this partnership with donor and 
host country governments, civil society and private sector partners 
ensures our development dollars have the greatest impact. Not only is 
our commitment inspiring the generosity of other donors, it helps 
ensure the quantities of vaccine needed to obtain lower prices, 
allowing us to save even more lives.'' USAID plays a critical 
leadership role on the GAVI Board of Directors and the GAVI Executive 
Committee. If confirmed, I will ensure that USAID continues to work 
closely with GAVI so that this investment is implemented effectively, 
efficiently, and sustainably.

    Question. With USAID being the lead agency on the Administration's 
Global Health Initiative, how does it work that the bulk of the funding 
comes through the global HIV/AIDS under the jurisdiction of the State 
Department? Also, what role do you envision playing in the 
implementation of the program with the director of GHI being housed 
within State?

    Answer. Upon meeting the requirements laid out in the QDDR, USAID 
will be tasked with being the lead agency of GHI. However, USAID will 
not lead alone. USAID will lead inclusively with its partner agencies, 
building consensus and forging ahead with mutual respect and a reliance 
on the expertise of each agency.
    Effectively implementing the GHI principles will require thinking 
beyond purely budgetary terms. Through GHI, USAID, the State Department 
and CDC are all constantly looking at ways to gain synergy and 
efficiency by linking their programs. USAID relies on a deep 
institutional capacity to respond to dynamic conditions and on an 
expertise throughout U.S. programmatic focus areas. USAID implements a 
large proportion of PEPFAR with the State Department, and the 
President's Malaria Initiative with CDC, giving USAID strong 
institutional links across GHI.
    The Executive Director of GHI was appointed by the Secretary of 
State to facilitate the coordination of agency programs to meet GHI 
goals and support the objectives for global health set forth in the 
Quadrennial Diplomacy and Development Review (QDDR), pursuant to the 
direction of the Secretary of State and the GHI Operations Committee 
(USAID Administrator, Global AIDS Coordinator, and Director of the 
Center for Disease Control and Prevention).
    If confirmed, I look forward to working with Administrator Shah, 
the other members of the Operations Committee and the GHI Executive 
Director to meet GHI goals. My unique role will be to ensure that all 
USAID's work embraces and drives GHI's principles and that USAID's 
programming contributes optimally to achieving GHI's ambitious health 
targets in a whole-of-government mode.

    Question. In his annual letter, Bill Gates spoke of vaccination 
programs and polio eradication as being a priority of his foundation 
for the coming year. At the World Economic Forum meetings earlier this 
year in Davos, Switzerland, Mr. Gates announced an additional $102 
million commitment to polio eradication efforts. Rotary International 
and UNICEF are also active in this area. What is the United States role 
in the polio eradication, especially in Pakistan and Afghanistan where 
the United States has such a large economic investment?

    Answer. Since the launch of the Global Polio Eradication Initiative 
(GPEI) in 1988, the global number of polio cases has reduced by over 99 
percent. The United States is the largest donor to the GPEI, 
contributing over 30 percent of the overall $7.5 billion effort. In 
Pakistan, the United States plays a low visibility but highly important 
role in polio eradication. I understand the objective is to ensure that 
this is seen as a Pakistani-led and implemented program--building local 
ownership, providing safe passage for vaccinators, and avoiding 
sparking antivaccination rumors often linked to the United States. 
Through the World Health Organization and UNICEF, the United States 
provides funding and technical support for the implementation of the 
Emergency Action Plan. This focuses on improved Union Council level 
surveillance, immunization campaign planning, monitoring and 
evaluation, and communication to increase community participation and 
demand for polio and other vaccinations. Currently, the United States 
supports cross-border immunization posts at 11 formal border crossings 
between Pakistan and Afghanistan. Further, the United States provides 
technical support through surveillance training, CDC-detailed 
personnel, USAID participation on interagency committees, and USAID and 
CDC participation technical advisory groups and program evaluations.
    In Pakistan, between 1995 and 2000, polio incidence fell tenfold. 
Success in many areas demonstrates that the country has the technical 
capacity to complete national eradication. However, polio in Pakistan 
is being fueled by a small number of geographic areas and by migrant 
groups. So far in 2011, there have been 49 cases reported--which is 
more than double the number reported in the same period of 2010.
    The United States plays a similar low visibility but highly 
important role in Afghanistan. Again, the objective is to ensure that 
polio eradication is seen as an Afghan-led and implemented program. 
Through WHO and UNICEF, the United States provides funding and 
technical support for the implementation of the National Polio 
Eradication Plan and 13 district high-risk plans. USAID supports 
improved immunization campaign planning, monitoring and evaluation, and 
communication to increase community participation and demand for polio 
and other vaccinations. Through the Basic Primary Health Services 
(BPHS) NGOs USAID supports, polio campaigns are implemented in the 
high-risk areas. USAID participates on interagency committees, and 
USAID and CDC participation technical advisory groups and program 
evaluations. President Karzai has often launched the polio campaigns 
and has a dedicated Special Advisor on Polio Eradication who 
facilitates with the Ministry of Health and Partner organizations, 
including the U.N., Canada, ICRC, and BPHS NGOs. Most importantly, 
USAID is the lead agency for negotiating ``Days of Tranquility'' or 
``De-conflicting'' (the terminology preferred in Afghanistan) with 
NATO/ISAF and U.S. Special Forces and Afghan National Army and Police. 
In February 2011, the USAID Polio Coordinator provided a briefing at 
the daily Commander's Update Briefing and highlighted the success of 
this coordination in reaching more children in previously security-
inaccessible areas and received renewed commitment to continue the 
collaboration in the future. As of June 8, 2011, Afghanistan has only 
four confirmed cases of polio.
                                 ______
                                 

     Responses of Dr. Ariel Pablos-Mendez to Questions Submitted by
                        Senator Robert Menendez

    Question. Dr. Ariel Pablos-Mendez, with your impressive medical and 
leadership credentials, you are expected to boost USAID's profile on 
the Global Health Initiative. The U.S. global health approach has 
suffered from a lack of coordination, which affects patients' ability 
to access treatment at the clinic level. We have heard a lot of 
officials say the right things about a whole-of-government approach. 
But the Global Health Initiative has 15 agencies involved, and no one 
seems to be in charge. The QDDR claims that USAID will take the lead in 
coordinating the GHI starting in 2012. Can you attest to how you will 
ensure this transition takes place?

    Answer. Appendix 2 of the QDDR outlines the proposal to transition 
the leadership of the GHI to USAID upon its achievement of defined 
benchmarks aimed at ensuring USAID has the capacity and structures to 
lead a coordinated, inclusive, whole-of-government effort. The 
Secretary of State will make the final determination on transitioning 
the Global Health Initiative to USAID, drawing on the assessment and 
recommendation of the GHI Executive Director and Operations Committee. 
I understand that USAID has undertaken a comprehensive program to 
successfully meet the 10 benchmarks within the defined period. USAID 
has made significant progress. For example, USAID has conducted 
inclusive portfolio reviews of its major health programs with the 
participation of experts from sister agencies, research centers, 
foundations and other partners. The extensive discussions in this 
process, among outside experts, stakeholders, and USG staff engaged in 
health programs, are being documented in reports on the adjustments 
being made in USAID strategies and plans, and in coordination with 
partners. Another criterion is being actively pursued through 
interagency planning and review of GHI strategies for country programs, 
eight of which have been approved. In addition, through an effort 
called BEST, USAID has prepared 25 and reviewed 17 5-year integrated 
action plans for family planning, maternal and child health, and 
nutrition to ensure that under the Global Health Initiative, USAID will 
focus on state-of-the-art, evidence-based programming. The joint State-
USAID efforts to streamline information flows have resulted in several 
recent, concrete changes consistent with the QDDR criteria. The recent 
USAID policy on Monitoring and Evaluation also addresses a QDDR 
requirement. If confirmed, I will continue the drive to meet the 
benchmarks and demonstrate USAID's readiness to lead the whole-of-
government approach to health in development.

    Question. Noting the recent cuts to U.S. foreign assistance and the 
fact that procuring and delivering vaccines to the developing world is 
a proven, cost-effective way of meeting a number USAID's global health 
goals, how do you plan to work with mechanisms such the Global Alliance 
for Vaccines and Immunization (GAVI) to leverage and extend their 
impact?

    Answer. On June 13, 2011, at the GAVI Pledging Conference in 
London, USAID Administrator Rajiv Shah announced a $450 million 
commitment from the United States over 3 years (FY 2012-14), subject to 
congressional appropriation. With this pledge, the United States 
surpassed $1 billion in commitments to GAVI for the purchase of 
vaccines. In his statement, Dr. Shah said ``I am pleased to announce 
that the United States will continue one of the best, most cost-
effective life-saving investments we have ever made. Over the next 3 
years, subject to congressional approval, we will devote $450 million 
to GAVI's mission, which seizes upon the opportunity to save 4 million 
lives by 2015 . . . This multiyear commitment leverages the billions of 
dollars that other donors have committed to GAVI, multiplying the 
impact of our funding more than eightfold. At a time when budgets 
around the world are being scrutinized, this partnership with donor and 
host country governments, civil society and private sector partners 
ensures our development dollars have the greatest impact. Not only is 
our commitment inspiring the generosity of other donors, it helps 
ensure the quantities of vaccine needed to obtain lower prices, 
allowing us to save even more lives.''
    The cost-effectiveness of vaccines becomes especially important in 
a constrained budget environment. In addition, the USG is committed to 
certain child mortality reductions under the Global Health Initiative, 
and vaccines must be an essential part of our strategy in attaining 
those goals. GAVI's structure as an alliance of the public, social, and 
for-profit private sector partners means that global vaccine supply 
efforts are appropriately coordinated. Moreover, the dialogue with the 
for-profit private sector has resulted in innovative financing 
mechanisms that provide the right incentives to develop the right 
vaccines at the right prices for use in the developing world. Finally, 
GAVI's approach actively serves several of the GHI principles, 
including coordination and leveraging of partner resources.
    It is my understanding that USAID will continue to use its voice on 
both the GAVI Executive Committee and the GAVI Board to ensure that 
there is alignment of the Board, the new CEO, and the new Board 
Chairman to ensure quality, cost-effective programs are implemented, 
and that GAVI continues to conduct business in a transparent, 
responsible, and efficient manner. It is also my understanding that 
USAID will continue to work with its GAVI partners across sectors so 
that vaccine policy is correctly formulated, strategies make sense, 
good pricing is obtained, and efforts are coordinated. Finally, they 
will ensure that their maternal and child health work within USAID 
properly supports GAVI where there are efficiencies or economies of 
scale to be found through strengthened immunization programs. If 
confirmed, I will support and ensure USAID continues these endeavors, 
to maximize our impact.

    Question. Past experience has shown that the most effective way to 
increase accountability and prevent corruption is to support the 
efforts of local civil society. For example, between 2008 and 2009, 
civil society groups in Malawi were able to bring down the rate of 
medicines going missing from 70 percent to 25 percent. They did it by 
asking community members to send a SMS text message when basic 
medicines weren't available at the clinic. In countries like Malawi and 
Uganda, civil society watchdogs are having great success in preventing 
corruption and ensuring the supply of key medicines. How is the Global 
Health Initiative planning to leverage civil society to be not just 
service deliverers, but advocates for better health care?

    Answer. One of USAID's most important contributions to improving 
health in developing countries is the engagement of civil society 
through both local governance mechanisms and civil society 
organizations. The GHI principle to encourage country ownership and 
invest in country-led plans explicitly includes civil society 
organizations among the partner country components in which the USG 
should invest. Numerous USAID programs currently embrace this principle 
and assist civil society to advocate for improved health care.
    One example has been the systematic involvement of women's groups 
and the ``women's panchayat'' (the one-third of local government in 
India seats reserved for women) to push for health services in rural 
communities. In Nigeria, in support of that country's democratic 
transition, USAID has actively promoted the engagement of citizen's 
groups to work with authorities in Local Government Areas to improve 
health services. In Guatemala, USAID has supported the formation and 
activity of both women's advocacy groups and groups of indigenous 
women. Both these groups are organized from community to national 
level, and have been a major force in getting the national government 
to provide a budget line item and assure services for reproductive and 
maternal health. The indigenous women's groups operate under the 
oversight of the national Procurator of Human Rights; in this capacity, 
they are authorized to enter health facilities and identify problems of 
care and service quality for indigenous women. These examples show the 
power of mobilizing the nonhealth civil society sector in support of 
better health services for women, children, and vulnerable populations.
    Family planning and reproductive health: USAID assistance for 
family planning and reproductive health routinely engages civil society 
groups and individual actors to promote improved gender norms, 
increased access to services, and accountability from service 
providers.
    Some of the civil society engagement activities focus specifically 
on enabling women to be effective champions for family planning. 
Following an advocacy skills-building workshop, one champion from 
Nigeria pioneered the creation of a contraceptive security revolving 
fund and oversight committee within the Usmano Danfodiyo University 
Teaching Hospital and sits as first chair of the committee. In Uganda, 
a champion successfully advocated to reduce the cost of injectable 
contraceptives from 80 Ksh to 50 Ksh.
    HIV/AIDS: As leaders shaping community values and behaviors, 
community-based organizations can promote healthy behavior, reduce 
stigma, and motivate communities to support and utilize HIV/AIDS 
services. USAID has a longstanding history of working with civil 
society organizations to advocate for and shape community knowledge of 
HIV prevention, care, and treatment services. USAID, through PEPFAR, 
supports Partnership Frameworks to support and strengthen national HIV/
AIDS strategies and focus on building strategic partnerships with both 
government and civil society to secure long-term sustainability of HIV/
AIDS programs.
    In Malawi's Partnership Framework, USAID is helping to build 
capacity of professional and lay counselors and organizations in public 
sector and civil society implementing the National AIDS Framework. The 
Government of Malawi intends to partner with PEPFAR, the U.N. family, 
and others to build the technical, financial, and management capacity 
of civil society and the private sector. USAID will continue to provide 
capacity-building technical assistance to grant-recipient organizations 
implementing the National AIDS Framework, as well as to grantmaking 
organizations. Additionally, the Government of Malawi will build 
capacity of leaders and communities to speak against harmful practices 
and norms. Among other linkages, referrals will be strengthened, 
diverse and include linkages to civil society organizations.


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 8, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

D. Brent Hardt, of Florida, to be Ambassador to the Co-
            operative Republic of Guyana
James H. Thessin, of Virginia, to be Ambassador to the Republic 
            of Paraguay
Jonathan D. Farrar, of California, to be Ambassador to the 
            Republic of Nicaragua
Lisa J. Kubiske, of Virginia, to be Ambassador to the Republic 
            of Honduras
                              ----------                              

    The committee met, pursuant to notice, at 2:36 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez, presiding.
    Present: Senators Menendez, Rubio, and Inhofe.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good afternoon, everyone. The hearing 
will come to order.
    Today the Senate Foreign Relations Committee considers four 
nominations: Jonathan Farrar to be the Ambassador to Nicaragua, 
James Thessin to be the Ambassador to Paraguay, D. Brent Hardt 
to be the Ambassador to the Co-operative Republic of Guyana, 
and Lisa Kubiske to be the Ambassador to the Republic of 
Honduras.
    Let me welcome all of the nominees and their families
    I will make some brief introductory remarks before I turn 
to Senator Rubio who is on his way from a vote on the floor, 
and then we will have an opening statement from each of you and 
time for questions.
    Let me first say that the work that you are being asked to 
do, should you be confirmed, is of vital importance to the U.S. 
Government. If confirmed, you will not only be the 
representative of the President in your country of assignment, 
but of the American people. And that is why we take our task of 
advice and consent very seriously.
    The range of countries you are being called to represent is 
as diverse as the challenges and opportunities in the Western 
Hemisphere, and I am one of those who remains hopeful, while at 
the same time concerned about the future of Latin America.
    Economic growth in the hemisphere and declining poverty 
indicate that the hemisphere's trajectory is positive. At the 
same time, sustained income inequality threatens to 
disenfranchise the many who are not sharing in these economic 
gains, and fuels the plagues that keep the hemisphere from 
reaching its full potential--drug trafficking, organized crime, 
money laundering, and corruption.
    As we celebrate the 10th anniversary of the Inter-American 
Democratic Charter, which celebrates the victory of democracy 
throughout the hemisphere in all but one notable country, I am 
concerned about a trend toward autocracy that threatens many 
nations in the hemisphere under which there is a guise of 
political and democratic elections, but elections in and of 
themselves are not the fulfillment totally of democracy.
    In November, Nicaragua will hold Presidential and 
parliamentary elections under a cloud of suspicion about its 
adherence to the democratic principles enshrined in the Inter-
American Democratic Charter. President Ortega seems determined 
to subjugate the country's courts and constitution to the will 
of one man, whose desire for power exceeds his interests in a 
stable, democratic future.
    Honduras, which after overcoming challenges to its 
democracy, was last week welcomed back to the Organization of 
American States. They face enormous challenges from organized 
crime, drug traffickers, and others who have capitalized on 
political uncertainty to grow their trade. The homicide rate in 
Honduras is now an astounding 75 per 100,000 people, the 
highest in the world outside of war zones.
    In Guyana, we engage a regime that is as much Caribbean as 
it is South American, and that continues to seek its place in 
the politics and economy of the region. And in Paraguay, people 
face their own challenges in strengthening their democratic 
form of government, combating corruption, and growing their 
economy. Like other governments in the region, they also face a 
growing narcotics problem highlighted by last week's seizure of 
$131 million in cocaine.
    So, the challenges each of you face vis-a-vis your host 
governments will be unique. If confirmed, you will play a vital 
role in the work that builds on our common successes and works 
to combat some of today's most pressing challenges.
    I will give a moment to Senator Rubio and recognize him at 
this time.

                 STATEMENT OF HON. MARCO RUBIO,
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you. I apologize. I still get lost in 
the hallways here, but we found our way over. And I appreciate 
it very much.
    Congratulations to all of you. I look forward to learning 
more about you all in today's hearing.
    And at an important time, as we look to the United States 
vision toward the region, a critical time in the region as we 
see decisions being made across the region about which 
direction they want to go, both economically and politically.
    I think that obviously the United States has been 
preoccupied with some pretty important issues around the world 
over the last 10 to 12 years. But what happens in the Western 
Hemisphere is of critical importance to our future, not from a 
defensive standpoint, but from an offensive standpoint, from an 
opportunity standpoint.
    We have the ability, if there is more development and 
growth economically in the Western Hemisphere, to have more 
clients for the things we make and sell, and vice versa. And 
so, the development and growth of democratic institutions, but 
also of upward mobility and economic progress is of great 
promise to the United States with regard to the Western 
Hemisphere. And anything we can do to promote that is 
important.
    So, each of you will be traveling to your posts at a key 
moment in our Nation's history with regard to the Western 
Hemisphere in general and many of these nations in specific.
    So, thank you, Mr. Chairman, for holding these hearings. I 
think this is our third hearing already, which is as many as 
this committee had over a 2- or 3-year period before you took 
over.
    And with that, I look forward to hearing from the nominees.
    Senator Menendez. Thank you, Senator Rubio.
    I am going to introduce each of you now, and then in the 
order in which I introduce you, I would ask you to start your 
statements.
    So, Mr. Farrar is well known to those of us who follow 
Cuban issues. He is the chief of mission of the U.S. Interest 
Section in Havana. He is a career member of the Senior Foreign 
Service, having begun with the State Department as an economic 
officer in 1980.
    In addition to serving as the Principal Deputy Assistant 
Secretary in the Bureau of Democracy, Human Rights, and Labor, 
and as Deputy Assistant Secretary of the Bureau of 
International Narcotics and Law Enforcement, he has also served 
in a variety of posts in Latin America, including Mexico, 
Belize, Uruguay, and Paraguay.
    Mr. Farrar has a B.A. from California State Polytechnic 
University, an M.A. from the Industrial College of the Armed 
Forces, and today we review his nomination to be Ambassador to 
Nicaragua.
    Ms. Kubiske is the deputy chief of mission in Brasilia. She 
was the deputy chief of mission of the Dominican Republic, has 
served in Mexico, Shanghai and Hong Kong. At the Department of 
State, she has served as the Western Hemisphere Economics 
Director in the Operations Center on the Secretariat staff. She 
has also served as an investment director and negotiator at the 
Office of the United States Trade Representative.
    She has a bachelor's degree from Brandeis University, a 
master of science in Foreign Service from Georgetown.
    Mr. Thessin is the Acting Legal Advisor to the Department 
of State. He provides advice to the policy officials of the 
Department and other government agencies on international 
issues and on other legal aspects of the Department's work, 
including requests by Congress. He has been with the Department 
of State since 1982 when he served as attorney/advisor for 
Political Military Affairs.
    He received a J.D. cum laude from Harvard Law School in 
1974, worked for the Federal Trade Commission, worked as 
counsel for the Senate Foreign Relations Committee, and was the 
senior litigation attorney for the U.S. Nuclear Regulatory 
Commission before joining the Department of State. We welcome 
you back to the committee and to this hearing.
    Mr. Hardt is a career Foreign Service officer currently 
serving as charge d'affaires at the Embassy for Barbados in the 
eastern Caribbean. His other postings include Berlin, The 
Hague, and the Holy See.
    Mr. Hardt has a bachelor's of history degree from Yale 
University, master's and doctorate degrees from the Fletcher 
School of Law and Diplomacy at Tufts University. And given his 
wide range of assignments, he speaks Italian, Dutch, German, 
and French. Perhaps it is befiting that he be called upon as 
our envoy to Guyana, a country surrounded by Dutch, Portuguese, 
and Spanish speakers. But we look forward to your testimony 
today in English.
    So, with that, in the order I have introduced you, Mr. 
Farrar, you are up first.

     STATEMENT OF JONATHAN D. FARRAR, OF CALIFORNIA, TO BE 
            AMBASSADOR TO THE REPUBLIC OF NICARAGUA

    Mr. Farrar. Thank you very much, Mr. Chairman.
    Distinguished members of the Senator Foreign Relations 
Committee, thank you for the opportunity to appear before you 
to appear before you as the President's nominee to be the next 
United States Ambassador to Nicaragua. I am deeply grateful to 
the President and to the Secretary of State for their trust and 
confidence.
    I would like to introduce the members of my family who are 
with me today and mention those who are not. First, my wife, 
Terry, who has been with me every step of the way through 30 
years of Foreign Service life, and who has made innumerable 
personal sacrifices along the way. Also with us today are my 
daughter, Melissa, and our son-in-law, Jason; our son, 
Jonathan, and our daughter-in-law, Leigh. Our youngest son, 
Nathaniel, is studying in Nanjing, China, and could not join us 
today.
    As a career member of the Foreign Service, I have had the 
privilege to serve my country in various capacities, covering 
the Western Hemisphere over the past 30 years. My career has 
taken our family throughout the Americas--North America, 
Central America, South America, and the Caribbean.
    In Washington, I have had the opportunity to work on Latin 
American policy and programs, on human rights, democracy, law 
enforcement, trade, investment, nonproliferation, and other 
areas.
    But my interest in Latin America truly began in 1973 in 
Jalapa, Veracruz, on a sister city student exchange program. It 
was a life-changing experience for me. Today, 38 years later, I 
still am in touch with the family who took me in and taught me 
more about Mexico than I ever could have learned in a textbook.
    If confirmed as Ambassador of the United States to 
Nicaragua, I would be a credit to the government. But the most 
important ties between our countries are those forged between 
our citizens. If confirmed, I would bring to our mission my 
experience working with civil society in Latin America and an 
unwavering commitment to finding avenues to connect with the 
Nicaraguan people, to advance United States interests, and 
reflect United States values.
    If confirmed, my highest priority will be the protection of 
U.S. citizens, including the Embassy community. I would work 
diligently with U.S. businesses to promote their exports and 
protect their investments. I will bring to that challenge my 
experience from three assignments as an economic and commercial 
officer overseas.
    Bilateral trade between the United States and Nicaragua has 
grown by two-thirds in the 5 years since the Central America-
Dominican Republic Free Trade Agreement went into effect. Yet, 
Nicaragua has a more than $1 billion trade surplus with the 
United States. If confirmed, I will work with U.S. business, 
small, medium, and large, to increase U.S. exports to help 
redress that imbalance.
    Nicaragua's Presidential elections are scheduled for this 
November. The United States and others in the international 
community have encouraged Nicaragua to facilitate observation 
of those elections by credible, domestic and international 
organizations. If confirmed, I would look forward to working 
with members of this committee and your colleagues in the 
Congress to shape appropriate U.S. policies, both in the lead 
up to those elections and afterward.
    Along with the rest of Central America, Nicaragua faces 
considerable challenges in combating illegal drug trafficking. 
Our Central America Regional Security Initiative and other 
bilateral programs offer tools to work with the Nicaraguan 
Government, private sector, and NGOs to combat these 
challenges.
    In a prior assignment, I had the honor of participating in 
the signing of our Bilateral Agreement to establish the 
International Law Enforcement Academy in El Salvador. If 
confirmed, I will bring my experience with law enforcement and 
counternarcotics programs in Latin America and adapt it to the 
particular environment in Nicaragua.
    Mr. Chairman, thank you again for the honor of appearing 
before the committee today. Should I be confirmed, I pledge to 
serve our country to the best of my ability, and thus repay in 
at least a small way the many benefits which it has bestowed 
upon me and my family.
    I would be pleased to answer any questions you may have.
    Thank you.
    [The prepared statement of Mr. Farrar follows:]

                Prepared Statement of Jonathan D. Farrar

    Mr. Chairman, distinguished members of the Senate Foreign Relations 
Committee, thank you for the opportunity to appear before you as the 
President's nominee to be the next United States Ambassador to 
Nicaragua. I am deeply grateful to the President and to the Secretary 
of State for their trust and confidence.
    I would like to introduce the members of my family who are with me 
today, and mention those who are not. First my wife, Terry, who has 
been with me every step of the way through 30 years of Foreign Service 
life, and who has made innumerable personal sacrifices along the way. 
Also with us today are our daughter, Melissa, and son-in-law, Jason, 
and our son, Jonathan, and daughter-in-law, Leigh. Our youngest son, 
Nathaniel, is studying in Nanjing, China and could not join us.
    As a career member of the Foreign Service, I have had the privilege 
to serve my country in various capacities covering the Western 
Hemisphere over the past 30 years. My career has taken our family 
throughout the Americas. In Washington, I have had the opportunity to 
work on Latin American policy and programs on human rights, democracy, 
law enforcement, trade, investment, nonproliferation, and other areas.
    My interest in Latin America truly began in 1973 in Xalapa, 
Veracruz, on a sister-city student exchange program. It was a life 
changing experience. Today, 38 years later, I still am in touch with 
the family who took me in and taught me more about Mexico than I ever 
could have learned in a textbook.
    If confirmed as Ambassador of the United States to Nicaragua, I 
would be accredited to the government. But the most important ties 
between our countries are those forged between our citizens. If 
confirmed, I would bring to our mission my experience working with 
civil society in Latin America and an unwavering commitment to finding 
avenues to connect with the Nicaraguan people to advance U.S. interests 
and reflect U.S. values.
    If confirmed, my highest priority would be the protection of U.S. 
citizens, including the Embassy community. I would work diligently with 
U.S. businesses to promote their exports and protect their investments, 
and would bring to that challenge my experience from three assignments 
as an economic and commercial officer overseas. Bilateral trade between 
the United States and Nicaragua has grown by two-thirds in the 5 years 
since the Central America-Dominican Republic Free Trade Agreement went 
into effect, yet Nicaragua has a more than $1 billion trade surplus 
with the United States. If confirmed I would work with U.S. 
businesses--small, medium, and large--to increase U.S. exports to help 
redress that imbalance.
    Nicaragua's Presidential elections are scheduled for this November. 
The United States and others in the international community have 
encouraged Nicaragua to facilitate observation of those elections by 
credible domestic and international organizations. If confirmed, I 
would look forward to working with members of this committee and your 
colleagues in the Congress to shape appropriate U.S. policies in the 
leadup to those elections and afterward.
    Along with the rest of Central America, Nicaragua faces 
considerable challenges in combating illegal drug trafficking. Our 
Central America Regional Security Initiative and other bilateral 
programs offer tools to work with the Nicaraguan Government, private 
sector, and NGOs to combat these challenges. In a prior assignment, I 
had the honor of participating in the signing of our bilateral 
agreement to establish the International Law Enforcement Academy in El 
Salvador. If confirmed, I would bring my experience with law 
enforcement and counternarcotics programs in Latin America and adapt it 
to the particular environment in Nicaragua.
    Mr. Chairman, thank you again for the honor of appearing before the 
committee today. Should I be confirmed, I pledge to serve our country 
to the best of my ability and thus repay in at least a small way the 
many benefits which it has bestowed upon me and my family.
    I would be pleased to answer any questions which you may have.

    Senator Menendez. Thank you.
    Ms. Kubiske.

STATEMENT OF LISA J. KUBISKE, OF VIRGINIA, TO BE AMBASSADOR TO 
                    THE REPUBLIC OF HONDURAS

    Ms. Kubiske. Thank you, Mr. Chairman, and members of the 
committee. Thank you for granting me the opportunity to appear 
today as President Obama's nominee to be the next Ambassador to 
Honduras. It is a tremendous honor and responsibility, and I, 
like my colleagues, I am deeply grateful to the President and 
to Secretary Clinton.
    If confirmed, of course, I look forward to working closely 
with you and with your colleagues to advance the interests of 
the United States.
    I would also like to take a moment, Mr. Chairman, to 
acknowledge my family, my husband, Dan. They are all on the 
third row on this side. My husband, Dan, our boys, Philip and 
Adam, my stepdaughter, Jessica, and her husband, Kevin, and my 
sister, Alex. And I also have a friend here as well--Ann 
Sacclaris. Each of these people has been a deep source of love 
and support during my diplomatic career, or as you said, our 
diplomatic career.
    I would also like to acknowledge my parents who, in 
addition to offering me love, have been hugely influential in 
providing the values I hold today, and in encouraging me to 
pursue my professional dreams.
    I have spent my career serving the United States in the 
Department of Agriculture and the Office of the U.S. Trade 
Representative, and in the Department of State. Many of my 
overseas postings have been in Latin America, most recently in 
Brazil where we have a 1,100-person mission, and working with 
relations with Brazil at a very interesting, important time. I 
have also worked, as you mentioned, in the China area.
    As I have understood since I studied in Peru as an 
undergraduate, Latin America, including Honduras, is a region 
that has a tangible impact on United States domestic interests, 
be it via the flow of people, or trade, or illicit activities. 
And this makes it a core interest for us.
    Our economic relationship is very important. We have some 
200 companies in Honduras. Almost half the Honduran imports 
come from the United States. And we have a trade surplus with 
Honduras, or at least we did based on data in 2009.
    Having served as the State Department's Western Hemisphere 
Economic Policy director and as a negotiator at USTR, I am very 
aware, as Senator Rubio mentioned, that expanding our economic 
relationship can help Honduras develop and grow while creating 
jobs in the United States.
    And one promising area, just as an example, is Honduras' 
alternative energy sector. In January, Honduras began 
construction on the largest windfall in Central America. And it 
will bring cheap, clean energy to a very poor country. And I am 
very happy to be able to say that the turbines are being 
manufactured in Pennsylvania, and that means jobs.
    I also hope to build on the strong cultural and bilateral 
ties between our countries. We have 15,000 American citizens in 
Honduras. There are 100,000 Americans who visit Honduran 
beaches and Mayan ruins every year. In the United States--
depending on the statistics you read--almost a million 
residents of Honduran origin. And the money that those 
residents of Honduras--Hondurans send back to Honduras accounts 
for fully a quarter of Honduras' economy.
    U.S. Government investments in Honduras are also 
transformative. Honduras' Vice President called the Millennium 
Challenge Corporation Compact that completed in September the 
most successful development project in Honduras' history.
    Honduran governments, including the current Lobo 
administration, have recognized the value of our close ties. 
Beyond the economic area, we are working to address an alarming 
rise in gang activity that has burdened Honduras with one of 
the highest homicide rates that the chairman mentioned earlier. 
Gang activity is a threat to U.S. national security, and so 
working to reverse its growth would be one of my priorities.
    I also look forward to assisting our joint effort to 
address the underlying causes of insecurity, building on the 
work of U.S. Government agencies, like the Peace Corps, USAID, 
and nongovernmental organizations that demonstrate every day 
the generosity of the American people.
    Two years ago, Honduras was racked by a political crisis 
that resulted in its suspension from the Organization of 
American States, or OAS. And just a week ago, as you mentioned 
earlier, a special session of the OAS lifted that suspension, 
which was a tribute to President Lobo's effort to promote 
national reconciliation.
    Our continued engagement remains essential to strengthen 
Honduras' democratic institutions, and to--continuing to 
support the Honduran government's efforts to strengthen the 
respect for human rights, their efforts having included 
creation of a ministry of justice and human rights and the 
establishment of a police unit aided by the United States for 
victims of human rights violations.
    Mr. Chairman and members of the committee, I deeply value 
the potential opportunity to serve the United States in this 
capacity, and I thank you again. I would be pleased to answer 
any questions you and your colleagues may have.
    [The prepared statement of Ms. Kubiske follows:]

                 Prepared Statement of Lisa J. Kubiske

    Mr. Chairman and members of the committee, thank you for granting 
me the opportunity to appear before you today as President Obama's 
nominee to be the next United States Ambassador to Honduras. This is a 
tremendous honor and responsibility for which I am deeply grateful to 
President Obama and Secretary Clinton. If confirmed, I look forward to 
working closely with you and your colleagues to advance the interests 
of the United States.
    I would like to take a moment, Mr. Chairman, to acknowledge my 
husband, Dan, our boys, Philip and Adam, my stepdaughter, Jessica, and 
my sister, Alex. Each has been a source of love and support during my 
diplomatic career. I'd also like to acknowledge my parents, who have 
been hugely influential in providing the values I hold today and 
encouraging me to pursue professional opportunities.
    After studying in Massachusetts and here in Washington, I have 
spent my career serving the United States, in the Department of 
Agriculture, the U.S. Trade Representative's Office, and the Department 
of State. Many of my postings have been in Latin America, most recently 
in Brasilia, where I served as deputy chief of mission at a mission 
with over 1,100 employees at a pivotal moment in U.S. relations with 
Brazil. I have also worked in Shanghai and Hong Kong.
    As I have understood since I studied in Peru as an undergraduate, 
Latin America is a region of core interest to the United States, where 
the domestic impact of our foreign policy is tangible. Our actions have 
a direct impact on the lives of United States citizens, and the flows 
of migrants and illegal drugs to our borders.
    Having served as the Department of State's Western Hemisphere 
economic policy director and as a negotiator at the United States Trade 
Representative's Office, I am acutely aware of the economic 
opportunities in Latin America for the United States. Our economic 
relationship is especially important with Honduras. To date, 200 U.S. 
companies operate in Honduras. Nearly half of Honduran imports 
originate in the United States. Our trade surplus with Honduras was $60 
million in 2009.
    We can strengthen our economic ties while helping Honduras develop 
and grow. One promising area is Honduras' alternative energy sector. In 
January, Honduras began construction on the largest wind farm in 
Central America, which will bring cheap, clean energy to a very poor 
country. I am proud to report that the turbines are being manufactured 
in Pennsylvania, helping to create jobs in the United States.
    I also look forward, if confirmed, to building on the strong 
cultural and bilateral ties between the United States and Honduras. 
Fifteen thousand American citizens live in Honduras, and 100,000 
Americans visit Honduran cities, beaches and Mayan ruins every year. In 
the United States, there are nearly 1 million residents of Honduran 
origin. The money they send back to their families accounts for one-
quarter of Honduras' gross domestic product. U.S. Government 
investments in Honduras are similarly transformative. Honduras' Vice 
President has called the $205 million Millennium Challenge Corporation 
Compact, completed last September, the most successful development 
project in Honduras' history.
    Honduran governments, including the current administration headed 
by President Porfirio Lobo, have recognized the value of close ties. 
Together, we are helping address the alarming rise in gang activity 
that has burdened Honduras with one of the world's highest homicide 
rates. At our Embassy in Tegucigalpa, officials from the Departments of 
State, Homeland Security, and Justice work side by side with the 
Honduran Government to disrupt the operations of drug trafficking 
organizations. Reversing this trend, a threat to U.S. national 
security, would be one of my top priorities. If confirmed, I would also 
look forward to assisting our joint efforts to address the underlying 
causes of insecurity, building on the work of U.S. Government agencies 
such as the Peace Corps, USAID, and nongovernmental organizations that 
daily demonstrate the generosity of the American people.
    Two years ago, Honduras was wracked by a political crisis that 
resulted in Honduras' suspension from the Organization of American 
States (OAS). Just a week ago, a special session of the OAS lifted that 
suspension, a tribute to President Lobo's efforts to promote national 
reconciliation. Our continued engagement remains essential to 
strengthen Honduras' democratic institutions and to continue supporting 
the Honduran Government's efforts to strengthen respect for human 
rights, which has included the creation of a Ministry of Justice and 
Human Rights and the creation of a police unit, aided by the United 
States, for victims of human rights violations.
    Mr. Chairman and members of the committee, I deeply value the 
potential opportunity to serve the United States in this capacity, and 
I thank you again for granting me the privilege of appearing before you 
today. I would be pleased to answer any questions you and your 
colleagues may have.

    Senator Menendez. Thank you.
    Mr. Thessin.

STATEMENT OF JAMES H. THESSIN, OF VIRGINIA, TO BE AMBASSADOR TO 
                    THE REPUBLIC OF PARAGUAY

    Mr. Thessin. Mr. Chairman, Senator Rubio, I appreciate very 
much the opportunity to appear before this committee.
    When in years past I was a staffer for this committee 
sitting on your side of the dais, I did not expect that someday 
I would be here as the President's nominee to be the United 
States Ambassador to the Republic of Paraguay. Having served 
the committee for several years, I continue to have the 
greatest respect for this institution, and will carry that with 
me in my new job if confirmed.
    I would like first to introduce my family. With me is my 
wife of 38 years, Marcia, our son, Jonathan, and his spouse, 
Rebecca. Our daughter, Rachel, and her spouse, Will, are out of 
town on business, and unfortunately not able to be with us 
today.
    I am proud of my wife and our children in so many ways, 
including that all five have been working daily to make this 
country stronger now and into the future. My wife, son, and 
daughter are in public service, and our daughter-in-law and 
son-in-law in universities.
    I am very grateful and humbled that President Obama has 
nominated me for this position and asked me to serve. You have 
my commitment that if confirmed I would work tirelessly to live 
up to the high standards that the administration has set for 
its appointees, standards that I know this committee and the 
American people expect as well.
    I come before you today as a lifelong public servant in a 
career that has spanned more than 35 years, working in two 
branches of government and in various departments and agencies. 
If confirmed, I will draw upon all the wisdom, knowledge, and 
experience that I have learned during my government experience 
in an effort to advance United States interests and our 
important relationship with Paraguay. And if confirmed, I look 
forward to working with the committee in this effort.
    The relationship between the United States and Paraguay is 
strong and mutually beneficial. The United States has a strong 
interest in supporting Paraguay's efforts to deepen its 
democratic structures, to advance human rights, to counter 
narcotics trafficking and terrorism, to combat corruption and 
the misuse of intellectual property, and to promote an 
effective, transparent government and judicial system.
    The people of the United States believe that these 
principles are important, and, therefore, we have a strong 
interest in their adoption by other countries. We benefit 
directly when other countries make these principles their own. 
Not only do our citizens receive fair treatment when abroad and 
find a safe and welcoming environment there, but our businesses 
are able to invest in trade in a marketplace that is fair and 
predictable, placing United States firms in a better position 
to contribute to the economic prosperity of the United States 
as well as that of Paraguay.
    Paraguay stands at an important juncture where the United 
States can help make a difference. Paraguay is less than 25 
years away from a period when one person ruled the country for 
some 35 years. And there is significant work yet to do.
    During this historic period of its bicentennial, Paraguay 
is looking at the lessons of its past and is working to design 
the blueprint for its future, especially as it approaches 
Presidential and legislative elections.
    For its part, the United States has established programs to 
help Paraguay institute democratic reforms, disrupt criminal 
organizations, develop its counter terrorism capabilities, 
fight corruption, and promote good governance and economic 
development.
    If confirmed, I would give the highest priority to ensuring 
the well-being and safety of Americans living and traveling in 
Paraguay. I would also seek opportunities for trade between the 
United States and Paraguay, specifically promoting United 
States exports to Paraguay as well as advocating for United 
States firms doing business in that country.
    If confirmed, I look forward to working with you, your 
distinguished colleagues, and your staffs to advance our 
priorities with the Republic of Paraguay.
    Thank you again for the opportunity to appear today. I 
welcome any questions you may have.
    [The prepared statement of Mr. Thessin follows:]

                 Prepared Statement of James H. Thessin

    Mr. Chairman and members of the committee, I appreciate very much 
the opportunity to appear before this committee today. This is a great 
honor for me. When in years past I was a staffer for this committee, 
sitting on your side of the dais, I did not expect that someday I would 
be here as the President's nominee to be the United States Ambassador 
to the Republic of Paraguay. Having served the committee for several 
years, I continue to have great respect for this institution and will 
carry that with me in my new job if confirmed.
    I am very grateful and humbled that President Obama has nominated 
me for this position and asked me to serve. You have my commitment 
that, if confirmed, I will work tirelessly to live up to the high 
standards that the administration has set for its appointees; standards 
that I know this committee and the American people expect of nominees 
as well.
    With the chairman's permission, I would first like to introduce my 
family. With me is my wife of 38 years, Marcia. We are delighted at the 
prospect of working to advance U.S. interests in Paraguay, if I am 
confirmed. Also with us are our son, Jonathan, and his spouse, Rebecca. 
Our daughter, Rachel, and her spouse, Will, are not able to be with us, 
being out of town on business. I am proud of my wife and our children 
in so many ways, including that all five have been working daily to 
make this country stronger now and into the future. My wife, son, and 
daughter have been in public service, working respectively as a 
demographer, an attorney, and an engineer. Our daughter-in-law and our 
son-in-law have been working in universities to help build a stronger 
foundation in this country for tomorrow, one training educators, the 
other advancing science.
    I come before you today as a lifelong public servant. My career 
with the Federal Government has spanned more than 35 years working in 
two branches of government and in various departments and agencies, 
most recently as the Deputy Legal Adviser at the Department of State. 
Before beginning with the Department in 1982, I had worked for this 
committee for some 3 years in the late 1970s and early 1980s. I have 
learned much during my government service, particularly while at the 
Department and on the committee staff. If confirmed, I will draw upon 
all this wisdom, knowledge, and experience in an effort to advance U.S. 
interests in our important relationship with Paraguay. And if 
confirmed, I look forward to working with this committee in this 
effort.
    The relationship between the United States and Paraguay is strong 
and mutually beneficial. The United States has a strong interest in 
supporting Paraguay's efforts to deepen its democratic structures, to 
advance human rights, to counter narcotics trafficking and terrorism, 
to combat corruption and the misuse of intellectual property, and to 
promote an effective, transparent government and judicial system.
    The people of the United States believe that these principles are 
important, and therefore we have a strong interest in their adoption by 
other countries. We benefit directly when other countries make these 
principles their own. Not only do our citizens receive fair treatment 
when abroad and find a safe and welcoming environment there, but our 
businesses are able to invest and trade in a marketplace that is fair 
and predictable, placing U.S. firms in a better position to contribute 
to the economic prosperity of the United States as well as Paraguay. If 
confirmed, I look forward to continuing the productive dialogue between 
the United States and Paraguay and will work diligently to advance 
these goals.
    Paraguay stands at an important juncture where the United States 
can help make a difference. Paraguay is less than 25 years away from a 
period when one person ruled the country for some 35 years, and there 
is significant work yet to do. During this historic period of its 
bicentennial, Paraguay is looking at the lessons of its past and works 
to design the blueprint for its future, especially as it approaches 
Presidential and legislative elections. To help, the United States has 
established programs to help Paraguay institute democratic reforms, 
disrupt criminal organizations, develop its counterterrorism 
capabilities, fight corruption, and promote good governance and 
economic development. If confirmed, I look forward to working with 
President Lugo, Foreign Minister Lara Castro, the Paraguayan 
Government, the private sector, and civil society as we seek to advance 
bilateral relations and strengthen the political, commercial, and 
cultural ties that exist between our two countries.
    If confirmed, I would also give the highest priority to ensuring 
the well-being and safety of Americans living and traveling in 
Paraguay. I would also seek opportunities for enhanced trade between 
the United States and Paraguay, specifically, promoting U.S. exports to 
Paraguay as well as advocating for U.S firms doing business in 
Paraguay.
    If confirmed, I look forward to working with you, your 
distinguished colleagues, and your staffs to advance our priorities 
with the Republic of Paraguay.
    Thank you again for the opportunity to appear today. I welcome any 
questions you may have.

    Senator Menendez. Thank you very much. In typical legal 
fashion, you have a full minute left. So, you synthesize very 
well.
    Mr. Thessin. I cede it back to the chair. [Laughter.]
    Senator Menendez. The chair is grateful to you.
    Mr. Hardt.

 STATEMENT OF D. BRENT HARDT, OF FLORIDA, TO BE AMBASSADOR TO 
              THE CO-OPERATIVE REPUBLIC OF GUYANA

    Mr. Hardt. Mr. Chairman, Senator Rubio, thank you for the 
opportunity to appear before you today as President Obama's 
nominee as the next United States Ambassador to the Co-
operative Republic of Guyana. I am grateful for the trust and 
the confidence that the President and Secretary of State have 
placed in me.
    If confirmed by the Senate, I look forward to working 
closely with this committee and your colleagues in Congress to 
advance our Nation's many interests in Guyana and the broader 
Caribbean region.
    Before I proceed, I would like to acknowledge the 
unflagging love and support throughout my career of my wife, 
Saskia, and my three sons, who are unfortunately preparing to 
leave post next week and could not be here with me today. But 
they have supported me in the United States in many capacities 
over the course of my career.
    I would also like to acknowledge the care and nurture of my 
mother, who awakened my curiosity in the world around me.
    Mr. Chairman, I have had the privilege of serving our 
country as a career Foreign Service officer for the past 23 
years. This journey has taken me to the Western Hemisphere and 
Europe, including four previous postings in the Caribbean. I 
have worked with friends and allies to strengthen security 
combat drug trafficking, promote democratic values and human 
rights, combat HIV and AIDS, and encourage the exchange of 
people and ideas.
    In my current position as charge d'affaires in the eastern 
Caribbean, I have led our Embassy team to rebuild confidence in 
the United State as the region's partner of choice. I believe 
these experiences have prepared me well to lead the U.S. 
mission in Georgetown should I be confirmed.
    Mr. Chairman, Guyana is a country of tremendous potential 
with vast rain forests, productive agricultural lands, proven 
mineral resources and potentially large oil and natural gas 
reserves. But it is also a country facing considerable 
challenges with poverty and HIV/AIDS epidemic, ethnic and 
racial divisions, drug trafficking, and violent crime.
    The United States has a strong interest in working with 
Guyana, working in partnership to meet these challenges and 
fulfill this potential.
    If confirmed, I will work with the government and people of 
Guyana to solidify gains in democratic governance, bolster 
economic growth, and promote opportunity, especially for women 
and young people.
    The United States also has an interest in Guyana as a key 
partner in strengthening regional security. Through the 
President's Caribbean Basin Security Initiative, we are 
intensifying our cooperation to counter threats of 
transnational crime and terrorism. That security for the 
citizens of the Caribbean is indispensable both to the region's 
future and to our own interests. If confirmed, I will work with 
all United States agencies active in the region to strengthen 
our security cooperation with Guyana.
    Guyana is a nation of enormous economic potential, but with 
a per capita GDP of only $2,500, it is also one of the poorest 
countries in the hemisphere. That is why USAID has been working 
with the government and private sector to diversify the economy 
and create new opportunities and in agribusiness, aquaculture, 
wood products, and eco-tourism.
    If confirmed, I look forward to continuing our mission's 
efforts to strengthen Guyana's competitiveness, build its trade 
capacity, and reduce constraints to doing business.
    Guyana is also a leader in efforts to address global 
climate change through its low carbon development strategy, 
which seeks to preserve its rain forests. To support Guyana's 
efforts, our Embassy is helping to develop sustainable forestry 
and host country governance capacity.
    In the face of a debilitating AIDS epidemic in Guyana, the 
United States has made major investments in combating this 
disease through the President's emergency plan for AIDS relief. 
Our $145 million investment since 2004 has paid clear dividends 
in meeting this challenge. Guyana's prevention and care 
programs, its lab, and its state-of-the-art logistics system 
are models for HIV programs in the region. If confirmed, I will 
work with the government and other health partners to achieve 
enduring country ownership and sustainability of these life-
saving advances in public health.
    Mr. Chairman, Guyana is poised for elections later this 
year that can build on progress it has made as an emerging 
democracy. International observers deemed its 2006 Presidential 
elections to be free, fair, and transparent, and for the first 
time independence, they were also peaceful. It is important 
that Guyana continue along this path in the elections scheduled 
to take place later this year. If confirmed, I will work with 
the government and civil society to help strengthen democracy 
and governance, promote constructive political dialogue, and 
encourage greater citizen participation in the political 
process.
    The United States has a special link to Guyana through the 
many Guyanese who live in our country. I will look to work with 
this talented and hardworking diaspora to find ways that they 
can contribute to building a more stable and prosperous Guyana.
    Mr. Chairman, these are some of the opportunities and 
challenges that await the next United States Ambassador to 
Guyana. They are challenges and opportunities I welcome. If 
confirmed and entrusted with this office, I look forward to 
working with you and your colleagues in Congress to forge a 
close and productive partnership between the United States and 
Guyana. I assure you that I will seek to represent the 
President and the American people with creativity, with 
dedication, and with dignity.
    Thank you, and I would be pleased to answer any questions 
you may have.
    [The prepared statement of Mr. Hardt follows:]

                  Prepared Statement of D. Brent Hardt

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today as President Obama's nominee to 
serve as the next United States Ambassador to the Cooperative Republic 
of Guyana. I am grateful for the trust and confidence President Obama 
and Secretary of State Clinton have placed in me.
    If confirmed by the Senate, I look forward to working closely with 
this committee and with your colleagues in Congress to advance our 
Nation's many interests in Guyana and the broader Caribbean region.
    Before I proceed, I would like to acknowledge the unflagging 
support throughout my career of my wife, Saskia, and my three sons, who 
have served the United States in many capacities during our many 
overseas assignments.
    Mr. Chairman, I have had the privilege of serving our country as a 
career Foreign Service officer for the past 23 years. This journey has 
taken me to the Western Hemisphere and Europe, including four previous 
postings in the Caribbean. I have worked with friends and allies to 
strengthen security, combat drug trafficking, promote democratic values 
and human rights, combat HIV and AIDS, and encourage the exchange of 
people and ideas. In my current position as Charge d'Affaires in the 
Eastern Caribbean, I have led our Embassy team to rebuild confidence in 
the United States as the region's partner of choice. I believe these 
experiences have prepared me well to lead the U.S. mission in Guyana, 
should I be confirmed.
    Mr. Chairman, Guyana is a country with tremendous potential, with 
vast pristine rain forests, productive agricultural lands, proven 
mineral resources, and potentially large oil and natural gas reserves. 
It is also a country facing considerable challenges from poverty, an 
HIV/AIDS epidemic, ethnic and racial divisions, drug trafficking and 
violent crime. The United States has a strong interest in working in 
partnership with Guyana to meet these challenges and fulfill this 
potential. If confirmed, I will work with the government and people of 
Guyana to solidify gains in democratic governance, bolster economic 
growth, and promote opportunity, particularly for young people and 
women.
    The United States also has an interest in Guyana as a key partner 
in strengthening regional security. Through the President's Caribbean 
Basin Security Initiative we are intensifying our cooperation to 
counter the threats of transnational crime and terrorism. Together we 
are strengthening maritime interdiction capabilities, professionalizing 
law enforcement agencies, reforming the juvenile justice sector, and 
providing new opportunities for at-risk youth. Better security for the 
citizens of the Caribbean is indispensible both to the region's future 
stability and prosperity and to our interests. If confirmed, I will 
work with all U.S. agencies active in the region to strengthen our 
security cooperation with Guyana.
    Guyana is a nation of enormous economic potential. Its natural 
resource endowment includes gold, bauxite, diamonds, and timber. 
Experts estimate a 50-percent probability that the Guyana-Suriname 
Basin holds 15 billion barrels of oil and 42 trillion cubic feet of 
natural gas. With exploratory drilling anticipated later this year, we 
are helping prepare the ground for sound development of these resources 
through technical assistance of the Energy Governance Capacity 
Initiative (EGCI).
    With a per capita GDP of only $2,500, Guyana is also one of the 
poorest countries in the Hemisphere. That is why USAID has been working 
with the government and private sector to diversify the economy and 
create new opportunities in agribusiness, aquaculture, wood products, 
and ecotourism--a program singled out by the President of Guyana as a 
model for other donors. If confirmed, I look forward to continuing our 
mission's efforts to work with the government and private sector to 
strengthen Guyana's market competitiveness, build its trade capacity, 
and reduce legal constraints to doing business.
    Guyana is also a leader in efforts to address global climate change 
through its low carbon development strategy, which is helping to 
preserve its vast, untouched rain forest. To support Guyana's interest 
in utilizing the country's abundant forests as a development tool, our 
Embassy is engaged in developing sustainable forestry, ecotourism, and 
host country capacity to implement the Reduced Emissions from 
Deforestation and Forest Degradation (REDD+) initiative.
    In the face of a debilitating AIDS epidemic in Guyana, the United 
States has made a major investment in combating this disease through 
the President's Emergency Plan for AIDS Relief (PEPFAR). Our $145 
million investment since 2004 has paid clear dividends in responding to 
Guyana's HIV/AIDS epidemic. Guyana's prevention and care programs, 
central laboratory, and state-of-the-art logistics system are models 
for other HIV programs in the region. Life-saving antiretroviral 
treatment has been provided to 89 percent of HIV positive patients in 
need of treatment--a sixfold increase. HIV testing among pregnant women 
has increased by 360 percent, and treatment of HIV-positive women 
increased from 57 percent in 2006 to 93 percent by the end of 2010. 
PEPFAR has also had a profound impact on Guyana's health systems, 
enhancing the country's laboratory capacity, ability to store and 
distribute medicines, and management of broader health services. As a 
result of these U.S. Government investments, Guyana now is able to take 
on more of the responsibility for this response. If confirmed, I will 
work with the government and other health partners to achieve enduring 
country-ownership and sustainability of these important life saving 
advances in public health.
    Mr. Chairman, Guyana is poised for elections later this year that 
can build on progress it has made as an emerging democracy. 
International observers deemed its 2006 Presidential elections to be 
free, fair and transparent and, for the first time since independence, 
they were also peaceful. It is important that Guyana continue along 
this path in the elections scheduled to take place later this year. If 
confirmed, I will work with the government and civil society to help 
strengthen democracy and governance, promote constructive political 
dialogue, and encourage greater citizen participation in the political 
process. To this end, I will also encourage the government to hold 
local elections, which have not been held since 1994.
    The United States has a special link to Guyana through the many 
Guyanese who live in our country, many of whom are dual nationals and 
who maintain close ties with family in Guyana. In fact, over 70 percent 
of Guyana's citizens have family living in the United States. If 
confirmed I will look to work with this talented and hard-working 
diaspora to find ways that their creativity can contribute to building 
a more stable and prosperous Guyana.
    As a Caribbean country geographically in South America, Guyana is 
emerging as a bridge between the two regions. It hosts the Caribbean 
Community (CARICOM) headquarters, and is currently serving as the chair 
for UNASUR, which seeks greater integration of South American nations. 
If confirmed, I will also be accredited to the Caribbean Community 
(CARICOM), which brings together 15 Caribbean states to promote 
regional integration and cooperation. CARICOM has a vital role to play 
in building a secure and prosperous Caribbean, and, if confirmed, I 
look forward to working with the Secretary General and CARICOM members 
to advance our common interests in trade, investment, development, and 
citizen security.
    Mr. Chairman, these are some of the opportunities and challenges 
that await the next United States Ambassador to Guyana. They are 
opportunities and challenges I welcome. If confirmed and entrusted with 
this office, I look forward to working with you and your colleagues in 
Congress to forge a close and productive partnership between the United 
States and Guyana. I assure you that I will seek to represent the 
President and the American people with creativity, dedication, and 
dignity.
    I would be pleased to answer any questions you may have. Thank you.

    Senator Menendez. Thank you, Mr. Hardt. Thank you all for 
your testimony. I welcome your family members and thank them 
for being here.
    Let me start off with a round.
    Mr. Farrar, tell me about the situation in Nicaragua from 
your perspective, as you approach the possibility of 
representing the United States there. What is the political 
landscape?
    Mr. Farrar. Thank you, Mr. Chairman. I would start by 
saying that it is very clear that the United States and 
Nicaragua have some significant differences in the area of 
democratic governance and human rights. We and others in the 
international community have joined in trying to encourage 
strongly Nicaragua to allow international and domestic 
observation of the upcoming elections. We are awaiting still 
the outcome of our entreaties and those of others in the 
international community.
    There are also areas in which we are working together. I 
would mention counternarcotics where the United States is 
cooperating with certain entities in the Government of 
Nicaragua that have a proven track record on interdiction, 
particularly the Nicaraguan Navy.
    And finally, as I mentioned in my opening statement, we are 
working together under the Central America Free Trade Agreement 
and NAFTA--excuse me, CAFTA--CAFTA-DR to--and trade has 
expanded considerably.
    But our No. 1 concern going forward would be the situation 
domestically for the upcoming elections and whether or not 
international and domestic observers will be allowed to observe 
those.
    Thank you.
    Senator Menendez. What is your view of Mr. Ortega's ability 
to run a second time?
    Mr. Farrar. Yes. As you know, the Supreme Court in 2000--of 
Nicaragua in 2009 issued a decision allowing reelection. I was 
not working in Nicaraguan issues at that time, so I am not 
privy to all of the considerations and background that went 
into formulation of U.S. policy at that time. But it is my 
understanding that the State Department issued a statement 
following that decision pointing specifically at the lack of 
transparency and the decisionmaking process that led to that, 
and that that position was also echoed by our Embassy in 
Managua.
    Going forward, I think if confirmed, it would be important 
for me and for Washington to be consulting closely so that as 
the situation evolves on the ground, we would speaking with one 
voice directly to the Government of Nicaragua to express our 
concerns. Thank you.
    Senator Menendez. This is what concerns me. Ambassador 
Callahan had a very clear view. He said it was 
unconstitutional. And since President Ortega got elected in 
2006, he has methodically and shrewdly consolidated his 
political power by subverting his country's democratic 
institutions and his people's basic human rights, including 
freedom of assembly. Now, he is in violation of the country's 
constitution. He is pursuing a second consecutive and third 
overall Presidential terms in national elections.
    His electoral machination suggests he is taking no chances. 
He and the Sandinista supporters are thwarting peaceful 
demonstrations, silencing the business community, taking over 
media outlets, politicizing government offices, and 
expropriating public funds. In what is the second poorest 
country in the Western Hemisphere, Ortega has clearly put his 
own personal enrichment and empowerment over the welfare of the 
Nicaraguan people.
    Now, that is my view, but it is a far different view than 
the one you expressed to me. And I am concerned, as I was 
hoping to hear something different today. I am concerned that 
if the major political view that you have on the landscape is 
the question of election transparency and having observers, 
there's far more than that going on here. And for my own sake 
in terms of being supportive of a nominee to go to this post, I 
want to see someone who is going to make sure that civil 
society has the support of the U.S. Government in a way that 
protects them from this regime and gives the wherewithal, the 
space, the openness, to be able to choose a really transparent 
democratic opportunity for their country.
    And that is why I gave you an open question, to get a sense 
of what your view is. My concern also stems also from your time 
at the U.S. Interest Section in Cuba, because Cuban dissidents 
have said to me that during the time you have been the Interest 
Section there, it has been the least open to their cause and 
concerns. And now you are going to a country that ultimately 
has a lot of issues that are also about democracy and human 
rights.
    Can you assuage my concerns?
    Mr. Farrar. Mr. Chairman, first of all, let me say that it 
is essential for the United States to stand up for our 
democratic principles, whether we are talking about Nicaragua, 
Cuba, or anywhere else in the world. And as we do that, it is 
essential as well that we speak with one voice, whether it is 
from Havana or in Managua, with Washington, so that our message 
is clear, and it is one message and one message only. We have 
to be able to do that directly and clearly.
    We also have to be able to defend the programs that we run 
that stem from our principles. And over the past 3 years in 
Havana, I have had the opportunity to develop, implement, and 
carry forward a broad range of programs to support civil 
society and the free flow of information to, from, and within 
Cuba. Facing at times substantial obstacles, we have managed to 
implement some very innovative programs to support civil 
society in Cuba. And if given the opportunity, we would 
certainly--I would certainly make that my top priority as well.
    I am looking forward to serving in Nicaragua because I 
recognize that in the runup period to the election and then 
afterward, the role of civil society is going to be crucial. 
And our programs can be a limited, but significant, part of 
protecting civil society, protecting its role, and preserving 
democratic institutions. And that is something that has been a 
top priority of mine in Havana, and if confirmed, would be in 
Managua as well.
    Senator Menendez. One final followup before I turn to 
Senator Rubio. Do you share any of the concerns that I 
expressed a minute ago in Nicaragua?
    Mr. Farrar. Yes. I think we are quite concerned with the 
trends in Nicaragua. If you look at last year's human rights 
report, for example, it says that respect for human rights has 
deteriorated in Nicaragua, and it focuses particularly on some 
of the concerns that you mentioned--freedom of assembly, 
freedom of the press, respect for independent media. Yes, on a 
personal level and as an administration, we share some of those 
concerns.
    Mr. Menendez. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman. Mr. Farrar, let us 
begin. I have been in the Senate now 5 months. I was not here 
during most of your role in Havana. And I want to study that a 
little bit because I think you are going into a potentially 
similar situation in Nicaragua.
    I would start by just asking, what is your view or what was 
your view going in to your post in Havana, the role of the U.S. 
Interest Section in Cuba? What did you see as the mission 
statement for the Interest Section?
    Mr. Farrar. I would say going in, our No. 1 priority was 
support for civil society and to expand freedom in Cuba. 
Together with that, it would be protecting American citizens, 
which is our No. 1 priority, around the world.
    Before going to Havana, I did extensive consultations here 
up on Capitol Hill. The one area of consensus that I found was 
that the Interest Section also needed to expand its contact 
with all levels of Cuban society. And we have tried to 
implement programs to carry that out as well.
    Senator Rubio. As you I am sure are aware, before you were 
at that post, the Interest Section had developed in a very 
different direction. Decisions were made that you undid. There 
was the infamous news ticker, the Christmas decorations. In 
addition to that, there were numerous complaints from 
dissidents and others about your reluctance to interact with 
them. I know in September 2009, you hosted a reception where 
there were regime personnel who attended, yet members of civil 
society in Cuba were excluded.
    Were those the decisions that you made, and what was the 
thought process behind some of those decisions, because it took 
the Interest Section in a different direction than it had been 
going previously. What led to those decisions? How were they 
made? Were you involved in making them? What was the rationale?
    Mr. Farrar. Thank you, Senator. Over the past 3 years, I 
would say what we have done is build upon some of the programs 
that were already in place and expand them and implement new 
ones. As an area where we built upon existing programs, I would 
cite the training program for independent journalists. It is 
run by Florida International University, where we recently 
graduated our 500th student from those courses.
    We run two Internet resource centers, one of which we 
rebuilt from the ground up last year. They are the largest 
sources of uncensored free Internet in Cuba.
    We have gone beyond that by instituting basic computer 
courses for Cuban civil society, classes in blogging. Once we 
received permission from the Department of Commerce, we began 
preparing and distributing DVDs with free software and monthly 
updates to help people be able to connect.
    We created a distance learning center. We had no facility. 
We constructed this distance learning center using a railroad 
shipping container that we have converted into a center that 
now has DVC capability, Internet stations, computers, so that 
students in Havana can take college level courses in Spanish at 
our distance learning center.
    The reason we did that was shortly after I arrived in 2008, 
we tried to begin a scholarship program for Cuban students to 
study in the United States, two programs, one a leadership 
program in the summer and the second a year at a community 
college. We advertised that program as you only can in Cuba, 
through word of mouth, by passing out leaflets on the street, 
giving leaflets to other people to pass on to friends and 
acquaintances. We had over 700 students apply for those 
scholarships from around Cuba. We selected the 27 best. None of 
them received exit permits to depart Cuba from the government, 
so we had to find other ways to connect, which we did.
    We have begun training classes for English teachers and 
English language students. The median age of learning English 
language classes is 23. We are connecting with college level 
students in Cuba today, I would say, for the first time.
    In the past year, we have nominated and she won the prize 
as one of the International Women of Courage, Yoani Sanchez. We 
recently nominated the Damas de Blanco, and they received the 
Global Human Rights Defenders Award from the State Department 
for 2010. When it came time for both to receive their awards, 
none of them received permission to leave Cuba to accept those 
rewards. So, we put on ceremonies for them in Havana so that 
they could receive their prizes.
    Last month's ceremony with Damas de Blanco was the first 
time that the 12 75ers who were released over the past year 
were all gathered together. And since that time, we have 
gathered them together again several other times, and they have 
met on their own.
    Senator Rubio. I apologize. I do not want to interrupt 
because this is a list of accomplishments, and those are 
significant, and we can talk about those. I think we will have 
a second round and however else the chairman wants to proceed. 
But I think the question was really related to the nature of 
the Interest Section and its mission.
    Before you arrived, the Interest Section was viewed as 
having a more adversarial--would you concede that it was 
considered more adversarial by the regime before your arrival?
    Mr. Farrar. I don't want to characterize how it was before 
I arrived, but what I would say is the Interest Section has, 
is----
    Senator Rubio. The Interest Section changed after you 
arrived. And the changes that you made, specifically some that 
I outlined, but its view, its mission statement, would you not 
concede that its mission changed, the way it conducted business 
changed in terms of its interaction with the government?
    Mr. Farrar. I think the mission statement support for civil 
society and in democratic progress did not change. What changed 
was we tried to expand the ways that we go about doing that.
    Senator Rubio. OK, the way that you went about doing that, 
right. And so, would you characterize the way they used to do 
things before as more aggressive? You know, obviously the 
ticker, the Christmas decorations, things that clearly 
antagonized the Cuban Government. You took the Interest Section 
in a different direction in terms of its tactics. My question 
is, What was the thought process behind using these different 
tactics? Well, why did you decide to go in that direction after 
the Interest Section had been going in the other direction? I 
just want to know the thought process behind it, the 
justification. You know, what prompted you to go that route?
    Mr. Farrar. Yes. I would say that our goal was to support 
civil society in Cuba and to expand the Interest Section's 
contacts with all levels of Cuban society. And in order to do 
that, we had to come up with new programs that we could use to 
reach out, to reach out more broadly than we had done in the 
past. And that is the direction that we went.
    Senator Rubio. But was it your view that by taking down 
some of these programs that antagonized the regime that you 
would have more space to carry out these programs? Was the 
thought that if we do not go over the top--if we do not offend 
or try not to offend the regime, we will have more space to 
carry out our mission. Was that your view?
    Mr. Farrar. No. I think we were looking for the programs 
that would be most effective. If I could go back for just a 
second to the distance learning program. We did not have any 
facility in order to implement such programs. We had to get 
this shipping container moved on to the premises of the 
Interest Section, which took a long time, but we were able to 
do.
    Subsequent to that, I have been called into the Foreign 
Ministry four times for their presentations on how this program 
violates the Vienna Conventions, a view with which we 
completely disagree. But our No. 1 concern is not what the 
possible effect might be on the Government of Cuba. It is what 
will be most effective in terms of supporting civil society and 
expanding the free flow of information to, from, and within the 
island.
    Senator Rubio. OK. You know, there were--and I know I have 
gone over time, so we can come back to this or we can move on 
in a second. But your relationship and your description of 
dissidents and the dissident movement on the island has been 
described as reluctance and disinterest. What is your view and 
what was your thought process regarding dissidents on the 
island and your relationship with them in comparison to that of 
your predecessors at the mission?
    Mr. Farrar. I think we--and I--have a long and deep 
relationship with civil society in Cuba. And if anything, it is 
a broader relationship than it has been in the past. Civil 
society in Cuba knows that the Interest Section is the bulwark 
of support, that we have the interests of the Cuban people at 
heart. And the programs we have, the outreach that we do, is 
all aimed at that.
    I think events, such as the one that I described, where we 
gave the award to the Dames de Blanco for the global human 
rights defenders. And we brought together in one room them and 
their relatives who had been released, and provided a venue 
frankly for them to begin to talk with one another and to see 
how, now that they have reincorporated themselves into daily 
life, how they want to go about promoting civil society in 
Cuba. That is something that the Interest Section can offer and 
probably there is no other institution in Havana that can do 
so.
    Senator Rubio. My last question on this round, and it goes 
directly to this point. There is a press report that on April 
2009 and dispatch that you signed, you said that Cuba's pro-
democracy activists and their focus on human rights did not 
resonate with Cubans, who are more concerned about having 
greater opportunities to travel freely and live comfortably. 
Does that remain your view, that Cuba's pro-democracy activists 
and their focus on human rights does not resonate with Cubans?
    Mr. Farrar. Yes. I am not sure of the source of that quote. 
If it is--has to do with WikiLeaks, we of course cannot comment 
on the validity or not of a source such as that.
    I have said many times that our No. 1 objective in Havana 
has been support for civil society, expanding their operating 
space, and trying to improve the information flow and out of 
the island. At other times I have said that they are the 
conscience of Cuba, and I stand on that. Thank you.
    Senator Menendez. We will do a second round here. I will 
get to some of you. I do not want you to feel left out of the 
process. I know you would rather have questions than not have 
questions.
    But I just have one more followup, Mr. Farrar. This is the 
nature of the challenge here. When I hear you respond to 
Senator Rubio, you talk about broader civil society, and that 
is admirable. But every time our questions are about human 
rights activists and political dissidents, your responses are 
of broader civil society. Why is it that human rights activists 
and political dissidents inside Cuba who I have talked to, 
including during a recent trip to Spain where I met 50 of those 
who were released from Cuban jails, say they feel that there 
was less engagement, less access from the Interest Section 
during your tenure.
    I do not believe having your political affairs director 
smoking a cigar with a narcotics trafficker is reaching out to 
civil society. If you were going to some other country, maybe 
this would not be an issue. But many of us on this committee, 
and certainly I as the chairman of the subcommittee, have 
serious concerns about where Nicaragua is headed.
    So the ability to engage not just with civil society, but 
with human rights activists and political dissidents 
languishing inside of their country to create the space that is 
necessary for the proper democratic process to take place is 
very important. That is why it is critically important for us 
to understand where you came from so we can know what to expect 
of you in your next post.
    I want to give you the chance to give me some sense of how 
you will engage differently in Nicaragua. And maybe your answer 
is there is no difference, in which case, you know that would 
be it.
    Mr. Farrar. Senator and Mr. Chairman, I share your concern 
about strengthening and supporting civil society. That is what 
we have endeavored to do over the past 3 years.
    If I may go back to the example of Damas de Blanco, after 
our ceremony presenting them with the Global Human Rights 
Defenders Fund Award, 2 weeks later we brought back the former 
75ers to give them 2 days of intensive training on computers, 
on the world that had passed them by during their 8 years in 
Cuban prisons.
    We are engaged in looking for practical ways that we can 
help human rights activists, civil society members, get their 
message out and engage better to advance the cause of democracy 
and human rights. And it is that same mission of trying to find 
ways that will work that I would, if confirmed, look to carry 
forward in Nicaragua.
    Senator Menendez. Thank you for your answer. Ms. Kubiske, 
let me ask you, President Zelaya has returned to Honduras. That 
was part of the condition for Honduras' return to the OAS, 
along with assurances of the government that his political 
allies would be allowed to participate in politics.
    Can you comment on what you view as the political climate 
in Honduras and the meaning of Zelaya's return for the 
stability of the Lobo government?
    Ms. Kubiske. I think in the first instance, it was quite a 
triumph that Honduras, with the help of neighbors in the 
hemisphere, were able to get to the point where Honduras could 
be brought back into the OAS. And so, they are now in a 
position to move forward.
    Having said that, I understand that the atmosphere 
continues to be fragile and polarized. There is no question 
about that.
    As part of the project of national reconciliation as you 
mentioned, Mr. Chairman, there was a condition of Zelaya's 
return. And so, we hope and we urge--I hope and I urge--if I 
were confirmed, that he would play a constructive role.
    Senator Menendez. What do you think is the stability of the 
Lobo government?
    Ms. Kubiske. I think they have--I am going to answer it 
indirectly to be frank. They have taken many important steps 
forming a unity government that has opposition members in it 
and establishing a truth and reconciliation commission to go 
over what happened in the past and to try to make 
recommendations for how to prevent it.
    I think I would see my role as putting a lot of priority on 
strengthening democratic institutions because there is an issue 
of having a system that will avoid a political crisis, such as 
the one that occurred in 2009.
    Senator Menendez. Let me ask you a question that is local 
in nature, but I would like to get your commitment should you 
be confirmed to work with me on this.
    In May of last year, a constituent of mine, Joe Dunsavage 
disappeared off the coast of Honduras in his boat, and despite 
extensive efforts, neither he nor his boat were recovered. His 
brother, his wife, and his kids have been seeking a certificate 
of presumptive death from the Department for more than a year 
to no avail. Will you work with me in trying to help this 
family come to a conclusion so that we can have them have a 
measure of closure and be able to deal with the challenges of 
their estate?
    Ms. Kubiske. The short answer is absolutely. The longer 
answer is what happens to American citizens is a core objective 
of our foreign policy and taking care of people. I know that 
the Embassy and the State Department both have worked hard on 
the case, but I would welcome the opportunity, if I were 
confirmed, to take a closer look and see if there is anything 
more we can possibly do.
    Senator Menendez. I appreciate that. We look forward to 
doing that with you.
    Mr. Thessin, with reference to Paraguay, I mentioned that 
it captured an enormous amount, in monetary terms, of cocaine, 
875 kilos. What do you view as the nature of our 
counternarcotics cooperation with Paraguay? And how committed 
do you think the Paraguayans are to a strong bilateral 
relationship with the United States to control illicit activity 
of that and other sorts in the Tri-Border region?
    Mr. Thessin. Counternarcotics is an area that is obviously 
a high priority for the United States Government--the 
President, the Drug Enforcement Administration, and the 
country. And DEA has a very close working relationship with the 
Paraguayan authorities. They have been training units to go out 
and look for and seize narcotics that might be transiting the 
country. They have reported to me that they have been receiving 
good cooperation.
    If confirmed, I would continue to make counternarcotics a 
high priority. This is important to the United States. Beyond 
that, the Tri-Border Area is an area of particular concern for 
United States and Paraguayan law enforcement. The area is 
notorious for corruption, for money laundering, for smuggling. 
And whenever you have that kind of money floating around from 
illicit gains, there is also concern then that it is used to--
some of it is going to fund terrorism in the Middle East, for 
example.
    There is no corroborated evidence that there is an active 
terrorist cell in that area. But it is an area that we have 
clearly in our focus, as do the Paraguayans, and the 
Argentines, and the Brazilians. So, if confirmed, this is an 
area we will give tremendous attention. We will work with the 
Paraguayan government to build its democratic institution to 
deepen its roots so that the government can deliver services 
and be trusted by the people.
    Senator Rubio. Thank you.
    Mr. Hardt, let me just ask you, I know we often overlook 
Guyana in the panoply of Latin American nations, but on the 
economic front it has resources that are a basis for growth and 
development. And I understand it has agricultural, 
aquacultural, eco-tourism, mining, wood products, as well as 
possible oil reserves offshore that could be as extensive as 
those that are found in Angola.
    What would you do if confirmed to help track U.S. foreign 
investment to help develop these resources?
    Mr. Hardt. Thank you, Mr. Chairman. If confirmed, I would 
certainly look to continue the programs that we have ongoing in 
Guyana already to foster economic growth and opportunity. The 
areas you mentioned do have a lot of potential, but they also 
have a number of obstacles. And through USAID programs, we have 
been working to try to identify new markets, develop 
institutions within each of these sectors to strengthen their 
outreach to potential markets, and to create more opportunity 
for these sectors, certainly on the oil and gas front, which is 
a potential game changer in many ways for Guyana.
    We are working through an energy governance capacity 
initiative to build the government's ability, should this oil 
prove to be as our geological surveys anticipate that they 
would have the ability to manage it, to regulate it, and to 
ensure that the oil goes to the development of the country and 
the people of Guyana in a way that will raise them out of their 
current level of poverty.
    Senator Menendez. We are closing our USAID mission--in 
Guyana. And we have programs like PEPFAR that we are closely 
engaged in there. Since you are in Barbados now, do you think 
that the mission in Barbados can be as effective in monitoring 
the progress and coordination of those programs that we have 
going with USAID?
    Mr. Hardt. Well, I know that the mission in Barbados can be 
very effective. I am pleased----
    Senator Menendez. It was not a trick question----
    [Laughter.]
    Senator Menendez [continuing]. I am sure they are effective 
in Barbados. The question is, Can they be as effective in 
operating and overviewing what is going on in Guyana?
    Mr. Hardt. Well, certainly I do not think it can ever be 
said that you can be more effective than being on the ground. 
That is going to be the most effective way to manage a program. 
But obviously AID is making--is facing budget limitations, and 
in the context they are seeking to reutilize some of their 
efforts. We have excellent working relationships within the 
region. We are working regionally on the PEPFAR program in the 
partnership framework. We are working regionally on the 
Caribbean Basin and Security Initiative. So, we have a pattern 
of working regionally, and I think we can continue that. And, 
you know, I look forward to engaging, you know, with our 
Embassy in Bridgetown--when I am Georgetown, if confirmed, and 
believe we can continue the good programs that we have ongoing 
already.
    Senator Menendez. Senator Rubio.
    Senator Rubio. Thank you. And just to wrap up, Mr. Farrar, 
and then I want to move to some other questions. First of all, 
I did not thank you for your service to our country, a long 
career, and to your family as well for doing that. And you and 
I have never met. We have not spoken before on these issues, 
and I look forward to talking to you more about these in the 
future.
    I just want to leave on the record what my concerns are, 
not just specifically about the nomination, but in general 
about the situation in Nicaragua. You have a government there 
that's conducting an all-out assault on the constitutional 
order and on the independence of government institutions. You 
have a--Daniel Ortega, who is using his relationship with Hugo 
Chavez not just for personal enrichment, but to create an 
alternative basically government in terms of funding 
mechanisms, for many things that are happening.
    You have a government that is openly supporting Moammar 
Gadhafi, openly supported Russia's invasion of Georgia, and the 
creation of states out of that invasion.
    And in the face of that, we have to send someone to be the 
face of the United States in Managua. And I think that should 
be someone who is going to be forceful. You are not going to 
Luxembourg. It is not Lichtenstein. This is a place that is 
headed in the wrong direction in a hurry, and America needs a 
forceful presence there.
    And I have to be honest. We do not know each other well. I 
have only known about your record from what I have read in 
preparing for this hearing today. But I am concerned about some 
of the decisions that you made at the Interest Section in 
Havana. We have complaints--numerous complaints from dissidents 
and human rights activists. We have instances of invitations to 
Castro regime officials at the expense of others in civil 
society to be at certain events. Some other decisions--you 
know, some of the things, talking about the Christmas tree and 
the Christmas stuff that was taken down, the ticker. And these 
may be symbolic, but they were certainly part of a forceful 
presence in the area.
    And then to top it all off, we have State Department 
officials visiting Havana, and instead of staying at the 
Interest Section, and maybe there is a good reason why they did 
not stay there, they stayed at the Hotel Nacional, which in 
addition to being an expropriated property, appears to me to be 
a security risk to stay in a place like that in a country like 
that.
    Suffice it to say that it is my opinion, just from the 
little I know, and I could be dissuaded--I mean, that is what I 
want to hear today--that the strategy that you adopted at the 
Interest Section was not to offend or to try to avoid offending 
or being abrasive with the Castro government because you felt 
perhaps it would give you more space to function and carry out 
your mission.
    Obviously you have the right to respond to that, and maybe 
you view it very differently. But I am concerned about that 
because it is not what I think I would like to see as the 
strategy in Managua. And maybe there are distinctions, and 
maybe you will handle that post differently. I would give you 
the opportunity to respond to that. I do have questions for all 
four panelists as well. But if you would like to respond to 
that.
    Mr. Farrar. Yes. Thank you, Senator I think I have a 30-
year record of service to the United States. My previous 
position before going to Havana was as the Principal Deputy 
Assistant Secretary of the Bureau of Democracy, Human Rights, 
and Labor where I worked with civil society around the world. 
While I was in the Bureau there, we developed some of the very 
programs that we were then able to take advantage of and use in 
Havana. I am talking about programs such as the Global Human 
Rights Defenders Fund, which was created while I was in the 
Bureau.
    Civil society, human rights, is near and dear to my heart. 
It has been part of my career for almost 30 years now. In 
Havana, we have been trying to find the most effective ways to 
communicate, to expand space for civil society.
    The world changes, and we come up with new programs in 
order to be able to connect. Some of those new programs are 
ones that I described--the blogging classes, the computer 
classes, distributing free software. We still do some of the 
old methods as well. In the first 8 months of this fiscal year, 
we distributed 21,000 copies of the El Nuevo Herald in Cuba. 
Some of the old methods work, but we need to be innovative and 
creative in trying to work with civil society, whether it is in 
Cuba or whether it is Nicaragua or anywhere else around the 
world. And that is truly what I have dedicated my time to. 
Thank you.
    Senator Rubio. OK. I have the same question for all four 
panelists.
    We are facing, as you all well know, fiscal constraints and 
a great debate going on in this city about what America should 
be spending money on, particularly when it comes to foreign aid 
and foreign programs. Have you given thought to one 
investment--if you were prioritize and come up here in your new 
post a year from now, 6 months from now, make a recommendation 
on one investment that you think would give us, for lack of a 
better term, the most bang for our buck, in your particular 
assignments, have you identified such a program? Have you given 
some thought to which one program would give us the highest 
rate of return on our investment in each of your respective 
countries? It does not have to be a specific program. I mean, 
it could be area of expenditure. Where should our focus be 
basically when we spend money on foreign aid or other presences 
in the different countries? And, I guess, Mr. Hardt, we will 
hear from you.
    Mr. Hardt. Certainly. Over the past few years I have been 
working in the Caribbean to implement the President's Caribbean 
Basin and Security Initiative. And I think that program is 
ideally suited to the needs of the region. When we developed 
it, it was based on listening to people in the region, hearing 
what their concerns and priorities are, and trying to respond 
to that. And it combines a nice mix of traditional support for 
capacity building among law enforcement and military groups, 
but also efforts to look at the root causes of crime in the 
region and to support at risk youth and educational programs 
for young people. And I think this balance is clearly what we 
need to be doing. We need to obviously go after the drug 
traffickers and the criminals, but we also need to deal with 
the fertile ground that creates them. And certainly I would 
hope that we would be able to keep that program strong.
    Mr. Thessin. Senator, that is a very good question that I 
have given a lot of thought to.
    My procedure for doing--for looking at something like this 
would be to talk to the country team and to talk more with 
Washington about their experience on the programs because I am 
not as familiar with them as they are.
    But I think, though, when you look at what Paraguay needs 
right now, it is to help institutionalize its democracy. That 
is the kind of programs that the President in Paraguay has 
asked for our help. And that includes things like helping to 
fight corruption, helping to train the police, helping to make 
the government deliver its services more effectively to the 
people. And those are programs that I think pay off because 
that may be the engine for starting a country that is less 
corrupt, that has less corruption in it, that has better 
government services, where the government is trusted, where 
democracy takes deeper root. And I think that is very much in 
our interests, and that is the first place that I would look to 
try to protect.
    Mr. Farrar. Thank you, Senator. I would cite areas that I 
do not think would actually cost any more money. The first 
would be looking ahead to the run up to the election in 
November and beyond. I think we should examine the mix of civil 
society programs for Nicaragua to make sure, together with the 
Congress, that we have the right mix moving forward, depending 
upon what the situation is on the ground there at that time.
    The second I would mention would be in the area of 
counternarcotics, to look at the agencies that we are working 
with in Nicaragua, make sure we have the right ones there, but 
also to encourage Nicaragua to take advantage, to use the 
opportunity to train officials at the International Law 
Enforcement Academy in El Salvador. They have access to that. 
They are not using it. That is a space that could be utilized. 
Thank you.
    Ms. Kubiske. Senator, you have asked a very fair question. 
I think the problems in Honduras interrelate. If you ask 
Hondurans what is their top concern, it is insecurity and the 
culture of impunity, and that is obviously an area that we need 
to focus on.
    If you look from the narrowest, most hard-nosed United 
States perspective, you can say that we need to support helping 
Hondurans have opportunities in Honduras so that they do not, 
as somebody has pointed out, have choices between joining a 
cartel and drugs or going illegally or sometimes legally to the 
United States.
    I cannot tell you one area because I think the way to 
answer that question is to see what kind of assistance cannot 
be provided from another source. But I would be happy to talk 
with you later and to talk with others and give you a much more 
specific, concrete example if that would help you.
    I do have a very strong view that to have a successful 
economy, you need to have opportunities for poor people. And 
so, a big part of what I would like to see more of is support 
for the kinds of programs that provide job-related skills to 
Hondurans, or that connect Hondurans to markets. Hopefully, 
those things would be win-win for both of us.
    But as I said, it is very hard to disentangle the citizen 
security part from the economic part.
    Senator Menendez. Well, thank you all for your appearance 
and your answers. Thank you for your service to our country, 
each and every one of you, and for your willingness to serve. 
Senator Inhofe has asked unanimous consent for a series of 
questions to be included in the record. Without objection, they 
are so ordered.
    The record will remain open for 48 hours. During those 48 
hours, I can assure you that there will be a series of 
questions that will come forward, and I would urge each of you 
to answer as quickly as possible since it will expedite the 
consideration of your nomination.
    Senator Menendez. With that, the committee is adjourned.
    [Whereupon, at 3:16 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of D. Brent Hardt to Questions Submitted by
                        Senator Robert Menendez

    Question. In November, Guyana will host Presidential and 
parliamentary election. The election board, however, has expressed 
concern that 49,000 voters have not claimed the registration cards that 
allow them to cast ballots.

  <bullet> What steps is the government taking to address this issue?
  <bullet> What role will the United States and international community 
        play in ensuring that the elections are free and fair--both in 
        the lead up to the election and on election day?

    Answer. Although the date for the 2011 national elections has not 
been set, they are expected to be held between October and December. As 
of June 4, 46,687 registration cards were unclaimed according to the 
Public Relations Officer of the Guyana Elections Commission (GECOM). 
The GECOM has a systematic plan to distribute the cards, which includes 
advertising the availability of the cards on the radio and distributing 
lists of individuals who have unclaimed cards to all political parties. 
GECOM will soon begin delivering unclaimed cards to residents in remote 
areas of Guyana via a network of temporary field offices. The 
Government of Guyana intends to invite observers from the Caribbean 
Community and the Organization of American States to monitor the 
elections, but at this time, no formal invitations have been extended.
    The Embassy, through USAID, is the most visible international 
elections donor. It is working actively to ensure that the elections 
are free and fair through technical assistance to GECOM, grants to 
civic organizations and NGOs to promote voter participation and open 
dialogue, including a program addressing first time voters, and a grant 
to facilitate the participation of disabled persons in the election.

    Question. Closure of USAID mission in Guyana. Last fall, USAID 
announced plans to close its AID mission in Guyana. USAID's presence 
has allowed it to coordinate PEPFAR programs in coordination with the 
Centers for Disease Control. USAID has also been a key factor in 
coordinating our aid with donors like the Inter-American Development 
Bank (IDB), the British Department for International Development 
(DFID), the Canadian International Development Agency (CIDA), and the 
European Union.

  <bullet> What kind of message do we send to Guyana and to the 
        Caribbean region as a whole when we withdraw coordination of 
        much-needed programs in health care and disease prevention?
  <bullet> Will the mission in Barbados be as effective in monitoring 
        the progress and coordination of these programs?

    Answer. In order to achieve its global sustainable development 
objectives, USAID is consolidating resources in priority countries and 
sectors. As a cost-saving measure, USAID plans to manage its Guyana 
projects from its regional office in Barbados. USAID has determined 
that it can manage and coordinate these activities from Bridgetown and 
achieve cost savings.
    USAID's Office in Barbados is a regional platform that already 
manages an extensive and robust HIV/AIDS program in the Caribbean and 
has a strong professional staff. Despite the pending closure of our 
USAID office in Guyana, we have sought to assure the Government and 
other health and civil society partners that USAID will remain active 
in Guyana implementing our HIV/AIDS, CBSI, and economic growth 
programs.
                                 ______
                                 

        Responses of James H. Thessin to Questions Submitted by
                        Senator Robert Menendez

    Question. Tri-border Region--International Terrorism: We don't hear 
much about Paraguay. It's the size of California and has a population 
of 6\1/2\ million people. It's tucked away between Bolivia, Argentina, 
and Brazil. We share in interest with Paraguay in ensuring that this 
Tri-Border Area does not become a nesting ground for narcotics or, even 
worse, terrorist activities. There continue to be reports linking the 
tri-border region to international terrorist groups, such as Hamas and 
Hezbollah. A 2009 RAND study examined how Hezbollah has benefited from 
film piracy proceeds in the tri-border and the State Department 
terrorism report maintains that the United States remains concerned 
that Hezbollah and Hamas sympathizers are raising funds among the 
sizable Middle Eastern communities in the region. Hezbollah is also 
linked to two bombings in Argentina: the 1992 bombing of the Israeli 
Embassy in Buenos Aires that killed 30 people and the 1994 bombing of 
the Argentine-Israeli Mutual Association (AMIA) in Buenos Aires that 
killed 85 people.
    Is it your sense that Paraguay is committed to a strong bi-lateral 
relationship with the United States and to controlling illicit activity 
in the triborder region? If confirmed, what priority would you place on 
addressing the proliferation of illicit activities in the region and in 
encouraging the regional governments to seriously address the panacea 
of criminal activity that is known to occur in this area?

    Answer. If confirmed, I will continue to make it a high priority of 
Embassy Asuncion to work to counter terrorism, violent extremism, and 
narcotics trafficking while addressing illicit activity in the Tri-
Border Area, including corruption, money laundering, and piracy of 
intellectual property.
    It is my sense that Paraguay is committed to a strong bi-lateral 
relationship and to controlling illicit activity in the Tri-Border 
Area. I will work with the Government of Paraguay to maintain this 
strong relationship and to continue to support Paraguay's efforts in 
this area. However, poverty, corruption, and the limited capacity of 
Paraguay's security services all challenge its law enforcement efforts.
    This is where the United States has the potential to do much to 
help Paraguay strengthen its democratic institutions, including through 
the continuation of our efforts in the areas of counternarcotics, money 
laundering, law enforcement training, information-sharing, and 
counterterrorism. As Ambassador to Paraguay, I will work hard to do 
just that. I will also work with our country's leading experts in 
Washington and our Ambassadors to Brazil and Argentina on how the 
United States can best coordinate its work with Brazil, Argentina, and 
Paraguay to control illicit activities in the Tri-Border Area.

    Question. Counternarcotics: Last week, Paraguay captured a record 
haul of 875 kilos or $131 million in cocaine. U.S. drug enforcement 
agents were reportedly called in after workers at the private Phoenix 
river port grew suspicious about rice from the Tri-Border region. What 
is the nature of our counternarcotics cooperation with Paraguay and 
other countries in the region? Are these countries sufficiently trained 
and equipped to cope with those growing problem? To what extent is 
corruption, particularly by officials, an issue with respect to the 
trafficking of narcotics?

    Answer. The recent seizure of 875 kilograms of cocaine in a 
container of rice at a Paraguayan river port illustrates one of the 
biggest law enforcement challenges facing Paraguay: the use of the 
country as a transit route for Andean cocaine headed to Argentina, 
Brazil, Europe, and elsewhere. Paraguay is also a source of marijuana 
for neighboring countries.
    Counternarcotics responsibilities are shared by Paraguay's Anti-
drug Secretariat (SENAD) and the Paraguayan National Police (PNP). The 
leadership of both institutions strongly supports law enforcement 
cooperation with the United States and regards illicit narcotics 
trafficking as one of the most serious threats facing Paraguay. The 
recent cocaine seizure you mention took place as a result of the fine 
cooperation that exists between U.S. and Paraguayan authorities.
    Corruption is a significant factor hampering Paraguayan law 
enforcement, but progress is being made. Both SENAD and the PNP receive 
financial and operational support from the U.S. Government. The U.S. 
Drug Enforcement Administration supports sensitive investigative units 
(SIUs) in both SENAD and the PNP, and those units have had several 
successes in recent months, including the 875 kilogram seizure.
    If confirmed, I would make it a high priority to support U.S. 
counternarcotics efforts, including DEA's efforts to counter illicit 
trafficking by land, air, and water and to improve controls in 
Paraguay's container ports.
    I appreciate your question regarding regional efforts to combat 
narcotics trafficking. As with Paraguay, Brazil, and Argentina have 
cooperated effectively with the United States on counter narcotics 
matters. All three countries have had successes against narcotics 
trafficking; all three have policies and programs designed to confront 
official corruption. We believe that all three countries are committed 
to advancing their ability to counter this serious problem.
                                 ______
                                 

         Responses of Jonathan Farrar to Questions Submitted by
                        Senator Robert Menendez

    Question. In many Latin American countries, there seems to be a 
tendency toward autocracy and longevity in office. Different countries 
handle the temptation differently. Mexico has one 6-year term. They 
proclaim ``Suffragio Efectivo--No Reeleccion'' or Effective Suffrage--
No Reelection. It was adopted in their constitution as a result of 30 
years of dictatorial rule and a revolutionary struggle that last over 
10 years.
    Many nations have held constitutional referendums or used other 
means to remove limits on Presidential terms--to extend it to two 
terms, in some cases three terms. In the case of Venezuela under 
Chavez, term limits have been removed completely.

  <bullet> What is your sense of this trend toward autocracy?

    Answer. The region's commitment to democratic development is 
widespread and strong. This commitment gives Latin Americans a special 
role in helping support other nations making the difficult transition 
to democracy today. As Secretary Clinton has noted, ``This hemisphere 
can do much more to guard against threats and challenges to democracy 
closer to home. In some countries, insecurity and a lack of opportunity 
remain real obstacles. In others, democracy is being rolled back rather 
than strengthened. Cuba remains a glaring exception to the democratic 
convergence. That is something that all of us have to face up to and 
work toward dealing with.'' I share Secretary Clinton's commitment to 
protecting fundamental freedoms and, if confirmed, I will work to 
promote democracy and respect for human rights in Nicaragua.
    The United States has expressed its concerns in Nicaragua regarding 
the Supreme Court decision which cleared the way for President Ortega 
to run for reelection. As Ambassador to Nicaragua, I would commit my 
efforts and those of the Embassy to engaging with civil society, which 
often serves as a bulwark against the future undermining of democratic 
institutions.

    Question. Since his reelection in 2006, Nicaraguan President Daniel 
Ortega has methodically and shrewdly consolidated his political power 
by subverting his country's democratic institutions and his people's 
basic human rights, including the freedom assembly. Now, in violation 
of the country's constitution, he is pursuing a second consecutive and 
third overall Presidential term in national elections this November. 
His electoral machinations suggest he is taking no chances. He and his 
Sandinista supporters are thwarting peaceful demonstrations, silencing 
the business community, taking over media outlets, politicizing 
government offices, and expropriating public funds. In what is the 
second poorest country in the Western Hemisphere, Ortega has clearly 
placed his own enrichment and empowerment above the welfare of the 
Nicaraguan people.
    I hope that you will agree that the deteriorating political 
situation in Nicaragua is alarming and likely to worsen without greater 
international engagement. With Nicaragua's opposition party fractured, 
civil society is the only meaningful check against this increasingly 
authoritarian Ortega regime, and yet, civil society organizations are 
operating with few resources and under constant threat from Sandinista 
forces. Prodemocracy activists valiantly fighting to protect democracy 
need greater U.S. support--both moral and financial.

  <bullet> Can you assure the committee that you will be an ally and 
        advocate for those brave men and women defending human rights 
        in Nicaragua, and in what ways do you believe we can step up 
        our support for civil society groups in Nicaragua?

    Answer. I can assure the committee that I share its concerns about 
the erosion of democratic institutions in Nicaragua. If confirmed, I 
will continue to be a passionate advocate for human rights and 
democracy and work with human rights defenders. I will be outspoken 
about the importance of protecting fundamental freedoms and democratic 
institutions, and urging greater respect for human rights, 
transparency, and separation of powers. I have worked closely with 
civil society in Latin America during a career that spans three 
decades. Additionally, I will bring to bear my experience to ensure 
that our efforts are the most effective possible in the environment 
which prevails in Nicaragua today.
    I will continue to advocate for the engagement of civil society at 
the local and national level, a viable independent media, an informed 
citizenry, strengthened local government, and effective political party 
participation. All of the programs that further these goals are crucial 
to building a sustainable democratic foundation in Nicaragua and must 
be protected in the face of declining resource levels for U.S. 
assistance.

    Question. Mr. Ortega is illegally seeking another Presidential 
term. What do you believe U.S. policy should be toward his candidacy?

    Answer. The U.S. Government expressed its concern in 2009 about the 
manner in which the Nicaraguan Supreme Court made its decision allowing 
the reelection candidacy of President Ortega. The United States and 
others in the international community are concerned that the upcoming 
elections be a valid expression of the true will of the Nicaraguan 
people. We must speak up in defense of our democratic principles and 
convey our concerns about threats to democratic institutions as they 
arise. For that reason, the United States has pressed for the presence 
of credible domestic and international observers to enhance prospects 
that the elections will be carried out in a free, fair, and transparent 
manner and to provide effective witness if they are not.
    We must be prepared to discuss our concerns directly with the 
Nicaraguan Government, both in Washington and in Managua, in a 
coordinated manner. If confirmed, I would do so vigorously.

    Question. Mr. Ortega is not only seeking reelection; he is also 
looking to secure 56 seats in the National Assembly--a supermajority 
that would allow him to rule without any real checks on his power. 
Understanding that time is running out for an effective domestic and 
international election observation initiatives, what can the U.S. 
Government and the international community do to persuade Mr. Ortega to 
immediately accept independent election observers?

    Answer. The administration has said clearly that the manner in 
which the upcoming elections are held and observed will inevitably 
affect Nicaragua's relationship with the international community, 
including the United States. Allowing credible and timely domestic and 
international observation of the upcoming elections would demonstrate 
whether they represent a valid expression of the will of the Nicaraguan 
people and assuage concerns of the international community.

    Question. The current Government in Nicaragua, and the Government 
in Cuba, where you served as chief of mission, are similar in many 
respects, including their strong alliance with Hugo Chavez and their 
hostility toward the United States. How would you describe U.S. policy 
toward Cuba, before and after you becoming chief of the U.S. mission in 
Cuba?

    Answer. U.S. policy toward Cuba has consistently been to advance 
the national interests of the United States by assisting the people of 
Cuba to freely determine their own future. The policies and programs 
that the Obama administration has put in place aim to advance those 
vital objectives.
    In January 2011, President Obama directed changes be made to 
regulations governing travel, nonfamily remittances, and U.S. airports 
providing licenses to charter flights between the United States and 
Cuba. These measures were taken to support civil society in Cuba, 
reduce the dependence of the Cuban people upon the state, and enhance 
the free flow of information to, from, and within Cuba. President Obama 
has stated that these steps, combined with the continuation of the 
embargo's controls over trade and investment with Cuba, are important 
steps in reaching the widely shared goal of a Cuba that respects the 
rights of all of its citizens. These latest measures were undertaken to 
build upon the President's April 2009 actions to help reunite divided 
Cuban families, to facilitate greater communication between the United 
States and Cuba, and to increase humanitarian flows to the people of 
Cuba.

    Question. Could you share with the committee the lessons you 
learned in Cuba about how to deal with the Castros' regime and how you 
would apply those lessons to your post in Managua, if confirmed?

    Answer. My experience over the past 3 years in Cuba has reaffirmed 
my conviction developed over 30 years in the Foreign Service with 
regards to the essential role which the United States must play in 
supporting those who are helping to build an independent civil society 
in the face of severe government reprisals. This includes our support 
for pro-democracy activists, human rights defenders, independent media, 
and other courageous men and women who peacefully demand greater 
respect for universal and basic rights such as freedom of association, 
expression, and information. In Cuba, I have been persistent and vocal 
in standing up for these rights and those who demand them, and creative 
in supporting them, while responding to the evolving needs of those on 
the ground who are leading the fight to exercise these fundamental 
freedoms.
    The position of the United States on the release of political 
prisoners in Cuba has been clear and consistent: all political 
prisoners should be released and be able to decide for themselves 
whether to remain in Cuba. In the ceremony I held at the Interest 
Section presenting the State Department Annual Human Rights Defenders 
award to the Damas de Blanco, my remarks highlighted our common 
commitment to see the day when there are no more political prisoners in 
Cuban jails for nothing more than peacefully exercising their basic 
rights.
    In addition to the Damas, whom I nominated for the 2010 Human 
Rights Defender Award, I also proposed that the Department recognize 
Dr. Darsi Ferrer in 2009 for that year's award, and Yoani Sanchez for 
the 2010 International Women of Courage Award. Sanchez won, while Dr. 
Ferrer was one of the three runners up. I nominated these individuals 
because I felt that publicly recognizing the valor and legitimacy of 
independent activism, regardless of the Cuban Government's reaction, is 
critical and an important element for promoting human rights and 
democracy, particularly in countries which systematically violate human 
rights like Cuba.
    Moreover, during my 3 years at the Interest Section, I focused on 
ensuring our commitment to human rights and democracy at the Interest 
Section truly is missionwide, and I have not budged from our principled 
stance, both in Havana and in Washington, even when those with whom we 
work have come under attack. Our Foreign Service officers have been 
harassed by government-sponsored mobs and media when carrying out their 
duties of observing peaceful protests. In close coordination between 
the Interest Section and Washington, we have answered our critics and 
resisted Cuba's pressure to curtail our outreach activities and human 
rights observation. Our Interest Section engages directly with civil 
society activists, including members of Cuba's political opposition, 
former political prisoners, human rights activists, and broader civil 
society activists.
    As noted in our most recent ``Human Rights Report,'' the United 
States has serious concerns with the deterioration of the respect for 
human rights and democratic institutions in Nicaragua, especially in 
the areas of freedom of assembly, freedom of speech, and respect for 
independent media. Similar to what I did in Cuba, I will work with 
friends and allies in the international community on the ground who 
share our commitment to strengthening democratic institutions and be 
ready to speak up in defense of our democratic principles and to convey 
our concerns, both directly to the Government of Nicaragua and more 
broadly, about any threats to democratic institutions.
    At the same time, we must sustain consistent efforts to help 
protect those who may be persecuted for their peaceful dissent and to 
strengthen democratic institutions in Nicaragua regardless of the 
outcome in November. If confirmed, I would look forward to working with 
the committee and other Members of Congress in adopting the appropriate 
policies for both the preelectoral period and beyond in order to ensure 
that Nicaraguans don't follow the same lamentable fate as their Cuban 
counterparts.
    As I have noted elsewhere, the Interest Section recently began 
Digital Video Conferences to connect human rights activists in Cuba 
with their counterparts elsewhere in the region. One of our first 
conferences linked Cuban human rights defenders with their counterparts 
in Nicaragua. Helping to create such linkages is a vital part of the 
mission of the Interest Section and of Embassy Managua, and one upon 
which if confirmed I would seek to build in Managua.

    Question. Do you believe that it is possible for U.S. policy to 
embolden rather than discourage hostile actions by anti-American 
regimes? Could you tell us what has been achieved by a policy of 
``engagement'' with Havana? Do you think a similar policy of ``not 
giving offense,'' in other words of curtailing U.S. efforts found 
objectionable by the regimes, to be the proper formula in dealing with 
Managua and Havana?

    Answer. The administration has consistently stood up for democratic 
principles in our policy toward Cuba, and the activities of the 
Interest Section have been in pursuance of those principles. We have 
made it clear to Havana that this is our guiding and nonnegotiable 
stance, and that we will not waver under any circumstance in the 
defense of democratic principles.
    President Obama has made it clear that advances in bilateral 
relations are not possible absent significant changes in Cuba. However, 
the United States has engaged with Cuba in specific areas where it is 
in our national interest to do so. In 2009, the United States resumed 
biannual talks with Cuba on migration to ensure that migration from 
Cuba is conducted in a safe, legal, and orderly manner. Without 
exception, I have brought USG representatives together with Cuba's most 
prominent and active human rights defenders, pro-democracy activists, 
and other dissidents to learn from their experiences and to demonstrate 
to the international community that Cuba's civil society is an 
important interlocutor. We were unequivocal that we would not budge 
from these activities, even if it led to the cancellation of the 
discussions. This is the type of work that I had the honor of directing 
while in the Bureau of Democracy, Human Rights, and Labor, and in which 
the United States engages around the world. Cuba is no exception, and 
neither would be Nicaragua.
    The United States has implemented a broad range of strategies to 
strengthen civil society, including human rights defenders, pro-
democracy activists, independent journalists and others in Cuba and to 
defend those persecuted for their beliefs or for peaceful protest. We 
have done so in the face of unrelenting Cuban harassment and propaganda 
attacks, both in print and in television and radio, which have singled 
out private Cuban citizens seeking to exercise their individual 
freedoms, and the Interest Section and members of its staff for 
supporting them. The staff of the Interest Section has been targeted 
especially when observing peaceful protests in Havana, despite the fact 
that such observation is a practice fully in accordance with diplomatic 
practice under the Vienna Conventions. In coordination with Washington, 
the State Department and the Interest Section have pushed back 
vigorously and directly with the Cuban Government against such abuses.
    As Ambassador to Nicaragua, I would continue to stand up for the 
democratic principles of the United States as I have done throughout my 
30-year career in the Foreign Service. Working with Washington, and in 
consultation with Congress, I would endeavor to put in place in Embassy 
Managua the most effective policies possible to advance U.S. national 
interests and strengthen democratic institutions in Nicaragua. Working 
in coordinated within the administration, I would address directly with 
the Nicaraguan Government, and more broadly with the international 
community when appropriate, bilateral disagreements as they arise from 
our vital engagement on these issues.

    Question. What do you see as the primary mission for the U.S. 
Embassy in Nicaragua at this time? Is support for civil society actors 
part of that mission? If yes, what is your specific plan to reach out 
to and support civil society? What Embassy resources will you dedicate 
to supporting civil society?

    Answer. The primary mission for the U.S. Embassy in Nicaragua is to 
promote U.S. national interests by assisting with Nicaragua's long-term 
development as a democratic, prosperous, and stable partner for the 
United States, to the benefit of the citizens of both countries. The 
mission is focusing its efforts on assisting Nicaragua in developing 
democratic governance, sustainable and broad-based economic growth, and 
law enforcement. A vibrant civil society is vital to these goals, which 
I would seek to engage fully, if confirmed.
    During my time in Havana, we have found creative means to support 
civil society in Cuba. Given the inability of many Cuban activists to 
gain permission to travel outside the country, the Interest Section 
uses Digital Video Conferences and other technology to help them build 
relationships with their counterparts in the United States and 
elsewhere in the hemisphere. Just recently we hosted digital video 
conferences between human rights activists in Cuba and their 
counterparts in other countries.
    Unfortunately, most civil society groups in Nicaragua are woefully 
short of resources, and many of the international donors on which those 
organizations rely have pulled out of Nicaragua. We must endeavor to 
maintain active and creative engagement with a beleaguered Nicaraguan 
civil society. Embassy Managua has brought Nicaraguan journalists to 
the United States on International Visitors Programs.
    If confirmed, I will be outspoken about the importance of 
protecting fundamental freedoms, democratic institutions, and urging 
greater respect for human rights, transparency, and separation of 
powers. I will bring my experience from years of work in the region to 
lead Embassy Managua in its search for innovative means to engage with 
civil society, and to continue efforts at the local level in Nicaragua 
to engage with the development of a new generation of leaders.

    Question. Are you concerned about efforts by the Government of 
Nicaragua to undermine the integrity of the elections? Will you demand, 
as forcefully as possible, the presence of international election 
observers preceding and during the forthcoming elections? What Embassy 
resources will you commit to monitoring direct and indirect efforts by 
the Government of Nicaragua to undermine the integrity of the 
elections? Will you work with other foreign embassies to observe the 
elections and report on irregularities, including reporting to 
international media on any such irregularities?

    Answer. For elections to be truly democratic, they must be a valid 
expression of the will of the people. For that reason, the United 
States has pressed for the Nicaraguan Government to invite credible 
domestic and international election observers to enhance prospects that 
the elections will be carried out in a free, fair, and transparent 
manner and to provide effective witness if they are not. If confirmed, 
I would commit the entire Embassy, in coordination with our 
international partners, to be actively engaged in monitoring and 
reporting on the November elections. Such monitoring and reporting must 
cover not just the election day and its aftermath but also the critical 
period leading up to the actual voting. As always, I will be ready to 
speak up in defense of our democratic principles and to convey our 
concerns, both directly to the Government of Nicaragua and more 
broadly, about any threats to democratic institutions.

    Question. When President Carter visited Cuba he met with some 
dissidents. Did you or your staff help with the list of invitees? Was 
Martha Beatriz Roque, the former political prisoners and opposition 
leader invited? If not, why not?

    Answer. My USINT team and I welcomed and briefed President Carter 
and his staff during his March 2011 visit to Cuba. Per requests from 
President Carter's team, we shared a list with them of Cuba's most 
prominent and effective civil society leaders that included former 
political prisoner Martha Beatriz Roque. President Carter and his staff 
organized their two meetings with civil society entirely on their own 
and without USINT participation, and they selected those they wished to 
meet. No USINT official was present at the meetings. Consequently, I 
cannot verify whether Ms. Roque received an invitation to attend, or 
attended, either of those meetings.

    Question. Soon after you became chief of mission in Havana, some 
dissidents made it known that their access to the USINT became more 
limited? Was that your decision? How frequently did you personally 
invite dissidents to the USINT?

    Answer. My staff and I meet with Cuban civil society daily, 
individually and in groups, both inside and outside the mission. In FY 
2010, USINT officials held over 600 meetings with human rights 
activists alone, many of them at USINT. In that same period, Cubans 
made more than 13,000 visits to USINT's Internet centers to exercise 
their right to freedom of information.
    I frequently host representatives from Cuba's civil society in my 
home, as do other officers in the mission. Members of Cuban civil 
society know that they can count on our support for their efforts to 
expand civil liberties and disseminate accurate information on 
activities in Cuba. Representatives of civil society, including many 
dissidents, are active participants in the various distance learning 
and on-site courses USINT offers, including training for independent 
journalists, librarians, and bloggers.

    Question. How many U.S. diplomats work at the U.S. Interest 
Section? How many Cuban nationals work there? How are they hired? Does 
the Cuban Government play a role in who works at the Interest Section? 
Does the Cuban Government receive payment for those workers? How much? 
In your estimation are there any of those workers Cuban intelligence 
officers? In addition to them, how many of the Cuban workers working at 
the USINT are susceptible to pressure by the Cuban authorities to 
gather information at the USINT?

    Answer. The United States Interest Section (USINT) is limited by 
the Cuban Government to no more than 51 permanent U.S. Government 
employees. Similar to U.S. missions around the world, USINT also 
employs local nationals, third-country nationals and eligible family 
members (EFMs). Because of the limitation on permanent U.S. Government 
employees, USINT employs relatively more EFMs and third-country 
nationals than would other U.S. missions of similar size. USINT 
currently contracts 297 local Cuban nationals. As is the case for all 
foreign missions operating in Cuba, the Cuban Government Agency Palacio 
de Convenciones (PALCO) must approve any Cuban national USINT plans to 
hire. USINT pays a fee to PALCO for every Cuban employee. We paid PALCO 
$988,867 in fees in fiscal year 2010 for this purpose. The strict 
security procedures followed by USINT take into full account the 
operating environment in Cuba, including the process by which local 
nationals are hired.

    Question. In both Cuba's and Nicaragua's case, did you meet with a 
broad spectrum of the Cuban American and Nicaraguan communities in the 
United States?

    Answer. Prior to my arrival at the U.S. Interest Section in July 
2008, I was serving as the Principal Deputy Assistant Secretary of 
State in the Bureau of Democracy, Human Rights, and Labor (DRL). In 
that capacity, I personally met with a broad spectrum of NGOs working 
to bolster human rights, democracy, and the free flow of information 
to, from, and within Cuba. My meetings included representatives of 
those NGOs who were grantees of DRL programs and those who worked with 
USAID and its programs, many of whom were leaders from the Cuban 
American community. I also met with a broad spectrum of human rights 
organizations, policy foundations, and academics working on issues of 
human rights and democracy in Cuba.
    Because I am still in my post as the chief of mission of the U.S. 
Interest Section, I have not yet had the opportunity to undertake 
similar consultations with the community in the United States engaged 
on such issues regarding Nicaragua. If confirmed, I would look forward 
to such consultations as a vital element in preparing myself to be the 
next United States Ambassador to Nicaragua.

    Question. One symbolic, nevertheless important efforts in previous 
years were the Christmas decorations and the lights on the USINT 
building in Havana that stood as a sign of hope in the mostly dark 
oceanfront of the city. Why were those lights turn off? Were the Cuban 
authorities pleased with the blackout? Did you try to turn the 
Christmas lights back on during your time there?

    Answer. Throughout my assignment in Havana, the U.S. Interest 
Section has featured illuminated Christmas decorations on our grounds 
and at my residence. Indeed, consistent with U.S. support for religious 
freedom, I expanded USINT's holiday decorations to include lighted 
displays honoring Chanukah and Ramadan. All of these displays remain 
clearly visible at night from Havana's oceanfront during the 
appropriate holidays. Reactions, or potential reactions, from the Cuban 
authorities play no role whatsoever in these manifestations of the 
support of the United States for religious freedom.
    I take extremely seriously the promotion of international religious 
freedom and strive to set a personal example. My wife and I have 
attended religious services at 75 Catholic parishes, churches, and 
chapels within the travel limits imposed upon the personnel of the 
Interest Section by the Cuban authorities. I also have attended 
religious services at various churches at the invitation of five 
Protestant denominations as well as interfaith ecumenical services.
                                 ______
                                 

          Responses of Lisa Kubiske to Questions Submitted by
                        Senator Robert Menendez

    Question. In many Latin American countries, there seems to be a 
tendency toward autocracy and longevity in office. Different countries 
handle the temptation differently. Mexico has one 6-year term. They 
proclaim ``Suffragio Efectivo--No Reeleccion'' or Effective Suffrage--
No Reelection. It was adopted in their constitution as a result of 30 
years of dictatorial rule and a revolutionary struggle that last over 
10 years.
    Many nations have held constitutional referendums or used other 
means to remove limits on Presidential terms--to extend it to two 
terms, in some cases three terms. In the case of Venezuela under 
Chavez, term limits have been removed completely. What is your sense of 
this trend toward autocracy?

    Answer. I am committed to protecting fundamental freedoms and, if 
confirmed, I would continue to work to promote freedom and democracy 
throughout the hemisphere. In Honduras, the constitution limits the 
President to a single, 4-year term. The Honduran Congress has taken 
steps that would permit amendments to that restriction through a public 
consultation. Additionally, members of the Honduran Resistance are 
advocating significant changes to the constitution. Ultimately, these 
decisions rest with the Honduran people. From the U.S. Government 
perspective, it is important that any reform process be transparent and 
consistent with Honduran law, and that potential reforms adhere to 
democratic principles.

    Question. In May 2010, a constituent of mine--Joe Dunsavage 
disappeared off the coast of Honduras in his boat. Despite extensive 
search efforts neither he nor his boat were recovered. His brother, 
wife, and kids, have been seeking a certificate of presumptive death 
from the Department for more than a year to no avail. What assistance 
can you provide to this grieving family? The Department has told the 
family that they must file a request through the Honduran court system, 
which will take at least another year to process. What reasonable steps 
can be taken to expedite this process?

    Answer. Assisting American citizens overseas is a core objective of 
our foreign policy. At my June 8 hearing, I committed to working with 
you to help this family. I stand by this commitment to take a closer 
look to determine if there is anything more we could possibly do. If 
confirmed, I would review the correspondence on this issue and consult 
with U.S. and Honduran authorities to help this family obtain the 
necessary document as quickly as possible.

    Question. Honduras still has one of the highest murder rates. Press 
reports have the official 2010 homicide total pegged at 6,236 deaths. 
That would be a homicide rate of 75.6 per 100,000 people. Honduras has 
also one of the highest rates of inequality in Latin America. With a 
Gini coefficient rate of 53.8 in 2008, it is not far behind Haiti, 
which was at 59.2 before the earthquake. As we make inroads in the 
fight against drugs in Mexico, Honduras is one of the countries of the 
northern triangle in Central America that is assaulted by drug-
trafficking organizations. How deficient are the resources and 
institutional capacity of the government to counter the well-
established drug trade? What are the most important steps we can be 
taking to help the government fight the narcotics trade?
    Do you believe that we are presently investing sufficient resources 
through CARSI to address the escalating citizen security and narcotics 
issues in Honduras?

    Answer. Threats to citizen security in the region are a serious and 
growing problem, and the Honduran Government needs support in many 
areas.
    The U.S. Government appropriately buttresses the efforts of the 
Government of Honduras to fight transnational organized crime by 
strengthening the capabilities of the police and rule of law 
institutions, while encouraging respect for human rights. It also 
provides support to specific counternarcotics operations. Additionally, 
U.S. Government programs supplement Honduran efforts to address the 
root causes of crime, including the lack of economic opportunities, 
because it is impossible to disentangle citizen security from economic 
development. The U.S. Government also works with others in the 
international community to identify who else can provide expertise and 
resources in support of these efforts. It is vital to the security of 
the Honduran people and to the United States that we do all we can to 
continue to work in these areas.

    Question. Presently in Latin America the Millennium Challenger 
Corporation has just one compact in El Salvador. The Honduras compact 
closed at the end of last year and the MCC board decided against a 
second Honduras compact because Honduras did not meet the MCC's 
controlled corruption indicators, based largely on the political events 
in the country. Do you anticipate that the resolution on the political 
crisis and Zelaya's return to Honduras will allow funding for a new 
compact to proceed? Are you aware of any other reasons that MCC would 
now decline to consider a new compact for Honduras?

    Answer. Honduras performed admirably in implementing its 5-year 
compact. However, it did not meet the selection criteria for a second 
compact this year, having received a score on the Control of Corruption 
indicator that fell just below the median for its peers.
    The Government of Honduras is working to address this concern, and 
the MCC is assisting Honduras in monitoring its reforms to provide 
supplemental information for the MCC Board to consider at its next 
meeting on country selection in December. For our part, the U.S. 
Government is helping Honduras improve governance through programs 
managed by several agencies, including USAID and the Departments of the 
Treasury, Defense, and State. If confirmed, I would continue to support 
this robust assistance to Honduras, including efforts to improve 
respect for human rights, so that it might achieve its goal of 
qualifying for a second compact.

    Question. The State Department recently released a report that 
lists those countries where U.S.-owned businesses have investment 
disputes and, in some cases, expropriation claims against the host 
government. Honduras is on that list. If confirmed, what kind of 
priority will you devote to ensuring those claims are processed and 
cleared?

    Answer. Both at USTR and the Department of State, I have been 
exposed to a number of investment disputes, and I developed a deep 
respect for the enforcement of treaty obligations in this area.
    There are several outstanding investment disputes in Honduras 
involving American citizens. If confirmed, I would make appropriate 
efforts to ensure the prompt resolution of these cases. This is not 
only a question of basic fairness; if Honduras wants to succeed in 
attracting foreign investment, it is imperative that it establish a 
positive investment climate.
                                 ______
                                 

         Responses of Jonathan Farrar to Questions Submitted by
                          Senator Marco Rubio

    Question #1. A series of measures were taken during your time as 
chief of mission in Havana--for example, taking down the news ticker 
that ran across the facade of the U.S. Interest Section--that 
significantly shifted U.S. policy in the island.

  <bullet> What was the reasoning behind the decision to end this 
        creative method of bringing uncensored information to the Cuban 
        people?
  <bullet> Were you asked for advice on this decision? If so, what was 
        your advice?

    Answer. U.S. policy remains focused on the need for democratic 
reforms and improved human rights conditions in Cuba. There has been no 
shift in U.S. priorities with regard to our efforts to increase the 
flow of uncensored information to, from, and within the island in order 
to support the ability of the Cuban people to freely determine their 
future.
    The billboard was installed in January 2006 because of the Cuban 
Government's restrictions on the free flow of information. By summer 
2009, it had become evident that the electronic billboard had outlived 
its usefulness. The billboard suffered numerous breakdowns and required 
significant maintenance, and new and more effective outlets of 
information for Cuban citizens had emerged. The Cuban Government placed 
numerous obstacles in front of USINT to impede the ability of Cubans to 
read the billboard. As a result, when the billboard became only partly 
operational in June 2009, the administration decided to focus its 
efforts to expand the free flow of information for Cubans in other, 
more effective areas.
    Since 2006, we have seen an increased flow of independent 
information to and from Cuba as a result of USG training of independent 
journalists and the emergence of bloggers in Cuba. Increased family 
travel to Cuba and the increased availability of cell phones and other 
communications devices in Cuba has contributed to improved access to 
information. The administration announced new measures on Cuba on April 
13, 2009, and again on January 14, 2010, including measures intended to 
increase the free flow of information to Cuba.
    Other, more effective methods of bringing uncensored information to 
the Cuban people include more than 13,000 subscribed sessions at 
USINT's two Internet centers; more than 30 courses and workshops 
offered to groups such as independent journalists hosted by USINT; 
regular DVCs with off-island interlocutors; the distribution of CDs, 
DVDs, flash drives, laptops, and cameras, some loaded with free 
(licensed) software, and the distribution of nearly 15,000 copies of 
the Nuevo Herald and 16,000 copies of USINT's news clippings in FY 2010 
alone. We also distribute thousands of books, magazines, and our own 
newsletters to independent libraries and journalists throughout the 
island.

    Question #2. Prior to your assignment to Havana, a symbolic, but 
nevertheless meaningful initiative, had been the Christmas decorations 
that adorned the U.S. Interest Section building in Havana and stood as 
a sign of hope in the mostly dark oceanfront of the city.

  <bullet> What policy considerations went into the decision to end 
        this initiative?
  <bullet> Did the State Department consider the potential reaction 
        from Cuban authorities?
  <bullet> If so, has the United States received any indication of the 
        reaction of the Cuban authorities to the blackout?

    Answer. Throughout my assignment in Havana, the U.S. Interest 
Section has featured illuminated Christmas decorations on our grounds 
and at my residence. Indeed, consistent with U.S. support for religious 
freedom, I expanded USINT's holiday decorations to include lighted 
displays honoring Channukah and Ramadan. All of these displays remain 
clearly visible at night from Havana's oceanfront during the 
appropriate holidays. Reactions, or potential reactions, from the Cuban 
authorities play no role whatsoever in these manifestations of the 
support of the United States for religious freedom.
    I take extremely seriously the promotion of international religious 
freedom and strive to set a personal example. My wife and I have 
attended religious services at 75 Catholic parishes, churches, and 
chapels within the travel limits imposed upon the personnel of the 
Interest Section by the Cuban authorities. I also have attended 
religious services at various churches at the invitation of five 
Protestant denominations as well as interfaith ecumenical services.

    Question #3. As far as the end of distribution of shortwave radios, 
was that the result of a recommendation from the U.S. Interest Section, 
or an order from the Department? What was your advice on that policy 
shift?

    Answer. USINT's distribution pattern for material support to Cuban 
civil society reflects a variety of factors, including available 
funding for procurement; our ability to import materials; and a 
shifting technological environment. Perhaps more importantly, our 
material support for independent civil society is driven by the demands 
of civil society itself.
    The number of shortwave radios distributed has decreased in recent 
years primarily due to changes in technology, which have changed the 
way in which Cuban society accesses and disseminates information on 
events on the island and abroad. These days, shortwave radios are not 
as frequently requested as in the past. As a result, I have focused on 
expanding the free flow of information for Cubans in other, more 
effective and innovative ways. Instead, our contacts are making use of 
the free, uncensored Internet access we provide through two Information 
Resource Centers to exercise their rights of information and 
expression, and to connect with larger audiences in real time and in 
two-way exchanges. Independent journalists and other key elements of 
civil society also appreciate our help in accessing the electronic 
tools of today's journalistic trade. We offer daily news clippings and 
copies of the Nuevo Herald, and monthly CDs and DVDs filled with 
software updates, news, and other valuable information. We maintain Web 
sites and Facebook pages in both English and Spanish on which we post 
daily updates on U.S. policy and other initiatives. We also provide 
distance learning courses in Spanish which offer information on 
technology, civil organization, English teaching, and communication 
skills.

    Question #4. During a September 2009 visit to Cuba by then-Acting 
Deputy Assistant Secretary of State Bisa Williams, the U.S. Interest 
Section in Havana hosted a reception where officials from the Cuban 
regime were invited, but representatives of independent civil society 
were excluded.

  <bullet> What role, if any, did you have in planning this event?
  <bullet> How many other events were held during your tenure in Havana 
        that followed this pattern of exclusion? What was their 
        purpose?

    Answer. During her September 2009 visit to Cuba, Acting DAS 
Williams cohosted with me a roundtable with independent civil society 
members that included some of Cuba's best-known political dissidents. 
In addition, she and a USINT official visited blogger Yoani Sanchez's 
home, where Ms. Williams held discussions with Ms. Sanchez and other 
prominent Cuban bloggers. During the visit, USINT also hosted a 
reception for 55 members of civil society, including many dissidents.
    USINT has maintained a robust civil society outreach strategy 
during my tenure. We are the only foreign mission in Havana that 
invites independent civil society representatives, including political 
dissidents, to our national day celebration. Our last Fourth of July 
official event, in 2010, included over 75 opposition activists, as well 
as dozens of other representatives from broader independent civil 
society. Every high-level State Department visitor to Cuba during my 
assignment has had the opportunity to meet with and seek the views of 
independent civil society members, including dissidents, despite 
threats from Cuban Government officials to shut down the visits. I 
frequently host these meetings, either at USINT or in my residence.
    In addition, I have hosted numerous targeted events for other 
sectors of civil society, such as for Cuba's religious and cultural 
communities, a Human Rights Day/Nobel Peace Prize event, a Human Rights 
Week film festival, and charity events for an independent NGO that 
helps children with cancer, to name a few examples. I also hosted a 
reception honoring the Damas de Blanco as the winners of the 2010 Human 
Rights Defenders Award, a luncheon honoring Yoani Sanchez as a 2010 
International Woman of Courage, and a 2009 reception honoring Dr. Darsi 
Ferrer as the winner of an honorable mention for the 2009 Human Rights 
Defenders Award--all independent civil society members who were 
nominated by USINT during my assignment in Havana.

    Question #5. Information from surveys done by internationally 
recognized NGOs inside Cuba show that more than three-in-four Cuban 
adults have expressed support for voting for fundamental political 
change if given the opportunity.

  <bullet> As chief of mission, what was your assessment and advice to 
        the State Department regarding the relevancy of Cuban pro-
        democracy organizations in relation to the views and priorities 
        of the Cuban population?
  <bullet> How did you arrive to these views?
  <bullet> Would you provide to the committee copies of any and all 
        communications you had with the State Department on this topic?
  <bullet> Given your experiences in Cuba, do you agree that a post-
        Fidel Castro scenario, in which Raul Castro and the current 
        leadership of the Cuban regime maintains firm control of, is 
        against U.S. interests?

    Answer. The past 3 years in Cuba has reaffirmed my experience from 
30 years in the Foreign Service, including service during the prior 
administration as the Principal Deputy Assistant Secretary of the 
Bureau of Democracy, Human Rights, and Labor, of the vital role played 
by civil society in building the elements of a democratic society. Pro-
democracy groups and human rights activists are the conscience of Cuba, 
and deserve our support and that of the international community. I have 
been outspoken about the important role these groups play and the need 
to publically promote greater respect for human rights and fundamental 
freedoms. At the Interest Section, we have worked closely to support 
the work of all elements of Cuban civil society, including pro-
democracy groups, human rights activists, independent journalists, and 
many others working to expand freedoms and increase the flow of 
information and reporting from Cuba. In doing so, we have built upon 
existing programs and begun many new ones to reach out to additional 
audiences, especially to the youth of Cuba.
    As outlined in the response to question #7, the Interest Section in 
a very challenging environment has undertaken a variety of programs, 
such as Distance Learning courses, blogging courses, free software 
distribution, and many others to reach out to new audiences and serve 
long-time participants eager to learn new skills. At the same time, we 
rebuilt from the ground up one of our two Internet Resource Centers and 
have carried forward the Florida International University training 
program for independent journalists which is held in our DVC 
facilities. We recently graduated the 500th student from that 
successful program.
    The President has stated clearly that major changes would be 
necessary in Cuba for there to be a significant change in our bilateral 
relations. The continued denial of the ability of the Cuban people to 
freely determine their own future clearly would not meet that standard. 
The administration's policies and programs aim to support the 
aspirations of the Cuban people to freely and democratically determine 
their own future. As the chief of mission of the Interest Section, the 
successful development and implementation of the democracy programs at 
USINT has been and remains my priority.

    Question #6. The Cuban Government requires Cubans to obtain an exit 
permit, in addition to a valid Cuban passport and a foreign visa, 
before allowing Cubans to travel abroad.

  <bullet> Are there Cuban families who have been granted U.S. visas, 
        stranded in Havana awaiting the Cuban regime exit permit?
  <bullet> How many are they, how long have they been waiting?

    Answer. Yes. We track this issue closely and raise it with the 
Cuban Government (GOC) during the Migration Accords Talks held 
semiannually. The practice of denying exit permits denies these 
families the right to leave any country, including their own, and 
generates additional workload for USINT because we must reissue travel 
documents to persons whose original documents expired due to denials.
    Documented cases of exit permit denials continue to decline since 
FY 2009, where USINT recorded 797 reported instances of exit permit 
denials. In FY 2010, USINT documented 443 cases of exit permit denials. 
We expect the downward trend to continue based on numbers so far this 
fiscal year. In FY 2011 YTD, we have documented 155 new cases of exit 
permit denials to principal and derivative visa applicants. At the same 
time in FY 2010, we had documented 259 cases of permit denials. Thus in 
FY 2011 YTD, we have witnessed an almost 40 percent drop in exit permit 
denials over the same time in FY 2010.

    Question #7. Following the detention and subsequent sentencing by 
the Cuban regime of a USAID subcontractor in Cuba, the administration 
has placed severe restrictions on U.S. democracy programs.

  <bullet> Have these restrictions improved the regime's record on 
        human rights or in any way encouraged it to directly engage 
        Cuba's independent civil society and pro-democracy 
        organizations in a dialogue toward greater political freedoms?

    Answer. The U.S. Interest Section has not retreated from democracy 
programs since the indefensible arrest and imprisonment of Mr. Alan 
Gross. On the contrary, since December 2009, under hostile conditions 
the Interest Section has successfully undertaken new initiatives and 
expanded our existing programs including the following:

  <bullet> After the refusal of the Cuban authorities to give exit 
        permits to students chosen for scholarships to study in the 
        United States, the Interest Section constructed and inaugurated 
        a new Distance Learning Center to provide college-level courses 
        taught by U.S. professors in Spanish to students in Cuba.
  <bullet> The Interest Section began new programs to teach courses in 
        computing, blogging, the English language and other subjects. 
        After receiving clearance from Washington, the Interest Section 
        also began distributing free software with monthly updates to 
        assist Cubans to communicate with the outside world and among 
        themselves.
  <bullet> After soliciting volunteers from other American embassies in 
        the hemisphere, the Interest Section recently began Digital 
        Video Conferences to connect Cuban human rights activists with 
        their counterparts in other Spanish-speaking countries.
  <bullet> When one of our two Internet Resource Centers showed serious 
        signs of deterioration, we rebuilt it from the ground up into a 
        new facility to house this vital program.
  <bullet> The Interest Section remains firmly committed to the Florida 
        International University training program for independent 
        journalists which is held in our DVC facilities. We recently 
        graduated the 500th student from that successful program.

    Cuba's human rights record remains poor, as evidenced in the 
Department's most recent ``Human Rights Report.'' Programs such as 
those described above are a vital part of our overall effort to assist 
the Cuban people to prepare for the day when they can freely determine 
their own future.
    Following the arrest of Mr. Gross and the completion of GAO audits 
which found weaknesses in the awarding and oversight of Cuba grants and 
contracts in Washington, the administration strengthened its oversight 
and management of those programs in close consultation with Congress.

    Question #8. Remittances and travel are among the most important 
sources of hard currency for the regime.

  <bullet> What would be the regime's response to a suspension of U.S. 
        remittances and travel until this American citizen is allowed 
        to return home, and every Cuban with a U.S. visa is allowed to 
        leave the country?

    Answer. We have no way of predicting the response from the Cuban 
regime to any number of variables. It has shown from its beginnings 
that maintaining power is its paramount priority, and that all other 
considerations, including actions taken by the United States, are 
subordinate to this overriding objective.
    We continue to call on the Cuban Government to immediately and 
unconditionally release Alan Gross. We are deeply concerned about his 
and his family's well-being. He should be reunited with his family to 
bring an end to their long ordeal.
    We also call on the Cuban Government, including during face-to-face 
meetings at the Migration Talks, to respect the rights of its citizens 
to leave any country, including their own.

    Question #9. The current governments in Nicaragua and Cuba are 
similar in many respects, including their strong alliance with Hugo 
Chavez and their hostility toward the United States.

  <bullet> How would your experience in Cuba inform your work in 
        Nicaragua?

    Answer. My experience of more 30 years in the Foreign Service, 
including my tenure as the Principal Deputy Assistant Secretary in the 
Bureau of Democracy, Human Rights, and Labor, underlies my core belief 
in the critical role played by civil society in expanding and defending 
democratic freedoms. My experience over the past 3 years in Cuba only 
serves to reaffirm that belief, and the important role which U.S. 
programs can play in building, strengthening, and defending civil 
society. In developing such programs, we must be persistent and 
creative, and listen to the needs of those on the ground leading the 
fight to expand space for civil society and to increase the free flow 
of uncensored information. As we have over the past 3 years, we must be 
ready at all times to defend our policies and programs, both in-country 
and in Washington, and to speak with one voice to our critics when we 
do so.
    I am as committed to engage the Nicaraguan civil society as I have 
been with their Cuban counterparts during the last 3 years. If 
confirmed, I will be outspoken about the importance of protecting 
fundamental freedoms, democratic institutions and urging greater 
respect for human rights, transparency, and separation of powers.
    Unlike Cubans, Nicaraguans have been able to elect and openly 
support the candidates of their choice. The role of civil society in 
the 2011 elections and beyond will be crucial in sustaining Nicaragua's 
democratic institutions. The United States has urged the Government of 
Nicaragua to facilitate international and domestic observation of the 
November elections, including during the registration and campaign 
periods. In taking this stand, the United States is working with 
friends and allies in the international community who share our 
commitment to freedom and democracy. At the same time, we must take a 
longer view and sustain consistent policies and programs that will help 
to nurture and defend civil society in Nicaragua and strengthen 
democratic institutions there regardless of the outcome in November. If 
confirmed, I would work with the committee and other Members of 
Congress in shaping the appropriate policies and programs for both the 
preelections period and beyond.

    Question #10. In Nicaragua, President Ortega continues to 
aggressively undermine fragile Nicaraguan institutions to extend his 
grip on power.

  <bullet> What is the administration's strategy to persuade Nicaraguan 
        officials to respect the constitutional order and the 
        independence of government institutions in Nicaragua?
  <bullet> What is your assessment of civil society groups within 
        Nicaragua?
  <bullet> If confirmed, what specific measures would you take to 
        actively work with civil society organizations in Nicaragua to 
        foster respect for independent, democratic institutions?

    Answer. The administration is concerned about the apparent erosion 
of democratic institutions in Nicaragua and is working with other 
donors to coordinate international support for credible domestic and 
international observers to monitor the preparations for and conduct of 
the November elections. We are strong supporters of independent media 
and civil society, including human rights organizations, and through 
U.S. assistance we support technical assistance and training for 
emerging democratic leaders and citizen groups in order to bolster 
civil society engagement, and improve local governance. U.S. assistance 
also strengthens the capabilities of the media to professionally and 
accurately report about Nicaragua's deteriorating human rights and 
democracy climate.
    During my time in Havana, we have found creative means to support 
civil society in Cuba. Given the inability of many Cuban activists to 
gain permission to travel outside the country, the Interest Section 
uses Digital Video Conferences and other technology to help them build 
relationships with their counterparts in the United States and 
elsewhere in the hemisphere. Just recently we hosted digital video 
conferences between human rights activists in Cuba and their 
counterparts in other countries.
  <bullet> Unfortunately, most civil society groups in Nicaragua are 
        woefully short of resources, and many of the international 
        donors on which those organizations rely have pulled out of 
        Nicaragua. We must endeavor to maintain active and creative 
        engagement with Nicaraguan civil society. Embassy Managua has 
        brought Nicaraguan journalists to the United States on 
        International Visitors Programs.
  <bullet> If confirmed, I will be outspoken about the importance of 
        protecting fundamental freedoms, democratic institutions, and 
        urging greater respect for human rights, transparency, and 
        separation of powers. I will bring my experience from Havana to 
        lead Embassy Managua in its search for innovative means to 
        engage with civil society, and to continue programs at the 
        local level in Nicaragua to engage with the development of a 
        new generation of leaders.
                                 ______
                                 

         Responses of Lisa J. Kubiske to Questions Submitted by
                        Senator James M. Inhofe

    I have written a letter to Honduran President Lobo Sosa and to 
Millennium Challenge Corporation (MCC) CEO Yohannes on behalf of CEMAR, 
a cement company owned by American citizen Oscar Cerna that was 
illegally expropriated by the Honduran Government in 2004. I share a 
deep concern for the actions taken by the Honduran Government during 
the Maduro Presidency, and perpetuated by subsequent Honduran 
Governments regarding CEMAR and its legitimate claim to seek 
compensation for this expropriation. To date, there has been no 
substantive progress to compensate CEMAR's owner for this illegal 
taking.
    I have urged the Honduran Government and our State Department to 
take action to ensure that this claim is satisfied. I am convinced that 
if our Ambassador to Honduras addresses this claim with the Honduran 
Government and makes it one of her highest priorities, Honduran 
officials will settle this claim.

    Question. Should you be confirmed by the Senate, will you make the 
settlement of this claim one of your highest priorities?

    Answer. I view the protection of U.S. investments as a core 
function of the job. If I were confirmed as U.S. Ambassador to 
Honduras, resolution of investment disputes would be one of my highest 
priorities.
    Although the U.S. Government does not take a position on the merits 
of investment disputes, I would be happy to meet with Mr. Cerna upon 
his request. If confirmed, I would monitor this case closely and 
encourage the Honduran Government and Mr. Cerna to resolve their 
dispute.

    Question. Should you be confirmed, will you pledge that within 60 
days of your arrival at post you will notify President Lobo Sosa and 
his advisors that I, as a Member of both the Senate Foreign Relations 
and Armed Services Committees, will make it a priority to prevent MCC 
funding and other types of funding to Honduras, unless his government 
reaches a settlement of the CEMAR claim?

    Answer. If confirmed, I would convey your message to President 
Lobo.


                              NOMINATIONS

                              ----------                              


                         TUESDAY, JUNE 21, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Anne W. Patterson, of Virginia, to be Ambassador to the 
        Arab Republic of Egypt
Michael H. Corbin, of California, to be Ambassador to the 
        United Arab Emirates
Matthew H. Tueller, of Utah, to be Ambassador to the State of 
        Kuwait
Kenneth J. Fairfax, of Kentucky, to be Ambassador to the 
        Republic of Kazakhstan
Susan L. Ziadeh, of Washington, to be Ambassador to the State 
        of Qatar
                              ----------                              

    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Shaheen, 
Coons, Udall, Lugar, and Corker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order. Thank you 
all for being here.
    I need to go to the floor at about 10:15 on Libya with 
Senator McCain. And during the time I'm not here, Senator Lugar 
will continue the hearing. I hope to get back here as soon as I 
can.
    We're here this morning to consider the ambassadorial 
nominations to five important countries, and we're going to 
divide the hearing into two panels, beginning with Anne 
Patterson, the President's choice to represent the United 
States in Egypt.
    As all of us know, Egypt has historically been the region's 
most important incubator of ideas, and now it is at the 
forefront of the new Arab Awakening. How Egypt manages its 
transition from dictatorship to democracy, and how it 
restructures its economy, will affect not only the country's 80 
million citizens, but it's also going to affect millions of 
others throughout the region.
    I've said a number of times in various speeches and other 
public fora that the fact that Egypt represents a quarter of 
the world's Arab population, and that it is not as torn apart 
by sectarian divisions as some other countries in the region, 
and also has always had a very strong civic society, has always 
been a place where even under the Mubarak regime there was this 
current of civic engagement, discussion, all of those things, I 
think, contribute significantly to the possibilities for 
Egypt's contribution as we go forward.
    Needless to say, its importance to regional strategic 
issues, particularly to the peace process with Israel and 
Palestine, can't be overstated. And so it is very, very 
important that this process go forward as effectively as 
possible.
    Anne Patterson is one of our Nation's finest public 
servants, and I've had the privilege of working with her very, 
very closely when she served as Ambassador to Pakistan. Many 
late-night meetings with various hot issues on the table, and I 
watched her calm, professional approach to those challenges on 
many different occasions.
    I am greatly encouraged that the President has nominated 
somebody of her caliber for the critical assignment of 
Ambassador to Egypt at this obviously critical moment.
    Egypt does face significant challenges as it tries to build 
a new political order that is democratic and tolerant. I was 
there about a month and a half ago now, I guess. I held a town 
meeting. I was quite struck by the diversity of the people who 
came to the town meeting: young women in traditional covered 
garb and some in much more Western dress. Men in traditional 
garb, men in Western suits. Some bearded, some not. Very 
different backgrounds, but all with a very common sense of the 
possibilities of this moment and of the future, all wanting to 
express their citizenship and to be able to enjoy their rights 
and freedom.
    So this is an exciting moment, but a very, very challenging 
one. I think when I was there, there was 2 percent occupancy in 
the hotel we were in. I think that was true of almost every 
hotel in the city. So there's been an enormous retrenchment 
with respect to one of the main sources of revenue and currency 
in the country.
    There's little time to organize political parties before 
this fall's elections. And those elections, obviously, need to 
be fair and carefully monitored, or we may see a return to 
Tahrir Square anyway, unless there is positive progress. But 
certainly, the lack of a fair and accountable election would be 
cause for such a redux.
    The Egyptian Government needs to become more transparent 
yet and more responsive to its citizens' needs. And questions 
remain about the role of religious parties in Egyptian 
politics, the stability of Muslim-Christian relations, and the 
future of Egypt's approach to Israel.
    Egypt is also wrestling with considerable economic 
hardship. Forty percent of Egyptians live below the poverty 
line, and the revolution has dealt a serious short-term blow to 
the economy in other sectors than just tourism. One person 
there mentioned to me how many businesspeople have simply not 
returned or have left, some for fear of retribution, and that 
affects the flow of capital.
    Food and oil prices are up. Foreign investors have yet to 
sense the confidence necessary to come back and invest. And the 
Government has significantly depleted its reserves of hard 
currency.
    There is news, however, on the upside. There's positive 
news. Assistance from the World Bank and the IMF, and the 
United States and other countries, is starting to arrive. And 
Egypt's economy actually does, notwithstanding these 
challenges, appear to be beginning to stabilize. With prudent 
policies, a return to higher GDP growth is possible in the near 
term, certainly in the next year or two.
    But the policies that are put in place need to benefit all 
Egyptians. And as Egypt changes, our approach to aid must 
change also.
    Promoting economic recovery is not enough. International 
assistance needs to also address Egypt's socioeconomic 
divisions, expand its political space, and promote 
transparency, legitimacy, and accountability.
    To that end, the Obama administration has provided funds to 
spur economic growth and assist with political transition. I've 
introduced legislation with Senators McCain, Lieberman, and 
Lugar that will promote entrepreneurship and job creation by 
channeling investment directly to the private sector.
    I've also been working with Senator McCain and others to 
develop a creative public-private partnership that would 
encourage United States corporations and others to invest in 
Egypt.
    In fact, this weekend, Senator McCain and I will travel to 
Egypt, together with Jeff Immelt, the CEO of GE, and a group of 
other chief executives, and we will meet with Egyptians in an 
effort to try to help further develop this initiative.
    And I appreciate Ambassador Patterson's help, which has 
been significant leading up to this initiative. And certainly, 
the sooner we can get her on the ground to help implement, the 
better.
    Obviously, we need to be realistic. Consolidating Egypt's 
democratic advances and addressing its economic woes is 
probably going to take a generation or so. But a recent poll 
found that nearly 90 percent of Egyptians think their country 
is headed in the right direction. And during my visit in March, 
as I mentioned, the spirit of ordinary Egyptians that I met in 
Tahrir Square and at other places was really contagious. I hope 
that spirit can propel them through what may be turbulent, 
difficult times ahead.
    Ambassador Patterson, I'd like to just raise one last issue 
with you before I recognize Senator Lugar.
    Nearly 2 years ago, a Massachusetts constituent of mine, 
Colin Bower, who I believe is somewhere here at this hearing, 
had his sons, Noor and Ramsay, abducted from the United States, 
from Massachusetts to Egypt, abducted by their mother, even 
though he had full legal custody of those children, even though 
our courts had already ruled, and, I might add, were abducted 
with false visas, false passports, entered their country, 
Egypt, under false pretense.
    He has not even been able to see his children, Ambassador, 
and he's had a couple of visitations prior to the Tahrir 
Square. Since Tahrir Square gatherings, he has not seen them.
    And I will tell you, I have raised this at any number of 
levels with the Egyptians. It's no small fact that the last 
conversation I had with President Mubarak, a relatively lengthy 
conversation, was almost exclusively on this topic.
    And I raised with him the legalities, the inhumanity, the 
unfairness of what has happened, that a father would be 
separated from his children, that a country would not care 
enough to allow the father to be able to be part of those 
children's lives. And I think all of us, you know, can 
understand the frustrations that Colin and a lot of his friends 
and family and others are feeling.
    So my hope is that you can do what you can when you get 
there to emphasize the importance of this. In a new Egypt, 
hopefully the attitudes that allowed Colin to be stiffed, 
literally, time and again, and to be maltreated and those kids 
to be deprived of a father, I think, hopefully, can achieve a 
higher order of priority.
    So this morning we also welcome a second panel of nominees. 
And I don't mean in any way to diminish the importance of any 
of their countries in the time that we have spent on Egypt. 
Each of them is going to be representing areas that are of 
enormous consequence to the United States, where we have 
critical relationships.
    Michael Corbin, nominated to serve as Ambassador to the 
United Arab Emirates, critical to a whole set of relationships 
that we have, some of which will have an impact on Egypt and 
some of which have an impact on our strategic presence in the 
region.
    Matthew Tueller, nominated to serve as Ambassador to 
Kuwait, again a key player in our relationships and our 
strategic interests in other countries in the region.
    Susan Ziadeh, nominated to serve as Ambassador to Qatar. 
The Emir was here recently. We had good meetings with him, and 
he is deeply involved in these efforts with respect to Egypt. 
And we hope to have positive things to announce with respect to 
that in the short term. In fact, we may be stopping in Qatar 
Sunday night with Senator McCain in order to discuss these 
prospects.
    And finally, Kenneth Fairfax, nominated to serve as 
Ambassador to Kazakhstan.
    All four extremely qualified nominees, and we congratulate 
each of you and welcome you here today.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, may I have your permission to 
yield briefly to Senator Corker?
    The Chairman. Absolutely.
    Senator Corker. Mr. Chairman, thank you. And, Mr. Ranking 
Member, I appreciate it.
    I'm here out of total respect for the nominee and just to 
thank her for her commitment to public service. I don't know of 
a Foreign Service person who I respect more than the nominee 
for this position. And I welcome her and look forward to her 
doing great work in Egypt, as she has in so many other 
countries.
    And with that, I'm going to go do something else.
    Thank you.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar [presiding]. Mr. Chairman, I join you in 
welcoming Ambassador Patterson and our second panel of 
distinguished nominees.
    Americans were moved by the power and speed of Tunisia's 
Jasmine Revolution and by the resolve of Egyptians to change 
the course of their history.
    We celebrated the calls for greater political 
participation, the protection of basic human rights, and a more 
inclusive economy. We were heartened that protests in Tunisia 
and Egypt had such an impact in many parts of the Middle East.
    At the same time, it is clear that decisive improvements in 
governance in the Middle East will not be simple or automatic. 
The past few months have demonstrated that the countries of the 
region are all on very different paths and timelines.
    We should not overgeneralize about what is occurring in 
Middle Eastern societies or expect changing attitudes to solve 
American national security problems in the region. We should 
recognize that the genuine opportunities in the long run for 
the advancement of democratic values and the broadening of 
prosperity are accompanied by short-term risks and dangerous 
uncertainties.
    We are witnessing civil war in Libya and ongoing 
suppression of popular upheaval in Syria. In Yemen, we have 
seen a highly fractured society that appears to lack national 
institutions or a common identity around which to coalesce. In 
Bahrain, we have seen sectarian tensions and violence against 
peaceful protesters.
    The challenge for our nominees is to protect and advance 
American interests in the midst of this rapidly changing and 
diverse landscape. It is essential that we redouble our efforts 
to engage in the Middle East. We must be creative in using the 
full scope of American power and influence to support a more 
peaceful future for the region.
    This is important to our own fundamental national security, 
the global economy, and the security of our close ally, Israel.
    Recognizing the diversity of the region does not mean 
shying away from promoting real reform and more inclusive 
government--even if that process looks different in Egypt than 
it does in the United Arab Emirates.
    We have been encouraging more representative and tolerant 
governance throughout the region for many years. As Americans, 
we should honor those in the region who are speaking out in 
defense of values that we hold dear.
    I believe that a key part of this process must be the 
encouragement of more transparent and inclusive economies that 
are more securely tied to the global market. We need to build 
more meaningful trade and investment relationships in the 
region.
    Our nominees also should leverage the leadership of 
American universities, cultural institutions, and civil society 
to generate deeper and more sustainable linkages.
    Protests started in Tunisia, but it seems clear that the 
test of this process will be in Egypt. We have a shared 
interest with the people of Egypt to build a more secure and 
prosperous future. This will not be a short process. But I 
believe Americans now expect a different relationship with this 
and future Egyptian governments.
    We respect what was born in Tahrir Square and want to see 
it flourish into a partnership that goes beyond the top levels 
of our governments.
    It is vital that the transition in Egypt not be hijacked by 
extremist groups who would undermine the fundamental civil 
liberties at the heart of the revolution and threaten U.S. and 
allied interests in the region.
    In addition, during this moment of turmoil, the desire for 
more inclusive government must not be manipulated by those 
seeking to deflect attention from their own failures, including 
the regimes in Iran and Syria.
    I appreciate the commitment of our nominees and their 
willingness to take on these difficult assignments for our 
country.
    We welcome you, again, Ambassador Patterson, and ask for 
your testimony at this point.

    STATEMENT OF HON. ANNE W. PATTERSON, OF VIRGINIA, TO BE 
            AMBASSADOR TO THE ARAB REPUBLIC OF EGYPT

    Ambassador Patterson. Thank you very much, Ranking Member 
Lugar, Senator Casey, and members of the committee. Thank you 
for the honor of appearing before you today.
    I wish to thank the President for nominating me as 
Ambassador to Egypt and the confidence he and the Secretary 
have shown in me.
    With your permission, could I introduce my family?
    Senator Lugar. Yes, that would be very, very nice of you.
    Ambassador Patterson. My husband, David, who is retired 
from the Foreign Service.
    Senator Lugar. Welcome.
    Ambassador Patterson. And my stepdaughter, Jessica, who is 
on her way to Afghanistan.
    Senator Lugar. Jessica.
    Ambassador Patterson. And my son, Andrew, who is about to 
be commissioned in the Marines. And our other two children, 
unfortunately, aren't here today.
    If confirmed, I look forward to leading the professionals 
from all agencies who serve in Cairo. Serving with so many 
dedicated people over the years, often under difficult 
circumstances, has been the highlight of my career.
    Should I be confirmed, I am under no illusions about the 
responsibility and challenges of serving as Ambassador to 
Egypt, which is now the epicenter of enormous promising changes 
in the Arab world.
    People everywhere were inspired by the events of Tahrir 
Square and Egyptian citizens' desire for freedom and democracy. 
But we should remember that transitions to democracy are 
difficult and long, that there will be reverses and surprises 
along the way, and that the Egyptians will find their own 
unique path.
    When thinking about Egypt, I think we should be heartened 
by what has taken place in Latin America and Eastern Europe 
over the past 40 years. While in Latin America, the path to 
prosperity and democracy has hardly been a straight one, this 
hemisphere now has democratic governments in most countries and 
a degree of economic prosperity unimaginable 40 years ago. The 
Arab world will be no different.
    If confirmed, I will be firmly committed to backing Egypt's 
democratic transition, which will reinforce much-needed respect 
for human rights, with all the support the United States 
Government can muster.
    Let me outline the strategy that the administration has 
developed and which, if confirmed, I will pursue in Cairo. The 
first priority will be to encourage and support, to the extent 
that Egyptians desire it, an election process which is free and 
fair.
    Polling suggests that many Egyptians will have the first 
opportunity in their lifetimes to vote in a free election, so 
enthusiasm is understandably high. And as we do in hundreds of 
other countries, the United States will support nongovernmental 
and civil society organizations who wish to enhance their 
organizational skills and play a more prominent role in public 
life. These groups are always essential ingredients in a 
successful political system.
    The strengthened democratic process should lead to 
increased respect for human rights in Egypt since newly 
empowered citizens will demand it. We welcome the commitment of 
the interim Government to repeal the emergency law. We are 
concerned about arbitrary arrests, overly rapid and 
nontransparent trials, and attacks on religious groups.
    Some particularly disgusting abuses against women 
demonstrators have taken place, and we have called on the 
authorities to prosecute those who committed them.
    Second, it is clear that the need for a job was just as 
strong a motivator for demonstrators in Tahrir Square as the 
desire for freedom and justice. Egypt has to generate over 
750,000 jobs a year to absorb young people into its labor 
force. These young people are often not well-prepared with 
skills needed for a modern economy, yet they have high 
expectations.
    In fact, the International Republican Institute has just 
come out with a poll which indicates that Egyptians 
overwhelmingly believe that next year they will be better off 
economically. The current economic trends are headed in the 
other direction, and most Egyptians are barely making ends 
meet.
    Egypt's military leadership has played a key role in 
stabilizing the situation, but Egypt's economy has suffered 
from the unrest, tourism has declined, and investors are 
sitting on the sidelines. So expectations for the new 
government will be unrealistically high.
    As a result, a key part of our strategy, both bilaterally 
and working with the international community, will be to 
strengthen Egypt's private sector so that it can generate jobs 
and broaden the benefits of economic growth. Increased economic 
engagement with Egypt will also offer opportunities for 
American businesses to invest in and export to Egypt.
    All Americans should be proud of what United States 
assistance has achieved in Egypt over the past 30 years, but we 
are now refocusing our assistance on projects that are directly 
linked with private sector growth and sustainable jobs.
    As the President said in his May 19 speech, we are leading 
the effort in the international community to provide short-term 
stabilization for Egypt's economy. Egypt is discussing a 
program with the IMF and the World Bank, and other 
international lenders will provide the short-term resources 
that Egypt needs. We are seeking legislation which will allow 
us to forgive $1 billion of Egypt's debt and ask Egypt to 
invest the local currency equivalent in an activity we mutually 
select.
    The Overseas Private Investment Corporation is working to 
expand lending to small- and medium-size businesses.
    Senator Kerry and, you, Senator Lugar have introduced 
legislation to authorize an enterprise fund for Egypt to spur 
private sector growth.
    Our third priority is to ensure that Egypt plays a strong 
and positive role in the region. As one of only two Arab States 
to sign a peace treaty with Israel, Egypt has been a powerful 
ally for a two-state solution and a comprehensive Middle East 
peace agreement. Egypt has also been a valuable partner in 
fighting terrorism, reintegrating Iraq into the region, and 
providing assistance to refugees fleeing Libya.
    Egyptian officials have said repeatedly that they will 
abide by the peace treaty with Israel. We take these 
commitments seriously. The vast majority of Egyptians have no 
interest in regional conflict and want to move forward on their 
own democratic path. Our close defense cooperation with Egypt 
serves United States interests and promotes regional security.
    Let me say that democracies can often be loud and 
bumptious, and I am sure that Egypt will be no different. 
During Egypt's transition, we will hear many voices that are 
not to our liking, and Egypt's democratic process will be 
difficult at times, because of the newness and fragility of its 
democratic institutions.
    If confirmed, I will do everything I can to support the 
aspirations of the Egyptian people during this period of 
transition. A credible transition in Egypt matters to the 
United States and our allies, and it will serve as a model for 
the rest of the Arab world.
    Let me say in closing that I am particularly grateful for 
the critical role that members of this committee played in my 
last post. If confirmed, I know that members of this committee 
will play a similar role in the months ahead in Egypt.
    Thank you very much. And I look forward to your questions.
    [The prepared statement of Ambassador Patterson follows:]

           Prepared Statement of Ambassador Anne W. Patterson

    Mr. Chairman, Ranking Member Lugar, and members of the committee, 
thank you for the honor of appearing before you today. I wish to thank 
the President for nominating me to serve as Ambassador to Egypt, and 
for the confidence that he and the Secretary have shown in me.
    I would also like to recognize my husband, David, who is retired 
from the Foreign Service, my stepdaughter, Jessica, who is off to 
Afghanistan soon, and my son, Andrew, who is shortly to be commissioned 
in the Marines. Our other children, Edward and Rachel, are not here 
today.
    If confirmed, I look forward to leading the professionals from all 
agencies who serve in our mission in Cairo. Serving with so many 
competent and dedicated people, over the years, often under difficult 
circumstances, has been the highlight of my career.
    Should I be confirmed, I am under no illusions about the 
responsibility and challenges of serving as Ambassador to Egypt. This 
5,000-year-old society that has been a cradle of civilization and a 
longstanding regional leader is now the epicenter of enormous, 
promising changes in the Arab world. People everywhere were inspired by 
the events of Tahrir Square and Egyptian citizens' desire for freedom 
and democracy. But we should remember that transitions to democracy are 
difficult and long; that there will be reverses and surprises along the 
way; and that the Egyptians will find their own, unique path.
    When thinking about Egypt, I think we should be heartened by what 
has taken place in Latin America and Eastern Europe over the past 40 
years. While in Latin America the path to democracy and prosperity has 
hardly been a straight one, this hemisphere now has democratic 
governments in most countries and a degree of economic prosperity 
unimaginable 40 years ago.
    I am sure the Arab world will be no different. So let me say at the 
outset of
this hearing that, if confirmed, I am firmly committed to supporting 
Egypt's democratic transition, which will reinforce much-needed respect 
for human rights, with all the moral, economic, and political support 
that the United States Government can muster.
    Let me outline the strategy that the administration has developed 
and which I will pursue in Cairo, if confirmed.
    The first priority will be to encourage and support, to the extent 
that Egyptians desire it, an election process which is free and fair. 
Polling suggests that many Egyptians will have the first opportunity in 
their lifetimes to vote in a free election, so enthusiasm is 
understandably high. Just as we do in the United States, we anticipate 
that the Egyptian Government would invite international observers to 
witness this historic occasion. And as we do in hundreds of other 
countries, the United States will support nongovernmental and civil 
society organizations who wish to enhance their organizational skills 
and play a more prominent role in public life. These groups are always 
essential ingredients in an open and successful participatory political 
system.
    The strengthened democratic process should lead to increased 
respect for human rights in Egypt, since newly empowered citizens will 
demand it. We welcome the commitment of the interim government to 
repeal the emergency law, which has been used for years to justify 
widespread human rights abuses. We are concerned about arbitrary 
arrests, overly rapid and nontransparent trials, and attacks on 
religious groups, primarily but not exclusively, against Christians. 
Some particularly disgusting abuses against women demonstrators have 
taken place, and we have called on the authorities to prosecute those 
who committed them.
    Second, it is clear that the need for a job was just as strong a 
motivator for demonstrators in Tahrir Square as a desire for freedom 
and justice. Egypt has to generate over 750,000 jobs a year to absorb 
young people coming into the labor force.
    These young people are often not well prepared with skills needed 
for a modern economy, yet they have high expectations. Many of these 
young people have historically been employed by the public sector, but 
this is no longer practical given Egypt's shortage of resources.
    In fact, the International Republican Institute has just come out 
with a poll which indicates that Egyptians overwhelmingly believe that 
next year they will be better off economically. But current economic 
trends are headed in the other direction, and most Egyptians are barely 
making ends meet. During this critical transition period, the military 
leadership has played a role in stabilizing the situation, but Egypt's 
economy has suffered from the unrest; tourism has declined; and 
investors are sitting on the sidelines as attacks on the private sector 
seem to have proliferated in the aftermath of the revolution. So, 
expectations for the new government will be unrealistically high.
    As a result, a key part of our strategy, both bilaterally and 
working with the international community, will be to strengthen Egypt's 
private sector so that it can generate economic stability and broaden 
the benefits of economic growth to all Egyptians. It is keenly in our 
interests to promote economic recovery in Egypt. Young people who have 
jobs are more likely to be productive members of society and contribute 
fully in the democratic transition. Importantly, increased economic 
engagement with Egypt will also offer opportunities for American 
businesses by investing in and exporting to Egypt.
    All Americans should be proud of what United States assistance has 
achieved in Egypt over the past 30 years, particularly dramatic 
advances in reducing infant and maternal mortality and promoting 
education. USAID built the Cairo sewage system, the world's biggest 
construction project at the time, with predictable results for 
developing professional skills in Egypt and sharply increasing health 
conditions in one of the most crowded cities on the planet. We are now 
refocusing our assistance on projects that are directly linked with 
private sector growth and sustainable jobs. Let me describe some of 
this to you.
    As the President said in his May 19 speech, we are leading the 
effort in the international community to provide short-term 
stabilization for Egypt's economy. Egypt and the IMF have reached 
staff-level agreement on new financing and the World Bank and other 
international lenders will provide short-term resources that Egypt 
needs.
    We are seeking legislation which will allow us to forgive $1 
billion of Egypt's debt and ask Egypt to invest the local currency 
equivalent into an activity we mutually select. We intend it to be a 
major project that makes clear America's contribution to the Egyptian 
people. The Overseas Private Investment Corporation is working to 
expand lending to small- and medium-size businesses, which in any 
economy are the engine of job growth. OPIC is building on a very 
successful model in the West Bank. Chairman Kerry has introduced 
legislation to authorize enterprise funds for Egypt and the United 
States is working to reorient the EBRD to enable lending to Egypt. 
These have spurred private sector growth in Eastern Europe, and they 
will also spur private sector growth in Egypt. So, I believe that we 
have a sound plan going forward, along with other members of the 
international community, to encourage stability in Egypt by widening 
opportunities for both American and Egyptian firms.
    Our third priority is to ensure that Egypt plays a strong and 
positive role in the region and that our interests continue to align. 
As one of only two Arab States to sign a peace treaty with Israel, 
Egypt has been a powerful ally for a two-state solution and a 
comprehensive Middle East peace agreement. Egypt has also been a 
valuable partner in fighting terrorism, reintegrating Iraq into the 
region, and providing assistance to refugees fleeing Libya. Egyptian 
officials have said repeatedly that they will abide by the peace treaty 
with Israel. We take those commitments seriously. The vast majority of 
Egyptians have no interest in regional conflict and want to move 
forward on their own democratic path. Our close defense cooperation 
with Egypt serves United States interests and is influential in 
promoting regional security.
    Let me say that democracies can often be loud and bumptious, and I 
am sure that Egypt will be no different. During Egypt's transition we 
will hear many voices that are not to our liking, and Egypt's 
democratic process will be difficult at times because of the newness 
and fragility of its democratic institutions. If confirmed, I will do 
everything I can to support the aspirations of the Egyptian people 
during this period of transition. A successful, democratic transition 
in Egypt matters to the United States strategically; it matters to our 
allies; and it will serve as a model for the rest of the Arab world.
    Let me say in closing that I am particularly grateful for the 
critical role members of this committee played in my last post. If 
confirmed, I know that this committee will play a similar role in 
maintaining our bilateral relationship with Egypt and in ensuring a 
credible democratic transition.
    Thank you and I look forward to your questions.

    Senator Lugar. Well, thank you very much, Ambassador. We'll 
have a round with 7 minutes for each Senator.
    And I'll commence the questioning by simply commenting how 
much admiration I have not only for your performance in your 
last assignment, but also your remarkable career on behalf of 
our country.
    We also appreciate the members of your family being here. 
They exemplify, likewise, the service to our country that's a 
part of your family.
    Let me start by saying that the Washington Post on June 19 
talked about a problem that has been often discussed in this 
committee as to what role the United States ought to play in 
support of the political transition in Egypt. It's been 
suggested, for example, that perhaps the election that is now 
scheduled for September should be delayed. This is a point of 
contention, obviously, in Egypt, quite apart from our 
discussions going on here in the United States.
    The dilemma comes down to the fact that those who are 
trying to put together political parties find themselves 
involved in a lengthy enterprise. This would include not only 
those who were in Tahrir Square, but other people in Egypt. 
Thus, the fear is that the Muslim Brotherhood, which is 
apparently better organized than most other political 
movements, might play a dominant role in the upcoming election, 
with results that would not exemplify the best in terms of 
Egyptian democracy or Egypt's relationship with the United 
States.
    In the past 2 or 3 days, there was a story in the press of 
a young Egyptian who was one of those who was attempting to 
rally for democracy in Tahrir Square, and who has subsequently 
gone out into the countryside to try to encourage people to 
sign a petition to establish a new political party, which 
apparently requires 5,000 signatures. He had gotten up to 1,000 
signatures but was finding it to be very difficult going, 
because the citizens he encountered wanted to talk primarily 
about fundamental issues such as their lack of food and their 
lack of employment.
    They, to use our political jargon presently, were involved 
in the jobs issue, and were not as interested to discuss what 
seemed to them to be more abstract issues such as the political 
transition or the formation of a political party.
    What is your general comment on this? Because as you 
accede, and I think you will be confirmed for this role, you're 
going to be there during much of this formative period, prior 
to September, in which there are going to be intense 
discussions regarding the need to ensure there are competitors 
in a free and fair election that really makes some difference.
    Ambassador Patterson. Thank you very much, Senator Lugar, 
and thank you for the kind words about me and my family.
    Let me first address what we're doing as the U.S. 
Government to try and advance this process. And I think I, for 
one, am very heartened at the receptivity of some of our 
groups, like the National Democratic Institute and the 
International Republican Institute and IFES, have had in Egypt, 
because their job is precisely the one that you have suggested, 
which is try and teach politicians, nascent politicians who 
have very little experience in a democratic political system, 
how to do basic things like organize and hold debates and do 
polling.
    And so we have invested quite a few resources, close to $40 
million, in these organizations over the past few weeks. And 
they're very active on the ground in Egypt, and, as I 
mentioned, have been very well received.
    We've also tried to support smaller organizations. And 
through our Middle East Partnership Initiative, we've given 
out, I think, 35 grants since the unrest in Tahrir Square to 
small civil society organizations, and many of them in rural 
areas who are doing just what you say, trying to connect the 
people's grievances with their political desires.
    And we're not alone in this process, Senator. Other members 
of the international community are doing the same.
    But certainly with the fragility of institutions, it's 
going to be a long, hard slog.
    And as you mentioned, the issue of the timing of the 
elections has been a controversial one in Egypt, and I think 
there are voices on many sides of that issue. But we will do 
our best in whatever time remains before the election to 
promote this democratic transition through our organizations, 
to the extent that Egyptians are willing to engage with us.
    Senator Lugar. We have had some difficulty, as I 
understand, not just with our assistance pertaining to the 
elections, but likewise with economic assistance.
    Some in the Egyptian Government--I wouldn't characterize 
this more broadly--have protested that somehow their 
sovereignty is being compromised by our economic assistance. At 
the same time, it's been noted that around USAID headquarters 
there, there are long lines of people trying to avail 
themselves of our assistance programs.
    What is your reading, as you prepare for this assignment, 
of how our aid is being accepted? And to what extent will you 
be able to monitor our assistance on behalf of the taxpayers in 
the United States, who may fear that our assistance is going to 
uncooperative or corrupt governments who fail to use it for its 
stated intent even as we are attempting to do good?
    Ambassador Patterson. Yes, Senator Lugar. I think on what 
we call the money to promote democracy, which is about $65 
million, and the money to promote economic growth, there has 
been a very large outpouring from the public. And hundreds of 
people, I think something like 600 organizations, came to the 
information sessions for how to apply to these grants. And so 
there is a lot of interest on the part of Egyptian civil 
society.
    Let me take this opportunity to say that by no means is 
this an affront to Egyptian sovereignty. We do these programs, 
as you well know, sir, in hundreds of countries in the world. 
And they're always, almost always, well received by the 
governments as support for their own democratic institutions.
    On the monitoring issue, Senator Lugar, monitoring of small 
grants is always problematic. And I have already looked into 
this issue with the Middle East Partnership Initiative, and I 
think they have a good auditing program on the ground.
    And regarding our larger aid program, there is an office of 
the AID inspector general in Cairo, and I think they have long-
established controls and rigorous procedures in effect.
    But please rest assured that this will be a very high 
priority for me, to be sure that our money is used for the best 
value for the taxpayer.
    Senator Lugar. That's an important reassurance.
    Ambassador Patterson. Yes, thank you.
    Senator Lugar. I'd like to recognize Senator Casey.
    Senator Casey. Thank you very much.
    Ambassador Patterson, it's great to see you.
    Ambassador Patterson. Thank you, sir.
    Senator Casey. And let me say, I think I can speak for a 
lot of people, but for purposes of today, just speak for myself 
in thanking you for taking on yet another difficult assignment. 
And I really can't say enough about your extraordinary work in 
Pakistan, along with your other postings over many years.
    I thought when you appeared before us for your next 
assignment that it would be kind of an easy one, that you'd be 
assigned to the Sea of Tranquility, but you've decided to take 
on another tough assignment.
    We are grateful, because you've been so effective and so 
capable, but also, I think, in a word, a great patriot. And 
we're eternally grateful for that.
    And I want to thank your family, as well. We often note 
that families help the public official or the Ambassador or 
whoever else comes before our committee. And this is an 
extraordinary commitment by a family. But in this case, I 
guess, individually, they're doing their own public service of 
one kind or another. And we're grateful, grateful for that 
commitment.
    So we'll miss you in Islamabad and other places in the 
country, but we'll look forward to seeing you in Egypt.
    I wanted to ask you about the recent approach that Egypt 
broadly--and this is generalizing a bit, but I think more 
broadly--what I would argue is a more confrontational approach 
now to Israel, whether it's the opening up of the Rafah border 
crossing; whether it's the Hamas-Fatah unity government, the 
work that was done there and Egypt's role in that; and then 
finally the question of the gas lines to Israel.
    When you think about those three examples, and more 
broadly, I wanted to get your sense of that, just in terms of 
the approach itself, but also in terms of our policy. What are 
the United States redlines, so to speak, as it relates to how 
Egypt will approach its relationship with Israel? I think it's 
an issue that not just the Israelis are concerned about, but we 
are as well.
    Ambassador Patterson. Thank you. Thank you. And, again, 
thanks for the kind words about my family, particularly.
    Let me sort of take this in sequence, Senator Casey.
    Let me first say that Egypt is the bedrock of our regional 
policy. And Egypt has been at peace with Israel for many years, 
and the current Government has committed to abiding by all 
international agreements with Israel. And, as I said, we take 
those commitments seriously, and we do not think it's in 
Egypt's interest to promote confrontation with Israel in any 
way.
    And if I might mention these specific issues, on the Rafah 
border crossing, that's for people and limited humanitarian 
goods. There are security incidents there. The smuggling is of 
very considerable concern to us. We know that the Israeli and 
Egyptian security authorities have been working together on 
this and have been in close contact, and that the Egyptians, 
with Israeli permission, have put additional military forces 
into the Sinai to address some of these issues. But there 
certainly have been increased law and order issues out there. 
We understand the police are beginning to return now.
    On the Hamas-Fatah agreement, Egypt served as a 
facilitator. Our understanding is it was at the instigation of 
Hamas, who, perhaps because of other activities, incidents in 
the region, was anxious to come to some kind of arrangement 
with Fatah. We're not necessarily opposed to reconciliation; 
what we are very concerned about that, that it promote regional 
peace and the two-state solution. Our understanding is that the 
reconciliation has sort of slowed at this point, because 
President Abbas is very concerned about it and very concerned 
that the assistance for the West Bank and the support that's 
been given to the P.A. continue.
    And, finally, the gas lines to Israel, we certainly know 
that this has been a concern. The gas has started to flow 
again. The pipeline was attacked twice in recent months, again 
because of lack of law and order out there and banditry. But it 
has started to flow again. And there are some pricing disputes 
that will be addressed between the vendor and the purchaser.
    But, yes, Senator, these are issues of concern to us. And, 
again, nothing is more important to the United States than 
regional peace and Egypt's peace with Israel. And we'll do 
everything we possibly can to pursue that.
    But if I might conclude, again, the Government has 
reiterated at every turn its respect for these peace 
agreements, and we know that on many of these issues that the 
Israelis and the Egyptians are talking directly.
    Senator Casey. Thank you. And I want to ask you about some 
of the economic relief promises that have been made.
    Egyptian officials emphasize the need for that kind of 
relief. And as you know, our President--President Obama 
announced $1 billion in debt relief and $1 billion in U.S.-
backed loan guarantees.
    But there have been calls for conditioning that kind of 
assistance, and I wanted to get your sense on how do we--if 
there is a commitment to somehow conditioning that aid or at 
least taking their actions into consideration as it relates to 
our aid, what are the benchmarks that we should use, if we can 
just simply call them democratic benchmarks or democratic 
reform benchmarks? How do you approach that as an incoming 
Ambassador?
    Ambassador Patterson. Yes, thank you.
    On the debt relief, sir, we'll be presenting legislation 
shortly to the Hill that will build on previous legislation for 
some of these debt relief and debt swap, I think--let me say 
that one of our goals and the reason it has taken awhile to 
develop is we're trying to find a worthy recipient for the 
local currency that will be generated by these funds, and one 
that is transformational and addresses some of Egypt's 
underlying problems. The Secretary feels very strongly that we 
should have a transformational project.
    But certainly, the draft legislation that we've considered 
that builds on some of this previous legislation does have--I 
wouldn't call it ``conditions.'' There would be the standard 
issues that are in this legislation about democracy, about 
various human rights observations, observation of human rights. 
And again, we would expect them, as we do in all economic 
agreements, to abide by the provisions of the IMF agreement. 
And most aid agreements contain quite specific conditions on 
health reform or education reform that aren't too onerous, but 
we expect our aid to be used to promote a reform process.
    So I would certainly, if confirmed, expect to continue that 
tradition and enhance it.
    Senator Casey. Thanks very much.
    Senator Lugar. Thank you, Senator Casey.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    And let me join in not only welcoming, but thanking Ms. 
Patterson for your service, and thank your family for your 
continued willingness to help our country.
    This is a critically important position, as my colleagues 
have pointed out. And we all wish you well representing the 
United States in this transitional country, as well as in a 
part of the world where there's great hope for democracy.
    We have found, by the Arab Spring, that the desire for 
human rights and democracy is universal, and the United States 
is looked upon as a facilitator to bring that about. And your 
role will be very important in that regard.
    Egypt, obviously, is a critically important country to 
United States strategic interests, their role in regards to the 
Middle East, as Senator Casey has pointed out. They're 
important for moving forward with Israel, and one of the key 
points is whether they will continue to honor the agreements 
reached with Israel. They're very important in our campaign 
against extremists.
    But here's the dilemma we face. There are some who believe 
that we have to be bolder in our development assistance in 
Egypt, that the main trigger for the revolution was basically 
economics, that the people were being denied the basic economic 
growth of their country, and they wanted to do better for their 
families. That will require more attention by the international 
community to make significant progress in Egypt's economic 
growth.
    There are others that believe that we have to make sure 
that there's accountability on U.S. aid. I fall into both 
camps. I think we have to be bolder, and we have to have 
accountability. We have responsibility to make sure that aid is 
used for its intended purpose. And to me, there is a 
requirement that that aid go to nations who support our basic 
goals with peace with Israel and will maintain that 
relationship with Israel, that they will fight extremists, and 
that they'll provide basic human rights to its citizens.
    But there have been some disturbing trends in Egypt. We're 
not clear as to whether Hamas is getting a stronger footing 
within that country. We don't know whether there is effort 
being made to fund extremists through Egypt. We're not exactly 
clear on the trafficking of weapons that may very well end up 
being used to attack Israel.
    And we look to you as our eyes and ears in Egypt to be able 
to give us the best advice as we have to sort through these 
issues. I would like to get your general view as to how you see 
your role advising us as to how we can move forward with the 
strategic partnership with Egypt, but using the tools at our 
disposal to make that more of a reality.
    Ambassador Patterson. Thank you, Senator Cardin.
    First of all, let me say that I would entirely expect and, 
frankly, look forward to interaction with members of this 
committee, if I am confirmed as Ambassador to Egypt. And if 
confirmed, I would also look forward to visits on the ground, 
where you could see for yourself how we're progressing on these 
issues. So I would very much look forward to working with 
members of this committee and keeping you advised.
    Let me say that I think the dilemma that you've laid out is 
a real one and one we're going to have to struggle with over 
the next few months.
    Now I think on the stabilization and have we been bold 
enough, let me say that I think we've tried to take a 
leadership role in the international community and encourage 
burden-sharing, where other members and other countries and 
other organizations can come forward with the short-term 
resources that Egypt needs, because there's no question that 
this big youth bulge, this unemployed youth bulge and all these 
kids getting out of colleges with essentially no skills and 
second-rate educations, and soaring food prices, and declining 
tourism, these are all going to be very difficult issues to 
maneuver over the next few months.
    But we've tried. The IMF is working with the Government. 
The World Bank is prepared to lend very considerable funds. The 
European Bank for Reconstruction and Development and some of 
Egypt's allies in the gulf that Senator Kerry has been working 
with are also prepared to provide short-term stabilization 
funds. So I think that will begin to stabilize in a few months.
    From our standpoint, we're going to focus on democracy in 
governance and private-sector growth, because that's where the 
future is in Egypt, I think. This youth bulge could turn into a 
very significant demographic dividend, as they have a lot of 
young people in productive jobs. And as I mentioned, we will do 
everything possible through AID and through various inspectors 
general to monitor this aid and to be sure that it's usefully 
used.
    And I was, as I mentioned earlier, we certainly share your 
concern about Hamas and some of these other--there's no 
evidence, I might add, Senator, that Hamas has a closer 
relationship with the Egyptians. They have facilitated this 
reconciliation with Fatah.
    But I think, to reiterate again, we are going to hold Egypt 
to its commitments about peace with Israel. And those 
commitments are in Egypt's interest. There seems to be 
certainly no inclination within the current government to do 
anything to undermine these commitments that they've made.
    Senator Cardin. Let me just underscore one point in regards 
to the normalization of the relationship between Israel and 
Egypt.
    It was very frustrating under the Mubarak administration to 
see the government condoning such anti-Semitic activities, 
particularly in their schools with the textbooks, et cetera. We 
brought that to the attention frequently of the Egyptian 
Government.
    And I would hope that we've learned a lesson that, if 
there's going to be lasting stability in the region, that 
democracy, human rights, and understanding need to be part of 
that, which means that we should have expectations that the 
Egyptians will facilitate, rather than fuel discriminatory-type 
views.
    Ambassador Patterson. Sir, this issue of textbooks is, 
frankly, an issue in many Islamic countries. It was certainly 
an issue in my previous post, and it's one we work on. And it's 
sort of, if I might say, below the radar a little in many 
countries.
    And I was very interested to read some of the conditions on 
our assistance program in Egypt, and one of them is to 
transform these textbooks into something that is more broadly 
acceptable.
    But, yes, the anti-Semitism, actually, Senator, seems to 
have increased recently, because they've sort of taken the lid 
off a lot of this in Egypt. But again, it's critically 
important. This is why the building of democratic institutions 
is so critically important, so people have a voice.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Ambassador Patterson. Thank you.
    Senator Lugar. Thank you very much, Senator Cardin.
    Senator Coons.
    Senator Coons. Thank you.
    I'd like to join the other members of the committee in 
saying that I'm thrilled to welcome Ambassador Patterson. I've 
had a number of conversations with you before about your 
service in Islamabad and was very impressed with your grasp of 
the political nuances and the intricacies of diplomacy. Over 
your nearly four decades of service to our Nation, you've 
clearly amassed a remarkable background in many challenging 
posts in El Salvador and Colombia and Pakistan.
    And I'd like to join other members of the committee in 
thanking David and Jessica and Andrew for your willingness to 
serve this Nation in the past and in the future.
    I'll remark that my predecessor in this seat, Senator 
Kaufman, chose to highlight your service to our Nation by 
recognizing you as a great Federal employee on the Senate 
floor, something which he did with great effect and enthusiasm. 
And I know I've come to share his respect and admiration for 
you and for your service.
    I think, if I could, I'd like to start by focusing on that 
recent experience in Islamabad and your understanding of the 
difficulties of sort of the rough and tumble of a relatively 
new democracy. You mentioned in your testimony that, during 
Egypt's transition, you're sure that we will hear many voices 
that are not to our liking, and that Egypt's democratic process 
will be difficult at times because of its newness and 
fragility.
    I'll just associate myself with Senator Casey's expressed 
concerns about the Israeli-Egyptian relationship, the security 
at the border, the relationship with Hamas, recent incidents in 
terms of bombing the gas pipeline, and security is really one 
of my principal concerns as well.
    Senator Cardin referenced history of incitement and some 
challenges there, and I appreciate your reassurance to the 
committee that this is a primary concern for you.
    Senator Casey raised the question about putting conditions 
on assistance, possibly. And as someone who was charged with 
overseeing the first round of Kerry-Lugar-Berman assistance to 
Pakistan, and who saw how difficult and uneven that process has 
been, particularly as at times unwelcome voices caused 
reactions in this Chamber, I'd be interested in your views.
    Should we condition assistance to Egypt? How can we be most 
effective in encouraging private sector development and growth? 
Should we look at a similar multiyear structure that has 
sustained investment in a sort of primary area of engagement?
    And we have great confidence in you. How do we retain 
confidence in the commitments of the Egyptian Government as it 
changes and evolves to recognizing the Camp David Accords, and 
being determined to stay on course in terms of respecting 
Israel's right to self-defense and right to existence, and 
continuing to be a constructive force in the recognition of 
Israel?
    A brief and focused question, I know. [Laughter.]
    Ambassador Patterson. Thank you.
    On conditioning assistance, yes, certainly in Pakistan that 
was a huge issue with the assistance there. But, first of all, 
there are already conditions in the Foreign Assistance Act 
across a broad range.
    And I think my own view is that conditions are sometimes 
useful to focus the attention of the host government on what 
they need to do. And that's why it's very important, also, for 
government officials to meet with you when they come here and 
for you to meet with them when you travel abroad, to reiterate 
this.
    So I don't think we can sort of give out the taxpayers' 
money willy-nilly without demanding certain conditions, not the 
least of which is the money be used for the purpose for which 
it was appropriated.
    On private sector growth, Senator, we're going to have to 
refocus a lot of our aid program to promote this. I think, 
again, we should be very proud, particularly in the health and 
education field, for what aid has achieved. But we have a lot 
less money than we used to in Egypt. And so to begin to focus 
this on something that builds up the private sector, we have, 
for instance, a little program on entrepreneurship, which 
engages young people and promotes angel investing.
    That sort of thing we need to do a lot more of over the 
next few years, and generally to encourage trade with the U.S. 
through trade facilitation and other things like this.
    On retaining confidence in the Camp David Accords and peace 
with Israel, again, the Government so far--and our military 
assistance over the years, which is very substantial, $1.3 
billion a year, has certainly, I think, enhanced regional 
stability. And we have a program, a multiyear program for that 
military assistance.
    And, yes, generally speaking, I think it would be good to 
have multiyear programs for civilian assistance as well, 
because it gives more certainty and more steadiness to our 
planning and our disbursements.
    But we'll have to see what the new elected government does. 
I mean, I don't really have any better answer than that. We'll 
have to see how this evolves with an elected government.
    Again, there is no evidence that people in Egypt--there's 
no evidence that Egyptian Government officials or the leading 
politicians don't see peace with Israel is in their interest. 
Many of them want to get on with their own democratic and 
economic path, and I think the politicians to be elected will 
have to focus on these burning economic issues.
    Certainly, in Tahrir Square, we saw no anti-Americanism and 
no anti-Israeli statements. It was all about Egypt's domestic 
politics.
    Senator Coons. Last question, in terms of path forward. I'm 
chair of the African Affairs Subcommittee, and Egypt has played 
a role in Sudan, sometimes constructive, sometimes not so much. 
They've received a lot of Sudanese refugees. Egypt is one of 
the continent's largest, fastest growing economies, 
populations, has a lot of potential.
    How do you think we can encourage a constructive role that 
Egypt might play in the future in Sudan?
    Ambassador Patterson. Yes, I think that's a very accurate 
characterization. Sometimes they've played a positive role, and 
sometimes they haven't. But we'll just have to engage with them 
on all levels.
    And one of the reasons we're having these outreach programs 
with the nascent political parties is not only to engage on 
political party formation, but also to discuss--and our Embassy 
has been very active in this--also to discuss the issues of the 
day, which would include issues like Sudan, regional 
engagement, economic reform. So we'll be talking these issues 
up over the next few months.
    Senator Coons. Thank you very much.
    Senator Lugar. Thank you very much, Senator Coons.
    Senator Udall.
    Senator Udall. Thank you, Chairman Lugar.
    And I think all of our Senators on this panel have done a 
brilliant job here at outlining your remarkable career, and I'd 
just like to thank you for your remarkable service to our 
country and thank your family members. Each of them, I think, 
are serving or have served at key places around the world, and 
we also appreciate that service.
    Ambassador, you hit on one of the things that is so 
prevalent throughout the Middle East, this whole issue of jobs. 
And there is a young population and a need to create 
significant jobs. And I think you highlighted in your testimony 
750,000 jobs a year, which is a big feat to be able to do that.
    And we all know, and I think we feel, that the lack of jobs 
then creates a fertile ground for violence and for terrorism 
and things like that.
    So my question I wanted to ask goes to--and you've touched 
on this a bit, in terms of how we're using our money. But I 
understand recently that Secretary Clinton has done 
reprogramming, in terms of the funds that were available for 
Egypt, and she's moving funds from one category to the other. 
And I was wondering if you could outline for us where we've 
taken money away from, and then why we're doing that, and then 
what areas we're targeting.
    I know that you mentioned angel investors and other kinds 
of programs, but I think it would be helpful to the committee 
to kind of have an idea of where do we think are the key--with 
the scarce resources we have, where do we think are the best 
places to invest?
    And I know you've said in a broad, general way that it's 
important to invest in good governance and also in the 
development of the private sector.
    Ambassador Patterson. Thank you, Senator.
    Let me say this job creation and, frankly, these youth 
bulge issues are really rather frightening, but they can have a 
huge upside. Pakistan, for instance, had to generate 2 million 
jobs a year for new entrants to the labor force.
    But in Latin America, what happened was that this became a 
huge demographic benefit, because there were all these people 
in the labor force that had fewer children and didn't have to 
support the elderly, like many of our developed societies, so 
it was a huge impetus for economic growth. And I don't see any 
reason that, properly handled, that Egypt's economy can't do 
the same thing.
    But let me outline more specifically what we're trying to 
do. The Secretary did reprogram funds, and she took it what I 
would call out of Egypt's pipeline, economic assistance 
pipeline, which was not disbursing very rapidly, because Egypt 
had not met the conditions for disbursement of this pipeline.
    So we took $150 million out of that pipeline, and we 
allocated $65 million of it to democracy and governance, and 
that's the funding source, as I mentioned, for some of our 
prestigious organizations.
    And we're going to put $100 million in, essentially, job 
creation, issues like, in the short run, cash for work, which 
is not sustainable but will, I think, solve some short-term 
problems.
    So we have, Senator, we have the Overseas Private 
Investment Corporation, which has a very sophisticated program 
for lending. We have our debt swap programs. Again, the whole 
AID program will be refocused to promote economic reform and to 
do such varied things as work with think tanks and political 
parties to help them develop platforms on economic reform, to 
do job creation, to do trade facilitation.
    There are issues, and this was actually a very important 
issue in my other post. To increase trade, you need a certain 
amount of infrastructure. What's the infrastructure that you 
can build that will most efficiently promote trade flows? And 
as we go into more trade liberalization with Egypt and North 
Africa, this will be important, too.
    So we're looking at that. That's a fairly high-cost and 
long-term project, but that's the sort of thing we're looking 
at to promote jobs.
    Senator Udall. Ambassador, when you say cash for work, how 
does that program work?
    Ambassador Patterson. Essentially, and we're trying not to 
do too much of this, because it's not sustainable, but it takes 
young people, mostly young men, off the streets, and it pays 
them to do, basically, manual labor.
    And we try not to do very much of this in our assistance 
programs, because it's not sustainable. But sometimes it's 
necessary in some of these countries, because it does put cash 
in people's pockets.
    Senator Udall. Yes, and it's showing that I think there's a 
feeling that we're kind of in an, maybe not to put it too 
dramatically, emergency situation. But we are in a situation 
where there's serious unemployment, and that creates all of the 
other problems.
    If I could, just shifting direction, just briefly here, on 
water usage and increasing concerns about the Nile River and 
water shortages in the region, I know that many countries are 
increasingly concerned about Egypt's especially upstream users 
of the high rate of water usage.
    What role can the United States play and what role will you 
help to play to facilitate water conservation, so the region 
avoids conflicts over the water resource?
    Ambassador Patterson. Yes, and then related to your 
previous question, I should have mentioned this, that we do 
have projects, certainly, to promote agricultural efficiency, 
because most of these countries are rather--they don't have 
very good water management systems, so we are working on that, 
too, as part of our agricultural project.
    But on the Nile Basin Initiative, the department has been 
very active in trying to encourage the countries to come 
together, as has the World Bank, and work out a settlement 
among themselves.
    Senator Udall. Great. Thank you very much, and thank you 
again for your service.
    Senator Lugar. Thank you, Senator Udall.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Ambassador, thank you for your long service to our country. 
You've had a distinguished career, and you have been nominated 
for an exceptionally important assignment at this time in 
history.
    In between my meetings, I was glancing at the TV in my 
office trying to capture your answers to Senator Casey's 
questions, but I want to pursue them a little bit more.
    I want to know your views on what we will tell Egypt about 
the state of relations between our countries, in terms of its 
adherence to the Camp David peace treaty with Israel?
    Ambassador Patterson. Senator Menendez, I don't think there 
could be the slightest doubt about our views about Egypt's 
adherence to the Camp David peace treaty with Israel.
    And, as I mentioned before, I think the Egyptian Government 
at all levels has made utterly clear its commitment to that 
treaty, which is in its interests.
    Senator Menendez. And yet, there are a series of actions 
that we have seen that are unsettling to some of us who believe 
that that is a cornerstone of United States foreign assistance 
to Egypt.
    Is Egypt's adherence to its international obligations, 
including the peace treaty with Israel, a prerequisite for 
United States assistance?
    Ambassador Patterson. Well, let me put it this way, 
Senator: We entirely anticipate that Egypt will abide by its 
international agreements, and the assistance to Egypt is, of 
course, based on those agreements from many years ago.
    Senator Menendez. If we were to come to the conclusion that 
we do not believe that Egypt is pursuing its international 
obligations to that agreement, then we would expect that we 
would not be forthcoming in terms of the $1.5 billion that we 
give Egypt?
    Ambassador Patterson. Senator, I don't think we have any 
reason to expect that Egypt is not going to abide by its 
commitments with Israel. But, again, as I said, I think this is 
widely known, that the assistance to Egypt is essentially as a 
result and tied for many years to the Camp David Accords.
    Senator Menendez. So the reopening of the Rafah border 
crossing, which has been closed since 2007, due to concerns 
about Hamas using that to bring weapons and fighters into Gaza; 
some of the gas disruptions that have taken place, and 
additional actions, you're not concerned?
    Ambassador Patterson. I didn't say that, Senator Menendez. 
I think what I told Senator Casey was, in fact, we were 
concerned about these issues and, in fact, that the Egyptians 
and Israeli security forces are working on these issues, that 
there is a very serious concern about smuggling, of course. And 
the Egyptians with Israeli concurrence have put additional 
troops into the Sinai to confront this.
    The gas is flowing again. There were two attacks on the 
pipeline. The law and order situation is bad there, but the gas 
is flowing again.
    There are some pricing disputes, but this is an issue that 
we think the Egyptians and Israelis can work out between 
themselves.
    Senator Menendez. Many of us have and had and have still 
high hopes for a transition in Egypt that is both more 
democratic and continuingly secular, but many of us also have 
concerns about recent actions and where we're headed.
    And our support, certainly this Senator's support, for 
assistance to Egypt at the levels that we have been supporting 
it is predicated on a continuing relationship with a major ally 
of the United States important to our national security and our 
national interest. And so I hope you understand that there are 
those of us here who are not ready to sign a blank check 
because of a long-term relationship, and we will be expecting 
our next U.S. Ambassador to make that very clear.
    Ambassador Patterson. Senator, I don't think anyone expects 
the Congress of the United States to write a blank check 
anymore. Our financial conditions would not permit it.
    And I think the military assistance, in particular, as well 
as the civilian assistance, but particularly the military 
assistance, the very significant amount that you all have 
appropriated over the years, has really been a source for 
stability and encourages stability in the region.
    Senator Menendez. Well, financial circumstances certainly 
create pressures on all of our assistance abroad. But, in my 
mind, this relationship, in terms of whatever continuing 
assistance the United States might produce, is beyond even the 
financial circumstances of the country. It is also about 
whether or not Egypt is living up to our expectations, for 
which we are willing to assist it in moving in the right 
direction.
    So I think I've made my case. I will leave it at that.
    I want to talk about one other thing, and it is something I 
am seriously concerned about. It's how Coptic Christians are 
treated inside of Egypt. It is totally unacceptable. You know, 
we have seen an Egyptian court have 16 suspects that were found 
not guilty. The two who were convicted were released on bail.
    I heard of a recent peaceful sit-in by Coptic Christians 
trying to get churches reopened that was attacked by a group of 
men using firearms, knives, stones, Molotov cocktails. Over 78 
people were wounded.
    What progress do you see being made by the military council 
to end sectarian violence and tension? And what are the 
prospects for constitutional changes in laws that would address 
sectarian violence and ease restrictions, for example, on 
building churches?
    I have a tremendously productive Coptic Christian community 
in my State of New Jersey, and they are a very peaceful people. 
They're very entrepreneurial.
    I don't understand this continuing violence against them. 
And I would hope the United States makes it very clear to Egypt 
that the continuing attacks on people, simply because of the 
altar that they choose to worship at, is not acceptable.
    Ambassador Patterson. Yes, thank you, Senator Menendez.
    Yes, we've made this absolutely clear to the Egyptian 
Government on many levels. And this has certainly flared up 
after the unrest in Tahrir Square, and I think it's gotten 
worse. I don't think there is any question about that.
    That said, the military government has reconstructed the 
church that was destroyed and has arrested people that have 
attacked Coptic Christians. There was just a draft law the 
other day, and, frankly, we've gotten very mixed reports on 
this about the construction of these churches or mosques. It 
may not be satisfactory to the Coptic community. We just don't 
know yet.
    But we certainly expect this Government and the new 
Egyptian Government to observe freedom of religion, which is in 
their constitution and in the Universal Declaration of Human 
Rights, of which, of course, Egypt is a signatory.
    So that is certainly one of our expectations of this 
Government and any new government.
    Senator Menendez. And my final question, as the next 
Ambassador, can I rely upon you to vigorously raise this 
question with the Egyptian Government?
    Ambassador Patterson. You certainly can, Senator Menendez. 
Absolutely.
    Senator Menendez. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Lugar. Thank you, Senator Menendez.
    If there are no more questions of Senators, we thank 
Ambassador Patterson once again for her testimony and wish you 
well. And I know the committee will be taking action very soon.
    Ambassador Patterson. Thank you very much, Senator.
    Thank you, members. Thank you.
    Senator Lugar. The chairman has asked Senator Casey to 
chair the second panel, and I'm delighted to relinquish the 
chair to my colleague. And we'll call the second panel to come 
forward, please.

              STATEMENT OF HON. ROBERT P. CASEY, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey [presiding]. Well, thank you. We want to 
welcome our second panel.
    I'll have a brief opening statement, then I'll turn the 
microphone over to our ranking member, Senator Lugar, and then 
we'll go with each of the witnesses' opening statements.
    Let me say first, with regard to the United Arab Emirates, 
the UAE sits at a strategic location in the Persian Gulf and 
has taken an active role in the region during the unprecedented 
period of political change that we're living through today.
    The UAE has been constructive in the Gulf Cooperation 
Council's mediation effort in Yemen, and has taken positive 
steps to monitor and combat terrorism and extremism in the 
region.
    The UAE is also an important partner in Afghanistan. Since 
2004, it has deployed 250 troops to southern Afghanistan, 
making it the only Arab country to contribute combat forces to 
the NATO mission. The Government has also pledged $323 million 
in economic assistance to Afghanistan.
    There are concerns, however, about the UAE's ongoing 
relationship with Iran. While the government has been 
responsive to some United States concern over the reexport of 
U.S. technology to Iran, we need to encourage--or, I should 
say, need to continue to encourage the UAE to vigorously 
enforce international sanctions on Iran.
    I look forward to hearing how Mr. Corbin intends to work 
with the UAE Government to address these serious concerns.
    Mr. Corbin is a career senior Foreign Service officer 
currently serving as Deputy Assistant Secretary of State for 
Near-Eastern Affairs. His experience working in our Embassies 
in Iraq, Syria, and Egypt will undoubtedly serve him well in 
this position, if confirmed.
    Welcome, sir.
    Kuwait is another key ally in the gulf region and has been 
pivotal in 2 decades of United States efforts to reduce the 
threat posed by Iraq. With Iraq largely stabilized, Kuwait now 
serves as the key route for the drawdown of United States 
troops and equipment. Thousands of United States soldiers 
continue to pass through Camp Arifjan, a military logistics hub 
south of Kuwait City, whose importance I witnessed firsthand 
during a visit to Kuwait in 2010.
    While Kuwait has been a leader in the gulf on 
democratization issues, as evidenced by the election of four 
women to Parliament in 2009, there is still progress to be 
made, particularly in human trafficking. And for the fourth 
year in a row, the U.S. Trafficking in Persons Report ranked 
Kuwait as a ``Tier Three'' country, the lowest level, for 
failing to make sufficient efforts to comply with minimum 
standards for the elimination of trafficking.
    The United States must continue to engage Kuwait on this 
serious issue, including the full prosecution--full 
prosecution--of all cases, including Kuwaiti citizens.
    Mr. Tueller is a career senior Foreign Service officer 
currently serving as Deputy Chief of Mission in Egypt. If 
confirmed, he will bring a total of 6 years of experience in 
Kuwait, first as a political counselor from 1991 to 1994; then 
as Deputy Chief of Mission from 2004 to 2007.
    And I'd also like to take this opportunity to welcome Mr. 
Tueller's two sisters, Dianne and Betsy, and his nephew, Eli, 
who have traveled here from Belmont, MA, today.
    That just happens to be my wife's hometown, so I'm happy to 
be able to mention that. My mother- and father-in-law would 
want me to mention Belmont in this hearing today. [Laughter.]
    Kazakhstan has played a key role in the transportation of 
non-lethal supplies for our troops in Afghanistan through its 
participation in the Northern Distribution Network, the so-
called NDN. As Pakistani supply lines have become increasingly 
precarious, the NDN has become even more vital to our security 
interests in the region.
    Kazakhstan can also play a key role in European energy 
diversification efforts, particularly through its participation 
in the Nabucco pipeline.
    Despite hope that Kazakhstan's 2010 OSCE chairmanship would 
usher in long-awaited democratic reforms, serious human rights 
abuses persist, including severe limits on free speech and 
assembly, discrimination against women, and the ongoing 
detention of political activists.
    The United States must continue to encourage democratic 
openness and respect for human rights through engagement with 
civil society and ongoing diplomatic exchanges.
    I welcome Mr. Fairfax's insight into these complex set of 
issues.
    Mr. Fairfax is a career senior Foreign Service officer who 
has served in challenging posts around the world. He currently 
served as Minister Counselor for Economic Affairs at the United 
States Embassy in Iraq and has served in our overseas posts in 
Vietnam, Poland, Ukraine, Canada, and South Korea.
    I'd also like to welcome his wife, Nyetta, who is here with 
us today.
    So we're grateful for your work and for her presence here.
    And finally, Qatar is another important United States 
partner in the gulf and host to the former headquarters of U.S. 
CENTCOM. It has taken an active role in response to the recent 
unrest in the region, and it was the first Arab State to 
recognize Libya's Transitional National Council, one of two 
Arab countries to do that, along with the UAE, to contribute 
military aircraft to NATO's Operation Unified Protector in 
Libya.
    Its policy of engagement with Iran and Hamas has been a 
cause for great concern for the United States and Israel, and 
there are reports that Hamas may be seeking to relocate to Doha 
due to political turmoil in Syria.
    Human rights groups continue to criticize Qatar's ban on 
political parties and restrictions on freedom of speech, press, 
assembly, and religion. Moreover, its large population of 
foreign residents and temporary laborers enjoy no political 
rights, and unskilled laborers continue to live in hazardous 
conditions.
    Ms. Ziadeh is a career senior Foreign Service officer as 
well, currently serving as Deputy Chief of Mission in Saudi 
Arabia. Prior to this, she was Deputy Chief of Mission in 
Bahrain from 2004 to 2007, and has also served at our Embassies 
in Iraq, Kuwait, Jordan, and Israel.
    I'd like to welcome her sister, Rhonda, who is here with us 
today.
    With that, I would turn to our ranking member, Senator 
Lugar.
    Senator Lugar. Well, thank you very much, Chairman Casey. I 
appreciate very much the tributes that you have given to each 
of our four distinguished nominees. I join you in welcoming 
them, and we look forward to their service.
    I really want to take this opportunity, as a point of 
personal privilege, to make some comments about Kenneth 
Fairfax, who has been nominated by President Obama to serve as 
United States Ambassador to Kazakhstan.
    I was encouraged to read in a recent piece in Foreign 
Policy magazine by David Hoffman, entitled, ``The Loose Nuke 
Cable That Shook the World,'' details based on declassified 
cables of Mr. Fairfax's long history in observing and reporting 
on very disturbing nuclear security threats in parts of the 
former Soviet Union during his service in Moscow in the mid-
1990s.
    These same concerns prompted my own involvement in these 
matters, having worked with Senator Sam Nunn to craft the Nunn-
Lugar legislation in 1991, which continues to safeguard WMD 
materials and components throughout the former Soviet Union and 
now worldwide.
    I expect that Mr. Fairfax's background will serve him well 
in Astana, given Kazakhstan's central role in nonproliferation 
endeavors over the past decades.
    The United States and Kazakhstan have been cooperating 
closely on nonproliferation matters now for over 18 years 
through the Nunn-Lugar Cooperative Threat Reduction Program. At 
the time of the collapse of the U.S.S.R. in December 1991, 
Kazakhstan possessed 1,410 nuclear warheads. On December 13, 
1993, the Government of Kazakhstan signed the Safe and Secure 
Dismantlement Act and five Nunn-Lugar implementing agreements 
with the United States.
    Upon the removal of the last nuclear warhead from 
Kazakhstan in 1995, Kazakhstan acceded to the Nuclear Non-
Proliferation Treaty in 1995 as a nonnuclear weapon state.
    Other successes in Kazakhstan include the closure of the 
former Soviet Union's nuclear test site; the elimination of a 
biological weapons production facility; and the securing of 
dangerous nuclear, biological, and radiological materials. This 
past year, the United States and Kazakhstan completed a major 
nonproliferation program to provide secure storage for the 
spent fuel from Kazakhstan's BN-350 plutonium production 
reactor.
    In a large-scale effort over the last year, the spent fuel, 
enough material to fabricate 775 nuclear weapons, was 
transported in a series of 12 secure shipments over 1,800 miles 
from Aktau near the Caspian Sea to a secure location in eastern 
Kazakhstan.
    The completion of this decade-long effort to secure the BN-
350 spent fuel provides yet another example of the progress on 
nuclear security and nonproliferation through concerted United 
States diplomacy and global security engagement.
    I look forward to working with Mr. Fairfax, and I look 
forward to working with each of the nominees on the panel, 
should they be confirmed, and we have some confidence that you 
will be. We are grateful for your service.
    I thank you, Mr. Chairman.
    Senator Casey. Thank you, Ranking Member Senator Lugar.
    And we'll now do opening statements. We'll plead with you 
to stay within the limits of your time.
    And, of course, if you want to summarize your testimony as 
best you can, that would be preferable, and your full 
statements will be made part of the record.
    I think we'll start with Mr. Corbin.

STATEMENT OF MICHAEL H. CORBIN, OF CALIFORNIA, TO BE AMBASSADOR 
                  TO THE UNITED ARAB EMIRATES

    Mr. Corbin. Thank you very much, Senator Casey, Senator 
Lugar.
    I'm honored to appear before you as the President's nominee 
to be the United States Ambassador to the United Arab Emirates. 
I'm extremely grateful to President Obama and to Secretary 
Clinton for their confidence in me. And if confirmed, I look 
forward to representing the American people and to working with 
this committee and other interested Members of Congress to 
advance U.S. goals in the UAE.
    It has been an honor to serve as a Foreign Service officer 
since 1985, mostly in the Arab world, and to use regional 
experience and the Arab language in a wide variety of 
assignments.
    The Foreign Service brought my Foreign Service spouse, Mary 
Ellen Hickey, and me together. As a tandem couple, we have been 
blessed to serve together in most of our assignments. My two 
children have learned much from living overseas, and I'm 
gratified they have joined me here today, along with my 
parents, my mother-in-law, and my extended family.
    Mr. Chairman, members of the committee, the UAE plays an 
influential and growing role in the Middle East and is a key 
partner for the United States in areas such as defense, 
nonproliferation, trade, law enforcement, energy policy, and 
educational and cultural exchange.
    Regionally, the UAE is a leader. For example, the UAE has 
had troops in Afghanistan since 2004, actively participates in 
the Libyan Operation Unified Protector, and is a founding 
member of the Friends of Democratic Pakistan, with over $300 
million in direct assistance.
    Our bilateral cooperation is strong. On defense, the Port 
of Jebel Ali in Dubai is the United States Navy's busiest 
overseas port of call, and the UAE is our largest Foreign 
Military Sales cash customer.
    On nonproliferation, we work together. The UAE takes its 
international obligations seriously and has fully implemented 
international sanctions targeting Iran and North Korea. Most 
recently, in May, the UAE coordinated with us on the 
sanctioning of two UAE-based entities for supplying Iran with 
prohibited amounts of refined fuel.
    The UAE seeks to prevent use of its open trade environment 
and is implementing a comprehensive export control law. Our 
trade cooperation is excellent, and for the past 2 years, the 
UAE has been the largest export market for U.S. goods in the 
Middle East.
    For example, Dubai's Emirates Airlines is the single 
largest customer for Boeing's 777 aircraft, and more than 700 
United States companies have regional headquarters in the UAE.
    The UAE is a partner in building UAE's law enforcement 
capabilities, particularly to counter money laundering and 
terrorist financing, and we work with the UAE on energy policy.
    Holding nearly 8 percent of the world's proven oil reserves 
and nearly 5 percent of its proven gas reserves, the UAE 
supports U.S. energy goals, and joined other GCC states on June 
8 in pushing for an increase in OPEC oil production in line for 
U.S. goals for the global economy.
    Finally, in cultural and educational cooperation, the UAE 
has partnered with major U.S. institutions, such as the 
Guggenheim and New York University, on major programs in that 
country.
    The United States is focused on human rights, trafficking 
in persons, and the rights of women in the UAE. For example, 
this year the UAE established a special court in Dubai to hear 
human trafficking cases and is taking steps to train its police 
and customs officials to aid trafficking victims. But more must 
be done, particularly with regard to labor issues.
    Our comprehensive dialogue with the UAE has included a 
frank, productive discussion on historic changes brought about 
by the Arab Spring. If confirmed as United States Ambassador, I 
would work to see that the UAE's legitimate interest in trade 
with its neighbors is not put to inappropriate uses, especially 
with respect to Iran. I would work to strengthen our trade 
relationship, promote U.S. exports, and assist the U.S. 
businesses using the UAE as a hub.
    We have a clear dialogue with the UAE on the universal 
right of free expression, and Secretary Clinton has 
demonstrated the priority we place on this with her Internet 
Freedom Initiative.
    If confirmed as Ambassador, I will continue to highlight 
our commitment to this principle and work with our partners in 
the UAE.
    With 36 different United States Government agencies and 
departments in the UAE, my first priority, if confirmed, would 
be to the safety and security of our personnel, as well as all 
Americans living and working or traveling to the United Arab 
Emirates.
    Mr. Chairman, members of the committee, if confirmed, I 
would welcome your views and insights on the UAE and the region 
and welcome any questions you might have for me today. Thank 
you.
    [The prepared statement of Mr. Corbin follows:]

                Prepared Statement of Michael H. Corbin

    Mr. Chairman and members of the committee, I am honored to appear 
before you as the President's nominee to be the U.S. Ambassador to the 
United Arab Emirates. I am extremely grateful to President Obama and to 
Secretary Clinton for their confidence in me. If confirmed, I look 
forward to representing the American people, and to working with this 
committee and other interested Members of Congress to advance U.S. 
goals in the UAE.
    It has been an honor to serve as a Foreign Service officer since 
1985, mostly in the Arab World, and to use regional experience and the 
Arabic language in a wide variety of assignments. The Foreign Service 
brought my Foreign Service spouse, Mary Ellen Hickey, and me together. 
As a tandem couple we have been blessed to serve together in most of 
our assignments. My two children have learned much from living overseas 
and I am gratified to have my family, parents, and extended family here 
in the audience today.
    Mr. Chairman and members of the committee, the UAE plays an 
influential and growing role in the Middle East, and is a key partner 
for the United States. The United States and the UAE enjoy strong 
bilateral cooperation on a full range of issues including defense, 
nonproliferation, trade, law enforcement, energy policy, and cultural 
exchange.
    As a member of the International Security Assistance Force, the UAE 
has had troops in Afghanistan since 2003. It has been a leader as 
current president of the Gulf Cooperation Council (GCC) in Yemen 
mediation; participates in the Libya Operation Unified Protector; 
provided several million dollars in humanitarian aid to assist those 
affected by the Libyan crisis; contributed almost $50 million in 2010 
to rebuilding Afghanistan; and is a founding member of the Friends of 
Democratic Pakistan with over $300 million in direct assistance.
    Defense cooperation is a central pillar of our partnership and is 
reflected in regular bilateral strategic security discussions. The port 
of Jebel Ali in Dubai is the U.S. Navy's busiest overseas port-of-call 
and the UAE is our largest Foreign Military Sales cash customer. The 
UAE has actively participated in international operations to police the 
gulf, and organized an international conference on countering piracy 
March 18-19 of this year.
    In the area of nonproliferation of weapons of mass destruction, the 
UAE takes its international obligations seriously and has fully 
implemented international sanctions targeting Iran and North Korea for 
their pursuit of nuclear weapons. Our active dialogue with Abu Dhabi on 
these and other nonproliferation issues supports the enforcement of 
U.S. laws and most recently, in May, the UAE coordinated with us on the 
sanctioning of two UAE-based entities for supplying Iran with 
prohibited amounts of refined fuel. The UAE seeks to prevent use of its 
open trade environment to import and export items and funds that assist 
in the development of weapons of mass destruction and is implementing a 
comprehensive export control law to take action against noncomplying 
companies. The UAE participates in the U.S. Export Control and Border 
Security program, hosts a bilateral Counter Proliferation Task Force, 
and is a member of the multilateral Proliferation Security Initiative. 
The UAE's Nuclear Cooperation Agreement with the United States (signed 
in May 2009) is a positive example for the peaceful development of a 
nuclear energy program.
    For the past 2 years the UAE has been the largest export market for 
U.S. goods in the Middle East, and 21st in the world. It has developed 
a leading role in business services, including finance and logistics, 
and has emerged as the preeminent business hub between Asia and Europe. 
Dubai's Emirates Airlines is the single largest customer for Boeing's 
777 aircraft. With its infrastructure and business and logistical 
services, the UAE has become the regional headquarters for over 700 
American companies active in the petroleum, defense, services, 
education, and health care sectors.
    The United States is a partner in building UAE's law enforcement 
capabilities, particularly to counter money laundering and terrorist 
financing and to provide training to enable the UAE to disrupt illicit 
cash flows.
    The UAE is also a partner on energy policy. Holding nearly 8 
percent of the world's proven oil reserves and nearly 5 percent of its 
proven gas reserves, the UAE joined other GCC states on June 8 in 
pushing for an increase in OPEC oil production. The UAE has sought U.S. 
assistance to pursue renewable energy and plays a leadership role on 
renewable energy technologies. Finally, on cultural and educational 
exchange, the UAE has partnered with major U.S. institutions such as 
the Guggenheim and New York University.
    The United States works closely with the UAE on human rights, 
trafficking in persons, and the rights of women. The UAE is committed 
to the education of its people and is working to ensure that the female 
half of its citizenry receives a complete, high-quality education. This 
year, the UAE established a special court in Dubai to hear human 
trafficking cases and is taking steps to train its police and customs 
officials to aid trafficking victims. As these policies develop, we are 
continuing to work closely with the Emirati leadership to improve its 
response to forced labor, particularly among the foreign migrant worker 
population the country hosts. Finally, the UAE and the United States 
have maintained a productive dialogue throughout the recent historic 
changes brought about by the ``Arab Spring.''
    If confirmed as U.S. Ambassador I would work to see that the UAE's 
legitimate interest in trade with its neighbors is not put to 
inappropriate uses, especially with respect to Iran. I would work to 
continue to strengthen our trade partnership, promote U.S. exports and 
assist U.S. businesses using the UAE as a hub.
    We have a clear dialogue with the UAE on the universal right of 
free expression and Secretary Clinton has demonstrated the priority we 
place on this with her Internet Freedom Initiative. If confirmed as 
Ambassador, I will continue to highlight our commitment to this 
principle in my work with our partners in the UAE.
    At a U.S. mission comprising employees from 36 different U.S. 
Government agencies and departments, my first priority, if confirmed, 
would remain at all times protecting the safety and security of the 
dedicated men and women at our mission as well as of all Americans 
living and working or traveling in the United Arab Emirates.
    Mr. Chairman and members of the committee, if confirmed, I would 
welcome your views and insights on the UAE and the region and welcome 
any questions you might have for me today. Thank you.

    Senator Casey. Thanks, Mr. Corbin. You had time left. You 
had 40 seconds. [Laughter.]
    Ms. Ziadeh, thank you.

 STATEMENT OF SUSAN L. ZIADEH, OF WASHINGTON, TO BE AMBASSADOR 
                     TO THE STATE OF QATAR

    Ms. Ziadeh. Senator Casey, Ranking Member Lugar, members of 
the committee, I thank you for the opportunity to appear before 
you today.
    I'm honored to be President Obama's nominee to serve as 
United States Ambassador to Qatar. I deeply appreciate the 
confidence President Obama and Secretary Clinton have shown in 
me by making this nomination.
    If confirmed by the Senate, I will exercise the full range 
of our diplomatic tools to promote regional security 
cooperation, expand commercial ties, and develop stronger 
educational partnerships between the United States and Qatar.
    With your permission, I'd like to introduce my sister, 
Rhonda, her husband, George, and their daughter, Gihan, here 
today representing their Ziadeh family.
    I would also like to thank my family for their 
encouragement as I've pursued graduate studies in Egypt and 
Lebanon, where Middle East issues became my lifelong 
intellectual and professional pursuit. Through seven tours in 
the Middle East, including Iraq, their support continues.
    The United States and Qatar enjoy an excellent military-to-
military relationship. Qatar's Al Udeid Air Base hosts the 
United States Air Force's 379th Air Expeditionary Wing, as well 
as the Combined Air Operations Center, critical to United 
States military operations in the CENTCOM AOR, including 
Afghanistan.
    If confirmed, I will work to expand our counterterrorism 
and regional security cooperation with Qatar.
    From the United Nations to the Gulf Cooperation Council, 
Qatar has played an active and helpful role in multilateral 
diplomacy. In Libya, Qatar was the first Arab country to 
dedicate military sources to the international coalition and 
has pledged significant financial support to the Transitional 
National Council.
    In Egypt, Qatar has announced plans to invest $10 billion 
to strengthen the economy. The Emir of Qatar has set a positive 
example by reinforcing the need for political, social, and 
economic reforms across the Arab world, and he has also focused 
on the need for better and inclusive governance.
    Qatar recently held municipal council elections and has 
pledged to hold advisory council elections soon. These are 
important steps and demonstrate Qatar's commitment to 
representative government.
    Recognizing that each country will follow its own 
particular form of representative democracy, if confirmed, I 
pledge to work with our Qatari friends and speak out for the 
core values and principles that define America.
    Qatar also represents tremendous economic opportunity for 
American business. With the third-largest proven gas reserves 
in the world, Qatar is the leading supplier of liquified 
natural gas. Oil and gas account for more than 60 percent of 
GDP and 70 percent of Government revenues. Qatar is using these 
revenues to invest in its infrastructure and its people, while 
diversifying its economy.
    If confirmed, I will advocate aggressively for U.S. 
companies competing for the more than 70 billion dollars' worth 
of major infrastructure projects to be awarded between now and 
2022. I will also work tirelessly to find new export 
opportunities for American goods and services in Qatar.
    Qatar has made great strides in education, overhauling its 
schools. Through the Qatar Foundation and initiatives such as 
Education City, Qatar is building the intellectual 
infrastructure necessary for Qataris to compete in a knowledge-
based economy.
    U.S. universities are at the forefront of this process, 
cooperating on educational services. As a former Fulbright 
Scholar myself, I know firsthand the value of educational 
exchanges. If confirmed, I will strongly support these growing 
institutional ties and promote long-term partnerships.
    A top priority as Ambassador will be, if confirmed, to 
protect the welfare, security, and interests of American 
citizens, as well as our personnel at Embassy Doha.
    If confirmed, I will dedicate myself to supporting the 
American community and helping it to succeed in Qatar. If 
confirmed, I look forward to welcoming the committee's members 
and staff to Doha.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to address the committee. I would be pleased to 
respond to any questions you may have. Thank you.
    [The prepared statement of Ms. Ziadeh follows:]

                 Prepared Statement of Susan L. Ziadeh

    Mr. Chairman, Ranking Member Lugar, members of the committee, I 
thank you for the opportunity to appear before you today.
    I am honored to be President Obama's nominee to serve as U.S. 
Ambassador to Qatar. I deeply appreciate the confidence President Obama 
and Secretary Clinton have shown in me. If confirmed by the Senate, I 
will exercise the full range of our diplomatic tools to promote 
regional security cooperation, expand commercial ties, and develop 
stronger educational partnerships between the United States and Qatar.
    With your permission, I would like to introduce my sister, Rhonda, 
here today representing the Ziadeh family. I would like to thank my 
family for their encouragement as I pursued graduate studies in Egypt 
and Lebanon, where Middle East issues became my lifelong intellectual 
and professional pursuit. Through seven tours in the Middle East, 
including Iraq, their support continues.
    The United States and Qatar enjoy an excellent military-to-military 
relationship. Qatar's Al Udayd Air Base hosts the U.S. Air Force's 
379th Air Expeditionary Wing as well as the Combined Air Operations 
Center, critical to U.S. military operations in the CENTCOM AOR, 
including Afghanistan. If confirmed, I will work to expand our 
counterterrorism and regional security cooperation.
    From the United Nations to the Gulf Cooperation Council, Qatar has 
played an active and helpful role in multilateral diplomacy. In Libya, 
Qatar was the first Arab country to dedicate military resources to the 
international coalition and has pledged significant financial support 
to the Transitional National Council. In Egypt, Qatar announced plans 
to invest $10 billion to strengthen the economy. The Amir of Qatar has 
set a positive example by reinforcing the need for political, social, 
and economic reforms across the Arab world.
    He has also focused on the need for better and inclusive 
governance. Qatar recently held municipal council elections and has 
pledged to hold advisory council elections soon. These are important 
steps and demonstrate Qatar's commitment to representative government. 
Recognizing that each country will follow its own particular form of 
representative democracy, if confirmed, I pledge to work with our 
Qatari friends and speak out for the core values and principles that 
define America.
    Qatar presents tremendous economic opportunity for American 
business. With the third-largest proven gas reserves in the world, 
Qatar is the leading supplier of Liquid Natural Gas. Oil and gas 
account for more than 60 percent of GDP and 70 percent of government 
revenues. Qatar is using these revenues to invest in its infrastructure 
and its people while diversifying its economy. If confirmed, I will 
advocate aggressively for U.S. companies competing for the more than 70 
billion dollars' worth of major infrastructure projects to be awarded 
between now and 2022; I will also work tirelessly to find new export 
opportunities for American goods and services in Qatar.
    Qatar has made great strides in education, overhauling its schools. 
Through the Qatar Foundation and initiatives such as Education City, 
Qatar is building the intellectual infrastructure necessary for Qataris 
to compete in a knowledge-based economy. U.S. universities are at the 
forefront of this process, cooperating on educational services. As a 
former Fulbright scholar, I know firsthand the value of educational 
exchanges. If confirmed, I will strongly support these growing 
institutional ties and promote long-term partnerships.
    A top priority is to protect the welfare, security, and interests 
of American citizens as well as our personnel at Embassy Doha. If 
confirmed, I will dedicate myself to supporting the American community 
and helping it succeed in Qatar.
    If confirmed, I look forward to welcoming the committee's members 
and staff to Doha. Mr. Chairman, members of the committee, thank you 
for this opportunity to address the committee. I would be pleased to 
respond to any questions you may have. Thank you.

    Senator Casey. Thanks very much.
    Mr. Tueller.

 STATEMENT OF MATTHEW H. TUELLER, OF UTAH, TO BE AMBASSADOR TO 
                      THE STATE OF KUWAIT

    Mr. Tueller. Mr. Chairman, it is an honor to appear before 
you today as President Obama's nominee to serve as Ambassador 
to the State of Kuwait.
    I'm grateful to the President for the nomination and to 
Secretary Clinton for her confidence in me and for her 
leadership of the Department of State.
    If confirmed by the Senate, I will do my best to live up to 
their trust and to work closely with this committee and others 
in Congress to continue to advance the vital interests of the 
United States in Kuwait.
    Senator Casey, you very kindly welcomed my two sisters. 
With your permission, I'd like to note that my wife, Denise, 
and son, Christian, had to remain in Cairo while I came here.
    But my two sisters, who represent eight of my sisters and 
my one brother, with whom we grew up in the Foreign Service, 
were kind enough to join me today. And my five children refer 
to those aunts as ``the entourage,'' so I'm happy to have their 
support here.
    Mr. Chairman, the State of Kuwait has been a reliable 
partner and friend in a region of utmost importance to U.S. 
interests. Since 1991, U.S. military forces and our coalition 
partners have relied heavily on Kuwait's support for our 
regional policy priorities. If confirmed, I would work to 
expand that support into broader political, social, and 
economic arenas.
    If confirmed, I will seek to focus intensively on ensuring 
that Kuwait continues to act as a full partner with the United 
States in regional security efforts.
    Kuwait is playing an essential role in the repositioning of 
our forces from Iraq. Continuing to foster improved Kuwaiti-
Iraqi relations in coordination with Embassy Baghdad will help 
speed Iraq's regional reintegration and create an atmosphere in 
which political and trade ties can prosper.
    We share with the Government of Kuwait a common interest in 
combating the spread of extremist ideology and rooting out 
terrorist elements. If confirmed, I will seek to build strong 
counterterrorism cooperation, to include increased information 
sharing and intensified training efforts.
    As states in the region today face popular demands to close 
the often yawning gaps between governments and the people, 
Kuwait's traditions of open political discourse and 
constitutional sharing of power have put the country in a 
relatively advantageous position to meet the challenges of this 
new era in the Middle East.
    Recent parliamentary elections have led to a gradually 
increasing role for women in parliamentary and political life. 
If confirmed, I will endeavor to help Kuwait to consolidate and 
expand those democratic gains.
    Mr. Chairman, I have had the privilege of serving my 
country as a Foreign Service officer for more than 25 years, 
most recently as Deputy Chief of Mission at our Embassy in 
Cairo during the turbulent, but inspiring events of the January 
25 revolution. My Foreign Service career has included overseas 
service in Baghdad, Riyadh, London, Doha, Amman, and Yemen.
    As you noted, I've served twice before in Kuwait. The 
Ambassadors under whom I served in Kuwait were Edward Gnehm, 
Ryan Crocker, and Richard LeBaron. Under their leadership, I 
was able to play some part in laying the foundation upon which 
the United States-Kuwaiti relationship rests today.
    If confirmed, I believe I can make a substantial 
contribution of service to the American people as the next 
United States Ambassador to Kuwait.
    If confirmed to this position, I will work to protect 
American citizens and promote U.S. interests, while 
consolidating and augmenting the close ties between our 
governments' leaders and our peoples.
    Again, I'm honored, Mr. Chairman, by this nomination and 
the opportunity to appear before you today, and look forward to 
your questions. Thank you.
    [The prepared statement of Mr. Tueller follows:]

                Prepared Statement of Matthew H. Tueller

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Obama's nominee to serve as Ambassador to 
the State of Kuwait. I am grateful to the President for the nomination 
and to Secretary Clinton for her confidence in me and for her 
leadership of the Department of State. If confirmed by the Senate, I 
will do my best to live up to their trust and to work closely with this 
committee, and others in Congress, to continue to advance the vital 
interests of the United States in Kuwait and in the region.
     Mr. Chairman, the State of Kuwait has been a reliable partner and 
friend in a region of utmost importance to U.S. interests. Since 
Kuwait's 1991 liberation from Saddam Hussein's brutal occupation, U.S. 
military forces and our coalition partners have relied heavily on 
Kuwait's support for our policy priorities in Iraq, Iran, and 
Afghanistan, and in countering terrorist threats. If confirmed, I will 
work to expand that support into broader political, social, and 
economic arenas to build and sustain a partnership that will advance 
key American interests in a region that today is undergoing rapid and 
profound change.
     If confirmed, I will seek to focus intensively on ensuring that 
Kuwait continues to act as a full partner with the U.S. in regional 
security efforts. Sustaining and further strengthening our security 
partnership will be important to meeting our shared broader regional 
strategic objectives. Kuwait is playing an essential role in the 
repositioning of our forces from Iraq. Continuing to foster improved 
Kuwaiti-Iraqi relations in coordination with Embassy Baghdad will help 
speed Iraq's regional reintegration and create an atmosphere in which 
political and trade ties can prosper.
     We share with the Government of Kuwait a common interest in 
combating the spread of extremist ideology and rooting out terrorist 
elements that threaten peace and security in the region. If confirmed, 
I will seek to build strong counterterrorism cooperation to include 
increased information-sharing and intensified training efforts to 
ensure the best possible force protection for our troops in Kuwait, as 
well as our mission employees, family members, and the larger American 
community while continuing to build on the cooperation essential to 
countering terrorist threats.
     As states in the region today face an unprecedented wave of 
popular demands to close the often yawning gaps between governments and 
the people, Kuwait's traditions of open political discourse and 
constitutional sharing of power have put the country in a relatively 
advantageous position to meet the challenges of this dawning era in the 
Middle East. Parliamentary elections in 2009 once again gave opposition 
voices a significant platform from which to influence and oversee 
government policies. The participation of women in elections since 2005 
has led to a gradually increasing role for women in parliamentary and 
political life. Four women were elected to seats in Parliament in 2009. 
If confirmed, I will endeavor to help Kuwait consolidate and expand 
those democratic gains, to include supporting the development of 
grassroots women's organizations, civil society groups, youth and other 
activists, and advancing the rights and protections of vulnerable 
populations living within Kuwait's borders.
     In addition to deepening our security cooperation and advancing 
the strength of civil society, we must seek with our Kuwaiti partners 
to create new opportunities for economic partnership, both within and 
beyond the energy sphere. Kuwait's objective to become a regional 
commercial center, including passing a 5-year $104 billion development 
plan, will create commercial opportunities for U.S. companies and 
provide us the opportunity to work with the Kuwaiti Government and with 
the private sector to promote economic reform and private sector 
growth, and create opportunities for aspiring entrepreneurs. The 
potential for dynamic synergies between Kuwait and the United States, 
combining capital, technology, and expertise to advance global 
development, is enormous. Constructive bilateral engagement on trade 
and investment-related issues, through tools such as the Trade and 
Investment Framework (TIFA), will help support needed reforms and 
cement our partnership. If confirmed, I will pursue ongoing policies 
that promote increased investment, trade, and project development 
between our two countries.
     Finally, if confirmed, I will work energetically in reaching out 
to Kuwaiti youth via U.S.-sponsored exchange and English language 
programs and through Middle East Partnership Initiative (MEPI) 
programming to highlight common interests and emphasize strong bonds of 
friendship based on shared core values. Forty-five percent of Kuwait's 
population is under the age of 25, and many Kuwaiti youth have no 
direct experience regarding the U.S. role in the 1991 liberation of 
Kuwait. While heavily exposed to commercial Western media and cultural 
influences, the United States must play an active role in exposing them 
to the fundamentals of participatory civil society with values of 
tolerance and nonviolence. This will ensure stronger bilateral ties and 
thus counter the negative extremist influences found all too often in 
regional media.
     Mr. Chairman, I have had the extraordinary privilege of serving my 
country as a Foreign Service officer for more than 25 years, most 
recently as Deputy Chief of Mission at our Embassy in Cairo during the 
turbulent but inspiring events of the January 25th Revolution. I was in 
Egypt as a graduate student taking advanced Arabic classes in October 
1981 when President Sadat was assassinated and President Mubarak began 
his 29 years of rule. My first exposure to the Middle East was as a 
dependent of a Foreign Service officer when my father was assigned to 
study Arabic in Tangier from 1965-67 followed by his assignment as 
Consul in Tangier from 1967-69. My Foreign Service career has included 
service in Washington as Egypt desk officer and Deputy Director of the 
Office of Northern Gulf Affairs. Overseas I have served in Baghdad, 
twice in Riyadh, in London, Doha, Amman, and Yemen. I have served twice 
before in Kuwait, first as Political Counselor following the reopening 
of our Embassy in 1991 and then more recently in 2004-07 as Deputy 
Chief of Mission. The Ambassadors under whom I served in Kuwait include 
Edward Gnehm, Ryan Crocker, and Richard LeBaron and, if confirmed, I 
would strive to live up to the examples they set as outstanding U.S. 
diplomats. Under their leadership, I was able to play some part in 
laying the foundation upon which the United States-Kuwaiti relationship 
rests today. I believe I can make a substantial contribution of service 
to the American people as Ambassador to Kuwait.
     If confirmed as Ambassador, I will work with persistence, 
enthusiasm, and stamina to protect American citizens and promote U.S. 
interests, while consolidating and augmenting the close ties between 
our governments' leaders and our peoples. Again, I am honored, Mr. 
Chairman, by this nomination and the opportunity to appear before you 
today. I will be pleased to answer any questions you may have.

    Senator Casey. Thanks very much.
    Mr. Fairfax.

STATEMENT OF KENNETH J. FAIRFAX, OF KENTUCKY, TO BE AMBASSADOR 
                 TO THE REPUBLIC OF KAZAKHSTAN

    Mr. Fairfax. Mr. Chairman, first, I want to thank you for 
the opportunity to appear before you today. And I would like to 
thank Senator Lugar for his very kind words.
    I am deeply honored by the confidence that President Obama 
and Secretary Clinton have shown in me by nominating me as the 
United States Ambassador to Kazakhstan.
    I would also like to take this opportunity to thank my 
wife, Nyetta Yarkin, who is with me here today, as she has been 
continuously for the last 25 years, including during my current 
assignment at United States Embassy in Baghdad, Iraq.
    Last year, President Obama and Kazakhstan President 
Nazarbayev reaffirmed the strategic partnership between our two 
countries, declaring our commitment to a shared vision of 
stability, prosperity, and democratic reform in Central Asia 
and beyond.
    If confirmed by the Senate, I will work faithfully to 
deepen this strategic partnership and I look forward to working 
with Congress in pursuit of this goal.
    United States interests in Kazakhstan can be grouped into 
three strategic areas.
    First, we seek to advance sound democratic and economic 
reforms. Kazakhstan has had consistently outstanding economic 
performance. While it took a short hiatus due to the 2008 
financial crisis, already by 2010, growth had returned to 7 
percent, and this year it looks to be even stronger.
    This economic growth also means that Kazakhstan is a 
growing market for American goods and services. And if 
confirmed, I intend to lead a concerted effort to cooperate 
with and support United States businesses as they expand their 
presence in Kazakhstan.
    Despite these positive economic achievements, democratic 
political institutions in Kazakhstan remain underdeveloped. The 
Presidency dominates the political system and the President's 
party is the only party represented in Parliament.
    The 2010 Human Rights Report highlights other problematic 
issues relating to rule of law, freedom of speech, freedom from 
arbitrary detention, and other universally recognized human 
rights.
    If confirmed, I will work with all branches of the United 
States Government, as well as with the international community, 
to address these issues and to ensure that Kazakhstan fulfills 
its commitments to political reform as it prepares for the 2012 
parliamentary elections, the first that will result in 
multiparty representation.
    The second area of United States strategic interest in 
Kazakhstan is strengthening global and regional security. With 
its courageous decision to renounce nuclear weapons shortly 
after the breakup of the Soviet Union, Kazakhstan demonstrated 
its commitment to international security and nonproliferation, 
a commitment that it continues to build upon today through its 
active participation in the Cooperative Threat Reduction 
Program, the IAEA, and other international organizations.
    The United States and Kazakhstan also share a common 
interest in bolstering Central Asian security, fighting 
terrorism, and stemming narcotics trafficking.
    Kazakhstan is supporting efforts in Afghanistan through 
expanded overflight rights and through active participation in 
the Northern Distribution Network.
    Kazakhstan is also dedicating its own resources to the 
effort in Afghanistan through a $50 million program to educate 
the next generation of Afghan leaders, as well as through 
humanitarian assistance.
    Our third area of strategic focus in Kazakhstan is world 
resource security, particularly energy and food. With a 
potential to rank among the world's top 10 oil exporters within 
the next several years, Kazakhstan plays an important role in 
advancing international energy security at the same time it 
builds a basis for its own economic future.
    Similarly, Kazakhstan ranks as the world's sixth-largest 
grain exporter and is, thus, critical to food security. 
Cooperating to further improve Kazakhstan's performance in 
these and other areas represents a win-win-win situation for 
the United States, Kazakhstan, and the world community. All 
three sets of interests--democratic and economic development, 
our joint security cooperation, and our shared commitment to 
world resource security--are interrelated and must advance 
together.
    Mr. Chairman, I have spent nearly my entire career serving 
in countries in transition, from centrally planned to market 
economies, and from authoritarian to representative 
governments. I believe that there is an inextricable link 
between the growth of an open democratic system of government 
and the development of an open, market-based economy. Both are 
fueled by the universal desire of people to build a better, 
safer, and more prosperous future and together they constitute 
the best route toward long-term security and stability.
    If confirmed, this belief in the power of an open, 
democratic system will guide me as I work to ensure that the 
already strong United States-Kazakhstan partnership continues 
to growth and strengthen.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Fairfax follows:]

                Prepared Statement of Kenneth J. Fairfax

    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you today. I am deeply honored by the 
confidence with which President Obama, by nominating me for the post of 
Ambassador of the United States to Kazakhstan, and Secretary Clinton 
have entrusted me. I would also like to take this opportunity to thank 
my wife, Nyetta Yarkin, who is here with me today, as she has been with 
me continuously for the past 25 years as my work has taken me around 
the globe, including to my current posting in Baghdad, Iraq.
     If confirmed by the Senate, I will work diligently and faithfully 
on behalf of the American people to pursue U.S. foreign policy goals 
and to deepen the strategic partnership between the United States and 
Kazakhstan. If confirmed, I look forward to working with the Congress 
in pursuit of those goals.
    Mr. Chairman, Central Asia is a region of significant importance to 
U.S. national interests. U.S. policy in the region supports the 
development of independent, stable, democratic nations, integrated into 
the world economy, that cooperate with one another, the United States, 
and our partners to advance regional and global security.
    Kazakhstan is an important regional and international partner. It 
is geographically strategic, ethnically diverse, and resource rich. It 
is the ninth-largest country in the world by land mass, or roughly the 
size of Western Europe. The population is 15.6 million people, 59.2 
percent of whom are ethnically Kazakh, 25.6 percent ethnically Russian 
with the remainder divided among many ethnic minorities. The largely 
secular population is 65 percent Muslim, 30 percent Russian Orthodox 
with the remainder divided among many smaller faiths. Located at the 
crossroads of Europe and Asia and bordered by Russia, China, and the 
Caspian Sea, Kazakhstan's size, location, and resources make it 
strategically important and key to regional stability. If plans are 
approved to expand production at its three largest oil fields, 
Kazakhstan's hydrocarbon reserves should, by 2018, rank it as one of 
the top 10 world oil producers.
    As the first country to renounce its nuclear weapons voluntarily 
following the breakup of the Soviet Union, Kazakhstan established early 
its commitment to international security and credentials for 
leadership. Since that debut on the international stage, Kazakhstan has 
continued to pursue a policy of active engagement with the global 
community, with chairmanships of the Organization for Security and 
Cooperation in Europe (OSCE) and Shanghai Cooperation Organization 
(SCO) in 2010 and Organization of the Islamic Conference (OIC) in 2011, 
as well as hosting the Shanghai Cooperation Organization Summit on June 
14-15 of this year.
    Kazakhstan is providing significant support to our stabilization 
and reconstruction efforts in Afghanistan. The United States and 
Kazakhstan have had an overflight agreement in place since 2001 that 
has facilitated over 9,000 overflights and over 85 diverts. Kazakhstan 
actively participates in the Northern Distribution Network--which 
entails commercial shipment through Kazakhstan of supplies for U.S. and 
international forces in Afghanistan. The recent expansion of the 2001 
overflight agreement to include new polar routes will significantly 
increase the efficiency of operations. In addition to facilitating U.S. 
and international efforts to stabilize and strengthen Afghanistan, 
Kazakhstan is directly investing in Afghanistan's future development 
through a $50 million program to educate the next generation of Afghan 
leaders in Kazakhstan's universities. Over time, we hope Kazakhstan 
will be part of a revitalized regional economic system encompassing 
Central Asia, Afghanistan, and South Asia.
    Starting with its voluntary renouncement of nuclear weapons, 
Kazakhstan has been and continues to be a key partner on 
nonproliferation. Through the Nunn-Lugar Cooperative Threat Reduction 
program, Kazakhstan has cooperated extensively with the United States 
for over a decade on a host of projects to eliminate its Soviet-legacy 
Weapons of Mass Destruction infrastructure, secure materials of 
proliferation concern, and redirect former Weapons of Mass Destruction 
scientists to peaceful purposes. In 2009, Kazakhstan ratified a 7-year 
extension to the umbrella agreement for our bilateral Cooperative 
Threat Reduction (CTR) program. The United States provided significant 
assistance to decommission a Soviet-era nuclear reactor designed to 
produce weapons-grade plutonium and to manage the safe and secure 
disposal of fuel from that reactor in 2010. Ongoing CTR program 
activities include the construction of a state-of-the-art Central 
Reference Laboratory to consolidate Kazakhstan's collection of 
pathogens. The Kazakhstani Government continues to seek opportunities 
to remain actively engaged in nonproliferation cooperation, both 
bilaterally and via its pursuit of a more active role in the 
International Atomic Energy Agency (IAEA).
    Economically, Kazakhstan has laid a solid foundation for its market 
economy and future prosperity. Financial reform has created a modern, 
full-service banking system. Kazakhstan's natural resource-driven 
economy averaged over 9 percent annual growth during the 2001-07, 
before dropping to 3 percent in 2008 and 1 percent in 2009 amid the 
global financial crisis. Kazakhstan's economy rebounded strongly in 
2010, however, posting 7 percent growth, and growth in 2011 is 
predicted to be between 7 and 10 percent. Thanks to its strong economic 
policies and oil wealth, Kazakhstan has dramatically reduced the 
percentage of its population living below the level of subsistence from 
28.4 percent in 2001, to 13.8 percent in 2007.
    Thanks to Kazakhstan's tremendous natural resource wealth, Customs 
Union with Russia and Belarus, and imminent accession to the World 
Trade Organization, U.S. companies are recognizing Kazakhstan's 
potential. We have the opportunity to export more with the assistance 
of the U.S. & Foreign Commercial Service Office in Almaty. U.S. oil 
companies, including Chevron, ExxonMobil, and ConocoPhillips, hold 
major stakes in Kazakhstan's largest oil and gas projects, Tengiz, 
Karachaganak, and Kashagan. U.S. companies do face difficulties, 
however, including aggressive tax audits and work permit restrictions. 
Despite these concerns, it is clear that U.S. companies and the 
Government of Kazakhstan are committed to a long-term partnership.
    Exchange programs are effectively strengthening the core of the 
United States-Kazakhstan strategic partnership. Via the free exchange 
of information and ideas, academic, cultural, and professional 
exchanges are one of the most effective tools to promote long-term 
relations, as well as economic and social development, and to increase 
mutual understanding between citizens of the United States and 
Kazakhstan. To promote these exchanges, we have 11 American Corners 
throughout the country, which currently reach over 50,000 people 
annually. In addition, the Future Leaders Exchange, Hubert Humphrey 
Fellowship, Muskie Graduate Fellowship and Fulbright Fellowship 
programs all support students from Kazakhstan to pursue studies in the 
United States. The Government of Kazakhstan also understands the 
strategic importance of both education and exchanges. Since 1994, 
Kazakhstan's Presidential Scholarship Program, ``Bolashak,'' has sent 
almost 8,000 students to universities in the United States and many 
other countries around the world. The newly inaugurated Nazarbayev 
University, which will have a Western-style curriculum taught in 
English, is partnering with several American universities, including 
Duke, University of Wisconsin, Carnegie Mellon, University of 
Pennsylvania, University of Pittsburgh, and Harvard Medical School.
    In 2010 the United States and Kazakhstan concluded a new Science 
and Technology Cooperation Agreement. Both President Barak Obama and 
Secretary of State Clinton have advocated the inclusion of science in 
diplomacy and ``science diplomacy'' has become an important component 
of U.S. foreign policy. Through the Bolashak program and Kazakhstan's 
investments in research and education Kazakhstan has adopted the goal 
of building an innovation focused economy and will broaden its 
cooperation areas with the United States.
    Democratic political institutions, civil society, and the 
independent media remain underdeveloped in Kazakhstan, the Presidency 
dominates the political system, and the Parliament elected in 2007 has 
representation from only one political party--the President's. The 2010 
Human Rights Report highlights other problematic isues, including 
arbitrary arrest and detention, lack of an independent judiciary, 
restrictions on freedom of speech, the press, and assembly. We 
regularly encourage the government to move forward by taking concrete 
steps toward reform, and we have assistance programs that promote 
democratic reform and the development of civil society and independent 
media.
    If I am confirmed, I will work with Kazakhstan's Government and 
civil society partners as the nation prepares for parliamentary 
elections scheduled in 2012; the first elections that will be governed 
by a new law guaranteeing that at least two parties will be represented 
in the Parliament. It remains to be seen how representative this new 
party system will be, and we will work to encourage a comptetitive, 
pluralistic party system. Kazakhstan has expressed its commitment to 
reform its election and media laws and to liberalize its political 
party registration requirements. It has also committed to reform the 
media law in line with recommendations from the Organization for 
Security and Cooperation in Europe's Freedom of Media Representative, 
which include, among others, to reduce criminal liability for 
defamation in the media and to liberalize registration procedures for 
media outlets. We will hold Kazakhstan to these commitments.
    Recognizing Kazakhstan's important role in Central Asia, in April 
2010, President Obama and Kazakhstan President Nazarbayev reaffirmed 
the strategic partnership between our two countries, declaring our 
commitment to a shared vision of stability, prosperity, and democratic 
reform in Central Asia and the broader region.
    If confirmed, I would continue to promote the United States-
Kazakhstan strategic partnership's three primary interests. First, we 
seek to advance democratic and market economic reforms through 
diplomacy and development, including an innovative partnership model 
with the Government of Kazakhstan. Economic reform attracts and 
sustains foreign investment while democratic reforms will improve 
opportunities for Kazakhstanis to participate openly in civic life. 
Together these are the only reliable ways to establish long-term 
stability. Second, our common security interests include bolstering 
Central Asian sovereignty and independence, fighting terrorism and the 
proliferation of weapons of mass destruction, and stemming narcotics 
trafficking. Third, we have a strategic interest in fostering the 
development of Central Asia's very significant natural resources. The 
region's resources can substantially advance international energy 
security, provided they have a reliable path to global markets via 
multiple routes that avoid geographic chokepoints or transportation 
monopolies. Energy can also form the basis of long-term economic growth 
and prosperity. Kazakhstan has the potential to be an agricultural 
power, and, as the world's sixth-largest exporter of grain, is critical 
to global food security. All three sets of interests--democratic 
development, security cooperation, economic reform and energy--are 
interrelated and must advance together.
    Mr. Chairman, I have spent nearly my entire career serving in 
countries in transition from centrally planned to market economies and 
from authoritarian to representative government. From more than two 
decades of experience working in countries in Asia, the former Soviet 
Union, Central and Eastern Europe and, most recently, Iraq, I firmly 
believe that there is an inextricable link between the growth of an 
open, democratic system of government and the development of an open, 
market-based economy. Both are fueled by the universal desire of people 
to build a better, safer and more prosperous future. If confirmed, I 
will draw on my many years of experience in countries in transition to 
work with the Government of Kazakhstan and to reach out to the people 
of Kazakhstan to ensure that the already strong United States-
Kazakhstan partnership continues to grow and strengthen. Kazakhstan is 
an important country with a promising future.
    Thank you. I look forward to your questions.

    Senator Casey. Thanks very much. Each of you stayed within 
your limits, and that's a record, maybe, for our committee. 
Thanks very much.
    I'll try, in the time that we have, which is about 20 
minutes, to get in as many questions as we can. And of course, 
I and other members will likely submit questions for the 
record, and that should be said at the outset.
    Mr. Corbin, I wanted to start with you. One of the major 
concerns that our Government has had, and I think it's shared 
widely in the region, is the threat posed by the Iranian 
regime.
    Last summer, when I was in the Middle East on a great trip 
where we got to see a lot of places in about 9 or 10 days, my 
perception of the consensus in that region at the time was a 
real consensus and focus on Iran, and in particular, obviously, 
the threat posed by the Iranian regime, even in the absence, 
but especially in light of, the potential nuclear threat.
    But just the activity of Iran in the region supporting and 
being, in my words here, the banker for bad guys in the region. 
And that consensus I thought was very helpful to our own 
strategy, because even countries that were disagreeing on other 
things could come around to agree on the threat posed by the 
regime.
    In my judgment, that consensus, or at least that focus, has 
been degraded because of the changes taking place. People's 
attention is focused elsewhere and other crises and issues have 
arisen, and that is not good when we take our, in my judgment, 
when we take our focus off of Iran.
    So I wanted to ask you, with regard to a question about 
export controls in the UAE, we know that the UAE's record on 
preventing reexport of advanced technology to Iran is 
reportedly mixed, and get your thoughts about that. But we know 
that numerous Iranian entities involved in Iran's energy sector 
and WMD programs have offices in the UAE, and the Iran-Dubai 
trade is currently estimated at $10 billion per year.
    There are reports that the UAE-based companies Crescent 
Petroleum, Dragon Oil, and National Petroleum Construction 
Corporation continue to engage in business with Iran, in 
potential violation of United States sanctions.
    I'd ask you first, as Ambassador, what steps you'd take to 
encourage the UAE to improve its export controls and to take 
action against their companies who continue to engage in 
business with Iran, in potential violation of United States 
sanctions.
    Mr. Corbin. Thank you, Senator.
    And I think our strong dialogue with the UAE, including 
most recently the visit of the crown prince to meet with 
President Obama earlier this month, provides an opportunity for 
the kind of dialogue on Iran that's so important to our Middle 
East policy.
    On the specifics on export control, the UAE has a law that 
they are implementing that seeks to protect their open economy, 
which is their hallmark and is a positive indicator for the 
region, from being exploited by those who would transship 
prohibited items to Iran. We have a strong U.S. agency presence 
in the UAE that is cooperating with the Emirati Government in 
many areas, including the financial aspects of this 
transshipment, and we have strong cooperation on many levels.
    If confirmed as Ambassador, I would work to support those 
agencies, to support the dialogue that we have on these issues, 
and to look for every opportunity to increase the technical 
capacities of the Emirati services as they work against this 
threat.
    Senator Casey. And I'd say the obvious concern we have 
broadly in the United States Government, with regard to the 
Iranian regime, has a particular significance, I think, within 
the Congress. We've worked very hard--I have and others have 
worked very hard--to develop consensus around sanctions, to 
pass legislation, to improve what we've passed, to add to it, 
and to encourage the administration to aggressively enforce 
them. So we need all the help that we can get, and obviously 
those export controls are part of that.
    And I know there's more to explore, but I want to try to 
move to as many questions as we can.
    Moving next to Kuwait, Mr. Tueller, the past 4 years, as I 
mentioned in my opening, Kuwait has been ranked a ``Tier 
Three'' country, the lowest level in United States Trafficking 
in Persons, in that report, for failing to make sufficient 
efforts to comply with minimum standards for the elimination of 
trafficking.
    I'd ask you why you believe that's the case, why Kuwait has 
failed to make progress? And what steps can you take and can we 
take to encourage the Kuwaiti Government to enact the 
appropriate reforms to deal with this problem?
    Mr. Tueller. Senator, thank you very much for the question. 
I appreciate that you've raised this issue. I believe it's 
important that our allies around the world understand the 
importance of antitrafficking to Members of Congress and to the 
U.S. public.
    As you note, Kuwait has a record that falls far short of 
what it should be. Secretary Clinton and other previous 
administrations have made clear how important it is to the 
United States that we combat this evil.
    In Kuwait, the system of employment for guest workers lends 
itself to the possibility that employers can exploit workers. 
And this becomes particularly the case when it involves 
domestic workers who are inside a home, and if not sufficiently 
protected, can be deprived of wages, forced to work long hours, 
even subjected to physical and sexual abuse.
    I know that the current Prime Minister and the Government 
of Kuwait abhor these practices and seek to try to counter 
them. At times, however, their system of laws has not proved up 
to the challenge.
    So if confirmed as Ambassador, I will work both with the 
Kuwaiti Government and with Kuwaiti partners, NGOs, who have 
been very effective in advancing public awareness of this 
problem and seeking improvements in two specific areas.
    One is taking the existing laws and ensuring that they are 
actually implemented, that there are prosecutions of the most 
egregious cases as an example and deterrent to others.
    Second, ensuring that there is a more robust system of 
sheltering and protecting victims once they're identified, 
providing them safe places where they can be free from threat 
so that they can present testimony. They can be freed from 
whatever exploitation has taken place.
    So with the support of Congress and the administration, I 
believe progress is possible, because I know that there are 
many Kuwaitis who understand the importance of making advances 
in this area.
    Thank you.
    Senator Casey. Thank you.
    And one other question about democracy. Some of us observe 
that Kuwait has often been considered further along than some 
other countries on democracy itself. But the recent 
demonstrations in the region and, therefore, the reaction by 
Kuwait has been the subject of some review. Reports of beatings 
of protesters, detentions of journalists, raise questions about 
the commitment to human rights and to the rule of law.
    What can you tell us that you'll do to encourage a full 
commitment to those basic rights and those basic principles 
that we expect any government to not just respect, but to 
enforce?
    Mr. Tueller. Thank you, Senator.
    As you note, I believe Kuwait starts from a relative 
position of strength, and that it has a long tradition of open 
debate, of tolerance for different opinions. And Kuwait has a 
constitution that genuinely provides for sharing of power.
    The recent events in the Middle East have clearly had an 
impact on Kuwait. I believe they've had an impact on every 
country and will continue to have an impact as governments 
recognize the need to do better, to provide more opportunities 
for freedom of assembly; for freedom of opinion; and for people 
to have a stake in their futures politically, socially, and 
economically.
    If confirmed, I will seek to work with the partners that 
we've already identified in Kuwait, in some cases members of 
Kuwaiti society, political figures, but also with 
nongovernmental organizations. Through our MEPI, Middle East 
Partnership Initiative, that we have been able to assist in 
training women candidates and promoting civic activism and 
creating greater civil society organizations.
    So I'll be committed to working with those existing 
institutions and maintaining a close and candid dialogue with 
the Government about how Kuwait can build on its already great 
strengths in tolerance and openness in order to set a standard 
for the rest of the region.
    Senator Casey. Thank you very much.
    I move next to Ms. Ziadeh.
    In the April 2011 visit to the White House, the Qatari Emir 
signaled support for President Obama's position on a two-state 
solution for Middle East peace. The country earned criticism in 
the West for its policy of engagement with Hamas, and there's 
been speculation--and it may just be, at this point, 
speculation--that Hamas might be seeking to establish a 
permanent office in Doha, due to the ongoing unrest in Syria.
    How might the role of Qatar in the negotiations change the 
political situation and change--I should say change given the 
political situation in Egypt, as well as the unrest in Syria?
    Can you speak to that? I know it's a broad and difficult 
question, but if you can speak to that, to the extent that 
you're able at this stage?
    Ms. Ziadeh. Thank you very much for the question. With 
regards to Hamas, it is true that Qatar has had relations with 
Hamas. And in fact Hamas, at one point, did have an office with 
members of their leadership in Doha. And that relationship does 
continue, although that office is no longer there.
    However, I would certainly, if confirmed, use my good 
offices as the Ambassador to encourage the Qatari Government to 
use their position as the Chair of the Arab League Peace 
Initiative followup committee to call for more direct 
engagement between the parties, between the Palestinians and 
other parties, with Israel, in terms of solving the Israeli-
Palestinian issue.
    Make no mistake: We, as the U.S. Government, consider Hamas 
a terrorist organization. And, therefore, we would want to be 
able to push on the Qatari Government to work in its capacity 
as the Chair to look for direct engagement, direct 
negotiations, to bring a just and peaceful solution to the 
Middle East conflict.
    Senator Casey. And I would hope--you've pointed to this in 
what you've said, but I would hope you would reiterate in your 
direct discussions with the Qatari Government, when it comes to 
the conditions that we expect to be applied to any engagement 
with Hamas, that they renounce violence, that they recognize 
Israel's right to exist, and that they abide by agreements.
    And that three-part test is conjunctive. And they should be 
reminded of that, that they've got to meet every condition.
    And I know it's particularly complicated, as you would be 
assuming this position, but I would urge to you reiterate that 
as often as you can.
    Ms. Ziadeh. Absolutely. That would have to be part of the 
discussion. Absolutely.
    Senator Casey. Do you have any sense of the--and I 
mentioned that it was speculation, but do you have anything you 
can report on that speculation?
    Ms. Ziadeh. We have not heard any developments in that 
regard to date.
    Senator Casey. I would also ask, with regard to relations 
with other Gulf Cooperation Council states, what concerns, if 
any, does Qatar have about Iran's response to the regional 
unrest?
    Because, as I mentioned before, the focus that we want to 
have on the Iranian regime's threat in the region, that focus, 
I think--or that consensus in the region has been, if it hasn't 
been degraded, it's at least not been as sharply focused as I 
would hope it would be because of the changes in the region.
    But do you think they have concerns about Iran's response, 
or do you have any sense of that yet?
    Ms. Ziadeh. Yes. Well, first of all, Qatar is very much a 
regional player, in terms of the GCC and the GCC overall 
assessment of regional security. And they have played a very 
important and leading role in that.
    So they're part of the team effort in looking at the role 
of Iran in the region. I would note that the Qataris did send 
troops as part of the Peninsula Shield Force that went to 
Bahrain, in the face of unrest there and of threats from Iran 
on Bahrain. So that was indicative of their position.
    It is true that Qatar has a unique relationship with Iran, 
due in part, obviously, to the geographic proximity, but more 
importantly their economic interests. Iran and Qatar share the 
North Dome/South Pars gas field, which is the world's largest 
non-associated gas field, and so, therefore, they have economic 
interests.
    That said, I would note that the work on the fields and the 
derivative of the gas there is done independently. There are no 
joint ventures.
    And in fact, when you look at the relationship in other 
economic terms, the amount of trade that Qatar has with Iran is 
less than 2 percent of its annual trade. It's negligible. And 
Iran, in terms of banking and other issues, it's also 
negligible where Qatar is concerned.
    The flip side of that, I would note that they host a large 
U.S. military contingent there at Al Udeid, with over 10,000 
uniformed service personnel. And they certainly do look to us 
as an important guarantor in terms of their regional security, 
along with other members of the GCC.
    So that's how I would characterize the relationship with 
Iran.
    But, for sure, if confirmed, I would take every opportunity 
to impress to the Government of Qatar the importance of our 
concerns on the issue of Iran and their growing aggressive role 
in the region.
    Senator Casey. Thank you very much.
    I know our time is limited now, but, Mr. Fairfax, I wanted 
to focus a little bit on the Northern Distribution Network, 
which we know has the key role of transit for nonlethal 
supplies to Afghanistan.
    How would you work, if confirmed, to ensure that 
Kazakhstan's continued military cooperation with the U.S. and 
NATO is ensured? And if you can assess that broadly and 
specifically as well?
    Mr. Fairfax. As you know, Kazakhstan has already started 
playing a role through the Northern Distribution Network, as 
well as through expanded overflights.
    They key issue, if confirmed, I would plan on working with 
going forward is to work on this in a regional basis along with 
the other countries. One of the fundamental facts we face is 
that Kazakhstan does not border on Afghanistan, and so, it 
requires a multiple-step process of moving through Russia, 
moving through Kazakhstan, and then helping the process of 
Kazakhstan reaching agreement with its neighbors, which it has 
recently done, for example, with Uzbekistan, in opening up a 
second border crossing there, in order to facilitate the 
movement of goods through the Northern Distribution Network 
down into Afghanistan.
    And I think this is an area where increased cooperation 
among the countries themselves and among U.S. missions in the 
region can play an important role in pushing forward U.S. 
interests.
    Senator Casey. One of the difficulties, not just with 
regard to Kazakhstan and our relationship there, but also in 
plenty of other places throughout the world, is getting that 
balance right, when we've got a strategic interest or a 
strategic priority like the distribution network is, but also 
balancing that with the concerns we have about human rights and 
so many other concerns.
    With regard to Kazakhstan, that balance is basically 
between that strategic priority or interest and respect for 
universal human rights.
    How do you approach that as an incoming Ambassador, to make 
sure that we ensure that we get that balance right?
    Mr. Fairfax. Thank you, Senator, for that question, 
because, particularly, that's one that's personally important 
to me because of my belief that, ultimately, these are not two 
separate issues, but simply a question of short-term and long-
term interests that need to be aligned.
    As I said in my statement, I believe there is a strong 
relationship between security and stability, economic 
development, and political development.
    Thus far, Kazakhstan's economic development and its 
cooperation with the United States on security have certainly 
been in the lead, but I think in order for that to continue in 
the decades in the future, the democratic development is 
important. And we have to continue, both through short-term 
actions, such as arguing on behalf of jailed activists, such as 
Mr. Zhovtis, but also long term, through public outreach, 
educational exchanges, and other efforts that help to bring 
Kazakhstan into the mainstream of world thinking and respect 
for human rights.
    And I think this is actually a hopeful picture in 
Kazakhstan, if you look, not just at their willing acceptance 
of programs such as the Humphrey program or other exchange 
programs, but the fact that they finance, through Bolashak, 
3,000 college students to go overseas, many to the United 
States, to learn about how the rest of the world operates; the 
fact that they are financing Nazarbayev University with 
participation of multiple leading U.S. universities and other 
international universities.
    There is a long-term trajectory toward movement into 
internationally accepted norms, and I think those include not 
just economic norms but, ultimately, political and human 
rights. And that's what I would try to work for as Ambassador, 
if confirmed.
    Thank you.
    Senator Casey. Thank you. And I want to thank every nominee 
for your testimony, the answers you gave to questions, the 
answers you'll provide by way of response to written questions 
that will be submitted.
    We're out of time. One of the reasons is I have to vote in 
a few minutes, and I won't be able to do both, both stay and 
vote at the same time.
    But one question I was going to ask and I'll submit it, a 
question for the record, because it's so significant, but we 
tend to overlook it when we're dealing with foreign policy, is 
just the basic question of the economy of the place within 
which you serve.
    You could be a very capable diplomat, and we could have the 
right policy in place, but sometimes the economies of these 
places and the economic security of their people can be as 
important as any other consideration. So we'll ask you about 
that in writing.
    But let me conclude on a note of gratitude for your public 
service already; your willingness to commit yourselves to a new 
assignment, and difficult assignments; and the commitment of 
your families at so many levels and at such a great sacrifice. 
We're grateful you're doing that, especially at a time of 
tension and danger throughout the world, but especially in many 
of the places that you serve. We're grateful for that.
    And I wish we had more time, but we're limited. And we hope 
to see each of you not just confirmed, but also on the road 
somewhere, either in the places you'll serve or back here on 
Capitol Hill.
    But thanks again for your service.
    And we are adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


        Responses of Anne W. Patterson to Questions Submitted by
                         Senator John F. Kerry

    Question #1. While the Egyptian revolution has opened up political 
space, there is clearly a serious short-term economic problem. You said 
in your opening statement that Egypt must create 750,000 jobs a year 
just to keep up with the population growth.

  <bullet> Can you elaborate on how U.S. assistance has been reoriented 
        to address Egypt's current political and economic challenges?
  <bullet> How can the United States best deploy its economic 
        development assistance to meet the stated goals of the Egyptian 
        people of creating sustainable jobs and beginning the process 
        of long-term economic reform?

    Answer. Our goal is to help Egypt's transitional government meet 
short-term economic stabilization requirements as well as longer term 
economic modernization needs. These two objectives are not mutually 
exclusive--rather we can direct our support now to help meet the future 
needs of the Egyptian people.
    The United States has made available $165 million of bilateral 
assistance to support Egypt's immediate needs. President Obama 
announced on May 19 that the administration will seek congressional 
authorization to provide Egypt up to $1 billion in debt relief under a 
debt swap arrangement. The United States would implement this in three 
tranches over 3 years, forgiving about $330 million of Egypt's debt 
each year. As principal and interest payments come due, we will work 
with the Government of Egypt to direct the equivalent amount of 
Egyptian pounds to mutually agreed projects that are high-impact, 
visible, and benefits Egyptians from all segments of society. This 
major effort will require reorienting previously appropriated funds to 
cover the budget cost.
    Egypt will need to build a stronger private sector, which will 
increase entrepreneurial activity and generate new jobs. Developing 
Egypt's private sector will require that (1) small businesses have 
access to capital in order to start and expand; (2) firms adopt 
entrepreneurial approaches and take advantage of new opportunities; (3) 
workers' skills meet the actual needs of private sector employers; 
(4) the business and regulatory environment is conducive to small 
businesses and entrepreneurs; and (5) the U.S. and international 
private sector is engaged in this process.
    To improve access to finance, we are working with Congress to 
establish an enterprise fund for Egypt which would be initiated with up 
to $60 million from existing bilateral assistance funds to stimulate 
private sector investment, promote projects that support competitive 
markets, and encourage public/private partnerships. We are supporting 
the expansion of the European Bank for Reconstruction and Development 
to help catalyze Egypt's private sector during its transition. In 
addition, the Overseas Private Investment Corporation (OPIC) will 
create a 10-year loan guarantee facility in Egypt which could provide 
up to $700 million in loans to small and medium-sized enterprises 
(SMEs), supporting over 50,000 local jobs. OPIC will also seek to 
provide up to $1 billion in guarantees and/or loans to public/private 
partnerships in order to promote growth in mutually agreed-upon sectors 
of the Egyptian economy.
    To aid in the development of an entrepreneurial ``ecosystem,'' the 
State Department's Global Entrepreneurship Program is pursuing multiple 
initiatives, including a USAID-funded, Cairo-based Entrepreneur-in-
Residence (EIR). The EIR, in turn, is leading intensive educational 
modules--entrepreneur boot camps--that will teach promising 
entrepreneurs, women and men, the critical aspects of starting a new 
company. It is also facilitating angel capital networks in Egypt to 
ensure entrepreneurs, including women and minorities, have the means to 
get their ideas off the ground. Finally, the program is planning to 
help arrange temporary job placement for students and new entrepreneurs 
in U.S.-based startups, to help develop skills matched to market needs.
    To encourage commercial networking, USTDA just concluded its 
``Egypt: Forward'' forum and facilitated trade missions for the 
Egyptian delegates to cities across the United States. We are seeking 
every opportunity to leverage private sector activities for their 
public diplomacy value and their ability to interest more American 
companies in doing business with Egypt. One successful example of this 
sort of public-private partnership that is already paying dividends is 
Partners for a New Beginning (PNB).
    To develop a local chapter for PNB in Egypt, the Aspen Institute 
PNB Secretariat will be working with the Egyptian counterparts of our 
PNB Steering Committee, such as Cisco, Intel, ExxonMobil, Coca-Cola, 
Morgan Stanley, Dow Chemical, and others. The Aspen Institute PNB 
Secretariat is meeting with local leaders in Egypt about developing a 
locally driven, self-operational committee that will identify local 
priorities and implement targeted PNB projects to address those needs.
    We will offer the Egyptian people concrete support for economic 
policy formulation alongside our democratization efforts. We have been 
using and will continue to use bilateral programs to support economic 
reform, including outreach and technical assistance from our 
government, universities, and think-tanks to individuals, and NGOs in 
Egypt. We are also prepared to begin robust discussions with Egypt and 
Tunisia and their regional counterparts on a set of strategic trade 
initiatives, including the possible expansion of Egypt's Qualifying 
Industrial Zones (QIZs).

    Question #2. It is clear that corruption and a lack of transparency 
about the Egyptian economy were among the engines of the January 25 
revolution.

  <bullet> a. How can our assistance efforts be designed to ensure that 
        they promote transparency and the rule of law?
  <bullet> b. What lessons have we learned from our previous experience 
        in Egypt in tackling corruption? What lessons have you learned 
        from your time in Pakistan and elsewhere about the effective 
        provision of foreign assistance?

    Answer. It is a high priority to ensure U.S taxpayer dollars are 
used wisely. USAID's Inspector General has an office in Cairo and there 
are controls and rigorous procedures in effect to ensure our funds are 
not wasted or diverted for other purposes. We will ensure that the 
monitoring procedures on all our grants are meticulous.
    Tackling the issue of societal corruption was difficult during the 
Mubarak government. USAID/Egypt has run a number of rule of law and 
human rights, but political will to address corruption issues has been 
the key factor that determined whether our programs could translate to 
broad societal change. Experience in other transitional situations 
indicates that a newly elected government may be highly motivated to 
act on campaign promises and address grievances. We will work with the 
Egyptians to advance their goals to curb corruption, improve 
transparency, and strengthen the judicial system. Our efforts will 
benefit from Egypt's status as a party to shared international 
anticorruption standards in the U.N. Convention against Corruption, and 
the Convention's expert peer review process to assess compliance and 
implementation, which will bolster political will and guide reform.
    With a portion of the $165 million in transition assistance, we are 
already supporting reform in this area, primarily by focusing on how 
civil society can broaden public awareness of corruption and build 
demand for transparency and accountability. Transparency International, 
for example, is building a grassroots anticorruption network in Egypt, 
utilizing the U.N.'s checklist on implementation of the U.N. Convention 
against Corruption. We are also working with Egyptian and international 
organizations to focus on anticorruption campaigns and awareness, media 
reporting on transparency and corruption, and business ethics. A recent 
U.S.-sponsored regional conference in Rabat, with Egyptian 
participation, stressed the importance of these approaches and on the 
importance of engaging the full range of stakeholders--citizens, 
businesses, NGOs, government officials, the media--in reform. We will 
also leverage our regional and global anticorruption efforts to enhance 
the impact of our assistance in Egypt. For example, the State 
Department has supported the development in recent years of an Arab-led 
regional network of anticorruption officials and bodies, which will be 
a very useful, ``locally owned'' channel to share good practices with 
Egyptian officials and to engage in policy dialogue at the regional 
level on key anticorruption reform issues.
    In Pakistan, we confronted multiple challenges in our own system 
and with the Government of Pakistan in implementing the assistance 
program. It required too much time to focus the program on specific 
projects. We did not develop quickly enough a convincing narrative 
about the meaning of our assistance. While I strongly believe that we 
made the right decision to funnel assistance money through the 
government--and thus build capacity within the government and encourage 
citizens to look to their government for services--it slowed 
implementation. Nonetheless, the long-term American commitment 
indicated by the Kerry-Lugar-Berman legislation was recognized by a 
broad range of Pakistanis, who realized it was a sea change in our 
bilateral relationship.
    I am determined to avoid the same mistakes in Cairo. We will 
undertake a review of the program quickly and focus it on a limited 
number of activities, namely support for the private sector, economic 
growth, and democracy and governance. I have heard from think-tank 
experts that while we have made astonishing advances in (for instance) 
maternal and child health with U.S. assistance in Egypt, the capacity 
of the Egyptian Government to implement these programs without donor 
financing and technical assistance is still limited. This is an issue I 
will look at carefully. I look forward to working with the committee on 
this issue.

    Question #3. In the past, USAID funding has generally been allotted 
to NGOs registered with the Egyptian Government, thereby excluding many 
civil society groups that the government did not recognize, some of 
which played a role in the January 25 revolution. USAID representatives 
have said that this policy is being reevaluated and that going forward 
USAID and other USG granting institutions will work with both 
registered and nonregistered organizations. What is the status of that 
reevaluation and how do USAID and the Department of State plan to 
engage differently with Egyptian nongovernmental actors in the future?

    Answer. We do not distinguish between registered and unregistered 
NGOs in our funding decisions. The United States provides funding to 
both types of organizations as a policy.

    Question #4. What is the status of the initial $150 million 
reprogrammed on February 17 to assist with transition and economic 
recovery in Egypt? What effects of and responses to that assistance 
have you seen thus far?

    Answer. In addition to the $150 million reprogrammed on February 
17, the USG also repositioned $15 million of previously appropriated 
democracy and governance funds designated for Egypt. Of the $165 
million, we have reserved $65 million for democracy and governance and 
$100 million for economic growth projects.
    We have awarded $59 million of the democracy funds, focusing on 
elections, labor rights, media freedom, and human rights. For example, 
the Middle East Partnership Initiative (MEPI) has programmed $4.5 
million in small grants to Egyptian, Washington, DC-based, and 
international organizations working closely with Egyptian partners. 
These grants have provided support to Egyptian organizations in the 
preelection environment in the areas of human rights, inclusion, 
transparency, and networking/coalition-building. Thirty-two million 
dollars was provided to NDI and IRI; and $5.6 million to IFES to 
support election administration, political party development 
strengthening, voter education, and election observation. Other 
activities supported by the democracy funds include:

  <bullet> Support for expanding women's participation in the political 
        and decision making processes.
  <bullet> Building the capacity of independent worker organizations to 
        advocate for workers' rights and participate in the democratic 
        transition.
  <bullet> Training to journalists to serve as a watchdog in the 
        elections, including support for blogging, for female and youth 
        citizen journalists.

    For the economic growth funds--focusing on private sector, 
entrepreneurship, and job growth--we have awarded about $15 million, 
with more proposals in negotiations. Another $10 million of the 
economic growth funds were recently notified to Congress for transfer 
to OPIC to support a small and medium enterprise lending facility.

    Question #5. Women protested alongside men during the revolution in 
Tahrir Square and played a key role in organizing the protests. How do 
U.S. assistance policies address the inclusion of women and minorities 
into mainstream decisions in a post-Mubarak Egypt?

    Answer. Regrettably, the committee to draft revisions to Egypt's 
Constitution in March did not include any women, and the Ministry of 
Women's Affairs was abolished soon after the interim government was 
formed. Although some women have taken prominent roles in activist 
groups, more needs to be done to ensure women's voices are part of 
Egypt's transition. We will continue pressing the Egyptian Government 
to promote the participation of women in government and political 
parties. The United States promoted a conference on June 2 in Cairo, 
cosponsored by International IDEA and U.N. Women, to raise the profile 
of women's rights in democratic transitions. Chaired by U.N. Women 
Executive Director Michele Bachelet, this event advocated for robust 
women's political participation and empowerment, with special attention 
on Egypt, and has likely laid the groundwork for a ministerial-level 
gathering on the subject on the margins of the U.N. General Assembly.
    Many of the civil society programs we support aim to empower women 
politically and economically, and we will monitor the drafting of 
Egypt's new constitution to ensure women's rights are protected. 
Support for women as political leaders and candidates will be an 
important part of the work NDI and IRI will undertake with U.S. 
funding. Additional programs under the $165 million assistance package 
with America's Development Foundation, Vital Voices, and six Egyptian 
NGOs specifically aim to increase women's participation in elections, 
democratic processes and women's rights advocacy--whether as citizens, 
activists, or candidates.
    Through its local grants program, the Middle East Partnership 
Initiative (MEPI) is funding 10 Egyptian NGOs to carry out innovative 
projects to break down barriers for women in the legal profession, 
raise awareness of women's rights among female students in Upper Egypt, 
train ordinary Egyptian women to become community leaders and business 
owners, and carry out voter education and corruption awareness 
campaigns targeting women, including in lesser developed regions of 
Egypt. MEPI also is preparing to fund new Egyptian local grants that 
focus on women's rights, economic opportunity, and participation during 
the transition.
    Economic opportunity for women is a parallel theme, along with 
political participation. We will ensure our assistance provides women 
with economic opportunities and access to capital, as financial 
independence for women sets the groundwork for greater opportunity in 
other spheres of life as well. OPIC's projects in Egypt will give 
particular focus to women, and the Global Entrepreneurship Program will 
increase the number of women participants and match women entrepreneurs 
with women mentors. PNB member Coca-Cola is partnering with the MENA 
Businesswomen's Network to provide training and skills development 
courses for young professional women.
    Looking forward, we will also focus more of our International 
Visitor Leadership Programs (IVLPs) on women, putting together projects 
in the fields of governance, sciences, business, and in economics. 
These include sectors in which women are underrepresented. In the 4th 
quarter of FY 2011, Egyptian women will take part in IVLP projects such 
as ``Youth Leaders,'' ``Women as Political Leaders'' and ``Science and 
Technology.'' In FY 2012, Egyptian women will participate in IVLP 
projects including ``Global Economic Cooperation and Recovery,'' 
``Women's Innovations in Science and Engineering,'' ``U.S. Political 
System: Background for Journalists,'' ``Women as Political Leaders,'' 
``Women and Entrepreneurship,'' and ``Small Business Development.'' In 
addition, State/ECA will expand programs like TechWomen, in which we 
provided six Egyptian women and colleagues from other parts of the NEA 
region the opportunity to participate in a professional mentorship 
exchange program for women engaged in technology. Additionally, in 
2011, two Egyptian women leaders participated in the Fortune/ U.S. 
State Department Global Women's Mentorship Program, in which State/ECA 
offers emerging women leaders from around the world the opportunity to 
develop their leadership, management, and business skills through 
mentorships with senior female executives from the Fortune Most 
Powerful Women Summit.

    Question #6. Many human rights groups have expressed concerns about 
ongoing human rights abuses in post-Mubarak Egypt. What is the most 
pressing human rights issue in Egypt today?

  <bullet> What steps are being taken to enhance legal protections and 
        access to due process, particularly in light of ongoing trials 
        of civilians in military courts? What is the capacity of the 
        civilian courts to handle the caseload?
  <bullet> What is your interpretation of the tensions and in some 
        cases, violence, between Copts and Muslims? What efforts are 
        being made to foster collaboration and reconciliation between 
        different religious groups within Egyptian society?
  <bullet> In your assessment, how, if at all, have press freedoms 
        changed in post-Mubarak Egypt and do you think that laws 
        criminalizing certain journalistic acts will remain in place?

    Answer. Despite the fact that the Egyptian Government is committed 
to carrying out a democratic transition, serious concerns about human 
rights remain. We have raised at the highest levels the need for 
Egypt's military leadership to address transparently and inclusively 
the grievances of the Egyptian people, including lifting the state of 
emergency, protecting freedom of expression and assembly, reforming 
security institutions, investigating allegations of abuse by security 
forces, conducting trials in civilian, not military, courts, and 
transitioning to civilian control of the government through free and 
fair elections. Specifically regarding military courts, we have made 
clear to the Egyptians our belief that in spite of ongoing security 
concerns, criminals can and should be tried in civilian courts. The 
Egyptian Government has generally argued that the emergency law is 
necessary to maintain security during a volatile period, but in fact, 
the persistence of the state of emergency and the use of military 
courts have been key factors driving protesters to the streets on 
multiple occasions. We also believe that elections held under the 
emergency law may not be perceived as free, fair, and credible, 
particularly if the government attempts to restrict political parties 
and free expression. Although Egypt's court system could be made more 
efficient in terms of processing cases, capacity constraints are not 
the reason that suspects continue to face trial in military courts.
    Sectarian violence remains a troubling problem in Egypt, and there 
is a gap between official statements and the security situation on the 
ground, as evidenced for example by the violence that erupted in the 
Cairo neighborhood of Imbaba. On May 7, riots against two churches in 
Imbaba killed 15 and injured 232. Other incidents include the January 1 
bombing of a church in Alexandria and the burning of churches in the 
village of Sol on March 4. On May 17, Field Marshal Tantawi, the head 
of the Supreme Council of the Armed Forces (SCAF) issued a strongly 
worded, public condemnation of sectarian attacks. The SCAF also stated 
that it would investigate and prosecute those responsible for the May 7 
Imbaba clashes, and has referred 48 individuals to trial in conjunction 
with his case. On June 7, Prime Minister Sharaf attended the formal 
reopening of the Holy Virgin Church, one of two churches damaged during 
the May 7 riots. The Egyptian transitional government has also allowed 
the construction and repair of 17 churches that had previously not been 
granted permission to be built or repaired. Unfortunately, the Egyptian 
Government rarely refers perpetrators of sectarian violence to courts, 
but rather has sought to resolve sectarian tensions through extra-
judicial reconciliation sessions between perpetrators and victims of 
violence. We have raised the issue of reconciliation sessions 
repeatedly with the Egyptian Government, and again have urged the 
Egyptian Government to abide by due process of law.
    On May 14, Prime Minister Sharaf announced the formation of a 
National Justice Committee to draft an antidiscrimination law and 
consider a ``unified places of worship law'' within 30 days--two key 
Coptic Christian demands. On June 1, the Egyptian Cabinet announced 
that it had approved a draft ``Unified Law for Organizing the 
Construction of Places of Worship.'' This draft law, which governs the 
building and renovation of churches and mosques, is currently under 
public review, and some Coptic leaders and human rights activists have 
raised concerns during this review process that the draft law does not 
free the approval process for church construction from political 
influence that has allowed for discrimination. We are closely following 
the development of this legislation and urging the Egyptian Government 
to pass and implement it, taking into account the concerns raised by 
religious leaders and human rights groups as the law moves forward.
    We remain very concerned about incidents of sectarian violence in 
Egypt and will continue to monitor this issue closely. We will continue 
to impress upon the Egyptian Government the importance of taking steps 
to confront sectarian violence, including steps to reverse 
discriminatory laws and treatment, of holding perpetrators of violence 
accountable, and of fostering an environment that promotes religious 
tolerance. Following parliamentary elections in September, Egyptians 
will draft a new constitution, and we are working to ensure that the 
final document fully respects the rights of religious minorities.
    We are aware of recent interrogations of journalists, bloggers, and 
judges critical of the SCAF and military and have made our concerns 
regarding such cases clear to the Egyptian Government and the SCAF. 
Freedom of expression is a critical component of any democratic state, 
and we have repeatedly stated that attempts to silence political 
opposition in Egypt are unacceptable. Following the revolution, many 
new television stations and newspapers have emerged, but the military 
remains highly sensitive to how it is depicted in the media. It is too 
soon to tell whether laws on freedom of expression will change once 
Egypt has completed its transition back to civilian rule.

    Question #7. Has the State Department received any response or 
signal from the Egyptian Government regarding the presence of 
international monitors at the upcoming election? In your assessment 
what technical support is necessary to foster a robust electoral 
process and strong political parties? How might the United States and 
the international community address those needs, particularly in light 
of ambivalence in the face of democracy and governance assistance?

    Answer. On July 20, 2011, the press reported that Major General 
Shahin, spokesman for the Supreme Council of the Armed Forces (SCAF), 
announced that international observers would not be invited to monitor 
Egypt's elections. We have expressed disappointment that Egypt's 
transitional government has chosen not to invite international 
observers, but continue to encourage Egypt to accept monitors as it is 
a standard practice among democratic states.
    The SCAF has begun clarifying procedures for September's 
parliamentary elections but much remains to be decided. Egypt's youth 
leaders and new political parties face the challenge of quickly 
organizing campaigns. Among the issues that the Egyptian Government 
must address are setting up and securing polling sites, safeguarding 
the transfer of ballot boxes, training poll workers, and educating the 
many new voters who will likely turn out in September. U.S. Government 
programs are helping to address some of these issues, and we are 
working with the Egyptian Government and international partners to 
provide additional assistance in this important area.

    Question #8. Noor and Ramsay Bower, 8 and 10 years old 
respectively, were abducted by their Egyptian mother, Mirvat El Nady, 
in August 2009 and taken to Egypt without the knowledge or consent of 
their American father, Colin Bower.
    On December 1, 2008, a U.S. court granted Mr. Bower sole legal 
custody and joint physical custody of the children. United States 
courts ruled again on August 28, 2009, granting Mr. Bower sole legal 
and physical custody of the children. A federal warrant and an Interpol 
Red Alert have been issued for the mother on charges of kidnapping.

  <bullet> If confirmed, what will you do to ensure that Mr. Bower once 
        again acquires custody of his children?
  <bullet> In accordance with the ``Memo of Understanding on Consular 
        Cooperation in Cases Concerning Parental Access to Children,'' 
        the U.S. Embassy in Cairo has liaised with the appropriate 
        officials in Egypt in attempts to facilitate regular 
        visitations for Mr. Bower, but to date, only three such visits 
        have taken place. The most recent visit took place in early 
        December 2010, and to my knowledge the mother has been 
        unresponsive to requests for visitations since the January 25 
        Revolution. If confirmed, will you offer Colin the support of 
        the U.S. Embassy to ensure that regular visitations resume as 
        soon as possible and that they continue with necessary 
        frequency until Noor and Ramsey return to their father?

    Answer. Secretary Clinton and the Department have been in direct 
contact with Egyptian authorities at senior levels concerning this 
matter. I have met Mr. Bower and we will continue to raise this case 
with appropriate Egyptian authorities in the hope of seeing Noor and 
Ramsay returned to Mr. Bower. Both the Special Advisor for the Office 
of Children's Issues, Ambassador Susan Jacobs, and the U.S. Consul 
General in Cairo have, on multiple occasions, worked directly with Mr. 
Bower on this difficult matter. The Office of Children's Issues is very 
engaged on Mr. Bower's behalf. We will continue to press the Egyptian 
Government to sign the Hague Convention on the Civil Aspects of 
International Child Abduction.
    We will also continue to work with the Egyptian Ministry of Justice 
in order to support Mr. Bower in his efforts to visit with his 
children. A meeting between Mr. Bower and his children is currently 
scheduled in Cairo for July 9. An Egyptian court granted visitation 
rights to Colin Bower to see his children on the second and fourth 
Friday of each month. Mr. Bower's inability to visit regularly with the 
children has been exacerbated since the events of January 25. We will 
do all that we can to assist with Mr. Bower's efforts to obtain 
consistent access to his children.
                                 ______
                                 

        Responses of Michael H. Corbin to Questions Submitted by
                         Senator John F. Kerry

    Question. How has the recent regional political change and unrest 
of the Arab Spring affected the views of the leadership of the United 
Arab Emirates about their country's political system, including power-
sharing between Emirates and the partially elected Federal National 
Council? What challenges, if any, has the recent political upheaval 
created for U.S.-UAE relations?

    Answer. The UAE was as surprised as we all were by the suddenness 
of the popular uprisings and the speed with which they spread across 
the region. They have sought to maintain stability at home and abroad. 
Generally speaking, the UAE has remained stable and cohesive in the 
face of protests in surrounding countries.
    The FNC serves in an entirely advisory capacity but is an important 
feature of the Emirati political landscape. The Emirati leadership 
recently announced various reforms expanding the electoral college vote 
in the FNC election ninefold, but this still amounts to only a small 
percentage of the citizenry. The UAE Government is gradually 
introducing reforms aimed at increasing political participation; most 
recently, the leadership announced it was developing plans to move 
toward universal suffrage as early as 2019.
    We engage with the Emirati Government regularly and at all levels 
regarding the universal principles of freedom of expression, assembly, 
and association. The UAE and the United States do not always see eye to 
eye on the popular uprisings of the Arab Spring, but we have maintained 
a robust and productive dialogue throughout this period of historic 
change.

    Question. What is the administration's view of the UAE's 
participation in the Peninsula Shield force deployed by the GCC to 
Bahrain during the recent unrest there? How does the UAE population 
view their involvement?

    Answer. The Government of Bahrain invited the UAE to deploy forces 
and the UAE responded affirmatively to that request.
    There has been no evidence of backlash within the Emirati 
population regarding the deployment of Peninsula Shield forces.

    Question. How would you assess the strengths and weaknesses of the 
UAE economy? What prospects are there for increasing bilateral trade 
and investment flows? What is the status of Dubai's economy, 2\1/2\ 
years into the global economic crisis? How has the relationship between 
Dubai and Abu Dhabi shifted, if at all, since the beginning of the 
economic crisis?

    Answer. The strengths of the UAE economy are its location, 
innovative leadership, and natural resources. In addition to having 
large natural gas and oil deposits, it is a transshipment hub and has 
made open trade and transport its hallmarks since before it existed as 
a nation. It is the No. 1 destination for U.S. exports in the Middle 
East, 2 years running.
    The leadership of the UAE is acutely aware of the fact that its 
hydrocarbon resources will eventually run out. It has been seeking to 
diversify its economic base and compete in international markets in 
order to mitigate possible future negative economic effects. The UAE 
has become the regional headquarters for over 700 American companies 
active in the petroleum, defense, services, education, and health care 
sectors. It has developed a leading role in business services, 
including finance and logistics, and has emerged as the primary 
business hub between Asia and Europe. It is also seeking a leading role 
in the research and development of renewable energy.
    Bolstered by strong oil revenues, Abu Dhabi has contributed 
significantly to stabilizing the Dubai economy following a real estate 
crash triggered by the 2008 global financial crisis. The Abu Dhabi 
leadership continues to work with the authorities in Dubai to 
strengthen the UAE's economic standing following the global financial 
crisis. Several of Dubai's Government-linked real estate development 
firms have successfully restructured debt and developed repayment plans 
for contractors, including a number of American companies.

    Question. What is the perspective of the administration on the 
recent arrests of figures calling for political reform by the Emirati 
authorities?

    Answer. We engage the Emirati Government regularly and at all 
levels regarding the universal principles of freedom of expression, 
assembly, and association. Our Embassy and senior Department officials 
have been reaching out to the Emirati Government regarding our concern 
that any trials be conducted in a transparent and open manner in 
accordance with international standards of due process. If confirmed, I 
will continue to make these points. We understand the lawyers for the 
five defendants have asked that the trial be closed to the public and 
the press. We will continue to monitor the situation to the best of our 
ability.

    Question. How would you assess the UAE's level of cooperation in 
implementing U.N. Security Council Resolution 1929, which imposes 
sanctions against Iran? Please describe any U.S. efforts to cooperate 
with the UAE on implementation of Iran sanctions.

    Answer. The UAE takes seriously its international obligations to 
enforce sanctions against Iran. We have had excellent cooperation with 
the UAE on implementation on UNSCR 1929 and look forward to our 
continuing close efforts. The UAE has a strong track record of 
disrupting or preventing transfers to Iran of items of proliferation 
concern. It has also taken good steps in the area of proliferation 
finance.
    The UAE has a national strategy to protect the reputation of its 
historically open trade environment against abuse by proliferators. In 
August 2007, the UAE passed comprehensive strategic trade control 
legislation providing the basis for an enforceable export control 
system. The law is currently being enforced and we have been working in 
close partnership with UAE authorities to halt attempts to divert 
sensitive dual-use technology, including U.S.-origin goods, from the 
UAE. With respect to enforcement and counter proliferation issues, the 
UAE is an active participant in the Proliferation Security Initiative 
(PSI) and hosted, in January 2010, a major multinational PSI exercise, 
LEADING EDGE. They also cohosted with the United States a Global 
Transshipment Conference in March 2011 designed to focus international 
attention on the problems of illicit transshipment and ways to address 
them.
    If confirmed, I will continue to advance our policy of working with 
the UAE to ensure our continued cooperation as we seek the full 
implementation of sanctions on Iran. This has been a top priority and 
will continue to be one under my tenure, if confirmed. I will also 
continue our efforts to prevent the sale of refined petroleum products 
to Iran, with a focus on monitoring of and reporting on efforts by 
commercial entities to evade international and U.S. sanctions, 
including the CISADA refined petroleum sanctions.

    Question. The UAE was listed as a Tier 2 country in the State 
Department's 2010 Trafficking in Persons Report. What are the most 
concerning aspects of government policy on this issue and what steps 
will you take as Ambassador to address the widespread problem of human 
trafficking, particularly on the issues of sex and labor trafficking? 
What steps has the government taken to regulate and protect its migrant 
domestic workers? Please describe any opportunities for public 
diplomacy activities related to trafficking in persons and any 
technical cooperation or other partnership initiatives being undertaken 
on this issue.

    Answer. UAE's human trafficking problem is serious. We have 
witnessed strong efforts to tackle sex trafficking through punishing 
traffickers and expanding victim protection services. Over the past 
year, the UAE established a special court to hear human trafficking 
cases in Dubai and opened two new shelters for victims of trafficking. 
However, challenges remain for the UAE to combat its considerable and 
multifaceted problem of forced labor, including among its population of 
migrant domestic workers.
    Our concerns about the forced labor of migrant workers and the 
trafficking of women and girls for prostitution in this region have 
been highlighted many times and at many levels--to governments, civil 
society, source countries, the media, and to victims. If confirmed, I 
will continue to urge the UAE to focus their attention on these serious 
issues and continue to prosecute trafficking offenses; identify and 
provide protection for victims of trafficking; and end labor practices 
such as the withholding of passports by employers that make foreign 
workers vulnerable to abuse.

    Question. Can you describe the range of ways in which the UAE has 
supported and continues to support the Libyan Transitional National 
Council since the conflict in Libya began? What has been the UAE's role 
in supporting the temporary funding mechanism established by the Libya 
contact group?

    Answer. The UAE is a key partner in NATO-led operations in Libya, 
and is providing pilots and aircraft to assist with the no-fly zone and 
civilian protection mission. The UAE is a leader in working to protect 
the Libyan people and stabilize the situation in that country, and has 
disbursed several million dollars in humanitarian aid to those affected 
by the crisis.
    On June 9, the UAE hosted the most recent Libya Contact Group 
meeting in Abu Dhabi and is cochairing the July 15 meeting in Istanbul. 
The Abu Dhabi meeting built on the previous Contact Group meetings in 
Doha and Rome to solidify international resolve in ensuring the 
departure of Qadhafi from power. The Contact Group in Abu Dhabi also 
issued a statement which stressed that Qadhafi has lost legitimacy and 
must go, the use of force against civilians must cease, regime forces 
must withdraw from cities they have occupied, and a political 
transition must be based on the Transitional National Council's (TNC) 
inclusive approach expressed in its ``Roadmap on Libya.'' Under UAE 
leadership, the Contact Group meeting in Abu Dhabi also announced the 
establishment of a temporary financial mechanism to channel financial 
support to the TNC. In the runup to that meeting, the UAE offered 
concrete suggestions that helped structure the Temporary Financing 
Mechanism (TFM) and build consensus in support of its establishment.
    The UAE recognized the Transitional National Council on June 12 as 
``the sole legitimate representative for the Libyan people'' on the 
occasion of an official visit to Abu Dhabi by TNC leader Mustaf Abdul 
Jalil. UAE Foreign Minister Abdullah bin Zayed noted in the wake of the 
visit that the UAE would ``work toward helping our Libyan brothers out 
of this difficult situation.'' On June 13, the UAE expelled the pro-
Qadhafi Libyan Ambassador from Abu Dhabi and committed to opening a 
representative office in Benghazi in the near future, which the Foreign 
Minister pointed to as a sign that it wanted to establish ``government-
to-government relations'' with the TNC.

    Question. How would you characterize the UAE's approach to Hamas 
and to the Israeli-Palestinian conflict more broadly?

    Answer. The UAE supports a two-state solution as well as the dual-
track strategy of pursuing a vigorous political negotiation along with 
an equally vigorous and mutually reinforcing institution-building 
track. They have also helped shape the
Arab League position on supporting direct negotiations between Israel 
and the Palestinians.
    Among Arab partners, the UAE has a history of strong financial 
support to the Palestinian Authority's development of responsible 
institutions, which is imperative to maintaining a viable partner for 
peace talks: the UAE provided $134 million in 2008, $173 million in 
2009, $42 million in 2010, and thus far has contributed an additional 
$43 million in 2011.
    While the UAE supported Fatah-Hamas reconciliation, it shares our 
concerns about Islamist extremist groups such as Hamas and the Muslim 
Brotherhood.

    Question. What is the status of U.S.-UAE defense cooperation? What 
are the major priorities of each side?

    Answer. Cooperation on defense is a central pillar of our strategic 
partnership and is reflected in regular bilateral strategic security 
discussions. The port of Jebel Ali in Dubai is the U.S. Navy's busiest 
overseas port of call and the UAE is our largest Foreign Military Sales 
cash customer in the world. The Emirati Air Force annually hosts the 
United States and other air forces for ``Iron Falcon,'' a training 
exercise at the UAE Air Warfare Center. The UAE has worked with 
international partners, including the United States, to limit illegal, 
destabilizing activities in the gulf and organized an international 
conference on countering piracy March 18-19 of this year. On May 19 the 
North Atlantic Council approved the establishment of a separate UAE 
mission to NATO making the UAE, along with Japan, one of the first two 
non-Partnership for Peace partner missions and the United States was 
highly supportive of this effort.
    The major priorities of both the UAE and the United States are to 
continue our close security partnership and to promote peace and 
security in the region.
                                 ______
                                 

       Responses of Matthew H. Tueller to Questions Submitted by
                         Senator John F. Kerry

    Question. How has the regional political change and unrest of the 
Arab Spring affected the political situation in Kuwait? To what do you 
attribute the fact that Kuwait has not been faced, to date, with mass 
popular unrest?

    Answer. Kuwait is in a unique position, having long been one of the 
countries in the Middle East where political freedoms are embraced and 
upheld by the government and society. Well-defined democratic 
principles are enshrined in Kuwait's constitution, and reflected in 
free competitive legislative elections, a fully elected and empowered 
Parliament, a vibrant civil society, and relatively open press 
environment. Kuwait's Government also ensures that Kuwaiti citizens 
benefit from the country's wealth by subsidizing education and health 
care and at times taking steps to offset for citizens increases in the 
cost of living.
    Kuwait has witnessed some peaceful, organized rallies this spring. 
Ongoing tensions between elements within Parliament and the Kuwaiti 
Government led to the Cabinet's decision to resign earlier this spring. 
There were some rallies in the leadup to that period, and also 
following the swearing in of the new Cabinet. Kuwait's bidoon or 
``stateless'' residents also organized several rallies this spring to 
bring attention to the demands of their population, including in areas 
such as better access to health care, education, and job opportunities.

    Question. Kuwait has been listed as a Tier 3 country in four 
consecutive State Department Trafficking in Persons Reports. Why, in 
the administration's view, has Kuwait failed to make progress to curb 
trafficking in persons? What are the most concerning government 
failures on this issue? Migrant workers working in domestic service 
face particular hardships that in some cases have caused them to flee 
back to their countries of origin. What is Kuwait doing to prevent 
these types of abuses? Please describe how you intend to press this 
issue as Ambassador.

    Answer. The situation for migrant workers remains particularly 
precarious in light of the restrictive sponsorship system, which 
effectively gives sponsors power over the movement and activities of 
the migrants, making foreign workers extremely vulnerable to forced 
labor. Domestic workers are particularly vulnerable given their 
isolation within private homes.
    Kuwait's victim protection structure and law enforcement efforts 
are fundamentally weak. While the GOK operates a shelter for victims of 
trafficking, it has not developed a procedure to identify and refer 
victims to the facility.
    Currently, draft legislation prohibiting trafficking is stalled in 
the legislature. Although the Department has encouraged Kuwait for 
years to use existing laws to punish traffickers, the government 
remains reluctant to prosecute Kuwaiti citizens for trafficking 
offenses.
    If confirmed, I would like to see and will encourage the Kuwaiti 
Government to actively prosecute and punish acts of forced labor, 
including against employers who use violence, threats, or restrictions 
on movement (such as withholding of passports and exit permits) to 
compel labor. Additionally, if confirmed, I would like to see and will 
encourage the Kuwaiti Government institute a formal identification 
procedure to adequately find and protect victims of TIP.

    Question. How would you assess Kuwait's level of cooperation in 
implementing U.N. Security Council Resolution 1929, which imposes 
sanctions against Iran? Please describe any U.S. efforts to cooperate 
with Kuwait on implementation of Iran sanctions.

    Answer. Kuwait, which is increasingly concerned about Iran's 
disruptive influence in the region, is committed to full implementation 
of UNSCR 1929. Kuwait is alarmed by Iran's continued refusal to comply 
with its United Nations Security Council obligations and with 
International Atomic Energy Agency (IAEA) safeguards. The Kuwaiti 
Government has publicly urged Iran to abide by IAEA and Nuclear Non-
Proliferation Treaty (NPT) obligations. Kuwait fears that the 
development of an Iranian nuclear weapons capability would have a 
destabilizing effect on the region as a whole and in particular for 
Kuwait, given the geographic proximity of the two countries, and 
therefore has urged Tehran to work with the international community to 
ensure full transparency of Iran's nuclear program. If I am confirmed 
as Ambassador, I will continue our candid dialogue with the Kuwaiti 
Government to use sanctions and other measures increase pressure on 
Iran and encourage it to engage on the nuclear issue.

    Question. On January 12, 2011, the Prime Minister of Kuwait became 
the first Kuwaiti Prime Minister to visit Iraq since the August 2, 
1990, invasion. To what extent has progress been made on Iraqi-Kuwaiti 
issues such as border demarcation, reparations, diplomatic and economic 
normalization, and the status of the missing Kuwaiti state archives? 
What role, if any, might the United States play in support of 
normalization between Iraq and Kuwait?

    Answer. There have been positive developments in the Iraq-Kuwait 
relationship over the past several years, including the reestablishment 
of diplomatic ties. Kuwait sent an ambassador to Baghdad in 2008, and 
Iraq sent an ambassador to Kuwait in 2010. These steps reflect a shared 
desire to strengthen the bilateral relationship, and rebuild the trust 
that was destroyed by Saddam Hussein's invasion of Kuwait.
    We were encouraged to see Iraq and Kuwait launch a joint 
ministerial commission earlier this year. This commission provides a 
useful forum for the two sides to discuss cooperation and steps forward 
to achieve progress on all outstanding issues in the bilateral 
relationship.
    Going forward, additional issues must be discussed. Iraq needs to 
quickly fulfill its remaining obligations under the relevant Chapter 
VII Security Council resolutions pertaining to the situation between 
Iraq and Kuwait, including the resolutions on the Iraq-Kuwait border 
and efforts to locate Kuwaiti nationals and Kuwait's national archives 
missing from the first gulf war. This will create a more positive 
atmosphere in which to address other outstanding issues.
    Given the United States unique relationship with both Iraq and 
Kuwait, we are in an advantageous position to play a positive role in 
achieving progress on this issue. If confirmed, I will work toward 
strengthened dialogue between Iraq and Kuwait, utilizing existing 
channels such as the ICRC-led Tripartite Commission and Tripartite 
Subcommittee, and the newly established Iraq-Kuwait Joint Ministerial 
Commission.

    Question. What is the view of the Kuwaiti Government on the 
Peninsula Shield operation? What are the views of the Kuwaiti people? 
How was the rejection of a Kuwaiti medical team in Bahrain in March 
perceived by the government? What is the potential for Kuwait to play a 
mediating role in the ongoing conflict in Bahrain?

    Answer. Both the Government of Kuwait and Kuwaiti civil society 
have been playing an active role in trying to mediate between the 
Government of Bahrain and the opposition to find a political solution 
to the crisis. When the Government of Bahrain appealed to other GCC 
member states for assistance, the Government of Kuwait, concerned by a 
possible Iranian role in the unrest, responded to what it saw as its 
treaty obligations under the GCC mutual defense pact by deploying naval 
ships to protect Bahrain from external aggression. Kuwait's role in the 
Peninsula Shield intervention has been the subject of vigorous debate 
in the local media, within political society, and in the National 
Assembly, with some factions calling on the government to send ground 
forces to Bahrain and others urging their government not to participate 
at all. On March 31, the Cabinet--which was facing a number of 
interpellation motions, including some related to the Peninsula Shield 
operation and the Government of Bahrain's decision earlier that month 
to refuse entry to a team of Kuwaiti medics--resigned en masse. The 
Prime Minister himself, who was reappointed in early May, stood for 
interpellation on June 14 to defend his government's action on Bahrain; 
though some opposition MPs subsequently filed for a noncooperation 
motion against him, the Prime Minister defeated that vote on June 23.

    Question. Some Kuwaiti women viewed it as a major breakthrough that 
four women were elected to the National Assembly in 2009, without any 
quotas or set-asides. What is your assessment of their influence in the 
National Assembly and more broadly of women's political participation 
in Kuwait?

    Answer. Kuwait's female parliamentarians, all of whom hold doctoral 
degrees from American universities, have proven to be among the most 
active and productive of all National Assembly members. In so doing, 
they have secured the admiration of some who were previously skeptical 
of women's abilities to succeed in this environment, and have even on 
occasion formed alliances with them on issues of cross-cutting concern. 
With the female MPs' assistance, the Cabinet and National Assembly have 
continued to chip away at legislation that discriminates against women, 
particularly in terms of benefits allocations. Now 6 years after 
gaining suffrage, women continue to play an important role in Kuwait, 
both inside and outside of Parliament. Traditionally, at least one 
woman has served in the Cabinet (currently, the Minister of Commerce 
and Industry, Dr. Amani Khalid Buresli, is a woman) and women hold 
leadership positions in both the public and private sectors. Women also 
continue to play their historically active role in Kuwaiti civil 
society, advocating not only for women and children's rights, but for 
human rights more generally.
                                 ______
                                 

         Responses of Susan L. Ziadeh to Questions Submitted by
                         Senator John F. Kerry

    Question. What impact does the recent Arab Spring have on Qatar's 
domestic politics and process of political liberalization? Has Qatar's 
economic situation helped the country weather the wave of popular 
unrest sweeping the region? If so, how? And how can the U.S. 
incentivize the Qataris to open up their political system more?

    Answer. Qatar has not experienced domestic demonstrations or 
protests. The country's small, homogenous population and wealth 
insulate it from many of the factors that are driving protests in other 
countries. Qatar's unemployment rate is extremely low, it has the 
world's highest per capita GDP, and the country ranked 19th in the 
Transparency International's 2010 Corruption index. Nevertheless, Qatar 
has taken small but important steps to increase citizen participation 
in government. It held municipal council elections in May 2011 and 
announced that it will hold elections for its advisory council soon. 
This would be an important step forward and demonstrate Qatar's 
commitment to implementing meaningful reform. It is U.S. policy that 
governments need to be transparent, accountable, and responsive to 
their citizens. If confirmed, I will encourage Qatar to build on the 
steps it has already taken and advocate for government transparency, 
accountability, responsiveness and greater citizen participation in 
governance.

    Question. What role does Qatar play in the Peninsula Shield forces 
sent to Bahrain in light of the ongoing unrest there?

    Answer. Qatar is a member of the Gulf Cooperation Council (GCC), 
and the United States understands that Qatar contributed a small number 
of people to the Peninsula Shield Force. According to the GCC and the 
Government of Bahrain, the Peninsula Shield Force was used to protect 
government installations and critical infrastructure. The Government of 
Saudi Arabia has announced that some of their Peninsula Shield troops 
are leaving Bahrain; we have no reason to believe there are any Qatari 
forces currently in Bahrain.

    Question. Please comment on Qatar's cooperation in implementing 
U.N. Security Council Resolution 1929, which imposes sanctions against 
Iran. How has the decision to participate in the Peninsula Shield force 
deployed to Bahrain affect Qatar's bilateral relationship with Iran?

    Answer. Qatar is an active participant in the Gulf Cooperation 
Council and it shares the same concerns as other gulf countries 
regarding Iran's interference in regional issues and its nuclear 
program. Qatar enforces U.N. sanctions on Iran. It does not appear that 
Qatar's decision to participate in the Peninsula Shield Force has had 
any effect on its bilateral relationship with Iran.

    Question. Can you describe the range of ways in which Qatar has 
supported and continues to support the Libyan Transitional National 
Council since the conflict in Libya began? What has been Qatar's role 
in supporting the temporary funding mechanism established by the Libya 
contact group?

    Answer. Qatar has taken an important leadership role in Libya. It 
was the first Arab country to join the coalition and provide military 
assets to Operation Unified Protector. Qatar has sent significant 
amounts of humanitarian assistance to Libya. It helped establish an 
independent Libyan TV station to counter Qadhafi's propaganda and is 
marketing oil for the Transitional National Council (TNC). Qatar has 
also recognized the TNC as the legitimate representative of the Libyan 
people. Qatar has coordinated closely with several international 
partners, including the United States, France, and the U.K., to 
establish a Temporary Financing Mechanism (TFM) to facilitate 
contributions to the TNC. Qatar pledged $100 million to the TNC at the 
June Libya Contact Group meeting in Abu Dhabi.

    Question. The Qatari-funded Al Jazeera media outlet has received 
criticism for being selective in its coverage of the unrest across the 
Arab world. What impact does Al Jazeera have in the projection of 
Qatar's soft power in the region? How much influence does the 
Government of Qatar have on Al Jazeera's coverage?

    Answer. Al Jazeera's coverage of the Arab Spring, especially in 
Tunisia and Egypt, has had a profound impact on events in the region. 
Al Jazeera's reach extends beyond the Arab world. The network, through 
its Arabic and English channels, has established itself as a global 
media platform that broadcasts across the world--from the Western 
Hemisphere to Europe, Asia, and Africa. The Qatari Government provides 
significant funding for Al Jazeera but has long maintained that Al 
Jazeera operates independently.

    Question. Relations between Qatar and Egypt under President Mubarak 
were cold and tense. How do you see relations between the two countries 
evolving now that there is new leadership in Egypt? What is the status 
of Qatar's pledged financial assistance of $10 billion to Egypt? How 
are the United States and Qatar coordinating efforts to offer Egypt 
financial assistance?

    Answer. Qatar has welcomed the transition in Egypt and expressed 
interest in investing several billion dollars in Egypt. Qatari 
officials have made several trips to Egypt to explore areas for 
cooperation and investment. The United States is coordinating with 
Qatar and Egypt to identify investment opportunities, and to reduce 
duplication our effort and to maximize support for Egypt's economic 
recovery. The United States will continue to encourage Qatar to support 
Egypt as it undergoes its transition to democracy.

    Question. Qatar has in recent years enjoyed close relations with 
Hamas, leading to some speculation that Hamas might relocate to Doha. 
How would you characterize Qatar's approach to Hamas and to the 
Israeli-Palestinian conflict more broadly?

    Answer. The Government of Qatar (GOQ) has a relationship with Hamas 
and there have been press reports that Hamas will relocate its 
headquarters. Doha has been mentioned as a possible location, but there 
have not been any announcements by Hamas or the GOQ about relocation of 
Hamas' headquarters to Doha. The United States considers Hamas a 
terrorist organization, and we continue to raise our concerns about 
Hamas with the GOQ. As head of the Arab League Peace Initiative Follow-
Up Committee, Qatar can play a positive role in encouraging Middle East 
peace efforts. The committee issued a statement that welcomed President 
Obama's May 19 speech calling for a two-state solution.
    The U.S. goal is to encourage direct engagement by the parties on 
the basis of President Obama's May 19 speech in order to try to reach 
an agreement that resolves the permanent status issues and brings an 
end to the conflict.


    Question. Qatar was listed as a Tier 2 Watch List country in the 
State Department's 2010 Trafficking in Persons Report. What are the 
most concerning government failures on this issue and what steps will 
you take as Ambassador to address the widespread problem of human 
trafficking, particularly on the issues of sex and labor trafficking? 
What steps has the government taken to regulate and protect its migrant 
domestic workers? Please describe any opportunities for public 
diplomacy activities related to trafficking in persons and any 
technical cooperation or other partnership initiatives being undertaken 
on this issue.

    Answer. Trafficking in persons (TIP) remains a serious problem in 
Qatar. The State Department continues to engage the Government of Qatar 
(GOQ) on the issue and helped push the GOQ to develop a comprehensive 
action plan to address TIP. In addition, the GOQ is close to enacting a 
TIP law that will significantly strengthen its ability to investigate 
and prosecute TIP. We have recommended to the Qataris that it improve 
its antitrafficking policies by increasing law enforcement against 
trafficking offenders and enhancing procedures to identify victims to 
ensure that they receive protection services. The current U.S. 
Ambassador to Qatar recently published an op-ed in a Qatari newspaper 
to highlight the 2011 Trafficking in Persons report. If confirmed, I 
will engage a variety of stakeholders, including the GOQ and civil 
society, to advocate for increased efforts to prosecute traffickers, 
protect victims, and prevent trafficking.
                                 ______
                                 

     Responses of Hon. Anne W. Patterson to Questions Submitted by
                        Senator Richard G. Lugar

    Question. What instructions do our representatives at the World 
Bank and the International Monetary Fund have with regards to the need 
for political and economic reform ``conditionalities'' as part of any 
additional lending or assistance programs to Egypt?

    Answer. We support ambitious reform benchmarks for international 
financial institution (IFI) assistance that reinforce the homegrown 
agenda of Egyptian reformers and civil society, including support for 
the democratic transition and a macroeconomic program that promotes 
economic stability and growth. Egyptian citizens are demanding greater 
accountability and equity, so we are supporting conditionality that 
fosters transparency and a level playing field, targets key measures 
that can be credibly implemented, and creates conditions for future 
reforms by catalyzing domestic pressures for good economic governance 
and sustainable and inclusive growth.
    The Government of Egypt recently revised its budget to reduce 
public spending and external financing needs. We therefore believe it 
is unlikely that Egypt will begin a new lending program with the IMF 
prior to elections.

    Question. I believe it is critical, given the dramatic changes in 
the Middle East, that the NEA bureau is able to staff all of its 
positions, both domestically and overseas, with at-grade personnel. 
This is particularly important with regard to senior positions at our 
Embassies. I am concerned, for instance, that there has been no 
Ambassador at post in Bahrain during this critical period, nor is there 
a nominee from the administration before the committee. I also note 
that at a number of critical posts, both the Ambassador and Deputy 
Chief of Mission are changing this summer.
    Please provide details about staffing in your Embassy. What 
percentage of positions are filled with at-grade personnel, with the 
appropriate language ability? Please list any position in the Political 
or Economic sections of your Embassy that has been vacant for more than 
6 months as of June 1, and indicate whether an officer has been paneled 
for the position, and if so when he or she will arrive at post.

    Answer. Ninety-three percent of personnel at Embassy Cairo are at 
grade or above. The percentage of personnel with minimum or higher 
language qualifications is 60 percent. No positions in the Economic and 
Political Section of Embassy Cairo have been vacant for more than 6 
months as of June 1.
    Question. Please identify any position at post which has been 
vacant for 3 months or longer over the past 2 years due to the 
incumbent's departure for service in Afghanistan, Iraq, or Pakistan.

    Answer. The table that follows details individuals who departed for 
service in Afghanistan, Iraq, or Pakistan, and the length of time their 
positions at Embassy Cairo were vacant:

--------------------------------------------------------------------------------------------------------------------------------------------------------
               Office                     Country (TDY)               From                     To                Arrival date            GAP/vacant
--------------------------------------------------------------------------------------------------------------------------------------------------------
RSO/WSU............................  Baghdad, Iraq.........  Aug-09................  Jun-10...............  Apr-10...............  8 months.
RSO/WSU............................  Baghdad, Iraq.........  Oct-09................  Mar-11...............  Jul-10...............  9 months.
RIMC...............................  Baghdad, Iraq.........  Nov-09................  Nov-10...............  .....................  Vacant.
PAO................................  Baghdad, Iraq.........  Jun-08................  Jun-09...............  Sep-09...............  15 months.
IMO................................  Baghdad, Iraq.........  Sep-08................  Sep-09...............  Mar-10...............  18 months.
HR.................................  Kabul, Afghanistan....  Jun-10................  Dec-10...............  Apr-11...............  10 months.
OBO................................  Kabul, Afghanistan....  Aug-09................  Aug-10...............  .....................  Vacant.
ECPO...............................  Kabul, Afghanistan....  Aug-09................  Aug-12...............  Jul-10...............  11 months.
ECPO...............................  Baghdad, Iraq.........  Mar-11................  Present..............  .....................  Vacant.
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Question. If the Ambassador and DCM positions at your Embassy are 
transitioning simultaneously this transfer cycle, please indicate steps 
taken to mitigate the potential for this to be necessary in future 
years.

    Answer. It is the policy of the Department and the NEA Bureau to 
try and schedule the transfer of Ambassadors and DCMs so that 
transitions do not occur at the same time. Transfers are coordinated 
based on the needs of the service, foreign policy priorities, and the 
needs of our Foreign Service families. Given these often competing 
factors, it does happen that employees depart prior to the arrival of 
their replacements, and Ambassadors may not overlap for accreditation 
reasons. In most cases, either the Ambassador or the DCM is present at 
all times. Egypt is a foreign policy priority. As such, DCM Tueller 
will remain at post to have a few weeks of overlap with me if I am 
confirmed before taking up his new position (pending his own 
confirmation) in Kuwait. The staff in Cairo is very experienced. The 
Economic and Political Minister, the USAID Director, and the heads of 
other important agencies will not be transferring this summer.
                                 ______
                                 

        Responses of Michael H. Corbin to Questions Submitted by
                        Senator Richard G. Lugar

    Question. Since the initiation of the NATO operation to enforce the 
arms embargo against Libya on 22 March, and the decision to initiate 
no-fly zone enforcement operations on March 24, please describe all 
U.S. transfers, sales, grants or leases of defense articles, defense 
services or technical data to the United Arab Emirates under the 
Foreign Military Sales (FMS) program, direct commercial sales (DCS), or 
any other relevant authority or authorization to transfer, sell, grant 
or lease U.S. defense articles, defense services and technical data. 
Please provide aggregate dollar values, and provide a summary of the 
particular defense articles, defense services or technical data 
transferred, sold, granted or leased to date.

    Answer. Arms Transfers to UAE since March 22, 2011:
FMS
    UH-60 Blackhawks: On June 23, DSCA notified Congress of a possible 
FMS sale of five Blackhawk helicopters and associated equipment, parts, 
training and logistical support for an estimated cost of $217 million. 
The UAE will use these helicopters for intracountry transportation of 
UAE officials to militarily critical training and operation sites.
    F-16 Program Support: On May 24, DSCA notified Congress of a 
possible FMS sale of support and maintenance of F-16 aircraft and 
associated equipment, parts, training and logistical support for an 
estimated cost of $100 million. The UAE Air Force and Air Defense have 
operated the F-16 Block 60 aircraft for over 10 years, including in 
current coalition operations in Libya. Munitions are not part of this 
possible sale, although the UAE continues to purchase munitions for 
these aircraft.
    AIM-9X-2 Sidewinder missiles: On April 18, DSCA notified Congress 
of a possible $251 million FMS sale of 218 AIM-9X short-range air-to-
air missiles, which the UAE will use on its aircraft to support 
coalition operations in Libya and contingency operations with the 
United States.
    In addition DOD has $4.8 billion in total Foreign Military Sales 
for UAE pending. The bulk of this total reflects the offer for the 
THAAD (Terminal High Altitude Area Defense) missile system, a $3.5 
billion previously notified FMS case. These sales also include 54 GBU-
12s (Guided Bomb Unit--12) for UAE's F-16s.
DCS
    From March 22 to June 27, the U.S. Government adjudicated and 
approved or approved with provisos 375 direct commercial sales (DCS) 
licenses for defense articles and services involving the UAE, for an 
estimated value of $1.3 billion. These figures do not necessarily 
represent actual exports, but the value of the approved licenses for 
potential sales and deliveries.

    Question. Iran was viewed by many Gulf States as a counterweight to 
Saddam Hussein's regime in Iraq, although that view has shifted now 
that Iraq has a representative government and Saddam is gone. What is 
your assessment of the threat, if any, posed by Iran to the UAE?

    Answer. The UAE shares our concerns about Iran's nuclear program 
and has taken a strong stance on its obligations under UNSCR 1929 in 
recognition of Iran's pursuit of weapons of mass destruction. The UAE 
also shares our concerns about Iranian meddling in the region. The UAE 
has a strategic interest in regional stability and is an active 
participant in the Gulf Cooperation Council. The UAE takes its national 
security very seriously and is building a strong military partnership 
with the United States and other Western partners.
    The UAE maintains diplomatic and commercial ties with all its 
immediate neighbors, including Iran. This is necessitated by the UAE's 
geographical proximity, its historical ties with Iran that go back 
centuries, and the approximately 500,000 Iranians live in the UAE 
(about half the number of Emiratis).

    Question. Each of the Gulf States have seen some political unrest, 
and each monarchy has dealt with it in a different manner. Each regime 
clearly prioritizes survival often at the sacrifice of human rights and 
democratic values we hold dear. What lessons do you take from Tunisia 
and Egypt going into your posting?

    Answer. We regularly engage the Emirati Government at all levels 
regarding the universal principles of freedom of expression and 
association. While the UAE and the United States have not always seen 
eye to eye on the popular uprisings of the Arab Spring, we have 
maintained a robust and productive dialogue throughout this period of 
historic change. Following the events in Tunisia and Egypt, this 
engagement is more as important as ever.
    As with any country in the region, we will continue to support and 
empower the democratic and reformist voices. And we will continue to do 
this by speaking honestly about the need to respect human rights and 
the legitimate aspirations of the people. We support the right to free 
expression, political participation, confidence in the rule of law, and 
governments that are transparent and responsive and accountable to 
their people.

    Question. I believe it is critical, given the dramatic changes in 
the Middle East, that the NEA Bureau is able to staff all of its 
positions, both domestically and overseas, with at-grade personnel. 
This is particularly important with regard to senior positions at our 
Embassies. I am concerned, for instance, that there has been no 
Ambassador at post in Bahrain during this critical period, nor is there 
a nominee from the administration before the committee. I also note 
that at a number of critical posts, both the Ambassador and Deputy 
Chief of Mission are changing this summer.
    Please provide details about staffing in your Embassy. What 
percentage of positions are filled with at-grade personnel, with the 
appropriate language ability? Please list any position in the Political 
or Economic sections of your Embassy that has been vacant for more than 
6 months as of June 1, and indicate whether an officer has been paneled 
for the position, and if so when he or she will arrive at post.

    Answer. In UAE--Abu Dhabi the percentage of at-grade or above 
personnel is 72 percent, and the percentage of minimally or higher 
language qualified personnel is 73 percent. In UAE--Dubai the 
percentage of at-grade or above personnel is 86 percent, and the 
percentage of minimally or higher language qualified personnel is 70 
percent.
    There a total of 22 Political and Economic positions in Mission 
UAE. Seventy-three percent of these positions are filled with at-grade 
personnel with the appropriate language ability. No positions have been 
vacant for 6 months as of June 1.

    Question. Please identify any position at post which has been 
vacant for 3 months or longer over the past 2 years due to the 
incumbent's departure for service in Afghanistan, Iraq, or Pakistan.

    Answer. The mission has one position which will be vacant for 3 
months or longer due to the incumbent's departure for service in 
Afghanistan, Iraq, or Pakistan. Dubai ECON FS-03 Departed 6/2011 
replacement due 7/2012.

    Question. If the Ambassador and DCM positions at your Embassy are 
transitioning simultaneously this transfer cycle, please indicate steps 
taken to mitigate the potential for this to be necessary in future 
years.

    Answer. It is the policy of the Department and the NEA Bureau to 
try and schedule the transfer of Ambassadors and DCMs so that 
transitions do not occur at the same time. Transfers are coordinated 
based on the needs of the service, foreign policy priorities, and the 
needs of our Foreign Service families. Given these often competing 
factors, it does happen that employees depart prior to the arrival of 
their replacements; and, in the case of Ambassadors, they may not 
overlap for accreditation reasons. In most cases either the Ambassador 
or the DCM is present at all times. In the case of UAE, the DCM 
position is transferring this summer but the incoming DCM will arrive 
the end of July and will be in place prior to my arrival if I am 
confirmed.
                                 ______
                                 

         Responses of Susan L. Ziadeh to Questions Submitted by
                        Senator Richard G. Lugar

    Question. Since the initiation of the NATO operation to enforce the 
arms embargo against Libya on 22 March, and the decision to initiate 
no-fly zone enforcement operations on March 24, please describe all 
U.S. transfers, sales, grants or leases of defense articles, defense 
services or technical data to Qatar under the Foreign Military Sales 
(FMS) program, direct commercial sales (DCS), or any other relevant 
authority or authorization to transfer, sell, grant or lease U.S. 
defense articles, defense services and technical data. Please provide 
aggregate dollar values, provide a summary of the particular defense 
articles, defense services, or technical data transferred sold, 
granted, or leased to date.

    Answer. Foreign Military Sales: Since March 22, DOD has $4.8 
million in total Foreign Military Sales pending for Qatar. There have 
been no congressionally notified FMS cases for Qatar.
    Direct Commercial Sales: From March 22-June 27, the U.S. Government 
adjudicated and approved or approved with provisos 102 direct 
commercial licenses (DCS) for defense-related technical data and spare 
parts to Qatar, for an estimated value of $2.1 billion. These sales 
include four C-130 aircraft. These figures do not necessarily represent 
exports approved, but the value of the approved licenses for potential 
sales and deliveries.

    Question. Iran was viewed by many Gulf States as a counterweight to 
Saddam Hussein's regime in Iraq, although that view has shifted now 
that Iraq has a representative government and Saddam is gone. What is 
your assessment of the threat, if any, posed by Iran to Qatar?

    Answer. Qatar maintains a relationship with Iran primarily because 
of geographic proximity and shared economic interests. Qatar and Iran 
share the world's largest nonassociated gas field, and although Qatar 
develops its side of this field independently, maintaining a 
nonconfrontational relationship with Iran remains a priority for the 
Qatari Government. Qatar has a strategic interest in regional stability 
and it views any action that threatens regional security as a threat. 
Qatar is an active participant in the Gulf Cooperation Council and it 
shares the same concerns as other gulf countries regarding Iran's 
interference in regional issues and its nuclear program. Qatar enforces 
U.N. sanctions on Iran. Qatar's strong military partnership with the 
United States demonstrates its commitment to promoting regional 
security and countering regional threats.

    Question. Each of the Gulf States have seen some political unrest, 
and each monarchy has dealt with it in a different manner. Each regime 
clearly prioritizes survival often at the sacrifice of human rights and 
democratic values we hold dear. What lessons do you take from Tunisia 
and Egypt going into your posting?

    Answer. The Government of Qatar (GOQ) has reacted positively to the 
Arab Spring, and Qatar's leadership has publicly announced its support 
for reforms in the Middle East. Qatar has not experienced 
demonstrations or protests at home. The country's small, homogenous 
population and wealth insulate it from many of the factors that are 
driving protests in other countries. Nevertheless, the GOQ has taken 
small, but important steps to increase citizen participation in 
government. Qatar held municipal council elections in May 2011. The GOQ 
also announced that it will hold elections for its advisory council 
soon. This would be an important step forward and demonstrate Qatar's 
commitment to implementing meaningful reform. It is U.S. policy that 
governments need to be transparent, accountable, and responsive to 
their citizens. If confirmed, I will advocate for government 
transparency, accountability, responsiveness and greater citizen 
participation in governance. I will also emphasize the need to uphold 
universal rights.

    Question. I believe it is critical, given the dramatic changes in 
the Middle East, that the NEA Bureau is able to staff all of its 
positions, both domestically and overseas, with at-grade personnel. 
This is particularly important with regard to senior positions at our 
Embassies. I am concerned, for instance, that there has been no 
Ambassador at post in Bahrain during this critical period, nor is there 
a nominee from the administration before the committee. I also note 
that at a number of critical posts, both the Ambassador and Deputy 
Chief of Mission are changing this summer.
    Please provide details about staffing in your Embassy. What 
percentage of positions are filled with at-grade personnel, with the 
appropriate language ability? Please list any position in the Political 
or Economic sections of your Embassy that has been vacant for more than 
6 months as of June 1, and indicate whether an officer has been paneled 
for the position, and if so when he or she will arrive at post.

    Answer. The Percentage of positions filled by at-grade or above 
personnel is 85 percent. The percentage of minimally or higher language 
qualified personnel is 80 percent. There have been no positions in the 
POL/ECON Section that have been vacant for more than 6 months as of 
June 1.

    Question. Please identify any position at post which has been 
vacant for 3 months or longer over the past 2 years due to the 
incumbent's departure for service in Afghanistan, Iraq, or Pakistan.

    Answer. There are no positions that have been vacant for more than 
3 months due to AIP in the last 2 years.

    Question. If the Ambassador and DCM positions at your Embassy are 
transitioning simultaneously this transfer cycle, please indicate steps 
taken to mitigate the potential for this to be necessary in future 
years.

    Answer. It is the policy of the Department and the NEA Bureau to 
try and schedule the transfer of Ambassadors and DCMs so that 
transitions do not occur at the same time. Transfers are coordinated 
based on the needs of the service, foreign policy priorities and the 
needs of our Foreign Service families. Given these often competing 
factors, it does happen that employees depart prior to the arrival of 
their replacements; and, in the case of Ambassadors, they may not 
overlap for accreditation reasons. In most cases either the Ambassador 
or the DCM is present at all times. In the case of Doha, the DCM is not 
transferring this summer.
                                 ______
                                 

       Responses of Matthew H. Tueller to Questions Submitted by
                        Senator Richard G. Lugar

    Question. The most recent U.S. State Department reports on 
terrorism criticize Kuwait for not enacting specific laws against 
terrorism support or terrorism financing. The State Department also 
reported in May 2010 that, ``the provision of financial support to 
terrorist groups, both by charities and by individuals utilizing cash 
couriers continues to be a major concern.'' What is preventing 
enactment of such laws? To what extent would clear laws help the 
government reduce the potential for terrorist attacks in Kuwait? What 
is Embassy Kuwait advocating in this respect?

    Answer. If confirmed, I will be fully committed to strengthening 
United States-Kuwait counterterrorism cooperation, including 
cooperation on combating the ability of terrorist networks to finance 
terrorist activities from Kuwaiti soil. Kuwait's relatively permissive 
environment renders the country vulnerable to exploitation by terrorist 
networks, who may find Kuwait to be a more attractive environment for 
raising and transmitting funds in comparison to other countries in the 
region. The fact that Kuwait does not have a law criminalizing the 
financing of terrorism is a serious impediment to the Kuwaiti 
Government's ability to pursue and prosecute individuals suspected of 
financing terrorist activities. However, over the past several years, 
there have been several encouraging examples of the Kuwaiti Government 
charging and prosecuting suspected terrorist financiers on related 
crimes, such as plotting an attack against a foreign country.
    If confirmed, I will continue the U.S. Embassy's sustained 
engagement on this issue, pressing the Kuwaiti Government and Kuwait's 
Parliament to prioritize passage of an amended antimoney laundering/
counterterrorism finance law. Last year, Kuwait's Parliament considered 
a draft amendment that would have specifically criminalized terror 
financing and returned it to the executive branch to draft two separate 
laws: an antimoney laundering law and an antiterror financing law.
    Additionally, in 2010 Kuwait underwent a mutual evaluation by both 
the Financial Action Task Force (FATF) the international body for 
countering money laundering and terrorist financing, and the Middle 
East North Africa FATF, the regional body in the FATF network. The 
mutual evaluation and related discussions highlighted the 
vulnerabilities and reputational damage Kuwait faces without robust 
legislation in place criminalizing terrorism finance. If confirmed, I 
will lead strong U.S. engagement on this important issue, working 
closely with relevant U.S. Government agencies, and with international 
bodies such as the FATF to leverage the role of the international 
community in raising Kuwait's awareness of the need for progress in 
this area.

    Question. Kuwait's relationship with Iraq remains rocky 20 years 
after you served there and helped reopen the Embassy in 1991, and 8 
years after Saddam. Heading to Kuwait for now your third tour, and 
having served in Baghdad in the interim, what do you believe are the 
keys to putting that relationship on solid footing, what are the 
impediments, and how can the United States best facilitate a resolution 
of the deep-seated mistrust?

    Answer. If confirmed, I will be fully committed to encouraging 
continued progress on rebuilding the relationship between Iraq and 
Kuwait. Having served in Kuwait directly following the liberation, I 
recognize the challenges associated with achieving progress on what are 
very sensitive, emotional, issues for both sides. I am encouraged by 
the positive developments we have seen over the past several years, 
including the restoration of diplomatic relations and several high-
level visits in 2011, which I take as encouraging signs that both sides 
are committed to rebuilding the bilateral relationship.
    Given the United States unique relationship with both Iraq and 
Kuwait, we are in an advantageous position to play a positive role in 
achieving progress on this issue. If confirmed by the Senate, I will 
lead sustained engagement by the U.S. Embassy in Kuwait, working in 
close coordination with the U.S. Embassy in Baghdad, the U.S. Mission 
to the United Nations, and Member States of the U.N. Security Council. 
I am confident that Iraq and Kuwait recognize that both countries stand 
to benefit from closer ties between their two countries, particularly 
in areas such as trade and investment.
    If confirmed, I will work toward strengthened dialogue between Iraq 
and Kuwait, utilizing existing channels such as the ICRC-led Tripartite 
Commission and Tripartite Subcommittee, and the newly established Iraq-
Kuwait Joint Ministerial Commission. The United States, along with the 
United Nations, will continue to call on Iraq to abide by its U.N. 
obligations with regards to Iraq-Kuwait issues, which will create a 
more positive atmosphere in which to address other outstanding issues.

    Question. Iran was viewed by many Gulf States as a counterweight to 
Saddam Hussein's regime in Iraq, although that view has shifted now 
that Iraq has a representative government and Saddam is gone. What is 
your assessment of the threat, if any, posed by Iran to Kuwait?

    Answer. In recent years, the Kuwaiti Government has maintained 
mostly correct but not close relations with Iran. Ongoing concerns 
about disruptive Iranian influence in the region were exacerbated by 
the discovery of an Iranian spy ring in Kuwait and what they believe 
were clear signs of Iranian efforts to exploit the subsequent political 
unrest in Bahrain. Kuwait is also concerned about Iran's refusal to 
cooperate with international nuclear energy regimes, and the Kuwaiti 
Government has publicly urged Iran to abide by IAEA safeguards. Kuwait 
fears that any attack on Iranian nuclear facilities would have 
disastrous consequences for Kuwait, given the geographic proximity of 
the two countries, and therefore urges Iran to cooperate with the 
international community on ensuring full transparency of Iran's nuclear 
program. Kuwait has also enforced U.N. sanctions on Iran.

    Question. Each of the Gulf States have seen some political unrest, 
and each monarchy has dealt with it in a different manner. Each regime 
clearly prioritizes survival often at the sacrifice of human rights and 
democratic values we hold dear. What lessons do you take from Tunisia 
and Egypt going into your postings?

    Answer. I believe Kuwait is in a uniquely advantageous position 
amidst the wave of unrest sweeping across the region, having long been 
one of the countries in the Middle East where political freedoms are 
embraced and upheld by the government and society. Kuwait's well-
defined democratic principles are enshrined in its constitution, and 
reflected in free competitive legislative elections, an elected and 
empowered Parliament, a vibrant civil society, and relatively open 
press environment. Kuwait's Government also ensures that Kuwaiti 
citizens benefit from the country's wealth, by subsidizing health care 
and education through the university level.
    Kuwaitis enjoy a relatively high degree of freedom of expression. 
Kuwaitis are free to--and do--criticize senior members of the ruling 
family. In a move unique to the region, the Prime Minister has 
submitted to parliamentary questioning three times in the past 2 years, 
providing for parliamentary oversight of the government. Other 
ministers have also faced parliamentary questioning.
    If confirmed, I am committed to strengthening U.S. support for 
Kuwait's democratic traditions and practices, including by supporting 
Kuwait's vibrant civil society through MEPI programming. Over the 
years, MEPI-sponsored activities have made notable contributions in 
Kuwait by encouraging and training women to be effective candidates, 
activists, and voters in future elections, and strengthening civil 
society organizations so that they can play a more positive role in 
Kuwait's political and democratic process.

    Question. I believe it is critical, given the dramatic changes in 
the Middle East, that the NEA Bureau is able to staff all of its 
positions, both domestically and overseas, with at-grade personnel. 
This is particularly important with regard to senior positions at our 
Embassies. I am concerned, for instance, that there has been no 
Ambassador at post in Bahrain during this critical period, nor is there 
a nominee from the administration before the committee. I also note 
that at a number of critical posts, both the Ambassador and Deputy 
Chief of Mission are changing this summer.
    Please provide details about staffing in your Embassy. What 
percentage of positions are filled with at-grade personnel, with the 
appropriate language ability? Please list any position in the Political 
or Economic sections of your Embassy that has been vacant for more than 
6 months as of June 1, and indicate whether an officer has been paneled 
for the position, and if so when he or she will arrive at post.

    Answer. a. Staffing at Embassy Kuwait:

  <bullet> Sixty percent at grade or above personnel.
  <bullet> Eighty percent minimally or higher language qualified 
        personnel.
  <bullet> Twenty-one percent of Political and Economic positions are 
        filled by employees one grade below the grade of the position 
        (43 positions total, nine stretches). All are language 
        qualified.
  <bullet> All Political and Economic positions are filled.

    Question. Please identify any position at post which has been 
vacant for 3 months or longer over the past 2 years due to the 
incumbent's departure for service in Afghanistan, Iraq, or Pakistan.

    Answer. Post vacancies due to due to the incumbent's departure for 
service in Afghanistan, Iraq, or Pakistan:

  <bullet> RSO departed April 2011, successor arrives August 2011.
  <bullet> A/RSO departed April 2011, successor arrives July 2011.
  <bullet> Facilities Maintenance departed April 2010, successor 
        arrived January 2011.

    Question. If the Ambassador and DCM positions at your Embassy are 
transitioning simultaneously this transfer cycle, please indicate steps 
taken to mitigate the potential for this to be necessary in future 
years.

    Answer. It is the policy of the Department and the NEA Bureau to 
try and schedule the transfer of Ambassadors and DCMs so that 
transitions do not occur at the same time. Transfers are coordinated 
based on the needs of the service, foreign policy priorities and the 
needs of our Foreign Service families. Given these often competing 
factors, it does happen that employees depart prior to the arrival of 
their replacements; and, in the case of Ambassadors, they may not 
overlap for accreditation reasons. In most cases either the Ambassador 
or the DCM is present at all times. In the case of Kuwait, foreign 
policy priorities as well as family needs played a significant factor 
in the transition schedule. While both the Ambassador and the DCM 
positions will be vacant for a few weeks, we have full confidence in 
the designated Charge. The incoming DCM will arrive in late August.
                                 ______
                                 

       Responses of Kenneth J. Fairfax to Questions Submitted by
                        Senator Richard G. Lugar

    Question. Kazakhstan's cooperation on nonproliferation has been a 
model example of U.S. security engagement. What do you see as the next 
steps in our relationship with Kazakhstan in the realm of 
nonproliferation and cooperative threat reduction?

    Answer. Cooperation on nonproliferation has been a pillar of the 
United States-Kazakhstan bilateral relationship and is a model for U.S. 
security engagement. Kazakhstan has cooperated extensively with the 
United States to eliminate its Soviet-legacy weapons of mass 
destruction (WMD) infrastructure, secure materials of proliferation 
concern, and redirect former WMD scientists to sustainable, nonmilitary 
employment. The shutdown of the BN-350 reactor and shipment of enough 
nuclear material for 775 nuclear weapons to a secure location made a 
significant contribution to global security. Kazakhstan continues to 
build upon its commitment to international security and 
nonproliferation through its active participation in the Cooperative 
Threat Reduction (CTR) program, the IAEA, and more than 25 U.S. 
nonproliferation initiatives and programs currently active in 
Kazakhstan.
    Cooperation on nonproliferation and cooperative threat reduction 
will remain a focus of our bilateral relations with Kazakhstan. Through 
our Biological Threat Reduction program, the United States is working 
with Kazakhstan to improve bio-safety and bio-security by consolidating 
and securing dangerous pathogen collections, and we continue to fund 
the redirecting of underemployed biological weapons experts to careers 
with peaceful purposes. We are also supporting Kazakhstan's efforts to 
combat bioterrorism and are enhancing its ability to detect, diagnose, 
and respond to disease outbreaks. Through Kazakhstan's participation in 
the Proliferation Security Initiative and the Export Control and 
related Border Security assistance program, the United States is 
strengthening Kazakhstan's ability to prevent proliferation of WMD and 
related materials across its borders and reducing the risk of 
proliferation through training for and provision of equipment to 
licensing officials, border guards, and customs officials.
    Our Annual Bilateral Consultations have provided another important 
mechanism through which to further our engagement with Kazakhstan on 
nonproliferation issues, including its interest in a more prominent 
role in the IAEA and its offer to host the IAEA low enriched uranium 
fuel bank.

    Question. Kazakhstan could play an increasingly important role as a 
supplier to the development of a Southern Energy Corridor and already 
participates in trans-Caspian shipments to Azerbaijan. Do you see any 
prospect for Kazakhstan to enlarge its role in this project through 
trans-Caspian shipments?

    Answer. As its oil production increases, Kazakhstan could increase 
its delivery of crude oil across the Caspian, most likely through 
enhanced tanker shipments. At this point, it is not clear that 
Kazakhstan will have substantial volumes of gas available for delivery 
into the Southern Energy Corridor. Most gas currently produced in 
Kazakhstan is utilized domestically or reinjected to enhance oil 
production. We also understand that Kazakhstan believes trans-Caspian 
oil and gas pipelines will be difficult to build without a five-country 
agreement on delimitation of the Caspian Sea.

    Question. With regard to United States-Kazakhstan energy 
cooperation, what additional steps do you believe the United States 
should take to enlarge our relationship?

    Answer. We have an ongoing and productive dialogue with Kazakhstan 
on ways to deepen energy cooperation. Our engagement with Kazakhstan 
has largely focused on the country's investment climate and its 
planning to increase oil production in the coming decade. The United 
States has a strategic interest in Kazakhstan's production moving 
forward and additional Kazakhstani crude reaching world markets.
    Our engagement occurs during the U.S.-Kazakhstan Annual Bilateral 
Consultations and U.S.-Kazakhstan Energy Partnership. The second Annual 
Bilateral Consultation, which took place March 24-25 in Astana, 
included discussion of investment climate issues related to 
Kazakhstan's energy sector. We expect to have an ABC review session 
with the Kazakhstani Government in Washington in September 2011, where 
we will continue the discussion of deepening our economic and energy 
partnership. The Annual Bilateral Consultations include meetings with 
representatives of American and Kazakhstani energy companies.
    The U.S.-Kazakhstan Energy Partnership has been active for 8 years 
and is an essential part of our relationship with this hydrocarbon-rich 
nation. The next U.S.-Kazakhstan Energy Partnership meeting is 
scheduled for November 2011 in Washington, and will include a visit by 
the Minister of Oil and Gas Sauat Mynbayev.
    I also plan to work closely with private American companies active 
in the energy field in Kazakhstan, as well as those who would like to 
become involved in emerging markets such as alternative energy in 
Kazakhstan, in order to facilitate and encourage the growth of a long-
term, mutually beneficial commercial relationship that benefits both 
Kazakhstan and the American people.

    Question. In what areas do you believe Kazakhstan could expand its 
participation in the Northern Distribution Network?

    Answer. Kazakhstan is providing significant support to our 
stabilization efforts in Afghanistan through its active participation 
in the Northern Distribution Network. We are also working with 
Kazakhstan's Government and private sector to increase local 
procurement of construction materials, supplies, and food products to 
support our operations in Afghanistan. Kazakhstan plays an important 
role in our efforts to build a stable, economically prosperous 
Afghanistan, reconnected with its region. Kazakhstan's participation in 
NDN demonstrates the potential for trade linking Central and South Asia 
via Afghanistan, and we are working with Kazakhstan to enact policies 
to speed the flow of trade through the region.
                                 ______
                                 

        Responses of Anne W. Patterson to Questions Submitted by
                        Senator Robert Menendez

    Question. An Egyptian court convicted two people for attacking a 
Coptic sit-in in Cairo last month, but 16 suspects were found not 
guilty. The two convicted men were reportedly released on bail. The 
court was reviewing accusations related to last month's attacks on a 
Coptic sit-in, which was staged in front of the state radio and 
television building. A group of unidentified men attacked the people 
participating in the sit-in, using firearms, knives, stones, and 
Molotov cocktails. At least 78 people were wounded. The protesters 
decided to end their sit-in 5 days later after authorities agreed to 
open three churches. Copts have faced discrimination, even on 
governmental levels, as their churches are sometimes closed, or require 
special permits for even minor renovations.

  <bullet> What progress is being made by the military council to end 
        sectarian violence and tension and what are the prospects for 
        constitutional changes and laws that would address sectarian 
        violence and ease restrictions on building churches? Can Egypt 
        achieve a secular government that (1) respects the rights of 
        its religious minorities; and (2) fosters the full integration 
        of religious minorities in all levels of government?

    Answer. Sectarian violence remains a troubling problem in Egypt, as 
evidenced by the May 7 violence that erupted in the Cairo neighborhood 
of Imbaba. On
May 17, Field Marshal Tantawi, the head of the Supreme Council of the 
Armed Forces (SCAF) and de facto leader of Egypt during this transition 
period, issued a strongly worded, public condemnation of sectarian 
attacks. The SCAF also stated that it would investigate and prosecute 
those responsible for the May 7 clashes, and has charged 48 individuals 
in conjunction with his case. On June 7, Prime Minister Sharaf attended 
the formal reopening of the Holy Virgin Church, one of two churches 
damaged during the May 7 riots. The Egyptian transitional government 
has also allowed the construction and repair of 16 churches that had 
previously not been granted permission to be built or repaired.
    On May 14, Prime Minister Sharaf announced the formation of a 
National Justice Committee to draft an antidiscrimination law and 
consider a ``unified places of worship'' law within 30 days--two key 
Coptic Christian demands. On June 1, the Egyptian Cabinet announced 
that it had approved a draft ``Unified Law for Organizing the 
Construction of Places of Worship.'' This draft law, which governs the 
building and renovation of churches and mosques, is currently under 
public review, and some religious and civil society leaders have raised 
concerns during this review process that the draft law does not 
sufficiently depoliticize the construction process.
    We remain very concerned about the prospects of sectarian violence 
in Egypt and will continue to monitor this issue closely. We will also 
continue to impress upon the Egyptian Government the importance of 
taking steps to confront sectarian violence, including steps to reverse 
discriminatory laws and treatment, of holding perpetrators of violence 
accountable, and of fostering an environment that promotes religious 
tolerance.

    Question. Your service in Cairo coincides with a unique moment on 
world history--a potential political sea change in the Middle East and 
North Africa. Egypt has many challenges and opportunities--this year 
will see parliamentary and Presidential elections and early next year 
we expect Egyptians to begin drafting a new constitution.

  <bullet> In the context of these changes, are you concerned about an 
        erosion of the relationship between Israel and Egypt? Do recent 
        actions, the facilitation of the talks that led to the 
        declaration of Fatah-Hamas unity government--a step that may 
        prove fatal to the negotiation process--and the reopening of 
        the Rafah border crossing, which has been closed since 2007 due 
        to concerns about Hamas using the crossing to bring weapons and 
        fighters into Gaza foretell a different relationship between 
        Egypt and Israel?
  <bullet> If confirmed, will you make clear to Egypt that the state of 
        relations between our countries is directly linked to its 
        adherence to the Camp David Peace Treaty with Israel?
  <bullet> The Egypt-Israel peace treaty formed the basis of our 
        foreign assistance program to Egypt. Is Egyptian adherence to 
        its international obligations, including the peace treaty with 
        Israel, a prerequisite for U.S. assistance, including possible 
        debt relief?

    Answer. The current Egyptian Government has repeatedly expressed 
its commitment to adhere to past agreements, including its Treaty of 
Peace with Israel. The Department of State fully appreciates the 
significance of Egyptian-Israeli peace to our regional interests and 
those of our ally, Israel. In our discussions with Egyptian leadership 
across the political spectrum, we have and will continue to underscore 
the importance of upholding this and other international obligations. 
It is important that Egypt and Israel continue to strengthen their 
bilateral relationship and their lines of communication, particularly 
as Egypt moves through its transition. Egypt has maintained direct 
diplomatic and security engagement with Israel throughout the 
transition, and we continue to encourage such cooperation.
    With regard to the reconciliation agreement between the Palestinian 
Authority and Hamas, we want the agreement to be implemented in a 
manner that moves us closer to our common goal of comprehensive peace. 
We will work with Egypt toward this objective, as Egypt continues to 
play a leadership role in the peace process.

    Question. Earlier this month Secretary Clinton said, ``We are also 
troubled by reports of sexual violence used by governments to 
intimidate and punish protesters seeking democratic reforms across the 
Middle East and North Africa. Rape, physical intimidation, sexual 
harassment, and even so-called `virginity tests' have taken place in 
countries throughout the region. These egregious acts are violations of 
basic human dignity and run contrary to the democratic aspirations so 
courageously expressed throughout the region.'' The virginity tests 
utilized by security forces in Egypt are the most blatant violation of 
women's rights, and a worrying sign that one of the goals of the 
Egyptian revolution--to secure civil liberties for women--is not being 
met. In contrast to the democratic transition in Tunisia, where women 
have been guaranteed parity with men in the party lists for the 
upcoming Constituent Assembly, women in Egypt have not been largely 
integrated into the transition process. Since the ``Million Woman 
March'' on March 8 in Cairo, most of the main complaints women have 
have not been addressed:
          (1) Women's participation in the constitutional, legislative, 
        and political future of Egypt;
          (2) A new civil constitution which respects citizenship, 
        equality and cancels all forms of discrimination;
          (3) A change to all laws, including the personal status law 
        to guarantee equality;
          (4) Fundamental policy and legal changes to impose 
        significant penalties on all forms of violence toward women.

  <bullet> How will you continue to raise the issue of women's rights 
        with the military council in Egypt and the new government that 
        will emerge this fall? What leverage does the United States 
        have to pressure the integration of women into the democratic 
        transition, and ensure women's equality is safeguarded in 
        Egypt?

    Answer. We are disgusted by allegations of torture and ``virginity 
tests'' by military police in the Egyptian Museum on March 9. At the 
highest levels, we have called on the Supreme Council of the Armed 
Forces (SCAF) to investigate these reports and prosecute those who are 
culpable. The SCAF has publicly vowed to investigate allegations that 
protesters detained by the military on March 9 were tortured.
    We share your concerns about the involvement of women in the 
political transition. Regrettably, the committee to draft revisions to 
Egypt's Constitution in March did not include any women, and the 
Ministry of Women's Affairs was abolished soon after the interim 
government was formed. Although some women have taken prominent roles 
in activist groups, more needs to be done. If confirmed, I will 
continue pressing the Egyptian Government to promote the participation 
of women in government and political parties. The United States also 
promoted a conference on June 2 in Cairo, cosponsored by International 
IDEA and U.N. Women, to raise the profile of women's rights in 
democratic transitions. Chaired by U.N. Women Executive Director, 
Michele Bachelet, this event advocated for robust women's political 
participation and empowerment, with special attention on Egypt, and has 
likely laid the groundwork for a ministerial-level gathering on the 
subject on the margins of the U.N. General Assembly.
    Many of the civil society programs we support also aim to empower 
women politically and economically, and we will monitor the drafting of 
Egypt's new Constitution to ensure women's rights are protected. As 
part of the $165 million we have made available to meet urgent Egyptian 
needs, USAID is providing $20 million in funding to support political 
party development through NDI and IRI, civil society development, 
election monitoring, and voter education. Support for women as 
political leaders and candidates will be an important part of these 
projects. In its regular assistance portfolio, USAID provides direct 
grants to enhance women's and girls' civic and political rights and 
participation, improve the operation of family courts, provide 
psychological counseling services to women and children, and combat 
violence against women by improving the capacity of Egypt's National 
Council for Women and National Council for Childhood and Motherhood to 
advocate for policy changes and provide services and legal assistance 
for battered and trafficked women.
    Through its local grants program, MEPI is funding 10 Egyptian NGOs 
to carry out innovative projects to break down barriers for women in 
the legal profession, raise awareness of women's rights among female 
students in Upper Egypt, train ordinary Egyptian women to become 
community leaders and businessowners, and carry out voter education and 
corruption awareness campaigns targeting women, including in lesser 
developed regions of Egypt. MEPI also is preparing to fund new Egyptian 
local grants that focus on women's rights, economic opportunity, and 
participation during the transition.

    Question. Our government has stated and restated the importance of 
peaceful, democratic transition in Egypt that includes respect for 
human rights, including expression, association and assembly, freedom 
of the press. However, recent reports from Egypt have estimated that 
between 5,000 and 10,000 people have been tried in military courts over 
the past 3 months. Activists believe the prosecutions are a scare 
tactic by the Supreme Council of the Armed Forces to intimidate 
Egyptians off the street, as they often specifically target protesters.

  <bullet> How is the administration addressing this failure with the 
        military council, to ensure that the transitional government is 
        not backsliding and reverting to tactics reminiscent of the 
        Mubarak era?

    Answer. We have raised at the highest levels the need for Egypt's 
military leadership to address transparently and inclusively the 
grievances of the Egyptian people; including lifting the state of 
emergency; protecting freedom of expression and assembly; reforming 
security institutions; trying civilians in civilian, not military, 
courts; and transitioning to civilian control of the government through 
free and fair elections.
    We are aware of recent interrogations of journalists, bloggers, and 
judges critical of the SCAF and military and have made our concerns 
regarding these cases clear to the Egyptian Government and the SCAF. 
Freedom of expression is a critical component of any democratic state, 
and we have made clear that attempts to silence political opposition in 
Egypt are unacceptable.

    Question. Ambassador Patterson, I have been following Chairman 
Kerry's effort with respect to the Bower children who were wrongfully 
removed from the United States by their mother. As you are aware, their 
father, Colin Bower, has been trying unsuccessfully to secure the 
return of his children, Noor and Ramsay, to the United States. Pursuant 
to a 2008 decision by Probate and Family Court of the Commonwealth of 
Massachusetts, Mr. Bower has sole legal custody of Noor and Ramsay and 
joint physical custody with Mirvat El Nady. That ruling stipulated 
Mirvat el Nady was not to remove Noor and Ramsay from the Commonwealth. 
There are no international or bilateral treaties in force between Egypt 
and the United States dealing with international parental child 
abduction, and Egyptian law does not consider the removal of a child by 
the noncustodial parent to or within Egypt to be a crime.

  <bullet> What efforts is the Department undertaking with the interim 
        government to secure the return of Mr. Bower's children? What 
        pressure do you believe would be helpful to motivate the 
        Military Council or a future Egyptian Government to resolve 
        this case favorably? In your role as Ambassador, what actions 
        will you take to encourage Egypt to sign the Hague Convention 
        on the Civil Aspects of International Child Abduction?

    Answer. Secretary Clinton and the Department have been in direct 
contact with Egyptian authorities at senior levels concerning this 
matter. We will continue to raise this case with appropriate Egyptian 
authorities in the hope of seeing the children returned to Mr. Bower. 
Both the Special Advisor for the Office of Children's Issues, 
Ambassador Susan Jacobs, and the U.S. Consul General in Cairo have, on 
multiple occasions, worked directly with Mr. Bower on this difficult 
matter. The Office of Children's Issues is very engaged on Mr. Bower's 
behalf. We will continue to press the Egyptian Government to sign the 
Hague Convention on the Civil Aspects of International Child Abduction.
                                 ______
                                 

         Responses of Michael Corbin to Questions Submitted by
                        Senator Robert Menendez

                         human rights/democracy
    Question. Five prodemocracy activists have been detained in the 
United Arab Emirates since April 18 without bail. According to Human 
Rights Watch, the activists were charged with ``peaceful use of speech 
to criticize the UAE Government.'' The UAE Government said they were 
charged with harassment after the activists and other UAE nationals 
signed a petition in March that demanded constitutional and 
parliamentary changes in the Emirates, and free elections for all 
citizens. The detainees include a leading human rights activist and 
university lecturer. In his address on the Middle East and North Africa 
last month, President Obama declared that ``it will be the policy of 
the United States to promote reform across the region, and to support 
transitions to democracy.''

  <bullet> With the trial date of these prodemocracy activists set for 
        July 18, how will the administration follow through on its 
        promise of promoting reform and democracy including in the UAE? 
        How will you as Ambassador pressure the Emirati Government to 
        conduct the trial in a transparent and open manner, and 
        preserve freedom of speech and assembly?

    Answer. We engage the Emirati Government regularly and at all 
levels regarding the universal principles of freedom of expression and 
association. Our Embassy and senior Department officials have been 
reaching out to the Emirati Government regarding our concern that any 
trials be conducted in a transparent and open manner in accordance with 
international standards of due process. If confirmed, I will continue 
to make these points. We understand the lawyers for the five defendants 
have asked that the trial be closed to the public and the press. We 
will continue to monitor the situation to the best of our ability.
                         relationship with iran
    Question. The relationship between the United States and the UAE is 
multifaceted and reflects many complex issues that both countries face. 
At the top of our agenda for the past several years has been the issue 
of Iran and the important role the UAE must play in enforcing 
international sanctions. While we have seen a dramatic and positive 
shift in the UAE's behavior toward Iran in the past year, it can and 
must do much more. For example, the UAE should stop refined petroleum 
exports to Iran; they should further clamp down on illicit re-exports 
to Iran; and they should do more to cut banking ties with Tehran.

  <bullet> Can you describe the UAE's compliance with international 
        sanctions on Iran?
  <bullet> If confirmed, will you make it a top priority to press the 
        Government of the UAE, including the individual Emirates, to 
        fully comply with U.N. and U.S. sanctions on Iran?
  <bullet> The State Department recently sanctioned two UAE firms for 
        their role in the export of refined petroleum products to Iran. 
        If confirmed, will you ensure Embassy personnel investigate and 
        report to Washington on companies involved in the export of 
        refined petroleum to Iran in violation of U.S. law?

    Answer. The UAE takes seriously its international obligations to 
enforce sanctions against Iran. To this end, it has a track record of 
disrupting or preventing transfers to Iran of items of proliferation 
concern. The UAE has a national strategy to protect the reputation of 
its historically open trade environment against abuse by proliferators. 
In August 2007 the UAE passed comprehensive strategic trade control 
legislation providing the basis for an enforceable export control 
system. The law is currently being enforced and we have been working in 
close partnership with UAE authorities to halt attempts to divert 
sensitive dual-use technology, including U.S.-origin goods, from the 
UAE. With respect to enforcement and counterproliferation issues, the 
UAE is an active participant in the Proliferation Security Initiative 
(PSI) and hosted, in January 2010, a major multinational PSI exercise, 
LEADING EDGE. They also cohosted with the U.S. a Global Transshipment 
Conference in March 2011 designed to focus international attention on 
the problems of illicit transshipment and ways to address them.
    If confirmed, I will continue in our policy of pressing the UAE 
including each of the Emirates, as we do all our partners, to fully 
comply with U.N. and U.S. sanctions on Iran. This has been a top 
priority and will continue to be one under my tenure, if confirmed.
    If confirmed I will ensure that post continues our efforts on 
refined petroleum products to build on the work done so far. I will 
work to focus on monitoring of and reporting on efforts by commercial 
entities to evade international and U.S. sanctions, including the 
CISADA refined petroleum sanctions.
                                 ______
                                 

        Response of Matthew H. Tueller to Question Submitted by
                        Senator James M. Inhofe

    Question. You have surely been briefed about the Kuwaiti detention 
without bond of a U.S. citizen in his seventies, Aliyar Dehghani. His 
family is deeply concerned that he is not being afforded normal, due 
legal process, and that his continued detention poses risks to his 
health given his age and heart condition.
    Even though the circumstances surrounding the case are 
controversial, it is especially troubling if one of our allies ever 
were to single out an American citizen for discrimination, in violation 
of its own legal standards and process.

  <bullet> Should you be confirmed, will you raise this case--and 
        potentially any others like it--to ensure fair treatment under 
        the law of American citizens in Kuwait?

    Answer. If confirmed by the Senate, I will be fully committed to 
ensuring the protection and well-being of all U.S. citizens in Kuwait, 
including securing fair treatment under the law. I assure you that, if 
confirmed as Ambassador, I will raise with the Kuwaiti Government any 
cases in which we believe an individual is being discriminated against 
or mistreated because of his or her U.S. citizenship.
    Regarding the specific situation of Mr. Aliyar Dehghani, a U.S.-
citizen resident in Kuwait for many years, I understand that Mr. 
Dehghani was released from the Kuwait Central Prison on May 29 after he 
posted bond. The case is pending the outcome of the ongoing 
investigation into his role in connection to the 2009 failure of the 
Mishref Sewage Pumping Station.
    The U.S. Embassy in Kuwait informs me there is no indication Mr. 
Dehghani is being targeted, disadvantaged, or discriminated against in 
any way because of his U.S. citizenship. After Mr. Dehghani was 
detained by Kuwaiti authorities on May 10, representatives of the 
Consular Section of the U.S. Embassy in Kuwait visited Mr. Dehghani on 
several occasions and were in regular contact with members of
his family. The Department of State and the U.S. Embassy in Kuwait 
continue to closely follow Mr. Dehghani's situation and will continue 
to provide appropriate consular assistance.


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 29, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Derek J. Mitchell, of Connecticut, to be Special Representative 
        and Policy Coordinator for Burma, with the rank of 
        Ambassador
Frankie Annette Reed, of Maryland, to be Ambassador to the 
        Republic of the Fiji Islands, and to serve concurrently 
        as Ambassador to the Republic of Nauru, the Kingdom of 
        Tonga, Tuvalu, and the Republic of Kiribati
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jim Webb 
presiding.
    Present: Senator Webb.

              OPENING STATEMENT OF HON. JIM WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Good morning. The hearing will come to order.
    Today the committee will consider the nominations of Derek 
J. Mitchell to be U.S. Special Representative and Policy 
Coordinator for Burma; and Frankie A. Reed to be U.S. 
Ambassador to the Fiji Islands, and the Republic of Nauru, the 
Kingdom of Tonga, Tuvalu, and the Republic of Kiribati.
    In 2008, the Tom Lantos Block Burmese JADE Act established 
the position of the Special Representative and Policy 
Coordinator for Burma. The Special Representative is charged, 
among other responsibilities, with promoting a comprehensive 
international effort to support democracy in Burma and address 
the humanitarian needs of its people.
    I believe this position can play a key role in bringing 
together the various voices on Burma policy in striving to 
develop a more coherent, effective policy. However, to date, 
the position has not been filled, and we should not delay this 
any longer.
    In 2009, after a great deal of coordination, I became the 
first Member of Congress to travel to Burma in 10 years. There 
I had the opportunity to meet with Aung San Suu Kyi, and was 
also the first and only American official ever to meet with 
General Than Shwe.
    Following this visit, there were, in my view, many 
opportunities for follow-on activities by others in our 
Government and in theirs that could bring about a change in our 
policy toward Burma.
    Our sanctions-led approach had produced no meaningful 
results in the country, except to further isolate the people, 
and I believe that we need to find a way to break this cycle.
    Soon thereafter, following its own policy review, the 
administration agreed with this position and announced a new 
dual-track policy guided by direct engagement with the 
Government in Burma and the continued policy of economic 
sanctions.
    Since this shift, the administration has taken some limited 
steps toward direct engagement, but given the strategic 
importance of Burma and the critical humanitarian needs in that 
country, more can and should be done.
    Fixed between two powers--India and China--and bridging two 
subcontinents, Burma has been wrecked by internal conflict, led 
in part by the desire of the previous military government to 
enforce national unity among a diverse ethnic population. In 
the past few weeks, this conflict has flared up in a serious 
way, particularly in the Kachin areas near the Chinese border.
    Despite this enduring violence, the Burmese people have 
steadily pursued a transition toward civilian government and, 
hopefully, toward eventual democracy.
    On November 7, 2010, Burma held its first election in 20 
years. With limited international observation, most will argue 
that the election was neither free nor fair, with the military-
backed Union Solidarity and Development Party, USDP, winning 
the majority of open seats in the new Parliament.
    Coupled with the military's automatic holding of 25 percent 
of the seats in Parliament, this bloc will carry a 
supermajority.
    Yet numerous independent reports indicate that the election 
process has created the potential for a new political dynamic 
in the country, with candidates participating from more than 37 
different political parties. The National League for Democracy 
did not register as a political party and, therefore, was 
unable to participate in the election. But other democratic and 
ethnic minority parties did participate, and their candidates 
won seats in the national and regional Parliaments.
    This was a step--albeit an incomplete one--toward forming a 
representative government, and it is a greater step than many 
other countries in the region can claim.
    This spring, we have observed the convening of the 
Parliament and the appointment of new government officials. By 
all indications, a transition of some sort is occurring. My 
colleague, Senator John McCain, in his visit to Burma earlier 
this month, noted that ``this new government represents some 
change from the past,'' and that the new government wants a 
better relationship with the United States.
    The release of Aung San Suu Kyi after the election was an 
important benchmark in this process, and her continued freedom 
of movement may serve as a bellwether for the development of a 
more vibrant civil society.
    I believe these changes yield promise for improving 
accountability and transparency in Burma. The International 
Crisis Group, a well-respected nonprofit organization committed 
to preventing conflict, concurs. Their March 2011 report notes 
``this moment of relative change in a situation that has been 
deadlocked for 20 years provides a chance for the international 
community to encourage the Government to move in the direction 
of greater openness and reform.''
    However, it also important to realize that this transition 
is not guaranteed, either domestically or because of foreign 
influence. China, the second largest economy in the world with 
a decidedly nondemocratic political system, wields a great and 
continuing influence in Burma. With the construction of gas and 
oil pipelines, hydropower development, and additional 
assistance, China has attempted to purchase influence through 
investments that support the Burmese Government and provide 
China with strategic access to the Indian Ocean. Chinese 
leaders may be concerned with the ethnic conflict on their 
border, but they have yet to take constructive steps to 
encourage a meaningful political reconciliation with Burma.
    Even more troubling has been China's role as a 
transshipment point for illicit exports from North Korea, which 
many observers believe may be bound for Burma. While there are 
legitimate concerns about Burma's relationship with North 
Korea, the administration has yet to question China's role in 
these exports.
    I believe we should be more consistent and responsible in 
our rhetoric, particularly on an issue of such importance.
    With this political and regional complexity, the Special 
Representative faces a difficult task. Yet this position has 
the opportunity to play a positive and continuing role in 
ending the isolation of the Burmese people and promoting 
democratic development through deeper, more sustained direct 
engagement with the Government and civil society.
    Historian and scholar Thant Myint-U testified in 2009 
before this committee that ``there can be no grand strategy on 
Burma from the outside, only efforts to use and build on 
opportunities as they come along. And seeing these 
opportunities depends on being more present on the ground, in 
direct contact with the Burmese people.'' And I encourage our 
nominee today to consider this approach.
    Today we are also considering our policy toward Fiji, 
Nauru, Tonga, Tuvalu, and Kiribati. That distance that spans 
these locales is a challenge, only to be matched by the 
requirement that our Ambassador represent the United States 
simultaneously to five different countries with varied 
political systems and domestic challenges.
    The largest among these, Fiji, is an important political, 
educational, and economic center in the western Pacific. It is 
also a country of significant ethnic tensions--particularly 
between indigenous Fijians and Fijians of Indian ancestry--that 
have affected its political stability.
    In 2006, Fiji's military chief sponsored a coup that 
nullified contentious elections in the name of national unity. 
Since this time, United States relations with Fiji have been 
strained.
    The military chief, now interim Prime Minister, has further 
postponed elections until 2014. It is interesting to note that 
our response to this undemocratic action has appeared softer 
than our response to other military coups in Asia, such as 
those in Burma.
    For example, while we cut bilateral military assistance to 
Fiji following the coup, the U.S. Agency for International 
Development will be opening an office there this year. I look 
forward to examining this decision and exploring the prospects 
for United States-Fiji relations as we go forward.
    In closing, I look forward to the testimony of our 
nominees, and before their remarks, I would like introduce them 
and invite them to recognize those who have come to support 
their nomination today.
    And to begin the introductions, I would like to welcome 
Congressman Faleomavaega, the U.S. Representative from American 
Samoa and ranking member on the House Foreign Affairs 
Subcommittee on Asia and the Pacific.
    Congressman Faleomavaega is a fellow veteran and has 
recently been reelected to his twelfth term in the Congress 
this year. Throughout his service, he has been a vital voice on 
the importance of the Asia Pacific region and the value of our 
relationships there.
    And he's joined us today to introduce Frankie Reed, our 
nominee to be U.S. Ambassador to Fiji.
    And, Congressman, welcome, and the floor is yours, sir.

  STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, U.S. DELEGATE FROM 
                         AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman.
    With due respect, I did not have the opportunity to meet 
Mr. Mitchell, but I'm sure that President Obama has made a very 
wise decision in terms of this position that is going to be so 
important to establish a bilateral dialogue between us and the 
state of Myanmar.
    Mr. Chairman, I want to thank you very much for the 
opportunity that I have. I voluntarily offered myself to come 
here not only to introduce my very dear friend, but someone 
whom I have respected over the years. I would say among the 
very few Foreign Service officers who knows anything about the 
Pacific region. And I felt it so important that I wanted to 
come here to do this and to share with you some of my 
observations in the 20 years that I've served as a member of 
the House Foreign Affairs Committee, specifically also as a 
member of the Asia Pacific Subcommittee on Foreign Affairs for 
the past 20 years.
    If I may, Mr. Chairman, it's a real honor and a humbling 
experience for me to introduce a dear friend. Although I don't 
represent her and her constituency in the great State of 
Maryland, I feel like I know her, and in terms of the close 
working relationship that we've had and her efforts as she had 
served previously as the Deputy Chief of Mission in the 
Independent State of Samoa.
    I'm sure you already have the biography of Ms. Frankie 
Reed, Secretary Reed. And I just wanted to reiterate some of 
the highlights of her career and how much to the extent that I 
totally support President Obama's nomination of her to serve as 
our Ambassador not only to Fiji but to the Republics of 
Kiribati, Tuvalu, Nauru, and also the Kingdom of Tonga.
    Ms. Reed is a graduate of Howard University and got her 
degree in journalism. And then she also received her law degree 
at the University of California, Berkeley; became a Peace Corps 
Volunteer; served also as a member of the California Bar; and 
before becoming a Foreign Service officer, she was initially 
assigned as a desk officer for the Bureau of African and 
Western Hemisphere. She later held posts Kenya and also in 
Cameroon and Senegal, and then became the deputy director of 
the Office of Australia and New Zealand and the Pacific 
Islands.
    She then became the Deputy Chief of Mission to the 
Independent State of Samoa for about 3 years. Then she went off 
again to Guinea and then later became Consul General and Deputy 
U.S. Observer to the Council of Europe and the European Council 
for Human Rights in Strasbourg, France.
    And returning from that assignment, she became a diplomat 
in residence at her alma mater at U.C.-Berkeley and lectured 
there and conducted several outreach programs to universities 
in the Pacific Northwest.
    She was then assigned as Deputy Assistant Secretary for the 
Bureau of East Asian Affairs and Pacific Affairs. And then to 
this point now in her brilliant career, she is nominated by 
President Obama to serve as Ambassador.
    And my reason for wanting to do this very much, Mr. 
Chairman, is the fact that we do have some very serious issues 
and problems affecting the Pacific region. I think I've been 
very vocal for all these 20 years. As I recall, when I first 
became a member of the House Foreign Affairs Committee, 
interestingly enough, nobody wanted to talk about Asian-Pacific 
issues 20 years ago. I think the entire mentality here in 
Washington, DC, was Europe and the Middle East. And if we 
talked about any issue affecting the Asian-Pacific region, it 
was really nothing that we could really take interest in. And I 
wondered myself why we have not really taken a more serious 
interest in this very important region of the world.
    I do want to say that I honestly believe that Secretary 
Reed will do a fantastic job for the simple reason that she 
knows the Pacific. I've often said that President Obama is the 
first President of the United States that at least knows where 
the Pacific Ocean is. For the simple reason that when we talk 
about Asian Pacific, it's almost like a foreign language to 
many of our policymakers here in Washington, DC.
    I say this with interest, Mr. Chairman, because both you 
and I as Vietnam veterans, I know we've taken a lot deeper 
understanding of the fact that many times the policies that we 
enunciate toward Asian-Pacific region have not been very 
positive, out of the fact that I think we don't know the 
complexity of the region, and for the simple reason that we 
just have not had a very positive experience in dealing with 
the peoples of the Asian-Pacific region.
    I do appreciate the fact that this administration and 
President Obama and Secretary Clinton, in the initiatives that 
they've taken for the past 2 years, I think it's positive. And 
yet, we need to do more.
    And I believe that you have hit it right on the nail in 
terms of the challenges that Secretary Reed is going to have 
when she becomes Ambassador to these five different countries. 
Even though by way of population that seems to be sometimes the 
way we operate as a matter of policy--if the country is not 
heavily populated, we don't seem to take much interest in it. 
And we see this in the Pacific region as a classic example.
    And my basic criticism, Mr. Chairman, of our policy toward 
the Pacific region is that we have no policy. Our policy toward 
the Pacific region has only been toward Australia and New 
Zealand, and all the other countries are only incidental to 
this policy.
    And I sincerely hope that Secretary Reed, and I know from 
her given experience, that it's going to become a lot more 
positive, more engaging, and I really believe that we ought not 
neglect the needs of these 14 island countries, sovereignties, 
and we should pay more attention to the problems of the 
Pacific.
    And you and I could not agree more of the fact that we 
should pay more attention to Asia, as well. Despite the fact 
that President Obama has taken the initiative--a lot of 
meetings, a lot of conferences, a lot of this, but we need to 
be a little more substantive in terms of what we really mean we 
should do, we ought to do, when dealing with the Asian-Pacific 
region.
    So with that, Mr. Chairman, again, I want to thank you for 
giving me this opportunity to comment on the distinguished 
nominees that we have here, especially my good friend Secretary 
Frankie Reed. And I sincerely hope that the committee will 
approve her nomination as Ambassador to Fiji.
    I will not go into the crisis or the problems we're dealing 
with Fiji at this point in time. Perhaps, Mr. Chairman, if you 
have questions, I would be more than happy to assist in that 
regard. But again, I want to thank you for this opportunity and 
I yield back.
    Senator Webb. Congressman, thank you very much for taking 
the walk to the other side of the Capitol and being with us 
this morning, and for your long years of service to our country 
and to Congress. We very much appreciate you coming and 
expressing your support for Ambassador-to-be Reed.
    Thank you again for being with us. And I know you probably 
have things waiting for you on the House side this morning.
    At this time, I'd like to introduce Derek Mitchell, who has 
been nominated to be Special Representative and Policy 
Coordinator for Burma, with the rank of Ambassador. Currently, 
he is Principal Deputy Assistant Secretary of Defense for Asian 
and Pacific Security Affairs. Prior to this position, Mr. 
Mitchell was a senior fellow at the Center for Strategic and 
International Studies; special assistant at the Department of 
Defense; and a senior program officer at the National 
Democratic Institute. He has a master's degree from the 
Fletcher School of Law and Diplomacy at Tufts University, a 
bachelor's degree from the University of Virginia.
    Welcome, Mr. Mitchell. I know you would like to introduce 
those who are here today to support your nomination, and please 
do that.
    We welcome your wife. I had a chance to say hello to her 
before we came up here, but please do so, and then we'll look 
forward to your testimony.

 STATEMENT OF DEREK J. MITCHELL, OF CONNECTICUT, TO BE SPECIAL 
REPRESENTATIVE AND POLICY COORDINATOR FOR BURMA, WITH THE RANK 
                         OF AMBASSADOR

    Mr. Mitchell. Thank you, Mr. Chairman.
    Let me, indeed, introduce my wife first, Min Lee, who is 
right behind me. She is a reporter. We used to work in Taiwan. 
She's originally from Taiwan and now works for a cable station 
in Hong Kong. But I want to welcome Min, who is sitting right 
behind me, so thank you very much for the opportunity.
    Senator Webb. Welcome.
    You may proceed.
    Excuse me, I neglected to say that Senator Kerry has a 
statement he would like to have introduced into the record, and 
it will be included at this point.
    [The prepared statement of Senator Kerry follows:]

         Prepared Statement of Senator John F. Kerry, Chairman,
                  Senate Foreign Relatiions Committee

    Today, the Senate Foreign Relations Committee convenes to consider 
the nominations of Derek Mitchell to be Special Representative and 
Policy Coordinator for Burma, with the rank of Ambassador, and Frankie 
Reed to be Ambassador to the Republic of the Fiji Islands, the Republic 
of Nauru, the Kingdom of Tongo, Tuvalu, and the Republic of Kiribati.
    Both the nominees before the committee today have distinguished 
records, and they are well qualified to represent the United States 
overseas in these important posts.
    Given the moral imperative of fashioning a wise policy that 
benefits Burma's long-suffering people, I would like to take a moment 
to discuss the opportunities and challenges that await one of our 
nominees: Mr. Mitchell, our current Principal Deputy Assistant 
Secretary of Defense for Asian and Pacific Security Affairs, and the 
President's deserving choice to be his special envoy for Burma.
    If confirmed, I have every confidence that Mr. Mitchell will 
faithfully implement the Obama administration's ``dual-track'' approach 
toward Burma. After years of a one-sided, ``sanctions only'' policy 
that did not produce change, the administration is seeking to combine 
pressure with principled engagement to encourage the Burmese Government 
to embrace reforms and make a genuine transition to civilian, 
democratic rule. Let me be clear: The special envoy position's mandate 
is to undertake a comprehensive international effort that includes both 
engagement with Burma's leaders and working with Burma's neighbors and 
international organizations to coordinate more effectively pressure for 
change. This holistic approach holds the best chance of achieving real 
results.
    When he arrives in Naypyidaw for the first time early in his 
tenure, the President's envoy will need to assess the implications of 
recent developments in Burma, including the release of Daw Aung San Suu 
Kyi from house arrest, the controversial 2010 elections, and the 
formation of a government led by a former top regime general and now 
President, Thein Sein.
    Many questions linger about Burma's new Parliament and its 
``civilian'' government. The elections that produced them reflected a 
deeply flawed process with highly restrictive rules that excluded the 
main opposition party, the National League for Democracy (NLD). All the 
while, the NLD's longstanding leader Daw Suu remained sidelined under 
house arrest. Members affiliated with the old regime and military 
appointees occupy almost 90 percent of all positions in the 
legislatures. While many former military officers now wear civilian 
clothes, Senior General Than Shwe's role in daily affairs is not 
readily apparent. It is similarly unclear how much power various 
institutions such as the Presidency, Vice Presidencies, the Cabinet, 
the Parliament, the United Solidarity and Development Party and the 
Tatmadaw (the military) will wield over time.
    If confirmed, I expect Mr. Mitchell will test and probe in 
principled ways to understand the new political dynamics inside Burma 
and see if there is a possibly changing environment that is more 
amenable to calls for reform. This will require him to consult broadly 
with various stakeholders, including the government; Daw Suu and other 
current and future NLD leaders; other legitimate democratic groups; 
civil society; ethnic groups; and, of course, the international 
community. While creatively exploring how best to encourage political 
change, our envoy will also need to search for ways to help Burma's 
people today, including through more effective implementation of 
humanitarian programs that can empower them.
    The Burmese Government could take some tangible steps to show it is 
sincere about making real progress: Releasing political prisoners, 
easing media and speech restrictions, making good on President Thein 
Sein's recent promises of economic reforms, devoting more resources to 
education and health, as well as allowing greater space for 
international and nongovernmental organizations to help meet the 
critical needs of the Burmese people would be a good start. Minimal 
concrete steps to date in these areas combined with deeply troubling 
reports of sensitive military technology transfers from North Korea and 
renewed violence in Kachin state and other ethnic regions make fair-
minded observers wonder whether Burma is still conducting ``business as 
usual.''
    I believe the administration is prepared to improve ties with 
Burma's Government if it breaks from the policies of the past. For 
their part, Burmese diplomats have repeatedly expressed a desire for 
better relations. In fact, they recently asked for a few modest U.S. 
measures to build confidence such as calling the country by its current 
name--Myanmar--and removing travel restrictions on visitors to its 
United Nations Mission in New York, who have to adhere to a 25-mile 
limitation. Yet, there has been very little progress by Naypyidaw on 
either core human rights concerns or an inclusive dialogue that leads 
toward national reconciliation.
    In the months ahead, both sides should explore taking carefully 
calibrated measures independent of each other to begin a process that 
encourages constructive change inside Burma and could lead to serious 
talk on tough issues. Burma could grant the ICRC access to prisoners, 
for example, while the United States could allow it observer status in 
a signature, new U.S. program focused on environmental, health, 
education, and infrastructure development in mainland Southeast Asia 
called the Lower Mekong Initiative.
    Make no mistake, U.S. efforts to encourage democratic reform and 
progress on human rights will get more traction if our envoy is able to 
forge greater multilateral cooperation on all facets of U.S. Burma 
policy. Other Southeast Asian countries can send a message about their 
own expectations by linking Burma's chairmanship of ASEAN in 2014 to 
tangible political progress. Burma's giant neighbors, China and India, 
are also indispensable partners in this equation.
    My experience working to improve relations with Vietnam taught me 
that clear-eyed diplomacy, combining elements of pressure and 
engagement, can encourage even an authoritarian regime to change 
course, particularly if Washington works in concert with like-minded 
members of the international community.
    I and others will be watching closely to see whether Burma's 
Government is interested in a path toward peace and democracy or 
whether it remains anchored to the failed policies of the past.
    The appointment of a U.S. Presidential envoy dedicated to Burma 
will afford its leaders an important, new opportunity to pursue 
policies that benefit their people, can improve relations with the 
United States, and begin to repair their international reputation.

    Senator Webb. Go ahead, Mr. Mitchell.
    Mr. Mitchell. Thank you, Mr. Chairman.
    Mr. Chairman, I am honored to appear before you today as 
President Obama's nominee to serve as the Special 
Representative and Policy Coordinator for Burma with the rank 
of Ambassador. I am truly humbled by the confidence that 
President Obama and Secretary of State Clinton have shown in me 
by this nomination.
    As you are well aware, Mr. Chairman, Burma is a nation rich 
in history, rich in culture, and rich in possibility. At the 
crossroads of South and Southeast Asia, Burma sits on sea 
lanes, natural resources, and fertile soil that create the 
conditions for potentially unlimited development.
    It is, therefore, particularly unfortunate that while much 
of Southeast Asia has become more free, prosperous, and 
globally interconnected in recent decades, Burma has been the 
outlier.
    Burma remains a country at war with itself and distrustful 
of others. With a Government that has chosen for several 
decades to distance itself from the outside world, Burma now is 
the poorest country in Southeast Asia and a source of great 
concern and potential instability in the region.
    Although rich in natural and human resources, nearly a 
third of Burma's population lives in poverty. Hundreds of 
thousands of its citizens are internally displaced and 
thousands more continue to seek refuge and asylum in 
neighboring countries, largely due to the central authority's 
longstanding conflicts with and systematic repression of the 
country's ethnic minority populations.
    Over 2,000 political prisoners languish in detention, even 
as Burma's military continues to routinely violate 
international standards of human rights.
    And although the Burmese Government has claimed a 
successful transition to a ``disciplined, flourishing 
democracy,'' a political system that exhibits anything close to 
recognizable standards of representative democracy remains to 
be seen.
    As a result, United States relations with Burma have been 
strained. Over the past 2 decades, however, international 
policies of either pressure or engagement, as you have 
suggested yourself, Mr. Chairman, alone have not produced the 
change in Burma that we and the rest of the international 
community seek.
    In September 2009, the Obama administration completed its 
Burma policy review and announced its intention to pursue a 
more flexible U.S. policy approach that integrated both 
sanctions and engagement, a dual-track approach fully 
consistent with President Obama's call for ``principled 
engagement'' with nations around the world.
    Congress' establishment of a Special Representative and 
Policy Coordinator for Burma was meant, in my view, to enable a 
more focused, sustained, coordinated, and ultimately effective 
attention on Burma by the U.S. Government.
    Although United States policy toward Burma has evolved, the 
overriding objective has and, I believe, should not: The United 
States still seeks a peaceful, prosperous, open, and democratic 
Burma that respects the rights of all its citizens and that 
adheres to its international obligations. The United States 
remains prepared to establish a positive relationship, based on 
mutual respect and mutual benefit, with a Burmese leadership 
that adheres to and advances these principles.
    If I am confirmed, Mr. Chairman, I will seek opportunities 
for direct and candid dialogue with the regime concerning a 
path forward for our relationship with Burma that is consistent 
with our values and broader national interests, and contributes 
to Burma's own development as a secure and prosperous nation at 
peace with itself. I will report regularly, including to the 
U.S. Congress, on the results of this engagement, so we may 
calibrate our dual-track policy appropriately.
    I believe we should be prepared to respond flexibly and 
with agility to opportunities as they arise in Burma, according 
to evolving conditions on the ground.
    If confirmed, I will also conduct extensive consultations 
with key stakeholders inside and outside government, at home 
and abroad. My objective will be to implement U.S. law 
faithfully and coordinate efforts to advance our common 
objectives.
    To date, in my view, the inability of key members of the 
Burma-interested community around the world to coordinate their 
approach to Burma has only undermined the effective realization 
of our shared objectives.
    Mr. Chairman, I believe I have the right mix of skills, 
experience, and regional expertise to carry out fully the 
congressional mandate for this position. I currently serve, as 
you said, as the Principal Deputy Assistant Secretary of 
Defense for Asian and Pacific Affairs, where I have been 
responsible for overseeing U.S. security policy and strategy 
throughout East, Southeast, South, and Central Asia.
    I have more than 20 years of experience studying and 
working on Asia from various perspectives, both inside and 
outside of government, from within the United States and in 
Asia itself.
    Mr. Chairman, I know you take a particularly keen personal 
interest in the situation in Burma, as do many others in 
Congress, throughout our country, and around the world. It is a 
country of unique interest to me as well. It would be a great 
privilege to serve my country as the first Special 
Representative and Policy Coordinator for Burma.
    If confirmed, I will bring the full weight of my diverse 
experience, personal contacts, understanding of Asia, and 
strategic instincts to this position. I will consult closely 
with you and other members of this committee in Congress to 
fulfill the mandate of this position in the interests of the 
United States and toward the betterment of the people of Burma.
    Thank you for considering my nomination. I look forward to 
your questions.
    [The prepared statement of Mr. Mitchell follows:]

                  Prepared Statement of Derek Mitchell

    Mr. Chairman, and members of the committee, I am honored to appear 
before you today as the President's nominee to serve as the Special 
Representative and Policy Coordinator for Burma with the rank of 
Ambassador. I appreciate the confidence that President Obama and 
Secretary of State Clinton have shown in me by this nomination.
    As you are well aware, Burma is a nation rich in history, rich in 
culture, and rich in possibility. At the crossroads of South and 
Southeast Asia, Burma sits on sea lanes, natural resources, and fertile 
soil that create the conditions for potentially unlimited development.
    It is therefore particularly unfortunate that while much of 
Southeast Asia has become more free, prosperous, and globally 
interconnected in recent decades, Burma has been the outlier. Burma 
remains a country at war with itself and distrustful of others. With a 
government that has chosen for several decades to distance itself from 
the outside world, Burma now is the poorest country in Southeast Asia 
and a source of great concern and potential instability in the region. 
Although rich in natural and human resources, nearly a third of Burma's 
population lives in poverty. Hundreds of thousands of its citizens are 
internally displaced and thousands more continue to seek refuge and 
asylum in neighboring countries largely due to the central authority's 
longstanding conflicts with and systematic repression of the country's 
ethnic minority populations. Over 2,000 political prisoners languish in 
detention, while Burma's military continues to routinely violate 
international human rights.
    Overall, the average Burmese citizen lacks fundamental freedoms and 
civil rights. Although the Burmese Government has claimed a successful 
transition to a ``disciplined, flourishing democracy,'' a political 
system that exhibits anything close to recognizable standards of 
representative democracy remains to be seen. I am encouraged that the 
new President of Burma speaks of reform and change, but the pathway to 
real national reconciliation, unity among its diverse peoples, and 
sustainable development requires concrete action to protect human 
rights and to promote representative and responsive governance.
    As a result, U.S. relations with Burma have been strained. Over the 
past two decades, international policies of either pressure or 
engagement alone have not produced the change in Burma that we and the 
rest of the international community seek. In 2008, Congress directed 
the establishment of a Special Representative and Policy Coordinator 
for Burma to enable more focused, sustained, and coordinated attention 
on Burma by the U.S. Government. Consistent with this directive, in 
September 2009, the Obama administration completed its Burma policy 
review and announced its intention to pursue a more flexible U.S. 
policy approach that integrated both sanctions and engagement to 
achieve results in Burma. This dual-track approach is fully consistent 
with President Obama's call for ``principled engagement'' with nations 
around the world.
    Although U.S. policy toward Burma has evolved, our overriding 
objective has not: the United States still seeks a peaceful, 
prosperous, open, and democratic Burma that respects the rights of all 
its citizens and adheres to its international obligations. The United 
States remains prepared to establish a positive relationship, based on 
mutual respect and mutual benefit, with a Burmese leadership that 
advances these principles.
    If I am confirmed, my role as ``Special Representative and Policy 
Coordinator'' will be to work closely with and build upon the excellent 
foundation established by Assistant Secretary of State Kurt Campbell 
and Deputy Assistant Secretary of State Joseph Yun in implementing 
Burma policy. I will seek opportunities for direct and candid dialogue 
with the regime concerning a path forward for Burma that promotes our 
values and broader national interests, and contributes to Burma's own 
development as a secure and prosperous nation. Of course, engagement is 
not an end in itself or the single measure of success: engagement must 
be time-bound, results-based, and accompanied by meaningful progress. 
If confirmed, I will report regularly to the White House, Secretary of 
State Clinton, and the U.S. Congress on the results of our dialogue and 
evidence of such progress so we may calibrate our dual-track policy 
appropriately. I believe we should be prepared to respond flexibly and 
with agility to opportunities available in Burma and according to 
evolving conditions on the ground.
    If confirmed, I will also conduct extensive consultations with key 
stakeholders both inside and outside government, at home and abroad. My 
objective will be to implement U.S. law faithfully and coordinate 
efforts to advance the common international objectives of bringing 
about in Burma the unconditional release of all political prisoners, 
respect for human rights, an inclusive dialogue between the regime and 
the political opposition, including Aung San Suu Kyi, and ethnic groups 
that would lead to national reconciliation, and Burma's adherence to 
its international obligations, including all U.N. Security Council 
resolutions on nonproliferation. To date, in my view, the inability of 
key members of the international community to coordinate their approach 
to Burma has undermined the effective realization of our shared 
objectives.
    Mr. Chairman, I believe I have the right mix of skills, experience, 
and regional expertise to carry out fully the congressional mandate for 
this position. My first job in Washington was in the foreign policy 
office of the late Senator Ted Kennedy, where I learned the importance 
of congressional oversight, particularly on international issues of 
unique interest to Members and the American people. I have more than 20 
years of experience studying and working on Asia from various 
perspectives both inside and outside of government, from within the 
United States and in Asia itself. For 8 years, I led the Asia division 
at the Center for Strategic and International Studies (CSIS) 
International Security Program and established CSIS' Southeast Asia 
Initiative. I currently serve as the Principal Deputy Assistant 
Secretary of Defense for Asian and Pacific Affairs, where I have been 
responsible for overseeing U.S. security policy and strategy throughout 
East, Southeast, South, and Central Asia.
    My first visit to Burma was in 1995, when I traveled to Rangoon 
with the National Democratic Institute for International Affairs and 
met with government officials, international NGO representatives, and 
political party leaders, including the remarkable Daw Aung San Suu Kyi. 
I made subsequent visits, which solidified my appreciation for the 
richness of the country's history and culture as well as the tragic 
limitations of its political and economic development. I retained a 
keen interest in Burma's affairs in the years since, and cowrote an 
article in the journal Foreign Affairs in 2007 that outlines a new U.S. 
policy approach to the country not dissimilar to results of the Obama 
administration's 2009 policy review.
    Mr. Chairman, I know you take a particularly keen personal interest 
in the situation in Burma, as do many others in Congress, throughout 
our country, and around the world. It is a country of unique interest 
to me as well. It would be a great privilege to serve my country as the 
first Special Representative and Policy Coordinator for Burma. If 
confirmed, I will bring the full weight of my diverse experience, 
personal contacts, understanding of Asia, and strategic instincts to 
this position. I will consult closely with you and other members of 
this committee and in the Congress to fulfill the mandate of this 
position in the interest of the United States and toward the betterment 
of the people of Burma.

    Senator Webb. Thank you very much, Mr. Mitchell.
    And, Ms. Reed, welcome.
    Let me first mention that, as the congressman noted in his 
introduction, Frankie A. Reed is a career Foreign Service 
officer. She served in Cameroon, Kenya, Senegal, Samoa, Guinea, 
and France. Currently, she's Deputy Assistant Secretary of East 
Asian and Pacific Affairs for Australia, New Zealand, and the 
Pacific Islands. She has a law degree from the University of 
California at Berkeley, a bachelor's degree in journalism from 
Howard University. Prior to joining the Department of State, 
Ms. Reed practiced law, worked in print journalism, spent 2 
years as a Peace Corps Volunteer.
    And I know that you have people who have come to support 
your nomination, so I'd like to give you the chance to welcome 
them, and then we'll go to your testimony.

     STATEMENT OF FRANKIE ANNETTE REED, OF MARYLAND, TO BE 
 AMBASSADOR TO THE REPUBLIC OF THE FIJI ISLANDS, AND TO SERVE 
   CONCURRENTLY AS AMBASSADOR TO THE REPUBLIC OF NAURU, THE 
     KINGDOM OF TONGA, TUVALU, AND THE REPUBLIC OF KIRIBATI

    Ms. Reed. Thank you, Mr. Chairman. I have my cousin, Susan 
Reed Slocum, and her husband here today.
    Senator Webb. Welcome.
    You may take such time as you care.
    Ms. Reed. Thank you, Mr. Chairman.
    I am deeply honored that the President has nominated me to 
be the United States Ambassador to the Republic of the Fiji 
Islands, the Republic of Kiribati, the Republic of Nauru, the 
Kingdom of Tonga, and Tuvalu. I want to thank the President and 
Secretary Clinton for nominating me for this position, and 
thank you for the opportunity to appear before you and this 
committee today.
    The United States Ambassador resident in Fiji, as we have 
noted, is responsible for the bilateral relationships with five 
independent nations.
    Embassy Suva is a busy hub of American activity in the 
Pacific. The staff collaborates with multilateral 
organizations, including the Pacific Island Forum. In addition, 
the Embassy also has consular and commercial responsibilities 
for French Polynesia, New Caledonia, and Wallis and Futuna, 
making it the largest geographic consular district in the 
world, one which attracts over 150,000 Americans annually.
    Fiji, in the heart of the Pacific region, is a diverse 
country of some 850,000 people. It is a regional transport and 
communications hub, as well as the site of the University of 
the South Pacific and the regional headquarters of many foreign 
aid organizations.
    In December 2006, as we also noted, the Fijian military, 
led by Commodore Bainimarama, overthrew the country's lawfully 
elected government. This event has created a prolonged 
political and economic crisis in Fiji.
    In accordance with the foreign operations assistance act, 
the United States suspended military and other foreign 
assistance programs in Fiji and will maintain these sanctions 
on Fiji until a return to a civilian government. That return 
must be signaled by a transparent, inclusive process that 
includes all elements of Fijian society.
    We look forward to working with the Fijian Government on 
continued law enforcement training with police and port 
security officials, however. And, if confirmed, we also look 
forward to a deepened cooperation on disaster preparedness with 
the Pacific Command Center for Excellence.
    If confirmed, I will work with the Fijian people, the 
government, and other regional partners to push for early 
elections, elections restoring Fiji to the path of democracy.
    The Pacific Islands face many of the same global issues 
that other countries face, but in this particular region, the 
repercussions can be more acute.
    These countries, many of them low-lying atolls, will be the 
first to experience the effects of climate change and 
environmental degradation.
    Tuvalu, one of the world's smallest nations, has nine 
atolls only a few feet above sea level. Nauru's once bountiful 
phosphate mines are almost exhausted. The problem of 
overfishing and threatened marine resources hits hard in the 
Pacific, since island states are dependent upon fish stocks not 
only for the sustenance of their people, but also as a major 
source of government revenue.
    If confirmed, I will work with these nations and regional 
partners like the Secretariat of the Pacific Community, as well 
as our Australia and New Zealand partners, to address these 
pressing global issues.
    Despite these challenges at home, these Pacific islands are 
our partners in fostering both regional and global stability. 
Tonga and Tuvalu became early members of the coalition to 
liberate Iraq. Tongan troops are currently serving in 
Afghanistan. Fiji contributes 600 soldiers to peacekeeping 
operations in Iraq, the Middle East, Sudan, and Liberia.
    Fiji, Kiribati, Nauru, Tonga, and Tuvalu occupy a 
strategically important part of the Pacific. They are our 
partners in addressing critical global and regional issues.
    If confirmed, I will do my best to continue to strengthen 
relations between the United States and each of these five 
countries. Working together, we can achieve our common goals 
for a stable, peaceful, and prosperous region.
    Thank you.
    [The prepared statement of Ms. Reed follows:]

                   Prepared Statement of Frankie Reed

    Mr. Chairman and members of the committee, I am deeply honored that 
the President has nominated me to be United States Ambassador to the 
Republic of the Fiji Islands, the Republic of Kiribati, the Republic of 
Nauru, the Kingdom of Tonga, and Tuvalu. I want to thank the President 
and the Secretary for nominating me for this position and thank you for 
the opportunity to appear before you today.
    Currently, I serve as the Deputy Assistant Secretary in the Bureau 
of East Asian and Pacific Affairs responsible for relations with 
Australia, New Zealand and the Pacific Island posts (Fiji, Tonga, 
Kiribati, Samoa, Papua New Guinea, Vanuatu, Solomon Islands, Republic 
of the Marshall Islands, Federated States of Micronesia, and Palau), 
the Consul General and Deputy U.S. Observer to the Council of Europe 
and the European Court of Human Rights in Strasbourg, France, the 
Deputy Chief of Mission in Guinea and in Samoa, and as the Deputy 
Director in the Office of Australia, New Zealand and Pacific Island 
Affairs. My service outside of the Department of State includes that of 
Diplomat in Residence at the University of California and as a Pearson 
Congressional Fellow.
    The U.S. Ambassador resident in Fiji is responsible for the 
bilateral relationships with five independent nations. Embassy Suva is 
a busy hub of American activity in the Pacific. Some 26 American 
employees and 80 Foreign Nationals work to advance U.S. interests over 
a stretch of the Pacific Ocean. The dedicated staff members collaborate 
with multilateral organizations, and promote regional public diplomacy 
activities, environmental programs and policies, the National Export 
Initiative, and defense-related relationships on a daily basis. If 
confirmed, I will engage closely with the Pacific Islands Forum 
continuing the good work of my predecessor, who was designated as the 
first U.S. Representative to the PIF. The Embassy also has consular and 
commercial responsibilities for French Polynesia, New Caledonia, and 
Wallis and Futuna, making this geographically the largest consular 
district in the world, spanning across 3,000 miles and attracting 
approximately 55,000 Americans annually.
    Fiji, located in the heart of the Pacific region, is an ethnically 
and religiously diverse country of 850,000 people. It is a regional 
transport and communications hub, as well as the site of the University 
of the South Pacific and the regional headquarters of many foreign aid 
organizations, NGOs, and multilateral organizations, including the 
Pacific Islands Forum Secretariat. The New Embassy Compound in Suva, 
opened in June this year, serves four other U.S. Embassies in the 
region as the hub for our Regional Environmental, Labor, Law 
Enforcement, Public Diplomacy, and Defense offices.
    Fiji's unique position in the Pacific makes it a key focal point 
for our larger regional engagement with the South Pacific. In 
comparison with other small Pacific Island nations, Fiji has a fairly 
diversified economy. It remains a developing country with a large 
subsistence agriculture sector, and Fiji is rich in natural resources 
including gold, timber, and marine fisheries. For many years, sugar and 
textile exports drove Fiji's economy. However, neither industry is 
currently competing effectively in globalized markets. Additionally, 
remittances from Fijians working abroad, and a growing tourist 
industry--with 400,000 to 500,000 tourists annually--are the major 
sources of foreign exchange. However, Fiji's tourism industry as well 
remains damaged by the coup and continues to face an uncertain recovery 
time.
    In December 2006, the Fijian military, led by Commodore Voreqe 
(Frank) Bainimarama, overthrew the country's lawfully elected 
government creating a prolonged political and economic crisis in Fiji. 
Fiji's coup leaders have not taken any credible steps to restore 
democratic institutions. The public emergency regulations remain in 
place; the press remains heavily censored and the right to assembly is 
severely restricted. The United States has consistently advocated for 
the Fijian regime to take steps to return democracy to the Fijian 
people by holding free and fair elections and an end to Fiji's Public 
Emergency Restrictions (PER). A promise to hold in 2009 did not 
materialize and the government has now said it will hold elections in 
2014.
     A key feature of our engagement with Fiji is close consultation 
and coordination with Australia, New Zealand, and other regional 
players. We seek more direct engagement with Fiji's Government and 
encourage it to take the necessary steps to restore democracy and 
freedom. By taking credible steps toward an increased civilian role in 
government, lifting of the PERs and other democratic reforms, Fiji can 
work toward reintegrating into international institutions and restoring 
its former international role. Assistant Secretary Campbell is in the 
region now continuing our engagement with our friends in the Pacific; 
and if confirmed, I will do the same. Also, we look forward to 
discussing Fiji at the upcoming September Pacific Island Forum Leaders 
meeting in Auckland.
    Following the 2006 coup, the United States suspended military and 
other assistance to Fiji under section 7008 of the Foreign Operations 
Appropriations Act. This suspension applies to foreign military 
financing, International Military Education and Training grants, 
peacekeeping operations, and military aid that falls under section 1206 
of the of the 2006 Defense Authorization law. The United States will 
maintain these sanctions on Fiji until a return to civilian government, 
signaled by a transparent, inclusive, open-ended process including all 
elements of Fijian society. U.S. foreign assistance to Fiji has been 
suspended due to the coup. If it resumes due to a return to a 
democratically elected government, assistance will remain focused on 
security for Fiji.
    On occasion the United States cooperates with civilian police 
authorities and, if confirmed, I will continue to work with the Fijian 
Government on law enforcement training with police and port security 
officials. The United States also plans to provide substantive 
technical assistance toward an elections process once Fiji's Public 
Emergency Restrictions are lifted and credible democratization 
timetables are implemented. Fiji's Strategic Framework for Change 
envisions a timeline for elections in 2014, but inclusive national 
dialogue and concrete steps to restore a democratic process should 
begin as early as possible. If confirmed, I am prepared to meet with 
all levels of government, civil society, and other regional partners, 
to push for early elections and restoring democracy in Fiji.
    Pacific Island nations face many of the same global issues that 
other countries face, but in this particular region, the repercussions 
can be more acute. These countries, many of them low-lying atolls, will 
be the first to experience the effects of climate change and 
environmental degradation. Tuvalu, one of the world's smallest nations, 
has nine atolls only a few feet above sea level. Nauru's once bountiful 
phosphate mines are almost exhausted. HIV/AIDS, drug smuggling, and 
human trafficking are also growing concerns. The problem of overfishing 
and threatened marine resources, another global problem, hits hard in 
the Pacific, since Island states are dependent upon fish stocks not 
only for the sustenance of their people, but also as a major source of 
government revenue. Non communicable diseases like diabetes and heart 
disease among the Pacific Island population are also an area of 
increasing concern. Kiribati participates in regular consultations 
based on our 1979 Treaty of Friendship.
    The challenges are many, but these small states are open to working 
with us, and we have learned that focused, timely engagement can have a 
large impact. If confirmed, I will work with all members of the U.S. 
Government and private sectors, as well as regional partners like 
Australia and New Zealand to try to address these pressing issues. 
Historically, Pacific Island nations have been our friends but others 
are increasing their profile in this strategic region, and we want to 
ensure that nothing gets in the way of our close mutually supportive 
cooperation.
    Despite these challenges at home, these Pacific Islands are our 
partners in fostering both regional and global stability. In the recent 
November 2010 elections, Tonga has shown its commitment to the region 
in being consistent in its vision toward democratization in that 
country. Tonga and Tuvalu were early members of the coalition in Iraq. 
Tongan troops are currently serving in Afghanistan. Fiji contributes 
approximately 600 soldiers toward peacekeeping operations in Iraq, the 
Middle East, Sudan, and Liberia.
    Fiji, Kiribati, Nauru, Tonga, and Tuvalu occupy a strategically 
important portion of the Pacific. They are our partners in addressing 
critical global and regional issues. If confirmed, I will do my best to 
continue to strengthen relations between the United States and each of 
these five countries. Working together, we can achieve our common goals 
for a stable, peaceful and prosperous region.

    Senator Webb. Thank you very much.
    And I should point out that your full statements, if they 
vary at all from what you said, will be entered into the record 
at the conclusion of your oral statements. Also that there may 
be other members of the committee who have questions, and the 
record will be held open until tomorrow evening, in case they 
would like to submit those questions in writing and have them 
included as part of the record.
    Let me start, Mr. Mitchell, with some questions for you.
    First a technical one: Have you been informed as to how 
your position is going to fit into the hierarchy of the State 
Department? Who's going to be the lead person for policy toward 
Burma? And how are you going to fit into that?
    Mr. Mitchell. Well, it is the first time someone will have 
this position, so it will need to be worked out over time and 
in practice.
    I have been told that I will take a lead role on Burma 
policy but, obviously, in consultation with East Asia-Pacific 
office there, with Kurt Campbell, with Joe Yun, and obviously 
in close consultation with the Secretary. But I've been told 
that I'll be taking a leading role in consultation, in essence.
    Senator Webb. We haven't had an ambassador to Burma since 
1990, how do you feel about this in terms of affecting your 
ability to engage the Government and the diplomatic 
representatives of other countries in Burma?
    Mr. Mitchell. I think we can engage effectively. This has 
been a longstanding issue. We haven't had an ambassador for a 
couple decades now. But I think it's a matter of what we say 
and how we say it, as well. We need to take this a step at a 
time.
    But I think we can engage effectively with the charge there 
and with my position and other channels.
    Senator Webb. A key part of your role as defined by the 
JADE Act is to consult with regional partners and others to 
coordinate policy. What is your view of ASEAN's current policy 
toward Burma?
    Mr. Mitchell. Well, ASEAN has traditionally taken a 
different approach. They have their ASEAN way of 
noninterference and very strict notions of sovereignty and 
such.
    Things are changing. Things are evolving within ASEAN. 
There are some key members, including Indonesia, that have made 
the transition from a Burma-like system to a democracy.
    So things are shifting there. They want to hold together, 
though, so there is a kind of consensus approach that limits 
the ability to take a more hard-line toward Burma.
    They have sought engagement. They've pursued the 
constructive engagement approach for some time. I think they 
realize, as we have, as I said in my statement, that pure 
engagement, pure pressure is not necessarily getting the 
results we want.
    And a key aspect of my job, a central aspect of my job, is 
going to be coordinating with ASEAN, coordinating with ASEAN 
nations to find a coordinated approach that gets us further 
down to where we both want to be.
    Senator Webb. As you know, there is some serious discussion 
that Burma may chair ASEAN in 2014 and that this prospect could 
actually incentivize the Government toward more rapid change. 
What is your view or has the State Department taken a view on 
this as of yet?
    Mr. Mitchell. I don't think the State Department has taken 
a view. This is for the ASEANs to determine themselves.
    But I'm sure there's diplomatic outreach to ASEAN talking 
about this issue, but I can't comment about where they stand on 
that.
    Senator Webb. What are your thoughts about that prospect?
    Mr. Mitchell. About chairing ASEAN? I think, frankly, where 
Burma is today--I mean, ASEAN recognizes that Burma is an 
outlier, that Burma is somewhat of an embarrassment to the 
organization, that it is not moving in the direction that they 
want it to, even with the so-called elections and such that 
have happened late last year and the government now in 
Naypyidaw.
    So I think they're wondering, they're debating themselves, 
whether this is the right time and whether Burma itself needs 
to prove that it deserves that kind of position within ASEAN, 
to be basically the face of ASEAN for a year. That's pretty 
substantial.
    I mean, Burma has some work to do in order to make ASEAN 
nations comfortable with that, and the rest of the 
international community, I should say.
    Senator Webb. You mentioned something a minute ago about 
Indonesia having evolved from a military system. Vietnam and 
China have never held democratic elections, yet have opened up 
their economies to the outside world, have spurred regional 
economic development, and have transformed their domestic 
societies a great deal through that process, which is obviously 
not perfect.
    But Indonesia was a system viewed as corrupt and controlled 
by the military. But over the course of decades, it's evolved 
into a fairly successful democracy and a leader in Southeast 
Asia.
    What type of model do you see for Burma's political and 
economic transition?
    Mr. Mitchell. Well, every country has its own model. 
There's no perfect cookie-cutter approach for countries. Burma 
will have its own path to development and progress.
    Indonesia I think clearly provides a very, very useful 
model. They used to actually want to model themselves after 
Indonesia, before Indonesia changed. I would hope they would 
continue that talking point today, given how Indonesia has 
changed from being a military-dominated society to a democracy 
that is more stable than not and developing.
    Burma hasn't made the choice that China and Vietnam have in 
terms of opening up, and economic reform and such. So I think 
they're very different situations, but we'll see how Burma 
proceeds.
    Senator Webb. Well, wouldn't you agree that one of the 
reasons that Burma hasn't made that choice is that they've had 
sanctions on them, and once sanctions were lifted--for 
instance, in Vietnam, once the trade embargo was lifted in 
1994, it enabled a different type of interaction from the 
outside world, not only economic but on many different levels.
    Mr. Mitchell. I think Burma, traditionally, it's paranoia 
and it's xenophobia, and it's isolation. It's isolated itself 
for many decades.
    And there's still that old thing there. There is a lot of 
concern about what this all will mean for the people in control 
of the system, including the economic system. They did that to 
themselves, and I think the sanctions were put in place in part 
because the sense was that the elites were doing well and the 
rest of the people were not. This was not a country that was 
seeking real change. It was maybe only enough change to benefit 
the few.
    But we should watch how they develop. We should watch how 
they proceed and see if development can assist the people of 
Burma.
    Senator Webb. You would agree, would you not, that 
sanctions from the outside affect the ability of a country to 
evolve economically and in other ways? You can't just say that 
Burma did this to itself. I'm not defending the Burmese regime, 
but just the reality of how sanctions policies work.
    Mr. Mitchell. Sanctions certainly does affect our business 
investment and trade. There's no question about that.
    But I think, fundamentally, the problem is not sanctions, 
when it comes to their economic development or where they are 
economically. I think, fundamentally, they have to make 
decisions about how they want to order their system in a way 
that really benefits the people of Burma.
    Senator Webb. Well, at a time when we have had these 
sanctions in place, Beijing has made well more than $5 billion 
in direct investment without asking for any sort of political 
change inside the country.
    And I know from personal experiences of American businesses 
that were in Burma that had to leave once the sanctions were 
put into place. And the comment at the time, this was 2001, was 
that we were going to cut off our ability to help effect change 
inside the country.
    So wouldn't you agree that a two-step approach, similar to 
what we have in place but taking advantage of signals from this 
newly formed government, would possibly include lowering 
sanctions?
    Mr. Mitchell. Well, as I said in my testimony, as well, I 
think we do need to be flexible. We need to evolve according to 
conditions on the ground, if we see things are fundamentally 
changing.
    I mean, I don't think there's an ideology of sanctions--it 
is the law, of course. I'm going to fulfill the law and it's up 
to Congress to lift these restrictions. It won't be up to me, 
necessarily.
    But clearly, we need to watch what's going on there, and if 
we do find, as in our humanitarian assistance, that we are able 
to get in and help the people of Burma, truly help the people 
of Burma through our engagement in that way, then we ought to 
be considering that.
    But right now, we're not necessarily seeing those signals, 
and I don't think we're seeing the change from the Burmese 
Government that makes that productive.
    Senator Webb. I hope you get your feet on the ground over 
there and maybe you can come back and have another discussion 
about what the signals are. Thant Myint-U, who I think is one 
of the most thoughtful and balanced observers of what's going 
on in Burma, is saying pretty strongly that there's a window 
here that could be taken advantage of, for the benefit of the 
United States position in that part of the world and also for 
the ability of the people inside the country to be able to 
reconnect with the international community.
    And so, let's see if we can't get a really clear look at 
the signals that are being given off. And again, one of his 
comments to me was that this was a window. If we don't take 
advantage of it, it could very well go back the other way, and 
we certainly wouldn't want to see that.
    Mr. Mitchell. I should say, Mr. Chairman, he's a friend of 
mine. I've talked to him several times about this, and I've 
heard the same from him. And I certainly will keep my eyes and 
ears open. I'm not coming in with any preconceived notions in 
that regard.
    Senator Webb. You wrote an article in Foreign Affairs in 
2007. One of the quotes was, ``All parties have good reasons to 
make concessions. None of them can afford to watch Burma 
descend further into isolation and desperation and wait to act 
until another generation of its people is lost.''
    What are your thoughts about that now?
    Mr. Mitchell. I continue to believe that. That's why this 
position is meant to go out and coordinate and discuss with 
other partners around the world, with ASEAN, with India, with 
China, with Europe, and Japan, Korea, and others, about how we 
get a coordinated approach, where strict sanctions or strict 
engagement, which hasn't worked uncoordinated--maybe I think we 
can find ways that we can come together on a more coherent 
approach, even if we have different impulses.
    Senator Webb. Thank you.
    Ms. Reed, I'd say, listening to the Congressman's 
introduction, and talking about this part of the world, I've 
had the pleasure of, I'd guess I would say bouncing around 
Pacific Asia over the years and wearing different hats. I 
worked in Guam and Micronesia, at one point, as a military 
planner. I was out in different spots as a journalist. Also had 
the very emotional opportunity to visit Kiribati and the 
Solomon Islands when I was Secretary of the Navy. And Kiribati, 
as you know, was the site of one of the bloodiest battles in 
Marine Corps history, the Battle of Tarawa.
    It was an incredible experience to stand on that narrow 
beach and look out at the amphibious vehicles that were still 
in the water, and think about all the sacrifices that went on 
in that remote place.
    And so there are some of us up here who actually have, at 
some level, been involved in those issues. I worked pretty hard 
on this Trust Territory of the Pacific transition into the 
political divisions that are now Micronesia.
    I wish you the best, and the one thing I think about when I 
am in that part of the world or remembering it, I was back in 
Guam and Tinian just a couple months ago, is what the 
Australians call the tyranny of distance.
    And of course, I'd be interested in your thoughts in terms 
of challenges of your position, with the remote locations of 
these different countries that you're going to represent, 
represent us to.
    Ms. Reed. Thank you, Mr. Chairman. And I appreciate your 
comments, particularly I had the opportunity to listen to some 
of your discussion on Federated States of Micronesia a little 
over a year ago, when we were here for a confirmation hearing 
for our Ambassadors to Australia, New Zealand, and the 
Federated States of Micronesia.
    As we are speaking, we have a group led by the Assistant 
Secretary. This is an interagency group with Admiral Walsh. 
They are visiting nine islands in the Pacific and just left 
Kiribati and are participating in memorial ceremonies also at 
each of the stops. I believe they are just leaving Tonga, also, 
now.
    But the tyranny of distance is exactly that. I just came 
back from Papua New Guinea, where we were launching a women's 
conference, Pacific women leaders. And having missed all of the 
connections, it was about 29 hours. And that is the challenge.
    I think what is important, in terms of U.S. engagement, is 
an understanding of the economics of that engagement and why it 
does necessarily cost more in terms of time and people power to 
undertake this.
    It's also important in understanding what the economies of 
these island states are like and why it may take a bit more in 
terms of generating strong economies.
    But certainly, not only the historical connection, in terms 
of regional security, the role that some of these island 
states, all of them, in supporting the United States and the 
United Nations, it's a very valuable investment.
    Senator Webb. We have a term in military planning called 
strategic denial. There are two different ways you look at 
territories. One is strategically where you need to be 
involved, and the other is strategically where you don't want 
somebody else to be, because it will affect your ability to do 
things. And the Pacific Ocean area, particularly Micronesia, 
but also Kiribati, these areas, have always been a concern to 
United States military planners, in terms of how other 
countries might operate in the region and affect our ability to 
communicate.
    What do you see as the involvement of other major nations 
in this region right now that we should look at, whether it's 
economic or otherwise, just involvement of larger countries in 
this region?
    Ms. Reed. I guess in formulating my answer to that, I was 
recently here with the Energy and Resources Committee 
discussing Palau and we talked about strategic denial. And 
while the impact of U.S. resources is probably, and I'm 
phrasing this carefully, a bit more apparent in the freely 
associated states, for historical reasons, and the compacts, of 
course, it is closely watched by those others.
    Again, another recent trip I made where one of the 
countries that does not have a compact said they wish they did, 
OK?
    I find in the Pacific, in particular in the small island 
states, because of the tyranny of distance, there's a lot of 
room for other powers to come in, if there's a void. And in my 
view, and having spent a lot of time out there--we lived in 
Samoa, Apia, Samoa, western, for 3.5 years, a lot of investment 
that has come in, in between that period of time, from other 
powers, and a lot of that, in my view, has to do with the 
absence--and when I say absence, the United States didn't leave 
the Pacific, but sometimes we are not as physically present as 
many of these countries would like.
    Senator Webb. I would strongly agree with your summation on 
that.
    And what is it, in the areas that you're going to 
represent, the most important for the United States Government 
to be doing?
    Ms. Reed. These five countries present an opportunity, an 
almost unique opportunity, in terms of the ability for the 
United States to make a big difference in support for 
democratic reform, not only in Fiji, but in the other four.
    Some of these systems have made great headway, Tonga, for 
example. But at the same time, it's an occasion to show our 
support through various support for civil society.
    Because of the distance, it's important to have a physical 
presence. Engagement means much more than being able to access 
electronic media, some of which is almost nonexistent in many 
of these places.
    When we talk about economic empowerment, this is a place 
where small investment can make a difference, support for 
small-business institutions, exactly what the U.S. Agency for 
International Development is so good at.
    The Peace Corps is very present in some of these countries 
but has withdrawn from three. And again, a missed opportunity. 
You have island leaders who still talk about their Peace Corps 
teachers from 30 years back. And it has one of the more 
successful re-upping rates; that is, Peace Corps Volunteers who 
decide to do a third year or fourth in these island states.
    And in terms of simply regional stability, I think U.S. 
presence, much of what the Pacific Command has been able to do 
out there, Pacific Partnership bringing medical clinics to the 
outer islands of many of these states, many people who have 
never had an opportunity to see a U.S. physician or nurse, 
setting up clinics.
    That just touches on it just briefly, but I think there's 
room for quite a bit.
    Senator Webb. Thank you.
    Mr. Mitchell, in several instances over the past year, the 
State Department has issued statements calling for Burma to 
fulfill its nonproliferation obligations, particularly with 
regard to North Korea.
    Last May, Assistant Secretary Campbell made the comment, 
``We have urged Burma's senior leadership to abide by its own 
commitment to fully comply with U.N. Security Council 
Resolution 1874. Recent developments call into question that 
commitment.''
    Do we have evidence that Burma is noncompliant with U.N. 
Security Council Resolution 1874?
    Mr. Mitchell. I can't comment on that, personally. I don't 
know if we have that.
    Senator Webb. As policy coordinator, what steps do you 
intend to take to examine Burma's military relationship with 
North Korea, in particular China's role as an enabler in terms 
of a point of transshipment in this relationship?
    Mr. Mitchell. This is an absolutely critical issue. This is 
a core concern of ours, because there are reports and there 
seems to be some evidence of this relationship at a number of 
levels between North Korea and Burma. And it's one reason for 
engagement, is to be very frank and up front face to face, and 
tell them what's at stake if we get evidence that there is this 
relationship and they're violating U.N. Security Council 
resolutions. It will have substantial impact on any possibility 
of a betterment of certainly our bilateral relationship and 
their relations with the outside world.
    Senator Webb. There's a recent news report regarding 
possible shipments from North Korea to Burma. And Gary Samore, 
Special Assistant to the President, stated in the Wall Street 
Journal that Burma was among the countries that agreed to apply 
pressure on North Korea, and that contrary to initial press 
reports implying the ship was bound for Burma, the final 
destination of the North Korean ship was not known. This was 
the Wall Street Journal report of a comment by the Special 
Assistant to the President.
    What is your view of this? Is this a positive development? 
Do you think it portends anything for future cooperation on 
nonproliferation?
    Mr. Mitchell. Well, I'd have to defer. I don't know about 
that report. I can't substantiate it. I don't know anything 
about that, so I'd refer to the State Department and the White 
House on that. But if there is evidence, then----
    Senator Webb. If it were correct, you would view that as a 
positive development?
    Mr. Mitchell. If correct, obviously very positive.
    Senator Webb. OK.
    As I said, any questions for the record from other members 
of the committee can be submitted until close of business 
tomorrow.
    I thank both of you for your testimony today and for your 
willingness to continue serving our country and for this very 
useful exchange.
    This hearing is now closed.
    [Whereupon, at 11 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Derek Mitchell to Questions Submitted by
                         Senator John F. Kerry

    Question. You made clear in your prepared remarks that the Obama 
administration policy you will pursue, if confirmed, is based on a more 
flexible approach that integrates sanctions and engagement to achieve 
results in Burma. This ``dual-track'' policy, as you noted, is 
reflective of President Barack Obama's broader call for ``principled 
engagement'' with countries worldwide. Thus far, the administration's 
engagement with Burma has yielded only modest results, as U.S. 
officials themselves point out. But it was also understood that this 
process would require some time and patience. While U.S. policy has 
evolved, the goal of a more open, democratic, peaceful, and prosperous 
Burma remains much the same. How will you approach the Burmese 
Government to advance these principles, and what will be your message 
to senior Burmese officials when you first arrive in Naypyidaw?

    Answer. If confirmed, I will engage in a direct dialogue with 
senior Burmese officials in Nay Pyi Taw--as well as a full range of 
other leading players in the country--to listen to their perspective on 
the future direction of Burma, plans for democratic change, national 
reconciliation, economic reform, and protection of human rights, and 
frankly relay the perspectives and principles of the U.S. Government as 
they will affect our Burma policy going forward. My message to the 
Government and people of Burma will be that the United States harbors 
no animosity toward Burma but rather is committed to advancing Burma's 
own stated goal to become an open, just, democratic, and prosperous 
nation that adheres to international laws and principles, and serves as 
a responsible and respected member of the international community.

    Question. Following last November's highly controversial elections, 
Burma's first Parliament in over 20 years completed its inaugural 
session from January to March 2011. Notwithstanding the fact that it is 
early and you have not had a chance to have first-hand conversations 
with relevant actors on the ground, what are your initial observations 
about how that institution is functioning? If confirmed, what 
principles would inform your consultations with opposition leaders, and 
based on those principles, with whom in the opposition would you most 
likely consult in addition to Daw Aung San Suu Kyi?

    Answer. I was disappointed by media reports that noted Burma's 
parliamentary sessions were short and scripted and that members had to 
submit questions in advance. A true democratic legislature should serve 
as a forum for genuine debate and a check on executive branch power.
    If confirmed, my consultations with opposition leaders would affirm 
these principles while ensuring that I consult with a full range of 
stakeholders, including civil society leaders, ethnic minority 
representatives, and political parties, in addition to Aung San Suu Kyi 
and the National League for Democracy and other groups, to enable me to 
understand the full range of thinking about Burma's future.

    Question. Allegations have recently resurfaced that the Tatmadaw is 
seeking to obtain assistance from North Korea to develop nuclear 
weapons and missile technology. How do you view such claims and, more 
generally, the political-military relationship between Burma and North 
Korea? What might be motivating any Burmese efforts to acquire 
sensitive technologies from overseas?

    Answer. I am troubled by reports of military-to-military ties 
between Burma and North Korea. If confirmed, I will monitor closely any 
reports or questions about illicit North Korea-Burma interaction and 
consult with the committee on any findings in an appropriate classified 
venue.
    I will also raise our concerns about these reports in Nay Pyi Taw 
and urge the Burmese to be transparent in any dealings they have with 
North Korea and to comply with their international obligations, 
including full and transparent implementation of U.N. Security Council 
Resolutions 1718 and 1874.

    Question. Burma's Ministry of National Planning Development reports 
Burma received $20 billion in inward foreign direct investment (FDI) in 
the fiscal year ending March 11, compared to $302 million in fiscal 
year 2010. The claim, if reasonably accurate, would seem to point to 
the challenges of coordinating international efforts to apply pressure 
on Burma. If confirmed, how would you try to address the growing 
importance that Burma's neighbors seem to be placing on the country as 
an investment destination?

    Answer. Burma is a country that is rich in natural resources, and I 
have seen reports that investment in the country is increasing, 
particularly in extractive industries. If confirmed, I will engage 
interested nations about the full range of interests and equities we 
share in genuine political and economic reform Burma, and our potential 
role in promoting that reform through coordinated and principled 
engagement. In addition, I would call upon the governments of Burma's 
neighboring countries to urge Burmese authorities to comply with 
international environmental, labor, and human rights norms.

    Question. One of the responsibilities of the Special Representative 
is to consult with regional and international organizations and other 
countries to coordinate policies toward Burma. As you know, Burma is 
scheduled to chair ASEAN in 2014. Understanding that ASEAN's membership 
must ultimately reach their own decisions, how will you coordinate with 
them to leverage the ASEAN chairmanship to achieve improvement on human 
rights and more responsive governance?

    Answer. If confirmed, I will coordinate and consult closely with 
ASEAN members individually and as an institution to encourage 
consideration of Burma's potential chairmanship in a manner consistent 
with ASEAN's own interests and reputation, and the ideals of ASEAN's 
own charter with respect to democratic principles, good governance, and 
respect for human rights. I believe the countries of ASEAN will have an 
essential role to play in assisting movement toward reform in Burma.

    Question. If recent high-profile visits are instructive, China 
continues to exert considerable political and economic influence over 
Burma. China's ongoing practice is to shield Burma from criticism over 
its human rights record in global fora and to thwart international 
efforts to apply pressure on the Burmese Government that are intended 
to produce improvements in human rights and good governance. If 
confirmed, how would you approach China to coordinate our activities in 
ways that produce positive changes in Burma? Are there particular 
areas, for example, that you view as potentially ripe for cooperation 
with China?

    Answer. If confirmed, I will pursue dialogue with Chinese officials 
to identify areas of shared concern and potential cooperation, and 
encourage China to consult not only with officials in Nay Pyi Taw but 
with a wide array of stakeholders. China's interest in stability on its 
borders provides an incentive for a common approach that encourages 
national reconciliation through dialogue with, rather than violence 
against, Burma's ethnic minorities. Likewise, China should understand 
that only through real political and economic reform will Burma achieve 
true stability, which in turn serves China's interests in the region.

    Question. In recent years, India has shifted its approach on Burma 
to put a much greater emphasis on engagement with the Burmese 
Government. In New Delhi's view, a policy focused principally on 
engagement is more consistent with India's interests. Are there ways in 
which we can encourage India to conduct its engagement going forward so 
that it benefits a more diverse set of stakeholders in Burma and better 
prepares Burma for a transition to a more open, inclusive, and 
responsive political and economic order?

    Answer. India could play a unique role in promoting genuine 
democratic reform in Burma, particularly as the largest democracy in 
the world and key regional player, but also due to close historical 
ties with Burma and a shared background as a former British colony. 
India's free press, flourishing civil society, and ethnic diversity 
offer a useful example for Burma's future. India has a wide range of 
national interests in Burma that affect its calculations in dealing 
with the country. I am convinced, however, that India and the United 
States have a mutual interest in national reconciliation, reform, and 
true stability in Burma based on democratic principles. If confirmed, I 
will consider it an important part of my job to engage India to 
determine how we can leverage our respective strengths and interests 
toward a coordinated international approach to Burma that achieves our 
common goals, promotes reform, and benefits the people of Burma.
                                 ______
                                 

         Responses of Derek Mitchell to Questions Submitted by
                        Senator Richard G. Lugar

    Question. The Governments of Thailand and Burma have a reciprocity 
agreement to return military personnel of the other country who have 
fled their country of origin. During the last 4 years, over 100 Burmese 
military personnel who fled to Thailand were reportedly returned to 
Burma. Some of these individuals were hoping to defect to the United 
States. Will you work within the Obama administration to develop a 
strategy for approaching Thailand officials to reconsider the policy of 
returning fleeing military personnel from Burma, especially those who 
desire relocating to the United States?

    Answer. If confirmed, I will consult closely with administration 
officials as well as Thai Government officials to help ensure 
appropriate protection for all Burmese fleeing the country, including 
former members of the military. We need to continue to emphasize to 
Thai authorities that any return of Burmese nationals to Burma be 
voluntary and in line with international norms. We will continue to 
work closely with UNHCR to assist Burmese refugees needing protection 
and durable solutions to their refugee circumstances, including through 
resettlement in the United States.

    Question. Why have economic sanctions targeting Burma's junta not 
been fully implemented by the U.S. Government? For example, the U.S. 
Treasury Department has not terminated correspondent relationships 
between overseas financial institutions holding assets of key junta 
officials and U.S. financial institutions, as allowed under present 
U.S. law. When asked about this, Treasury officials advised that such 
action would require the approval of the Department of State, and was 
unlikely to be received.

    Answer. Our sanctions against Burma are comprehensive and target 
senior government officials and their cronies, among others. As 
warranted by conditions on the ground and new information, our ability 
to tighten sanctions is an extremely important lever of pressure on the 
regime. We appreciate the authorities Congress has provided through the 
JADE Act.
    If confirmed, I intend to thoroughly review implementation of all 
existing sanctions, including those authorized and imposed under the 
JADE Act, to ensure that our sanctions regime complies with the law and 
is implemented as effectively as possible.

    Question. In 2009, a Burmese military official seeking to defect to 
the United States was turned away at the American Embassy in Bangkok. 
What are the instructions provided to U.S. embassies on how to respond 
to persons from Burma seeking asylum?

    Answer. The Department issues annual guidance to all embassies on 
procedures for handling foreign national walk-ins. We have confirmed 
that our embassies in the region follow these procedures for any 
Burmese military personnel who may approach the embassy. Embassies are 
instructed to coordinate with UNHCR regarding persons seeking asylum. 
We will continue to monitor these types of situations closely and 
coordinate with the appropriate entities to respond to the needs of any 
Burmese asylum seekers, including military personnel, who may approach 
an embassy in the region.

    Question. Please provide the dates and details of communications 
since 2008 inclusive, when U.S. officials based in the U.S. Embassy in 
Rangoon approached Burmese officials asking that officials of the 
International Red Cross be allowed to visit with imprisoned political 
prisoners?

    Answer. At every opportunity, we call on the Government of Burma to 
release all political prisoners immediately and unconditionally. We are 
concerned by the International Committee of the Red Cross' lack of 
access to prisons in Burma. I am unable to address the specifics of 
this question at this time. However, if confirmed, I will do all I can 
to facilitate this inquiry and provide information through a classified 
briefing if you are still seeking this information at that time.

    Question. What steps have been taken by the U.S. Government to 
encourage countries neighboring Burma to accommodate child soldiers 
seeking to escape from their forced service in Burma's military?

    Answer. We consistently call on Burma's neighboring countries to 
provide safety and protection to all Burmese fleeing the country, 
including children seeking to escape involvement in military 
activities. We work with the international community, including at the 
United Nations, to continue to shed light on the deplorable human 
rights situation in Burma and to urge the Government of Burma to cease 
this practice and respect basic human rights of all its citizens. 
Together with the international community, we are urging the government 
to grant the United Nations access to areas where children are 
recruited.

    Question. If confirmed, will you support Secretary Clinton's call 
for a Commission on Inquiry related to Burma?

    Answer. If confirmed, I will fully support Secretary Clinton's 
commitment to seek accountability for the human rights violations that 
have occurred in Burma by working to establish an international 
Commission of Inquiry through close consultations with our friends, 
allies, and other partners at the United Nations.

    Question. In addition to the export of missiles to Burma from North 
Korea, are North Koreans assisting with the manufacture of missiles 
inside Burma?

    Answer. I would refer you to the intelligence community for an 
answer to this question. If confirmed, I will monitor closely any 
reports or questions about illicit North Korea-Burma interaction and 
consult with the committee on any findings in an appropriate classified 
venue.

    Question. What are the projected annual numbers of MANPADS exported 
to Burma from North Korea and what are the projected numbers of MANPADS 
reportedly manufactured inside Burma on an annual basis?

    Answer. I am unable to provide answers to these questions at this 
time and would refer you to the intelligence community. If confirmed, I 
will do all I can to facilitate this inquiry and provide answers to the 
committee through a classified briefing, if you are still seeking this 
information at that time.

    Question. What is the status of the nuclear reactor reportedly 
under construction in Pakokku Township, Magway Division, Burma? How 
many North Koreans are estimated to be working at this facility?

    Answer. I am unable to provide answers to these questions at this 
time and would refer you to the intelligence community. If confirmed, I 
will do all I can to monitor reports of questionable Burmese activities 
and ensure the committee receives answers to its questions on this 
account in the appropriate classified venue.

    Question. Is the reported collaboration between Burmese and North 
Korean officials in Pyin Oo Lwin connected to Burma's efforts to 
develop a nuclear weapons program?

    Answer. I would refer you to the intelligence community for an 
answer to this question. I can say, however, that if confirmed I will 
monitor closely any reports of collaboration between Burma and North 
Korea, including but not limited to those that may violate U.N. 
Security Council resolutions, and will consult with the committee on 
this matter in the appropriate classified venue.
                                 ______
                                 

          Responses of Frankie Reed to Questions Submitted by
                        Senator Richard G. Lugar

    Question. Please describe the objectives and efforts of U.S. IMET 
programs in the Pacific, particularly in countries that do not have 
their own defense forces.

    Answer. IMET is an important component of the administration's 
broader commitment to strengthen our engagement with the Pacific region 
at a time when other countries are intensifying their interactions with 
the Pacific Islands. Modest U.S. security assistance to the Pacific 
Islands provides local security personnel the necessary technical 
training to enhance their maritime security capabilities while 
improving their professionalism. The links we develop between our 
respective security forces have an important people-to-people component 
that help us maintain close relations across the generations and at all 
levels of society.
    In particular, Tonga, despite its small size and isolated 
geography, has been a valuable and regular contributor to U.S. and 
international security--with deployments to Iraq, Afghanistan, and the 
Solomon Islands. Nauru and Kiribati also support the Regional 
Assistance Mission to the Solomon Islands.

    Question. What is the nature of the relationship between U.S. 
officials in Fiji and Commodore Bainimarama? Please provide the 
committee with a copy of his biography.

    Answer. The U.S. Ambassador has had over the past 3 years a cordial 
but distant working relationship with Commodore Bainimarama. Commodore 
Bainimarama has not always accepted the Ambassador's requests for 
meetings and one-on-one meetings between the two have been limited. 
Bainimarama has not welcomed the Ambassadors's overtures to discuss 
specific ways that the United States could help Fiji return to civilian 
government and democracy. However, the Ambassador and Embassy officials 
have had an excellent working relationship with the Minister of Foreign 
Affairs and his staff. Embassy officials work with Fiji Government 
officials at all levels and on areas of mutual concern, particularly 
law enforcement cooperation, disaster response and votes in the United 
Nations.

    Question. During the last 2 years, what has been the nature of 
communication between U.S. and Chinese officials in Fiji?

    Answer. Embassy officials have a friendly and constructive 
relationship. Embassy officials periodically meet to discuss possible 
mutual cooperation on development and humanitarian assistance as well 
as consular affairs to ensure better disaster preparedness for overseas 
American citizens and Chinese citizens.

    Question. Please outline in detail, the U.S. export strategy for 
the Republic of the Fiji Islands and the other areas where you will 
represent the United States.

    Answer. The Embassy seeks to use the National Export Initiative as 
a mechanism to increase exports from the United States to the region. 
Pacific Island countries would benefit from using U.S.-generated 
bioengineered agricultural products and techniques to increase food 
production. Exporting green technologies, particularly to reduce the 
burden of high fossil fuel costs, also would expand U.S. markets. 
Favorable exchange rates currently provide opportunities to export 
poultry, meat, and vegetables. The establishment of a Web-based 
American-Pacific Chamber of Commerce would strengthen trade ties and 
bolster economic activity. In addition, labor mobility strategies for 
Pacific Island countries largely dependent on wage remittances would 
greatly enhance their purchasing power.

    Question. Please outline and compare U.S. and Chinese foreign 
assistance to the Republic of Fiji.

    Answer. The United States does not provide traditional foreign 
assistance to Fiji. On occasion, our efforts focus on capacity-
building, training, and technical assistance, particularly in law 
enforcement, disaster management, and leadership training for 
civilians. China still supports significant ``brick and mortar' 
projects, such as roads, housing, and other facilities, using Chinese 
companies. Both countries allow for small numbers of Fijian students to 
attend colleges and universities in their respective countries.
                                 ______
                                 

     Prepared Statement of Derek Mitchell to Questions Submitted by
                        Senator James M. Inhofe

                  reporting lines and staffing pattern
    In order for this position to be effective, the Special 
Representative and Policy Coordinator will need to be able to work 
across bureaus at State and across agencies, particularly with regard 
to the policy coordination mandate of the position. As the person in 
this position will be working on such complex interbureau and 
interagency efforts as the Commission of Inquiry, the disposition of 
banking and other targeted sanctions, and questions of aid and 
investment policy, it is important that they have the imprimatur of a 
direct reporting line to the Secretary of State and the interagency 
convening authority that comes with it. At the same time it is 
important to understand where the Special Representative/Coordinator 
will fit within the existing hierarchy and policy processes dealing 
with Burma, and what mechanisms will be put in place to ensure that the 
Special Representative's role is integrated effectively into those 
processes.

    Question. Would you please provide all information regarding the 
expected reporting lines for the Special Representative and the 
Department's justification for its proposed arrangement; and additional 
information on the proposed reporting lines between the Special 
Representative and the EAP front and Burma offices, Embassy Rangoon, 
and other relevant officers?

    Answer. We expect that the Special Representative and Policy 
Coordinator for Burma will report to East Asia and Pacific Affairs 
Assistant Secretary Kurt Campbell and through him to the Secretary of 
State. The Department believes this reporting line will ensure that U.S 
Burma policy is integrated with our overarching policy in Southeast 
Asia and East Asia more broadly. The Special Representative will 
consult closely with our Embassy in Rangoon and all offices in the 
Department that have equities in Burma, as well as across the 
interagency, to ensure that our policy on Burma is comprehensive and 
coordinated.

    Question. Would you please provide the committee with additional 
information regarding the proposed staffing pattern for the office, 
including the anticipated number and type of staff that the Special 
Representative's office will be allocated to carry out its work?

    Answer. The Special Representative will be supported by a Special 
Assistant and an Office Management Specialist. As needed, the East 
Asian and Pacific Affairs Bureau will work to ensure that the Special 
Representative is adequately supported to ensure he can fulfill his 
mandate.
                     assistance policy and programs
    You noted that the U.S. Government has recently broadened the scope 
of its assistance programs inside Burma to assist directly the Burmese 
people through aid interventions. We are also seeing some other key 
donors moving to increase the nominal value of their aid programs in 
Burma and expand the types of activities in which they are engaged. 
Also, investment and aid from China in Burma varies widely. Some 
commentators have noted the deleterious effects of Chinese assistance 
to the Burmese Government as undermining the efforts of other donors to 
provide more responsible assistance.

    Question. Could you elaborate on the current U.S. Government policy 
on humanitarian and development assistance in Burma, including examples 
of the types of activities that we consider to be possible at this time 
as well as those areas that remain outside the scope of current policy?

    Answer. Current U.S. Government policy is to ensure all of our 
assistance programs are humanitarian or focused on democracy-building. 
Our assistance in Burma is designed to address the core problem of 
governance by empowering civil society to demand more responsive and 
democratic government, while also tackling the more immediate 
humanitarian issues that impede a democratic transition.
    Burma is the poorest country in Southeast Asia and approximately 
one-third of Burma's people live in poverty. Our humanitarian 
assistance inside Burma combats public health threats, helps meet basic 
needs of refugees and migrants along Burma's borders, and addresses 
critical transnational challenges including infectious disease. Our 
democracy-building activities aim to develop and empower Burma's 
fragile civil society through training, education, and other civic 
capacity-building programs. The U.S. Government provides all 
humanitarian, health, and democracy assistance to Burma through U.N. 
agencies, international nongovernmental organization partners and local 
civil society organizations.
    Any assistance activities that are outside of humanitarian or 
democracy assistance, flow through or to the Government of Burma at the 
national or local level, or support the Government of Burma are outside 
the scope of current policy. I believe that until we see evidence of 
genuine change inside Burma, we must continue to carry out our 
assistance programs independent of the government.

    Question. Could you detail how assistance programs inside Burma are 
related to longstanding U.S. programs to assist refugees and political 
activists working from exile to support political reform in Burma, as 
well as how changes in European policies and programs have impacted USG 
policy and funding decisions in this area?

    Answer. The overarching U.S. interest in Burma is a peaceful, 
prosperous, democratic country that respects human rights and the rule 
of law. Our assistance contributes to this objective by strengthening 
civil society; meeting the basic needs of the most vulnerable Burmese 
inside the country, along the Thai-Burma border, and elsewhere in the 
region; and addressing critical transnational issues. Assistance 
programs inside Burma complement ongoing programs to assist refugees 
and political activists working from exile to support political reform 
in Burma. To help meet the needs of people on both sides of the border, 
our assistance programs operate from both inside Burma and from the 
border regions.
    In FY 2010, we provided significant cross-border assistance, 
totaling $25.5 million for vulnerable Burmese along the Thai-Burma 
border and roughly 150,000 refugees residing in nine refugee camps in 
Thailand. In addition to humanitarian assistance programs inside Burma, 
democracy programs also operate from both sides of the border. Current 
programs inside Burma, for example, improve the operational ability of 
nascent civil society organizations, and provide grants for 
scholarships to Burmese citizens who return from overseas to provide 
social work within their communities. We have strict monitoring 
requirements in place to ensure none of our assistance flows to or 
through the government or military in any way and is delivered directly 
to the people of Burma.
    The European Union's continued support for humanitarian assistance 
in Burma and Thailand is welcomed. In March 2011, the EU Commissioner 
announced its commitment to provide 22.25 million Euros in support of 
vulnerable Burmese communities in Burma and Burmese refugees in 
Thailand. We coordinate closely with the EU and other donor governments 
to ensure that adequate funding is sustained in order to meet the 
humanitarian needs of vulnerable Burmese.

    Question. Would you please explain how you propose to engage both 
our fellow donors, multilateral aid agencies, and others like China on 
developing and implementing appropriate standards for assisting Burma? 
Is this an area where the United States can engage directly with the 
National League for Democracy and others outside the ruling party to 
effect better programs and outcomes?

    Answer. The U.S. Government has consistently sought to coordinate 
with and influence other countries and multilateral organizations on 
the provision of assistance to Burma. Our goal has been to ensure that 
any assistance, from U.S. taxpayer dollars or anoth sources, benefits 
the people of Burma and does not enrich the Government of Burma or its 
supporters. This engagement has taken place not only with partners such 
as Australia and the European Union, but also with countries and 
organizations such as China, Japan, Canada, the Republic of Korea, the 
Association of South East Asian Nations (ASEAN), and the U.N. and its 
agencies.
    In addition to advocating appropriate parameters for assistance 
programs with the international community, we have engaged with an 
array of civil society groups including the National League for 
Democracy (NLD) and its leader, Aung San Suu Kyi, to solicit their 
views on assistance and effective methods to promote democracy and the 
growth of civil society inside the country.
    Our engagement with the NLD and Aung San Suu Kyi and other 
nongovernment entities has taken place both through our Embassy in 
Rangoon as well as through senior-level visits and correspondence from 
Washington officials. If I am confirmed, I will ensure that we continue 
the provision of assistance with the same philosophy and goals and that 
we remain focused on the betterment of the Burmese people.


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 13, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Paul D. Wohlers, of Washington, to be Ambassador to the 
        Republic of Macedonia
William H. Moser, of North Carolina, to be Ambassador to the 
        Republic of Moldova
John A. Heffern, of Missouri, to be Ambassador to the Republic 
        of Armenia
Thomas M. Countryman, of Washington, to be Assistant Secretary 
        of State for International Security and Non-
        Proliferation
Jeffrey DeLaurentis, of New York, to be Alternate 
        Representative of the United States of America for 
        Special Political Affairs in the United Nations, with 
        the rank of Ambassador, and Alternate Representative of 
        the United States of America to the Sessions of the 
        General Assembly of the United Nations
                              ----------                              

    The committee met, pursuant to notice, at 3 p.m., in room 
SD-419, Dirksen Office Building, Hon. Jeanne Shaheen presiding.
    Present: Senators Shaheen, Menendez, Barrasso, and Risch.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good afternoon, everyone. We have a full 
house. I hope that means we have lots of relatives and it's not 
just because there's nothing else going on in the Senate this 
afternoon. Welcome to all of you.
    The Senate Foreign Relations Committee is here today to 
consider the nominations of: Paul Wohlers, to be Ambassador to 
the Republic of Macedonia; William Moser, to be Ambassador to 
the Republic of Moldova; John Heffern, to be Ambassador to the 
Republic of Armenia; Tom Countryman, to be Assistant Secretary 
of State for International Security and Non-Proliferation; and 
Jeffrey Delaurentis, to be Alternate Representative of the 
United States of America for Special Political Affairs in the 
United Nations, with the rank of Ambassador, and Alternate 
Representative of the United States of America to the Sessions 
of the General Assembly of the United Nations. I'm sure we have 
an acronym for that title. [Laughter.]
    We will do these nominations in two panels, and today we 
will examine a wide variety of posts and positions with 
responsibilities spanning regions and institutions across the 
globe. Each of them is important in strengthening U.S. 
influence and in safeguarding American interests. I want to 
congratulate each of you on your nominations and welcome you 
and your families and friends as we discuss the challenges and 
opportunities that you face should you be confirmed.
    In the interest of time, I'm going to submit my full 
statement for the record and point out that three of our 
nominees have been named for ambassadorial posts in important 
countries in the strategic regions of southern and Eastern 
Europe. Macedonia seeks full European integration, including by 
joining the EU and NATO. Its full integration can't be 
achieved, however, until the Macedonians and the Greeks resolve 
the lingering impasse over the country's name. Separately, 
Macedonia faced a parliamentary crisis earlier this year, due 
largely to complaints of media oppression.
    Moldova is Europe's poorest country, according to the World 
Bank. It faces low living standards and a weak economy, but has 
shown a real commitment to reform and expanding democratic 
values.
    We've maintained close ties with Armenia since the 
dissolution of the Soviet Union, due to Armenia's promotion of 
democratic principles. Unfortunately, the quality of recent 
elections and the failure to resolve the Nagorno-Karabakh issue 
have not been encouraging.
    Today we also examine the United States relationship with 
the United Nations. In particular, we will look at the role of 
the U.N.'s peace and security functions, including peacekeeping 
operations.
    Finally, the committee will examine the role the United 
States should be taking to prevent the proliferation of weapons 
of mass destruction, particularly nuclear weapons and 
materials. The proliferation of such weapons and materials 
threatens not only U.S. security, but global stability.
    I want to thank each of you for your willingness to take on 
these important and challenging posts, and I look forward to 
hearing your views.
    I want to take a moment to briefly introduce our first 
panel before turning it over to you for your opening 
statements, and I will also turn it over to Senator Barrasso to 
make a brief statement. But first up today is Paul Wohlers, the 
nominee to be Ambassador to Macedonia. Paul has a distinguished 
record in the Foreign Service, serving multiple tours in Europe 
and the Department's Executive Secretariat. He is a graduate of 
the Naval Academy and currently serves as the Deputy Executive 
Secretary at the State Department.
    Next is William Moser, who has been nominated to serve as 
Ambassador to Moldova. William is also a Foreign Service 
officer, having served in a wide range of management officer 
positions. He currently serves as the Department's Deputy 
Assistant Secretary for Logistics Management.
    Finally, we have John Heffern, nominated to be Ambassador 
to Armenia. A career member of the senior Foreign Service, John 
has a wide range of experiences, including extensive service in 
Asia and Europe. He additionally spent time on the Hill, first 
with Senator Danforth and later as a State Department Pearson 
Fellow. He currently serves as Deputy Chief of Mission at the 
U.S. mission to NATO.
    As each of you give your opening statements, I hope you'll 
feel free to introduce your family or any friends who are here 
to support you. Now I'd like to turn it over to Senator 
Barrasso before we ask the panel to begin.
    [The prepared statement of Senator Shaheen follows:]

               Opening Statement of Hon. Jeanne Shaheen,
                    U.S. Senator from New Hampshire

    The Senate Foreign Relations Committee is here today to consider 
the nominations of Paul D. Wohlers to be Ambassador to the Republic of 
Macedonia; William H. Moser to be Ambassador to the Republic of 
Moldova; John A. Heffern to be Ambassador to the Republic of Armenia; 
Thomas M. Countryman to be Assistant Secretary of State for 
International Security and Nonproliferation; and Jeffrey DeLaurentis to 
be Alternate Representative of the United States of America for Special 
Political Affairs in the United Nations, with the rank of Ambassador, 
and Alternate Representative of the United States of America to the 
Sessions of the General Assembly of the United Nations.
    Today, we will examine a wide variety of posts and positions with 
responsibilities spanning regions and institutions across the globe. 
Each of them is important in strengthening U.S. influence and in 
safeguarding American interests. I want to congratulate each of you on 
your nominations, and welcome you and your families as we discuss the 
challenges and opportunities that you may face should you be confirmed.
    Three of our nominees have been named for ambassadorial posts in 
important countries in the strategic regions of Southern and Eastern 
Europe. We will examine a wide range of issues regarding these 
countries today.
    Macedonia seeks full European integration, including by joining the 
European Union and NATO. Its full integration cannot be achieved, 
though, until the Macedonians and Greeks resolve the lingering impasse 
over the country's name. Separately, Macedonia faced a parliamentary 
crisis earlier this year, due largely to complaints of media 
oppression.
    Moldova is Europe's poorest country, according to the World Bank. 
It faces low living standards and a weak economy, but has shown a 
commitment to reform and extending democratic values. Moldova is taking 
significant steps to create a transparent legal system, to fight 
corruption, and to end human trafficking, but much work remains. 
Further, the unresolved status of Transnistria hinders Moldova's 
ability strengthen its institutions and economy.
    We have maintained close ties with Armenia since the dissolution of 
the Soviet Union, due to Armenia's promotion of democratic principles. 
Unfortunately, the quality of recent elections and failure to resolve 
the Nagorno-Karabakh issue have not been encouraging.
    Today, we also examine the United States relationship with the 
United Nations. In particular, we will look at the role of the U.N.'s 
peace and security functions, including peacekeeping operations. In 
recent years, numerous conflicts have led to an escalation in the use 
of U.N. peacekeepers. This expansion of operations has drawn attention 
to weaknesses and failures of the United Nations in these activities.
    Finally, the committee will examine the role the United States 
should be taking to prevent the proliferation of weapons of mass 
destruction, particularly nuclear weapons and materials. The 
proliferation of such weapons and materials threatens not only U.S. 
security, but global stability. We face a great number of challenges, 
including stopping illicit networks, countering North Korean and 
Iranian nuclear programs, and implementing existing nonproliferation 
regimes. Additionally, we must look at how nuclear energy programs are 
being implemented globally.
    I want to thank each of you for your willingness to take on these 
important and challenging posts, and look forward to hearing your 
views. I want to take a moment to briefly introduce our first panel 
before turning it over to you for your opening statements.
    First up today, is Paul Wohlers, the nominee to be the Ambassador 
to Macedonia. Paul has a distinguished record in the Foreign Service, 
serving multiple tours in Europe and the Department's Executive 
Secretariat. He is a graduate of the Naval Academy, and currently 
serves as the Deputy Executive Secretary at the State Department.
    Next, is William Moser, who has been nominated to serve as 
Ambassador to Moldova. William is also a Foreign Service officer, 
having served in wide range of Management Officer positions. He 
currently serves as the Department's Deputy Assistant Secretary for 
Logistics Management.
    Finally, we have John Heffern, nominated to be Ambassador to 
Armenia. A career member of the Senior Foreign Service, John has a wide 
range of experiences, including extensive service in Asia and Europe. 
He additionally spent time on the Hill, first with Senator Danforth, 
and later as a State Department Pearson Fellow. He currently serves as 
Deputy Chief of Mission at the U.S. Mission to NATO.
    As each of you give your opening statements, feel free to introduce 
any family or friends here to support you.
    First on our second panel is Thomas Countryman, who has been 
nominated to be the Assistant Secretary of State for International 
Security and Nonproliferation. Tom is a career member of the Senior 
Foreign Service, serving most recently as the Deputy Assistant 
Secretary of State for European and Eurasian Affairs, specifically 
focusing on Balkans issues. Tom has a great deal of experience working 
on International Security issues, previously serving in the Bureau of 
Political-Military Affairs, as Foreign Policy Advisor to the Commandant 
of the Marine Corps, and on the National Security Council Staff.
    Finally, we will consider the nomination of Jeffrey DeLaurentis to 
be Alternate Representative of the United States of America for Special 
Political Affairs in the United Nations, with the rank of Ambassador, 
and Alternate Representative of the United States of America to the 
Sessions of the General Assembly of the United Nations. As a Foreign 
Service Officer, Jeffrey has served in a number of positions in the 
State Department, especially focused on Western Hemisphere and United 
Nations issues. He currently serves as Deputy Assistant Secretary for 
South America
    As each of you give your opening statements, feel free to introduce 
any family or friends here to support you.

                STATEMENT OF HON. JOHN BARRASSO,
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Madam 
Chairman. I just want to join you in congratulating each of the 
nominees who are here today as the Senate Committee on Foreign 
Relations meets to consider these very important nominations. 
Each post is important to fostering vital relationships, 
addressing important problems, and securing United States 
national interests.
    So I also want to extend a warm welcome to all the friends 
and the family who are with you and I look forward to them, as 
you had suggested, introducing the family and friends that are 
here. So with that, thank you very much, Madam Chairman, and it 
is indeed a warm welcome to each of these nominees. [Laughter.]
    Senator Shaheen. You can't really appreciate how warm it is 
because it's usually freezing in this room. So it's either 
feast or famine.
    Mr. Wohlers, would you like to begin?

 STATEMENT OF PAUL D. WOHLERS, OF WASHINGTON, NOMINATED TO BE 
            AMBASSADOR TO THE REPUBLIC OF MACEDONIA

    Mr. Wohlers. Yes. Thank you, Madam Chairman. Madam 
Chairman, members of the committee, it's a privilege to appear 
before you today as President Obama's nominee to be the U.S. 
Ambassador to the Republic of Macedonia. It's a great honor to 
have this confidence placed in me by the President and by 
Secretary Clinton. If confirmed, I look forward to working with 
this committee and with the Congress in advancing U.S. 
interests in Macedonia, building on the excellent work of my 
predecessors.
    I'm delighted today to be accompanied by my family and I'd 
like to introduce them briefly, if I may: first my wife, Mary 
Jo, who's a registered nurse and has held our family together 
through many, many moves over 27 years in the Foreign Service.
    Senator Shaheen. We're going to ask her if she would stand 
up and be recognized.
    Mr. Wohlers. My three daughters, Rachel and Julia and 
Jessica. Also I'm pleased today to be accompanied by my niece, 
Marion, who's also the daughter of a Foreign Service family.
    So as you can see, I have great pride in being part of a 
Foreign Service family. I think Foreign Service families are 
true unsung heroes and diplomats themselves. I know that my 
three daughters and my wife--and I know Marion--have served 
much of their lives living, working, and going to school 
overseas, serving as examples of American values to the people 
around them, and sometimes even bearing the sting of criticism 
from people at their schools who did not agree with American 
policies. So I've been delighted to have them by my side all my 
life, and my life would have been empty without them.
    As you're aware, I have served previously in Macedonia, an 
experience which I believe will enhance my effectiveness as 
Chief of Mission should you decide to confirm me. If confirmed, 
I will return to Macedonia during an important period. On 
September 8, Macedonia will mark the 20th anniversary of its 
independence, and August 13 will be the 10th anniversary of the 
Ohrid Framework Agreement, which ended the country's civil 
conflict in 2001. The framework agreement, concluded with 
United States and European Union help, remains the foundation 
for Macedonia's peaceful and democratic development. The 
agreement ended the conflict by addressing the ethnic 
grievances of the people through principles of equal rights for 
all citizens regardless of ethnicity.
    Today, 10 years from Ohrid and after 20 years of 
independence, Macedonia is working toward becoming a stable, 
multiethnic democracy. However, there is much more to be done 
in Macedonia. First, though, I think the citizens of Macedonia 
are to be congratulated for the June 5 election, in which 
people turned out in great numbers and behaved peacefully and 
with dignity.
    Following this accomplishment, now this is the time for the 
people of Macedonia and the leaders of Macedonia to refocus on 
moving toward greater prosperity, stability, security, and 
Euro-Atlantic integration. While democratic structures are in 
place in Macedonia, full respect for the rule of law and 
independent institutions remains a problem. An independent 
judiciary, free and independent media, and strong civil society 
are vital cornerstones for all democracies, and we have 
concerns about Macedonia's development in these areas.
    The United States is a partner with Macedonia in 
confronting these challenges. Macedonia's continued reform and 
integration into the Euro-Atlantic community remains a 
priority. Macedonia became a European Union candidate country 
in 2005. In December 2009, the European Commission recommended 
setting a start date for accession negotiations.
    Macedonia also has made strides in defense reform in order 
to meet NATO's performance-based standards for membership. At 
the November 2010 NATO summit in Lisbon, allies reaffirmed that 
Macedonia will receive an invitation to join the alliance as 
soon as the dispute with Greece is concluded. We will continue 
to support the U.N. process to help Macedonia and Greece find a 
mutually acceptable solution to this question.
    Macedonia has proven itself as a net provider of security, 
as evidenced by its contributions both regionally and globally. 
Macedonian troops have served honorably in both Iraq and 
Afghanistan. Indeed, Macedonia has been one of the highest per 
capita contributors to the International Security Assistance 
Force in Afghanistan. These contributions to regional and 
global stability reflect our shared values and the depth of our 
partnership with Macedonia.
    If I am confirmed, my foremost priority as Ambassador would 
be promoting United States interests in Macedonia, while 
working to advance Macedonia's own internal transformation on 
the path to full Euro-Atlantic integration. I will continue to 
pursue the U.S. goals of strengthening the rule of law, 
fighting corruption, promoting economic growth and prosperity, 
and reinforcing democratic institutions.
    Madam Chairman and members of the committee, thank you 
again for this opportunity to appear before you. I stand ready 
to answer any questions you might have later on.
    [The prepared statement of Mr. Wohlers follows:]

                   Prepared Statement of Paul Wohlers

    Madam Chairman and members of the committee, it is a privilege to 
appear before you today as President Obama's nominee to serve as the 
United States Ambassador to the Republic of Macedonia. I am honored by 
the confidence placed in me by the President and Secretary Clinton. If 
confirmed, I look forward to working with this committee and the 
Congress in advancing U.S. interests in Macedonia.
    I am delighted and proud to be accompanied today by my family: my 
wife, Mary Jo, who has held our family together during multiple moves 
over almost 27 years in the Foreign Service; my three daughters and one 
son-in-law--first, Rachel and her husband Ryan; then Julia and Jessica. 
Foreign Service families are unsung heroes and true diplomats 
themselves--my wife and daughters have been living, working, and going 
to school overseas for much of their lives, serving as examples of 
American values to their friends and colleagues, and sometimes, even at 
school, feeling the sting of criticism from those who did not agree 
with U.S. policies. My life would have been empty without my family, 
and I am thankful that they have always been by my side as we pursued a 
Foreign Service life together.
    As you are aware, I have served previously in Macedonia, an 
experience which I believe will enhance my effectiveness as Chief of 
Mission, should you decide to confirm me. If confirmed, I will return 
to Macedonia during an important period. On September 8, Macedonia will 
mark the 20th anniversary of its independence, and August 13 will be 
the 10th anniversary of the Ohrid Framework Agreement that ended the 
country's civil conflict in 2001. The Framework Agreement, concluded 
with U.S. and EU help, remains the foundation for Macedonia's peace and 
democratic development. The Agreement ended the conflict by addressing 
ethnic grievances through principles of equal rights for all citizens 
irrespective of ethnicity. Today, 10 years from Ohrid and after 20 
years of independence, Macedonia is working toward becoming a stable, 
multiethnic democracy.
    There is much more to be done in Macedonia. The citizens of 
Macedonia deserve congratulations for the June 5 election in which the 
people turned out in high numbers and behaved peacefully and with 
dignity. Now is time for the people of Macedonia, along with their 
leaders, to focus on moving toward greater prosperity, security, 
stability, and Euro-Atlantic integration. While democratic structures 
are in place, full respect for the rule of law and independent 
institutions remains a problem. An independent judiciary, free and 
independent media, and strong civil society are vital cornerstones for 
all democracies, and we have concerns about Macedonia's development in 
these areas.
    The United States is a partner in confronting these challenges. 
Macedonia's continued reform and integration into the Euro-Atlantic 
community remains a priority. Macedonia became a European Union 
candidate country in 2005 and in December 2009 the European Commission 
recommended setting a start date for accession negotiations. Macedonia 
has also made strides in defense reform in order to meet NATO's 
performance-based standards for membership. At the November 2010 NATO 
summit in Lisbon, allies reaffirmed that Macedonia will receive an 
invitation to join the alliance as soon as the dispute with Greece over 
the name is resolved. We will continue to support the U.N. process to 
help Macedonia and Greece find a mutually acceptable solution.
    Macedonia has proven itself as a net provider of security as 
evidenced by its contributions both in the region and globally. 
Macedonian troops have served honorably in Iraq and Afghanistan. 
Indeed, Macedonia has been one of the highest per capita contributors 
to the International Security Assistance Force in Afghanistan. These 
contributions to regional and global stability reflect our shared 
values and the depth of our partnership with Macedonia.
    If I am confirmed, my foremost priority as Ambassador will be 
promoting U.S. interests in Macedonia while working to advance 
Macedonia's own internal transformation on the path to full Euro-
Atlantic integration. I will continue to pursue the U.S. goals of 
strengthening the rule of law, fighting corruption, promoting economic 
growth and prosperity, and reinforcing democratic institutions.
    Madam Chairman and members of the committee, thank you for this 
opportunity to appear before you. I would be pleased to answer any 
questions that you may have.

    Senator Shaheen. Thank you very much.
    Mr. Moser.

STATEMENT OF WILLIAM H. MOSER, OF NORTH CAROLINA, NOMINATED TO 
            BE AMBASSADOR TO THE REPUBLIC OF MOLDOVA

    Mr. Moser. Madam Chairwoman, Ranking Member Barrasso, it is 
an honor and a privilege to appear before you today as the 
President's nominee to the Republic of Moldova. I deeply 
appreciate the confidence and trust that President Obama and 
Secretary Clinton have placed in me and if confirmed I look 
forward to working closely with Congress to promote United 
States interests in Moldova.
    First of all, though, I think it would only be right for me 
to introduce my wife and my three children, if I could get them 
to stand as you requested, Senator Shaheen. My wife, Marie, my 
son, Stephen, my daughter, Rebecca, and my son, Daniel. I'm 
very proud to have them here because they too, as Paul noted in 
his remarks, have grown up in the Foreign Service and I think 
that they are very happy to be here to witness this process 
today.
    I was born and raised in North Carolina and, as you noted, 
Senator Shaheen, I still have that accent that doesn't go away. 
I visited my family there over the Fourth of July holiday. The 
State of North Carolina and Moldova have a very strong 
partnership. If confirmed, I hope to play a role in maintaining 
and expanding this partnership. If confirmed, I will work to 
strengthen our relations and to support Moldovan efforts to 
strengthen democratic and free market reforms and further 
integration with Europe.
    Vice President Biden delivered this message in his recent 
trip to Moldova when he stated: ``The American people have 
watched your struggle and celebrated your successes, and we are 
determined to help you build on your achievements. We strongly 
support your commitment to political and economic reforms and 
taking on hard issues.''
    As Moldova prepares to celebrate the 20th anniversary of 
its independence, the United States will continue to support 
the Moldovan people in their efforts to build a democratic, 
prosperous, and secure European state.
    Moldova continues to make strides in its economic and 
political development and its integration into Europe. The 
United States wants to assist Moldova on this journey, not just 
because of our longstanding friendship between our peoples, but 
also because a democratic, peaceful, and prosperous Moldova 
would contribute to our longstanding objective of a Europe 
whole, free, and at peace. Moldova deserves our continued 
support and encouragement.
    Madam Chairwoman, Ranking Member Barrasso, I thank you 
again for the opportunity to share my thoughts about the 
relationship with Moldova, and if confirmed I look forward to 
working closely with you and with the committee. I would also 
be happy to answer any questions you have.
    [The prepared statement of Mr. Moser follows:]

                 Prepared Statement of William H. Moser

    Madam Chairman, Ranking Member Barrasso and members of the 
committee, it is an honor and a privilege to appear before you today as 
the President's nominee to be Ambassador to the Republic of Moldova. I 
deeply appreciate the confidence and trust that President Obama and 
Secretary Clinton have placed in me. If confirmed, I look forward to 
working closely with Congress to promote United States interests in 
Moldova.
    I want to introduce my wife, Marie, and two of my three children, 
Daniel and Stephen. I was born and raised in North Carolina and visited 
my family there over the recent July 4th holiday. The State of North 
Carolina and Moldova have a strong partnership. If confirmed, I hope to 
play a role in maintaining and expanding this partnership.
    If confirmed, I will work to strengthen our relations with Moldova 
and to support Moldovan efforts to strengthen democratic and free 
market reforms at home and further integration with Europe. Vice 
President Biden delivered this message in his recent trip to Moldova, 
when he stated, ``the American people have watched [your] struggle and 
celebrated your successes, and we are determined to help you build on 
your achievements. We strongly support your commitment to political and 
economic reforms and taking on hard issues.'' As Moldova prepares to 
celebrate the 20th anniversary of its independence, the United States 
will continue to support the Moldovan people in their efforts to build 
a democratic, prosperous, and secure European state. I would like to 
take a moment today to touch upon the strategic focus areas in our 
relationship with Moldova: democratic development, free market 
development, and security.
                     first: democratic development
    Moldova's parliamentary elections in 2009 and 2010 met most 
international commitments and were generally well administered and 
offered voters genuine choice. However, the international election 
observer mission fielded by the Organization for Security and 
Cooperation in Europe noted that ``further effort is needed to improve 
public confidence in Moldova's democratic process.'' If confirmed, I 
will look for new ways to support the efforts of the Moldovan people to 
further their nation's democratic development and to continue to expand 
our dialogue with all responsible elements of the political spectrum. 
Moldova's governing coalition has an ambitious reform agenda, based on 
a widespread recognition that much remains to be done to reach to its 
stated goal of good governance. Judicial reform, greater transparency 
and other efforts to reduce corruption are among the governing 
coalition's top priorities, priorities which we support through our 
assistance programs. Moldova has taken steps to combat trafficking in 
persons, which remains a significant problem, and we are cooperating 
closely with Moldovan authorities to address this issue. Moldova's 
chosen foreign policy of European integration is one that the United 
States strongly supports. Moldova's steps toward association with the 
European Union involve meeting European standards and norms for 
democracy, good governance, free trade and in many other areas. If 
confirmed, I will work closely with my European counterparts in 
Chisinau to advance our shared agenda in Moldova.
                    second: free market development
    Moldova remains one of Europe's poorest countries with per capita 
GDP of less than $3,000 a year; many of its citizens, unable to find 
adequate work at home, work abroad. Thanks in part to a nearly $600 
million IMF stand-by agreement, Moldova's economy is beginning to 
recover, but more reform is required to achieve sustained economic 
growth. Moldova seeks a diversified, export-oriented economy; 
improvements to the investment climate are key to attracting the 
investment that could increase exports. If confirmed, I plan to work 
with Moldova on these issues. The United States has been helping to 
bolster private sector competitiveness and improve the legal and 
regulatory environment. We have dramatically increased our investment 
in Moldova's future through the Compact with the Millennium Challenge 
Corporation signed last year. The $262 million package provides 
assistance for irrigation and road infrastructure improvements intended 
to support Moldovan farmers in their transition to high value-added 
agriculture and to help them get their produce to market.
                            third: security
    Molodova's number one security challenge remains the unresolved 
conflict with Transnistrian separatists. Moldova has been a divided 
land for the past 19 years after the brief armed conflict ended between 
government forces and the separatists. The United States is committed 
to a peaceful resolution of the Transnistria conflict that guarantees 
Moldova's independence, sovereignty and territorial integrity. I am 
convinced that this longstanding conflict can and should be resolved. 
The United States remains committed to the 5+2 process, involving the 
two parties to the conflict, the Organization for Security and 
Cooperation in Europe (OSCE), Russia and Ukraine, with the EU and the 
United States serving as active observers. The United States has 
repeatedly called for the immediate resumption of official 
negotiations, which have been stalled since 2006. Recent discussions 
among the 5+2 participants, which have facilitated confidence-building 
initiatives and explored conditions for the resumption of formal talks, 
have shown some progress. If confirmed, I intend to do what I can to 
move this process forward, including outreach throughout Moldova, as 
well as the Transnistria region. Beyond the Transnistria conflict, the 
United States provides assistance to Moldova through various programs 
to help create a modern, sustainable, military force, led by a Ministry 
of Defense and Joint Staff that are compatible with Euro-Atlantic 
structures and can integrate into multinational structures and 
missions. Moldova currently receives $750,000 in International Military 
Education and Training funds (IMET) and $750,000 in Foreign Military 
Financing (FMF). These funds are used to support Moldova's efforts to 
achieve its NATO Individual Partnership Action Plan (IPAP) objectives, 
enhance Moldova's capacity to conduct peace and stability operations in 
support of multinational coalition operations, and strengthen Moldova's 
cooperation with other partners to enhance regional security and 
stability.
    Moldova continues to make strides in its economic and political 
development and its integration into Europe. The United States wants to 
assist Moldova on this journey, not just because of the longstanding 
friendship between our peoples, but also because a democratic, peaceful 
and prosperous Moldova would contribute to our longstanding objective 
of a Europe whole, free and at peace. Moldova deserves our continuing 
support and encouragement.
    Madam Chairman, Ranking Member Barrasso, I thank you again for the 
opportunity to share my thoughts about the relationship with Moldova. 
If confirmed, I look forward to working closely with you and this 
committee.
    I would be happy to answer any questions you may have.

    Senator Shaheen. Thank you very much, Mr. Moser.
    Mr. Heffern.

  STATEMENT OF JOHN A. HEFFERN, OF MISSOURI, NOMINATED TO BE 
             AMBASSADOR TO THE REPUBLIC OF ARMENIA

    Mr. Heffern. Thank you, Senator Shaheen. Madam Chair and 
distinguished members of the committee, for me as well, it's an 
honor to be before you as President Obama's nominee for next 
Ambassador to the Republic of Armenia. I'd also like to 
introduce my family. I'm delighted that they can be here today. 
My wife, my wife of 32 years, Libby. I would just add a note on 
Foreign Service spouses, Senator. I know you know this already, 
but Foreign Service spouses do play a really important role 
overseas in projecting--helping U.S. image overseas, working 
with the community, the U.S. community at the Embassy, and the 
local community, and certainly Libby has done that for the 29 
years that we've been doing this together.
    Then I've got--we have five children. We have--where are 
we? We have Lisa--we have Lisa and her husband, Ryan Waters; we 
have Lucy--Lucy; and then Sarah, Sarah and her boyfriend, Jamie 
Pett is here with us today; and we have Woody and we have 
Alley. And thank you very much for making it possible for our 
families to be here, to join us for this special occasion 
today. Thank you.
    My 88-year-old mother, though, Madam Chairman, is not able 
to be here with us today. She's a naturalized American from 
India, and I really owe it to her and to my deceased father. My 
interest in foreign affairs and the Foreign Service comes from 
them. My father was in World War II, a World War II veteran, 
and met her in India, and was briefly a Foreign Service officer 
himself. It's from that experience that I developed my interest 
in foreign affairs and in Asia. So I'm sorry she was not able 
to be here with us today.
    Madam Chair, again I'm honored to have been nominated by 
President Obama and Secretary Clinton for this important post, 
and if confirmed I will build upon the fine work of my 
predecessors to deepen and strengthen our relationship with 
Armenia.
    The Obama administration has greatly strengthened our 
relations with Armenia. In April 2010 the Presidents of our two 
countries held their first bilateral meeting in 10 years, and 
when Secretary Clinton visited Yerevan last year it was the 
first time that an American Secretary of State has visited 
Armenia in 19 years.
    The administration has expanded development assistance to 
Armenia into key areas of governance, of economic growth and 
market competitiveness, and has been able to maintain overall 
funding levels for Armenia despite budget cuts elsewhere in 
Europe and Eurasia. If confirmed, I would also work to expand 
United States-Armenia trade and investment, building on the 
strong connections, existing connections, between the American 
and Armenian people.
    On the political front, the United States has encouraged 
Armenia to improve its human rights and democracy record, and 
we've actually seen some positive results on that front this 
year, which we can talk about, Madam Chairman. Armenia will 
hold important national elections next year and in 2013, and we 
see these elections as opportunities for the government to 
demonstrate its commitment to democracy.
    The administration supports Armenia's courageous steps to 
begin a process with Turkey to address their history and to 
find a way to move forward together toward a shared future of 
security and prosperity. Through the OSCE's Minsk Process, the 
United States also supports Armenia and Azerbaijan as they work 
toward a peaceful resolution of the Nagorno-Karabakh conflict.
    There is still a lot to do in all these areas, Madam Chair, 
but I believe my 29 years as a Foreign Service officer has 
prepared me for this important assignment. During this time I 
have served faithfully both Democrat and Republican 
administrations. Following my instructions from Washington, 
I've done my best to advance U.S. interests and to uphold 
American ideals. In addition, I pledge to the committee that if 
confirmed I will report candidly and objectively to Washington 
on my views and my recommendations from the field.
    Madam Chair and members of the committee, President Obama 
has recognized and deplored the horrific events that took place 
in the final days of the Ottoman Empire. He has publicly called 
the massacre of 1.5 million Armenians at that time one of the 
worst atrocities of the 20th century. The President has urged 
Turkey and Armenia to work through their painful history to 
achieve a full, frank, and just acknowledgment of the facts. If 
confirmed, I will do my best to fulfil the President's vision 
in this sensitive area.
    Madam Chair, thank you for your time today. If confirmed, I 
look forward to working with you, other members of the 
committee and staff and with Congress as a whole as I represent 
the United States in Armenia. Thank you and I look forward to 
your questions and comments today. Thank you.
    [The prepared statement of Mr. Heffern follows:]

                 Prepared Statement of John A. Heffern

    Madam Chairman and distinguished members of the committee, it is an 
honor to appear before you as the President's nominee to be the United 
States Ambassador to the Republic of Armenia. I am pleased to be joined 
today by my wife, Libby, and our children, Lisa (and Ryan), Lucy, 
Sarah, Woody, and Alley. We welcome this opportunity to again serve our 
Nation overseas.
    My mother, a naturalized American from India, could not be here 
today, but I would note that I owe my interest in the Foreign Service 
to her and to my deceased father, who was a WWII veteran and, briefly, 
an FSO as well.
    Madam Chairman, I am honored that President Obama and Secretary 
Clinton have nominated me for this important post. If confirmed, I will 
build upon the fine work of my predecessors to advance our bilateral 
relationship with Armenia in all its facets: diplomatic, political, 
economic, trade, and in our deep people-to-people ties.
    The Obama administration has strengthened U.S. relations with 
Armenia. In April 2010, the Presidents of our two countries held their 
first bilateral meeting in 10 years and, when Secretary Clinton visited 
Yerevan last year, it was the first visit by a Secretary of State to 
Armenia in 19 years.
    We have expanded development assistance to Armenia in several 
areas, especially in governance, economic growth, and market 
competiveness, and maintained overall funding levels despite budget 
cuts in Europe and Eurasia. Specifically, including FY 2011, we have 
invested more than $38 million since 2009 in democracy and governance 
programming, including over $16 million for civil society development. 
During this period, we have also devoted over $17 million to promote 
better access to health care and launched a new 5-year, $22 million on 
enterprise development and market competitiveness. Over the past 5 
years, the Millennium Challenge Corporation has invested almost $180 
million in Armenia to improve irrigation infrastructure, provide 
technical and financial assistance to farmers and agribusinesses, and 
improve rural roads. If confirmed, I would like to work on expanding 
the United States-Armenia trade relationship, building on the already 
strong connections between Americans and Armenians, to foster more 
trade and investment between our countries.
    On the political front, the U.S. has encouraged Armenia to improve 
its human rights and democracy record, and we have seen some positive 
developments this year, with the government releasing those still 
detained from the protests after the Armenian elections in 2008. 
Armenia will hold important national elections in 2012 and 2013, which 
are opportunities for the Government of Armenia to demonstrate its 
commitment to democracy. The administration supports Armenia's 
courageous steps to begin a process with Turkey to address their 
history, and to find a way to move forward together in a shared future 
of security and prosperity. Through the Minsk Process, the U.S. 
supports Armenia and Azerbaijan as they work toward a peaceful 
resolution of the Nagorno-Karabakh conflict.
    There is still a lot to do. If confirmed, I would continue the 
efforts of my most able predecessor, Ambassador Masha Yovanovitch. I 
will seek, as she did, opportunities to enhance our relationship with 
Armenia, should the Senate confirm me for this position.
    My 29 years as an FSO have prepared me for this assignment. During 
this time, I have served faithfully in both Democratic and Republican 
administrations. Following my instructions from Washington, I have done 
my best to advance U.S. interests and uphold American ideals. In 
addition, I pledge to the committee that, if confirmed, I will report 
candidly and accurately to Washington my views and recommendations from 
the field.
    My work at NATO with Armenia and other Caucasus partners has 
introduced me to this complex and fascinating region. I look forward to 
enhancing my understanding of the country and the region by working 
with the Armenian Government, the Armenian people, and the Armenian-
American community.
    Madam Chair and members of the committee, President Obama has 
recognized and deplored the horrific events that took place in the 
waning days of the Ottoman Empire. He has publicly called the massacre 
of 1.5 million Armenians at this time one of the worst atrocities of 
the 20th century. The President has urged Turkey and Armenia to work 
through their painful history to achieve a full, frank, and just 
acknowledgement of the facts. If confirmed, I will do my best to 
fulfill the President's vision.
    Madam Chairman, I would like to thank you for your time today. I 
want to assure you that, if confirmed, I look forward to working 
closely with you, with members of this committee, and with the Congress 
as a whole in representing my fellow Americans as the U.S. Ambassador 
to the Republic of Armenia.
    Thank you and I welcome your questions.

    Senator Shaheen. Thank you very much, and thank you to each 
of you for your testimony today.
    I think they finally got the air conditioning working, so 
hopefully it will cool off, probably not in time for you to 
finish your questioning.
    Mr. Heffern, I would like to begin with you. You mentioned 
in your testimony the history between Armenia and Turkey. The 
Armenia-Turkey Protocols of 2009 were I think a very positive 
step toward improving relations between the parties, but 
unfortunately the protocols have not been ratified. Can you 
talk about what the prospects are for reviving reconciliation 
talks between Turkey and Armenia and what other steps might be 
possible to encourage the two countries to address their mutual 
past?
    Mr. Heffern. Senator, yes. The administration strongly 
supports and we welcomed and congratulated both governments, 
the Government of Turkey and the Government of Armenia, for 
their courageous decision to sign the protocols in Zurich in 
October 2009. Secretary Clinton had a major part in that. She 
was there for the signing ceremony. And we remain committed to 
doing whatever we can to encourage the two parties to get the 
protocols back on track.
    The Secretary has talked to both parties regularly. The 
Secretary has made it clear; Secretary Clinton has said the 
ball is in Turkey's court and that we hope and expect that they 
will be able to work to find a way to work together to resume 
that.
    For me, if I'm confirmed at the Embassy, I would work with 
our Embassy in Ankara to devise effective and hopefully 
constructive confidence-building measures for cross-border 
exchanges and other things to try to build trust from the 
bottom up, in addition to the Secretary and the President's 
work with the leaders to try to get the protocols back on 
track.
    Senator Shaheen. Thank you.
    You also mentioned Nagorno-Karabakh, which is another of 
the issues facing Armenia. You pointed out the Minsk Process, 
which unfortunately ended without any agreement on the basic 
principles. So can you elaborate a little more on the status of 
these talks, what steps can be taken to help move them forward 
and to encourage the parties to reach some sort of a negotiated 
resolution to the Nagorno-Karabakh question?
    Mr. Heffern. Senator, the President and Secretary have been 
also deeply involved in this. We remain committed to the Minsk 
Process as sort of the only game in town to try to resolve this 
dispute. The purpose, as you know, of the Minsk Process is to 
find a lasting, peaceful, and just solution to this conflict 
that will help the parties, help the people of Nagorno-
Karabakh, and help bring some stability and prosperity and 
peace to the South Caucacus region. That's the purpose of it, 
as you well know.
    The United States participates as one of the cochairs. 
Ambassador Bradtke is our representative and he was at the 
Kazan meetings that you referred to. Indeed, the parties were 
not able to agree on the basic principles there, but they did 
issue a statement with President Medvedev that they have made 
some progress on some of the issues and they remain committed 
to the process.
    Foreign Minister Lavrov recently visited the capitals with 
some additional proposals from President Medvedev and I'm not 
briefed on what those proposals are. I don't know what the 
prospects are for the next steps. But we are working--we the 
United States are working as cochair with the other cochairs 
and with the two parties and with the authorities, the de facto 
authorities in Nagorno-Karabakh, to find a solution.
    Senator Shaheen. I will point out, as you know, I just 
returned from Serbia and the OSCE's Parliamentary Assembly, 
where they appointed a special representative to help address 
Nagorno-Karabakh. So hopefully that may be helpful as well in 
moving the discussions forward.
    Finally, you pointed out that there will be elections held 
again in 2012, a Presidential election in 2013. I had the 
interesting fortune to be in Armenia in 2003 for an 
international observation mission to their parliamentary 
elections and those were not free and fair elections, and 
unfortunately there have been--elections have been plagued by 
accusations of fraud and abuse for too long.
    So what are the prospects for that to be turned around by 
2012 and 2013? Are there measures in place? Is there an 
independent election commission that is moving forward in a way 
that holds some prospect that the upcoming elections will be 
freer and fairer than those in the past?
    Mr. Heffern. Senator, I'm not well briefed on the 2003 
elections. On the 2008 elections, they also were flawed 
elections and we've said so publicly, that they were not the 
kind of elections that meet international standards. Then in 
the aftermath of the elections there were some protests and 
some detentions and violence in response to those protests. It 
was not a great situation in 2008.
    In the last 6 months, though, Senator, there have been some 
positive signs. Ambassador Yvonovich has made this one of her 
top priorities and worked very much, very closely with the 
parties and the government to find a way forward to work with 
them on democracy and human rights.
    Some useful things have happened. They have reopened the 
square for freedom of assembly. They've allowed some of the 
opposition groups and parties to actually have rallies and 
assemblies in the Freedom Square, so that's a good thing. They 
have--the government has released finally, after much prodding, 
all of the detainees from the post-2008 unrest, and they have 
assured the Armenian people that they will launch a full 
investigation of the events post-election 2008.
    So they have made some useful steps in the last 6 months 
that have been helpful in giving us some indication that the 
next elections in 2012 and 2013 will hopefully be better in 
meeting international standards.
    Senator Shaheen. Thank you. That's very encouraging.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chair.
    Mr. Heffern, following up, if I could, on Senator Shaheen's 
questioning, the administration has requested funding in fiscal 
year 2012 in order to focus on economic growth as well as 
democratization in Armenia. The U.S. Millennium Challenge 
Corporation I think, as you know, has expressed concerns about 
freedom of the press, about democratization in Armenia.
    Due to these concerns, a portion of the Millennium 
Challenge Corporation's compact with Armenia was ended. How 
would you characterize the current status of democratization in 
Armenia and what efforts an we take to kind of improve that?
    Mr. Heffern. Senator, there's a couple of elements to your 
question. Not only the democracy side, but also the governance 
side I think is important. What we're trying to do through our 
bilateral assistance program, and since their independence the 
United States has been the largest bilateral donor to Armenia. 
So what we're trying to do through our bilateral assistance is 
to work on governance, increase, improve the business climate, 
investment climate, to encourage western investment and trade, 
to keep them focused on the West.
    Part of that, of course, involves governance and rule of 
law and democracy and human rights. I mentioned to Senator 
Shaheen the three or four useful steps they've made in the last 
6 months. If confirmed, I'll go and I will build--I will try to 
build on what Ambassador Yvonovich has done and work with the 
people and the parties and the government there to see what we 
can do to make the next round of elections meet international 
standards.
    Senator Barrasso. Thank you.
    Mr. Moser, talking about Moldova, the poorest nation in 
Europe, continues to face serious problems, including 
corruption, crime, and human trafficking as well, as you know. 
In the 2011 Trafficking in Persons Report, actually, the 
Department of State highlighted concerns with Moldova. While 
some progress has been made, the report states that the 
Government in Moldova does not fully comply with even the 
minimum standards for elimination of trafficking.
    Can you tell me what efforts are currently being taken to 
fight the problem of human trafficking and what's the United 
States currently doing to assist Moldova on this issue?
    Mr. Moser. Senator Barrasso, thank you very much for that 
question. One of the focuses of our democracy-building programs 
is of course to strengthen the rule of law, because in the 
Trafficking in Persons Report of this year, even though Moldova 
went up a step from a tier 2 watchlist to a tier 2 country, we 
still said that there were real problems in the judiciary and 
in the independence of the judiciary and in arresting corrupt 
officials.
    Now, we do a couple things. Through our International and 
Law Enforcement Bureau, we're working on training police 
officials and strengthening the judiciary, and also with our 
AID programs we're also doing further judicial training in 
technical assistance to build up prosecutorial capacity.
    I realize that the Moldovans have a long way to go, 
particularly on the corruption issue, and one of the things 
that I think that has to be drawn together is that for the 
Moldovans to really make the steps toward European integration 
and toward economic development that they themselves profess 
that they want to make, that they are going to have to make a 
business climate that is free of corruption, so people will 
want to invest there.
    So this is a whole complex of issues, that you don't get 
the economic development without having the correct and 
corruption-free democratic development that Moldova really 
needs. That's what I think that, if confirmed, that I would 
like to work on as Ambassador.
    Senator Barrasso. Thank you.
    Mr. Wohlers, the United States has supported Macedonia's 
candidacy for NATO as well as for the European Union 
membership. But, as you know, Greece has blocked Macedonia's 
accession to NATO and the European Union due to a dispute 
actually, I think, over its name. While there have been many 
efforts to reach a solution to the dispute, really they haven't 
found a solution yet.
    Can you tell us what progress, if any, has been made 
between Macedonia and Greece on solving this dispute, and what 
is your view of the prospects of finding a solution?
    Mr. Wohlers. Thank you, Senator. You're correct that this 
is a 20-year-old dispute which has not been resolved, and it 
goes to the heart of our desire to have Macedonia fully 
integrated into the Euro-Atlantic community, because that can't 
happen until we resolve this name dispute. We fully support the 
U.N. process under the auspices of Matthew Nimetz to resolve 
this issue and we also support direct engagement between Athens 
and Skopje. We have encouraged both sides to show maximum 
flexibility, compromise, sense of respect for each other's 
history and traditions, in moving forward on this issue. We 
have made it clear that whatever mutually acceptable solution 
they arrive at we will accept. We're not going to impose a 
solution on this.
    This goes back to our major goal of stability in 
Southeastern Europe, of which we think the integration of 
Macedonia into the Euro-Atlantic community will be a key part. 
But integration can't move forward until the name issue is 
resolved. So this is an issue that needs strong leadership by 
both sides. It's not going to be easy. Obviously, if it were 
easy it would have been done long ago. It's going to require 
painful compromises on both sides, and that's why they need to 
have strong leadership to move this forward.
    If confirmed, I will work very diligently with the 
Macedonian authorities to encourage them to show maximum 
flexibility, maximum cooperation and respect, and hopefully we 
can move forward on this.
    Senator Barrasso. Thank you very much.
    Thank you, Madam Chairman.
    Senator Shaheen. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Madam Chair.
    Congratulations to all of you on your nominations.
    Let me start with you, Mr. Heffern. In your opening 
statement you said that ``President Obama has recognized and 
deplored the horrific events that took place in the waning days 
of the Ottoman Empire.'' And you went on to say, I noted, that 
``he''--I assume that was the President--``publicly called the 
massacre of 1.5 million Armenians at the time one of the worst 
atrocities of the 20th century.''
    I welcome that statement, but I'd like to explore it a 
little bit more with you. Do you agree that there were mass 
killings, ethnic cleansing, and forced deportations of over 1.5 
million Armenians during the period that the Ottoman Empire 
existed?
    Mr. Heffern. Senator, yes. As the President has said, the 
massacres and the forced deportations leading to the deaths of 
1.5 million Armenians is acknowledged and recognized and 
deplored by President Obama. And yes, sir, I believe it as 
well.
    Senator Menendez. OK. And those were conducted at the time 
by the Ottoman Empire; is that true?
    Mr. Heffern. Those were conducted at the time, in the final 
days of the Ottoman Empire, yes, sir.
    Senator Menendez. Now, we as a country and I assume this 
administration recognizes the Turkish Republic as a successor 
state to the Ottoman Empire, is that true?
    Mr. Heffern. Senator, I assume that's true. I don't know 
that that's true. I assume that's true. I mean, it has to be 
true, so yes, sir. I'm going to just take that as true, but I 
have to say I don't know that specifically.
    Senator Menendez. Let me ask you this. Article 2 of the 
Convention on the Prevention and Punishment of the Crime of 
Genocide, which the United States has both signed and ratified, 
states: ``In the present convention, `genocide' means any of 
the following acts committed with the intent to destroy, in 
whole or in part, a national, ethnic, racial, or religious 
group as such: [a] killing members of the group; [b] causing 
serious bodily or mental harm to members of the group; [c] 
deliberately inflicting on the group conditions of life 
calculated to bring about its physical destruction in whole or 
in part.'' And it goes on to other elements.
    Those are from a convention which we the United States have 
signed. Now, if that is a convention the United States is 
willing to be a signatory to, would not the facts that you 
acknowledge in your opening statement during the period of 1915 
to 1923 and that, in furtherance of the answers to my 
questions, meet the definition of article 2?
    Mr. Heffern. Senator, you have accurately described article 
2, the definition of genocide in the convention. So yes to that 
part of the question. And yes to the facts that were in my 
statement and that you've repeated. But the characterization of 
those events, Senator, is a policy decision that is made by the 
President of the United States, and that policy is enunciated 
in his April 24 Remembrance Day statement.
    Senator Menendez. Are you aware of cables that exist from 
former Ambassador Henry Morgenthau, who was the U.S. Ambassador 
to Turkey, from 1913 to 1916; from the U.S. consul in Aleppo, 
from the U.S. consul in Harput; from Ambassador Morgenthau, who 
was succeeded by Abraham Elkus, who served as Ambassador from 
1916 to 1917? Have you had an opportunity to read any of those?
    Mr. Heffern. Senator, yes, I've seen the compilation that 
Mr. Sarafian has put together of documents from the time. So 
yes, sir, I have seen a large number of them.
    Senator Menendez. You have no reason to dispute what those 
dispatches were?
    Mr. Heffern. Those Foreign Service officers at the time, 
sir, reported what they saw and how they perceived events at 
the time, yes, sir.
    Senator Menendez. I just want to say, Madam Chair, this is 
a difficult set of circumstances.
    And I appreciate your answers.
    This is an inartful dance that we do. We have a State 
Department whose history, full of dispatches, cites the 
atrocities committed during this period of time. We have a 
convention we sign that clearly defines these acts as genocide. 
We have a historical knowledge of the facts which we accept 
that would amount to genocide. But we are unwilling to 
reference it as genocide.
    If we cannot accept the past, we cannot move forward. So I 
find it very difficult to be sending diplomats of the United 
States to a country in which they will go, and I hope you will 
go, as some of your predecessors have gone, to a genocide 
commemoration, and yet never be able to use the word 
``genocide.'' It is much more than a question of a word. It is 
everything that signifies our commitment to saying ``never 
again.'' Yet we can't even acknowledge this fact, and we put 
diplomats in a position that I think is totally untenable.
    Nevertheless, I appreciate your straightforward answers to 
my questions. I have one other set of questions for you, Mr. 
Wohlers, and only caught the tail end of my colleague's 
questions, so I hope they are not redundant. This whole issue 
of Macedonia; it's more than a name. There are historical 
realities here. There is concern of irredentism, as well as 
concerns with the fact that one of the first acts of the new 
Prime Minister was to erect a 72-foot high bronze statue of 
Alexander the Great in the central square of the city of 
Skopje, a monument challenging Alexander's Hellenic roots, 
costing $13 million in a country with 32 percent unemployment; 
and teaching children what is greater Macedonia and making 
claims of a greater Macedonia, when we know that 52 percent of 
that land mass is in Greece.
    Some people say, why are they fighting over a name? This 
has real significant consequences. Do you go into this 
assignment fully appreciating that?
    Mr. Wohlers. Yes, Senator; I believe I do. You're correct, 
completely correct, in saying this is more than just a name. 
This is an issue of identity. We have worked in the past and, 
if confirmed, I will continue to do so, with the Macedonian 
authorities, as we have also in Athens with our Embassy there, 
to impress upon both sides the need to move forward on this 
issue with a great sense of compromise, a great sense of 
respect for each other's histories and traditions, a 
willingness to make the painful compromises that are necessary 
to resolve this very delicate issue.
    As you said, it's an issue which is very emotional for both 
sides. We want to make sure also, and I would do so if 
confirmed, that neither side is engaging in any kind of 
provocative or inflammatory rhetoric or actions, which can only 
make the process even more difficult. It's hard enough as it 
is. Otherwise, as I said earlier, we would have resolved this 
long ago. But it requires real leadership on both sides to move 
forward on this very difficult issue.
    Senator Menendez. Well, I know that the previous government 
had rejected U.N.-offered names that described solely FYROM's 
sovereign territory. Such names included ``Northern Macedonia'' 
and ``Upper Macedonia,'' which Greece accepted.
    I always worry when we refer to some issues in the world as 
emotional issues. Sometimes that characterizes it in a way that 
makes them seem irrational. Senator Rubio and I, who sit on 
this committee, have a very strong stance on U.S. Cuba policy. 
Some people like to describe that as emotional. We have a very 
significant view as to what U.S. foreign policy should be.
    In this case, I hope when we ascribe the word ``emotional'' 
to it, it is not trivializing that. Because for both of these 
countries, and certainly Greece, this is far more than a name. 
This is questions of territory, identity, and a concern of 
those who have aspirations of getting territory that is clearly 
within the Hellenic Republic possibly being desired and sought 
after by its neighbor.
    Mr. Wohlers. Well, I agree completely, Senator. 
Emotionalism is not irrationalism. I didn't mean to equate 
those. If confirmed, I would work very closely with the 
Macedonian authorities, as I said, to make sure there are no 
movements of irredentism. I think we're trying to make sure 
that does not happen. The policy of the Macedonian Government 
has been that they do not have any irredentist claims on 
Greece. But should there be anything like that, I would request 
that you would let me know so we can work with the authorities 
to make sure it does not continue. There's no place for that. 
That will only make the issue more difficult.
    Senator Menendez. Thank you, Madam Chair, for your 
courtesy.
    Senator Shaheen. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    Mr. Heffern, I have an issue I'd like to bring up with you 
about Armenia as it affects Idaho, believe it or not. Certainly 
it doesn't rise to the level of the issue concerning the 
Ottoman Empire or whether Alexander the Great was a Macedonian 
or a Greek. Those are things that have been around a long time.
    But we have--every year in Rexburg, ID, which is in eastern 
Idaho, there is an international dance festival and I wind up 
sometimes, I guess, refereeing the issuance of the visas for 
the people there. I have to tell you, working with the State 
Department is a real pleasure. A lot of us are critical of 
various agencies of the Federal Government, but the State 
Department really tries hard to accommodate people. I've 
personally been present on some of the visa interviews and 
watched, personally observed how they're done, and those people 
do a great job of that.
    But let me tell you what's going on. One of the groups that 
they like to participate in this dance festival--and it's a 
dance and folk festival that memorializes and celebrates the 
various cultures around the world, and Armenia is important in 
that regard. They have--in the past they've applied for visas 
and have had difficulty with the State Department, being told 
they need one kind of visa and then it doesn't work out.
    Because of the bureaucratic difficulties last year, they 
weren't able to attend last year. We're having issues again 
this year on it. It's in late August, so it probably won't be 
on your watch. But I want to put this on your radar screen so 
that when you get a call from me in 2012 you'll know what this 
is all about.
    Having said all of that, again I really compliment the 
State Department on how they handle these. You know, I think 
Americans don't really realize, out of the 7 billion people on 
the face of this planet, how many of them want to come here for 
one reason or another, many of whom who want to come here and 
not leave here. They've got to sift through all these, and they 
really do a great job.
    But in any event, we're having difficulties with it. We're 
still having difficulties with it. We're going to continue to 
work on it, and after you confirmed I hope that you remember 
this and if it comes across your desk I hope you remember this 
country boy from Idaho telling you that we need some help in 
that regard.
    To your wife, I have to tell you that it isn't just the 
spouses of the Foreign Service people. Senate spouses make a 
lot of difference, too, as I'm sure Senator Shaheen will 
confirm. They're very important to us. And that's particularly 
true when we are traveling internationally with our spouses.
    So thank all three of you for your service to America. 
Thank you for willing to take on these positions, particularly 
in the difficult times that the world is in right now.
    Thank you very much, Madam Chair.
    Senator Shaheen. Thank you, Senator Risch.
    I want to go back, Mr. Wohlers, to Macedonia. I think we do 
appreciate how deeply felt the name issue is for people on both 
sides of the border, whether it's Macedonia or Greece. But as 
you point out, this is an issue that really cries out for 
resolution. In your statement you pointed out that Macedonia 
received candidacy status for the EU in 2005, ahead of most of 
its neighbors, several of whom now have surpassed it. Croatia 
has now been accepted. Serbia is well on the road to candidacy 
status. And both of those countries are undertaking the 
difficult challenges that they need to in order to be accepted 
into the EU.
    As you pointed out, the future for Macedonia clearly is 
with the Euro-Atlantic institutions. It's with the EU, it's 
with NATO. And their lack of a resolution to this question is 
having a significant impact on their economic status and on 
their ability to move forward. So I do appreciate your 
commitment to doing everything that we can from the U.S. 
perspective to encourage them to go to the table and to help 
find a resolution to this difficult issue.
    Can you talk about what the current state of interethnic 
relations is in Macedonia, and are all of the parties who 
have--many of whom have been in the news in the last year or 
so, committed to continued territorial integrity, or do you 
think that the country could eventually break down along ethnic 
lines?
    Mr. Wohlers. Well, Senator, I think that the basis for 
movement forward on the ethnic issues there is the framework 
agreement, the Ohrid Framework Agreement of 2001. As I said, 
August 13 will be the 10th anniversary of that event. They have 
made considerable progress in those 10 years in terms of 
interethnic relations. There is considerably more local 
government, where the areas and municipalities with minority 
populations have much more control of their daily lives. They 
have considerably improved the hiring of ethnic minorities, 
both in the government and in staffing in the military. There 
is greater use of the minority languages and symbols, and the 
largest ethnic Albanian party is the junior partner in the most 
recent government and will be in the new government as well and 
will have significant positions of power in that government.
    So there has been considerable progress since 2001. That 
having been said, that progress has slowed recently and we're 
concerned about that. We have made that clear to the 
authorities, the Macedonian authorities, that there needs to be 
continued and further progress on this.
    A number of laws have been passed but not implemented. Of 
course, it's easy sometimes to pass laws; it's something else 
to implement them and to move forward. So we will be 
encouraging them to move forward on many of these issues to 
continue the improvement in the ethnic relationship.
    One of the problems, as you pointed out, is integration 
into the Euro-Atlantic community, of which the ethnic Albanians 
in particular are very supportive, and the longer that doesn't 
take place the more uncertainty they have.
    But I don't see any indications at this point that there's 
any desire to break off or to split the country apart. I think 
they're committed to a unified Macedonia. They're working in 
the government. They're working in all the ministries. 
Certainly we will continue to work there, should I be 
confirmed, to continue that process.
    Senator Shaheen. Thank you. That's encouraging.
    So finally, what in your view can the United States and the 
EU, for that matter, do to encourage the Macedonians to solve 
their current political crisis over the opposition's boycott of 
Parliament and the prospects for new elections?
    Mr. Wohlers. Well, they had elections in June and they're 
moving forward toward a new government. So we're hopeful now 
with this newly developed parliament that we won't have that 
issue. Obviously, if you're not in Parliament you can't--if you 
don't play, you can't affect things.
    We've never been, obviously, in favor of boycotts. They 
need to be involved in the governmental process. But they've 
got a new Parliament starting shortly. I believe that they will 
be playing constructive roles, all the parties. We'll certainly 
be encouraging them to do that, and I would do that should I be 
confirmed.
    So I think we're moving forward. There are still, 
obviously, many issues to be resolved, and we will be working 
closely with the Macedonian authorities through our assistance 
programs, through our public outreach, to do just that.
    Senator Shaheen. Great. Thank you.
    Finally, Mr. Moser, on Moldova. There have been informal 
talks under way to resolve the Transnistria conflict. Do you 
have any assessment of where those informal talks are and 
whether there's more that we can or should be doing to try and 
encourage those talks and a resolution?
    Mr. Moser. Well, I will say the first thing that you have 
to be happy about is that we had a set of informal talks. The 
good news is on this that we're scheduled to have another set 
in the fall, that the parties did not agree to break off 
negotiations, but to agree to get together again in the fall, 
although the United States stands firmly committed that 
official talks will begin again, and that is the goal that 
we're pressing for.
    Now, if confirmed, I will be the Ambassador to Moldova and 
I will try to work extensively with outreach both to the 
officials in Chisinau and also the officials in Tiraspol to try 
to press them toward bringing this conflict toward resolution, 
because I do believe that in my role of being in the country 
that people-to-people contact can help them to get to talk to 
each other.
    Senator Shaheen. Are there other regional players who are 
playing a role in this, both positive and negative? Has 
Russia's support for the separatists exacerbated the issues 
there?
    Mr. Moser. Well, I would put it this way, is we have to 
first of all praise Ukraine for its efforts to try to work 
toward resolution. In fact, the Russians have made very clear 
in their statements that they want to work toward a resolution 
of this conflict. So I think at this point all the other actors 
in the equation are working toward a positive resolution. We 
just need to get the parties that are really involved--and that 
is the officials within the country--to really come to serious 
negotiations.
    Senator Shaheen. Thank you.
    Several times during this afternoon's discussions we've 
pointed out that Moldova is one of the most economically 
depressed countries in Europe. Has it been hit even harder by 
the global economic downturn and are there plans under way in 
the government to help reform their economy? I think you 
mentioned some of those. Have they made any positive progress?
    Mr. Moser. Well, at the time in 2010 the IMF gave a $600 
million stabilization fund to the Moldovans, and they've been 
helping the Moldovans take the right measures economically. 
Now, one positive report I recently read in the Moldovan press, 
that in the first quarter of 2011 reports are that their 
economy grew by 8.4 percent. Now, that is probably a rebound 
from a previous period of depressed growth, but this is 
actually a very positive development.
    But if confirmed, one of my goals is to really work with 
them to really work toward the real goal, which is to make a 
business climate that is conducive to international investment. 
This is something in our long-term stake. We really are--I am 
really seriously committed to our policy of a Europe whole, 
free, and at peace, and you can't get there unless you take a 
country that borders on the European Union and make sure that 
it shares in the economic progress.
    Senator Shaheen. Thank you.
    Senator Risch, do you have any other questions?
    Senator Risch. No, thank you very much.
    Senator Shaheen. Thank you.
    Well, then I will again thank all of you. I look forward to 
a speedy confirmation. Hopefully that will happen. And I think 
we'll move to the next panel. Hopefully we will be able to get 
them out before too late this afternoon.
    First on our second panel is Tom Countryman, who has been 
nominated to be the Assistant Secretary of State for 
International Security and Nonproliferation. Tom is a career 
member of the senior Foreign Service, serving most recently as 
the Deputy Assistant Secretary of State for European and 
Eurasian Affairs, specifically focusing on Balkan issues. I can 
tell you in that capacity I have had a chance to work with him 
and he is very knowledgeable and his expertise will be very 
much missed on that issue.
    Tom has also a great deal of experience working on 
international security issues, previously serving in the Bureau 
of Political-Military Affairs as foreign policy adviser to the 
Commandant of the Marine Corps and on the National Security 
Council staff.
    Finally, we will consider the nomination of Jeffrey 
DeLaurentis to be Alternate Representative of the United States 
of America for Special Political Affairs in the United Nations, 
with the rank of Ambassador, and Alternate Representative of 
the United States of America to the Sessions of the General 
Assembly of the United Nations.
    As a Foreign Service officer, Jeffrey has served in a 
number of positions in the State Department, especially focused 
on Western Hemisphere and United Nations issues. He currently 
serves as Deputy Assistant Secretary for South America.
    Again, as each of you give your opening statements feel 
free to introduce any family or friends who are here to support 
you. So I'll ask you to begin, Mr. Countryman.

STATEMENT OF THOMAS M. COUNTRYMAN, OF WASHINGTON, NOMINATED TO 
BE ASSISTANT SECRETARY OF STATE FOR INTERNATIONAL SECURITY AND 
                        NONPROLIFERATION

    Mr. Countryman. Thank you, Chairman Shaheen, and good 
afternoon. I appreciate you making time to consider my 
nomination.
    I thank you also for the kind words that you and other 
Senators and my colleagues have said about the Foreign Service 
family. It applies with the deepest gratitude also to my 
family. Let me introduce first my wife, Dubravka, and my son, 
Andrew. My elder son, Stefan, is away studying physics at 
Columbia University. They are my strength, they are my joy, 
they are what propels me to give the best possible effort to 
creating a more secure future for them.
    I'm sincerely humbled by the honor of appearing before you 
and asking for your confidence and by the honor of being 
President Obama's choice to serve as Assistant Secretary of 
State for International Security and Nonproliferation. I'm 
grateful for the confidence the President and Secretary Clinton 
have shown in nominating me and I'm fully aware of the 
important responsibilities that I will undertake on behalf of 
our country should I be confirmed.
    While managing the ISN Bureau will be a new responsibility 
for me, I'm not a new face at the State Department and I've 
worked with you, your staff, and many on the Hill in my 
previous positions. I believe my experience in Washington and 
in building international partnerships abroad will serve us 
well if you choose to confirm me. I'm also keenly aware of the 
importance of consulting with Congress early and often. My 
hope, if confirmed, is that we will have a close relationship 
that will allow us to communicate, not only when we face a 
national security crisis, but in the quieter times in between, 
so that we can better prepare for the future.
    As you know, in his April 5, 2009, speech in Prague, the 
President committed the United States to seeking the peace and 
security of a world without nuclear weapons and committed us to 
take concrete steps toward that end. His remarks laid out an 
ambitious nonproliferation agenda that includes working to 
strengthen the global nonproliferation infrastructure regime, 
including by strengthening compliance with these obligations, 
working toward a new framework for civil-nuclear cooperation, 
ensuring that terrorists never acquire a nuclear device, and 
securing all vulnerable nuclear materials around the world 
within 4 years.
    This agenda is ambitious, but I believe it is essential. I 
believe it is achievable, and if confirmed I will work 
vigorously to make it a reality.
    ISN's agenda, of course, is not only nuclear-related. 
Nonproliferation in today's context also includes addressing 
biological, chemical, missile, and destabilizing conventional 
weapons capabilities. Here also we have much important work 
before us. The Biological Weapons Convention Review Conference 
will occur later this year. At this important multilateral 
gathering, we will have a chance to build global capacity to 
combat infectious diseases, prevent biological terrorism, and 
promote confidence in the biological nonproliferation regime.
    The world looks to our leadership in areas involving export 
controls, bio, chemical, and nuclear safety and security, and 
dealing with the proliferation challenges of Iran, North Korea, 
and Syria. If confirmed, I will pursue these tasks vigorously. 
The government's work in this area is vital to keeping America 
and our partners secure.
    I've barely scratched the surface of the critical work to 
which I will be committed if confirmed. The continued growth 
and success of programs and initiatives such as the 
Proliferation Security Initiative, the Global Initiative to 
Combat Nuclear Terrorism, the Export Control and Related Border 
Security Assistance Program, the United States Security Council 
Resolution 1540, and the Global Threat Reduction Program are 
all essential pieces of our effort.
    These cooperative initiatives reflect positive and concrete 
steps that we've already taken on the road to increased 
international security and nonproliferation. They also 
highlight the singular work that the State Department does in 
cooperation with other agencies, building long-term capacity to 
stem proliferation and serving as the connective tissue among 
agencies tackling this threat overseas.
    If confirmed, I will contribute my energy and dedication to 
the work of many professionals in the Department, across the 
government, and in Congress already engaged in these important 
endeavors. Together we will continue to ensure that the United 
States is up to the task of realizing the ambitious and bold 
vision laid out by the President in Prague.
    Thank you, Madam Chairman, for your time and your 
attention, and of course I'm happy to answer all of your 
questions.
    [The prepared statement of Mr. Countryman follows:]

               Prepared Statement of Thomas M. Countryman

    Good afternoon, Chairman Shaheen, Ranking Member Barrasso, and 
members of the committee. Thank you for making time to meet with me 
today to consider my nomination.
    Madame Chairman, before I begin my testimony, please allow me a 
moment to recognize members of my family who have joined me today for 
this important occasion: my wife, Dubravka, and my son, Andrew. My 
elder son, Stefan, is away studying physics at Columbia University.
    Their support strengthens my resolve and furthers my commitment to 
work each day toward a safer and more secure world not only for all of 
us, but for generations to come.
    I am sincerely humbled by the honor of appearing before the 
committee, and by the honor of being President Obama's choice to serve 
as Assistant Secretary of State for International Security and 
Nonproliferation. I am grateful for the confidence that the President 
and Secretary Clinton have shown in nominating me for this position, 
and I am fully aware of the important responsibilities that I will 
undertake on behalf of our country should I be confirmed.
    While managing the ISN Bureau will be a new responsibility for me, 
I am not a new face at the State Department, and I have worked with 
many of you and your staff in my previous positions. I believe that my 
experience both in Washington and in building international 
partnerships abroad will serve me well if you chose to confirm me. I am 
also keenly aware of the importance of consulting with the Congress 
early and often. My hope, if confirmed, is that we will have a close 
relationship that will allow us to communicate not only when we are 
facing a national security crisis, but also in the quieter times in 
between, so that we can better prepare for the future.
    As you know, in his April 5, 2009, Prague speech, the President 
committed the United States to seeking the peace and security of a 
world without nuclear weapons, and to taking concrete steps toward that 
end. His remarks that day also laid out an ambitious nonproliferation 
agenda that includes: working to strengthen the global nonproliferation 
regime, including by strengthening compliance with nonproliferation 
obligations; working toward a new framework for civil nuclear 
cooperation; ensuring that terrorists never acquire a nuclear device; 
and securing all vulnerable nuclear materials around the world within 4 
years. This agenda is ambitious but I believe it to be both essential 
and attainable. If confirmed, I will work vigorously to make it a 
reality.
    ISN's agenda is not only nuclear-related. Nonproliferation in 
today's context also includes addressing biological, chemical, missile, 
and destabilizing conventional weapons capabilities. Here too there is 
much important work before us.
    As one example, the Biological Weapons Convention Review Conference 
will take place at the end of this year. At this important multilateral 
gathering we will have a chance to build global capacity to combat 
infectious diseases, prevent biological terrorism, and promote 
confidence in the biological nonproliferation regime.
    Similarly, the world looks to our leadership in areas involving 
export controls; biological, chemical, and nuclear safety and security; 
and dealing with the proliferation challenges of Iran, Syria, and North 
Korea. If confirmed, I will vigorously pursue these tasks. Indeed, the 
government's work in this area is vital to keeping America and our 
partners secure.
    I realize that I have barely scratched the surface of the critical 
work to which I will be committed, if confirmed. The continued growth 
and success of programs and initiatives such as the Proliferation 
Security Initiative, the Global Initiative to Combat Nuclear Terrorism, 
the Export Control and Related Border Security Assistance Program, 
United Nations Security Council Resolution 1540, and the Global Threat 
Reduction Program are all essential to our efforts. These cooperative 
initiatives reflect positive, concrete steps we have already taken on 
the road to increased international security and nonproliferation. They 
also highlight the singular work that the State Department does, 
building long-term capacity in partner countries to stem proliferation 
and serving as the connective tissue between other agencies tackling 
this existential threat overseas.
    If confirmed, I look forward to contributing my energy and 
dedication to the work of the many professionals in the Department, 
across the government, and in Congress who are already engaged in 
important nonproliferation endeavors. Together, we will continue to 
ensure that the United States is up to the task of realizing the bold 
and ambitious vision laid out by the President in Prague.
    Thank you, Madame Chairman, Ranking Member Barrasso, and members of 
the committee for your time and attention today and for your 
consideration of my nomination. At this time, I am happy to answer your 
questions.

    Senator Shaheen. Thank you very much.
    Mr. DeLaurentis.

STATEMENT OF JEFFREY DeLAURENTIS, OF NEW YORK, NOMINATED TO BE 
 ALTERNATE REPRESENTATIVE OF THE UNITED STATES OF AMERICA FOR 
SPECIAL POLITICAL AFFAIRS IN THE UNITED NATIONS, WITH THE RANK 
   OF AMBASSADOR, AND ALTERNATE REPRESENTATIVE OF THE UNITED 
 STATES OF AMERICA TO THE SESSIONS OF THE GENERAL ASSEMBLY OF 
                       THE UNITED NATIONS

    Mr. DeLaurentis. Madam Chairman, Ranking Member Barrasso, 
and other distinguished members of the committee, I am honored 
to appear before you today as President Obama's nominee to be 
the Alternate Representative for Special Political Affairs at 
the United Nations. I am grateful to the President, Secretary 
Clinton, and Ambassador Rice for this opportunity and for their 
confidence in me.
    I should say up front that unfortunately my wife, Jennifer, 
is traveling overseas for professional reasons, so is not here 
with me today.
    In his March speech dedicating the Ronald H. Brown 
Building, the new home of the United States Mission to the 
United Nations, President Obama said, ``The world is more 
secure and the interests of the United States are best advanced 
when we act collectively.'' That basic truth underlies the very 
purpose of the United Nations, as well as the broader 
commitment of the United States to provide energetic and 
sustained global leadership at the U.N. to deepen our security.
    If confirmed, I will work to advance America's interests 
and values at the United Nations as we work with the 
international community to forge common responses to common 
problems. As Ambassador Rice has noted, ``America can't police 
every conflict and every crisis and shelter every refugee.'' We 
live in an interwoven age of threats that pay no heed to 
borders. Now more than ever, American security and well-being 
are inextricably linked to those of people everywhere. So our 
security depends on our ability to work together with others to 
confront these threats.
    Now more than ever, the U.N. provides a crucial venue for 
countries to come together, shoulder their responsibilities, 
and carry together the costs of upholding peace and security. 
Of course, the United Nations is far from perfect. We must 
continue to be clear about the U.N.'s shortcomings. But let us 
also remember the indispensable role the U.N. plays in tackling 
the threats and challenges of the 21st century: preventing 
conflict, helping halt the spread of nuclear weapons, isolating 
terrorists and human rights abusers, and advancing American 
values.
    I have had the privilege of spending nearly half of my 
Foreign Service career in multilateral diplomacy. Each 
assignment has reinforced my view that our efforts at the U.N., 
although challenging at times, unquestionably advance American 
interests and values. If confirmed, I will work to bolster U.N. 
peacekeeping and political missions in Afghanistan, Iraq, 
Sudan, Haiti, the Democratic Republic of the Congo, and 
elsewhere. I will seek to strengthen peacekeeping mandates, 
prevent abuses by peacekeepers, and give the U.N. what it needs 
to more effectively protect civilians. I will work to ensure 
full and rigorous implementation of Security Council sanctions 
on Iran and North Korea, as well as other council sanctions 
targeting individuals and companies associated with terrorism, 
atrocities, and transnational crime. I will strongly encourage 
the U.N.'s efforts to advance democracy and human rights in the 
Middle East and elsewhere and press for equality and women's 
rights, and I will support the administration's efforts to lead 
the charge for comprehensive reform of the U.N. and to help the 
U.N. fulfill its potential. If confirmed by the Senate, I'll be 
a strong advocate for American interests and values.
    Madam Chairman, I am grateful to this committee for 
considering my nomination and, if confirmed, I will look 
forward to working closely with the members and staff on these 
critical issues. Thank you and I look forward to your 
questions.
    [The prepared statement of Mr. DeLaurentis follows:]

               Prepared Statement of Jeffrey DeLaurentis

    Madam Chairman, Ranking Member Barrasso, and other distinguished 
members of the committee, I am honored to appear before you today as 
President Obama's nominee to be the Alternate Representative for 
Special Political Affairs at the United Nations.
    I am grateful to the President, Secretary Clinton, and Ambassador 
Rice for this opportunity and for their confidence in me.
    Before proceeding further, let me introduce my wife, Jennifer, who 
is with me today.
    In his March speech dedicating the Ronald H. Brown Building--the 
new home of the United States Mission to the United Nations--President 
Obama said, ``The world is more secure and the interests of the United 
States are best advanced when we act collectively.'' That basic truth 
underlies the very purpose of the United Nations--as well as the 
broader commitment of the United States to provide energetic and 
sustained global leadership at the U.N. to deepen our security. It is 
also the tenet that has shaped a good part of my own career at the 
State Department over the last 20 years. If confirmed, I will work to 
advance America's interests and values at the United Nations, as we 
work with the international community to forge common responses to 
common problems.
    As Ambassador Rice has noted, ``America can't police every 
conflict, end every crisis, and shelter every refugee.'' The U.N. 
brings 192 countries together to share the cost of providing stability, 
aid, and hope in the world's broken places.
    We live in an interwoven age of threats that pay no heed to 
borders--from terrorism to pandemic disease, from criminal networks to 
environmental degradation. Now more than ever, Americans' security and 
well-being are inextricably linked to those of people everywhere. So 
our security depends on our ability to work together with others to 
confront these threats. Now more than ever, the U.N. provides a crucial 
venue for countries to come together, shoulder their responsibilities, 
and carry together the costs of upholding peace and security.
    Of course, the United Nations is far from perfect. Progress 
sometimes comes too slowly. It is all too easy to find examples where 
the U.N. could be more efficient and effective, and where it has 
stumbled in the past. We must continue to be clear about the U.N.'s 
shortcomings. But let us also remember the indispensable role the U.N. 
plays in tackling the threats and challenges of the 21st century, 
preventing conflict, helping halt the spread of nuclear weapons, 
isolating terrorists and human rights abusers, providing desperately 
needed medicine and shelter, combating global poverty, promoting 
democracy, and advancing American values.
    I have had the privilege of spending nearly half of my Foreign 
Service career in multilateral diplomacy, including two assignments at 
the U.S. Mission to the U.N. in New York and one at the U.S. Mission to 
the U.N. in Geneva. Each assignment has reinforced my view that our 
efforts at the U.N., although challenging at times, unquestionably 
advance American interests and values. At the U.N., we react to today's 
crises while trying to avert those to come. At the U.N., we pursue 
actions that will make us more secure. And because of the U.N., the 
international community does not always look to America to solve every 
problem alone.
    Madam Chairman, I would welcome the opportunity to return to 
multilateral work if confirmed. Under the leadership of President 
Obama, Secretary Clinton, and Ambassador Rice, our entire approach 
toward multilateral diplomacy is being reinvigorated--and it has 
produced results for the United States at the U.N. The State 
Department's Quadrennial Diplomacy and Development Review noted that 
the United States must partner with other countries to better address 
issues of shared concern and to reform and reshape international 
organizations so they can effectively confront 21st century challenges. 
It recommended that we update our approach to multilateral diplomacy, 
expand the ranks of diplomats skilled in multilateral diplomacy and 
improve links between our multilateral and bilateral diplomacy, 
especially with respect to our engagement with the United Nations. It 
would be my highest honor to pursue these goals in order to better 
advance our country's interests at the U.N.
    U.S. national security depends on a more effective approach to 
fragile states, an approach that is comprehensive enough to prevent us 
from having to intervene multiple times in a country emerging from 
conflict. Fostering security and reconstruction in the aftermath of 
conflict is a central national security objective. The United Nations 
plays a leading role here by organizing, directing, and promoting 
peacekeeping and stability operations, and setting the stage for peace-
building and development. In today's difficult fiscal environment, if 
confirmed, I will work to ensure that U.N. peacekeeping resources are 
deployed efficiently, effectively, and within the parameters of 
approved mandates.
    If confirmed, I will work, in particular, to bolster lifesaving 
U.N. peacekeeping and political missions in Afghanistan, Iraq, Sudan, 
Haiti, the Democratic Republic of Congo, and elsewhere. I will seek to 
strengthen peacekeeping mandates, prevent abuses by peacekeepers and 
give the U.N. what it needs to more effectively protect civilians. I 
will work to ensure full and rigorous implementation of Security 
Council sanctions on Iran and North Korea as well as other Council 
sanctions targeting individuals and companies associated with 
terrorism, atrocities, and transnational crime. I will strongly 
encourage the U.N.'s efforts to advance democracy and human rights in 
the Middle East and elsewhere, and press for equality and women's 
rights. And I will support the administration's efforts to lead the 
charge for comprehensive reform of the U.N. and to help the U.N. 
fulfill its potential.
    If confirmed by the Senate, I'll be a strong advocate for American 
interests and values.
    Madam Chairman, I am grateful to this committee for considering my 
nomination, and if confirmed, I will look forward to working closely 
with the members and staff on these critical issues.
    Thank you and I look forward to your questions.

    Senator Shaheen. Thank you both very much for your 
statements.
    Dr. DeLaurentis, as you as a representative of the United 
States look at America's role at the U.N. and concerns that we 
have with respect to the U.N., can you elucidate on what you 
think the biggest challenges that we face there are? Does it 
have to do with the organization of U.N. operations? Does it 
have to do with particular issues that are before the U.N. 
right now? Are there other things that we're especially 
concerned about?
    Mr. DeLaurentis. Madam Chairman, thank you for that 
question--it's a broad one.
    Senator Shaheen. It is.
    Mr. DeLaurentis. First and foremost, in these difficult 
budget times, it's important to remember that the U.N. 
maintains international sanctions regimes, deploys peacekeepers 
in Sudan, the Democratic Republic of the Congo, and Haiti, and 
of course U.N. missions support our troops in Iraq and 
Afghanistan.
    We're constantly working with the U.N. to improve its 
budgets, become more cost effective, make peacekeeping better, 
include benchmarks in the mandates of peacekeeping missions, 
and also improve the logistic and other kinds of support for 
peacekeeping missions.
    We're always looking for ways to improve the operations of 
U.N. peacekeeping and, of course, throughout the U.N. system. 
Thank you.
    Senator Shaheen. Since you mentioned peacekeeping, how 
would you characterize the U.N.'s record on peacekeeping for 
the last decade?
    Mr. DeLaurentis. Of course, peacekeeping has grown over the 
past decade, but I think it's been very good and it's getting 
better. The U.N. has 120,000 troops all around the world, as I 
mentioned, working on many missions that are important to the 
United States. The U.N. has actually managed to close a couple 
of missions in the last decade in Chad and Nepal. We are 
constantly reviewing every mission with each mandate renewal, 
looking again to improve operations as they continue.
    Senator Shaheen. What's our position on reform of the 
Security Council?
    Mr. DeLaurentis. Madam Chairman, thank you for that 
question. It's a difficult issue, one that the U.N. has been at 
work on for a long time. But I think it's important that the 
Security Council be relevant and efficient to address the 
challenges of the 21st century. As a result, we are open in 
principle to a modest expansion of both permanent and 
nonpermanent members.
    For the permanent members, in particular, they need to be 
strong advocates and players in the maintenance of 
international peace and security. They should be strong 
advocates for the promotion and protection of human rights. 
They should be democracies and again large players in the 
activities of the Security Council.
    There are discussions under way at the U.N., which we 
participate in. There aren't any proposals so far that have 
garnered widespread support among the membership, so I suspect 
that we'll be at this for some time to come.
    Senator Shaheen. As we're looking at a potential expansion 
of the Security Council, are we assuming that any potential 
permanent member should also have a veto?
    Mr. DeLaurentis. No, the administration would be opposed to 
any expansion of the veto beyond those members who already have 
it.
    Senator Shaheen. Can you talk about what steps we're taking 
to discourage the effort at the U.N. to seek recognition of an 
outside peace deal with Israel between the Palestinian 
Authority and, for that matter, to recognize Palestine as an 
independent state?
    Mr. DeLaurentis. Senator, the administration's position on 
this is very clear. Symbolic actions to isolate Israel at the 
U.N. in September will not lead to the creation of a 
Palestinian state. All our efforts at this moment are focused 
on bringing about direct negotiations between the parties. 
That's where we believe all the attention should be and any 
efforts at the U.N. will not be helpful in that regard.
    Senator Shaheen. Thank you.
    Let me just point out that a number of us on the committee 
had the opportunity to meet with former Chilean President 
Michele Bachelet, who is now heading the Office of Women at the 
U.N.
    Mr. DeLaurentis. Yes.
    Senator Shaheen. I think we applaud the consolidation of 
programs affecting women under that office. I think her 
leadership has been very impressive and I think--I hope it's an 
indication that the U.N. will continue to recognize what has 
become a more important part of American foreign policy, and 
that is that if we can ensure and improve the role of women in 
communities and in countries around the world that that's a 
stabilizing factor, it's an important economic factor in terms 
of how the countries do, and that that will continue to be a 
very important priority for the U.N.
    Mr. DeLaurentis. Thank you, Senator. I couldn't agree with 
you more, and if confirmed, I will certainly work hard toward 
that effort. It's been very clear that increasing women's 
participation in conflict resolution and peace processes has 
been enormously helpful, and American leadership has 
contributed very much to the number of very strong U.N. 
Security Council resolutions that are a good framework and base 
to proceed with these issues and strengthen them further. So I 
actually look forward very much to working on these issues. 
Thank you.
    Senator Shaheen. Thank you.
    Mr. Countryman, you talked about Iran, North Korea, and 
Syria. Can you talk about how you will work in your new role, 
should you be confirmed, to strengthen the nonproliferation 
regime and how we prevent those countries or discourage those 
countries from moving forward with weapons of mass destruction? 
I suppose Syria is not yet on that path, but certainly Iran and 
North Korea are.
    Mr. Countryman. Thank you, Chairman Shaheen. The effort to 
prevent proliferation of weapons of mass destruction requires 
us to use a variety of different instruments, including 
diplomatic, political, economic, intelligence, and military 
strengths, all the different strengths that this government can 
bring to the table.
    In order to strengthen those efforts, I would first focus 
on ensuring that the State Department, and particularly the ISN 
Bureau, if I'm confirmed, is doing the maximum to coordinate 
with the other agencies of the U.S. Government; and second, to 
ensure that we are being consistent with our friends around the 
world who share our goals, that we demonstrate a coherence and 
a consistency in our policy, that gives them every reason to 
join with us in continuing the pressure on Iran, on North 
Korea, and on others who are seeking to proliferate and create 
weapons of mass destruction.
    Senator Shaheen. Some of us from this committee had the 
opportunity to meet with Russian Foreign Minister Lavrov 
yesterday and one of the things that he suggested was that Iran 
might be ready to come back to the table on negotiations around 
developing a nuclear weapon. Do we have any indications that 
that in fact might be the case?
    Mr. Countryman. Both Jeff DeLaurentis and I worked with 
Ambassador Lavrov in New York and if you have an indication 
from Minister Lavrov that's an indication that it is so. We do, 
of course, seek----
    Senator Shaheen. An indication it's an indication?
    Mr. Countryman. It's an indication that--he's well 
informed, a very capable diplomat, and we have really excellent 
cooperation in the P5+1, the five permanent members plus 
Germany, in devising a strategy that makes clear our 
determination to have Iran come back into compliance with its 
international obligations.
    That effort proceeds well. Whether this is the moment to 
resume negotiations, at a time when Iran is increasing defiance 
of its obligations to the International Atomic Energy Agency 
and its obligations to the U.N. Security Council is a tough 
question. But we are, of course, prepared, as the President has 
been throughout this administration, both to engage with Iran 
to work out a new relationship, but at the same time to make 
clear that we expect Iran to come into full compliance with its 
obligations.
    Senator Shaheen. So as you pointed out, the President in 
his Prague speech talked about the importance of moving the 
world in the direction of ending our nuclear weapons at some 
point in the future, and the administration has said that it 
``will lead a global effort to negotiate a verifiable treaty 
ending the production of fissile nuclear materials for weapons 
purposes.''
    Can you talk about how the administration will include 
unrecognized nuclear weapons states like Iran in a cutoff 
treaty?
    Mr. Countryman. Thank you, Senator. I can only talk in the 
most general terms because the obligation to lead the 
negotiation of such a treaty will fall to who I hope will be my 
future colleague, Assistant Secretary Gottemoeller in the Arms 
Control and Verification Bureau. It is a goal that we are 
determined to pursue. We believe that the P5, the five 
permanent members of the Security Council, must lead this 
effort.
    But the question you put your finger on, how to bring in 
nonrecognized nuclear-capable states, is not one that's 
resolved and I'm afraid I won't be the one to resolve it.
    Senator Shaheen. Can you talk about how we'll work to 
overcome Pakistan's objections to proceeding with negotiations 
in the Conference on Disarmament?
    Mr. Countryman. Again, only in general terms. I would be 
happy to come back with colleagues in order to get into more 
detail, but in general we have done everything we can to 
promote a productive agenda of cooperation with Pakistan in the 
many specific areas that nonproliferation encompasses, from 
border security to security of nuclear materials.
    In our strategic dialogue with Pakistan and in the 
nonproliferation part of that dialogue with Pakistan, which I 
would support if confirmed, we are seeking to convince them of 
the advantages to Pakistan and world security of such an 
approach.
    Senator Shaheen. Is there any indication of the extent to 
which the recent announcement that we're going to be 
discontinuing a portion of our aid to Pakistan is going to have 
any impact on the ability to negotiate with Pakistan on those 
other issues of nuclear proliferation?
    Mr. Countryman. Very good question, Senator. I think the 
only part of that that I'm really qualified to speak to is to 
reaffirm that the assistance that we give to Pakistan for 
programs related to nonproliferation in the fields I mentioned, 
such as border control, we provide that money because it is in 
the United States interests, because it contributes directly to 
our security.
    I think that Pakistan has recognized that it shares that 
interest with us and we certainly hope to continue that 
cooperation.
    Senator Shaheen. The final document of the 2010 NPT treaty 
review conference also called for India and Pakistan to accede 
to the NPT and to abandon their weapons programs. What steps, 
if any, are we taking to persuade India and Pakistan to do 
that?
    Mr. Countryman. As I noted, Senator, we have a 
nonproliferation and a strategic dialogue with both India and 
Pakistan. In this dialogue and in our ongoing contact with 
each, we seek to have them take steps that improve the security 
of nuclear materials and that do not encourage additional 
proliferation in both countries. We hope that gradually we can 
create the conditions under which they will seriously consider 
joining the NPT. I think we must conclude that it's realistic 
that we won't reach that goal in the immediate future, but we 
continue to work toward it in our bilateral cooperation with 
both states.
    Senator Shaheen. We announced, or the administration 
announced, its intention to support India's full membership in 
the Nuclear Suppliers Group in November 2010, as well as the 
Missile Technology Control Regime, the Australia Group, the 
Wassenaar Arrangement. Are we also expecting that India will 
bring its export control regimes in conformity with these 
groups' guidelines before it joins?
    Mr. Countryman. Thank you, Senator. We are working both 
with India and with the existing members of those four export 
control regimes toward the goal that we promised in November 
2010. It is our expectation that India would meet the standards 
of those regimes prior to joining.
    Senator Shaheen. Good.
    I don't have any further questions for right now, but I 
would be remiss, Dr. DeLaurentis, if I didn't go back and ask 
you a final question about Libya, since that has been so much 
of the part of the national discussion here. Do you expect any 
further action on Libya at the U.N. and is there any reason to 
be optimistic about the U.N.'s further engagement in Libya that 
will help provide a resolution to the conflict there?
    Mr. DeLaurentis. Thank you, Senator. It's a very good 
question, unfortunately, I was not a part of the negotiations 
in New York. Of course, the two Security Council resolutions 
provided the framework for the current action with respect to 
the protection of civilians clearly in harm's way, the arms 
embargo, and so forth.
    I think there is reason for optimism. We're beginning to 
see an international consensus that comes closer to our 
position that Qadafi has to go, has to step down, and we need 
to move toward a democratic transition. Of course, there's a 
U.N. envoy involved and things are changing on a daily basis. 
But I think in general we can be optimistic, and I think we can 
be proud that we averted a humanitarian catastrophe.
    Thank you.
    Senator Shaheen. Well, thank you both very much again for 
your testimony here today, for your willingness to serve. I 
hope that we can move forward with speedy confirmations of both 
of you so that you can start your new positions as soon as 
possible.
    I will point out that the record will stand open for 48 
hours until the close of business on Friday July 15 for any 
further comments or statements.
    Thank you all. The hearing is adjourned.
    [Whereupon, at 4:27 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Responses of Paul Wohlers to Questions Submitted
                      by Senator Richard G. Lugar

    Question. In your view, should Macedonia's accession to NATO 
continue to depend on resolution of its name dispute with Greece? What 
other measures, besides resolution of the name dispute, must Macedonia 
undertake to accede to NATO?

    Answer. The United States supports Macedonia's membership in NATO. 
Macedonia has fulfilled key criteria required of NATO members and will 
receive an invitation to join as soon as the dispute with Greece over 
its name is resolved. Heads of State and Government concluded at NATO's 
2008 Bucharest summit--and reaffirmed at the Strasbourg-Kehl and Lisbon 
summits--that ``an invitation to the former Yugoslav Republic of 
Macedonia will be extended as soon as a mutually acceptable solution to 
the name issue has been reached.''
    Macedonia participates in the Membership Action Plan (MAP) process 
and continues to be an active participant in the Partnership for Peace 
(PfP) and its Planning and Review Process (PARP). With 163 site 
protectors, army mentors, and medical personnel, it maintains one of 
the highest per capita contributions to NATO's International Security 
Assistance Force (ISAF). Macedonia has implemented key defense reforms 
in support of its NATO aspirations and should continue to enhance the 
deployability of its armed forces and improve its interoperability with 
NATO forces.

    Question. What effect would Macedonia's accession to NATO have on 
regional stability?

    Answer. Regional stability in Southeast Europe is a foreign policy 
priority of the United States, and we support the full integration of 
Macedonia into Euro-Atlantic institutions to further that priority. As 
a NATO aspirant country, Macedonia has become a valuable contributor to 
regional security. It provides small contingents in support of the EU 
peacekeeping mission in Bosnia and provides support to the KFOR mission 
through a Host Nation Support Coordination Center.
    The Euro-Atlantic integration process results in domestic reform 
not only in the area of security but also in rule of law, 
democratization, and the development of civil society. By fulfilling 
NATO membership criteria, Macedonia is reinforcing its ability to 
withstand internal and external crises, thus aiding in the 
stabilization process throughout the region. Assuming the name issue is 
resolved, Macedonia's successful accession to NATO would serve as an 
example to other NATO aspirants in the region, demonstrating that the 
necessary reforms can be accomplished, membership is in fact 
achievable, and NATO's open door policy is true and unwavering.

    Question. Please describe Macedonia's energy security situation. 
What steps would you advocate as Ambassador to promote its energy 
security?

    Answer. Macedonia imports a significant amount of electrical power, 
which underscores both the importance of Macedonia's participation in 
the Energy Community and the need for increased energy efficiency and 
use of renewable sources. The key for Macedonia's energy security is 
diversification. Of domestic production, roughly 30 percent comes from 
hydroelectric sources and about 70 percent comes from coal. It is 
estimated that the capacity for hydroelectric power generation can be 
increased with several projects that are in the development stage.
    Through USAID assistance programs, the United States has helped 
Macedonia realize its Energy Community commitments to ensure a rational 
energy market and has funded the development of the Energy Efficiency 
Strategy and Action Plan, as well as the Action Plan for the Renewable 
Energy Strategy and demonstration projects to encourage more energy 
efficiency. Likewise, we have assisted in the development and passage 
of a new comprehensive energy sector law and are supporting the 
development of the key required secondary legislation to encourage 
investment in renewable sources such as wind and solar. If confirmed, I 
will continue to support programs that lead to energy diversity and 
help reduce Macedonia's import dependency.

    Question. What sectors of the Macedonian economy are in most need 
of foreign investment? How would you seek to increase U.S. investment 
in Macedonia?

    Answer. Macedonia lags behind other countries in the region in 
attracting foreign direct investment, yet there are real opportunities. 
For instance, two U.S. companies have invested in production facilities 
near Skopje for the production of auto parts and electronics. The 
companies investing in these facilities are using them to expand into 
markets in Europe and elsewhere. In addition to small manufacturers, 
investment opportunities exist in agriculture and technology.
    Lack of progress on NATO and EU integration and the inability of 
the judiciary to provide reliable, impartial, and timely settlement of 
disputes are obstacles to attracting more investment. If confirmed, I 
would continue to support our mission's efforts to address these 
obstacles through our assistance, public engagement, and in meetings 
with the Government, so that we can help Macedonia realize its full 
potential as an economic partner.
                                 ______
                                 

          Responses of William Moser to Questions Submitted by
                        Senator Richard G. Lugar

    Question. Several seizures of uranium have occurred in Moldova over 
the past year. Could you please provide a list of U.S. programs in 
Moldova for the past two fiscal years that advance U.S. 
nonproliferation objectives?

    Answer. Members of the interagency Nuclear Trafficking Response 
Group (NTRG), which is chaired by the Department of State, have been 
working closely with the Government of Moldova in recent months to 
break up nuclear trafficking networks. The NTRG coordinated the USG 
response to the recent law enforcement operations in Moldova, including 
the seizure of uranium-238 in August 2010 and the June 2011 seizure of 
highly enriched uranium (HEU). The NTRG continues to facilitate 
followup actions with Moldova and other countries as we work together 
to investigate the smuggling networks involved.
    U.S. programs in Moldova focused on nonproliferation include:

  <bullet> The State Department's Export Control and Related Border 
        Security (EXBS) Program, which restarted in Moldova in November 
        2010, has coordinated with other federal agencies to organize 
        seminars and tabletop exercises to enhance Moldovan 
        capabilities in detecting and interdicting smuggling of weapons 
        of mass destruction.
  <bullet> The Department of State's Nuclear Smuggling Outreach 
        Initiative (NSOI) initiated a dialogue with Moldova in 2010 on 
        combating the smuggling of illicit nuclear material. On July 
        19, the U.S. Ambassador to Moldova signed the ``Joint Action 
        Plan between the Government of the United States of America and 
        the Government of the Republic of Moldova on Combating 
        Smuggling of Nuclear and Radioactive Materials.'' This Joint 
        Action Plan expresses the intention of the two governments to 
        take steps to enhance the capabilities of the Republic of 
        Moldova to prevent, detect, and respond effectively to any 
        attempts to smuggle materials that could be used to make an 
        improvised nuclear device.
  <bullet> The Department of State's Preventing Nuclear Smuggling 
        Program (PNSP) plans to fund projects that are part of the NSOI 
        Joint Action Plan, starting in the autumn of 2011. PNSP plans 
        to help Moldova build specialized Counter Nuclear Smuggling 
        Teams, host a workshop to review Moldova's laws on nuclear 
        smuggling, and help Moldova further strengthen its national 
        response plan to ensure effective coordination in responding to 
        incidents of trafficking in nuclear or radioactive materials.
  <bullet> On July 19, the U.S. Ambassador to Moldova signed the 
        ``Memorandum of Understanding Between the Department of Energy 
        of the United States of America and the Customs Service under 
        the Ministry of Finance of the Republic of Moldova Concerning 
        Cooperation to Prevent Illicit Trafficking in Nuclear and Other 
        Radioactive Material.'' The memorandum of understanding will 
        allow the Department of Energy's National Nuclear Security 
        Administration (NNSA) to provide radiation detection systems at 
        strategic locations at Moldova's borders, to thwart nuclear 
        smuggling and prevent illicit movement of nuclear and 
        radioactive materials.
  <bullet> The Department of Defense's Cooperative Threat Reduction's 
        Proliferation Prevention Program (CTR PPP) is discussing with 
        Moldovan officials possible projects to enhance WMD detection 
        and interdiction capabilities on the borders with Ukraine and 
        around the region of Transnistria. Moldovan officials have 
        welcomed possible assistance. CTR officials anticipate further 
        discussions in the coming months.
  <bullet> On nonnuclear proliferation risks, the United States has 
        cooperated with the Organization for Security and Cooperation 
        in Europe (OSCE) in the destruction of Soviet-era rockets and 
        cluster munitions left in the territory of Moldova under 
        control of the central authorities.

    Question. Please describe how the programs mentioned above are 
coordinated with U.S. programs in Ukraine. Do you believe that these 
programs could be better coordinated? If so, please describe.

    Answer. The Department of State's Nuclear Smuggling Outreach 
Initiative Joint Action Plan on nuclear smuggling to be signed with 
Moldova is modeled after a similar plan established with Ukraine in 
2006. The Joint Action Plan specifically calls for Moldova to bolster 
its cooperation on countersmuggling efforts with international 
partners, including Ukraine.
    The legal review and national response plan workshops that the 
Department of State's Preventing Nuclear Smuggling Program plans to 
host in Moldova are modeled after similar workshops it hosted in 
Ukraine. The Preventing Nuclear Smuggling Program is planning a visit 
to Moldova, Ukraine, and Slovakia this fall to help develop Counter 
Nuclear Smuggling Teams in all three countries. One of the goals of 
these teams is to foster cooperation among law enforcement counterparts 
in the region.
    The Department of Energy's work in Moldova to provide radiation 
detection systems on the border and to upgrade physical security at 
Moldovan facilities parallels such work in Ukraine. Assistance for 
border security in both countries will be mutually reinforcing, as both 
countries share a border known to be a popular route among smugglers.
    Those responsible for the State Department's Export Control and 
Related Border Security (EXBS) programs in Chisinau and Kyiv 
communicate regularly regarding their work, and the programs share the 
same regional EXBS Advisor, who is posted at the U.S. Embassy in Kyiv. 
The two EXBS programs plan closer cooperation in coming years to assist 
in training Moldovan and Ukrainian border guards and other law-
enforcement authorities via joint exercises in both countries.

    Question. Is the U.S. Government aware of the origins of the seized 
uranium? If so, please describe.

    Answer. Detailed analysis of the uranium seized by Moldovan police 
on June 28, 2011, has not been completed. Since this case is still 
open, all of the information on this matter is highly sensitive as 
Moldova continues its investigation in cooperation with the United 
States.

    Question. A bill to repeal Jackson-Vanik for Moldova has been 
pending for the last several years. Please describe administration 
efforts to push for passage of this bill (S. 334 and its House 
companion) in 2011, including meetings held with House and Senate 
committee staff and House and Senate leadership staff on this issue.

    Answer. Since 1997, the United States Government has found Moldova 
to be in compliance with Jackson-Vanik emigration requirements, and the 
Obama administration has extended to Moldova conditional normal trade 
relations status. The Obama administration supports terminating the 
application of Jackson-Vanik and extending Permanent Normal Trade 
Relations (PNTR) to Moldova, because the country has satisfied all the 
freedom of emigration requirements of Jackson-Vanik, and because U.S. 
exporters to Moldova will not enjoy WTO benefits and protections until 
the application of Jackson-Vanik is lifted. During his March visit to 
Chisinau, Vice President Biden delivered a message of support for 
granting PNTR to Moldova, both publicly and privately. Administration 
officials have also discussed the termination of the application of 
Jackson-Vanik with House and Senate staff .
    The administration's top trade priorities with Congress include 
trade agreements with Korea, Colombia, and Panama, Trade Adjustment 
Assistance (TAA), and renewal of trade preference programs (e.g., 
Generalized System of Preferences and the Andean Trade Preference Act). 
We look forward to working with Congress on lifting Jackson-Vanik's 
application to Moldova as our trade agenda advances.

    Question. What tangible steps will you take as Ambassador to 
increase U.S. investment in Moldova?

    Answer. If I am confirmed as U.S. Ambassador to Moldova, I will 
enhance our trade and investment promotion efforts and build upon them. 
The key to making Moldova more attractive to U.S. investors and 
exporters is improving Moldova's overall business and investment 
climate, and the USG has been actively working on this priority with 
the Moldovan Government. For example, the U.S. Agency for International 
Development has two programs dedicated to this effort:

  <bullet> The Business Regulatory and Tax Administration Reform 
        Project works with the Moldovan Government to reduce the 
        administrative burdens on the private sector, streamline tax 
        administration, reduce opportunities for corruption, improve 
        access to government information, and strengthen public-private 
        sector dialogue.
  <bullet> The Moldova Rapid Governance Support Program, provides 
        rapidly implemented, short-term expert assistance to Moldovan 
        Government ministries and offices to support implementation of 
        key reforms in the areas of judicial administration, 
        agricultural subsidies, customs, fiscal decentralization, 
        internal government communications, and implementation of an e-
        government strategy.

    As a result of these efforts, over 17,000 businesses now save an 
average of 4 hours/month using the rapid tax declaration system 
developed under the Business Regulatory and Tax Administration Reform 
Project. Moldova's State Licensing Chamber recently launched its one-
stop shop, which allows businesses to combine what used to require four 
or more separate applications, presented by hand to different agencies, 
into a single filing. Meanwhile, changes in construction laws have 
shaved 70 days and over $1,000 in fees from the process of acquiring 
permits.
    If confirmed, I will continue to focus on improving Moldova's 
investment climate, because foreign direct investment and two-way trade 
can play an important role in boosting exports and employment and 
reducing poverty.
                                 ______
                                 

          Responses of John Heffern to Questions Submitted by 
                         Senator Barbara Boxer

    Question. As you know, countless experts have documented the 
horrific atrocities of the Armenian Genocide of 1915 to 1923, when more 
than 1.5 million Armenians were marched to their deaths in the deserts 
of the Middle East, murdered in concentration camps, drowned at sea, 
and forced to endure unimaginable acts of brutality at the hands of the 
Ottoman Empire--now modern-day Turkey.
    That is why it is so hard to understand how Turkey continues its 
state-sponsored denial of this terrible crime.

  <bullet> How is the administration working to urge Turkey to finally 
        acknowledge the Armenian Genocide? What efforts have been 
        undertaken to date?

    Answer. The President has said that a full, frank, and just 
acknowledgement of the facts is in all our interest. In his April 23, 
2011, statement, he noted that history teaches us that our nations are 
stronger and our cause is more just when we appropriately recognize 
painful pasts and work to rebuild bridges of understanding toward a 
better tomorrow. With this in mind, he strongly supports efforts by the 
Turkish and Armenian peoples to work through their painful history in a 
way that is honest, open, and constructive. The U.S. Government 
supports the efforts of individuals in Armenia and Turkey to foster a 
dialogue that acknowledges their history, sponsoring programs that 
foster contacts between the Armenian and Turkish peoples.
    Over the last decade, the United States has provided approximately 
$3.5 million to support activities aimed at strengthening relations 
between the people of Armenia and Turkey. These include initiatives to 
increase people-to-people connections such as research projects, 
conferences, documentary production, and exchange and partnership 
programs with the goal of increasing cross-border dialogue and 
cooperation. These programs are focused on bringing together Armenian 
and Turkish NGOs, think-tank researchers, academics and business 
leaders at the grassroots level by creating opportunities for them to 
work together on common projects that will benefit both countries. If I 
am confirmed, I will continue to promote not only government-to-
government discussions, but also people-to-people cultural and economic 
contacts and partnerships, and other cross-border and regional 
initiatives.

    Question. Recently, the Government of Azerbaijan threatened to 
shoot down civilian airplanes if Nagorno Karabakh goes ahead with plans 
to reopen its civilian airport that has been closed since 1991.
    According to news reports, the head of Azerbaijan's Civil Aviation 
Administration said that ``the law on aviation envisages the physical 
destruction of airplanes landing in'' Nagorno Karabakh.

  <bullet> How has the United States Government responded to these 
        threats? Is there an effort underway with the Government of 
        Azerbaijan to encourage it to back down? How will the United 
        States respond once the airport is open?

    Answer. U.S. officials have made clear repeatedly that the threat 
or use of force, including against civilian aircraft that pose no 
threat themselves, is unacceptable, and runs counter to commitments 
made by the Presidents of Azerbaijan and Armenia to seek a peaceful, 
negotiated settlement.
    The United States Government has urged both sides to work together 
to resolve all issues of commercial aviation safety prior to the 
planned opening of the proposed airport. On April 1, the Azerbaijani 
Foreign Ministry declared that ``Azerbaijan will not use force against 
civil facilities." Also, the Presidents of Armenia and Azerbaijan have 
both confirmed to the Minsk Group cochairs in early April that they 
will not use force against civil aircraft.

    Question. Can you please provide your views on the following 
statements made by President Obama? Do you disagree with them? If so, 
why?

    ``Nearly 2 million Armenians were deported during the Armenian 
Genocide, which was carried out by the Ottoman Empire from 1915 to 
1923, and approximately 1.5 million of those deported were killed.''--
Senator Obama, Question for the Record to Ambassador Yovanovitch, June 
19, 2008.

    ``The occurrence of the Armenian genocide is a widely documented 
fact supported by an overwhelming collection of historical 
evidence.''--Senator Obama, Statement Commemorating the Armenian 
Genocide, April 28, 2008.

    ``The Armenian Genocide is not an allegation, a personal opinion, 
or a point of view, but rather a widely documented fact supported by an 
overwhelming body of historical evidence.''--Senator Obama on the 
importance of U.S.-Armenia Relations, January 19, 2008.

    Answer. In his April 23 Armenian Remembrance Day statement, the 
President solemnly remembered as historical fact that 1.5 million 
Armenians were massacred or marched to their deaths from 1915-1923. The 
President's views on this subject are well known; they have not 
changed.
    Like all executive branch officials, I have a responsibility to 
represent the policy of the President on this and all other issues. If 
I am confirmed as the personal representative of the President to 
Armenia, I will continue to do so.

    Question. Does the United States Government support the inclusion 
of the Nagorno-Karabakh Republic in the Minsk Group process? If not, 
please provide a detailed explanation.

    Answer. The United States supports the current format of 
negotiations for the Minsk Group process, which has been agreed to by 
both the Armenian and Azerbaijani sides. At this stage in the 
negotiation, the USG believes it is best to continue on this basis. Any 
final settlement of the Nagorno-Karabakh (NK) conflict must be 
acceptable to the Karabakhi communities. The Minsk Group cochairs 
travel regularly to NK to meet with the de facto NK authorities.

    Question. In 2010, trade between the United States and Armenia 
totaled approximately $189 billion (both imports and exports). What 
steps are being taken by the administration to increase trade between 
our two countries?

    Answer. The U.S. and Armenian governments have a robust dialogue 
focused on trade and investment issues between our two countries as 
part of the U.S.-Armenia Joint Economic Task Force (USATF)--which has 
been meeting regularly since 1999. We are committed to using this forum 
to enhance bilateral trade opportunities and improve the business 
climate in Armenia. As part of that effort we are using the USATF to 
encourage business-to-business contacts, identify sectors for reform, 
and to advocate for U.S. companies who want to expand their business 
with Armenia. The next USATF meeting is scheduled for September of this 
year.
    Over the past several years, our countries have concluded 
agreements that advance greater cooperation. In November 2008, the U.S. 
Government and the Government of Armenia concluded a comprehensive Open 
Skies agreement to expand and liberalize bilateral civil aviation 
relations between the two countries. In 2009, Armenia and the United 
States signed an agreement that will facilitate science and technology 
cooperation in numerous areas of mutual interest including information 
technology, intellectual property, earth sciences, and others. This 
year we signed an MOU to jointly analyze Armenia's potential 
conventional and unconventional energy resources.
    In order to increase bilateral trade and investment, we intend to 
organize a trade mission in the coming year that will bring Armenian 
business people on a sector-specific trip to the United States. They 
will have the chance to attend trade shows and connect with U.S. 
businesses interested in export, as well as having the opportunity to 
develop markets for Armenian exports. While this idea is still in the 
development phase--we are considering how we might fund it--if I am 
confirmed this would be one of my first orders of business upon 
arriving in Yerevan.
    Our diplomatic engagement and assistance programs continue to 
address the underlying impediments to doing business in Armenia. The 
USG is actively working with the Armenian authorities to create a more 
favorable trade and investment environment, including through reform of 
its tax administration and customs procedures, improving its legal 
system, and addressing corruption that stifles investment in Armenia. 
USAID's Mobilizing Action Against Corruption (MAAC) project is now 
providing input to the Armenian Government's efforts to develop a 
revised anticorruption strategy. Armenian Intellectual Property Rights 
(IPR) specialists attend U.S. Patent Office training to improve 
Armenian patent and copyright law, improving IPR protection in Armenia 
and making the country more attractive to U.S. businesses.
    Other U.S. Government programs work directly with Armenian 
entrepreneurs and companies: USAID's Competitive Armenian Private 
Sector (CAPS) and Enterprise Development and Market Competitiveness 
(EDMC) projects aim to enhance business and management skills, increase 
access to financial services for Armenian businesses, and encourage 
enterprise collaboration and joint ventures. Our Business Advisory 
Services program provides technical and consulting services to Armenian 
companies, helping them to improve their operations and enter new 
markets. U.S. Government assistance moneys have supported the Civilian 
Research and Development Fund in Armenia since the 1990s. This project 
identifies and funds technological innovations that have promising 
commercial applications, and pairs Armenian scientists and 
businesspeople to develop these innovations.
    Should I be confirmed, I intend to work to provide U.S. businesses 
with information about opportunities in Armenia, and to provide 
Armenian businesses insight about how American businesses operate. 
Promotion of trade and business cooperation between the United States 
and Armenia will require greater awareness of Armenia and the Caucasus 
as a whole by U.S. businesses. Some sectors, such as information 
technology, already have significant U.S. investment. But others, 
financial services and insurance for example, hold largely untapped 
potential.
    Finally, I believe that the key to unlocking Armenia's economic 
potential--and opening up more opportunities for U.S.-Armenian business 
cooperation--lies in the resolution of regional conflicts. If 
confirmed, I will support the USG's continued efforts to open the land 
border with Turkey and to achieve a peaceful solution to the Nagorno-
Karabakh conflict. Armenia's economic integration into the wider region 
remains an important U.S. policy objective.

    Question. If confirmed, will you commit to comprehensive engagement 
with the Armenian Community in California and throughout the United 
States on a regular basis? For example, will you commit to holding 
public community forums with Armenian Americans throughout the United 
States?

    Answer. Yes. If confirmed, I would look forward to visiting and 
meeting with members of the Armenian American community in California, 
throughout the United States, and in Armenia, as my predecessors have 
done. It would be a valuable opportunity to understand their concerns, 
update them on the status of the U.S.-Armenia relationship, and to 
discuss a host of relevant issues.

    Question. In a July 29, 2008 letter to then-chairman of the Senate 
Foreign Relations Committee Joseph Biden, Acting Assistant Secretary 
for Legislative Affairs Matthew Reynolds wrote of ``the mass killings 
and deportations of Armenians committed by Ottoman soldiers and other 
Ottoman officials in 1915'' and noted that ``the administration 
recognizes that the mass killings, ethnic cleansing, and forced 
deportations of over 1\1/2\ million Armenians were conducted by the 
Ottoman Empire. We indeed hold Ottoman officials responsible for those 
crimes.'' Does the administration ascribe to this policy statement?

  <bullet> Do you agree that U.S. diplomats serving in the Ottoman 
        Empire during the Armenian Genocide documented a systematic, 
        government-sponsored campaign ``with intent to destroy, in 
        whole or in part'' the Armenian population?

    Answer. In his April 23 Armenian Remembrance Day statement, the 
President solemnly remembered as historical fact that 1.5 million 
Armenians were massacred or marched to their deaths from 1915-1923. The 
President's views on this issue are well known; those views have not 
changed. The administration mourns this terrible chapter of history and 
recognizes that it remains a source of great pain for the people of 
Armenia, and for all those who believe in the dignity and value of 
every human life.
    I have read the statements of Ambassadors Morgenthau and Elkus, the 
statements of other U.S. officials in Turkey at the time, as well as a 
number of books on this subject. I am acquainted with the history of 
the tragic massacres and deportations that occurred at the end of the 
Ottoman Empire, and with U.S. policy in that regard. The individual 
stories are heartrending; the magnitude of these terrible acts--over 
1.5 million killed or forcibly deported--defies comprehension.
                                 ______
                                 

          Responses of John Heffern to Questions Submitted by
                        Senator Robert Menendez

    Question. In your opening statement you state that ``President 
Obama has recognized and deplored the horrific events that took place 
in the waning days of the Ottoman empire'' and note that he has 
``publicly called the massacre of 1.5 million Armenians at the time one 
of the worst atrocities of the 20th century.'' I welcome that 
statement, but note that it refrains from laying blame for these 
events.

  <bullet> Do you or does the administration agree that the mass 
        killings, ethnic cleansing, and forced deportations of over 1.5 
        million Armenians were conducted by the Ottoman Empire?
  <bullet> Does the administration recognize the Turkish Republic as 
        the successor state to the Ottoman Empire? Who then was 
        responsible for the murder of over 1.5 million Armenians from 
        1915-1923?

    Answer. In his Armenian Remembrance Day statement on April 23, the 
President solemnly remembered the horrific events of 1915, when 1.5 
million Armenians were massacred or marched to their deaths in the 
final days of the Ottoman Empire. With his statement, the President 
honors the victims of these events and expresses American solidarity 
with the Armenian people; his views on this subject have not changed.
    This was an atrocity that we and the world must never forget, so 
that it is never repeated. We mourn this terrible chapter of history 
and recognize that it remains a source of great pain for all those who 
believe in the dignity and value of every human life.
    The President has said that the achievement of a full, frank, and 
just acknowledgement of the facts of what occurred in 1915 is in all 
our interests.

    Question. Article 2 of the Convention on the Prevention and 
Punishment of the Crime of Genocide, of which the United States has 
both signed and ratified, states:

    In the present Convention, genocide means any of the following acts 
committed with intent to destroy, in whole or in part, a national, 
ethnic, racial or religious group, as such:
          ``(a) Killing members of the group;
          ``(b) Causing serious bodily or mental harm to members of the 
        group;
          ``(c) Deliberately inflicting on the group conditions of life 
        calculated to bring about its physical destruction in whole or 
        in part;
          ``(d) Imposing measures intended to prevent births within the 
        group;
          ``(e) Forcibly transferring children of the group to another 
        group.''

    Therefore, would not the facts that you acknowledge in your opening 
statement, during the period of 1915-1923, meet the definition under 
Article 2 of the Convention on the Prevention and Punishment of the 
Crime of Genocide?

    Answer. In his April 23 Armenian Remembrance Day statement, the 
President solemnly remembered as historical fact that 1.5 million 
Armenians were massacred or marched to their deaths from 1915-1923. The 
administration mourns this terrible chapter of history and recognizes 
that it remains a source of great pain for all those who believe in the 
dignity and value of every human life.
    The President has said that the achievement of a full, frank, and 
just acknowledgement of the facts of what occurred in 1915 is in all 
our interests. He strongly supports the efforts of Turkey and Armenia 
to normalize their bilateral relations. The President believes that 
together, Armenia and Turkey can forge a relationship that is peaceful, 
productive, and prosperous.
    I have a responsibility to represent the policy of the President. 
The President's views on this issue are well known; those views have 
not changed. If I am confirmed as the personal representative of the 
President to Armenia, I will carry out this responsibility.

    Question. Please describe the facts or circumstances, including 
historical instances, that constitute the act of genocide as described 
in Article II of the Convention on the Prevention and Punishment of the 
Crime of Genocide.

    Answer. The United States became a State Party to the Convention on 
Prevention and Punishment of the Crime of Genocide in 1989. When 
ratifying the Convention, the United States set forth an understanding 
with respect to the definition of genocide provided in Article II. 
Article II provides:

    ``In the present Convention, genocide means any of the following 
acts committed with intent to destroy, in whole or in part, a national 
ethnical, racial or religious group, as such:
          ``(a) Killing members of the group;
          ``(b) Causing serious bodily or mental harm to members of the 
        group;
          ``(c) Deliberately inflicting on the group conditions of life 
        calculated to bring about its physical destruction in whole or 
        in part;
          ``(d) Imposing measures intended to prevent births in the 
        group;
          ``(e) Forcibly transferring children of the group to another 
        group.''

    The U.S. ratification instrument set forth several reservations and 
understandings to the Convention, including:
Reservations:
    ``(1) That with reference to article IX of the Convention, before 
any dispute to which the United States is a party may be submitted to 
the jurisdiction of the International Court of Justice under this 
article, the specific consent of the United States is required in each 
case.
    ``(2) That nothing in the Convention requires or authorizes 
legislation or other action by the United States of America prohibited 
by the Constitution of the United States as interpreted by the United 
States."
Understandings:
    ``(1) That the term `intent to destroy, in whole or in part, a 
national, ethnical, racial, or religious group as such' appearing in 
article II means the specific intent to destroy, in whole or in 
substantial part, a national, ethnical, racial or religious group as 
such by the acts specified in article II.
    ``(2) That the term `mental harm' in article II (b) means permanent 
impairment of mental faculties through drugs, torture or similar 
techniques.
    ``(3) That the pledge to grant extradition in accordance with a 
state's laws and treaties in force found in article VII extends only to 
acts which are criminal under the laws of both the requesting and the 
requested state and nothing in article VI affects the right of any 
state to bring to trial before its own tribunals any of its nationals 
for acts committed outside a state.
    ``(4) That acts in the course of armed conflicts committed without 
the specific intent required by article II are not sufficient to 
constitute genocide as defined by this Convention.
    ``(5) That with regard to the reference to an international penal 
tribunal in article VI of the Convention, the United States declares 
that it reserves the right to effect its participation in any such 
tribunal only by a treaty entered into specifically for that purpose 
with the advice and consent of the Senate."

    In his April 23 statement, the President solemnly remembered as 
historical fact that 1.5 million Armenians were massacred or marched to 
their deaths from 1915-1923. The President has said that the 
achievement of a full, frank, and just acknowledgement of the facts of 
what occurred in 1915 is in all our interests.

    Question. The U.S. State Department chronicled the effort to 
exterminate Armenians in the early 1900s--The Honorable Henry 
Morgenthau, U.S. Ambassador to Turkey from 1913-16 wrote in July 16, 
1915, telegram to the Secretary of State, ``Deportation of and excesses 
against peaceful Armenians is increasing and from harrowing reports of 
eye witnesses it appears that a campaign of race extermination is in 
progress under a pretext of reprisal against rebellion.''
    The U.S. Consul in Aleppo, Jesse Jackson, reported to Ambassador 
Morgenthau on June 5, 1915, ``It is without doubt a carefully planned 
scheme to thoroughly extinguish the Armenian race.''
    The U.S. Consul in Harput, Leslie Davis, reported to Ambassador 
Morgenthau on July 24, 1915, ``It has been no secret that the plan was 
to destroy the Armenian race as a race, but the methods used have been 
more cold-blooded and barbarous, if not more effective, than I had at 
first supposed.''
    Ambassador Morgenthau was succeeded by the Honorable Abram I. 
Elkus, who served as Ambassador from 1916-17. On October 17, 1916, 
Elkus telegrammed the Secretary of State about the extreme measures 
sanctioned by the Turks, stating ``In order to avoid opprobrium of the 
civilized world, which the continuation of massacres [of the Armenians] 
would arouse, Turkish officials have now adopted and are executing the 
unchecked policy of extermination through starvation, exhaustion, and 
brutality of treatment hardly surpassed even in Turkish history.''

  <bullet> Are you aware of these cables and the well-documented 
        history of the events that took place during this time? Do you 
        believe that the atrocities that took place and the deaths of 
        1.5 million Armenians fit the Genocide Convention's definition 
        of acts that constitute genocide?

    Answer. I have read these cables, the statements of Ambassadors 
Morgenthau and Elkus, the statements of other U.S. officials in the 
Ottoman Empire at the time, as well as a number of books on this 
subject. I am acquainted with the history of the tragic massacres and 
forced exile that occurred at the end of the Ottoman Empire, and with 
U.S. policy in that regard. The individual stories are heartrending; 
the magnitude of these terrible acts--over 1.5 million killed or 
forcibly deported--defies comprehension.
    In his April 23 Remembrance Day statement, President Obama has 
solemnly remembered the horrific events of 1915-1923. His views on the 
issue are well known; they have not changed. I have a responsibility to 
represent the policy of the President. If I am confirmed as the 
personal representative of the President to Armenia, I will carry out 
this responsibility.

    Question. The history of the Armenian genocide is well documented 
by our own diplomats. Is today's State Department and are our diplomats 
constrained from acknowledging the historical record that was developed 
by their predecessors?

    Answer. No, Senator; neither the State Department nor its diplomats 
are constrained from acknowledging that these diplomatic accounts from 
that period exist, or that they make the references you have detailed. 
As I noted previously, I have read these historical accounts and other 
sources. Like all executive branch officials, I have a duty to 
represent the policy of the President on this and all other issues. If 
I am confirmed as the personal representative of the President to 
Armenia, I will do so.
    The President's position on this issue is stated in his April 23 
Armenian Remembrance Day statement, wherein he has solemnly remembered 
the events of 1915, and noted that 1.5 million Armenians were massacred 
or marched to their deaths.

    Question. Do you dispute any of the documented records I've 
described [in questions 2-4] above?

    Answer. I am familiar with, and do not dispute, the authenticity of 
the records you have described from that era.

    Question. Are you aware that in 1981, President Ronald Reagan 
issued a proclamation acknowledging the ``genocide of the Armenians''?

    Answer. I am aware of and have read President Reagan's 1981 
proclamation.

    Question. In addition to Ronald Reagan's proclamation, I would also 
direct your attention to the U.S. Government's filing before the 
International Court of Justice in 1951, wherein the United States 
stated that: ``the Turkish massacres of Armenians, the extermination of 
millions of Jews and Poles by the Nazis are outstanding examples of the 
crime of genocide.''

  <bullet> Are you familiar with this filing and the references 
        therein? Do you dispute its accuracy?

    Answer. I am familiar with the U.S. Government's filing before the 
ICJ in 1951. The U.S. Government acknowledges and mourns the mass 
killings and forced deportations that devastated over 1.5 million 
Armenians at the end of the Ottoman Empire. The administration also 
understands that many Americans and many Armenians believe that these 
horrible acts should be called ``genocide.'' President Obama's views on 
this subject are well known; they have not changed.
    In his April 23 statement on Armenian Remembrance Day, the 
President solemnly remembered the events of 1915-1923, and stated that 
a full, frank, and just acknowledgement of the facts is in all our 
interests. He strongly supports the efforts of Turkey and Armenia to 
normalize their bilateral relations. The President believes that 
together, Armenia and Turkey can forge a relationship that is peaceful, 
productive, and prosperous.

    Question. The United States has never denied the fact of the 
Armenian Genocide--wouldn't you agree? And former Senators Barack 
Obama, Joseph Biden, and Hillary Clinton each acknowledged the fact of 
the Armenian Genocide during their tenure as Senators--wouldn't you 
agree?

    Answer. The administration has never denied the horrific events of 
1915. These were atrocities that we and the world must never forget, so 
that they are never repeated.
    In his April 23 Armenian Remembrance Day statement, the President 
solemnly remembered as historical fact that 1.5 million Armenians were 
massacred or marched to their deaths from 1915-1923. The President's 
views on this subject are well known; they have not changed. The views 
of Vice President Biden and Secretary Clinton during their tenures in 
the Senate are also well known.

    Question. You are aware, are you not, that the International 
Association of Genocide Scholars, the preeminent body that specializes 
in genocide and holocaust studies has repeatedly and unequivocally 
affirmed the fact of the Armenian Genocide? Do you disagree with the 
International Association of Genocide Scholars?

    Answer. I am aware of the conclusions of the International 
Association of Genocide Scholars.
    Like all executive branch officials, I have a duty to represent the 
policy of the President on this and all other issues. The President's 
position on this issue is stated in his April 23 Armenian Remembrance 
Day statement, wherein he has solemnly remembered the events of 1915, 
and noted that 1.5 million Armenians were massacred or marched to their 
deaths. If I am confirmed as the personal representative of the 
President to Armenia, I will carry out this duty.

  <bullet> Do you then agree that genocide took place against the 
        Armenian people?

    Answer. Yes, Senator; I am familiar with the work of the 
International Association of Genocide Scholars and, as I noted 
previously, with the historical reporting by State Department officials 
at the time. Like all executive branch officials, I have a duty to 
represent the policy of the President on this and all other issues. The 
President's position on this issue is stated in his April 23rd Armenian 
Remembrance Day statement, wherein he has solemnly remembered the 
events of 1915, and noted that 1.5 million Armenians were massacred or 
marched to their deaths. If I am confirmed as the personal 
representative of the President to Armenia, I will carry out this duty.

    Question. Were you instructed not to use the term genocide when 
referring to the Armenian Genocide of 1915?

    Answer. No; I received no such instructions.
    I have a responsibility to represent the policy of the President. 
The President's position on this issue is stated in his April 23 
Armenian Remembrance Day statement, wherein he solemnly remembered the 
events of 1915, and noted that 1.5 million Armenians were massacred or 
marched to their deaths. If I am confirmed as the personal 
representative of the President to Armenia, I will carry out this 
responsibility.

    Question. How can we expect Turkey to come to terms with its past 
when we, as Americans, are unwilling to speak honestly about the 
Armenian Genocide?

    Answer. The President has said that a full, frank, and just 
acknowledgement of the facts is in all our interest. In his April 23, 
2011, statement, he noted that history teaches us that our nations are 
stronger and our cause is more just when we appropriately recognize 
painful pasts and work to rebuild bridges of understanding toward a 
better tomorrow. With this in mind, he strongly supports efforts by the 
Turkish and Armenian peoples to work through their painful history in a 
way that is honest, open, and constructive. The U.S. Government 
supports the efforts of individuals in Armenia and Turkey to foster a 
dialogue that acknowledges their history, sponsoring programs that 
foster contacts between the Armenian and Turkish peoples.

    Question. Does the United States have military or economic 
interests in Turkey that influence its decision on whether to use the 
word ``genocide,'' when discussing the massacre of 1.5 million 
Armenians from 1915-1923?

    Answer. Turkey is a longstanding NATO ally of the United States, an 
important partner in promoting peace and stability in the broader 
Middle East, and one with which we share democratic values. We seek to 
maintain strong United States-Turkey relations, just as we seek to 
maintain strong United States-Armenia relations. We believe our 
partnership will deepen with Turkey as it reconciles with its past and 
with Armenia. We continue to encourage Turkey to engage productively 
with Armenia on the normalization protocols, and clear the way to open 
its shared border, reinstitute transportation, communication, and 
utility links between the two countries, and establish diplomatic 
relations.

    Question. In the June 23, 2011, readout of President Obama's calls 
with the Armenian and Azerbaijani Presidents, the President told both 
leaders that ``now is the time to resolve the Nagorno Karabakh 
conflict'' and to ``offer the people of Armenia, Azerbaijan, and 
Nagorno-Karabakh a better future for themselves and for their 
children.'' Does the administration support the reinstatement of the 
elected representatives of the people of Nagorno Karabakh to the Minsk 
Group process? Both the Armenian and Nagorno Karabakh Republic 
Governments have called for Karabakh's reinstatement into the process, 
considering the Karabakh Government was a signatory to the cease-fire 
agreement and was a party to the Minsk Group negotiations until 1998.

    Answer. The United States supports the current format of 
negotiations for the Minsk Group process, which has been agreed to by 
both the Armenian and Azerbaijani sides. At this stage in the 
negotiation, the U.S. Government believes it is best to continue on 
this basis. Any final settlement of the Nagorno-Karabakh (NK) conflict 
must be acceptable to the Karabakhi communities. The Minsk Group 
cochairs travel regularly to NK to meet with the de facto NK 
authorities.

    Question. Azerbaijani officials, including President Aliyev, have 
indicated they are looking to return to war with Armenia. President 
Aliyev has repeatedly stated that ``only the first stage of war is 
over,'' and the Defense Minister stated in February 2011 that 
Azerbaijan is ``seriously preparing'' for war. In the meantime, the 
State Department is considering granting an export license for 
Azerbaijan to buy its first ever satellite. In a recent Eurasianet 
article, U.S. Air Force officials state that even if the satellite is 
only for communications purposes, it will give Azerbaijan a military 
advantage. In light of Azerbaijan's repeated threats to renew its 
aggression in the region, which Turkey, a NATO member could join, is 
the administration concerned about the signal the sale of such 
technology would send to Azerbaijan? Wouldn't it make more sense to 
wait on this sale until we are certain that the Azeris are committed to 
real action on the Basic Principles for peace?

    Answer. The proposed sale has been notified to Congress. DOD and 
State have analyzed the proposed sale and are prepared to license the 
export of the satellite, associated ground support equipment and 
simulators to Azerbaijan, having taken into account political, 
military, economic, human rights, and arms control considerations.
    The Department of State understands that Ex-Im Bank performed a 
thorough examination of all aspects of the transaction. This 
examination, which included a review of the satellite supply contract 
as well as the operating characteristics of the satellite, determined 
that, based on the information provided, the representations made by 
the Government of Azerbaijan and in accordance with Ex-Im Bank's 
policies and procedures, the satellite was designed and is intended for 
commercial operations. In addition, the Government of Azerbaijan signed 
a covenant stating that they would only lease the use of the satellite 
to civilian, nonmilitary entities, both within and outside of 
Azerbaijan.
    The administration has determined that the operating 
characteristics of the satellite are designed and produced for 
commercial communications only. With these understandings, and the 
additional covenant given to Ex-Im bank during financing negotiations, 
the U.S. Government does not object to the sale.

    Question. Previous Ambassadors to Armenia have held public 
community forums with Armenian Americans around the country throughout 
their tenure. Will you commit to regularly hold such forums throughout 
your term, which will be on the record and open to the community in 
large in cities, such as Los Angeles, San Francisco, New York, Boston, 
Chicago, and Washington, DC, where there are large Armenian American 
communities?

    Answer. Yes. If confirmed, I would look forward to visiting and 
meeting with members of the Armenian American community both in the 
United States and in Armenia, as my predecessors have done before. It 
would be a valuable opportunity to understand their concerns, update 
them on the status of the United States-Armenia relationship, and to 
discuss a host of relevant issues.
                                 ______
                                 

         Responses of Thomas Countryman to Questions Submitted
                       by Senator James E. Risch

    Question. Article IV of the Treaty on the Nonproliferation of 
Nuclear Weapons of 1968 (``NPT'') affirms ``the inalienable right of 
all the Parties to the Treaty to develop research, production, and use 
of nuclear energy for peaceful purposes without discrimination and in 
conformity with Articles I and II of this Treaty.'' However, given the 
NPT's overriding provisions to promote nonproliferation--that is, 
Articles I, II, and II--the operative meaning of this provision remains 
a subject of deep debate.

  <bullet> (a) With regard to the research, production and use of 
        sensitive nuclear fuel-making technologies, what do you 
        understand to be the limits in a state's exercise of this 
        right? Does a state have a right to any nuclear technological 
        activity short of inserting fissile material into a nuclear 
        explosive device?

    Answer. Article IV affirms this ``inalienable right,'' but with 
that right come important Treaty-prescribed responsibilities to 
demonstrate to the international community that nuclear activities are 
exclusively for peaceful purposes. To that end, the NPT provides that 
non-nuclear-weapon States (NNWS) Parties to the NPT must conduct any 
nuclear activities in compliance with Articles II and III. Article II 
prohibits manufacturing or acquiring nuclear weapons, or other nuclear 
explosive devices, and seeking or receiving assistance in their 
manufacture, a clear treaty limit on the use of nuclear technology. 
Article III requires that NNWS Parties accept IAEA safeguards on all 
source or special fissionable material in all peaceful nuclear 
activities within their territories or under their jurisdiction or 
control. Bilateral IAEA safeguards agreements underpin NNWS Article II 
obligations, with a view to preventing diversion of nuclear energy from 
peaceful uses to nuclear weapons or other nuclear explosive devices.
    The 2010 NPT Review Conference agreed by consensus to a number of 
actions that will strengthen the IAEA's ability to verify compliance 
with safeguards agreements, and thereby deter noncompliance, and the 
United States and other Parties are working vigorously to carry these 
actions out. These actions include the following: all cases of 
noncompliance should be resolved; all NPT Parties should have 
safeguards agreements required by Article III; all Parties should 
ensure that the IAEA has all political, technical, and financial 
support to enable it to apply safeguards as required by that article; 
and all states should bring into force the IAEA's Additional Protocol.

  <bullet> (b) To what extent should the exercise of this right be 
        conditioned by a state's full compliance with its Article III-
        required safeguards obligations with the International Atomic 
        Energy Agency (IAEA)? Please relate your answer to the case of 
        Iran, which is in noncompliance with its international 
        obligations to the IAEA and U.N. Security Council.

    Answer. Non-nuclear-weapon states that are Party to the NPT have a 
clear legal obligation to accept IAEA safeguards, as required by 
Article III. That they may suffer consequences for not doing so is 
demonstrated by the fact that Iran's non-compliance with its 
international nuclear obligations has led the UN Security Council to 
prohibit Iran from such nuclear fuel-cycle-related activities as 
enrichment and reprocessing and to prohibit the international community 
from assisting or cooperating with Iran on such activities.

    Question. Under the U.S.-U.A.E. ``123'' civil nuclear cooperation 
agreement, the United Arab Emirates obliged itself not to develop or 
possess in its territory uranium enrichment, spent fuel reprocessing, 
or other nuclear fuel-making technologies.

  <bullet> Should the United States make the U.S.-U.A.E. ``123'' civil 
        nuclear cooperation agreement's prohibition against nuclear 
        fuel-making technologies the standard for all future U.S. civil 
        nuclear cooperation agreements in the Middle East? If so, then 
        what would you do to promote that standard throughout the 
        region?

    Answer. As we proceed to contemplate nuclear cooperation with other 
potential partners, the United States will continue to seek to limit 
the spread of enrichment and reprocessing technologies through whatever 
mechanisms are most appropriate and have the greatest chance of 
success, including consideration of UAE-type commitments.


                              NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 19, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

David S. Adams, of the District of Columbia, to be Assistant 
        Secretary of State for Legislative Affairs
Joyce A. Barr, of Washington, to be Assistant Secretary of 
        State for Administration
                              ----------                              

    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Tom Udall 
presiding.
    Present: Senators Udall and Webb.
    Also present: Representative Gary L. Ackerman

              OPENING STATEMENT OF HON. TOM UDALL,
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you for coming this morning. Great to 
have you all here. We will bring the committee to order.
    We meet this morning to consider two important nominations 
to the State Department: Ambassador Joyce Barr to be Assistant 
Secretary of State for Administration, and David S. Adams to be 
Assistant Secretary of State for Legislative Affairs.
    I think it's safe to say that without the important work of 
the Bureau of Administration, the Department of State would not 
be able to accomplish the multitude of missions our country 
requires it to accomplish. I'm sure that like our individual 
Senate offices, the administrative work is often little noticed 
when things go well and heavily scrutinized when there are any 
issues, no matter how small, that don't go so well.
    So I try to tell my administrative staff that I appreciate 
the hard work they do in my office. I believe that the same 
appreciation should be given to the State Department Bureau of 
Administration, which, if confirmed, you will lead.
    Your hard work is appreciated by the millions of Americans 
and foreign nationals it serves both in country and overseas.
    The Bureau of Administration's multitude of tasks include 
support for the Department of State programs, embassies, and 
consulates. Some of these programs include logistical 
management, utilizing small and disadvantaged businesses for 
contracting, supporting FOIA requests, managing commercial 
services, and making sure the Department of State meets goals 
for strengthening Federal environmental, energy, and 
transportation management, and increasing the use of 
alternative fuel vehicles in the Department of State's vehicle 
fleet.
    One of the most important items that the Bureau of 
Administration is responsible for is procurement. It is also 
one of the areas in which the Department of State receives the 
most scrutiny. In recent years, there have been reports from 
the Office of Inspector General (OIG) which have called into 
question some of the Bureau of Administration's Office of 
Procurement Executive practices, as well as highlighting areas 
for improvement.
    For example, a 2006 Office of Inspector General report 
found that ``oversight is the most important function for which 
OPE''--the Office of Procurement Executive--``is responsible 
and also its most problematic.''
    In addition to procurement, the Bureau of Administration's 
Office of Acquisitions Management is another vitally important 
office for the Department of State. The same 2006 OIG report 
described the Office of Acquisitions Management as follows, 
``While OPE is the office and oversight arm of the department's 
procurement and Federal assistance functions, AQM is the 
operational workhorse responsible for 80 percent of the 
Department's worldwide acquisitions. The Office provides a full 
range of professional contract management services, including 
acquisition planning, contract negotiations, cost and price 
analysis, and contract administration to all the Department's 
domestic bureaus and overseas posts.''
    I believe that Ambassador Barr is well-qualified to take on 
this important assignment. Ambassador Barr currently serves as 
the international affairs adviser and deputy commandant for the 
Industrial College of the Armed Forces at the National Defense 
University. Prior to this assignment, Ms. Barr served as 
executive director for the East Asian and Pacific Affairs 
Bureau at the Department of State from 2007 to 2009, and as 
U.S. Ambassador to Namibia from 2004 to 2007.
    Since joining the Foreign Service in 1979, Ms. Barr has 
held numerous assignments both in Washington and abroad.
    In addition to the nominee to be Assistant Secretary of 
State for Administration, we will be considering the nominee to 
be Assistant Secretary for Legislative Affairs. The Assistant 
Secretary of Legislative Affairs is the principal liaison 
between the Department of State and the Congress.
    Communicating with Congress is the most important mission 
of the Assistant Secretary of Legislative Affairs. In addition, 
the Assistant Secretary of Legislative Affairs staff on the 
Hill is almost always the first point of contact for Senate 
staffers working on behalf of their respective Senators and 
Representatives.
    For example, as the Arab Spring gained momentum, it was the 
Bureau of Legislative Affairs who worked to keep our staff up 
to date regarding events on the ground and who helped us 
provide vital assistance to constituents who were in the 
region.
    I hope to hear more from both nominees.
    Ambassador Barr, I hope to hear more about what you will do 
as Assistant Secretary of State for Administration to continue 
the good work that is already being done at the A Bureau. You 
will be leading dedicated and talented individuals who carry 
out the important work of the Department of State.
    And, Mr. Adams, I also look forward to hearing from you 
about how much you will work to continue and improve the 
important line of communication between Congress and the 
Department of State.
    But before we get started with your testimony, I would like 
to recognize a former colleague of mine from the House of 
Representatives, Representative Gary Ackerman, from the Fifth 
District of New York.
    Representative Ackerman would like to introduce Mr. David 
Adams.
    Representative Ackerman, please proceed.

 STATEMENT OF HON. GARY L. ACKERMAN, HOUSE OF REPRESENTATIVES, 
                         U.S. CONGRESS

    Representative Ackerman. Thank you very much, Chairman 
Udall.
    I'm delighted today to be able to introduce Deputy 
Assistant Secretary of State for House Affairs, David S. Adams, 
who the President has nominated to serve as Assistant Secretary 
of State for Legislative Affairs.
    David is up to this job, and I know that he will do it 
extremely well. I know this because over the course of 24 years 
of working for me that that's the only way that David ever did 
anything.
    I met David in 1985, when along with the gavel for the 
House Post Office and Civil Service Subcommittee on Human 
Resources, I inherited a young man from Connecticut. Even 
though David was only a couple years out of college, he 
immediately showed a remarkable capacity for effective 
legislative work, attention to detail, and professionalism far 
in excess of his actual age and experience. I hired him on the 
spot.
    Over the years, David moved with me to the House Committee 
on Foreign Affairs, as I moved from subcommittee to 
subcommittee, and region to region, one gavel after another, he 
moved from professional staff to staff director, while also 
serving for a time as the legislative director in my personal 
office.
    Though I've watched him get older, his maturity, judgment, 
and discretion have been consistent from day one. In every role 
in which I've placed him, David was superb. Quietly, 
efficiently, and without fail, David got things done with T's 
crossed, i's dotted, and with perfect pitch.
    Even while working his way at night toward a master's 
degree in political science from American University and later 
a master's in business administration from Loyola College, 
David's work, whether in the preparation of statements, 
constructing legislative deals, negotiating conference reports, 
arranging hearings, it was always thorough and reliable, always 
timely, always true to my guidance and intentions.
    He knows what you do, and he knows how important that is.
    I can tell you from long experience that David understands 
the Congress. He understands the legislative process inside and 
out. And most of all, he understands the duties and needs and 
the pressures that face those of us honored to be elected to 
serve here.
    He knows the legislative branch was put first in the 
Constitution, and that Congress is a separate and equal branch 
of government, not an afterthought or a box to be checked off.
    David's honesty, integrity, and patriotism, in my mind, is 
simply beyond question or doubt. He is completely trustworthy 
and truthful, incapable of misleading or betraying any trust or 
confidence. He simply couldn't do that. He always delivers.
    He is exactly the kind of person we want in a position of 
trust and responsibility in the United States Government. And 
I'm not surprised, first, that Secretary Clinton stole him and, 
second, that she now wants to promote him.
    She is a very smart person.
    If you want to do something good for our country, increase 
David's responsibilities at the State Department. The more you 
ask of him, the more pleased you will be with the results.
    I would urge the committee to forward his nomination to the 
Senate, and that you urge your colleagues to confirm him as 
Assistant Secretary of State for Legislative Affairs.
    Thank you, Mr. Chairman.
    Senator Udall. Congressman Ackerman, thank you very much 
for that very strong statement in support of Mr. Adams.
    We very much understand you are on a very busy schedule and 
that you have taken time to be here to weigh in on his behalf. 
And you're welcome to stay here as long as you like, but please 
feel free to leave if you have other commitments. We very much 
appreciate that.
    And, Mr. Adams, why don't we start with you?
    I know that you may have friends and family members that 
you would like to introduce that are here to support your 
effort.
    And let me say, as far as family, I know these positions 
are a tremendous commitment on your part, and it's usually the 
family that backs all of us up I think in public service. So we 
very much appreciate the sacrifices that they make.
    And why don't you introduce your family members or friends, 
and then proceed with your testimony?
    And then we'll proceed to Ambassador Barr.

STATEMENT OF DAVID S. ADAMS, OF THE DISTRICT OF COLUMBIA, TO BE 
      ASSISTANT SECRETARY OF STATE FOR LEGISLATIVE AFFAIRS

    Mr. Adams. Well, thank you, Mr. Chairman.
    I'm here today with my wife, Andrea, and my mother and 
father, John and Cindi Adams.
    Mr. Chairman, members of the committee, it's an honor to 
appear before you today as President Obama's nominee to serve 
as the next Assistant Secretary for Legislative Affairs at the 
Department of State.
    I'm grateful for and humbled by the confidence the 
President and Secretary Clinton have demonstrated in me by this 
nomination. I must admit that after my 24-year career as a 
congressional staffer, I am far more accustomed to sitting in 
the seats behind members rather than testifying before them, 
but I want to assure you that my experience as a staffer will 
inform my work, if confirmed.
    I consider myself a creature of the institution and am 
proud to have spent most of my career working in the Congress. 
It is this deep appreciation and respect for the role of 
Congress that I will take with me to this new job, if 
confirmed.
    With the committee's indulgence, I'd like to take this 
opportunity to thank my mother and father, John and Cindi, whom 
I just introduced, for all of the support they provided to me 
over the years. The foundation they established during my 
childhood gave me the tools to get here.
    I'd also like to thank my wife, Andrea, whose love, 
support, and encouragement is with me at all times.
    Last, I'd like to thank Congressman Ackerman for his very 
generous introduction and, frankly, for giving me a chance back 
in 1985.
    As you're well-aware, this year has been an especially 
challenging one for the State Department, the administration, 
and the Nation. The challenges and opportunities presented to 
us by the Arab Spring, in addition to our ongoing work in the 
frontline states of Iran, Afghanistan, and Pakistan, require 
the department to be in ever-closer communication with the 
Congress.
    The magnitude of such change means that if we are to be 
successful, there must be a true partnership with the Congress. 
It is a responsibility I take very seriously, and I commit to 
you that I will do everything that I can to continue the close 
working relationship between the Department and the Congress, 
if confirmed.
    The Department of State's Bureau of Legislative Affairs is 
not a policy bureau, but rather is a place where the executive 
and legislative branches interact.
    If confirmed, I see my role as more than just a messenger 
between the State Department and the Congress. I see my role as 
a facilitator, an interpreter, if you will, to help Department 
officials understand the views and the needs of the Congress, 
while providing the Congress with clear and concise information 
about the Department and its policies.
    The Bureau is also a constituent service operation, a role 
with which you are all familiar. The State Department has two 
offices on Capitol Hill, including one in the Senate Russell 
Building, ready to assist you and your staff.
    You can count on the bureau to help constituents with lost 
or stolen passports, sort out visa issues, provide travelers 
with up-to-date information about countries around the world. 
You can also rely on the bureau to assist when constituents 
need help overseas in emergency situations.
    If confirmed, I will continue to ensure this bureau 
provides a ready resource whenever your constituents require 
assistance.
    As a former Member of this Chamber, the Secretary 
understands and appreciates the shared constitutional 
responsibilities in the oversight and execution of U.S. foreign 
policy. She places a high priority on the Department's 
relationship with the Congress, and I pledge to you, if 
confirmed, I will work to ensure that the Congress has the 
timely and accurate information it needs to carry out its role 
effectively.
    Thank you again for the opportunity to appear before you 
today, and I look forward to answering any of your questions.
    [The prepared statement of Mr. Adams follows:]

                  Prepared Statement of David S. Adams

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Obama's nominee to serve as the next 
Assistant Secretary for Legislative Affairs at the Department of State. 
I am grateful for and humbled by the confidence the President and 
Secretary Clinton have demonstrated in me by this nomination.
    I must admit that after a 24-year career as a congressional 
staffer, I am far more accustomed to sitting in the seats behind 
members rather than testifying before them. But I want to assure you 
that my experience as a staffer will inform my work, if confirmed. I 
consider myself a creature of the institution and am proud to have 
spent most of my career working in the Congress. It is this deep 
appreciation and respect for the role of Congress that I will take with 
me to this new job, if confirmed.
    With the committee's indulgence, I would like to take this 
opportunity to thank my mother and father for all the support they have 
provided to me over the years. The foundation they established during 
my childhood gave me to tools to get here. I would also like to thank 
my wife, Andrea, whose love, support, and encouragement is with me at 
all times.
    As you are well aware, this year has been an especially challenging 
one for the State Department, the administration and the Nation. The 
challenges and opportunities presented to us by the Arab Spring, in 
addition to our ongoing work in the frontline states of Iraq, 
Afghanistan, and Pakistan, require the Department to be in ever closer 
communication with the Congress. The magnitude of such change means 
that if we are to be successful, there must be a true partnership with 
the Congress. It is a responsibility I take very seriously, and I 
commit to you that I will do everything I can to continue the close 
working relationship between the Department and Congress, if confirmed.
    The Department of State's Bureau of Legislative Affairs is not a 
policy bureau, but rather, is the place where the legislative and 
executive branches interact. If confirmed, I see my role as more than 
just a messenger between the State Department and the Congress. I see 
my role as a facilitator; an interpreter, if you will, to help 
Department officials understand the views and needs of the Congress 
while providing the Congress with clear and concise information about 
the Department and its policies.
    The Bureau is also a constituent service operation, a role with 
which you are all familiar. The State Department has two offices on 
Capitol Hill, including one in the Senate Russell Building, ready to 
assist you and your staff. You can count on the Bureau to help 
constituents with lost or stolen passports, sort out visa issues, or 
provide travelers with up-to-date information about countries around 
the world--you can also rely on the Bureau to assist when constituents 
need help overseas in emergency situations. If confirmed, I will 
continue to ensure that the Bureau provides a ready resource whenever 
your constituents require assistance.
    As a former member of this Chamber, the Secretary understands and 
appreciates the shared constitutional responsibilities in the oversight 
and execution of U.S. foreign policy. She places a high priority on the 
Department's relationship with the Congress, and I pledge to you, if 
confirmed, I will work to ensure that the Congress has timely and 
accurate information it needs to carry out its role effectively.
    Thank you again for opportunity to appear before you today, and I 
look forward to answering your questions.

    Senator Udall. Thank you very much for your testimony, Mr. 
Adams.
    And we will first proceed with Ambassador Barr's testimony, 
and then questions to both of you.
    Ambassador Barr, welcome. Great to have you here.
    And please, as Mr. Adams did, introduce your family or 
friends that are here before you begin your testimony.

  STATEMENT OF JOYCE A. BARR, OF WASHINGTON, TO BE ASSISTANT 
             SECRETARY OF STATE FOR ADMINISTRATION

    Ambassador Barr. I'm joined today by a close personal 
friend, Alexey, who is sitting here to my right.
    Senator Udall. Great. Thank you.
    Welcome.
    Ambassador Barr. Mr. Chairman and members of the committee, 
it is an honor to appear before you today as the President's 
nominee to serve as the Assistant Secretary for Administration.
    I want to thank President Obama and Secretary Clinton for 
their trust and confidence in nominating me for this position.
    The rest of my family could not be here today, but I want 
to express deep appreciation for their love and guidance 
throughout my career.
    This is the second time that I've had the privilege to 
appear before this committee for confirmation. I thank the 
Members and the Senate for their support for my previous 
nomination as U.S. Ambassador to the Republic of Namibia.
    For the past 32 years, I have served the American people as 
a Foreign Service officer at the State Department. If 
confirmed, it would be an honor and a privilege to continue 
that service as Assistant Secretary for Administration.
    The mission of the Bureau of Administration is to provide 
effective and efficient global support for U.S. diplomacy. The 
Bureau's wide variety of programs and services provide the 
platform to advance America's interests and values.
    The Department meets urgent national security challenges by 
developing and focusing the country's civilian power. The 
Bureau is on the frontline of this effort, supporting this 
growing and changing mission.
    One of the Department's strategic goals is to effectively 
manage transitions in the frontline states. The Bureau of 
Administration is heavily involved in this transition through 
its coleadership of our effort to transition Department of 
Defense support in Iraq to the Department of State. Providing 
the tools America's diplomats need to get the job done in 
difficult environments, while making sound and prudent 
decisions over the use of taxpayers' funds is a highly visible 
part of this mission.
    As a service organization, the Department of Administration 
responds not only to its internal customers, but to Congress 
and the American people as well. If confirmed, I would take 
this responsibility seriously.
    As a former Ambassador and a regional executive director, I 
learned the value of maintaining consistent and transparent 
processes so that others trust you and maintain their support 
for the system. I will keep this lesson in mind, if confirmed.
    Accountability and efficiency are critical to leading the 
Bureau of Administration. The Department is developing and 
implementing training to improve the performance of contracting 
officer representatives throughout the Department. Ensuring 
that the department gets good value for dollars spent is vital 
to maintaining confidence in the State Department's stewardship 
of taxpayer funds.
    I look forward, if confirmed, to working with Congress and 
oversight agencies to maintain appropriate management controls. 
Technology allows the Bureau to measure what it does and 
provides the data to generate good decisionmaking. It has 
successfully implemented solutions that help personnel to work 
smarter and more cost-effectively.
    If confirmed, I will drive that process forward and 
continue efforts to become more efficient.
    Finally, collaboration is important to ensuring 
accountability and reducing costs in an interagency 
environment. The relationships I've built throughout the U.S. 
Government in the course of my career should help me focus on 
these outcomes.
    If confirmed, I look forward to working with you, your 
distinguished colleagues, and your staffs.
    Thank you again for the opportunity to appear before you 
today. I welcome any questions you may have.
    [The prepared statement of Ambassador Barr follows:]

                  Prepared Statement of Joyce A. Barr

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as the President's nominee to serve as the Assistant 
Secretary for Administration. I want to thank President Obama and 
Secretary Clinton for their trust and confidence in nominating me for 
this position. My family could not be here with me today but I want to 
express deep appreciation for their love and guidance throughout my 
career.
    This is the second time that I have the privilege to appear before 
this committee for confirmation. I thank the Members and the Senate for 
their support of my previous nomination as U.S. Ambassador to the 
Republic of Namibia.
    For the past 32 years I have served the American people as a 
Foreign Service officer at the State Department. If confirmed, it would 
be an honor and a privilege to continue that service as Assistant 
Secretary for Administration.
    The mission of the Bureau of Administration is to provide effective 
and efficient global support for U.S. diplomacy. The Bureau's wide 
variety of programs and services provide the platform to advance 
America's interests and values. The Department meets urgent national 
security challenges by developing and focusing the country's civilian 
power. The Bureau is on the frontline of this effort, supporting this 
growing and changing mission.
    One of the Department's strategic goals is to ``Effectively manage 
transitions in the frontline states.'' The Bureau of Administration is 
heavily involved in this transition through its coleadership of our 
effort to transition Department of Defense support in Iraq to the 
Department of State. Providing the tools America's diplomats need to 
get the job done in difficult environments, while making sound and 
prudent decisions over the use of taxpayer funds is a highly visible 
part of the mission. Ongoing efforts to strengthen and sustain all of 
the Department's domestic and overseas activities are a fundamental 
part of Bureau operations. By employing successful management 
practices, and encouraging innovation, the Bureau built a reputation 
for effectiveness and transparency.
    As a service organization, the Bureau of Administration responds 
not only to its internal customers but to Congress and the American 
people. If confirmed, I would take this responsibility seriously. I 
served overseas in challenging environments, was responsible for the 
management operations of 45 overseas posts as Executive Director for 
the Bureau of East Asian and Pacific Affairs and was U.S. Ambassador to 
Namibia. From these experiences I learned the value of maintaining 
consistent and transparent processes so that others trust you and 
maintain confidence in the system. I will keep this lesson in mind if 
confirmed.
    Accountability and efficiency are critical to leading the Bureau of 
Administration. The Department of State is developing and implementing 
training to improve the performance of Contracting Officer 
Representatives throughout the Department. The Department's ability to 
ensure that it gets exactly what it pays for is vital to maintaining 
confidence in our stewardship of taxpayer funds. I look forward, if 
confirmed, to working with Congress and oversight agencies to maintain 
appropriate management controls while further refining our processes to 
meet increasingly complex needs. To overcome the many challenges the 
Department faces while operating worldwide, we must continue our focus 
on oversight and accountability.
    Technology allows the Bureau to measure what it does and provides 
the data to generate good decisionmaking. It has successfully 
implemented solutions that help personnel to work smarter and more cost 
effectively. If confirmed, I will drive that process forward and 
continue efforts to become more efficient. The Bureau is deeply 
committed to advancing the Department's efforts to ``go green.'' 
Technology investments enabled the Department to save money, cut energy 
use, and reduce its carbon footprint. If confirmed, I intend to 
actively support that work. The Bureau developed a consolidated 
information system that significantly streamlined the Department's 
global logistics operations and tightened management controls. These 
investments pay significant future dividends for the USG. If confirmed, 
I intend to actively pursue similar projects.
    A collaborative approach is important to ensuring accountability 
and reducing costs in an interagency environment. The relationships I 
built throughout the U.S. Government in the course of my career should 
help me focus on these outcomes. If confirmed, I look forward to 
working with you, your distinguished colleagues, and your staffs.
    Thank you again for the opportunity to appear before you today. I 
welcome any questions you may have.

    Senator Udall. Thank you, Ambassador Barr, for your 
testimony, and I'll start my questions with you.
    Previous OIG reports have stated that there has been an 
intense amount of pressure due to the increased procurement and 
contracting workload at A Bureau.
    How will proposed budget cuts impact your ability to 
perform contract oversight? And do you currently have 
sufficient personnel to perform proper oversight?
    Ambassador Barr. Well, one thing that we've done within the 
past 2 years, while working with the Department of Defense to 
provide security for our frontline states, is to adopt a 
working capital fund by actually charging other bureaus a 
procurement fee, so that we have the flexibility to surge 
toward priorities. This way we've been able to hire more 
contracting professionals to increase our oversight, and it 
also gives us the flexibility to move our effort toward 
contingency operations.
    Another thing that we've done is basically increased 
training not only of our contracting officers, but of our 
contracting officer representatives as well. Contracting 
officer representatives are the people that have the eyes on 
the ground overseas, that can monitor the contract and make 
sure that taxpayers do get good value for their money that we 
spend.
    Senator Udall. So in your opinion, you believe you do have 
sufficient personnel to do this oversight?
    Ambassador Barr. Yes, I do believe that. But of course, if 
we do face significant cuts, we are going to have to 
reprioritize in order to make sure that we do our high-priority 
missions, and this could affect other operations.
    Senator Udall. The Office of Inspector General's January 
2011 report cited a number of issues pertaining to contract 
management and risks of trafficking in persons in the Middle 
East. I'm hopeful that you will work to help remedy many of 
these problems and move the Bureau forward after these OIG 
findings.
    What was especially disconcerting for me was the finding in 
the OIG report that ``more than 70 percent of workers 
interviewed''--these are contract workers--from the host 
country doing work for the Department of State reported ``they 
live in overcrowded, unsafe, and unsanitary conditions . . . 
Workers' housing facilities range from shared apartment 
buildings with common areas to labor camps and converted 
commercial lots. Two-thirds of the housing OIG observed fell 
within the space parameters of a U.S. minimum-security prison 
cell. However, 20 contract workers occupying the quarters OIG 
visited had less personal space then a U.S. minimum-security 
prison cell.'' And that I just quoted from the report.
    As you can tell by these descriptions, they are not 
descriptions of how the United States aspires to treat those 
workers who work on behalf of the American people, doing 
contract work for the embassies overseas. I'm confident that 
you will address these issues, but I would like to hear 
specifically from you about how you plan to make progress in 
contracting to help alleviate and improve the conditions of 
these contract workers.
    Ambassador Barr. Thank you for the question.
    First of all, I used to be a human rights officer earlier 
in my career, so I'm very sensitive to issues like trafficking 
in persons. And these are things that are very near and dear to 
the American public, and not activities that we want to foster 
in any way.
    In that inspection report, the inspector general did not 
find any incidents of trafficking in persons, but we of course 
have taken this to heart. We include training about trafficking 
in persons for our contracting officers and contracting officer 
representatives. We have also instituted a number of changes in 
how we oversee these contracts, making sure that we have 
someone from Diplomatic Security that is housed either on the 
compound or very close to the compound. We have taught people 
what to look for. There've been changes in the camps 
themselves--no alcohol. We have provided training in cultural 
sensitivity for people that have oversight of those contracts.
    And I can guarantee you that the State Department does take 
this very seriously. It is a public perception issue for us, 
and we are working very hard to make sure that these conditions 
are improved.
    Senator Udall. Thank you, Ambassador.
    The International Law Enforcement Academies help train 
foreign law enforcement to combat international drug 
trafficking, criminality, and terrorism. The ILEA Web site 
states that a major goal of the academy is to enable foreign 
law enforcement to ``efficiently combat crime in their 
respective countries, and at the same time, prevent the 
movement of transnational criminal elements to the United 
States and throughout the world.''
    Most of these law enforcement academies are located 
overseas, as you know. However, one is located in Roswell, NM. 
I believe this academy has served the goals of the Department 
of State well. However, I have become concerned about the 
program because of delays with issuing a request for proposals 
and contract issues which resulted in the cancellation of class 
at the academy.
    What can your office do to make sure this issue does not 
repeat itself, and that ILEA in Roswell, NM, can continue to 
offer the courses needed to train foreign law enforcement?
    Ambassador Barr. I'm very familiar with that program. When 
I was U.S. Ambassador in Namibia, I did have the opportunity to 
visit ILEA in Botswana. So I recognize and personally 
appreciate the very good work that they do.
    Right now, we actually have two different contracts that 
are active and that we're working on for the institution in New 
Mexico.
    One part, which I think deals with operations and 
maintenance, is controlled by the Bureau of Administration. 
That contract is out for request for proposals, and we hope to 
have those responses in by the end of this week.
    I think there's another contract that has been released by 
the International Narcotics and Law Enforcement Bureau. And I 
don't have all the details on that, but I think that they were 
trying to see if there were some parts of that contract that 
might be workable for the Small Business Administration.
    But I will be glad to take your concerns back, and see if 
we can get more information for you.
    [The written information provided by Ambassador Barr 
follows:]

    The 2010 training schedule, which ended in mid-December 2010, 
included delivery of 10 sessions, the typical number of training 
sessions each year for International Law Enforcement Academy (ILEA) in 
Roswell. All 10 sessions planned for 2010 were completed as planned and 
funds were made available to New Mexico Tech for this purpose.
    The Office of Acquisition Management (AQM) and the Bureau of 
International Narcotics and Law Enforcement Affairs (INL) are 
diligently working on two procurement actions for the ILEA Roswell 
program--one for maintenance of the facility and one for law 
enforcement training. INL and AQM conducted a preproposal conference 
for the facility maintenance contract at the ILEA on June 28, 2011, and 
proposals for this contract, which is handled by AQM, are due on July 
21, 2011. Proposals for the law enforcement training contract, handled 
by INL, are due on August 8, 2011. INL intends to have the program 
running as soon as practicable after both contracts have been awarded.

    Senator Udall. Thank you very much.
    And I see Senator Webb is here, and I would like to 
recognize him for questioning or any opening statement he might 
have.
    Senator Webb. Thank you, Mr. Chairman.
    I wanted to come down, first, to express my best wishes and 
congratulations to the two nominees. I'm clearly going to 
support them, and I wish them the best in carrying out their 
responsibilities.
    But I would like to take this opportunity to hopefully get 
some clarification on a policy that has been taking place from 
the Office of Legislative Affairs as it relates to its 
relations with individual Members of the Senate.
    Let me begin, Mr. Adams, by saying that I have worked in 
different capacities up here for a long time. I was committee 
counsel in the House at one point. I spent years in the 
Pentagon, and then of course, my work over here.
    I have never seen a situation where substantive letters 
that go to a policymaker in the Department have been answered 
by the Assistant Secretary for Legislative Affairs or the 
Acting Assistant Secretary of Legislative Affairs, rather than 
an individual who is clearly in a line position to be 
responsible for policy.
    I'm not the only Member of the Senate who has had some 
concerns about this. Senator Corker, when we were discussing an 
issue of substance with respect to Libya, made a comment in the 
Congressional Record. I'm going to quote from his comment, 
because I agree with it. He said, ``Today, 1 day shy of 8 weeks 
later, I finally received a response'' to a longer letter he 
had sent to Secretary Clinton. ``This response did not come 
from Secretary Clinton. It did not come from Secretary Gates. 
This response came from the Acting Assistant Secretary of State 
for Legislative Affairs and only paid lip service'' to the 
original letter.
    That's not an isolated situation, and it's, quite frankly, 
very frustrating.
    I watched your opening statement from my office before I 
came over here. You made the comment to the effect that the 
principal responsibilities of your position are to serve as an 
interpreter of policymakers, and I would strongly agree with 
you that is among your principal responsibilities. In this 
position you do not develop the policies that you communicate. 
Would you agree with that?
    Mr. Adams. Thank you, Senator.
    Yes, this is not a policymaking bureau.
    Senator Webb. Right. So, it's a little disconcerting when 
Members of the Senate write very specific policy-oriented 
letters asking for the positions of the Secretary of State or 
the key person in a line function, and receive a response from 
your office. It's not personal; it's just a question of 
structure here.
    Would you agree that that is a rather unusual situation? It 
doesn't happen at the Pentagon.
    Mr. Adams. Well, Senator, thank you very much for the 
question.
    First, let me assure you that the Department takes all of 
our correspondence that we receive from members of the 
committee and Members of the Congress generally very seriously.
    You should be assured that letters that we get are tasked 
to the relevant bureaus, so that the policy experts who know 
the substantive answers to the questions are the ones who 
actually draft the responses.
    The second point that I would make is that the Bureau of 
Legislative Affairs, as you noted, and under the direction of 
the Secretary, is responsible for maintaining the Department's 
relationships with the Congress. And part of that 
responsibility includes ensuring that we provide timely and 
thorough answers to the Congress.
    I'd also point out that it is our role in addition to make 
sure that the senior policymakers in the Department know what 
Members are thinking about, what they're talking about, so when 
correspondence comes in to the Bureau from the Congress, we 
make sure that senior policymakers see it, including the 
Secretary and others.
    The last thing that I would say, in terms of who actually 
signs the letters, is that we have conceived of this in a 
similar way to requests that the Secretary gets for hearings 
and for briefings. She often can't accommodate all of those, 
and so she relies on members of the various bureaus who have 
responsibility for the subject matter to come and brief the 
Congress, or to testify, as the case may be. And in a similar 
way, she has delegated the responsibility for ensuring that 
correspondence comes back to the Hill, to the Bureau of 
Legislative Affairs.
    Senator Webb. Well, having been on the other end drafting 
those letters as a staffer many, many years ago, and I know the 
coordination involved. But, I also recognize that it doesn't 
always get up to the person at the top.
    But I think you would agree that there are differences 
between responses generated directly from your office, even 
though they're coordinated, on something like when a committee 
hearing is scheduled, and the responses that relate to the 
development of policy. Whether it's just in some of the letters 
that I have forwarded to you, or signed and moved to the 
Secretary--on Burma, on a TIP report, on Libya--there's a list 
of them. I'm not alone here.
    And the question becomes one of accountability. Since you 
are not a policymaker, and you are signing a letter, there's no 
real indication that the official in charge is accountable for 
what is in the letter. It doesn't have to be the Secretary of 
State.
    So I'm raising this, and I'm hopeful, perhaps, with 
Secretary Burns moving into the Deputy Secretary position, that 
we can resolve it.
    But it's a matter of real concern when we're trying to 
figure out what the exact policies are in our executive branch, 
and where the changes might appropriately be made.
    Mr. Adams. Well, Senator, I certainly appreciate the 
sentiment. And I would just like to assure you again that the 
responses that come for the Bureau of Legislative Affairs 
reflect the Department's policies.
    Senator Webb. I understand what you're saying, but let me 
reemphasize that there's no accountability, true 
accountability, in that process, as there is when an individual 
who is responsible for the policy will sign the letter and take 
accountability.
    Mr. Adams. Well, Senator, I'm happy to take this back to 
the Department and review the policy in terms of who signs the 
letters.
    Senator Webb. Thank you.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you.
    And I would agree with Senator Webb. I think it's very 
important when the Congress is overseeing policy, and trying to 
inquire into the areas of development of policy, that we have 
policymakers speak out and answer those questions, whether it's 
in a hearing format or a letter format. So I think Senator Webb 
makes a very, very good point.
    Ambassador Barr, one of the recommendations from a 2006 OIG 
report was that, ``The Bureau of Administration in coordination 
with the Bureau of Diplomatic Security should establish a plan 
to progressively consolidate local guard contracting in the 
Office of Acquisitions Management.''
    The 2006 OIG report also stated that, ``few of the areas of 
procurement call so obviously for reform as local guard 
contracting estimated to cost the Department approximately $218 
million in fiscal year 2006. Budgetary pressures appear to be 
forcing change, and the cost of savings could total millions if 
professional contracting officers are used rather than less 
experienced Embassy personnel. The result should be essential 
protective services at the most cost-effective price.''
    I could not agree with this finding more. I believe that 
our Embassy and consulate personnel must have the best 
protection possible, but that the protection must be cost-
effective. I believe that A Bureau has already made great 
strides toward improving contracting in this area.
    What more will you do to continue this progress? And what 
else needs to be done to improve contracting in this area?
    Ambassador Barr. Thank you.
    We've made significant progress in this area. We have 
approximately 105 contracts that protect about 160 different 
consulates and embassies. And most of them have been 
consolidated here in Washington and are handled back here, 
where we have the expertise.
    I think right now we have less than 20 contracts that are 
being administered overseas. As you pointed out, this does help 
us to provide more effective oversight. It helps us to reduce 
costs. And when we have to make changes in contractors at the 
last minute, it's easier to put somebody else in to make sure 
that the Embassy has the security it needs.
    We will continue to press toward consolidation. It is a 
bureau priority. I'm very aware of this one in particular. I've 
had a briefing on it already, so it's something that is on my 
plate, if I'm confirmed.
    Senator Udall. Great. Thank you.
    Ambassador Barr, the State Department intends to hire 
nearly 5,500 private security contractors for Iraq security 
after the U.S. military leaves at the end of the year. In 
addition, it is estimated that nearly 84 percent of the State 
Department's personnel in Iraq will be contractors. How many of 
these contractors will be doing inherently government work? And 
what is State doing to reduce the number of contractors and 
increase the State Department personnel?
    Ambassador Barr. First of all, we do not use contractors to 
do inherently government work. This is our starting point. We 
try to use contractors where it makes sense, where the jobs do 
not require discretion or judgment on behalf of the U.S. 
Government, and where it helps us to reduce costs.
    One of the things that we've done in general with regard to 
contracting security services for Iraq and Afghanistan is we've 
let a very large contract and selected eight different 
contractors and they bid on individual task orders. For 
example, they can bid on a task order to provide static guard 
services in Afghanistan.
    This way we get a very good price because they compete 
against one another, but we've already taken a good look at who 
they are and what their business practices are.
    We've worked very closely with the Department of Defense, 
who has a lot of expertise in contracting, to upgrade our 
services. We've also hired about 200 more Diplomatic Security 
agents, many of whom who have oversight of our contracting in 
the frontline states, so that we have people on the ground who 
understand what we're trying to do, and make sure that the 
quality remains high.
    Senator Udall. Ambassador, it's good to hear that you don't 
have contractors doing inherently governmental work, and I hope 
that you will continue that practice within the State 
Department.
    Shifting to another area here, the Department of State has 
been recognized as a leader on utilizing small businesses for 
contracting.
    What will you do to continue these efforts? And do you 
agree that the continued utilization of small businesses, 
including minority and women-owned business, will help the 
United States develop and maintain the entrepreneurial spirit 
needed to compete in the 21st century?
    Ambassador Barr. Well, we find that this is one way for the 
State Department, who is normally focused overseas, to have an 
impact here in the United States. It's a very high priority 
with us. The person that has primary responsibility for that 
function is located in my front office. I've already started to 
become familiar with the program.
    When we look at contracts, it's one of our first 
considerations, is to see if this is the type of work that 
small businesses might be able to do.
    Also it helps us to build expertise, so that we have a 
wider pool of potential partners to get things done. We feel 
this is our part in developing professionalism, getting people 
used to working with the Federal marketplace, and just widening 
knowledge of some of the things that the U.S. Government does. 
This is how we interact in a different way with the American 
people.
    Senator Udall. Thank you, Ambassador Barr. Thank you for 
that answer, and thank you very much for your testimony.
    Mr. Adams, you already have extensive experience working 
with the legislative branch, and what I'm wondering, and this 
is along the lines that Senator Webb also questioned, what 
should be done to improve communication with the House and the 
Senate, to make sure that Congress receives the information 
needed to effectively make legislative decisions?
    Mr. Adams. Thank you, Mr. Chairman. I appreciate that 
question.
    I think all of the courtesy calls I did with Senators and 
staff in the runup to the hearing, I heard a consistent message 
from people about the nature of communication and the frequency 
of communication. So I think that one of the things that I will 
try to do, if confirmed, is to have the Department be much more 
visible up here on the Hill in a variety of different ways, and 
to try to think creatively about forums that are different than 
simply the usual hearing forum or briefing forum. And maybe 
there are other ways where we can get senior officials and mid-
level officials up here more frequently to talk to members and 
to talk to staff, and do so on the broad range of topics that 
the Department covers.
    So I think, in that way, I would try to broaden what the 
Department does up here, so that senior officials are seen more 
frequently, and mid-level officials are seen more frequently, 
with staff, and the communication is better.
    Senator Udall. I think that would be a very welcome change, 
and we look forward to that.
    Should reporting to Congress be reduced, increased, or kept 
at current levels? I know the QDDR stated that the State 
Department has an onerous reporting requirement, and that the 
work to issue reports to Congress is having an impact on other 
essential functions of the Department of State.
    In what areas can reporting to Congress be reduced or 
streamlined, in your opinion?
    Mr. Adams. Thank you, Senator.
    I do think it's a consistent position of the Department 
that reporting requirements can be become burdensome and over 
time.
    I think where we would want to look at this is reports that 
have been required for a very long period of time, so reports 
that are 5 years old, 10 years old. So the question I think 
should be, are those reports still necessary? Is that 
information still required by the Congress? Has the issue 
matured or moved on, so that the report itself is not as 
relevant?
    So I think those are the areas that we would look to, in 
terms of trying to reduce the reporting burden.
    Senator Udall. One of your other responsibilities, I think, 
is working with other agencies, the USAID and others that have 
responsibility for international issues. What will you do to 
work with USAID staff to ensure that State and USAID 
effectively work together to carry out the policies of the 
United States?
    Mr. Adams. Thank you for that question.
    Sort of in the role of Assistant Secretary for Legislative 
Affairs, if confirmed, I think I would want to try to bring 
both State and USAID and other sort of national security agency 
Legislative Affairs offices together, so that we have, as the 
Secretary has said, whole-of-government approach, so that the 
Congress can see that the agencies are coordinated, that we're 
interlocked, that we talk to each other, and that the policies 
and programs that we present to the Congress are coordinated in 
an effective fashion. So I would work hard at that, if 
confirmed.
    Senator Udall. That concludes my questions to all of you. 
Not having other Senators, except Senator Webb come, we will 
keep the record open for 24 hours for any questions or 
statements for the record. We would ask both of you, if you get 
those questions, to promptly get them back, so that we can move 
forward with your nomination.
    We very much appreciate your public service. Appreciate you 
being here today.
    And with that, the hearing is adjourned.
    [Whereupon, at 10:46 a.m., the hearing was adjourned.]
                              ----------                              

    Additional Questions and Answers Submitted for the Record

           Responses of Joyce Barr to Questions Submitted by
                        Senator Richard G. Lugar

    Question. The State Department's Inspector General in 2010 found 
that several problems identified in earlier years remained unresolved. 
In particular, the OIG found that some contract files were incomplete, 
lacked key documentation, and sometimes could not be located in the 
absence of a contract specialist. How are these problems being 
addressed?

    Answer. In October 2010, the Office of Acquisitions Management 
(AQM) issued a Memorandum to AQM personnel that all contract files 
shall be in accordance with Federal Acquisition Regulation Subpart 4.8, 
Government Contract Files. The Florida Regional Procurement Support 
Office of AQM has implemented e-filing for all contract files. AQM is 
evaluating that system and is in the early planning stages of 
implementing a similar e-filing system for all other AQM offices and 
divisions. If confirmed, I will work to ensure that the processes put 
in place to address problems identified in the inspection are completed 
and effective.

    Question. The OIG in 2010 called for another comprehensive review 
of the Office of Acquisitions Management in accordance with the 
Government Accountability Office's framework for assessing federal 
agencies' acquisition functions. Has such a review been conducted? If 
so, what were the results? Do you concur with the OIG's assessment? If 
so, what would you do to ensure that recommendations are fully 
implemented?

    Answer. The Office of the Procurement Executive conducted a review 
of the Acquisitions Management Office in 2010. Among the findings were:

  <bullet> The percentage of dollars competed increased from 58 percent 
        in FY 2006 to 82 percent in FY 2009;
  <bullet> Bid protests and Board of Contract Appeals activity was not 
        significant;
  <bullet> Online reverse auctions resulted in cost savings and 
        excellent small-business participation;
  <bullet> The Department achieved excellent results in meeting 
        socioeconomic contracting goals for contract awards to small 
        business, small disadvantaged businesses and woman-owned 
        businesses;
  <bullet> Contracting Officers should document review of the Excluded 
        Parties List to avoid debarred and suspended contractors;
  <bullet> The Department should improve accuracy of contract data 
        reporting;
  <bullet> Action should be taken to track contract expiration dates to 
        improve follow-on acquisition planning;
  <bullet> Internal controls to ensure approval of service contracts 
        extending beyond 5 years needed to be strengthened;
  <bullet> Market research should be improved;
  <bullet> To ensure compliance with Federal Acquisition Regulation 
        requirements, all contractors with delivery order contracts 
        should be provided a fair opportunity to compete.

    I concur with the assessment of the OIG that file documentation 
needs to be improved and the OPE review recommendations discussed 
above. If confirmed, I will make the completion of these 
recommendations a priority.

    Question. In February 2010, the OIG recommended that the Bureau of 
Administration review its Web site content and revise it to ensure the 
organization charts are explicit and fully detail the authorities and 
responsibilities for the offices within its purview. Also, they 
recommended that the Bureau should update its Web site, at least 
quarterly, to ensure OpenNet customers and outside visitors know who to 
contact and how to do business with its offices and divisions. Have 
these two items been implemented?

    Answer. Based on the February 2010 OIG inspection, the Bureau of 
Administration reviewed its Web site content and ensured an 
organization chart existed for each major directorate. The Bureau's 
main Web portal allows for OpenNet customers and outside visitors to 
access an ``Organizations'' tab. The ``Organizations'' tab lists every 
directorate in the Bureau, with a direct link to their respective 
organization chart. Each organization chart then lists each director by 
office and name. To ensure accuracy, each directorate maintains and 
updates its own organizational charts.
    To ensure we meet the quarterly update requirement, the Executive 
Director will chair a meeting of all the Bureau Web site content 
managers quarterly. Furthermore, the Executive Office has assigned a 
permanent Bureau Webmaster who will disseminate requirements to all 
Bureau content managers and will conduct quality control reviews at 
least quarterly as well.

    Question. Does the Bureau have sufficient resources and personnel 
to provide effective oversight of contracts? Do contract specialists 
receive adequate training for their jobs?

    Answer. The Department of State Acquisition Human Capital Plan 
outlines the staffing strategy for the Acquisitions Management Office 
(AQM). With implementation of a working capital fund, AQM now has 
appropriate resources to adequately staff contract specialists. AQM is 
on track to achieve the staffing goals of the Human Capital Plan.
    Bureaus such as International Narcotics and Law Enforcement (INL) 
and Diplomatic Security (DS) have also significantly increased 
resources devoted to contract administration.
    Contract Specialists receive all training required by the Office of 
Federal Procurement Policy (OFPP). Training requests are centrally 
managed in AQM to ensure training is obtained in a timely manner.
    The Department devoted significant effort this past year on 
improving the Contracting Officer Representative (COR) function. 
Training has been revised to focus on skill building and providing 
practical examples. Functional experts and experienced CORs were used 
as Subject Matter Experts to build the training. Detailed guidance on 
complex issues such as trafficking in persons was issued. Guidance was 
issued requiring appraisal factors on contract administration to be 
included in COR performance appraisals. A COR award was created to 
recognize the significant contributions of CORs to the goals of the 
Department. A standing COR working group was formed to continue the 
focus on improving the COR function.
    I recognize the critical role the COR plays in contract oversight. 
If confirmed, I intend to continue to build on these foundations to 
strengthen that function.

    Question. In recent years, the Administration and Diplomatic 
Security Bureaus have worked to consolidate local guard contracting in 
the Acquisitions Management Office's Worldwide Operations Division. Is 
that office--or is Diplomatic Security--going to be responsible for 
contract administration for guards in Iraq? If so, will it include all 
the contracted personnel providing security? The State Department 
intends to hire approximately 5,500 private security contractors for 
Iraq after the U.S. military leaves.

    Answer. The Office of Acquisition Management (AQM) is the 
Department's authority for contracting security services supporting our 
mission in Iraq, as well as our other posts worldwide. The Bureau of 
Diplomatic Security's Office of Overseas Protective Operations (DS/IP/
OPO) is the program office responsible for managing and overseeing the 
fulfillment of contract security services in Iraq. AQM and DS/IP/OPO 
work closely together to award, oversee, and ensure contract compliance 
of all Department security contracts in Iraq in accordance with the 
standards set forth in the Department's Worldwide Protective Services 
(WPS) base contract and the overarching Federal Acquisition Regulation 
(FAR). The Department views contract administration as a joint 
responsibility between DS and the A Bureau.
    The WPS base contract is the mechanism through which the Department 
awards task orders for both static and movement security services in 
Iraq and Afghanistan. Four security task orders have been released for 
Iraq. The task orders will be completely stood up by spring 2012, and 
the Department will have approximately 5,100 security contractors 
providing guard and movement security services.

    Question. With 84 percent of the State Department's projected 
17,000 personnel in Iraq slated to be contractors (of all kinds)--
according to Secretary Clinton's March 10 testimony before the House 
Appropriations Subcommittee on State, Foreign Operations and Related 
Programs--how is the Department going to ensure adequate administration 
and oversight of such large contracts?

    Answer. With approximately 14,000 contractors projected to be in 
place in January 2012 in Iraq, the Department recognizes the need for 
robust oversight of the vital life support, security, and medical 
services they will provide. The Department's contracting oversight plan 
for Iraq is attached.

                iraq--contract management/oversight plan
    Much of the U.S. Government's success in Iraq will depend on an 
effective contracting effort as the mission transitions from military-
led to civilian-led. Unlike other U.S. embassies, the Department is not 
operating in a permissive environment in Iraq. Such a nonpermissive 
environment means that we cannot depend on local services such as a 
static guard force or a cleaning crew made up of host-country 
nationals, nor can we patronize markets, gas stations, or local shops. 
This is why the U.S. Government is so heavily dependent on 
contractors--at least until the security environment improves. To 
ensure we meet this critical goal, the Department has developed a 
contracting strategy that takes into account life support, security, 
transportation, communications, and facilities.
    Our primary Contracting Team is located in Washington, DC, where it 
can draw on headquarters expertise. In Iraq, there are multiple levels 
of technical oversight, depending upon the complexity of each contract. 
In February 2008, the Office of Acquisition Management converted to a 
fee-for-service organization, charging a 1-percent fee on all 
procurements. Since that time, we have hired 102 additional staff for 
contract administration.
    In conflict zones such as Iraq, the Department's Contracting 
Officer Representatives (CORs) are required to maintain special 
vigilance against trafficking in persons, and awareness of the 
practices of labor brokers and recruiters. CORs must brief contractor 
program management to ensure there is no trafficking of persons or 
other unethical conduct. Programs with a significant in-country 
contractor presence require COR review and documentation of the 
adequacy of contractor employees living conditions.
    Additional information about the Department's significant contracts 
follows.
Police Development Program
    Since 2006, the Bureau of International Narcotics and Law 
Enforcement (INL) has continued to enhance its contract oversight, 
which for Iraq includes a Washington-based COR, COR support staff, 
contract administration personnel in the field, and an entire program 
office to assist with contract accountability.
    Currently, INL has 10 contract administration personnel deployed in 
Iraq, and two more personnel in the pipeline.
    During the next year, INL will adjust the contract administration 
staffing level at post and at headquarters commensurate with the 
reduction in INL administered contractual services.
    INL has made several improvements for contract oversight, including 
(1) using the Quality Assurance Surveillance Plans (QASP) for 
contractor accountability; and, (2) implementing standard operating 
procedures for further specificity in oversight roles and 
responsibilities.
    In addition, INL has planned a monitoring and evaluation (M&E) 
program to be staffed by four M&E subject matter experts in Baghdad, 
Basrah, and Erbil. The more senior of the four M&E advisors will report 
to the Deputy Director of the INL Office at Embassy Baghdad. The M&E 
program will provide ongoing monitoring and regular evaluations of INL 
programs in Iraq.
    To prepare for the M&E program, INL is conducting an institutional 
assessment of Iraq's criminal justice system. Assessments will be 
completed of the police, corrections, and courts sectors over the 
course of the next several months. These assessments will permit INL to 
gauge the performance of its Iraq programs and to better direct 
resources to areas of greatest need and potential improvement.
Private Security Contractor Management Plan
    The State Department uses private security contractors (PSCs) to 
help meet the extraordinary security requirements in critical threat 
and nonpermissive environments. Through operational changes already 
implemented and an examination conducted during the Department's 
Quadrennial Diplomacy and Development Review (QDDR) process, State is 
ensuring proper management, oversight, and operational control of the 
private security contractors we deploy overseas. The Department 
institutionalized many of these changes through the new Worldwide 
Protective Services (WPS) contract awarded in September 2010, which 
incorporates lessons learned to ensure that private security 
contractors perform their requirements in a professional, responsible, 
culturally sensitive, and cost effective manner.
    The Department currently employs approximately 2,700 PSC personnel 
in Iraq, including 900 supporting protective security details in 
Baghdad, Erbil, and Tallil and 1,800 providing static guard services to 
facilities under Chief of Mission (COM) authority in Baghdad. Following 
the transition in Iraq, there will be 100 direct-hire special agents 
and 106 security specialists to manage approximately 7,000 contractors 
to protect U.S. Government employees and facilities under COM authority 
in Baghdad, Erbil, Mosul, Kirkuk, and Basrah.
    DS's plan for management, oversight, and operational control of PSC 
personnel includes:

  <bullet> Ensuring professionalism and responsibility through improved 
        direct oversight of security contractor personnel:

      <all>  DS agents at each post will serve as managers for the 
            Static Guard and Personal Protective Security programs;
      <all>  DS agents at each post will also serve as Contracting 
            Officer's Representatives (CORs) and Assistant CORs (A/COR) 
            for the direct management and oversight of the WPS 
            contract;
      <all>  DS personnel at each post will be assigned as Government 
            Technical Monitors (GTMs) to assist the COR and A/COR in 
            the oversight of the WPS contract.
      <all>  Direct-hire Diplomatic Security personnel (DS agents or 
            SPS officers) provide direct operational oversight of all 
            protective motorcades.
      <all>  Diplomatic Security personnel will continue to conduct 
            frequent, unannounced health and welfare after-hours visits 
            to WPS housing compounds. Collocation of contractor life 
            support areas on Embassy, consulate, or EBO compounds will 
            enhance after-hours oversight of contractor personnel;
      <all>  Revised mission firearms policies strengthen rules on the 
            use of force and new less-than-lethal equipment fielded as 
            a means to minimize the need for deadly force;
      <all>  Video recording systems and tracking systems installed in 
            vehicles to enhance oversight and contractor 
            accountability; and
      <all>  All incidents involving a weapons discharge and other 
            serious incidents are thoroughly investigated by the 
            Regional Security Office.

  <bullet> Improving the image of the security footprint through 
        enhanced cultural sensitivity:

      <all>  Mandatory country-specific cultural awareness training for 
            all security contractors prior to deployment to Iraq;
      <all>  Revised standards of conduct, including a ban on alcohol; 
            and
      <all>  Interpreters included in protective security details.

  <bullet> Achieving greater efficiencies through new contract terms:

      <all>  One set of terms and conditions, enhancing the ability to 
            provide appropriate and consistent oversight;
      <all>  Reduced acquisition timelines;
      <all>  Larger number of qualified base contract holders, thereby 
            increasing competition and controlling costs;
      <all>  Timely options in the event a company fails to perform;
      <all>  More efficient program management compared to multiple, 
            stand-alone contracts; and
      <all>  Computerized tracking of contractor personnel to aid in 
            reviewing personnel rosters used to support labor invoices.

    As the security environment improves, the Department will 
transition to a more traditional mode of operation. This transition has 
begun in Erbil, where our static guard force includes a significant 
number of local nationals. As the Department transitions in Iraq, 
roughly two-thirds of the guard force in Erbil will be comprised of 
local nationals.
Contract oversight for PA&E, LOGCAP IV, and the Linguist/Subject Matter 
        Expert Contracts
    A&E works exclusively on the Embassy compound where they perform 
Operations and Maintenance services. Their Contracting Officer's 
Representative (COR) is the Deputy Facilities Manager. Between the 
Facilities Manager and the Deputy, all work performed by PA&E is 
visible and verifiable on a daily basis and a detailed review is 
conducted on at least a weekly basis with critical work being checked 
more frequently. Billing and staffing levels are reviewed monthly with 
the Financial Management Officer where reconciliation of differences in 
billing can be researched. All problems, if any, are immediately 
reported to the Contracting Office in Washington for immediate 
appropriate action.
    All residents of the Embassy compound are customers. They are quick 
to observe and report any work that has not been performed in 
accordance with the contract requirement.
    Linguist/Subject Matter Expert (L/SME) contracts are reviewed by a 
COR in Washington, DC, for the offices served in Iraq. The contractor's 
timesheets are verified, by an individual designated by the contracting 
officer as Government Task Managers (GTM) and, who has firsthand 
knowledge of the contract requirements, contractor employee's 
attendance and deliverables. This is the person to whom the L/SME 
reports to on a daily basis. An erroneous entry on a timecard would be 
readily noticed and a timely correction made. Government managers at 
this level are experienced and very detailed in their review.
    The COR is a recognized expert in technical areas of the contract 
requirements and it would be difficult to imagine a scenario where a 
contractor could exploit lack of oversight. Further, while 
comprehensive in nature, the L/SME contract is not physically large. 
From experience, one COR with a responsive base of Government managers 
is more than adequate to verify contractor performance as well as 
secure adequate internal controls.
    While it is most effective for the State Department to use its own 
competitive process to award most contract actions, the Department is 
also leveraging DOD resources where DOD has superior capabilities in 
theater. LOGCAP has been a success story since State inherited the Task 
Order from the Coalition Provisional Authority in 2004. The DOD Program 
Manager for LOGCAP publicly stated in 2006 that State was the only 
organization that ``gets'' LOGCAP. He meant that State was the only 
LOGCAP customer that was holding the line against abuse of LOGCAP 
services while maintaining a perfect life/health/safety record while 
carefully expanding the capability of the Task Order to facilitate 
other nongovernment organizations as deemed necessary by the Chief of 
Mission (COM) and ensuring that reimbursement were paid to LOGCAP 
promptly.
    The ``charter'' for LOGCAP was direct and strictly dictated by DOD 
and State--one COR from the Department of State and one Administrative 
Contracting Officer (ACO) from the Department of Defense. There was, as 
well, close coordination between LOGCAP Rock Island Contracting Command 
(RICC) and State.
    Issues that were prevalent at other DOD Task Order sites did not 
occur under the COM Task Order. Electrical grounding safety, always 
problematical, was constantly reviewed and tested. Food production 
remained at the highest standard. No abuse of vehicle dispatch or fuel 
operations was ever observed and the LOGCAP Contractor took steps to 
reduce numbers of vehicles on several occasions to further COM policy.
    State has been served by two LOGCAP Task Orders. One is the COM 
Task Order in the International Zone (IZ). The other task order is the 
DOD task order that supported State when a State organization was 
resident on the other task order's site.
    This arrangement was approved by the RICC as a Quid Pro Quo 
arrangement after analysis indicated that DOD entities were also being 
serviced by the COM task order and in roughly even amounts.
    Standard arrangement for LOGCAP Task Orders is to have oversight 
and administration performed by the Defense Contract Management Agency 
(DCMA). DCMA remains critical to the performance of LOGCAP Task Orders 
and the LOGCAP Program Manager has assured State that DCMA will remain 
on the State/DOD team for both LOGCAP IV and any follow-on replacement 
for LOGCAP. The caveat is that DCMA wants to see the size and level of 
effort before stating their specific requirements for an administration 
team and cost for providing the team.
    The policy remains in place that there is a single COR and ACO. 
While it is unavoidable that the contractor and State managers talk, 
nothing official can take place until the COR provides review and 
concurrence and the ACO approves and directs. DCMA requests the Quality 
Assurance Representatives (QAR) to perform periodic checks to test and 
report deficiencies and concerns to the ACO and COR. Weekly cost and 
program review meetings chaired by the ACO provide near real-time 
information in a manner that the ACO can identify problems and provide 
course correction if the contractor performance varies from a standard.
    State fully expects to continue its successful relationship with 
DCMA and LOGCAP. The technical success is proven. Costs are contained 
because oversight shows that work is being accomplished on time and 
within budget.
    The Office of Acquisitions Management has a dedicated, qualified 
team of Contracting Officers and Contract Specialists assigned to 
manage the Department of State contracts as well as to provide any 
assistance to the LOGCAP program supporting the U.S. Mission in Iraq. 
There are currently two Department of State employees located at the 
Embassy who provide the COR responsibilities for the LOGCAP program. We 
believe these two positions are adequate to provide the necessary 
oversight enforcing contractor performance and internal controls. If, 
on occasion, it becomes necessary to temporarily increase this number, 
the Office of Acquisitions Management is prepared to deploy TDY 
employees to Post to provide the necessary support.
Facility Construction
    For the Bureau of Overseas Buildings Operations' (OBO) construction 
projects, there is a Washington-based Contracting Officer, and the 
onsite project manager is the COR. There is significant scrutiny of 
both contractors and subcontractors, as well as their employees. 
Contractors for the construction of new office and other buildings must 
name all subcontractors at the time of proposals, and they are part of 
the proposal evaluation. When we construct buildings, foreign firms 
receive local checks for adverse information. Contractor and 
subcontractor employees going on to a construction site must have name 
and other records checks performed by the Regional Security Officer 
(RSO) in advance and in consultation with local officials.
    For OBO construction projects, onsite ``man camps'' (living and 
dining quarters) are expected to meet strict health and safety 
standards. When OBO Project Managers become aware of quality of life 
issues, on or offsite, they first notify the Site Security Manager (a 
trained DS specialist), then the RSO, who will then notify appropriate 
authorities. OBO ensures that emergency medical services are provided 
(by the embassy medical team if necessary) and that evacuations are 
handled appropriately.

    Question. In September 2007, Blackwater personnel accompanying a 
State Department convoy shot and killed several Iraqi civilians. What 
changes, if any, were made to the acquisition process as a result of 
this incident?

    Answer. Contract administration processes were strengthened as a 
result of the Blackwater incident. Direct-hire government personnel now 
accompany protective details. Tracking devices and video equipment in 
each motorcade provide a record of incidents to allow for a better 
analysis of what occurred. Contractor reporting of incidents has been 
improved. Also, DS has increased the number of contracting officer's 
representatives and government technical monitors to work in theater 
where Worldwide Protective Services (WPS) task orders are being 
performed so that overall contract oversight is enhanced, including the 
contractor staffs' adherence to contract required standards of conduct. 
I have attached a list of further actions undertaken to strengthen 
management and oversight of the WPS contract.
    For the DS Worldwide Protective Services (WPS) contract, DS has 
increased staffing to more than 200 direct-hire personnel to administer 
the contract and its task orders to ensure contract compliance of 
approximately 5,100 contractor employees.
    Other key elements include:

  <bullet> Ensuring appropriate levels of professionalism and 
        responsive operational responsibility through direct 
        operational control and oversight of security contractor 
        personnel:

      <all>  DS Special Agents at each post serve as managers for the 
            Static Guard and Personal Protective Security programs;
      <all>  DS Special Agents at each post serve as Contracting 
            Officer's Representatives (CORs) and Assistant CORs (ACORs) 
            for the direct management and oversight of the WPS contract 
            to assist the Contracting Officer;
      <all>  DS personnel at each post are assigned as Government 
            Technical Monitors (GTMs) to assist the COR and ACOR in the 
            oversight of the WPS contract.
      <all>  Direct-hire DS personnel (DS Special Agents or Security 
            Protective Specialists) provide operational control of 
            protective motorcades.
      <all>  Collocation of contractor life-support areas on Embassy, 
            Consulate, or Embassy Branch Office compounds will enhance 
            after-hours oversight of contractor personnel;
      <all>  Revised mission firearms policies further strengthen 
            post's rules on the use of force, and less-than-lethal 
            equipment has been fielded as a means to minimize the need 
            to employ deadly force;
      <all>  Video recording and tracking systems are installed in each 
            motorcade;
      <all>  All incidents involving a weapons discharge or other 
            serious incidents are thoroughly investigated by the 
            Regional Security Officer (RSO); and
      <all>  The Office of Acquisitions Management has a dedicated, 
            qualified team of contracting officers and contract 
            specialists assigned to administer PSC contracts. They will 
            make regular field visits to each post to conduct reviews 
            of PSC contracts.

  <bullet> Improving the image of the security footprint through 
        enhanced cultural sensitivity:

      <all>  Mandatory country-specific cultural awareness training for 
            all security contractors prior to deployment to Iraq;
      <all>  Revised standards of conduct, including a ban on alcohol; 
            and
      <all>  Interpreter support provided for protective security 
            details.

  <bullet> Achieving greater efficiencies through new contract terms:

      <all>  One set of terms and conditions enhances the ability to 
            provide uniform, appropriate, and consistent oversight;
      <all>  Reduced acquisition timelines;
      <all>  Larger number of qualified base-contract holders, thereby 
            increasing competition for each task order while 
            controlling costs;
      <all>  Timely options in the event a company fails to perform;
      <all>  More efficient program management compared to multiple, 
            stand-alone contracts;
      <all>  Computerized tracking of contractor personnel to aid in 
            reviewing personnel rosters used to support labor invoices; 
            and
      <all>  Regional auditors from the Defense Contract Audit Agency 
            (DCAA) will be assigned to each company receiving a WPS 
            task order.

    Question. What sort of agreement have the State Department and 
Defense Department worked out so that the diplomatic missions in Iraq 
continue to receive life support services under the LOGCAP IV contract? 
Please describe the key provisions of the agreement. How have the 
payments for the services been worked out, and who will be responsible 
for quality control and contract administration?

    Answer. The State Department and Defense Department have concluded 
an interagency agreement utilizing authority provided under the Economy 
Act (21 U.S.C. 1535) to ensure that State will continue to receive life 
support services under the LOGCAP IV contract. Key provisions include 
basic life support and core logistics services with a reimbursable 
method under specific task orders. LOGCAP IV is a DOD contract 
administered by the Army Contracting Command-Rock Island (ACC-RI) with 
ACC-RI delegating oversight to Defense Contract Management Agency 
(DCMA), and the Department of State provided Contracting Officer 
Representatives.

    Question. How is the Office of Procurement Executive balancing its 
oversight of overseas procurement and its oversight of the Acquisitions 
Management Office?

    Answer. The Office of the Procurement Executive has two Divisions 
focused on procurement oversight. The Evaluation and Assistance 
Division focuses on oversight of overseas procurement operations 
through staff assistance visits to overseas posts, desk officer 
oversight by geographic region, and model contracts and documentation 
to assist contracting personnel with transaction support. Overseas post 
procurement reviews are scheduled to cover every geographic region 
annually. Three to four posts are visited per region. Desk Officers are 
in daily contact with procurement officials at overseas posts to offer 
assistance.
    The Policy Division conducts regular reviews of domestic 
procurement operations such as the Acquisition Management Office, 
Library Services, Language Services and the Foreign Service Institute. 
Special Topic Reviews, such as an examination of Award Fee Contracts, 
are scheduled when the Procurement Executive determines the need to 
look more closely at a specific topic.

    Question. How will you ensure that current practices and procedures 
for managing, operating and maintaining the Department's real estate 
holdings are cost-effective?

    Answer. The Department has a long history of comprehensive 
management and oversight of its real estate portfolio, both overseas 
and domestic. It has aggressively engaged the General Services 
Administration (GSA) and other service providers to ensure competitive 
prices on rents, operating costs, utilities, and other real estate and 
construction requirements. As the portfolio stands today, space 
utilization meets or exceeds GSA standards, operating costs reflect our 
best efforts to manage costs while providing appropriate levels of 
service, and strategic planning encompasses the real property goals of 
this administration and the Congress.
    If confirmed, I will ensure the continued use of aggressive 
performance standards for office space utilization, workstation-to-
office ratios, and the many modern mobile workforce initiatives 
beginning to be utilized by Federal agencies. I will continue to 
evaluate the Department's real estate portfolio, looking for 
opportunities to relocate ``back office'' operations to lower cost 
locations, as we have done successfully with our finance and visa 
processing operations. I will continue efforts to consolidate warehouse 
and other logistics operations, Automated Data Processing, similar 
Information Resource Management functions, and bureaus that currently 
are spread out in multiple locations throughout the Washington 
metropolitan area.
    Finally, if confirmed, I will insist that future GSA leases on the 
Department's behalf include purchase options to the extent practical, 
and continue the Department's practice of working with GSA to seek 
opportunities to purchase leased buildings where we have made 
substantial investments, and to look for other existing federal 
properties where initial investments could yield long terms savings of 
rental payments.

    Question. The State Department's Inspector General in 2009 was 
critical of inadequate management controls over the work performed by 
operations and maintenance contractors.

  <bullet> What sort of management controls exist, and what steps will 
        you take to strengthen these controls? Do you have sufficient 
        personnel--both in terms of numbers and expertise--to perform 
        contract oversight?
  <bullet> Does the Bureau still rely on labor-hour contract staffing? 
        If so, is this necessary, and what are you going to do to 
        address the costly nature of such contract work?

    Answer. The Office of the Inspector General (OIG) focused on three 
issues in its 2009 review: (1) project file documentation; (2) staff 
training; and (3) questions regarding District of Columbia taxes on 
some construction/ renovation work orders. The A Bureau's Office of 
Operations' (A/OPR) action plans on all three issues have been 
reviewed, approved, and validated by the OIG subsequent to that review.
    All project files are now maintained by Contracting Officer's 
Representatives (CORs) and Project Managers, including an appropriately 
detailed scope of work, an independently derived government cost 
estimate (IGE) using appropriate estimating tools for the work, 
documentation of at least three competitive bid solicitations, a 
reconciliation of any IGE-to-bid cost discrepancies, and a best-value 
selection. Project Managers are required to document any changes in 
scope as the work proceeds, all inspections and commissioning as the 
work is completed and final closeout of costs and invoices. Quality 
assurance staff, which is independent of the project staff, are 
responsible for periodic reviews of project files to ensure compliance 
with this requirement.
    All CORs receive required training and must maintain their COR 
certifications. In addition, all building/project managers overseeing 
work performed under contract are required to receive similar training. 
After initial COR training is completed, all staff involved with any 
work using contractors must complete 40 hours of additional training 
every 2 years. This training is consistent with governmentwide guidance 
issued by the Office of Management and Budget (OMB) and Federal 
Acquisition Regulations (FAR).
    Regarding D.C.-user tax issues, A/OPR, on the advice of the Office 
of Acquisition Management and the Office of the Legal Adviser, has 
clarified conditions under which D.C. tax rules apply to services 
rendered by operations and maintenance contractors. Language has been 
written into the new contracts spelling out how taxes are to be/or not 
to be invoiced. Payments are scrutinized to ensure precedence is not 
established that would be detrimental to the Department.
    The Office of Facilities Management Services (FMS) continues to 
utilize labor-hour contract staffing. This will continue to be 
necessary at some level to meet mission requirements until additional 
Full-Time Equivalent (FTE) staff is authorized. However, since the OIG 
report, OPR/FMS has been gradually reducing its reliance on labor-hour 
contracting staffing by using part-time government employees where 
possible and by reallocating existing staff based on an organizational 
analysis conducted by the Department of State's Office of Resource 
Management Analysis (RMA).

    Question. What will you do to ensure that the Office of 
Authentications responds to requests by the public, businesses, and 
other government agencies in a timely manner? Does the office have 
sufficient personnel and resources to handle its workload?

    Answer. Due to the increased workload in the Office of 
Authentications, turnaround time on document processing has increased 
over the last 2 years. To address this issue, the office has allocated 
two additional staff positions from the Bureau of Administration's 
allotment. The new employees are expected to be on board this summer. 
In the meantime, the Bureau has detailed other Bureau staff on a part-
time basis to help address the Office's increased work-load. An e-mail 
address for Members to inquire about the status of authentication 
requests on behalf of constituents was also recently established. The 
Department gives the highest priority to customer service and is 
working hard to deal with the increased demand.

    Question. What is the status of Fly America provisions?

    Answer. The Department's policies and regulations (14 FAM 583) are 
consistent with the guidelines of the General Accounting Office and 
mirror the Federal Travel Regulations (FTR) used by other agencies 
government wide. Information and reminders are provided to employees on 
a regular basis regarding the provisions of the Fly America Act. Two 
levels of management controls are in place to ensure the provisions are 
complied with: (1) To fly on a foreign carrier, employees must provide 
approved written certification that no American air carriers are 
available to provide the requested service or a reasonable alternative, 
and (2) bookings on foreign carriers by the Department's Travel 
Management Centers are reported to the Contracting Officer's 
Representative for the travel contract.


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 20, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Earl Anthony Wayne, of Maryland, to be Ambassador to 
        Mexico
Arnold Chacon, of Virginia, to be Ambassador to the Republic of 
        Guatemala
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez, presiding.
    Present: Senators Menendez, Udall, Lugar, and Rubio.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. This hearing will come to 
order.
    Today the Senate Foreign Relations Committee considers two 
nominations, Ambassador Earl Anthony Wayne to be the Ambassador 
to Mexico and Mr. Arnold Chacon to be Ambassador to Guatemala.
    First, let me welcome the nominees and their families and 
friends. I will have some brief introductory remarks, and then 
I will turn to Senator Lugar. I believe Senator Rubio is on his 
way. And then we will turn to our nominees.
    Let me congratulate you on your nominations. If you are 
confirmed, you will serve as the President's representative and 
be called upon to implement the policies of the United States 
Government, and protect and advance the interests of the 
American people.
    The countries you are being called to represent are 
countries that share a strong historical relationship with us 
and with one another. Both countries face challenges in the 
areas of governance, citizen security, human rights, and 
impunity issues, civilian/military relations, and judicial and 
security sector reform.
    Organized crime, including trafficking of drugs, weapons 
and people, threatens the stability of both nations, and has 
resulted in a serious threat to the security of the citizenry. 
And in the case of Guatemala, the survival of its nascent 
democracy.
    In Mexico, nearly 40,000 people have died as a result of 
drug-related violence in the last 4 years, and in Guatemala, 36 
years of civil war and fragile democratic institutions have 
provided a haven for traffickers and gangs seeking new 
territory from which to expand their trade. However, I also 
recognize that this is a joint battle, a two-way street, in 
which the United States is part of sharing the responsibility 
to meet the challenge, and, therefore, also part of sharing the 
burden. We must reduce domestic demand, find the political will 
to curtail the flow of weapons and money going southward, and 
focus our political attention and resources on impeding this 
growing threat to regional stability.
    I was encouraged by Secretary Clinton's attendance at a 
Central American Security Conference in Guatemala last month. I 
am also encouraged by the Justice Department's decisions last 
week to enhance reporting requirements for gun dealers in four 
southwest border states; California, Arizona, New Mexico, and 
Texas, that make sales of two or more semiautomatic rifles in a 
5-day period of guns greater than .22 calibers, with the 
ability to accept a detachable magazine. Those are all steps in 
the right direction.
    However, this is a relationship that is far more than about 
narcotics trafficking. Our economic relationship with the 
region and Mexico particularly is very important. The United 
States-Mexico goods trade totaled $393 billion in 2010, with 
United States exports exceeding $160 billion a year.
    Mexico is a major export market for United States 
machinery, cars, mineral fuel, oil, plastics, grains, meat, and 
soybeans. We are fortunate to enjoy a strong political and 
economic relationship with Mexico from which we derive mutual 
benefits. It is a relationship that goes back to the very 
essence of the founding of our country. And the number of 
United States citizens of Mexican descent is one of the largest 
of any given country in the world. Therefore, we have a very 
deep and important relationship. To me, as the chair of the 
Western Hemisphere Subcommittee, this is one of the most 
important relationships we have.
    Our Ambassador to Mexico is the custodian of this important 
multifaceted relationship, and it is a position which demands 
knowledge of the region, the ability to simultaneously manage 
multiple portfolios, and a respect for the independent 
political and cultural traditions of our nations.
    The challenges each of you face vis-a-vis your host 
governments will be unique. Rest assured that we are vested in 
your success. If confirmed, you will both play a vital role in 
the work that will build upon our common successes and combat 
some of the most pressing challenges. We look forward to your 
testimony.
    With that, let me turn to Senator Lugar, the distinguished 
ranking member of the full committee, for his comments.
    Senator Lugar. Thank you very much, Mr. Chairman. I would 
like to defer to Chairman Rubio in the event he has any 
comments before my opening.

            OPENING STATEMENT OF HON. RICHARD LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. I join the chairman in welcoming our 
distinguished nominees this morning. I appreciate this 
opportunity to examine not only their credentials, but also 
current United States policy toward Mexico and Guatemala.
    Over many decades, we have taken for granted the benefits 
of peaceful relationships with bordering countries.
    Our neighbors have been among our most important trading 
partners, with Canada currently ranking first in overall trade 
with the United States, and Mexico ranking third.
    Historically, few great powers have enjoyed the type of 
sustained regional stability that we have experienced. But in 
recent years, that regional stability has been shaken as Mexico 
has struggled with criminal violence, debilitating corruption, 
and drug financed cartels.
    In January, the Mexican Government pegged the number of 
people killed during its 4-year military-led crackdown on 
organized crime at more than 34,000. Those murdered, included 
government officials, police officials, military personnel, and 
others who were deemed a threat to the cartel's business 
interests or leaders. Mexico's insecurity and cartel violence, 
spilling into Central American countries, was exacerbating 
security challenges.
    Concern is particularly acute in Guatemala, and it appears 
that the burgeoning presence of Mexican drug traffickers is 
adding another layer of violence to a country already burdened 
by crime and corruption. Senior Guatemalan officials have 
warned that the Guatemalan security forces need a major 
overhaul to keep the Mexican drug gangs in check.
    Guatemala is seen as an ideal transit point for the cocaine 
traveling from Colombia through Mexico to the United States. 
Guatemala has a large unguarded border with Mexico.
    It has ports on the Pacific Ocean and the Gulf of Mexico. 
It has hundreds of grass airstrips near large plantations that 
are suitable for light aircraft, and the security forces are 
under resourced relative to the drug gangs.
    Events in Mexico and Guatemala have clear security 
implications for the United States, Americans traveling in the 
region and the United States/Mexican border. But this 
instability has also commercial consequences. Hopes for much 
stronger trade relationships that can help the United States 
and the entire Western Hemisphere compete with China, Japan, 
and the EU are suffering as a result.
    And given U.S. interest in the stability and prosperity of 
our southern neighbors, the United States has been working with 
these countries to confront lawlessness. The Merida Initiative, 
a multiyear Federal partnership, provides equipment and 
training and support of law enforcement efforts to curb the 
flow of illegal narcotics to the United States, Mexico, and 
Central America. It is the framework for this relationship.
    Though much remains to be done, the Merida Initiative has 
opened a new era of United States/Mexican law enforcement 
cooperation. It is far more extensive than previously 
attempted.
    The stakes are high for both countries. Sustained 
lawlessness in large areas of Mexico complicate the United 
States efforts to combat drug smuggling and illegal 
immigration, and to generate increasing drug-related violence 
on our side of the border. For Mexico, degrading the capacity 
and influence of the cartels in Mexico is a near existential 
national security objective.
    Today I look forward to the nominees' perspectives on the 
Merida Initiative and on efforts by Mexico and Guatemala to 
fight corruption within their own ranks. How can we enhance our 
cooperation with these governments in ways that benefit the 
United States security? These are basic questions for our 
session today, and I thank the chair for recognizing me.
    Senator Menendez. Thank you, Senator Lugar.
    Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman, and the ranking 
member. And I'll be brief because I think everything that I 
wanted to say has been covered by your statements, which I 
think both have touched upon all the key issues.
    The only things I would add are, first, that it is 
important to remind ourselves of the importance of our 
relationship with Mexico. There are a lot of important things 
happening all over the world, but there are few, if any, 
relationships around the world more important than the one we 
have with our neighbors in Mexico.
    Prosperity and security in Mexico is a positive for the 
United States and vice versa. And this relationship that we 
have is critical on a number of fronts.
    On the economic front, it is about having a trading partner 
with an expanding economy, both, as a manufacturer for things 
that we use for our companies, but also as a consumer hopefully 
as our economy begins to grow.
    On the security side, I think just to state the obvious 
that the issues that are going on in Mexico are inextricably 
linked with issues that are happening across the border here in 
the United States. And so, the relationship between Mexico and 
the United States is a critically important one, perhaps as 
important as virtually any other relationship we have anywhere 
else in the world. And I hope we will continue to give it the 
importance that it deserves in this committee. I know certainly 
the subcommittee has.
    Guatemala is important as well. First of all, the promise 
in Guatemala now for over two and half decades, moved away from 
autocratic rule and toward an electoral democratic process. And 
that is a net positive that we should continue to encourage.
    The democratic institutions in Guatemala have survived for 
two and a half decades, but they are still fragile and will 
require us to continue to invest in them and be a partner with 
them in that regard. This is particularly important in light of 
the challenges that Guatemala faces, as does all of Central 
America. As we have increased the pressure on drug trafficking 
in the Caribbean, more and more of the trafficking has moved 
toward the Central American corridor, and we see the results of 
that all throughout Central America. It is critically important 
the United States continue to have a strong partnership.
    I personally am deeply engaged in the future of both of 
these countries because we have close family friends, 
relatives, and plenty of constituents in the State of Florida 
that have deep personal, family, and business links to both of 
these countries. And so, the assignment that both of you are 
going to have are critically important. As I said to you when 
we met, I intend to be in touch with you both personally on a 
number of issues, hopefully mostly good news, and every now and 
then some challenges.
    So, thank you for your service to our country and your 
willingness to serve in these very important posts. And we look 
forward to working with you in the years to come, and are 
interested in your testimony here today.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Rubio.
    Before we hear your testimony, let me briefly introduce 
each of our nominees.
    Ambassador Earl Anthony Wayne, nominee as the Ambassador to 
Mexico, is a career ambassador. Since 2009 he has served as the 
Deputy Ambassador to Afghanistan and coordinating director for 
Development and Economic Affairs.
    In 2006 through 2009, he served as U.S. Ambassador to 
Argentina.
    Ambassador Wayne has also served in the Department of 
State's Economic and Business Affairs Bureau and the Bureau of 
European Affairs, as well as the National Security Council.
    He holds degrees from Harvard University, a more 
distinguished university, Princeton in New Jersey, from 
Stanford University, and the University of California at 
Berkeley. Ambassador, we look forward to hearing from you 
today.
    Arnold A. Chacon is the nominee to be the Ambassador to 
Guatemala. He is a career member of the Senior Foreign Service 
and currently serving as the Deputy Chief of Mission at the 
Embassy in Madrid where I recently had the opportunity to meet 
and work with him in my role as the chairman of the U.S.-Spain 
Business Council. And you did an excellent job. We appreciate 
your engagement with us.
    Mr. Chacon has a long history with the Bureau of the 
Western Hemisphere Affairs, having held, amongst others, the 
positions of Director of Andean Affairs, Deputy Director of 
Central American Affairs, Deputy Chief of Mission in Ecuador, 
political counselor in Peru, political officer in Chile, and 
staff assistant to the Chief of Mission in Mexico.
    Mr. Chacon received a B.A. in international affairs from 
the University of Colorado at Boulder.
    So, let me welcome both of you. If you have family or 
friends you want to introduce, please do so to the committee. 
We understand they're an important part of your commitment to 
public service.
    And with that, I'll start with Ambassador Wayne. We ask you 
to summarize your testimony to about 5 minutes or so. We will 
include your full testimony in the record.

   STATEMENT OF HON. EARL ANTHONY WAYNE, OF MARYLAND, TO BE 
                      AMBASSADOR TO MEXICO

    Ambassador Wayne. Thank you very much, Mr. Chairman, 
Senator Lugar, Ranking Member Rubio. Thank you for your 
statements with which I found probably total agreement, I would 
say, in all your points. And we welcome your interests.
    Senator Menendez. That is a good start in your 
confirmation. [Laughter.]
    Ambassador Wayne. Very much welcome your interest in Mexico 
and Guatemala and the region.
    It is an honor to be here before you as President Obama's 
nominee to serve as United States Ambassador to Mexico. I am 
grateful to both the President and to Secretary Clinton for 
their trust and confidence.
    I am very humbled to be sitting here and thinking about 
helping to guide bilateral relations with Mexico as Ambassador. 
The United States relationship with Mexico is unique, and its 
enormous and depth and in its direct impact on American 
security and prosperity, as each of you said.
    Our complex bilateral relations affect many Americans 
throughout the country in their daily lives. Our two economies 
and societies are indispensably interconnected, giving us a 
shared responsibility for challenges both nations face.
    More than $1 billion in trade crosses the United States-
Mexico border each day, and almost 1 million people cross that 
border legally each day.
    If confirmed, I will need the advice and the wisdom and the 
partnership of many, including the United States Congress, to 
help me carry out my responsibilities and to manage creatively 
our vital relationship with Mexico.
    I believe my 36 years in America's diplomatic service 
provide experiences that will help me perform this mission 
well. Let me give a couple of examples.
    My 6 years as Assistant Secretary of State for Economic and 
Business Affairs gave me the opportunity to deal with the full 
range of U.S. economic interests issues and agencies. My work 
underscored the special role which Mexico plays as our partner, 
and I worked closely with the United States agencies which are 
essential to managing relations with Mexico.
    My many years working with the European Union and its 
members were a practical lesson in building and deepening 
cooperation with a major U.S. partner on many difficult and 
complex issues. I learned the benefits of investing and 
building the mechanisms and the structures of cooperation. They 
helped us tackle difficult bilateral issues, and they provided 
the basis to take on cooperatively the broader challenges in 
the world.
    Helping to oversee United States-Canada relations let me 
experience directly our relations with our close neighbors, 
touch American lives, and how problem-solving requires that we 
consult closely and coordinate closely with many actors on both 
sides of the border.
    Serving as Ambassador to Argentina provided excellent 
experience in using our public diplomacy tools to address 
misperceptions about the United States. And I also learned 
firsthand how supporting and expanding people-to-people 
relationships and exchanges, whether they involve education, or 
music, or business, or even the fight against trafficking in 
persons, really helped improve perceptions of the United 
States.
    In both Argentina and Afghanistan, I worked closely with 
United States law enforcement agencies and host government 
officials in fighting drug trafficking, and in supporting host 
government efforts to strengthen rule of law institutions.
    In my 2 years in Afghanistan, helping to oversee our 
massive assistance programs, underscored the key role which 
effective interagency teams and close engagement with host 
government teams play in providing assistance to a partner 
nation. Building frank and trusting dialogue was essential both 
within the U.S. teams and with our partners.
    In addition, my experience managing a huge Embassy in Kabul 
and the hundreds of civilians that we have in the provinces 
seasoned my ability to guide a large and complex set of 
operations, such as we have in Mexico.
    At present, issues related to security, crime, and law 
enforcement dominate the headlines about Mexico, but the 
interests we share and the common challenges we face with 
Mexico are much broader. If confirmed, I pledge to work closely 
with you, Mr. Chairman, and your colleagues in Congress to 
further strengthen this multifaceted relationship.
    Central to U.S. efforts over the last 3 years, as several 
of you noted, has been the Merida Initiative. Although our 
cooperation under Merida began by addressing the need to combat 
and weaken transnational criminal organizations, it has 
expanded to include longer term objectives to strengthen 
justice sector institutions, to reinvigorate border management, 
and to reinforce Mexico's efforts to create strong, resilient 
communities in areas impacted by the heightened violence. The 
strong support of Congress for the Merida Initiative has been 
and remains essential.
    As of late June, the U.S. Merida team has delivered a 
cumulative total of $465 million in equipment, technical 
assistance, and training since the Initiative began in 2008.
    The United States plans to achieve a cumulative total of 
almost $900 million delivered by the end of this year.
    One of my principle objectives if confirmed will be to work 
with Mexican and United States colleagues to assure that we 
successfully accelerate Merida implementation, and that we are 
achieving our Merida objectives.
    While United States assistance is vital, the Government of 
Mexico and the Mexican people bear most of the burden 
financially, politically, and in terms of human lives in this 
fight against transnational organized crime. Of the estimated 
40,000 or so deaths attributed to narco-violence since December 
2006, nearly 2,000 were members of the Mexican Security 
Services. And the 2011 Mexican budget allocates over $10 
billion for security.
    United States Government personnel in Mexico have been 
victims of criminal violence also, and the safety of our 
personnel serving in Mexico must be a top priority.
    Over the last two decades, the economic relationship 
between the United States and Mexico has been transformed. Our 
economic ties are now among the deepest in the world. Trade, 
for example, has quadrupled to reach nearly $400 billion in 
2010, making Mexico our second-largest export market and our 
third-largest trading partner.
    The U.S. Chamber of Commerce estimates that trade with 
Mexico supports more than 6 million United States jobs, and for 
26 States, Mexico is the largest or second-largest export 
destination. In fact, we do not merely trade with Mexico and 
Canada; we make things together. This kind of mutual 
integration helps the United States be more competitive in the 
world. If confirmed, I will work to support the mutual benefit 
and strength of our economic ties.
    But it is the ties between our people that help make the 
relations with Mexico so unique. One in ten Americans are 
estimated to be of Mexican descent, while more than 1 million 
Americans call Mexico home. Tourism brings 10 million more to 
Mexico each year, and there are countless people-to-people 
exchanges and links between our two societies. If confirmed, I 
will work to support the many benefits that come from these 
people-to-people ties and exchanges.
    The future security and well-being of the United States is 
rooted in a vibrant partnership with a stable, prosperous, and 
competitive Mexico, that shares the values of democracy, rule 
of law, and open markets at home and abroad. Such a partnership 
requires a whole of government approach by both partners and a 
spirit of good faith and trust between us. If confirmed, I will 
do my very best to help this partnership prosper and achieve 
the mutual benefits possible for the peoples of the United 
States and Mexico.
    Thank you very much.
    [The prepared statement of Ambassador Wayne follows:]

          Prepared Statement of Ambassador Earl Anthony Wayne

    Mr. Chairman, Ranking Member Rubio, and members of the committee, 
it is an honor to be here today before you as President Obama's nominee 
to serve as the next United States Ambassador to Mexico. I am grateful 
to both the President and Secretary Clinton for their trust and 
confidence.
    I am humbled by the thought of helping to guide our bilateral 
relationship with Mexico as Ambassador. The United States relationship 
with Mexico is unique in its enormous breadth and depth and in its 
immediate, direct impact on American security and prosperity. This 
complex, multifaceted bilateral relationship affects Americans in their 
day-to-day lives and involves virtually every department of the Federal 
Government and a host of State and local authorities whose interests 
are closely linked to what happens in Mexico. Our two economies and 
societies are indispensably interconnected, giving us a shared 
responsibility for the challenges both nations face. More than a 
billion dollars of trade crosses the United States-Mexico border each 
day, providing jobs and resources to people across both countries, and 
almost one million people cross the border legally each day in the 
course of their daily routines.
    If confirmed, I will need the wisdom, advice and partnership of 
many, including the U.S. Congress, to help me carry out my 
responsibilities and to manage creatively our vital relationship with 
Mexico. I believe my 36 years in America's diplomatic service offer 
experience and tools which will help me perform this mission well. Let 
me share a few examples.

  <bullet> Serving 6 years as Assistant Secretary of State for Economic 
        and Business Affairs has provided me intensive experience 
        dealing with the full range of U.S. economic interests and 
        issues, including many involving Mexico and Latin America. 
        Those years underscored for me that very special role which 
        Mexico plays as our economic partner bilaterally and in our 
        ability to compete globally. I also learned well the importance 
        of a ``whole of government'' approach to managing international 
        policy and the vital role played by the private sector and 
        civil society in achieving America's economic well-being.
  <bullet> My many years working on U.S. relations with Europe, and 
        especially the European Union, taught me the importance of 
        patiently building and strengthening international partnerships 
        despite the time and investment needed to establish trust and 
        prove the value of cooperation. In the case of the EU, our 
        cooperation covers a tremendously wide range of issues, 
        including some which are very technical but have enormous 
        impact. My work with Europe also made clear that our 
        partnerships are vital not only for bilateral issues but also 
        for the work we can undertake together on broader international 
        challenges.
  <bullet> Helping to oversee United States-Canada relations taught me 
        how relationships with our close neighbors touch American's 
        lives and demand very close consultations with a wide range of 
        U.S. institutions (Federal, State and local) to find solutions.
  <bullet> My years as Ambassador to Argentina taught me the importance 
        of addressing how others view the United States, for good or 
        otherwise. Our public diplomacy and efforts to strengthen 
        people-to-people relationships via education, the media, 
        culture, tourism, and partnerships among civil society 
        organizations can make a big difference for good in relations 
        between nations.
  <bullet> My service in Argentina and Afghanistan also helped me to 
        live the importance of building strong cooperation against 
        crime and drug trafficking and the dedication needed to bolster 
        rule of law institutions.
  <bullet> And my 2 years in Afghanistan underscored the key role which 
        effective interagency teams and regular, close engagement with 
        host government teams play if we are to successfully provide 
        effective assistance to meet urgent needs of our partner 
        nation. Frank and open dialogue in designing and implementing 
        programs, in monitoring and evaluating the results, and in 
        solving problems is essential.

    If confirmed, I hope my experience will help guide our 
multidimensional relationship with Mexico. At the present, issues 
related to security, crime and law enforcement tend to dominate the 
headlines, but I want to emphasize that the interests we share and the 
common challenges we face are much broader and our interaction with 
Mexico must reflect this. I would hope to try to make this point often 
with my words and actions, if confirmed.
    Our bilateral ties have never been stronger, despite the challenges 
of relations as complex as we have with Mexico. If confirmed, I pledge 
to work closely with you, Mr. Chairman, and your colleagues in Congress 
to maintain and deepen these ties. In particular, with your continued 
support, we have the opportunity to strengthen the institutions and 
mechanisms to manage creatively the full range of issues the United 
States and Mexico share as we move forward.
                   merida and the security dimension
    Central to our efforts over the last 3 years has been the Merida 
Initiative. Although our cooperation under the Merida Initiative began 
by addressing the immediate need to combat and weaken Transnational 
Criminal Organizations (TCOs), we have expanded these efforts to 
include longer term Rule of Law institutional objectives (augmenting 
the capacities of civilian law enforcement and security entities, 
strengthening judicial and other state institutions to resist 
corruption and improve the administration of justice); reinvigorating 
border management; and reinforcing Mexico's efforts to create strong, 
resilient communities in areas impacted by narco-violence.
    This overall strategy remains sound. The strong support of the 
Congress for the Merida Initiative has been, and remains, essential to 
its success. As of late June, the Merida Initiative team has delivered 
a cumulative total of $465 million in equipment, technical assistance, 
and training since the Merida Initiative began in December 2008. One of 
my principal objectives, if confirmed, will be to work with my Mexican 
and United States colleagues to accelerate the implementation of the 
activities and to assure that we are achieving our Merida objectives.
    The Merida Initiative has sparked remarkable progress in our law 
enforcement cooperation. The Cabinet-level Merida High Level 
Consultative Group, which last met on April 29, under the chairmanship 
of Secretary Clinton, brings the leaders of the Departments of Defense, 
Homeland Security and Justice, among others, together with their 
Mexican counterparts to review progress and guide the work agenda of 
our enhanced engagement. In Mexico City, U.S. and Mexican colleagues 
work together daily to develop, design, carry out and evaluate our 
cooperative activities.
    While U.S. assistance is a vital contribution, the Government of 
Mexico and the Mexican people bear most of the burden--financially, 
politically, and in terms of human lives--of this fight against 
Transnational Organized Crime. Of over 40,000 deaths attributed to 
narco-violence since December 2006, nearly 2,000 were members of the 
Mexican security services. The Mexican budget for 2011 allocates over 
$10 billion to security spending. In addition to the costs that Mexico 
has borne, U.S. Government personnel in Mexico have also been 
victimized by the violence perpetrated by the cartels and criminal 
gangs. The safety of all U.S. Government officials serving at our 
mission in Mexico must be a top priority. The U.S. Government employs a 
range of equipment and techniques to keep them safe, and maintains an 
ongoing dialogue with the Mexican Government regarding the safety of 
our personnel and their families as they serve our Nation in Mexico. If 
confirmed, I am committed to continuing and intensifying this 
engagement, and our support for the Mexican Government's struggle 
against these criminal gangs.
Building Resilient Communities
    Building strong and resilient communities in areas most affected by 
narco-violence is a key part of the joint Merida strategy. Under the 
Todos Somos Juarez (``We are all Juarez'') program, the Mexican 
Government has engaged local community groups on priorities to keep 
kids out of crime, create new role models, and lure others from a world 
of violence. New initiatives under Merida will support the Government 
of Mexico in Juarez and give greater emphasis to work with state and 
local governments who have jurisdiction over the majority of the crimes 
committed in Mexico. This is a huge task but an imperative one, and, if 
confirmed, I will give these efforts every attention.
    As the President and Secretary Clinton and others have said, we 
recognize that the problem of illicit drugs and trafficking is a shared 
one and that we in the United States bear shared responsibility for the 
problem as well as the solution. If confirmed, I will work to 
strengthen our efforts to impede illegal weapons trafficking and 
increase efforts to control money laundering and bulk cash transfer of 
illicit drug money to Mexico.
    As I stressed in my opening, our bilateral agenda with Mexico is 
too expansive and too important to allow the relationship to be defined 
exclusively by a single component part. We cannot ignore the important 
economic partnership we have with Mexico.
       the economic dimension--facilitating trade and enhancing 
                            competitiveness
    In the last 20 years, the economic relationship between the United 
States and Mexico has been transformed, in magnitude and quality. The 
resulting economic ties between our two countries are now among the 
deepest in the world.
    There are many different signs of this transformation. Trade, for 
example, has more than quadrupled in the last 20 years to reach nearly 
$400 billion in 2010, making Mexico our second-largest export market 
and third-largest trading partner. The U.S. Chamber of Commerce 
estimates that trade with Mexico supports more than 6 million U.S. 
jobs. Those workers know that Mexico is one of our best customers--it 
is a middle-income country with a growing middle class that wants to 
buy a lot of the same products that Americans do. That gives our 
companies a natural advantage in serving the Mexican market, as their 
success in sending exports there makes clear.
    Mexico is a neighboring country but the benefit of its market 
extends far beyond the border. For 26 U.S. States, in fact, Mexico is 
the largest or second-largest export destination. Apple growers in 
Washington, cattle ranchers in Colorado, and electronics manufacturers 
in California all benefit from the demand of Mexican consumers, among 
dozens and dozens of other American industries. But the data shows even 
the smallest American businesses--the small and medium-sized 
enterprises--are most likely to trade with the markets that are the 
closest to home: Mexico and Canada. All around the country, in 
businesses big and small, Mexico is an important customer for American 
products.
    In today's globalized economy, business activities are linked 
across countries like never before. Mexico is no exception. Much of our 
bilateral trade takes place within the same industry or even within the 
same firm, as a result of cross-border investments that have 
facilitated multinational production systems and supply chains. In 
fact, we don't merely trade with Mexico and Canada. It's much more than 
that: we make things together. Indeed, each country has invested 
heavily in each other with about $8 billion of Mexican investment in 
the United States and $95 billion of U.S. investment in Mexico. This 
kind of mutual integration helps make the United States more 
competitive in the world, and it puts American workers at the center of 
the regional economy. That is a new and different dynamic than was at 
work 20 years ago, and it is a positive one that positions us to 
compete more effectively against commercial rivals from around the 
world.
    Our economic partnership with Mexico is vital to our own 
prosperity. If I am confirmed, nurturing this component of our 
bilateral relationship will be a central element of my job in Mexico 
City.
Building a 21st Century Border
    Our security agenda and our economic agenda with Mexico meet at our 
common border, one of the busiest borders in the world. Nearly 1 
million legitimate travelers and more than a billion dollars' worth of 
goods legally cross each day. The U.S.-Mexico Bilateral Executive 
Steering Committee (ESC) was established to formulate and implement 
joint concrete steps designed to enhance our economic competitiveness 
and ensure that the border can meet the increasing demands put upon it 
and enhance the use of its untapped economic potential. Improvements in 
border-crossing infrastructure and operations are necessary to 
facilitate legitimate trade and travel, keeping our trade flows secure, 
reducing congestion, and lowering business costs.
Facilitating Secure and Efficient Transportation Linkages
    Managing the flow of legitimate travelers and goods across the 
border also depends on getting them to the border or port of entry 
efficiently. The ESC is working with stakeholders on both sides of the 
border to see that regional infrastructure plans are coordinated and 
consistent, so trade and travel can smoothly flow to and through the 
border areas of both countries. A new pilot project designed to improve 
the efficiency of cross-border long-haul trucking, which will lower the 
cost of commercial traffic even as it ensures that U.S. safety 
standards are met--will benefit American consumers, workers, and 
exporters.
Removing Unnecessary Regulatory Differences
    Cumbersome and unnecessary regulatory differences raise costs for 
consumers and businesses and make it more complicated to protect the 
environment, health and safety of our citizens. The U.S.-Mexico High 
Level Regulatory Cooperation Council is examining ways to increase 
regulatory transparency, strengthen the analytic basis of regulations, 
and help make regulations more compatible.
Ensuring Access to Clean and Reliable Energy
    Mexico is our second-largest oil supplier, and expanded 
cooperation, including on clean and renewable energy, can be crucial to 
the energy security that makes our economy go. Mexico has significant 
wind, solar, and geothermal energy production potential and has set a 
specific greenhouse gas reduction target of 50 percent from 2002 levels 
by 2050. Under the Bilateral Framework on Clean Energy and Climate 
Change, there are initiatives to limit greenhouse gas emissions, 
promote the development and use of clean energy technologies, and 
improve energy efficiency and reliability. Mexico and the United States 
also share stewardship of the Gulf of Mexico and are committed to 
developing its offshore energy resources safely, responsibly, and 
equitably.
                         people-to-people ties
    One in ten Americans is estimated to be of Mexican descent, while 
more than a million Americans call Mexico home, and tourism brings more 
than 10 million more to Mexico for short stays. Indeed, the U.S. 
consular operation in Mexico is the largest in the world in terms of 
workload and staff. More broadly, Mexicans and Americans have access to 
each other's TV programs and movies, we watch and cheer each other's 
athletes, we enjoy each other's music and cuisine, and we send our 
children to each other's schools for exchanges and study. These people-
to-people ties deserve to be cherished and strengthened by cooperation 
between our governments. The strength of these human ties can help us 
overcome problems that arise. If confirmed, I will work to these ends.
                               conclusion
    The future security and well being of the United States is rooted 
in a vibrant partnership with a stable, prosperous, and competitive 
Mexico that shares the values of democracy, rule of law, and open 
markets at home and abroad. Such a partnership requires a ``whole of 
government'' approach by both partners and a spirit of good faith and 
trust between us. We have made great strides toward building that kind 
of partnership in recent years. Despite the evident challenges, the 
U.S.-Mexico partnership is replete with promise. If confirmed I will do 
my very best to help this partnership prosper in order to achieve the 
mutual benefits possible for the peoples of the United States and of 
Mexico.

    Senator Menendez. Thank you.
    Mr. Chacon.

 STATEMENT OF ARNOLD CHACON, OF VIRGINIA, TO BE AMBASSADOR TO 
                   THE REPUBLIC OF GUATEMALA

    Mr. Chacon. Thank you, Mr. Chairman, Senator Lugar, and 
Senator Rubio. Thank you for granting me the opportunity to 
appear before you today as President Obama's nominee to serve 
as United States Ambassador to Guatemala. I am grateful to 
President Obama and to Secretary Clinton for the trust and the 
confidence they have shown in sending my nomination to you for 
advice and consent.
    With your permission, I would like briefly to introduce my 
family who is here. They have provided much love and support 
throughout my career, and I am deeply grateful. My wife, Alida 
Chacon, is also a member of the U.S. Foreign Service. Two of my 
three children are here, Sarah and Jonathan. My eldest is 
unable to be here. She is studying law at Stanford in 
California. I also have my cousin, Berta Romere Fonte; her 
husband, Michael; and their son, Gabriel, with me today. And 
finally, my dear friend and mentor, Ambassador Vincenzo Arcos, 
is here joining us today, as well as our dear friend, Ms. Eli 
Ledahowsky.
    Mr. Chairman, as a career member of the Foreign Service, I 
have had the privilege to serve my country at home and abroad, 
including five tours in Latin America. Most recently, as you 
noted, I served as the Deputy Chief of Mission in Madrid. And 
should you choose to confirm me, I will draw upon these 
experiences in an effort to advance United States goals in 
Guatemala.
    Guatemala faces a number of grave challenges, including 
trafficking in drugs, weapons and people, high rates of 
violence, impunity and corruption, limited access to education, 
and employment for the nation's burgeoning youth population, 
and chronic malnutrition--child malnutrition.
    As Secretary Clinton said during her June 22 conference of 
support for the Central American security strategy in Guatemala 
City, ``No single country can overcome such daunting challenges 
on its own.'' If confirmed, I commit to promoting respect for 
human rights and economic and social inclusion for all members 
of society through full partnership with the governmental and 
people of Guatemala, which seek to define and implement long-
term solutions that address the underlying causes of 
insecurity.
    Strengthening security requires a whole of society effort, 
and civil society must be a full partner in this endeavor. The 
Central American Regional Security Initiative, or CARSI, will 
be an important tool allowing us to focus assistance where it 
is needed most.
    Guatemala's Presidential, legislative, and local elections 
will take place this September. The United States is supporting 
an Organization of American States electoral observation 
mission, and we hope for free, fair, and nonviolent elections. 
If confirmed, I welcome the opportunity to consult with members 
of this committee and your colleagues in Congress to shape 
appropriate U.S. policies leading up to and following the 
elections.
    Guatemala has made important strides toward reconciling 
with its past. This year in a precedent-setting step forward, 
President Colon's Declassification Commission facilitated the 
public release of nearly 12,000 documents dating back to the 
internal armed conflict. I look forward, if confirmed, to 
working with the Guatemalan Government, civil society, and the 
private sector, to foster further transparency and dialogue.
    I am keenly aware of the critical role Guatemala's dynamic 
private sector must play in shaping Guatemala's future. If 
confirmed, I will encourage the private sector to support 
efforts to create decent jobs for working people. I will 
reiterate to both the government and the private sector the 
need for Guatemala to uphold its commitments under the 
Dominican Republic, Central America, and U.S. Free Trade 
Agreement, including the imperative of effective enforcement of 
labor laws.
    Most importantly, Mr. Chairman, I will work to ensure the 
protection of American citizens in Guatemala. And this begins 
with the safety of our Embassy staff and their families.
    Mr. Chairman, members of this committee, if confirmed and 
entrusted with this office, I look forward to working with you 
and your colleagues in Congress to address the opportunities 
and challenges that await the next United States Ambassador to 
Guatemala.
    I thank you again for granting me the privilege of 
appearing before you today, and I would be pleased to answer 
any questions you and your colleagues may have.
    [The prepared statement of Mr. Chacon follows:]

                  Prepared Statement of Arnold Chacon

    Mr. Chairman and members of the committee, thank you for granting 
me the opportunity to appear before you today as President Obama's 
nominee to serve as the United States Ambassador to Guatemala. I am 
grateful to President Obama and Secretary Clinton for the trust and 
confidence they have shown in sending my nomination to you for advice 
and consent. If confirmed, I look forward to working closely with you 
and your colleagues to advance the interests of the United States.
    With the chairman's permission, I would like to take a moment to 
introduce my family and to thank them for their love and support. With 
me today are my wife, Alida, also a member of the U.S. Foreign Service, 
as well as two of my three children, Sarah and Jonathan. My brother, 
Michael Chacon of Denver, CO, is also here. Unfortunately, my eldest 
daughter, Helen, a student at Stanford Law School, could not be with us 
today.
    As a career member of the Foreign Service, I have had the privilege 
to serve my country at home at the Department of State and abroad, 
including five tours in Latin America in Honduras, Chile, Mexico, Peru, 
and Ecuador. Most recently, I served as the Deputy Chief of Mission in 
Madrid. Should you choose to confirm me, I will draw upon these 
experiences in an effort to advance U.S. goals in Guatemala. And if 
confirmed, I look forward to consulting with this committee in this 
effort.
    Guatemala today faces a number of grave challenges, including 
trafficking in drugs, weapons, and people; high rates of violence; 
impunity and corruption; limited access to education and employment for 
the nation's burgeoning youth population; and chronic child 
malnutrition. As Secretary Clinton said during the June 22 Conference 
of Support for the Central American Security Strategy in Guatemala 
City, no single country can overcome such daunting challenges on its 
own. If confirmed, I commit to promoting respect for human rights and 
economic and social inclusion for all members of society. Through full 
partnership with the government and people of Guatemala, we seek to 
define and implement long-term solutions that address the underlying 
causes of insecurity. If confirmed, I will work with Guatemalan 
leaders, including the President and his or her ministers, the Attorney 
General and the Police Reform Commissioner, as well as members of civil 
society and the international community, including the International 
Commission Against Impunity in Guatemala, to support efforts to reform 
rule of law and justice sector institutions.
    Strengthening security requires a whole-of-society effort, and 
civil society must be a full partner in this endeavor. The Central 
America Regional Security Initiative, or CARSI, will be an important 
tool, allowing us to focus assistance where it is needed most. CARSI 
will continue to build the capacity of civilian law enforcement 
personnel and institutions, assist the government in maintaining an 
effective state presence throughout the country, strengthen the 
capacity of investigators, prosecutors, and judges to prosecute cases 
to conviction, and work to mitigate the root causes of crime and 
insecurity that lead to youth membership in gangs.
    Guatemala's Presidential, legislative, and local elections will 
take place this September. The United States is supporting an 
Organization of the American States electoral observation mission, and 
we hope for free, fair, and nonviolent elections. If confirmed, I 
welcome the opportunity to consult with members of this committee and 
your colleagues in the Congress to shape appropriate U.S. policies 
leading up to and following the elections.
    Guatemala has made important strides toward reconciling with its 
past. In a major step forward this year, President Colom's 
declassification commission facilitated the public release of nearly 
12,000 documents dating back to the internal armed conflict. This was a 
precedent-setting, long-awaited step, and reflects a commitment to 
transparency. I look forward, if confirmed, to working with the 
Guatemalan Government, civil society, and the private sector to foster 
further transparency and dialogue.
    The United States is Guatemala's top trading partner and largest 
foreign investor with two-way trade of $7.7 billion and U.S. investment 
of over $960 million, particularly in the manufacturing, wholesale 
trade, finance, and insurance industries. If confirmed, I will focus on 
our valuable trade and investment relationship and seek to increase 
business opportunities for U.S. companies in the Guatemalan market. One 
way I will specifically work to strengthen economic ties with 
Guatemala, if confirmed, will be to advocate for transparency and the 
rule of law in business transactions as Guatemala improves its business 
environment and strengthens its economy. If confirmed, I also intend to 
engage with Guatemala's dynamic private sector, as I am keenly aware of 
the critical role they must play in shaping Guatemala's future. I will 
seek opportunities for enhanced trade leading to job creation in both 
the United States and Guatemala, and encourage the private sector to 
support efforts to create decent jobs for working people. At the same 
time, if confirmed, I will reiterate to both the government and the 
private sector the need for Guatemala to uphold its commitments under 
the Dominican Republic-Central America-United States Free Trade 
Agreement, including the imperative of effective enforcement of labor 
laws.
    Most importantly, if confirmed, I will work to ensure the 
protection of American citizens in Guatemala. This begins with the 
safety of our Embassy staff and their families.
    Mr. Chairman and members of the committee, if confirmed and 
entrusted with this office, I look forward to working with you and your 
colleagues in Congress to address the opportunities and challenges that 
await the next U.S. Ambassador to Guatemala.
    I thank you again for granting me the privilege of appearing before 
you today. I would be pleased to answer any questions you and your 
colleagues may have.

    Senator Menendez. Thank you very much.
    We will start off with rounds of 7 minutes, and then see 
where we go from there.
    Ambassador Wayne, you were the Deputy Ambassador and 
coordinating director for Development and Economic Affairs in 
Afghanistan. As such, did you have oversight of USAID's 
programs in Afghanistan?
    Ambassador Wayne. Yes, sir, I did.
    Senator Menendez. OK.
    Ambassador Wayne. It was a new position created to look 
over all of our assistance programs, USAID, also the law 
enforcement agencies. Anyway, we were helping to build capacity 
for the Afghan Government.
    Senator Menendez. Did you do any audits? Were there any 
audits conducted while you were there?
    Ambassador Wayne. There were a whole range of inspections 
done when I was there, both internal inspections by the AID. 
There were some--there was GAO work done. We had, as you know, 
a special inspector general for Afghanistan reconstruction. So, 
there were multiple inspections that have been done.
    Senator Menendez. I ask that question because obviously we 
have a very significant presence in Mexico with the Merida 
Initiative and other engagements. In Afghanistan, my 
understanding is that we have powerplants we have built to the 
tune of $250 million which cannot be operated because the 
Karzai government cannot afford diesel fuel to operate them. 
Hence, we build a plant, we spend a quarter of a billion 
dollars, and they are not operational.
    Ambassador Wayne. Well, there is a powerplant near Kabul, 
and there was a critical inspection report done that was 
critical making those points that this plant was built to run 
on diesel fuel, and the plant is perfectly operational, and 
does operate. But the point was made that the diesel fuel is 
very expensive, and that now there is energy coming down from 
Uzbekistan, electricity, that is the primary source of energy 
for Kabul.
    The plant was constructed--begun a number of years ago, 
including before I got there. But the notion, as I understand 
it, at the time that they began constructing the plant was that 
it was not clear that there was going to be electricity coming 
from Uzbekistan, and that it was only over a several year 
period while this plant was being built that the electric 
connection was made and the agreements were reached with 
Uzbekistan.
    And the arrival of electricity in Kabul has made a 
tremendous difference. So, in part, yes, the plant was 
constructed as what has turned out to be a secondary----
    Senator Menendez. It is my understanding we are doing the 
same thing in Kandahar. My point here is not to go through an 
Iraq thing, I will do that a different time and in a different 
location. But if we are going to spend $250 million on a plant 
that at the end of the day, for whatever reason, is 
operational, but not being operated, I question the long-term 
thinking of our investment decisions in terms of assistance.
    So, I turn now to Mexico and look at the Merida Initiative. 
And I say to myself, we are doing something that I have 
supported, that is incredibly important. And I believe it 
speaks to shared responsibility with the Mexican people and the 
Mexican Government. But are we making the right investments in 
Merida to achieve our mutual goals, to help the Mexican 
Government both fight the narcotics traffickers and, at the 
same time, build the institutions that are necessary for long-
term justice and transparency in Mexico?
    Ambassador Wayne. Well, you pose exactly the right 
questions, Senator. And those were the same questions that we 
were posing, say, in Afghanistan also as we looked at our 
programs.
    I think in my initial review of what we are doing in 
Merida, it does seem that we are moving in the right direction 
to provide that kind of outcome. There has been a mix, I think 
as you know, of equipment delivered, but also training and 
technical assistance, which is training by the specialized 
people working together. And that really has touched a large 
number of Mexican officials. For example, there have been about 
13,000 federal police prosecutors, correction staff, that have 
received rule of law and capacity building training over the 
past 3 years, and another 23,000 have received training on the 
transformation that is going on between the inquisitorial 
justice system to an oral accusation based system in order to 
reform the whole set of rule of law institutions in that 
country. These are efforts to actually teach the practitioners 
how to learn from best practices around the world. And, of 
course, we are doing this in full support and with the full 
cooperation of the Government of Mexico to pursue their 
objectives.
    Equipment has been delivered--11 helicopters, new computer 
systems, and immigration related systems to allow for better 
biometric tracking and other tracking of immigrants coming in 
and out of the country. But all of this, as far as I have been 
able to tell so far in preparing for this, is directed at 
achieving the objectives that you supported in funding this.
    One of the things that I want to be sure about if I am 
confirmed is that we are really moving toward, in a measurable 
way, achieving these objectives. We owe it to ourselves and to 
you and to the American people to have credible proof that 
there is progress being made. There has been some success. As 
you know very well, the Government of Mexico has taken out of 
operation 29 or so of the leaders of the cartels during this 
period. I think at least some of that is due to the good 
information-sharing mechanisms and structures that have been 
built up. But there is a lot more to do.
    Senator Menendez. Well, I certainly applaud President 
Calderon. I mean, I believe he is the first Mexican President 
that has really taken on the drug traffickers; and as he has 
taken them on, increased violence has ensued. I worry, however, 
when I listen to some of the voices here in the United States 
and in the Congress that want us to fight the drug traffickers 
but constantly speak about the violence. Unfortunately, you 
cannot fight the drug traffickers and not have violence ensue 
as a result of it.
    And so, they use that as an aspersion about what is 
happening in Mexico, when in fact, had the Mexican President 
not taken on the cartels in a very frontal and decisive way, 
then there would not have been the ensuing violence. So, it is 
a complex concern that people in the United States portray in a 
certain way, but at the end of the day, is the very essence of 
what we want to see in one dimension.
    I have many other questions about economics and whatnot, 
but my time has expired, and I will turn to Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Mr. Chacon----
    Senator Menendez. Senator Lugar, if I may, just one moment.
    Senator Lugar. Yes.
    Senator Menendez. I want to welcome Ambassador Arcos back 
to the committee. He has been here many times in the past. From 
when I first came to Congress, he has been an insightful voice 
on much of what we do in the Western Hemisphere and beyond. And 
it is great to see him looking so well. There is life after the 
State Department I see. [Laughter.]
    I am sorry. Senator Lugar.
    Senator Lugar. Thank you very much.
    Mr. Chacon, I want to inquire about the hundreds of 
American families who are attempting to adopt children in 
Guatemala, and those adoptions have been in limbo now for the 
better part of 4 years with endless delays. And this has 
caused, it seems to me, suffering by children who would have 
had many years of emotional, intellectual development here with 
those dedicated families.
    I commend my colleague, Senator Mary Landrieu, who recently 
visited Guatemala with a delegation in hopes of prodding the 
government to resolve these issues.
    I want to know, first of all, are you aware of the dilemma, 
and do you pledge to try to work tirelessly to resolve these 
situations so that this will benefit Guatemalan children as 
well as our relationship with Guatemala?
    Mr. Chacon. Thank you, Senator Lugar. Yes, I am well aware 
of this problem that is a heart wrenching issue, to be sure. It 
involves hundreds of America families, prospective adoptive 
parents. I understand at this point there is some 350 to 400 
pending cases. To be sure, this is down from the thousands that 
there were originally. If confirmed, you can count on me 
committing my support to American families during this trying 
time. I will urge the Government of Guatemala to put in place a 
Hague compliant process, and to address these issues as soon as 
possible.
    Senator Lugar. I appreciate very much that testimony, and I 
am certain that will be reassuring to the many families who 
have spent countless thousands of dollars, as well as their own 
personal efforts to help resolves these cases.
    Let me ask likewise with regard to Guatemala, that there 
currently is a ban on United States international military 
education and training funds in Guatemala. Would you discuss 
the reasons for that and how this might be resolved so that 
Guatemala has better ability to work with the United States in 
terms of border security and the drug trafficking, which we 
have commented on in our opening statements?
    Mr. Chacon. You are correct, Senator, in that there is a 
ban against providing assistance to Guatemalan army, IMET and 
FMF assistance per congressional mandate.
    We provide lots of assistance to the Guatemalan army corps 
of engineers, to the Guatemalan navy, and the Guatemalan air 
force. We also provide peacekeeping training assistance as 
well. All of our training is vetted in accordance with Leahy 
amendment provisions, and we are very scrupulous on that front.
    The challenge in Guatemala, of course, is standing up a 
civilian law enforcement capacity. They should have the primary 
role, and our programs are directed in that effort.
    We do provide the military with assistance from our 
International Narcotics Control and Law Enforcement Fund and 
from counternarcotics assistance from the Department of Defense 
because they play an important secondary role in supporting the 
civilian law enforcement effort in Guatemala.
    The situation hopefully is evolving. It takes a whole of 
society effort to deal with this problem of narco-trafficking 
and crime. And if confirmed, I will pay close attention to what 
is needed, evaluate our programs for their efficacy, and look 
to see how we might be able to expand our assistance in this 
regard.
    Senator Lugar. Well, what do you think will be needed for 
the lifting of this specific ban on U.S. military education and 
training at this point?
    Mr. Chacon. As you know, I am just reading into Guatemala. 
I have a lot to learn yet. I hope to consult with my country 
team on the ground if confirmed to find out where we can best 
place our assistance. And, as I said, we are open to looking at 
every avenue of assistance that Guatemala needs, because this 
is certainly a dire situation that they are facing.
    Senator Lugar. Ambassador Wayne, let me ask, it has been a 
long-time discussion with Mexico about its oil industry. And 
sometimes in our hearings, as oil has been mentioned, it raises 
enormous emotions. I can remember going to conferences in 
Mexico in which people equated oil almost the same as our 
blood, the equivalent, and, therefore, touching any part of 
this was really out of the question.
    On the other hand, the oil industry has been in decline now 
for some time. This has meant loss of income for Mexico and 
loss of energy security really for the Western Hemisphere 
because of the Mexican-United States relationship. This should 
be very important for us.
    Do you see any possibilities in this circumstance of the 
relationship evolving in a different way in which the 
nationalistic monopoly might really lead to some degree of 
foreign investment, some refurbishing of the vitality of the 
oil industry of Mexico?
    Ambassador Wayne. Well, Senator, you correctly described 
the sensitivity of the energy issues in Mexico. And clearly any 
evolution in their policies will have to come out of a domestic 
consensus in Mexico.
    What I can say is that we have been having a regular 
dialogue on these important energy issues. Mexico is our second 
supplier for oil. We have been exploring also alternative 
energy sources and how we can support that, including such 
things as wind energy in Baja, CA, and how that can be helpful, 
both for Mexico and potentially for the United States.
    We have been looking intensely at a number of the technical 
issues on the electricity grid that crosses the border and to 
make sure there is more efficiency and more consistency in 
that. And we have talked about delineating our maritime border, 
which is also very important in the gulf for these questions.
    But I think that, to come back to your main question, there 
will have to be an evolution in thinking in Mexico. And, of 
course, it is a very important topic. And I know they are 
coming into an electoral year. My guess is that the election of 
the new President will be the primary thing being debated in 
this upcoming year. But, of course, we are ready to work 
constructively with our partners on this very important topic.
    Senator Lugar. Thank you very much, sir.
    Thank you, Mr. Chairman.
    Senator Menendez. Senator Udall.
    Senator Udall. Thank you, Chairman Menendez.
    We just recently--and I am directing my question here to 
Mr. Wayne. Mr. Wayne, we just had a recent meeting of the 
Mexico-U.S. Interparliamentary Group. Senator Menendez was 
there, and I think spoke to some of the issues. We had 
participation by, I think, 8 to 10 Mexican parliamentarians, 
and then pretty good participation on our side. And it was 
really obvious that there are a lot of challenges that we have 
with Mexico.
    And one of them has to do with the North American 
Development Bank, which I think you are probably familiar with, 
that grew out of NAFTA. And we discussed that at this meeting. 
And according to multiple economic studies, including studies 
by the World Bank, ecological services also provide economic 
benefits to the people.
    And with regard to reforms of the North American 
Development Bank, I believe there is still work that needs to 
be done to improve basic services, such as clean water and 
clean air in the region. And I think that was really the thrust 
of this bank being put into place.
    Do you believe there is a way to continue this mission 
while also opening the North American Development Bank to 
reforms, which can improve economic development, such as 
allowing the NAB Bank to be used as a funding source to help 
renewable energy companies get off the ground? And would the 
administration support such negotiations in the future?
    Ambassador Wayne. Senator, first, welcome.
    Senator Udall. Thank you.
    Ambassador Wayne. It is a pleasure to have you here. And, 
second, I am very happy that there is a lively 
interparliamentary exchange going on with Mexico. In my 
experience, where we have a good exchange between Parliaments 
and Congresses, we really have a good relationship. So, thank 
you for doing that. Thank you, Senator Menendez, also for 
participating in that exchange.
    On the NAB Bank itself, I am going to have to say I will 
need to go back and study that a bit. When I last left NAB Bank 
activities, the NAB Bank was struggling to get going on its 
basic mission. I now understand that they have been quite 
successful in launching and supporting projects related to the 
environment in many areas within its domain of responsibility.
    I would be very happy to take back and work with my 
colleagues and talk with them about possibilities for that 
future mandate, in addition to consolidating and continuing the 
very important role that it has right now.
    And I know it is making--I am really happy that it is 
making a difference on both sides of the border. That was its 
intention when it was established, and it took a few years to 
get going. But I am happy that it is now fully active and 
engaged.
    Senator Udall. Great. Well, that is good to hear. Changing 
direction and focusing a little bit on what I believe Senator 
Menendez focused earlier on the Merida Initiative, do you think 
we should be worried as a country with Mexico headed into this 
2012 Presidential election about possible changes or change in 
position by their government on the Merida Initiative? We heard 
from the parliamentarians, and they seem to be very strong on 
the fact that they thought whoever was elected based on 
positions already taken, that there would be solid support.
    But I am wondering what your thoughts are on this, and do 
you see changes in the making? Are you going to be going to 
Mexico with the idea of influencing the process so that we 
have--obviously not getting involved in the Presidential 
election, but doing what you can to make sure that we have 
solid support there from any administration?
    Ambassador Wayne. Well, certainly if confirmed, Senator, I 
will look forward to meeting with the range of political 
leaders and actors in Mexico and discussing as the primary 
point that will come up, of course, our ongoing cooperation, 
and the importance of that cooperation, the good that has been 
done in that, and the challenges ahead.
    I have heard the same thing in my initial consultations 
that you heard from your Mexican congressional colleagues, that 
there is a strong consensus that this effort needs to continue. 
There has been criticism, as I understand, of course, of the 
level of violence, but I have not heard of any alternative 
strategies that have been put forward.
    I think that if confirmed, I will very much try to do is to 
maintain and strengthen the consensus for our cooperation in 
this battle against transnational criminal organizations. And I 
think there, of course, since Mexico is really on the front 
line here in this shared effort, that is a very strong interest 
across the political spectrum in continuing this effort.
    Senator Udall. Thank you. And just a quick question here to 
Mr. Chacon.
    As you are aware, the Guatemalan people have a chronic 
malnutrition problem with their children, and it is persistent, 
and it has a strong ethnic and geographic dimensions. The 
relative level is 69 percent in indigenous populations and 35 
percent nonindigenous.
    How will proposed cuts to USAID impact the efforts to 
combat hunger and poverty in Guatemala?
    Mr. Chacon. Thank you, Senator. You are so right about the 
shocking statistics about chronic child malnutrition in our 
hemisphere, worse than even in the African Continent. This is 
an area that our USAID mission targets very, very carefully and 
seriously. We have some $97 million devoted to assistance to 
such programs so that we can attack the underlying problems 
that really account for many of Guatemala's issues.
    Three Presidential initiatives. One is Feed the Future, a 
very important and effective and well-funded program. Obviously 
we would love to have more resources, but the resources that we 
have, I think we are able to make an important impact. We do 
have an international global health initiative as well that 
affects and serves this population. But if confirmed, I will 
ensure that our taxpayer dollars are spent very effectively in 
this most important area.
    Senator Udall. Thank you. And sorry for running over a bit. 
Appreciate your courtesies.
    Thank you, Mr. Chairman.
    Senator Menendez. Senator Rubio.
    Senator Rubio. Thank you. And, again, thank you both for 
your willingness to do this.
    Let me touch upon something I talked about with both of you 
when we met individually, and that was trafficking in persons, 
which I think is a global problem. It is not an issue just in 
Mexico, Guatemala, or the Western Hemisphere. It is a global 
problem.
    What I am concerned about, and I know you have shared that 
as well, is that this demand for trafficking in persons is 
combined with the dysfunctional immigration policy that we have 
in this country, and the presence of transnational criminal 
organization in the region that facilitate this. I hope this 
will be a priority for both of you.
    First, is that something you think could be a cornerstone 
of our involvement and our engagement with these governments? 
And, second, any ideas you may have now or in the future--I 
know you mentioned in your opening statements about people-to-
people contacts and the implications that has had on human 
smuggling. But any thoughts you could share with us about what 
we can do on this end of the equation to make that a priority 
issue.
    Ambassador Wayne. Senator, thank you very much. I fully 
agree with the priority that you have suggested on trafficking 
in persons. When I was Ambassador to Argentina, this was one of 
my highest priorities, and I was very, very pleased that 
working with Argentine officials and civil society, we did make 
some significant progress in that country in taking on this 
problem.
    It is a very, very serious problem for Mexico, for its 
Central American neighbors. The Government of Mexico recognizes 
that trafficking is a serious problem. It has taken steps to 
stop traffickers, to prosecute them, to assist victims. But 
there is more clearly that needs to be done.
    Right now, the capacity needs to be bolstered in Mexico. 
There is very good will, and there are very good individuals. 
Secretary Clinton recently recognized a prosecutor from Mexico 
for her efforts to get the first convictions in trafficking 
cases.
    What I can say is that we need to continue to be good 
partners. Sometimes that is providing technical assistance, 
training, sometimes equipment, and encouragement. But the real 
efforts, of course, has to be on the part of the Mexican 
officials to strengthen their practices to get all of their law 
enforcement people, really to give this the priority that it 
deserves. And it is going to be an ongoing effort, and if 
confirmed, it will be a priority for me.
    Mr. Chacon. Senator, I would echo Ambassador Wayne comments 
about this being a high, high priority for me if confirmed. 
Guatemala has come a ways in improving their record. They were 
on a Tier Two Watch List, and they are now at a Tier Two. And 
that is because the government financed shelter for adults and 
primarily women that they constructed in the last year that has 
gone a long way to addressing this problem.
    Too often when we look at security initiatives, I think we 
overlook the gender perspective. And I am grateful to our 
Congress that has encouraged legislative reforms in Guatemala 
to bring Guatemala into line with international standards 
regarding discrimination, violence against women.
    Guatemala is under funding the units necessary for 
investigating these horrible crimes, and in particular child 
sex tourism is something they need to pay more close attention 
to.
    Again, if confirmed, this is an area that my team and I 
will be actively engaged in.
    Senator Rubio. Interrelated to that is the issue that, or 
course, I think domestically often dominates the conversation 
with regards to Mexico, but I think all of Central America, and 
that is these issues regarding migration. Obviously the border 
issue is an important one, but what we have in the region more 
than just a border is a corridor, a migration corridor, that 
extends throughout Central America.
    I want to put aside the legal aspects of it for a moment, 
and these are all very important. Border security is important. 
Adherence to the law is important. The economic impacts of 
immigration, positive and negative, are important.
    I want to focus for a second on the human aspect of it and 
the humanitarian aspect of it, because the things that are 
happening in that corridor, along that desert on both sides of 
that border from a human perspective, are atrocious. You have 
individuals that are dying in the desert, people that are being 
preyed upon by gangs and others in the region.
    I recently read a couple of reports that cite something 
that just chills up my spine where right before making the 
journey, some women stop and get access to birth control 
medication because they expect to be raped in that transition 
point. Whether it ends up happening or not, that is the 
expectation. This is a humanitarian issue of extraordinary 
proportions, and I think it will be a major issue we will both 
confront.
    An honest assessment of it is that both sides of the border 
have contributed to this problem. I wanted to see any insight 
you have right now on what are the drivers behind this, because 
for someone to submit themselves to this sort of horrifying 
process, the drivers behind it have to be significant.
    And I understand what the domestic drivers are here on this 
end of it, and we have to focus on those in an honest way. I am 
interested in any perspective you have now, or maybe you can 
share in the future once you are in your posts, because this 
has to be confronted. The humanitarian aspect of this has to be 
confronted holistically. And I was hoping you could share any 
thoughts you have on that because I do think that will be an 
important point moving forward.
    Ambassador Wayne. Senator, obviously you are correct, the 
humanitarian costs and suffering that go on both from Mexican 
immigrants and from Central American immigrants trying to pass 
through Mexico and come into the United States deserve our full 
attention.
    The drivers of these movements I want to get in place in 
Mexico, if you confirm me, first before giving you a full view. 
But clearly there is economic opportunity. There is not seeing 
the prospect for your future in your home area that really does 
drive people to try and make this long, and as you say, they 
often know it is going to be a perilous journey.
    I have read several studies in preparing for this hearing 
that have noted how the flows from Mexico have actually dropped 
off over the past several years. And they have cited three or 
four different reasons for that: one, the economic downturn in 
the United States; two, the steps that we have taken to 
reinforce a presence at the border; three, the challenges of 
the dangers along the way; and then, four, some of the 
alternative opportunities that are available in Mexico for 
education and for jobs.
    And I think this needs to remain a priority area of 
attention for us, and I will be very happy after I have been on 
the ground for a while, if you all give me the nod, to share 
some more thoughts with you about that.
    Mr. Chacon. Senator, you raise a very, very important 
issue. I think some of the drivers, certainly with respect to 
Guatemala, is the fact that it has one of the most unequal 
income distributions in the world, I think number 12. Fifty-one 
percent of the country lives in poverty, and 74 percent of that 
number involve the indigenous.
    This is why we are seeking to have an integrated strategic 
approach, regional approach to this problem. As you know, 
Secretary Clinton was recently in Guatemala for an important 
security conference. But in addition to the seven Central 
American Presidents, you had the President of Mexico and the 
President of Colombia there. I think that was an important 
signal that there is a shared responsibility, and that the 
countries need to work together to promote the respect for 
human lives and the rule of law. And if confirmed, I will 
ensure that our programs are targeted for those that are the 
most affected by the poverty in Guatemala.
    Senator Menendez. Thank you. Let me return to you, 
Ambassador.
    First of all, is it your view that the border between the 
United States and Mexico is a shared responsibility?
    Ambassador Wayne. Yes, sir. There is a northward and 
southward flow.
    Senator Menendez. And in that respect, to what extent has 
the controversy surrounding ATF's Fast and Furious operation 
created challenges in our bilateral efforts, particularly to 
combat firearms trafficking?
    Ambassador Wayne. Well, I have been, of course up until 
now, an observer, as you are, or even less than you are because 
you are an elected Member of the Senate. But clearly there has 
been a critical reaction in Mexico to the reports about this 
operation. And clearly there is a controversy in the United 
States upon the reports of this operation. But all I know about 
it, very honestly, is what I have read in the press.
    Senator Menendez. If you are confirmed by the Senate, would 
you tell this committee that you will take control at your 
Embassy of ensuring that you are informed of any operations 
that take place by ATF or any other entity as it relates to 
such operations like Fast and Furious?
    Ambassador Wayne. Yes, sir. I am a strong believer in Chief 
of Mission authority. I am a strong believer that there needs 
to be transparency on any operations by U.S. Government 
agencies with the ambassador within the country of 
responsibility. And not only because of the ambassador's 
responsibility, but for the effectiveness of these operations. 
There needs to be transparency. There needs to be an 
understanding of what is planned and a discussion of the 
possible pros and cons of any said operation before it is 
undertaken.
    Senator Menendez. Turning to a different page--this is part 
of your expertise--how do we strengthen what are already very 
strong economic ties with Mexico? Mexico's growth rate is 
something we would like to see actually take place here. How do 
we strengthen those ties and enhance upon, at the same that we 
have all of these border issues, including cross border 
commercial traffic?
    Ambassador Wayne. Well, one of the priorities under the 
Merida Initiative is creating a 21st century border. And as 
part of that initiative, we have set up several mechanisms 
actually to start looking at the border from the point of view 
of increasing efficiency in addition to increasing security. 
And looking at the plans for improving infrastructure, looking 
at ways in which you might not have 2-hour delays by having 
different procedures that can allow certain kind of goods that 
might be precleared, passed through in a faster way.
    That work is going on right now precisely with one of the 
goals being increasing the efficiency, the competitiveness, of 
that border for both partners.
    Of course, in addition, the dialogue that we have Mexican 
officials and between private sectors with the American and 
Mexican investors on both sides of the border, to get their 
perception as to what things could help our competitiveness.
    There is a regulatory dialogue, for example, that is now 
going on to look at regulations on both sides that may be 
impeding travel, and is there a way to make those regulations 
more harmonious so that businesses on both sides can function 
more efficiently? And I think it is these kind of dialogues to 
identify the specific steps that we can take that can help 
increase efficiencies.
    And once you have these dialogues going on, also you start 
picking up what are the key issues that need to be addressed, 
even if they cannot be fixed in the next 6 months? What do you 
need to have as your agenda over the several years ahead? And I 
look forward to participating and encouraging that kind of 
dialogue also.
    Senator Menendez. And one final question before I turn to 
Mr. Chacon. I do not want you to feel as if no attention it's 
being paid to you.
    Let me ask you, even as we applaud the Mexican Government's 
efforts to take on the narcotics cartels, the reality is, there 
is always potential for abuses of human rights. In that 
respect, the Mexican military, the federal police have become 
primary recipients of U.S. security assistance. And yet, there 
is an alarming, growing volume of human rights complaints, of 
abuses, that include arbitrary detention, torture, and unlawful 
killings allegedly committed by members of the Mexican 
military.
    Will you as the Ambassador pay significant attention to 
these issues working with Mexican authorities?
    Ambassador Wayne. Yes, sir, I will, definitely. Human 
rights has to be a high priority. I believe it is a high 
priority for many in Mexico also. And I know that we do have a 
vibrant and regular dialogue with Mexican officials when these 
allegations come forward. And I certainly will have that as a 
priority if I am confirmed. Thank you.
    Senator Rubio. Mr. Chacon, I have been very interested in 
the reality that as we support Merida we sort of like squeeze 
the balloon at one end, and then it pops out at the end. That 
means Central America and, of course, Guatemala at the 
forefront of that.
    I am worried that, notwithstanding CARSI, that capacity to 
be able to deal with the challenge by Central American 
governments certainly, and Guatemala as a prime example of it, 
is challenged. How do we help the Guatemalans build up its 
capacity to confront the threat that is already within its 
midst, and do it in a way that makes a significant difference?
    If you were there, what would you view as priorities and 
recommendations to the committee to be able to effectuate this 
in a more powerful way?
    Mr. Chacon. Thank you, Senator. I think fundamentally the 
challenges to create safe streets so that Guatemalans can live 
in their neighborhoods, their children can go to school, they 
can take public transportation without, you know, facing, you 
know, these horrible criminal acts against them. And to do 
that, we need to continue to work on many different fronts.
    As you know, the effect of the balloon requires an 
integrated regional strategy. We cannot just look at Guatemala 
in a vacuum. We are paying particular attention to the northern 
triangle countries of Honduras, El Salvador, and Guatemala 
because the threat is transnational in nature. They are very 
similar and have similar challenges.
    That means getting at the networks and the nodes of the 
criminals and the contraband that have effected these 
countries. It means supporting government accountability. There 
are a couple of successful projects in Guatemala of community 
policing where you have the input of community, and it's 
working well in a couple of the areas where it has been tried. 
Again, it is a matter of giving the Guatemalan people 
confidence.
    To be sure, Guatemala needs to reestablish a state presence 
in areas that are vulnerable, and that can be both in Guatemala 
City neighborhoods, urban neighborhoods, as well as in remote 
areas. But they need to do a better job of projecting and 
improving their security so that in fact they can provide the 
social services to these areas that need them so much.
    And finally, again, they need to coordinate and cooperate 
with their neighbors. And this is a shared responsibility. They 
need to devote more resources themselves because we are a 
partner in this effort, and without their political will, we 
cannot accomplish what we need to.
    Senator Menendez. Well, I appreciate those answers, 
particularly the statements about having and working with the 
Guatemalans to have their access toward all of their whole 
country. I note unfortunately in the northern Peten region of 
Guatemala, 27 laborers on May 14 were slaughtered and 
decapitated by members of the international criminal band known 
as Las Zetas. And this is an example unfortunately of the 
challenge that exists.
    So, if confirmed, I would really appreciate your input as 
to what are the capacity issues and our ability to strengthen 
capacity. I am totally for working in the regional context in 
Central America, but working regionally without capacity 
individually is a problem. And so, I look forward to hearing 
your insights when you are on the ground as it relates to that.
    Mr. Chacon. Thank you, Senator.
    Senator Menendez. Let me ask you two other questions, and 
then I will stop. Human rights has been an issue here. Outgoing 
Ambassador McFarland has been vocal in his support for human 
rights and for victims of human rights violations, even 
accompanying victims to their trials. And his active engagement 
has been very highly acclaimed and valued by Guatemalan civil 
society organizations. Would you continue to make that a 
priority of your ambassadorship should you be confirmed?
    Mr. Chacon. Absolutely, Senator. That is what distinguishes 
us from the world, the fact that we promote sincerely respect 
for human rights and rule of the law. And that will be my 
highest priority to continue in that tradition.
    Senator Menendez. Finally, we have presidential elections 
coming up, and to me as one observer, both of them raise some 
concern about Guatemala's democracy moving forward. Otto Perez 
Molina was a general during the counterinsurgency campaign in 
the 1980s, and he was director of military intelligence in the 
1990s. Human rights groups have raised questions about his ties 
to death squads and his pledge to combat crime with a mano dura 
(an iron fist). At the same time, he is also known for efforts 
to advocate for legal and security reform and for his role as a 
military negotiator for the peace accords. So, I look at an 
individual with two different trajectories, and I wonder which 
one is going to appear should he be elected president.
    On the other hand, Sandra Torres, who is in a--I do not 
know whether she will be a candidate or not based upon the 
supreme court's decisions. But what does the message of the 
election of either candidate send about the country's 
commitment to democracy, security, and human rights?
    Mr. Chacon. Senator, since Guatemala's return to democracy 
in 1985, they have had some six elections that were 
characterized as free and fair. In a country with a troubled 
past, I think that is a significant accomplishment. I think it 
speaks to their commitment to democracy. It is imperfect.
    We urge the candidates to run responsible campaigns, to 
abstain from inflammatory rhetoric that could incite violence, 
and to abide by all of the applicable rules of the electoral 
process. Underpinning our support for democracy, there again, 
is making very clear, reiterating time and again the importance 
of respect for human rights in whatever that they do.
    Senator Menendez. Yes, Senator Lugar.
    Senator Lugar. Ambassador Wayne, finally, the long-standing 
trucking dispute between the United States and Mexico has been 
resolved. If you can, describe what problems remain there with 
the resolution. Has the truck situation flowed freely, or are 
there obstructions that you will need to work on?
    Ambassador Wayne. Well, Senator, you are correct that this 
has been a longstanding and difficult issue. And I was very 
happy to see on July 6th the signing of an agreement to move 
toward resolving these differences.
    As you know, Mexico had put a number of retaliatory tariffs 
in place, in fact, more than 2 billion dollars' worth of 
tariffs. And as part of the agreement, they will remove those 
tariffs on U.S. goods, including, I believe, probably some 
agricultural goods from your State. So, we are very happy with 
that. They will be cut in half immediately, and they will 
disappear within a few months.
    The new program is still a limited program, and it has 
specific conditions on it. And this was designed, I am told, 
after consultations with Members of Congress, with safety 
advocates, with industry representatives, and others who raised 
a wide range of concerns.
    So, for example, the trucks will be required to comply with 
all Federal motor vehicle safety standards, and they must have 
electronic monitoring systems to track compliance.
    The Department of Transportation will review the complete 
driving record of each driver and require drug testing with 
samples to be analyzed by the Department of Health and Human 
Services at certified laboratories in the United States.
    The Department will also require drivers to undergo an 
assessment of their ability to understand the English language 
and read our traffic signs. And the agreement assures that U.S. 
carriers can have reciprocal rights in the United States.
    I think the need right now is to just start implementing 
the agreement to see that it works well in practice, and helps 
address the concerns that have been expressed in the United 
States from some sectors. But it is, I think, an important step 
forward, and it should be, I hope, if all goes well, a boost to 
our bilateral economic relationship.
    Senator Lugar. I appreciate your explaining that in detail 
as a part of our hearing record because it is very important 
that we work closely, and that will be your responsibility if 
confirmed to make certain that all of these details and 
requirements are met, likewise, that that tariffs are reduced. 
And so that much we have hoped for in terms of our trade with 
Mexico will not be obstructed.
    Ambassador Wayne. Exactly.
    Senator Lugar. But I join you in relief that some progress 
has been made and that an agreement is important.
    Without getting into difficulties here, and this may be an 
issue essentially for you to discuss. But what can be done 
really to bridge differences that were caused by the expulsion 
of Ambassador Pascual from Mexico? What lingering issues lie 
from that situation?
    Ambassador Wayne. Well, I think what is essential is that 
we do have a relationship where we can be frank and that we 
have confidence in each other. And what I can report, it is my 
understanding that a kind of cooperation on a range of issues 
has continued during this period of time, and has continued 
with good results, as is evidenced by the trucking agreement.
    It will certainly be my intention, if confirmed, to work to 
build that kind of a relation of confidence with President 
Calderon and his administration, with other political actors in 
the country, with civil society, and to reach out in as many 
ways as possible to have a good dialogue with key members of 
Mexico's society, and to use that to strengthen the 
relationship that we have between us.
    Very fortunately, the relationship is so big and so strong 
and so important that it does continue. But as you well know, 
even in these big strong relationships, it needs good tending 
along the way by many different people. And I look forward, 
with your approval, to being one of those good tenders.
    Senator Lugar. Finally, in addition to an election that 
will be held in the United States for the Presidency in 2012, 
there will be an election held in Mexico in 2012.
    Ambassador Wayne. Right.
    Senator Lugar. And at least initially, in some of the 
campaign oratory, if one can project that far along, there have 
been at least some fears in the United States that the 
contenders would take the Merida Initiative less seriously or 
somehow move away from the intensity of leadership in this area 
that President Calderon has exemplified. Is this the case, or 
do you have any feel for electoral politics and the trend of 
affairs, because clearly if there was some downplaying of this 
cooperation with regard to gang warfare and so forth, that 
would be very, very sad for both of our countries.
    Ambassador Wayne. Senator, I agree with you. As you know 
much better than I, once you get into an election, you are not 
sure where the issues will take you and where the candidates 
will place themselves.
    In my understanding so far, certainly there has----
    Senator Menendez. That is a very diplomatic way of saying 
that. [Laughter.]
    Ambassador Wayne. That is 36 years of training in there, 
sir. [Laughter.]
    Ambassador Wayne. My understanding so far, there has, of 
course, been criticism as well as support for the current 
efforts. But I have not, in my queries to date, have not seen 
anybody who has put forward an alternative plan to the good 
cooperation that is going on and the basic strategy that is 
going on. There will no doubt be some candidates that will be 
critical.
    I think the job of all of us, partially me as Ambassador 
and all of us who care about the relationship and have 
dialogued with Mexican officials and members of that society, 
in the months ahead will be to stress the importance of this 
cooperation. And then try to determine where the basis of 
consensus is across the spectrum for this important 
cooperation.
    Senator Lugar. Well, your efforts in this respect will be 
tremendously important.
    I just wanted to conclude by saying that I appreciate the 
service that both of you have given to our country, and 
likewise to the relationships between the United States and the 
nations in which you have served. And I look forward to 
supporting both of you very strongly as diplomats of stature 
and people who I believe will have the confidence of the 
American people, and should likewise have the confidence of 
Mexicans and Guatemalans.
    Thank you for your appearance today.
    Ambassador Wayne. Thank you very much.
    Senator Menendez. Thank you, Senator Lugar. Let me just 
finish off on a point Senator Lugar made.
    Of course we recognize the sovereign right of Mexico's 
people to decide their country's course and future. I would 
say, however, that regardless who controls a majority in Mexico 
after the next elections, Mexico's sovereignty is challenged 
not from the outside, but from within. And it would be an 
enormous setback to see an effort that would allow the cartels 
to act with impunity inside of Mexico, and of great concern to 
many of us in the United States Congress. But I trust that at 
the end of the day, the great leaders in Mexico will understand 
that their country's future will either be determined by its 
people or determined by the drug lords. And I think it will 
choose their people instead.
    I appreciate both of your testimonies.
    The record will remain open for another 48 hours for any 
member who wishes to ask questions in writing. If you do 
receive a question, I would urge you to answer it expeditiously 
so the committee can move forward in the process of your 
confirmation hearing.
    And seeing no other members, this hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


  Responses of Ambassador Earl Anthony Wayne to Questions Submitted by
                         Senator Richard Lugar

    Question. Please explain how, if confirmed, you intend to monitor 
the use of Merida Initiative resources to ensure that programs funded 
under the initiative are not used for military activities, which may be 
viewed as inconsistent with the promotion of human rights in Mexico.

    Answer. The Merida Initiative supports Mexico and the Mexican 
Government's commitment to improving respect for human rights. The 
United States and Mexico regularly discuss human rights concerns at all 
levels of government.
    In addition to the human rights components that are integrated into 
Merida Initiative training, other U.S. agencies also support programs 
to promote human rights. For example, the United States conducts human 
rights training and education for police, prosecutors, and other 
officials to promote implementation of international human rights 
standards. This program includes participation in a master's program in 
human rights for 300 police officials, with the curriculum structured 
for law enforcement. Additionally, security assistance has been used to 
train mid- and senior-level Mexican military leaders on human rights 
while operating against a nontraditional foe.
    The U.S. Government is committed to continuing to work with Mexico 
to make sure that efforts to improve respect for human rights in the 
military and police are institutionalized. For example, the U.S.-Mexico 
Bilateral Human Rights Dialogue meets periodically to discuss the 
promotion of human rights in Mexico's security forces. In this 
dialogue, the United States provides expertise and shares lessons 
learned on issues such a military justice reform, codes of conduct and 
rules of engagement, and transparency and public information-sharing 
techniques. For the United States, the U.S. Chief of Mission and Under 
Secretary for North America chair meetings, with the participation of 
senior DOD civilian and uniformed officials.
    As required by U.S. law, the Department of State vets security 
force personnel receiving U.S. assistance or training to ensure there 
is no credible allegation of human rights violations committed by those 
individuals. The U.S. Government will continue to do so.
    The Office of Defense Cooperation at the U.S. Embassy in Mexico 
City is responsible for monitoring the equipment provided to the 
Mexican military as part of its normal interaction with their 
counterparts.
    Additionally, if it were alleged that programs funded under the 
Merida Initiative were used for military activities, which may be 
inconsistent with the promotion of human rights in Mexico, U.S. 
authorities would follow up immediately to ensure proper use of U.S.-
supported programs.
    If confirmed, I would remain committed to the promotion of human 
rights through our Merida Initiative programs to both the military and 
civilian sectors of the Mexican Government.

    Question. Please explain your views regarding accusations that the 
Calderon administration has not been as tough on the Sinaloa Cartel as 
with other cartels.

    Answer. President Calderon has publicly stated that the Mexican 
Government will aggressively pursue and bring to justice all 
transnational criminal organizations operating within Mexican borders.
    Under President Calderon's leadership, 29 drug cartel bosses and 
numerous lower level criminals have been removed, including Sinaloa 
cartel leaders Ignacio Coronel Villareal, in July 2010, Hector Eduardo 
Guajardo Hernandez, ``El Guicho,'' in May 2011, and Martin Beltran 
Coronel, ``The Eagle,'' in May 2011. The Mexican Government continues 
to investigate and combat transnational criminal organizations.
    We admire the work and determination of President Calderon and are 
doing what we can to support the brave efforts of his government and 
the Mexican people to combat all transnational criminal organizations 
operating in Mexico.
    The United States and Mexico have intensified law enforcement 
cooperation and we remain committed to supporting the Mexican 
Government's efforts to disrupt and dismantle criminal organizations in 
Mexico.
    This unprecedented level of cooperation between our two governments 
has made an important contribution to Mexico's ability to apprehend 
leaders of transnational criminal organizations and to counter the 
transnational criminal threat to Mexico and the United States. It is a 
fundamental part of the U.S. commitment to meet its coresponsibility 
for the threats of transnational crime.
    This intense level of cooperation is in the interests of both the 
United States and Mexico, and we intend to sustain it.

    Question. Please explain your views regarding allegations that 
Mexico's Secretary of Public Security Genaro Garcia Luna is linked to 
organized crime.

    Answer. The Department of State takes all allegations of links to 
organized crime seriously. If confirmed, I will also take such 
allegations very seriously and the U.S. Embassy team will follow up 
appropriately.
    President Calderon is leading Mexico's courageous efforts to combat 
transnational criminal organizations and their brutal violence. He has 
mobilized his entire government on this effort and has demonstrated a 
strong commitment to anticorruption and professionalization 
initiatives.
    The United States and Mexico have expanded our bilateral 
cooperation to combat organized crime significantly. A central player 
in President Calderon's efforts is the Public Security Secretariat 
(SSP) headed by Secretary Garcia Luna. Secretary Garcia Luna is a 
career law enforcement officer, under whose leadership, the SSP has 
become a more effective and professional civilian law enforcement 
institution. Cooperating with the U.S. Government through the Merida 
Initiative, Garcia Luna has welcomed U.S. training for a new generation 
of college-educated federal police investigators at the SSP academy in 
San Luis Potosi. The United States has worked with Garcia Luna's team 
to provide advanced IT systems support to Plataforma Mexico, the SSP's 
national crime database. We have transferred helicopters and other 
nonlethal materiel that SSP has used to prosecute its frontal assault 
against the Transnational Criminal Organizations (TCOs). In August 
2010, Garcia Luna purged one-tenth of all federal police officers 
(3,200 out of 34,500) for failing lie-detector, toxicology, and other 
exams.
    Mexico is overhauling many parts of its law enforcement and 
judicial systems to fight corruption, improve transparency, ensure 
respect for human rights and the rule of law, and increase civilian 
involvement.
    Internal controls across the Government of Mexico's federal 
agencies are being implemented to help minimize corruption and improve 
government effectiveness. These long-term reforms will strengthen a 
culture of lawfulness able to thwart corruption and improve governance.

    Question. Mexico decreased the value of its retaliatory tariffs by 
half on July 8, after the United States and Mexico signed an MOU to 
implement the new cross-border trucking pilot program. Mexico has 
promised to lift the remaining 50 percent of the tariffs when the pilot 
program actually begins (i.e., when the first Mexican trucking company 
gets provisional authority to operate under the pilot program). 
Administration officials have said this would not happen before the 
``first weeks of August 2011'' but there are still a lot of procedural 
steps that have to complete before then. Is the administration still on 
track to meet that goal of mid-August, or is there a new estimate of 
when the pilot program would become operational (and the tariffs 
completely suspended)?

    Answer. Shortly after the signing of the MOU on July 6, the U.S. 
Federal Motor Carrier Safety Administration (FMCSA) received and is now 
evaluating several applications from Mexican long-haul carriers to 
participate in the new cross-border trucking pilot program. There are 
several administrative actions that must take place before FMCSA can 
grant authority to a Mexican carrier. These include: the Department of 
Transportation's Inspector General concluding a review of FMCSA's 
preparations for the pilot program; FMCSA issuing a Report to Congress 
outlining steps it is taking to address any issues identified in the 
Inspector General's report; FMCSA conducting an extensive preauthority 
safety audit (PASA) to verify an applicant's suitability for expanded 
operations on U.S.roads; and FMCSA providing public notice of the 
results of the audit. We are told by FMCSA that these actions are 
expected to take approximately 60 days.
    According to the terms of the MOU signed with Mexico, the remaining 
50 percent of the retaliatory tariffs against U.S. products will be 
removed once FMCSA approves the first Mexican company for participation 
in the program. Decisions on the first group of applicants are expected 
by early September. If one of the applicants passes the preauthority 
safety audit and is approved for participation in the program, the 
tariffs would be suspended at that time, even if actual trucking 
operations do not begin immediately.
                                 ______
                                 

          Responses of Arnold Chacon to Questions Submitted by
                         Senator Richard Lugar

    Question. For the past 4 years, the U.S. Embassy in Guatemala has 
been involved in assisting families who were in the process of adopting 
Guatemalan children when the Government of Guatemala changed its 
international adoption law. While a large number of these ``transition 
families'' have successfully completed their adoptions, there are 
approximately 400 U.S. citizens whose adoptions have not yet been 
completed. These families have undergone considerable burden and 
expense in trying to complete these adoptions and even worse, the 
children they had hoped to adopt have spent an additional 4 years in an 
orphanage. Can you explain how you might lead the U.S. Embassy in 
resolving these cases?

    Answer. If confirmed, I commit to leading the Embassy's efforts to 
urge Guatemalan authorities to resolve pending cases. I would do so by 
supporting and encouraging the Guatemalan Government's continued but 
expeditious investigation of pending adoption cases and by calling for 
specific measures toward case resolution. I would urge Guatemalan 
authorities to separate ongoing investigations into criminal rings from 
individual adoption cases wherever possible and focus Guatemalan 
resources on concluding the cases. Resolving these pending cases will 
be one of my top priorities, if confirmed.

    Question. During her most recent visit to the United States, the 
head of the Guatemalan central authority, the CNA, shared that she 
would like to explore implementing a pilot program that would allow 
international adoption to resume in Guatemala, but only for those 
children who are unable to find a home in Guatemala. She shared that 
there are approximately 300 cases of older, special needs children and 
children who are members of larger sibling groups which international 
adoption could find homes for. Can you explain what the U.S. position 
would be on the development of such a program?

    Answer. In November 2009, the CNA announced a limited 2-year pilot 
program that would have resumed intercountry adoption of a small number 
of identified older children, groups of siblings, and children with 
special needs, under a new Hague-compliant process. The United States 
submitted a letter of interest in the program in December 2009. 
However, the United States withdrew our letter of interest on October 
5, 2010, due to continuing concerns about fraud and corruption in the 
Guatemalan adoption process, a lack of information regarding controls 
and safeguards in place for the pilot program, and the lack of a Hague-
compliant system. Since then, the CNA has demonstrated no progress 
toward implementing a pilot program with a Hague-compliant process. The 
Department of State would welcome movement toward the development of a 
transparent Hague Adoption Convention compliant pilot program, and 
stands ready to work with the CNA toward that goal, in the best 
interest of the children.
    While the Department of State would welcome implementation of a 
Hague-complaint pilot program in the future, the remaining pending 
transition cases are our top priority. We continue to call for the 
prompt resolution of the remaining pending cases. We support the 
Guatemalan Government's continued and thorough investigation of pending 
adoption cases, and we have urged Guatemalan authorities to focus 
resources on concluding them, and to separate the criminal 
investigations of adoption fraud from the evaluation of the children's 
eligibility for adoption wherever possible.

    Question. According to news reports, the United States and 
Guatemala are negotiating a ``labor action plan'' to address U.S. 
claims that Guatemala has failed to adequately enforce its labor laws, 
which Guatemala is required to do under CAFTA. Why is the United States 
pursuing this action plan instead of seeking binding arbitration under 
CAFTA?

    Answer. As you know, the United States Government requested 
consultations with the Government of Guatemala in July 2010 regarding 
its apparent failure to effectively enforce its labor laws as required 
by the CAFTA-DR. Throughout consultations, the United States has urged 
Guatemala to take significant and concrete actions to address what the 
United States considered to be systemic weaknesses in its enforcement 
of labor laws. While Guatemala has taken some positive steps over the 
past several months, its actions and proposals have been insufficient 
to resolve our concerns.
    In May 2011, the United States took the next step in the dispute 
settlement process by invoking a meeting of the Free Trade Commission 
under Chapter 20 of the CAFTA-DR.
    The Free Trade Commission meeting was held on June 7, and 
discussions continue with the Government of Guatemala about the 
significant and serious steps Guatemala needs to take to improve its 
labor law enforcement. If the Government of Guatemala fails to take 
these steps and our concerns are not resolved, the United States may 
pursue the matter further under the CAFTA-DR by requesting the 
establishment of a dispute settlement panel to consider the matter. If 
confirmed, it will be a priority of mine to continue to work with the 
government to ensure that workers' rights are fully respected.
                                 ______
                                 

  Response of Ambassador Earl Anthony Wayne to Question Submitted by 
                      Senator Robert P. Casey, Jr.

    Question. Many supporters of NAFTA argued that its passage 16 years 
ago would improve the conditions for Mexican workers. The International 
Labor Organization and other labor groups continue to criticize 
conditions in Mexico, especially the repression of the National Union 
of Mineworkers. As Ambassador, what will you do to promote fundamental 
labor rights in Mexico?

    Answer. Strengthening respect for worker rights around the world is 
critical to achieving the U.S. foreign policy goals of promoting 
democracy, human rights, free trade, and international development. In 
Mexico, the U.S. Government employs a number of tools to realize 
progress on worker rights and employment policy. Through consistent 
labor-related diplomacy, including by Embassy Mexico City's Labor 
Officer, the United States advocates for worker rights directly with 
the Mexican Government. The administration engages with governmental 
and nongovernmental actors to monitor the protection of collective 
bargaining rights; use by employers of protection contracts negotiated 
between management and nonrepresentative unions; union organizing 
efforts; labor trafficking, especially of women, youths, and migrants; 
conditions for workers in Mexico's large informal sector; and other 
issues. U.S. Ggovernment-supported programming in Mexico includes a 
labor rights strengthening program undertaken by the AFL-CIO's 
Solidarity Center and an International Labor Organization initiative to 
improve efforts to combat child labor, especially in agriculture. The 
North American Agreement on Labor Cooperation (NAALC) provides a 
mechanism for the United States (and Canada) to work regularly with 
Mexico on labor matters of mutual interest. If confirmed, I would 
ensure that the Embassy gives priority to promoting fundamental labor 
rights in Mexico using all of these tools, mechanisms, and contacts.


                               NOMINATION

                              ----------                              


                        THURSDAY, JULY 21, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Sung Y. Kim, of California, to be Ambassador to the Republic of 
        Korea
                              ----------                              

    The committee met, pursuant to notice, at 10:33 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Jim Webb 
presiding.
    Present: Senator Webb.

              OPENING STATEMENT OF HON. JIM WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Good morning. The hearing will come to order.
    Today the committee will consider the nomination of 
Ambassador Sung Y. Kim to be the United States Ambassador to 
the Republic of Korea.
    As all of you will notice, I took the liberty of putting a 
map of Asia up here today. And I do this because sometimes when 
we look at different countries in Asia, we forget to think of 
them in the context of how they fit together politically, 
economically, and especially geographically.
    I've often said that Northeast Asia is the only place in 
the world where the interests of China, Russia, Japan, and the 
United States directly intersect. And in the middle of this is 
a divided Korean Peninsula with an erratic, volatile regime on 
one end, and a key strategic ally, economic partner, and 
democratic nation on the other.
    It's important to remember that South Korea is the focal 
point for maintaining stability in this region, even as we work 
together to bring a lasting peace to this entire area.
    If we do not have stability in Northeast Asia, you cannot 
have stability anywhere else in Asia. And that underlines the 
vital importance of the relationship that the United States 
shares with South Korea.
    Last year, the United States and Korea commemorated the 
60th anniversary of the start of the Korean war. I was 
fortunate to have had the opportunity to participate in 
remembrance activities here and in Korea that symbolized the 
incredible devotion of both countries to democracy, peace, and 
stability.
    Sixty years ago, East Asia was a vastly different region 
than it is today. Struggling to reorganize itself following 
World War II and the departure of major colonial powers, East 
Asia found itself at the nexus of the cold war competition 
between communism and democratic rule.
    The region held a great deal of uncertainty. The United 
States provided an important service in maintaining stability 
so that nations could recover from conflict, just as it 
provides an important service today in maintaining a strategic 
balance in this vital region.
    In 1950, when North Korea invaded South Korea, the United 
States and the rest of the international community faced a 
critical decision: To become involved or to lose the stability 
we had gained and allow a nascent democracy to fail.
    In the end, more than 33,000 American soldiers paid the 
ultimate price and another 100,000 were wounded during this 3-
year conflict in an international but largely American effort 
to bring peace to the Korean Peninsula. These sacrifices forged 
a bond with the South Korean people that has not been forgotten 
and instead has flourished.
    Today, South Korea is one of the United States most 
important security allies and economic partners. We currently 
station 28,000 American soldiers in Korea as a deterrent to 
aggression. South Korea contributes more than 40 percent of the 
cost of hosting these troops.
    It's important to understand that these troops are deployed 
not only in defense of South Korea, but also to ensure 
America's larger security needs as the most important 
stabilizing influence in East Asia.
    North Korea's inventory of ballistic missiles currently 
exceeds 800 airframes, which are capable of reaching targets 
not only in Korea, but also in Japan, the United States 
territory of Guam, and even the Aleutian Islands. The regime 
continues to research an intercontinental ballistic missile 
capability, in addition to its pursuit of nuclear weapons.
    Our close relationship with South Korea has demonstrated 
its value time and again in response to North Korean 
provocations, including last year's sinking of the South Korean 
naval ship, the Cheonan, and its artillery attack on Yeonpyeong 
Island. Our coordination with South Korea and our coordinated 
show of strength prevented further escalation of these 
incidents.
    Even as we look for openings to resume dialogue with North 
Korea, given that country's unpredictability and opaqueness, 
this joint approach is essential to maintaining stability on 
the Korean Peninsula, ensuring that North Korea is not allowed 
to act with impunity.
    For this reason, I have supported resumption of food aid 
and other humanitarian assistance to North Korea only in strict 
coordination with our allies in the region--South Korea and 
Japan. This approach is also important for demonstrating to 
China, as North Korea's closest diplomatic ally and largest 
trading partner, that it should exert its influence to bring 
about more responsible behavior from North Korea and to take 
positive action to bring about North Korea's eventual 
denuclearization.
    Our security concerns and the strength of this alliance 
transcend the peninsula itself. South Korea, a country with a 
population of only 48 million, has transformed itself into a 
global economic power and a highly developed society. South 
Korea is now the world's 13th-largest economy. In 2010, our 
bilateral trade topped $86 billion, making South Korea the 
United States seventh-largest trading partner.
    Unfortunately, the success of this economic relationship 
has been tempered in recent years by our inability here in 
Washington to complete a free trade agreement with South Korea. 
Our two governments signed an agreement in 2007. Four years 
later, it has yet to be ratified.
    It should be emphasized that this is an agreement between 
two mature economies. New export opportunities in the agreement 
can generate good-paying American jobs and contribute to our 
economic recovery.
    Just as importantly, this agreement demonstrates our 
ability to follow through on commitments to free trade and to 
cement our role as a guarantor of stability in East Asia.
    Upon returning from a visit to Korea last June, I called 
for a swift resolution of outstanding concerns with this 
agreement. The administration resolved those concerns in 
December.
    At this point, the agreement is in the hands of Congress. 
In my view, we should set aside minor differences and work 
together to gain swift passage of this vital trade agreement. 
And without passage, we, the United States, risk falling behind 
our trade competitors, losing economic benefits, and weakening 
an important strategic alliance.
    Ambassador Kim, I would like to welcome you today and point 
out the obvious: If confirmed, you will be representing the 
United States in South Korea at a critical time.
    Next year, South Korea will have National Assembly and 
Presidential elections, just as we will. China's leadership 
will be undergoing a generational change. And North Korea has 
declared that 2012 will be ``a year of prosperity,'' marking 
the 100th anniversary of the birth of Kim Il-sung.
    I look forward to hearing the testimony of our nominee, and 
welcome you, again, here today.
    And before receiving the testimony, I'd like to take a 
moment to introduce Ambassador Kim. And at this point, I'd also 
like to introduce, for the record, a statement that Senator 
Kerry, as chairman of the full committee, has submitted.
    [The prepared statement of Senator Kerry follows:]

         Prepared Statement of Senator John F. Kerry, Chairman,
                   Senate Foreign Relations Committee

    Today, the Senate Foreign Relations Committee convenes to consider 
the nomination of Sung Kim to be the next U.S. Ambassador to the 
Republic of Korea (ROK). Mr. Kim, our current Special Envoy for the 
Six-Party Talks on North Korea's nuclear program, is a wise and 
deserving choice to be our country's chief diplomat in South Korea.
    Over the course of his distinguished career in the Foreign Service, 
Mr. Kim has served in many positions that have prepared him well for 
this job, including the Director of the Office of Korean Affairs, 
Political-Military Unit Chief in Embassy Seoul, and Economics Officer 
there. A Korean American who speaks fluent Korean, Mr. Kim will be able 
to interact confidently with the South Korean Government and people. If 
confirmed, he would be the first American of Korean heritage to serve 
our country in this post--a testament to the success of Korean 
immigrants who first began coming to the United States roughly 150 
years ago.
    Mr. Kim's deep expertise in Korean affairs will allow him to make a 
seamless transition with outgoing Ambassador Kathy Stephens. This is 
critically important, as alliances, like all relationships, need 
constant nurturing. If confirmed, Mr. Kim's tenure as Ambassador will 
span elections and political transitions in South Korea and its 
neighbors. As South Korea prepares for National Assembly and 
Presidential elections next year, issues such as the reported release 
of ``Agent Orange'' dioxin on U.S. military bases in South Korea could 
threaten to derail cooperation, if not handled in a prompt, transparent 
manner and with proper humility. I am glad that Mr. Kim seems to fully 
appreciate this reality.
    His near-term, to-do list will be full of tasks vital to advancing 
U.S. economic interests, as well as promoting regional peace and 
stability. Arguably job one will be to help facilitate the passage and 
implementation of the Korea-U.S. (KORUS) Free Trade Agreement. Congress 
should send Mr. Kim to Seoul with a ratified KORUS FTA. That would 
deliver a powerful message that the United States and South Korea are 
long-term strategic partners who are deeply invested in each other's 
futures, and that the United States intends to remain a Pacific power. 
KORUS will create tens of thousands of new jobs in both our countries, 
lay the groundwork for further U.S. trade and investment in the most 
economically dynamic region on Earth, and reverse a disheartening trend 
where America's regional rivals have been prospering at our expense. 
South Korea's FTA with the European Union went into effect earlier this 
month, so U.S. companies are now effectively at a competitive 
disadvantage. We are running out of time. Congress must act now or 
leave South Korea's own legislature with little time to pass the FTA 
before its April elections. At stake is nothing less than our national 
competitiveness and our national security.
    On the security front, the good news is that the U.S.-ROK alliance 
is as strong today as it has ever been. But the goal of building a 
lasting peace on the Korean Peninsula remains elusive. We must, on an 
urgent basis, explore steps that can reduce the threat posed by North 
Korea and return the North to a path toward denuclearization. Make no 
mistake: Given North Korea's recent irresponsible conduct, staying in a 
diplomatic holding pattern invites a dangerous situation to get even 
worse.
    Apart from the security challenge posed by North Korea, we must 
also deal with an evolving humanitarian crisis there, as chronic food 
shortages threaten to morph into widespread famine. In consultation 
with Seoul, the United States should join with the European Union and 
other donors to fashion a carefully targeted aid program to feed the 
most vulnerable populations, provided that the DPRK permits robust 
monitoring.
    Finally, Mr. Kim will be charged with helping to build the global 
partnership envisioned by Presidents Obama and Lee Myung-bak in June 
2009. South Korea is emerging as an important global actor, making 
valuable contributions to reconstruction efforts in Afghanistan and the 
greening of our planet. Seoul's hosting of the G20 summit last year, 
and the Nuclear Security Summit in 2012 shows that South Korea has 
arrived as a diplomatic force on the world stage. Its recent pledge to 
triple its overseas development budget by 2015--in an age of austerity 
no less--exemplifies South Korea's growing global role. If confirmed, I 
hope Mr. Kim will work to continue this positive trend.
    I congratulate Sung Kim for being nominated to serve his country in 
this important role, and I commend the President for making such a wise 
choice. I urge my colleagues to speed Mr. Kim on his way to Seoul.

    Senator Webb. Ambassador Sung Kim is a career member of the 
Foreign Service, presently serving as a special envoy for the 
six-party talks, leading the day-to-day engagement with the 
other six-party countries.
    He has extensive experience with United States-Korean 
relations, serving as director of the Office of Korean Affairs 
at the State Department, political military unit chief at the 
U.S. Embassy in Korea, and as an economic officer at that 
Embassy. In addition, he has served in Hong Kong, Malaysia, and 
Japan.
    He graduated from the University of Pennsylvania and from 
Loyola University Law School, and also from the London School 
of Economics with a master of law. And prior to joining the 
Foreign Service, he was deputy district attorney in Los 
Angeles.
    Ambassador Kim brings a distinguished record to this 
position. There's, I think, a great deal of enthusiasm for his 
confirmation.
    And, Ambassador, I welcome you, and I know you have some 
very special family members who are with you today. And if 
you'd like to introduce them and anyone else, friends or 
family, before you begin your testimony, we would be grateful 
to you for doing that.
    So, welcome and the floor is yours, sir.

STATEMENT OF HON. SUNG Y. KIM, OF CALIFORNIA, TO BE AMBASSADOR 
                    TO THE REPUBLIC OF KOREA

    Ambassador Kim. Thank you very much, Mr. Chairman.
    I'm deeply honored to be here before you as President 
Obama's nominee to be the U.S. Ambassador to the Republic of 
Korea. I'm deeply grateful to the President and Secretary 
Clinton for the confidence they have shown in me.
    And if confirmed, I look forward to working very closely 
with this committee to strengthen our alliance and very special 
partnership with the Republic of Korea.
    Mr. Chairman, many people are responsible for me being here 
today. Throughout my public service, I have benefited greatly 
from distinguished mentors, generous colleagues, and smart and 
dedicated subordinates. I'm grateful that many of them are here 
with me today.
    As he has done throughout my life, my older brother is here 
to watch over me, to support me, and I'm grateful that he's 
here. Most importantly, I want to express my special gratitude 
to my wife, Jae, and our two daughters, Erin and Erica.
    Diplomatic service is a special privilege, but it is not 
always easy for the family. And even though my daughters 
sometimes tell me to go out and get a real job, so that they 
can stop moving around, they're always there for me, and I'm 
grateful.
    When my parents brought me to the United States over 35 
years ago, they could not have imagined that I would have the 
opportunity to serve as the first Korean-American Ambassador to 
the Republic of Korea. But I do recall that from the very early 
days, my parents encouraged me to go into public service. They 
were very proud when I joined the Foreign Service and thrilled 
when I chose to focus on East Asia, especially South Korea.
    Having dedicated much of my professional life to the U.S.-
ROK partnership, my hope is that, if confirmed, I will be able 
to draw on my experience and expertise to expand and enhance 
the bond between our two countries.
    In the space of a few decades, the Republic of Korea has 
emerged from a half-century of occupation, division, and war to 
join the top ranks of free and prosperous nations. This 
stunning achievement is testimony to the talent, determination, 
and sacrifices of several generations of Koreans. As a Korean-
American, I deeply respect and appreciate what they have been 
able to accomplish.
    Part of this amazing success story, of course, is due to 
the strong and constructive partnership between our two 
countries. As we reflect on our shared history of sacrifice and 
success, and as we examine opportunities and challenges facing 
us, we are convinced that it is more important than ever to 
continue to strengthen our countries' relationships.
    As President Obama said recently, ``Our alliance has never 
been stronger than it is today.'' But it can be better. And we 
are working on a number of initiatives to make it stronger and 
more balanced, with the ROK military assuming more 
responsibility for South Korean defense.
    We're also realigning our basing arrangements to ensure 
that we are best able to meet the challenges of the 21st 
century. We want a smaller footprint that creates less of an 
impact on ROK civilians, but which provides the robust 
deterrent necessary to maintain peace and stability on the 
peninsula.
    I was personally involved in many of these initiatives in 
my earlier assignments, and, if confirmed, I will work very 
closely with the new U.S. Forces Korea Commander, General 
Thurman, to ensure smooth implementation.
    Our economic relationship with Korea is one of our most 
important. As you pointed out, Chairman, Korea is a trillion 
dollar economy and our seventh-largest trading partner. The 
U.S.-Korea Free Trade Agreement, pending passage by Congress 
and Korea's National Assembly, will provide significant 
economic and strategic benefits for both countries.
    For the United States, this agreement will create 
substantial export opportunities for U.S. goods and services 
and support tens of thousands of export-related jobs in the 
United States. It will strengthen our economic partnership and 
lay an important foundation for the United States and Korea to 
work together to address regional and global challenges in the 
future.
    If confirmed, I will work closely with Korea, with 
Congress, and with U.S. Government agencies to ensure smooth 
implementation of the agreement, so that both countries can 
seize the important benefits that the agreement is to provide.
    Another central part of the U.S.-ROK partnership is our 
cooperation on challenges posed by North Korea. Having focused 
on this much of the past few years, I hope to continue to 
contribute to our common efforts to achieve the verifiable 
denuclearization of the Korean Peninsula and better lives for 
the long-suffering people of North Korea.
    Our two countries are also finding ways to cooperate on a 
wide variety of issues not directly related to trade or Korean 
Peninsula security. We work together in such diverse areas as 
counterpiracy operations off the coast of Somalia and post-
conflict and disaster stabilization efforts in places like 
Haiti and Afghanistan. We also cooperate on green growth 
efforts to promote environmentally sustainable economic growth.
    These are the kinds of activities that bring solutions to 
common challenges facing the global community and the types of 
initiatives I hope to advance, if I'm confirmed.
    I also look forward to contributing to the already strong 
people-to-people ties between our two countries. Just last 
year, nearly 500,000 South Koreans took advantage of the Visa 
Waiver Program and traveled to the United States. In total, 
nearly 900,000 South Korean tourists and businessmen visited 
the United States last year, a 38-percent increase over the 
previous year. These recordbreaking numbers make Korean 
tourists the seventh-largest tourist group in the United 
States.
    As a Korean-American, the importance of these everyday 
contacts between Koreans and Americans has special resonance 
for me.
    Mr. Chairman, it would be the highest honor for me to serve 
our country as the U.S. Ambassador to the Republic of Korea. If 
confirmed, I will lead a complex and multiagency diplomatic 
mission consisting of 575 employees. I will do my very best to 
ensure that all members of that community and their families 
have the leadership, security, and support they need to get 
their jobs done.
    Thank you for considering my nomination. I look forward to 
your questions, Mr. Chairman.
    [The prepared statement of Ambassador Kim follows:]

                   Prepared Statement of Sung Y. Kim

    Mr. Chairman and members of the committee, I am honored to appear 
before you as President Obama's nominee to serve as Ambassador to the 
Republic of Korea (ROK). I am deeply grateful for the confidence that 
the President and Secretary Clinton have shown in me and if confirmed, 
I look forward to working closely with this committee to strengthen our 
alliance and very special partnership with the Republic of Korea.
    Many people are responsible for me being here today. Throughout my 
public service, I have benefited greatly from distinguished mentors, 
generous colleagues, and smart and dedicated subordinates. I am 
grateful that many of them are here with me today. Most importantly, I 
want to express my special gratitude and appreciation to my family--my 
wife, Jae, and our two daughters, Erin and Erica. Diplomatic service is 
a special privilege, but it is not always easy for the family. I am 
extremely grateful for their patience and support.
    When my parents brought me to the United States some 35 years ago, 
they could not have imagined that I would have the opportunity to serve 
as the first Korean-American Ambassador to the Republic of Korea. But I 
do recall that from the very early days, my parents encouraged me to go 
into public service. They were so proud when I joined the Foreign 
Service and thrilled when I chose to focus on East Asia, especially 
Korea. Having dedicated much of my professional life to the U.S.-ROK 
partnership, my hope is that, if confirmed, I will be able to draw on 
my experience and expertise to expand and enhance the bond between our 
two countries.
    In the space of a few decades, the Republic of Korea emerged from a 
half-century of occupation, division, and war to join the top ranks of 
the world's free and prosperous nations. This stunning achievement is 
testimony to the talent, determination, and sacrifices of several 
generations of Koreans. As a Korean-American, I deeply respect and 
appreciate what Koreans have been able to accomplish. Part of this 
amazing success story, of course, is due to the strong and constructive 
alliance and partnership between our two countries.
    Last year marked the 60th anniversary of the start of the Korean 
war. As we reflect on our shared history of sacrifice and success, and 
as we examine the regional and global opportunities and challenges, we 
are convinced that it is more important than ever to continue to 
strengthen and nurture our two countries' partnership.
    As President Obama said recently, ``our alliance has never been 
stronger than it is today.'' But it can be even better. We are working 
on a number of initiatives to make it stronger and more balanced, with 
the ROK military assuming more responsibility for South Korean defense, 
including wartime operational control in 2015. We are also realigning 
our basing arrangements to ensure that we are best able to meet the 
challenges of the 21st century. We want a smaller footprint that 
creates less of an impact on ROK civilians, but which provides the 
robust deterrent necessary to maintain peace on the Peninsula. I was 
personally involved in many of these initiatives during earlier 
assignments, and, if confirmed, I will work closely with the new U.S. 
Forces Korea Commander General Thurman to ensure smooth implementation.
    Our economic relationship with Korea is one of the world's most 
important. Korea is a trillion dollar economy and our seventh-largest 
trading partner. The U.S.-Korea Free Trade Agreement, pending passage 
by Congress and Korea's National Assembly, will provide significant 
economic and strategic benefits for both countries. For the United 
States, this agreement will create substantial export opportunities for 
U.S. goods and services and support tens of thousands of new export-
related jobs in the United States. It will strengthen our economic 
partnership and lay an important foundation for the United States and 
Korea to work together closely to address regional and global economic 
challenges in the future. If confirmed, I will work closely with Korea 
and with Congress and other U.S. Government agencies to ensure smooth 
implementation of the agreement so that both countries can seize the 
important benefits the agreement is to provide.
    Another central part of the U.S.-ROK partnership is our cooperation 
on challenges posed by North Korea. Having focused on this much of the 
past few years, I hope to continue to contribute to our common efforts 
to achieve the verifiable denuclearization of the Korean Peninsula in a 
peaceful manner and better lives for the long-suffering people of North 
Korea. If confirmed, I look forward to coordinating closely on 
negotiating strategy as well as efforts to deter provocative actions by 
North Korea.
    Our two countries are also finding ways to cooperate and 
collaborate on a wide variety of issues not directly related to trade 
or Korean Peninsula security. We work together in such diverse areas as 
counterpiracy operations off the coast of Somalia, post-conflict and 
disaster stabilization efforts in places like Haiti, where a ROK 
company is developing an industrial complex that will bring tens of 
thousands of jobs to Haiti, and Afghanistan, where the ROK runs a 
Provincial Reconstruction Team working to train local Afghans and 
strengthen peace and civil society. We also cooperate on green growth 
efforts to promote environmentally sustainable economic growth. These 
are the kinds of activities that bring solutions to common challenges 
facing the global community and the types of initiatives I hope to 
advance, if I am confirmed.
    I also look forward, if confirmed, to contributing to the already 
strong people-to-people ties between our two countries--in educational 
exchange, the arts and culture, sports, and in other fields. Last year, 
nearly 500,000 South Koreans took advantage of the Visa Waiver Program 
and traveled to the United States. In total, nearly 900,000 South 
Korean tourists and business travelers visited the United States in 
2010, a 38-percent increase over 2009. These recordbreaking numbers 
make Korean tourists the seventh-largest tourist group to the United 
States. As a Korean-American, the importance of these everyday contacts 
between Koreans and Americans has special resonance for me.
    Mr. Chairman and members of the committee, it would be the highest 
honor for me to serve our country as the U.S. Ambassador to the 
Republic of Korea. If confirmed, I will lead a complex, multiagency 
diplomatic mission consisting of 575 employees, including staff at the 
U.S. Embassy in Seoul and the American Presence Post in Busan. I will 
do my very best to ensure that all members of that community and their 
families have the leadership, security, and support they need to get 
their jobs done.
    Thank you for considering my nomination. I look forward to your 
questions.

    Senator Webb. Thank you very much, Ambassador Kim.
    And let me just first say that you danced pretty quickly 
over the special members of your family who are here today, so 
I'd just like to point out your parents who have come here from 
Korea to be at this hearing. Is that correct?
    Ambassador Kim. No. Actually, my parents could not make it. 
My father passed away some years ago and my mother is in 
California. She's here in spirit, though, sir.
    Senator Webb. OK.
    Well, you have a whole row of family members here that I 
would like to introduce. If you all would just stand up and say 
hello.
    Ambassador Kim. They're a bit shy.
    Senator Webb. I know. That's fine. [Laughter.]
    You are too. That's why I'm saying this.
    Stand up and say hello.
    I think you've got a lot of people here who are very proud 
of you today. We want to give them some recognition.
    Ambassador Kim. Stand up. [Laughter.]
    Senator Webb. OK.
    Ambassador Kim. Mr. Chairman, if I could start with, at the 
end is my wife, Jae; my niece, Sarah; my older daughter Erin; 
the younger one, Erica; my nephew, Nam-Gu; and my brother, Jun.
    Senator Webb. Welcome to all of you. I know how proud you 
must be.
    You mentioned, again, the nature of this special 
relationship. And I'd like to point something out from my own 
visits.
    This is a unique relationship, I think, in terms of the 
overt value that the people in South Korea place on what the 
American military members did after 1950, I say as someone 
who's been around the military since the day I was born, who 
had what I view as the honor and the privilege of serving my 
country in the war in Vietnam. Many, many family members have 
served.
    I was really moved, I have to say, when I visited Korea and 
was taken to the war memorial in Seoul, where they not only 
remember the sacrifices of the Korean soldiers, but they have 
the name of every American who gave the ultimate sacrifice 
during that war.
    It's very, very moving to see that.
    Then when I met with the director of veterans from the 
government, I learned that the Korean Government actually sets 
aside money every year to bring American veterans back to Korea 
with their families to thank them.
    So a lot of people can talk the talk, but that's just a 
tremendous amount of credibility in the gratitude that's shown 
to the special relationship that we have.
    Let me ask you about another piece of this. We're going to 
get into more substantive areas, but you mentioned the ties 
between the greater American community and Korea, South Korea. 
Could you give us a breakdown on the Korean-American community 
in the United States, where they are and the types of 
activities that they do to make sure this relationship is 
cemented?
    Ambassador Kim. Thank you very much, Mr. Chairman.
    If I could just make one comment on your comments regarding 
Korea's appreciation for Korean war veterans. One of the most 
meaningful and touching experiences I experienced as a 
political officer in Seoul was to participate in events 
commemorating the 50th anniversary of the end of the Korean 
war. And as you suggested, Mr. Chairman, the Korean Government 
had used its funds to bring Korean war veterans to Seoul to 
express appreciation.
    And I was moved and touched, because I also benefited from 
the sacrifices made by American soldiers who participated in 
the Korean war. So to see the Koreans' actual appreciation for 
that was a very important experience for me.
    Regarding Korean-American communities, there are 
approximately 2 million Korean-Americans in the United States. 
As a rough breakdown, I think California has the most. And 
that's where I grew up. New York also has a huge South Korean 
community. And growing numbers are coming to this area as well.
    In Virginia, Annandale is the home of the Korean-American 
community in this area. I don't know the exact number. And I'd 
be happy to get you the exact breakdown, but those are sort of 
the major areas.
    Chicago also--Chicago and Atlanta are also home to huge 
Korean-American communities.
    Senator Webb. May I ask you for your views on the free 
trade agreement? And actually, let me put it in this context: 
What do you think the implications would be if we fail to pass 
the free trade agreement?
    Ambassador Kim. Mr. Chairman, the President and the 
Secretary have both made very clear our commitment to getting 
the free trade agreement done.
    The administration would like to see the Korea-U.S. Free 
Trade Agreement, along with the other two pending free trade 
agreements and TAA, get done as quickly as possible. And I 
believe the administration is in conversations with 
congressional leaders about getting it done.
    I think the numbers are compelling. Just tariff cuts alone 
would lead to an increase of 11 billion dollars' worth of 
exports from the United States to Korea, which would equate to 
tens of thousands of jobs being created in the export-related 
areas.
    Additional exports and additional jobs will be created from 
nontariff cuts through the FTA. We'll also have access to the 
huge service market in Korea.
    So I think the numbers are compelling. I very much hope 
that we'll be able to get it done as quickly as possible.
    I think, as you mentioned, Mr. Chairman, the implication is 
that it will have to send a signal about our ability to follow 
through on our commitments. This agreement was negotiated 
through a very difficult process. It's an agreement that stands 
to provide huge benefits to both countries. And I think it 
would serve our interests to get it done as quickly as 
possible.
    Senator Webb. Would you characterize the South Korean 
economy as a mature economy, in the same sense as the United 
States?
    Ambassador Kim. Yes, I would, Mr. Chairman.
    It is a vibrant economy. It continues to enjoy substantial 
growth.
    I'd like to use the anecdote that if you go to electronic 
shops these days, South Korean products are at the very top of 
display areas. You see LG, Samsung, et cetera. I think that's a 
small indication of the growth of the South Korean economy, and 
I would definitely consider it to be a mature economy.
    And this is why I think, as you pointed out, Mr. Chairman, 
this is an agreement between two mature economies, and there's 
no reason why it should not be done.
    Senator Webb. I'm going to say I have a view on this that 
because these economies are mature economies this is not the 
same type of a trade agreement that people have been concerned 
about in the past, when you have truly emerging economies with 
very low wage scales running the risk of pulling American jobs 
away from this country because of artificially low wage scales.
    In my examination of this and consideration of it, is that 
the threat to the American workforce it is not of any magnitude 
that should cause American workers concern. I'd like to hear 
your thoughts on that.
    I'm not preaching to the choir here, but I think people 
need to hear the views of those who are going to be 
implementing it.
    Ambassador Kim. I would very much agree with that 
assessment, Mr. Chairman.
    This is an agreement that was carefully negotiated. It is 
an agreement between two mature economies, and it stands to 
provide substantial benefits to both countries.
    As I mentioned earlier, just tariff cuts alone would result 
in tens of thousands of jobs being created in the United States 
in the export arena.
    Without getting into a detailed comparison of this 
agreement versus other free trade agreements, I would say that 
there is really no reason why we should not implement this 
agreement.
    Senator Webb. Is it correct to say that the E.U. just 
signed an agreement, or recently signed, and is ready to 
implement an agreement that's very similar to this one?
    Ambassador Kim. That is my understanding as well, Mr. 
Chairman.
    The E.U. agreement is complete and is already being 
implemented.
    Senator Webb. You mentioned in your testimony that you had 
some involvement in the issue of the relocation of the American 
military in Korea. Would you describe what you worked on in 
that area?
    Ambassador Kim. Yes, sir.
    As the political military unit chief at our Embassy in 
Seoul, I had the opportunity to participate in negotiations on 
base relocations. That was both on the Yongsan relocation to 
move the Yongsan base away from downtown Seoul down south to 
Pyeongtaek, and also the land partnership plan related 
realignments in other parts of Korea.
    I think what we want to try to accomplish is to have a base 
or military presence that makes sense, that makes sense in 
terms of minimizing impact on Korean civilians, but also in 
terms of maximizing deterrent capability to make sure that we 
are able to defend South Korea against any aggression.
    I am a strong supporter of those initiatives, and, if I'm 
confirmed, I will do my very best to make sure that they're 
implemented in a timely manner. I think it's good for the 
alliance, it's good for the South Korean public, and I think it 
makes a lot of sense in terms of our strategic ability to 
defend the peninsula.
    Senator Webb. There's been some concern over here in the 
Congress, and I'm one of those who has articulated this 
concern, with the way in which this relocation has been 
approached in terms of lack of what the Armed Services 
Committee called a business case for some parts of the 
relocation, including what's now called tour normalization, but 
also the basic momentum that has taken place because of the 
funding streams for different parts of the relocation. As I'm 
sure you're aware, there have been three different funding 
streams that have gone into construction programs and these 
sort of things.
    And one of them is command discretionary funds where the 
American commander can just divert money into projects without 
the oversight of the Congress, which is money on hand for 
programs.
    And the other has been South Korean burden-sharing programs 
where you had trade-for-trade different pieces of property, and 
as a result construction of facilities and those sort of things 
have taken place, again, without the Congress having been able 
to see the clear plan and the strategic concept.
    And then third, there's the money that comes from the 
Congress itself. And we have asked for greater justification, 
particularly on this concept of tour normalization where 
they're proposing to bring up to 50,000 family members into 
Korea. You think about the infrastructure that goes into that: 
housing, schools, medical, et cetera.
    This is an area of concern I want to hear from you about, 
and I want, hopefully, for you to bring this concern to Korea 
when you take on your post. The concern being that Congress 
does not want to be in a position of being forced by the 
momentum of these other two funding streams to have to make 
decisions that may not be the best-case solution.
    Are you familiar with these different funding streams? Have 
you worked in that area?
    Ambassador Kim. I'm generally familiar, Mr. Chairman. I had 
a chance to read the report you issued with your colleagues, 
and, of course, we understand the important points you raised.
    My colleagues in the Department of Defense are obviously 
well-aware of the budgetary constraints and the need to be 
prudent in pursuing any aspects of this. I had the chance to 
speak to Under Secretary Flournoy just a couple days ago about 
the tour normalization issue. And what I understand is that the 
matter is still under consideration at the Pentagon and that no 
decisions have been made, but that my colleagues in the 
Pentagon are well-aware of your concerns, of course.
    Senator Webb. We may be in further touch on that.
    If you could just walk us through this, because you've been 
very involved in your present position, how do characterize the 
motivations behind the North Korean attacks on the Cheonan and 
Yeonpyeong Island? Do you see this in a larger scale? Or do you 
see these as separate items that aren't connected to something 
larger?
    Ambassador Kim. Mr. Chairman, what I've discovered over the 
years in working on North Korea is that it is very difficult to 
determine what exactly they are thinking.
    The events last year, the attack on the Cheonan and the 
shelling on Yeonpyeong Island, were horrible, irresponsible 
acts. And frankly, it is difficult to come up with a rational 
explanation for the North Korean decision to launch those 
attacks.
    We, of course, as you pointed out earlier, sir, stood by 
our allies during this very difficult period.
    If the North Koreans believe that such provocative, 
irresponsible actions will bring them concessions from us or 
the ROK, they're mistaken. We abhor those attacks, and we 
called on North Korea to refrain from all such provocative 
actions in the future.
    There is, of course, the theory that North Korean behavior 
often comes in cycles, that, having gone through a round of 
negotiations through the six-party process in 2007-08, that 
they were prepared to enter into a cycle of provocations, and 
that in fact, now, they're ready to return to diplomacy and 
negotiations.
    Well, we're not convinced that they really are ready to 
return to serious diplomacy and negotiations, and this is why I 
think Seoul and Washington both have been very cautious in not 
just rushing back to the negotiating table. Because, in light 
of what has happened in the past 2 years, I think that the 
North Koreans need to prove that they will in fact be a serious 
partner when the negotiations resume.
    Senator Webb. There are two schools of thought on these 
incidents that I'd like to hear your views on. One is that 
they're providing something of a testing time during this 
potential for change of leadership in the North as to the 
possible successors of the current leadership. Second is that 
the United States could be encouraging China to do a great deal 
more with the relationship that it has with North Korea in a 
more overt way, in order to encourage more positive behavior.
    What do you think about those two schools of thought?
    Ambassador Kim. We understand that the succession process 
is moving forward.
    I'm familiar with the theory that the actions last year 
were related to the succession process. Frankly, it would be 
very disappointing if in fact they believe that their 
succession process would somehow be helped by such provocative 
and irresponsible actions.
    It's difficult to say how quickly they will move forward 
with the succession process, but I think our advice to 
Pyongyang would be that, if they want the succession process to 
move forward smoothly, they should focus on responsible 
behavior, living up to international obligations and 
commitments, refraining from provocative actions, and beginning 
a meaningful dialogue with the South.
    Attacks against the Cheonan and the shelling on Yeonpyeong 
Island will not help their process.
    With regards to China's role, Mr. Chairman, as Secretary 
Clinton pointed out on many occasions, we do believe that China 
has a unique responsibility, given their status as the chair of 
the six-party process, given their unique relationship with 
North Korea, that China has a special responsibility to make 
sure that North Korea lives up to its obligations and 
commitments, refrains from provocative actions, and returns to 
the path for negotiations and diplomacy in a much more 
forthcoming manner than it has in the past.
    Senator Webb. This past year and a half, from my 
perspective here in the Senate, has resulted in the potential 
for much stronger relations between South Korea and Japan. 
We've seen that demonstrated not only in the visits that I've 
made to the region but the frequent discussions that we have 
with representatives of both governments here in Washington.
    I'm wondering what you think about that?
    And also, about what might be done with this very emotional 
issue--to assist the Japanese in these very emotional issues of 
the Japanese citizens who were abducted by North Korea, where 
they're looking for accountability?
    Ambassador Kim. Mr. Chairman, we applaud President Lee 
Myungbak's commitment to improving relations with Japan. Japan 
is one of our closest friends, as is Korea.
    We believe it makes sense strategically, and on many other 
levels, that Japan and Korea maintain strong, positive 
relations. And we're encouraged that both President Lee and the 
Japanese Prime Minister are committed to improving their 
relations.
    The Japanese abductee issue is one of the more difficult 
issues. We have a great deal of sympathy for the Japanese 
public on this tragic issue, and we have continued to support 
their efforts to reach resolution of that issue.
    It appeared that we had a small window of opportunity to 
make some progress, because in the summer of 2008, Japan and 
North Korea reached an agreement outlining a path forward on 
investigations and findings related to the abductees situation. 
But unfortunately, with the collapse of the six-party process 
in December 2008, they have made no progress on that agreement.
    And I think if and when we resume dialogue with the North 
Koreans, whether in a bilateral setting or in the six-party 
process, we will again remind the North Koreans of the need to 
address Japan's concerns on that difficult issue.
    Senator Webb. Thank you.
    What is the current line of thinking in the State 
Department with respect to the food aid issue to North Korea?
    Ambassador Kim. Sir, we have made no decision on the food 
aid request from the World Food Programme. You know, we do have 
a great deal of concern about the humanitarian situation in 
North Korea, but there are a number important factors that need 
to be considered before we can make a decision on whether to 
provide food assistance to North Korea.
    No. 1 is, of course, the extent of the need, just how 
urgently they need it.
    No. 2, we need to consider competing needs. I mean, our 
resources are not unlimited, and I think we have to carefully 
take into consideration what other needs are out there.
    No. 3, and this is particularly relevant to the North 
Korean situation, is our ability to monitor delivery of food 
assistance. North Korea, as you know, has a mixed record in 
this regard. And so before we make any decision on food aid, we 
would want to be sure that we would have in place a robust and 
intrusive food aid monitoring protocol, so that we can be sure 
that the food will actually go to those who need it and not 
diverted to the military.
    Senator Webb. What are your thoughts about the principal 
issues, any that I have not addressed, that would be high on 
your priority list in terms of our relations with South Korea?
    Ambassador Kim. Thank you very much for that question, Mr. 
Chairman.
    You know, the United States-Korea relationship has so many 
important dimensions that I actually have a very long list of 
things that I would like to accomplish, if I'm confirmed by 
Congress.
    If I could just highlight a couple that are dear to me. 
Obviously, we need to strengthen the alliance. It's one of the 
most important security relationships. The trade relationship 
is greatly important to both countries.
    But I also want to focus on our cooperation beyond economic 
relations and security of the Korean Peninsula. I mean, Korea 
is becoming a major player on issues of great regional and 
global significance. I think it's a wonderful development, and 
I think this trend is irreversible.
    And, for example, the Secretary, based on the signed 
memorandum of understanding regarding development assistance, 
Korea is becoming a major donor in that area. I think that 
policy reflects Korea's economic growth, but it also reflects 
Korea's understanding that they have something to give to the 
global community.
    And we welcome this trend, and we look forward to being a 
very strong partner with them on things like development 
assistance, environmental issues, et cetera.
    Another area that I would like to focus on is something 
that I mentioned at the conclusion of my testimony, which is 
people-to-people ties. It really does have special meaning for 
me because I'm a Korean-American.
    And on the depth of our relationship in the people-to-
people area and cultural exchanges, academia, arts, sports, it 
is wonderful. And I hope that, if confirmed, I will have an 
opportunity to really bring that to a new level.
    Senator Webb. Well, we thank you very much for your 
testimony today, and for your continued willingness to serve 
our country.
    The committee hearing record will be open for potential 
questions from other Senators until close of business tomorrow. 
You may receive other written questions.
    But, I wish you the best. I'm obviously going to support 
your nomination, and I know how proud your family members must 
be.
    And with that, the best of luck. This hearing is closed.
    [Whereupon, at 11:13 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


  Response of Sung Y. Kim to Question Submitted by Senator Marco Rubio

    Question. At a time when the United States and the Republic of 
Korea are seeking to further strengthen our trade and economic 
relationship, I would like to get your thoughts on a matter involving a 
U.S. investment firm in Korea.
    In short, Lone Star Funds, a U.S. private equity firm whose 
investors include charitable organizations, educational endowments, and 
public and private investment funds, is for a third time attempting to 
sell its controlling stake in the Korea Exchange Bank (KEB), one of the 
largest banks in Korea. Over the past 5 years, Lone Star has made two 
previous attempts to sell KEB but those sales were terminated due to 
political and bureaucratic delays in Korea. Recent media reports 
confirm further bureaucratic delays on a decision on Lone Star's latest 
effort to sell the bank--a decision that risks the sale of the bank and 
billions of dollars for Lone Star's investors.
    I understand the current U.S. Ambassador to Korea, Ambassador 
Stephens, has raised this matter on a number of occasions with her 
counterparts in Seoul.

  <bullet> What measures would you take to encourage the Korean 
        Government to resolve the delays affecting the regulatory 
        approval necessary for Lone Star to sell KEB?

    Answer. I am familiar with the Lone Star case, and, if confirmed, I 
will continue to raise our concerns about the case with Korean 
officials. The State Department and other agencies have conveyed our 
concerns about this case on numerous occasions, urging Korean 
authorities to rule on Lone Star's application to sell its KEB stake 
strictly on its merits, in a transparent and timely manner. We have 
pointed out that delays in approving the sale of Lone Star's stake in 
KEB lead to uncertainty among international investors and can harm 
Korea's efforts to attract foreign investors. Our Embassy in Seoul has 
been following this case closely and has discussed our concerns with 
senior levels of the Korean Government.
    The Financial Services Commission (FSC) is currently waiting for 
the Seoul High Court to resolve some outstanding matters, including a 
criminal case against Lone Star's former head in Korea, before 
approving the sale of Lone Star's KEB stake to Hana Bank of Korea. I 
understand Lone Star and Hana Bank have recently extended their 
contract till the end of the year. The Department and the Embassy will 
continue to monitor developments and raise Lone Star's concerns. If 
confirmed, I will engage relevant senior Korean officials at the 
earliest possible opportunity and seek their cooperation on 
facilitating an expeditious resolution of this case. More broadly, if 
confirmed, I plan to work closely with the American business community 
in Korea and become an energetic advocate for their efforts.


                              NOMINATIONS

                              ----------                              


                        TUESDAY, AUGUST 2, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Francis Joseph Ricciardone, Jr., of Massachusetts, to be 
        Ambassador to the Republic of Turkey
Hon. Norman L. Eisen, of the District of Columbia, to be 
        Ambassador to the Czech Republic
Hon. Robert S. Ford, of Vermont, to be Ambassador to the Syrian 
        Arab Republic
                              ----------                              

    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen presiding.
    Present: Senator Shaheen, Menendez, Casey, Coons, and 
Lugar.
    Also present: Senator Joseph Lieberman.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. This hearing will come to order. Good 
afternoon, everyone.
    Today we have two panels of nominees, but we're doing this 
a little differently today. So we're actually going to hear 
from all three nominees in the first panel, and then we'll do 
questioning of Mr. Ford in the second panel.
    We're fortunate to have Senator Lugar here with us, and we 
want to try and accommodate his schedule, as well as Senator 
Lieberman's schedule.
    So on our first panel we will consider the nominations of 
Norman Eisen to be Ambassador to the Czech Republic and Francis 
Ricciardone to be Ambassador to the Republic of Turkey. And on 
our second panel, we will be considering the nomination of 
Robert Ford to be Ambassador to Syria.
    Senator Casey from Pennsylvania will be here. He chairs the 
Subcommittee on Near Eastern Affairs, and he will chair 
Ambassador Ford's questioning portion of the second panel.
    All of the posts being considered today are critical in 
strengthening U.S. influence in safeguarding American interests 
around the globe. I look forward to discussing the challenges 
and opportunities the United States faces in these three 
important countries.
    Now, as I said, we're doing this a little bit differently 
today. And one of the differences is that both of our nominees 
on the first panel were nominated last year to serve in these 
same positions. I think I chaired one of those nomination 
hearings last year.
    But both nominations were thoroughly considered and 
approved by the Senate Foreign Relations Committee, and both 
were held up on the Senate floor and were not ultimately 
confirmed by the full Senate.
    Seeing the importance of having an Ambassador in these 
critical countries, the President chose to recess appoint both 
Ambassador Ricciardone and Ambassador Eisen to their positions. 
As a result, the two men have been serving as Ambassadors in 
Prague and Ankara over the course of the last 7 months.
    As many of you know, a recess appointment by the President 
lasts for only 1 calendar year. So these two men have been 
renominated and the committee will reconsider their 
nominations.
    As the subcommittee chair on European Affairs, I was 
supportive of those nominations last year, and I intend to 
support their nominations once again. Since both men have 
already been serving in these roles, we'll have an excellent 
chance to hear from them directly about the challenges they've 
already seen and their plans for the future.
    So welcome back to the committee, gentlemen. Thank you both 
for being willing to go through the nomination process again 
and to continue to take on these difficult responsibilities at 
a very important time for our country.
    So first today, we will consider the U.S. relationship with 
the Czech Republic. As an important ally of the United States 
in Central Europe, the Czech Republic has demonstrated 
exceptional leadership in Europe, particularly with respect to 
engaging the region's eastern neighborhood and pressing for 
further European integration.
    The Czech Republic has made some impressive contributions 
to international peacekeeping efforts in Afghanistan, Iraq, and 
Kosovo. In addition, the country's unique experience with 
democratic transitions should provide some lessons for the 
United States as we navigate the ongoing transitions in the 
Middle East and North Africa.
    Today we also consider the U.S. relationship with Turkey. 
Turkey remains a critical NATO ally with a predominantly Muslim 
population in a volatile and geopolitically strategic region of 
the world. Recent events throughout the Middle East and North 
Africa have increased Turkey's strategic importance as a center 
of power in this complex region.
    There is little doubt that Turkey will continue to play an 
influential role in many of the national security threats 
facing the United States. I remain a proponent of a strong 
bilateral relationship with Turkey and its continued 
integration into Europe. However, it's also important to 
recognize where we have differences.
    Turkish troops continue to occupy the Island of Cyprus, and 
the Turkish Government needs to do more to support a just 
solution in Cyprus.
    In addition, Turkey's vote against a fourth round of 
sanctions on Iran in the U.N. Security Council raises concerns 
that the United States and Turkey do not share the same threat 
assessment with respect to Iran's nuclear weapons program.
    So I want to just briefly introduce our two nominees, and I 
know that Senator Lieberman is here to provide an introduction 
for Ambassador Eisen, so I will let him do most of that 
introduction.
    And as I mentioned previously, Senator Casey will be 
introducing our second panel nominee, Ambassador Ford, when he 
gets here.
    I want to welcome Ambassador Ricciardone, who is a highly 
distinguished, long-time career Foreign Service officer. He is 
the former Ambassador to Egypt, the former Deputy Ambassador to 
Afghanistan, and he served previously in Turkey and throughout 
the Middle East. He speaks a number of languages, including 
Turkish and Arabic. And finally, and most importantly, from my 
perspective, he is a graduate of Dartmouth College in New 
Hampshire.
    So again, congratulations to all of you on your 
nominations, and I appreciate your willingness to come before 
the committee.
    As I said, we're fortunate to have Senator Lugar, who is 
the ranking member of this committee here with us this 
afternoon, and I know that he would like to make a statement.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. I am very pleased to join you, Madam 
Chairman, in welcoming our nominees to three very important 
countries.
    Our relationships with these countries are excellent, and 
we appreciate this opportunity to review events in each of the 
three as we welcome Ambassador Ricciardone, Ambassador Eisen, 
and Ambassador Ford to this committee once again.
    Turkey is at the center of several critical issues, 
underscoring its importance as an ally. In particular, I hope 
to hear Ambassador Ricciardone's perspective on the recent 
resignations of Turkey's top military leaders and the effect 
this will have on political stability.
    Moreover, we will be interested to hear more about dynamics 
related to upheaval in Syria, Turkey's expanding participation 
in regional diplomacy, and its ongoing role in the creation of 
a southern energy corridor.
    The Czech Republic remains a very important ally in Central 
Europe. I will be interested to hear from Ambassador Eisen 
about ramifications of Prague's recent announcement that it 
will not participate in the current plan for the European 
Phased Adaptive Approach to missile defense.
    Regional energy interconnections and diversification in the 
Czech Republic also remain fundamental to the United States and 
European efforts to improve energy security for the region.
    Finally, this hearing is an important opportunity for the 
committee to review events in Syria. The Syrian regime appears 
committed to the use of violence to suppress the will of its 
people.
    In the last few months alone, more than 1,700 people have 
been killed with more than 10,000 imprisoned. The toll on 
Syrian civilians--including children--gets worse by the day.
    Despite the regime's efforts to cut off the Internet, cell 
phones, and other forms of communication, the images continue 
to get out and the world has borne witness to these 
brutalities. The causes of peace, stability, and economic 
advancement would benefit from a swift transition to a new 
leadership and a more representative government for all the 
Syrian people.
    The alternative is almost certainly a cycle of ever-
widening violence and the prospect of sectarian conflict.
    The regime, of course, seems intent on playing up the 
prospects of sectarian strife, and has sought the aid of 
Tehran, as a means to hold on to power.
    We must explore ways to work with our allies to present a 
clear and unequivocal message to President al-Assad and those 
around him that the violence must stop and that a credible 
political transition must begin immediately.
    I note that the Government of Turkey has taken a strong 
stance in this regard, given the potential for increasing 
refugee flows. Syria's Government and business elite must 
understand that the current path will only deepen their 
isolation and intensify consequences for the regime and its 
leaders.
    I look forward to our discussion with the nominees.
    Senator Shaheen. Thank you very much, Senator Lugar.
    And, Senator Lieberman, we're delighted to have you with us 
to introduce Mr. Eisen.

             STATEMENT OF HON. JOSEPH I. LIEBERMAN,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thanks very much, Madam Chair and 
Senator Lugar. It's an honor to be here.
    I should express my appreciation to you on behalf of the 
nominees that you did not join the herd leaving Washington 
after the vote at noon. And thank you for convening this 
hearing.
    I'm here to introduce Ambassador Eisen. I'd be remiss if I 
didn't simply say that I have had the opportunity to get to 
know Ambassador Ricciardone and Ambassador Ford, and these are 
two extraordinary public servants, great, courageous, informed 
representatives of the United States in the countries on which 
they have served and are serving now.
    I'm really honored to be here to introduce Norm Eisen. This 
is not a political duty. It's really a personal pleasure, 
because Ambassador Eisen and his wife, Lindsay, and his 
daughter, Tamar, are personal friends of mine and my family. 
And as you mentioned, I guess the reason I'm asked is that 
Norman is one of those stateless people who lives in 
Washington, DC, so I occasionally do double duty by introducing 
such people.
    As you mentioned, Senator Shaheen, Ambassador Eisen was 
nominated and given a recess appointment to this point at the 
end of last year. Prior to his nomination, he had a 
distinguished career as a lawyer here in Washington, and then 
was special counsel for ethics and governmental reform in the 
White House.
    I regret that it was necessary for the President to make a 
recess appointment in this case, but perhaps there is a silver 
lining here in that we can now judge Ambassador Eisen based on 
his performance over the past 6 months. And that, from all that 
I have heard, has been really exemplary.
    Since arriving in Prague, Ambassador Eisen has been a 
whirlwind of activity, winning plaudits from everyone from the 
Czech Government to the American Chamber of Commerce, whose 
leader has said, ``In your short time in the country, you have 
already made a significant impact and you have proven to be one 
of the most effective Ambassadors to hold this post.''
    He has been a tireless advocate for America's national 
interests in the Czech Republic, whether with regard to 
imposing sanctions against Iran or winning contracts for 
American companies.
    And with your permission, I would like to insert in the 
record a list of essentially thank you's and testimonials from 
American companies who have been doing business in the Czech 
Republic.
    Senator Shaheen. Without objection.
    [The information referred to follows:]

    Ambassador Eisen--Our Washington grapevine delivered the news this 
week that you might be undergoing your confirmation in the near future. 
If this is so, I would like to express our fervent hope that it is 
successful, because your presence in the Czech Republic has been and 
will be essential to our common efforts to advance the interests of 
U.S. business and to improve the standing of our country in the crucial 
region of Central Europe. In the months since you have taken the 
leadership role here, you have not only invigorated our community and 
increased the stature of our country in the eyes of Czech citizens, but 
you have also contributed substantially to the reform of public 
procurement and to the promotion of scientific education--two top 
priorities of the business community. Furthermore, your endeavors on 
behalf of Westinghouse and other U.S. companies have expanded their 
export possibilities, which should add much needed jobs in the U.S. 
manufacturing sector. In your short time in the country, you have 
already made a significant impact, and you have proven to be one of the 
most effective ambassadors to hold this post. We sincerely hope that 
the Senate will allow us to continue our common work here, and, again, 
you have both our best wishes and strongest support during the 
confirmation process.--Weston Stacey, American Chamber of Commerce in 
the Czech Republic.
                                 ______
                                 
    I would like to say loud ``Thank You'' for organizing the e-health 
event last week in the Ambassador's residence. The event was beyond our 
thoughts or expectations--perfect location, perfect audience, and 
overall level of the event was unprecedented. It turned out to be who 
is who in Czech health care with representation from MoH, VZP, other 
insurance funds and hospitals. Thank you so much for having this 
opportunity and have support and help from you and Veronika. The fact 
that we had presence of his Excellency, the Ambassador himself was 
taking the meeting on another level. Please let me know how we can 
express our thanks and gratitude--I believe this was the support of the 
U.S. commercial programs at its best. Thank you so much Stu and have a 
great coming Easter.--Matej Adam, IBM Healthcare.
                                 ______
                                 
    You and your U.S. Commercial Service team members all did much more 
than an outstanding job. This was the best and most amazing business 
trip of my life! I believe that this trip has opened many doors that no 
other business development tool could have. All of the exchanges were 
of the most professional and of an extraordinarily competent level. The 
U.S.C.S. Representatives in Frankfurt, Prague, and Vienna are 
consummate professionals and true U.S. Ambassadors. Thanks so much to 
everyone for this major career and law practice milestone.--William N. 
Hulsey III, Esq., HULSEY, P.C., Senior Research Fellow, IC2 
(Innovation, Creativity & Capital) Institute, University of Texas at 
Austin.
                                 ______
                                 
    I am writing you to thank you for the work your team, specifically 
Mrs. Obrusnikova, performed in support of my short visit to Prague last 
week. Hana's knowledge of the Czech Republic's aerospace industry and 
her enthusiasm in assisting Industrial Metals is to be highly 
commended. As before, Hana was able to secure appointments on short 
notice, and rearrange for an alternative meeting last-minute when one 
of the planned visits was cancelled. During a 2009 Gold Key visit for 
Industrial Metals, Hana arranged meetings with different companies, two 
of which have become regular customers (Aero Vodochody and Jihostroj). 
In light of the growth of the regional aerospace industry, we are now 
renewing our efforts in Czech Republic and with Hana's continuing 
support hope to expand the sales to these and other customers.--Marcel 
Zondag, Industrial Metals.
                                 ______
                                 
    Great job on the call this afternoon with Robert for Mathnasium! It 
means a lot to us trade specialists in ODO to be able to transition our 
clients to knowledgeable and capable commercial specialists in OIO, and 
to know they will get excellent service. I look forward to continuing 
to work with you to make something good happen for Mathnasium in the 
Czech market!--Brent E. Omdahl, Atlanta Export Assistance Center.
                                 ______
                                 
    I just wanted to send a quick not to thank you for the visit last 
week. I think it went extremely well thanks to your efforts. Thanks 
again for all your hard work, and I look forward to working together in 
the future as we move forward in the Czech Republic. Excellent!! I 
would highly recommend using this service. Not only were they very 
effective through the initial phases of the activity, but have 
continued to provide support and guidance through the followup phase. 
Outstanding service!!--Zach Sorrells, European Operations-Eureka 
Research International.
                                 ______
                                 
    I'll write ANOTHER e-mail to you praising all the meetings you set 
up on behalf of Publish on Demand global and Strategic Book publishing. 
This e-mail is ONLY about my own publishing company participating in 
your FREE offer for the U.S. Commercial service catalogue show. I want 
to thank you for including our catalogue and our titles in your 
presentation! It was great to see you at the Business Centre. You were 
always busy with meetings and your materials were well-done. I think 
it's GREAT that you're having the followup event in early June. I will 
send you a couple more sample books for you to display. Thanks so much! 
It was so great to meet you, Jana, and to have all your help. My week 
in Prague was a totally positive experience and I will be doing lots of 
e-mail, mail, and even some phone call followup so hopefully we will 
see LOTS of sales that I can share with you for both companies!
--Jan Yager, Publish on Demand.
                                 ______
                                 
    Just a note to let you know that our participation in the Prague 
Book Fair was helpful and provided at least one very good lead for us. 
Hana Whitton from the Oxford Literary Agency, which specializes in 
translation rights sales into various Eastern European markets, asked 
to be put in touch with us via the U.S. Commercial Service's stand at 
Prague. The U.S. Commercial Service has been a tremendous asset for our 
Press. Thank you and your colleagues for your capable assistance!
--Katherine McGuire, University of Pennsylvania Press.
                                 ______
                                 
    The offered service was beyond our expectations. Very efficient, 
fast service and extremely experienced and qualified staff. Very highly 
recommended to any other U.S. company looking for a rep. in the Czech 
Republic. Extremely satisfied with the service and the outcome. Thank 
you so much and keep up the good service. The services that you 
provided are beyond our expectations. I am really thankful to 
accommodate our request and research the market within such a short 
period. The data and all the candidates you recommended are very 
efficient and professional companies in our field. Thank you for your 
ongoing support and for organizing all these 4 meetings within such a 
short notice.--Pierre Hatem, American Foodservice Concepts Corp.
                                 ______
                                 
    The Commercial Service is an exception resource. My contact in the 
Czech Republic, Veronika, was very friendly and accommodating--even 
providing more resources after the completion of our project. I wasn't 
extremely satisfied with the results of the service, but that is more 
likely a result of the Czech Republic not having a readiness for our 
products than it is a reflection on the Commercial Service. I would 
still surely recommend this service to any and all!--Stephanie Johnson, 
Mirabella Beauty.
                                 ______
                                 
    The assistance from both the Arizona and Prague offices was 
exceptional.--Scott Meehan, Positron Public Safety Systems/Intrado.
                                 ______
                                 
    Veronika Novakova was amazing to work with . . . She did a lot of 
work on our behalf and it turned out to be very successful. Also would 
like to thank Mr. Chris Damm from San Jose office for his continued 
hard work and time in helping set up all our IPS.--Leigh Lindenbaum, 
Universal Exports Limited (UXL).

    Senator Lieberman. For more than 2 years before Ambassador 
Eisen arrived in Prague, the United States had no Ambassador in 
the Czech Republic, which spurred doubts and fears among our 
Czech allies--and as you said, they have really been great 
allies--about our commitment to their country. This is not a 
situation that we, in our national interests, should repeat.
    So I hope that we can give a full confirmation to 
Ambassador Eisen this time. The Czech Republic has been an 
extraordinary partner and ally of the United States, from the 
wars in Iraq and Afghanistan to the promotion of democracy 
worldwide. The Czechs are really now among our best friends and 
allies in Europe, and they deserve to have an Ambassador from 
our country that is confirmed by the full Senate.
    Finally, as you may know, Norman Eisen has a deep personal 
connection to the Czech Republic, his mother having been born 
there. Both and she and his father survived the Holocaust, and 
it is indeed a profound historical justice, an act of justice, 
that the Ambassador's residence in Prague, which was originally 
built by a Jewish family that was forced to flee Prague by the 
Nazis, and which in turn the Nazis took over as their 
headquarters, now 70 years later, is occupied by Norman and his 
family.
    And I might, on a point of personal privilege, add that 
they observe the Sabbath there every Friday night and Saturday. 
So if you need any evidence that there is a God, I offer that 
to you.
    The story of Norm Eisen and his family and their path back 
to Europe is a classic American story, a reflection of what our 
country is about at its very best. And that is also precisely 
why the Ambassador has proven such an effective representative 
of our Nation, our interests, and our values; and, again, why I 
hope the committee can lead the Senate in sending him back to 
Prague as our Ambassador as quickly as possible.
    Thank you very much for this opportunity.
    Senator Lugar. Madam Chairman, are there members of the 
families here?
    Senator Lieberman. They are.
    Senator Shaheen. Yes, I think we should ask, as you're 
giving your testimony, Ambassador Eisen and Ricciardone, that 
you should feel free to introduce your families and let us 
welcome them as well.
    Senator Lieberman. Thank you, Madam Chair and Senator 
Lugar.
    Senator Shaheen. Thank you, Senator Lieberman. Thank you 
especially for sharing the last story about the residence for 
the Ambassador.
    As I said, we are going to begin the panel with Ambassadors 
Ricciardone and Eisen. And we will also be hearing the opening 
statement from Ambassador Ford, and then we will save his 
question and answer period for the second panel.
    So I will ask you if you could begin, Mr. Eisen. And again, 
feel free to introduce family or friends who are here with you.

STATEMENT OF HON. NORMAN L. EISEN, OF THE DISTRICT OF COLUMBIA, 
             TO BE AMBASSADOR TO THE CZECH REPUBLIC

    Ambassador Eisen. Madam Chair, Senator Lugar, Senator 
Coons, members of the committee, thank you for the opportunity 
to be here again in connection with my nomination by President 
Obama to continue serving as the United States Ambassador to 
the Czech Republic.
    I am honored to have the confidence and the trust of the 
President, of Secretary Clinton, in representing our country.
    Since you asked, I would like to introduce my wife, Lindsay 
Kaplan, an associate professor of English at Georgetown 
University, and our daughter, Tamar.
    Representing the United States in Prague is a family 
effort, and I believe that the Czech people have come to 
appreciate my family as much as I do--well, almost as much as I 
do.
    When I was last before the committee, I reflected upon my 
extraordinary good fortune as a first-generation American. From 
the vantage point of our small fast-food restaurant in Los 
Angeles, where I grew up, my mother, a Czechoslovak Holocaust 
survivor, and my father, an immigrant from Poland, could never 
have imagined that their son would someday serve as a United 
States Ambassador.
    As Senator Lieberman noted, and as my mother put it 
recently, just a little more succinctly, ``The Nazis took us 
away in cattle cars, and now my son has returned representing 
the mightiest nation on Earth.''
    As that sentiment suggests, my mission in the Czech 
Republic is strongly informed by my deep sense of obligation to 
this country, to the United States.
    Since my arrival in Prague in January, I have worked with a 
talented Embassy team in three principal areas. First, the 
defense and security relationship between the two countries; 
second, commercial and economic ties; and third, shared values, 
particularly the shared values of good governance and of civil 
rights for all.
    In each area, the relationship was good. But we have worked 
with the Czech Government, with officials across the political 
spectrum, with Czech civil society, and with the Czech people 
to make it great.
    In the defense and security realm, the Czechs are staunch 
allies. Over the past year, they increased their contributions 
in Afghanistan to over 700 soldiers and civilians. Czech 
personnel operate in some of the most dangerous parts of the 
country, and they have suffered numerous casualties there.
    When I recently visited Afghanistan to thank Czech and 
United States personnel for their service, U.S. soldiers that I 
met with gave the Czechs high praise. That included General 
Petraeus, who explained the critically important 
responsibilities that our Czech allies are carrying out side by 
side and day by day with their U.S. partners in Afghanistan.
    The Czechs are also a staunch friend of Israel and a strong 
supporter of United States policy toward Iran. They are one of 
our very best allies in Europe on those issues and across the 
board. In their own neighborhood, the Czech Republic is a 
leading advocate within the European Union for countries like 
Georgia, Ukraine, and Moldova, through the EU's Eastern 
Partnership Initiative. Elsewhere, from Cuba to Burma to 
Belarus to North Korea, the Czechs are champions of human 
rights.
    We in Embassy Prague are proud to work with our Czech 
partners on these issues.
    Looking ahead to the future of our defense and strategic 
partnership, we are broadening our security cooperation, 
developing an approach that goes beyond any single narrow focus 
to one with multiple areas of specialized cooperation where the 
Czechs excel. The Czechs are world-class strategic partners in 
areas ranging from helicopters; to chemical, biological, 
radiological, and nuclear mitigation; to PRTs, Provincial 
Reconstruction Teams.
    In the economic and commercial area, Embassy Prague has 
actively advocated for American business during my tenure. We 
have an open door for U.S. firms, and I have met with dozens of 
American companies, from the very largest to the smallest.
    When they have concerns in the Czech Republic, we 
vigorously work to resolve them, engaging all the way up to the 
highest levels of government, if necessary. I've also 
encouraged Czech investment in the United States, traveling 
with government officials and Czech businesses to scout 
business opportunities here that will generate good, high-
paying jobs in the United States.
    In our commercial and economic work, we have particularly 
emphasized civil nuclear cooperation. The Czechs have six 
operating nuclear reactors and are planning an expansion worth 
up to $27.5 billion. It is one of the largest opportunities for 
U.S. businesses of its kind anywhere in the world.
    If Westinghouse, the U.S. competitor, wins that bid, it 
will mean an estimated 9,000 new, good jobs in the United 
States, across the United States. To support that bid, we have 
adopted a whole-of-government approach here in the United 
States and with Embassy Prague to establish a broad civil 
nuclear strategic partnership between our two countries.
    So from fostering new relations between United States and 
Czech R&D facilities, to making regulatory exchanges, to 
working together to improve nuclear safety, our two nations are 
building a model civil nuclear relationship for the 21st 
century.
    My third area of emphasis has been the shared values that 
bind our two countries together. Czech and Slovak national 
aspirations in the 20th century were first realized by the 
Pittsburgh and Washington declarations signed right here in the 
United States after World War I by President Wilson's great 
friend and Czechoslovakia's first President, a revered name in 
my home growing up, Tomas Masaryk.
    The United States helped liberate Czechoslovakia from the 
Nazis, supported the resistance against communism, and then 
helped transform the goals of the Velvet Revolution into 
reality.
    I have carried that message of friendship the length and 
breadth of the country, visiting almost 20 cities and regions 
outside of Prague in just about 6 months on the job.
    My message is one of warm friendship but also candor. I 
have supported the initiatives of those in the Czech 
Government, the opposition, NGOs, business, and the Czech 
public who are working for good government and against 
corruption. I believe we are building a model in Prague of how 
to respectfully but forcefully engage on those issues.
    We have also worked with the Czech Government to promote 
equal rights and opportunities for all Czech citizens, 
irrespective of their origin or faith, including the Roma. My 
presence in Prague as the child of a Czechoslovak victim of 
Nazi persecution is by itself a powerful message in the fight 
against extremism and for human rights. Working with the 
talented interagency team at Embassy Prague, I have taken every 
opportunity to engage with the Czech people and their 
government to advance our common goals and values.
    I am so, so honored to be asked to represent our country 
and our government.
    Madam Chair, members of the committee, thank you for this 
opportunity to appear before you. I welcome any questions you 
may have.
    [The prepared statement of Ambassador Eisen follows:]

            Prepared Statement of Ambassador Norman L. Eisen

    Madam Chair and members of the committee, it is a privilege to be 
here again in connection with my nomination by President Obama to 
continue serving as the United States Ambassador to the Czech Republic. 
I am honored to have the confidence and trust of the President and 
Secretary Clinton in representing our country. Thank you for the 
opportunity to appear before you today. I would like to introduce my 
wife, Lindsay Kaplan, an associate professor of English at Georgetown 
University and our daughter, Tamar. Representing the United States in 
Prague is a team effort and I believe the Czech people have come to 
appreciate my family as much as I do.
    When I was last before the committee, I reflected upon my 
extraordinary good fortune as a first-generation American. From the 
vantage point of our small fast-food restaurant in Los Angeles where I 
grew up, my mother, a Czechoslovak Holocaust survivor, and my father, 
an immigrant from Poland, could never have imagined their son would 
someday serve as a United States ambassador. As my mother put it 
recently, ``the Nazis took us away in cattle cars, and now my son has 
returned representing the greatest nation on earth.'' As that anecdote 
suggests, my mission in the Czech Republic is strongly informed by my 
deep sense of obligation to America.
    Since my arrival in Prague in January, I have worked with a strong 
Embassy team--Americans and Czechs--in three principal areas: defense 
and security; commercial and economic; and shared values, particularly 
the shared values of good governance and civil rights for all. In each 
area the relationship was good--and we worked with the Czech Government 
across the political spectrum, and with Czech civil society and the 
Czech people to make it great.
    In the defense and security realm, the Czechs are staunch allies. 
Over the past year, they increased their contributions in Afghanistan 
to over 700 soldiers and civilians. Czech personnel operate in some of 
the most dangerous parts of the country, and have suffered numerous 
casualties there. When I recently visited Afghanistan to thank Czech 
and U.S. personnel for their service, U.S. soldiers gave the Czechs 
high praise and General Petraeus explained the critically important 
responsibilities our Czech allies are carrying out.
    The Czechs are also a staunch friend of Israel and strong supporter 
of U.S. policy toward Iran; they are one of our very best allies in 
Europe. In their own neighborhood, the Czech Republic is a leading 
advocate within the European Union for countries like Georgia, Ukraine, 
and Moldova through the EU's Eastern Partnership Initiative. Elsewhere, 
whether in Cuba, Burma, Belarus, or North Korea, the Czechs are 
champions of human rights and we in Embassy Prague are proud to work 
with them on those issues.
    Looking ahead to the future of our defense and strategic 
partnership, we are broadening our security cooperation and developing 
an approach that goes beyond any single narrow focus to one with 
multiple areas of specialized cooperation where the Czechs excel. The 
Czechs are world-class strategic partners in areas ranging from 
training Afghan helicopter pilots and crews to Chemical Biological 
Radiological and Nuclear (CBRN) mitigation to Provincial Reconstruction 
Teams in Afghanistan.
    In economic and commercial ties, Embassy Prague has actively 
advocated for American business during my tenure. We have an open door 
for U.S. firms, and I have met with dozens of American companies, from 
the largest to the smallest. When they have problems, we vigorously 
work to resolve them, engaging all the way up to the highest levels of 
government. I have encouraged Czech investment in the United States, 
traveling with government officials and Czech businesses to scout 
business opportunities here that will generate jobs.
    We have particularly emphasized civil nuclear cooperation. The 
Czechs have six operating nuclear reactors and are planning an 
expansion worth up to $27.5 billion that is one of the largest 
opportunities for U.S. business of its kind in the world. If the U.S. 
competitor wins the bid, it will mean an estimated 9,000 new, high-
paying jobs in the United States. To support that, we have adopted a 
whole-of-government approach to establish a broad civil nuclear 
strategic partnership between our two countries. From fostering new 
relations between U.S. and Czech R&D facilities, to regulatory 
exchanges, to working together to improve nuclear safety, we are 
building a model civil nuclear relationship for the 21st century.
    My third area of emphasis has been the shared values that bind our 
two countries together. Czech and Slovak national aspirations in the 
20th century were first realized by the Pittsburgh and Washington 
declarations signed in the United States after WWI by President 
Wilson's great friend and Czechoslovakia's first President, Tomas 
Masaryk. The United States helped liberate Czechoslovakia from the 
Nazis, supported the resistance against communism, and helped transform 
the goals of the Velvet Revolution into reality. I have carried that 
message the length and breadth of the country, visiting almost 20 
cities and regions outside of Prague in just 6 months on the job.
    My message is one of warm friendship and also candor: I have 
supported the initiatives of those in the Czech Government, the 
opposition, NGOs, business and the public who are working for good 
government and against corruption. I believe we are building a model in 
Prague of how to respectfully engage on those issues.
    We have also worked with the Czech Government to promote equal 
rights and opportunities for all Czech citizens, irrespective of their 
origin or faith, including the Roma. My presence in Prague as the child 
of a Czechoslovak victim of persecution is by itself a powerful message 
in the fight against extremism and for human rights. Working with the 
talented interagency team at Embassy Prague, I have taken every 
opportunity to engage with the Czech people and their government to 
advance our common goals and values.
    I am so honored to be asked to represent our country and our 
government. Madam Chair and members of the committee, thank you for 
this opportunity to appear before you. I welcome any questions you may 
have.

    Senator Shaheen. Thank you very much.
    Before we go on to Ambassador Ricciardone, I want to just 
recognize--I understand the Ambassador from the Czech Republic 
to the United States is in the audience. So I want to recognize 
him.
    Very nice to have you join us.
    And I don't know if there are any other members of the 
diplomatic corps here, but welcome to all of you.
    So, Ambassador Ricciardone.

     STATEMENT OF HON. FRANCIS JOSEPH RICCIARDONE, JR., OF 
   MASSACHUSETTS, TO BE AMBASSADOR TO THE REPUBLIC OF TURKEY

    Ambassador Ricciardone. Madam Chair, members of the 
committee, I am very honored to appear before you today as 
President Obama's nominee as Ambassador to the Republic of 
Turkey, having, as you mentioned, served in that capacity as a 
recess appointee since this past January.
    I am grateful to the President and to Secretary Clinton for 
their trust and confidence in me.
    And with me today is my wife and life partner, Marie, whom 
I married in Enfield, NH, almost 4 decades ago, who has been my 
partner throughout our Foreign Service adventures in Turkey, 
and long before in Iran and everywhere. So she is with me, and 
our daughters were unable to join us, but we all have family 
connections to Turkey and a great fondness for that country. 
Marie has studied and taught there as well.
    During my 33-year career in the Foreign Service, I have had 
the pleasure and the privilege of having served in Turkey 
previously three times. And through this period, I have 
observed Turkey's continuing transformation into a more 
democratic and more open and more economically vibrant, modern 
state, and as a player with growing influence on the world 
stage.
    Throughout this change and development, has been one 
constant, and that has been Turkey's continued commitment to 
its partnership with the United States and the NATO alliance. 
It is also a member of the G20 now and has one of the fastest 
growing economies in the world.
    And noting Turkey's history as a majority Muslim nation and 
as a secular democracy that respects the rule of law, President 
Obama has cited Turkey's critical role in helping to shape the 
mutual understanding and stability not only in its 
neighborhood, but around the world.
    If confirmed, I will continue to do everything I can to 
reinforce Turkish-American cooperation in support of our common 
goals, which are rooted in the security alliance and our shared 
democratic values.
    For decades, Turkey and the United States have cooperated 
intensively to promote regional stability, including by 
countering terrorism and the proliferation of weapons of mass 
destruction; resolving regional conflicts; promoting energy 
security; expanding trade, investment, and economic 
development; and, essential and integral to all of those, 
strengthening democracy, human rights, and the rule of law.
    Several such strategic priorities merge in the cases of 
particular and immediate consequence, including in Iraq and 
Afghanistan, the quest for peace between Israel and all its 
neighbors, and Iran's evident pursuit of nuclear weapons.
    Other conflicts, as you've mentioned, Madam Chair, with 
historical antecedents require no less sustained and intensive 
joint attention and cooperation, including the unresolved 
issues of Cyprus and the normalization of relations with 
Armenia.
    I have been privileged to serve in Ankara during the Arab 
Spring, during which I have strived to enlist Turkish support 
for the NATO role in Libya, for a successful transition to 
democracy in Egypt, and in collaboration with my colleague and 
friend next door in Syria to pressure the regime in Syria to 
cease its brutal repression and to heed the will of its people.
    And just as the Turkish Government has played an important 
role in promoting these political transitions, its government 
and private sector are also keen to support economic 
development in Egypt and Tunisia that are so critical to long-
term stability in the region by increasing their trade and 
investment in those countries. And wherever possible, Turkey as 
a government and Turkish firms are looking for partnerships 
with American firms.
    While we share many goals with Turkey, one of the most 
important is countering global terrorism and networks, and 
Turkey has been one of our strongest partners in that pursuit. 
Just last month, Turkish security officials arrested an alleged 
al-Qaeda cell that was plotting to bomb Western interests in 
Turkey, including the United States Embassy.
    We support Turkey's own foremost security objective of 
defeating the terrorist violence, which the PKK continues to 
perpetrate, and which has led to the deaths of over 30,000 
Turks since the 1980s.
    We strongly support Turkey's efforts to improve the human 
rights and economic situation for the Kurds, and their 
democratic participation as full citizens, and the rights also 
of other communities of vulnerable groups in Turkey.
    As the United States maintains its longstanding support for 
Turkey's aspirations to join the European Union, we will 
continue to press for the reforms required for accession. It's 
important to note the Turkish citizens themselves are demanding 
further progress on promoting human rights and the rule of law, 
most certainly including freedom of speech and religious 
freedom.
    And in my return to Turkey, it has been my privilege to 
meet with the heads of each of the religious minorities, the 
ancient Jewish community of Istanbul; His All Holiness 
Bartholomew II, whom I had first met over a couple of decades 
ago with the then-First Lady, Secretary Clinton, and met again 
2 weeks ago with the Secretary; the head of the Syriani Church; 
and the head of the Armenian Church as well; as well as the 
Baha'i community leader.
    The United States supports a transparent and inclusive 
constitutional reform process to strengthen Turkey's democracy. 
We regard freedom of expression as central to democracy, and we 
believe the reform process offers a unique opportunity to 
strengthen the protections afforded to journalists, to 
nongovernmental organizations, and to minorities.
    The President and the Secretary have established economic 
cooperation with Turkey as a strategic priority and have 
emphasized the importance of supporting American firms and 
promoting Turkish-American trade and investment. During the 
President's April 2009 meeting with Turkish President Gul, both 
leaders agreed to elevate our economic relations to the level 
of our already strong political and military relations. So 
Turkey is a leading focus in the President's new export 
initiative to double United States exports globally in 5 years.
    It has been a special privilege to return to Ankara over 
these past 6 months to strengthen the communications and the 
friendship between our two peoples in all fields of private as 
well as official endeavors, including the fields of education, 
science, and health.
    I know this committee and this Senate have strongly 
supported public diplomacy, and I have tried to make a special 
effort to communicate with the Turkish people and bring private 
American groups and Turks together.
    I believe that increasing contacts and communications 
between Americans and Turks must be a primary means of 
advancing our interests on all of the issues we face together 
today.
    So, Madam Chair, ranking member, Senator, if confirmed to 
continue my service as Ambassador in Ankara, as in my service 
in all other posts in the past, I will trust to your support 
and advice, and that of your colleagues and constituents who 
are interested in the interests the United States has at stake 
in Turkey.
    Thank you so much for this hearing.
    [The prepared statement of Ambassador Ricciardone follows:]

        Prepared Statement of Ambassador Francis J. Ricciardone

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Obama's nominee to serve as Ambassador to 
the Republic of Turkey, having served in that capacity as a recess 
appointee since January 20, 2011. I am grateful to President Obama and 
Secretary Clinton for their trust and confidence in me. With me today 
is my wife, Marie, who both studied and taught in Turkish universities. 
During my 33-year career in the Foreign Service, I have had the 
pleasure of having previously served three times in Turkey, most 
recently as the Deputy Chief of Mission and Charge d'Affaires from 1995 
to 1999. Through more than three decades I have observed Turkey's 
continuing transformation into a more democratic, more open, and more 
economically vibrant, modern state and a player with growing influence 
on the world stage. If confirmed, I look forward to continuing to work 
with you and your colleagues, as well as with the many private American 
organizations with a strong interest in Turkey and throughout the 
region, to advance United States interests in this critically important 
and complex relationship.
    Turkey remains as ever a key ally and strategic partner of the 
United States and an important member of the NATO alliance. It is also 
a member of the G20 with one of the fastest growing economies in the 
world. Noting Turkey's history as a majority Muslim nation and as a 
secular democratic state that respects the rule of law, President Obama 
has cited Turkey's ``critical role in helping to shape mutual 
understanding and stability not only in its neighborhood, but around 
the world.'' If confirmed, I will continue to do everything possible to 
reinforce Turkish-American cooperation in support of our common goals.
    For decades, Turkey and the United States have cooperated 
intensively to promote regional stability, including by countering 
terrorism and the proliferation of weapons of mass destruction; 
resolving regional conflicts; promoting energy security; expanding 
trade, investment, and economic development; and, essential and 
integral to all of these, strengthening democracy, human rights, and 
the rule of law. Several such strategic priorities merge in cases of 
particularly immediate consequence, including in Iraq and Afghanistan, 
the quest for peace between Israel and all its neighbors, and Iran's 
evident pursuit of nuclear weapons. Other conflicts with historical 
antecedents require no less sustained and intensive joint attention and 
cooperation, including the unresolved issues of Cyprus and 
normalization of relations with Armenia. I have been privileged to 
serve in Ankara during the ``Arab Spring,'' during which I have strived 
to enlist Turkish support for the NATO role in Libya, for a successful 
transition to democracy in Egypt, and pressure on the regime in Syria 
to cease its brutal repression and to heed the will of its people. Just 
as the Turkish Government has played an important role in promoting 
these political transitions, the Turkish Government and private sector 
are keen to support economic development in Egypt and Tunisia that are 
so critical to long-term stability in the region, by increasing their 
trade and investment in these countries. Wherever possible, they are 
looking for partnerships with U.S. companies.
    Let me describe Turkey's role in relation to our foreign policy 
priorities. If confirmed, my continued responsibility will be to 
strengthen Turkey's cooperation with us in all of these areas, as a key 
bilateral partner and also as an essential NATO ally.
    United States-Turkey cooperation in Iraq and Afghanistan has been 
robust and critical to our success. Turkey shares our vision of a 
stable Iraq and actively helps the Iraqi people develop a sovereign 
state that is at peace with itself and its neighbors. This requires 
progress in Iraq's security, political, and economic infrastructure, 
and in each of these areas Turkey has been an essential partner for our 
mission. Turkey's high-level strategic dialogue with the Government of 
Iraq and its outreach to the Iraqi Kurdistan Regional Government have 
contributed to the stability of Iraq. Turkey also is contributing to 
Iraq's progress by hosting regional meetings on political and economic 
cooperation, and through trade and investment that promote Iraq's 
reconstruction and help develop Iraq's oil and electricity 
infrastructure.
    Additionally, Turkey is a crucial logistics hub, supporting U.S. 
forces in Iraq and Afghanistan. Nearly 70 percent of the air cargo for 
our mission in Iraq transits Incirlik Air Base, which is also the 
primary refueling stop for flights to Afghanistan. Turkey provides 
blanket clearance for U.S. aircraft supporting these operations and 
authorizes the use of its bases and ports to support humanitarian and 
reconstruction operations in Iraq, as well as the retrograde of U.S. 
forces from Iraq over the course of 2011. The Habur Gate border 
crossing serves as a key line of communication to Iraq; through it, 25 
percent of our fuel and 40 percent of other sustainment requirements 
enter Iraq. There are more than 1,700 U.S. military personnel stationed 
in Turkey. Turkey has a long tradition of hospitality to our service 
men and women, including hosting the USS Eisenhower in January.
    Turkey is one of our strongest partners in the fight against 
international terrorism. Turkey and the United States are working 
together to fight the regional transit and support of international 
terrorists, and last month arrested an alleged al-Qaeda cell plotting 
to bomb western interests in Turkey, including the U.S. Embassy. I have 
urged the Turkish Government and Parliament to pass stronger 
legislation against terrorist financing, and hope the Parliament will 
pass the Government's bill when it reconvenes this autumn.
    We support Turkey's foremost security objective of defeating the 
terrorist violence which the PKK continues to perpetrate, which has led 
to the deaths of over 30,000 Turks since the 1980s. We support Turkey's 
operations against the PKK; we cooperate with EU partners to cut off 
PKK facilitation efforts in Europe; and we support the growing 
cooperation between Turkey and Iraq, including the Kurdistan Regional 
Government, against the PKK elements that find refuge in Iraq. We are 
in consultations with Turkey to step up law enforcement cooperation 
against terrorism. Turkey's leaders also recognize the need for 
political, economic and cultural measures to counter PKK terrorism. 
Turkey's ``National Unity Project'' or ``Democratic Opening'' aims to 
improve the human rights and economic situation for Kurds and other 
communities of vulnerable groups in Turkey. We believe that further 
pursuit of this initiative can help not only to undermine the terrorism 
still conducted by the PKK, but it will also advance and strengthen 
Turkish democracy and the human rights of all Turks. A record number of 
Kurds were elected as independents to Parliament in June and we commend 
their professed commitment to participation in a nonviolent, lawful 
political process to secure the full rights of all Turkey's Kurds as 
Turkish citizens.
    From my current service in Ankara as well as my tenure as Deputy 
Ambassador in Kabul, I can attest that Turkey has also been an 
essential partner in Afghanistan, where it has longstanding cultural 
and historical ties and has been a leading proponent of Afghanistan's 
unity, sovereignty, and territorial integrity. Turkey shares our goal 
of a stable Afghanistan that can protect itself from al-Qaeda and any 
other terrorists who would use that country as a base for international 
terrorist attacks. Turkey has some 1,600 troops serving in the 
International Security Assistance Force, commands the Regional Command 
for Kabul, and this year has sent still more civilian humanitarian 
relief and development assistance experts to establish its second 
Provincial Reconstruction Team (PRT) in Jowzjan province. It is also a 
leader on training the Afghan National Security Forces. Turkey has 
pledged to train a brigade's worth of Afghan National Army troops. Just 
last week, I was proud to participate in the opening of Turkey's 
special training center in Sivas for the Afghan National Police. Turkey 
has also pledged $300 million for development projects in Afghanistan, 
built schools and clinics, and invested in the repair or construction 
of bridges and roads and the drilling of new wells, as well as 
facilitated economic development through support to the agriculture, 
marble and carpet sectors. In addition to our cooperation with Turkey 
through NATO/ISAF and our two Embassies on the ground in Kabul, we see 
Turkey undertaking an influential and highly positive role in rallying 
international support for Afghanistan's economic development, and in 
fostering political reconciliation of its violent conflict with the 
Taliban. In support of cooperation between Afghanistan and Pakistan, 
Turkey has hosted trilateral summits in Turkey with the participation 
of both the Afghan and Pakistani Presidents, and later this year will 
host another summit of Afghanistan and its neighbors.
    Turkey and Israel are both important partners of the United States. 
The two countries have shared vital political, economic, security, and 
military ties for many years. The strains in their relations since the 
May 2010 Gaza flotilla incident, risk setting back the vitally 
important interests of both those countries, and of the United States, 
in regional peace and stability. Therefore we have underscored to both 
countries the importance to them, to us, and their region of repairing 
their mutually beneficial relationship. Secretary Clinton continues to 
urge both sides to find a way to put the flotilla incident behind them, 
and we hope that efforts toward this goal over the past year will soon 
meet with success.
    On Iran, we work closely with Turkey on a range of the challenges 
we face with Iran. Turkey shares a long border and history with Iran. 
Turkey has said that it shares the international community's concerns 
about the prospect of a nuclear-armed Iran, and repeatedly has 
reaffirmed its commitment to upholding U.N. Security Council 
resolutions in this regard. But we have not always agreed on tactics 
regarding Iran, particularly with regard to sanctions. Turkey shared 
our disappointment that Iran failed to engage meaningfully in the talks 
hosted by Turkey in Istanbul last January between Iran and the U.N. 
Security Council's permanent five members plus Germany. If confirmed as 
Ambassador, I will continue to urge Turkey to persuade Iran to engage 
directly and seriously with the IAEA and P5+1 on the international 
community's concerns about its nuclear program. On sanctions, we 
continue to urge Turkey to fully enforce U.N. sanctions, which Turkey 
has publicly pledged to implement. We also are engaging vigorously with 
Turkey to ensure that the CISADA (Comprehensive Iran Sanctions, 
Accountability, and Divestment Act) sanctions are fully respected and 
to educate Turkish entities of the consequences should Iranian 
companies attempt sanctioned transactions via Turkey.
    The United States continues its longstanding support for Turkey's 
aspirations to join the European Union. The prospect of EU accession 
has been a strong impetus for Turkish reform. Over the past few years, 
Turkey has implemented meaningful political and economic reforms 
necessary for EU membership, but more needs to be done. Turkish 
citizens themselves are demanding further progress on promoting human 
rights and the rule of law, including freedom of the media and 
religious freedom. They seek, for example, the rights of minority 
religious institutions freely to own their property and operate their 
institutions. There could be no more powerful modern testimony to 
Turkey's historic legacy of religious tolerance than reopening the 
Ecumenical Patriarchate's Halki Seminary. Just this past month, I was 
privileged to join Secretary Clinton in advocating for the reopening of 
Halki Seminary and protecting the rights of the Ecumenical Patriarchate 
during her recent visit to Istanbul, and I will continue my advocacy 
until this is addressed. If confirmed, I look forward to celebrating 
the reopening of Halki Seminary with His All Holiness Bartholomew, and 
the leaders of the Government of Turkey (including the democratic 
opposition) who, I dare hope, will show the courage and foresight 
needed to redress a historical wrong.
    The division of Cyprus has gone on far too long. The United States 
encourages the negotiations between the two communities under the 
auspices of the U.N. Secretary General, and we urge the leaders of the 
two communities to seize the moment to negotiate a settlement that 
reunifies the island into a bizonal, bicommunal federation. Turkey and 
Greece can play a constructive role in helping the Cypriot parties 
toward a lasting solution to their differences, and we continue to urge 
them to do so.
    Facilitating regional integration is a high priority for the United 
States. Rapprochement between Turkey and Armenia will foster increased 
stability and prosperity in the entire Caucasus region. We commended 
the governments of Turkey and Armenia on signing the historic protocols 
on normalization of relations on October 10, 2009, in Zurich. During 
her visit last month, Secretary Clinton again urged Turkey to ratify 
the protocols, and we will continue to support programs that build 
understanding between Turks and Armenians. Last year, the Government of 
Turkey permitted Armenians to celebrate religious services at the 
ancient Akhtemar Church in Lake Van, for the first time in decades. I 
was glad to see increasing numbers of private Turkish citizens turn out 
this past spring in five cities across Turkey to protest the 2007 
murder of Turkish-Armenian journalist Hrant Dink, and to call for 
justice against the perpetrators. Last week, the courts convicted and 
sentenced the murderer to 22 years in prison, and we understand that 
official investigations, urged by President Gul himself, continue into 
the conspiracy that reportedly supported the heinous assassination.
    The President and Secretary Clinton have established economic 
cooperation with Turkey as a strategic priority, and have emphasized 
the importance of supporting American firms and promoting U.S.-Turkish 
trade and investment. During President Obama's April 2009 meeting with 
Turkish President Gul, the two leaders agreed to elevate our economic 
relations to the level of our already strong political and military 
relations. To follow through on this commitment, the United States and 
Turkey launched a Cabinet-level dialogue--the Framework for Strategic 
Economic and Commercial Cooperation--during Prime Minister Erdogan's 
visit to Washington in December 2009. In addition to our official 
dialogues, we have launched a public-private sector U.S.-Turkey 
Business Council to advise the U.S. and Turkish Governments on 
strategies for increasing trade and relationships, improving the 
business climate, and eliminating impediments to trade and investment. 
Turkey is a leading focus in the President's New Export Initiative to 
double U.S. exports globally in 5 years. Turkey's economic role has 
only grown in importance since 2009, as its booming economy is 
increasingly important to the global economy and to propelling regional 
growth. Turkey has set an ambitious goal of becoming a top-10 economy 
by 2023, which will triple the size of the economy and create more 
opportunities for U.S. firms. The Turkish Government and private 
business associations enthusiastically have supported our Global 
Entrepreneurship Program, and our ``Partnership for a New Beginning,'' 
both intended to foster a culture of entrepreneurship, especially among 
the young.
    Building on our close cooperation in the 1990s that helped make 
Baku-Tbilisi-Ceyhan (BTC) a reality, the United States and Turkey are 
working together to bring Caspian gas to European markets for the first 
time through a new route called the ``Southern Corridor.'' We welcomed 
the June 2010 agreement signed by Turkey and Azerbaijan on the gas 
purchase and transit of Azerbaijani gas to Turkey as an important 
milestone in laying the foundation for the Southern Corridor. The 
corridor would provide commercial benefit for the countries of the 
Caucasus and Central Asia and also create a long-term partnership based 
on mutual interests with Europe. Overseeing the safe passage of oil 
through the Bosporus Straits and the transport of oil through the BTC 
pipeline, which pumps nearly a million barrels of oil a day to the 
Turkish port of Ceyhan, Turkey plays an important role in world energy 
markets.
    Many Americans, including my family and I, have had wonderful 
experiences living and working in Turkey. It has been a special 
privilege to return to Ankara over these past 6 months to strengthen 
the communications and friendship between our two peoples in all fields 
of private as well as official endeavors, including the fields of 
education, science, and health--in which my wife has practiced while on 
previous service in Turkey. Led by this committee, the Senate has 
formally recognized the importance of public diplomacy. Increasing 
contacts and communications between Americans and Turks must be a 
primary means of advancing our interests on all issues we face today. 
If confirmed, I pledge that all members of U.S. Mission Turkey will 
continue warmly to welcome the advice and support of the American 
people, both through our elected representatives and through direct and 
continuous contact and communication. In particular, I would pledge the 
highest standards of service to the American community and American 
travelers, whether for business or for the private advocacy of the 
cause of freedom and human rights supported by our administration and 
our Congress.
    Mr. Chairman and members of the committee, if confirmed to continue 
my service as Ambassador, in my service in Ankara as in my past service 
at other posts, I will trust to your support and advice, and that of 
your colleagues.
    Thank you again for the opportunity to appear before you today. I 
look forward to your questions.

    Senator Shaheen. Thank you.
    Ambassador Ford.

 STATEMENT OF ROBERT S. FORD, OF VERMONT, TO BE AMBASSADOR TO 
                    THE SYRIAN ARAB REPUBLIC

    Ambassador Ford. Thank you, Madam Chair.
    Madam Chair, Senator Lugar, Senator Coons, I'm really 
honored to appear before you today, and I'm grateful for the 
trust and confidence placed in me by President Obama and 
Secretary Clinton in renominating me to serve as the United 
States Ambassador to the Syrian Arab Republic at a time when it 
is more critical than ever that our voice be heard clearly by 
the Syrian regime and, more importantly, by the Syrian people 
themselves.
    Under the President's recess appointment, I have been 
working in Syria since late January. I have to say it has not 
been an easy job, but the strategic stakes and the strategic 
opportunities for us that we have in Syria now are quite 
dramatic. And there is a hugely important story about the 
struggle for human dignity now under way in Syria.
    I arrived in Syria about a month before the protests 
started. In the past 5 months, those protests have grown slowly 
in size, and they now extend across all of Syria. The 
protesters demand respect for their basic rights, freedom of 
speech, freedom to march peacefully, and they demand an end to 
corruption, and above all they demand that their government 
treat them with dignity.
    I want to emphasize here, we talk about the Arab Spring in 
Washington. The key word is dignity--treating people with 
dignity.
    But government's response has been brutal. It has been 
outrageous. Nearly 2,000 people have been killed by the Syrian 
security forces and thousands more arrested and held in 
barbaric conditions. One cannot have but admiration for the 
protesters' courage and also their ingenuity, and that they 
have stayed generally peaceful despite bullets, beatings, and 
the constant risk of arrest and torture.
    In my 6 months, I have seen two principal tasks in front of 
me. First, to insist to the Syrian officials, and to convince 
them, that opening more space for the Syrian people to express 
themselves is vital for the credibility of those officials, for 
the credibility of that government, and for Syria more largely.
    There have been a few small positive steps taken by the 
government. They have released many political prisoners. They 
have allowed some meetings by the political opposition.
    However, as I said, in general, their behavior has been 
atrocious. And their recent actions that we read about in the 
newspaper these days only underline again that the Syrian 
Government is unwilling to lead the democratic transition that 
the Syrian people themselves demand.
    My second vital function in Damascus is to work with the 
Syrian opposition. I have spent enormous amounts of time 
discussing with them their ideas for the future and discussing 
with them the kinds of questions that other Syrians and the 
international community will ask about them.
    It's really important now to give Syrians an ear and to 
amplify their voices, especially when the international media 
is barred from Syria.
    I have been trying to draw the attention of the Syrian 
regime and the attention of the international community to the 
legitimate grievances the Syrian people have with their 
government. The Syrian people want to be heard.
    I wish the members of this committee could have seen how 
enthusiastic the protesters in Hama were to have a chance to 
talk to the American Ambassador.
    The crisis in Syria, however, is not about the United 
States directly. As I said, it offers us opportunities to 
promote respect for our principles and our ideals. The Syrian 
crisis offers us opportunities eventually to reinforce 
stability and peace in the Middle East.
    But Syrians must resolve the crisis. The manner in which 
the crisis is resolved has to be a Syrian one.
    My job is to help establish the space for Syrian activists 
and for Syrian thinkers, for Syrian business people, and for 
the Syrian people generally to develop and organize the 
political transition that must occur if Syria is to be stable 
again.
    Syria's 23 million people are already thinking about what 
happens when Assad is no longer President of Syria. I believe 
that we and the Syrian people share a vision of what Syria 
could be, an open and democratic country where governance is 
based on consent of the governed, a unified and tolerant 
country where Arabs and Kurds, Sunnis and Alawites, Christians 
and Druze see themselves as Syrians first, and they celebrate 
Syria's rich cultural diversity; a strong country at peace with 
its neighbors and exercising a stabilizing influence in the 
region; a strong country that plays a responsible role in the 
broader international community; and a country that does not 
support Iranian efforts to destabilize the region or give 
support to terrorist groups like Hezbollah.
    As the President said on July 31, Syria will be a better 
place when a democratic transition goes forward. I and my team 
in Damascus, my colleagues at the Department of State and 
throughout the U.S. Government, and, most importantly, the 
Syrian people are working to make that vision a reality.
    Madam Chair, thank you for this opportunity to address the 
committee, and I look forward to responding to questions at the 
appropriate time.
    [The prepared statement of Ambassador Ford follows:]

            Prepared Statement of Ambassador Robert S. Ford

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I am grateful for the trust and confidence placed in 
me by President Obama and Secretary Clinton in re-nominating me to 
serve as United States Ambassador to the Syrian Arab Republic at a time 
when it is more critical than ever that our voice be heard clearly by 
the Syrian regime and, more importantly, the Syrian people.
    I last testified before this committee on March 16, 2010. Almost 1 
year to the day later, the Syrian regime sparked what has become a 
nationwide uprising when it responded with deadly force to a peaceful 
protest over the arrest of a handful of youths in Dara'a. Since March 
2011, over 1,600 people have been killed and more than 10,000 arrested 
in a ruthless attempt to cow the Syrian people into submission--an 
attempt that has failed. The Secretary reiterated on August 1 that 
President Assad has lost his legitimacy with the Syrian people. And the 
President on July 31 laid out my instructions: to stand with the Syrian 
people, increase our pressure on the Syrian regime, and work with other 
countries to isolate the Assad government.
    I want to salute the courage of the Syrians who risk bullets or 
vicious beatings or arrest and torture but who will not be intimidated 
from demanding their government respect their basic rights. They are 
demanding nothing outlandish. They demand simply that the Syrian 
Government respect the basic rights laid out in the United Nations 
Charter of Human Rights--a charter that the Syrian Government signed. 
They want their government to respect the freedoms of speech and 
assembly, the right to just and fair governance, and freedom from the 
fears and wants that have resulted from decades of corrupt, 
incompetent, and brutal rule at the hands of an unaccountable clique. 
They want to be treated like human beings--with respect and dignity.
    My team and I see it as an integral part of our mission to give 
these people an ear and a voice. To amplify their hopes and legitimate 
grievances so that the international community and most importantly the 
Syrian regime pays attention. I am convinced that my French colleague 
and I were welcomed in Hama because after weeks of fearless and 
peaceful protest, and on the verge of a potential crackdown, someone 
from outside Syria took notice. I wish you could have seen the 
eagerness of the Hama people to talk to me about their experiences with 
the Syrian intelligence services and how they were determined to push 
their demands for respect and dignity from their government no matter 
what the pressure from the Syrian Government.
    When I return to Syria in a couple days, I will continue through my 
actions and my presence to demonstrate solidarity with the Syrian 
people and our rejection of the regime's empty promises, senseless 
violence, and sectarian fear-mongering.
    Assad and his circle will not endure forever, but it is not 
entirely clear who or what will follow. An additional focus of my work 
on the ground, which I do not advertise widely, is getting to know the 
leading activists and assessing their needs and opportunities for the 
United States to help. They are independent. They do not want American 
military involvement.
    The crisis in Syria is not about the United States directly. It 
does offer us opportunities to promote respect for our principles and 
ideals. It offers us opportunities eventually to reinforce stability 
and peace in the Middle East. But Syrians must resolve the crisis. The 
manner in which it is resolved must be a Syrian one. I see my job as 
helping establish the space for Syrian thinkers, political activists, 
and those who lead the street protests to organize their plan for the 
political transition that must occur if Syria is to know stability 
again. We have had some success in establishing that space through my 
frank discussions with elements in the Syrian leadership who claim to 
want a political solution to the crisis. And the Syrian opposition is 
slowly becoming an effective, broad-based opposition.
    While the regime has generally dismissed new U.S. sanctions as 
``business as usual,'' President Obama's decision to take the 
unprecedented step of designating Bashar Assad personally, and our 
efforts to coordinate that step with the Europeans, absolutely stung. 
Our coordination on multilateral steps, such as at the United Nations, 
also stung. And new sanctions, coupled with the regime's own violence 
and mismanagement, have signaled to markets that Syria is increasingly 
``radioactive.'' Trade, tourism, investment, and foreign reserves are 
down, and the economy is hurting badly. Some of Assad's close business 
associates have contacted us to plead their cases. Another part of my 
job in Damascus is to identify how we can apply unilateral American 
actions to boost pressure and how working with our partners on 
multilateral actions we can help bring this crisis to a quicker and 
less bloody end. A new U.N. Security Council resolution would be useful 
in that effort. As we mull our steps, we aim to ensure that we neither 
harm the Syrian people nor prejudice their ability to recover 
economically, socially, and politically.
    It is time for us to start thinking about the day after Assad. 
Syria's 23 million citizens already have. I believe that we and they 
share a vision of what Syria could be: an open and democratic country 
where governance is based on consent of the governed. A unified and 
tolerant country where Arabs and Kurds, Sunnis and Alawis, Christians 
and Druze see themselves as Syrians first and celebrate their nation's 
diversity. A strong country at peace with its neighbors and exercising 
a stabilizing influence in the region. A strong country playing a 
responsible role in the broader international community. A country that 
does not support Iranian efforts to destabilize the region or give 
support to terrorist groups like Hezbollah. As the President said on 
July 31, Syria will be a better place when a democratic transition goes 
forward.
    I, my team in Damascus, my colleagues at the Department of State, 
and throughout the U.S. Government and most importantly the Syrian 
people are working to make this vision a reality.
    Mr. Chairman, thank you for this opportunity to address the 
committee. I would be pleased to respond to any questions you may have.

    Senator Shaheen. Thank you all very much for your 
testimony.
    As I indicated in introducing Ambassadors Eisen and 
Ricciardone, you were both recess appointments, so I would 
really like to begin this afternoon by asking you each to 
address the situations that required your recess appointments, 
and why you believe the Senate should confirm you this year?
    And I'll ask you to begin, Mr. Eisen.
    Ambassador Eisen. Madam Chair, as you noted, the Czechs are 
some of our closest allies in the region and in the world, and 
an Ambassador was needed after a hiatus to work on critical 
issues like Afghanistan, Iran, Israel, and the potential $27.5 
billion civil nuclear export opportunity worth thousands of 
United States jobs.
    It is my understanding that my nomination was held over 
concerns about a personnel matter handled by my office when I 
worked in the White House. We attempted to resolve those 
concerns, but were unable to do so. And given the important 
security and economic issues on which we worked with the 
Czechs, the President determined that a recess appointment was 
appropriate and, indeed, was necessary.
    Since my arrival in Prague, we have made strong progress on 
all those issues, Afghanistan, Iran, Israel, the nuclear 
contract, and many other important areas in the relationship. 
Those remain as vital as ever.
    And I believe that progress, the energy that not only I 
have put in, but the entire Embassy team in Prague together 
have put in, and the good work that they and we have done, I 
think, is the best case for the continued presence of an 
Ambassador in the Czech Republic.
    Senator Shaheen. Thank you.
    Mr. Ricciardone.
    Ambassador Ricciardone. Madam Chair, thank you for the 
opportunity to address that question.
    As you pointed out yourself, and as Senator Lugar has 
pointed out, Turkey is a pivotal country at a critical place 
geographically, in a very tense moment of conflict throughout 
the region. It has influence in all of those issues that are of 
strategic concern to the United States, moreover, internally is 
going through a hugely important and deliberate process of 
change, the Turkish people deciding their own direction and 
their future.
    And they do look to us as they go through this. They care 
about what we think.
    We have an extraordinarily talented Embassy team that I 
found on arrival in January, and there is one now, even through 
our summer transition. They do the heavy lifting of diplomacy 
every day, and they do a lot without an Ambassador, in fact.
    But the fact is that having an Ambassador present improves 
the United States access and the ability to speak every day 
with people at the top of government and the different 
institutions of government, including the military as well as 
the civilians and with the public in a way that cannot be done 
otherwise.
    So I am very grateful that the President appointed me. I am 
grateful to have been there in particular throughout this 
period of the Arab Spring with so much going on in the region, 
where Turkey has swung in and helped play a stabilizing role in 
those transitions.
    I regret I was unable to resolve the concerns of an 
individual member of the Senate, a former member of the Senate. 
I will be honored and grateful to address any concerns from any 
member regarding my past service or my current service in 
Turkey or anywhere else.
    And I thank you for the opportunity to get at some of that 
today, if there are any concerns. Thank you.
    Senator Shaheen. Thank you.
    As I understand, part of the questioning or questions that 
were raised had to do with your tenure in Iraq and as 
Ambassador to Egypt. Were there any particular concerns that 
you would like to address today that were raised?
    Ambassador Ricciardone. I was very proud of my service in 
Iraq. Before Saddam Hussein went down, I worked with the Iraqi 
opposition, the democratic opposition to Saddam Hussein, under 
President Clinton and Secretary Albright.
    My job was to help organize, support, and invigorate the 
Iraqis who were working for a post-Saddam future, and it was 
really a privilege to be part of that. I did that to the best 
of my ability and closely worked with Members of the Congress 
who were keenly interested.
    If there are particular questions, I am not entirely sure 
what they are. I'm sure I must have antagonized some members of 
the Iraqi opposition. I was upholding American policy, not 
necessarily what all Iraqis wanted.
    I worked very closely in Egypt with not only the government 
but very much with civil society. The theory of the case we had 
was we had to press on all fronts, starting with a very 
stubborn President Mubarak, who was committed and set in his 
ways; and with the people around him, with his government, with 
his state, and very much with civil society.
    I was privileged to go to the headquarters of opposition 
movements to continue the flow of funding provided by the 
United States through USAID to civil society groups. I 
understand that remains an issue with the Government of Egypt, 
but I was proud to continue to do that, and I took up the issue 
with President Mubarak himself and told him we were determined 
to keep doing that.
    Again, I'm glad to answer to any particular questions that 
may come up.
    I made it a point to meet with all of the religious 
community leaders. It was one of the great experiences of my 
life to have a Passover Seder in Cairo while the imprecations 
against the pharaoh were being called down.
    I met with His Holiness Pope Shenouda many, many times, and 
sought his advice on how best to advance the cause of freedom 
for Egypt's Christians. I met with the Greek patriarch. I met 
with the Russian Orthodox patriarch.
    I took up the cause of the Baha'is with Mubarak himself and 
had a small success on that front.
    I worked hard and won some and lost others, but that is the 
nature of our business.
    Glad, again, to address any particular questions on that.
    Senator Shaheen. Thank you. Thank you for the effort to 
clarify some of those concerns that had been raised.
    I was very surprised, as I am sure a lot of other people 
were, to see so many of Turkey's generals step down over the 
weekend. And I just wondered if you could give us your 
assessment of what that means for the civilian government, what 
it means in terms of the military, how do we interpret what 
happened?
    Ambassador Ricciardone. Thank you, Madam Chair.
    As to what this means for Turkey, its democracy, its 
civilian government, the Turks themselves are analyzing all of 
that and debating it and deciding what it means. And we're 
asking them.
    For what it means for the United States and our security 
relationship with them, I am very, very confident that it has 
not caused a setback in any way. On the contrary, this time of 
the year, there is always a turnover in the leadership, in any 
case. This turnover happened in a different way, by means of a 
resignation under evident protest for particular reasons 
articulated by General Kosaner. We look forward to working with 
the new leadership.
    The security relationship, though, goes beyond individuals. 
It is based on institutions. Turkey is a state of law and 
strong institutions that are durable even though they're 
dynamic and in change. I have every confidence that our 
security relationship will continue to be strong, that our 
military leaders will meet with the new Turkish military 
leaders.
    I look forward on getting back to Ankara to meeting with 
the new military leadership. I am very confident things will be 
just fine.
    Senator Shaheen. Thank you. My time is up.
    Senator Lugar.
    Senator Lugar. Thank you very much, Madam Chairman.
    Ambassador Eisen, the Czech Republic was expected to host 
missile defense radar under the Bush administration's missile 
defense plan for Europe, but that plan was scrapped in 2009 in 
favor of the so-called phased adaptive approach.
    Even though Prague recently announced it was not interested 
in the administration's current proposal for participation in 
the phased adaptive approach, it appears open to considering 
future participation in projects.
    What do you see as the lay of the land there? Has the 
discussion in any way disrupted our relationship? And how would 
you propose we proceed?
    Ambassador Eisen. Thank you, Senator Lugar.
    It has not. This has not disrupted the relationship. This 
has been an active subject of conversation.
    And I am pleased to tell you that the government is 
strongly supportive of the NATO missile defense plan, the 
phased adaptive approach as adopted at Lisbon.
    You are, of course, quite right that an earlier 
conversation that we had with the Czech Government about the 
shared early warning system, which was prior to the adoption of 
a NATO missile defense strategy at Lisbon, was overtaken by 
events.
    The Czechs felt that the limited data that they would 
receive under the SEW system, the Shared Early Warning, was no 
longer necessary today, although we previously made the offer 
because of the broader adoption of the phased adaptive 
approach.
    But part of the result of the good conversations, the good 
partnership between the Czech Government and United States, 
including the Unites States Embassy in Prague, has been strong, 
strong embrace of the phased adaptive approach as adopted by 
NATO at Lisbon. So it's full-steam ahead. We're in as good a 
place as ever on that.
    Senator Lugar. Let me say, you've noted that a key priority 
for the United States policy in the Czech Republic is to 
enhance regional energy security through means including 
diversification. In your view, what are the most pressing areas 
for cooperation in this sphere?
    Ambassador Eisen. There is a critical energy security issue 
in the Czech Republic. One hundred percent of the Czech 
Republic's nuclear fuel is supplied by Russia, 70 percent of 
their oil, 65 percent of their gas. We've made diversification 
a priority of our engagement.
    The greatest single opportunity to achieve energy security 
is through the expansion of the Czech civil nuclear capacity. 
They have six outstanding high-functioning nuclear reactors 
now, and a very strong regulator. Unlike other nations, they 
have a very strong national commitment, not just a government 
commitment, but strong public support, for this critical 
alternative energy source in the 21st century.
    And we've really focused there not just on the Westinghouse 
bid to expand Temelin, which has such a high dollar value, 
almost $28 billion potentially, and so many U.S. jobs. But 
that's really just one part of this partnership, and we have 
worked very hard in Embassy Prague, and, indeed, throughout the 
United States Government on the whole partnership. One of the 
first things I did was come back to talk to all of the 
interlocutors and work on a whole-of-government approach to 
build a 21st century partnership between our two countries that 
goes beyond just that bid.
    So we're working on R&D together. We're working on 
education, on regulation together in both our countries. And 
that has been an important part of our work.
    I traveled recently with the Foreign Minister of the Czech 
Republic to Texas to sign an agreement under our Joint 
Declaration on Civil Nuclear Cooperation, which we have between 
the Czechs and Texas A&M University, a leading provider of 
degrees in civil nuclear engineering, and the Czech CENEN, the 
Civil Nuclear Engineering Network in the Czech Republic, so our 
two nations can build in this area in the 21st century.
    Senator Lugar. Is there public support in the Czech 
Republic? That is, do ordinary citizens understand this 
problem?
    Ambassador Eisen. There is, Senator Lugar.
    One of the most gratifying moments for me in returning to 
my mother's homeland was the rational and the calm approach 
that the Czech Republic took post-Fukushima to their energy 
needs, the need for energy security, to diversify energy 
sources. There is strong national consensus in favor of 
expanding nuclear, and a strong government consensus.
    And some of the risks factors that one sees elsewhere, 
whether it's tsunamis or earthquakes, are not present there. So 
it is a very, very good location for that expansion.
    We are very pleased to work, again, not just on that bid, 
which is certainly important, but on a broad partnership for 
civil nuclear energy security that is a model of how our two 
nations can work together.
    Senator Lugar. Ambassador Ricciardone, I have two parts of 
this.
    First of all, Turkey remains central for the United States 
and European efforts, including the Nabucco pipeline project 
and other initiatives, to vie for greater European energy 
independence. I would like your views on what progress has been 
achieved recently, and where the Nabucco project might stand, 
as opposed to rival pipeline projects?
    Second, Turkey has been in negotiation with the United 
States and NATO on Missile Defense Radar for several years with 
no agreement finalized, which as I understand is due to several 
outstanding Turkish concerns related to intelligence-sharing 
with Israel. How close are we to concluding that deal?
    Can you make a comment on Nabucco, as well as the 
intelligence-sharing situation?
    Ambassador Ricciardone. Senator, on the southern energy 
transit corridor, of which the Nabucco is one very good option, 
I can say that we are intensively engaged. Diplomats always say 
that, and we always say we're optimistic and there is progress. 
I believe there actually is.
    It is complicated. There are several governments involved. 
There are several companies involved. We are in touch with all 
of them at top levels.
    I can tell you, without betraying any confidences, that 
Secretary Clinton raised this issue with the Prime Minister and 
the Foreign Minister of Turkey just 2 weeks ago. Ambassador 
Morningstar was along. She also raised it with President Gul.
    We've been pushing. Prime Minister Erdogan went on to 
Azerbaijan since then. I have not had a readout of his 
discussions there, but I know he was intending to talk about 
this issue.
    A key, of course, is getting gas from the Caspian to fill 
whatever pipeline is going to come down there. That is the next 
step.
    We're hoping within the next month there will be an 
agreement by the companies concerned, to fill the pipeline, 
come to terms on transit fees, and all those technical issues. 
We're seized with it. We're working on it, and we're hoping.
    On missile defense, Turkey did support, of course, the NATO 
statement at Lisbon. They support the NATO effort to have the 
phased adaptive approach radar system. We've moved well beyond 
that generality to have detailed technical discussions and 
legal discussions with the government of Turkey. Naturally, 
they want to understand what this will mean for Turkey in all 
its technical, political, legal, and certainly security 
aspects, how it will make Turkey more secure, as well as the 
rest of NATO.
    And we believe we are addressing those questions in full 
and substantive detail. We hope that the Turkish Government 
will feel it has enough information to make a decision very 
soon. I will be racing back to Ankara to try to find out more 
in regard to that.
    Senator Shaheen. Senator Menendez.
    Senator Menendez. Thank you, Madam Chairlady.
    Congratulations to both of you on your nominations.
    Ambassador Ricciardone, I enjoyed the last conversation we 
had, and I want to pursue some items that have developed since 
we spoke. One of them is with reference to Cyprus.
    As we know, the parties are engaged in pretty intense talks 
facilitated by the United Nations Secretary. I look at the 
developments, and what's happened with the military in Turkey, 
which has, in my view, been part of the challenge in getting to 
a solution in Cyprus. And I look at this new development and 
wonder how that affects the possibility of making real 
progress.
    On the flip side, I look at Prime Minister Erdogan's recent 
statements, which is to forget about what we were negotiating 
in the past. This is now a two-state solution, which is 
different than a bizonal, bicommunal federation, and urging 
Turkish Cypriots to multiply in greater numbers or expect to 
have more settlers from Anatolia. That doesn't seem to be in 
line with moving toward a solution.
    So can you give me an update on your perspective, since 
Turkey is a key player, as to whether or not we're going to be 
able to achieve a resolution to the division of Cyprus? Are 
those facts complicating opportunities? How do you see it?
    Ambassador Ricciardone. Senator, I wish I could do the 
diplomatic thing and say I am optimistic and there is progress, 
but I don't want to mislead.
    On the first part of your question, I don't believe the 
changes in the military leadership in Turkey will make any 
difference one way or the other in terms of the prospects for 
the solution we've been after for so long in Cyprus. I just 
don't think it is entirely germane. The military is not calling 
the shots on this policy of the government of Turkey.
    As to the Prime Minister's statements, I would rather not 
parse his statements and say anything here that makes it any 
harder than it already is for the United Nations Secretary 
General's Special Representative Downer. He has succeeded in 
getting President Christofias and the Turkish community leader, 
Eroglou, to commit to meeting with some frequency, I believe 
twice a week, from now into the fall to press, press, press, 
for the only shape of the solution that anyone has ever 
considered possible, certainly that we have, which is a 
bizonal, bicommunal federation. We continue to uphold that, 
support it.
    Again, the Secretary of State and Assistant Secretary 
Gordon raised this when they were in Istanbul with the Turkish 
leadership just a couple of weeks ago.
    Senator Menendez. But you really do not believe that 
Eroglou could make his own decisions notwithstanding what the 
Turkish Government's views are? Do you believe that he could 
make independent decisions notwithstanding what the Turkish 
Government believes?
    Ambassador Ricciardone. I think what the Turkish Government 
wants and believes is extremely salient.
    I would point out, though, and even since I have been back 
to Turkey this time, there have been some tensions in the 
relationship between the community in Northern Cyprus and 
Ankara that have come out; there have been protests, even, back 
and forth.
    So they identify themselves as Cypriots, from my 
understanding, Turkish Cypriots to be sure, but Cypriots. And 
that is a distinct identity.
    Beyond that, I wouldn't wish to comment or to hazard a 
guess as to how far Mr. Eroglou would go in making decisions 
that would be at variance from Ankara.
    Senator Menendez. Yes, I wasn't asking you so much about 
Eroglou as much as your assignment in Turkey, and its influence 
in this decisionmaking process.
    I have been following this for almost 20 years now, and it 
is clear to me that Turkey has a very significant influence on 
whether or not this issue is resolved in a way that it is 
acceptable both to Greek and Turkish Cypriots, as well as to 
the international community.
    And I just get a sense, based upon the Prime Minister's 
most recent statements, that it has become more, not less 
onerous, to try to achieve that goal.
    Let me turn to another issue, which I'm sure you will want 
to be diplomatic about, and that is the question of Turkey's 
relationship with Armenia. From your view, has the United 
States ever denied the fact that there was an Armenian 
genocide?
    Ambassador Ricciardone. I stand behind President Obama's 
characterization of the Yedz Meghern, as the Armenians 
themselves call it, the tragic massacre, murder of a million 
and a half men, women, and children marched to their deaths in 
1915.
    I stand behind our characterization of that, and our 
efforts of what we're trying to do now.
    Senator Menendez. Would you disagree with President Obama's 
statements as Senator Obama?
    Ambassador Ricciardone. I would not disagree with my 
President and his characterization of this, of course not.
    Senator Menendez. Would you disagree with Vice President 
Biden's characterization as Senator Biden?
    Ambassador Ricciardone. They are both now my superiors, and 
I certainly would not disagree with their comments, with 
their----
    Senator Menendez. Would you disagree with the Secretary of 
State's characterization of the Armenian genocide as Senator 
Clinton?
    Ambassador Ricciardone. I certainly would not disagree with 
my Secretary of State.
    Senator Menendez. You are wise beyond your years. 
[Laughter.]
    Each of these individuals, the President of the United 
States, the Vice President of the United States, and the 
Secretary of State, at the time they were Senators, 
acknowledged the fact of the Armenian genocide.
    And I appreciate, Ambassador, your responses, but here we 
are again, playing an incredibly difficult set of 
circumstances, where we have nominees to Armenia going to 
Armenian genocide commemorations and never being able to use 
the word genocide. We have our Ambassador to Turkey, which is 
an important party in trying to get beyond this and moving 
toward the future, but if you can't recognize the historical 
facts, you can't move forward.
    And we have our President, Vice President, and Secretary of 
State, all who very clearly as members of this body recognized 
that there was an Armenian genocide.
    It is very difficult to understand how we move forward in 
that respect, and a very difficult situation we put our 
diplomats in in that respect. But I appreciate your answers.
    And I have other questions, but I see Mr. Ford is coming 
back, I guess, at some point?
    Senator Shaheen. He will be here for the second panel.
    Senator Menendez. All right. Thank you, Madam Chair.
    Senator Shaheen. Senator Casey.
    Senator Casey. Thank you, Senator Shaheen.
    And I want to thank both of the nominees for your public 
service and for your testimony here today. I know that the time 
is short, and we are limited in the topics we can cover, but I 
do want to start with Ambassador Ricciardone, as we are going 
to be talking later at some length about Syria and the massacre 
that is going on there.
    It's been my sense, and I think it is a widely shared view, 
that over a number of years, if not for more than a generation, 
Turkey has been able to play significant role as a regional 
balancer of power. Turkey's influence in the region has been 
very constructive at times.
    And this is one of those times when the world needs the 
help that Turkey can provide as it relates to Syria. These acts 
of violence against the people of Syria are unacceptable. The 
Syrian regime no longer has legitimacy because of those acts of 
violence.
    I know that Prime Minister Erdogan has been pretty clear, 
and I think pretty strong, in his statements regarding what has 
been happening in Syria. But I would ask you to reflect upon 
and give us your sense of what Turkey's perspective is on this 
violence, what Turkey can do in the near term to put pressure 
on the Syrian regime, and how Turkey can be a constructive 
force within the region on this central question.
    Ambassador Ricciardone. Senator, thank you for that 
question.
    In fact, we have been engaged with Prime Minister Erdogan 
directly. I personally have taken a message to him from 
President Obama. The President has spoken with him personally. 
The Secretary did just a couple of weeks ago.
    He, President Gul, and the Foreign Minister have all had 
Syria very high on their scope, because, as they point out, as 
important as Egypt and Tunisia and Libya all are in their 
transitions, Turkey shares an 850-kilometer border with Syria.
    There are family relationships. There is an important 
trading relationship. Any instability in Syria could have 
direct security and economic repercussions on Turkey's vital 
national interests.
    As you pointed out, Senator, the Prime Minister back in 
June had spoken out against what he called the barbarity of the 
Fourth Brigade action against Jisr al-Shughour in northern 
Syria.
    Just yesterday, President Gul spoke, I think for all Turks, 
responding to the images on Turkish televisions of what was 
going on in Hama by saying that he was horrified and shocked. 
And he even noted that, if necessary, sanctions may be on the 
table.
    This was moving very forward. It's one thing when Western 
countries express our outrage and talk about these things, but 
when a neighbor as powerful as Turkey says these things, I have 
to hope that the Syrian Government will pay attention.
    I don't think I'd be betraying a confidence: I think the 
Prime Minister has made very clear in public a conversation 
with a Senate delegation just about a month ago where, among 
other times, we pressed to find out what the Turks were 
thinking, the Prime Minister.
    He made clear that he was very upset, worried, and 
concerned, but he believed that Turkey had to exhaust every 
other avenue to induce change and reform in Syria and get them 
to stop the violence against their own people, to listen to 
their people. He admitted that they had been trying hard, and 
they had not been very successful.
    The United States, we find ourselves in the same position. 
We've tried everything to encourage, press, pressure for 
reform. My colleague will speak to those efforts in a few 
minutes. And we heard President Gul yesterday expressing 
Turkey's sense that perhaps they had reached something like the 
end of that patience. We'll have to see.
    Senator Casey. I know there's more we could talk about with 
regard to Syria, but I wanted to move to the question of Iran. 
We know that the Iranian regime has been the subject of a broad 
array of sanctions during the past year, and that this has been 
a very positive step in the right direction.
    There's a lot of unanimity in the region, and well beyond 
the region, about sanctions against the Iranian regime. How do 
you think the Government of Turkey can become a constructive 
force in urging Turkish companies and other businesses in the 
region to comply with those Iranian sanctions?
    Ambassador Ricciardone. Thank you, Senator.
    The Turkish leadership at all levels, whenever we speak 
about Iran, are emphatic that they oppose any Iranian effort to 
acquire weapons of mass destruction. They point out that they'd 
be the first victims not only of such a special weapon but of a 
race for such weapons in the region, which they do not want to 
see Iran unleash.
    They assert that they are firmly enforcing United Nations 
Security Council sanctions, including under 1929, for which 
they didn't vote.
    Beyond that, we have asked for specific help. They say that 
the United States laws, specific U.S. sanctions, the CISADA, in 
particular, does not apply to Turkey. But they acknowledge that 
Turkish firms can be affected. And Turkish firms will have to 
make a choice under our law, as to whether to deal with America 
and American companies or Iranian ones.
    We've asked them to go beyond that and help publicize what 
that means in technical detail, and if banks or other companies 
want to do business with Iran, help them understand. We're 
putting out this information. We at the U.S. Embassy are glad 
to spread that information. And we asked Turkish regulators and 
government entities to point out and remind their companies the 
choices they're going to have to face, and make the information 
further available in Turkish to their companies. We're working 
with them.
    Senator Casey. Let me just say in conclusion, with regard 
to Cyprus, I'd associate myself with Senator Menendez's 
comments about that subject.
    And I know, Ambassador Eisen, we don't have time to ask you 
a question, but we'll submit something in writing. I think you 
are aware of the high regard I have for you as well. And we 
have a lot of mutual friends in Pennsylvania. Thank you.
    Ambassador Eisen. Thank you, Senator Casey.
    Senator Shaheen. Senator Coons.
    Senator Coons. Thank you, Madam Chairwoman.
    I want to thank Ambassadors Ricciardone, Eisen, and Ford 
for your service over the past year. I clarify that, in my 
view, you all three have served with distinction and advocate 
for your confirmation, so you can continue in the strong 
leadership roles.
    I won't stay for the second panel, so I wanted to 
particularly commend Ambassador Ford for demonstrating real 
leadership and resolve in the face of very difficult 
circumstances in Syria by both personally going to and meeting 
with demonstrators and protesters in some very difficult 
circumstances, and in advocating for our values and our 
interests as a nation.
    I hope it is clear that many in this body share Secretary 
Clinton's statement that President Assad has lost legitimacy to 
lead and very grave concern about the path forward in Syria.
    And as it relates to Turkey, I'm very concerned about 
recent events about what this weekend's resignation of military 
leadership really means, about the tension between the secular 
military traditions and foundations in the modern Turkish 
state, and the increasingly Islamist tendencies of some in the 
current administration. And I'm very concerned about Turkey's 
relationship with Israel.
    To Ambassador Ricciardone, you've chosen a particularly 
interesting post to return to, as the questions from other 
members of the panel suggested, whether it's the relations with 
Cyprus, with Greece, the ongoing challenges in Iran, in Syria, 
the relationship with Israel.
    There's plenty we could dedicate our time to, and I mean no 
disrespect to Ambassador Eisen, who serves with one of our 
closest and best allies, but Turkey presents a rich menu of 
potential questions to pursue.
    Your last comment there about the choice that Turkish 
companies must make between facing sanctions under CISADA is 
something I strongly support, and I appreciate Senator Casey, 
raising the issue.
    I think it is very critical that we engage Turkish 
business. So I'm grateful for your leadership in the U.S.-
Turkey Business Council in promoting entrepreneurship and 
opening United States markets. But I would also urge your 
aggressive engagement to the extent appropriate in clarifying 
our very strong concerns as a nation about Iran and its 
development.
    I was pleased to hear in response to previous questions 
your view that Prime Minister Erdogan is being engaged and 
effective in advocating for I think what is a very broadly 
shared multinational concern over the tragic events in Syria 
and over the, I would view it, as crimes against humanity by 
the Assad regime in murdering their own people.
    I also want to associate myself with Senator Menendez's 
questions about Cyprus and ask you two questions, if I could, 
briefly.
    The first would be, what have you been able to do in order 
to promote religious freedom? You referenced to meeting with 
His Holiness Bartholomew. What path forward do you think there 
might be for restoring the property and the Halki Theological 
Seminary? And what could we be doing to be a more effective 
partner with you in advocating for religious tolerance and 
openness in Turkish society?
    And then second, what's your assessment of the state of 
Turkish-Israeli relations? Turkey, for a very long time, was a 
vital ally of Israel, and it's my hope that the recent changes 
in military leadership may open a window for improved 
relations.
    I recognize this is a very difficult moment and getting 
past the difficulties of last year's flotilla incident are 
quite difficult.
    So given the limitations of your role as a diplomatic 
representative of the United States, I would welcome any 
insights you'd had for us in how we strengthen business ties 
and recognize that they are a wonderful ally in a conflict in 
Afghanistan and Iraq, and have stood by us in NATO and in many 
contexts, while pressing forward religious freedom and the 
importance of our strategic relationship with Israel.
    Ambassador Ricciardone. Senator, thank you for all those 
questions.
    Let me start with religious freedom first and then go on to 
Israel, and if you wish to pursue Cyprus and CISADA, we can do 
that as well.
    On religious freedom, I have raised this question with all 
the leaders I've been privileged to see, and I made it a point 
to call on the community leaders as well.
    I wanted the community leaders' perspective, not only on 
the property issues. And it's not only with the Greek Orthodox 
of course, the senior patriarchate, but also the Armenian 
community, the Syrians, have their own parallel sorts of 
issues, and I've gone into some detail with them.
    We've learned the legal questions. They all have legal 
cases at one level or another in the Turkish courts, which 
they're prepared to take on to international courts.
    I don't want to betray any of their confidences in these 
legal things, but they are encouraged by the first-ever 
contacts they're having with high leaders of the state, both 
substantive ones regarding their issues, and in things that 
really matter in that part of the world in particular, and that 
is honor and dignity and respect.
    The religious community leaders have had the first-ever 
visits by high officials of the state to them--not by 
themselves to the offices of the Prime Minister and the 
Governor, but Governors and the Prime Minister coming to them. 
That has not happened before, or in anyone's memory at least, 
in the modern history of the republic.
    When I've raised these with high officials of the state, 
they say, why should you be surprised? We are not afraid of 
religion.
    And very interestingly, they follow our debates about 
personal freedom and religious freedom. And they say, ``here's 
how you can understand this, American Ambassador. In your 
country, you have in recent years made a distinction between 
freedom of religion and the concept of freedom from religion. 
And for too long in our modern republic, we focused on 
preventing the intrusion of religion in our national life and 
political life. We're quite comfortable to be observant 
Muslims. Please don't call us Islamists, by the way,'' they 
tell us. ``But to the extent, someone is praying as a Christian 
or a Jew, it really doesn't bother us at all. Why should it? 
It's no threat to the state. On the contrary, we're rather 
proud of our diversity, and we're happy to have them do it.''
    ``As to the property issues, let us take a fresh look at 
this and make sure that they get justice.''
    I'm very hopeful. Again, I don't want to betray any 
confidences. I don't want to overpromise. But I dare be hopeful 
that Halki Seminary in particular will be resolved. It's His 
All Holiness's anniversary of ordination this year, his 40th 
year as a priest, and I know he would very much like to see 
that resolved this year. We would, too.
    On Israel, I can't speak for Israel--I've spent time there. 
I have Israeli friends. I don't claim expertise. But I feel 
very certain, having discussed this at length with the Prime 
Minister and the Foreign Minister, certainly the military 
leadership, that all these Turks, whatever their feelings, 
misgivings, and irritation over the terrible flotilla incident 
of last year and, over events in Gaza, they understand that to 
influence events in the region, to be part of a more peaceful 
and prosperous region, which is in their vital national 
interest, they need to have a normal, fruitful, respectful, and 
full diplomatic dialogue with Israel. And they want to get back 
to that.
    We've worked very much with both sides. We've reminded each 
side of the stake they have in the relationship with the other. 
And neither side really needs any reminding; they know the 
importance of it.
    The Secretary of State, again, has been working on this 
personally through her recent visit and otherwise.
    I dare to hope that Turkey and Israel will figure this out, 
and I certainly hope to see a Turkish Ambassador back in Tel 
Aviv very, very soon.
    Let me end there, if I may.
    Senator Coons. Thank you very much for your hard work, Mr. 
Ambassador. It's a vital strategic relationship, and I'm 
grateful for your advocacy on behalf of the people of the 
United States with the Republic of Turkey.
    Thank you, Madam Chair.
    Senator Shaheen. Thank you, Senator Coons.
    I have to go to preside over the Senate in just a few 
minutes, but I did want to raise one more question for 
Ambassador Eisen before I go.
    Critics of the Obama administration's reset policy with 
Russia have suggested that engagement with Russia would come at 
the expense of our allies in Central and Eastern Europe. I 
wonder if you could speak to the Czech Republic's view of the 
administration's reset efforts with Russia.
    Ambassador Eisen. I think that the Czech Republic has come 
to understand and appreciate the spirit of the reset with 
Russia and the benefits that that confers, not just for the 
United States-Russian relationship but in the region.
    Of course, the President has made Prague a centerpiece of 
these issues, going to Prague twice, including--I had the 
privilege to accompany him last year for the signing of the 
START Treaty with President Medvedev.
    I was very pleased. I think it is a token of the--and 
indeed, more than a token, a recognition of the importance of 
these issues that my Czech government colleagues affirmatively 
embrace the so-called Prague Agenda, and took the bull by the 
horns and scheduled a conference, an international conference, 
on the Prague Agenda not long after I arrived in the Czech 
Republic, to commemorate the 1-year anniversary and the 2-year 
anniversary of the President's speeches there.
    We had representatives from Russia, from the United States, 
and from around the world come, including Dr. Gary Samore from 
the White House, one of the principal advisers to the President 
on these matters, to think about what the long-term benefits 
can be for the region and for the world.
    So I think we've made good progress. I could give other 
examples, but I think we've made good progress on these 
grounds. It is important to have an Ambassador there to help 
convey communications in both directions on this subject and I 
am very pleased with where we are on the reset now.
    Senator Shaheen. Thank you very much.
    Senator Casey or Senator Coons, do either of you have any 
other questions for this panel?
    I have a few other questions that we will present in 
writing for each of you and the record will stay open until 
close of business on Friday for any further questions from 
members of the committee.
    So hearing no further questions, I will thank you both 
again for your service and your willingness to continue to do 
this, and hope we can get swift action from the Senate and 
close this hearing, and turn the gavel over to Senator Casey.
    Senator Casey [presiding]. We will start our second panel.
    And, Mr. Ford, I know that you gave an opening statement 

before I arrived here. I will present an opening statement, and 
then we can then go right to questions. Am I correct in saying 
that you did present?
    Ambassador Ford. Yes, Senator, that is correct.
    Senator Casey. I want to make sure. Thank you very much.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., 
                 U.S. SENATOR FROM PENNSYLVANIA

    Well, thank you, everyone, for being here. I know we're 
moving to our second panel on a very busy day, but I want to 
get right into these critically important issues.
    Over the past few days, scores have been killed in Hama, 
the same location of a devastating attack by government forces 
in 1982 which killed an estimated 10,000 Syrian civilians.
    Despite the sustained assault by government forces, Syrian 
activists continue to demonstrate in very large numbers, a 
testament to their courage, their cause, and their desire for 
the most basic elements of human rights and human dignity.
    The horror taking place in Syria today has led me, and I 
know many others in this body, the United States Senate, to be 
very clear about the conclusion that we've reached: This is a 
regime that is not capable of real reform. It has lost all 
legitimacy.
    We must be direct and, I believe, unequivocal in our 
message to the dictator of Damascus. Bashar al-Assad must step 
down. The Syrian people should not have to bear the brutality 
of this regime any longer.
    Let's not forget how these demonstrations in fact started. 
These demonstrations started with children.
    On March 6 of this year, the Syrian authorities arrested 15 
school children in the city of Dara for spray painting 
antigovernment slogans. These children were reportedly tortured 
while they were in custody.
    Their parents and members of the community demonstrated and 
called for their release. The police used force on the parents 
and community leaders and, within a week, had killed 55 people.
    Today, after months of courageous demonstrations--and, of 
course, that's a dramatic understatement, there is no other way 
to adequately convey the courage and the valor of these people.
    After all of the demonstrations, some estimates indicate 
that the death toll has reached as high as 2,000, and is at 
least more than 1,600. Some say, of course, that even 2,000 
would be too low an estimate. We don't know for sure. But it is 
unacceptable for us to stand by any longer and just watch this.
    The terrible reach of this regime has directly affected 
constituents in my home State of Pennsylvania. Dr. Hazem Hallak 
is a naturalized American citizen from Syria and a respected 
oncology researcher who lives in Merion Park, PA, just outside 
of Philadelphia.
    In May, his brother Sakher, who was also a doctor, visited 
the United States to attend a medical conference. Upon his 
return to Syria, Sakher went missing. His wife contacted the 
authorities, who confirmed that he was in their custody but 
would be released shortly.
    The next day, Sakher's wife and daughter were interviewed 
by the authorities who again confirmed that he would be 
released. Two days later, his body was discovered in a village 
20 miles south of Aleppo.
    The authorities then denied that he was ever in their 
custody and claimed that they found his body in a ditch by the 
side of the road. Sakher's body was subjected to brutal 
torture. His bones were broken and his body was mutilated in 
unspeakable ways.
    Sakher was not a political activist. He was not involved in 
the demonstrations. His sole offense appears to have been his 
trip to the medical conference and his visit with his brother 
in the United States of America.
    We honor Sakher's memory, and the memories of hundreds of 
others, by calling for democratic change in Syria.
    We know that our allies across the Arab League and in 
Turkey, as I raised during the first panel, have a unique and 
critical role to play here in pressure the Assad regime.
    These countries have economic and diplomatic ties with 
Syria that the United States does not have. I support their 
efforts to leverage these relationships for a comprehensive 
regional approach to this crisis, and I applaud our allies who 
have already rejected the Assad regime.
    In addition to strong messages from Washington and a 
concerted diplomatic push, more can be done to pressure Syria 
at international bodies. We need to maintain pressure on Syria 
at the United Nations Human Rights Council. We should also 
continue to pursue a resolution at the U.N. Security Council, 
condemning the Syrian Government's behavior.
    On Monday of this week, Germany called for a Security 
Council meeting on Syria, which I hope will result in a strong 
resolution. Though some Security Council members remain 
resistant, especially in the wake of recent violence, it is 
unacceptable for the United Nations to continue ignoring the 
courage of the Syrian people and the carnage brought about by 
the Syrian regime.
    We must also continue to pursue efforts to constrict the 
ability of this regime to conduct business abroad.
    I welcome the new European Union sanctions on Syria 
announced this week, which imposed asset freezes and travel 
bans on five more military and government officials. We must 
also be willing to examine expanded sanctions on the banking 
and energy sectors.
    I also want to applaud the courageous work done by our 
diplomats in Damascus, led by Robert Ford, who is with us 
today.
    Ambassador Ford's recent trip to Hama was a testament to 
his commitment to representing the interests and the values of 
the United States. Due to the draconian measures imposed on the 
media by the Assad regime, Ambassador Ford has been one of the 
few people who has traveled within Syria and borne witness to 
the truth of the terrible crimes taking place across that 
country.
    President Obama was right to send Ambassador Ford to Syria 
last year. I look forward to supporting his confirmation when 
it comes before the full Senate.
    Mr. Ford has shown that an American Ambassador is not a 
gift to host countries, but a representative who will actively 
pursue American interests and American values. The most basic 
American value, the right to democratic representation, is at 
stake in Syria.
    And I know that Ambassador Ford has been a stalwart 
advocate for this principle of democratic representation while 
he has served in Damascus.
    Ambassador Ford, welcome back to the Senate Foreign 
Relations Committee. I know this is your second welcome today, 
but I thank you for your decades of service and the remarkable 
efforts that you and your team have undertaken in Damascus. And 
I look forward to the answers you'll provide to our questions.
    I wanted to open up by asking for your assessment of the 
violence, and anything you can tell us about the opposition. I 
would also like to hear your opinion of how the United States 
Congress can be most effective and most helpful.
    Ambassador Ford. Thank you very much, Senator. It's nice to 
see you again.
    Senator Casey. Thank you.
    Ambassador Ford. First if I may, I am very fortunate to 
work with a small but very dedicated team at the U.S. Embassy 
in Damascus, both Americans and Syrians, and one of my team is 
here. She actually interrupted her vacation to help me during 
these few days of meetings I have in Washington. So I'd like to 
introduce Joanne Cummings, who is wearing red.
    Joanne works on economic and political issues in Damascus. 
She lives in Damascus without her husband, who was evacuated 
because of the deteriorating security situation. All of our 
American staff there live without their families, and it's a 
really super team, and it is a team effort.
    Senator Casey. Thank you as well on our behalf.
    Ambassador Ford. Senator, with respect to the violence, 
it's getting worse. The Syrian Government's constant brutality, 
its refusal to allow peaceful marches, its insistence on 
widespread arrest campaigns, and its atrocious torture--the 
reports you read about the detention conditions are just 
ghastly. They are, in turn, fostering more violence.
    We saw that in the third-largest city of the country, Homs, 
2 weeks ago. We're seeing at this weekend too, I think.
    But I want to be clear, I visited Jisr al-Shughour on a 
government-sponsored trip in June. I heard what they said, and 
I wandered away from the crowd and talked to some other people. 
And it's very clear what happened up there.
    There was a peaceful protest on a Friday. Syrian security 
forces shot some of the protesters. At the funeral on Saturday, 
the next day, the people got quite emotional because they had 
lost loved ones, and they then attacked and killed a lot of 
Syrian security people.
    That paradigm, that cycle, is repeated over and over again. 
The cycle starts with Syrian Government violence against 
peaceful protest.
    We need to be very clear. The Syrian Government was saying 
there are armed groups up in Hama. I went there. I didn't see a 
single gun. The most dangerous weapon I saw was a slingshot.
    We need to be clear about what the nature of the violence 
is and where it comes from. The responsibility lies with 
President Assad and his government.
    And let me again reiterate the call by the President on 
July 31, the Secretary yesterday, the Syrian Government needs 
to stop that slaughter.
    Would you like me to discuss briefly, Senator, the 
opposition?
    Senator Casey. Yes, thank you.
    Ambassador Ford. I spent a fair amount of my time getting 
to know them inside Syria. The Secretary today met a group of 
Syrian opposition members that are living outside Syria, and I 
was able to join that meeting as well.
    A couple of things I would say about them. It's a diverse 
group. They're not very well-organized. That is not surprising.
    The Syrian Government for decades would not allow any 
opposition party to exist, much less meet and much less 
organize. They are trying to do that now. Very frankly, they 
have a long way to go.
    It is important for the Syrian opposition to develop their 
ideas, Syrian ideas, about how the democratic transition in 
Syria, which we think is underway. I mean, the street protests, 
as I said in my opening statement, are growing.
    The democratic transition is underway. The Syrian 
opposition needs to identify how that transition should 
proceed. That should not be an American responsibility. This is 
a Syrian issue that Syrians should decide.
    How about if I hold there, Senator?
    Senator Casey. Thank you very much.
    I know that Americans are outraged by this violence but 
when you open up the newspaper day after day, you see 
instability and change in a lot of places in the Middle East. 
In this context, the level of outrage toward the Syrian regime 
might be more muted.
    The Middle East is always a volatile region. You know 
better than I, but lately it's been that much more difficult. 
So I think it's difficult sometimes for many Americans to 
sustain their focus.
    But it's my opinion that not only should Mr. Assad step 
down, but he should stop trying to deliberately mislead the 
world. His forces engage in acts of violence which are always 
followed by fraudulent promises of reform, and then this cycle 
is repeated.
    I know that part of the impediment here is developing a 
broad enough coalition of nations and governments to support 
us, and I know that we're trying to get an even broader 
coalition. And one of the challenges we have is engaging Russia 
and China. And they are two of the most vocal opponents. I 
don't know why. I can't understand it. I don't agree with it, 
but we have to acknowledge it. They're two of the most vocal 
opponents against any kind of resolution in the Security 
Council.
    What can you tell us about efforts to engage there, and 
what the latest is?
    Ambassador Ford. Senator, there have been intense 
discussions today up in New York, again, about some kind of 
U.N. Security Council action. My understanding from colleagues 
up in New York a couple of hours ago was that the most recent 
Syrian Government repressive measures in places like d'Azur out 
in the east and in Hama in the West have had an impact, and 
that the members of the Security Council who had opposed 
Security Council action are potentially now more open to some 
kind of action.
    Discussions are underway. My understanding is, even as we 
speak here, we think it is important, I want to underline this, 
we think it is important that the United Nations Security 
Council take action. We think it is important that the 
international community recognize the courage and the efforts 
of the Syrian people to effect change, to push for freedom and 
dignity, and that the international community should support 
them.
    Senator Casey. I mentioned that sometimes it's hard for 
Americans to sustain a focus on violence, even violence at this 
level of brutality, because of the confluence of several events 
that interfere or prevent our focus from being intensified. One 
of the challenges we face with Syria is a lack of information 
because of the Syrian Government's ability to censor or limit 
information.
    I spoke earlier of the estimates of the number killed, 
which we're never sure is accurate. You obviously have concerns 
about this but let me ask you, are there ways that we can 
circumvent the censors that are in place now, or limit the 
ability of the Syrian Government to prevent the free flow of 
information?
    Ambassador Ford. Senator, one of the big topics that I've 
had in my discussions with officials of the Syrian Government 
over the last several months is the importance of allowing in 
international media. I do not know how many times I have raised 
that with the Foreign Minister, with the Vice Foreign Minister, 
with close advisers to President Assad himself.
    The Syrians have a refrain, which I hear all the time, 
which is media coverage is unfair, to which I have told them, 
well, then you need to have the media come in and look at it 
and let them draw their own judgment.
    I will say that after my last conversations about that, CNN 
was invited in. National Public Radio, Deb Amos, was invited 
in. And we got a couple of British news agencies in.
    They were still kind of tracked and monitored in the 
country. They didn't have nearly the kind of freedom that I 
would have liked to see, that we would have liked to have seen. 
And I think NPR just got back in again.
    But you're right that the censorship is a huge problem. And 
one of the reasons that I have moved around the country is to 
get a sense myself of what's going on.
    It's terribly frustrating to not really understand. I mean, 
you can watch YouTube videos, but there is a certain utility to 
having your own eyes to see things.
    I have been encouraging my colleague Ambassadors in 
Damascus to get out of Damascus and to visit parts of the 
country. Some are quite active, the French Ambassador, for 
example.
    And I think we then also need to help the Syrian people 
themselves, the activists, learn how to make the best use of 
technologies, so that they too can use the Internet to get the 
word out. And I have to say they're quite ingenious doing this.
    In fact, colleagues of mine at the Embassy tell me that the 
Syrians understand a lot of the Internet G-chat and such things 
better than some of us do. So there's a lot of ingenuity there, 
Senator.
    But the fundamental problem is that the Syrian Government 
will not allow the free flow of information, and that should 
stop.
    Senator Casey. Well, that's one of the ways I would make a 
determination about the regime's legitimacy. That's one of the 
measurements. If you're not allowing the free flow of 
information, I think that, at a minimum, questions arise about 
the implications of that.
    I wanted to return to our earlier discussion about the 
opposition. I know this is difficult to do, especially 
considering that you're in the vortex of this, much more so 
than I am or people here in Washington.
    But to the extent that you can step back a little bit and 
provide a perspective based upon recent events, one of the most 
significant factors in how the transition took place in Egypt, 
in my opinion, was the fact that the military showed some 
measure of forbearance.
    And there were a number of people in the ruling elite who 
also showed some forbearance, or at least were measured in the 
way they responded. And that allowed a kind of transition 
which, compared to some other places, we might now be hoping 
would replicate itself.
    In Syria, is there any element within the government at a 
high level or within senior leadership of the military, where 
you see some even unrealized potential for forbearance? Someone 
at the top, in essence, saying, this has gone too far, we've 
got to at least stop and pause, and recognize a certain 
boundary? I'm not expecting anyone at the highest levels to 
agree with me about Mr. Assad's stepping down.
    But is there any potential for someone to, at the highest 
level of civilian or military leadership, to show that kind of 
forbearance in the near term?
    Ambassador Ford. Senator, I'm going to be very frank. I 
have heard from a number of officials in Damascus messages of 
good intent.
    I have to tell you that what matters is change on the 
ground, an end to the shooting of peaceful protesters, an end 
to these sweeps where hundreds of young people are rounded up 
without any kind of judicial process and held for months, often 
in barbaric conditions, the release of political prisoners. 
There are still political prisoners not been released. Change 
on the ground.
    And I have listened to these messages of good intent, and 
when I come back to them and say, what about changing this and 
changing this today or tomorrow, I don't get much back.
    A few things here and there, Senator, but not very much. 
And our conclusion is that this regime is unwilling or unable 
to lead the democratic transition that the Syrian people are 
demanding now.
    And in a sense, unwilling or unable doesn't really matter, 
because what we are interested in, what the Syrian people are 
interested in, what the international community is interest in, 
is that change on the ground, the positive change on the 
ground.
    And the incidents just over the past few days, leading up 
to Ramadan and then since the start of the month, show that 
there is no positive change on the ground.
    Senator Casey. I was afraid your answer would be very much 
the way you just articulated. And I think if anything, that 
testimony should be ``exhibit A'' as to why we've got to 
maintain pressure and think of other ways to impose even 
greater pressure on the Syrian regime by developing and 
strengthening alliances through engagement and through efforts 
in the way of sanctions or other pressure.
    Because my sense, and I think you just confirmed it, is 
that this not a regime that's going to get tired of doing this, 
unless there is a countervailing force that is pushing for 
change.
    I want to explore some of those other pressure points. 
There are some commentators, some with a significant degree of 
experience, who think that we should be turning up more 
pressure and imposing more economic pressure by way of the 
energy sector.
    I wanted to get your thoughts on that as another possible 
approach here.
    Ambassador Ford. Senator, it's an excellent question.
    On the energy sector, we have for years had sanctions 
against American companies doing business there. And so 
unilaterally, additional American measures, unilaterally, 
probably are not going to have that big of an impact.
    The big companies that are working in the Syrian energy, 
petroleum oil and gas sector in Syria right now, are mostly 
European and Canadian. And so we would look to find ways to 
work with our partners to enhance those sanctions. And frankly, 
we have had discussions about that and that's underway.
    European and Canadians, too, are watching what's going on 
in Syria, and I think the Syrian Government's latest actions 
will help trigger action, frankly speaking.
    Senator Casey. Often a lot of what drives fervor for change 
is rooted as much in economics as it is in anything else. How 
would you assess the Syrian economy prior the beginning of this 
year versus the way it looks now in terms of its significance 
as an issue in this conflict?
    Ambassador Ford. The violence and the unrest in Syria, the 
lack of stability, is really hurting the Syrian economy. It 
started off slow, but it is snowballing.
    Let me give you just a couple of examples. Tourism 
represented a growing part of the economy. The tourism sector 
is completely dead. The hotels in places like Aleppo and 
Damascus, which normally would have occupancy rates of 80 to 90 
percent, are down to 0 to 10 percent right now. Hotels are 
laying off staff.
    The country is draining slowly but steadily its foreign 
exchange reserves. Business throughout the economy has slowed 
dramatically, whether it be production of pharmaceuticals or 
textiles, whatever it is.
    The demand among Syrian consumers has dropped off the 
table. People, in a sense, are afraid to buy because the times 
are so unsettled.
    And so companies are really hurting. Banks are also 
hurting. Joanne just did a very good assessment of the 
financial sector in the way it is suffering because of the 
current situation.
    One of the things that we're trying to do, Senator, and 
this is I think quite important--Joanne and I both worked in 
Iraq. We do not want our sanctions to devastate the broader 
Syrian economy, because in the period after Assad, it will be 
important for Syria to be a strong country, and a strong 
economy will be part of that. So we have really worked in the 
United States Government and with our partners abroad to target 
sanctions against specific companies and against specific 
individuals that are involved in the repression, without 
targeting the broader Syrian economy and making the people of 
Syria suffer.
    It is a different kind of sanction regime from what we have 
in Iraq, say. It's much more specifically targeted with the 
goal of sparing the Syrian people themselves great suffering.
    Senator Casey. And I know that's always the challenge, to 
make such sanctions targeted enough and impactful enough on the 
regime.
    As often happens in these situations, we've seen an out-
migration, in this case, most of it or the majority of folks 
fleeing northwestern Syria into Turkey.
    Can you give us any report on that? And a related question, 
obviously, maybe the bigger question is, how do you assess the 
role played by the Turkish Government? What role can the 
Turkish Government play in creating more pressure and more 
impact on the Syrian regime?
    Ambassador Ford. First, Senator, may I just follow up on a 
little part on that, the economic sanctions you mentioned----
    Senator Casey. Sure.
    Ambassador Ford [continuing]. And the challenge of getting 
targeting that works and has an impact?
    We really do spend a lot of time on this, and let me just 
give you a couple of success stories that may not have made the 
news here.
    One of President Assad's cousins is named Rami Makhlouf. He 
is very well known in Syria. He is probably the richest man in 
Syria. He's a very, shall I say, unscrupulous businessman.
    And we have targeted him very specifically as well as his 
companies because we know he helps finance the regime.
    He applied for citizenship to Cyprus. He didn't get it, 
because working with the E.U., we made sure that he couldn't 
get to Cyprus and he couldn't get Cyprian citizenship.
    That's strike one against him. Strike two, one of his 
biggest companies is called Cham Holding, so we targeted that 
specifically. It had a board of directors. We went after a 
couple of them specifically.
    Their board members' term expired at the end of April, and 
they were too afraid to have another board meeting. So they 
finally, the government insisted that businessmen come together 
and have a board meeting in July, and all they were able to do 
was come up with half of a board and one vice chairman. No one 
would agree to even be the chairman of Cham Holding.
    So the sanctions do bite, maybe not in ways that are always 
on the headlines. But what we do see is more and more business 
people, and especially Sunni business people, which is an 
important pillar of the regime's support, we do see them slowly 
but surely shifting sides, and that's important.
    So I do think our sanctions are having an impact.
    With respect then, Senator, to your question about refugees 
going into Turkey and the Turkish role more generally, a couple 
of things I would say.
    First, we appreciate that the Turks did offer refuge to 
people fleeing the Government of Syria campaigns in 
northwestern Syria. People fled in the thousands--we estimate 
somewhere around 12,000--fled mainly because they were 
terrified of army and Syrian intelligence service retaliation 
against them. The army and especially--especially--the 
intelligence service have a fearsome reputation, and we have 
seen plenty of videos on Arabic satellite TV of how they beat 
and torture people, and some of them quite gruesome.
    So people fled in real fear. That's what happened in Jisr 
al-Shughour, the town I visited up in the north in June.
    So we appreciate the role that the Turks have played. My 
understanding now is that some refugees who went to Turkey are 
beginning to trickle back into Syria. They think that they will 
be safe.
    The Syrian Red Crescent has extended promises that they 
will watch over people coming back, that there's not 
mistreatment. I think most of the refugees are still in Turkey; 
somewhere around 8,000 are still there. So plenty of people are 
still afraid and don't trust their own government in Syria.
    But the Turkish role in this has been, I think, very good, 
and we appreciate it.
    With respect, Senator, to your question more broadly about 
what can Turkey do, I think Turkey has a very, very important 
role. And I'm often in touch with my colleague Ambassador 
Ricciardone up in Ankara.
    The Turks have a very deep commercial relationship that 
they have been building up for years. They had personal 
relations between the Turkish leadership and the Syrian 
leadership that they had consciously fostered. They wanted to 
build influence.
    I think it is fair to say that the Turks--even yesterday, 
President Gul was very critical of the latest Syrian measures.
    The Turks have perhaps a unique capability, both to talk to 
the Syrians on several levels, because over the years they've 
built those contacts, and also were they to adopt sanctions, 
for example, I think those, too, would bite.
    Senator Casey. Well, that's something I hope we can 
continue to foster, because that kind of help in the region 
could be very significant.
    I was in the region last in July of 2010, and our second to 
last stop was in Beirut in Lebanon. And I could sense, almost 
feel, the heavy presence of Hezbollah in Lebanon. And I wanted 
to get your sense about the implications of the unrest and the 
violence in Syria for Lebanon. How has Hezbollah responded to 
that?
    Ambassador Ford. Senator, when I appeared before the 
Foreign Relations Committee in March 2010, we spoke a long time 
about Hezbollah in that hearing, I recall.
    We have a real opportunity with change in Syria to see both 
Iranian influence and Hezbollah influence in the region 
diminish. That would be a real gain for us.
    It would also be a real gain for the Syrian people, since 
the Iranians are helping right now with the repression in 
Syria.
    With respect to Hezbollah specifically, the Syrian support 
to Hezbollah has continued. It has not stopped. At the same 
time, I think the leadership of Hezbollah at first was very 
outspoken in its support of the Syrian Government. More 
recently, they have been quiet. And my sense is that they have 
seen enough Hezbollah flags burned in Syrian protests, 
especially in places like d'Azur and Hama and Daraa, that they 
realized that their support for the Syrian Government is not 
garnering them any long-term friendship with the Syrian people.
    Senator Casey. And can you explain that? Just walk through 
that in terms of the----
    Ambassador Ford. The protesters, and I think Syrians more 
generally, understand that Iran and Hezbollah are supporting 
Syrian Government repression against them.
    Senator Casey. And I know that when you were getting out of 
Damascus, and I think with a lot of valor and a lot of 
commitment, to bear witness to the truth it had to be in some 
ways harrowing.
    But what did you draw from it mostly? I mean, I know you 
saw a lot, and you had a better sense of what was happening, as 
you said, on the ground. But what did you draw from it, other 
than what has to be the remarkable inspiration provided by 
these brave people? What else can you tell us about that 
journey you took?
    Ambassador Ford. It was a fascinating experience, Senator. 
I've had a lot of interesting trips during my time in the Peace 
Corps, and then in the Foreign Service. But that one would rank 
up near the top.
    I came away with a couple of conclusions, which I shared 
with the Department of State and also with the media.
    First of all, the protesters there are peaceful. As I think 
I mentioned, the one weapon I saw was a slingshot. These are 
not gunmen.
    When we came up to the first checkpoint, very frankly, the 
local's checkpoint, not a government checkpoint, we weren't 
sure they were going to be armed or not, and we were a little 
nervous.
    But the second point I came with was, they are not against 
foreigners. We told them we were American diplomats. They said, 
oh, America, great, go ahead, please pass, you know, whatever.
    We got kind of lost in Hama. We should have had a map, but 
we didn't. So we had to stop and ask for directions, and they 
actually got in the car and took us to where we wanted to go. 
They were very nice, invited us to lunch, et cetera.
    They're not anti-American at all. In fact, I think they 
appreciated the attention that the United States showed to 
their cause, and that they were peaceful.
    When they asked who I was, and I said I'm the American 
Ambassador, several of them said, oh, come on, who are you 
really?
    So they didn't believe me until I gave them some business 
cards.
    And the third thing I came away with, Senator, is their 
incredible commitment. And I get that whenever I meet 
opposition people in any city in Syria. The commitment they 
have to change and to freedom and to dignity, they are not 
going to stop. They underline that over and over, and we have 
seen that.
    We were talking about Egypt a little while ago. Roughly 900 
Egyptians died in the first phase of that Egyptian revolution 
out of a country of 80 million people. Syria has only 23 
million people, and nearly 2,000 have died. So the scale of 
killing in Syria is way beyond what it was in Egypt.
    But the people in Hama and elsewhere are quite committed to 
change. And I don't think they're going to stop.
    And so I think we owe it to them to remain supportive and 
to try to build that support wisely, carefully, but to build 
that support.
    Senator Casey. And I know we have to wrap up, and we've 
covered a good bit, not nearly enough.
    And I'm sure I'll have questions for the record. We'll try 
not to overload you with too many written questions. You've got 
work to do, and we don't want to burden you with that. But I'll 
leave the record open until Friday for other members to submit 
questions or for witnesses to amplify their testimony or their 
responses.
    I'll ask in conclusion one broad question, but I think an 
important one. I think I know what your message to the American 
people is about solidarity and about focus on this horror that 
we're seeing. But what specifically would you or the 
administration hope that the Congress would do by way of 
action--legislative or otherwise--that would be constructive in 
helping, not just show solidarity, but to continue the focus 
that should be brought to bear on what these brave citizens of 
Syria are trying to accomplish?
    Ambassador Ford. Senator, I've been working in the Middle 
East since 1980, when I went out as a Peace Corps Volunteer, 
and I really liked the President's speech on the Arab spring, 
the speech that he gave on May 19th, because I think he laid 
out for the American people why change in the Arab world 
matters for us and what it means for our own national security.
    And the point that the President stressed that I really 
appreciated was that the democratic transitions underway from 
Morocco to the Persian Gulf do matter to us. We have big 
interest in that part of the world. And it can be positive 
change, and we should be supporting democratic transitions 
throughout the region.
    And there may be times when our assistance is needed 
directly and our assistance is only needed indirectly, but we 
should look to be supportive.
    What I would hope from the Congress is that it works with 
the administration to make sure that resources are available 
when we need them to support those transitions.
    I'm going to be very frank again, Senator, if you don't 
mind. I was in Algeria during the civil war there in the mid 
1990s. There was a very brave Algerian opposition at the time, 
and we had nothing really that we could offer them. There was 
no access to the Democratic Institute and the kinds of programs 
they do, or the Republican Institute.
    Those kinds of programs actually do matter a lot, and we 
work with civil society and we work with political parties. 
Those programs do help, and we have clawed and scratched for 
gains in places like Iraq, and the resources that we commit 
help.
    It's still up to the local people, whether it be in Iraq, 
or Syria, or Egypt, or whatever, but we can help. And I hope 
we, the American people, will understand the value to our 
national security of supporting those democratic transitions.
    Senator Casey. We want to thank you for your testimony, and 
express our gratitude and commendation on a much larger scale 
for your commitment on the ground, which is a noteworthy and 
very significant act of public service.
    We appreciate that, and we'll work with you. And I know 
that's a bipartisan sentiment in a town bipartisanship is all 
too rare.
    Ambassador, thank you very much for your testimony, and 
we're adjourned.
    Ambassador Ford. Thank you, Senator.
    [Whereupon, at 4:41 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


           Responses of Robert Ford to Questions Submitted by
                         the Following Senators

              questions submitted by senator john f. kerry
    Question. What is the practical impact of the U.N. Security Council 
decision to condemn ``widespread violations of human rights and the use 
of force against civilians by the Syrian authorities?'' The Security 
Council also called on the Syrian authorities to allow aid agencies, 
which have been prevented from entering the country, ``unhindered 
access'' for humanitarian relief. How should the United States respond 
if the Syrian Government ignores this edict?

    Answer. We assess that any U.N. Security Council action condemning 
the Syrian authorities' widespread and gross violations of human rights 
would have a practical impact with the regime as well as the opposition 
in Syria. We cannot overstate the importance of international 
solidarity to isolate the Assad regime and signal global support for 
the Syrian people. Human rights activists and oppositionists often tell 
us that many Syrians are looking for a unified international response. 
While the UNSC Presidential Statement was helpful, we believe a U.N. 
Security Council resolution will go further to increase domestic and 
international pressure on the regime to cease its security crackdown 
and take steps such as allowing humanitarian aid agencies into Syria. I 
believe the United States should continue to pressure the regime in 
various and creative ways to impact the regime's inner coterie and 
undermine the regime's remaining pillars of support inside Syria. Of 
course, we must be careful to do this in such a way so that our actions 
have minimal effects on the Syrian public--we are targeting the Assad 
regime, not the Syrian people.

    Question. What steps can the international community take to put 
further pressure on the Assad regime to refrain from using violence 
against its own population? What role do you see for the United States 
and specifically the U.S. mission in Syria in such an initiative?

    Answer. We believe that action taken by the United Nations Security 
Council may be an important factor that can impact the regime's 
calculus on using violence. The United States continues to lead the 
international community and work multilaterally to highlight the 
regime's brutality and unremitting human rights violations in order to 
force the Assad regime to step aside. We also will look for ways to 
increase bilateral pressure through our bilateral sanctions.
    In this regard, regional outreach is critical. I meet regularly 
with the ambassadors from other key nations, either to influence their 
assessments and strategies or, if we are in agreement, to coordinate 
our approaches. It is also important for the U.S. Government to work in 
concert with our allies in order for targeted sanctions to have greater 
effect. I do much of this coordination in Damascus. Given that most 
Syrian officials have far more assets in the EU, Turkey, and the Arab 
Gulf than they do in the United States, working with our allies is 
critical for sanctions' success. If confirmed, I will continue to work 
with our EU allies and partners in the region to do everything possible 
to bring an immediate end to the brutal violence the Assad regime is 
perpetrating against peaceful protesters.
    Furthermore, the staff members of the U.S. Embassy in Damascus 
continue to meet with activists, observers, and oppositionists in 
support of a peaceful transition to a pluralistic and inclusive 
democracy. We will also speak out publicly, whether directly to the 
Arabic media or through the Embassy Facebook site.

    Question. How effective have the intensification of sanctions been 
in the course of the last few months, particularly those that target 
individuals within the al-Assad regime? What, if anything, can be done 
to render them more effective?

    Answer. The effects of our sanctions will become more apparent as 
time goes on. We have begun to see prominent business figures and 
regime supporters express concern over sanctions. We believe the 
targeted nature of the sanctions will allow many regime supporters to 
rethink their support of the ongoing brutality. We will continue to 
reach out to all possible partners and work with our allies on targeted 
sanctions and diplomatic measures at the U.N. to increase pressure on 
the Assad regime and press for the space for a Syrian-led democratic 
transition. I meet regularly with the ambassadors from other key states 
either to influence their assessments and strategies or, if we are in 
agreement, to coordinate our approaches. The more countries 
implementing such targeted sanctions, the more effective the sanctions 
will be. If confirmed I will make the sanctions as effective as 
possible.

    Question. Which international actors do you see as having the most 
leverage over the Assad regime? How can the United States work with 
them to try to broker an end to the violence? How is the ongoing 
violence affecting Syria's relationships with other governments in the 
region?

    Answer. The Assad regime has shown its willingness to turn on its 
allies in the face of criticism; the most obvious example is that of 
Turkey. However, we still assess that the Turkish Government does have 
leverage over the Assad regime and is greatly respected by the Syrian 
street as well. Unfortunately, the regime has not listened thus far to 
calls by the Turkish leadership for the Assad regime to stop its brutal 
crackdown. The Arab League and Saudi Arabia in particular should also 
be able to leverage their regional and cultural ties to help pressure 
the Assad regime, especially by influence regime supporters over whom 
they yield influence. We are in consistent contact with the Arab 
League, EU nations, and the rest of the international community, and at 
the ambassadorial level we often meet to discuss how to better 
coordinate our efforts. I believe that the ongoing violence is 
alienating Syria's relationship with other governments. With the 
exception of Iran, we are seeing many more in the international 
community voice increasing frustration with the regime's brutality .

    Question. In October, 2010, Issa Al-Aweel was arrested in Syria. A 
Christian born in Latakia, Al Aweel is a U.S. Green Card holder with 
Syrian citizenship and a Massachusetts resident. It is my understanding 
that, since his arrest, Mr. Al Aweel has been held in prolonged 
detention without a hearing.

  <bullet> Please update the committee on Mr. Al Aweel's status and 
        whereabouts. What steps are being taken to secure his release 
        and safe passage home to Boston?

    Answer. Because Mr. Al Aweel is not a U.S. citizen, the Vienna 
Convention on Consular Relations does not require the Government of 
Syria to provide notification to the United States of his arrest nor 
provide access to him while he is detained. The Embassy's 
understanding, based upon discussions with the family, is that Mr. Al 
Aweel may have been detained shortly after his arrival in Syria in 
relation to the Syrian requirement that male Syrian citizens over the 
age of 18 complete compulsory military service. The U.S. Embassy 
provided Mr. Al Aweel's family with a list of private attorneys who 
might be able to provide legal assistance to Mr. Al Aweel. The Embassy 
also advised the family that they may wish to contact the Syrian 
Embassy in Washington, DC, directly, since Mr. Al Aweel is a Syrian 
citizen. The U.S. Embassy offered to maintain contact with whichever 
attorney they selected. The U.S. Embassy has not heard yet from the 
family concerning any additional steps they may have taken concerning 
Mr. Al Aweel, and stands ready to provide whatever limited assistance 
is possible.

    Question. How has the United States reached out to countries 
hosting refugees fleeing the conflict in Syria? How has the United 
States ensured that refugees and asylees are well-treated and what 
humanitarian aid has been provided?

    Answer. The brutal actions of the Syrian Government produced an 
international crisis which has resulted in significant refugee flows 
and threatened regional stability. This crisis requires a unified 
response from the international community condemning the atrocities 
taking place and calling for an end to the violence. We stand ready to 
provide assistance to nations hosting Syrian refugees, as required. 
Embassy Damascus is in constant contact with UNHCR and UNRWA, and our 
Embassies in Lebanon, Jordan, and Turkey are in touch with the 
respective governments hosting refugees. We have offered our assistance 
to the Turkish Government to provide humanitarian aid to the thousands 
of Syrian refugees in Turkey. To date, the Turkish Government has 
informed us that they are able to handle the situation themselves, but 
they are aware that we stand ready to help. Furthermore, we have 
encouraged the Government of Lebanon to protect Syrian refugees that 
have fled into Lebanon and avoid taking positions that would align 
themselves with the Assad's regime and its ongoing crackdown.

    Question. I am a strong supporter of your candidacy to be 
Ambassador to Syria. I believe that your visit on July 7 to Hama was an 
important demonstration of United States support for the Syrian people 
and likely saved Syrian lives. I invite you to explain why it is 
important for the United States to have an ambassador in a country in 
which a government is cracking down on its people so brutally. How do 
you respond to those who say we should recall our Ambassador?

    Answer. It is a privilege for me and my team to serve in Syria. I 
see it as an integral part of my mission to give the Syrian people an 
ear and a voice. My presence is one of the most effective tools of 
pressure we have on the Syrian Government. I convey our tough messages 
to the Assad regime and am also in constant contact with the Syrian 
opposition. If confirmed, I would continue to fulfill these roles for 
as long as necessary .
    By maintaining a high-level presence we are able to support the 
demands of the Syrian people and promote respect for their basic human 
dignity. As I mentioned in my prepared statement, my presence helps 
draw attention to the legitimate grievances of the peaceful protestors 
so that the international community and, more importantly, the Syrian 
regime pays attention. The Syrian people want to be heard. My visit to 
Hama showed that a high-ranking U.S. official can help them be heard.
    Regional outreach is critical. I meet regularly with the 
ambassadors from other key nations, either to influence their 
assessments and strategies or, if we are in agreement, to coordinate 
our approaches. It is also important for the U.S. Government to work in 
concert with our allies in order for targeted sanctions to have greater 
effect. I do much of this coordination in Damascus. Given that most 
Syrian officials have far more assets in the EU, Turkey, and the Arab 
Gulf than they do in the United States, working with our allies is 
critical for the sanctions' success. I personally recommended a series 
of diplomatic initiatives with partner countries, as well as specific 
steps we and partners could take inside of Syria to weaken the Assad 
government and compel it to change its repressive policies. Some of 
this has involved my convincing other countries' ambassadors to make 
particular recommendations to their own capitals. For example, the 
Turks can play an extremely important role, and I regularly exchange 
ideas with the Turkish Ambassador in Damascus who has direct access to 
the senior Turkish leadership. It is important that the Turks and we 
first agree in our assessments of what is happening on the ground, and 
then decide how best to press the Syrian Government.
    I have also been able to encourage and work with the Syrian 
opposition. Syrians have been denied the opportunity to participate in 
politics for 40 years, and the Syrian Government still refuses to allow 
them the space and security to openly organize. In such a short period 
of time, however, they have made much progress. We support calls by the 
Syrian opposition to unite around the principle of a representative, 
inclusive, and pluralistic government that respects the rights of all 
of Syria's citizens. Furthermore, by supporting a pluralistic and 
inclusive opposition we aim to prevent sectarian violence. More Syrians 
are joining the opposition despite the risk of government retaliation. 
Indeed, the opposition's ranks now include Alawi, Druze, and Christian 
Syrians, as well as businessmen, merchants, and even military 
servicemen.
                                 ______
                                 
            questions submitted by senator richard g. lugar
    Question. What are you seeing in Damascus about how this regime is 
functioning and perhaps more importantly, how are different elements of 
Syrian society reacting? How close is President Assad to actions of his 
regime?

    Answer. In Damascus itself, the regime is functioning more or less 
normally, although there are more security elements deployed in restive 
neighborhoods, such as Medan and Rukn ad-Din. If a demonstration erupts 
in Damascus--and there are now usually one or two in the evenings--
these security elements intervene immediately, beating and arresting 
protesters. In central Damascus, life is normal although shops and 
restaurants do less business than they did at the start of the year. 
The merchant class is very unhappy about the economic situation and 
scared about the future. Many Damascenes tell us that the mood of 
Ramadan this year is much less festive than in years past.
    Many in the Damascus Christian community fear that an Islamic 
fundamentalist government would follow if the current regime falls. 
They, along with many in the Damascus Allawi community, remain 
generally supportive of the regime, afraid that the next government 
will persecute minorities and thus they hold fast to the Assad regime. 
The regime's shocking brutality over the past 5 months and opposition 
figures' outreach to these communities is eroding that support, 
especially as the regime has not followed up on promises, like ending 
the emergency law, and thus there has been no real improvement on the 
ground. What the Secretary has said still holds true--Syrian Government 
actions, not words, are what matter.
    Ultimately, President Assad is the head of state and he is 
responsible for the actions of those beneath him. We do not know if 
there were times when elements of the security forces stepped outside 
the boundaries of their orders. However, we do know that, at the end of 
the day, Assad is responsible. President Assad is the one who has 
created an environment in which violence, repression, and human rights 
violations can occur without anyone being held to account.

    Question. How do you see this playing out? Particularly if it draws 
out for another 6 months?

    Answer. The breadth and endurance of the street protests shows that 
a transition is underway in Syria, and I strongly doubt that the Syrian 
people will go back to where they were before all of this started. 
Assad's reputation and legitimacy are permanently destroyed for most 
Syrians, even among many who fear Islamic fundamentalists. Who or what 
will replace Bashar Assad is unclear, although the Syrian internal 
opposition is working to develop a transition plan. With regard to a 
timetable for Syria's transition to democracy, I cannot say for sure. 
Day after day for months now, the Syrian people have taken to the 
streets peacefully demanding an end to the violence and a change of 
government. They have organized themselves, they have acted as 
journalists to ensure the entire world is able to witness what is 
taking place there, and they have refused to be intimidated. They have 
shown intense resolve and so I am confident that with the continued 
support and pressure of the international community, they will see this 
transition through. The regime's use of Allawi-dominated security units 
in residential areas has boosted sectarian tensions and at times 
sparked incidents of sectarian violence. If the struggle on the streets 
continues for a long time, the risk of broad sectarian violence will 
rise. For this reason, the United States is boosting unilateral 
pressure on the Assad regime to stop its repression, and we are working 
closely with foreign partners to boost international pressure on the 
regime as well.

    Question. How do you balance support for the opposition (would you 
call it a unified movement yet?) with our longstanding concerns about 
terrorism, proliferation, and regional security?

    Answer. The Assad regime, not the Syrian people demonstrating for 
democracy, is responsible for fomenting regional instability, 
supporting terrorist organizations, and attempting to develop nuclear 
bombs. The Assad regime has denied the people of Syria the opportunity 
to participate in politics for 40 years, and it continues to deny them 
the space and security to openly organize or work politically. Frequent 
government harassment slows development of a coordinated and strong 
opposition. My Embassy team and I have encouraged the Syrian opposition 
to unite around the principle of a representative, inclusive, and 
pluralistic government that respects the rights of all of Syria's 
citizens equally. We have underlined consistently to the opposition 
that we oppose political violence and they have in response stressed to 
us their goal of keeping the opposition to the Assad regime peaceful. 
Meanwhile, we also are pressing the Syrian Government to allow the 
opposition to meet and organize. We have had some success, such as the 
June 27 opposition conference held in Damascus. Our support has to be 
done carefully, however, as the Syrian Government propaganda machine 
frequently blames American intervention for the country's problems, and 
this point plays well with those still support the Assad regime. That 
being said, there is absolutely nothing being done in support of the 
Syrian opposition that goes against the administration's concerns and 
policies with regard to terrorism, proliferation, and regional 
security.

    Question. Describe the dynamics in neighboring countries as this 
violent repression goes on; with the recently unveiled Hariri 
indictments, the Turkish Military Staff resignations as we discussed 
with Ambassador Ricciardone, et cetera? How has Hezbollah responded? 
Hamas? Our Israeli friends?

    Answer. We are closely monitoring developments in Lebanon, which, 
thus far, remains stable despite the unrest in Syria. We have 
encouraged the Government of Lebanon to protect Syrian refugees that 
have fled into Lebanon and avoid taking positions that would align 
themselves with Assad's regime and its ongoing crackdown. Lebanon 
retains a complex and unbalanced relationship with Syria, which now 
tests Lebanon's ability to maintain its independence and good standing 
in the international community. We have received reports of Syrian 
protestors burning Hezbollah (and Iranian) flags. Frankly, we are not 
surprised that demonstrators are angered by Hezbollah's apparent 
support for the Assad regime's brutal use of force and violence against 
its own citizens. And we have also seen demonstrations by the Lebanese 
people in support of the Syrian protestors.
    Prime Minister Netanyahu has said that Israel will not intervene in 
the unrest in Syria and that the Syrian people ``deserve a better 
future.'' Clearly Turkey is concerned about what is taking place in 
Syria--they are neighbors and have spoken out forcefully against the 
violence. With regard to the recent military resignations in Turkey, 
our military ties to Turkey are longstanding and robust. Turkey remains 
a strong U.S. ally. A change in personnel will not affect our 
longstanding ties and deep tradition of military cooperation. Turkey 
has a long border and many ties to Syria; they have significant 
interests in Syria. While the Turkish Government wants to pursue its 
own foreign policy as a sovereign state, it also understands the 
utility of coordinating with the United States and the EU.

    Question. Some have suggested that EU oil sanctions on Syria, and 
Sytrol in particular, would have a significant impact. An op-ed in the 
Huffington Post yesterday stated: ``An EU ban on commercial activity by 
a handful of Syrian oil companies could deprive the Assad regime of the 
foreign exchange they critically need to fund the repression of 
protests. If the regime ran out of money to pay its security forces and 
there was a run on the Syrian pound, loss of business confidence in the 
Assads would accelerate. Brussels, unusually, is in a position to make 
a major unilateral contribution and be on the right side of history in 
the Arab Spring.''

  <bullet> (a) What is your assessment of the effects of such an 
        action?
  <bullet> (b) Are there further unilateral efforts that might have 
        teeth?
  <bullet> (c)  What more can be done to broaden the list of 
        participants in multilateral sanctioning efforts?

    Answer (a). EU sanctions on the Syrian oil sector, or on the 
exclusive marketer of Syrian crude oil, Sytrol, would have an impact on 
the Assad regime. According to the Energy Information Administration, 
Syria currently exports 117,000 barrels per day (bpd) of crude oil. The 
majority of these exports are purchased by refineries in EU countries 
pursuant to long-term contracts. EU sanctions would make it difficult 
for Sytrol to market this oil to other refineries and would likely 
result in revenue losses as the company sought out new purchasers in 
countries not participating in an EU sanctions regime. Sanctions would 
constrict demand for Syrian crude oil and would likely further reduce 
what Sytrol is able to charge. The impact on government revenues would 
be substantial, and this at a time already of significant economic 
stress. We can expect that the Syrian Government would claim that 
Western pressure is ruining Syria's economy and hurting the Syrian 
population, and we will need to craft and target our own public 
messaging carefully. We also will need to encourage prominent Syrians 
to explain the utility of energy sector sanctions to a largely 
uncomprehending Syrian public.

    Answer (b). The oil sector is Syria's largest export sector and a 
significant source of Syrian Government revenues. There are few other 
export categories that would have as significant of an impact.

    Answer (c). We will continue to reach out to all possible partners 
and work with our allies on targeted sanctions and diplomatic measures 
at the U.N. to increase pressure on the Assad regime and press for the 
space for a Syrian-led democratic transition. I meet regularly with the 
ambassadors from other key states either to influence their assessments 
and strategies or, if we are in agreement, to coordinate our 
approaches.
    What is taking place in Syria is an international crisis which has 
resulted in significant refugee flows and threatened regional 
stability. This crisis requires a unified response from the 
international community condemning the atrocities taking place and 
calling for an end to the violence.

    Question. You indicated that these protestors are aware that Iran 
and Hezbollah are backing the government in their repressive tactics, 
and that Hezbollah flags are being burned. What is the impact within 
Lebanon of the activity?

    Answer. We are aware of these reports. It is not surprising that 
demonstrators are angered by Hezbollah's apparent support for the Assad 
regime's brutal use of force against its own citizens. We are closely 
monitoring developments in Lebanon, which, thus far, remains stable 
despite the unrest in Syria. We have encouraged the Government of 
Lebanon to protect Syrian refugees that have fled into Lebanon and 
avoid taking positions that would align themselves with Assad's regime 
and its ongoing crackdown. Lebanon's unbalanced relationship with Syria 
is testing Lebanon's ability to maintain its independence and good 
standing in the international community. For example, Lebanon agreed to 
the U.N. Security Council Presidential Statement condemning the Syrian 
regime's use of violence against demonstrators but later disassociated 
itself from the statement. We will continue to encourage Lebanon to 
meet its international obligations and work toward a politically 
independent Lebanon.
                                 ______
                                 

            Responses of Robert Ford to Questions Submitted
                       by the Following Senators

             questions submitted by senator robert menendez
    Question. There is growing consensus among experts that Assad's 
downfall depends on losing support from the military. What actions can 
the United States take to siphon support from the military? At the same 
time, what actions are you taking to persuade Assad and other senior 
government officials to embrace reform? What steps have you recommended 
to the State Department and White House? Is the United States working 
with the EU to formulate additional sanctions, such as a ban on the 
purchase of Syrian oil? What role are other countries and leaders 
playing in this dialogue, such as Prime Minister Erdogan in Turkey?

    Answer. It is very important for the Syrian people to be the 
leaders and the drivers of the transition currently underway in Syria. 
The United States has taken numerous steps to help move this process 
forward, including coordinating international support for action at the 
United Nations and coordinating with partners to target regime finances 
through sanctioning individuals who help the Assad circle as well as 
government entities and private companies involved in the repression or 
the financing of this repression. These designations have included 
commanders--but not the rank and file soldiers--of elements of the 
Syrian military and intelligence services.We are in conversations with 
our allies to explore additional targeted economic sanctions, including 
in the energy and financial sectors, to deny the regime resources to 
continue its brutality against the Syrian people.
    The United States also led an international effort that resulted in 
a unanimous United Nations Security Council Presidential Statement 
condemning the abuses of the Syrian Government. The United Nations 
Human Rights Council also issued a statement condemning the regime 
atrocities. We are working multilaterally to put pressure on the Assad 
regime by isolating it and depriving it of resources to continue its 
brutal repression.
    I personally recommended a series of diplomatic initiatives with 
partner countries, as well as specific steps we and partners could take 
inside Syria to weaken the Assad government and compel it to change its 
repressive policies. Some of this has involved my convincing other 
states' ambassadors to make particular recommendations to their own 
capitals. The Turks could play an extremely important role, and I 
regularly exchange ideas with the Turkish Ambassador in Damascus who 
has direct access to the senior Turkish leadership. It was important 
that the Turks and we first agree in our assessments of what is 
happening on the ground, and then decide how best to press the Syrian 
Government.

    Question. Assad continues to retain some support from minority 
groups that are concerned about sectarian violence post-Assad. These 
groups are concerned that their situation will degenerate in the 
turmoil of a transition. How are you working (unilaterally or 
multilaterally) to reassure minorities fearful of a transition?

    Answer. The U.S. Government is reaching out to the Syrian 
opposition and encouraging it to ensure that the freedoms and dignities 
of all ethnic and religious groups in Syria are respected and to 
underscore the opposition's commitment to this end. My team and I have 
encouraged the opposition to reach out to Syrian minority leaders to 
reassure them that a democratic Syria would not retaliate against 
minorities, and we have had positive reactions from elements of those 
minorities.
    We also are working to support the free flow of information, both 
inside of Syria so that Syrian citizens can obtain a true picture of 
what is taking place, and outside of Syria so that the world can bear 
witness to the Assad regime's atrocities, especially the fact that it 
is the Assad regime itself that is stoking many sectarian fears. Last, 
Syria has a long history of peaceful coexistence among its various 
ethnic and religious groups, and the United States is confident this 
tradition will outlive the Assad regime.

    Question. What can you tell us about your meetings with civil 
society and opposition figures? Have you been able to identify credible 
leadership structures, and what are the defined goals and strategies 
for consolidating a democratic state should Assad fall? What is the 
capacity and readiness of the opposition to guide a democratic 
transition in post-Assad Syria, and how are you working to build this 
capacity in the interim? Is there a need or a role for enhanced U.S. 
democracy assistance?

    Answer. Syrians have been denied the opportunity to participate in 
politics for 40 years, and the Syrian Government continues to deny them 
the space and security to openly organize. The Syrian opposition has 
made some progress, but it has far to go. Frequent government 
harassment slows development of a coordinated and strong opposition. We 
continue to encourage all members of the Syrian opposition to unite 
around the principle of a representative, inclusive, and pluralistic 
government that respects the rights of all of Syria's citizens. We also 
are pressing the Syrian Government to allow the opposition to meet, and 
we have had some success, such as the June 27 opposition conference 
held in Damascus. Our support has to be done carefully, however, as the 
Syrian Government propaganda machine frequently blames American 
intervention for the country's problems, and this point plays well with 
those who still support the Assad regime.
    The United States is encouraging the development of a robust civil 
society in Syria. We are listening to a range of Syrian voices both 
inside and outside the country. It is important that the Syrian people 
decide for themselves what will happen inside Syria. The opposition is 
slowly developing into a substantive and credible force. Additional 
information can be provided through briefings.

    Question. Over the weekend, as many as 121 people were killed in 
Syria as a result of the military crackdown on protesters, the majority 
in Hama. These events are eerily reminiscent of the 1982 crackdown on 
Hama, during which tens of thousands of Syrians were killed by 
President Assad's father to retain control and repress dissent. What is 
the United States doing to prevent a repeat of the 1982 massacre and 
subsequent stamping out of democratic aspirations in Syria? How can the 
United States reassure protesters of its support, and prevent Assad 
from committing mass atrocities to retain control?

    Answer. I traveled to Hama in order to relay to the people of Hama 
and to the Syrian people that the United States supports the Syrian 
people and demands that the regime immediately stop its violent 
repression of peaceful protesters. My travel to Hama helped draw 
international attention to the efforts of the Syrian people to effect 
peaceful change in their own country. They have a right to hold 
peaceful demonstrations and to demand that their fundamental rights be 
respected. There is no going back to the status quo. Assad's regime 
cannot continue to use torture and killing to break the will of the 
Syrian people. Try as he might, Assad can't stop change from coming to 
Syria. I have spoken out vigorously to the Arabic and Western media 
about the recent brutal government actions in Hama and elsewhere. I 
have helped design a set of new sanctions that the administration is 
readying. Even as the regime's security forces killed dozens of people 
in Hama, the protests continued throughout Syria. The people of Syria 
have shown that they are no longer afraid and will not be cowed by the 
regime's brutality.
                                 ______
                                 
             questions submitted by senator jeanne shaheen
    Question. In your opening statement, you mention that the Syrian 
opposition ``is slowly becoming an effective, broad-based opposition.'' 
What is the U.S. Embassy doing to support and engage the opposition to 
help them become a more effective political entity?

    Answer. Syrians have been denied the opportunity to participate in 
politics for 40 years, and the Syrian Government is still not allowing 
them the space and security to openly organize. In such a short period 
of time, however, they have made some progress. We are encouraging all 
of the various players in the Syrian opposition to unite around the 
principle of a representative, inclusive, and pluralistic government 
that respects the rights of all of Syria's citizens. We also are 
pressing the Syrian Government to allow the opposition to meet, and we 
have had some success, such as the June 27 opposition conference held 
in Damascus. The regime's reflex, however, is to repress and arrest. 
Our support has to be done carefully, as the Syrian Government 
propaganda machine frequently blames American intervention for the 
country's problems, and this government line plays well with those 
still supporting the Assad regime.
    The United States is encouraging the development of a robust civil 
society in Syria, as we do in all countries. The United States is also 
listening to a range of Syrian voices both inside and outside the 
country. It is important that the Syrian people decide what will happen 
inside of Syria.

    Question. In your opening statement, you say, ``It is time for us 
to start thinking about the day after Assad.'' In your opinion, what 
more should the United States be doing to prepare for the ``day after 
Assad?'' What plans are in place to prepare for this outcome?

    Answer. The best way we can help now and in the future is by 
supporting the Syrian people's right to freedom and dignity and to work 
with the international community to press the Syrian Government to 
allow space inside of Syria for the opposition to work. The United 
States remains committed to seeing violence end. The Syrian people will 
decide what a democratic transition will look like.

    Question. How much influence might countries like Turkey, Russia, 
and Saudi Arabia have on the situation in Syria? What steps is the U.S. 
Government taking to engage these countries on Syria?

    Answer. Syria's neighbors and major trading partners can have a 
significant impact on changing the behavior of the Assad regime. We 
will continue to reach out to all possible partners and work with our 
allies on targeted sanctions and diplomatic measures at the U.N. in 
order to increase pressure on the Assad regime and press for the space 
for a Syrian-led democratic transition. I meet regularly with the 
ambassadors from other key states either to influence their assessments 
and strategies or, if we are in agreement, to coordinate our 
approaches.
    What is taking place in Syria is an international crisis which has 
resulted in significant refugee flows and threatened regional 
stability. This crisis requires a unified response from the 
international community condemning the atrocities taking place and 
calling for an end to the violence.
    It cannot be stressed enough, however, that the greatest influence 
on Syria is the influence that the Syrian people have on their own 
country.

    Question. What is the regional impact of the ongoing crackdowns in 
Syria? In particular, what is the impact on stability with regard to 
Lebanon, as well as Turkey, Jordan, and Israel?

    Answer. The regime's violence against its own people has resulted 
in over 12,000 refugees fleeing Syria to other neighboring countries 
and over 30,000 Syrians internally displaced by the violence. The 
continuing abuses by the Syrian Government will inevitably lead to 
greater instability in the region. We do believe that Assad's regime 
could try to foment instability in the region in an effort to retain 
power and distract the international community. This has already taken 
place. For example, on June 5, 2011, pro-Palestinian protestors 
supported by Assad's regime attempted to enter parts of the Golan 
Heights, which led to at least 23 deaths. It is important for us to 
work with Syria's neighbors and act together to stop the instability 
outside of Syria and to help the Syrian people gain the dignity and 
freedom they deserve.

    Question. Have you found that your presence in Damascus has had a 
greater impact than the U.S. Government could have with a lower-ranking 
official leading Embassy operations?

    Answer. I have been able to help secure the release of U.S. 
citizens and Syrian political prisoners. We have been able press the 
Syrian Government to allow some limited access to international media, 
such as CNN and NPR. I have also been able to encourage and work with 
the Syrian opposition.
    I have been trying to draw the attention of the Syrian regime and 
the attention of the international community to the legitimate 
grievances the Syrian people have with their government. The Syrian 
people want to be heard, and a high ranking U.S. official can help them 
be heard. I believe that it is in our best interest as well as the 
Syrian's people's best interest to keep a high-ranking U.S. official 
inside of Syria so that we can have the strongest possible impact on 
change in Syria. If confirmed, I hope to be able to continue this work.

    Question. What is your assessment of international sanctions on 
Syria? Are they having an effect on Syria's Government and its key 
leaders?

    Answer. The sanctions against Assad's regime are causing economic 
impacts and damaging parts of regime, especially the regime's source of 
funding. Let me share some success stories. One of President Assad's 
cousins, Rami Makhlouf, is very well known in Syria and is probably the 
richest man in the country. He is a very unscrupulous businessman and a 
financial supporter of the regime. We have targeted him very 
specifically, as well as his companies, because we know he helps 
finance the regime. By working with the EU, we made sure that he could 
not get to Cyprus and he could not get Cypriot citizenship.
    Furthermore, Cham Holding is one of Makhlouf's biggest companies, 
so we targeted it specifically. We targeted certain individuals on its 
board of directors. When the board members' terms expired at the end of 
April, they were too afraid of being individually designated by our 
sanctions and they refused to hold another board meeting. The 
government finally insisted that businessmen come together and have a 
board meeting in July. At the conclusion of the meeting, they were only 
able to come up with half of a board and one vice-chairman, but no one 
agreed to be the chairman of Cham Holding.
    U.S. sanctions do bite, but it is important that it is not just our 
bite. We are coordinating sanctions and encouraging other countries to 
use targeted sanctions against Assad's regime. If the violence 
continues, we will expand our use of targeted sanctions on banks, 
companies, and individuals who support Assad's regime. The United 
States will continue to seek ways to increase pressure on Assad and his 
regime while simultaneously attempting to shield the Syrian people from 
economic harm.

    Question. In your opinion, should the situation in Syria be 
referred to the International Criminal Court? Should President Assad be 
indicted on charges of committing crimes against humanity?

    Answer. The killing and torture of peaceful demonstrators is 
unacceptable and must be stopped. The U.S. Government has expressed our 
disgust with the ongoing violence and has called for a democratic 
transition in Syria that will bring freedom and dignity to the Syrian 
people. We are exploring options with respect to the International 
Criminal Court.
                                 ______
                                 
             questions submitted by senator james e. risch
    Question. While Secretary Clinton has recently declared that Assad 
has no legitimacy to rule, the administration still has not called for 
his departure. While the administration called for President Mubarak's 
departure in Egypt, it has not called for Assad's departure. When can 
we anticipate the administration call for Assad's departure?

    Answer. The administration believes that it is up to the Syrian 
people to decide what happens inside of Syria. We have for many years 
vigorously condemned Syrian human rights abuses and, since the 
intensification of the government's repression in late March, we have 
spoken out forcefully and condemned the Assad regime's shootings of 
peaceful demonstrators and the mass arrest campaigns. As the Syrian 
protest movement grew stronger, we declared publicly that Assad had 
lost his legitimacy. Each country is different, and therefore our 
policy toward Syria cannot be a replica of our policy toward Egypt, 
Libya, or anywhere else. We have had a longstanding partnership with 
Egypt, while we have long been adversaries of Syria. As we have less 
unilateral leverage in Syria, we have worked closely with other 
partners to boost not just American pressure but also international 
pressure on the Assad regime.
    We have made clear our view that Assad cannot lead a democratic 
transition, that we have no American interest in the continuation of 
his government, and that his government will be left in the past as the 
democratic transition moves forward. We have also stressed that the 
Syrian people, not foreign states, will decide what will happen in 
Syria and we will be there to support them.
    President Assad must stop the killings now, remove his security 
forces from residential streets, release political prisoners and 
detainees, and permit access to the U.N. Human Rights Council's fact-
finding mission. The international community has the responsibility to 
speak out against violence toward peaceful protestors and threats to 
international peace and security. We have done so and will continue to 
do so.

    Question. What message do you believe is sent to the Syrian people 
by not calling for his departure? Do you believe there should be a role 
for any member of the Assad family in Syria's future?

    Answer. The message we are sending to the Syrian people is that 
this movement is a Syrian movement, and that the United States and the 
international community stand behind them in their aspiration for 
freedom, democracy, and peace. We are working hard to get this message 
out through our Embassy outreach and programming, public statements, 
and work at the various multilateral organizations. The Syrian public's 
reactions to my visit to Hama in July demonstrated that it understands 
that we support immediate political change and an end to repression in 
Syria. As to whether or not there is any role for a member of the Assad 
family in Syria's future that is up to the Syrian people. We have 
stated publicly that we do not believe Assad will implement reforms, 
that his regime will soon be part of the past and that we have no 
interest in the regime's continuation. What we are advocating for is a 
peaceful transition to democracy where all Syrians are free to choose 
leaders who are responsive to their demands. Most Syrians are, however, 
suspicious of American intent in Syria because of our close ties to 
Israel, and therefore we also stress that Syrians alone must decide 
Syria's political future.

    Question. Can you think of a symbolic action the United States 
might realistically take that would more clearly demonstrate our break 
with Assad and his clan, and would more clearly show that we want him 
out, besides recalling our Ambassador?

    Answer. We have taken, and continue to take, concrete steps to 
demonstrate to the Assad regime the cost his government will pay for 
the atrocities being committed. For the first time ever, the Obama 
administration in May 2011 specifically sanctioned Bashar Assad and his 
brother Maher. The administration extended sanctions to other members 
of his family, members of the Syrian Government, private businessmen 
who have bankrolled the regime, and corrupt government institutions, 
among others. We have condemned Assad at the United Nations as well as 
at the Office of the High Commissioner for Human Rights. We will 
continue taking steps to pressure Assad into ending the bloodshed and 
this is where I believe our focus should be--on concrete actions, not 
on symbolic measures. Visibly standing up to the Assad regime, as I did 
when I went to Hama, and mobilizing international support in an 
unprecedented fashion against the Assad regime, have shown the Syrian 
public that for us Assad's regime soon will be in the past. We have 
also kept the focus throughout on the Syrian people being in the lead 
in this transition so that the regime cannot justify its repression by 
saying it is standing up to an ``American-Zionist conspiracy.''

    Question. In the wake of your visit to Hama, which was one of the 
most effective actions you have taken while in Syria, how much freedom 
of movement do you now have in Syria?

    Answer. The Syrian Government has attempted to put in place travel 
restrictions on me and other diplomats. These travel restrictions were 
in place prior to my travel to Hama and are still in place today. 
Movement is not easy, frankly, and there are new security ``issues'' in 
the wake of my Hama visit. Regardless of these restrictions, I will 
continue to move around the country as necessary and meet with Syrians 
from all walks of life and to show our support for respect of the 
Syrian people's right to express themselves freely, march peacefully, 
and organize themselves politically.

    Question. I assume your every movement is covered by the Syrian 
secret police and every visitor to the Embassy is noted by them, with 
this type of surveillance how effectively can you engage with the 
opposition? Has it become too dangerous for them to meet with you?

    Answer. In spite of the various methods used by the Syrian 
Government to intimidate democracy advocates in Syria and members of 
our mission in Damascus, we regularly talk to and meet members of the 
opposition. We and they are careful obviously. That said, the 
reductions in our mission staff because of security considerations more 
than Syrian Government intelligence service actions have hindered our 
contacts. Nonetheless, the mission is in touch with dozens of different 
Syrians weekly. The United States is listening to a range of Syrian 
voices both inside and outside the country. The Syrian people decide 
what will happen inside of Syria, but we seek to understand what 
government constraints are most noxious and then weigh in with the 
Syrian authorities, often in coordination with other countries' 
ambassadors, to extract space for the opposition and activists to work. 
If I am confirmed, I will be able to continue this important work.
                                 ______
                                 
               questions submitted by senator marco rubio
    I commend your initiative in visiting Hama to demonstrate American 
support for the Syrian people's demands for an end of the Assad regime 
and a more democratic future, and the President's decision to extend 
U.S. sanctions against President Assad and other senior Syrian 
officials for their role in suppressing peaceful demonstrations in 
Syria.

    Question. What else could we do to lead our friends in Europe, 
Turkey, and the Arab Gulf in adopting strict economic sanctions and 
visa restrictions against Syrian officials?

  <bullet> How soon could the Syrian regime replace these relations 
        with Chinese and Russian connections?

    Answer. The United States has led the international community and 
forcefully spoken out against the abuses of the Assad regime from the 
start of this crisis. We believe that by working with our allies 
targeted sanctions will have the greatest impact. It is important for 
the U.S. Government keep up the coordination with our allies in order 
for targeted sanctions to have greater effect. I do some of this 
coordination in Damascus. Given that most Syrian officials have more 
assets in the EU, Turkey, and the Arab Gulf than in the United States, 
working with our allies is critical for sanctions regime success. To 
date the EU has sanctioned 35 Syrian entities and individuals, in 
addition to imposing travel bans on those individuals and embargos on 
sales of arms and equipment that can be used to suppress 
demonstrations. We continue to encourage Turkey and the Arab States to 
take all steps possible to bring an immediate end to the Assad regime's 
repression. For example, we are discussing with our partners sanctions 
in the oil and gas sector and additional sanctions on Syrian businesses 
and individuals involved in helping the government repress its people.
    In addition, what is taking place in Syria is an international 
crisis which has resulted in massive refugee flows and threatened 
regional stability. Such a crisis requires a unified response from the 
international community condemning the atrocities taking place and 
calling for an end to the violence.
    We will continue working with all nations, including Russia and 
China, in an effort to isolate the Assad regime and clearly articulate 
the international community's condemnation of its actions and 
decisions. Russia and China's decision to allow the U.N. Security 
Council to adopt a Presidential statement was a positive sign.

    Question. How much freedom of movement is the Syrian Government 
granting you after your visit to Hama?

    Answer. The Syrian Government has put in place travel restrictions 
on all diplomats serving in Damascus. These travel restrictions were in 
place prior to my travel to Hama and are still in place today. 
Regardless of these restrictions, I will continue to move around the 
country as necessary and meet with Syrians from all walks of life. Such 
movements could cause additional friction with the Syrian authorities.
    Statement: The Assad regime's use of the army to murder hundreds of 
unarmed demonstrators proves that Bashar is no reformist but rather a 
continuation of his father's reign of terror.

    Question. To what extent has the regime sought to play out ethnic 
and religious differences to suppress the demonstrations? Are there any 
indications that the regime has reinforced or accelerated efforts to 
fuel sectarian strife as protests have grown in organization and size?

    Answer. Syria has a unique history of peaceful coexistence between 
religious communities that long predates the Assad regime and the Baath 
Party system. Syrians have a proud and strong national identity and the 
opposition has made clear its intention to preserve it. The Syrian 
regime, unfortunately, is cynically manipulating sectarian tensions in 
an effort to divide the Syrian people. Its use of predominantly Alawi 
gangsters (called ``shabeeha'') to repress some demonstrations and make 
arrests has aggravated sectarian tensions in cities like Homs and 
Lattakia.
    Despite the regime's actions, minority participation in the 
opposition is growing. As the regime's violence and oppression 
continues to create divisions and exacerbate economic conditions, more 
Syrians will eventually view the regime as the source of the problem, 
rather than a guarantor of stability.
    Statement: The President justified the NATO military effort in 
Libya on Qadhafi's threats to slaughter thousands of innocent Libyans. 
In Syria, we are actually seeing such massacres, now at about 2,000 
people and climbing very fast.

    Question. How do you explain the administration's hesitation to 
clearly call for Assad's departure? When would the President clearly 
and unmistakably call for Assad to step down from power? What are you 
hearing from Syrians regarding our hesitation to definitely call for 
Assad to step down and for the Assad family to have zero role in 
Syria's future?

    Answer. The administration believes that it is the right of the 
Syrian people to decide what happens inside of Syria. We have for many 
years vigorously condemned Syrian human rights abuses and since the 
intensification of the government's repression in late March we have 
spoken out forcefully against the shootings of peaceful demonstrators 
and the mass arrest campaigns. As the Syrian protest movement grew 
stronger, we then declared publicly that Assad has lost his legitimacy.
    The President will decide if and when to call for Assad to step 
down. We already have publicly declared that he cannot lead a 
democratic transition, that we have no American interest in the 
continuation of his government, and that his government will be left in 
the past as the democratic transition moves forward. We also stress 
that the Syrian people, not foreign states, will decide what will 
happen in Syria and we will be there to support them.
    Syrian opposition members have asked the U.S. Government to call on 
Assad to depart Syria, but at the same time they have clearly stated 
that they do not want foreign military intervention. President Assad 
must stop the slaughter now, remove his security forces from the 
streets, release political prisoners and detainees, and permit access 
to the U.N. Human Rights Council's fact finding mission. He must stop 
the massive campaign of arrest, torture, and intimidation. The 
international community has the responsibility to speak out against 
violence toward peaceful protestors and threats to international peace 
and security. We have done so and will continue to do so.

    Question. Can you think of a symbolic action the United States 
might realistically take that would more clearly demonstrate our break 
with Assad and his clan, and would more clearly show that we want him 
out?

    Answer. We have taken real actions, which are far more important 
than symbolic ones, in order to demonstrate our break with the Assad 
regime. This administration for the first time designated Bashar al-
Assad and his brother Maher under our sanctions regime, and we 
carefully coordinated this with international partners for maximum 
effect. American officials have been forceful in recent weeks stating 
that Assad has lost his legitimacy. In addition, the administration 
issues a new Executive order designating those complicit in violating 
the human rights of the Syrian people and sought and obtained a U.N. 
Security Council Presidential Statement condemning the actions of the 
regime, as well as the U.N. Human Rights Council's authorization of a 
fact-finding mission to Syria--all concrete steps to pressure the Assad 
regime. The Assad regime's time is limited--a democratic transition is 
underway and it cannot be stopped. It is time for the Syrian people to 
be free and live their lives with dignity.

    Question. According to news reports in late April, an American 
diplomat was detained, hooded, and ``roughed up'' despite his 
diplomatic immunity. How did the United States respond to this?

    Answer. It is true that one accredited Embassy personnel was 
detained and later released by Syrian authorities. He was briefly 
blindfolded but not physically abused. We protested this action with 
senior officials in Damascus and Washington. The Syrian Foreign 
Minister told me it would not happen again, and it has not. It is 
important that the Syrian Government allows the free flow of 
information so that the international community and the Syrian people 
can receive independent verification of events on the ground. Lifting 
the bar on visits by more foreign journalists would be welcome, and I 
am working hard to do just that.

    Question. What can the United States do to prevent Assad from 
provoking sectarian violence?

    Answer. We must remember that Syria has a long history of people 
from various ethnic and religious groups living and working side by 
side in peace. We are confident that this tradition will continue long 
after Assad is gone. Where we have seen attempts by the regime to 
incite religious and ethnic tensions, the Syrian people have quickly 
spoken out against such incitement and in favor of a united Syria. We 
have sought to highlight instances where the Syrian authorities have 
stirred sectarian fears, as we did publicly in Embassy press comments 
after the start of the latest Hama fighting and in my public testimony 
in front of the Senate Foreign Relations Committee. Furthermore, by 
supporting a pluralistic and inclusive opposition we can help prevent 
sectarian violence.

    Question. What can we do to reassure Christians, Druze, Kurds, and 
Alawites that they will not be targeted if a Sunni-led government wins 
power, or persuade Sunni groups to offer many more and more persuasive 
reassurances?

    Answer. Syria has a long history of being a secular society and it 
will continue to be one once Assad is no longer in power. By supporting 
a broad and inclusive opposition we can help assure that Syria will 
always be a country that respects religious rights and beliefs. My team 
and I have encouraged the opposition to reach out to Syrian minority 
leaders to reassure them that a democratic Syria would not retaliate 
against minorities, and we have had positive reactions from elements of 
those minorities.
                                 ______
                                 
                questions submitted by senator mike lee
    Question. Ambassador Ford, thank you for your willingness to serve 
in Syria, a nation that is in turmoil. In light of the recent violence 
and attacks on the U.S. Embassy in Damascus, do you feel it is safe and 
prudent to have a U.S. Ambassador stationed in Syria? Please share a 
few of the specific benefits you have observed of having a U.S. 
Ambassador present in Syria.

    Answer. It is a privilege for me and my team to serve in Syria. 
While there are risks associated with my service in Syria, we assess 
the risk to be manageable. I travel with a security detail and strongly 
believe that the benefits to having an ambassador in Damascus far 
outweigh the mitigated risks. I see it as an integral part of my 
mission to give the Syrian people an ear and a voice. My presence is 
one of the most effective tools of pressure we have on the Syrian 
Government. The Syrian Government's unhappiness with much of my work, 
which we see reflected in angry government-controlled media coverage, 
shows that my work is getting their attention and resonating with 
segments of Syrian society. I convey our tough messages to the 
government, and am also in constant contact with the Syrian opposition. 
If confirmed, I would continue to fulfill these roles into the future.
    By maintaining a high-level presence, we are able to support the 
demands of the Syrian people and promote respect for their basic human 
dignity. As I mentioned in my prepared statement, my presence helps 
draw attention to the legitimate grievances of the peaceful protestors 
so that the international community and, more importantly, the Syrian 
regime pays attention. The Syrian people want to be heard. My visit to 
Hama showed that a high-ranking U.S. official can help them be heard.
    Regional outreach is critical. I meet regularly with the 
ambassadors from other key nations, either to influence their 
assessments and strategies or, if we are in agreement, to coordinate 
our approaches. It is important, for example, that the U.S. Government 
to work in concert with our allies in order for targeted sanctions to 
have greater effect. I do much of this coordination in Damascus. Given 
that most Syrian officials have far more assets in the EU, Turkey, and 
the Arab Gulf than they do in the United States, working with our 
allies is critical for the sanctions' success. I personally recommended 
a series of diplomatic initiatives with partner countries, as well as 
specific steps we and partners could take inside of Syria to weaken the 
Assad government and compel it to change its repressive policies. Some 
of this has involved my coordinating with other countries' ambassadors 
on particular recommendations to their own capitals. For example, 
Turkey plays an extremely important role, and I regularly exchange 
ideas with the Turkish Ambassador in Damascus who has direct access to 
the senior Turkish leadership. It remains important for us to consult 
with the Turks on what is happening on the ground, and then decide how 
best to press the Syrian Government.
    I have also been able to encourage and work with the Syrian 
opposition. Syrians have been denied the opportunity to participate in 
politics for 40 years, and the Syrian Government still refuses to allow 
them the space and security to openly organize. In such a short period 
of time, however, they have made some progress. We encourage all of the 
various players in the Syrian opposition to unite around the principle 
of a representative, inclusive, and pluralistic government that 
respects the rights of all of Syria's citizens equally. Furthermore, by 
supporting a pluralistic and inclusive opposition we aim to prevent 
sectarian violence. More Syrians are joining the opposition despite the 
risk of government retaliation. Indeed, the opposition's ranks now 
include Alawi, Druze, and Christian Syrians, as well as businessmen, 
merchants, and even military servicemen.
    Additionally, I have been able to help secure the release of U.S. 
citizens and Syrian political prisoners. We have been able press the 
Syrian Government to allow some limited access to international media, 
including CNN and NPR.

    Question. In light of recent events in Syria, would you classify 
the Obama administration's strategy of engaging the Assad regime a 
success or failure? Please explain.

    Answer. Having an ambassador in Damascus has been a success even if 
we have not achieved all that we had hoped for. It is important that 
high-level members of the regime fully understand the position of the 
United States before they act. On some occasions, including the 
government's release of several detained Americans, and the 
government's allowing an opposition conference in late June, they have 
responded to our discussions. Obviously, we are entirely dissatisfied 
with the government's brutal handling of the protests which is why the 
President and the Secretary have urged that Assad step aside. In this 
time of upheaval, it is doubly important that we have the ability to 
coordinate our efforts throughout the region, and to provide Washington 
policymakers with a clear and detailed picture of what is happening in 
the country. This is particularly helpful given that the Assad regime 
has restricted international media and human rights monitors.

    Question. Moving forward, how do we responsibly communicate with a 
Syrian Government that, as Secretary Clinton has stated, ``has lost all 
legitimacy?''

    Answer. What the United States supports is a Syria that is 
democratic, just, and inclusive. We will support this outcome by 
pressuring President Assad to get out of the way of this transition and 
by standing up for the universal rights of the Syrian people. We have 
two goals in communicating with the Syrian Government going forward. 
First, we will deliver one clear and consistent message: Assad's calls 
for dialogue and reform ring hollow, he refuses to lead a genuine 
democratic transition and he should step aside. We have another goal 
which is to bring more and more of the international community to join 
us in sending that message. We have had success with EU states, Canada, 
Japan and a few others. One of my efforts in Damascus is to explain our 
perception of events on the ground in Syria to other ambassadors and 
visiting journalists and help bring them to share our understanding of 
the way forward and how other countries can help communicate that to 
Syrians as well.
    It is up to the Syrian people to choose their own leaders, not 
foreigners. Our role is to support them. After a growing chorus of 
condemnations from all corners of the region and globe, Assad can have 
no doubt that he faces great isolation both at home and abroad.

    Question. Compare the regime of Bashar al-Assad to that of Syria's 
neighbors in the region. Do you feel that Assad's regime is a greater 
threat to security in the region than Qadaffi's regime in Libya? Why or 
why not?

    Answer. No two countries in the region are the same, and the 
violence in Syria and Libya has manifested itself in different ways. 
Without a doubt both Assad and Qadaffi are brutal dictators that 
continue to threaten international peace and security. So, while the 
objectives of protecting civilians and supporting universal rights are 
similar in these two countries, we do not believe the same means 
employed in Libya would work at the current time in Syria. Therefore, 
we are actively pursuing a range of nonmilitary options to increase 
pressure on the Syrian regime.
    The Assad regime's violence against its own people has resulted in 
over 2,000 deaths, 12,000 refugees fleeing Syria to neighboring 
countries, and over 30,000 Syrians internally displaced by the 
violence. The continuing abuses by the Syrian Government will 
inevitably lead to greater instability in the region. We do believe 
that Assad's regime could try to foment instability in the region in an 
effort to retain power and distract the international community. In 
fact, this has already taken place. For example, on June 5, 2011, pro-
Syrian protestors supported by the Assad regime attempted to enter 
parts of the Golan Heights, which led to at least 23 deaths. It is 
important for us to work with Syria's neighbors and act together to 
stop the instability outside its borders and to help the Syrian people 
gain the dignity and freedom they deserve. Moreover, Syria's 
longstanding support to terrorist groups, such as Hezbollah and Hamas, 
harms stability in Lebanon and harms efforts to reach an agreement 
between Israel and the Palestinians. In addition, Syrian support for 
extremist networks in Iraq over the past 7 years has lead to the deaths 
of thousands of U.S. and Iraqi servicemen and Iraqi civilians. The 
Syrian Government is, therefore, a major source of instability in the 
region, and American interests, and those of the Syrian people, will be 
better served when Assad steps aside.
                                 ______
                                 

       Responses of Francis Ricciardone to Questions Submitted by
                         the Following Senators

              questions submitted by senator barbara boxer
    Question. Can you assure members of the Foreign Relations Committee 
that you will oppose any ``historical commission'' or similar group 
that studies, examines, researches, debates, or otherwise calls into 
question the fact of the Armenian Genocide?

    Answer. The President has said that a full, frank, and just 
acknowledgement of the facts is in all our interests. In his April 23, 
2011, statement, he noted that history teaches us that our nations are 
stronger and our cause is more just when we appropriately recognize 
painful pasts and work to rebuild bridges of understanding toward a 
better tomorrow. With this in mind, the administration strongly 
supports efforts by the Turkish and Armenian peoples to work through 
their painful history in a way that is honest, open, and constructive. 
The U.S. Government supports the efforts of individuals in Armenia and 
Turkey to foster a dialogue that acknowledges their history, sponsoring 
programs that foster contacts between the Armenian and Turkish peoples. 
If confirmed, I will continue to abide by the policies of the 
administration.

    Question. President Barack Obama has said repeatedly that he has 
``consistently stated my own view of what occurred in 1915.'' President 
Obama's personal views are clearly laid out in a number of public 
comments and statements including:

    (1) ``Nearly 2 million Armenians were deported during the Armenian 
Genocide, which was carried out by the Ottoman Empire from 1915 to 
1923, and approximately 1.5 million of those deported were killed.'' 
(Senator Obama, Question for the Record to Ambassador-designate Marie 
Yovanovitch, June 19, 2008.)
    (2) ``The occurrence of the Armenian genocide is a widely 
documented fact supported by an overwhelming collection of historical 
evidence.'' (Senator Obama, statement commemorating the Armenian 
Genocide, April 28, 2008.)
    (3) ``[T]he Armenian Genocide is not an allegation, a personal 
opinion, or a point of view, but rather a widely documented fact 
supported by an overwhelming body of historical evidence.'' (Barack 
Obama on the importance of U.S.-Armenia relations, January 19, 2008.)

  <bullet> Do you dispute or disagree with any of the above statements? 
        If so, which statements and why?

    Answer. In his April 23 Armenian Remembrance Day statement, the 
President solemnly remembered as historical fact that 1.5 million 
Armenians were massacred or marched to their deaths from 1915-1923. The 
President has also said that the achievement of a full, frank, and just 
acknowledgement of the facts of what occurred in 1915 is in all our 
interests. The President noted that the best way to advance that goal 
is for the Armenian and Turkish people to address the facts of the past 
as a part of their efforts to move forward. He strongly supports the 
efforts of Turkey and Armenia to normalize their bilateral relations.
    My responsibility as an American diplomat is to represent the views 
of the U.S. Government, on this and all subjects. We strongly support 
efforts by the Turkish and Armenian peoples to work through their 
painful history in a way that is honest, open, and constructive. We 
continue to encourage Turkey to engage productively with Armenia on the 
normalization protocols and clear the way to open its shared border, 
reinstitute transportation, communication, and utility links between 
the two countries, and establish diplomatic relations.

    Question. At a press breakfast on April 13, 2011, you quoted 
Secretary of State Clinton stating that, ``the United States will stand 
with those who seek to advance the cause of democracy and human rights 
wherever they may live.'' If confirmed, will you take part in April 24 
observances organized in Turkey by civil society groups that openly 
call for a truthful and just resolution of the Armenian Genocide?

    Answer. The United States strongly support efforts by the Turkish 
and Armenian peoples to work through their painful history in a way 
that is honest, open, and constructive. We continue to encourage Turkey 
to engage productively with Armenia on the normalization protocols and 
clear the way to open its shared border, reinstitute transportation, 
communication, and utility links between the two countries, and 
establish diplomatic relations. I would participate in any event whose 
spirit and intent was consistent with the views of the U.S. Government 
and supported the reconciliation of the Turkish and Armenian peoples.

    Question. On June 20, 2011, the House Foreign Affairs Committee 
voted 43-1 to approve an amendment to the FY 2012 State Department 
Authorization bill expressing the Sense of Congress that the Secretary 
of State should urge Turkey to return Christian churches and other 
religious properties. How will you work to secure the Turkish 
Government's return of Christian churches and other religious 
properties to their rightful owners?

    Answer. We continue to raise our concerns regarding the restoration 
of confiscated religious property to minority communities with Turkish 
authorities at the highest levels. The Government of Turkey's decision 
to return the Buyukada orphanage to the Ecumanical Patriarchate and, 
more recently, a church and cemetery to Kimisis Greek Orthodox 
Foundation on Bozcaada, are positive moves. I believe the Government of 
Turkey understands the importance of this issue and has determined that 
it must do more to protect the religious freedoms of all its citizens. 
There are some legal obstacles that must be overcome, but I am hopeful 
that as Turkey writes a new constitution, these issues will be 
addressed.

    Question. As Ambassador to Turkey, what steps have you taken--in 
addition to meeting with religious leaders--to address the alarming 
finding in the U.S. Commission on International Religious Freedom 
Annual Report 2011 that: ``The Turkish Government continues to impose 
serious limitations on freedom of religion or belief, thereby 
threatening the continued vitality and survival of minority religious 
communities in Turkey''?

    Answer. We continue to stress the importance of religious freedom 
in Turkey at the highest levels of the Turkish Government. We also 
continue to raise our concerns regarding the restoration of previously 
confiscated property to religious minority communities with Turkish 
authorities at the highest levels.
    The Government of Turkey's recent decision to extend citizenship to 
12 Orthodox metropolitans [one step below Patriarch in the Orthodox 
hierarchy with regional ecclesiastic responsibilities], which widens 
the pool of candidates eligible to serve as the next Ecumenical 
Patriarch was a positive development, as was the decision to return the 
Buyukada orphanage to the Patriarchate and more recently a church and 
cemetery to Kimisis Greek Orthodox Foundation on Bozcaada. It has also 
given permission for Christians to perform religious ceremonies in 
sites where previously this was prohibited, such as the Armenian church 
on Akdamar Island, and the Greek Orthodox monastery at Sumela in 
Trabzon. An Armenian church in Iskenderun will reopen soon. Given these 
and other positive steps, I believe the Government of Turkey 
appreciates our concerns on these issues and has itself determined that 
it must do more to protect the religious freedom of all its citizens. 
In some circumstances, legal obstacles must be overcome. Turkey's 
efforts to reform its constitution creates an opportunity to address 
the issue of legal protections of citizens' freedoms, including 
religious freedom.

    Question. Will you commit to meeting with the Armenian American, 
Greek American, Assyrian American, and Kurdish American communities on 
a regular basis?

    Answer. If confirmed, I will continue to warmly welcome to our 
Embassy and consulates in Turkey Americans of all origins who have an 
interest in the policies of the administration on Turkey. Likewise, I 
will be very pleased to meet with such fellow citizens on my visits 
back to the United States. In January 2011, following my recess 
appointment and before leaving the United States to assume my office, I 
met with a number of diaspora groups, including the American Hellenic 
Institute (AHI) and the American Hellenic Educational Progressive 
Association (AHEPA). In April, I was privileged to host the Archons of 
the Ecumenical Patriarchate at my official residence in Ankara. I have 
met with leaders and members of the Armenian, Greek, Assyrian, and 
Kurdish communities in Turkey, and our officers from the Embassy in 
Ankara and our consulates in Istanbul and Adana have done likewise, 
responding to the concerns of their diasporas about their welfare.
                                 ______
                                 
             questions submitted by senator robert menendez
    Question. Human Rights/Freedom of Expression.--There has been much 
concern over Prime Minister Erdogan's authoritarian tendencies, 
particularly in terms of freedom of expression and media freedom. On 
her recent trip to Istanbul, Secretary of State Clinton stated that 
backsliding in this area was ``inconsistent with all the other advances 
that Turkey has made.'' This was also one of the first issues you 
raised when you first arrived in Turkey, prompting sharp rebukes from 
the Prime Minister and other Turkish officials. Moreover, in recent 
years the AKP has seemed to abandon its commitment to EU-inspired 
reforms. After the AKP's resounding victory in the recent parliamentary 
elections, do you think that the Turkish leadership will return to its 
reformist agenda and help consolidate democracy in Turkey?

    Answer. The June 12 parliamentary elections were an opportunity for 
the Turkish people to reaffirm their commitment to democratic processes 
and choose their leadership. The next major test for democracy in 
Turkey is whether and how to proceed with reform of their constitution. 
We will follow closely that process and urge that Turkish political 
leaders, courts, and civil society continue to work through issues tied 
to constitutional reform in a manner that reflects a commitment to 
universal values of democracy and the rule of law. The United States 
supports a transparent and inclusive constitutional reform process to 
strengthen Turkey's democracy and its respect for universal rights, 
including freedom of expression and other fundamental freedoms, human 
rights, and the protection of minorities.

    Question. Religious Property.--The U.S. House Foreign Affairs 
Committee voted 43 to 1 on July 20, 2011 to call on Secretary Clinton 
to urge Turkey to return Christian churches and other religious 
properties. How will you work to secure the Turkish Government's return 
of Christian churches and other religious properties to their rightful 
Armenian, Greek, Assyrian, Pontian, Syriac and other Christian church 
and lay owners?

    Answer. We continue to raise our concerns regarding the restoration 
of confiscated religious property to minority communities with Turkish 
authorities at the highest levels. The Government of Turkey's recent 
decision to extend citizenship to a dozen Orthodox metropolitans [one 
step below Patriarch in the Orthodox hierarchy with regional 
ecclesiastic responsibilities], which widens the pool of candidates 
eligible to serve as the next Ecumenical Patriarch, was a positive 
move, as were the decisions to return the Buyukada orphanage to the 
Patriarchate and more recently a church and cemetery to Kimisis Greek 
Orthodox Foundation on Bozcaada. I believe the Government of Turkey 
understands the importance of this issue and wants to see continued 
progress. There are some legal obstacles that must be overcome, and I 
am hopeful that as Turkey writes a new constitution, these issues will 
be addressed.

    Question. To the best of your knowledge, approximately how many of 
the more than 2,000 Christian churches functioning prior to 1915 on the 
territory of present-day Turkey are still operating today as churches?

    Answer. Most of the Christian churches functioning prior to 1915 
are no longer operating as churches. Christian community contacts in 
Turkey report that a total of 200-250 churches that date to 1915 and 
before offer Christian worship services at least once a year. Many 
churches do not offer services every week due to insufficient clergy or 
local Christian populations. Some churches of significance operate as 
museums, others have been converted into mosques or put to other uses. 
Still others have fallen into disrepair or may have been totally 
destroyed.

    Question. Cyprus.--With respect to Cyprus--the parties are 
currently engaged in intense talks, facilitated by U.N. Secretary 
General Ban Ki-moon--in a concerted effort to resolve the Cyprus 
question before Cyprus assumes the presidency of the EU. The Cyprus 
situation, however, remains intractable so long as Turkey refuses to 
remove its troops from Cypriot soil and to permit the parties to 
achieve a workable agreement. What is Prime Minister Erdogan's position 
on Cyprus? What impact will the rift between the Erdogan government and 
the Turkish military have on current negotiations given the military's 
well-known objection to withdrawal from the island?

    Answer. The Government of Turkey and Turkish Prime Minister Erdogan 
support the reunification of Cyprus in a bizonal, bicommunal 
federation. The United States has long encouraged the Government of 
Turkey to support the Cypriot-led negotiations under the auspices of 
the U.N. Good Offices Mission to reach a comprehensive settlement.
    U.N. Secretary General Ban Ki-moon convened Turkish-Cypriot and 
Greek-Cypriot leaders on July 7 where the parties agreed to intensify 
their efforts to reach convergence on all core issues. The resolution 
of outstanding issues, including the removal of Turkish troops, is most 
likely to occur in the context of comprehensive settlement 
negotiations.
    The recent resignation of senior military officials is an internal 
Turkish matter. We do not see this development as significantly 
impacting the negotiation process.

    Question. Iran.--I am very concerned about Iran's continuing 
efforts to acquire nuclear capacity and with respect to Turkey I remain 
concerned with Iran's use of foreign bank branches to circumvent 
sanctions. Open source reporting has raised concerns about Turkish 
banks, specifically about Turkish branches of Iran's Bank Mellat. News 
sources also recently reported that Indian refiners will pay Iran for 
crude oil bought from the Persian Gulf nation through a Turkish bank. 
Are you concerned that Turkish banks and foreign bank branches in 
Turkey are being used as conduits for Iran to conduct international 
transactions? As Ambassador, what steps have you taken to educate, 
inform Turkish officials and banks about the U.S. sanctions laws on 
Iran and to secure their compliance?

    Answer. The Turkish leadership has made very clear its opposition 
to a nuclear-armed Iran and has affirmed both publicly and privately 
its commitment to implement all UNSCR sanctions against Iran. We are 
engaging vigorously with both the Turkish Government and the Turkish 
private sector to ensure that CISADA sanctions are both understood and 
implemented. Turkey has been a strong partner on nonproliferation, and 
if confirmed, I will continue to work to maintain close cooperation on 
these issues and work with the Government of Turkey to share 
international best practices in implementation of the U.N. sanctions.

    Question. Turkish Blockage of Armenia.--In March 2009, Assistant 
Secretary of State Phil Gordon, in response to a question I asked at 
his confirmation hearing before the Foreign Relations Committee, 
expressed his hope that the Turkey-Armenia border would be opened by 
October 2009. Today, nearly 2 years later, Turkey has refused to end 
its blockade of landlocked Armenia. In the past year, what adjustments 
has the executive branch made to its approach and policies to 
accomplish our repeatedly stated interest in seeing Turkey open this 
border? What progress can you report on this issue?

  <bullet> Do you consider the Turkish blockade of Armenia a violation 
        of international law?
  <bullet> Do you believe that Turkey's nearly 20 year strategy of 
        blockading Armenia has been effective?

    Answer. We strongly believe an open border between Turkey and 
Armenia is in the best interests of both countries. We continue to 
encourage Turkey to engage productively with Armenia on the 
normalization protocols and clear the way to open its shared border, 
reinstitute transportation, communication, and utility links between 
the two countries, and establish diplomatic relations.
    Over the last decade, the United States has provided approximately 
$3.5 million to support activities aimed at strengthening relations 
between the people of Armenia and Turkey. These include initiatives to 
increase people-to-people connections such as research projects, 
conferences, documentary production, and exchange and partnership 
programs, with the goal of increasing cross-border dialogue and 
cooperation. These programs are focused on bringing together Armenian 
and Turkish NGOs, think tank researchers, academics, and business 
leaders at the grassroots level by creating opportunities for them to 
work together on common projects that will benefit both countries. If I 
am confirmed, I will continue to promote not only government-to-
government discussions, but also people-to-people cultural and economic 
contacts and partnerships, as well as other cross-border and regional 
initiatives.

    Question. United State Record on the Armenian Geneocide.--Former 
Senators Barack Obama, Joseph Biden, and Hillary Clinton each 
acknowledged the fact of the Armenian Genocide during their tenure as 
Senator. The history of the Armenian Genocide is also well documented 
by our own diplomats. Yet, this administration and prior 
administrations continue this inarticulate word dance. Do you agree 
with the administration's wordsmithing policy?
    What do you think would happen if you articulated the historical 
truth and referred to the genocide of the Armenian people as genocide? 
What, in your estimation, would be the Turkish Government's most likely 
reaction to an open and honest recognition by the United States of the 
Armenian Genocide?

    Answer. In his April 23 Armenian Remembrance Day statement, the 
President solemnly remembered as historical fact that 1.5 million 
Armenians were massacred or marched to their deaths from 1915-1923, and 
has also said that the achievement of a full, frank, and just 
acknowledgement of the facts of what occurred in 1915 is in all our 
interests. The President also noted that the best way to advance that 
goal is for the Armenian and Turkish people to address the facts of the 
past as a part of their efforts to move forward. He strongly supports 
the efforts of Turkey and Armenia to normalize their bilateral 
relations.
    My responsibility as an American diplomat is to represent the views 
of the U.S. Government, on this and all subjects. The horrific events 
of 1915 were atrocities that we and the world must never forget, so 
that they are never repeated. We strongly support efforts by the 
Turkish and Armenian peoples to work through their painful history in a 
way that is honest, open, and constructive. We continue to encourage 
Turkey to engage productively with Armenia on the normalization 
protocols and clear the way to open its shared border, reinstitute 
transportation, communication, and utility links between the two 
countries, and establish diplomatic relations.
                                 ______
                                 
               questions submitted by senator ben cardin

    Question. Turkey maintains effective control over occupied northern 
Cyprus, maintaining tens of thousands of Turkish troops on Cypriot soil 
in violation of that country's sovereignty and numerous principles 
enshrined in the Helsinki Final Act. What is the United States doing to 
press Ankara to withdraw its troops from Cyprus consistent with 
numerous U.N. resolutions adopted since the 1974 invasion?

    Answer. Talks between the Turkish Cypriot and Greek Cypriot 
communities to reunify the island as a bizonal, bicommunal federation 
have been ongoing for nearly 3 years. The United States has long 
encouraged the Government of Turkey to support the reunification of 
Cyprus in a bizonal, bicommunal federation. The administration believes 
such an outcome is in the interest not only of Cyprus, but of Turkey, 
Greece, and the region.
    U.N. Secretary General Ban Ki-moon convened Turkish-Cypriot and 
Greek-Cypriot leaders on July 7 where the parties agreed to intensify 
their efforts to reach convergence on all core issues. The resolution 
of outstanding issues, including the removal of Turkish troops, is most 
likely to occur in the context of comprehensive settlement 
negotiations.
    If confirmed, I will continue to engage Turkey on this vital issue.

    Question. Today, indigenous Turkish Cypriots are outnumbered by 
settlers from Turkey. Please address this matter and relevant policies 
of the Government of Turkey that permit and promote this movement.

    Answer. Issues of citizenship and residency are being addressed 
through the U.N.-facilitated reunification talks--the best format to 
address these and all other issues related to a comprehensive solution 
to the Cyprus problem.
    Turkey at present has no official policy on resettlement. Following 
the events of 1974, some Turkish nationals migrated to Cyprus. Many 
have since been granted citizenship by the ``Turkish Republic of 
Northern Cyprus.''
    There is a shortage of commonly agreed statistics on how many 
people are living in the Turkish Cypriot community. The 2006 census 
undertaken by the Turkish Cypriot authorities put the number of ``TRNC 
citizens'' at more than half of the total population in the north, but 
some observers, on both sides of the ``Green Line'', question these 
statistics. The Greek Cypriot and Turkish Cypriot communities are each 
currently undertaking a census expected to be completed by the end of 
the year within the framework of the reunification talks. It is hoped 
that this work will help clarify these issues as part of a 
comprehensive settlement of the Cyprus problem.
                                 ______
                                 
          questions submitted by senator robert p. casey, jr.
    Question. I have serious concerns about Turkey's commitment to 
religious freedom, including limitations on the rights of Christians to 
practice their faith freely and the destruction of Christian religious 
heritage sites and churches. The U.S. Commission on International 
Religious Freedom (USCIRF) has placed Turkey on its ``watch list'' for 
the last 3 years. Moreover, Bartholomew I, the Ecumenical Christian 
Orthodox Patriarch, has reported that Turkey's Christians are treated 
as second-class citizens.

  <bullet> What steps is the United States taking to address these 
        serious concerns over the rights of religious minorities in 
        Turkey, including Orthodox Christians?

    Answer. We continue to stress the importance of religious freedom 
in Turkey at the highest levels of the Turkish Government. We also 
continue to raise our concerns regarding the restoration of previously 
confiscated property to religious minority communities with Turkish 
authorities at the highest levels. I understand that the current 
Government of Turkey has not engaged in the destruction or confiscation 
of religious sites. The Government of Turkey's recent decision to 
extend citizenship to 12 Orthodox metropolitans [one step below 
Patriarch in the Orthodox hierarchy with regional ecclesiastic 
responsibilities], which widens the pool of candidates eligible to 
serve as the next Ecumenical Patriarch was a positive development, as 
was the decision to return the Buyukada orphanage to the Patriarchate 
and more recently a church and cemetery to Kimisis Greek Orthodox 
Foundation on Bozcaada. It has also given permission for Christians to 
perform religious ceremonies in sites where previously this was 
prohibited, such as the Armenian church on Akdamar Island, and the 
Greek Orthodox monastery at Sumela in Trabzon. An Armenian church in 
Iskenderun will reopen soon. Given these and other positive steps, I 
believe the Government of Turkey understands our concerns on these 
issues and has itself determined that it must do more to protect the 
religious freedoms of all its citizens. In some circumstances, legal 
obstacles must be overcome. Turkey's efforts to reform its constitution 
creates an opportunity to address the issue of legal protections of 
citizens' freedoms, including religious freedom.

    Question. Cyprus's strategic location and shared tradition of 
democratic values makes it an important U.S. ally in the region. While 
it is important for the United States to take a balanced approach 
toward the Greek-Cypriots and Turkish-Cypriots in the ongoing 
settlement negotiations, more can be done to help Turkey understand 
that its ongoing troop presence in northern Cyprus is a hindrance to 
any final unification agreement.

  <bullet> How is the United States engaging with Turkey to urge an end 
        to the Turkish troop presence in northern Cyprus in order to 
        help promote a fair and lasting peace settlement in Cyprus?

    Answer. Talks between the Turkish-Cypriot and Greek-Cypriot 
communities to reunify the island as a bizonal, bicommunal federation 
have been ongoing for nearly 3 years. The United States has long 
encouraged the Government of Turkey to support the reunification of 
Cyprus on this basis. The administration believes such an outcome is in 
the interest not only of Cyprus, but of Turkey, Greece, and the region.
    U.N. Secretary General Ban Ki-moon convened Turkish-Cypriot and 
Greek-Cypriot leaders on July 7 where the parties agreed to intensify 
their efforts to reach convergence on all core issues. The resolution 
of outstanding issues, including the removal of Turkish troops, is most 
likely to occur in the context of comprehensive settlement 
negotiations.
    If confirmed, I will continue to engage Turkey on this vital issue.
                                 ______
                                 
             questions submitted by senator jeanne shaheen
    Question. Cyprus.--Prior to and during his recent visit to Cyprus, 
Prime Minister Erdogan stated that returning territories would not be 
part of reunification talks, nor would removal of 40,000 Turkish 
troops. Additionally, he stated his support for freezing relations with 
the European Union if Cyprus assumes the EU presidency.

  <bullet> Do you believe the Turkish Government is willing to 
        productively engage in talks based on a bizonal, bicommunal 
        Cyprus?
  <bullet> What steps have you taken to promote U.S. policy toward 
        Cyprus, and to push the Turkish Government toward satisfactory 
        talks?

    Answer. The administration strongly supports the Cypriot-led 
negotiations under the auspices of the U.N. Good Offices Mission to 
reach a comprehensive settlement reunifying the island as a bizonal, 
bicommunal federation. We believe that direct talks between the two 
sides is the best way to reach a just and lasting settlement. We are 
prepared to be helpful in any way that both parties desire, but the 
negotiations must be Cypriot-led to achieve an outcome satisfactory to 
both sides.
    We would like to see a settlement reached sooner rather than later, 
but we recognize just how difficult the process is. We are encouraged 
that the personal intervention of U.N. Secretary General Ban Ki-moon in 
June compelled both sides to intensify talks and we remain hopeful that 
a solution may be reached.
    We continue to urge both parties on Cyprus to make the tough 
compromises necessary for a solution. We also regularly underscore with 
our Greek and Turkish interlocutors the importance of the reunification 
negotiations and emphasize that everybody benefits from a settlement: 
Greece, Turkey, and Cyprus.

    Question. Iran.--What role do you see for Turkey with regard to 
Iran's nuclear program? Noting prior differences with Turkey on 
sanctions and enrichment plans, how should we move forward with Turkey 
to ensure that Iran does not develop a nuclear weapon?

    Answer. Turkey shares our goal of preventing a nuclear-armed Iran. 
While Turkey has a long history of cultural, political, and economic 
ties to Iran, as well as a long common border and shared populations, 
Turkey strongly supports the efforts of the international community to 
encourage Iran to engage with the P5+1 toward a diplomatic resolution 
of concerns about Iran's nuclear program. The Turkish Government and 
private sector have been cooperative in addressing specific concerns on 
various export control and sanctions issues. We will continue to 
encourage Turkey, as we encourage all states, to impress upon Iran the 
importance of complying with its international nuclear obligations as 
part of the necessary path to resolving all concerns with Iran's 
nuclear program.

    Question. Has Turkey, in your view, adequately enforced Iranian 
sanctions? If not, what steps do you intend to take to push for 
increased enforcement?

    Answer. The Turkish leadership has made very clear its opposition 
to a nuclear-armed Iran and has stated both publicly and privately that 
it will fully implement all UNSCR sanctions against Iran. We are also 
engaging vigorously with both the Turkish Government and the Turkish 
private sector to ensure that CISADA sanctions are both understood and 
implemented. Turkey has been a strong partner on nonproliferation and 
if confirmed, I will continue to work to maintain close cooperation on 
these issues and work with the Government of Turkey to share 
international best practices in implementation of the U.N. sanctions.

    Question. European Union.--Do you believe Turkey can still find a 
path forward for eventual EU membership? What do you believe are the 
most important unresolved issues in Turkey and in Europe for Turkey in 
the European Union?

    Answer. The United States believes that Turkey's full accession 
into the European Union would benefit both the EU and Turkey, and we 
have made this clear to the EU, its members, and Turkey. As the 
President has said, ``the most important thing we can do with Turkey is 
to continue to engage, continue to hold out the advantages for them of 
integration with the West, while still respecting their own unique 
qualities.''
    Ultimately, the decision rests with both the EU and with Turkey to 
move forward with the accession process, which entails progress on the 
remaining 20 chapters in the Acquis Comunitaire process.
    To advance this process forward, the administration continues to 
encourage and support the Turkish Government and civil society as they 
strive to implement reforms, particularly involving democracy, human 
rights, and rule of law. Turks themselves want to see a more democratic 
Turkey and the Turkish Government continues to pledge its commitment to 
the EU accession process.
                                 ______
                                 
               questions submitted by senator marco rubio
    Question. According to the 2011 State Department Trafficking in 
Persons Report, Turkey is a Tier 2 source, destination, and transit 
country for men, women, and children subjected to sex trafficking and 
forced labor. The report notes that human trafficking in Turkey affects 
women and children from Eastern Europe and former Soviet Union States, 
but also Turkish women who are subject to trafficking within their own 
country. At the same time, Turkey has taken positive measures, such as 
providing grants for the operation of its national IOM antitrafficking 
hotline.

  <bullet> If confirmed, what would be your strategy to encourage the 
        Turkish Government to aggressively combat trafficking within 
        Turkey, including trafficking affecting its own citizens?
  <bullet> How will you encourage the justice system in Turkey to use 
        their antitrafficking laws properly and provide proper 
        punishment of traffickers?

    Answer. We recognize that trafficking cases are inherently 
difficult to prosecute and we all must improve efforts to uncover 
victims of forced labor and sex trafficking. No country has established 
a truly comprehensive response to the crime of human trafficking, and 
the United States and Turkey share common challenges in addressing and 
making progress in combating TIP.
    We were pleased to note in the Department's 2011 Trafficking in 
Persons (TIP) Report that the government improved its recognition of 
forced labor and domestic trafficking and provided grants for the 
operation of its national IOM antitrafficking hotline. The Turkish 
Penal Code prohibits both sex trafficking and forced labor under which 
28 offenders were convicted and received sentences ranging from 2 to 24 
years' imprisonment. While Turkey demonstrated some progress in 
protecting trafficking victims, it did not address critically needed 
improvements to achieve a more victim-centered approach to TIP.
    If confirmed, I am committed to continued partnership with the 
Government of Turkey to address this important issue. When it comes to 
the prosecution of TIP, I will continue to urge the government, if 
confirmed, to finalize draft legislation that prohibits internal 
trafficking in Turkey and improve witness protection measures that give 
witnesses greater incentive to cooperate with law enforcement 
officials. If confirmed, I will also stress with the government the 
importance the U.S. attaches to providing NGOs with sustainable funding 
for NGO shelters that in turn extend critical comprehensive care to 
victims as well as stepping up its efforts to proactively identify 
victims of this inherently hidden crime.

    Question. Good relations between Armenia and Turkey are 
particularly important to stability in the Caucasus and our Nation's 
interests. In June, the Turkish people democratically elected Prime 
Minister Erdogan's Justice and Development Party to a third consecutive 
term as the majority in the Turkish Parliament.

  <bullet> In your view, what are the prospects of Turkish ratification 
        of the 2009 Zurich Protocols to normalize relations with 
        Armenia, given the results of the June parliamentary elections?

    Answer. We commend the Governments of Armenia and Turkey on their 
signing of the historic protocols on normalization of relations on 
October 10, 2009, in Zurich. Officials from the Government of Turkey 
continue to state their commitment to the protocols. Normalization 
between Turkey and Armenia remains a feature of our dialogue with both 
countries. Secretary Clinton and other senior officials continue to 
raise ratification of the protocols with Turkish leaders. Facilitating 
regional integration is a particular priority for the United States. We 
believe that rapprochement between Armenia and Turkey will foster 
increased stability and prosperity in the entire Caucasus region. We 
are encouraged that both sides remain committed to the process, and we 
will continue to actively urge all parties to take steps to move the 
process forward.

    Question. Turkey has been an invaluable NATO ally, and the hope is 
that their economic success and democratic consolidation will 
strengthen that role.

  <bullet> Is Turkey still considering hosting the radar in 
        southeastern Europe as part of the European Phased Adaptive 
        Approach to missile defense, and, if so, when is a decision 
        expected?

    Answer. On September 19, 2009, President Obama announced the 
European Phased Adaptive Approach to missile defense, which will 
provide for the defense of U.S. deployed forces and our allies in 
Europe sooner and more comprehensively than the previous plan. This 
approach is based on a new assessment of the missile threat, and a 
commitment to deploy technology that is proven, cost-effective, and 
adaptable to an evolving security environment. At the Lisbon NATO 
Summit in November 2010, allies agreed to develop a territorial missile 
defense capability for the full coverage and protection of all NATO 
European territory, populations, and forces against the increasing 
threats posed by the proliferation of ballistic missiles. Allies also 
welcomed the EPAA as the U.S. national contribution to this essential 
NATO task. We welcomed Turkey's support as well as the support of all 
allies for the success of this important mission.
    The administration has made substantial progress in implementation 
of the EPAA. We are in discussions for the deployment of an AN/TPY-2 
radar to southern Europe. A forward-based radar will provide additional 
sensor coverage to enhance the existing U.S. homeland missile defense 
architecture. While no decision has been made, we expect to meet our 
goals for deployment beginning in 2011.
    The administration has held regular discussions with all NATO 
allies about the EPAA and NATO Missile Defense, including Turkey. We 
look forward to continuing such discussions with Turkey and other 
allies.
                                 ______
                                 

 Response of Norman Eisen to Question Submitted by Senator Marco Rubio

    Question. According to the 2011 State Department Traffic in Persons 
Report, the Czech Republic is a Tier 2 source, destination, and transit 
country for human trafficking. Despite meaningful antisex trafficking 
measures, the Czech Republic is struggling to address labor trafficking 
cases, especially trafficking through their private labor recruitment 
agencies.

  <bullet> If confirmed, what would be your strategy to work with the 
        Czech Government to reinforce their antitrafficking laws to 
        more effectively combat this scourge?

    Answer. As you point out, the Czech Republic has a strong program 
for preventing and combating sex trafficking and protecting its 
victims. Government engagement is backed by an energetic 
nongovernmental sector that ensures that victims' rights remain on the 
public agenda. However, the Embassy identified significant shortcomings 
in preventing labor trafficking last year, which I took up with senior 
government officials. The concerns we identified resulted in the Czech 
Republic being downgraded to Tier 2 in the 2011 Trafficking in Persons 
Report.
    I and my staff are actively engaged with our Czech counterparts in 
government and NGOs on improving the labor trafficking situation and we 
have a strong relationship with the antitrafficking interlocutors in 
the country. The Czech Government has dedicated an interministerial 
committee to coordinate the government's response to trafficking in 
persons, and the Embassy has participated in this body's discussions. 
We have submitted an action plan to the Czech Government on addressing 
the concerns you raise, and the government is already actively working 
with us to achieve results. For example, the Czech Government has 
introduced legislation to fund the hiring of more labor inspectors and 
a law enacted in January makes disreputable labor agencies more 
difficult to establish and maintain. The action plan, developed with 
experts at the Department of State, is specifically aimed at improving 
regulation of labor agencies; prosecution of labor traffickers; and 
education of law enforcement officials to better identify victims.


                               NOMINATION

                              ----------                              


                      WEDNESDAY, SEPTEMBER 7, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Wendy R. Sherman, of Maryland, to be Under Secretary of 
        State for Political Affairs
                              ----------                              

    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin presiding.
    Present: Senators Cardin, Menendez, Casey, Shaheen, Coons, 
Udall, Lugar, Risch, DeMint, Barrasso, and Lee.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. The Senate Foreign Relations Committee will 
come to order. Good morning, everyone. We are gathered today in 
regards to the nomination of the Honorable Wendy R. Sherman of 
Maryland to serve as Under Secretary of State for Political 
Affairs.
    First, I want to thank Senator Kerry for allowing me to 
chair this hearing. Senator Kerry has a statement for the 
record and without objection that will be made part of the 
record.
    [The prepared statement of Senator Kerry follows:]

                Prepared Statement of Hon. John F. Kerry

    I am pleased that this morning the Senate Foreign Relations 
Committee is welcoming Ambassador Wendy Sherman, an exceptional public 
servant whom the President has nominated to be Under Secretary of State 
for Political Affairs.
    Ambassador Sherman brings a tremendous depth of foreign policy and 
political experience to this position. She served as Assistant 
Secretary of State for Legislative Affairs, as well as Counselor to the 
Secretary of State, during the Clinton administration. She is also 
familiar with Capitol Hill, having served as chief of staff to Senator 
Barbara Mikulski. There is no doubt in my mind that, if confirmed, she 
will do a tremendous job in this critical diplomatic post.
    We need diplomats of her caliber to guide us through the challenges 
we face today. In the past months alone, we have all been captivated by 
the incredible wave of change sweeping the Middle East. We have been 
inspired by the people in Tunisia and Egypt who demanded freedom and 
dignity and an end to repression and corruption. And we have been moved 
by the courageous uprising in Libya that has led to the downfall of 
Moammar Qaddafi.
    But we have also watched with increasing horror as the Syrian 
Government uses violence and brutality against its own people. And we 
need to beware of the downward spiral taking place in Yemen, and the 
dangerous implications for the region if the government in Sanaa were 
to leave a power vacuum in its wake. Clearly, it is a time of great 
possibility, but also of great danger, in a region that is vital to 
U.S. interests.
    Amid these challenges in the Middle East, we still have to manage 
our involvement in many other regions. This spring, for example, the 
committee held a series of hearings on how to approach our engagement 
in Afghanistan and Pakistan. We will spend $120 billion in Afghanistan 
this fiscal year alone. We must be sure that scarce resources are being 
used effectively and constructively, and we must also be aware that 
large expenditures can constrain our ability to act elsewhere.
    As the world has seen in the past several weeks, our budgetary 
constraints are forcing increasingly painful tradeoffs. We cannot 
afford to be the world's first responder whenever a crisis arises--we 
need strong multilateral partners who can help us shoulder this burden. 
At the same time, I take very seriously the notion that no other 
country in the world has our resources, capabilities, or expertise to 
save lives, mitigate disasters, and prevent catastrophes. We have 
managed to accumulate tremendous wealth, power, and influence--and with 
that comes equivalent responsibility. When we fail to act, the world 
all too often is silent as well. Even as we work to address the budget 
crisis facing our country we must not shortchange our ability to 
conduct foreign policy--the money we spend abroad is not a gift to 
foreign nations. It is an investment in our national security.
    And, make no mistake: going forward, we will face an incredibly 
wide range of foreign policy challenges, including the growing economic 
and political potency of China, India, and Brazil, as well as that of a 
host of emerging powers, like South Africa, Indonesia, and Turkey. More 
than ever, our national security interests are closely interconnected 
with our economic interests.
    What this time demands from our leading diplomats is not only 
remarkable commitment and skill, but remarkable versatility. And I am 
very gratified that the President has nominated someone with all of 
those talents to such an important position.
    Ambassador Sherman, we thank you for your continued dedication to 
public service and to helping lead the Department of State through such 
a decisive period in our foreign policy. I look forward to your 
testimony.

    Senator Cardin. I would also announce that the record will 
remain open until close of business today in regards to this 
hearing.
    This is a unique pleasure for me, to be able to chair a 
hearing for Ambassador Sherman. Senator Mikulski and I are very 
proud of Ambassador Sherman and her incredible history of 
public service to our country. We're very proud of her and 
we're proud that she hails from Maryland, and we thank her for 
being willing to step forward for this very important 
assignment that President Obama has asked her to fulfill.
    I also want to acknowledge her husband, Bruce Stokes, who's 
in attendance, as well as her daughter, Sarah Sherman Stokes, 
and her husband, Chris Richards. This is a family sacrifice, 
public service. I think we all understand that. And although we 
appreciate very much Ambassador Sherman's willingness to serve, 
we know that it involves a very understanding family. So we 
thank you all for being willing to share your wife, your 
mother, with us in public service and with your Nation.
    Ambassador Sherman brings a wealth of foreign policy and 
political experience to what is a critical position at State, 
particularly at this pivotal time in world events. We continue 
to find ourselves in the midst of a singular time period in 
history. It's hard to recall another era characterized by so 
much turmoil, but also by such great possibilities.
    Many have been captivated first and foremost by the wave of 
change sweeping the Middle East. We have been inspired by the 
people of Tunisia and Egypt, who have demanded freedom and 
dignity, an end to repression and corruption. We have been 
moved by the courageous uprising in Libya. But we've also 
watched with increasing disgust the Syrian Government's 
indiscriminate use of violence and brutality against its own 
people.
    Of course, there are foreign policy challenges in all parts 
of the world. We are still actively engaged in Afghanistan, 
Iraq, and Pakistan. All these present challenges for the United 
States and for the position that Ambassador Sherman has been 
nominated to. We also have significant economic and political 
challenges stemming from China, India, and Brazil, as well as 
from a host of emerging powers.
    As we experienced firsthand this summer, our budget 
constraints are forcing increasingly painful tradeoffs. We 
cannot afford to be the world's first responders whenever a 
crisis arises. We need strong multilateral partners who can 
help us shoulder this burden.
    At the same time, my colleagues and I take very seriously 
the notion that no other country in the world has the 
resources, the capabilities, and the expertise to stabilize, 
mitigate disasters, and prevent catastrophes as the United 
States. We have managed to accumulate tremendous wealth, power, 
and influence, and with this comes a high moral responsibility.
    Today I have the pleasure of welcoming Ambassador Sherman. 
She'll be formally introduced by my colleague Senator Mikulski, 
but I just really want to point out to the committee the 
incredible record that Ambassador Sherman brings to this 
nomination. She attended Smith College, graduating with honors 
from Boston University. Sherman earned a master's degree in 
social work from the University of Maryland, launching her on a 
career path of public service at the community, State, 
national, and international levels, including a stint right 
here on Capitol Hill, having served as chief of staff for the 
senior Senator from Maryland, Senator Mikulski.
    I remember very well her as chief of staff and the way that 
she not only managed Senator Mikulski's Senate office, but the 
way that she worked with all of us to make sure that we were 
all well informed.
    Her responsibilities in senior positions at the State 
Department beginning in the early 1990s, combined with her 
considerable experience in the private sector, have prepared 
her well to assume the tasks associated with the Under 
Secretary of State for Political Affairs, the position to which 
she has been nominated. I would note that Ms. Sherman will be 
the first woman to serve in this position once she is 
confirmed.
    Ms. Sherman's past policy experience will be especially 
helpful as she assists the Secretary and Deputy Secretary to 
formulate a foreign policy at this critical time in 
relationship to our allies and adversaries alike.
    With that, let me turn to Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. I join 
you in welcoming Ms. Sherman. I appreciate her experience and 
her willingness to rejoin public service at a very challenging 
moment for United States foreign policy.
    Soon after taking office, Secretary of State Clinton 
initiated the first-ever Quadrennial Diplomacy and Development 
Review, the QDDR, modeled after a long-standing Pentagon 
strategic assessment process. What emerged last December, after 
18 months, was largely a blueprint for improving coordination 
of America's existing foreign policy and foreign aid 
operations, and an agenda for future reforms.
    But that exercise did not prioritize policy goals, nor did 
it take account of the rapidly changing domestic budget 
environment. For many months Congress and the President have 
been involved in deliberations on the budget that are focused 
on reducing massive Federal deficits in the short run and 
constructing a long-term strategy for dealing with a national 
debt that is approaching $15 trillion.
    This governmentwide budget focus will continue this fall, 
with the Joint Select Committee on Deficit Reduction holding 
its first meetings this week. If the Super Committee process 
does not produce a viable budget reduction plan, agencies and 
programs will face automatic sequestrations.
    In this context, the State Department must be planning how 
to perform its important national security, economic, consular, 
and diplomatic missions in a declining resource environment. 
This planning should proceed far more rapidly than the QDDR, in 
part because at its heart, it is not just a management 
exercise, it is a policy imperative.
    Even apart from budget dynamics, I remain concerned that 
our national security policy is being driven without sufficient 
planning or strategic design. The expansion of the Afghanistan 
mission and the intervention in Libya, in particular, have 
occurred with limited reference to strategic goals or vital 
interests. As I noted in our hearing series on Afghanistan 
several months ago, it is difficult to see how the current 
level of United States expenditures in that country can be 
squared with a rational allocation of national security 
resources.
    Undoubtedly, global emergencies will occur that require an 
American response. The State Department has often been adept at 
moving existing funds around to address urgent contingencies. 
We also have seen recent efforts to trim civilian projects in 
Afghanistan or elongate their timeframe to reduce the rate of 
spending. But if resources for national security contingencies 
decline, as most observers expect, U.S. policy will require a 
much more defined set of priorities and the strategic 
discipline to stick to them.
    The State Department and the White House should be working 
with Congress to articulate a set of priorities to be funded 
that are based on vital national security interests. Within the 
State Department, the impetus for such planning must come from 
the highest levels. I will be interested to hear the nominee's 
views of United States national security priorities, the State 
Department's response to intensifying budget limitations, and 
the prospects for improving strategic planning at the State 
Department and throughout our government.
    We welcome Ms. Sherman and I thank the chair and look 
forward to our discussion.
    Senator Cardin. I thank you very much, Senator Lugar.
    It's now my privilege to introduce my colleague in the U.S. 
Senate, Senator Barbara Mikulski.

              STATEMENT OF HON. BARBARA MIKULSKI,
                   U.S. SENATOR FROM MARYLAND

    Senator Mikulski. Good morning, Senator Cardin, Senator 
Lugar, Senator DeMint. It is with a great deal of pride and 
enthusiasm I come before you today to unabashedly lend my 
support for Wendy Sherman to be the Under Secretary of State 
for Political Affairs. I believe that Secretary Clinton has 
chosen wisely because Ambassador Sherman brings to this post an 
exceptional background and a great deal of skill. She has 
unique abilities that she wants to put to work in the public 
service for our country.
    As you stated, Senator Cardin, I've known Wendy Sherman for 
25 years. I've known her as a friend, a chief of staff, and she 
continues to be a close adviser. I do know Wendy Sherman and 
therefore that's why I'm so clear that this would be an 
outstanding nomination and hope the committee confirms her.
    She brings competence, intelligence, and integrity. Wendy 
will be an invaluable member of our foreign policy team, 
advancing the global interests of our country, a safer country, 
a stronger economy. She is a strategic thinker, a seasoned 
diplomat, and an experienced manager and negotiator, and 
knowledgeable of the world and the issues that the United 
States faces.
    She understands and respects the important role of Congress 
in foreign policy. As Assistant Secretary of State for 
Legislation under President Clinton and then-Secretary Warren 
Christopher, she knew how to listen to us, made sure our voices 
were heard at the State Department, and was truly bipartisan in 
her approach and in her work.
    She played a role, working with Secretary Albright, on 
every major foreign policy issue. She managed very special 
assignments at the request of the Secretary, including 
negotiations on nonproliferation. She also has extensive 
experience in the private sector. That doesn't usually happen 
at the State Department. They usually come from academia, a 
good place to come from, from Congress--some might say an even 
better place to come from--and then the private sector, which 
we cannot have a safer country and a stronger economy unless we 
know how it all works together.
    Ambassador Sherman in her role, having left government, has 
worked with iconic American companies to expand and compete in 
the global economy, to make sure we had a presence over there 
while we kept jobs here. It is her unique ability to understand 
the world, but understand the people of the United States of 
America that she serves, and also the constitutional 
requirement that the executive branch must consult with 
Congress on important affairs of state.
    She has an incredible background and one that might be 
unique, as I've outlined. Senator Cardin talked about how she 
went to Smith, was an honors graduate from Boston, and then we 
both went to the University of Maryland School of Social Work. 
I was a couple of yearbooks away from Ambassador Sherman, but 
we did go to that outstanding school, where we learned 
community development and social strategy.
    What we learned there was to accomplish a goal you have to 
organize based on a felt need, around a goal, a noble idea, and 
build the support to do it. She will work at her job to build 
support, both within our own country and within the world, to 
advance our vital interests.
    One of the important things I think also about Ambassador 
Sherman is her incredible commitment to public service. It is 
in her DNA. She comes from a wonderful family. Senator Cardin, 
you and I know her parents very well, Mel and Mimi Sherman, who 
were prominent in the Baltimore business community, in the real 
estate community, and they were known for their high principles 
of integrity, their commitment to social justice, and they knew 
that you could do well while doing good.
    It is there that they had--and I know that Ambassador 
Sherman learned first about foreign affairs trick or treating 
for UNICEF to help the little kids of the world, and now she's 
going to be a big kid on the block helping the little children 
of the world.
    Her husband Bruce is a distinguished journalist and 
international economist. Her daughter Sarah is a recent law 
school graduate, again committed to public service and her 
husband, Dr. Chris Richards.
    So I think the committee would do well to take the 
executive branch's nomination and to move her forward. I look 
forward to working with you should the committee decide to vote 
to advance this on the agenda.
    Thank you for your kind attention and I know you want to 
hear from Ambassador Sherman.
    Senator Cardin. Well, Senator Mikulski, let me thank you 
for your comments. I join you in presenting to the committee, 
Ambassador Sherman, strongly support her confirmation, and just 
want to underscore the personal aspects that you did. I've 
known the Sherman family all my life and I've known Wendy all 
my life, and they're an incredible public family in that they 
have given back so much to our community, and we're very proud 
of your record and very proud of your willingness to step 
forward for this important assignment.
    Ambassador Sherman.

 STATEMENT OF HON. WENDY R. SHERMAN, OF MARYLAND, NOMINATED TO 
       BE UNDER SECRETARY OF STATE FOR POLITICAL AFFAIRS

    Ambassador Sherman. Good morning, Senator Cardin, chairman 
for today, and Senator Lugar, whom I've had the distinguished 
honor to work with for many, many years, and to all of the 
members of the committee, Senator DeMint, Senator Udall, and 
others who may join.
    I'm very honored to be here. I want to begin by thanking 
President Obama and Secretary Clinton for their confidence and, 
with your support, for the opportunity once again to serve our 
country.
    Senator Mikulski and Senator Cardin, I am so very grateful 
for your friendship, your support, your wonderful words, and 
for your leadership and service to all of us who are 
Marylanders and to all Americans. I'm very humbled by your 
introductions this morning.
    If I may, thanks as well to my husband, Bruce, and all of 
my family--I'm so delighted that my daughter, Sarah, and her 
husband, Chris, can be here today--to all of my family, as 
Senator Cardin said, who are willing once again to have the 
phone ring in the middle of the night and to welcome me home 
after yet another trip abroad.
    None of us can contemplate these responsibilities without a 
mighty support system of family, friends, and colleagues, 
several of whom are with me here today.
    This is the third time I have come before this panel 
seeking confirmation. In 1993 the chairman was Senator 
Claiborne Pell, who always carried a copy of the United Nations 
Charter in his pocket, proudly pulling it out and reminding us 
all how we must all work for peace and prosperity. My own 
parents, in fact, were at the founding meeting of the U.N. in 
1945 in San Francisco. My father, an Active-Duty Marine, 
stateside after being wounded at Guadalcanal, helped to 
organize veterans to advocate in support of the world body. He 
was determined to do all that he could to save future 
generations from the trauma that his own generation had 
experienced.
    In 1997 when I appeared before the committee for the second 
time, the chair was Senator Jesse Helms. It will not surprise 
you to learn that he and I did not always agree. But I never 
doubted his love for our country, and he never doubted mine, 
either privately or publicly. Those who knew him know that he 
was a true gentleman. When I had surgery, he called me at home. 
And when we failed to see eye to eye on an issue, there was 
never any questioning of sincerity or motives.
    Today, under the leadership of Chairman Kerry and Ranking 
Member Lugar, the committee is at the forefront of debate about 
America's position in a world of constant change. But what has 
not changed is the professional and dedicated manner in which 
the committee conducts the Nation's business.
    I am grateful for your courtesy and look forward, if 
confirmed, to working with you in the future, just as I have 
worked with many of you in prior years.
    I'm also humbled by the knowledge that the job of Under 
Secretary for Political Affairs has been filled in the past by 
people for whom I have enormous respect, including most 
recently Ambassador Bill Burns, an outstanding member of the 
Foreign Service who continues his service as Deputy Secretary.
    If I had to write a job description for the position, it 
would begin and end with a willingness to take on whatever 
assignments are deemed necessary by the Secretary of State. If 
confirmed, I will bring to this new assignment years of 
experience as a staff member on Capitol Hill, as Assistant 
Secretary and counselor at the Department of State, and as the 
President's Special Adviser on North Korea. In recent years I 
have gained valuable additional experience in the private 
sector. This background has enabled me to develop skills as a 
negotiator, strategist, troubleshooter, and problem solver.
    I think you will find also that I'm a good listener. As 
chief of staff of then-Congresswoman Mikulski and later as 
Assistant Secretary of State for Legislative Affairs, I had a 
good deal of practice. Listening is important, not only in 
meeting with foreign officials, but in consulting with you, the 
representatives of the American people, and our citizens.
    My old boss and current business partner, Secretary 
Albright, used to say there is nothing foreign about foreign 
policy. What the State Department does and what this committee 
does is intimately related to the health of our economy, the 
demands made on our military, the safety of our people, and the 
future of our children. It is vital that we communicate these 
connections to the public.
    Mr. Chairman, I expect during the course of this hearing 
that we will cover many of the specific countries and 
controversies that presently concern us across the globe. 
Rather than try to address those in this brief opening 
statement, I thought I would summarize very quickly the 
attributes of American foreign policy that I intend to stress 
if confirmed to the position of Under Secretary of State.
    The first is persistence. I think we make a mistake when we 
look for quick answers to hard problems. It's always tempting 
to seek instant gratification, but that is generally, 
unfortunately, not how the world works. We owe it to ourselves, 
to the public we serve, and to our allies to persevere in our 
strategies, maintain our commitments, and finish the jobs we 
begin.
    Second, we need to take advantage of the full range of 
foreign policy tools. These extend from the simple art of 
persuasion to the persuasive impact of military force, and 
include in between a variety of carrots and sticks. When 
possible, we should act with others. When necessary, we should 
not hesitate to act alone. Our military must be strong, 
versatile, and ready, but the same is true of our civilian 
resources.
    Third, American foreign policy must reflect a blend of 
idealism and realism. A decisionmaker has no choice but to 
begin with the world as it is, but our decisions would have no 
purpose if not to shape the world as we would like it to be. We 
cannot claim to represent the American people if we do not 
explore every opportunity to support freedom, prosperity, and 
justice.
    In pursuing our interests and our values, we must also 
reach out in the broadest possible way to governments, opinion 
leaders, young people, women and girls, the private sector, and 
civil society in all its dimensions. We must also take 
advantage of the opportunities presented by the information 
technologies and networking capabilities of the 21st century.
    Finally, in all that we do we must keep in mind on whose 
behalf we serve and in whose interests we labor. The Department 
of State, like this committee, exists not to represent the 
world to the United States, but to enhance American influence 
across the globe. We may disagree on occasion about how best to 
do that, but there should be no confusion about the nature of 
our purpose.
    Certainly no one understands better than Secretary Clinton 
and this committee's members the importance of investing our 
dollars very wisely, of tieing our diplomatic initiatives to 
the best interests of our country, of making sure that our 
policies reflect and uphold American values. At the same time, 
as an optimist I see a convergence, a growing convergence, 
between our interests and those of other peaceloving and law-
abiding countries. The art of diplomacy is to mobilize others 
to coordinate with us in pursuit of shared goals, whether we 
have in mind the further degradation of al-Qaeda, a halt to 
nuclear proliferation, or the strengthening of stability and 
democracy in every corner of the world.
    In closing, I want to once again thank the President and 
Secretary of State for their support, to say how very much I 
look forward, if confirmed, to working closely with the members 
of the committee and your colleagues in Congress, and to 
express my gratitude for the opportunity, with your blessing, 
to devote my full energies to serving the country we all love.
    I thank you again for your hospitality and would be pleased 
to respond to your questions. Thank you.
    [The prepared statement of Ambassador Sherman follows:]

           Prepared Statement of Ambassador Wendy R. Sherman

    Good morning, Senator Cardin, Senator Lugar and members of the 
committee, I am honored to be here and want to begin by thanking 
President Obama and Secretary Clinton for their confidence, and with 
your support, for the opportunity once again, to serve our country.
    Senator Mikulski and Senator Cardin, I am very grateful for your 
friendship, your support, and for your leadership and service to all of 
us who are Marylanders--and Americans. I am humbled by your 
introductions this morning.
    And, if I may, thanks as well to my husband, Bruce, and all of my 
family who are willing once again to have the phone ring in the middle 
of the night and to welcome me home after yet another trip abroad. None 
of us can contemplate these responsibilities without a mighty support 
system of family, friends, and colleagues.
    This is the third time I have come before this panel seeking 
confirmation.
    In 1993, the chairman was Senator Claiborne Pell, who always 
carried a copy of the United Nations Charter in his pocket, proudly 
pulling it out and reminding us how we all must work together for peace 
and prosperity.
    My own parents, in fact, were at the founding meeting of the U.N. 
in 1945 in San Francisco. My father, an Active-Duty Marine, stateside 
after being wounded at Guadalcanal, helped to organize veterans to 
advocate in support of the world body; he was determined to do all he 
could to save future generations from the trauma that his own 
generation had experienced.
    In 1997, when I appeared before the committee for the second time, 
the chair was Senator Jesse Helms.
    It will not surprise you to learn that he and I did not always 
agree, but I never doubted his love for our country and he never 
doubted mine either privately or publicly.
    Those who knew him know that he was a true gentleman; when I had 
surgery, he called me at home; and when we failed to see eye to eye on 
an issue, there was never any questioning of sincerity or motives.
    Today, under the leadership of Chairman Kerry and Ranking Member 
Lugar, the committee is at the forefront of debate about America's 
position in a world of constant change--but what has not changed is the 
professional and dedicated manner in which the committee conducts the 
Nation's business.
    I am grateful for your courtesy and look forward, if confirmed, to 
working with you in the future just as I have worked with many of you 
in prior years.
    I am humbled by the knowledge that the job of Under Secretary of 
State for Political Affairs has been filled in the past by people for 
whom I have enormous respect, including most recently Ambassador Bill 
Burns, an outstanding member of the Foreign Service, who continues his 
service as Deputy Secretary.
    If I had to write a job description for the position it would begin 
and end with a willingness to take on whatever assignments are deemed 
necessary by the Secretary of State.
    If confirmed, I will bring to this new assignment years of 
experience as a staff member on Capitol Hill, as Assistant Secretary 
and Counselor at the Department of State, and as the President's 
special advisor on North Korea. In recent years, I have gained valuable 
additional experience in the private sector.
    This background has enabled me to develop skills as a negotiator, 
strategist, trouble-shooter and problem-solver. I think you will also 
find that I am a good listener. As Chief of Staff to then-Congresswoman 
Mikulski, and later as Assistant Secretary of State for Legislative 
Affairs, I had a good deal of practice. Listening is important not only 
in meetings with foreign officials; but in consulting with you--the 
representatives of the American people and with our citizens.
    My old boss, Secretary Albright, used to say that there is nothing 
foreign about foreign policy. What the State Department does, and what 
this committee does, is intimately related to the health of our 
economy, the demands made on our military, the safety of our people, 
and the future of our children. It is vital that we communicate these 
connections to the public.
    Mr. Chair, I expect, during the course of this hearing, that we 
will cover many of the specific countries and controversies that 
presently concern us across the globe. Rather than try to address those 
in this opening statement, I thought I would summarize very quickly the 
attributes of American foreign policy that I intend to stress if 
confirmed to the position of Under Secretary of State.
    The first is persistence. I think we make a mistake when we look 
for quick answers to hard problems. It is always tempting to seek 
instant gratification, but that is generally not how the world works. 
We owe it to ourselves, to the public we serve, and to our allies, to 
persevere in our strategies, maintain our commitments, and finish the 
jobs we begin.
    Second, we need to take advantage of the full range of foreign 
policy tools. These extend from the simple art of persuasion to the 
persuasive impact of military force and include in between a variety of 
carrots and sticks. When possible, we should act with others; when 
necessary, we should not hesitate to act alone. Our military must 
remain strong, versatile, and ready, but the same is true of our 
civilian resources.
    Third, American foreign policy must reflect a blend of idealism and 
realism. A decisionmaker has no choice but to begin with the world as 
it is; but our decisions would have no purpose if not to shape the 
world as we would like it to be. We cannot claim to represent the 
American people if we do not explore every opportunity to support 
freedom, prosperity, and justice.
    In pursuing our interests and our values, we must also reach out in 
the broadest way possible--to governments, opinion leaders, young 
people, women and girls, the private sector and civil society in all 
its dimensions. We must also take full advantage of the opportunities 
presented by the information technologies and networking capabilities 
of the 21st century.
    Finally, in all that we do, we must keep in mind on whose behalf we 
serve and in whose interests we labor. The Department of State, like 
this committee, exists not to represent the world to the United States, 
but to enhance American influence across the globe. We may disagree on 
occasion about how best to do that, but there should be no confusion 
about the nature of our purpose. Certainly, no one understands better 
than Secretary Clinton and this committee's members the importance of 
investing our dollars wisely, of tying our diplomatic initiatives to 
the best interests of our country, and of making sure that our policies 
reflect and uphold American values.
    At the same time, I see a growing convergence between our interests 
and those of other peace-loving and law-abiding countries. The art of 
diplomacy is to mobilize others to coordinate with us in pursuit of 
shared goals--whether we have in mind the further degradation of al-
Qaeda, a halt to nuclear proliferation, or the strengthening of 
stability and democracy in every corner of the world.
    In closing, I want once again to thank the President and Secretary 
of State for their support, to say how much I look forward, if 
confirmed, to working closely with the members of the committee and 
your colleagues in Congress, and to express my gratitude for the 
opportunity--with your blessing--to devote my full energies to serving 
the country we all love.
    I thank you again for your hospitality and would be pleased to 
respond to your questions.

    Senator Cardin. Once again, thank you for your appearance 
here and your testimony.
    I want to start off with a point that I raised in my 
opening statement, and Senator Lugar also did, and that is the 
fiscal realities that we're finding ourselves in. The United 
States has a security budget that includes not only the 
Department of Defense, but our civilian efforts of diplomacy 
within the State Department. We spend more than any other 
nation in the world by far in regards to our defense issues. On 
the diplomacy civilian side, we spend a lot of money, but as a 
relative part of our budget it's relatively small.
    The Obama administration has made the point over and over 
again that we have a national security budget, that we need to 
be able to use all resources, whether they're military or 
civilian or diplomacy, in regards to our national security 
interests.
    I would ask you to share with us how you would go about 
making priority recommendations to the administration. There 
are a lot of demands out there. We're still involved, 
obviously, in Afghanistan and Iraq. Pakistan is a huge 
challenge for the United States and could become an expensive 
operation for us, already is an expensive operation for us. In 
addition, there are opportunities, new opportunities in Egypt. 
We have Libya that is emerging.
    So how will you go about--will you share to us the 
standards you will use in trying to make priority judgments. 
You know we are faced with the possibility of across-the-board 
cuts if the Congress is unable to reduce the deficit further, 
which could obviously bring in tough decisionmaking challenges 
to the Department of State.
    Ambassador Sherman. Thank you very much, Senator Cardin. 
This is a very tough question that we're beginning the hearing 
with, and I know that for every member you've just come back 
from recess and talking with your constituents and being back 
in communities. And American families are worried about 
everything from the floods in their neighborhoods to, quite 
importantly, whether they or loved ones are going to have a job 
to be able to support their families and have the kind of 
future that we all hope for our children.
    So when we think about foreign policy priorities, I'm sure 
you hear from many constituents, why are we spending a single 
dollar abroad? We need every dollar we have in our budget, 
particularly as we need to deal with our deficit, and we need 
to create opportunities for jobs for people at home. We need 
every dollar at home.
    At the same time, I know that the American people are well 
aware that on Sunday we will memorialize 10 years since 9/11 
and the tremendous threat of terror that came across an ocean 
we thought would never reach our homeland, and the terrible 
cost in lives, in the way we go about our civil society, in the 
ways we face our future.
    So I think Americans understand that in order to have the 
economic future we want we are inexorably connected to the 
world. We are connected to the world's economy. We are 
connected to events that take place in the world that are going 
to have an impact on what happens to us here at home.
    So we have to find the right balance. Most Americans 
believe that we spend 40 percent of our budget on foreign 
policy. When we ask them how much we should spend, they say 20 
percent. As I think all the members of this committee know, we 
spend less than 1 percent of the Federal budget on foreign 
policy priorities.
    Even with that 1 percent, as you say quite rightly, we are 
going to have to be very thoughtful about what we do. President 
Obama, Secretary Clinton, have really I think led the way, as 
Secretary Clinton and Secretary Gates did, in putting forward a 
national security budget, at looking holistically at all of the 
tools--our military tools, our civilian tools, our diplomatic 
tools, and the tools of our private sector--in trying to 
advance American vital national security interests around the 
world.
    So I think we're going to have to be very smart about how 
we move forward. I think President Obama is looking quite 
carefully. As we know, we're winding down the war in Iraq. That 
will be quite crucial. He has a glide path for moving troops 
out of Afghanistan, which will have an enormous budget savings 
between now and 2014, when that will be accomplished.
    We are looking at the new challenges that we have, both in 
terms not of what we alone can do, but what we can do with 
others. The efforts in Libya were not led so much by the United 
States, though we played an invaluable role in what the Libyan 
people themselves have done, but it has been led by NATO, so 
that the burden is shared.
    So I think we are going to have to look at all of the 
stakeholders, all of the resources we have. I think the 
building of public-private partnerships will be quite crucial. 
But I think Secretary Clinton and Secretary Gates and now 
Secretary Clinton and Secretary Panetta will lead the way in 
marshalling the resources we have in the best way we have, with 
I think the fundamental premise, what is in America's vital 
national security interest, and that has to set the priorities 
for where we will head.
    Senator Cardin. You were a major player in the Clinton 
administration as it developed policies toward North Korea. 
Could you share with us what lessons you believe were learned 
by that experience that could be helpful as we continue to 
develop a strategy as it relates to a country that presents 
serious challenges to the United States?
    Ambassador Sherman. Thank you, Senator. I think that during 
the time that I worked on that very, very tough problem for 
President Clinton and Secretary Albright, it began really in 
1998 when North Korea launched a Taepodong missile that 
overflew Japan, and it failed, but it raised great concerns, 
not only in the Clinton administration, but up here on Capitol 
Hill. There was a suspect underground site and we didn't quite 
know what was going on there.
    So, with bipartisan support from the United States 
Congress, the former Secretary of Defense William Perry was 
designated to be a North Korea policy coordinator and to do a 
review, which went on for 11 months, and at the same time 
undertake some new diplomacy. I was the person inside 
government who worked with Secretary Perry and then replaced 
him as North Korea policy coordinator.
    I think we learned what every administration since has 
learned. Working with North Korea is very frustrating, 
exceedingly difficult. They are elusive. They do not keep their 
commitments. They are often hostile. They are oppressive to 
their people; and that solving this problem is very, very 
tough, takes enormous persistence; and that there are no good 
choices.
    We were able to get a significant dialogue started, make 
some small progress, but those gains turned out to be elusive. 
President Bush tried some new efforts, including the 
development of the six-party talks, continuing what was called 
the TCOG, which was a trilateral coordinating mechanism with 
South Korea and Japan, which was very important. He started a 
policy of interdiction of possible and suspect efforts on the 
high seas, which I think was an important tool.
    Secretary Obama--Secretary Clinton and President Obama have 
continued with the six-party talks and continued really with 
the two-prong approach that Secretary Perry first put on the 
table. That was that North Korea had a choice. It could 
eliminate in an irreversible fashion its nuclear weapons 
program and its long-range missile program, improve its human 
rights record, and give its people a future and join the 
international community and see some normalization of 
relations, or they could continue their isolation as a weak and 
failed state and get the wrath of the international community 
visited upon them.
    So far, North Korea has pretty much chosen the second path. 
The Obama administration, Secretary Clinton, have worked with 
the U.N. and with allies around the world to place additional 
very serious sanctions on North Korea. They're probably among, 
if not the most, sanctioned country in the world.
    It has created some pressure on North Korea. They have 
recently had talks with South Korea. They have had some talks 
with the United States, but Secretary Clinton has been quite 
clear and I think quite wisely has said that it makes no sense 
to have talks just for the sake of talks, that North Korea must 
keep its commitments that it made in 2005 to really move 
forward to the denuclearization of the Korean Peninsula; and if 
they show that in fact they want to proceed in that way then 
talks may have some serious purpose.
    But I'm quite clear this is one tough, difficult, thorny 
problem. We learned some things, but we are in a new 
environment, in many ways a much tougher environment, and the 
choices the President and the Secretary have to make are 
probably even tougher than the ones that we made in the late 
1990s.
    Senator Cardin. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Ms. Sherman, following up on the chairman's earlier 
question, I would simply note that the Appropriations 
Subcommittee on Foreign Operations of the House of 
Representatives recently passed a budget for the State 
Department for fiscal year 2012 in the amount of $39 billion. 
This figure is $8.6 billion, or some 18 percent, below the 
fiscal year 2011 enacted level and 22 percent below what the 
administration requested for the funding level for 2012.
    I raise this because I just want to get some insight as to 
how you perceive your role as Under Secretary for Political 
Affairs. You would obviously serve as a close adviser to the 
Secretary of State--but would it be your responsibility to 
rearrange the deck? The $39 billion may not be the final 
figure. It may go up or down. In the event that the Committee 
of 12 does not reach a decision regarding deficit reduction, 
the State Department has been included along with the Defense 
Department to shoulder 50 percent of the $1.2 trillion in 
mandated automatic spending cuts. Already there's discussion 
about what the State Department and the Defense Department 
would lose relative to one another should these cuts occur.
    So I'm trying to define in my own mind's eye, as well as 
for those who are witnessing our hearing, what is your job? Is 
it your role to prioritize who is going to do what in an 
environment where resources are limited? Or do you simply 
advise somebody else who makes these decisions?
    Ambassador Sherman. Well, thank you for that question, 
Senator. Many years ago, then-Chairman Howell Rodgers, a 
Republican in the House, put in the State authorization bill 
language to create a second Deputy Secretary of State for 
Resources and Management, and this committee and the Senate 
were quite wise to recently confirm Deputy Secretary Tom Nides 
to that position.
    Secretary Clinton is the first Secretary of State to fill 
that role, because she understood, I think, the point, at least 
one of the points you're trying to make, Senator. And that is 
dealing with the budget priorities of the State Department is 
complex, it's difficult, it's a competitive environment, it's a 
challenging environment. So Secretary Nides has the principal 
responsibility of working with the Secretary of State to work 
with OMB and the White House in establishing those budget 
priorities and working in the whole of government approach to a 
national security budget.
    The role of the Under Secretary of State for Political 
Affairs is a more political and diplomatic role, of course 
offering as part of the Secretary's team advice and thoughts 
and recommendations and helping to illuminate the many 
priorities that are in front of the United States as it tries 
to extend its interests around the world. So I will certainly 
do all that the Secretary asks me to do to support that effort.
    I think the Secretary has already made clear that if the 
House bill were to move forward to the President's desk, she 
would personally recommend a veto of that bill, not only on the 
basis of the deep cuts to the bill, but many of the provisions 
that are within that bill.
    I certainly understand the House's actions in these 
difficult times, but I remain hopeful, as I know the Secretary 
and the President does, that we can all work together to find 
something that will help truly meet the vital interests of the 
United States.
    Senator Lugar. Well, thank you very much for clarifying the 
work of Secretary Nides and the role of the Under Secretary of 
State for Political Affairs. Given that role, it is relevant to 
mention that the General Assembly of the United Nations will be 
meeting very soon. It's anticipated that we're going to have a 
real problem with the Palestinian Authority suggesting that a 
Palestinian state be recognized at the U.N.
    What are we going to do about that? What is the program of 
the administration as it approaches the U.N. and this ongoing 
problem, which has been perceived a long way down the trail, 
but now is pretty close at hand?
    Ambassador Sherman. Senator, the administration has been 
very clear that all of us hope for a two-state solution in 
Middle East peace, a viable Palestine and a secure Israel with 
clear borders. We do not believe that a U.N. resolution will 
get us to that place, and the Secretary of State and the 
President are doing everything they can to make it clear to the 
world that we think that this is not a positive step forward 
should a resolution come to pass.
    My understanding from the briefings I've had at the State 
Department is there has been a very broad and very vigorous 
demarche of virtually every capital in the world, that this is 
high on the agenda for every meeting the Secretary has with 
every world leader. Today I understand that both Special Envoy 
David Hale and Ambassador Dennis Ross are in the region having 
conversations with all parties to see if there is not a better 
way forward to resolve this issue.
    But there is no question that the President, the Secretary 
of State, and, if confirmed, I will do everything possible to 
see that this does not move forward.
    Senator Lugar. Now, the United States will oppose 
Palestinian Authority President Abbas in his motion, but 
specifically what can we do? If the General Assembly has a 
majority vote, what is our next step?
    Ambassador Sherman. I think the next step, Senator, to the 
best of my understanding is the discussions that are going on 
in the region as we speak to see if there is not a more viable 
path forward. I think my understanding is that the Palestinian 
Authority has not yet decided exactly what it will put forward. 
So I think there are ongoing discussions and I think it's 
incumbent upon everyone in the administration to do everything 
we possibly can to see if there is any possibility that this 
not proceed.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Ms. Sherman, thank you very much for your long service to 
our country. I appreciate it and look forward to your role at 
the State Department.
    There are many questions I would like to ask you, but two 
that I'll pursue in my 6 minutes. One is Libya. I welcome the 
political change in Libya, to bring about the aspirations of 
the Libyan people, and am certainly proud to have been the 
sponsor of the Senate no-fly resolution in the early stages of 
this challenge. So I'm very much in support of an opportunity 
for the Libyan people to start anew and for the successor 
government to embrace democratic reforms and rehabilitate 
Libya's reputation in the world community.
    At the same time, I have, as you may know, for some time 
followed the case of the Pan Am 103 bombing, which claimed 189 
American lives, including 34 from my home State of New Jersey, 
and I have never believed that Mr. Megrahi alone was the 
beginning and the end of the mastermind of Pan Am 103's 
bombing. I think people generally believe that that is not 
true. We still do not know who ordered the bombing, who 
collected the intelligence to carry out the plan, who made the 
bomb, and who in addition to Megrahi bears responsibility for 
this heinous attack.
    So it is my hope that the follow-on Libyan Government will 
be responsive. Certainly when Mr. Jabril met with me, he made 
certain direct commitments about the TNC's engagement.
    But I am somewhat dismayed by the news reports that I have 
seen coming from the TNC since, whether they relate to Mr. 
Megrahi or other pursuits of information that would give us the 
wherewithal to understand who was involved in this bombing. So 
to that end, I'll introduce later today the Pan Am 103 
Accountability Act, which would require the President to 
consider the cooperation of the TNC and any successor 
government in Libya when making decisions about U.S. 
assistance, and would limit the distribution of Libyan frozen 
assets until the President could certify that the new Libyan 
authorities are fully cooperating with the U.S. investigation 
and requests for information.
    What inquiries to your knowledge, since I'm sure you've 
been briefed in preparation of this hearing, has the State 
Department, our government, made with the TNC in respect to 
gaining first access to Megrahi to determine what his state is, 
and also what inquiries has our government made with the TNC in 
reference to cooperation in getting access to both individuals 
and documents in pursuit of finding out all of those who were 
responsible for this bombing?
    Ambassador Sherman. Senator, when I was counselor of the 
Department of State I had the privilege, the sad privilege, of 
meeting with the families of Pan Am 103 as the Scottish court 
was getting under way. I heard firsthand what I know you have 
heard many times, which is the horrible grief of the families 
of the victims of Pan Am 103 and their sense that justice had 
not been served, and I know those feelings continue today. It 
was a very tough and very painful meeting. So I do understand 
quite directly what those families have gone through, or have 
heard at least.
    Secretary Clinton understands as well and she has said from 
the start that the administration does not believe that al-
Megrahi should have been returned to Libya in the first place. 
In the last few days, when she has been in Paris in meetings 
with the TNC and the leaders of the TNC, she has had direct 
conversations on this subject, both on her concerns that al-
Megrahi be brought to justice and that, further, that all that 
needs to be done to seek justice for these families is a 
priority for the TNC.
    She and the administration certainly understand that the 
TNC has much on its plate at the moment, including the security 
and governance of their country. But she wanted to be clear 
that this was a very important issue for the United States of 
America.
    Senator Menendez. And what response did she get?
    Ambassador Sherman. The response was that this was very 
much understood by the TNC, knew how important this was for the 
United States, and that they would continue their conversation 
and dialogue.
    I am not aware, in part because I have not been briefed, 
Senator, more recently, whether any specific commitments were 
made other than to continue the dialogue and pursue that 
justice, which is an important commitment that justice indeed 
be pursued.
    Senator Menendez. This is what my concern is. I appreciate 
continuing the dialogue, but this is a transitional government 
for which the United States has played a major role, from 
establishing and being the advocate for a no-fly zone, getting 
NATO to be engaged, and providing considerable assets, to 
unlocking frozen assets for humanitarian purposes.
    I am concerned that dialogue, while desirable, will not 
lead to the conclusions that we want. So I would hate to give 
all the leverage away before we have more than a dialogue, 
before we have a commitment. So I am looking for the Department 
to pursue a commitment. I'm looking to find whether the 
Department has had the opportunity to get access to its former 
foreign and external security minister, Moussa Koussa.
    I would hate to see us release all of the assets while in 
the midst of a dialogue. So I just want to press that point, 
and I will continue to press that point. I've made this point 
with the Secretary as well.
    Ambassador Sherman. I certainly understand. I do believe, 
Senator, that there is an absolute commitment to justice. I 
take your point about the specificity of that commitment to 
justice and I'm sure that the Secretary will continue to pursue 
this, because it is a very high priority for her.
    Senator Menendez. Finally in the time that I have left, the 
issue of a U.N. vote on the Palestinian Authority's request has 
been raised. Is it the Department's position that a resolution 
recognizing a Palestinian state could stall the peace talks for 
the foreseeable future? And what message has the Department--I 
heard about the demarches, which I applaud, and certainly 
Secretary Rice has done an extraordinary job in her advocacy. 
But what has our government said to Abbas about the impact that 
this vote will have on United States-Palestinian relations?
    Ambassador Sherman. The administration has been very clear 
that this resolution is not positive for the peace process, 
that leaders should hear what the United States Congress and 
other leaders are saying about what impact might result, that 
that is a serious, serious reality for the future of the region 
and for the Palestinian people.
    Indeed, today, as I mentioned, both David Hale and Dennis 
Ross are in the region having those very direct discussions.
    Senator Menendez. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you, Senator Menendez.
    Senator DeMint.
    Senator DeMint. Thank you, Senator Cardin.
    Thank you, Ambassador Sherman. I appreciate you being here 
and I very much appreciate your many years of service and 
sacrifice, as well as the sacrifice I know your family's been a 
part of. So my questions are not at all directed at character, 
integrity, or your commitment to our country. We very much 
appreciate it.
    But I do want to ask you about what I see as two different 
philosophies in our foreign policy, not just this 
administration, but maybe across the board. There's one 
philosophy that the United States needs to deal very firmly, 
with strength and a lot of verification with other countries in 
the world. And I think there's another philosophy that perhaps 
through friendliness, even appeasement and trust, that we can 
accomplish much more. Certainly that approach with friends and 
allies is the preferred approach.
    But behind closed doors over the years, as I've talked to 
some of our allies, I think there's a perception the United 
States maybe uses more carrots than sticks and there's maybe a 
degree of naivete in our State Department, that our 
friendliness and willingness to trust is seen in many parts of 
the world as weakness rather than a genuine desire to work with 
others.
    As I look at your work with North Korea, it does suggest to 
me perhaps a willingness to work with countries that we know 
cannot be trusted, almost maybe as a peer, and dealing with 
them in a way that suggests that friendliness and appeasement 
and trust might be more your philosophy. I liked a lot of what 
you said in your opening statement, but I am concerned as we 
approach other countries--China, Russia, Iran, Syria, the 
Palestinians--that these countries respect power and that 
clarity of purpose is very important for us.
    I'd just like to hear you discuss maybe how you see the 
world in that respect and, moving forward, how do you see the 
role of the United States in dealing with other countries?
    Ambassador Sherman. Thank you, Senator. I think it's a very 
important question, and I think that my own philosophy 
probably, in the way you've set up the question--I might not 
set it up quite that way--is on the side of strength and 
verification. Where I think we may see it slightly differently, 
Senator, is that I don't believe engagement is the antithesis 
of strength and verification. I believe that engaging with 
leaders is a way to test them, to see if in fact the 
commitments they've made they're going to keep.
    In the case of North Korea, we engaged with North Korea to 
see if they would not only make commitments, but if they would 
keep them in a verifiable and irreversible way. They did not. 
We did not conclude the agreement with North Korea. Sanctions 
not only remained on North Korea, but have increased over the 
years.
    We know during the Bush administration that there was 
difference of opinion about how they would proceed on North 
Korea. In the Obama administration there has been great 
clarity: A two-pronged approach, but, as Secretary Clinton has 
been very clear, we will not talk for the sake of talks. North 
Korea has to demonstrate that it is going to keep the 
commitments it made in 2005, and the talks make no sense until 
they show in a verifiable way that they have kept those 
commitments.
    So I believe absolutely in clarity, in strength, the 
importance of sticks as well as carrots, of putting all the 
pieces on the table. The reason--it was interesting, when 
Secretary of Defense was asked to be the North Korea policy 
coordinator, the suggestion came actually initially from a 
Republican staff member working for then-chairman of the 
Appropriations Committee, Mr. McConnell. The reason was because 
in 1993 when North Korea threatened to leave the Nuclear 
Nonproliferation Treaty and we thought that we might be a 
moment at military power and military force, Secretary Perry 
did not hesitate to begin to flow troops out of Japan if in 
fact we had to take military action. So we knew that the person 
who was leading that effort the North Koreas knew was a tower 
of strength and purpose and clarity and toughness.
    Senator DeMint. Thank you for that answer.
    Another question related to philosophy, because I think a 
lot of us are grappling with this now as we look at situations 
around the world, and some of the other questions have 
suggested this. It appears, particularly with our financial 
situation in our own country, the sense that perhaps we're 
spread too thin--does America as we look at our foreign policy 
need to be the city on the hill, be the model for the world, be 
the example, or the other philosophy, which I think various 
administrations and Congresses have pursued for years, is 
promoting our ideas, sometimes forcing our ideas, in other 
parts of the world, transplanting democracy and our way, which 
seems theoretically a good idea, but as we look at our track 
record of success there is some question if perhaps we should 
begin to look at things a different way.
    Are you--as you think of our role in the world, which side 
of that equation would you be on?
    Ambassador Sherman. Senator, I think that what we must be 
is who we are. I think the advance of our vital national 
security interests, which include the values that we hold dear, 
is very important, but I absolutely believe that we cannot 
impose those values on other countries. We show by who we are 
what people might aspire to be.
    The people who fomented change in Egypt, in Libya and 
Yemen, throughout many parts of the world back during the fall 
of the Soviet Union, did not do so to live under another 
dictatorship. They did so to have prosperity and freedom, to be 
able to build a future for their families, just like all of us 
want to do.
    So I think the United States is at its best when we live 
our values and live our interests, try to influence others to 
meet our national security priorities, but not do so in a way 
that tries to impose upon other people what we believe, 
because, quite frankly, as I think you're implying in your 
question, that is often a costly enterprise and often an 
enterprise that does not have the results that we desire.
    So I think we have to be very thoughtful and very careful 
about how we do it.
    Senator DeMint. Thank you, Madam Ambassador.
    And thanks for the little extra time, Senator Cardin.
    Senator Cardin. Certainly.
    Senator Casey.
    Senator Casey. Thanks very much.
    Ambassador Sherman, great to see you again and thank you 
for your willingness to serve again. I want to thank you and 
your family as well for this commitment. Senator DeMint 
mentioned that and it bears repeating, because I know you don't 
serve alone. Your family serves with you in more ways than one.
    I also want to thank you for a long commitment to public 
service in a whole variety of positions, starting with those in 
the State of Maryland and other places where you were an 
advocate for children, and now in your work that has worldwide 
impact at a time of real tension and danger for our country.
    I wanted to ask you about two issues. One is in relation to 
a trip that I just took during the month of August, and then 
second about something very specific as it relates to a 
constituent of mine. First of all with regard to both 
Afghanistan and Pakistan, I was just in both countries, 3 days 
in Pakistan, 2 days in Afghanistan, in August with Senator 
Whitehouse, Senator Bennett, and Senator Blumenthal. The main 
purpose of our trip--and we were, I think appropriately, a 
nagging broken record--was to push first and foremost the 
Pakistanis to help us on the question of calcium ammonium 
nitrate, the so-called fertilizer that comes in from Pakistan 
in amounts that allows the bad guys to be able to construct 
IEDs that are killing so many of our troops and, if not killing 
them, grievously and irreparably wounding them.
    Here's what we got from them. We got a presentation, as the 
State Department knows and others know, of a strategic approach 
to this, to be able to track it better, to be able to regulate 
it and interdict it. Then in addition to the strategy, an 
implementation plan of the strategy. So they're two for two. 
But what we haven't seen yet is the implementation itself and 
the real hard work at various levels of their government to be 
able to just help us protect our troops and also to protect 
their own people. One of the reasons I think the Pakistani 
leadership is willing to engage in this is because their own 
people are being adversely impacted, thousands of people being 
impacted, by IEDs.
    I'd ask you two questions: No. 1, your assessment of that 
commitment that they've made to me personally and to the other 
Senators and to our government--and I know Secretary Clinton 
has worked very hard on this, insisting that they make this 
commitment. Second, not just your assessment of the commitment, 
but what will happen if they don't fulfill that commitment in 
terms of our relationship with them, which I know is a very 
tense relationship to begin with?
    Ambassador Sherman. Thank you, Senator. First, your travel 
with the other Senators to Afghanistan and Pakistan is 
tremendously important. I know that Members of Congress often 
get a lot of grief for traveling abroad, even to places as not 
wonderful as Afghanistan and Pakistan. But I cannot begin to 
tell you, as someone who travels the world quite a bit in my 
business life and before when I was in public service, when 
Members of Congress, when U.S. Senators, travel to these areas 
and work on these very crucial issues, it makes a phenomenal 
difference, because it not only echoes what an administration 
might be able to say, but it is a point of leverage to really 
try to get action.
    So I thank you tremendously for having made that very 
difficult trip. I also want to thank you for your leadership on 
this very crucial issue. Calcium ammonium nitrate, which is the 
precursor for production of IEDs, is a very crucial problem, 
and you have led on encouraging and pushing Pakistan to move in 
the direction it needs to to stop the production and the 
transit and to work with Afghanistan to do so.
    I'm very glad to hear that you heard what I heard in 
briefings, which was that the Pakistanis are taking this quite 
seriously, have a strategic approach, an approach with 
Afghanistan as well, to control the borders and to stop this 
from coming across, and have an implementation plan as well. 
This in part arose out of one of the working groups that we 
have with Pakistan that's a very successful working group, 
working on these kind of very tough issues.
    This is a priority for the administration because, as you 
point out, IEDs are a horrible, horrible reality for the 
members of our military who risk their lives for us every day. 
So it is a high priority for us. I understand the Department 
intends to stay on this, to make sure that that implementation 
plan is successful, to continue to let the Pakistanis know what 
a high priority this is.
    This is doable, and a lot of things we are trying to do are 
even tougher than this, and we should be able to get this done.
    Senator Casey. I appreciate that. And I know in the limited 
time I have I wanted to ask you about one other issue, and some 
of this we can do by way of followup. The hikers. Of course, 
two now just receiving an 8-year sentence, which is an 
abomination. It's a mockery of justice. But they're faced now 
with a long prison term.
    One of them, of course, is a Pennsylvanian, Josh Fattal, 
whose family has been remarkable. His mom and his brother have 
been just remarkable, remarkably effective at making his case 
and reminding all of us of this.
    Can you give me a sense of where you see this case and what 
the State Department can do to keep pushing to make sure that 
we get them out of the prison?
    Ambassador Sherman. Senator, I know that the Secretary 
believes that we must take every opportunity we can to push 
this, to work with the Swiss Protecting Authority, which 
represents us in Iran, to try to get consular access to them, 
to push for their release. The administration quite agrees with 
you that this is an abomination, that these hikers do not 
belong in prison, do not belong having this sentence, ought to 
be released immediately. And I know that the Secretary is 
absolutely committed to using every opportunity she can in the 
Department to do everything that it possibly can, and if 
confirmed I will do everything I possibly can, using every 
relationship we have with Iran through third countries, if not 
directly, to get their release.
    Senator Casey. Thank you very much.
    Senator Cardin. Senator Risch.
    Senator Risch. Thank you, Senator Cardin.
    Ambassador, thank you so much for coming today. I have one 
issue I wanted to focus on just a little bit, and that is one 
of the real successes in the Middle East, and of course there 
aren't many, but one that is there and has existed for 30 years 
is the peace between Egypt and Israel, and particularly the 
line on the Sinai that separated the two countries and has been 
successfully maintained, even in light of the fact that there 
is almost daily disputes there over the last 30 years.
    So those of us who--I've been there. I've seen what's 
happened. Those of us who've watched that over the years are 
concerned after the change in Egypt with the potential for what 
could happen there. It appears that some of our fears have been 
founded.
    We all know that the Sinai is not nearly what it was during 
the last administration in Egypt. Can you give me your thoughts 
on that and what you think the Multilateral Force can do to 
restabilize that line and restabilize the Sinai?
    Ambassador Sherman. Thank you very much, Senator. This is a 
very important issue. It is our understanding, my understanding 
from the briefings I've had, that the transitional government 
in Egypt has reaffirmed its commitment to the Camp David 
Accords, that they are in dialogue with Israel to not only 
ensure that there is a transition that maintains a strong and 
positive relationship between Egypt and Israel, but that the 
issues on the Sinai are addressed, that the Multilateral Force 
does get back to the posture that it had, where there are not 
an increased number of incidents. As you said, there have been 
incidents over a number of years from time to time, but that 
there has certainly been an increase of late, that is of great 
concern. Assistant Secretary Jeff Feltman very much has his eye 
on this issue, and I know that our new Ambassador, Ambassador 
Anne Patterson, whom this committee and the Senate very wisely 
confirmed and is now in place, very much has this on her 
agenda.
    Senator Risch. I appreciate that. Are you personally 
convinced that the new administration in Egypt will do what's 
necessary on their side in the Sinai to try to get control 
again of what I think any observer would say is the growing 
lawlessness on the Sinai itself?
    Ambassador Sherman. Senator, I have not met directly with 
the leaders in the new transitional government, but my 
understanding from briefings is that the State Department 
believes that there is a commitment to maintaining and 
strengthening the historical relationships here. But it is 
clearly something that has to be front and center as we go 
forward in our diplomacy and our discussions with the Egyptians 
and as they develop their governance structure in the weeks and 
months ahead.
    So, although today I believe the State Department has 
confidence, it's not something that anyone should take their 
eye off of. Indeed, we need to continue our vigilance to 
support that in fact things head in that direction.
    Senator Risch. Thank you, Ambassador. I think we all share 
that view.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Ambassador Sherman, I want to echo my colleagues in 
expressing my appreciation for your past work within the State 
Department and for your willingness to consider taking on such 
a difficult post at such a dangerous and critical time in our 
foreign relations. So thank you very much. I hope we can move 
quickly to consider your nomination on the floor and I look 
forward to voting for you.
    Like Senator Casey, I had the opportunity over August with 
Senator Levin and Senator Merkley to travel to Afghanistan and 
Pakistan. One of the things that we heard in our meetings with 
the civilian leadership in Pakistan was a commitment to try and 
improve relations with India. The news this morning, we heard 
not just about bombing in Quetta of the Pakistanis, but also 
about a bomb in a courthouse in New Delhi, and reports suggest 
that it was an al Qaeda-linked group in Pakistan and Bangladesh 
that's claiming credit for the attack in India.
    I wonder if you can--obviously, part of the effort is to 
try and discourage those efforts, to improve relations between 
the two countries. I wonder if you can talk about what more we 
might be able to do to try and encourage that effort to keep 
the two countries talking and to continue to work on improving 
relations.
    Ambassador Sherman. Thank you, as I said to Senator Casey, 
for your travel to Afghanistan and Pakistan. It's always hard 
for members to do this travel, but very crucial in world 
affairs.
    I think that the administration is heartened by the fact 
that there have now been three very significant meetings 
between India and Pakistan, commerce secretaries, foreign 
ministers, cricket diplomacy, and that in fact there are 
followup meetings with home and interior secretaries coming up; 
and that that kind of dialogue between the two countries is 
absolutely essential.
    The United States has always supported that dialogue. The 
pace and scope and character of it is up to, of course, India 
and Pakistan and we can't prescribe for them exactly how to 
proceed. But it is crucial to both of their security, to the 
future of their countries, that that take place.
    In addition, it's my understanding that Prime Minister 
Singh is in Bangladesh today, taking on even more of what 
Secretary Clinton spoke about in her recent trip to India, and 
that is seeing India as really a central player in South and 
Central Asia, taking on more and more of a leadership role in 
the region. I think that's important, not only for India, but 
for all of us in terms of the security of the region.
    So I think your conversations to encourage better relations 
is very important. It is something that the administration has 
done. In my sort of life over the past few years both in the 
private sector--I've been to India and Pakistan both as a 
businesswoman and as part of track 2 dialogues, and I know that 
there is a desire in both countries to move forward, as 
difficult as their domestic politics sometimes make that.
    Senator Shaheen. Thank you.
    Another report today suggests that we are moving toward a 
drawdown of our troops in Iraq, possibly down to as few as 
3,000 to 4,000, who would be there to continue training 
security forces in Iraq. I know that plans have always been to 
significantly draw down our American troops there, but there 
have been some reports that the Iraqis might consider asking us 
to leave a larger contingent than the 3,000 there.
    Again, I appreciate that this has been a contentious issue 
in Iraq. But to what extent is the Iraqi political situation 
making planning difficult for the drawdown, and do we have any 
indication that the Iraqis are going to ask us to stay beyond 
the end of this year?
    Ambassador Sherman. Senator, my understanding is that the 
Iraqis have said they might have some interest in some ongoing 
presence, particularly, as you note, in the area of training, 
continued training of their military. It is also my 
understanding that the administration has taken no decision in 
this regard, even though I read the same report you did in this 
morning's paper, that the Defense Department is considering 
3,000 or 4,000 military to remain as trainers past the point of 
departure. I am sure that the administration will have, 
continue to have, extensive consultations and conversation with 
Congress before a final decision is made. It's my understanding 
as of this morning no final decision has been made.
    Senator Shaheen. Another corollary of that is concern about 
the State Department operation that will continue in Iraq once 
our troops are drawn down and how we continue to maintain 
security with that increased role throughout the country. Can 
you talk a little about how you see that transition happening 
and what we might need to do to ensure that we can maintain 
that diplomatic presence even while we may not have the 
military security to protect those State offices around the 
country?
    Ambassador Sherman. Senator, in the briefing that I had 
with Under Secretary of State Pat Kennedy, who's responsible 
for management, and with Deputy Secretary Nides, they are both 
very much focused on what in fact the pattern should look like 
to provide the kinds of consular services we need to have a 
presence in Iraq, but do so in a way that is secure for our 
diplomats and for our civilians. They are working on those 
plans and I'm sure will continue their conversations with the 
Congress as they are finalized, but it is very much something 
that preoccupies them, for all of the reasons that you stated.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Senator Lee.
    Senator Lee. Thank you, chairman.
    Ambassador, thank you for joining us. It's good to see you 
again. I want to return to an issue that you addressed briefly 
with Senator Lugar a few minutes ago in relation to the push 
announced recently by the Palestinian National Authority 
through President Mahmoud Abbas about possible efforts to seek 
recognition outside of direct negotiations with Israel, by 
taking the issue to the United Nations.
    Now, President Obama recently described those efforts as 
purely symbolic, and I think he also used the word ``failure'' 
to describe the likely outcome. I can see why he might use 
those words to describe that. I want to believe that he's 
right. I hope that he's right.
    I can also foresee some scenarios in which that might not 
turn out to be right, in which that characterization could 
perhaps have proven to be a little bit too optimistic. Do you 
share that view, that it's not absolutely certain? I'm not 
asking you to disagree publicly with your boss. I would never 
do that. I'm just saying, do you foresee scenarios in which 
that could have--we could later look back on that and say 
perhaps that was a little bit too optimistic? And if so, are 
there things that you think the administration can be doing 
right now to sort of protect against that?
    Ambassador Sherman. The President, Senator, has been very 
clear that a U.N. resolution to recognize Palestine will not 
get us to the two-state solution that both parties seek and 
that most of the world seeks. And he has been unrelenting in 
saying that such a resolution is not in our interests or in the 
interest of the world or the two parties.
    Secretary Clinton has used every opportunity she's had with 
leaders to make it clear, as has the President, that this is 
not a positive outcome should such a resolution go forward. As 
I mentioned to Senator Lugar, indeed Special Envoy David Hale 
and Ambassador Dennis Ross are in the region today having 
conversations to see if in fact there isn't another path 
forward that can meet the needs of the parties, but, more 
important, to get them back to direct negotiations, which is 
really the solution here.
    A resolution at the United Nations is not really going to 
get us to the solution everybody is seeking. Direct 
negotiations will and are the only path to that resolution. So 
I think that the administration is doing everything it possibly 
can, from demarching virtually every capital in the world to 
sending very high-level envoys to the region for discussions. 
And I know that our Ambassador at the U.N., Susan Rice, is 
working with all of her colleagues as well.
    The administration has been very clear as well, and I don't 
expect this to occur, but that if it did occur, if any such 
resolution were put in front of the Security Council, that we 
would veto it. So our expectation is that will not occur. But 
the General Assembly is still a concern and so there is very 
urgent work going on to try to see if there is not another way 
forward.
    Senator Lee. So it sounds like you're very confident that 
the United States would remain committed with great resolve to 
the veto threat?
    Ambassador Sherman. The United States is very resolved to a 
veto threat in the Security Council. What we are very resolved 
about as well is urging the parties to enter into direct 
negotiations. Again, the Quartet, which is very crucial to the 
Middle East peace process, is also pressing in that direction, 
and I know that their envoy, former Prime Minister Blair, is 
also very engaged in representing the Quartet in trying to move 
to a more positive direction.
    Senator Lee. So do you see there being a coalition of 
countries that will build from there, or do you think we 
largely know who is with us and who is against us on that?
    Ambassador Sherman. Well, we are working on that. It's my 
understanding, Senator, that there is obviously a core of the 
Quartet, including the United States, and that we are working 
outward and increasing the number of countries who understand 
that to really have a viable Palestine, a secure Israel, will 
require direct negotiations between the parties, not a 
resolution at the United Nations.
    Senator Lee. Thank you.
    Now, Deputy Secretary Burns during his time as Under 
Secretary, if I'm not mistaken, was a key negotiator with Iran 
and amongst the P5+1 countries. Do you expect to take on that 
role if confirmed?
    Ambassador Sherman. I expect to do whatever the Secretary 
of State asks me to do, and we haven't had that discussion 
because I'm not in the job yet. Hopefully, I will be confirmed, 
voted out by this committee and confirmed by the Senate, and if 
she were to ask me to do that I would be honored to, as 
difficult as it is, to do my very best.
    Senator Lee. If you were confirmed, and assuming that this 
fits within your area of assignments, would you be inclined to 
recommend additional sanctions against Iran to discourage Iran 
from developing its nuclear weapons program?
    Ambassador Sherman. I think, Senator, if she asked me to 
take on this assignment, which has traditionally been at the 
Under Secretary level, I would want to understand all of the 
facts of the situation, be briefed on both the classified as 
well as the unclassified information, which I have not yet 
done, and then talk with the Secretary, with the rest of the 
administration, see what the best way forward is.
    There is no question that the sanctions are tremendous on 
Iran. They have begun to bite Iran in spite of the high price 
of oil, which gave them some relief. There have been other 
actions that have occurred that we've all read about in the 
newspaper, which has degraded their capability. But there is no 
question that it is a serious, serious national security 
problem for the United States and for the world, and we have to 
approach it with that seriousness of purpose.
    Senator Lee. Great. Thank you very much, Ambassador 
Sherman.
    Ambassador Sherman. Thank you, Senator.
    Senator Lee. Thank you, Mr. Chairman.
    Senator Cardin. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. And I want to thank 
you for convening this.
    To Ambassador Sherman, thank you for your tremendous 
experience and your service to our Nation that you bring to 
bear today, to your husband, Bruce, and your family for their 
willingness to continue supporting you in the sacrifice.
    I was struck, in your opening statement, your reference to 
your relationship with Senator Helms when he was the chair. 
Even though you may have disagreed on some substantive foreign 
policy matters, your ability to sustain a constructive and 
respectful relationship I think is a good reminder of the long 
tradition of bipartisanship that has long sustained American 
foreign policy.
    In that spirit, I'll pick up exactly where Senator Lee just 
left off. I think you will hear from both sides, from Senator 
Lugar and Senator Menendez, from Senator Risch, myself, Senator 
Lee, strong concern about the efforts by the Palestinians to 
achieve some sort of recognition in the United Nations. I was 
pleased with your response about the intention and focus and 
sincerity of the administration in resisting that and finding 
all possible ways to move the parties back to responsible 
negotiations.
    On the question of Iran, I just would be interested, after 
the announcement by the IAEA just last week that they've 
increased their enrichment activities, what further actions do 
you think might be necessary or might be taken by the 
administration to strengthen CISADA, to strengthen other 
sanctions, and what else do you think we in the Senate might be 
doing to continue to enforce a multilateral approach toward 
preventing the Iranians from achieving what I think are their 
aims, which, as you put it, are a grave threat to our security, 
to Israel's security, and to the world?
    Ambassador Sherman. Thank you, Senator. I share your 
concern about Iran. I think as I've been getting briefings at 
the State Department to prepare for this hearing and hopefully 
to prepare for the job, I've been struck by the progress we 
actually have made. If you had asked me just a couple of years 
ago whether the European Union would have put on unilateral 
sanctions to the extent that it did, I probably would have said 
it might not be an easy thing to get done because they had so 
many of their companies, particularly their energy companies, 
that were in Iran. Now most of those energy companies are gone. 
The number of companies that have left Iran is quite 
significant.
    I think the kind of diplomacy that the administration's 
engaging in, including having Special Adviser Robert Einhorn 
travel the world trying to get other countries to not only put 
on unilateral sanctions, but to enforce the U.N. Security 
Council resolutions, has been crucial, because sanctions are 
only as good as the enforcement of them.
    So it's not always a need for more and more and more 
sanctions. It's really about using all the tools we have at our 
disposal, including the Treasury Department's actions that have 
been quite crucial where Iran is concerned in terms of 
financial assets and financial transactions.
    So I think, again as I just said to Senator Lee, if I--and 
hopefully I will be confirmed by the Senate--and the Secretary 
asks me to spend some time on this very, very tough problem, I 
would want to have a greater understanding than I do today of 
how far we are, what else we need to do to encourage 
enforcement of the existing sanctions, and to assess whether in 
fact any further sanctions would really move us forward.
    Obviously, the sanctions are having some bite because we're 
beginning to see folks in Iran, as we saw in David Sanger's 
article yesterday, trying to throw proposals on the table. I'm 
skeptical today, as I'm sure the administration is, of those 
proposals. But usually when countries begin to put those ideas 
on the table sanctions are beginning to bite.
    So I'd want to make sure that we encourage as much biting 
as we possibly can, because this is a very tough issue.
    I also want to thank you, Senator, for your mention about 
the importance of bipartisanship. I quite agree. I know that 
for me and this committee, I always think about Nunn-Lugar, 
Kerry-Lugar-Biden, Kerry-Lugar-Berman. There are many pieces of 
legislation that have emanated from this committee that have 
set a standard for bipartisanship, that have moved our national 
security priorities forward.
    Senator Coons. Thank you, Ambassador. And I do hope that 
you'll have a central role in ensuring that we do enforce the 
sanctions that we've got in place. I want to commend the 
administration for continuing to stay on this issue, but I know 
many of us share a grave concern about the speed with which the 
Iranians have moved and are eager to see more thorough and 
effective engagement and enforcement on this issue.
    Let me turn, if I could, to a related and challenging 
situation, the full-blown humanitarian crisis in the Horn of 
Africa. Senator Isakson and I held a hearing just after the 
debt ceiling vote and as many Members of the Congress were 
going home for work period, and I was grateful that he stayed 
with me. We had a hearing about the difficulty. The Office of 
Foreign Asset Control required to enforce sanctions and al-
Shabab is critically preventing aid from getting to those most 
severely affected areas of southern Somalia.
    We've just had another report that an additional 300,000 
people are in critical need of emergency assistance, raising 
the number to, I think, 12.7 million. USAID predicts this may 
be one of the worst famines in modern history.
    What further progress, if you can speak to it, has been 
made in resolving some of the Treasury sanctions barriers to 
delivering effective assistance, and what else do you think we 
can do to reduce al-Shabab's influence and to deliver 
humanitarian assistance in an effective way in the Horn of 
Africa?
    Ambassador Sherman. Thank you very much, Senator, for 
raising this just horrific, horrific situation, where, as you 
say, over 12 million, almost 13 million, people have been 
affected, not only in Somalia, but a refugee camp in Kenya that 
was meant for maybe 90,000 people has now maybe 400,000 people 
who are seeking help and assistance.
    I know that OFAC [Office of Foreign Assets Control], the 
office in Treasury that issues licenses when waivers are needed 
in a situation, as Somalia does, with al-Shabab's interference, 
has in fact created a license waiver for AID to provide some 
assistance and is looking at the potential for other waivers 
for NGOs that might be appropriate to try to bring in that 
humanitarian relief, understanding that of course we want to do 
so in as secure a situation as possible.
    I know that the administration is working with AMISOM 
[African Union Mission in Somalia] and with the transitional 
government in Somalia to see what our other options there are, 
to see if in fact what we can do in areas outside of Mogadishu 
to bring relief. But it is a truly horrific situation, working 
closely with the U.N., which obviously is key to the relief 
efforts.
    I must say, one of the things I've been doing as a private 
citizen is I've been chair of the board of Oxfam America, and 
the outpouring by Americans to provide funds, to provide relief 
in Somalia, is incredibly heartening. Americans are a very 
generous people when it comes to these humanitarian disasters. 
But I know Assistant Secretary Johnny Carson, with whom I met 
yesterday, is doing everything he possibly can do to work 
internationally to bring relief both with the private and the 
public sector to those families and to the people of Somalia.
    Senator Coons. Thank you, Ambassador. I see my time has 
expired. I'm grateful that you bring both that experience and 
that perspective to these very difficult issues in Iran, in the 
Horn, and around the world. I look forward to supporting your 
nomination on the floor of the Senate. Thank you.
    Ambassador Sherman. Thank you, Senator.
    Senator Cardin. Senator Udall.
    Senator Udall. Thank you, Chairman Cardin.
    Let me also echo, Ambassador Sherman, the appreciation for 
your long public service and also your family's sacrifice. One 
of the things that hasn't been noted is you have served the 
public in a number of positions dedicated to children and 
children's issues, and that's something that's very close to my 
heart and I very much appreciate that.
    If Iraq were to make the request to retain United States 
troops in Iraq--and I note today there's a big front-page 
article on the New York Times about various parts of this--to 
retain--if Iraq makes a request to retain United States troops 
past the December 2011 deadline, how would it change the plan 
to transition the lead of U.S. engagement from Defense to 
State, if at all, and how would it affect the State 
Department's ability to operate in Iraq and the preparations 
being made for the transition?
    Ambassador Sherman. Senator, I read this in the paper this 
morning along with you, and so I don't know all of the answers 
to the question, but certainly will ask the State Department to 
make sure that you get a full answer. My understanding is that 
this may be a request for military trainers and, if so, it 
would be other than the plans that need to go forward to ensure 
the protection of civilian workers in Iraq after the drawdown 
of our military, and that the Iraqi Government has long had 
discussions with us of some kind of continued presence and this 
may be what they are seeking.
    But I am quite certain that no decision has been made on 
this yet, but would be glad to ask the State Department to get 
more information to you.
    [The written information provided by the State Department 
follows:]

    The Government of Iraq has authorized negotiations with the U.S. on 
a possible post-2011 U.S. security training mission. We are currently 
discussing this request with Iraqi leaders. Those discussions are 
ongoing and no final decision has been reached.
    Regardless of the outcome of these discussions, State will be in 
the lead for the U.S. mission in Iraq after 2011. The Department of 
State, the Department of Defense, and other agencies and departments 
have undertaken unprecedented levels of coordination and planning to 
accomplish this transition to civilian leadership, and we are moving 
forward.

    Senator Udall. Thank you. I very much appreciate that.
    The article noted that if there is the withdrawal that 
there is still going to be a significant State Department 
presence in Iraq. One of the things that was highlighted is the 
$3.2 billion request from the overseas contingency operating 
fund moved from military to the civilian mission there in Iraq. 
This mission is expected to be the largest State Department 
mission in the world, there in Iraq. This will also include not 
only employment of State Department personnel, but the hiring 
of numerous contractors to do the work the military's leaving 
behind.
    Now, with reports that contracting money in Afghanistan has 
funded the Taliban and led to corruption, I'm worried about a 
similar outcome in Iraq. From your standpoint, what does State 
need to do to ensure that the transition is smooth and that the 
United States taxpayer funds are well spent in Iraq?
    Ambassador Sherman. Thank you very much for that question, 
Senator. I know that Secretary Clinton has asked Deputy 
Secretary Nides and Under Secretary for Management Pat Kennedy 
to pay special attention and to take special responsibility for 
exactly that, and that is to make sure that the civilian 
presence in Iraq is well protected, that the contracting is 
done in a transparent and accountable and auditable manner, and 
to ensure that taxpayer money is well spent.
    I know that over the years there have been times, not only 
in the State Department but throughout the U.S. Government, 
concern by Congress about contracts, whether they are let 
appropriately, whether dollars are well spent, whether we put 
all the monitoring systems in place to ensure as little 
corruption as possible, hopefully none. And I know that 
Secretary Nides and Under Secretary Kennedy are very focused on 
exactly that.
    Senator Udall. Thank you.
    Shifting a little bit to your role that you played on the 
Commission for the Prevention of Weapons of Mass Destruction, 
as a member of that commission you played an important role in 
making findings and recommendations for action to prevent the 
spread of weapons of mass destruction. One of the 
recommendations had to do with the global ideological 
engagement. Recommendation No. 12 stated, and I quote: ``U.S. 
counterterrorism strategy must be more effectively''--``must 
more effectively counter the ideology behind WMD terrorism. The 
United States should develop a more coherent and sustained 
strategy and capabilities for global ideological engagement to 
prevent further recruits, supporters, and facilitators.''
    Then the commission went on: ``The U.S. foreign policy 
community needs to alter its culture and organization so that 
it can work across agency lines to make soft power an option 
just as viable and effective as hard power. This change is 
essential. It should be a top priority of the next President's 
foreign policy team.''
    Since your commission has made these recommendations, we've 
had a new President, two new Congresses. How would you assess 
the progress of the administration in employing soft power and 
do you believe that some of the proposed House budgets could 
threaten these initiatives and endanger the State Department's 
soft power capabilities and our overall ability to prevent the 
proliferation of weapons of mass destruction?
    Ambassador Sherman. Thank you, Senator. Your question 
actually harkens back to Senator Lugar's opening comments, in 
that when Secretary Clinton came in she set up the first 
Quadrennial Review of Diplomacy and Development (QDDR). Part of 
the impetus for doing so was to look at this very question: How 
could we have a whole of State Department and a whole of 
government approach to our national security and foreign 
policy, to make sure that all stakeholders are engaged, that 
our foreign service officers not only talk to members of 
governments around the world, but talk to people in civil 
society, talk to the press, talk to business people, talk to 
young people, talk to women and girls, talk to students, really 
understand all of the stakeholders that make up what people do 
in their day to day lives, and to really understand what's 
going on in societies, and to create a better understanding of 
what America is about and what America seeks for its own 
security.
    I think the QDDR was a crucial step in that process. In the 
meetings that I've had in the State Department since I was 
there 10 years ago, I've already seen an enormous change. 
People have an understanding of the breadth and depth of 
communication. There's certainly a consciousness of technology 
and information technology that wasn't there the last time I 
was there. The last time I was there, we only had classified 
computers. We couldn't even go on the Internet. That's changed 
substantially and people understand the value, both positive 
and negative, of social media.
    So I think there's been a tremendous change, but it still 
has to be harnessed. It still has to be made use of, and there 
is no question that having sufficient resources to do so is 
part of the solution.
    Senator Udall. Thank you very much, Ambassador, for those 
answers. You're obviously very well qualified for this 
position. I intend to vote for you and I hope that the Foreign 
Relations Committee acts quickly on this nomination.
    With that, Chairman Cardin, thank you very much for 
allowing me to run over a little bit in my questions.
    Senator Cardin. Senator Udall, thank you for your 
questions. You questioned about the accountability of our 
foreign assistance, which I think is an extremely important 
point. Tomorrow the Senate Foreign Relations Committee will be 
holding a hearing on Afghanistan and the effectiveness of the 
U.S. participation in that foreign assistance program. So it's 
a continuing issue for our committee.
    Senator Lugar whispered to me when Senator Coons was 
mentioning the bipartisan initiatives, and the one that the two 
of us worked together, with the strong support of Secretary 
Clinton, bringing transparency to extractive industries. 
Ambassador Sherman, we will be working with you to implement 
that policy, not just here in the United States as far as the 
legislation that was enacted as part of the Dodd-Frank bill, 
but also as it relates to actions taken by our allies that can 
help bring transparency to gas and oil contracts and mineral 
contracts that have such an impact on the stability of 
developing nations. So that's an important initiative that we 
will be working closely with you as we move forward.
    It was interesting that many of our members talked about 
the pending vote or possible vote in the United Nations as it 
relates to the Palestinians. I just really want to applaud your 
efforts and Secretary Clinton's efforts to let leaders of other 
countries know how important this vote is, because it seems to 
me if it just becomes a popularity vote within the United 
Nations the numbers are not going to go well for a General 
Assembly vote.
    The United States has invested a lot into the peace process 
and the United States understands the negative consequences of 
a U.N. vote. I think that needs to be transmitted to the 
leaders of other countries and I'm glad to see that the 
administration's taking a very active role to let the capitals 
of the world understand that this is an important vote and that 
you support an independent Palestinian state side by side with 
the state of Israel; the best way to pursue that is through 
direct negotiations; The only way to pursue that is through 
direct negotiations; and that a vote in the United Nations, 
even though its legality may have some question, a vote within 
the United Nations would be counterproductive to that end. And 
I applaud you for your strong statements in that regard.
    I just also wanted to bring up the case of Alan Gross, in 
Cuba, imprisoned. I know we have a difficult time in 
communications with our neighbor, Cuba. But I think it's 
important that we continue to advocate for justice in regards 
to Alan Gross and to bring him back to the United States, and 
we'll be asking your help as we develop the best strategies to 
bring that about.
    Senator Lugar.
    Senator Lugar. No, thank you.
    Senator Cardin. With that, again I thank you for your 
patience here today in answering all of our questions. As I 
said in the beginning of the hearing, the record of the 
committee will remain open until the close of business today.
    With that, the committee stands adjourned. Thank you.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Hon. Wendy Sherman to Questions Submitted
                      by Senator Richard G. Lugar

    Question. If confirmed, what steps would you advocate to address 
the issue of unexploded ordnance in Southeast Asia in general and Laos 
in particular? What steps do you believe should be taken to help clear 
Laos of deadly antipersonnel devices, nearly all of which is the result 
of American bombing during the Vietnam war era?

    Answer. The State Department has been assisting Southeast Asia with 
humanitarian demining from the Nonproliferation, Anti-Terrorism, 
Demining, and Related Programs (NADR) account for over a decade, 
providing millions of dollars annually for humanitarian demining, 
unexploded ordnance (UXO) clearance, and survivor's assistance to 
states in the region.
    Reducing the impact of UXO is one of the State Department's most 
important priorities in Laos, a country where bilateral cooperation and 
engagement continues to expand. If confirmed, I will work to ensure the 
United States remains a leading supporter of UXO clearance (including 
unexploded submunitions), risk education, and survivors' assistance 
projects in Laos.
    In FY 2010, the State Department provided a total of $5.1 million 
from the NADR account to Laos for mine and UXO clearance and in FY 
2011, the Department allocated $5.0 million toward this effort. If 
resources are available, annual funding for these programs would 
continue at least at the $5 million level. Since 1995, the United 
States has contributed more than $30 million toward this humanitarian 
effort to clear UXO in Laos, per capita the most heavily bombed nation 
in the world.
    Laos has made very good use of the U.S. assistance it has received 
for UXO clearance. If confirmed, I look forward to working with 
Congress to ensure that UXO clearance remains a top priority in Laos 
and throughout Southeast Asia.

    Question. North Korea.--I have repeatedly encouraged the Obama 
administration to raise the issue of American POWs and MIAs from the 
Korean war in communications with North Korea as well as the resumption 
of the joint recovery operation related to the remains of American 
personnel. What is your perspective on these points?

    Answer. I agree that recovery of Korean war POW/MIA remains one of 
the more important goals in our interactions with North Korea. We owe 
our military personnel and the POW/MIA families nothing less than to 
make every effort to recover the remains of their loved ones. The 
administration considers remains recovery operations to be an important 
humanitarian mission and priority. The Department of Defense and the 
Department of State closely coordinate actions related to Korean war 
remains recovery operations. This important humanitarian mission is not 
linked to any political or security issues, and the administration has 
consistently urged North Korean officials to be responsible stewards of 
U.S. remains.

    Question. With respect to the recent HEU seizure in Moldova, what 
conversations has the administration had with Russian officials 
concerning apprehension of the perpetrators, some of whom are 
reportedly residing in Russia?

    Answer. The United States continues to support Moldovan efforts to 
prosecute the traffickers who were caught with highly enriched uranium 
(HEU) in June and to work with other appropriate and willing partners 
to investigate the original theft of the uranium. The Department can 
provide additional information in a classified setting.
    One of the critical tools Moldova and other governments have used 
to successfully investigate nuclear smuggling networks is Counter 
Nuclear Smuggling Teams. Through the Nuclear Security summit and other 
mechanisms like the Department's Nuclear Smuggling Outreach Initiative, 
the United States is promoting use of this powerful investigative tool. 
Counter Nuclear Smuggling teams focus on investigative actions like 
detecting nuclear smuggling activity, securing and analyzing seized 
nuclear or radioactive material, and obtaining evidence to prosecute 
smugglers.

    Question. What has prevented the Nunn-Lugar WMD-PPP program from 
conducting a border security walk in Moldova?

    Answer. The WMD-PPP border security walk is scheduled for November 
1-11, 2011. The Department and U.S. Embassy Chisinau have consistently 
supported WMD-PPP and in June 2011 facilitated successful introductory 
meetings between the Moldovan interagency and the U.S. Department of 
Defense (DOD) to get WMD-PPP off the ground in-country. I am told the 
administration looks forward to the results of the border security walk 
as the results of the walk will also inform a number of 
nonproliferation assistance programs.

    Question. As the administration considers advocating repeal of 
Jackson-Vanik trade restrictions with respect to Russia, do you believe 
that alternative initiatives should be developed in place of Jackson-
Vanik? Please explain.

    Answer. The administration supports lifting Jackson-Vanik prior to 
Russia's joining the WTO to ensure that U.S. workers, ranchers, and 
farmers enjoy the full benefits of Russia's accession. If Congress does 
not act on Jackson-Vanik before Russia joins the WTO, as it has done 
for so many other countries, Americans would be seriously prejudiced--
not quickly enjoying those benefits associated with WTO membership, but 
our trading competitors will do so at our expense. The Jackson-Vanik 
amendment long ago fulfilled its key purpose: to support free 
emigration, particularly Jewish emigration, from the Soviet Union. 
Lifting Jackson-Vanik would be in keeping with the USG's approach to 
other qualifying countries by granting Russia's goods most-favored-
nation tariff treatment on a permanent basis. That decision would also 
give the United States additional tools to deal with Russia to help 
ensure that it lives up to its trade commitments.
    On the nontrade broader issues, the administration has a strategy 
in place for advancing democracy and human rights in Russia. The 
administration will absolutely continue to consult with Congress going 
forward on how best to promote democratic rights and institutions in 
Russia. President Obama, Secretary Clinton, and other officials in the 
U.S. Government have been outspoken in their frank advocacy for 
democratic progress and will continue to raise publicly and privately 
concerns with human rights issues and shortcomings in democratic 
standards (See http://www.state.gov/p/eur/ci/rs/c41670.htm.) As an 
example, the Department of State, consistent with the President's 
proclamation on human rights violators, took decisive action to bar 
entry to the United States of those Russian Government officials 
credibly linked to the wrongful death in pretrial detention of Sergei 
Magnitsky. In addition, this year, the U.S. government is providing 
over $38 million in assistance, primarily to non-governmental 
organizations, to advance democracy in Russia. These programs support 
independent media and the rule of law, create and strengthen links 
between U.S. and Russian civil society groups and leverage the latest 
in technology and social media to create optimal conditions for 
democratic advances.

    Question. Since June 2004, Brazil has been in charge of the United 
Nations Stabilization Mission in Haiti (MINUSTAH), thus commanding over 
7,000 men on the ground--including an average of 1,300 Brazilians--in 
an effort to provide some stability in Haiti. Brazil is now officially 
planning an exit strategy for its extensive military contingent. Please 
provide your views regarding the reduction of Brazilian troops in 
Haiti. Please explain how the effectiveness of MINUSTAH, and of U.S. 
assistance to Haiti will be affected by this action and what steps you 
believe the United States should take in light of Brazil's announced 
plans.

    Answer. The United States supports renewal of MINUSTAH's mandate 
for another year when it expires in October 2011, under broadly the 
same terms as the current mandate but with a heavier emphasis on the 
need for the United Nations (U.N.) and the Government of Haiti (GOH) to 
work to reform the Haitian National Police (HNP) through improved 
capacity-building efforts, improved vetting procedures, and 
strengthened Haitian domestic financing.
    The U.N. Secretary General's August 25 report on MINUSTAH 
recommended renewing the mandate for another 12 months with a reduction 
during that period of some of the forces authorized after the January 
2010 earthquake: specifically two infantry battalions (1,600 personnel) 
and 1,150 authorized (but not deployed) formed police unit personnel.
    The administration understands that, in light of the Secretary 
General's positive security assessment, and call for troop reductions, 
the Brazilian Government has voiced its support for reductions in the 
overall MINUSTAH force strength. As the largest supplier of personnel 
to the post-earthquake troop ``surge,'' Brazil would like to see some 
of its troops brought home. We do not, however, have indications that 
they will significantly reduce their military contribution, except 
gradually over time, as conditions allow, and in coordination with the 
United Nations.
    The United States also supports the Secretary General's recommended 
reduction in MINUSTAH force strength, but notes that strong rules of 
engagement for the remaining MINUSTAH forces will be important to deal 
with a stable but fragile security situation in Haiti.

    Question. Recent events in Ecuador demonstrate the continuing 
deterioration and political subjugation of the justice system there:

--After a leading Ecuadorian newspaper, El Universo, ran an opinion 
    column critical of President Rafael Correa, an Ecuadorian judge--at 
    Correa's insistence--sentenced three newspaper executives and the 
    columnist to jail for 3 years and fined the newspaper $40 million.
--According to The Economist, ``It took Juan Paredes, replacing the 
    intended judge who was on holiday, less than two days to read 
    through the case's 5,000-page file'' and issue the ruling. 
    President Correa personally attended the hearing, ``accompanied by 
    a small crowd of supporters that pelted the defendants and their 
    lawyers with eggs and bottles outside the courthouse. The media 
    were barred from attending.'' International observers, including 
    Human Rights Watch, called the ruling ``a major setback for free 
    speech in Ecuador.''
--President Correa's Legal Secretary, Alexis Mera, issued an official 
    proclamation, ``by order of the Constitutional President of the 
    Republic,'' requiring Ecuadorian Government ministries to 
    immediately file suits for damages holding any judge who enjoins 
    Government projects personally liable if their injunctions are 
    subsequently overturned by a higher court.

    Please explain your views regarding the rule of law in Ecuador.

    Answer. Immediately following the El Universo ruling, the 
Department issued a public statement expressing serious concern over 
the court's decision. The Department underlined the role of an 
independent press as essential to a vibrant and well-functioning 
democracy--a concept noted, among other places, in the Inter-American 
Democratic Charter. President Obama and Secretary Clinton have made 
this point in their conversations with Ecuadorian President Correa. The 
Department understands that the defendants are appealing the decision, 
and that judicial processing of the case is being investigated. The 
outcome of this case will be carefully noted by the international 
community because of its implications for freedom of expression in 
Ecuador.
    Separately, Ecuador's judicial oversight council was dissolved 
following a May 2011 referendum, pending a restructuring of the entire 
judicial system. The political opposition and Ecuadorian and 
international civil society observers have expressed concern that, 
because the transition judicial council includes representatives from 
branches of government controlled by the ruling party, independence of 
the judiciary could be compromised. As a matter of principle and long-
standing policy, the United States believes that representative 
democracies require vibrant, independent, and coequal branches of 
government in order to function effectively. It is for these reasons 
that implementation of the referendum deserves careful scrutiny and 
analysis within Ecuador, by other nations in the hemisphere, and by 
civil society in general.
    A key objective of U.S. policy in the hemisphere is to support the 
development of democratic government institutions, an independent 
judiciary, and a vibrant civil society. The United States implements 
this policy through diplomatic engagement, public diplomacy, and 
specific programs carried out by the Department, USAID, and 
nongovernmental organizations.

    Question. As the Libyan revolution continues and military gains by 
rebel forces of the Transitional National Council increase, thought 
must be paid to Libya's future post-Qadhafi. As we have seen in other 
countries in the region, the risk of factionalism comes with the 
transition from authoritarian regimes to democracy.

  <bullet> a. What is your assessment of the prospects of the TNC 
        maintaining consolidated leadership role to oversee the 
        transition to Libya's democratic future?

    Answer. There appear to be a number of positive signs for a 
transition to a new, democratic Libya though clearly, given its 
newness, the TNC faces a lot more to be done. The TNC has made strong 
progress in building support across Libyan society, but the core of its 
leadership, known as the Executive Committee, is still largely 
comprised of Libyans from the East. TNC PM Jibril and Chairman Jalil 
have publicly stressed the importance of inclusiveness and 
reconciliation. They have sought to avoid reprisals and to remain open 
to rank and file Qadhafi loyalists who renounce their support for the 
former regime.
    There will, of course, be challenges. There are several anti-
Qadhafi militias that remain outside of the TNC's command structure. 
The TNC leadership has prioritized integrating civilian militias into 
new national institutions, but will need to demonstrate that it can pay 
salaries quickly in order to solidify these efforts. The TNC has taken 
steps to address these challenges. They established a Tripoli Military 
Committee shortly after taking over Tripoli in late August to bring all 
of the factional commanders in the capital under the control of the TNC 
ministries of Interior and Defense.
    If confirmed, I will do everything in my power to support the 
democratic aspirations of the Libyan people and the efforts of the TNC, 
as appropriate.

  <bullet> b. In light of our current budget constraints and the 
        availability of Libyan national assets and the support of other 
        donors, what role, if any, do you believe the United States 
        should play in funding the costs of Libya's transition?

    Answer. I understand Libyan stabilization experts told 
international partners in Paris September 2 that since Libya is 
regaining access to its financial reserves around the world, it will 
not need emergency aid for long. The TNC is looking instead for 
technical expertise and experience to rebuild its infrastructure and 
institutions. Following the lead of the Libyans and the U.N. Mission, 
the administration believes the United States can play an important 
role in helping prepare Libya for a future reconciliation and 
transitional justice process, bolstering emerging government 
institutions and political parties, and in helping Libya identify and 
secure the previous regime's stockpiles of chemical weapons and 
conventional weapons, to include man-portable air defense systems 
(MANPADS).

  <bullet> c. How many USG personnel are currently working in Libya? 
        Where are they working? What diplomatic facilities are 
        available to the United States in Tripoli? What are the 
        approximate costs required to make such facilities a secure and 
        viable workspace?

    Answer. I am told the Department of State is currently exploring 
options for facilities to house a reconstituted Embassy in Tripoli. Our 
previous compound was completely overrun, looted, and burned in May. 
The team that is already in Tripoli hopes to be able to identify and 
acquire suitable facilities, at least for a temporary arrangement, in 
the near future. It is a positive sign that Deputy Chief of Mission 
Joan Polaschik returned to Tripoli on September 10. The administration 
looks forward to an early return by Ambassador Cretz and other key 
personnel as soon as a suitable security platform can be established 
and more accommodations can be brought on line. Special Envoy Chris 
Stevens' team is also in Benghazi and I am told the Department plans to 
keep the team in place for at least several months.
    This seems to make a good deal of sense, given the importance of 
the city during the revolution and the need to interact with remaining 
TNC leadership in the city.

    Question. In your testimony, you noted current efforts by Dennis 
Ross and David Hale in the region and of our embassies worldwide to 
forestall unilateral attempts by the Palestinian Authority to seek 
statehood recognition at the U.N. in the coming weeks. President Obama 
and others in the administration have made clear that unhelpful 
attempts by the PA, however symbolic, are no replacement for 
negotiations with Israel. Negotiations have stalled.

  <bullet> a. What steps do you believe the administration should take 
        to mitigate the consequences in the immediate term of 
        unilateral PA action at the U.N. to raise its status from 
        ``entity'' to ``nonmember state''--with the rights and 
        privileges pertaining to that status?

    Answer. The administration has been absolutely clear both with the 
parties, and with our international partners, that direct negotiations 
remain the only effective way for Palestinians and Israelis to deal 
with the difficult issues they face and achieve a lasting peace. The 
administration therefore continues to work intensively and 
strategically to avoid a showdown at the United Nations that will not 
be good for anyone--not the United States, not Israel, and certainly 
not the Palestinians.
    The administration has and continues to underscore with the parties 
and with international partners that we strongly oppose efforts to 
address final status issues at the U.N. rather than in direct 
negotiations. One-sided actions in international fora like the U.N. 
will do nothing to achieve statehood for the Palestinian people. In 
fact, such initiatives at the U.N. will make it harder to achieve 
progress. One-sided actions will serve to drive the parties further 
apart, heighten the risk of violence on the ground that could claim 
innocent lives on both sides, and risk hard-won progress in building 
Palestinian institutions. There is simply no substitute for the 
difficult give-and-take of direct negotiations. The international 
community cannot impose a solution. A viable and sustainable peace 
agreement can come only from mutual agreement by the parties 
themselves.
    As part of the effort, the administration has made the position on 
such initiatives unequivocally clear in capitals around the globe, and 
regularly in U.N. Security Council consultations, and is urging other 
member states not to support one-sided Palestinian action at the United 
Nations. U.S. ambassadors have engaged, at the Secretary's instruction, 
at the highest political levels in capitals worldwide where our 
outreach would be the most productive. Secretary Clinton, National 
Security Advisor Donilon, Ambassador Rice, Deputy Secretary Burns, 
Assistant Secretary Feltman and Special Envoy Hale and other senior 
U.S. officials have also been working intensively with their 
counterparts at the most senior levels for months. Going forward, the 
administration will continue to work vigorously and strategically to 
reach out to countries to express and explain our firm opposition to 
any one-sided actions at the U.N., including a Palestinian state 
declared outside of the framework of negotiations.

  <bullet> b. How do you believe the administration's immediate plan to 
        counter any PA action at the U.N. will serve the broader policy 
        of a negotiated settlement resulting in a two-state solution?

    Answer. At the same time, the administration continues to work 
vigorously and determinedly to reach a negotiated two-state solution to 
the Israeli-Palestinian conflict. As President Obama made clear in his 
May remarks, the priority is for the parties to return to direct 
negotiations--the only effective way for Palestinians and Israelis to 
deal with the concerns they are facing and forge a viable peace 
agreement. The administration therefore continues to work intensely 
with the parties and Quartet partners on ways to overcome the current 
impasse and resume talks on the basis of the President's May remarks.
    The administration's long-term strategic vision for peace has not 
changed. The administration remains committed to working along two 
mutually reinforcing tracks: creating a viable negotiating alternative 
on the basis of the President's May 2011 remarks for the parties to 
resume direct negotiations and avert a confrontation at the U.N. and, 
simultaneously, continuing our support for the Palestinians in their 
efforts to prepare for statehood through creation of robust government 
and security institutions and a viable economy. The administration 
strongly believes that these parallel efforts serve the national 
security interests of the United States and are essential for a 
sustainable peace, the security of both Israel and the Palestinians, 
and the stability of the region.

    Question. Relations with Pakistan have experienced considerable 
discord in recent months: What is your assessment of the status of the 
relationship with the civilian government officials and the prospects 
for progress in improving governance in Pakistan while the military 
leadership in Pakistan maintains policy control?

    Answer. This is not always an easy relationship, but it is an 
important one for both countries. Ultimately, the administration 
assesses that U.S. assistance in building Pakistan's stability and 
prosperity and establishing a partnership over the long-term is the 
best way to achieve a more effective civilian government and at the 
same time support U.S. national security interests. The elected 
government consults with the military on national security.
    The United States supports the elected government through 
assistance and a strategic relationship, coordinated through the U.S.-
Pakistan Strategic Dialogue, which consists of civilian government-led 
working groups. Similarly, the administration is engaging actively with 
Pakistan's civilian leadership in promoting Afghan reconciliation, a 
key strategic interest for both Pakistan and the United States. Since 
the passage of Kerry-Lugar-Berman legislation in October 2009, the U.S. 
Government has spent just under $2 billion in civilian assistance to 
Pakistan. That includes investing in high-visibility, high impact 
projects such as dam construction that puts more energy on Pakistan's 
grid; supporting reform and private sector led economic growth; and 
contributing to the Citizens' Damage Compensation Fund to help flood-
affected families. All of this is intended to increase the capacity of 
civilian institutions and improve their ability to serve and support 
the people of Pakistan.
    At its core, the United States-Pakistan relationship is about 
building a long-term partnership with the Pakistani people. As 
President Obama has said, it is in the U.S. national interest to 
support their efforts to develop democratic institutions, foster 
economic growth, and reject violent extremism.

    Question. What impact has devolution of powers in Pakistan had on 
military influence in Pakistan governance?

    Answer. While the devolution process, embodied in the 18th 
amendment, continues, the administration does not believe that it has 
increased the influence of the Pakistan military in civilian affairs. 
Indeed, it does not shift the balance of power in favor of the military 
or civilian powers. The administration also believes the 18th 
amendment, if correctly implemented, demonstrates the potential for 
improving services to the people provided by the civilian government.
    The 18th amendment should be viewed as an ongoing process--one that 
will require careful attention and time to transfer significant 
executive and legislative power to the provinces. Overall, the 
devolution of powers can be an opportunity for the United States to 
more effectively distribute aid to Pakistan by focusing on the needs of 
the individual provinces rather than a one-size-fits-all program.

    Question. How can the United States best participate in improving 
South Asia relations given the many political, security, and economic 
challenges evident in the current U.S.-Pakistan relationship?

    Answer. The key to improving stability and prosperity in South Asia 
lies in working with Afghanistan, Pakistan and other regional partners 
to promote regional peace and economic integration. The administration 
consults regularly with the two countries, their regional neighbors, 
and with other international partners and donors who can contribute to 
regional stability, prosperity, and peace. In her July 20 speech in 
Chennai, Secretary Clinton laid out the ``New Silk Road'' vision of 
regional economic integration: an international web and network of 
economic and transit connections. The administration has a diplomatic 
strategy in place to promote this vision of the countries of the region 
working together to attract private-sector investment to create 
enabling infrastructure and remove barriers and other impediments to 
the free flow of goods and people. These ties will help bind the region 
together to serve as a foundation for providing sustainable investment 
and jobs for its people.
    The region also has a critical role to play in facilitating Afghan 
economic growth, such as in supporting investments in Afghanistan that 
create the foundations for growth over the long-term. The vision of the 
New Silk Road will help Afghanistan draw value out of its natural 
assets and geography, with the goal of becoming a stable, prosperous, 
peaceful country embedded in a stable, prosperous, peaceful region.
    In June, Afghanistan and Pakistan concluded an historic Transit 
Trade Agreement (APTTA). The new agreement will reduce smuggling and 
increase the transparency of cross-border trade. For the first time, it 
will allow goods to transit from the borders of Central Asia to the 
Indian Ocean. The United States also welcomes the agreement by 
President Karzai and Prime Minister Gilani to expand this transit trade 
zone to Central Asia as part of a vision for regional prosperity. Doing 
so would create further incentives for regional cooperation.
    It is also important to note that countries in the region are 
expanding economic ties on their own initiative. The administration was 
very encouraged economic engagement has featured prominently in latest 
round of India-Pakistan dialogue. The two sides have made some progress 
toward reducing barriers to trade and commerce.

    Question. Do you believe the United States should consider removing 
the ``Major non-Nato ally'' status should current trends in Pakistan 
continue? How would that affect our assistance efforts?

    Answer. Given the importance of the U.S. relationship with Pakistan 
and its joint efforts against extremists and especially against al-
Qaeda, the administration does not recommend removing the ``Major non-
NATO Ally'' designation.
    Pakistan remains a key ally in the shared fight against terrorists 
who threaten both our countries. Without significant cooperation, the 
United States would not have accomplished as much as it has to date. As 
President Obama has stated, ``We have been able to kill more terrorists 
on Pakistani soil than just about any place else. We could not have 
done that without Pakistani cooperation.'' The importance of this fact 
cannot be overstated.
    Since 9/11, Pakistan has been a strong counterterrorism partner of 
the United States. Although Pakistan has not undertaken every action we 
would like it to take, particularly against groups that do not target 
the Pakistani state, it has demonstrated sustained commitment and taken 
concrete steps against groups such as Tehrik-e-Taliban Pakistan (the 
Pakistan Taliban) and al-Qaeda, whose leadership is under enormous 
pressure in western Pakistan. This is in large part a result of the 
Government of Pakistan's policies and cooperation.
    The administration was pleased that Pakistan and the United States 
were able to work jointly on a mission in early September that led to 
the arrest of senior al-Qaeda operative al-Mauritani and two 
accomplices. Such joint action demonstrates our two countries can work 
together to achieve common interests.
    The Pakistani people and security forces have also suffered 
tremendously from terrorism. It is in the national security interests 
of both the United States and Pakistan to eliminate the threat posed by 
violent extremism. Pakistan remains a key ally in the shared fight 
against terrorists that threaten both our countries.
    There has been no major policy change in the administration's 
assistance to Pakistan, and it does not believe now is the time to 
change course. Civilian assistance continues to move forward and meet 
the needs of both countries. The U.S. ``pause'' in some military 
assistance does not signify a shift in policy but underscores the fact 
that United States-Pakistan partnership depends on cooperation.
                                 ______
                                 

           Responses of Wendy Sherman to Questions Submitted
                       by Senator Robert Menendez

    Question. The political change in Libya is an opportunity for the 
Libyan people to start anew and for the successor government to embrace 
democratic reforms and rehabilitate Libya's reputation in the world 
community.
    As you know, I have followed the Pan Am case for many years and 
with the recent events in Libya has come a new hope that we can finally 
learn how this horrific act, which claimed 189 American lives, came to 
pass.
    It is my hope that the new Libyan Government will be forthcoming 
with their cooperation, but I also believe that we need to make clear 
to them the importance and intensity of our interest in the Pan Am 
bombing so that this issue is not overlooked as they begin the work of 
rebuilding a new government. Reconciliation must be part of the Libyan 
rebuilding process--internally and in Libya's external relations. To 
that end:

  <bullet> What inquiries has the U.S. Government made with the TNC 
        with respect to gaining access to Megrahi? Have we asked for 
        his extradition to the United States?

    Answer. I share your deep concern about delivering justice to the 
families of the victims of the Pan Am 103 bombing. I understand from 
the State Department that Chris Stevens, special envoy to the TNC in 
Benghazi, and Ambassador Cretz have raised the al-Megrahi case with TNC 
authorities many times. As the Secretary said in Paris September 1, we 
have always disagreed with and condemned the decision to release al-
Meghrai and return him to Libya. He should be behind bars.
    The TNC leadership has assured the administration that they will 
review all aspects of the case after they assume full authority in the 
country. I look forward, if confirmed, to pursuing the full range of 
options for finally bringing the perpetrators of this attack to 
justice.

    Question. What inquiries have we made formally or informally with 
respect to access to Libyan files or to persons that may have 
information about Qaddafi's terrorist activities?

    Answer. The administration has encouraged the TNC to protect all 
documents of the former regime so that full investigations can be made 
of Qaddafi's activities. The administration will continue to press 
diplomatically for full cooperation with its investigation, but I would 
refer you to the Department of Justice for details about specific 
inquiries.

    Question. Has the United States had the opportunity to discuss the 
Pan Am case with Qaddafi's former director of external security and 
former Foreign Minister Mousa Koussa?

    Answer. There are serious questions for former regime officials, 
including Mousa Koussa, and justice must be done. As the United States 
has an ongoing investigation of the Pan Am bombing, I refer you to the 
Department of Justice for any specific information.

    Question. If the TNC or successor government is not willing to 
cooperate with U.S. inquiries and investigations, is the Department 
willing to condition U.S. assistance or the provision of remaining 
frozen assets?

    Answer. The United States takes very seriously every nation's 
obligation to cooperate with terrorism investigations. The situation in 
Libya remains fluid and unsettled. But as normalcy returns and as new 
Libyan authorities assume full authority in the country, the United 
States will expect them to live up to those obligations when they are 
able to do so. From the administration's interactions, it has every 
reason to believe the TNC or their successor will honor those 
obligations. But the administration would certainly consider 
appropriate measures if they did not.

    Question. (a) If confirmed, your area of responsibility will be 
very broad. Where on the agenda is Iran? What more will the 
administration do to stop Iran--what additional sanctions would you 
recommend and what should we expect to see in the near future?
    (b) What do you make of Iran's announcement this week that it is 
willing to place its nuclear program under IAEA supervision? What does 
this mean and what effect would you expect such a change to have on 
U.S. sanctions?

    Answer (a). If confirmed, I will work actively to increase the 
pressure on Iran as part of the dual-track policy of pressure and 
engagement to resolve the international community's concerns about 
Iran's nuclear program. This is a top priority for the State 
Department. The administration has expressed both publicly and 
privately concerns about Iran, including about the installation of 
advanced centrifuges and the increase in production of uranium enriched 
to near 20 percent.
    Since the adoption of Security Council resolution 1929, the 
administration has worked actively to build a broad international 
coalition of countries willing to implement 1929 by putting in place 
their own national sanctions measures. These measures have had a 
substantial impact on Iran's financial, energy, transportation, and 
commercial sectors and have increased the difficulty for Iran of 
procuring the equipment, materials, and technology it is seeking for 
its nuclear, missile, and other WMD programs.
    In the Security Council, the United States works closely with other 
Council members, including Russia and China, to ensure that the 1737 
Committee remains active, fully implements its work plan, assists 
States with implementation, and effectively responds to reported 
sanctions violations. The United States also maintains a frequent and 
vigorous dialogue on Iran with Russia and China, both bilaterally and 
in the context of the P5+1 group.
    The administration is committed to pursuing sanctions against Iran 
as long as it continues to defy the international community by failing 
to meets its obligations under U.N. Security Council and International 
Atomic Energy Agency resolutions. I understand that the administration 
continues to review its options for stepping up pressure against Iran, 
including possible new sanctions, possible new designations under the 
existing sanctions regime, and improved implementation of existing 
sanctions by U.N. member states.

    Answer (b). According to media reports, Iran reportedly offered to 
allow the IAEA to exercise ``full supervision'' of its nuclear program 
for 5 years on the condition that sanctions against Iran will be 
lifted. Iran's full cooperation with the IAEA should not be time-bound 
or conditional. Moreover, Iran is already bound, by U.N. Security 
Council resolutions and its own safeguards obligations, to provide such 
cooperation on a permanent basis. U.N. Security Council resolutions 
make clear that sanctions should only be lifted when Iran cooperates 
and meets its obligations.

    Question. I am very concerned about the lack of coordination and 
accountability for U.S. funds expended on Afghan reconstruction and 
development. In addition to reports about the inability of the United 
States to oversee these projects, account for project expenditures, and 
limit funding to sustainable projects, the most recent SIGAR (SI-GAR) 
report indicates that U.S. assistance may be making its way into the 
hands of Afghan insurgents.
    If confirmed, how do you intend to integrate SIGAR's 
recommendations into project oversight? Can you point to specific 
recommendations that have already been implemented?
    The SIGAR report stated that the lack of cooperation by Afghan 
ministries and the Central Bank has limited the oversight of U.S. funds 
flowing through the Afghan economy. Will Afghan cooperation, 
particularly by President Karzai and senior Afghan leaders, by a factor 
in determining the scale of U.S. assistance as we enter into the 
civilian surge?

    Answer. The administration takes very seriously the allegations of 
corruption and waste in Afghanistan and likewise takes seriously the 
important role it plays as steward of the U.S. taxpayers' funds. 
Providing effective oversight of our work in Afghanistan has been and 
is a priority for the U.S. Government. The administration has closely 
reviewed the July 20, 2011, SIGAR report you cite in your question and 
is currently assessing how to comply with the report's recommendations 
although it has already begun implementation of some recommendations as 
indicated below.
    Agencies implementing assistance in Afghanistan have already taken 
a number of steps to increase oversight of U.S assistance programs in 
Afghanistan. The administration has increased its participation in 
international task forces designed to strengthen oversight including TF 
2010, ISAF COIN Contracting Executive Steering Committee, and the 
Interagency Combined Joint Logistics Procurement Support Board.
    USAID is fully implementing its Accountable Assistance for 
Afghanistan (A3), developed in 2010 and designed to prevent U.S. funds 
from falling into the hands of malign groups. The A3 initiative is 
working to achieve its goals by increasing the use of cost reimbursable 
agreements, strictly limiting subcontracting, more closely vetting all 
recipients of U.S. assistance funds, and implementing more stringent 
financial controls. Improved financial controls include the 
preferential use of electronic funds transfers, as recommended by the 
SIGAR report, and a commitment to ensure 100 percent of all locally 
incurred costs under USAID projects undergo financial audits.
    In addition, the U. S. Government has significantly increased the 
number of trained oversight staff in the field and has developed 
innovative monitoring techniques to empower field staff oversight 
efforts. USAID has tripled the number of its oversight staff in 
Afghanistan since 2007 and is working to further increase its numbers 
this year. The Department of State's Bureau for International Narcotics 
and Law Enforcement also recently increased its full-time oversight 
staff in Afghanistan to a total of 18 including four contracting 
officer representatives and 14 technical monitors.
    USAID and DOD also established comprehensive contractor vetting 
systems, and the Department of State plans to standing up its own 
capability this year. As recommended by the General Accountability 
Office (GAO), DOD and USAID now share their vetting results. In 
February 2011, USAID created the new Compliance and Oversight of 
Partner Performance Division (COPP) in D.C. to work closely with Kabul 
to investigate fraud. The division has already completed more than 40 
suspension and debarment actions agencywide, based largely on referrals 
from the inspector general.
    The administration is working also with our partners within the 
Afghan Government to ensure accountability of assistance programs. In 
2010, the United States committed with other donors at the Kabul 
conference to move toward putting 50 percent of our assistance through 
Afghan institutions by 2012. However, the United States insists on full 
transparency for all projects run through the Afghan Government and has 
rigorous processes in place to guarantee that every entity receiving 
funds has the capacity to transparently and effectively handle U.S. 
funds. As a result, the administration is very selective in which 
institutions it will fund directly, having approved a few and rejected 
many more.

    Question. Pakistan--Pakistan Cooperation and Civilian Aid 
Oversight.--Pakistan is currently the third largest recipient of U.S. 
security assistance after Afghanistan and Israel, Pakistan received a 
total of $2.7 billion in security assistance and reimbursements in FY 
2010 alone--a staggering 140 percent increase since 2007. This includes 
$1.5 billion in direct reimbursements to Pakistan's Treasury through 
the Coalition Support Fund--an amount that is double the amount 
provided the previous fiscal year.
    Pakistan's cooperation with the United States in addressing the 
terrorist threat in the Afghan border region is abysmal and the disdain 
for the United States evident. Is the United States, as news reports 
indicate, considering conditioning U.S. assistance to Pakistan on its 
cooperation in four areas:

  <bullet> Cooperation in exploiting the bin Laden compound;
  <bullet> Cooperation with the war in Afghanistan;
  <bullet> Cooperation with the United States in conducting joint 
        counterterrorism operations;
  <bullet> Cooperation in improving the overall tone in bilateral 
        relations.

    Is this new framework in fact in place and when do you expect the 
first assessment to be made? Do you expect that all U.S. assistance 
will be subject to these conditions? How much assistance are you 
currently withholding? Under what conditions will you release that 
assistance?

    Answer. While not always easy, the relationship with Pakistan is 
very important to the United States. The administration works with the 
Government of Pakistan in many ways, including identifying shared 
interests and the actions we can jointly take to achieve them. The 
United States remains committed to doing that and to strengthening and 
deepening our long-term relationship.
    There has been no major policy change in the administration's 
assistance to Pakistan, and it does not believe now is the time to 
change course. Civilian assistance continues to move forward and meet 
the needs of both countries by strengthening Pakistan's economy and 
civilian institutions that better the lives of the Pakistani people. 
The U.S. ``pause'' in some military assistance does not signify a shift 
in policy but underscores the fact that the partnership depends on 
cooperation and tangible responses from Pakistan.
    The administration has communicated to Pakistani officials on 
numerous occasions that the United States requires their cooperation in 
order to provide certain assistance, including most recently in 
connection with Foreign Military Funding for Pakistan for FY 2011. The 
administration will continue to be clear about the need for Pakistan to 
take certain steps with regard to U.S. military aid. The United States-
Pakistan partnership must be supported by the efforts of both sides, 
and both countries have reaffirmed their commitment to shared interests 
and acting on those interests jointly.
    Over the long term, the United States seeks to support the 
Pakistani people as they chart their own destiny toward greater 
stability, economic prosperity, and justice.

    Question. Taiwan.--On August 24, the Pentagon released its annual 
report, Military and Security Developments Involving the People's 
Republic of China 2011, cataloging China's cruise missiles, fighter 
jets and growing, modernizing army. It described the pace and scope of 
China's military buildup as ``potentially destabilizing.''
    It reported that the Chinese military remains focused on Taiwan and 
has deployed as many as 1,200 short-range missiles aimed in its 
direction. Moreover, it is developing antiship ballistic missiles, 
potentially capable of attacking American aircraft carriers.
    As cochair of the Senate Taiwan Caucus, on May 26 I led a letter to 
President Obama urging the sale of 66 F-16 C/D aircraft to address the 
military imbalance in the Taiwan Strait, the deteriorating condition of 
Taiwan's aging fleet, and the fact that the ideal aircraft for Taiwan, 
the F-16, must be procured by 2013 before the production line closes. 
Forty-four Senators joined me in this bipartisan effort.
    The Obama administration has committed to making a decision on the 
sale prior to October 1, but the fact that this date falls between Vice 
President Biden's trip to China and President Hu's trip to Hawaii, not 
to mention that it is 2 months before President Hu's expected successor 
visits the United States, makes me worried that the administration will 
not stand up to China on behalf of our strategic relationship with 
Taiwan. This concerns me as Taiwan's defense and deterrent capacity are 
in the U.S. national security interest, as well as promoted and 
compelled by the Taiwan Relations Act.

    Question. Could you share with me your view on the question of the 
military balance in the Taiwan Strait? And do you believe that the 
United States should proceed with the sale of 66 F-16s to Taiwan?

    Answer. Consistent with long-standing U.S. policy, U.S. arms sales 
to Taiwan are guided by the Taiwan Relations Act (TRA) and based on an 
assessment of Taiwan's defense needs. Meeting Taiwan's defense needs is 
a deep commitment of the United States and the administration is 
committed to following through on the terms of the TRA under which the 
United States makes available to Taiwan items necessary for its self 
defense.
    In accordance with that policy, the United States is cognizant of 
the security challenges Taiwan faces and its need to maintain a 
sufficient self-defense capability, including for air defense. The 
administration continues to evaluate Taiwan's defense needs, including 
air defense, and its requests as part of usual Foreign Military Sales 
(FMS) process. It is my understanding that as of this time, no decision 
has yet been made on the sale of any particular items to Taiwan.

    Question. Do you agree that the Congress, pursuant to the Taiwan 
Relations Act, has the authority to compel this sale?

    Answer. The United States and Taiwan have been well-served by the 
Taiwan Relations Act (TRA). The TRA serves as the basis for the vibrant 
economic, cultural, educational and other ties between the people of 
the United States and the people on Taiwan.
    The question of the interpretation of the TRA presents complex 
legal issues that would require consideration by a number of offices 
and agencies within the executive branch.

    Question. Critics, myself included, have expressed concern about 
this administration's lack of vision for and attention to the Western 
Hemisphere. This pertains to both the opportunities presented by the 
hemisphere--which has largely experienced positive economic growth in 
the midst of our economic crisis--as a market for U.S. exports, as well 
as the growing security crisis in the region resulting from 
transnational criminal organization.

  <bullet> What is your vision for the hemisphere?
  <bullet> Where does the hemisphere rank in the context of the many 
        priorities faced by the Department?
  <bullet> Do you feel that the budget laid out by the administration 
        in the FY 12 budget--showing a real and percentage decrease in 
        development and narcotics assistance for the hemisphere--is 
        sufficient to meet the needs of the region?

    Answer. The Obama Administration's vision for the hemisphere is one 
of positive partnerships seeking more inclusive growth and democratic 
development. The administration has focused on four overarching 
priorities critical to this vision: building effective institutions of 
democratic governance; promoting social and economic opportunity for 
everyone; securing a clean energy future; and ensuring the safety and 
security of all of our citizens. The administration's efforts are 
structured as both bilateral partnerships, including strategic 
dialogues, and working to strengthen multilateral and regional 
institutions. Importantly, some of the most successful and democratic 
nations in the hemisphere explicitly share this vision, enabling the 
administration to create positive synergies and work together in areas 
never before possible and which have global implications (such as 
renewable energy).
    The administration's vision remains manifestly inclusive and seeks 
points of convergence even in addressing difficult issues. The 
administration recognizes that the most successful approaches to 
challenges will be both comprehensive--addressing all facets of the 
problem--and regional, including governmental, private, and 
nongovernmental partners. A practical example is our effort to enhance 
citizen safety through the Merida Initiative in Mexico, Central America 
Regional Security Initiative, Colombia Strategic Development 
Initiative, and the Caribbean Basin Security Initiative, all designed 
to break the power, violence, and impunity of the region's drug, gang, 
and criminal organizations by strengthening law enforcement and justice 
sector institutions and by helping to identify, empower, and build 
resilient civil societies and entrepreneurial communities.
    The administration agrees that the region's growing prosperity is 
creating an important new market for American goods, which is why they 
remain strongly committed to the approval of pending trade agreements 
with Colombia and Panama, along with TAA and the extension of 
Generalized System of Preferences (GSP) and ATPDEA. In addition, the 
United States continues to prioritize economic growth programs that 
leverage the emerging leadership potential and resources of many Latin 
American and Caribbean countries. Collaborative platforms like Pathways 
to Prosperity and the Energy and Climate Partnership of the Americas, 
which invite partner governments and the private sector to join in a 
broader coalition to address key elements of the hemispheric agenda, 
are central to the administration's strategic vision.
    The administration remains steadfast in its commitment to core 
principles and recognition of key values such as human and labor 
rights, press freedom, and the importance of robust and independent 
democratic institutions, upon which many of those values depend.
    The Western Hemisphere remains a top priority for the United 
States. The Obama administration has demonstrated in word and deed from 
the beginning that the United States has important national interests 
at stake in the Western Hemisphere, and the best way to advance these 
interests is through proactive engagement. It has also amplified the 
ways in which key allies in the Western Hemisphere will be our partners 
confronting common global challenges.
    President Obama's visit to Brazil, Chile, and El Salvador in March 
highlighted every one of the themes outlined above, building on the 
pledge that he made at the Summit of the Americas to create a 
relationship of ``equal partners'' based on mutual interests and shared 
values. The President's message, and the dozens of agreements completed 
during the trip, underscored how significant the region is for the 
United States on issues including our economic competiveness, our 
global strategic interests, our core values of democracy and human 
rights, and the richness and diversity of our society and culture.
    The U.S. foreign assistance request for FY 2012 responds to 
continued threats to citizen safety that jeopardize U.S. national 
security interests; reinforces democratic gains; leverages the region's 
emerging economic opportunities and strengths; and supports the 
Americas' emerging potential for global leadership. The administration 
believes this request will help it meet the challenges and 
opportunities we face. At the same time, it is lean and responds to the 
fiscal constraints that we all face. If confirmed, I will work with the 
Department to advance these priorities, particularly as we approach the 
Summit of the Americas in Colombia in 2012.
                                 ______
                                 

           Responses of Wendy Sherman to Questions Submitted
                          by Senator Jim Webb

    Question. Various press reports have intimated that, as a global 
strategist and principal of the Albright Stonebridge Group, you have 
represented or advised U.S. and other firms seeking to do business in 
China. Given the unique responsibility of the Under Secretary for 
Political Affairs for managing the full range of issues in our day-to-
day bilateral relationships, please provide a specific description of 
the nature of your private sector activities in China. In particular, 
please describe the level and nature of any contacts you may have had 
with Chinese Government officials in this capacity.

    Answer. Albright Stonebridge Group has an active China practice and 
as a principal of ASG, I have participated in helping clients, largely 
American multinationals, meet their business objectives in China. In 
that role, I have met with a variety of officials in Beijing, Shanghai, 
and in some of the provinces at a variety of levels. In addition, I 
have participated as part of delegations sponsored by The Aspen 
Institute and the Center for American Progress (CAP) that conducted 
United States-China dialogues and in that capacity have also met with a 
variety of officials.

    Question. While you are not registered as a lobbyist or a 
representative of a foreign government, many of the clients you advised 
at Albright Stonebridge Group engage separate staff to lobby the State 
Department and Congress on a variety of issues. Can you confirm that 
neither you, nor the Albright Stonebridge Group, which continues to 
hold the promissory note for the divestment of your interests in the 
firm, retain any private interests in China that may compromise your 
ability, if confirmed, to represent the full range of U.S. interests in 
our bilateral relationship with China?

    Answer. Under the Ethics Undertakings agreed to with the Office of 
Government Ethics and White House Counsel, I will be recused for 2 
years from participating personally or substantially in any particular 
matter that involves any clients I served while a principal of Albright 
Stonebridge Group or in any particular matter that involves Albright 
Stonebridge Group. I will also be recused from participating personally 
or substantially in any particular matter that has a direct and 
predictable effect on the ability or willingness of Albright 
Stonebridge Group to pay the note, until the note is paid in full. 
Given the nature of the job of Under Secretary of State for Political 
Affairs, these recusals should have little if any effect on my ability 
to fulfill the duties of the position.

    Question. More broadly, I remain concerned that the United States 
lacks a coherent strategy to address the impact of China's rise on our 
own economic and security interests. Within the U.S. Government, 
agencies continue to advocate for competing priorities. While some 
agencies push to broaden our business opportunities and engagement with 
China, reports from the Department of Defense and the intelligence 
community document persistent concerns with sensitive technology 
transfers, the abuse of U.S. intellectual property rights, cyber 
attacks originating in China, and China's continued aggressive naval 
activities in the South China Sea.
    If confirmed, how will you balance the competing priorities of 
expanding our economic and political ties with China while also holding 
China more accountable in these areas?

    Answer. The administration is committed to pursuing a positive, 
cooperative, and comprehensive relationship with China grounded in 
reality, focused on results, and true to our principles and interests. 
If confirmed, I will work to advance those objectives and to uphold 
American political, economic, and national security interests in my 
interactions with Chinese counterparts.
    The administration engages the Chinese leadership to strengthen 
cooperation on shared goals of regional stability and increased 
prosperity. The administration also encourages China to play a greater 
role internationally in ways supportive of international development 
and stability--and in ways consistent with prevailing international 
rules and institutions.
    U.S. engagement with China includes three main pillars:

    1. Work with allies and partners in Asia to foster a regional 
environment in which China's rise is a source of prosperity and 
stability for the entire region.
    2. Build bilateral trust with China on a range of issues. The 
Strategic and Economic Dialogue (S&ED) represents a ``whole of 
government'' dialogue with the participation of hundreds of experts 
from dozens of agencies across both of our governments to achieve that 
goal. Additionally, the United States engages in broad outreach to 
broad elements of Chinese Government and society, including building a 
healthy, stable, continuous, and reliable military-to-military 
relationship and increasing people-to-people exchanges between our 
countries.
    3. Expand cooperation with China to address common global and 
regional challenges, ranging from Iran and North Korea to climate 
change, and including economic issues and multilateral initiatives.

    While seeking cooperation with China on a range of international 
issues, the administration recognizes the obstacles and differences 
that continue to exist.
    The administration has raised difficult issues and areas of 
disagreement in discussions with China. Those topics include human 
rights, unfair procurement preferences, violations of intellectual 
property rights, and currency manipulation.
    The administration also recognizes that China has been engaged in 
an ambitious military modernization effort since the mid-1990s, seeking 
to create a modern force capable of fighting high-intensity conflicts 
along its periphery. In discussions on China's military intentions, 
administration officials have urged the Chinese to provide greater 
transparency into the capabilities they are developing and the 
intentions behind their modernization effort.
    Those discussions emphasized our shared interest in ensuring peace 
and prosperity in the region. Although continuing to build a 
comprehensive relationship with China, the administration carefully 
monitors China's military developments and, in concert with our allies 
and partners with whom we consult regularly on China's military 
modernization, will make adjustments to current policy as necessary.
                                 ______
                                 

           Responses of Wendy Sherman to Questions Submitted
                       by Senator James E. Risch

    Question. North Korea.--In your testimony before this committee, 
you said: ``It makes no sense to have talks just for the sake of talks. 
North Korea must keep its commitments that it made in 2005 to really 
move forward to the denuclearization of the Korean Peninsula.''

  <bullet> Do you believe North Korea has kept the commitments it made 
        in 2005?

    Answer. No. North Korea has not kept its commitments.
    In the September 2005 Joint Statement of the Six-Party Talks, the 
DPRK committed to abandoning all nuclear weapons and existing nuclear 
programs and to returning, at an early date, to the Nuclear Non-
Proliferation Treaty (NPT) and International Atomic Energy Agency 
(IAEA) safeguards. Since then, the DPRK has continued its nuclear-
related activities, including its uranium enrichment program (UEP) and 
light water reactor construction activities, and announced it conducted 
nuclear tests in 2006 and 2009.

    Question. Do you believe the talks Secretary Clinton invited North 
Korea's Vice Foreign Minister to have in New York were productive? Why?

    Answer. The State Department has provided the following read out on 
those talks: U.S. officials met with the DPRK in New York July 28 and 
29 to reiterate that, while the United States remains open to direct 
engagement, we are not interested in talks for the sake of talking. The 
United States underscored that before serious negotiations can resume, 
the DPRK must take demonstrable steps to show that it is prepared to 
meet its international commitments to achieve the goal of the 2005 
joint statement: the verifiable denuclearization of the Korean 
Peninsula in a peaceful manner. The United States also emphasized that 
international sanctions on the DPRK will remain in place until 
Pyongyang complies with its obligations under U.N. Security Council 
Resolutions 1718 and 1874, under which the DPRK must abandon all 
nuclear weapons and existing nuclear programs in a complete, verifiable 
and irreversible manner, and suspend its ballistic missile program.
    Based on this read out, the talks were very important because the 
administration was able to drive home directly to the DPRK that it must 
take concrete steps to meet its international commitments.

    Question. The Obama administration has stated that North Korea must 
demonstrate a ``concrete indication'' of Pyongyang's commitment to 
denuclearization prior to resuming multilateral negotiations. Do you 
agree with this position? What do you consider to be an acceptable 
``concrete indication''?

    Answer. North Korea must demonstrate a change in behavior, 
including improving North-South relations, ceasing provocative actions, 
taking concrete steps toward irreversible denuclearization, and 
complying with its commitments under the 2005 Joint Statement of the 
Six-Party Talks and its obligations under the U.N. Security Council 
Resolutions 1718 and 1874.
    As the the administration has stated repeatedly, they are open to 
talks with North Korea, but do not intend to reward the North just for 
returning to the table. The administration will not give them anything 
new for actions they have already agreed to take and the administration 
has no appetite for pursuing protracted negotiations that will only 
lead us right back to where we have already been.

    Question. There has been a great deal of turmoil in the Middle East 
over the last 6 months but, with all the potential for change, a 
constant is the danger posed by Iran's nuclear program. Despite the 
President's commitment to deprive Iran a nuclear weapons capability, 
the IAEA confirmed just last week that the Iranian program continues 
and that they are loading P-2 Centrifuges at Qom.
    What new steps is the administration willing to take to stop Iran--
would you recommend pursuing additional sanctions in the near future? 
President Obama has said that it is unacceptable for Iran to have a 
nuclear weapons capability. What does that mean? Does it mean we'll do 
everything and anything we can to ensure Iran does not acquire that 
capability?

    Answer. If confirmed, I will work actively to increase the pressure 
on Iran as part of the dual track policy of pressure and engagement to 
resolve our national security concern and the international community's 
concerns about Iran's nuclear program. The administration is committed 
to sanctions against Iran as long as it continues to defy the 
international community and fails to meet its obligations under U.N. 
Security Council and International Atomic Energy Agency resolutions. I 
understand that the administration continues to review options for 
stepping up pressure against Iran, including possible new sanctions, 
possible new designations under the existing sanctions regime, and 
improved implementation of existing sanctions by U.N. member states.

    Question. A central tenet of the U.S.-Israel relationship from 
administration to administration has been the close working 
relationship between the two countries and that differences of opinion 
are dealt with behind closed doors.

  <bullet> Do you agree that the United States should work more closely 
        with Israel and ensure our differences stay private?
  <bullet> Do you believe U.S. policy in the region is best advanced 
        through a close working relationship with Israel?
  <bullet> How would you characterize the U.S.-Israel strategic 
        dialogue? In spite of the current turmoil and instability in 
        the region, does the United States remain absolutely committed 
        to Israel's qualitative military edge?

    Answer. As President Obama said in his speech on May 22, 2011, 
``the bonds between the United States and Israel are unbreakable and 
the commitment of the United States to the security of Israel is 
ironclad.'' The U.S.-Israel bilateral relationship is stronger than 
ever, and the administration is taking full advantage of the robust and 
frequent senior-level consultative and political mechanisms currently 
in place to share views and analysis of the unprecedented changes 
underway in the region. The administration is also working together to 
ensure that these changes do not negatively impact Israel's security.
    During the past year, there have been an unprecedented number of 
bilateral defense and strategic consultations, high-level discussions 
and visits, and less high-profile consultations at senior levels 
between U.S. and Israeli leaders and government officials.
    As in any close friendship, there are times when the United States 
and Israel do not share the same views. The administration works 
productively and practically to resolve such differences quickly and 
quietly.
    The administration has been clear in its absolute commitment to 
maintaining and supporting Israel's qualitative military edge (QME). 
The United States will respond quickly and carefully, in close 
consultation with the Government of Israel, to any development that 
might affect it.

    Question. Over the past 2 years, the Palestinian leadership has 
repeatedly refused to enter direct negotiations with Israel. Instead, 
Palestinian Authority President Abbas has embarked on an effort to push 
for recognition at the U.N. These efforts hurt the chances for peace 
and run counter to long-standing U.S. policy in favor of direct 
negotiations. President Obama has called the Palestinian initiative 
purely ``symbolic'' and said that efforts to delegitimize Israel will 
end in ``failure.''

  <bullet> What are we doing to encourage other countries to oppose the 
        effort as well, both in the Security Council and the General 
        Assembly? How many countries has the State Department demarched 
        on this issue? Have we engaged diplomatically across the board 
        to make it clear that a vote on Palestinian statehood or 
        upgrading their status is strongly opposed by the United 
        States?

    Answer. In May, President Obama delivered in two speeches his 
vision of how to move forward toward Middle East peace, and laid out 
principles and goals of the negotiations needed to resolve the 
difficult ``final status'' issues between the parties. He also made 
clear his opposition to efforts to determine final status issues 
outside of negotiations, including through initiatives at the United 
Nations. He said, ``For the Palestinians, efforts to delegitimize 
Israel will end in failure. Symbolic actions to isolate Israel at the 
United Nations in September won't create an independent state.''
    I will--if confirmed--wholeheartedly support the efforts underway 
to make this position absolutely clear at the U.N. and in capitals 
around the globe. The United States is urging other member states not 
to support any Palestinian action at the U.N. that would serve to 
prejudge final status issues or isolate Israel, in whatever form such 
action might take.
    U.S. ambassadors have engaged, at Secretary Clinton's instruction, 
at the highest political levels in close to 100 capitals worldwide 
where outreach would be most productive. Secretary Clinton, National 
Security Advisor Donilon, Ambassador Rice, Deputy Secretary Burns, 
Assistant Secretary Feltman and Special Envoy Hale and other senior 
U.S. officials have also been working intensively with their 
counterparts in key capitals for months to underscore our concerns and 
views.
    Going forward, the Department of State will continue to work 
vigorously and strategically to reach out to select countries and 
organizations to express and explain our firm opposition to any one-
sided actions at the U.N., including a Palestinian state declared 
outside of the framework of negotiations.

    Question. President Abbas has ignored the President's request that 
he not pursue a U.N. Security Council Resolution seeking recognition. 
What impact will Palestinian efforts at the U.N. have on the United 
States-Palestinian relationship? Is the administration willing to 
suspend foreign aid to the Palestinian authorities or other Palestinian 
entities if they do not forgo these efforts?

    Answer. I know that at every turn, the administration has told the 
Palestinian leadership clearly and consistently that only direct 
negotiations can produce the outcome they seek: a real and lasting 
peace with Israel, and the creation of a Palestinian state. These 
outcomes will serve the interests of the United States and Israel as 
well, and are vital to a comprehensive peace and regional stability.
    The administration has been equally clear and unequivocal that it 
would vigorously oppose any U.N. Security Council or General Assembly 
resolution that seeks to predetermine any ``final status'' issue that 
must be resolved through direct negotiation, including creation of a 
Palestinian state.
    The United States remains committed to a dual-track strategy in 
pursuing Israeli-Palestinian peace, a vigorous political negotiating 
effort focused on renewing direct negotiations and moving forward 
toward a comprehensive peace, and an equally vigorous institution-
building track to prepare Palestinians for eventual statehood, 
including maintaining security and continuing to support the growth of 
accountable and professional security forces, and providing transparent 
and efficient services for the Palestinian people.
    It has been the position of successive administrations that support 
for Palestinian Government institutions and a viable Palestinian 
economy serves the interests of the United States, and is essential for 
peace, the stability of the region, and the security of both Israel and 
the Palestinians.
    Cutting off assistance to the Palestinian Authority would put these 
gains at risk, send a very negative signal to the broader region at a 
time of intense change, and, most immediately, risk dramatically 
undermining security--outcomes that hurt both the interest of the 
United States and the interests of Israel and the Palestinians.
    Building the institutions of a stable, prosperous Palestinian state 
with an accountable and transparent government and professional 
security forces also is a strong and vital bulwark against 
radicalization. These efforts are and will remain critical to U.S. 
national interests even in the face of difficulties on the political 
track.

    Question. Recently, the European Union and the United States 
announced sanctions on the Syrian regime. What assistance is Turkey 
providing, or has offered, to help enforce sanctions on Syria?

    Answer. Turkey and the United States have coordinated closely on 
Syria. Turkey has issued strong, unambiguous statements condemning the 
Syrian Government's violent attacks against civilians. The Turkish 
Foreign Minister and other Government of Turkey officials have traveled 
to Damascus to identify the kinds of measures the Syrian Government 
needed to take to address the international community's concerns.
    The Turkish Government has provided humanitarian assistance to over 
7,000 displaced Syrians residing in seven camps administered by the 
Turkish Red Crescent in the Hatay province bordering Syria.
    Turkey has not enacted unilateral sanctions against Syria but has 
enforced U.N. sanctions. For example, Turkey has taken action to 
prevent illicit materiel from arriving in Syria via Turkey.

    Question. Is the United States committed to the territorial 
integrity and defense of the Republic of Georgia?

    Answer. The United States remains steadfast in its strong support 
for Georgia's sovereignty and territorial integrity. The United States 
continues to call on Russia to fulfill its obligations under the 2008 
cease-fire agreement, including withdrawal of its forces to preconflict 
positions and free access for humanitarian assistance. The continued 
militarization of the Abkhazia and South Ossetia regions by the Russian 
Federation is inconsistent with its cease-fire commitments and 
threatens the stability in the region. The administration is an active 
participant in the Geneva discussions, working with the cochairs and 
others in pursuit of a resolution to the conflict. The United States 
also continues to voice concern directly to Russia at every opportunity 
and at high levels regarding its actions in Georgia, including during 
Secretary Clinton's meetings with Russian FM Lavrov. In addition, the 
administration will continue to speak out in support of Georgia's 
territorial integrity, as it did recently in our statement regarding 
the so-called August 29 ``elections'' in the separatist region of 
Abkhazia.

    Question. Is the United States willing to provide all necessary 
support to help Georgia formulate its defense doctrines, including the 
drafting of a capabilities and threats assessment and defense white 
paper?

    Answer. The United States continues to have a broad and deepening 
relationship with Georgia in a number of sectors. The administration's 
security assistance and military engagement with Georgia is currently 
focused in two areas. The first is comprehensive assistance to support 
Georgia's defense reform and modernization along Euro-Atlantic lines. 
In particular, the United States is focused on building institutional 
capacity, supporting personnel and doctrine reform, and contributing to 
professional military education modernization. The administration has 
also consulted with the Georgian Government as it drafts a National 
Security Concept. Second, the United States continues to provide the 
necessary training and equipment to Georgian troops in support of their 
interoperability and effective participation in ISAF operations in 
Afghanistan.
                                 ______
                                 

           Responses of Wendy Sherman to Questions Submitted
                       by Senator James M. Inhofe

    Question. Protocol on Cluster Munitions to the Convention on 
Conventional Weapons (CCW): A proposed Sixth Protocol to the Convention 
on Conventional Weapons (CCW) is currently being negotiated in Geneva. 
This protocol would establish sensible controls on the production, 
stockpiling, and use of cluster munitions. The negotiations which 
produced the current draft protocol have been ongoing for several years 
with the active involvement of the U.S. delegation to the CCW. The 
current draft is widely supported within the CCW, and would 
significantly advance global efforts to minimize the risks to civilian 
populations of modern warfare while simultaneously preserving the 
ability of the United States and its allies to utilize munitions that 
will limit American casualties in future conflicts. The draft is 
opposed by some NGOs, however, and several governments participating in 
the CCW may block approval of the protocol at the CCW Review Conference 
in November, thereby killing it.

  <bullet> Does the Obama administration support the proposed CCW 
        protocol on cluster munitions?
  <bullet> Does the Obama administration have in place a strategy for 
        preventing a small group of countries from killing the proposed 
        CCW protocol on cluster munitions? If so, please describe that 
        strategy.
  <bullet> If confirmed, will you work actively to support approval of 
        the cluster munitions protocol, and to raise this issue in your 
        discussions with foreign counterparts?

    Answer. The administration supports concluding a comprehensive and 
binding protocol to the Convention on Conventional Weapons (CCW) that 
addresses all aspects of cluster munitions, to include use, transfer, 
stockpiling, and destruction and that will have a significant 
humanitarian impact on the ground while preserving an important 
military capability. The draft protocol presented by the CCW Group of 
Governments Experts Chair provides the basis for such a protocol.
    The Department is currently engaging CCW High Contracting Parties 
to urge these states to seize the opportunity to conclude a new 
protocol regulating cluster munitions at the CCW Review Conference in 
November. This includes targeted ministerial-level engagement with key 
detractors. If confirmed I will join Secretary Clinton and the rest of 
the Department in these efforts, as appropriate.

    Question. Foreign Boycotts of U.S. Defense Firms.--There is an 
aggressive campaign underway, led by foreign NGOs, and apparently 
abetted by some foreign governments, to boycott U.S. companies involved 
in the manufacture pursuant to contracts with the U.S. Department of 
Defense of weapons systems that they don't think the United States 
should have. This campaign is currently focused on manufacturers of 
landmines and cluster munitions, but can easily be expanded to 
manufacturers of nuclear weapons-related items, depleted uranium 
weapons, etc. The campaign has made surprising headway in dissuading 
foreign banks from doing business with some key U.S. defense 
contractors, and is clearly aimed at dissuading these companies from 
continuing to supply the United States with these weapons.

  <bullet> Are you aware of this campaign?
  <bullet> Does the Obama administration believe that this campaign is 
        exclusively driven by NGOs, or are some foreign governments 
        also complicit in it? If so, which ones?
  <bullet> What is the policy of the Obama administration with respect 
        to foreign boycotts of U.S. defense contractors?
  <bullet> If the Obama administration opposes foreign boycotts of U.S. 
        defense contractors, what specific steps has the State 
        Department taken to resist this campaign and support U.S. 
        defense contractors that have been targeted by it?
  <bullet> If the Obama administration opposes foreign boycotts of U.S. 
        defense contractors, what steps do you intend to take if 
        confirmed as Under Secretary for Political Affairs to resist 
        this campaign and support U.S. defense contractors that have 
        been targeted by it? Are you committed, for example, to raising 
        this issue with foreign government officials?
  <bullet> Do you believe the United States Government should continue 
        to do business with foreign banks and other foreign businesses 
        that are engaged in boycotts of U.S. defense contractors?

    Answer. The State Department is committed to ensuring fair 
treatment of U.S. companies and their goods, services, and investments 
in the global marketplace. It is my understanding that the Department 
is aware of one NGO campaign advocating for a ban on investments in 
cluster munitions pursuant to the Convention on Cluster Munitions 
(CCM), to which the United States is not a State party. To the 
Department's knowledge, the campaign is driven by NGOs and not foreign 
governments. While a handful of states party to the CCM (Belgium, 
Ireland, Luxembourg, and New Zealand) have chosen to criminalize 
investment in production of cluster munitions, the Department is not 
aware of any foreign governments or businesses boycotting a U.S. 
defense contractor owing to its production of defense articles for U.S. 
Government contracts based on their belief that the United States 
should not possess said articles. If notified of such a boycott, it is 
my understanding that the Department would be willing to raise it with 
foreign officials. If confirmed, I will join in the Department's 
efforts to engage foreign governments on such issues, as appropriate. 
It is also my understanding that the Department will review allegations 
of discrimination against an American company, if notified of specific 
information of such discrimination.


                              NOMINATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 21, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Robert A. Mandell, of Florida, to be U.S. Ambassador to 
        Luxembourg
Hon. Thomas Charles Krajeski, of Virginia, to be U.S. 
        Ambassador to the Kingdom of Bahrain
Hon. Dan W. Mozena, of Iowa, to be U.S. Ambassador to the 
        People's Republic of Bangladesh
Michael A. Hammer, of the District of Columbia, to be Assistant 
        Secretary of State for Public Affairs
                              ----------                              

    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen, presiding.
    Present: Senators Shaheen, Barrasso, and Risch.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good morning, everyone. Today the Senate 
Foreign Relations Committee meets to consider the nominations 
of: Mr. Robert Mandell, to be the U.S. Ambassador to 
Luxembourg; Ambassador Thomas Charles Krajeski, to be the U.S. 
Ambassador to the Kingdom of Bahrain; Ambassador Dan Mozena, to 
be confirmed to be--I'm sorry, I misread that--Ambassador Dan 
Mozena, to be the U.S. Ambassador to the People's Republic of 
Bangladesh; and Mr. Michael Hammer, to be the Assistant 
Secretary of State for Public Affairs. Welcome, everyone.
    I want to congratulate each of you on your nominations, and 
I also want to welcome all of your families and friends who are 
here today. I look forward to hearing from each of you about 
the unique challenges and opportunities you face in your new 
position upon your confirmation. I'm going to begin by making 
an opening statement and then I will turn it over to each of 
you to make a statement, and then we will do some questions.
    Luxembourg is a small but influential member of the 
European Union and the eurozone economy, as well as a founding 
member of NATO. As one of the wealthiest countries in the 
world, Luxembourg is highly dependent upon trade and investment 
and has played an active role in deepening European economic 
integration, which gives Luxembourg a particularly unique view 
with respect to the ongoing eurozone debt crisis.
    As perhaps the most critical issue facing Europe and the 
transatlantic space, the ongoing sovereign debt crisis in 
Europe continues to affect global financial markets around the 
world and is having spillover effects on economic and financial 
confidence here at home. How Europe responds to this crisis 
will have dramatic implications, not only for the future of 
Europe, but also across the broad spectrum of U.S. interests.
    There is a path forward and Europe does have the economic 
capacity to manage these very difficult challenges. However, a 
credible solution will require some very tough decisions and 
bold, coordinated actions from Europe's leaders. I look forward 
to hearing your thoughts, Mr. Mandell, on the role Luxembourg 
can play on this important effort.
    Ambassador Krajeski, as you know, Bahrain is a long-time 
U.S. ally in a very difficult neighborhood. As the headquarters 
of the U.S. Navy's Fifth Fleet and designated as a major non-
NATO ally in 2001, Bahrain shares a wide range of regional 
security interests with the United States, including the threat 
of increasing Iranian influence across the Persian Gulf.
    Today our bilateral relationship is at a pivotal point, as 
Bahrain struggles in the face of ongoing protests linked to the 
Arab Spring which erupted in February 2011. In response to 
largely peaceful demonstrations, Bahrain declared a state of 
emergency and invited security assistance from neighboring gulf 
countries. Continued protests, detentions, and arrests have 
increased ethnic and religious tensions and reduced prospects 
for a sustainable political solution in Bahrain.
    In May, President Obama declared that mass arrests and 
brute force are at odds with the universal rights of Bahrain's 
citizens, and that, ``You cannot have a real dialogue when 
parts of the peaceful opposition are in jail.''
    The committee will be interested to hear how the 
administration intends to follow up on that strong declaration 
and how we will encourage real dialogue and a peaceful solution 
for all of Bahrain's citizens, Shia and Sunni alike.
    Ambassador Mozena, Bangladesh is an overwhelmingly Muslim 
country with a relatively moderate secular and democratic 
government, located in a strategically important northern 
region of the Bay of Bengal in South Asia. As relationships 
between China, India, and the rest of South Asia continue to 
evolve, Bangladesh, with its energy reserves and important 
trade routes, will play an increasingly significant role in the 
region.
    Finally today, we will assess how the State Department 
communicates its message around the world, Mr. Hammer. In an 
extremely fast-paced, open and interconnected global 
marketplace of ideas, it's not enough to simply create and 
implement sound policies any more. Now we must also be able to 
quickly and effectively broadcast those policies around the 
globe.
    Communications strategy and winning hearts and minds is a 
critical component of any effective foreign policy and national 
security strategy. We must also be on the cutting edge of 
communications technology, utilizing modern social media tools, 
including texting, Twitter, Facebook, and YouTube. I will be 
interested to hear how the Department intends to keep up in 
this complex environment.
    Again, I want to thank each of you for your willingness to 
take on these important and challenging posts. I will briefly 
introduce each of our nominees before turning it over to you 
for your opening statements. But first I want to see if Senator 
Barrasso, who's the ranking member on the subcommittee, has an 
opening statement.

            OPENING STATEMENT OF HON. JOHN BARRASSO,
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Madam 
Chairman. Today the Senate Committee on Foreign Relations meets 
to consider four very important nominations. Each of these 
posts is important to fostering vital relationships and 
promoting U.S. national interests, and there are truly real 
challenges ahead. It's important that the United States 
continues to be a strong leader across the globe.
    So I join you, Madam Chairman, in congratulating each one 
of our nominees. In addition, I want to extend a warm welcome 
to all of their friends and families. I see Senator Nelson here 
and I don't want to delay him at all.
    Senator Shaheen. Thank you.
    Senator Nelson is here to introduce Robert Mandell, so I 
will let you do that introduction, Senator Nelson, before I go 
on to introduce our other nominees this morning.

                 STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Madam Chairman, I want to thank you for 
your personal consideration of having this hearing and for 
particularly speeding up the consideration of our friend from 
Florida, Bobby Mandell.
    I want to at this moment just thank all of these people at 
the table for their public service. You all are going to some 
very critical parts of the world. In addition to the 
administration of the State Department, I have been to most of 
these critical parts of the world and I can tell you that my 
impression of the Foreign Service is that we are very fortunate 
to have the quality of the Foreign Service officers that 
represent us around the country--around the world. As a result, 
in this new world in which we live the Foreign Service becomes 
all the more important, because as we are projecting soft power 
representing the interests of the United States that clearly 
involves all the agencies of government and certainly the 
Foreign Service.
    So, Madam Chairman, I come with an eye that's cocked on 
quality and that's why I wanted to come here today, because I 
have seen that a political ambassador, as opposed to a career 
Foreign Service officer, if that ambassador is a good one, can 
be one of the most effective tools of representation for the 
United States of America. I've seen that in Republican and 
Democratic administrations. I've seen that, the ambassador be 
all the more effective with a strong DCM because of the 
political connection, if you will, back to the administration 
of the ambassador having been all the more effective.
    I think of, for example in the Bush administration, one of 
our more effective ambassadors was a former partner in the 
Texas Rangers of George Bush. He first went to the Czech 
Republic. He was so good--he learned Czech. He was so good, in 
the second Bush administration he went to Paris, and he became 
fluent in French. I could go on and on with a number of the 
ambassadors.
    That's why I wanted to come here to tell you about Bobby 
Mandell. He is my friend. He's a personal friend. He and his 
family and his wife, Julie, his mom and dad, Lester and Sunny, 
are here in the front row. They've been personal friends of 
mine for years and years, so I know Bobby and I know the 
family, and this is the kind of person that we want 
representing our country.
    Although Luxembourg's a little-bitty country, it's right in 
the middle of a fire storm of activity that is critically 
important to the United States. So we need a representative 
there that is going to stand tall and make us proud.
    Now, they've had some problems in the past. That's why you 
need somebody of the quality of Bob Mandell to come in and 
represent the country. I can tell you a lot about--he's a 
lawyer, he is a businessman par excellence. He took over the 
business that his dad had started from humble beginnings, made 
that business multi, multi hundreds of millions of dollars of 
value. He has sold that business and so he has the opportunity 
now for public service.
    I give you my highest recommendation, Madam Chairman, Mr. 
Ranking Member, and the Senator also that's here for this 
committee. I had the privilege of sitting on this committee for 
6 years, and I thank you all for the service that you render.
    Senator Shaheen. Thank you very much, Senator Nelson, and 
thank you for being here for that introduction.
    Next we have Ambassador Thomas Charles Krajeski, to be the 
U.S. Ambassador to the Kingdom of Bahrain. Ambassador Krajeski 
is a career member of the senior Foreign Service and currently 
serves as the senior vice president at the National Defense 
University in Washington. He has served in posts around the 
world, including Iraq, Egypt, India, and Yemen, where he served 
as U.S. Ambassador. A fluent Arabic speaker, he is also the 
recipient of the Presidential Distinguished Honor Award for his 
work in Iraq and Yemen.
    We also have today Ambassador Dan Mozena, the nominee to be 
the U.S. Ambassador to Bangladesh. Ambassador Mozena is a long-
time senior Foreign Service officer and currently a professor 
at the National War College. He has served in a variety of 
posts around the world, including as Ambassador to Angola, 
Deputy Chief of Mission in Zambia, and as a former counselor in 
Bangladesh.
    Finally, we have Michael Hammer, who has been nominated to 
be the Assistant Secretary of State for Public Affairs. Mr. 
Hammer is currently the Acting Assistant Secretary for Public 
Affairs and previously served as the senior director for Press 
and Communications and the spokesperson for the National 
Security Council. He has a long, distinguished career at the 
State Department and in the White House dealing with a wide 
variety of issues and regions around the world.
    As each of you give your opening statements, I hope you 
will feel free to introduce any family of friends who are here 
to support you. And we'll begin with you, Mr. Mandell.

  STATEMENT OF ROBERT A. MANDELL, OF FLORIDA, NOMINATED TO BE 
                 U.S. AMBASSADOR TO LUXEMBOURG

    Mr. Mandell. Thank you, Madam Chairman. Madam Chairman and 
members of the committee, good morning. I am honored to appear 
before you today as President Obama's nominee to serve as the 
next Ambassador to the Grand Duchy of Luxembourg. I am grateful 
to the President and Secretary Clinton for their support and 
for the confidence that they have placed in me. If confirmed, I 
look forward to working with this committee and working with 
the Congress to continue and nurture the strong relationship 
that exists between the United States and Luxembourg.
    I'm especially grateful to a distinguished public servant, 
Senator Bill Nelson, for his friendship and his introduction 
and support today. Even though he's not present today, I would 
also like to thank my long-time friend, former Senator, Mel 
Martinez, who has been very encouraging from the very start of 
this process.
    I would also like to introduce and publicly thank my dear 
wife, Julie, who has provided me support throughout my career. 
I would also like to introduce our children, Zachary and Xan, 
and my parents, Lester and Sonia Mandell, and Julie's parents, 
Gilbert and Joyce Walker. Several more of our family members 
have joined us this morning, but we don't want to take up the 
total committee's time for that.
    Senator Shaheen. It's great to have a big family.
    Mr. Mandell. It's great to have a big family, thank you.
    But Julie and I are very blessed to have both of our 
parents share this day with us. Starting from the end is my 
mother-in-law, Joyce Walker, and my father-in-law, Dr. Gilbert 
Walker, and my dad, Lester Mandell, my mother, Sonia Mandell, 
and my wife Julie, and my children, who are right back there, 
Zachary and Xan, sitting behind Julie.
    My experience of over 20 years as the leader of my own and 
my family's business has taught me the value of human 
relationships in achieving success. After practicing law for 
more than a decade, I started over as a laborer in my family's 
business, the homebuilding business, and worked my way up the 
ladder over the course of several years. Starting in the field 
significantly affected my approach to business. It meant that I 
would wear a bright yellow shirt that had ``Bobby'' written 
over one side of my pocket and on the other side it had 
``Greater Homes'' written. So I knew who I was and where I 
worked. I also got to drive a 6-year-old pickup truck with 
three on the column and no air conditioning. That way my dad 
knew that I wouldn't be sitting in the truck during the long 
hot days of summer. It also didn't have a radio because he 
thought that work should be entertaining enough.
    This early experience taught me that it was essential to 
treat people fairly, build the right relationships, and by 
doing the right thing for the right reasons engender the trust 
of those around you, especially the ones you work with.
    After all was said and done, our company built over 10,000 
houses all in the Central Florida area. The same leadership and 
relationship skills have served me well in my roles at the 
local, statewide, and Federal level, having served for the past 
2 years on President Obama's Export Council. If confirmed, I 
hope to bring these same skills to bear as the Ambassador to 
Luxembourg.
    The Grand Duchy of Luxembourg is a longstanding ally of the 
United States. It is a founding member of NATO, the United 
Nations, and the European Union. Thanks to the enormous 
sacrifices of the United States Armed Forces which liberated 
Luxembourg in World War II, there is a deep reservoir of 
goodwill toward the United States in Luxembourg. Our bilateral 
relationship with Luxembourg is emphatically positive.
    If confirmed, I will strive to continue our strong and 
productive relationship by maintaining effective outreach 
programs and developing relationships with the government, the 
business community, youth, Luxembourg citizens, and the 
residents of every background.
    I have worked to develop the President's National Export 
Initiative and our Nation's economic expansion by my service on 
President Obama's Export Council over the past 2 years. If 
confirmed, I plan to continue working to increase American 
exports to Europe. Luxembourg is a major financial center in 
Europe, second only to the United States worldwide in the 
mutual fund industry, managing over $3 trillion in net assets. 
Financial services comprise about 25 percent of Luxembourg's 
GDP. Accordingly, the United States works closely with the 
Government of Luxembourg to combat the financing of terrorism 
and money laundering.
    Embassy Luxembourg has been engaged in negotiations to sign 
an agreement with Luxembourg on preventing and combating 
serious crimes and guard against the involvement of the 
financial industry in global criminal activity. If I am 
confirmed by the Senate, I will make the conclusion of these 
negotiations and signing this agreement one of my first 
priorities. In addition, if confirmed I will encourage 
Luxembourg to continue to increase the transparency of its 
banking system.
    As part of my public diplomacy strategy, if I am confirmed 
I intend to reach out to a new European generation that has 
grown up since the end of the cold war and the division of 
Europe into two opposing camps. I hope to work with them and 
with other Luxembourg citizens to develop a stronger 
transatlantic alliance that looks forward to a generation of 
peace, security, and prosperity.
    Should I be confirmed, I plan to pursue opportunities to 
encourage new technologies using the resources of both the 
United States and Luxembourg in medical diagnostics and health 
care, based upon our respective leading roles in these fields. 
For the past 20 years I have gained experience in this area by 
serving on the board of directors of Florida Hospital, one of 
our Nation's largest hospitals, and on the board of directors 
of the Sanfred Burnham Institute for Medical Research for the 
last 5 years.
    I'm excited by this chance to serve our country and very 
grateful for this opportunity. Madam Chair, members of the 
committee, if confirmed it would be my greatest honor to 
represent the United States in Luxembourg. Thank you for your 
consideration. I would be happy to answer any questions that 
you might have.
    [The prepared statement of Mr. Mandell follows:]

                Prepared Statement of Robert A. Mandell

    Madam Chairman and members of the committee, good morning. I am 
honored to appear before you today as President Obama's nominee to 
serve as the next Ambassador to the Grand Duchy of Luxembourg.
    I am grateful to the President and Secretary Clinton for their 
support and for the confidence they have placed in me.
    If confirmed, I look forward to working with this committee and 
with the Congress to continue and to nurture the strong relationship 
that exists between the United States and Luxembourg.
    I am especially grateful to a distinguished public servant, Senator 
Bill Nelson, for his friendship and his introduction and support today. 
Even though he is not present today, I would also like to thank my 
longtime friend, former Senator Mel Martinez who has been very 
encouraging from the very start of the process.
    I would also like to introduce and publicly thank my dear wife, 
Julie, who has provided me support throughout my career.
    I would also like to introduce our children, Zachary and Xan, and 
my parents, Lester and Sonia Mandell, and Julie's parents, Gilbert and 
Joyce Walker. Several more of our family members have joined us this 
morning, which we really appreciate. Julie and I are very blessed to 
have our parents share this wonderful day with us.
    My experience of over 20 years as the leader of my own and my 
family's business has taught me the value of human relationships in 
achieving success.
    After practicing law for more than a decade, I started over as a 
laborer in my family's home-building business and worked my way up the 
ladder over the course of several years. Starting in the field 
significantly affected my approach to business. It meant that I would 
wear a bright yellow shirt that had ``Bobby'' written over the pocket 
and ``Greater Homes'' on the other side of the shirt, so I knew who I 
was and where I worked. I also got to drive a 6-year-old pickup truck 
with no air conditioning. That way, my dad knew that I wouldn't be 
sitting in the truck during the long hot days of summer. It also didn't 
have a radio because he thought work should be entertaining enough.
    This early experience taught me that it was essential to treat 
people fairly, build the right relationships, and by doing the right 
thing for the right reasons, engender the trust of those around you, 
especially the ones you worked with. After all was said and done, our 
company built over 10,000 houses, all in the central Florida area. 
These same leadership and relationship skills have served me well in my 
roles at a local, statewide, and federal level, having served for the 
past 2 years on President Obama's Export Council.
    If confirmed, I hope to bring those same skills to bear as 
Ambassador to Luxembourg.
    The Grand Duchy of Luxembourg is a longstanding ally of the United 
States and a founding member of NATO, the United Nations, and the 
European Union.
    Thanks to the enormous sacrifices of U.S. Armed Forces which 
liberated Luxembourg in World War II, there is a deep reservoir of 
goodwill toward the United States in Luxembourg.
    Our bilateral relationship with Luxembourg is emphatically 
positive.
    If confirmed, I will strive to continue our strong and productive 
relationship by maintaining effective outreach programs and developing 
relationships with the government, the business community, youth, and 
Luxembourg citizens and residents of every background. I have worked to 
develop the President's National Export Initiative and our Nation's 
economic expansion by my service on the President's Export Council over 
the past 2 years. If confirmed, I plan to continue working to increase 
American exports to Europe.
    Luxembourg is a major financial center in Europe, second only to 
the United States worldwide in the mutual funds industry, managing over 
$3 trillion in net assets. Financial services comprise about 25 percent 
of Luxembourg's GDP.
    Accordingly, the United States works closely with the Government of 
Luxembourg to combat the financing of terrorism and money laundering. 
Embassy Luxembourg has been engaged in negotiations to sign an 
agreement with Luxembourg on Preventing and Combating Serious Crime to 
guard against involvement of the financial industry in global criminal 
activity. If I am confirmed by the Senate, I will make conclusion of 
these negotiations and signing this agreement one of my first 
priorities.
    In addition, if confirmed, I will encourage Luxembourg to continue 
to increase the transparency of its banking system.
    As part of my public diplomacy strategy, if I am confirmed, I 
intend to reach out to a new European generation that has grown up 
since the end of the cold war and the division of Europe into two 
opposing camps. I hope to work with them and with other Luxembourg 
citizens to develop a stronger transatlantic alliance that looks 
forward to a generation of peace, security, and prosperity.
    Should I be confirmed, I plan to pursue opportunities to encourage 
new technologies, using the resources of both the United States and 
Luxembourg in medical diagnostics and health care, based on our 
respective leading roles in these fields. For the past 20 years, I have 
gained experience in this area by serving on the Board of Directors of 
Florida Hospital, one of our Nation's largest hospitals, and on the 
Board of Directors of The Sanford Burnham Institute for Medical 
Research for the last 5 years.
    I am excited by this chance to serve my country and grateful for 
this opportunity.
    Madam Chairman, members of the committee, if confirmed, it would be 
my greatest honor to represent the United States in Luxembourg. Thank 
you for your consideration. I would be happy to answer any questions 
you may have.

    Senator Shaheen. Thank you very much, Mr. Mandell.
    Ambassador Krajeski.

    STATEMENT OF HON. THOMAS CHARLES KRAJESKI, OF VIRGINIA, 
   NOMINATED TO BE U.S. AMBASSADOR TO THE KINGDOM OF BAHRAIN

    Ambassador Krajeski. Madam Chairman and members of the 
committee, I'm honored to appear before you today. I want to 
thank President Obama and Secretary Clinton for nominating me 
to be Ambassador to the Kingdom of Bahrain.
    Madam Chairman, I would like to take a moment to 
acknowledge my family members and colleagues here today, most 
especially my wife, Bonnie, who has served with me for my 32 
years in the Foreign Service.
    For 32 years I've served proudly the United States 
Government and the American people in the Middle East and 
Washington. If confirmed, I look forward to leading the Embassy 
Manama team as we advance U.S. interests in the region and 
strengthen our bilateral relationship with Bahrain. The United 
States and Bahrain have a long history of cooperation and 
partnership based on mutual interests in regional security. If 
confirmed, I will make it a top priority to continue this 
partnership while encouraging and supporting reforms that meet 
the needs and aspirations of Bahrain's citizens.
    I believe that these priorities are mutually reinforcing. 
Bahrain's long-term stability depends on addressing domestic 
grievances, not through repression, but through genuine reform 
and reconciliation. If confirmed, I will be working with our 
Bahraini partners to develop their ability to respond to 
external threats to the nation's security and ensure 
interoperability with our forces in the region. An increasingly 
aggressive Iran makes this effort critically important.
    Political reform and respect for human rights are vital to 
Bahrain's stability and to the protection of U.S. interests in 
the region. Bahrain has a long history of reform, championed by 
King Hamad following his accession to the throne in 1999.
    Given Bahrain's progressive record on democratic reform and 
in the context of strong partnership, the U.S. remains deeply 
concerned by the events that followed demonstrations in 
February and March of this year. Initially the Bahraini 
Government, led by the crown prince, called for dialogue with 
all parties. But as protests turned increasingly 
confrontational, the government declared emergency law, 
requested the deployment of Gulf Cooperation Council's forces, 
and began an internal security crackdown.
    During this period of widespread arrests and trials of 
detainees before the so-called National Safety Courts, there 
were many credible reports of serious human rights abuses by 
security forces. The U.S. Government has repeatedly emphasized 
to Bahrain's leadership the importance of taking steps to 
address these violations, restore public trust, and promote 
national reconciliation. Toward this end, King Hamad has taken 
steps to foster reform and resolve political differences. Among 
these was a month-long national dialogue concluded at the end 
of July. On July 29 the king declared his support for all 
matters on which the dialogue had reached consensus and he 
ordered legislative and executive authorities to implement the 
dialogue's recommendations for reform.
    We believe that these are important first steps in bringing 
together Bahrainis from across ideological and sectarian lines.
    Another initiative has been the Bahrain Independent 
Commission of Inquiry, led by internationally recognized legal 
experts. It has a broad mandate to investigate reports of 
violations of civil and human rights. The commission will 
release a public report next month. We expect the Government of 
Bahrain to give serious consideration to the commission's 
recommendations and take necessary action to ensure 
accountability for abuses and to prevent any recurrences.
    Madam Chairman, if confirmed one of my top priorities will 
be to support and encourage these initiatives and others to 
advance the process of democratic and economic reform. This 
will strengthen Bahrain and it will strengthen our partnership.
    Finally, Madam Chairman, if confirmed my first priority 
will be the safety and security of all U.S. citizens who live, 
do business, and vacation in Bahrain. Our countries have 
benefited enormously from these exchanges and I plan to 
encourage them.
    Thank you again for the opportunity to appear before you 
today. I would be pleased to answer any questions you may have.
    [The prepared statement of Ambassador Krajeski follows:]

             Prepared Statement of Hon. Thomas C. Krajeski

    Madam Chairman and members of the committee, I am honored to appear 
before you today. I want to thank President Obama and Secretary Clinton 
for nominating me to be Ambassador to the Kingdom of Bahrain.
    Madam Chairman, I would like to take a moment to acknowledge my 
family members and colleagues here today.
    For 32 years, I have served proudly the United States Government 
and the American people in the Middle East and Washington. If 
confirmed, I look forward to leading the Embassy Manama team, as we 
advance U.S. interests in the region and strengthen our bilateral 
relationship with Bahrain.
    The United States and Bahrain have a long history of cooperation 
and partnership, based on mutual interests in regional security. If 
confirmed, I will make it a top priority to continue this partnership, 
while encouraging and supporting reforms that meet the needs and 
aspirations of Bahrain's citizens. I believe that these priorities are 
mutually reinforcing. Bahrain's long-term stability depends on 
addressing domestic grievances not through repression, but through 
genuine reform and reconciliation.
    If confirmed, I will be working with our Bahraini partners to 
develop their ability to respond to external threats to the nation's 
security and ensure interoperability with our forces. An increasingly 
aggressive Iran makes this effort critically important.
    Political reform and respect for human rights are vital to 
Bahrain's stability and to the protection of U.S. interests in the 
region. Bahrain has a long history of reform championed by King Hamad 
following his accession to the throne in 1999.
    Given Bahrain's progressive record on democratic reform, and in the 
context of strong partnership, the United States remains deeply 
concerned by the events that have followed demonstrations in February 
and March of this year. Initially, the Bahraini Government, led by the 
Crown Prince, called for dialogue with all parties. But as protests 
turned increasingly confrontational, the government declared emergency 
law, requested the deployment of the Gulf Cooperation Council's forces, 
and began an internal security crackdown.
    During this period of widespread arrests and trials of detainees 
before the so-called National Safety Courts, there were many credible 
reports of serious human rights abuses by security forces. The U.S. 
Government has repeatedly emphasized to Bahrain's leadership the 
importance of taking steps to address these violations, restore public 
trust, and promote national reconciliation. Toward this end, King Hamad 
has taken steps to foster reform and resolve political differences.
    Among these steps was a month-long National Dialogue, concluded at 
the end of July. On July 29, the King declared his support for all 
matters on which the Dialogue reached consensus, and ordered 
legislative and executive authorities to implement the Dialogue's 
recommendations for reform. We believe these are important first steps 
in bringing together Bahrainis from across ideological and sectarian 
lines.
    Another initiative has been the Bahrain Independent Commission of 
Inquiry, led by internationally recognized legal experts. It has a 
broad mandate to investigate reports of violations of civil and human 
rights. The Commission will release a public report next month. We 
expect the Government of Bahrain to give serious consideration to the 
Commission's recommendations and take necessary action to ensure 
accountability for abuses, and to prevent any recurrences.
    Madam Chairman, if confirmed, one of my top priorities will be to 
support and encourage these initiatives and others to advance the 
process of democratic and economic reform. This will strengthen Bahrain 
and strengthen our partnership.
    Finally, Madam Chairman, if confirmed, my first priority will be 
the safety and security of all U.S. citizens who live, do business, and 
vacation in Bahrain. Our countries have benefited enormously from these 
exchanges, and I plan to encourage them.
    Thank you again for the opportunity to appear before you today. I 
would be pleased to answer any questions you may have.

    Senator Shaheen. Thank you very much.
    Ambassador Mozena.

STATEMENT OF HON. DAN W. MOZENA, OF IOWA, NOMINATED TO BE U.S. 
       AMBASSADOR TO THE PEOPLE'S REPUBLIC OF BANGLADESH

    Ambassador Mozena. Thank you, Madam Chairman. I am honored 
to appear today as President Obama's nominee as United States 
Ambassador to Bangladesh. I am grateful to the President and 
Secretary Clinton for their confidence in me. I am grateful 
also to the Senate for confirming me 4 years ago as Ambassador 
to Angola and for allowing me to present myself today.
    With your permission, Madam Chairman, I wish to introduce 
my wife of 40 years, Grace. She and I have traveled together on 
a journey that has taken us far from our roots in rural Dubuque 
County, Iowa, where I was raised on a 120-acre dairy farm and 
where we both attended one-room country schools.
    Thirty-seven years ago we began our public service as Peace 
Corps Volunteers in Zaire, where we helped villagers raise 
chickens. That grassroots experience taught us that the 
rarified air of diplomacy is far removed from the life of 
ordinary folks.
    During my overseas postings I traveled widely, taking 
America to the people. If confirmed, I propose to do the same 
in Bangladesh by visiting all 64 districts.
    Having served in Dhaka from 1998 to 2001, I know that 
America has profound interests in Bangladesh, the world's 
seventh most populous country and fourth-largest Muslim 
population. Bangladesh offers a moderate, secular, democratic 
alternative to violent extremism. Through improved relations 
with India, Bangladesh has deepened counterterrorism 
cooperation with its biggest neighbor, thus fostering stability 
in a troubled region.
    Bangladesh bolsters global stability as the world's largest 
contributor to international peacekeeping. The country is 
critical to global stability, global food security. Although 
its population of 160 million lives in an area the size of my 
home State of Iowa, Bangladesh could indeed feed itself. Other 
U.S. interests include promoting democracy and respect for 
human rights, bolstering U.S. trade and investment, and 
advancing humanitarian interests, especially disaster 
preparedness.
    I believe that we can best advance U.S. interests by 
promoting a Bangladesh that is democratic, that is peaceful, 
that is secure, prosperous, and healthy.
    In some respects, Bangladesh is the little engine that 
could. The people are resilient and entrepreneurial. The 
economy has grown annually at about 6 percent, reducing the 
poverty rate from 40 percent to 31.5 percent over the past 5 
years, thus lifting millions out of poverty and creating 
opportunities for American exports.
    The country is reining in its population growth rate and 
achieving Millennium Development goals, especially maternal and 
child health. Civil society is dynamic. Witness Grameen Bank 
and BRAC, which are translating grassroots democracy into 
development. Women are more empowered, the press is vociferous, 
and Bangladesh actively combats terrorism. The nation pulses 
with optimism.
    Nonetheless, Bangladesh's challenges are daunting. Its 
democratic institutions are weak. Relations between the leading 
political parties are deeply polarized. Corruption is a serious 
challenge. Government's intentions toward civil society are 
unclear and the nation is threatened by natural disasters and 
rising seas caused by climate change.
    America is a strong partner of Bangladesh. We can be proud 
of helping Bangladesh confront its challenges, especially in 
health and disaster preparedness. Given Bangladesh's strategic 
importance and its prospects for a better future, Bangladesh is 
the beneficiary of the President's three major development 
initiatives: Feed the Future, the Global Health Initiative, and 
Global Climate Change. Bangladesh is an important partner as we 
build on President Obama's commitment to forge new relations 
with the Muslim world.
    If confirmed, I will advance America's interests by 
implementing these initiatives while helping Bangladesh 
confront serious governance, human rights, and poverty 
concerns. I will also partner with the Bangladeshi American 
community to achieve these shared objectives.
    I believe Bangladesh is a good partner for the United 
States in building a better world. If confirmed, I will do 
everything in my power to build on the success of my 
predecessors to strengthen this partnership.
    Madam Chairman, thank you again for the opportunity to 
appear before you today. I would be pleased to answer any 
questions you may have.
    [The prepared statement of Ambassador Mozena follows:]

                Prepared Statement of Hon. Dan W. Mozena

    Madam Chairman, members of the committee, I am honored to appear 
today as President Obama's nominee as United States Ambassador to 
Bangladesh. I am grateful to the President and Secretary Clinton for 
their confidence in me. I am grateful also to the Senate for confirming 
me 4 years ago as Ambassador to Angola, and for allowing me to present 
myself today.
    With your permission, Madam Chairman, I wish to introduce my wife 
of 40 years, Grace. She and I have traveled together on a journey that 
has taken us far from our roots in rural Dubuque County, IA, where I 
was raised on a 120-acre dairy farm and where we both attended one-room 
country schools.
    Thirty-seven years ago, we began our public service as Peace Corps 
Volunteers in Zaire, where we helped villagers raise chickens. That 
grassroots experience taught us that the rarefied air of diplomacy is 
far removed from the life of ordinary folks. During my overseas 
postings I traveled widely, taking America to the people. If confirmed, 
I propose to do the same in Bangladesh by visiting all 64 districts.
    Having served in Dhaka from 1998-2001, I know that America has 
profound interests in Bangladesh, the world's seventh most populous 
country and fourth-largest Muslim population. Bangladesh offers a 
moderate, secular, democratic alternative to violent extremism. Through 
improved relations with India, Bangladesh has deepened counterterrorism 
cooperation with its biggest neighbor, thus fostering stability in a 
troubled region. Bangladesh bolsters global stability as the world's 
largest contributor to international peacekeeping. The country is 
critical to global food security; although its population of 160 
million lives in an area the size of my home State of Iowa, Bangladesh 
could feed itself. Other U.S. interests include promoting democracy and 
respect for human rights, bolstering U.S. trade and investment, and 
advancing humanitarian interests, especially disaster preparedness.
    I believe that we can best advance U.S. interests by promoting a 
Bangladesh that is democratic, peaceful, secure, prosperous, and 
healthy.
    In some respects, Bangladesh is ``The Little Engine that Could.'' 
The people are resilient and entrepreneurial; the economy has grown 
annually at about 6 percent, reducing the poverty rate from 40 percent 
to 31.5 percent over the past 5 years, thus lifting millions out of 
poverty and creating opportunities for American exports; the country is 
reining in its population growth rate and achieving Millennium 
Development Goals, especially maternal and child health; civil society 
is dynamic, witness Grameen Bank and BRAC, which are translating 
grassroots democracy into development; women are more empowered; the 
press is vociferous; and Bangladesh actively combats terrorism. The 
nation pulses with optimism.
    Nonetheless, Bangladesh's challenges are daunting. Its democratic 
institutions are weak; relations between the leading political parties 
are deeply polarized; corruption is a serious challenge; government's 
intentions toward civil society are unclear; and the nation is 
threatened by natural disasters and rising seas caused by climate 
change.
    America is a strong partner of Bangladesh. We can be proud of 
helping Bangladesh confront its challenges, especially in health and 
disaster preparedness. Given Bangladesh's strategic importance and its 
prospects for a better future, Bangladesh is the beneficiary of the 
President's three major development initiatives: Feed the Future, the 
Global Health Initiative, and Global Climate Change. Bangladesh is an 
important partner as we build on President Obama's commitment to forge 
new relations with the Muslim world. If confirmed, I will advance 
America's interests by implementing these initiatives, while helping 
Bangladesh confront serious governance, human rights, and poverty 
concerns. I will also partner with the Bangladeshi-American community 
to achieve these shared objectives.
    I believe Bangladesh is a good partner for the United States in 
building a better world. If confirmed, I will do everything in my power 
to build on the success of my predecessors to strengthen this 
partnership.
    Madam Chairman and members of the committee, thank you again for 
the opportunity to appear before you today. I would be pleased to 
answer any questions you may have.

    Senator Shaheen. Thank you very much.
    Mr. Hammer.

 STATEMENT OF MICHAEL A. HAMMER, OF THE DISTRICT OF COLUMBIA, 
NOMINATED TO BE ASSISTANT SECRETARY OF STATE FOR PUBLIC AFFAIRS

    Mr. Hammer. Thank you, Madam Chairman. It is an honor to 
appear before this committee as President Obama's nominee as 
the next Assistant Secretary of State for Public Affairs at the 
State Department. I am deeply grateful and humbled by the 
confidence President Obama and Secretary Clinton have shown in 
me with this nomination.
    I would like to recognize my partner, staunchest supporter, 
and wife of 22 years, Margaret Bjorgulfsdottir, as well as our 
wonderful three children, Monika, Mike Thor, and Brynja, who 
have tagged along to all our postings through some difficult 
times on occasion, adjusting to new environments, but in their 
own right becoming junior American representatives.
    I would like to also mention my parents, Mike and 
Magdalena, who set the foundation for who I am today. In my 
formative teen years, my father gave his life for our great 
country. It was his sacrifice and his commitment to public 
service that set me on the path that brings me here today.
    For the past 23 years serving as a Foreign Service officer, 
it has been my duty and honor to work to advance America's 
interests abroad. If confirmed, I look forward to directing the 
State Department's public affairs efforts to aggressively and 
innovatively communicate our foreign policy to our fellow 
Americans and the world using every available media platform 
and tool. My approach would be to echo Secretary Clinton's: How 
can we do better? As she says, let's use smart power and 21st 
century statecraft.
    The Public Affairs Bureau has an extremely challenging and 
important mission, to engage domestic and international media 
in order to communicate timely and accurate information, with 
the goal of furthering U.S. foreign policy and values. This 
task is carried out in the face of a dynamic and rapidly 
changing environment.
    When I was called upon to serve as National Security 
Council Spokesman at the outset of the Obama administration, I 
realized how much the world had changed in the media 
environment from the time that I had served just a few years 
prior during the Clinton and Bush administrations. So it is 
clear that events today are getting instant coverage and social 
media is a prime competitor to mainstream media.
    For communicators, this is surely a challenge. I would like 
to view it as an opportunity, an opportunity for reaching new 
and larger audiences and for engaging people on a broader 
scale. In today's highly competitive international media 
environment, we must be the ones that present America's foreign 
policy and not leave it to others to define us or shape our 
narrative. We do this by telling the truth about our policies, 
explaining the logic and values that guide us, and aggressively 
countering misrepresentation and distortion. This requires 
rapid response and constant engagement by our people in 
Washington and our public affairs officers in the field. We do 
this with daily press briefings and we run six regional media 
hubs with communicators who engage with foreign press in their 
languages.
    The Public Affairs Bureau also has an important 
responsibility in connecting directly with the American people. 
It arranges for our foreign policy experts to speak to schools 
and universities, engage citizen groups across the country, and 
reach out to diaspora communities inside the United States. We 
field their inquiries, respond to their concerns, and listen to 
their opportunities.
    The Bureau of Public Affairs is committed to using all of 
its communications resources, the tools and the people behind 
them, to promote who we are as a country and stand up for our 
beliefs, including speaking out for universal rights and basic 
freedoms, like the freedom of speech and the freedom of the 
press.
    If confirmed, I look forward to working with this committee 
and Congress to ensure America's message is as vibrant and 
dynamic as it can be to move our country and the world forward. 
If confirmed, I would welcome your ideas and suggestions on how 
we can even more effectively present America's foreign policy, 
our history, and our amazing story.
    Thank you and I'd be very pleased to take any questions you 
may have.
    [The prepared statement of Mr. Hammer follows:]

                Prepared Statement of Michael A. Hammer

    Thank you Chairman Shaheen and members of the committee, it is an 
honor to appear before you today as President Obama's nominee to serve 
as Assistant Secretary for Public Affairs at the Department of State. I 
am deeply grateful and humbled by the confidence the President and 
Secretary Clinton have shown in me by this nomination.
    I would like to recognize my partner, staunchest supporter, and 
wife of 22 years, Margret Bjorgulfsdottir, as well as our three 
wonderful children; Monika, Mike Thor, and Brynja, who have moved with 
us, as part of my Foreign Service career from country to country, 
becoming in their own right junior American representatives. I would 
also like to mention my parents, Mike and Magdalena, who set the 
foundation for who I am today. In my formative teen years, my father 
gave his life for our great country. It was his sacrifice and the 
commitment to public service that he had instilled in me, that set me 
on the path that brings me here today.
    For the past 23 years, serving as a Foreign Service officer, it has 
been my duty and honor to work to advance and promote America's 
interests abroad. If confirmed, I look forward to directing the State 
Department's public affairs efforts to aggressively and innovatively 
communicate our foreign policy to fellow Americans and the world 
through every media platform and tool available, 24 hours a day/7 days 
a week/365 days a year. My approach would be to echo Secretary 
Clinton's vision in presenting the first ever Quadrennial Diplomacy and 
Development Review: ``How can we do better?''
    In my prior position as Principal Deputy Assistant Secretary in the 
Public Affairs Bureau and since I was named Acting Assistant Secretary 
in March, I have spent time with every office and met with the fine 
civil servants, Foreign Service officers, political appointees, 
contractors, student hires, and interns who make up the public affairs 
team at the State Department. It would be a great privilege to lead 
this talented, dedicated, and hard-working group. The Public Affairs 
Bureau has an extremely challenging and important mission--to engage 
domestic and international media to communicate timely and accurate 
information with the goal of furthering U.S. foreign policy and values, 
as well as national security interests. This task is carried out in the 
face of a dynamic and rapidly changing media environment.
    When I was called upon to serve as the National Security Council 
spokesman at the outset of the Obama administration, it was striking 
how much the media world had evolved since my prior stint at the NSC 
during the Clinton and Bush administrations. Events anywhere in the 
world now get instant coverage and social media is a prime competitor 
to the mainstream media. For communicators, this is surely a challenge. 
But, Secretary Clinton, the Public Affairs Bureau, and I view it more 
as an opportunity for reaching new and larger audiences and for 
engaging people on a broader scale.
    At the State Department, with Secretary Clinton's strong leadership 
and call for ``smart power'' and use of ``21st century statecraft,'' we 
are adapting to the ongoing communications revolution and making better 
and increasing use of all available platforms, while ensuring all these 
platforms work in concert with each other. It is vitally important that 
we not only conduct diplomacy between governments, but that we also use 
all the tools at our disposal to reach people around the world 
directly. Audiences globally are increasingly using the Internet as a 
primary means of consuming and sharing information breaking down 
barriers to information. The communications revolution has 
fundamentally transformed how information moves through networks and 
how rapidly it can penetrate societies. We must ensure that our 
messages and people are aggressively engaging on all key platforms--new 
and old.
    This spring, as the dramatic events in the Arab world were 
beginning to unfold, the Public Affairs Bureau launched nine foreign 
language Twitter feeds in Arabic, Chinese, Farsi, French, Hindi, 
Portuguese, Russian, Spanish, and Urdu. We are listening, communicating 
our views, and participating in the conversations that will shape this 
century. The State Department is committed to using technology 
effectively and creatively. This effort includes the creation of a new 
Digital Division within the Bureau and placing all of our digital 
content under unified leadership. The Digital Division recently 
launched ``State Department Live!'', a new interactive online video 
briefing platform that already has allowed hundreds of foreign 
journalists around the world--many of whom have never before 
interviewed an American official--to speak with our policymakers and 
get their news directly.
    In today's highly competitive international media environment, we 
need to present America's foreign policy and not leave it to others to 
define for us or shape our narrative. We do this by telling the truth 
about our policies, explaining the logic and values that guide us, and 
aggressively countering misrepresentation and distortion. This requires 
rapid response and constant engagement by public affairs officers in 
the field and in Washington, in a variety of languages. Our approach 
needs to align with and enhance that of the White House, the Pentagon, 
other national security agencies, and our USAID press office. I believe 
my time at the National Security Council, as well as my time within the 
Public Affairs Bureau at the Department, have prepared me for this 
challenge, if I am confirmed.
    The Public Affairs Bureau runs six regional media hubs with 
communicators who engage foreign media in their languages throughout 
Africa, Asia, the Arab world, Europe, and the Western Hemisphere. The 
State Department is also working to better integrate our policy 
formulation with our public diplomacy efforts, thereby creating a 
synergy that better informs our policies and more effectively presents 
them. And, as we address the pressing questions from each day at our 
daily press briefings and across all our other platforms, we are 
thinking strategically about communicating our message and harnessing 
the power of technology to reach the broadest audiences possible. Our 
Web engagement must put the audience first and we need to communicate 
directly with networked individuals on their platforms in order to 
better promote understanding and support of our policies.
    The Public Affairs Bureau also connects directly with the American 
people. We arrange for our foreign policy experts to speak to schools 
and universities, engage citizen groups across the country, and reach 
out to diaspora communities inside the United States. We field their 
inquiries, respond to their concerns, and listen to their opinions. We 
are also charged with bringing to life an interactive museum and 
visitor center that will tell the story of American diplomacy and run a 
Hometown Diplomat program that enables us to inform communities across 
America about the work we do in service of United States interests 
abroad. The American people are also benefiting from the Public Affairs 
Bureau with initiatives such as, the new mobile travel application that 
provides quick and easy access to relevant Department travel 
information informing them of fast breaking international developments 
like the evacuations in Egypt and Libya, as well as the earthquake, 
tsunami and nuclear incident in Japan earlier this year. We are also 
working to improve our crisis communications capabilities and are 
developing fly-away public affairs teams that bolster our Embassies' 
efforts on the ground when serious international events warrant it. In 
fact, we have already deployed effectively to Cairo, Tokyo, Juba, and 
Tripoli. Furthermore, everyone can learn about our diplomatic history 
in the Foreign Relations of the United States series published by our 
historian's office.
    The United States plays a singularly vital role around the world 
promoting stability and prosperity. The Bureau of Public Affairs is 
committed to using all of its communications resources--the tools and 
the people behind them--to promote who we are as a country and stand up 
for our beliefs, including speaking out for universal rights and basic 
freedoms like freedom of speech and of the press. If confirmed, I look 
forward to working with this committee and Congress to ensure America's 
message is as vibrant and dynamic as it can be to move our country and 
the world forward, and if confirmed I would welcome your ideas and 
suggestions on how we can even more effectively present America's 
foreign policy, history and amazing story.
    Thank you.

    Senator Shaheen. Thank you all very much for your 
statements. We have lost, for the time being anyway, the other 
two members of the subcommittee who were here. But fear not. I 
have lots of questions, so all of your work will not have gone 
in vain. Besides, as I like to say, it's always a good sign 
when nobody shows up to ask questions, right? [Laughter.]
    Ambassador Krajeski, I'm actually going to start with you. 
We both talked about in our statements the importance that 
Bahrain has played as an ally to the United States in a very 
critical region of the world. We share a wide range of security 
interests. But, as you pointed out, the country continues to 
struggle with the demonstrations and unrest within its borders. 
It has been strongly criticized by the United States and the 
international community for the crackdown against protesters.
    I was interested that in your statement you talked about 
Bahrain's history of working to provide more freedom for the 
people of the country. So can you talk about why you think the 
reaction has been so--the crackdown against the protesters was 
so strong, and why, given that history, the country has not 
responded in a way that indicates more flexibility and 
appreciation for some of the issues that were being raised by 
the protesters?
    Ambassador Krajeski. Thank you, Senator. When King Hamad 
became king in 1999, one of his first efforts was to expand 
political representation, to open political life. He even noted 
that he wanted to move Bahrain along a path toward a model of a 
constitutional monarchy. To that end, he established, the 
government established, a more representative lower body of 
Parliament and increased I guess we would call it civil society 
and civil freedoms.
    We were working very closely with him in that effort, as 
were others, and were very encouraged by it. Bahrain was 
considered a leader in the region in these efforts.
    All the more shocking the events of February and March, to 
Bahrainis themselves as well. I think the situation got out of 
hand. The government overreacted. We have, as you said, 
Senator, criticized quite strongly at the very highest levels 
of the U.S. Government these actions.
    If confirmed, I will continue to criticize where criticism 
is warranted. I will also urge the government to continue its 
current efforts to try to recover from that shock, including 
continuation of such events as the national dialogue, to try to 
bring different factions of the country together to discuss the 
political future, as well as watching very carefully, closely, 
the reaction of the Bahraini Government to the release of the 
commission's report that will detail allegations of abuses and, 
most importantly, what the government will do about those 
accusations.
    Senator Shaheen. Can you talk a little bit more about how 
the national dialogue has been received in the country? Has it 
included prominent members of the opposition who were raising 
concerns during the demonstrations?
    Ambassador Krajeski. When the national dialogue was 
established, representatives of all factions of society were 
invited to participate. It was a fairly large conference, 
including representatives of the major and minor opposition 
parties, most of whom agreed to participate at the start.
    During the conference the major opposition group, called 
Wefaq, decided to withdraw. They criticized the way the 
conference was set up and they withdrew from the dialogue. We 
think that was a mistake. We urged them to remain and we urged 
them to continue to participate in what we hope will be future 
efforts to bring the political society together again.
    Senator Shaheen. Thank you.
    On another issue very important to us, as you pointed out 
one of the reasons our security relationship with Bahrain is so 
critical is because of the Fifth Fleet's being based there. I 
wonder if you can talk about how strong you believe that 
security relationship is and how the people of Bahrain feel 
about the base being in their country?
    Ambassador Krajeski. Thank you, Senator. This is a very 
important issue and if confirmed it will be one of my top 
priorities, to do everything I can to increase the strength of 
that relationship, because this is a region that confronts very 
real threats. Bahrain has been a steadfast partner, a strong 
partner to us.
    You mentioned the Fifth Fleet port there. We have had U.S. 
Navy in Bahrain since 1947. It's one of our longest-standing 
security relationships in the gulf. I think that both 
governments and both countries recognize the value of this 
relationship and support joint efforts in the gulf, including 
the presence of the Fifth Fleet. It has been a very productive 
and a very valuable relationship, and it is mutually valuable.
    I would also make one final point, Senator, that others in 
the region, our friends in the region, as we continue our 
operations in Afghanistan, as we confront terrorism and 
smuggling and, as you mentioned, Senator, as we confront the 
very real challenges and threats that Iran poses in the region, 
this partnership is increasingly important to all countries in 
the region.
    Thank you, Senator.
    Senator Shaheen. So you don't--you're not seeing that the 
political unrest in Bahrain has affected the relationship that 
we have, the security relationship that we have with the 
country?
    Ambassador Krajeski. Senator, during the worst of the 
demonstrations, the worst of the confrontations, America was 
not an issue. We were not targeted. We were not part of that, 
of that event. Our Navy--personnel at the Navy facility there 
have their families with them. We live out in the community 
along with the families from the embassy and others. There are 
American businesses that have been there for many, many years.
    We have no indication of any hostility toward Americans. 
Certainly a discussion of our policies, as there are in many 
places.
    Thank you, Senator.
    Senator Shaheen. To what extent were there signs that Iran 
was behind some of the political unrest?
    Ambassador Krajeski. Thank you, Senator. The events in 
February and March in our view were clearly begun by Bahrainis, 
who were expressing what I think is their right to gather, to 
express their views. We saw no evidence of Iranian instigation.
    However, we're concerned about Iranian exploitation, as 
they will exploit every situation where they can. We have seen 
it in other countries and we are concerned about Bahrain as 
well. But this was a Bahraini-generated movement.
    Thank you, Senator.
    Senator Shaheen. As you think about your role as Ambassador 
and we think about the U.S. relationship, how can we continue 
to promote meaningful reform in the country?
    Ambassador Krajeski. Senator, if confirmed that will be one 
of my top priorities. As I have said, we will encourage at 
every instance the continuation of a national dialogue, if you 
will, whatever form that might take. We will encourage all 
parties to participate in it.
    We have indeed increasingly since 1999 and the beginning of 
these reforms under King Hamad partnered closely with them in 
civil society, working with human rights organizations, women's 
rights organizations, working on the political processes, free 
media, press. Our Middle East Partnership Initiative, MEPI, 
began back in 2003, conducts many programs with these 
nongovernment civil groups, as well as with government 
organizations. I if confirmed, I very much want to continue and 
increase that effort.
    Senator Shaheen. Thank you.
    Mr. Mandell, you pointed out that financial services 
account for a large sector of Luxembourg's GDP and, although 
Luxembourg is a small country, it still has an important role 
to play in Europe, especially given the financial sector. So 
can you talk a little bit about how the ongoing crisis in 
Europe has affected that financial sector in Luxembourg and 
what steps or what involvement it might be having as Europe 
struggles with how to address this financial crisis?
    Mr. Mandell. Madam Chairman, thank you so much for that 
question. Yes, the financial sector in Luxembourg is about 25 
percent of the GDP. Out of the 225,000 workers that work in 
Luxembourg, probably half of them work in the financial sector.
    What's happened is that as the sector--of course, the 
eurozone issues have dampened the financial sector. But other 
sectors have begun to evolve. The biotech sector has begun to 
evolve, e-commerce has begun to evolve. The satellite systems 
that are housed in, based in, Luxembourg, as well as the 
Cargolux, which is one of the very major employers and does a 
terrific job in Luxembourg and employs 5,000 people, has just 
done a $3 billion order with Boeing for more jets.
    So other sectors are taking up the slack. I feel absolutely 
certain that the financial sector will rebound as the economy 
rebounds. I was told that the Cargolux expect that in 2012 
their profits will rebound as well. So they've managed.
    Senator Shaheen. So given that impact, what role are they 
playing in the discussions, if any, around how the EU should be 
responding to the challenges in Greece and some of the other EU 
countries? Are they on the side of Germany, or some in Germany, 
who think that it would be better not to continue to bail out 
countries who are in trouble? Or do they have a different point 
of view?
    Mr. Mandell. Senator Shaheen, thank you for that question. 
I can say that Prime Minister Junker is the leader of the 
eurozone currency and I know that he and Secretary Geithner 
have been in significant conversations in Poland over the past 
2 weeks. I'm not privy to those conversations and I'm not 
exactly sure how the discussions went, other than to say that I 
know that Luxembourg is a staunch ally of the United States and 
has been and certainly, as one of the founders of the EU and as 
one of the founders of the eurozone, I feel sure that it's one 
of their primary opportunities.
    We really strongly support the efforts of our partner in 
the eurozone. It's going to be difficult and they're going to 
have to take some necessary measures, I'm sure, to restore 
growth and competitiveness. But I look forward to working 
collaboratively with Prime Minister Junker and trying to 
establish a reasonable solution to these problems.
    Senator Shaheen. Thank you.
    You mentioned in your opening statement the work that's 
going on right now to try and combat the financing of terrorism 
and money laundering and the effort to get an agreement signed 
on that issue. Can you talk about how close we are to getting 
that kind of an agreement and how seriously it's being taken by 
the Government of Luxembourg?
    Mr. Mandell. What I can certainly talk about is the bank 
secrecy laws in Luxembourg. There was a period of time in 2009 
where there was an issue with the bank secrecy laws by the 
OECD. That issue was resolved in a very short period of time by 
Luxembourg to make sure that their laws were transparent and 
according to the requests of the OECD.
    Currently there is a protocol that is being dealt with in 
Luxembourg, which is to allow the Treasury Department of the 
United States to be able to look at the banks and the potential 
for tax revenues from Luxembourg and the Luxembourg 
reciprocally will be allowed to deal with the people in the 
United States.
    I am told that that has been signed by the Luxembourgers 
and by the United States and is awaiting ratification by the 
Senate.
    Senator Shaheen. So is it your view that the government is 
taking very seriously the concerns that have been expressed 
about money laundering and tax evasion?
    Mr. Mandell. Yes, ma'am. It's very clear to me that they 
have taken that extremely seriously. They are awaiting 
signature by the Senate, passage of the treaty by the advice 
and consent of the Senate. When that occurs, I know there will 
be rules and regulations which we'll have to work out as to 
exactly what it means and how it applies in Luxembourg. But I'm 
confident that, in collaboration with Prime Minister Junker and 
the finance ministry, we'll be able to work out a successful 
and an appropriate alternative.
    Senator Shaheen. Thank you.
    You point out that that treaty, it's been passed out of 
this committee, it is awaiting action on the floor of the 
Senate. I am hopeful that we will get it to the floor and that 
we'll see positive action in the near future.
    Mr. Mandell. We'll will be glad to help in any way that we 
can, ma'am.
    Senator Shaheen. Great. Thank you.
    Ambassador Mozena, one of the controversies that has 
generated a lot of reporting here in the United States has to 
do, that affects Bangladesh, has to do with Nobel laureate 
economist Mohamed Younis. As you know, he was removed from his 
position at the Grameen Bank by the Bangladesh Government, and 
of course there have been allegations that that was a political 
move, that there were not any real reasons for removing him 
beyond that.
    I wonder if you could give us your assessment of that 
situation and what's currently going on with respect to Mr. 
Younis?
    Ambassador Mozena. Thank you, Madam Chairman. If I may, I'd 
like first to reflect a bit on my past experience in 
Bangladesh.
    Senator Shaheen. Please.
    Ambassador Mozena. I made a point as I traveled extensively 
throughout the country to visit Grameen Bank borrowers groups, 
and I must say there's nothing more inspiring than joining a 
group of 10, of 12, of 14 women--not entirely women; there 
would be the odd man, but generally women--discuss how they can 
work together to help themselves improve their quality of life 
and, most importantly, to improve the quality of life of their 
children.
    That was the most inspirational thing I did during my 3 
years in Bangladesh, and I made a point of doing it over and 
over, and I intend to do that again if I am confirmed.
    So you can well imagine that as I learned of government 
actions against the founder of Grameen Bank, the then-managing 
director of Grameen Bank, Mohamed Younis, you can well imagine 
how deeply troubled I was by that development.
    That said, in May of this year Mr. Younis resigned as 
managing director. The focus now is to ensure that Grameen 
Bank, the institution, the philosophy, continues to function 
effectively in promoting the welfare of the people of 
Bangladesh, especially the women. I am pleased that Mohamed 
Younis continues on as the leader of the Younis Center. I am 
pleased that he continues on to play leadership roles in many 
of the associated companies with Grameen. I hope that he will 
be very much a part of ensuring that the new bank leadership 
will continue the good work that he created and sustained for 
these past years.
    Senator Shaheen. So no formal charges have been brought 
against him by the government; is that correct?
    Ambassador Mozena. That's correct. He was effectively 
forced out of his position on the basis of the fact that he was 
older than the mandatory retirement age for Government of 
Bangladesh and other organization leaders. So on the basis of 
that, he was forced out of the position.
    That's unfortunate, but Mr. Younis and all of us now are 
very much focused on sustaining the work that he created.
    Senator Shaheen. Thank you.
    Currently there are war crimes trials that are being 
conducted, aimed at what happened when Bangladesh split from 
Pakistan. I remember that period very well because I did my 
graduate work on what was happening at the time. As you know, 3 
million people, an estimated 3 million people, were killed, 10 
million were displaced during that 1971 war.
    Not very many people have been arrested for war crimes 
charges at this time. There has been some criticism of whether 
these trials are politically motivated, whether they should be 
going on at all. Can you talk about whether the trials are 
being politicized or whether this is something that's being 
viewed in the country as helpful to moving forward?
    Ambassador Mozena. From a philosophical point of view, I 
support, the United States supports, accountability. But such 
accountability must be done in a transparent fashion, must be 
done in a fashion that protects the rights of the accused.
    In that regard, I'm encouraged that the Government of 
Bangladesh has reached out to the United States to request our 
assistance in how best to conduct these trials, which have not 
yet begun. In response to that, Ambassador at Large for War 
Crimes Issues, Ambassador Stephen Rapp, has twice this year 
visited Bangladesh, in January and again in May.
    In response to the request of the Bangladeshi authorities, 
he provided a long list of suggestions. In March of this year, 
he provided a list of suggestions for the Bangladeshis to 
consider in how to ensure that the war crime trials that they 
were planning were in fact consistent with Bangladeshi and 
international standards. I'm pleased that the Government of 
Bangladesh has taken many of those suggestions on board and has 
folded them into their procedures. I hope they will continue to 
review those suggestions. I hope they will in fact adopt more 
of them to ensure that any war crimes are in fact carried out 
transparently and up to international standards.
    Ambassador Rapp remains available to be helpful in whatever 
fashion he can.
    Senator Shaheen. Thank you. That sounds encouraging.
    You mentioned in your opening statement that Bangladesh is 
a prime candidate for President Obama's forward-looking foreign 
policy, and you pointed out that looking at how to help with 
the effects of climate change is one of the things that's very 
important in Bangladesh. Can you talk about the preparation 
that's going on there to help address this? I know that we're 
already beginning to see some changes, both in terms of weather 
patterns and sea levels there that are affecting people.
    So how quickly are they responding in ways that they will 
need to in order to address the climate change that is being 
expected?
    Ambassador Mozena. Thank you, Madam Chairman. Bangladesh is 
one of the most vulnerable countries in the world to the 
effects of climate change. Dhaka, for example, which is over 
100 miles away from the coast, is at an elevation of 26 feet. I 
remember one time visiting an airport in the far northwest 
section of the country and noting that the elevation, at this 
point about as far away as you can get from the Bay of Bengal 
and still be in Bangladesh, elevation was 57 feet.
    That gives you a suggestion of the vulnerability of 
Bangladesh. In this context, you would not be surprised to 
learn that the Government of Bangladesh, the people of 
Bangladesh, are very, very focused on climate change and its 
impact on Bangladesh. We, the United States, working through 
President Obama's Global Climate Change Initiative, are working 
with the Bangladeshis to adapt to and to mitigate the effects 
of climate change.
    Some very exciting things are happening. For example, we're 
working with the Bangladeshis successfully to create strands of 
rice that can grow in increasingly saline water. This is 
working and those areas, those districts closest to the bay, 
where the water is increasingly saline, you will see rice 
growing today.
    We're working very effectively with the Bangladeshis to 
create new strands of other crops as well that will grow in 
this changing climate. We're working with the Bangladeshis to 
create embankments to elevate their fields. They have a 
practice of digging out one field and creating a fish pond and 
using that soil to raise another area. It's a very effective 
traditional way of dealing with this challenge and we're 
supporting that as well.
    We are working a new initiative, working with the 
Bangladeshis on clean and efficient cookstoves. That may not 
sound like a big deal. It is a huge deal because these highly 
efficient cookstoves, which are made out of basic materials, 
out of clay that costs the equivalent of between $5 to $8, can 
reduce fuel consumption by 40 to 50 percent and thereby reduce 
the carbon output.
    We've just signed a memorandum of understanding with the 
Bangladeshis to reduce their carbon footprint, which they're 
very interested in doing for the obvious reasons.
    Senator Shaheen. Thank you. Actually, Secretary Clinton 
talked about the work that we're doing around the cookstoves 
when she was before this committee. So it's a very interesting 
and important initiative.
    A final question. You again mentioned in your opening 
statement that Bangladesh is the fourth-largest Muslim country 
in the world. Obviously, they are experiencing some terrorist 
activity from terrorist groups in the country. Can you talk 
about what kind of a threat that represents, either to the 
Government of Bangladesh and security in the country as well as 
to other regional interests or to the United States?
    Ambassador Mozena. Thank you. The Government of Bangladesh 
has been a very effective partner in addressing the threat of 
terrorism. They have moved resolutely, effectively, against 
domestic terrorism and against foreign-based terrorism. They 
have signed an accord with India, so the two neighboring 
countries are now cooperating in a fashion that they did not 
before to address the terrorist challenge, which is a challenge 
to both of them.
    Nonetheless, the threat remains. It's a real threat. I'm 
pleased that the United States has partnered, continues to 
partner, with the Government of Bangladesh in dealing 
concretely with this threat. We have worked with the Government 
of Bangladesh in drafting and now enacting antimoney laundering 
legislation, antiterrorist financing legislation. We have 
worked with them to establish a financial intelligence unit.
    We are working with their maritime security forces, their 
version of the Navy SEALs. We're working with the Army 
paracommandos to increase land border security. Through these 
and other steps, we're helping Bangladesh in a very real way 
take on the terrorist challenge.
    Senator Shaheen. Thank you very much.
    Mr. Hammer, can you talk about how effectively the State 
Department and our diplomatic efforts are incorporating the new 
media tools?
    Mr. Hammer. Yes, Madam Chairman. Thank you very much for 
your question. I can tell you that in the time that I've been 
acting as the Assistant Secretary I've had the opportunity to 
work with the team at Public Affairs and they're very 
energetic, creative, and always looking for opportunities how 
we can best use social media. This spring during the happenings 
in the Middle East, we launched nine foreign language Twitter 
feeds, including Arabic, Farsi, Urdu, Hindi, Spanish, French, 
Russian, Chinese, and Portuguese, as part of another one of our 
efforts to use social media to connect and to be part of the 
conversation that is taking place around the globe.
    We also just recently launched a digital platform through 
the Internet, state.deplive, which allows our officials to be 
interviewed by foreign press around the globe through the 
Internet. We are in fact reaching hundreds of press who had 
previously not had an opportunity to interact with our 
officials.
    So we are constantly looking to see what new emerging 
technologies are out there. We know we need to be the ones 
presenting our foreign policy. We need to know, need to be sure 
that we are part of the conversation. But we know that we face 
a challenge because it is moving, the media world, is moving at 
an incredible pace. So I know that's challenging for our 
professionals. We need to continue to train and bring in new 
expertise, and for that I'm looking forward, if confirmed, to 
leading the public affairs efforts at the State Department to 
do everything we can to advance our interests, because we 
believe public affairs is a critical component of the smart 
power that Secretary Clinton talks about.
    Senator Shaheen. I was interested; not too long ago there 
was an interchange, an article in the New York Times, that 
reported on an interchange with the Taliban in Afghanistan on a 
blog, I believe. It was, I think, members of our military 
responding to what the Taliban were posting about what had 
happened in a particular incident in Afghanistan.
    Is the State Department working with the military on those 
kinds of efforts in Afghanistan and other places around the 
world?
    Mr. Hammer. Thank you, Madam Chairman. Yes, in fact we are. 
I had the privilege of serving before taking this position at 
the National Security Council as the spokesman there, and our 
job was really to work through the interagency with the 
Department of Defense, Department of Homeland Security, with 
the other national security agencies, to work precisely on 
issues relating to this and social media, and using all 
available tools to be out in the field and monitoring what is 
happening.
    Now, obviously, in my new position, if confirmed, we would 
continue to promote that interagency cooperation. In fact, 
Secretary Clinton announced in New York on 9-9 during her 
terrorism speech at the John Jay School that we have 
established a center for countering terrorism communication at 
the State Department, CSCC, and in fact that unit is working 
with the interagency to address some of the things that appear 
in blogs and to counter negative messaging against the United 
States. So we are very much engaged and, if confirmed, will 
continue to work on these critical issues to our national 
security.
    Senator Shaheen. I assume that that's a huge challenge just 
in terms of having somebody who can decipher what's being said 
on blogs, but then having the capacity on the part of whether 
it's our State Department or whoever to respond to some of 
what's out there. Can you talk about how you address that? How 
do you assign people to respond, particularly on a sensitive 
issue like what's happening in Afghanistan?
    Mr. Hammer. Well, Madam Chairman, that is a very good 
question. It is not currently within the domain of the Bureau 
of Public Affairs to address this issue. Our colleagues, as I 
mentioned, at the CSCC are working on that every day, if you'd 
like to get more information on exactly how we're doing this.
    But it is a challenge to identify what we need to do and 
who can do it. Obviously, we need linguists that are able to 
participate in these blogs and to counter the messaging. But 
we're very well aware that it's critically important to be out 
in the blogosphere and to counter this very hateful and 
negative messaging that we see out there.
    So it is something the State Department is working at and 
I'd be happy, if you'd like even more information, to provide 
that to you.
    Senator Shaheen. I would. I'd be very interested in that. I 
probably should have asked my question a little differently, 
and that is: To what extent will you, should you be confirmed, 
will your office interact with that effort that goes on?
    Mr. Hammer. Well, Madam Chairman, if confirmed we would be 
coordinating, but not running, that effort. They keep us 
informed and let us know of their activities and solicit our 
views in terms of how best to communicate, so that we're doing 
it in an effective way and a coordinated way. But we certainly 
work very closely hand in hand. In fact, we're all under the 
same family of the Under Secretary for Public Diplomacy and 
Public Affairs, so we do have meetings in which these issues 
are discussed and coordinated.
    Senator Shaheen. Thank you.
    As a spokesperson, as you pointed out, one of your 
responsibilities is to try and put the best face forward for 
the Department and for American foreign policy. But you're also 
responsible for trying to report accurately on what's 
happening. So can you talk about how you balance those two 
challenges, which don't always work hand in hand with each 
other? They are sometimes at odds.
    Mr. Hammer. Well, Madam Chairman, we definitely as 
spokespeople are committed to the truth and to explaining to 
the American people and the world our policies. So we do, 
obviously, try to cast things in the best way that promotes 
American interests, but we're always truthful to the 
information as we know it, and in our engagements we do make 
the best case possible for advancing our interests around the 
world and explaining the logic and reasoning behind our 
policies.
    We know sometimes they're not well received, but we still 
feel that it is important to be communicating these. In fact, 
the more that people sort of understand our thinking and our 
reasoning, the more likely they are to appreciate our policies, 
and perhaps we can bring them around to even supporting them.
    Senator Shaheen. Thank you.
    One of the challenges that we face is how we continue to 
engage the youth of the world. About 85 percent of the world's 
youth live in developing countries and as we look at--I mean, 
we saw the role that they played in the Arab Spring and are 
still playing. So are there ways in which the State Department 
can better engage the world's youth?
    Mr. Hammer. Absolutely, Madam Chairman. You raise an 
excellent point and something that we are very focused on. We 
have, Secretary Clinton has, appointed a youth ambassador and 
we work very closely with him and many other offices throughout 
the State Department to try to figure out how we can connect 
better with tomorrow's future, our youth and the world's youth.
    So that's why it is critical that we engage in social media 
and we are in the areas of communication where they 
communicate, whether that's Facebook, Twitter, YouTube, 
texting, as you pointed out. It's important that we are part of 
that conversation, that they understand us. There are other 
elements, obviously, in the State Department that promote 
cultural exchanges and student exchanges, and that also is 
important because then the youth come and learn about the 
United States and our values firsthand. Those that can't, we 
obviously are trying to do that virtually, and more and more 
through our--we have our domestic program, the Home Town 
Diplomats program, where we're doing that, communicating to 
communities around the United States about the work that we do. 
But we're now moving to do that digitally, and perhaps we can 
also expand that even further to try to have these kinds of, if 
you will, town halls with more youthful audiences with people 
abroad.
    The state.deplive that I mentioned before, that media 
platform actually is reaching out to, if you will, less 
experienced or up-and-coming reporters who might not otherwise 
have access. So we are trying to branch out and to reach as 
broad an audience as we can; realizing the world is so 
interconnected, we want to make sure we take full advantage of 
those opportunities. And if confirmed, that's what I'd be 
committed to do.
    Senator Shaheen. When I was at the Kennedy School I took 
part in a State Department program that brought a number of 
young women from the Middle East over to the United States and 
then periodically did Web casts with them in the countries that 
they were from to continue that relationship. It seemed to be 
very effective.
    Mr. Hammer. Yes, Madam Chairman. In fact, if I may, our 
Foreign Press Center here, based in Washington, not too long 
ago conducted a blogger tour, in other words invited bloggers 
from around the world, including the Middle East, to come to 
the United States and meet their blogger counterparts. The 
reporting that came out of that was fascinating, and it's 
exactly the kind of thing that we need to be doing more of. We 
open ourselves up, people understand us better, and I think the 
net result over time is greater understanding for our country 
and for our policies.
    Senator Shaheen. In your opening statement you mentioned 
the work that is done with various country diasporas that exist 
in America. Can you talk about the kinds of things that you do 
with those communities?
    Mr. Hammer. Absolutely, Madam Chairman. We try to--for 
example, we had not too long ago, about a week ago, a meeting 
with the Haitian diaspora. What we're trying to do is to convey 
to those Haitian Americans or the different diaspora groups in 
the United States what the United States is doing in terms of 
our bilateral relationships, to develop even tighter bonds 
between the communities here in the United States and their 
original home countries.
    Part of it is to promote sort of the kind of investment 
that helps those countries. Secretary Clinton is very eager to 
see that there's a connection, for example, with the Tunisian 
diaspora in the United States, so that we can help Tunisia in 
this moment when they need to be looking for foreign investment 
and connections.
    So we have a fairly robust program. We focus it--I think in 
New York this week we did an outreach event as well with a 
variety of diaspora groups, to inform them of what the State 
Department is doing in terms of our policies and to leverage 
their connections to better inform us as well as to better 
connect with their home countries or their countries of origin.
    Senator Shaheen. Thank you very much.
    I have one final question for Mr. Mandell before I 
conclude. I missed this and I think it's very important, 
because it has to do with Luxembourg's involvement in NATO. In 
2009 Luxembourg spent about .6 percent of its GDP on defense, 
which was under the 2 percent which is sort of the NATO 
informal benchmark. It's not alone in failing to meet that NATO 
benchmark, and this has been a topic of some consternation 
among some of the larger members of NATO.
    So I wonder if you can address whether you believe or 
whether we have an official position on whether Luxembourg 
should be contributing increased financial resources to defense 
and to NATO and whether you have had or you know of any 
conversations in the country about that issue?
    Mr. Mandell. Madam Chairman, thank you for that question. 
Since I've not been to post and I've not been briefed on the 
NATO alliance as it relates to Luxembourg and the United 
States, I'm really unfamiliar with the answer to your question. 
But I would be glad to make sure that you receive an answer in 
a very short period of time. It just hasn't come up for me.
    Senator Shaheen. Sure. Well, and I will call it to your 
attention because I think it's something that should be raised, 
particularly with a country like Luxembourg that is a 
relatively wealthy country in Europe and that has benefited 
very much from the defense of NATO or the defense that NATO 
provides, the security that it provides. This will be I think 
an increasingly important and challenging issue as we go 
forward and think about NATO's continuing role in the future.
    Mr. Mandell. Thank you. I'll be glad to talk to the people 
at the State Department about that and get an answer back to 
you as quickly as we possibly can. I appreciate your comment.
    Senator Shaheen. Thank you.
    Mr. Mandell. Yes, ma'am.
    Senator Shaheen. Thank you all very much. Thank you for 
your willingness to continue to serve this country. As I said, 
we hope that your nominations will go forward and be quickly 
confirmed by the full Senate.
    Let me also point out that we will keep the record of the 
committee open until the end of business on Friday for any 
additional comments or questions that are presented.
    Again, thank you all very much. The hearing is adjourned.
    [Whereupon, at 11:42 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


         Responses of Thomas C. Krajeski to Questions Submitted
                        by Senator John F. Kerry

    Question. During the crackdown in Bahrain, over a thousand 
protesters were detained. There have been credible reports of severe 
mistreatment of detainees, including medical personnel, and trial of 
civilians taking place in military courts.

  <bullet> What steps will you take as Ambassador to try to urge the 
        Bahraini Government to cease these practices and restore the 
        rule of law?
  <bullet> How has the administration sought to influence the Bahraini 
        Government's response to the unrest?

    Answer. The United States remains firmly committed to the 
principles of freedom of association, freedom of expression, freedom of 
assembly, and medical neutrality, which requires that health care 
professionals be allowed to treat any individual regardless of 
background and identity.
    We are deeply concerned by reports of violations in Bahrain this 
spring and beyond. There is well-founded information from human rights 
organizations and others alleging that security forces mistreated 
detainees, arrested patients while in treatment, and instructed medical 
personnel not to treat those who may have been injured during protests. 
We condemn the violation of these rights wherever they occur.
    These and other alleged incidents fall under the purview of the 
Bahrain Independent Commission of Inquiry, a fact-finding mission 
convened by the government and led by international commissioners of 
excellent reputation. I will urge the Government of Bahrain to take the 
report's recommendations seriously and take action as necessary and 
appropriate.

    Question. Section 620J of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. embassies are heavily 
involved in ensuring compliance with this requirement.

  <bullet> If confirmed, what steps will you take to ensure that the 
        Embassy effectively implements section 620J?
  <bullet> In particular, what actions will you take to ensure, in a 
        case in which there is credible evidence that a gross violation 
        of human rights has been committed, that assistance will not be 
        provided to units that committed the violation?
  <bullet> What steps will you take to ensure that the Embassy has a 
        robust capacity to gather and evaluate evidence regarding 
        possible gross violations of human rights by units of security 
        forces?
  <bullet> Please provide a detailed account of how section 620J has 
        been applied to the Bahraini security forces in 2011. This 
        account may be provided in a classified format.
  <bullet> In recent years Bahrain has received approximately $20 
        million per year in Foreign Military Financing. What changes, 
        if any, have been contemplated to the program in light of the 
        recent events in Bahrain?

    Answer. The United States continually evaluates its military 
assistance to all countries. Foreign security force units and 
candidates proposed for assistance, including such forces from Bahrain, 
undergo a thorough section 620J review process to confirm that there is 
no credible evidence that the recipient has committed gross violations 
of human rights. This vetting is conducted with the INVEST 
(International Security Vetting Security Tracking) system, which 
assists us in conducting thorough checks of the human rights records 
for nominated candidates. Leahy vetting is initiated at the USG Embassy 
in the home country of the candidates, and completed in Washington 
using all available sources of information. Use of the INVEST system 
has improved the vetting process, and is allowing the Department to 
maintain and expand a human rights vetting database. In accordance with 
legal requirements, the United States will not deliver training or 
assistance in cases where there is credible evidence that a unit or 
individual has committed a gross violation of human rights.
    Our Embassy in Manama and the Department of State continue to 
gather information on the conduct of Bahraini forces surrounding the 
events of February, March, and beyond. The late October report of the 
Bahrain Independent Commission of Inquiry, a body with a broad mandate 
to investigate human rights violations during the demonstrations and 
security crackdown, will assist us in the vetting process as we 
incorporate its findings into our review of proposals to provide 
assistance to specific forces.
    If confirmed, I plan to discuss our military assistance program 
with Bahraini officials and remind them of our firm commitment to 
carrying out our security assistance programs in a manner consistent 
with our legal obligations and policy concerns regarding respect for 
human rights.

    Question. Bahrain is home to over 400,000 migrant workers, many of 
them from South and Southeast Asia, working in the construction and 
service industries as well as in the domestic service sector. According 
to the Department of State Trafficking in Persons Report of 2011, some 
of these workers have been subjected to practices such as the unlawful 
withholding of passports, restriction on movement, contract 
substitution, nonpayment of wages, threats and physical or sexual abuse 
as well as human trafficking and forced prostitution.

  <bullet> If confirmed, what will you do to address these issues?
  <bullet> In recent years, Bahrain's Ministry of Labor has indicated 
        it would move to end the sponsorship (``kafala'') system that 
        leaves migrant workers vulnerable to trafficking. What progress 
        has been made to date in abolishing the ``kafala'' system?

    Answer. We are concerned about reports, discussed in the 2011 State 
Department Trafficking in Persons Report, that describe abuses migrant 
workers suffer at the hands' of their employers in Bahrain. As a Tier-2 
country, Bahrain does not fully comply with the minimum standards for 
the elimination of trafficking; however, it is making significant 
efforts to do so. The government continued to investigate and prosecute 
forced prostitution cases and convicted nine trafficking offenders in 
2010-2011. In addition, the government assisted 17 victims of forced 
prostitution. Nonetheless, there were no reports of government efforts 
to punish forced labor crimes, nor any indication that the Government 
of Bahrain took steps to institute a formal victim identification 
procedure or otherwise improve victim protection efforts during this 
period.
    The government's lack of efforts to acknowledge and address forced 
labor remains a key gap in its antitrafficking response. If confirmed, 
I will encourage the Bahraini Government to vigorously pursue 
trafficking cases, expand protection for victims of trafficking, and 
prevent incidents of forced labor as they have pledged.

    Answer. According to the General Federation of Bahrain Trade 
Unions, thousands of Bahrainis have lost their jobs in the aftermath of 
the government crackdown. On August 19, the Christian Science Monitor 
reported that firings were ongoing and that while the government had 
pledged to rehire workers, progress had been slow.

  <bullet> How do you view the situation and what can be done to speed 
        up the rehiring process?
  <bullet> What can be done to return students who were expelled 
        because of their involvement in the protests, to their 
        classrooms?
  <bullet> Over the last few months, the Bahraini Government has barred 
        foreign journalists, human rights workers, and foreign trade 
        unionists from entering the country. What can the U.S. Embassy 
        do to promote open access by these groups to the country?

    Answer. We have closely followed reports of violations of worker 
rights, restraints on union activity, and ongoing unfair dismissals. We 
believe that returning workers to their jobs and students to their 
classrooms is the single most important step the Government of Bahrain 
can take to reintegrate the broader Shia community and reassure them of 
the Government of Bahrain's commitment to the economic well-being and 
education of all Bahrainis. In April, the AFL-CIO submitted a petition 
to the Department of Labor asserting that Bahrain had failed to uphold 
its commitment to protect labor rights under the U.S.-Bahrain FTA. The 
Department of Labor is investigating this claim and will release a 
report in December with its findings. If confirmed, I will call on the 
government to move quickly and transparently on reinstatements as a way 
to build confidence.
    We were disappointed that foreign journalists, human rights 
workers, and foreign trade unionists were denied visas in certain 
instances. If confirmed, I will raise these visa issues with the 
Government of Bahrain.

    Question. On June 29, 2011, the His Majesty King Hamad bin Isa Al 
Khalifa announced the establishment of the Bahrain Independent 
Commission of Inquiry led by M. Cherif Bassiouni. What is your 
assessment of the prospects for the success of the Bassiouni Commission 
and other paths to reconciliation? What steps will the United States 
take to help the Bahraini Government build the trust necessary among 
all sides to enable a credible national dialogue to move forward?

    Answer. We support the important work of the Bahrain Independent 
Commission of Inquiry. It has a broad mandate to investigate the events 
of February onward and report on human rights violations during this 
period. The presence of five internationally recognized experts with 
considerable human rights experience on the Commission is a positive 
sign, and we have urged the Government of Bahrain to cooperate fully 
with the Commission's investigation.
    We will continue to urge all parties, across the political 
spectrum, to engage constructively in an ongoing process of political 
accommodation in order to achieve meaningful reform.
    In July, the government initiated a National Dialogue as one 
mechanism to begin the reform process. We believe that more can be 
done. Genuine reform will allow Bahrain and its citizens to enjoy a 
more stable and security future.
                                 ______
                                 

           Responses of Dan W. Mozena to Questions Submitted
                        by Senator John F. Kerry

                   united states-bangladesh relations
    Question. I am glad to witness the recent positive trajectory in 
U.S.-Bangladesh relations. The United States has a number of important 
priorities in Bangladesh, including strengthening its democracy, 
promoting development, and denying space to terrorists. Washington is 
partnering with Dhaka to advance signature U.S. global initiatives on 
climate change, food security, and global health, as well as outreach 
with the Muslim world, to name just a few issues where we are working 
together.

  <bullet> What specific areas do you consider to be most ripe for 
        further U.S.-Bangladesh cooperation, and how can Congress 
        contribute to building this increasingly important 
        relationship?

    Answer. I believe that the United States has strategic interests in 
Bangladesh as follows:

  <bullet> Global Security: Bangladesh is the seventh most populous 
        country in the world; it has the fourth-largest Muslim 
        population. Bangladesh is a moderate, secular, and democratic 
        Muslim-majority country that offers an alternative to violent 
        extremism.
  <bullet> Regional and Global Peace and Stability: Located in one of 
        the world's most troubled regions, Bangladesh fosters regional 
        peace and stability through its improving relations with its 
        neighbors, especially India. Bangladesh is also the world's 
        largest manpower contributor to international peace support 
        operations. It currently has over 10,000 peacekeepers in the 
        field, a number it seeks to increase to 15,000.
  <bullet> Global Food Security: As the world's seventh most populous 
        nation, Bangladesh is critical to the world's ability to feed 
        its growing population, which is projected to reach 9 billion 
        within my lifetime. With good policies and targeted technical 
        assistance, Bangladesh could feed itself.
  <bullet> U.S. Trade and Investment: U.S.-Bangladesh trade will reach 
        a record $5 billion this year; this amount includes over $1 
        billion in U.S. exports, exports that create needed jobs and 
        wealth in America. A U.S. company (Chevron) is Bangladesh's 
        largest foreign investor. With a growing middle class as its 
        poverty rate drops (from 40 percent to 31.5 percent over the 
        past 5 years), Bangladesh offers increasing opportunities to 
        U.S. exporters and investors.
  <bullet> U.S. Values: Bangladeshis like America and are open to our 
        ideas. Core U.S. values, such as democracy and respect for 
        human rights, find fertile soil in Bangladesh.
  <bullet> Humanitarian Interests: Bangladesh is highly vulnerable to 
        natural disasters. Reflecting Americans' basic decency and care 
        for other people, the United States can help Bangladesh prepare 
        for disasters and mitigate the impact after disaster hits.

    I believe that the best way to advance these key American interests 
in Bangladesh is to promote a Bangladesh that is peaceful, secure, 
prosperous, healthy and democratic. If confirmed, I would lead Mission 
Dhaka to this end.
    Congress can help nurture the U.S.-Bangladesh partnership by 
ensuring adequate resources for those programs that advance America's 
interests by promoting a Bangladesh that is peaceful, secure, 
prosperous, healthy, and democratic, and by maintaining its already 
robust interest in this bilateral relationship to the mutual best 
interests of both countries. As a former Peace Corps Volunteer, I know 
well the benefits that a Peace Corps program in Bangladesh would offer 
in terms of both advancing America's interests in Bangladesh and 
building a better informed and internationally aware citizenry at home. 
Peace Corps would like to return to Bangladesh, but lacks the resources 
to launch a renewed program there.
                        democratic institutions
    Question. In December 2008, Bangladesh held what some U.S. 
observers consider the fairest and most credible parliamentary 
elections since independence. Those elections created the hope that the 
Government of Bangladesh (GOB) would use its popularity to strengthen 
democratic institutions and national reconciliation. But there are 
unfortunately signs that this government has not distanced itself from 
the previous zero-sum, highly centralized politics of the past that at 
times has prevented Bangladesh from realizing its full potential.

  <bullet> What are your observations with regard both to the strength 
        of Bangladesh's democratic institutions and recent developments 
        in Bangladesh's politics?

    Answer. Bangladesh is fortunate to have a strong tradition of 
democratic governance. During my travels in Bangladesh 10 years ago 
when I served there as Political/Economic Counselor, I saw firsthand 
the people's strong commitment to democracy, and believe that the 
Bangladeshi people themselves are the strongest guardians of their 
democratic rights. Nonetheless, those rights are being challenged. 
Earlier this year, the current Awami League-led government abolished 
the Caretaker Government system that it had helped to create to protect 
the electoral system from political interference; the opposition 
Bangladesh National Party has strongly opposed this action. The United 
States has called upon both major parties to work together to develop 
mutually agreed mechanisms for ensuring that the next elections are 
free and fair. If confirmed, I will urge leaders of both major parties 
and civil society to work together in the best interests of the 
Bangladeshi people to ensure that the next national elections are as 
free and fair as those of 2008. Drawing from my own experience in 
Bangladesh a decade ago as Bangladesh headed into the 2001 elections, I 
would work to ensure that the United States plays a constructive role 
in helping Bangladesh strengthen its electoral and other democratic 
institutions. Already, the mission has begun preparations to support 
the Bangladesh Election Commission in concert with other donors through 
the United National Development Program framework.
    Although Bangladesh's press has traditionally been one of the 
freest in the South Asian region, I am concerned about recent 
trendlines, including the arrests of editors and reports of pressure on 
news organizations to self-censor. If confirmed, I will continue to 
emphasize to the Government of Bangladesh my belief that a free press 
is vital to a fully functioning and mature democracy.
    I am encouraged that Bangladesh's Parliament is playing a more 
active role in governance and oversight. For example, the parliamentary 
standing committee on the Ministry of Home Affairs recently expressed 
concern over the amount of force the government used against opposition 
activists during a nationwide demonstration, and ordered an internal 
investigation. Additionally, the parliamentary standing committee on 
the Ministry of Information rejected a draft policy from the Ministry 
on private broadcasters that would limit media freedom. We urge 
constructive engagement in Parliament between the government and 
opposition political parties and emphasize the need for a strong 
Parliament working with robust democratic institutions.
    I am also encouraged that governance in Bangladesh is being 
increasingly decentralized, a process the United States has supported. 
Elected local government and creation of local funding sources are 
important steps in bringing governance closer to the people. If 
confirmed, I would continue to support the decentralization of 
governance.
              international crimes tribunal of bangladesh
    Question. The International Crimes Tribunal of Bangladesh (ICT) has 
begun trying persons accused of committing atrocities during the 1971 
war. Many observers have been encouraged by the fact that the GOB is 
taking steps toward achieving accountability for very serious crimes. 
However, the ICT has also been subject to some criticism. Among other 
things, international observers have raised concerns about 
interrogations without counsel present, lengthy precharge detentions, 
the inability to challenge the jurisdiction of the tribunal or make 
interlocutory appeals, the lack of the presumption of innocence, the 
lack of protection for victims and witnesses and the potential for self 
incrimination.

  <bullet> a. Has the administration raised similar kinds of concerns 
        with the GOB, and if so, how has it responded to suggestions?

    Answer. At the invitation of the Government of Bangladesh, 
Ambassador at Large for War Crimes Issues Stephen J. Rapp visited 
Bangladesh twice this year. During these visits he engaged with the 
government as well as those involved with the prosecution, defense and 
NGOs, underscoring the importance of due process and adherence to 
international standards, including in regard to the rights of the 
accused, excessive detentions, and defendants' access to counsel, among 
other matters. After his first visit, Ambassador Rapp wrote a letter to 
the Minister of Law offering a number of suggestions for the 
International Crimes Tribunal's Rules of Procedure. The Government has 
implemented some of these suggestions, and I hope that it will consider 
adopting more of them. Ambassador Rapp and Embassy Dhaka continue to 
engage on this matter with the Bangladesh Government, which I believe 
remains open to further changes that would strengthen the process.

  <bullet> b. What steps has the administration taken to assist the GOB 
        in ensuring the ICT is consistent with widely accepted 
        practices and standards?

    Answer. Ambassador Rapp's engagement with the Bangladeshis and his 
extensive list of suggested changes to rules of procedure are important 
elements in our efforts to help ensure that these trials meet 
international standards. Ambassador Rapp's office and Embassy Dhaka 
have conducted assessments of the capacity of the various parties to 
the process, including the offices of the judges, prosecutors, 
investigators, and the registrar of the International Crimes Tribunal. 
We have shared best practices and sample material with the 
investigators' office at their request. We hope the Bangladeshis will 
take fullest advantage of this support.

  <bullet> c. All of the accused sit in opposition to the ruling party. 
        Are you concerned that the proceedings' impartiality could be 
        put into question by political considerations?

    Answer. The International Crimes Tribunal could provide a means to 
hold accountable those Bangladeshis who committed atrocities during the 
nation's liberation in 1971. However, the fact that all of the accused 
are members of opposition parties places an especially heavy onus on 
the Tribunal to ensure transparency, due process, and thorough 
adherence to the highest standards of equitable justice, especially in 
regard to protecting the rights of the accused. It will be critical for 
the ICT to engage the public and provide the maximum possible 
transparency and access to ensure that it is perceived as independent, 
impartial and fair while striving to achieve justice for the victims of 
the atrocities in question. Ambassador Rapp's office and Embassy Dhaka 
remain engaged with the Government of Bangladesh at the highest levels 
to urge transparency and adherence to international standards.
                              grameen bank
    Question. I am deeply troubled by the efforts to pressure Muhammad 
Yunus that concluded in his resignation as managing director of the 
Grameen Bank (Grameen) earlier this year. Institutions like the Grameen 
Bank make a significant contribution to Bangladesh's development and 
democracy, and Professor Yunus's life-long work to reduce poverty and 
empower women through microloans has deservedly received worldwide 
attention and respect. I hope he will continue to play a leadership 
role in the Yunus Centre and entities associated with Grameen without 
undue interference.

  <bullet> What steps is the U.S. Government taking to emphasize the 
        importance of Grameen's future autonomy and effectiveness given 
        its historic role in improving the lives of millions of 
        Bangladeshis?

    Answer. When I served in Bangladesh a decade ago as Political/
Economic Counselor, I frequently visited Grameen Bank projects in the 
field and saw firsthand the impact that Grameen microfinance projects 
have on the poor, especially the women. Grameen is about more than 
project financing; it is about taking responsibility for improving 
one's own quality of life and nurturing the children so theirs can be a 
better life. Inspired by the Grameen philosophy and its real impact on 
improving the lives of millions of Bangladeshis, I was understandably 
troubled to learn of government pressure to remove Grameen founder and 
Managing Director Muhammad Yunus, culminating in his resignation from 
Grameen Bank on May 12. Like Dr. Yunus and many of Bangladesh's other 
international supporters, the United States Government is focused on 
preserving the integrity and effectiveness of Grameen Bank as an 
institution so that it can fulfill its commitment to its over 8 million 
poor, mostly female, beneficiaries. If confirmed, I would continue USG 
efforts to underscore to the Government of Bangladesh at the highest 
levels the importance with which we view the Bank's continued success, 
and urge that the Bank's new Managing Director be fully qualified to 
lead this critically important institution. The Government, for its 
part, has affirmed its commitment to the continued success of the Bank. 
The case of Grameen Bank also has broader implications for Bangladesh's 
vibrant civil society, which plays a crucial role in Bangladesh's 
development. If confirmed, I would support a strong, energized, 
effective, independent civil society
                            counterterrorism
    Question. The GOB has made significant inroads in fighting 
extremism under the Awami League. Bangladesh's strong national 
identity, its relatively recent liberation struggle, and the legacy of 
a moderate Islam are factors that inhibit radicalism. The country 
appears to be moving beyond a lack of political will that conspired 
with the country's porous borders, ungoverned spaces, and capacity 
constraints in the past to allow transnational and domestic terrorists 
to operate. Nevertheless, the threat still remains.

  <bullet> a. If confirmed, what steps would you take to strengthen the 
        U.S.-Bangladesh partnership in fighting terrorism and build on 
        the progress to date in this area?

    Answer. The Government of Bangladesh is a committed partner in 
combating terrorism. The GOB has maintained pressure on domestic and 
transnational terrorist groups, including the capture of members from 
Harkat-ul-Jihad Islami-Bangladesh (HUJI-B) and Lashkar-e-Tayiba (LeT). 
However, Bangladesh remains a potential safe haven and transit hub for 
transnational terrorists because of its porous borders and large swaths 
of internal ungoverned/poorly governed space. Much of its land border 
with India can be crossed undetected; huge gaps exist in patrolling 
Bangladesh's remote Bay of Bengal coast; airport security is lax; and 
there are no secure identification documents available as a basis for 
issuing Bangladeshi passports. Lashkar-e-Tayiba continues to have a 
presence in Bangladesh. If confirmed, I would work with the Government 
of Bangladesh to build capacity among its relevant security agencies. I 
would also engage the government on the importance of respecting human 
rights while conducting counterterrorism programs and maintaining law 
and order.

  <bullet> b. In recent years, the terrorist group Lashkar-e-Taiba 
        (LeT) has received considerable attention for masterminding 
        attacks like the one that took place in Mumbai, India, in 
        November 2009. What is the nature and scope, if any, of LeT's 
        activities in Bangladesh?

    Answer. If confirmed, I would support continued USG engagement with 
Bangladesh to combat terrorism. For example, the Embassy, especially 
its Department of Justice office, played a key role in advocating 
Bangladesh's 2009 passage of new antimoney laundering and new 
antiterrorism laws (the latter addressed antiterrorism finance for the 
first time). In 2010, the ministerial-level National Coordinating 
Committee Against Money Laundering was established under the leadership 
of the Finance Minister to encourage government bodies to fulfill their 
commitments under the National Action Plan to address Anti-Money 
Laundering (AML)/Counter-Terror Finance (CTF). The United States also 
helped Bangladesh establish a Financial Intelligence Unit.
    I would also support ongoing U.S. military assistance to Bangladesh 
in standing up a naval special operations unit (the Special Warfare and 
Diving Salvage unit--SWADS), which has defense of maritime borders and 
combating terrorism as core missions. Training continues and the unit 
is expected to be officially commissioned by the end of the year. In 
2010, SWADS and other Bangladesh security elements participated in the 
largest combined joint counterterrorism exercise in Bangladesh history. 
The exercise, sponsored by PACOM, involved over 600 Bangladesh 
counterterrorism personnel and over 200 U.S. Special Operations forces. 
The Embassy also participated in the exercise and provided a liaison 
team to the combined joint task force's forward headquarters in 
Chittagong. If confirmed, I would hope to foster and deepen such 
cooperation.
                      ``leahy amendment'' vetting
    Question. Section 620J of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. embassies are heavily 
involved in ensuring compliance with this requirement.

  <bullet> a. If confirmed, what steps will you take to ensure that the 
        embassy effectively implements section 620J?

    Answer. Embassy Dhaka, in coordination with the Department of 
State, runs an effective Leahy amendment vetting process. As required 
by the Leahy amendment and other law, all Bangladeshi security force 
personnel who receive training supported by U.S. funds are vetted by 
the Department of State. In cases where credible evidence exists that 
an individual has committed a gross violation of human rights, U.S.-
funded training is denied. If confirmed, I would continue discussions 
on the requirements of the Leahy amendment and U.S. insistence on 
respecting human rights with the Government of Bangladesh and, more 
specifically, the leadership of the Bangladesh security services.

  <bullet> b. In particular, what actions will you take to ensure, in a 
        case in which there is credible evidence that a gross violation 
        of human rights has been committed, that assistance will not be 
        provided to units that committed the violation?

    Answer. If confirmed, I would work directly with all Embassy 
elements to ensure that when there is credible evidence of a gross 
violation of human rights, the Embassy would deny the candidate 
training and record a negative hit against the name to preclude the 
candidate from consideration for any future training.

  <bullet> c. What steps will you take to ensure that the Embassy has a 
        robust capacity to gather and evaluate evidence regarding 
        possible gross violations of human rights by units of security 
        forces?

    Answer. If confirmed, all individuals and units of Bangladeshi 
security services selected for training will continue to be scrutinized 
by a vigorous vetting process. I would bolster Embassy Dhaka's 
comprehensive database of credible human rights reporting and its 
strong network of sources; both are critical to vetting every candidate 
proposed for U.S. Government-funded training or assistance. The 
Embassy's human rights officer is responsible for coordinating Leahy 
amendment vetting; this officer maintains good contacts with both local 
and international human rights organizations to ensure proper quality 
control on information used for vetting training candidates. The 
requirements of the Leahy amendment are a regular part of our 
discussion of human rights with the Government of Bangladesh and 
especially the leadership of the Bangladesh security services. If 
confirmed, I would continue this dialogue.
                        rohingya ethnic minority
    Question. I am very concerned by the plight of the Rohingya ethnic 
minority that has fled deprivations in neighboring Burma and settled in 
large numbers in the Cox's Bazaar region of Bangladesh. While seeking 
to do what they can, GOB officials in Dhaka sometimes have also shown 
weariness over having to address the difficulties created by the 
massive migration of Rohingya in an area that has poverty rates 
significantly above that of the rest of the country.

  <bullet> a. What is your understanding of current conditions in the 
        official and unofficial camps housing Rohingya?

    Answer. Ten years ago when I served in Bangladesh, I visited the 
Rohingya camps and found the conditions deplorable. Earlier this year, 
Assistant Secretary of State for Population, Refugees and Migration 
Eric Schwartz and his deputy, Kelly Clements, visited the camps as 
well. They told me that many Rohingya, particularly those living 
outside the official camps, continue to suffer greatly, especially from 
malnutrition and lack of access to basic services such as health care 
and education. The United States remains most concerned by the 
situation of the Rohingya refugees in Bangladesh. The U.S. Government 
supports the U.N. High Commission for Refugees, the International 
Organization on Migration, and several NGOs working to improve 
conditions for the refugees.

  <bullet> b. How would you characterize the GOB's ongoing response to 
        this challenging situation?

    Answer. The USG appreciates that the GOB has allowed up to 500,000 
Rohingyas to seek refuge in Bangladesh. We remain engaged with the GOB 
to find ways to improve the living conditions of these refugees, many 
of whom are undernourished and lack access to basic services. I am 
pleased that when Assistant Secretary Schwartz visited the refugee 
camps several months ago, the GOB agreed to consider resuming limited 
third-country resettlement for the most vulnerable cases and to allow 
international NGOs to resume some assistance activities. If confirmed, 
I would engage robustly with the GOB, other donors, and multilateral 
organizations to address the plight of the Rohingya. The long-term 
solution to the problem, of course, lies in Burma, which must create 
conditions whereby the refugees could voluntarily return to their homes 
in a dignified manner.

  <bullet> c. Are humanitarian groups able to receive adequate access 
        to Rohingya settlements, and are they encountering any 
        difficulties in obtaining the necessary official permissions to 
        carry out their important work?

    Answer. International NGOs have faced some challenges in receiving 
permission to provide services to the Rohingya. However, they continue 
to provide assistance where possible in the official refugee camps and 
in the surrounding villages of Cox's Bazar District. I hope that 
Assistant Secretary Schwartz's visit will result in these NGOs getting 
greater access to the refugees.
                     reintroduction of peace corps
    Question. The Peace Corps program in Bangladesh was suspended in 
March 2006 due to safety and security concerns. At the time of the 
program's suspension, 70 Volunteers were operating in the country. 
Historically, more than 280 Peace Corps Volunteers have served in 
Bangladesh since the program's inception in the 1960s (in what was then 
East Pakistan). The Government of Bangladesh has expressed interest in 
reopening a Peace Corps program. As the world's seventh most populous 
country and fourth-largest Muslim community with a sizeable youth 
bulge, this moderate, secular democracy would seem to be a strong 
candidate for the reintroduction of the Peace Corps.

  <bullet> a. Are the security concerns that led to the Peace Corps 
        program's suspension still present today?

    Answer. Peace Corps closed its Bangladesh program in 2006 for 
prudent security reasons. Since then, however, the security environment 
in Bangladesh has dramatically improved, thus allowing, in my view, for 
the return of Peace Corps Volunteers. Bangladesh's deepened security 
relationship with the United States and with India, among others, has 
enabled Bangladesh to make important progress in improving the 
country's security environment.

  <bullet> b. What are the benefits, from your perspective, of 
        reopening a Peace Corps program in Bangladesh?

    Answer. Bangladesh is a developing country undergoing rapid change. 
Over 80 percent of the population is under the age of 40; about 65 
percent is under the age of 25. This young and enterprising population 
pulses with optimism. This new generation is eager to learn how to 
improve their own lives, and the older generation has helped to make 
Bangladesh one of our most successful recipients of development 
assistance by achieving substantial progress in reducing poverty and 
improving a wide range of development indicators. Opinion polls show 
that Bangladeshis have a largely positive view of the United States, 
and that Bangladeshis like America more as they know it better. As a 
former Peace Corps Volunteer, I believe Bangladesh is a quintessential 
Peace Corps country. I am a firm believer in the power of Peace Corps 
to advance U.S. interests by bringing some of America's best and 
brightest to conduct people-to-people diplomacy in the towns and 
villages, where most of Bangladeshis live. These Volunteers could 
advance America's interests by supporting key programs in the sectors 
of food security, civil society strengthening, health, education, and 
the environment, among others. The Government of Bangladesh has 
requested that Peace Corps return to their country, where over 250 
Americans have served with distinction.

  <bullet> c. If sufficient funds were available in what we all know is 
        a tight budgetary environment, would you support a resumption 
        of programming in Bangladesh?

    Answer. Reopening a Peace Corps program in Bangladesh would be one 
of my top goals as Ambassador, if confirmed. I would argue that, 
despite a tight budgetary environment, Peace Corps is a program that 
would bring high returns on a modest investment by strengthening the 
relationships and bonds between the people of our two countries and our 
two governments. A Peace Corps program would also pay rich dividends in 
building a better informed and internationally aware citizenry at home.
                         trafficking-in-persons
    Question. In the State Department's ``Trafficking in Persons 
Report,'' Bangladesh has been designated as a Tier-2 Watch List country 
for the last 3 years following its Tier-2 designation in 2008. The 
country remains a major source and transit country for sex trafficking 
and forced labor.
    Men are recruited for work overseas under fraudulent employment 
offers and subjected to debt bondage, while some women who willingly 
migrate to find work outside of their country find themselves forced 
into prostitution. Children also face such exploitation, sometimes 
being sold into bondage by their parents.
    The GOB has drafted comprehensive antitrafficking legislation that 
would, among other measures, combat trafficking through criminal 
prosecutions and provide protection services to the populations 
vulnerable to trafficking and forced labor. Bangladesh, however, has 
yet to enact the legislation into law.

  <bullet> a. If confirmed, what steps would you take to encourage the 
        GOB to address effectively and constructively the exploitation 
        of its citizens and foreign nationals that are trafficked in 
        and through Bangladesh? In particular, what are your views on 
        the draft antitrafficking law that was recently submitted to 
        the Cabinet?

    Answer. Our Embassy in Dhaka, the Department's Office to Monitor 
and Combat Trafficking in Persons, and the Bureau of South and Central 
Asian Affairs assisted the Government of Bangladesh in the drafting 
process of this countertrafficking legislation, which we believe is 
strong, effective legislation. This legislation was bolstered by 
several rounds of local and national consultations involving experts, 
law enforcement, returning migrants and trafficking victims. If 
confirmed, I would work to ensure that Bangladesh enacts this 
countertrafficking legislation, preferably before the end of the year. 
I would also work with the government to help them draft and 
operationalize regulations and policies needed to effect the new 
legislation. The Bangladeshi Cabinet has approved the draft 
legislation, and it now awaits formal passage by Parliament, which 
reconvenes in October.

  <bullet> b. If Bangladesh succeeds in passing the antitrafficking 
        law, what capacity-related challenges does it face in enforcing 
        these measures, and how might the United States be helpful in 
        this area?

    Answer. If confirmed, I would engage on trafficking issues with 
Bangladesh through the recommendations and rankings in the TIP Report, 
action plans, foreign assistance, and diplomatic relationships. I would 
urge Bangladesh to criminalize the activities of fraudulent labor 
recruiters and to ensure that its embassies, particularly in the gulf, 
adequately protect Bangladeshi citizens. If confirmed, my aim would be 
for Bangladesh to show such progress that it would move from the Tier-2 
Watchlist to Tier 2 and eventually to a Tier-1 designation.
    Bangladesh's principal capacity-related challenge in enforcing 
these measures is a need for technical and foreign assistance. The U.S. 
Government, through the Department's Office to Monitor and Combat 
Trafficking in Persons, USAID's Actions for Combating Trafficking in 
Persons program, and the Department of Justice's programs, has a number 
of capacity-building projects underway in Bangladesh. These programs, 
which played a central part in helping the Government of Bangladesh 
draft this antitrafficking legislation, would also help Bangladesh in 
crafting policies and regulations to ensure effective implementation of 
the legislation.
                                 labor
    Question. In the last year, Bangladesh has witnessed many protests 
by garment workers arising out of perceived mistreatment and low wages. 
The government increased the minimum wage in response but the increase 
fell short of worker expectations, prompting more demonstrations. We 
have received reports that human rights defenders and labor leaders 
have been targeted by authorities.

  <bullet> Human rights and labor organizations state there are three 
        pending cases against the leadership of the Bangladesh Center 
        for Worker Solidarity, an internationally respected, 
        nonpartisan labor rights NGO. These individuals reportedly face 
        unsubstantiated criminal charges, and the organization has been 
        deregistered. We understand that the U.S. Embassy in Dhaka is 
        closely monitoring this case, the outcome of which could have 
        significant ramifications for human and labor rights in 
        Bangladesh. If confirmed, what steps would you take to 
        encourage a resolution that defends labor rights?

  <bullet> There are in some in the GOB and civil society who are 
        calling for genuine union rights for garment workers. 
        Unfortunately, inadequate development and deficiencies in human 
        rights go hand in hand, one reinforcing the other. How would 
        you work to strengthen voices for labor rights, and protect 
        those who defend workers' rights in Bangladesh?

    Answer. If confirmed, I would ensure that Embassy Dhaka regularly 
engages with the Government of Bangladesh on the important role of 
labor rights in building a robust, sustainable economy, one that can 
participate effectively in the global marketplace. The 10 cases pending 
against the three leaders of the Bangladesh Center for Workers' 
Solidarity (BCWS) are especially important as they also concern the 
Government of Bangladesh's commitments to due process and equitable 
treatment. The Embassy regularly attends hearings on these cases, and 
the Government of Bangladesh at all levels is aware of our continuing 
interest in these cases.
    The Embassy continues to work with the BCWS and the Government of 
Bangladesh to get the organization reregistered with the Ministry of 
Social Welfare. The Ministry's decision was not final, and we are 
encouraging BCWS to utilize the option of a judicial appeal.
     Protection of core labor rights is a standard of U.S. foreign 
policy around the world, especially in Bangladesh, where the booming 
ready-made garment industry and a decidedly mixed record on labor 
rights makes this issue particularly resonant. Progressive actors 
inside and outside the Government of Bangladesh have long called for 
genuine union rights. USAID's Global Labor Program funds the American 
Center for International Labor Solidarity (ACILS) in Bangladesh, and 
ACILS is working to strengthen union capacity by identifying and 
supporting honest actors in the movement. Recently, the Government of 
Bangladesh registered a new ready-made garment union, the country's 
second in 4 years, in the port city of Chittagong. Embassy Dhaka and 
ACILS are working with other nascent unions to capture the momentum and 
build on this success. Embassy Dhaka regularly engages with the 
Government of Bangladesh through the Ministry of Labor and the Prime 
Minister's Office to encourage positive attitudes toward union 
creation.
    The Embassy also urges the International Labor Organization to move 
expeditiously in implementing what will be its largest ever program to 
improve labor conditions, the Better Work Bangladesh program. This 
program will use financial incentives to encourage companies to adhere 
to core international labor standards.
                                 ______
                                 

         Responses of Thomas C. Krajeski to Questions Submitted
                      by Senator Richard G. Lugar

    Question. While the Arab Spring has seen calls for reform, 
political inclusion, and human rights across the region, it seems clear 
that the movement is not monolithic, and that each country that has 
sought democratic change has done so for unique reasons and in 
different circumstances. What leverage can the administration employ to 
ensure that calls for reform in Bahrain are taken seriously by its 
government?

    Answer. The United States and Bahrain have a longstanding 
partnership and we speak frankly with one another. We will continue to 
urge all parties, across the political spectrum, to engage 
constructively in an ongoing process of political accommodation in 
order to achieve meaningful reform.
    Bahrain has introduced reforms to address some of the protesters' 
demands. The government initiated a National Dialogue and an 
Independent Commission of Inquiry as mechanisms to move forward on 
reconciliation and begin the process of genuine reform. We believe, 
however, that more can be done. Genuine reform will allow Bahrain to 
enjoy a more stable and security future.

    Question. The Government of Bahrain launched a national dialogue in 
July to bring together the people of Bahrain to discuss demands for 
reform. Key members of the opposition and the labor movement, however, 
were excluded, and Bahrain's main Shia opposition, Al-Wefaq, pulled out 
of the dialogue after initially only being offered nominal 
participation. In your testimony you highlighted the importance of the 
national dialogue. If confirmed, what can you do as Ambassador to 
ensure a more meaningful, inclusive, and credible dialogue process?

    Answer. If confirmed, I will support and encourage initiatives the 
Government of Bahrain takes toward reconciliation and reform. We have 
welcomed recent steps to promote reconciliation and political dialogue, 
but more needs to be done. The National Dialogue that took place in 
July was the first formal step in what I hope will be a broad and 
comprehensive reform initiative. We expect that future dialogues will 
bring a wider range of Bahraini stakeholders to the table to discuss 
the way forward. As President Obama said in May, it is difficult to 
have a dialogue when several of the main opposition leaders are in 
jail. It is also difficult, however, when the main opposition group 
refuses to participate. Facilitating genuine, concerted and energetic 
effort toward reconciliation, dialogue, and reform in Bahrain will be 
one of my highest priorities.

    Question. The State Department has reported that Bahrain's Shia 
majority faces discrimination by the Government of Bahrain. If 
confirmed, will you make this issue a priority in your discussions on 
reform with Bahraini officials?

    Answer. If confirmed, I will urge the Government of Bahrain to 
confront concerns that Shia citizens face discrimination as evidenced 
by lower socioeconomic indicators and less access to the political 
decisionmaking process than the Sunni minority. As noted in my 
testimony, it is important that all communities in Bahrain play a role 
in determining Bahrain's future.

    Question. You noted in your testimony that there has been no 
evidence of instigation by Iran in the unrest in Bahrain but that there 
is concern of Iran exploiting it. How is this influence likely to 
manifest itself in the coming months and what preparations is the 
administration making to mitigate Iran's influence in Bahraini affairs?

    Answer. We do not see evidence that Iran instigated protests in 
Bahrain. The initial protests were called by Bahrainis for Bahrainis 
demanding reforms and greater political participation. However, we have 
seen and expect we will continue to see Iran attempting to exploit and 
exacerbate unrest to advance its agenda in neighboring countries and 
undermine peace and stability in the region.
    One of the greatest bulwarks against Iranian influence is a strong 
and stable Bahrain that is inclusive and respects the rights of all its 
people. Recent efforts by the Bahraini Government to restore confidence 
and promote reconciliation are good first steps. Meaningful reforms 
have the potential to lessen sectarian tension, thus denying Iran the 
ability to exploit unrest to its gain.
                                 ______
                                 

         Responses of Michael A. Hammer to Questions Submitted
                      by Senator Richard G. Lugar

    Question. In what ways do PA's activities overlap with the public 
diplomacy activities of the other Bureaus under the organization of the 
Under Secretary for Public Diplomacy and Public Affairs? How does the 
Bureau of Public Affairs coordinate with those public diplomacy 
bureaus? How does PA coordinate with PA offices in other ``non-R'' 
bureaus?

    Answer. Organizationally, the Bureau of Public Affairs (PA) falls 
under the Under Secretary of Public Diplomacy and Public Affairs (R) 
along with three other entities: the Bureau of Educational and Cultural 
Affairs (ECA), International Information Programs (IIP), and the Center 
for Strategic Counterterrorism Communications (CSCC). The mission of 
the R-family according to the Strategic Framework for Public Diplomacy 
and Public Affairs is to advance national interests and national 
security by informing and influencing foreign publics by expanding and 
strengthening the relationship between the people and government of the 
United States and citizens of the rest of the world. Each bureau 
contributes to this with its own specific mission.
    PA is charged with engaging domestic and international media to 
communicate timely and accurate information with the goal of furthering 
U.S. foreign policy and national security interests and broadening 
understanding of American values. In carrying out our mission, the 
Public Affairs Bureau employs a wide range of media platforms, provides 
historical perspective and conducts public outreach.
    PA is committed to an effective use of resources, avoiding overlap 
or duplication of effort between bureaus, and streamlining when 
possible under R's leadership and supervision. The Public Diplomacy 
Strategic Framework lists as an imperative the need to ``deploy 
resources in line with current priorities . . . [and to] strengthen 
structures and processes to ensure coordinated and effective Public 
Diplomacy.''
    PA coordinates with our public affairs colleagues in each bureau on 
a regular and daily basis. Among the efforts we coordinate are: 
formulating and deploying press guidance for the daily press briefings; 
pitching and organizing press interviews and briefings on topical 
foreign policy matters; and executing strategic communications planning 
based on the Secretary's and the Department's priorities.

    Question. The Bureau of Public Affairs oversees the Office of the 
Historian which is tasked with preparing the ``Foreign Relations of the 
United States'' (FRUS) historical series.

  <bullet> Since placing the FRUS online, how has public use of the 
        information increased; are bound volumes still being produced?
  <bullet> FRUS is currently behind schedule with the post-30-year 
        inclusion requirement--why is that, how far off schedule is it?
  <bullet> How many staff work to produce each volume?
  <bullet> What are the next five volumes scheduled for publication and 
        what are their publication dates?

    Answer. The Office of the Historian produces bound volumes for the 
Federal Depository Library Program (FDLP), since ``Foreign Relations'' 
has been deemed by the FDLP to be an ``essential title for public 
use.'' The Office is also committed to making FRUS available to a much 
broader audience by placing all volumes on the Office Web site. By 
placing FRUS online the Office has facilitated the further 
dissemination of volumes in the series to scholars and other interested 
parties around the world. In the most recent month, we have received 
more than 29,000 online visits from 173 countries.
    The Office is constantly commended both at home and abroad for 
making critical documentation on the history of U.S. foreign relations 
both widely and readily available. For many in the international 
community, online FRUS volumes represent the only access they have to 
records concerning the relations between their countries and the United 
States.
    In spite of the overwhelmingly positive response to the Web site, 
there is still a large demand for FRUS print volumes. In the past 2 
years, for example, the Government Printing Office (GPO) has had to 
double the number of FRUS volumes printed for public sale. While all of 
the 28 volumes covering the Carter administration will be placed 
online, roughly half of those volumes will also be printed and 
delivered to Federal Depository Libraries. More than half of the 46 
volumes planned for the Reagan administration, which we have begun 
researching, will be printed and all will be published online.
    The law under which the Office of the Historian produces the 
``Foreign Relations of the United States'' series (PL 102-138) mandates 
``comprehensive documentation of the major foreign policy decisions and 
actions'' based on access to all foreign policy related files, and that 
the series be published at the 30-year line. Since 1991, the Office of 
the Historian has struggled with the tension inherent in these 
competing requirements, and has only partially met the 30-year 
publication timeframe. FRUS is currently behind schedule for several 
reasons. The Office recently completed two studies that examined the 
compiling, declassification, and publishing timeframes for FRUS. These 
studies suggest that the length of the declassification process, the 
steadily expanding scale of the work necessary to document U.S. foreign 
relations during the 1970s and 1980s, and staffing level and retention 
challenges (now resolved) that disrupted the Office have contributed to 
the delay in the publication of FRUS volumes. The Office of the 
Historian is committed to trying to achieve its goal of publishing at 
the 30-year line in the near term without jeopardizing the quality of 
the series.
    Because of the unique nature of the ``Foreign Relations'' series, 
producing a single volume requires the work of up to five historians to 
perform various complex production and declassification tasks. One 
historian conducts archival research, compiles the documentation, and 
annotates the manuscript for clarity. Supervisors review the manuscript 
to ensure that it meets the congressionally mandated requirement to 
provide a ``thorough, accurate, and reliable record'' of United States 
diplomatic activity. The Declassification staff coordinates the 
declassification review of the manuscript, referring documents to the 
appropriate agencies and ensuring that all declassification decisions 
and excisions are accurately rendered to protect all classified 
national security information. The editing staff performs all tasks 
associated with preparing the volume for publication including, 
technical editing, proofreading, and the creation of electronic files 
for the office Web site.
    The next five volumes scheduled for publication are:
        September 2011: Vol. XIII, Soviet Union, October 1970-September 
        1971;
        October 2011: Vol. XXXIV, National Security Policy, 1969-1972;
        October 2011: Vol. XXXVI, Energy Crisis, 1969-1974;
        October 2011: Vol. XV, Soviet Union, 1972-1974;
        January 2012 Vol. XXVI, Arab-Israeli Dispute, 1974-1976.

    Question. The Department, through a public-private partnership, is 
planning a new museum and visitor's center for the U.S. Diplomacy 
Center, to be housed in the Truman Building. What is the status of the 
U.S. Diplomacy Center's new museum and visitor's center? How much money 
has been raised and how much more is needed? Please provide a fuller 
update regarding the status of the Center.

    Answer. A key project the Bureau of Public Affairs is working to 
realize is the establishment of the United States Diplomacy Center 
(USDC), which will be dedicated to telling the story of American 
diplomacy and the Department of State, past, present, and future, 
through a dynamic, interactive education center. The USDC has received 
commitments of nearly $18 million in private donations toward its $50 
million capital campaign.
    The Bureau of Public Affairs recently released funds to issue a 
Reimbursable Work Authorization (RWA) contract for 65 percent Design 
Development of the USDC. As contract administrator, General Services 
Administration (GSA) receives the funds and issues the contract to 
project architect Beyer Blinder Belle. The U.S. Commission of Fine Arts 
has officially approved the design for the center.
    We believe that the USDC will offer an opportunity to better 
educate the American public and foreign visitors about the important 
work of U.S. diplomacy and the sacrifices that American diplomats make 
in service to the United States and to address the world's challenges.
                                 ______
                                 

         Responses of Thomas C. Krajeski to Questions Submitted
                    by Senator Robert P. Casey, Jr.

    Question. According to human rights activists in Bahrain, the 
Bahraini Government's National Dialogue process has failed to produce 
concrete results or a credible path forward on political reform. In his 
May 19 speech on the Middle East, President Obama stated that ``the 
[Bahraini] government must create the conditions for dialogue, and the 
opposition must participate to forge a just future for all Bahrainis.'' 
The President also underscored that ``you cannot have a real dialogue 
when parts of the peaceful opposition are in jail.''

  <bullet> I agree with the President on the need for a real political 
        dialogue in Bahrain. What leverage does the United States have 
        to encourage meaningful democratic reform in Bahrain based on 
        the precondition set out by President Obama?

    Answer. The United States and Bahrain have a longstanding 
partnership and we speak frankly with one another. We will continue to 
urge all parties, across the political spectrum, to engage 
constructively in an ongoing process of political accommodation in 
order to achieve meaningful reform.
    Bahrain has introduced reforms to address some of the protesters' 
demands. The government initiated a National Dialogue and an 
Independent Commission of Inquiry as mechanisms to move forward on 
reconciliation and begin the process of genuine reform. We believe, 
however, that more can be done. Genuine reform will allow Bahrain and 
its citizens to enjoy a more stable and security future.

    Question. The United States has been criticized for not effectively 
engaging with Bahraini human rights activists when the initial 
crackdown against peaceful protestors began in February. Eight months 
later, 34 people have been killed, more than 1,400 have been arrested, 
and as many as 3,600 people have lost their jobs as a result of the 
Bahraini Government's continued repression of its own citizens.

  <bullet> What specific steps will you take to ensure that the United 
        States is proactively and visibly reaching out to Bahraini 
        civil society?
  <bullet> Will you make an effort to reach out to civil society 
        members beyond the Embassy's traditional interlocutors?

    Answer. Bahrain's vibrant civil society has played an indispensible 
role in setting the country on a path to greater reform and 
inclusiveness. If confirmed, I plan to support their important work. As 
Secretary Clinton has said, ``Civil society holds governments 
accountable, keeps them honest, and helps them be more effective.'' I 
will engage all elements of Bahraini society and engage the Bahraini 
Government on the need to protect associational freedom. I hope to meet 
with many of them face-to-face and engage with new technology such as 
online townhalls and Facebook. If confirmed, I will work to protect the 
universal rights of all people to organize, gather peacefully, and 
speak freely without fear of retribution. I share Secretary Clinton's 
view that ``If we're going to take advantage of this historic moment, 
we have to tap the expertise, experience, and energy of civil 
society''.

    Question. There have been reports of possible Iranian intervention 
in Bahrain's internal political situation. Iranian leaders have 
criticized the Bahraini crackdown, and Bahrain and Iran have withdrawn 
their ambassadors from each other's capitals.

  <bullet> What is your assessment of Iran's role in supporting the 
        Shia opposition movement in Bahrain?

    Answer. We do not see evidence that Iran instigated protests in 
Bahrain. The initial protests were called by Bahrainis for Bahrainis 
demanding reforms and greater political participation. However, we have 
seen and expect we will continue to see Iran attempting to exploit and 
exacerbate unrest to advance its agenda in neighboring countries and 
undermine peace and stability in the region.
    One of the greatest bulwarks against Iranian influence is a strong 
and stable Bahrain that is inclusive and respects the rights of all its 
people. Recent efforts by the Bahraini Government to restore confidence 
and promote reconciliation are good first steps. Meaningful reforms 
have the potential to lessen sectarian tension, thus denying Iran the 
ability to exploit unrest to its gain.

    Question. Crown Prince Shaikh Salman bin Hamad has long been 
considered a proponent of democratic reform and has taken steps to 
accommodate Bahrain's Shiite majority. However, in recent months the 
Crown Prince has been publicly sidelined by the more conservative Sunni 
hard-liners, including Interior Minister Rashid bin Abdulla Al Khalifa.

  <bullet> What role do you see the Crown Prince playing in the future 
        of Bahraini politics, and how might the United States engage 
        with him to support democratic reform and stability?

    Answer. We welcome efforts by all members of the Bahraini 
Government, political associations, and civil society that foster 
greater inclusion, dialogue, and tolerance. As Ambassador, I plan to 
work with all parties who are striving for reform in Bahrain, including 
the Crown Prince, who has demonstrated genuine leadership and vision.

    Question. There are serious concerns about the state of religious 
freedom in Bahrain. According to the Bahrain Center for Human Rights, 
the Bahraini Government has destroyed 43 Shia mosques and religious 
structures since the protests began in February, and, despite 
assurances from the government to rebuild destroyed mosques, no such 
construction has begun. Moreover, the State Department's recently 
released International Religious Freedom Report noted that the Sunni 
Muslim population enjoys favorable status in the government, while the 
Shia population continues to face systematic discrimination in 
employment, housing, and military service.

  <bullet> How will you work to protect religious freedom for the Shia 
        majority in Bahrain, including the rebuilding of mosques and 
        Shia religious sites that were destroyed during the government 
        crackdown?

    Answer. We take violations of religious freedom seriously and 
continue to be concerned by reports of discrimination against the Shia 
community. If confirmed, I will raise the issue of the alleged 
destruction of sites of religious worship in Bahrain and urge the 
Government of Bahrain to comply with its international obligations 
under the International Covenant on Civil and Political Rights, to 
which it is a signatory. I will also urge Bahrain to refrain from any 
violations of religious sites or impede the personal practice of 
religion. If confirmed, I will expect the Government of Bahrain to 
allow the Bahrain Independent Commission of Inquiry, a body with a 
broad mandate to investigate recent alleged abuses, to conduct thorough 
and transparent investigations into any human rights violations that 
may have been committed and to take appropriate steps to redress these 
violations.

    Question. The Defense Security Cooperation Agency (DSCA) notified 
Congress on September 14 of a possible Foreign Military Sale (FMS) to 
Bahrain worth an estimated $53 million. The proposed sale includes 
Armored High Mobility Multi-Purpose Wheeled Vehicles, TOW Missiles and 
associated equipment, parts, training and logistical support. Given 
credible reports of human rights violations by Bahraini security 
forces, I am concerned that this proposed sale could send the wrong 
signal to the Bahraini people at a time of increasing government 
repression.

  <bullet> In your view, should the United States reexamine its 
        military assistance to Bahrain in light of the ongoing 
        government crackdown?
  <bullet> What specific steps will you take to ensure the effective 
        implementation of the Leahy Law (section 620J of the Foreign 
        Assistance Act) to ensure that Bahraini military, police, and 
        other security units receiving U.S. assistance are not credibly 
        alleged to have committed a human rights abuse? Will you raise 
        the importance of this legal requirement directly with the 
        Bahraini Government?

    Answer. The United States continually evaluates our military 
assistance to all countries. Every new assistance program and sale 
undergoes a thorough section 620J review process that ensures that 
there is no credible evidence that the recipient has committed gross 
violations of human rights. Bahrain is no exception. Our Embassy in 
Manama and the Department of State in Washington continue to gather 
information on the conduct of Bahraini forces surrounding the events of 
February, March, and beyond. The Bahrain Independent Commission of 
Inquiry, a commission with a broad mandate to investigate human rights 
violations during the crackdown, will also assist in this process. All 
new information is considered during the vetting process and informs 
any determination on security assistance or training. If confirmed, I 
plan to discuss our military assistance program with the Government of 
Bahrain and remind them of these legal requirements.

    Question. The Bahraini Government continues to commit systematic 
human rights abuses, including the denial of medical services, while 
simultaneously targeting medical providers as evidenced by the arrests 
of 23 doctors and 24 nurses from the Salmaniya Medical Complex earlier 
this year. As recently as September 15, human rights groups reported 
the detention of individuals seeking medical care for injuries 
sustained from the excessive use of tear gas by riot police.

  <bullet> As Ambassador, how will you prioritize the protection of 
        medical neutrality to ensure Bahraini compliance with its 
        international obligations under the Geneva Conventions, which 
        offer special protections to medical facilities and personnel 
        who assist the wounded during times of conflict?

    Answer. The United States remains firmly committed to the principle 
of medical neutrality, which requires that health care professionals be 
allowed to treat any individual regardless of background and identity.
    We are deeply concerned by reports of violations of medical 
neutrality in Bahrain during this spring's unrest. Human rights 
organizations have alleged that security forces arrested patients while 
in treatment and instructed medical personnel not to treat those who 
may have been injured during protests. We condemn the violation of 
medical neutrality, a right enshrined in the Geneva Conventions.
    These alleged incidents fall under the purview of the Bahrain 
Independent Commission of Inquiry, a fact-finding mission convened by 
the government and led by international commissioners of sterling 
reputation. I will urge the Government of Bahrain to take the report's 
recommendations seriously and take needed action on medical neutrality 
concerns and the many other issues raised during this period.
                                 ______
                                 

           Responses of Dan W. Mozena to Questions Submitted
                    by Senator Robert P. Casey, Jr.

    Question. For decades, Bangladesh has borne witness to gross human 
rights abuses including war crimes committed during the 1971 war of 
independence. According to the State Department's 2010 Human Rights 
Report, Bangladeshi security forces continue to commit extrajudicial 
killings and are responsible for custodial deaths, torture and 
arbitrary arrest. Although it has been effective in combating militant 
extremism, there are particular human rights concerns regarding the 
Rapid Action Battalion's activities.

  <bullet> a. What is the U.S. assessment of the Rapid Action 
        Battalion?

    Answer. The Rapid Action Battalion (RAB) has a dismal human rights 
record, as detailed in the State Department's annual Human Rights 
Report. According to credible sources, members of the Rapid Action 
Battalion have committed extrajudicial killings and other serious human 
rights violations with impunity and little, if any, accountability.
    Because of the Rapid Action Battalion's poor human rights record, 
the United States has limited its engagement with the RAB to efforts to 
improve the RAB's record on respecting human rights. On September 20, a 
retired U.S. DEA agent arrived in Dhaka to be ``embedded'' with the 
Rapid Action Battalion for 3 months to help it establish and 
operationalize an independent internal affairs unit that would 
investigate allegations of misconduct and, I hope, improve the 
organization's record for respecting human rights. The Rapid Action 
Battalion's success (or lack of) in utilizing this internal affairs 
unit to rein in its members will be a litmus test for assessing whether 
and, if so, how we will further engage with the Rapid Action Battalion.

  <bullet> b. What specific steps will you take to ensure the effective 
        implementation of the Leahy Law (section 620J of the Foreign 
        Assistance Act) to ensure that Bangladeshi military, police, 
        and other security units receiving U.S. assistance are not 
        credibly alleged to have committed a human rights crime? Will 
        you raise the importance of this legal requirement directly 
        with the Bangladeshi Government?

    Answer. As required by the Leahy amendment and other law, all 
Bangladeshi security force personnel who receive training supported by 
U.S. funds are vetted by the Department of State. In cases where 
credible evidence exists that an individual has committed a gross 
violation of human rights, U.S.-funded training is denied. If 
confirmed, I would continue discussions on the requirements of the 
Leahy amendment and U.S. insistence on respecting human rights with the 
Government of Bangladesh and, more specifically, the leadership of the 
Bangladesh security services.

    Question. The ruling Awami League (AL) has achieved significant 
gains in the fight against Islamic extremism, including the arrest of 
the militant leader Maolana Sheikh Farid in April. However, serious 
concerns remain over the opposition Bangladesh National Party's (BNP) 
longstanding ties to Islamist parties such as Jamaat-i-Islami, which 
led a countrywide protest earlier this week that resulted in 50 people 
injured and 480 detentions.

  <bullet> How do you assess the current Bangladeshi Government's 
        commitment to fighting Islamic extremism?
  <bullet> As Ambassador, what steps will you take to address the roots 
        causes of terrorism in Bangladesh?

    Answer. The Government of Bangladesh is strongly committed to 
combating violent extremism, including regional and transnational 
terrorism. Bangladesh is cooperating with its neighbors, most 
importantly India, to fight terrorism. This cooperation has resulted in 
the arrest of terrorist suspects who were hiding in Bangladesh. The 
Bangladeshi Government has also taken increasingly more aggressive 
actions against regional and domestic terror organizations. Our growing 
counterterrorism engagement with Bangladesh has supported the 
government's campaign against violent extremism.
    If confirmed, I would increase our support of Bangladeshi efforts 
to counter violent extremism through programs such as our ``Leaders of 
Influence'' program, which taught local imams how to work with the NGO 
community to bring development to their people. This program focused on 
those areas of Bangladesh most susceptible to radicalization. More than 
20,000 local religious and secular leaders, over 10,000 of whom were 
imams, participated in this program, which offered alternative paths to 
increasing opportunities for development. Our programs would also 
include a significant youth component, targeting the very group that 
tends to be the most easily manipulated by extremist factions. Embassy 
Dhaka also uses English instruction as a platform for engagement, 
development, and countering violent extremism in Bangladesh. Students 
and teachers from governmental (alia), nongovernmental (qaumi) 
religious schools/madrassas, and community religious leaders/imams are 
engaged through English language training. As an added effect, 
students, teachers, and influence makers share their training with 
nonparticipants as well as the positive perceptions about the U.S. 
developed during their participation in the training.
    A U.S.-funded community-based policing program is improving public 
trust and cooperation between local police and the communities they 
serve. This program, too, is focused in an area considered especially 
vulnerable to extremist ideologies. In addition, Embassy Dhaka is also 
working to improve Bangladesh's counterterrorism capabilities through 
military-to-military engagement. U.S. experts have provided training to 
Bangladesh's nascent Special Warfare and Diving Salvage Unit (its 
version of the Navy Seals), Coast Guard, and select army units to 
enhance their capacities to combat terrorism.
    If confirmed, I would further address the root causes of violent 
extremism by redoubling efforts to promote economic prosperity through 
both development programs and expanded U.S. trade and investment in 
Bangladesh. By working to encourage entrepreneurship and increase 
economic growth, we would reduce space for violent extremists to 
recruit unemployed and underemployed youth who are frustrated by 
limited economic opportunities.

    Question. I have serious concerns about the Bangladeshi 
Government's ability to combat human trafficking. Bangladesh is a Tier-
2 human trafficking watch country and a major source and transit 
country for men, women, and children subjected to forced labor and sex 
trafficking. While I welcome the Bangladeshi Government's recently 
introduced comprehensive antitrafficking legislation, more needs to be 
done to protect the rights of innocent Bangladeshi and foreign 
citizens.

  <bullet> As Ambassador, how will you support the Bangladeshi 
        Government's efforts to fully and effectively implement its 
        comprehensive antitrafficking legislation?
  <bullet> How is the United States engaging with other source 
        countries in the region, particularly in the gulf, to combat 
        human trafficking?

    Answer. Our Embassy in Dhaka, the Department's Office to Monitor 
and Combat Trafficking in Persons, and the South and Central Affairs 
Bureau helped the Government of Bangladesh draft effective, 
countertrafficking legislation. If confirmed, I would work to ensure 
that Bangladesh enacts this countertrafficking legislation, preferably 
before the end of the year. I would also work with the Government to 
help them draft and operationalize regulations and policies needed to 
effect the new legislation.
    The Department of State engages on trafficking issues with 
Bangladesh through the recommendations and rankings in the TIP Report, 
Action Plans, foreign assistance, and diplomatic relationships. The 
Department urges Bangladesh to criminalize the activities of fraudulent 
labor recruiters and to ensure that its embassies in the gulf 
adequately protect Bangladeshi citizens. The Department urges the 
destination countries in the gulf to reform their sponsorship systems 
(which contribute to labor trafficking) to ensure that migrant workers 
can obtain legal redress, to criminalize passport withholding (or to 
enforce those laws, if already passed), and to prosecute human 
traffickers.

    Question. Demographic pressures and environmental challenges pose a 
serious threat to Bangladesh's food security. Rising sea levels and 
increased salinity in low-lying areas have led to lower crop yields at 
a time of increasing population growth, with some estimates predicting 
the population could double to 300 million by 2050.

  <bullet> What steps is the United States taking to help mitigate the 
        adverse effects of climate change to ensure Bangladesh's future 
        food security?
  <bullet> As Ambassador, how will you work to promote the long-term 
        sustainability of U.S. and international assistance programs in 
        Bangladesh, such as Feed the Future, the Global Health 
        Initiative, and the Global Climate Change Initiative?

    Answer. The U.S. Government climate change strategy in Bangladesh 
is aligned with the Government of Bangladesh's Climate Change Strategy 
and Action Plan, which recognizes that the adverse effects of climate 
change are a major development challenge. Through the Feed the Future, 
Global Health and Global Climate Change Initiatives, the United States 
is working to improve the management of natural resources while 
diversifying livelihood opportunities, managing climate risk and 
enhancing capacity for low emission development, so Bangladesh can 
mitigate the adverse effects of climate change while also providing 
sustainable economic benefits and clean energy resources.
    For example, under the Feed the Future Initiative, the United 
States is supporting efforts to develop and apply innovative 
technologies to increase agricultural productivity while helping 
farmers adapt to the effects of climate change. Accounting for 48 
percent of the actively employed labor force and 21 percent of gross 
domestic product, agriculture plays an integral role in the lives of 
the people of Bangladesh. The USG is supporting research efforts to 
develop pest and climate shock-resistant crop varieties with higher 
yields and increased nutritional content. Once these improved varieties 
have been developed and tested, they will be scaled up to benefit 
farmers across Bangladesh. The USG is also introducing best practices 
in agricultural management such as conservation agriculture using 
minimum tillage, fertilizer deep placement and alternative wet-dry 
irrigation.
    The USG is also focusing on improving fisheries and aquaculture 
production through improved brood stock, disease-free seed and the 
introduction of cage production technologies. These technical efforts 
will be complemented by capacity-building programs for farmers, 
business and government representatives, as well as efforts to improve 
the business enabling environment and overcome production and marketing 
bottlenecks.
    USAID has embarked on an ambitious procurement reform effort that 
aims to channel significant portions of our development funding through 
local organizations. Thus, USG programs in key sectors are increasingly 
implemented by local experts and organizations. These reforms build 
capacity and technical skills in addition to advancing USG objectives 
in food security, agriculture, health and climate change. All 
activities have sustainability plans that focus on our ultimate goal of 
``working ourselves out of a job.''
    If confirmed, I would continue to coordinate with the Government of 
Bangladesh and other donors to ensure that our collective efforts are 
complementary and aimed at achieving sustainable results. The GOB has 
developed national strategic plans in key sectors that correspond with 
our Feed the Future, Global Health and Global Climate Change 
Initiatives. The USG is a member of the local consultative group, a 
mechanism for donor coordination that is led by the GOB Ministry of 
Finance. By coordinating with other donors and aligning our programs 
with GOB strategic planning, Embassy Dhaka ensures the sustainability 
of USG development programs.

    Question. I have been impressed by the administration's stated 
intention to engage more deeply with civil society around the world. It 
is imperative that the United States forge broad coalitions across all 
sectors of civil society, including political activists, academics, 
business leaders, faith-based communities and NGOs.

  <bullet> What specific steps will you take to engage with civil 
        society in Bangladesh?
  <bullet> Will you make a special effort to reach out to civil society 
        members beyond the Embassy's traditional interlocutors? Will 
        you travel to all regions of the country to ensure a broad-
        based approach to the Embassy's civil society outreach?

    Answer. Nowhere is engagement with civil society more important 
than in Bangladesh. Civil society in Bangladesh has led and sustained 
much of the progress Bangladesh has made in recent decades on many 
fronts, including maternal and child health, women's empowerment, 
disaster preparedness and management, and education. Pioneering civil 
society organizations include BRAC and the Nobel Peace Prize-winning 
Grameen Bank, which revolutionized the concept of microfinance by 
providing millions of poor people, especially women, with access to 
capital through microloans. Civil society also encompasses hundreds of 
smaller organizations outside the international limelight, including 
some that partner with USAID on a number of foreign assistance 
projects. If confirmed, I would work tirelessly to ensure that foreign 
and local NGOs are able to continue their good works without undue 
restriction, helping Bangladeshis to help themselves, while bolstering 
democratic institutions and fostering economic development. I would 
continue my predecessors' tradition of consulting regularly with civil 
society leaders as I seek to build on and expand Embassy Dhaka's 
already robust engagement with Bangladeshi civil society groups.
    I know from personal experience, especially my Peace Corps service 
in then-Zaire over 35 years ago, that engaging with civil society 
leaders is important not only in capitals, but in towns and the 
countryside, where, in the case of Bangladesh, most of the people live. 
Though many of these places may be remote and difficult to get to, if I 
am confirmed as Ambassador, I would visit all 64 of its districts. 
Harkening back to my Peace Corps days, I'm not afraid of getting my 
hands dirty, and I want to meet and hear from the people doing the hard 
work of development at the grassroots level.
                                 ______
                                 

          Response of Robert A. Mandell to Question Submitted
                       by Senator Jeanne Shaheen

    Question. In 2010, Luxembourg spent approximately 0.6 percent of 
GDP on defense, which is well below the 2.0 percent of GDP that is the 
NATO target. Should Luxembourg contribute more to NATO?

    Answer. The Luxembourg Army is the sole military force for the 
Grand Duchy, which has no air force, navy, or air defense force. The 
Luxembourg Army has an approximate strength of 1,000 troops. A founding 
NATO member, Luxembourg contributes troops to nine international 
missions, including 23 troops to the Kosovo Force (KFOR) and 9 troops 
to the International Security Assistance Force (ISAF) in Afghanistan, 
which are embedded with Belgian troops in Kabul. Luxembourg also 
contributes a troop contingent to NATO, as well as territorial 
facilities and logistic support, with the NATO Maintenance and Support 
Agency (NAMSA) headquartered in Capellen and U.S. Air Forces in Europe 
Central Region Storage Facility in Sanem. Recognizing the limitations 
of direct military contributions due to its small size, Luxembourg has 
sought other avenues to make meaningful contributions. Luxembourg has 
made a long-term commitment to purchase A400M heavy cargo aircraft to 
address strategic lift shortfalls in NATO, which will be based in 
Belgium and maintained by the Belgian Air Force. Luxembourg also 
provided overseas development assistance in 2010 in the amount equal to 
1.05 percent of GDP, which is well above the international target norm 
of 0.7 percent of GDP. The Government of Luxembourg believes that 
consideration should be given to its overall contributions, as well as 
to its defense contributions on a per capita basis, since the 
population of Luxembourg is approximately 500,000.
    We recognize Luxembourg's strong contributions given its size, and 
we continue to encourage all NATO allies to commit 2 percent of GDP to 
defense. If confirmed, I will work closely with the Government of 
Luxembourg to ensure that it continues to support NATO and its burden-
sharing responsibilities within the alliance.


                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, OCTOBER 5, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Susan Denise Page, of Illinois, to be Ambassador to the 
        Republic of South Sudan
Adrienne S. O'Neal, of Michigan, to be Ambassador to the 
        Republic of Cape Verde
Mary Beth Leonard, of Massachusetts, to be Ambassador to the 
        Republic of Mali
Mark Francis Brzezinski, of Virginia, to be Ambassador to 
        Sweden
                              ----------                              

    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons, presiding.
    Present: Senators Coons, Lugar, Inhofe, and Isakson.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Good morning. I would like to call this 
nomination hearing to order.
    I am honored to chair this hearing for the ambassadorial 
nominees to South Sudan, Mali, Cape Verde, and Sweden. All four 
nominees have impressive records of accomplishment in 
international affairs, and I very much look forward to hearing 
their priorities for advancing our national interests and 
goals.
    If confirmed, all three nominees for Africa will serve at 
an exciting, critical, and challenging time as we seek to 
deepen our economic ties and investments, promote essential 
development and health initiatives, expand our security 
cooperation in counterterrorism and counternarcotics, and 
broaden our conversations about our shared values and 
priorities for the future of Africa.
    In Europe, we expect, we hope, to continue our long 
tradition of close cooperation with Sweden as it works through 
the United Nations, the EU, and NATO on shared international 
priorities.
    Our first nominee this morning is Susan Page, nominated to 
be the United States very first Ambassador to the new nation of 
South Sudan. This nomination recognizes the central role the 
United States played in the birth of that country and the 
importance of our longstanding relationship with the people of 
South Sudan.
    The jubilation surrounding the July 9 independence has 
subsequently been somewhat tempered by the sobering realities 
of the challenges facing the world's newest country. Many 
issues with Sudan remain unresolved, including the status of 
Abyei, arrangements on oil transit and revenues, the 
demarcation of disputed borders, and many others. Fierce 
fighting in the regions of South Kordofan and Blue Nile has 
resulted in death, displacement, and a lack of access for 
humanitarian workers. South-south violence is also significant. 
Poverty is endemic. Health and education infrastructure are all 
seriously inadequate.
    And despite these challenges, South Sudan is a place of 
hope for millions of residents who have waited decades for 
their freedom. The south has significant oil reserves and, with 
the proper agricultural assistance, the potential to be a 
regional bread basket.
    Ms. Page is no newcomer to Sudan, having served from 2002 
to 2005 as the legal advisor to the Sudanese mediation process 
where she helped negotiate and draft key provisions of the CPA, 
or the Comprehensive Peace Agreement. She also served as 
Director of the Rule of Law and Prison Advocacy at the U.N. 
peacekeeping mission to Sudan in Khartoum. Ms. Page has worked 
previously for the State Department and USAID in Botswana, 
Rwanda, and Kenya, and currently serves as Deputy Assistant 
Secretary of State for African Affairs at the State Department.
    Moving westward, we consider the nomination of Mary Beth 
Leonard to be Ambassador to Mali, a poor, land-locked nation 
which has emerged as a model of democratic governance in the 
past 2 decades and has developed vibrant economic sectors in 
gold mining and cotton production. After decades of 
dictatorship, Mali's transition to democracy in the 1990s led 
to unprecedented civil liberties for their people and resulted 
in their first-ever democratically elected President turning 
over power peacefully to his successor after serving two terms.
    The United States has had excellent relations with Mali and 
found it a committed partner in fighting terrorism in the 
Sahel. We remain deeply concerned about the activities of AQIM 
and the possible spillover of arms from the current conflict in 
Libya and concerned about Mali's low standards of living as 
evidenced by its rankings near the bottom of the world in 
indicators of health and education.
    Ms. Leonard is well placed to answer these challenges, 
having served previously as Deputy Chief of Mission at our 
Embassy in Mali and currently serving as Director of West 
African Affairs at the State Department. Her other Foreign 
Service postings include Surinam, South Africa, Togo, Namibia, 
and Cameroon, as well as a number of tours here in Washington.
    Adrienne O'Neal is Ambassador-nominee for Cape Verde, a 
small island nation off of Africa's West Coast with historic 
ties to Portugal and a striking record of economic growth in 
recent years with an average per capita income of $3,000, a 
literacy rate of 84 percent, high rates of immunization, and 
low rates of maternal death. Cape Verde's average standard of 
living is much higher than many of its regional neighbors, and 
in 2010, it successfully completed a 5-year MCC compact focused 
on improving the investment climate and upgrading 
infrastructure. Cape Verde's sandy beaches bring tourists to 
its shores, and its fishing industry provides important 
employment as well as export revenue. U.S. interests in Cape 
Verde include a large expatriate diaspora community in the 
United States, particularly in New England, as well as maritime 
security and counternarcotics cooperation with the government.
    Ms. O'Neal brings to her position experience as a senior 
Foreign Service officer currently serving as director in the 
Office of Career Development. She is a Portuguese speaker who 
served as Deputy Chief of Mission in Lisbon and held positions 
in Mozambique, Rome, Rio de Janeiro, and Buenos Aires, and in 
the State Department's Bureau of African Affairs.
    Finally, we welcome a nominee to a country far from Africa, 
Mark Brzezinski, to be Ambassador to Sweden. Sweden is a strong 
ally of the United States, supporting NATO and the U.N. and 
participating in critical multilateral military missions in 
both Libya and Afghanistan. Sweden is well known in the 
developing world as a generous and effective donor in the 
fields of humanitarian and development work.
    Sweden's responsible management of its own economy spared 
it from the fiscal woes currently facing many of its European 
neighbors and I might dare say our own Nation, but even Sweden 
faces critical challenges in the future. The rise of the Sweden 
Democrats as a political party with supremacist and racist, 
arguably, roots signal wider discontent among the younger and 
unemployed and raise questions about the direction they might 
take.
    Mr. Brzezinski brings to this challenge of serving in 
Sweden significant experience and background. He is an attorney 
currently at McGuire Woods, focusing on international law. He 
made a name for himself as an expert in Russian affairs, worked 
at the NSC in the Clinton administration as Director of 
Southeastern European Affairs, serves on the Fulbright Foreign 
Scholarship Board, and has worked at Columbia University School 
of International Affairs where he has taught.
    I welcome all four of today's distinguished nominees and 
look forward to hearing from each of you in turn.
    I will now turn the floor over to Senator Isakson for his 
opening statement.
    Senator Isakson.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman, and welcome to 
all of you and congratulations on your nomination. And thank 
you for your willingness to serve the United States of America.
    I particularly want to welcome Mr. Brzezinski. I will have 
to show a little preference here. I am a second generation 
Swedish American. So when I learned today that you would be 
here for confirmation, I got here promptly on time----
    [Laughter.]
    Senator Isakson [continuing]. Because, A, I wanted to meet 
you and, B, I wanted to share with all my relatives I had 
talked to the new Ambassador who is on the way to Stockholm.
    But Sweden is a great country. My grandfather emigrated 
here in 1903. He was a stone mason who built the first post 
office in George West, TX, and later came to Atlanta, GA. 
Fortunately for me, he and his wife, Josephine, had a young 
son, who was my father, and I became a second-generation 
American when I was born here in 1944.
    But Sweden is a great country and a great partner and a 
great visionary in terms of clean energy and green energy and a 
lot of things that they have taken a real leadership role in. 
So you will enjoy your stay in Sweden and we appreciate very 
much your accepting the nomination.
    To Ms. Leonard, Ms. O'Neal, and Ms. Page, thank you very 
much. You are all going to some very challenging places. You 
are going to a place where you will have to work overtime and 
do a lot of things probably no other ambassador would ever 
think they had to do. But all of you are going to places that 
are critical to the United States of America and critical to 
our relationship with the African Continent.
    I have said on many occasions I think Africa is the 
continent of the 21st century for the United States of America. 
I think it is critical that we continue to do what we have done 
there in terms of PEPFAR and MCC, but also in building 
democracies, doing away with corruption, and elevating the 
economy of the African countries.
    And, Ms. Page, I have been to the Sudan. I have been to 
Darfur. I worked with the Comprehensive Peace Agreement team, 
led by the U.N. team. And I know you worked with the U.N. 
leading up to some of the laws that are currently being 
implemented now in a free South Sudan. So we have many 
challenges in the next 2 years and we are going to go one way 
or another. I hope it goes to new heights for that country, but 
there are lots of challenges and your leadership is going to be 
critical in seeing to it that neither terrorism nor corruption 
end up dominating a new fledgling nation in the South Sudan.
    But to all of you, thank you very much for your willingness 
to serve your country, and thank you for being here today.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson.
    I would now like to invite the ranking minority member of 
the full committee, Senator Lugar, to make an opening 
statement.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I join my colleagues in welcoming each of the nominees 
today. I have reviewed your credentials. I believe that each of 
you is well qualified to represent the United States at 
embassies in Africa and, in the case of Mr. Brzezinski, in 
Europe.
    I appreciate the willingness of each of you to serve at 
this critical time to undertake the family sacrifices that 
often accompany such an ambassadorial post.
    Somewhat like my colleague, Mr. Isakson, I want to offer a 
special welcome to Mark Brzezinski who is a near neighbor and 
has been nominated to be Ambassador now to Sweden. We were, 
many of us, in the House of Sweden last evening, state persons 
from all over the world celebrating the 10th anniversary of the 
Nuclear Threat Initiative, and we appreciate very much the 
hospitality of the Swedes. They are looking forward to having 
you aboard representing our country, Mark.
    I have known Mark personally for many years. He possesses a 
first-rate intellect, a talented communicator who would be 
adept at framing United States interests for the people and the 
Government of Sweden. His extensive knowledge of European 
history, culture, and politics are informed both by his 
scholarship and his personal experience. His academic and legal 
credentials are impressive, having earned a law degree from the 
University of Virginia, a doctorate in political science from 
Oxford University.
    As he has pursued his legal practice, he has made foreign 
policy analysis and civic involvement a central part of his 
career. In addition to his service on the National Security 
Council, he has written prolifically about U.S. foreign policy, 
the Atlantic alliance, Middle East dynamics, and many other 
topics.
    Beyond his outstanding credentials, he is a serious and 
thoughtful individual of high character, demonstrating a keen 
sense of responsibility to lead a life of achievement and 
service to our Nation. I am confident he will make an excellent 
Ambassador to advance our interests in Sweden.
    I thank you very much, Mr. Chairman, for the opportunity to 
make this statement.
    Senator Coons. Thank you, Senator Lugar.
    Senator Inhofe, also a member of the committee and whose 
interest and engagement with Africa is legendary, also would 
like to make an opening statement.
    Senator Inhofe.

           OPENING STATEMENT OF HON. JAMES M. INHOFE,
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. I will make it very brief because I may 
have to leave before the conclusion of this meeting.
    But I support all four nominees, and I have met personally 
with three of the four. I think I recall saying to Ms. O'Neal, 
having visited Cape Verde on numerous occasions, I might 
consider swapping jobs with you. [Laughter.]
    And I want to say to Ms. Page 4 days ago I was in South 
Sudan. It is so exciting to see a new country to develop 
intimate relations with the leadership of that country. We had 
20 Members of Parliament and five members of the ministry in 
one room for over 2 hours, getting to know each one of them 
individually, as I told you in my office we were planning to 
do. Well, that happened.
    And I can see the challenges are incredible there. I mean, 
just the fact that it is a new country.
    So I think you are the right one to do this, but I wanted 
you to know that we broke them in for you. So they will be 
waiting for you when you get there. And I will look forward to 
spending some time with you and with those 25 that we have met 
and gotten to know on a personal basis.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Inhofe.
    We will now hear in order, if we might, from each of our 
four nominees, our witnesses today. Please start, if you would, 
by also introducing your families. As each of us has commented, 
we recognize the significant sacrifice that taking on these 
posts will mean for you and for your extended families. So we 
are grateful for their willingness to join with you, work with 
you, and support you in undertaking these missions as well.
    So if we might first, Ms. Page.

 STATEMENT OF SUSAN DENISE PAGE, OF ILLINOIS, TO BE AMBASSADOR 
                 TO THE REPUBLIC OF SOUTH SUDAN

    Ms. Page. Thank you very much, Chairman Coons, Ranking 
Member Isakson, and members of the committee. It is an honor to 
appear before you today as the nominee to be the first United 
States Ambassador to the Republic of South Sudan. I am grateful 
for the confidence the President and Secretary of State have 
shown by nominating me to this position and for the support of 
Assistant Secretary for African Affairs, Ambassador Johnnie 
Carson.
    First, let me acknowledge my family members as you have 
invited me to do. My husband, Damien Coulibaly, and my son, 
Marius. And I have extended family and friends who have been 
longstanding supporters of me both professionally and 
personally, and I really thank them for being here. My parents, 
although they are not with us here today--they are hopefully 
watching on TV. But I would like to thank them especially for 
their support and instilling in me a desire to serve and my 
love of foreign affairs.
    Let me turn to South Sudan and also acknowledge the 
presence of members from the Government of South Sudan who are 
here today, and it is a pleasure to see them in the audience.
    Mr. Chairman, as the newest member of the international 
community and the 193rd country admitted to the United Nations, 
the Republic of South Sudan is home to American Embassy Juba, 
the newest U.S. mission in the world. If confirmed, I would be 
honored to lead Embassy Juba in advancing U.S. interests with 
our growing team of mission personnel. The work Embassy Juba 
will do in South Sudan will represent a new chapter and a deep 
history between the United States and the people of South 
Sudan. And I am delighted that already Senator Inhofe has made 
his way and made things easier for me if I am confirmed.
    Mr. Chairman, our main interests in South Sudan are 
stability, strengthening democracy, economic viability, and 
internal and regional peace and security. As the largest 
bilateral donor since 2005, the United States will need to 
multilateralize our approach as we work with the South Sudanese 
on meeting its development needs, enabling prosperity and 
success for all South Sudanese.
    Mr. Chairman, as you know, our focus will remain on 
promoting a peaceful relationship between the Republic of South 
Sudan and the Republic of Sudan, particularly in Abyei Area and 
in the two Sudanese states of Southern Kordofan and Blue Nile. 
The avoidance of a return to war between Sudan and South Sudan 
and the speedy resolution of the remaining CPA issues will 
remain a priority.
    We also remain concerned by the regional threat posed by 
the Lord's Resistance Army. The United States will need to 
assist the south in navigating these challenges, maximizing 
civilian protection, individual human rights, and fundamental 
freedoms. The United States will need to continue to promote 
the professionalization of the Sudan People's Liberation Army, 
the SPLA, under civilian control with respect for human rights.
    Mr. Chairman, the establishment of a strong economic and 
development foundation is critical to the long-term success of 
South Sudan. If confirmed, I will work closely with USAID to 
help South Sudan provide basic services to its citizens, 
diversify its economy, and accelerate the development of 
critical infrastructure, human capacity, investments in the 
agricultural sector, and strong regional economic 
relationships.
    South Sudan will receive an estimated $4 billion to $5 
billion in oil revenues annually and will have the necessary 
resources to invest in building strong institutions run by 
capable individuals. This is a unique opportunity to get it 
right by managing its resources efficiently, creating fiscal 
transparency, ending corruption, and avoiding the pitfalls that 
beset so many resource-rich nations. The United States has been 
the leading donor in the area of democratic reform and good 
governance, and if confirmed, I will work to ensure the 
effective financial oversight of these programs.
    Finally, Mr. Chairman, if confirmed, my highest priority 
will be the protection of American citizens and the promotion 
of American business interests. We will need to expand 
opportunities and trade for American companies by emphasizing 
that South Sudan is free from sanctions and is open for 
business.
    Currently assignment to Mission Juba is unaccompanied, and 
I like everyone else at post will leave behind my family. As 
the U.S. Embassy expands in South Sudan, the mission will need 
to consider its current infrastructure and footprint, as well 
as future needs, ensuring that we have the safest and most 
secure facilities available.
    Mr. Chairman, if confirmed as the first U.S. Ambassador to 
the Republic of South Sudan, I will draw upon my experience 
negotiating and drafting the Comprehensive Peace Agreement, my 
time living and working in Khartoum and in Juba, and my current 
management experience as the Deputy Assistant Secretary in the 
Bureau of African Affairs at the State Department.
    If confirmed by the Senate, I look forward to working 
closely with the members of this committee and I would hope to 
welcome you to Juba during my tenure.
    Mr. Chairman, thank you again for the honor to appear 
before the committee today. I would be happy to take any 
questions you may have. Thank you.
    [The prepared statement of Ms. Page follows:]

                  Prepared Statement of Susan D. Page

    Chairman Coons, Ranking Member Isakson, and members of the 
committee, it is an honor to appear before you today as the nominee to 
be the first United States Ambassador to the Republic of South Sudan. I 
am grateful for the confidence the President and Secretary of State 
have shown by nominating me to this position, and for the support of 
Assistant Secretary for African Affairs Ambassador Johnnie Carson.
    First, Mr. Chairman, let me acknowledge my immediate family members 
who are here today. I am truly grateful for the love and support of my 
husband, Damien Coulibaly, and my son, Marius, who is a freshman in 
high school. They have endured numerous separations from me, 
particularly as I worked for nearly 3 years away from home on the 
mediation team to negotiate and draft what turned into the 
Comprehensive Peace Agreement (CPA) for Sudan. Their understanding and 
encouragement have meant more to me than they can possibly know. I 
would also like to thank my colleagues and friends who are present 
today. They have offered me wisdom, guidance, and friendship on a wide 
range of subjects--both professional and personal--throughout the 
years. I'm delighted that they could be here today. While my parents, 
Dr. and Mrs. Harold Page, are not here in person today, they deserve 
much of the credit for my accomplishments and for instilling in me a 
desire for service and the love of foreign cultures and international 
travel.
    Mr. Chairman, as the newest member of the international community, 
and the 193rd country admitted to the United Nations, the Republic of 
South Sudan is home to American Embassy Juba, the newest U.S. mission 
in the world. If confirmed, I would be honored to lead Embassy Juba at 
this unique moment in history, in advancing U.S. interests with our 
growing team of Foreign and Civil Service personnel, military staff, 
and locally engaged employees. The work Embassy Juba will do in South 
Sudan will represent a new chapter in a deep history between the United 
States and the people of South Sudan.
    Mr. Chairman, our main interests in South Sudan are stability, 
strengthening the nascent democratic state that came about through a 
historic self-determination referendum this past January, economic 
viability, and internal and regional peace and security. As you know, 
the United States has long been a steadfast partner to South Sudan; we 
are its largest bilateral donor, having providing its people more than 
$10 billion in humanitarian, development, peacekeeping, and security 
assistance since 2005 when the CPA was signed. However, given shrinking 
budgets, the United States will need to work hard to expand the number 
of countries and organizations involved in South Sudan to ensure its 
long-term political and economic success moving forward. As the South 
begins to address its capacity-building and development needs, the 
United States will need to be prepared to work more closely, 
collaboratively, and creatively with a wide range of actors to build on 
previous and ongoing local and international efforts to assist the 
Republic of South Sudan, enabling the achievement of its goals of 
prosperity and success for all South Sudanese regardless of ethnicity, 
political affiliation, or origin.
    Mr. Chairman, as you know, our focus will remain on taking the 
necessary steps to ensure a peaceful relationship between the Republic 
of Sudan and the Republic of South Sudan, particularly with the 
unresolved status and borders of Abyei Area, and the ongoing violent 
conflicts in the two Sudanese states of Southern Kordofan and Blue Nile 
being waged between the Sudan Armed Forces (SAF) and the Sudan People's 
Liberation Movement/Army-North (SPLM/A-N). The avoidance of a return to 
war between Sudan and South Sudan and the speedy resolution of the 
remaining CPA issues will remain a priority in these nations, and, if 
confirmed, I will work closely with colleagues at Embassy Khartoum, as 
well as through multilateral organizations like the African Union and 
the United Nations to secure a peaceful future for the citizens of 
South Sudan. If confirmed, Mr. Chairman, I will continue to reinforce 
our bilateral relationship as well as contribute to efforts promoting a 
stable, functioning, and peaceful South Sudan.
    Mr. Chairman, South Sudan remains confronted with internal conflict 
and violence incited by former military commanders and political actors 
who seek to destabilize the south. The actions of militia groups and 
ethnic disputes continue to create instability in regions of South 
Sudan, and could have devastating consequences for the newly formed 
country. We also remain concerned by the regional threat posed by the 
Lord's Resistance Army. The United States will need to continue to 
assist the Republic of South Sudan in navigating these challenges, in a 
manner that maximizes civilian protection and individual human rights 
and fundamental freedoms. To this end, the United States is actively 
engaged in supporting international partner efforts to help transform 
the Sudan People's Liberation Army (SPLA) into a sustainable and 
professional military that operates under civilian control and respects 
human rights.
    Mr. Chairman, the establishment of a strong economic and 
development foundation also will be critical to the long-term success 
of South Sudan. If confirmed, I will work closely with our USAID 
colleagues to help the South Sudanese deliver on their promises to end 
corruption, provide basic services to its citizens, and accelerate the 
development of critical infrastructure, human capacity, investments in 
the agricultural sector, and strong regional economic relationships 
with neighboring countries and organizations. I look forward to working 
with our South Sudanese partners on these issues and firmly believe 
that inclusiveness, good governance, diversification of the economy, 
access to basic social services, (including adequate health care and 
education), as well as the development of all of the people of South 
Sudan, are the cornerstones of the country's future success and 
internal and external peace.
    South Sudan is recovering from decades of war and will require 
continued support and assistance to develop strong institutions. South 
Sudan also will receive an estimated $4-$5 billion in oil revenues 
annually, and will have the necessary resources to invest heavily in 
building strong institutions run by capable and strong individuals. 
South Sudan is now faced with a unique opportunity to manage its 
resources efficiently, ensuring effective budgeting, and taking the 
necessary steps to create fiscal transparency to avoid the pitfalls of 
corruption that beset so many resource rich nations. While the CPA 
timeline has ended, critical agreements must still be reached between 
the new country and the Government of Sudan. While part of the promise 
of the CPA was realized by allowing the people of South Sudan to chart 
their own future, some of the broader goals, albeit intended for a 
united Sudan, should continue to apply for the new Republic of South 
Sudan: democratic governance; fair and equitable distribution of 
resources and revenue between the center and the peripheries; and the 
right of all people to participate in the running of the affairs of the 
country. The United States has been the leading donor in the area of 
democratic reform and good governance and, if confirmed, I will 
continue to make these programs a priority.
    Finally, Mr. Chairman, if confirmed, my highest priority will be 
the protection of American citizens, including mission personnel, 
living and traveling in South Sudan, and the promotion of American 
business interests. With only a few private Americans in-country, we 
will need to work hard to welcome American companies and expand 
opportunities and trade, by emphasizing that South Sudan--having 
emerged as an independent state, and free from the sanctions that still 
plague its northern neighbor, Sudan.
    Currently, assignment to Mission Juba is unaccompanied, and I, like 
everyone else at Post, will leave my family behind. As the U.S. Embassy 
expands in South Sudan, the mission will need to consider its current 
infrastructure and footprint as well as future needs. We will need to 
carefully consider both the living and working environment to ensure 
that the Embassy compound will provide the safest and most secure 
facilities available.
    Mr. Chairman, if confirmed as the first U.S. Ambassador to the 
Republic of South Sudan, I will be drawing upon my prior experience 
negotiating and drafting the CPA and my time living and working in 
Khartoum and Juba from 2005 to 2007 while heading up the U.N. 
peacekeeping mission's (UNMIS) Rule of Law and Corrections Advisory 
Unit. I also expect my current management experience as the Deputy 
Assistant Secretary in the Bureau of African Affairs, my previous work 
as a State Department legal adviser and Foreign Service officer, as 
well as my work as regional director for Southern and East Africa at 
the National Democratic Institute for International Affairs, will serve 
me well, if confirmed as U. S. Ambassador to South Sudan. If confirmed 
by the Senate, I look forward to working closely with the members of 
this committee, and would hope to welcome you to Juba during my tenure.
    Mr. Chairman, thank you again for the honor to appear before the 
committee today. I would be happy to take any questions you may have.

    Senator Coons. Thank you, Ms. Page.
    Ms. O'Neal.

STATEMENT OF ADRIENNE S. O'NEAL, OF MICHIGAN, TO BE AMBASSADOR 
                 TO THE REPUBLIC OF CAPE VERDE

    Ms. O'Neal. Chairman Coons, Ranking Member Isakson, and 
members of the committee, I am here today as President Obama's 
nominee to be the next U.S. Ambassador to the Republic of Cape 
Verde. I am honored and grateful to President Obama and 
Secretary Clinton for this tremendous vote of confidence and 
for this opportunity to appear before you.
    I have no family members here this morning. However, I did 
receive very early text messages from my son, Quincy, and my 
sister, Deborah. Welcome to the 21st century.
    But I do have here today with me two of my oldest and 
dearest friends, Professor Patricia Aufderheide who is the 
director of the Center for Social Media at American University 
and many other things, and Dr. Robin Madrid who was recently 
one of NDI's most successful program officers in Yemen.
    I will also claim the support of Ambassador Johnny Young, 
who was a tremendous role model to me throughout my career and 
is here today also to support me, as well as others.
    The 10 islands that compose the Republic of Cape Verde lie 
just 300 miles from the coast of West Africa. In stark contrast 
to the countries in its neighborhood, Cape Verde boasts an 
unbroken tradition of civilian rule since its independence in 
1975. It is a wonderful African success story of progress 
toward lasting political stability and the creation of 
functional democratic institutions.
    Cape Verde's relationship with the United States has been 
strong since we opened our first consulate there in 1818. 
Today, with more than 450,000 Americans of Cape Verdean origin, 
we can truly say that Americans from Cape Verde participate 
fully in our most treasured traditions and safeguard our most 
heartfelt values. One of the most salient examples of this is 
the late George Lima, an American of Cape Verdean descent, who 
was among the ranks of the celebrated Tuskegee Airmen in the 
Second World War.
    From the platform of the deep affinity between our two 
countries, the United States engages with Cape Verde on a 
number of serious challenges. Among them, maritime security and 
transnational crime are key. The country's vast territorial 
waters and its strategic position to north-south sea routes 
made it a natural to host NATO's first live military exercise 
in Africa in 2006. The Government of Cape Verde has strongly 
supported counternarcotics maneuvers and is a willing host to 
U.S. ship visits. In this regard, Cape Verde is a model in the 
region for strategic partnership. If confirmed, it is my goal 
to maintain and enhance this multilateral and interagency 
collaboration.
    U.S. engagement in support of Cape Verde's economic and 
commercial development has yielded encouraging results. Cape 
Verde's first Millennium Challenge Compact was successfully 
completed 
in 2010, producing significant gains in all three of its 
projects, namely, improvements in transportation networks 
facilitating integration of internal markets; improvements in 
water management and soil conservation which promoted increases 
in farms' profits and incomes; and support to Cape Verdean 
microfinance institutions. Cape Verde's continued strong 
governance has resulted in its selection as the first country 
to qualify for a second Millennium Challenge Compact. It is my 
hope, if confirmed, to engage Cape Verde in consolidating these 
gains.
    Peace Corps activities have contributed to strengthening 
Cape Verde's civil society since 1988. The 50-plus volunteers 
currently serving across seven islands work with the Cape 
Verdean Government to enhance the teaching of English as a 
second language, train English language instructors, and 
develop small enterprise and entrepreneurship. If confirmed, I 
intend to build upon Peace Corps successes to encourage higher 
education opportunities and stimulate small business 
development with U.S. partners.
    Mr. Chairman, prior assignments to United States missions 
in Lusophone nations, Brazil, Portugal, and Mozambique, have 
equipped me with a cultural knowledge and language skills to 
connect smoothly with the Cape Verdean Government and with the 
Cape Verdean people. Similarly, if confirmed, I will draw upon 
expertise gained in positions of leadership I have held 
throughout my 28-year tenure in the Foreign Service to address 
the peculiar challenges entailed in managing the U.S. mission 
in Cape Verde. These include a small and crowded workplace and 
the mentoring of entry-level officers who staff the majority of 
the Embassy's positions. In addition, if confirmed, I intend to 
uphold and execute the primary responsibility of every United 
States Embassy which is to promote the safety and welfare of 
American citizens abroad.
    I would be pleased to take your questions now.
    [The prepared statement of Ms. O'Neal follows:]

                Prepared Statement of Adrienne S. O'Neal

    Chairman Coons, Ranking Member Isakson, and members of the 
committee, I am here today as President Obama's nominee to be the next 
United States Ambassador to the Republic of Cape Verde. I am honored 
and grateful to President Obama and Secretary Clinton for this 
tremendous vote of confidence and for this opportunity to appear before 
you.
    The 10 islands that compose the Republic of Cape Verde lie just 300 
miles from the West Coast of Africa. In stark contrast to the countries 
in its neighborhood, Cape Verde boasts an unbroken tradition of 
civilian rule since its independence in 1975. It is a wonderful African 
success story of progress toward lasting political stability and the 
creation of functional democratic institutions.
    Cape Verde's relationship with the United States has been strong 
since we opened our first consulate there in 1818. Today, with more 
than 450,000 Americans of Cape Verdean origin, we can truly say that 
Americans from Cape Verde participate fully in our most treasured 
traditions and safeguard our most heartfelt values. One of the most 
salient examples of this is the late George Lima, an American of Cape 
Verdean descent who was among the ranks of the celebrated Tuskegee 
Airmen in the Second World War.
    From the platform of the deep affinity between our two countries, 
the United States engages with Cape Verde on a number of serious 
challenges. Among them, maritime security and transnational crime are 
key. The country's vast territorial waters and its strategic position 
to north-south sea routes made it a natural to host NATO's first live 
military exercise in Africa in 2006. The Government of Cape Verde has 
strongly supported counternarcotics maneuvers and is a willing host to 
U.S. ship visits. In this regard, Cape Verde is a model in the region 
for strategic partnership. If confirmed, it is my goal to maintain and 
enhance this multilateral and interagency collaboration.
    U.S engagement in support of Cape Verde's economic and commercial 
development has yielded encouraging results. Cape Verde's first 
Millennium Challenge Compact was successfully completed in 2010, 
producing significant gains in all three of its projects, namely: (1) 
improvements in transportation networks facilitating integration of 
internal markets; (2) improvements in water management and soil 
conservation, which promoted increases in farms profits and incomes; 
and, (3) support to Cape Verdean microfinance institutions. Cape 
Verde's continued strong governance performance resulted in its 
selection as the first country to qualify for a second Millennium 
Challenge Compact. It is my hope, if confirmed, to engage Cape Verde in 
consolidating these gains.
    Peace Corps activities have contributed to strengthening Cape 
Verde's civil society since 1988. The 50-plus Volunteers currently 
serving across seven islands work with the Cape Verdean Government to 
enhance the teaching of English as a second language, train English 
language instructors, and develop small enterprise and 
entrepreneurship. If confirmed, I intend to build upon Peace Corps 
successes to encourage higher education opportunities and stimulate 
small business development with U.S. partners.
    Mr. Chairman, prior assignments to U.S. missions in Lusophone 
nations, Portugal, Brazil, and Mozambique, have equipped me with the 
cultural knowledge and language skills to connect smoothly with the 
Cape Verdean Government and people. Similarly, if confirmed, I will 
draw upon expertise gained in positions of leadership I have held 
throughout my 28-year tenure in the Foreign Service to address the 
peculiar challenges entailed in managing the U.S. mission in Cape 
Verde. These include a small and crowded workspace and the mentoring of 
entry-level officers who staff the majority of the Embassy's positions. 
In addition, if confirmed, I intend to uphold and execute the primary 
responsibility of every United States Embassy, which is to promote the 
safety and welfare of Americans citizens abroad.
    I would now be pleased to answer any of your questions.

    Senator Coons. Thank you, Ms. O'Neal.
    Ms. Leonard.

    STATEMENT OF MARY BETH LEONARD, OF MASSACHUSETTS, TO BE 
               AMBASSADOR TO THE REPUBLIC OF MALI

    Ms. Leonard. Chairman Coons, Ranking Member Isakson, 
members of the committee, it is an honor to appear before you 
today as the nominee to be the next United States Ambassador to 
the Republic of Mali. I am grateful for the confidence the 
President and Secretary of State have shown by nominating me to 
this position and for the support of Assistant Secretary for 
African Affairs, Johnnie Carson.
    First, Mr. Chairman, let me acknowledge family and friends 
and colleagues who are like family who are here today. I am 
accompanied by my sister Ann Marie Stroika and her husband 
David; and behind them, by a cousin, Matthew Kerry. I am also 
delighted to welcome Ambassador Johnny and Mrs. Angelina Young, 
as well as valiant Mali Desk Officer, Manuela Borges, and other 
colleagues from African Affairs.
    I would also like to acknowledge and signal my gratitude 
for the presence of Ambassador Toure who is Mali's Ambassador 
to the United States.
    Mr. Chairman, if confirmed, I look forward to leading 
Embassy Bamako and advancing U.S. interests in Mali, a 
constitutional democracy rooted in principles of free 
expression and tolerance that offers an example for West Africa 
and beyond. These qualities make Mali a valued partner for the 
United States.
    Our main interests in Mali lie in consolidating that 
democracy, furthering economic development, and countering the 
incursion of terrorism that threatens Mali's physical security 
as well as its most cherished ideals.
    Mali is poised to enter a new era in its democratic 
journey. President Amadou Toumani Toure has made clear his 
intention to leave office at the end of his second term next 
June as prescribed by the constitution. If confirmed, I would 
look forward to shaping U.S. activities to encourage 
constructive popular participation in the 2012 elections and to 
support ongoing democratic consolidation.
    Mr. Chairman, the environment for addressing security 
challenges in the Sahel, notably the threat posed by al-Qaeda-
linked terrorists, Al Qaeda in the Islamic Maghreb, or AQIM, is 
also evolving. Events in Libya pose delicate challenges for 
Mali as it ponders the possible impact of combatants and 
weaponry leaking into an already uncertain Sahel. This prospect 
provides a powerful impetus for cooperation among Mali and its 
neighbors to safeguard the Sahel. This regional 
counterterrorism cooperation is an important counterpart to 
United States efforts to build the capacity of Mali's military, 
and I would be honored to further hone these activities to 
Mali's needs and plans, if confirmed.
    Mr. Chairman, U.S. development efforts bring well focused 
interventions in health, education, agriculture, and governance 
to what remains a desperately poor nation. These programs are 
closely integrated with our democracy and counterterrorism 
goals in a well-coordinated interagency effort. In 
decentralizing the provision of health and education services, 
we also help Mali amplify the message at the heart of the 
essential contract of democracy, that a government exists to 
serve its people. In the remote north of Mali, an area that 
faces terrorist incursions, development reinforces the tolerant 
Malian people's rejection of extremism and strengthens the ties 
that bind the state with even its farthest flung citizens.
    Finally, Mr. Chairman, if confirmed, my highest priority 
will be the protection of Americans and American business 
interests, including mission personnel, living and traveling in 
Mali. I would look forward to engaging U.S. businesses and 
nongovernmental organizations on consular and security matters.
    The mission is fortunate to have occupied a new embassy 
compound nearly 5 years ago. One of the most impressive 
structures in Bamako, it is an important symbol of our long-
term commitment to Mali. If confirmed, I would be closely 
engaged in ensuring the good stewardship of this significant 
U.S. Government investment.
    Mr. Chairman, I believe my Foreign Service experience to 
date has prepared me to serve as Ambassador to Mali. Should the 
Senate's confirmation permit me to return to Bamako where, as 
you noted, I previously served as Deputy Chief of Mission 
before becoming West African Affairs Director, I hope that my 
familiarity with Malian issues and contacts would serve our 
interests well. Many of Mali's finest citizens make up the 
locally employed staff at our Embassy, and it would be an honor 
to work with them again as Ambassador to Mali.
    If confirmed by the Senate, I look forward to working 
closely with you and other members of the committee and would 
hope to welcome you to Bamako during my tenure.
    Mr. Chairman, thank you again for the honor to appear 
before the committee today, and I would be happy to take any 
questions you may have.
    [The prepared statement of Ms. Leonard follows:]

                Prepared Statement of Mary Beth Leonard

    Chairman Coons, Ranking Member Isakson, members of the committee, 
it is an honor to appear before you today as the nominee to be the next 
United States Ambassador to the Republic of Mali. I am grateful for the 
confidence the President and Secretary of State have shown by 
nominating me to this position, and for the support of Assistant 
Secretary for African Affairs Johnnie Carson.
    First, Mr. Chairman, let me acknowledge several family members and 
friends and colleagues who are like family here today.
    Mr. Chairman, if confirmed, I look forward to leading Embassy 
Bamako in advancing U.S. interests in Mali, a constitutional democracy 
rooted in the principles of free expression and tolerance that offers 
an example for West Africa and beyond; these qualities make Mali a 
valued partner for the United States. Our main interests in Mali lie 
in: consolidating that democracy; furthering economic development; and 
countering the incursion of terrorism that threatens Mali's physical 
security as well as its most cherished ideals.
    Mali is poised to enter a new era in its democratic journey. 
President Amadou Toumani Toure has made clear his intention to leave 
office at the end of his second term next June as prescribed by the 
Constitution. If confirmed, I would look forward to shaping U.S. 
activities to encourage constructive popular participation in the 2012 
elections and support ongoing democratic consolidation.
    Mr. Chairman, the environment for addressing security challenges in 
the Sahel--including, but not limited to, the threat of al-Qaeda-linked 
terrorists--is also evolving. Events in Libya pose delicate challenges 
for this near-neighbor, as it ponders the possible impact of combatants 
and weaponry leaking into an already uncertain Sahel. This prospect 
provides a powerful impetus for cooperation among Mali and its 
neighbors to safeguard the Sahel. This regional counterterrorism 
cooperation is an important counterpart to U.S. efforts to build the 
capacity of Mali's military, which I would be honored to further hone 
to their needs and plans if confirmed.
    Mr. Chairman, U.S. development efforts bring well-focused 
interventions in health, education, agriculture, and governance to what 
remains a desperately poor nation. These programs are closely 
integrated with our democracy and counterterrorism goals in a well-
coordinated interagency effort. In decentralizing the provision of 
health and education, we also help Mali amplify the message at the 
heart of the essential contract of democracy--that a government exists 
to serve its people. In the remote north of Mali--an area that faces 
terrorist incursions--development reinforces the tolerant Malian 
people's rejection of extremism as espoused by AQIM, and strengthens 
the ties that bind the state with even its farthest flung citizens.
    Finally, Mr. Chairman, if confirmed, my highest priority will be 
the protection of Americans and American business interests, including 
mission personnel, living and traveling in Mali. I would look forward 
to engaging U.S. businesses and nongovernmental organizations on 
consular and security matters. The mission is fortunate to have 
occupied a New Embassy Compound nearly 5 years ago. One of the most 
impressive structures in Bamako, it is an important symbol of our long-
term commitment to Mali. If confirmed, I would be closely engaged in 
ensuring the good stewardship of this significant U.S. Government 
investment.
    Mr. Chairman, I believe my Foreign Service experience to date has 
prepared me to serve as Ambassador to Mali. Should the Senate's 
confirmation permit me to return to Bamako, where I previously served 
as Deputy Chief of Mission before becoming West African Affairs 
Director, I hope that my familiarity with Malian issues and contacts 
would serve our interests well. Many of Mali's finest citizens make up 
the Locally Employed Staff at our Embassy, and it would be an honor to 
work with them again as Ambassador to Mali. If confirmed by the Senate, 
I look forward to working closely with you and other members of the 
committee, and would hope to welcome you to Bamako during my tenure.
    Mr. Chairman, thank you again for the honor to appear before the 
committee today. I would be happy to take any questions you may have.

    Senator Coons. Thank you, Ms. Leonard.
    Mr. Brzezinski.

       STATEMENT OF MARK FRANCIS BRZEZINSKI, OF VIRGINIA,
                   TO BE AMBASSADOR TO SWEDEN

    Mr. Brzezinski. Chairman Coons, Ranking Member Isakson, 
Senator Lugar, and distinguished members of the Senate Foreign 
Relations Committee, thank you for the privilege of appearing 
before you today. I am deeply grateful to President Obama and 
Secretary Clinton for their support and confidence in 
nominating me to be the United States Ambassador to the Kingdom 
of Sweden. If confirmed by the Senate, I pledge to devote all 
my energy to represent the United States to the best of my 
ability.
    Let me add my heartfelt thanks to you, Chairman Coons, 
Ranking Member Isakson, and Senator Lugar, for the words that 
you said at the outset of this hearing. It is one of the 
proudest days of my life.
    I want to also acknowledge that Swedish Ambassador Hafstrom 
is here today.
    If you will permit me, I would like to introduce to the 
committee my wife, Natalia Brzezinski. We are the very proud 
parents of Aurora Emilie, a rambunctious and wonderful little 
girl, aged 2 and a quarter. Life is a team sport and our little 
family is the source of so much pride, love, and support.
    My wife and I are both children of immigrants from Eastern 
Europe. My father and mother, immigrants from prewar Poland and 
Czechoslovakia respectively, instilled in me the belief that 
public service is the highest calling and that America is a 
beacon for the world.
    As a Fulbright grantee in Eastern Europe just after the 
collapse of the Berlin Wall, I witnessed how important American 
leadership is for democratic development and free market 
growth. This lesson has informed my experiences in 
international affairs since then, from my service on the 
National Security Council in the 1990s to my private legal 
practice where I counsel companies on anticorruption 
compliance. If confirmed, I will bring these experiences with 
me to Sweden, which is such an important partner in promoting 
democracy, human rights, and economic growth around the world.
    Sweden has risen to the global security challenges of our 
time and joined with the United States and other countries as 
an active contributor in international security missions. For 
example, Sweden contributes to the NATO missions in Afghanistan 
and Libya.
    Sweden understands, as does America, that military and 
diplomatic efforts are not the only tools for combating 
instability. Development plays a very important role. If 
confirmed, I pledge to advance the United States-Swedish 
cooperation on democratic development from Belarus to Ukraine 
to the Middle East and North Africa and beyond.
    America and Sweden are committed to combating terrorism and 
preventing violent extremism. In the last year, the suicide 
bombing in Stockholm, the horrific attacks in Norway, and the 
arrests of terrorist cells in the region highlight that 
counterterrorism is a common focus in our bilateral and 
regional relationships.
    The United States and Sweden share a strong commitment to 
political participation of women. This is personified by the 
inclusion of Sweden's former Minister of Enterprise and Energy, 
Maud Olofsson, on Secretary Clinton's International Council on 
Women's Business Leadership. If confirmed, I pledge to advance 
our collaboration with Sweden to promote women in politics and 
business.
    The United States and Sweden share an important trading 
partnership and a commitment to green energy. If confirmed, I 
will build on the close cooperation our Embassy has forged with 
Sweden on alternative energy and environmental sustainability.
    This year, Sweden took over the rotating chairmanship of 
the Arctic Council. If confirmed, I look forward to working 
with Sweden to advance our common goals of protecting the 
environment and conserving the Arctic's biological resources 
while promoting economic cooperation and protecting Arctic 
communities with other Arctic Council members.
    As a former Fulbright recipient, I appreciate the value of 
international exchange programs. If confirmed, I envision 
fostering further support for exchange programs, especially 
those that advance green energy and clean technology.
    Let me close with a personal story. My grandfather, Tadeusz 
Brzezinski, served as Poland's consul general in Leipzig, 
Germany, from 1931 to 1935. As consul general, he provided 
Polish passports to Jews, even if they were not Polish 
citizens, so they could be freed from imprisonment or leave 
Nazi Germany. His story is part of what informs my belief that 
public service is the highest calling. In 2012, Sweden will 
celebrate the 100th anniversary of the birth of Raoul 
Wallenberg, a diplomat whose efforts to save Hungarian Jews 
from the Holocaust clearly demonstrate what a difference one 
person can make. If I am confirmed, it will be my mission to 
advance the American-Swedish relationship in a way that honors 
the spirit of Wallenberg's legacy.
    Thank you for your time, and I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Brzezinski follows:]

                Prepared Statement of Mark F. Brzezinski

    Chairman Coons, Ranking Member Isakson, and distinguished members 
of the Senate Foreign Relations Committee, thank you for the privilege 
of appearing before you today. I am deeply grateful to President Obama 
and Secretary Clinton for their support and confidence in nominating me 
to be the United States Ambassador to the Kingdom of Sweden. If 
confirmed by the Senate, I pledge to devote all my energy to represent 
the United States to the best of my ability.
    If you will permit me, I would like to introduce to the committee 
my wife Natalia Brzezinski. We are the very proud parents of Aurora 
Emilie--a rambunctious and wonderful little girl--age two and a 
quarter. Life is a team sport, and our little family is the source of 
so much pride, love, and support.
    My wife and I are both children of immigrants from Eastern Europe. 
My father and mother, immigrants from prewar Poland and Czechoslovakia 
respectively, instilled in me the belief that public service is the 
highest calling and that America is a beacon for the world. As a 
Fulbright grantee in Eastern Europe just after the collapse of the 
Berlin Wall, I witnessed how important American leadership is for 
democratic development and for free market growth.
    This lesson has informed my experiences in international affairs 
since then, from my service on the National Security Council in the 
1990s to my private legal practice, where I counsel companies on 
anticorruption compliance. If confirmed, I will bring these experiences 
with me to Sweden, which is such an important partner in promoting 
democracy, human rights, and economic growth around the world.
    Sweden has risen to the global security challenges of our time and 
joined with the United States and other countries as an active 
contributor to international security missions. For example, Sweden 
contributes to the NATO missions in Afghanistan and Libya.
    Sweden understands, as does America, that military and diplomatic 
efforts are not the only tools for combating instability--development 
plays a very important role. If confirmed, I pledge to advance United 
States-Swedish cooperation on democratic development, from Belarus and 
Ukraine, to the Middle East, and North Africa.
    America and Sweden are committed to combating terrorism and 
preventing violent extremism. In the last year, the suicide bombing in 
Stockholm, the horrific attacks in Norway, and the arrests of terrorist 
cells in the region highlight that counterterrorism is a common focus 
in our bilateral and regional relationships.
    The United States and Sweden share a strong commitment to political 
participation of women. This is personified by the inclusion of 
Sweden's former Minister of Enterprise and Energy, Maud Olofsson, on 
Secretary Clinton's International Council on Women's Business 
Leadership. If confirmed, I pledge to advance our collaboration with 
Sweden to promote women in politics and business.
    The United States and Sweden share an important trading partnership 
and a commitment to green energy. If confirmed, I will build on the 
close cooperation our Embassy has forged with Sweden on alternative 
energy and environmental sustainability.
    This year Sweden took over the rotating chairmanship of the Arctic 
Council. If confirmed, I look forward to working with Sweden to advance 
our common goals of protecting the environment and conserving the 
Arctic's biological resources while promoting economic cooperation and 
protecting Arctic communities with other Arctic Council members.
    As a former Fulbright recipient, I appreciate the value of 
international exchange programs. If confirmed, I envision fostering 
further support for exchange programs, especially those that advance 
green energy and clean technology.
    Let me close with a personal story. My grandfather, Tadeusz 
Brzezinski, served as Poland's consul general in Leipzig from 1931 to 
1935. As consul general, he provided Polish passports to Jews, even if 
they were not Polish citizens, so they could be freed from imprisonment 
or leave Nazi Germany. His story is part of what informs my belief that 
public service is the highest calling. In 2012, Sweden will celebrate 
the 100th anniversary of the birth of Raoul Wallenberg, a diplomat 
whose efforts to save Hungarian Jews from the Holocaust clearly 
demonstrate what a difference one person can make. If I am confirmed, 
it will be my mission to advance the American-Swedish relationship in a 
way that honors the spirit of Wallenberg's legacy.
    Thank you for your time and I look forward to your questions.

    Senator Coons. Thank you, Mr. Brzezinski, and thank you to 
all four of our witnesses today both for sharing with us your 
professional background, your familial and professional 
supporters who are present with us, and your views about the 
challenges and opportunities you face in the nations to which 
you will be going, should the Senate confirm you.
    We are now going to begin rounds of 7-minute questions. My 
first question is for Ms. Page, Ambassador-nominee to South 
Sudan.
    Ms. Page, you mentioned in your testimony that South Sudan 
has unique oil wealth, yet enormous development challenges, and 
that the United States has carried much of the development 
assistance burden or opportunity in the last decade with this 
region of Sudan. How will you accomplish the goal of, as you 
put it, multilateralizing development investment in South 
Sudan, and how do you strike a balance on two issues, sanctions 
that were previously imposed on Sudan but do not apply to South 
Sudan, but much of South Sudan's oil must go through the north? 
How do we manage through our own sanctions and then, second, 
what is going to be the most effective tool for you in dealing 
with corruption, fighting corruption? Several of you referenced 
your work in transparency and anticorruption, and I am 
particularly interested in what you view as the major resource 
you need to be successful in that.
    Ms. Page
    Ms. Page. Thank you very much, Mr. Chairman.
    In terms of multilateralizing our assistance, one of the 
areas that we plan to work on quite soon is an international 
engagement conference. This will provide the Republic of South 
Sudan the opportunity to show off what it has in terms of 
resources, to explore with the international community at large 
what it would be like to invest in Sudan, what their own 
priorities are for development, for support to companies and 
businesses. We are planning to host that conference with both 
Turkey, as well as with the assistance of our troika partners, 
our traditional partners that helped with the peace agreement. 
That is Norway and the United Kingdom. We are hoping to host 
that before the end of the year. So it would be really not a 
pledging conference but more like an investment conference, an 
opportunity for South Sudan to provide its vision for 
development and assistance, as well as for investors to see 
what the opportunities are.
    In that light, it is important that people understand that 
while the sanctions do not formally apply to South Sudan, that 
it does have a clean slate, it is important that they know that 
we are exploring opportunities with the Treasury Department's 
Office of Foreign Assets Control to make it clear to people--
they have put out some new explanatory regulations that make it 
clear what U.S. persons and U.S. businesses have to do. But 
there is still the likelihood that they would have to apply for 
a license. And I think what we are hoping to have in the near 
future would be some companies apply for licenses so that we 
have something to actually act upon. So those are some of the 
ways that we hope to go forward.
    With respect to corruption, I believe it is important to 
note what President Salva Kiir has recently said both before 
the United Nations General Assembly as well as at independence 
during the inauguration of the South Sudan Legislative 
Assembly, and he has pledged to root out corruption. Of course, 
we need more than just words. But one of the steps that he has 
taken is to allow the Anti-Corruption Commission to have 
prosecutorial powers. So as lawyers ourselves, we know how 
important that is to be able to provide accountability and to 
bring people to justice when these types of incidents occur. I 
think good governance is going to be key to that, and the South 
Sudanese will need to make sure that the legislature, 
especially with the development of the new constitution, 
provides for those opportunities to strengthen the legislative 
regime to be able to have oversight of the bodies that are 
doing procurement, making sure that there is accountability. So 
these would be some of the areas that I would be looking to 
work with them on.
    Senator Coons. Thank you, Ms. Page.
    I also want to specifically thank your husband, Damien, and 
son, Marius, for their willingness to have you go to this post 
that will be, I know, quite a challenge.
    I am going to jump, if I might, to Mr. Brzezinski around 
those same questions about anticorruption, something you have 
worked on professionally. A development partnership is 
something you mentioned in your testimony. Sweden is renowned 
for its effective engagement in development assistance, 
particularly in the energy field, and a number of Scandinavian 
countries, most principally Norway, have a great record of 
having been good stewards of their mineral and petroleum 
resources in a way that they have shared with African nations.
    Please, if you would, share with us, Mr. Brzezinski, how 
you hope to build on our relationship with Sweden as effective 
development partners in ways that might advance United States 
interests both in counterterrorism and in stabilizing nations 
which we hope to see move toward peace and security.
    Mr. Brzezinski. Thank you, Senator, for the question.
    You are right. Sweden has a remarkable record of generosity 
when it comes to development assistance and has a standing 
policy of devoting 1 percent of its GDP annually to overseas 
development assistance. So in real numbers in 2011, that means 
$5.7 billion from a country of 9 million people being devoted 
to development assistance outside its borders. And it has done 
so very constructively.
    Within the region of, say, north central Europe, you take a 
look at the way Sweden is engaged in promoting energy 
diversification in the Baltic States, human rights in Belarus, 
rule of law in Ukraine, and through the EU leading the Eastern 
Partnership to expand Europe.
    In Africa, its engagement in the Horn of Africa in Somalia 
is in the many millions of dollars, and in this age of 
austerity here in America, there are ample opportunities to 
explore with the Swedes ways that we can collaborate to advance 
our shared objectives, whether it is antipoverty, environmental 
protection, rule of law, and the like.
    Senator Coons. Thank you, Mr. Brzezinski. I was pleased to 
hear Ambassador Hafstrom has joined us today. As I mentioned to 
you, he was with me in Wilmington, DE, the first site of the 
landing of Swedes in America, at a celebration of that just 2 
weeks ago.
    And I am also grateful to your wife, Natalia, and your 
daughter, Aurora, for her rambunctiousness----
    [Laughter.]
    Senator Coons [continuing]. And her willingness to serve 
like you. I know that public service is a team sport.
    With that, Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Ms. Page, I have read that there is some conversation about 
some in the South Sudan wanting to move the capital from Juba. 
Do you have an opinion on that? Is that movement growing?
    Ms. Page. Yes, thank you, sir.
    Actually they have talked about moving the capital to a 
location where they would have more space, but my understanding 
is that that would be a move that is more like 20 years away as 
opposed to something immediately. So that, I hope, will not 
preclude us from moving forward with a new embassy compound 
which I think is really going to be very critical as we 
increase our staffing and our footprint in South Sudan.
    Senator Isakson. Thank you.
    You know, the chairman and I traveled to West Africa in May 
and June, and it occurs to me, based on listening to your 
testimony, that there are two people you might use as a 
resource as you deal with the developments in the Government in 
South Sudan. One is Commissioner Jega in Nigeria, who was the 
commissioner of elections who really conducted the first 
democratic elections that the public accepted in the history of 
Nigeria. The chairman and I had the chance to meet with him. He 
is probably one of the most competent people I think I have 
ever had the privilege of meeting with. And the other is 
President Mills in Ghana. President Mills probably has done a 
good, if not the best, job in West Africa in terms of rooting 
out corruption, both in his government, as well as in the 
business community. And both of them are big on democracy and I 
am sure would be supportive. So if you get the chance to meet 
with them, I think they would be of help to you.
    One other question regarding South Sudan. The north Sudan 
is pretty much Muslim. South Sudan is more Christian. Is that 
not correct?
    Ms. Page. Correct.
    Senator Isakson. Other than the oil issue in Abyei, was the 
proximity of Muslims and Christians to each other in Abyei also 
a part of the problem?
    Ms. Page. Thank you, sir.
    No, not so much. It is less of a religious issue over Abyei 
and more--not even so much oil really. It is ancestral 
territory and people have been using Abyei to transit the north 
and the south. It has really always acted as a bridge, not so 
much between Muslims and Christians as much as between the 
north of the country and the south of the country. So I think 
the recognition that it is ancestral territory for the Ngok 
Dinka, as well as an important place for the nomadic ethnic 
groups, notably the Misseriya, but there are many others as 
well who transit through the area to graze their cattle. So 
this will be something that will be important as they resolve 
the boundaries and the border dispute to make sure that people 
still have access even if they are crossing partly an 
international border so that they can continue to have feed 
livestock that is fed and watered.
    Senator Isakson. Well, Abyei probably is the single biggest 
challenge to South Sudan and north Sudan developing a peaceful 
future. That is going to be a big challenge for you and we wish 
you the best of luck.
    Ms. Page. Thank you very much, sir.
    Senator Isakson. Mr. Brzezinski, I have never seen anybody 
who has been published as much as you have been published. It's 
about eight pages of titles. And as I am looking through the 
titles, I noticed that you probably ought to be a part-time 
consultant to these three ambassadors because you have written 
extensively on corruption and even written on the state 
sanctions against north Sudan with regard to terrorism, if I am 
not mistaken. Is that correct?
    Mr. Brzezinski. That is right.
    Senator Isakson. So you all ought to use him as a part-time 
advisor because he has written extensively on both of those 
subjects.
    And on the subject, the article you wrote about North Korea 
and South Sudan in 2006--I do not know if you recall it, but I 
think that was about the sanctions we imposed on north Sudan in 
terms of state sponsorship of terrorism. Is that not correct?
    Mr. Brzezinski. Right.
    Senator Isakson. I think it is important to note that we 
leveraged that to get the north Sudanese to actually come to 
the table, turn around what they were doing, and in fact they 
will be going off that state sponsorship as a part of the deal 
to get these elections conducted peacefully. So I am sure you 
had no idea in 2006 you would be testifying here in 2011, but I 
think Ambassador Page would recognize that was probably one of 
the keys to pulling off the Comprehensive Peace Agreement. And 
your knowledge of that might also be a good consulting 
knowledge as far as they are concerned as well.
    Last, when you go to Sweden, I want you to go to Ostersund, 
and when you go to Ostersund, you go to my grandfather's farm. 
His heirs are still there. It is the geographic center of 
Sweden. It is the last stop before the Arctic. So be sure and 
go by and visit them and give them my regards, if you will.
    Mr. Brzezinski. Senator, my wife and I will commit to going 
to Ostersund. We cannot wait to get there.
    Senator Isakson. You will love it when you get there.
    Mr. Brzezinski. On sanctions, if I could just build on your 
highly accurate words, one of the things that we have seen 
Sweden join us in is on sanctioning countries that we have 
sanctioned like Iran and Syria. Sweden has joined the U.N. 
sanctions on Iran, the EU sanctions on Iran, and I think it 
sends an important and global message to the Iranians through 
that tool.
    On Syria, particularly given recent developments in Syria, 
the Swedes have refused to purchase and have stopped the 
purchase of Syrian petroleum, and they have sanctioned high-
level Syrian officials, including President Assad, which also 
sends a key message at a key time.
    So thank you, Senator, for your point on sanctions.
    Senator Isakson. Well, and thank you for referring to the 
Swedes in the U.N. and with their aid in Afghanistan. I think 
they are No. 1 in terms of accepting refugees from Iraq in that 
conflict. It is a great country and they have been a great 
partner with the United States in trying to seek out peace in 
the Middle East and will be a key to that as it is ongoing in 
Sweden, and your help will be tremendously valuable as well. So 
thank you for mentioning that.
    Mr. Brzezinski. Thank you, Senator. And as you know, Sweden 
is not a member of NATO, but they have joined NATO missions and 
operations in Kosovo, in Afghanistan, 500 troops in 
Afghanistan. They lead a PRT in Mazar-i-Sharif and in Libya 
where they contribute reconnaissance and surveillance aircraft. 
So even though they are not a formal member of NATO, they have 
joined us in deed. And I think that that is very important.
    Senator Isakson. And they have recently made additional 
commitments of financial investment in Afghanistan in terms of 
women's education and other areas as well, which is greatly 
appreciated.
    Thank you very much. Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Ms. O'Neal, you have described the number of Americans in 
Cape Verde or those who have come from Cape Verde to the United 
States. Give some background as to why these relationships 
occur and why so many citizens are coming and going from the 
two countries.
    Ms. O'Neal. Thank you, sir, for that question.
    There has always been a strong relationship between America 
and Cape Verde, but the consequence of two seasons of drought 
really inspired a strong exodus of Cape Verdeans to America and 
to other places. Americans of Cape Verdean descent have always 
kept close ties with Cape Verdeans on the island, and 
remittances from Americans of Cape Verdean descent are about 15 
percent of the economy. And so it has always been a very strong 
relationship and it continues to grow.
    I understand that there have been a lot of conversations 
about whether or not a second MCC compact for Cape Verde, and I 
would just like to interject in that context that Cape Verde is 
a country whose relative size and population does not 
adequately reflect the magnitude of its accomplishments and of 
its potential to be a role model in the region. Cape Verde, 
since 1975 when it was liberated from the Portuguese, has 
demonstrated strong democratic governance. And additional aid 
from us would allow Cape Verde to hone its already burgeoning 
institutions to levels of efficiency that are unprecedented in 
the developing world.
    Cape Verde is one of two countries in Africa that has 
managed to move its economy from a lower income classification 
to a lower middle-income classification. With a little bit more 
assistance from us, it could be that Cape Verde could move its 
economy toward an economy that is not donor-driven solely but 
that is based on private sector revenues and enjoy those 
underpinnings as well.
    Finally, the location of Cape Verde makes it a natural 
partner for us in terms of maritime security and in terms of 
combating illicit drugs and other products that might be coming 
through the islands to Africa and to Europe. The United States 
Coast Guard has acknowledged that Cape Verde is its strongest 
partner in the region, and I think with added assistance, a bit 
more assistance from us, this partnership can become much 
larger and can be a leader in terms of training other West 
African countries in these types of activities.
    So if I am confirmed, I will support Cape Verde in all of 
these areas, and in the event that there would be a second MCC 
compact awarded to Cape Verde, as Senator Obama's 
representative on the ground, I would engage with the Cape 
Verdean Government and with Cape Verdean institutions to ensure 
that each of the collateral projects of that compact would be 
executed with efficiency, with productivity, and with 
transparency.
    Thank you.
    Senator Lugar. Well, thank you very much for that 
information. It was very comprehensive.
    Ms. Page, we have had testimony before this committee 
within the past year, as affairs in Sudan as a whole evolved, 
that independence for South Sudan was probable. Then it became 
reality. But at the same time, as you have mentioned in your 
testimony, the independence is not necessarily threatened but 
under stress as you go to this new state. At least we have had 
some testimony that the boundaries, even the independence of 
some sections of the country may be in some jeopardy. What is 
your own view of this? And what should the United States 
position be? How will you react and how will you lead in this 
situation?
    Ms. Page. Thank you, Mr. Senator.
    I believe it is very critical that we encourage strongly 
the partners to return to the negotiating table. There are 
outstanding issues. There has been some progress made, but on 
oil revenues and at least sharing whatever kind of pipeline 
arrangement that they make really needs to be solidified and 
quite quickly. Right now, both sides are allowing the oil to 
continue to flow and to be exported, but without something 
solid pretty quickly, both countries will really face some 
serious economic stresses.
    Already the north, Sudan, has lost a significant portion of 
its oil revenues, but economically prices are increasing, 
people are starting to feel the pinch of the loss of a third of 
their territory. Cross-border trade is being hindered. Some of 
that is partial. Some of that is purposeful I believe. And it 
is important that they make sure that those links continue.
    Special Envoy Lyman has been in negotiations with the 
parties, with both Khartoum and Juba, or with the Sudan and 
South Sudan, to try to encourage at least the central bank 
governors to develop a partnership so that they can work out 
some of these details and the arrangements because so much of 
it depends on the kind of relationships. And the longer these 
crises go on between the SPLM-North in Sudan and the National 
Congress Party or the Sudan armed forces, the more the 
likelihood is that things will not be resolved quickly. So I 
think negotiations are really critical and I think we need to 
continue to support the AU High-Level Implementation Panel, 
Special Envoy Lyman, and the U.N. Special Representative, Haile 
Menkarios, to try to continue to carry out these negotiations.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Lugar.
    I would like to turn, if I could, in our second round of 
questions first to Ms. Leonard and to thank your professional 
supporters for being here as well and encouraging you.
    You made reference to the Tuareg, to the sort of remote 
corners of the far north of Mali and to the real threat opposed 
to the Malian tradition of tolerance and central government by 
AQIM. Speak, if you would, just in a little more detail about 
what is the scope and nature of the threat posed by al-Qaeda in 
the Islamic Maghreb, and how do you think the Government of 
Mali will be most effectively able to counter armed terrorists 
in the vast and fairly remote northern part of the country. And 
then how does the historic dynamic with the Tuareg who have 
often felt disenfranchised and lacked security and at times 
engaged in active rebellion against the central government--how 
can development assistance, how can security assistance from 
the United States--how can you in your role, should you serve 
as our Ambassador, help the nation of Mali address these core 
challenges?
    Ms. Leonard. Thank you, Senator, for that question.
    I think the Government of Mali is acutely aware of the 
negatives associated with the presence of AQIM in its 
uncontrolled territories. It is a threat to their ability to 
carry out development activities in the north, which is very 
closely related to the political accommodations that have 
helped resolve past Tuareg rebellions. So that is a very 
important linkage there. It has been a big threat and it has 
really decimated tourism in many areas. And it is also a threat 
to their international reputation in the sense that people 
wonder why the problem has not already gone away.
    I would characterize the presence of AQIM in Mali very much 

as an incursion onto their territory. No one in the north of 
Mali or hardly anyone in the north of Mali--the extremist 
message of AQIM does not find purchase among Malians, whether 
they be Tuareg, Barabeesh, or from southern areas in Mali are 
not attracted by that sort of extremist ideology. So it is 
rather an incursion onto a territory than a case of actually 
converting people in Mali to that cause.
    I think it is safe to say that AQIM aspires to become 
something much more threatening than it is now, but that is not 
a reason to be complacent. That is a reason to prevent them 
from attaining those aspirations.
    In order for Mali to successfully combat and make 
ineffective the presence of AQIM on their territory, I think 
that they need three or four things. They need assistance in 
developing the capacity of their military. They need equipment 
for the logistics of such operations, and most importantly, 
they need the cooperation of all of their neighbors because no 
one military in that region is, in fact, capable of combating 
it. It needs to be a joint effort.
    In terms of U.S. assistance, we are involved very much not 
only on those first two areas of military capacity and 
equipment provision, but also in the development side of it. 
You are trying to bring development to the north of Mali so 
that, for example, you do not disappoint the hopes of the 
Tuareg people who accepted that sort of as the basis of the 
political accommodation and cause an internal distraction that 
would make it difficult for Mali to participate in activities 
against AQIM. You engage in, for example, community radio 
training and programmings to reinforce the ties between the 
state and the people to reinforce the inherent tolerance.
    I think on the last point of regional cooperation, events 
in Libya have very much sharpened the focus of attention of the 
various regional partners in that cooperation.
    Over time, the cooperation has sometimes faltered because 
of domestic diversions for individual partners or trying to 
come to a common strategy. I think as they view the 
increasingly scary place that the Sahel can become as 
combatants and arms come into the area, you are seeing a much 
more acute awareness of the need to cooperate quickly as 
evidenced most recently by a meeting of Foreign Ministers in 
Bamako and also a meeting in September in Algiers which also 
invited the outside donors and participants.
    If I am confirmed, I would look forward to further honing 
and refining not only with Mali but with my colleagues in the 
region about how we might best support those efforts to ensure 
that AQIM does not become the much more dangerous thing that we 
would all fear and ceases to threaten the security and the 
development of northern Mali.
    Thank you.
    Senator Coons. Thank you, Ms. Leonard, for that thorough
and thoughtful answer about the regional potential solutions to 
security.
    Ms. O'Neal, if I might, I would like to turn back to the 
conversation that Senator Lugar started about the second MCC 
opportunity that Cape Verde faces. My father was long active in 
the fishing industry in Rhode Island and Massachusetts, and so 
the size and scope of the Cape Verdean diaspora population in 
New England is familiar to me.
    One of the things I am trying to urge that we take greater 
advantage of is the opportunity posed by a large African 
diaspora community in the United States which often is involved 
not just in remittances but also in possible entrepreneurial 
activity, building bridges between the United States, our 
institutions, and their nations of origin, much as many other 
nationalities historically in the United States have played 
that bridging role, whether United States-Sweden or elsewhere.
    So if you would, please, comment just two things. Should 
there be a second Millennium Challenge Compact with Cape Verde, 
what would be its principal areas of focus? Would they be the 
same as the first and simply continue them and strengthen them, 
or would there be different priority areas? And help me 
understand how we best justify. You have made a good start. But 
questions have been raised given the relative size of Cape 
Verde of why a second compact there when there are so many 
other nations on the continent that have such great development 
needs.
    And then, second, if you had any comment on how we might 
strengthen trade relations with the United States under AGOA or 
other ways that we might take advantage of the diaspora 
community and strengthen the economy of Cape Verde in 
partnership with the United States. Please.
    Ms. O'Neal. Thank you for that question, Senator.
    I think you are absolutely right that the presence of the 
strong diaspora community here has not been profitably 
exploited. Secretary Clinton has recently set up a program in 
which the Department of State can engage diaspora communities 
and where the Department can actually help to make the ties and 
to inspire the types of commercial activities between them that 
would be profitable for the country. So if I am confirmed, I 
would like to engage in that program and go with the Cape Verde 
Ambassador up to New England to meet some of the players and 
sit down and establish a game plan as to how that would proceed 
going forward.
    In terms of the MCC compact, it is definitely not always 
evident if you look only at Cape Verde's size and population, 
the strong role that it can play in the region in terms of 
being a partner to the United States in terms of upholding the 
goals and values and the foreign policy priorities that we have 
and in terms of being a model for its neighbors because Cape 
Verde has become a country that is looked to in terms of 
practices and techniques and capability for maritime security, 
for example.
    The economy in all of this is key, and the substantial 
gains that have been made in the economic growth because of the 
first compact truly need to be bolstered and reinforced. The 
Millennium Challenge Corporation has upped the ante this time, 
I understand, with this second compact in requiring Cape Verde 
to show strong signs and evidence of becoming a private sector-
based economy. And so things that have already been in 
discussion--there is actually a Cape Verdean Government 
commission to prepare for what would be done in terms of 
regulation and in terms of economic reform in the second 
compact.
    We would need to strengthen, for example, the capacity of 
Cape Verdeans to have credit. They have an outline to opening a 
credit bureau. They have already integrated microcredit into 
the practice of the central bank, but if they were able to 
establish this credit bureau, that would be a key component of 
making available funding for more entrepreneurship and for 
institutions to be able to get credit.
    We also have made strong strides in infrastructure reform 
so that the way that you navigate the islands--and you know, 
managing a 10-island archipelago is more than a notion, but 
making sure that the roads and the ports are more viable and 
can support more activity would be another activity that would 
be addressed by the second compact.
    So I think the second compact is key in getting over a 
major hump for Cape Verde to become a country that can manage 
its own open economic practices rather than depend on other 
countries and other donors to pick up the slack.
    I would also like to assert that when the MCC compact 
projects begin, there is always some buy-in from other 
countries who are our allies, and this is something that the 
MCC corporation has also made as a requirement for Cape Verde 
for the second compact to include a more multilateral approach 
to their development.
    Senator Coons. Thank you very much, Ms. O'Neal.
    Senator Isakson.
    Senator Isakson. Mr. Chairman, unfortunately I have an 
11:15 commitment that I must make. So rather than ask a 
question, let me just congratulate each of you on your 
nomination. I intend to support each one of the nominees for 
their confirmation.
    Let me also add particularly to the three who are going to 
Africa, a lot of times when you go to places, like where you 
are going, you become out of sight, out of mind. We want you to 
know that this subcommittee wants to be a resource of support 
for each of you, especially in a fledgling country like the 
Sudan where resources are going to be important. So we hope you 
will feel free to call on the chairman, myself, and all the 
members. Obviously, the same to Mr. Brzezinski, but Sweden and 
Africa are two entirely different places. All of you have 
important roles, and we congratulate you on your nomination.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you so much, Senator Isakson.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Mr. Brzezinski, let me just note that some in Sweden have 
become concerned about the Nord Stream natural gas pipeline 
that will run from Russia to Germany and will reportedly cross 
part of Sweden's maritime exclusive economic zone. In 
particular, some are concerned with disturbances to the Baltic 
Sea bed where chemical weapons and ammunition have been resting 
since World War I. How do you see the nature of this problem 
both in terms of environmental and energy security consequences 
for Sweden and its neighbors?
    Mr. Brzezinski. Thank you, Senator, for that question.
    It is important to note that Sweden in May took over the 
chairmanship also of the Arctic Council which has an important 
environmental and biological stewardship role as well. And the 
country is very motivated and focused on environmental 
protection, sustainability, climate issues, and the like.
    On the energy side of the question that you asked, I am 
pleased to note that Sweden supports our objectives in 
promoting European energy security by promoting diversification 
of sources and transport corridors. And that is seen in their 
support of the southern corridor to bring Caspian gas through 
Turkey to Europe, of the electric cable from Sweden to 
Lithuania.
    With regard to the specific concerns that you asked about 
the subseabed environmental damage and so forth, if it is OK 
with you, I would like to come back to your office with a more 
complete and thorough answer to that question.
    Senator Lugar. Very good.
    Let me just add this thought that I attended 2 years ago, I 
think, a meeting of the European Union people boosting the so-
called Nabucco pipeline. The idea obviously, just following 
your reasoning, was to have an independent source of oil or 
natural gas or both that were not involved with Russia and 
offered, therefore, a competitive element. It did not exclude 
the Russian natural gas or 
oil coming into other countries, but it would obviate the 
cutoffs and the disruption of service that has occurred in some 
European countries.
    And so I am curious whether--the Nabucco pipeline is, of 
course, much more of a southern European phenomenon, although 
it will come up to Austria and the Czech Republic and what have 
you. Is Sweden involved at all in those conversations? It is 
not clear, in fact, whether Nabucco ever will occur, but as 
with many of these alternatives, they are important at least to 
European countries.
    Mr. Brzezinski. Senator, you are right. And energy 
diversification, diversification of sources, and transport 
corridors is a conversation that we are having with the Swedes 
and with other European partners. To me it is good that they 
join with us in terms of these shared common energy security 
goals.
    With regard to their specific involvement in Nabucco, if it 
is OK with you, I would love to come back to your office with a 
more complete and thorough answer to that question because I 
want to be absolutely spot on in terms of my response.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you very much, Senator Lugar. I am 
grateful you were able to join us today in this confirmation 
hearing. Your questions always add breadth and depth to the 
questioning we are able to conduct.
    Like Senator Isakson, I also have commitments to which I 
need to turn.
    I also serve on other committees and would look to a 
sustained relationship with each of you. On the Judiciary, we 
are considering some possible revisions to the Foreign Corrupt 
Practices Act. On the Energy Committee, the possibility of 
deploying clean energy throughout West Africa in particular but 
throughout the Continent of Africa, hopefully in partnership 
with our technology partners in Sweden, is of genuine interest 
to me.
    And of course, on this committee, I just wanted to echo 
Senator Isakson's invitation to you as you serve as Ambassadors 
in some particularly remote and challenging places and in some 
particularly beautiful and welcoming places. We know that each 
of you face various challenges in terms of your staffing, your 
security, your physical site at the Embassy, and we hope that 
you will communicate with us regularly, allow us, hopefully, to 
be a resource to you. It is our hope to continue to travel 
together regularly to visit the continent and to contribute 
what we can to supporting your endeavors. I am grateful for 
your willingness to appear before the committee and to answer 
all of our questions today.
    Did you have any further questions you wanted to raise 
today?
    I did want to say that we will keep the record open until 
the close of business Friday, October 7, should any of the 
committee members who were not able to join us today have 
questions for you they would like to submit in writing.
    That having been said, we now conclude this hearing.
    Thank you very much.
    [Whereupon, at 11:16 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


           Responses of Susan D. Page to Questions Submitted
                        by Senator John F. Kerry

    Question. What are the particular challenges involved with serving 
as the first Ambassador to South Sudan? Your experience in Sudan and 
with the CPA will clearly be assets in this new position, if confirmed. 
How has your background prepared you to take up the management 
challenges of this post, including the need to begin construction on a 
new Embassy, high turnover of staff with most serving in 1-year 
postings, and other potential issues in this challenging environment?

    Answer. If confirmed as the first U.S. Ambassador to South Sudan, I 
believe the challenges will be many; however, this is a unique, once in 
a lifetime opportunity to work closely with the world's newest nation. 
As the Government of the Republic of South Sudan works to stand up its 
ministries, and build internal capacity, I welcome the opportunity to 
work collaboratively on strengthening a democratic state that promotes 
inclusiveness and good governance. I will also work to reinforce 
accountability and transparency while helping the South Sudanese 
deliver on their promises to end corruption, diversify and develop 
their economy, and improve access to basic social services.
    Facing these challenges is a tall order, and as you noted, I will 
be drawing upon my prior experience negotiating and drafting the 
Comprehensive Peace Agreement (CPA) and my time living and working in 
Khartoum and Juba from 2005 to 2007 while heading up the U.N. 
Peacekeeping Mission's (UNMIS) Rule of Law and Corrections Advisory 
Unit. As the first director for the Rule of Law Unit at the then-newly 
stood up UNMIS, I created the Unit, established all three offices 
(Khartoum, Juba, and Darfur) and recruited all personnel. I then 
supervised and directed a multinational, multilingual staff of 35 
(mostly senior lawyers and corrections officers) in three locations. 
Key to staffing the offices was an ability to understand the hardships 
employees suffered in a nonfamily duty station in difficult conditions. 
For instance, in Juba, employees lived for the first year in tents, 
most without fans, and with shared bathroom and other facilities on a 
compound with staff from numerous backgrounds, customs, and cultures.
    As a Deputy Assistant Secretary, I am responsible for overseeing 
the work of two of the nine offices in the Bureau of African Affairs 
and managing the work of 23 ambassadors and their missions, ensuring 
careful coordination as well as the formulation of strategies and 
implementation of policies. In representing the Bureau at the Kimberley 
Process diamond certification meetings, I served as a key advisor to 
the Assistant Secretaries in resolving key disputes between the African 
block and Western countries, articulating and negotiating solutions. 
Along with the Chief of Mission, Africa Bureau and other Department 
senior leadership, I encouraged the leadership of the Democratic 
Republic of the Congo to hold military and civilian officials 
accountable for sexual- and gender-based violence, mineral 
exploitation, and other atrocities, leading to the recent detention and 
trial of several military officers and the implementation of the 
beginnings of a process to better ensure clean mineral trading and 
protection of civilians. Finally, while in Kenya serving as a regional 
legal adviser, I served as a key member of the task force in the 
evacuation of U.S. citizens from Rwanda at the beginning of the 
genocide and conducted the first USG fact-finding mission on behalf of 
State and USAID to post-genocide Rwanda. I will draw on each of these 
experiences, and they will inform and contribute to my ability to 
navigate the unique set of challenges that both the mission and South 
Sudan will undoubtedly face.
    As the mission footprint grows, so will its needs. The former USAID 
office building is being reconfigured to meet State's needs, including 
consular services, on an interim basis. A New Embassy Compound (NEC) is 
planned for FY 2013. We have sufficient housing to meet current needs. 
If staffing increases, we will address that. We are examining the 
possibility of designating Juba as an accompanied post and extending 
its tour of duty to 2 years; it is currently a 1-year, unaccompanied 
post, separating families and loved ones. As such, it is more important 
than ever that we identify land so that we can move forward with the 
planned New Embassy Compound (NEC), which includes a residential area 
scheduled for FY13 according to OBO's Capital Security Construction 
Program list. The exciting opportunities, and challenges, of working 
with the newest nation in the world are attracting highly professional 
and dedicated Foreign Service officers and South Sudanese staff, with 
immense regional and technical expertise, and morale at post is good.
    An extension of the length of tour would help increase continuity 
and add further depth to the already formidable knowledge base of U.S. 
Government staff. It would also require a thorough review of the 
current security environment as well as programmatic planning to 
address the growing need for both office and residential space for USG 
employees and staff. As I move forward to face these challenges, I will 
work closely with my colleagues in the State Department, and you, 
Members of Congress, to address these issues that will strengthen 
Embassy Juba.

    Question. Section 620J of the Foreign Assistance Act of 1961 
imposes restrictions on assistance to any unit of a foreign country's 
security forces for which there is credible evidence that the unit has 
committed gross violations of human rights. U.S. embassies are heavily 
involved in ensuring compliance with this requirement.

  <bullet> a. If confirmed, what steps will you take to ensure that the 
        Embassy effectively implements section 620J?

    Answer a. If confirmed, I will personally ensure that this is 
incorporated into the work requirement statements for all relevant 
officers and I will further stress to those staff the personal 
importance I place on the mission's full compliance with 620J. As a 
lawyer who has spent the past 15-plus years focused on democracy, rule 
of law, and human rights issues, I will continue to push all sectors of 
the South Sudanese Government to respect human rights and fundamental 
freedoms. In Washington, the Bureaus of African Affairs and Democracy, 
Human Rights, and Labor each conduct vetting procedures, and I will 
direct the staff of Embassy Juba to coordinate with U.N. agencies; 
including the Office of the High Commissioner for Human Rights, that 
are doing human rights monitoring to ensure we have as much information 
as possible. My personal commitment and integration of 620J 
implementation into the work requirement statements of relevant 
officers will create a ``fail-safe'' that will ensure compliance and 
effective implementation of 620J.

  <bullet> b. In particular, what actions will you take to ensure, in a 
        case in which there is credible evidence that a gross violation 
        of human rights has been committed, that assistance will not be 
        provided to units that committed the violation?

    Answer b. Consistent with section 620J of the Foreign Assistance 
Act of 1961, in situations where there is credible evidence of gross 
human rights violations, I will send immediate notice to the State 
Department. The State Department will subsequently notify the Secretary 
of Defense of the findings, so that assistance can be halted if the 
unit has committed a gross violation of human rights, unless all 
necessary corrective steps have been taken.

  <bullet> c. What steps will you take to ensure that the Embassy has a 
        robust capacity to gather and evaluate evidence regarding 
        possible gross violations of human rights by units of security 
        forces?

    Answer c. If confirmed, I will expect relevant staff of Embassy 
Juba to monitor the performance of those security forces we have 
trained, investigate incidences as necessary, and make available the 
relevant embassy resources, and relationships to fully and robustly 
bring resolution to outstanding allegations of gross violations of 
human rights by units of security forces. Furthermore, relevant staff 
of Embassy Juba will be assigned responsibility for recording findings 
in the International Vetting and Security Tracking (INVEST) system, as 
well as reporting their findings to the COM without delay.
                                 ______
                                 

          Response of Mary Beth Leonard to Question Submitted
                        by Senator John F. Kerry

    Question. As you noted in your testimony to the committee, one of 
the U.S. Government's main interests in Mali lies in furthering 
economic development in that country. What do you see as Mali's key 
economic policy goals and challenges and why do you think Mali is not 
expected to meet most of the Millennium Development Goals?

    Answer. Mali is one of the poorest countries in the world, ranking 
163 out of 164 countries evaluated on the United Nations Development 
Program's Human Development Index in 2010. Life expectancy is only 48 
years; infant mortality remains extremely high at 102.5 per 1,000 live 
births. The population is undernourished at rates most often seen in 
war zones and emergencies, with almost 40 percent of children 
permanently stunted and 85 percent anemic. Mali's literacy rate is only 
26.2 percent, and primary school completion rates, especially for 
girls, are extremely low. The low base from which Mali starts is one 
explanation for the country's challenge in meeting the Millennium 
Development Goals. Nevertheless, Mali is making progress toward the 
goals. The Malian Government's emphasis on health and education 
demonstrates its commitment to improving human capital, and thus the 
ability of its people to participate productively.
    Agriculture is the main occupation of Malians, therefore it is the 
basis for the government's emphasis on the agricultural sector in its 
economic growth strategy. The Millennium Challenge Corporation compact, 
with its focus on improving agricultural lands and roads as well as 
upgrading the airport, points to opportunities in value-added 
agricultural production. Meantime, Mali has steadily improved its 
business climate. In the 2011 World Bank's Doing Business report, the 
country ranked among the top 10 most improved economies (153 of 183 
economies) due to improvements in procedures for procuring constructing 
permits, reduction of property transfer taxes for firms, and reducing 
the time for trading across borders.
                                 ______
                                 

          Responses of Adrienne O'Neal to Questions Submitted
                        by Senator John F. Kerry

    Question. In your testimony to the committee, you also highlighted 
the importance of consolidating Mali's constitutional democracy and 
expressed your hope to shape U.S. activities to encourage constructive 
popular participation in the 2012 elections. How would you assess the 
Malian Government's preparations for the 2012 elections and what are 
your expectations for the constitutional reforms that should precede 
those elections?

    Answer. A constitutional and multiparty democracy since 1991, Mali 
is one of Africa's most stable and progressive democracies; in 2011, it 
was one of only a handful of countries in the Organization of the 
Islamic Cooperation to be ranked by Freedom House as politically free. 
It is currently preparing for its fifth national election and second 
peaceful transfer of power. All four previous elections have been 
judged generally free and fair, and expectations are that the 2012 
elections will continue to meet international standards. Major 
challenges to organizing fair elections remain, including the 
establishment of a reliable electoral list and disagreements over the 
distribution of seats to opposition party members on the country's 
Independent Electoral Committee. Malian society embraces dialogue and 
compromise, and there is no reason to believe these issues cannot be 
reconciled. USAID has obligated over $2 million for election assistance 
and is developing a plan for technical assistance and voter outreach 
prior to and during the 2012 elections. Public diplomacy programs 
provide ample opportunity to engage the Malian public on issues of 
civic participation and the value of open public debate.
    In the runup to the elections, President Amadou Toumani Toure has 
embarked on a plan to reform key government institutions, with an eye 
to increasing transparency and strengthening anticorruption efforts. 
This plan also includes constitutional amendments recently approved by 
the National Assembly that would streamline the electoral system and 
add an upper chamber. These measures will be subjected to a national 
referendum, most likely paired with either the Presidential or 
legislative elections in 2012. Some observers have expressed concern 
about the Malian Government's ambitious plans to hold a national 
referendum just prior to an already ambitious electoral calendar. In 
order to prepare for this, the government will need to educate Malian 
voters on the key reforms. Generally, this concerted attention to 
issues of transparency and accountability is to be congratulated and 
efforts to bring them to fruition encouraged.

    Question. While Cape Verde is eligible for tariff preferences under 
the African Growth and Opportunity Act (AGOA), trade under the program 
remains very limited. What do you see as the main barriers and are 
there ways that Cape Verde can increase trade under the program?

    Answer. A key barrier to Cape Verde's ability to increase trade 
under AGOA has been its lack of economic diversity. While Cape Verde 
has experienced recent economic success, much of that success has been 
driven by Cape Verde's tourism sector, which accounts for approximately 
75 percent of GDP.
    There are several strengths which Cape Verde can rely on in its 
efforts to further increase trade under AGOA. For instance, Cape Verde 
was recognized by the World Bank as sub-Saharan Africa's second-most-
improved economy on the overall regulatory ease of doing business. Cape 
Verde should use its open business environment to attract international 
investment.

    Question. One of Cape Verde's main transnational security 
challenges is the threat of narcotics trafficking and you stated in 
your testimony that the Government of Cape Verde has strongly supported 
counternarcotics maneuvers and is a willing host to U.S. ship visits. 
What is the extent and nature of the reportedly growing problem of 
cocaine transshipment through Cape Verdean territory and are there ways 
that you would recommend improving aspects of United States-Cape Verde 
cooperation on these issues?

    Answer. Cape Verde's location off the coast of West Africa makes it 
vulnerable to narcotics trafficking, especially cocaine, from South 
America to Africa and on to Europe. Cape Verde's capacity and political 
willingness to seize and search vessels are strong signals for us to 
engage with them on maritime security. In June 2011, Cape Verdean 
vessels seized a shipment of marijuana, demonstrating its willingness 
to be a strong partner in combating narcotics trafficking.
    We will continue to develop the partnership with Cape Verde through 
a Bilateral Law Enforcement Agreement already under negotiation and I 
would encourage Cape Verde's participation in joint maritime 
partnership programs with Portugal, Spain, France, and others.
    In 2010, the State Department provided an interagency Fusion Center 
that equipped Cape Verde's security forces with a system of maritime 
transponder monitors. Once fully operational, this unit, called 
``COSMAR'' in Portuguese, will enable Cape Verde to track and share 
information about ships operating off its coasts.
    If confirmed, I will continue to support INL, AFRICOM, and the U.S. 
Coast Guard to enhance programs to upgrade Cape Verde's capacity to 
patrol its territorial waters.
                                 ______
                                 

         Responses of Mark F. Brzezinski to Questions Submitted
                        by Senator John F. Kerry

    Question. As Ambassador to Sweden, what would you indentify as your 
top priority for Swedish Relations? And why would that issue be more 
important than others?

    Answer. Sweden is a key partner for the United States in addressing 
global challenges. My top priority, if confirmed, will be to deepen and 
strengthen the Swedish-United States partnership in order to advance 
the President's agenda. If confirmed, I will work to deepen our ties 
and keep our relationship strong including by focusing on: 
international security, democracy and development, the Arctic, energy 
and climate.

    Question. In the last election, the Swedish Democrats won 20 seats 
in Parliament. To what do you attribute their relative success? What 
effect have they had on Swedish policymaking over the past year? Is 
there any reason to believe that Swedish Democrats will gain more 
influence in the future?

    Answer. The Sweden Democrats gained seats in Parliament for the 
first time in 2010 and were particularly successful in getting votes 
from the unemployed, laborers, men, and those between 18 and 30 years 
old. The Sweden Democrats describe its main priority as protecting 
Swedish culture and values, mostly by reducing immigration to Sweden. 
Commentators note they are widely seen as having a minimal, indirect 
impact on policy since other parties are often unwilling to work with 
them. Given that the next parliamentary elections are expected in 2014 
it is difficult to predict how many seats the party may lose or gain at 
that time.
                                 ______
                                 

          Response of Mark F. Brzezinski to Question Submitted
                      by Senator Richard G. Lugar

    Question. Many countries, including Sweden, have become concerned 
about the Nord Stream natural gas pipeline that will run from Russia to 
Germany and reportedly cross part of Sweden's maritime Exclusive 
Economic Zone. In particular, there have been concerns with potential 
disturbances to the Baltic seabed where chemical weapons and ammunition 
have been resting since World War I. How do you see the consequences of 
this pipeline, both in terms of the environmental effects for Sweden 
and its neighbors and in terms of regional energy security?

    Answer. The United States neither supports nor opposes the Nord 
Stream natural gas pipeline. In general, U.S. policy is to support 
transparent and commercially viable pipeline projects that meet 
environmental safety standards.
    With respect to Sweden, Sweden has been supportive of the Nord 
Stream pipeline and has been an advocate for diversifying Europe's 
natural gas sources and energy supply routes. The Government of Sweden 
approved the pipeline's construction in November 2009, following an 
environmental impact assessment and offered assurances that the Baltic 
Sea environment is a high government priority. In announcing approval 
for the pipeline, then-Swedish Environment Minister Carlgren emphasized 
that Sweden's Government set strict requirements for Nord Stream that 
addressed both environmental and munitions-related concerns.
    Sweden shares our belief that Europe can better serve its energy 
needs by diversifying its natural gas sources and energy supply routes. 
Moreover, if confirmed, I will build on the close cooperation our 
Embassy has forged with Sweden on alternative energy and environmental 
sustainability issues.


                               NOMINATION

                              ----------                              


                      WEDNESDAY, OCTOBER 12, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Dr. Michael Anthony McFaul, of California, to be Ambassador to 
        the Russian Federation
                              ----------                              

    The committee met, pursuant to notice, at 2:37 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen, presiding.
    Present: Senators Shaheen, Menendez, Lugar, Rubio, and 
DeMint.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good afternoon, everyone. Good afternoon, 
Dr. McFaul.
    Senator Lugar and I were at the business meeting of the 
Senate Foreign Relations Committee, so please excuse us for 
being tardy, but I think that is probably an excused absence.
    This afternoon the Senate Foreign Relations Committee meets 
today to consider the nomination of Michael McFaul to be the 
U.S. Ambassador to Russia. I want to welcome Dr. McFaul and his 
family here and congratulate him on his nomination. Thank you 
for choosing to take on this new responsibility at such an 
important time for our country.
    It has been over 3 years since the summer of 2008 when the 
Russian invasion and occupation of Georgia led to perhaps the 
lowest point in United States-Russian relations since the fall 
of the Soviet Union. The deteriorating relationship threatened 
to plunge our two nations back into a new cold war marked by 
mutual distrust and escalating tensions.
    In response, the Obama administration sought to define a 
new direction, one based on cooperation over confrontation. The 
``reset,'' as this new policy has come to be known, was founded 
on the notion that the United States and its allies had more to 
gain from a more cooperative relationship with Russia.
    It has now been nearly 2\1/2\ since the reset button was 
first pushed in March 2009, and there is little doubt that the 
shift has produced some significant, concrete progress for the 
United States, our allies, and the world. The New START treaty 
is perhaps the most high profile example of success. Because of 
New START, the United States and Russia have the fewest 
deployed warheads aimed at each other since the 1950s. In 
addition, onsite inspections and data exchanges instituted 
under New START are providing the United States with a 
transparent, detailed picture of Russian strategic forces.
    We have seen significant cooperation between the United 
States and Russia in Afghanistan, rather remarkable considering 
that just over two decades ago our two countries were engaged 
in a proxy war in that country.
    Russian cooperation was critical in passing a fourth round 
of sanctions against Iran in the U.N. Security Council, and its 
decision to cancel the delivery of a missile system to Iran was 
welcomed by the international community.
    Some early critics of the reset argued that these efforts 
would come at the expense of our allies abroad. The facts, 
however, have proven these concerns unfounded, as our allies in 
Central and Eastern Europe, for the most part, have been some 
of the strongest proponents of the shift in our relationship.
    One has to see the reset and the concrete benefits it has 
produced as a success to date. However, the real test of the 
reset still lies in front of us, not behind us. Whether or not 
we are able to sustain these initial successes and expand 
progress on much more difficult, yet still mutually beneficial 
issues remains to be seen. Areas for further cooperation 
include missile defense, follow-on arms control agreements to 
include tactical nuclear weapons, Russia's WTO accession, and 
additional efforts to stop Iran's nuclear weapons program.
    Each of these areas can be a win-win for the United States 
and Russia, but they are fraught with difficulty. Complicating 
these
 efforts is the recent decision by Prime Minister Putin to 
return to the Presidency of Russia in 2012. Though the White 
House has said that the reset is about interests and not 
personalities, there is little question that a Putin Presidency 
will change the dynamics of the relationship.
    And finally, though we do share mutual interests with 
Russia on a number of critical issues, it is important to 
remember that we have a significant number of deep 
disagreements with Russia which cannot be papered over by a 
shift in tone. Russia vetoed a resolution at the U.N. Security 
Council condemning the Syrian Government's actions and 
continues to protect its dictator. Russia's record on human 
rights and the rule of law is deplorable and by most accounts 
getting worse. Corruption is rampant and the state of democracy 
in Russia can only be seen as a failure to date. Russia remains 
in violation of the 2008 cease-fire agreement with Georgia and 
continues to illegally occupy Georgian territory. In addition, 
Russia falsely maintains its right to spheres of influence on 
its borders, with Prime Minister Putin most recently calling 
for a Eurasian union of ex-Soviet states.
    Despite the improved relationship, we have seen little 
progress on these disagreements since the beginning of the 
reset, and so I am going to be very interested, Dr. McFaul, in 
hearing your thoughts about how the United States can be more 
effective in finding progress on each of these important areas.
    The relationship between the United States and Russia is a 
complex one with a long and convoluted history. We have been 
allies fighting side by side against fascism in World War II 
and bitter enemies threatening nuclear destruction throughout 
the cold war. It is a relationship marked at times by mutual 
interests and at others by diametrically opposed values.
    But we simply cannot turn our back on this relationship. We 
will need our strongest, most capable civil servants in Moscow 
to balance these difficult responsibilities and represent 
American interests. I believe, Dr. McFaul, that you are up to 
this challenge, and I intend to support your nomination and 
hope that we can move forward quickly to confirm you.
    [The prepared statement of Senator Shaheen follows:]

              Prepared Statement of Senator Jeanne Shaheen

    The Senate Foreign Relations Committee meets today to consider the 
nomination of Michael McFaul to be the U.S. Ambassador to Russia. I 
want to welcome Dr. McFaul and his family here today and congratulate 
him on his nomination. Thank you for choosing to take on this new 
responsibility at such an important time for our country. We look 
forward to hearing from you about the challenges and opportunities you 
may face in Moscow.
    It has been over 3 years since the summer of 2008 when the Russian 
invasion and occupation of Georgia led to perhaps the lowest point in 
United States-Russian relations since the fall of the Soviet Union. The 
deteriorating relationship threatened to plunge our two nations back 
into a new cold war, marked by mutual distrust and escalating tensions.
    In response, the Obama administration sought to define a new 
direction--one based on cooperation over confrontation. The ``Reset,'' 
as this new policy has come to be known, was founded on the notion that 
the United States and its allies had more to gain from a more 
cooperative relationship with Russia.
    It has now been nearly 2\1/2\ years since the ``reset'' button was 
first pushed in March 2009, and there is little doubt that the shift 
has produced some significant concrete progress for the United States, 
our allies, and the world.
    The New START Treaty is perhaps the most high-profile success. 
Because of New START, the United States and Russia have the fewest 
deployed warheads aimed at each other since the 1950s. In addition, 
onsite inspections and data exchanges instituted under New START are 
providing the United States with a transparent, detailed picture of 
Russian strategic forces.
    We have seen significant cooperation between the United States and 
Russia in Afghanistan--a rather remarkable turn considering that just 
over two decades ago, our two countries were engaged in a proxy war in 
the country. We have seen the successful implementation of the Northern 
Distribution Network into Afghanistan through Russia, which becomes 
even more important as United States-Pakistan relations have 
deteriorated.
    Russian cooperation was critical in passing a fourth round of 
sanctions against Iran in the U.N. Security Council, and its decision 
to cancel the delivery of a missile system to Iran was welcomed by the 
international community. We have also seen Russian cooperation on other 
less high-profile joint efforts, like science and technology, nuclear 
security, counterterrorism, health initiatives, and human trafficking.
    Some early critics of the reset argued that these efforts would 
come at the expense of our allies abroad. The facts, however, have 
proven those concerns unfounded, as our allies in Eastern and Central 
Europe have been some of the strongest proponents of the shift in the 
relationship. NATO allies were unanimously in support of the New START 
agreement, and have lobbied for a more cooperative approach in NATO-
Russian relations. A new missile defense program is rapidly being 
developed in Europe with sites in Poland, Romania, Spain, and Turkey. 
Further, NATO has increased its visibility in key regions, including 
the Baltic States, and is expected to make a high-level visit to 
Georgia led by the NATO Secretary General in November.
    One has to see the reset and the concrete benefits it has produced 
as a success to date; however, the real test of the reset still lies in 
front of us--not behind us. Whether or not we are able to sustain these 
initial successes and expand progress on much more difficult, yet still 
mutually beneficial, issues remains to be seen.
    Missile defense is one area for further cooperation; however, 
Russia remains mired in the false cold war belief that the program is 
aimed at them. Further arms control agreements are also possible, but 
any agreement must include the tactical nuclear weapons advantage the 
Russians have in Europe. Russia's WTO accession is closer than it has 
ever been; however, significant issues evolving from its continued 
occupation of Georgian territory need to be resolved. In addition, 
further Russian support will be needed if we are to stop Iran from its 
continued pursuit of a nuclear weapons capability. Each of these areas 
can be win-win for the United States and Russia but are fraught with 
difficulty.
    Complicating these efforts is the recent decision by Prime Minister 
Putin to return to the Presidency of Russia in 2012. Though the White 
House has said that the reset is about interests and not personalities, 
there is little question that a Putin Presidency will change the 
dynamics of the relationship--likely in a more confrontational 
direction.
    Finally, though we do share mutual interests with Russia on a 
number of critical issues, it is important to remember that we have a 
significant number of deep disagreements with Russia, which cannot be 
papered over by a shift in tone.
    Russia vetoed a resolution at the U.N. Security Council condemning 
the Syrian Government's actions and continues to protect its ruthless 
dictator there. Russia's record on human rights and the rule of law is 
deplorable and by most accounts, getting worse. Corruption is rampant, 
and the state of democracy in Russia can only be seen as a failure to 
date. Russia remains in violation of the 2008 cease-fire agreement with 
Georgia and continues to illegally occupy Georgian territory. In 
addition, Russia falsely maintains its right to spheres of influence on 
its borders--with Prime Minister Putin most recently calling for a 
``Eurasian Union'' of ex-Soviet states.
    Despite the improved relationship, we have seen little progress on 
these disagreements since the beginning of the reset. I will be 
interested in hearing from Dr. McFaul today about his thoughts on how 
the United States can be more effective in finding progress on each of 
these important areas.
    The relationship between the United States and Russia is a complex 
one with a long and convoluted history. We have been allies fighting 
side-by-side against Fascism in World War II and bitter enemies 
threatening nuclear destruction throughout the cold war. It is a 
relationship marked at times by mutual interests and at others by 
diametrically opposed values.
    We simply cannot turn our back on this relationship, and we will 
need our strongest, most capable civil servants in Moscow to balance 
these difficult responsibilities and represent American interests. I 
believe Dr. Michael McFaul is up to this challenge. I will strongly 
support his nomination, and I hope the full Senate will quickly confirm 
him and send him to Moscow.

    Senator Shaheen. I will officially do an introduction, but 
I would like at this time to turn the microphone over to the 
ranking member of the full Foreign Relations Committee, Senator 
Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Madam Chairman, and I 
join you in welcoming Dr. Michael McFaul to our committee.
    The United States relationship with Russia remains, as you 
pointed out, critical to many foreign policy priorities, 
including nuclear nonproliferation, counterterrorism and global 
energy security, and numerous regional issues in Eurasia. 
Common interests and economic conditions have created openings 
for cooperation in specific areas, but we must proceed 
according to a realistic assessment of what is possible and we 
should avoid rationing our attitude toward Russia between 
severe disappointments and excessive expectations.
    Last year, the Senate approved the New START treaty for 
ratification which preserved the foundations of certainty in 
the United States-Russian strategic relationship. One does not 
have to abandon skepticism of the Russian Government or dismiss 
contentious foreign policy disagreements with Moscow to see 
value in the practical enterprise of nuclear verification and 
transparency. In fact, it is precisely the friction in our 
broader relationship that makes continued engagement on nuclear 
issues so important. The only nations that would benefit from 
less nuclear cooperation between the United States and Russia 
are those such as Iran and North Korea that operate outside 
international nuclear controls.
    The ongoing risks posed by Moscow's nuclear weapons complex 
were underscored recently when Moldovan authorities interrupted 
a sale of weapons-grade, highly enriched uranium that 
reportedly originated in Russia.
    Russian-American cooperation through the Nunn-Lugar program 
and associated efforts has greatly improved controls and 
security related to WMD materials. The threat that one day 
weapons or materials of mass destruction will be transferred 
out of the former Soviet Union remains very real, and such a 
transfer could have catastrophic results for the United States 
and the global community. We must make certain that all weapons 
and materials of mass destruction are identified and 
continuously guarded and the destruction programs proceed on 
schedule.
    A major challenge for United States policymakers will be to 
convince Russia to bring transparency to its tactical nuclear 
weapons arsenal. In the resolution of advice and consent to the 
New START treaty, the Senate was unequivocal that the next 
round of arms control negotiations should include Russia's 
tactical nuclear weapons.
    Despite some concrete achievements, we must deal with the 
reality that United States-Russian relations are likely to be 
difficult for some time. Russia remains in noncompliance with 
its 2008 cease-fire obligations in Georgia. Russia's heavy-
handed use of its energy predominance over Ukraine, Moldova, 
Belarus, and the Baltic nations demonstrates that Moscow has 
not altered its hard-line on regional issues. We frequently 
face Russian roadblocks in the United Nations Security Council, 
and the orchestrated transfer of power taking place in Moscow 
suggests that the civil and political liberties of Russians 
will remain severely restricted in the years ahead.
    We should understand that the outcome of most issues 
affecting the United States-Russian relationship depends on 
geopolitical leverage, not simply on our willingness to 
negotiate. With this in mind, we should continue to strengthen 
our economic and security relationships with nations in Eastern 
Europe and Central Asia and the Caucasus. We should also 
intensify our efforts to open a southern corridor that will 
circumvent Russia for direct natural gas trade between the 
Caspian region and Eastern Europe. The next 6 months will be 
critical in determining which routes, if any, can be 
constructed to deliver gas to our allies, some of which are 
overwhelmingly dependent on Russia for their energy.
    The United States should also seek to create more ballast 
in the relationship by broadening the base of stakeholders. 
American corporate leaders often have functioned as effective 
advocates for democracy and rule of law overseas. One recent 
study cited by the Financial Times estimates that Russia will 
experience more than $70 billion in capital flight this year 
and that Russia asset values are devalued by up to 30 percent 
due to political risks created by Russia's leadership. Russia 
must meet all technical requirements for accession to the World 
Trade Organization, an event that could be an important step in 
locking in economic reforms. In the coming years, negotiation 
of the U.S.-Russian Bilateral Investment Treaty can provide the 
United States investors with reliable dispute resolution 
mechanisms that are currently absent.
    I thank the chair again for holding this hearing. I look 
forward to our discussion of these and many other issues with 
our witness.
    Senator Shaheen. Thank you very much, Senator Lugar.
    Dr. Michael McFaul currently serves as the President's top 
White House advisor on Russian policy and the Senior Director 
for Russia and Eurasian Affairs at the National Security 
Council where he has served since 2009.
    A distinguished academic by trade and a renowned Russian 
expert who speaks the language, he is widely respected on both 
sides of the aisle here on Capitol Hill.
    He is currently on leave from Stanford University where he 
is a professor of political science and a senior fellow at the 
Hoover Institution.
    Dr. McFaul has a strong background in democracy promotion 
and as the former director of the Center on Democracy, 
Development, and Rule of Law at Stanford and the former 
codirector of the Iran Democracy Project at Hoover.
    Dr. McFaul's background will prepare him well for the 
challenges and opportunities in Moscow, and we certainly look 
forward to hearing from him today.
    So I hope, Dr. McFaul, that you will take a moment in your 
opening statement to introduce any family members who are here 
with you today.
    So thank you very much and we will turn it over to you to 
hear your testimony.

 STATEMENT OF DR. MICHAEL ANTHONY McFAUL, OF CALIFORNIA, TO BE 
              AMBASSADOR TO THE RUSSIAN FEDERATION

    Dr. McFaul. Thank you, Madam Chair. I have a longer 
statement I would like to submit for the record, but I would 
like to make oral remarks now.
    Madam Chair, Ranking Member Lugar, Senator DeMint, other 
members of the committee, it is an honor to appear before you 
today, this time, as President Obama's nominee to be Ambassador 
to the Russian Federation. I am grateful for the confidence 
that President Obama and Secretary Clinton have shown in me, 
and if confirmed, I look forward to working with your committee 
closely.
    I am also delighted that my wife, Donna, and my two sons, 
Cole and Luke--Cole is the bigger one--are here today. Having 
hosted dozens of democratic activists from around the world at 
our home in California, Cole and Luke have heard me talk a lot 
about democracy over the years. So I thought it would be 
appropriate for them to be here today to witness a democratic 
process that might have a direct impact on their personal 
lives.
    Senator Shaheen. That was ``democratic'' with a small D.
    Dr. McFaul. A small D. Correct, correct. Thank you.
    Unlike my sons, I grew up in Montana and had never met 
somebody from another country until I went to college. But in 
debate class in Bozeman Senior High, I did develop, ironically, 
an interest in United States-Soviet relations, and in 
particular, in a simple idea that more direct talk with the 
Soviets could diffuse tensions and make us and the world more 
secure.
    Stints of study in the U.S.S.R., Communist Poland, and 
Zimbabwe taught me that sometimes talk alone cannot overcome 
ideological differences or competing interests and that 
democracies are America's most reliable partners. Therefore, 
``Advancing Democracy Abroad,'' the title of my last book, is 
not only the right thing to do, it is the smart thing to do.
    And yet, even when some differences cannot be overcome, 
greater communications between countries allows for cooperation 
on mutual interests in other areas and lessens dangerous 
misunderstanding.
    On January 21, 2009, President Obama gave me the 
opportunity to test these theories in the real world. The 
President called for a reset with Russia, animated by the 
belief that greater engagement with Russia could produce 
security and economic benefits to the American people. Two 
additional principles have guided our reset strategy. First, we 
will not seek cooperation with Russia at the expense of our 
allies and partners. Second, as we engage with the Russian 
Government, we also seek deeper engagement with Russian 
society.
    The strategy has produced results. Let me highlight a few.
    We dramatically expanded the Northern Distribution Network, 
as you already noted, which supplies our troops to Afghanistan.
    We signed and you ratified the New START treaty.
    We passed a new U.N. Security Council resolution this 
spring, which expanded sanctions against Iran. Russia then 
canceled the sale of S-300 surface-to-air missiles to Iran.
    We have continued to fulfill Senator Lugar's vision of 
reducing threats from weapons of mass destruction, including an 
agreement this year to dispose of the equivalent of 17,000 
nuclear weapons' worth of plutonium in Russia and the United 
States.
    We also have helped to create more trade and investment 
opportunities in Russia for American farmers and American 
manufacturers, including pushing for terms of Russia's WTO 
accession that will benefit our economy while also making sure 
that countries like Georgia have their interests addressed.
    But the reset is not finished, as you have already 
observed. Two issues, in particular, require more resetting.
    First, European security. We have made progress. In the 
last 3 years, there have not been gas wars, cyber wars, or 
military wars in Europe. And yet, Russian soldiers still occupy 
Georgian territory. Tensions between Russia and Georgia remain 
too high, and that is why we continue to give this issue our 
highest priority.
    Second, democracy and human rights. President Obama and 
Secretary Clinton have engaged regularly with their Russian 
counterparts on democracy, human rights, and the rule of law. 
And our administration has already issued over 80 statements 
expressing our concern about democratic erosion and human 
rights violations in Russia. We have taken actions so that 
human rights abusers cannot travel to the United States. We 
have deepened our engagement with Russian civil society, and we 
continue to provide robust support to Russian human rights 
defenders.
    And yet, trends in Russia suggest that more needs to be 
done. As someone who has worked on these issues for over two 
decades now, as the first representative of the National 
Democratic Institute in Moscow in 1992, as a teacher and writer 
on democracy at Stanford and at the Hoover Institution, or as a 
member of President Obama's National Security staff, I have the 
experience necessary to add vigor to our efforts in Russia on 
these sets of issues.
    President Obama believes that we can pursue our security 
and economic interests and promote universal values at the same 
time. If confirmed, I look forward to the challenge of 
executing his vision as the next U.S. Ambassador to Russia.
    Thank you for allowing me to appear here today.
    [The prepared statement of Dr. McFaul follows:]

              Prepared Statement of Dr. Michael A. McFaul

    Madam Chairman, Ranking Member Lugar, and distinguished members of 
the committee, it is a great honor and a privilege to appear before you 
again today, this time as President Obama's nominee to be Ambassador to 
the Russian Federation. I am grateful for the President's confidence 
and for the support as well from Secretary Clinton. If confirmed, I 
look forward to working closely with the members of this committee to 
advance and defend U.S. interests in Russia.
    I am also delighted that my wife, Donna Norton, and my two sons, 
Cole and Luke, could be here today with me. For many years, Cole and 
Luke have heard me talk about the virtues of the democratic process, 
since I have taught courses on democracy at Stanford for many years and 
have hosted many democratic activists at our home in California. I 
thought they should be here to witness a democratic process that might 
have a direct effect on their personal lives.
    Unlike my sons, when I was their age, I had never met an MP from 
Zimbabwe or a blogger from Iran or discussed the merits of different 
systems of government. In fact, as someone who grew up in Montana, I 
had never even met a foreigner until I went to college. But strangely, 
even while still living in Montana, I did develop an interest in 
international affairs, and in particular an interest in ending the cold 
war. In my debate class at Bozeman Senior High School in 1979, I 
developed the argument that if we could just figure out a way to talk 
more honestly and directly to the Soviets, we could defuse a lot of 
tension and make both countries more secure. I took that conviction 
with me to Stanford University, and in the fall quarter of my freshman 
year, began to study Russian. Two years later, I went abroad for the 
first time, not to London or Paris, but to Leningrad. My mother thought 
I was crazy. She considered California a foreign country.
    Several stints of studying in the Soviet Union and then Communist 
Poland compelled me to adjust my hypotheses about diplomacy developed 
as a kid in Montana. Sometimes, ideological differences between 
countries make it impossible to find common ground. Sometimes national 
interests collide. Regimes, like the U.S.S.R., which repress their 
citizens are less reliable partners for the United States than 
democratic allies. And therefore, ``Advancing Democracy Abroad''--the 
title of the last book I wrote before joining the Obama 
administration--is not only the right thing to do but the smart thing 
to do.
    And yet, while developing these new ideas about the centrality of 
universal values over time as a student, activist, and scholar, I never 
completely abandoned my original thesis about the importance of 
understanding other countries and communicating with their people. Even 
when some differences cannot be overcome, greater communication between 
countries allows for cooperation on mutual interests in other areas. 
And clarifying those disagreements can be useful. Misunderstanding 
never benefits anyone.
    On January 21, 2009, President Obama gave me the opportunity to 
apply these convictions in the real world. Even before his 
inauguration, President-elect Obama called for a reset in our relations 
with Russia. His premise was that through engagement with the Russian 
Government, we could develop cooperation on some issues that would 
benefit American security and prosperity. Rather than framing all 
interactions between the United States and Russia as zero sum contests 
for power and influence, President Obama proposed that we look for ways 
to produce win-win outcomes. As we have looked for such opportunities, 
the reset has been guided by two additional principles. First, we will 
not seek cooperation with Russia at the expense of relations with other 
allies and partners. Second, as we seek broader engagement with the 
Russian Government, we also have pursued in parallel deeper engagement 
with Russian society. Borrowing a page from one of my mentors, George 
Shultz, we call this strategy dual-track engagement.
    This new strategy has yielded results.
    First, through greater engagement with the Russian Government, we 
have expanded our northern supply routes into Afghanistan. This complex 
network of railways, flight routes, and roads known as the Northern 
Distribution Network, now accounts for more than half of all the 
supplies that we send to our soldiers in Afghanistan. Since signing a 
military transit accord with Russia in 2009, we have flown more than 
1,500 flights transporting more than 235,000 personnel through Russia. 
These transit arrangements are a matter of vital importance to our 
troops as the transit route through Pakistan becomes more problematic.
    Second, the President signed and the Senate then ratified the New 
START treaty. This treaty reduces our nuclear arsenals, but importantly 
also provides robust verification and transparency measures that will 
build confidence and predictability on both sides. We thank this 
committee for all of your efforts in getting this treaty ratified in a 
timely manner that made sure that our verification efforts experienced 
no serious disruptions.
    Third, on Iran, we worked closely with Russia to craft United 
Nations Security Council Resolution 1929, which significantly expanded 
the multilateral sanctions regime. Shortly thereafter, Russia took a 
very important step by unilaterally canceling a sale of S-300 surface-
to-air missiles to Iran. We continue to work closely with Russia to 
develop additional measures to stop Iran's development of a nuclear 
weapons program. Most recently, we held constructive meetings with 
Russia in New York in the ``P5+1'' format during the United Nations 
General Assembly on getting Iran to satisfy our common concerns about 
its nuclear program.
    Fourth, on North Korea, we worked together to adopt Security 
Council Resolutions 1718 and 1874, and we remain committed to 
denuclearization as our ultimate goal.
    Fifth, on Libya, Russia abstained on U.N. Security Council 
Resolution 1973, which gave international support for NATO successful 
campaign to protect Libyan civilians.
    Sixth, we have continued to work with Russia to follow through on 
the vision of Senator Lugar and former Senator Nunn to enhance the 
physical security at Russia's chemical, biological, and nuclear 
research, production and storage facilities. Last year, Secretary 
Clinton and Foreign Minister Lavrov signed the Plutonium Management and 
Disposition Agreement, which will transparently dispose of the 
equivalent of 17,000 nuclear weapons worth of plutonium. Russia and the 
United States have worked closely through a well-documented series of 
bilateral and trilateral programs to improve Russian, U.S., and 
worldwide nuclear security and have also joined forces to thwart 
nuclear smuggling as cases arise.
    Seventh, with your support, the 123 Agreement with Russia entered 
into force in January. This agreement provides a solid foundation for 
long-term United States-Russia civil nuclear cooperation; commercial 
opportunities for U.S. industry in Russia; and enhanced cooperation on 
important global nonproliferation goals.
    Eighth, we have worked closely with the Russian Government to 
create the permissive conditions for more trade and investment between 
our two countries. Most importantly, the administration has been 
actively supporting Russia's accession to the World Trade Organization, 
since Russia's membership in the WTO will create new markets for U.S. 
exports and increase opportunities for U.S. companies, farmers, 
ranchers, investors, and workers. As a WTO member, Russia will have to 
lower tariffs, liberalize the conditions under which American services 
can be sold in the Russian market, and comply with more transparency 
rules. There are two key outstanding issues related to Russia's 
accession: Georgia and Jackson-Vanik. As you know, the WTO operates by 
consensus. That means Georgia must agree to Russian accession, 
something it has yet to do. The Government of Switzerland has helpfully 
volunteered to serve as a mediator helping Russia and Georgia resolve 
their trade-related issues. We have made it clear to Russia that there 
is no way to go around Georgia: the two countries must resolve their 
differences through the mediation process. We believe the Swiss have 
formulated a fair, creative, and balanced proposal that can work, but 
the parties themselves must find that it is in their interest to come 
to agreement.
    In order for U.S. businesses, farmers, and workers to receive the 
maximum benefit from Russia's WTO accession, however, we will need to 
give the same unconditional permanent normal trading relations 
treatment to Russia's goods that we provide to those of all other WTO 
members. That commitment requires us to terminate the application of 
the Jackson-Vanik amendment and extend permanent normal trading 
relations to Russia. We look forward to working with you closely to 
terminate the application of Jackson-Vanik to Russia before Russia 
joins the WTO. Jackson-Vanik long ago achieved its historic purpose by 
helping thousands of Jews emigrate from the Soviet Union. Four decades 
after Jackson-Vanik was passed, a vote to grant Russia PNTR is a vote 
to help our economy and create jobs. At a time when we need to increase 
exports to preserve and create American jobs, we cannot afford to put 
our farmers, manufacturers, and workers at a disadvantage when 
competing against other WTO members for market share in Russia.
    In addition to supporting Russia's WTO membership, the Obama 
administration has actively supported several major trade and 
investment deals completed in the last 3 years. For instance, Boeing 
has secured several major sales to Russian airlines in the last 2 
years, worth roughly $11 billion, and securing tens of thousands of 
American jobs. ExxonMobil, GE, Caterpillar, John Deere, GM, Ford, Nike, 
International Paper, FedEx, Pepsi, Procter and Gamble, Cisco, and Visa 
are just a few of the many American companies successfully doing 
business in Russia and supporting job creation here in the United 
States. They all report to us that the reset has created a better 
environment for their businesses. If confirmed, I will continue to do 
all that I can to support the growth of this economic activity.
    As a means for enhancing our engagement of both the Russian 
Government and society, the administration created the U.S.-Russia 
Bilateral Presidential Commission, which now has nearly two dozen 
working groups working on everything from trade and investment to 
energy efficiency to basketball. In fact, President Obama even took a 
few shots at the White House with a visiting Russian high school 
basketball teams last year. He also attended a summit between American 
and Russian civil society leaders in Moscow in 2009, underscoring that 
government actors--including even the President of the United States--
must not only facilitate contacts between Russian and American civil 
society organizations, but also interact directly with these 
nongovernmental leaders, even when they have critical messages to 
convey.
    This comprehensive list represents a positive record of achievement 
for the Obama administration regarding security and economic issues of 
the highest importance to our country. Supplying our troops in 
Afghanistan, reducing the number of nuclear weapons in the world, 
preventing Iran from acquiring nuclear weapons, creating jobs in 
America--these are all core national interests for the United States. 
Moving forward, however, we still seek to reset our relations with 
Russia on other issues.
    For instance, European security. We have made progress, but more 
needs to be done. Russia's relations with its neighbors had been 
deteriorating at an alarming pace. There were gas wars, cyber wars, and 
most tragically, a military war in August 2008. From the very beginning 
of the administration, we sought to reverse this dangerous trend, first 
by reassuring and strengthening our security ties with our NATO allies, 
and second by deepening our relations with Russia as a way to give 
Russia more to lose from coercive behavior.
    Our strategy has yielded dividends. While there is much more to be 
done, wars of any kind in Europe today, including renewed conflict 
between Russian and Georgia, are much less likely today than 3 years 
ago.
    And yet, while the probability of conflict between Russia and 
Georgia has decreased, the potential still remains. There are clearly 
issues on which the United States and Russia are not going to agree--
and Georgia is one of them. Whether in bilateral meetings with the 
Russians, at international organizations or in multilateral settings, 
we have consistently and adamantly defended Georgia's territorial 
integrity, while also providing critical political, economic, and 
defense-related support to the Georgian Government. President Obama, 
Vice President Biden, and Secretary Clinton have been clear with the 
Russian Government on the need to meet its obligations under the 2008 
cease-fire agreement and our serious and ongoing concern over the 
Russian military presence in the breakaway regions of South Ossetia and 
Abkhazia. There are no military solutions to this impasse, only 
diplomacy, and we have participated in multiple rounds of talks 
moderated by the EU, the U.N., and the OSCE in Geneva to encourage 
dialogue between the parties. If confirmed, I will continue to make 
progress on this issue one of my highest priorities.
    We also have far more work to do to get Russia to join the growing 
international consensus on Syria. The Russian veto of the U.N. Security 
Council resolution on Syria on October 4 was a big disappointment. We 
cannot allow the Security Council to lose its moral voice when the 
human rights of innocent people are so grossly violated.
    Resetting our relations on issues of democracy and human rights 
also requires more work. Since 2009, the Obama administration has 
developed and executed a new approach for advancing democracy and 
defending human rights in Russia.
    First, we have elevated these issues in our interactions with 
Russian Government officials. President Obama has regularly engaged 
with President Medvedev on democracy, human rights, and the rule of 
law. The same is true for Secretary Clinton when she meets with Foreign 
Minister Lavrov and other senior Russian Government officials. 
Moreover, U.S. Government officials have spoken out publicly and 
consistently about democratic erosion and human rights abuses in 
Russia. We created a Web site to catalogue our public pronouncements, 
which now contains over 80 statements related to democracy and human 
rights issues in Russia http://www.state.gov/p/eur/ci/rs/c41670.htm). 
Under the Bilateral Presidential Commission, we created a special 
working group in civil society, which I personally cochaired, to 
establish a formal venue for discussing these issues. Sometimes those 
sessions have been testy, but we continue to believe that dialogue--
even tough dialogue--is better than no contact at all.
    Second, for those in Russia who abuse human rights, we have taken 
measures to ensure that they cannot travel to the United States. We 
have done so both for government officials implicated in the wrongful 
death of Russian lawyer, Sergey Magnitsky, but also in other cases in 
which gross violations of human rights occurred.
    Third, U.S. Government officials actively engage with Russian 
nongovernmental leaders and encourage peer-to-peer engagement between 
American and Russian civil society leaders. During his trip to Russia 
in July 2009, President Obama met with hundreds of civil society 
leaders as well as opposition political figures. Vice President Biden, 
Secretary Clinton, and other senior U.S. Government officials have made 
it a practice of meeting with civil society leaders and opposition 
political figures during their visits to Russia. Russian and American 
NGOs organized two civil society summits in 2009 and 2010 in which our 
administration participated. Under a new initiative, these annual 
United States-Russian civil society summits will continue annually.
    Fourth, the Obama administration--working with the U.S. Congress--
has continued to secure funds to support civil society, rule of law, 
human rights, independent media, and good governance in Russia. We have 
prioritized support for small, direct grants to Russian civil society 
organizations. Working with Congress, we continue to seek new ways to 
generate greater support for civil society organizations in Russia. For 
the upcoming parliamentary and Presidential votes in Russia, we have 
allocated $9 million--$1 million more than spent for the previous round 
of national elections in 2007-2008--to support activities designed to 
strengthen free and fair elections.
    The sum of these efforts constitutes a robust strategy for 
supporting democratic change and civil society development in Russia. 
And yet, the limited results regarding democratic development in Russia 
over the last several years suggest that we must do more. As someone 
who has worked on these issues for over a quarter century--be it as the 
first representative of the National Democratic Institute in Russia in 
1992, as a professor teaching and writing on democracy at Stanford 
University and the Hoover Institution, or as a member of President 
Obama's National Security Staff--I have the experience necessary to add 
vigor to our efforts in Russia, if confirmed by you.
    President Obama believes that we can pursue our security and 
economic interests and promote universal values at the same time. If 
confirmed, I look forward to accepting a new challenge presented to me 
by President Obama and Secretary Clinton of trying to pursue this 
vision as the next U.S. Ambassador to Russia.
    I am humbled by the President's decision to nominate me to this 
position, and I am grateful to the committee for inviting me to appear 
before you today and for considering my nomination.
    I look forward to answering your questions.

    Senator Shaheen. Thank you very much.
    I want to start with where you ended, and that is, what do 
we do to address democracy promotion in civil society? As you 
point out, more does need to be done. And so if confirmed as 
Ambassador, how would you take on that issue?
    Dr. McFaul. As I mentioned in my remarks, the Obama 
administration has developed a strategy. We call it a dual 
track engagement strategy. And let me tell you honestly we 
stole it from Ronald Reagan and my mentor and colleague, George 
Schultz, at the Hoover Institution. The idea is a simple one, 
that we are going to engage with the Russian Government on our 
national interests, and it would be wrong of us to not engage 
with them when we have serious security interests and economic 
interests at stake. In parallel, we are going to engage with 
Russian civil society.
    Now, in both tracks we have tried to raise democracy and 
human rights in both the governmental track and the civil 
society track. So, for instance, President Obama, from the very 
first meeting he ever had with President Medvedev, actually 
discussed the beating of a human rights activist. Lev Ponomarev 
is his name, an old friend of mine, by the way. The night 
before their meeting, he was beaten, and in the first meeting 
that the two Presidents ever had, President Obama raised the 
issue and has continued to do so, and not just the easy issues, 
by the way, very difficult issues including criminal cases 
against people like Mr. Khodorkovsky. The two Presidents have 
discussed that at length.
    Second, as I said in my opening remarks, we continue to 
speak publicly, not just privately, about these issues, and we 
talk about the wide range of issues when we see instances of 
democratic erosion or human rights abuses.
    Third, as I have stated in my opening remarks, we have made 
sure that human rights abusers do not come to this country.
    With respect to Russian civil society, we have done a 
number of new things in that area as well. We engage directly 
with Russian Government officials, with Russian civil society 
leaders. So, for instance, when President Obama traveled to 
Moscow, he met with President Medvedev. He met with Prime 
Minister Putin. And then he spent the entire second day of his 
time in Moscow meeting with civil society leaders, business 
leaders, and members of the opposition. We support something 
that we call peer-to-peer engagement between American civil 
society leaders and Russian civil society leaders, and we 
support that with bilateral assistance, roughly $40 million, 
that goes directly to this kind of support, of course, with 
your support as well.
    We need to do more. We need to create the space for those 
organizations to do their job. And if confirmed as Ambassador, 
I look forward to that challenge to do that personally, given 
the long ties I have to that community in Russia.
    Senator Shaheen. Other than preventing violators from 
coming into the United States, most of what you have described 
has been on the carrot side. Are there other sticks that we 
should be looking to employ to provide incentives or 
disincentives for Russian behavior in this area?
    Dr. McFaul. In the Obama administration, we have a firm 
belief that we should listen to the activists on the ground, 
those who are on the front line. It is easy to sit here and say 
they should do this, they should do that. It is a lot harder to 
be in Russia or harder even yet Udmurtia or Siberia or places 
that do not get as much attention.
    When we talk to these people, they have asked us to do two 
things, and I would say these are familiar themes. One is speak 
out when their rights are violated and, two, provide support to 
what they are trying to do. And by that support, they want 
rhetorical support, but they also want financial support, to be 
very blunt, and without that, that support that comes from the 
United States and other European countries, there are not other 
places for them to go for that kind of support. So I would 
emphasize that this could be an issue that we should work on 
with Congress to find new avenues and new ways to support those 
people more directly.
    Senator Shaheen. I do not know if Senator Cardin is going 
to be here, but I know that he has discussed his legislation 
with you, The Sergey Magnitsky Rule of Law Accountability Act. 
And I wonder if you could talk about whether that kind of 
legislation is effective in moving the Russians or not.
    Dr. McFaul. Well, first, if he does not show up, please 
pass on my applause to Senator Cardin for the leadership that 
he has focused on this particular case, the wrongful death of 
Sergey Magnitsky but more generally, I would say, for raising 
this issue as something where action should be taken.
    I have to say personally as a U.S. Government official, the 
hardest day of my life, without question, was the day that I 
met Sergey's mother in Moscow and brought public attention from 
the United States, from President Obama, to what happened to 
her son. And I was also honored that Senator Cardin invited me 
to speak at the premiere of the documentary film on Sergey 
Magnitsky that you hosted up here. I say all that to point out 
and to underscore that we take very seriously what happened to 
Sergey Magnitsky and remind everybody that the attention that 
he has received because of Senator Cardin's good work is 
fantastic. These kinds of human rights abuses happen every day.
    So we did take action, prodded by the legislation. We now 
have in place, through the authorities that Secretary Clinton 
already had, denial of visas to human rights abusers from 
Russia. And I would add they are not just affiliated with this 
case.
    Moreover, we have taken more action than that. Last August, 
President Obama signed Presidential Proclamation 8697 which, in 
effect, internationalizes what Senator Cardin was seeking to do 
in his legislation. And we are very proud of that fact that we 
have done this, that this is not just an issue for Russia. This 
is an issue that unfortunately happens in many countries around 
the world. And with that Presidential proclamation, Secretary 
Clinton and the State Department have new authorities now to do 
the same for violators around the world.
    And finally, I would say we have raised these concerns 
privately and publicly. I have been with President Obama when 
he has raised these issues. I know Secretary Clinton has. I 
have been with her when she has raised them with Foreign 
Minister Lavrov and will continue to do so.
    Senator Shaheen. Thank you very much.
    I should point out that I am also a cosponsor of that 
legislation.
    Since my time is almost expired, I am going to turn it over 
to Senator Lugar.
    Senator Lugar. Thank you very much, Madam Chairman.
    Fifteen years ago, Senator Nunn and I created or helped 
create the International Science and Technology Center in 
Russia to prevent the proliferation of WMD know-how and 
technology from the former Soviet Union. The ISTC has 
peacefully reemployed thousands of former weapons technicians 
for WMD destruction and become a center for technology 
cooperation with more than 70 U.S. companies.
    Now President Medvedev recently signed a decree that would 
terminate Russian participation in the ISTC. At a time when 
institutional cooperation is as important as ever, what has 
been your response to Russia's withdrawal from the ISTC and 
what further action can we take?
    Dr. McFaul. Well, let me start, Senator Lugar, by again 
thanking you for the vision that you have given to this set of 
issues over the last 20 years. You may not remember, but I was 
a young Ph.D. student working for a fellow by the name of Bill 
Perry before he was Secretary Perry. I remember meeting you 
back then. And when I think about over the last two decades 
what you have done, what Senator Nunn has done, what various 
administrations have done in terms of making the world safer 
through Cooperative Threat Reduction and its sister programs at 
the Department of Energy and the State Department, it is a 
remarkable, innovative program, that we are all safer as a 
result of that. So I want to start with that.
    Second, you know better than most, but I think he has made 
very clear how seriously President Obama takes this set of 
issues. He laid out an ambitious agenda in his Prague speech. 
He then hosted the first nuclear security summit here in 
Washington last year, and we are now making preparations for 
the Seoul summit next year. I hope you can attend.
    And I would say two things with respect to Russia and then 
get to the ISTC that you mentioned.
    Although we made tremendous progress, I want to remind the 
committee that there is still a lot more work to be done in 
Russia. I think sometimes we think, well, this is no longer an 
issue: we need to move on to third countries and other issues. 
It is not. There is still a lot of work to be done, and the 
vast majority of these weapons of mass destruction are in our 
two countries and the security of them in Russia still remains 
a top priority for our administration.
    Second, with your guidance, we also seek to cooperate with 
Russia in third areas, and I think we will hear more about that 
when we meet in Seoul next year.
    With respect to the ISTC, again I think the historians will 
judge. I used to be a historian, and I have talked to people 
who have written about this. I think it was a fantastic 
achievement at a very important time when you remember what was 
going on with the collapse of the Soviet Union. I know you 
remember that. I do not know if my boys over here remember, but 
it was a very scary time when I was living there when you 
thought about all the stuff that was there not locked down, 
insecure, and you did not know what the future of the Russian 
state was going to be. We now know in retrospect this has been 
a relatively peaceful collapse of the Soviet Union, but at the 
time when you were initiating our thinking about this, we did 
not know that. And ISTC ensured that some dangerous things that 
could not happen did not happen. And I know it is always hard 
to document as a social scientist the events that do not 
happen--right--the dogs that do not bark. But I think on this 
particular set of issues, we have to remember that.
    With respect to the center, our administration has been 
involved now for 2 years in active negotiations seeking to 
preserve it. We still think it should be preserved. We have not 
been able to reach agreement with Russia yet. We continue to do 
so, and in particular, we continue to try to think about new 
ways to frame the agenda that more appropriately meets the 
challenges that we have today. But I want to be honest. Right 
now we have not reached agreement with the Russians yet.
    Senator Lugar. Well, I appreciate your response very much 
because I am hopeful as Ambassador you will be able to work in
 behalf of the center and/or other ways in which the dangers 
are decreased because clearly many people, as you have pointed 
out, say, well, the real problem now is Iran potentially or 
North Korea and so forth. The Russians. This is old hat. But 
the facts of life are that the bulk of nuclear weapons are 
still in our country and in Russia. That will be the case for a 
long time. And the danger is not only of that but the personnel 
involved with that and the proliferation of ideas or leadership 
or what have you is really critical for both of our countries. 
So I am hopeful you will be able to make headway there, and we 
look forward to working with you.
    On another issue that you have worked on very hard. The 
Senate made clear in the resolution of advice and consent of 
the New START treaty, the next round of arms control 
negotiations would have to address Russia's excessive and 
opaque tactical nuclear weapons arsenal. Russia has refused to 
negotiate over these weapons. Why in your view has Russia taken 
such an intransigent view over the next round of negotiations? 
What is your hope as to when this next round might occur and 
under what circumstances?
    Dr. McFaul. Well, Senator, we have made very clear to our 
Russian counterparts that the next round of negotiations has to 
include the weapons you just mentioned, nonstrategic weapons. 
We have a kind of general agreement that these negotiations 
have to take place and, obviously, in consultation with our 
allies because this affects European security.
    To answer the question, to explain, because you asked me to 
explain why Russia has resisted, I would say right now the 
answer they give to us is we want to have a holistic view. And 
in particular, they want to discuss issues of missile defense. 
They have made that clear, that without some progress in a 
pretty profound disagreement we have with them right now about 
missile defense, on certain aspects of that, they are not going 
to move forward with those negotiations.
    We continue to negotiate. We have a team over there right 
now in Moscow negotiating on these set of issues. We have 
started something that we call ``strategic stability talks,'' 
and per our commitment to you during the ratification of the 
New START treaty, we fully expect that the next round will 
include those weapons.
    Senator Lugar. I would mention, as you well know, this is 
of great interest to many of our friends in Europe. The new 
Ambassador to the United States from Germany mentioned this in 
a conversation we had yesterday and Volkarua who is back in 
Washington visiting with some. In fact, the Germans have 
tactical nuclear weapons. They are not unique but they are an 
important country. So that the question is not simply a 
bilateral one, but it is one of total European security or 
world security for that matter. But as you point out, the 
missile defense situation, which obviously the Germans and 
others are also involved, is either a complicating factor or 
one that has to be taken into consideration. So I am hopeful 
that during your tenure there, you will be able to help make 
progress and to inform the administration as to how the arms 
negotiators might do so.
    I thank you.
    Senator Shaheen. I would like to pick up on the missile 
defense question because it is an area--as I know you remember, 
that was a big point of contention during the New START treaty 
debate. As you point out, as Senator Lugar pointed out, the 
Russians continued to express their concerns with NATO's phased 
adaptive approach.
    So maybe you could talk about what the status of 
discussions on missile defense cooperation are currently and 
whether, given our historical differences on this issue, it is 
realistic to think that we can reach agreement.
    And then if you could comment on the statement by the 
current U.S. Ambassador to Russia earlier this month when he 
said he was confident that Russia and NATO would reach a 
cooperative agreement by the NATO summit in Chicago in May 
2012. Do you agree that that is realistic? So if you could 
address all of those.
    Dr. McFaul. Thank you, Senator.
    Let me first start by reminding everyone that we very 
militantly kept out any discussion of missile defense from the 
New START treaty negotiations. Having been personally involved 
in that from the beginning to the end, I can tell you that at 
every stage of the way, including when President Obama himself 
personally was involved in the negotiations--and he probably 
was more than he wanted to be, by the way. But that was never 
an issue, and there were no side deals done and there are no 
constraints in that treaty whatsoever. Let us also be honest. 
The Russians wanted that and we resisted that to the very end.
    Second, we have continued to roll out and deploy EPAA, as 
you mentioned, in a rather rigorous and vigorous way as we had 
committed. It started in March 2011 with the deployment of the 
USS Monterrey, an Aegis missile ship. September 13, we signed a 
deal with the Romanians. The 14th, we signed a deal with the 
Turks about a radar. September 15, we extended our agreement 
with Poland. And then just last week, the Spanish agreed to 
host other Aegis ships. So we are moving forward with or 
without Russian cooperation on missile defense, and I think it 
is important for people to understand that we are going to do 
what is necessary to protect ourselves and our allies with or 
without the Russians.
    With respect to Russia, we believe that our security, the 
security of our allies, and the security of our partners in 
Europe can be enhanced through cooperation with Russia. That is 
our working assumption. And in particular, tracking data that 
Russia has better access to, or earlier, and the sharing of 
that data could make both Russia, NATO, and our partners in 
Europe more secure. And so that is why we have had a very 
vigorous program of trying to negotiate to get that started.
    Last fall in Lisbon, I think we had a very productive 
exchange with President Medvedev at the NATO-Russia Council 
where we committed to seeking some kind of an agreement.
    But of late, the negotiations have been difficult. In 
particular, they have broken down over a Russian demand that we 
sign a legally binding agreement that we will not undermine 
their strategic deterrent. And what we have responded to that 
is our missile defense systems are not aimed at Russia, and we 
do not seek to undermine strategic stability. And at the same 
time, we are not going to sign any legally binding agreement 
that would in any way constrain our missile defense systems. 
Because Russia believes, wrongly in our view, that phase 4 of 
the EPAA would be a threat to their ICBMs, we are at an impasse 
right now on those negotiations.
    We will continue to work it. We will continue to talk to 
them. After all, a lot of this is about physics. This is not 
about perceptions. And we will see what we have as we prepare 
for the summit next May. I am not optimistic right now, but we 
are going to continue to work this issue.
    Senator Shaheen. So it is not likely, based on what we know 
now, that we will have an agreement by the time of the summit 
next May.
    Dr. McFaul. I would put it this way. We want to maintain 
progress, and I think it is important for everyone to remember 
how neuralgic this issue has been for decades in United States-
Soviet and United States-Russia relations. So no one should be 
surprised that after one meeting in Lisbon, that we have not 
been able to find missile defense cooperation with Russia in 
the last several months. I most certainly am not surprised by 
that. I think it is going to take a lot of hard work. I think 
it will take work by experts and track 2 folks to help educate 
our societies about what is a real threat and what is not a 
threat. And so our objective, as the Obama administration, is 
to continue to find progress, however incremental, as we move 
toward the NATO summit and well beyond that because I suspect 
we will be working this issue not just for the next month but 
for years and years to come.
    Senator Shaheen. Thank you.
    As a cochair of the Atlantic Council's Georgia Task Force, 
tomorrow I am going to be among those who release a new policy 
report providing recommendations for the United States, Europe, 
and Georgia on how we can advance Georgia's Euro-Atlantic 
integration. And as I know you are aware, one of the big 
stumbling blocks remains Russia's occupation of Georgian 
territory, and we have seen little progress on this issue. In 
fact, some would say that things have gotten worse since the 
cease-fire agreement was signed.
    So how can we take on Russia's continued occupation of 
South Ossetia and Abkhazia, and how can we make progress with 
Russia on this issue? And if you could also speak to how you 
see your role as Ambassador in addressing this issue.
    Dr. McFaul. Well, thank you.
    Obviously, we consider this to be a very serious issue. 
That is the reason I mentioned it in my opening remarks. We 
reaffirm, whenever we can, Georgia's territorial integrity, and 
strengthening Georgia's security remains a top priority for the 
Obama administration. We do that in a multifaceted way, and if 
I may, let me tell you about some of these.
    First, on the diplomatic front, we do several things and we 
continue to do so. We seek to dissuade other countries from 
recognizing Abkhazia and South Ossetia, and in the spirit of 
the dogs that do not bark, those are important achievements 
that that has not gone forward further than it should. Here we 
radically disagree with the Russians, and we do when the 
Presidents meet. We do when Secretary Clinton meets with 
Foreign Minister Lavrov, and I will continue to do so if 
confirmed as Ambassador to Russia.
    Second, we affirm Georgia's territorial integrity in 
multilateral negotiations, whether that is over the CFE regime 
or the WTO accession. We are very persistent in those 
multilateral forums.
    Third, we support Georgia's Euro-Atlantic aspirations. We 
continue to do that.
    Fourth, we continue to press Russia to adhere, as you 
rightly pointed out, to the 2008 cease-fire agreement which we 
believe they are not respecting.
    Fifth, we continue to push for international monitors and 
greater humanitarian access to Abkhazia and South Ossetia.
    And sixth, we work directly with Moscow to try to reduce 
the pressure and sometimes coercive pressure that they put on 
Georgia. Part of our argument and part of what we have tried to 
do is to develop a substantive relationship with Russia so that 
the costs of coercive behavior in that part of the world are 
higher to Russia than they may have been 3 years ago. President 
Obama has personally engaged President Medvedev on these sets 
of issues, and we will continue to do so throughout.
    Second, it is not just diplomatic but it is in our economic 
assistance working with you all here at the U.S. Congress to 
try to support what Georgia is trying to do internally. We 
believe, like you do--I have a copy of the report--as you note 
on page 2, that supporting Georgia's consolidation of liberal 
democracy is actually a very important part of making Georgia 
more secure. And second, as you also note in this report, 
supporting economic growth in Georgia we think is also an 
important component of making Georgia more secure.
    And third, I would add, especially given some recent events 
in the region, we need Georgia to succeed as a democracy 
because at a time when other countries that we had greater 
hopes for--there are some very troubling things happening, 
including just in Ukraine yesterday. When a democracy in the 
post-Soviet world can succeed, that sends a very powerful 
message, again, to the small ``D'' democrats throughout the 
region. So that is why it is important that we do that on the 
second front.
    And third, in terms of military terms, we seek broad 
cooperation especially in two fronts. First, on the 
comprehensive reforms that Georgia is undertaking to modernize 
its ministry of defense, and second, in the training and 
equipping of Georgian soldiers that are serving with us in 
Afghanistan. And let me just mention that includes military 
service and it includes training of soldiers that are very 
important to us. They have lost 11 soldiers now; 50 have been 
wounded. We consider these very important contributions to the 
way we look at security and what we are trying to do in 
Afghanistan.
    Senator Shaheen. Thank you.
    Senator Lugar.
    Senator Lugar. I would like for you to consider a couple of 
issues sort of side by side. One is that in 2007, Russia 
suspended implementation of the Conventional Armed Forces in 
Europe Treaty and has not provided any CFE data since that 
time. Despite the attempts by the United States to revive the 
treaty, these have been rejected by the Russians.
    Now, at the same time, France recently concluded an 
unprecedented sale of military equipment to Russia in the form 
of Mistral amphibious assault ships. Subsequently other NATO 
allies, including Spain, Italy, and Germany, have reportedly 
contemplated comparable sales.
    Now, on the one hand, there are reports that Russia has an 
ambitious modernization plan for its conventional forces. This 
is one reason for asking for the CFE data so that they--we, and 
the Europeans have an idea. At the same time, there are also 
reports that things have not have progressed quite so rapidly 
as Russians might have suggested, that the conventional forces 
have not grown that dynamically.
    How does the weapons purchase business fit together with 
whatever is occurring, and what is your judgment of, in fact, 
where the conventional forces are, quite apart from whether we 
can revive, for the sake of transparency and international 
reassurance, the CFE Treaty?
    Dr. McFaul. Thank you, Senator. There are a lot of complex 
issues here that you have mentioned.
    With respect to the CFE Treaty, we initiated earlier this 
year--Ambassador Nuland was our negotiator--a very rigorous and 
comprehensive set of diplomatic interactions with our allies 
and with Russia to try to come up with a framework agreement to 
try to enhance and expand the CFE regime.
    Frankly, the talks have broken down with Russia despite the 
efforts of Ambassador Nuland. There are some smaller issues, 
but the main issue of where Russia could refuse to accept the 
definition that every other signatory to the CFE Treaty 
accepted was over the issue of host nation consent. And here, 
obviously, we are talking about Georgia.
    So we are not optimistic that there will be a way forward 
right now, and before the next set, the planned set of exchange 
of information this December, as you well know, occurs, we are 
now consulting with our allies about how best to form a unified 
policy about what to do before that December deadline. And I 
expect you will be hearing from us very shortly on that.
    With respect to other bilateral sales and the 
modernization, I think you are right in your assessment that 
the modernization inside Russia has not gone as fast as some 
would like. It is a debate in Russia, just so you understand. 
In fact, the Finance Minister of Russia recently resigned just 
a few days ago over a dispute that he had with President 
Medvedev over how much of their budget should go to these 
efforts and to expanding Russia's military. So there is not a 
firm agreement on that. It is a real domestic issue in Russia.
    With respect to other countries' sales, I do not think I 
should comment on that other than to say we noted what 
President Sarkozy said when he was in Tbilisi just a few days 
ago affirming many of the same things that I just said about 
our joint project to affirm Georgia's territorial integrity and 
to enhance Georgia's security.
    Senator Lugar. This is an oversimplification, but some 
analysts have indicated that as oil and natural gas increased 
in price worldwide, economic problems that were severe for 
Russia began to dissipate. And as a matter of fact, during 
President Putin's regime when much of this happened, there 
became general approval of the central government because the 
military could be paid, so could civil servants, so could most 
Russians achieve some degree of prosperity. Others have noted 
what goes up can come down.
    Therefore, I am curious as a student of Russia, as you have 
been, to what extent is the Russian budget really dependent 
still upon these external sources in that it does not appear, 
given President Medvedev's leadership, there has been the kind 
of dynamic or even large investment from abroad in what was 
hoped to be a Silicon Valley type situation or various other 
ways in which Russians could make money. The dependence upon 
these resources still seems to be there and as you mentioned, 
the conventional forces and their defense budget, as we are 
having this debate in our country, how much our defense budget 
depends upon how our own budget business works out. This must 
be a more severe problem for Russians given the huge cyclical 
changes in these energy prices.
    Dr. McFaul. Well, Senator, I have learned in 3 years 
working at the White House, that I am no longer allowed to be 
just a student of Russia. I am an administration official 
before you. I look forward to the freedom of Stanford and 
Hoover some day in my future.
    But let me give you a more serious answer. I think your 
analysis is absolutely right. I think the coincidence of the 
rise of oil prices over the last 10 years before 2008 and the 
rise of Russia's economy was not a coincidence. That 
correlation is firm. And by the way, that correlation goes back 
further. You can see the rise and fall with the Soviet Union as 
well.
    Russia did experience an economic crisis like the rest of 
the world in 2008 and 2009, and that sparked a very serious 
debate inside Russia that continues to this day. And I would 
just oversimplify to say--it is exactly along the lines you 
just described, which is some realize that just relying on the 
export of oil and gas is not a future to the 21st century or 
the 22nd century. And some day that will run out. That is 
cyclical. And if Russia just does that, they are going to fall 
off the charts in terms of the largest economies and their 
place in the world.
    President Medvedev believes that. He has made that very 
clear. And as you noted, he has talked about economic 
modernization and, in particular, trying to capture--which 
after all are some of the most educated people still in the 
world, especially in math and physics. And he has initiated 
this idea that we need to have our own Silicon Valley too. He 
traveled to Stanford. He traveled to Silicon Valley when he was 
here last year, and we encouraged that because I think spending 
a little time there, having lived there for the last three 
decades, there is nothing like experiencing the place as 
opposed to reading about it.
    And having visited their Silicon Valley with Vice President 
Biden earlier this spring, I can tell you they have a long ways 
to go. Right now it is just an idea. But the idea is the 
correct one because in the long run, that is where Russia's 
future is, and encouraging people to invest both where they 
live and where they invest intellectually and also financially. 
That will not happen without better institutions to protect 
property rights, including intellectual property rights, in 
Russia.
    And moreover, I would say it will not happen without a 
modern political system as well. I think history has shown that 
you can have economic modernization at low levels of economic 
development, and we know of lots of countries, including the 
Soviet Union in the early periods of its development, where you 
can do that. But at higher levels of economic development, it 
does not work that way. You have to have political 
modernization as well.
    Let us take one issue that is a really big issue in Russia 
today: corruption. Well, there are some ways to fight that with 
a stronger state, but as we know, again history has shown and 
our own country has shown, by the way, another important 
mechanism for fighting corruption is democracy. It is 
independent media. It is a real opposition party. It is a real 
Congress that holds the executive branch accountable right as 
we are doing right here today. It is an independent judiciary. 
Those are very important mechanisms for fighting corruption and 
helping to support economic modernization.
    I have spoken about these issues as a Government official, 
and as Ambassador I hope to engage in these debates with the 
internal debate that is happening in Russia today on this set 
of issues.
    Senator Lugar. I would just say parenthetically President 
Medvedev chose to visit Stanford and Silicon Valley first when 
he came last year and those of us in Washington second in terms 
of priorities, which are probably in terms of Russia's 
consideration. But when I asked him directly how can you 
anticipate this investment given the climate of corruption and 
judicial difficulties, he only responded: Well, that is a very 
interesting question. And here is the dilemma I think.
    Thank you.
    Senator Shaheen. Senator Menendez.
    Senator Menendez. Thank you, Madam Chairlady.
    Dr. McFaul, I am enthused by your nomination for this post. 
Not only have you been a scholar of the region, but you have 
also lent your expertise and time to organizations such as NDI 
and Freedom House that promote human rights and democracy. A 
commitment to sustaining democracy, supporting indigenous 
efforts to expand civil society and enhancing respect for human 
rights are issues I feel passionately about. I am sure that if 
you are confirmed, you will continue to hold those views as the 
U.S. Ambassador to Russia.
    Now, I do have a line of questioning that is very important 
to me, and I just want to reflect a moment on your yearning for 
academic freedom. And as I have said in the past to other 
nominees that have come before the committee, if you are 
confirmed, you will take an oath of office and that oath is to 
the Constitution of the United States. That oath means a 
constituted government that is both the executive and the 
legislative branch. And while the President may nominate you, 
it is the Congress, particularly the Senate, confirms you. So I 
hope that you will not view yourself only as an administration 
witness, but more as the nominee.
    So with that to preface where I am coming from, I want to 
talk to you about Russia's relationship with Iran. As the 
former codirector of the Iran Democracy Project at the Hoover 
Institution, I think you are very aware of Russia's continued 
support for Iran's nuclear ambitions. When I served in the 
House, I had legislation aimed at terminating the IAEA and 
Russia's support for the building of the Bushehr nuclear 
facility. As you know, with Russia's support, that facility is 
now on line, and to me that is a setback in our multilateral 
efforts as it relates to isolating Iran as it pertains to its 
drive for nuclear weaponry.
    I understand that the administration has sought to reset 
relations with Russia at least in part to get Moscow's 
assistance in isolating Iran or dealing with Iran's nuclear 
threat. Yet, as part of the assistance to Iran in building the 
Bushehr nuclear facility, Russia has trained approximately 
1,500 Iranian nuclear engineers. There is also evidence that 
Russia, at least Russian companies, may be helping Iran with a 
nuclear delivery system. And then I see the latest set of 
events that has taken place with Iran, I ask myself what it 
will take to get the Russians to understand that they need to 
cooperate with us and much of the world in having a different 
attitude toward Iran--both for its own interest as well as 
ours.
    As the United States Ambassador to Russia, what will you be 
saying to the Russians and what do you think can be done to 
move them to a better place?
    Dr. McFaul. Thank you, Senator, for the question.
    I think it is fair to say that Iran is right now and has 
been for the last 3 years if not the most important issue in 
United States-Russian relations, definitely one of the most 
important. And President Obama, as I think about the meetings 
that he has had with President Medvedev, which I have attended 
every single one and I have briefed him and been part of the 
conversations on the phone--this issue gets more attention than 
anything else.
    The proposition that we have tried to make to President 
Medvedev and other Russian Government officials is that we want 
to make our bilateral relationship between the United States 
and Russia more important geopolitically to Moscow and more 
important over the long term economically to Moscow and, at the 
same time, make the argument that the old pattern of supporting 
Iran has deleterious consequences for Russia's standing in the 
world.
    I think we have made progress on that. Most certainly you 
see it in our efforts at the U.N. Security Council and the P5+1 
negotiations where time and time again over the last 3 years, 
Russia has been with us as opposed to against us. And for me 
and for our administration, most importantly, with U.N. 
Security Council Resolution 1929, which went farther than any 
other resolution before in terms of sanctions against Iran, 
including heavy weapons, that has a direct affect on Russia's 
bottom dollar, bottom ruble, or whatever you want to call it 
where the economic effects of 1929 were real to Russia in a 
way--for obvious reasons were not real for us because we do not 
do that kind of trading. And I would remind you that 1929 also 
prohibits any cooperation with ballistic missile programs in 
Iran as well.
    Moreover, Russia then took an action, which we considered 
to be very important, to cancel a contract that they signed 
with Iran, by the way, before the Obama administration. They 
signed it before we came to office--the transfer of S-300s, 
which we believe, had that contract gone forward, would have 
been highly destabilizing to security in the Middle East.
    So we think we have made real progress in terms of having 
Russia be part of the international community, being part of 
the P5+1 as opposed to being on the outside.
    Now, with respect to Bushehr, as you rightly mentioned, 
this was a compromise that was done before us, before we came 
along. The history--whether it should have been or not--I will 
leave to those that write about previous administrations.
    What I do think is important to acknowledge here, however, 
is one important piece of an argument that we want to make to 
the rest of the world, that the regime that Russia has set up 
with Bushehr to provide the fuel and then to take out the fuel 
undermines Iran's argument for the need for them to enrich 
uranium indigenously. We think that practice, if it succeeds, 
demonstrates to the rest of the world that Iran's argument that 
they need to enrich--actually there is another way around to do 
that. So we are going to work with our Russian counterparts to 
make sure that it does succeed, and we will continue to try to 
show unity before Iran that will have to include Russia.
    Senator Menendez. So these reports of Russian companies 
helping Iran with a nuclear delivery system would be high on 
your priority list?
    Dr. McFaul. Absolutely.
    Senator Menendez. And what is it that you think is 
necessary? You talked about having a relationship that is more 
important geopolitically to Russia than it is to have with 
Iran. What is that we need to do to move them even further in 
that direction?
    Dr. McFaul. It is a big, long-term proposition. I want to 
make that clear. It is not going to happen overnight. But the 
idea is that the weapons that they were selling before, the 
heavy weapons they were selling before--they have argued to us, 
well, that hurts our bottom dollar. They said that to the 
President very directly. Why should we support that? And they 
point out arms sales that we make in other places. We want to 
make the argument to them that being part of the international 
community--and by the way, this is not just a bilateral piece. 
This is an international piece. We can enhance your economic 
development along other dimensions, including trade and 
investment with the United States and Europe. That is the 
proposition.
    And I want to be blunt about it. It is not a proposition 
that everyone in Russia accepts. It is a debate inside Russia 
right now, and it is a debate between different factions that 
have different interests that see the world differently. 
Therefore, we have to engage that debate and work closely with 
those that see ultimately Russia's future as part of Europe and 
part of that community as a part of being--and to defend and 
then fight against those that see Russia's future in this 
different dimension.
    Senator Menendez. So, a final question. I appreciate the 
chair's indulgence.
    Hearing you answer that question, it sounds to me like the 
geopolitical relationship we are talking about is a bottom-
line-oriented one as it relates to its economy.
    Dr. McFaul. With its economy, yes, but also with its 
geopolitical position, that we want Russia to be a responsible 
member of the international community, to not be trading with 
proliferators, to not be supporting those kinds of countries. 
We were very disappointed, for instance, when Russia vetoed the 
resolution on Syria last week at the U.N. Security Council. 
That to me and to the Obama administration was not a 
demonstration--that it was not an affirmation of this different 
kind of world we are seeking to have that has Russia with us as 
opposed to against us.
    Senator Menendez. Thank you, Madam Chairlady.
    Senator Shaheen. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you.
    Congratulations. Thank you for your service and 
congratulations on your nomination.
    I want to take off from the point you just touched upon 
which is the veto of the resolution. I also read where they 
said, however, that it is not a blank check. I think I am 
correct.
    What are the parameters? And I know I am asking you to 
guess or maybe not. Maybe you know. Where are the outlines of 
how far they are willing to let this go in Syria before they 
take a more Turkey-like attitude toward what is happening? Do 
you have any sense of that?
    Dr. McFaul. Thank you, Senator.
    I have a sense from the negotiations and the conversations 
we have had with senior Russian officials. Most recently 
Foreign Minister Lavrov met with Secretary Clinton in New York 
a couple weeks ago. I attended that meeting. And we had a 
pretty lengthy and tough discussion about Syria where Secretary 
Clinton made very clear what we intended to do in New York and 
why we are doing it.
    My assessment would be the following, that Russia 
understands and takes seriously the violations of human rights 
in Syria as well. And I would note that just 2 days after they 
vetoed the resolution, President Medvedev went out of his way 
to basically suggest that if this continues, Assad has to go. 
That had not been said. I could be mistaken, but I do not 
remember the President of Russia ever saying it that boldly. 
That was a good sign.
    Where we had disagreements in the U.N., just to explain, 
not to excuse, was some nervousness on the part of some of the 
Russian Government that if we approve this resolution, that 
will end up like a situation in Libya. And as you will recall, 
in Libya with U.N. Security Council Resolutions 1970 and 1973, 
Russia did not support them, but Russia abstained and were with 
us in much closer agreement about the violations of human 
rights there. They worry about a precedent. We have made that 
very clear that that is not the way we see it and we are going 
to continue to work with them. I suspect we will be working 
with them in New York in the coming weeks for another 
resolution of where we can show agreement.
    Senator Rubio. You are generally optimistic that at some 
stage here in the near future, there is a point at which they 
can be partners on some sort of international measure with 
regards to that.
    Dr. McFaul. I want to be careful about the word 
``optimistic.'' I want to say that we are going to work this 
very hard.
    Russia has to understand the long-term implications of 
disunity at the U.N. Security Council. We cannot lose our moral 
voice there. And I think they have to understand that to get on 
the right side of history as to what is happening in Syria.
    It is hard to judge and I want to emphasize when I say 
Russia, there is no one Russia. There are many Russian voices 
on this right now. There is a healthy debate inside Russia. 
There are some officials, for instance, that met and hosted 
leaders of the Syrian opposition not too long ago in Moscow, 
and one of those Syrian opposition leaders is an old colleague 
and friend of mine, and he reported to me a very productive 
conversation that they had. So I do not want to predict the 
future. Let me predict our future, which is that we are going 
to continue to work this very hard.
    Senator Rubio. This may have already been covered. I 
apologize if it was, but obviously yesterday's developments 
with the announcement of a plot to assassinate the Saudi and 
Israel Ambassador and its ties to the Iranian Government--what 
impact do you think that will have in terms of Russia's role on 
the Security Council and our search for potentially greater 
sanctions with regards to Iran and their nuclear ambitions?
    Dr. McFaul. Senator, as I did say before, we consider our 
new and more robust cooperation with Russia on Iran to be one 
of the signature achievements of what we have done with Russia 
and the reset over the last 3 years. And in particular, U.N. 
Security Council Resolution 1929, which went farther than ever 
before in terms of new sanctions, including sanctions against 
the delivery of heavy weapons that Russia was a principal 
exporter to Iran and then after that when they took the action 
to cancel the sale of the 
S-300s which we consider to be very important.
    My prediction. Secretary Clinton called Foreign Minister 
Lavrov today to brief him on what occurred and the activities 
we have taken. We have a pretty robust cooperation with Russia 
already on these kinds of issues and in many areas, by the way, 
not just 
vis-a-vis Iran but on preventing and working to thwart other 
terrorists and terrorist organizations. My prediction is that 
this will strengthen our cooperation on these kinds of issues.
    Senator Rubio. My last question is a little broader but it 
has to do with China and Russian relations. Obviously, they 
have a complicated history and a large border. Just looking at 
it, I think some have made this argument that if you look at 
some of the strategic challenges that Russia may face in the 
region, it ultimately may be coming from China, not from the 
United States. Is that perceived--I mean, obviously, they are 
aware that they have large territories that happen to be rich 
in natural resources, are not heavily populated, and that a 
growing China would--you know, growing military ambitions or 
growing military capacities and growing energy needs and so 
forth--this could pose some conflict down the road. Is there an 
awareness of that, that China poses a real potential strategic 
challenge for Russia not today but in the next 5 to 10 years in 
terms of regional influence?
    Dr. McFaul. Senator, your question is very timely because 
Prime Minister Putin is in China today, and he has made some 
remarks about their cooperation and trying to enhance their 
cooperation. China is a very important economic partner for 
Russia most directly right now in terms of the export of raw 
materials, energy resources. But as Prime Minister Putin just 
mentioned today, they want to expand that to other areas of 
cooperation, and they have announced some pretty big deals 
during his visit.
    That said, I think there is an awareness of what you 
described, and I think the awareness--there is a divide. There 
is a debate about China not unlike the debate that we have here 
in our country about the rise of China and how to manage that. 
I think the Russians see that the management of China's rise in 
a way that is good for them and enhances their security is a 
central foreign policy challenge looking out not just in the 
years to come but in the decades to come. They do not want to 
have a confrontation with China, but they want to manage that, 
and yet they realize that that will be a central challenge to 
their security. Particularly, as you rightly pointed out, if 
you look at the demographics and the populations and the way 
they are growing out there in Siberia, that will be a real 
challenge for Russia in the coming decades.
    Senator Rubio. I want to talk briefly about our partnership 
with Russia in space which is critical now in the aftermath of 
the shuttle program. I mean, obviously, at the NASA level, we 
get reports about the professional relationships between our 
space program and their space program. At the policy level, do 
they view our partnership in space as a leverage point for them 
on us? Do they view it as an important--what is their view of 
that partnership from the political standpoint for them?
    Dr. McFaul. Well, Senator, it has been a very important 
area of cooperation for a long, long time, as you know well. 
Through that cooperation, we have developed--in terms of the 
policy sense, you asked the right way to frame it. I would put 
it this way. Russia, and even before that, the Soviet Union--we 
competed, you know, obviously, but they saw themselves as one 
of the few countries in the world that could make contributions 
to space exploration, to those areas of your economy which 
required high technological sophistication. So they are very 
proud of what they have done in space, and they see that as a 
place for cooperation with the United States. They see that as 
an instance, if we can cooperate there, that can lead to other 
opportunities in the high-tech dimensions. We were talking 
about the Silicon Valley, for instance, pharmaceutical 
industries, where their brain power can be leveraged with our 
brain power and our innovative power and I would say our 
creativity when it comes to venture capitalism, which they do 
not have. They see that as areas of cooperation. And I think 
the cooperation in space can be a kind of analogy for these 
other kinds of cooperations that they are now seeking. 
Nanotechnology is another area, for instance. If we can 
cooperate in space, on this hard stuff that we have done 
before, let us see if we can find it in these other places, 
particularly that would be of commercial benefit to Russian 
scientists, Russian companies in the high-tech industry and 
American companies as well.
    Senator Shaheen. Thank you.
    I have two other areas that I would like to explore before 
we close today.
    The first is WTO accession. Obviously, Russia's continued 
occupation of Georgian territory is a complicating factor for 
their accession to the WTO. I wonder if you could speak to what 
is happening with current talks that are going on and the 
likelihood of success and talk about what the impact of Russia 
joining the WTO would be.
    Dr. McFaul. Thank you, Senator.
    Let me start by making an obvious point, but it is 
sometimes misunderstood. The Obama administration is 
supporting, and vigorously supporting, Russia's accession to 
the WTO because we believe that it is a good deal for the 
United States of America. It is in our national interest, 
particularly our economic interest. And let me just elaborate a 
little bit because sometimes it is somehow framed as a gift to 
Russia. We are not in the business of giving gifts to Russia. 
We are in the business of advancing our national interests.
    So, first, lower and predictable tariffs. That is what we 
get if Russia joins the WTO. By the way, they already have 
those benefits with us because of the most-favored-nation 
status.
    Second, Russia will accept international food safety 
standards that will make it harder for them to manipulate these 
things that in the past have prevented us from exporting 
poultry and pork in particular. And by the way, President Obama 
has spent a great deal of time negotiating with President 
Medvedev over our poultry exports and pork exports. We want to 
bring Russia into the international community where they adhere 
to international standards so that we do not have to be using 
Presidential time to do what should be something that they have 
to do because of their obligations before the WTO.
    Third, Russia will have to accept new obligations for 
intellectual property rights, not just new laws but new 
enforcement.
    Fourth, the WTO has a dispute resolution mechanism which 
will offer recourse for American firms that sometimes suffer 
through some of these shenanigans we just were talking about. 
Now, it 
is not a silver bullet. I do not want to overplay what that can 
do, but it is another leverage. It is another tool, if you 
will, for our companies.
    Fifth, it will open up a whole new set of opportunities for 
services, particularly banking and insurance, that right now is 
constrained because Russia is not in the WTO.
    And more generally, having Russia in a rules-based 
international economic regime we think is good for the United 
States and good for the world economy. And in particular, it 
will constrain some of the bad actors in Russia, the bad 
economic actors, and will help the reformers in Russia that are 
pushing to see Russia to become a more open and market-oriented 
economy.
    We also believe, most importantly, that because of those 
things I just mentioned, we will increase American exports to 
Russia. Some estimates say that it will double our exports to 
Russia over the next several years, and that means jobs in 
America. That means maintaining jobs and creating new jobs here 
in America. And it will not have some of the negative 
repercussions of other agreements in other countries that have 
joined the WTO because of the nature of our bilateral trade. 
And in particular, just to underscore, Russia does not export 
finished goods to the United States. It is principally raw 
materials, and that is not going to change. But what will 
change will be greater access for our consumer goods, including 
food exports to Russia.
    Now, with respect to Georgia, this issue has not been 
resolved. The WTO works by consensus, and without Georgian 
agreement to Russia's WTO membership, it will not move forward. 
The Swiss Government has been leading a very active mediation 
process between Russia and Georgia, and we are supporting that. 
We think that the Swiss have come up with some very creative 
ideas, and we are urging both sides to take those negotiations 
very seriously.
    Senator Shaheen. And is that the role that you envision 
that the United States should be playing at this point? Is 
there more we should be doing?
    Dr. McFaul. Well, from time to time, various Russian 
officials--and in the press maybe you have read there has been 
talk about votes, talk about, you know, it is our job to roll 
the Georgians so that Russia can get into the WTO. That is 
firmly not our view and we have made that very clear to Russian 
Government officials, including just recently when First Deputy 
Prime Minister Igor Shuvalov was here just last week. He met 
with many of us, including the Vice President. And we have made 
very clear that that is not a road to accession.
    Senator Shaheen. Thank you.
    And finally, obviously, the change in the Presidency and 
the return of Putin is going to affect our future relationship. 
Can you talk about whether you see any significant change and 
what the relationship will be? How will he view the reset 
compared to how Medvedev has worked with us over the last 
several years?
    Dr. McFaul. Madam Chair, I would say first that from the 
very beginning, as I outlined in my opening remarks, the reset 
has always been about advancing American national interests. 
The President was very clear to us. We had a debate about this, 
and some said, well, we need some symbolic actions to create a 
better atmosphere, and if we have a better atmosphere, then 
that will help us on these other things. The President's view 
was the exact opposite. Let us do real business together that 
is good for the United States and we presume would be good for 
Russia because we would not be able to do it otherwise. And 
through concrete achievements, that will create better 
atmospherics. And we believe that that strategy has succeeded. 
It was not a strategy about individuals as it was a strategy 
about American national interests.
    I will remind you that Prime Minister Putin has been Prime 
Minister for the whole reset. It is not like he has been some 
sideline person. He has been present at every step of the way. 
We have talked to him directly as the President did when we 
were there 2 years ago. The Vice President met with Prime 
Minister Putin when we were there in the spring. And we will 
continue to engage with him if, indeed, he is elected President 
next year.
    But the policy has never been about personalities. It has 
been our interests. And I would say at this point we will have 
to wait and see. It is very clear what our policy is, and we 
look forward to seeing what President Putin brings to the 
table.
    The last thing I would say is just to underscore President 
Obama did develop and has developed and continues to work with 
President Medvedev. They do have a good working relationship. 
They meet frequently because of the nature of international 
diplomacy. They meet at various international settings. We have 
found that to be a very productive relationship, and I think we 
should be proud of the fact that we developed that because, 
after all, it is through relationships that you advance your 
interests. And we are going to continue to do so whoever is the 
next President of Russia and the rest of the Government of 
Russia as well.
    Senator Shaheen. And certainly I appreciate that the reset 
was about how we can address our national interests, but 
nevertheless, personalities do play a role. At least reading 
the reporting about how particularly some of the Russian human 
rights activists feel about Putin's return to the Presidency, 
there is some concern about what that means for the state of 
democracy and for the openness for civil society and freedom of 
the press, all of those things. So how do we expect to address 
the changes that might occur with a returned President Putin 
from what we have been dealing with over the last several 
years?
    Dr. McFaul. I think we stick to our policy, which is to say 
we are going to engage with the Russian Government on mutual 
interests, and in parallel and at the same time, we are going 
to continue to engage. And I hope, if confirmed, I will be a 
part of this as Ambassador to deepen our engagement with 
Russian civil society. And we are not going to allow some false 
trade that says because you are dealing with us on issue X in 
the government channel, you cannot do this with Russian civil 
society. We have firmly rejected that kind of linkage that has 
been presented before us in the earlier periods of our 
administration. And again, if confirmed, I see that as a 
central challenge and a central responsibility that I will have 
as U.S. Ambassador to Russia.
    Senator Shaheen. Thank you.
    Senator Lugar, any other questions?
    I think that is the end of my questions and Senator Lugar's 
as well.
    So I just want to point out that we will keep the record 
open here on the hearing until noon tomorrow. So there may 
other questions that come in from members of the committee.
    Again, I want to thank you very much for the service that 
you have already provided to the country and for your 
willingness to take on this very significant job ahead and hope 
that we will see a speedy confirmation on the part of the 
Senate.
    Thank you all and the hearing is closed.
    [Whereupon, at 4:00 p.m., the hearing was adjourned.]

       Additional Questions and Answers Submitted for the Record


   Responses of Michael McFaul to Questions Submitted for the Record
                      by Senator Richard G. Lugar

    Question. The administration has sought to cooperate with Russia on 
U.S. missile defense programs in Europe. Last fall, the committee 
learned that the Russian Federation rejected a draft Defense Technology 
Cooperation Agreement and Ballistic Missile Defense Cooperation 
Agreement presented by the United States.

  <bullet> a. Why did Russia reject these draft agreements?

    Answer. The United States and Russia have been negotiating a U.S.-
Russia Defense Technology Cooperation Agreement since 2004. This is a 
broad agreement that, once concluded, would address the Parties' 
responsibilities and rights with respect to a broad range of defense-
related cooperative research and development activities, including 
missile defense. The administration decided to propose a more limited 
form of the Defense Technology Cooperation Agreement that would only 
address missile defense cooperation issues--a Ballistic Missile Defense 
Cooperation Agreement. The latter would establish a framework to allow 
for bilateral ballistic missile defense cooperation, including: 
transparency and confidence-building measures, BMD exercises, data-
sharing, and research and development. Details about how to cooperate 
would need to be negotiated subsequent to a Ballistic Missile Defense 
Cooperation Agreement. The proposed agreement does not specify any 
missile defense cooperation measure in particular; instead, it would 
serve as an umbrella agreement under which future individual technology 
agreements could be considered. In 2010, the Russian Government 
indicated that it did not wish to negotiate a Ballistic Missile Defense 
Cooperation Agreement at that time.
    Russia has expressed interest in developing missile defense 
cooperation, but has asked for legally binding guarantees that U.S. 
missile defense systems will not threaten Russia's strategic nuclear 
deterrent prior to engaging in practical missile defense projects. The 
United States will continue to discuss possible missile defense 
cooperation with Russia, but will not accept any limits or constraints 
on our ability to effectively defend the United States, our deployed 
forces, and our allies and partners from the ballistic missile threat.

  <bullet> b. What is the status of these or related agreements?

    Answer. The Obama administration continues to engage Russia on 
developing an appropriate political and legal Defense Technology 
Cooperation Agreement framework that would enable substantive missile 
defense cooperation while protecting U.S. technology and information. 
These discussions are taking place in the U.S.-Russia Presidential 
Commission's Arms Control and International Security Working Group, led 
by Under Secretary of State Ellen Tauscher and Deputy Foreign Minister 
Sergey Ryabkov, and the Defense Relations Working Group's Enhanced 
Missile Defense Sub-Working Group, led by Principal Deputy Under 
Secretary of Defense for Policy, James Miller, and Deputy Minister of 
Defense, Anatoliy Antonov. The Department of Defense continues to 
negotiate a Defense Technology Cooperation Agreement with the Russian 
Ministry of Defense and the most recent round of negotiations took 
place in September 2011.

  <bullet> c. Was there a Circular 175 issued for either of these 
        agreements?

    Answer. Yes. A Circular 175 was issued for both of these proposed 
agreements. Authority to negotiate the Defense Technology Cooperation 
Agreement derived from a blanket Circular 175 authorization provided to 
the Department of Defense in 1999 and the Circular 175 authority to 
negotiate the Ballistic Missile Defense Cooperation Agreement was 
signed by Under Secretary for Arms Control and International Security 
Affairs, Ellen Tauscher, in 2010.

  <bullet> d. Will you share the text of these agreements with the 
        Senate Foreign Relations Committee?

    Answer. The administration is committed to keeping Congress 
informed of our missile defense efforts. These proposals were briefed 
in detail to Senate staff members in December 2010 during Senate 
consideration of the New START Treaty. In keeping with the longstanding 
practice of this and past administrations, the administration would be 
pleased to provide a classified briefing on the Defense Technology 
Cooperation Agreement, including developments from the latest round of 
United States-Russia meetings.

  <bullet> e. In your view, how could Russia assist with U.S. missile 
        defense plans in Europe?

    Answer. The administration is committed to working with Russia to 
find an approach and configuration for missile defense cooperation that 
is consistent with the security needs of both countries, maintains the 
strategic balance, and addresses the potential ballistic missile 
threats that we both share. Effective cooperation with Russia could 
enhance the overall effectiveness and efficiency of our combined 
territorial missile defenses. Russian sensors and interceptors could 
reinforce and augment our ability to detect, track, and destroy 
missiles launched by potentially hostile countries, especially from the 
Middle East.
    Irrespective of how cooperation with Russia develops, the NATO 
alliance alone bears responsibility for defending NATO's members, 
consistent with our treaty obligations for collective defense. The 
administration has been clear with Russia that it cannot accept any 
agreement that would limit or constrain the deployment of United States 
missile defenses--no nation will have veto power over U.S. missile 
defense efforts--and that NATO will be responsible for the defense of 
NATO territory, while Russia will be responsible for the defense of 
Russian territory.

  <bullet> f. Does Russia share the same assessment of the threat that 
        U.S. missile defense programs are designed to counter?

    Answer. Russia recognizes that ballistic missile proliferation 
significantly affects regional and global security and Russia actively 
supports international missile nonproliferation efforts. In May 2011, 
the United States and Russia completed a classified expert-level 
exchange on ballistic missile threats. This process showed some areas 
of agreement, as well as important differences, in each others' 
perceptions of the ballistic missile threat.

  <bullet> g. If yes, please describe. If no, how does this affect your 
        answer to (e)?

    Answer. Russia is a supporter of international missile 
nonproliferation efforts and is an active participant in the Missile 
Technology Control Regime and the Hague Code of Conduct Against 
Ballistic Missile Proliferation. Russia has also supported a series of 
United Nations Security Council Resolutions related to Iran's nuclear 
and ballistic missile programs.
    In May 2011, the United States and Russia finished the joint threat 
assessment work outlined in the joint statements of President Obama and 
President Medvedev dated April 1 and July 6, 2009. The 2-year process 
entailed expert-level exchanges between U.S. and Russian security 
experts. This process was chaired by Acting Assistant Secretary of 
State Vann Van Diepen, and by Deputy Secretary of the Security Council, 
Valeriy Nazarov, and Assistant to the Secretary of the Security 
Council, Yevgeniy Lukyanov.
    Even in the absence of full agreement on ballistic missile threats, 
ballistic missile defense cooperation with Russia is still possible and 
desirable. Effective cooperation with Russia could enhance the overall 
effectiveness and efficiency of our combined territorial missile 
defenses. Russian sensors and interceptors could reinforce and augment 
our ability to detect, track, and destroy missiles launched by 
potentially hostile countries, especially from the Middle East.

    Question. In 2007, Russia suspended implementation of the 
Conventional Armed Forces in Europe Treaty and has not provided any CFE 
data since. Recent attempts by the United States to revive the treaty 
without sacrificing the principles of host-nation consent and 
reciprocity were also rejected by Moscow.

  <bullet> a. What countermeasures has the United States executed after 
        4 years of Russian noncompliance?

    Answer. The United States has not yet taken countermeasures in 
response to Russian noncompliance with its CFE Treaty obligations, 
although the administration continued to cite Russian noncompliance in 
the Treaty Joint Consultative Group and in our national compliance 
documents, the ``2011 Report on Adherence to and Compliance With Arms 
Control, Nonproliferation, and Disarmament Agreements and Commitments'' 
and the ``Condition (5)(C) Report: Compliance With The Treaty On 
Conventional Armed Forces In Europe.'' During the last 4 years, the 
United States has led efforts by NATO allies to address the issues 
raised by Russia and bring it back into CFE compliance. The United 
States and its NATO allies believed strongly that we needed to 
demonstrate our commitment to conventional arms control by continuing 
full implementation of CFE obligations despite Russian noncompliance. 
The United States and our NATO allies have repeatedly emphasized that 
this situation cannot continue indefinitely, most recently at the 
September 29 CFE Review Conference. The administration is discussing 
with our allies the available legal options with regard to Russia while 
continuing to implement CFE with regard to the other state parties to 
the treaty.

  <bullet> b. Should we be concerned about the lack of transparency 
        surrounding Russia's ambitious modernization plan for its 
        conventional forces?

    Answer. The current impasse with respect to CFE does not help 
increase transparency on Russian force modernization plans, but full 
CFE implementation would not completely address U.S. concerns on this 
issue. The CFE Treaty was intended to provide information about 
existing force structure, rather than provide insights into future 
organization and force modernization. Russia has provided some 
information on the goals of its reorganization through our bilateral 
defense dialogue, and the U.S. Government has received similar 
information through contacts in NATO and the OSCE. While this 
information is useful, it does not provide the level of detail about 
specific locations that could be afforded by restarting CFE on-site 
inspections.

  <bullet> c. Do you believe that nonlegally binding disclosures 
        through the Vienna Document are sufficient for the United 
        States to gain an understanding of the disposition of Russian 
        conventional forces?

    Answer. The disclosures and military observation visits available 
through the Vienna Document provide some insight into the disposition 
of military forces in order to increase confidence among participating 
states, but they do not allow the same level of intrusive verification 
and inspections afforded by the legally binding CFE Treaty. The Vienna 
Document and the CFE Treaty are complementary, not interchangeable. 
Each has a specific purpose and distinct contribution to overall 
stability in Europe. As became evident several years ago when an 
attempt was made to ``harmonize'' the regimes, there is no simple way 
to adjust the provisions of the Vienna Document to incorporate all the 
elements of the CFE Treaty.

    Question. France recently concluded an unprecedented sale of 
military equipment to Russia in the form of the Mistral amphibious 
assault ship. One senior Russian military official noted that the ship 
could be useful in military operations in the Black Sea. Subsequently, 
other NATO allies, including Spain, Italy, and Germany, have reportedly 
contemplated comparable sales. What is your view of these military 
sales to Russia and what effect do these sales have on regional 
stability and NATO cohesion?

    Answer. Decisions about such sales are a matter for sovereign 
states taking into account a host of factors, including international 
law and regional stability. All countries should exercise judgment and 
restraint when it comes to deploying military equipment that could 
exacerbate tensions in any conflict region. NATO is an enduring 
alliance that has weathered more than 60 years of sweeping change. The 
administration remains committed to NATO, and to our mutual obligations 
to build a safe and secure Euro-Atlantic region.

    Question. The U.S. Senate made clear in its Resolution of Advice 
and Consent to the New START Treaty that the next round of arms control 
negotiations would have to address Russia's excessive and opaque 
tactical nuclear weapons arsenal. Russia has refused to negotiate over 
these weapons until a binding agreement is reached on conventional, 
missile defense, and space capabilities, a condition that appears to 
merely prevent discussion on Russian tactical nuclear systems. Do you 
believe that Russia's position is constructive?

    Answer. As President Obama outlined in Prague in 2009, the United 
States is committed to continuing a step-by-step process to reduce the 
overall number of nuclear weapons, and to the pursuit of a future 
agreement with Russia for broad reductions in all categories of nuclear 
weapons--strategic, nonstrategic, deployed, and nondeployed. Russian 
officials have stressed that further reductions in nuclear forces are 
connected to a substantial number of other issues. Developing a mutual 
understanding with Russia of the relevant issues is the first step to 
achieving a future agreement. As such, the administration has proposed 
holding broad policy discussions with Russia on issues of stability, 
security, and confidence-building. The administration sees discussions 
on strategic stability as an opening that will allow for engagement on 
future reductions in all categories of nuclear weapons, in a way that 
will meet the Senate's requirement in the Resolution of Advice and 
Consent to the New START Treaty that the next round of arms control 
negotiations address Russia's tactical nuclear weapons arsenal.

    Question. The OSCE recently announced that it would acquiesce to 
Russia's demand that only 200 election observers be allowed to monitor 
the Duma elections in December 2011.

  <bullet> a. What conversations have you had with Russian officials on 
        this matter?

    Answer. The United States has urged Russia to permit international 
and independent domestic observation of its electoral processes, both 
in the campaign and on election day. The administration has also made 
it clear that it supports the integrity of the OSCE's Office of 
Democratic Institutions and Human Rights (ODIHR) and the OSCE's 
election observation standards.
    Russia's Central Election Commission issued an invitation on 
October 7 for an Election Observation Mission from ODIHR and the OSCE 
Parliamentary Assembly. The United States has welcomed the invitation, 
which represents an improvement from the situation in 2007 and 2008.
    The administration understands that ODIHR intends to send 60 long-
term election observers (LTOs), and plans to have them on the ground in 
Russia for 5 weeks before and after election day on December 4. It also 
plans to send 140 short-term observers (STOs). The OSCE Parliamentary 
Assembly also plans to send observers. The administration has urged 
Russia to grant all observers the necessary visas and any other 
required accreditation in a timely manner. The United States will 
continue to observe the electoral process in Russia, and looks forward 
to ODIHR's assessment of the process.

  <bullet> b. How do the conditions imposed on the OSCE compare to the 
        conditions imposed in 2007, which led to the OSCE's 
        cancellation of its monitoring of the Russian Duma elections?

    Answer. In 2007, Russian authorities delayed sending an invitation 
to ODIHR, and when they finally issued the invitation, they imposed 
unprecedented restrictions on the observation mission. When ODIHR 
requested to deploy 70 election experts, Russia denied them visas.
    This year, Russian authorities issued a timely invitation letter 
that did not contain restrictions on the number of observers. ODIHR has 
confirmed that 60 LTOs will be on the ground in Russia for 5 weeks 
before and after election day on December 4, and that it will send 140 
STOs. The OSCE Parliamentary Assembly also plans to send observers. The 
administration has urged Russia to issue all observers visas and any 
other accreditation required in a timely manner.

  <bullet> c. Do you believe that Russia's demands will impel the OSCE 
        to again cancel its monitoring activities?

    Answer. OSCE/ODIHR has confirmed that it will send 60 LTOs and 140 
STOs. The administration understands that the OSCE Parliamentary 
Assembly also plans to send a significant number of observers. The 
administration has urged Russia to grant all observers visas and any 
other required accreditation in a timely manner.
    The administration strongly supports the integrity of OSCE election 
observation and, as elections near and events unfold, it will take 
ODIHR's assessment very seriously as to whether Russian authorities 
will permit them and other observers to do their work without 
obstruction.

    Question. What conversations have you had with Russian officials 
about allowing a full contingent of international election observers to 
monitor the Russian Presidential election in spring 2012?

    Answer. The administration has regular discussions with Russian 
officials in which it raises a full range of human rights and democracy 
issues, including Russia's OSCE commitments to holding free and fair 
elections and to allowing international and independent domestic 
election observation, both in the December 2011 elections for the Duma 
and the March 2012 Presidential elections. Most recently, Assistant 
Secretary of State Michael Posner raised these issues with senior 
Russian officials in Moscow the week of October 10.
    The United States has welcomed the October 7 invitation by Russia's 
Central Election Commission for international observers, including an 
Election Observation Mission from OSCE's Office of Democratic 
Institutions and Human Rights (ODIHR) and the OSCE Parliamentary 
Assembly, for the December 4 parliamentary elections. This represents 
an improvement from the situation in 2007 and 2008. ODIHR Long Term 
Election Observers will be on the ground in Russia for 5 weeks before 
and after election day on December 4, which will enable them to assess 
the political climate and ascertain whether parties are granted a level 
playing field in the runup to the elections.

    Question. During your tenure in the White House, what conversations 
have you had with Russian authorities regarding the death of Alexander 
Litvinenko, who was poisoned with a radioactive substance in London in 
2006? Have you pressed Russia to extradite the suspected 
perpetrator(s), who are residing in Russia?

    Answer. The administration coordinates closely with the British 
government on all aspects of our Russia policy, including ongoing 
criminal investigations and reports of human rights abuses. Most 
recently, we held consultations with our British counterparts on this 
case and other issues on the eve of Prime Minister Cameron's September 
visit to Russia. I agree with the position outlined by then-Secretary 
of State Rice in December 2006, soon after Litvinenko's death, ``We've 
been clear to the Russian Government that all of these issues need to 
be investigated and investigated thoroughly . . . and our principal 
role is to try to be supportive of the British Government in any way we 
can.'' In 2007, the United States also publicly called for Russia's 
full cooperation in the request for Andrey Lugovoy's extradition, and 
this is a position I will maintain: ``Russia should honor the 
extradition request and Russia should cooperate fully, because it is 
not in anybody's interest that we can have a crime committed of this 
kind and nothing is done about it.''

    Question. How much material has been transported via the Northern 
Distribution Network in 2009, 2010, and to date in 2011? Please include 
numbers for lethal (if any) and nonlethal equipment.

    Answer. Russia is a critical partner supporting U.S. and coalition 
efforts in Afghanistan through its participation in the Northern 
Distribution Network and its support of U.S. military overflights. 
Since the fall of 2009, under our bilateral air transit agreement, 
1,500 flights carrying 240,000 troops have transited Russian airspace 
en route to the Afghanistan area of operations. Over 51,000 cargo 
containers have transited the Northern Distribution Network, nearly 
34,000 of which have transited over land through Russia under the NATO-
Russia ground transit arrangement. There is an agreement in place 
permitting the two-way surface shipment through Russia of specific 
categories of wheeled armored vehicles, but no lethal equipment or 
cargo has yet transited Russia via the Northern Distribution Network in 
support of U.S. operations in Afghanistan.

    Question. What rate does the Russian Federation charge, if any, for 
the transport of this material across its territory? How do these rates 
compare to those of other distribution routes utilized?

    Answer. The U.S. Transportation Command (USTRANSCOM) oversees the 
flow of cargo in support of coalition forces in Afghanistan. USTRANSCOM 
does not contract for container movement directly with Russian 
contractors or pay fees directly to the Russian Government. USTRANSCOM 
contracts with U.S.-approved contractors at competitive rates to 
transport cargo from the continental United States to Afghanistan. When 
contractors transport containers through the Northern Distribution 
Network to Afghanistan, they may subcontract with various companies for 
surface transportation or pay fees to transit countries. The 2009 U.S.-
Russia air transit agreement is cost-free to flights transporting U.S. 
personnel and material aboard U.S. military aircraft; commercial 
flights operated by contractors are responsible for the payment of air 
navigation fees.

    Question. How much in total has the United States paid to Russia 
from 2009 to 2011 for the transportation of goods across its territory?

    Answer. The U.S. Transportation Command (USTRANSCOM) oversees the 
flow of cargo in support of coalition forces in Afghanistan. USTRANSCOM 
does not contract for container movement directly with Russian 
contractors or pay fees directly to the Russian Government. USTRANSCOM 
contracts with U.S.-approved contractors at competitive rates to 
transport cargo from the continental United States to Afghanistan. When 
contractors transport containers through the Northern Distribution 
Network to Afghanistan, they may subcontract with various companies for 
surface transportation or pay fees to transit countries. The bilateral 
U.S.-Russia air transit agreement concluded in 2009 is cost-free to 
U.S. military aircraft; however, commercial charter flights are 
responsible for the payment of air navigation fees.

    Question. What do you perceive to be Russian interests in assisting 
with the U.S./NATO mission in Afghanistan? What types of cooperation 
has Russia provided during your tenure in the administration?

    Answer. Russia's cooperation with the United States in Afghanistan 
is based on a shared interest in building security, stability, and 
prosperity for Afghanistan and within the region.
    U.S.-Russian cooperation on Afghanistan is one of the achievements 
of the ``reset'' policy and continues to expand, particularly in the 
areas of transit cooperation, counterterrorism, counternarcotics, and 
regional diplomatic efforts to help facilitate Afghan-led 
reconciliation. Thanks to Russia's agreement to allow the transit of 
U.S. personnel and equipment across Russian territory in support of the 
ISAF mission in Afghanistan, almost 1,500 flights and over 225,000 
military personnel have transited this corridor, while Russia's ground 
transit arrangement with NATO has resulted in the shipment of nearly 
34,000 containers of supplies to Afghanistan. To help build the 
capacity of the Afghan National Security Forces, Russia has announced a 
generous contribution of training and parts to the NATO-Russia Council 
Helicopter Maintenance Trust Fund. This donation, combined with 
donations from the United States and NATO allies, will meet a critical 
training goal for Afghanistan. Russia has also announced publicly its 
support for Afghan-led peace and reconciliation efforts. Russia joined 
the United States and other U.N. Security Council members in 
unanimously supporting reforms of the U.N. 1267 sanctions regime 
requested by the Afghan government. U.S. Special Representative for 
Afghanistan and Pakistan Grossman engages frequently with his Russian 
counterpart on political and diplomatic efforts to support stability in 
Afghanistan, and the administration looks forward to Russia engaging 
positively at the Istanbul and Bonn conferences later this year.
    With regard to counternarcotics, Russia and the United States have 
expanded law enforcement cooperation through joint investigations, 
including in support of our Afghan law enforcement partners, and the 
sharing of financial intelligence to fight drug smugglers and their 
illicit financing. Last year, in coordination with the U.S. Drug 
Enforcement Administration and the Counternarcotics Police of 
Afghanistan's DEA-mentored units, Russian Federal Counter-Narcotics 
Service personnel participated in a successful joint operation inside 
Afghanistan, which resulted in the seizure of 930 kilograms of heroin. 
The United States and Russia are actively engaged in the NATO-Russia 
Council counternarcotics program, through which more than 1,600 law 
enforcement officers from Central Asia, Afghanistan, and Pakistan have 
received training in Russia.

    Question. Russian President Medvedev has stated with respect to the 
U.S. Transit Center at Manas, Kyrgyzstan, that, ``This base, and this 
is my position and I say it openly: It shouldn't exist forever.'' Do 
you believe that Russia has any role in determining the duration of the 
existence of the U.S. presence at Manas?

    Answer. No. The terms of operation of the Transit Center are a 
bilateral matter between the United States and Kyrgyzstan. The Transit 
Center has operated without major interruption for nearly a decade. The 
administration also has an open, transparent, and continuous dialogue 
with Russia about operations in and around Afghanistan, as well as our 
military and political goals going forward. This dialogue is not always 
easy, but it takes place in a context of partnership rather than 
rivalry. Although the question of Russia's opinion of American military 
presence in Central Asia has attracted a great deal of media attention, 
the results of Russia's cooperation with us in the region have been 
largely positive. Russian air and land transport corridors are vital 
components of the allied logistics network.

    Question. You have noted the need to move beyond ``zero-sum'' 
thinking in the U.S.-Russian relationship. Russian troops, however, are 
still present in several nations, including Moldova and Georgia, 
without those nations' consent. Additionally, Russia has reportedly 
pressured many countries throughout the region to withhold defensive 
military assistance to Georgia. To what extent has this ``zero-sum'' 
thinking taken hold in Moscow?

    Answer. The administration has been consistent and forthright with 
Russia about our differences. The United States has consistently 
rejected the notion of ``spheres of influence'' and is firmly committed 
to upholding the principle of host-nation consent for the stationing of 
foreign forces, a point the administration makes regularly in its 
meetings with Russian officials, and which I will continue to do if 
confirmed. As President Obama said in a July 2009 speech in Moscow, 
``the days when empires could treat sovereign states as pieces on a 
chessboard are over.''
    Over the past 2\1/2\ years, real progress has been made toward 
putting the United States relationship with Russia and Russians on a 
more positive footing. In Afghanistan for example, Russians are 
providing unprecedented access to its airspace and transportation 
networks, helping to train and equip Afghan forces, and cooperating 
with us on antinarcotics operations in the region.
    That progress is also reflected in public opinion polls. The 
respected social research organization Levada conducted a poll in May 
2011 and found that 54 percent of Russians hold a positive view of the 
United States. The All-Russian Center for Public Opinion Research 
confirmed this trend in September with a poll finding that 55 percent 
of Russians hold positive views of the United States. By contrast, in 
November 2008, only 31 percent of Russians had a positive view of the 
United States, while 55 percent had a negative view.
    While historic patterns of thinking continue to influence Russian 
policy in some areas, this is a legacy that must be overcome if 
Americans and Russians are to realize the full benefits of the 
relationship's potential.

    Question. Article 51 of the U.N. Charter states that ``Nothing in 
the present Charter shall impair the inherent right of individual or 
collective self-defence if an armed attack occurs against a Member of 
the United Nations . . . '' Do you assess that the nation of Georgia 
has the capacity to provide for its self-defense?

    Answer. All sovereign countries have the right to self-defense in 
response to an armed attack. The United States has a broad and 
deepening relationship with Georgia in a number of areas, including 
security and defense reform. The administration's security assistance 
and military engagement with Georgia is currently focused in two areas. 
The first is comprehensive assistance to support Georgia's defense 
reform and modernization along Euro-Atlantic lines. In particular, the 
administration is focused on building institutional capacity, 
supporting personnel and doctrine reform, and contributing to 
professional military education modernization. The administration has 
also consulted with the Georgian Government on its National Security 
Concept. Second, the United States continues to provide the necessary 
training and equipment to Georgian troops in support of their 
interoperability and effective participation in ISAF operations in 
Afghanistan.

    Question. Under the ``brains before brawn'' policy, the United 
States has been assisting Georgia with doctrine, training, and military 
reform efforts. When do you foresee that Georgia will be ready for 
defensive military equipment procurements?

    Answer. Per standard practice, the administration reviews all 
requests for export licenses and arms transfers individually, assessing 
legal, technical, and policy considerations. The United States also 
continues to have a broad and deepening relationship with Georgia in a 
number of sectors. Our security assistance and military engagement with 
Georgia are currently focused on two areas. The first is comprehensive 
assistance to support Georgia's defense reform and modernization along 
Euro-Atlantic lines. Second, the United States provides training and 
equipment suitable to the Afghan counterinsurgency environment in 
conjunction with Georgia's generous contribution of troops to ISAF 
operations in Afghanistan.

    Question. During your tenure, has any assistance been provided to 
Georgian Special Forces?

    Answer. The administration's security assistance and military 
engagement with Georgia are currently focused on two areas. The first 
is comprehensive assistance to support Georgia's defense reform and 
modernization along Euro-Atlantic lines. In particular, the 
administration is focused on building institutional capacity, 
supporting personnel and doctrine reform, and contributing to 
professional military education. Second, the United States continues to 
provide the necessary training and equipment to Georgian troops in 
support of their interoperability and effective participation in ISAF 
operations in Afghanistan. Assistance to the Georgian Special Forces is 
not currently an element of these two areas of our security assistance 
and military engagement with Georgia.

    Question. During your tenure, have you made progress in reinstating 
an international monitoring mission on the ground in Abkhazia or South 
Ossetia?

    Answer. The administration continues to call on Russia to fulfill 
its obligations under the 2008 cease-fire agreement, including the 
return of international monitors to the separatist territories of 
Abkhazia and South Ossetia. The administration believes that an 
international monitoring presence in these territories remains 
essential, and hopes that Russia--which has also said it sees a need 
for monitors--will accept a return of international monitors. The 
administration also continues to press for full access to the 
separatist regions by the European Union Monitoring Mission and 
international organizations like the OSCE to address ongoing 
humanitarian and human rights concerns. A positive and concrete step 
has been the establishment of the Incident Prevention and Response 
Mechanisms (IPRMs) for Abkhazia and South Ossetia, which meet regularly 
to address security and humanitarian issues on the ground.

    Question. Have you had any conversations with other NATO allies to 
caution against arms sales to Georgia?

    Answer. The administration has neither opposed nor advised against 
other governments' sales of defense articles, including arms, to 
Georgia.

    Question. Public reports have linked Russian officers to the recent 
bombings in Georgia, including one near the gates of the U.S. Embassy 
compound in Georgia.

  <bullet> When did you learn about the reported links to Russian 
        officers?
  <bullet> What was your response?
  <bullet> Are you satisfied that Russia has conducted a thorough 
        investigation of the allegations?

    Answer. The administration takes very seriously any threats against 
U.S. facilities overseas and is concerned about any threats to peace 
and security in the Caucasus. The administration coordinated closely 
with Georgian law enforcement on the investigation into the incident 
that occurred near the U.S. Embassy. The U.S. Government also raised 
the allegations by Georgian authorities of Russian involvement directly 
with the Russian Government at high levels and urged the avoidance of 
any actions in Georgia that could impact regional stability and 
security. The administration has urged the Government of Russia to 
cooperate directly with the Government of Georgia to investigate the 
incidents. The Government of Georgia's investigation continues.

    Question. Do you believe that Russia has an interest in resolving 
Moldova's frozen conflict in Transnistria? If so, please describe those 
interests.

    Answer. Russia is a participant, along with the European Union, the 
OSCE, Ukraine, and the United States, in the 5+2 process that seeks to 
find a comprehensive negotiated settlement to the Transnistria 
conflict. The September 22 announcement by 5+2 participants in Moscow 
to relaunch official 5+2 negotiations after a 6-year hiatus was a 
positive development, and at that time, Russian Deputy Foreign Minister 
Karasin reiterated Russia's support for the 5+2 process. In June, 
Russian Foreign Minister Lavrov publicly urged both parties to the 
conflict to compromise and he made clear that Transnistria's special 
status within Moldova, not independence, was the issue on the table. 
The administration will continue to work closely with Russia and other 
participants in the 5+2 process to try to resolve the Transnistria 
conflict.

    Question. Do you believe that Russia has been constructive as a 
negotiator in the 5+2 talks over Transnistria? Do you believe that 
Russia has leverage over Transnistria in the 5+2 negotiations? What 
points of leverage exist?

    Answer. Russia joined the European Union, Ukraine, and the United 
States this year in supporting the resumption of official 5+2 
negotiations in an effort to reach a comprehensive settlement to the 
Transnistria conflict. Under the OSCE Chairman-in-Office's leadership, 
the parties to the conflict and the international participants in the 
5+2 process agreed in September to the relaunch of official 5+2 
negotiations after a 6-year hiatus. The administration looks forward to 
working with Russia and the other 5+2 participants to develop a 
comprehensive agenda and to hold an initial round of negotiations in 
the coming months.
    Transnistria continues to rely on political and financial support 
from Russia. At the same time, Foreign Minister Lavrov has publicly 
supported Moldova's sovereignty and stated that Russia supports a 
negotiated settlement that provides for a special status for 
Transnistria within Moldova.

    Question. Moldovan officials recently interdicted weapons-grade 
highly enriched uranium in Chisinau. Reports suggest that a Russian 
national, currently in Russia, was involved.

  <bullet> a. What conversations have you had with Russia on this 
        matter?

    Answer. The United States supports ongoing Moldovan efforts to 
prosecute the traffickers who were caught in June with uranium and to 
work with Russian and other partners to investigate the original theft 
of the uranium. The United States has raised this case with Russia. If 
confirmed, I will continue our robust cooperation with Russia on 
nuclear smuggling matters.

  <bullet> b. Are you satisfied with the level of cooperation the 
        United States and Moldova have received from Russia?

    Answer. The administration believes that Moldovan, Russian, and 
other authorities are taking appropriate action on this case and the 
United States will continue to offer its assistance. The administration 
routinely works with Russia in this area through, for example, the 
Global Initiative to Combat Nuclear Terrorism, which is cochaired by 
Russia and the United States.

  <bullet> c. Are you confident that the alleged perpetrator will be 
        brought to justice?

    Answer. The investigation into this case is ongoing, and for that 
reason we prefer not to comment publicly on the details of this case at 
this time.

    Question. Belarus has announced that a Russian company may soon 
construct a nuclear power plant near its border with Lithuania.

  <bullet> a. Are you confident that the proper international 
        safeguards and transparency measures are being complied with 
        thus far?

    Answer. The administration is aware that Belarus is moving forward 
with plans to build a nuclear power plant. The United States has 
clearly stated that Belarus' plans should include a competitive, 
commercial process for the design and construction of a safe, secure 
plant operating under the International Atomic Energy Agency's 
safeguards and built to the highest international standards. The 
administration has also made clear that Belarus--like all countries 
pursuing nuclear power--should do so in a transparent manner that takes 
into account the concerns of neighboring countries, as appropriate. The 
administration supports efforts by Lithuania and other European states 
potentially affected by the construction of a nuclear power plant in 
Belarus to seek additional clarifications on Belarus' plans.

  <bullet> b. Have you raised this issue with Russian officials?

    Answer. The United States regularly engages with Russia on issues 
of nuclear security, including the peaceful uses of nuclear energy. The 
administration continues to urge all parties involved to ensure that 
the design and construction of a safe, secure plant operating under the 
International Atomic Energy Agency's (IAEA) safeguards would be built 
to the highest international standards. Russia, like the United States, 
is a charter member of the Nuclear Suppliers Group and has committed to 
export nuclear materials and technology only to those countries that 
have agreements with the IAEA on the full scope of the Agency's 
safeguards. Moreover, Russia has an IAEA Additional Protocol in force, 
which requires disclosure of nuclear related exports, including to 
Belarus. Russia has also taken part in efforts by the United States and 
other G8 countries to encourage Belarus to adopt the Additional 
Protocol.

    Question. Reports suggest that Russia has conditioned a loan to 
Belarus on the acquisition of equity in Belarusian state-owned 
enterprises. What is the status of this deal and what enterprises have 
been or will be affected in your estimation?

    Answer. The Government of Belarus continues to search for solutions 
to its economic problems, including a $3 billion, multiyear loan from 
the Russian-led Eurasian Economic Community Stabilization Fund.
    The Eurasian Economic Community Stabilization Fund disbursed $800 
million dollars in June, but the loan requires that the Government of 
Belarus privatize at least $2.5 billion of state assets before more 
funds are released. One possible target for privatization is 
Beltransgaz, the state-owned gas pipeline monopoly in Belarus. Russia's 
Gazprom, which already owns 50 percent of Beltransgaz, has indicated 
its desire to purchase the remaining shares of Beltransgaz for $2.5 
billion, but no deal has been concluded.

    Question. Russia has traditionally been a major supplier of arms to 
Syria. Has Russia withheld pending arms sales to Syria in light of the 
recent violence Syrian forces have perpetrated against their own 
citizens?

    Answer. The administration is concerned about reports of continued 
Russian weapons transfers to Syria. The administration frequently 
expresses concern to the Russian Ministry of Foreign Affairs and senior 
Russian officials regarding Russian arms sales to actors of concern, 
including Syria. Secretary Clinton publicly urged Russia to cease arms 
sales to Syria on August 12, 2011. The administration will continue to 
press Russia to cease pending and future arms sales that threaten 
regional stability, contribute to the Syrian regime's violent 
crackdown, or could be diverted to Hezbollah. The administration can 
provide additional details on this issue in a classified format.

    Question. What is the status of the Russian Navy's use of a Syrian 
naval base at Tartus? Has Russian-Syrian naval cooperation subsided 
since the recent unrest in Syria?

    Answer. Russia has had facilities at the Syrian port of Tartus 
since 1971. The facility is used primarily as a maintenance and 
resupply point for Russian warships transiting the Mediterranean. The 
most recent visit of a Russian fleet unit was a 3-day visit in late 
September by the destroyer Severomorsk, which was returning home after 
a counterpiracy patrol in the Gulf of Aden.

    Question. As a result of U.S. diplomacy, Russia has cancelled the 
sale of the
S-300 missile defense system to Iran. However, when other disagreements 
in the U.S.-Russian bilateral relationship have arisen, some Russian 
officials have threatened to reinitiate the sale. Has Russia cancelled 
the S-300 because it is in Russia's national security interest or 
because of a linkage to other bilateral issues?

    Answer. Russia has informed the administration that, in its view, 
its cancelation of the contract for the provision and transfer of S-300 
air defense system to Iran was in line with its obligations under 
United Nations Security Council Resolution 1929 (2010) and it will not 
deliver these weapon systems. Foreign Minister Lavrov recently stated, 
``[Russia has] returned the prepayment to [Iran], and we believe the 
issue should be closed.'' The administration appreciates the restraint 
that Russia has demonstrated over the course of several years in not 
transferring the S-300 system to Iran. The administration hopes that 
Russia's continued restraint will serve to encourage other potential 
arms suppliers to adopt a rigorous approach to implementing U.N. 
sanctions pertaining to Iran.

    Question. Against which Russian entities have sanctions been 
placed, removed, or waived during your tenure for the proliferation of 
goods, services, or technology to Iran, North Korea, or Syria listed 
on:

  <bullet> I. The Missile Technology Control Regime Equipment and 
        Technology Annex?
  <bullet> II. Wassenaar Arrangement list of Dual Use Goods and 
        Technologies and Munitions list of July 12, 1996, and 
        subsequent revisions?

    Answer. The United States has not imposed nonproliferation 
sanctions against Russian entities since January 1, 2009.
    As published in the Federal Register, the administration lifted 
E.O. 12938 penalties against the Baltic State Technical University, 
Glavkosmos, D. Mendeleyev University of Chemical Technology of Russia, 
and Moscow Aviation Institute in 2010. The administration also lifted 
Lethal Military Equipment sanctions against the Tula Instrument Design 
Bureau and sanctions pursuant to the Iran, North Korea, and Syria 
Nonproliferation Act against Rosoboronexport in 2010. On May 21, 2010, 
the administration provided a classified briefing on the details of the 
lifting of the above-mentioned sanctions to the staff of the Senate 
Foreign Relations Committee and House Foreign Affairs Committee.
    The details concerning the lifting or waiver of sanctions for 
transfers of controlled equipment are classified. The administration 
would be pleased to arrange a briefing in an appropriate setting to 
provide this information.

    Question. Is it the policy of the Russian Federation to cease the 
proliferation to Iran of weapons of mass destruction and long-range 
missiles?

    Answer. Russia is a key partner in American and international 
efforts to prevent the proliferation of weapons of mass destruction and 
missiles to Iran. Russia is an active participant in the Missile 
Technology Control Regime, the Proliferation Security Initiative, the 
Hague Code of Conduct Against Ballistic Missile Proliferation, and the 
Nuclear Suppliers Group.
    Russia, as part of the P5+1 and a permanent member of the United 
Nations Security Council, has supported and contributed to the crafting 
of all Security Council resolutions pertaining to Iran: 1696 (2006), 
1737 (2007), 1747 (2007), 1803 (2008), 1835 (2008), and 1929 (2010). 
The administration expects all states, including Russia, to fully 
comply with the United Nations sanctions regime on Iran, as well as 
Security Council resolutions preventing the proliferation of weapons of 
mass destruction, including Security Council Resolution 1540.

    Question. How do you view what the United States Government has 
called a ``mixed'' record on Russian missile technology controls' 
enforcement and compliance with regard to Iran? With regard to any 
other countries?

    Answer. The United States continues to closely monitor transfers of 
proliferation-sensitive technology from Russia to Iran and other 
countries of concern. Nonetheless, Russia has made significant 
contributions to international efforts to combat missile proliferation. 
The administration works closely with the Russian Government to further 
our shared nonproliferation goals and to prevent Iran and other 
countries of concern from obtaining missile-related goods and 
technologies from Russian entities.
    Although past assistance of Russian entities helped move Iran 
toward self-sufficiency in the production of ballistic missiles, over 
the last two decades, the Russian Government has enacted laws and 
decrees to implement export controls on complete missile systems and 
dual-use items. Since 2006, the Russian Government has supported a 
series of United Nations Security Council resolutions designed to 
prevent transfers of equipment and technology that could benefit Iran's 
nuclear-capable ballistic missile programs.
    Russia is an active participant in international arrangements to 
prevent the proliferation of missile delivery systems, including the 
Missile Technology Control Regime, the Proliferation Security 
Initiative, and the Hague Code of Conduct Against Ballistic Missile 
Proliferation.
    The United States expects all states, including Russia, to abide by 
the terms of all U.N. Security Council resolutions pertaining to Iran, 
including 1737, 1747, 1803, and 1929, and Security Council resolutions 
against the proliferation of weapons of mass destruction, including 
1540. The administration has raised with the Russian Government issues 
of weapons-related transfers to actors of concern and has continued to 
press Russia to abide by its international obligations and commitments.

    Question. What is the status of the State Department's delinquent 
submission of reports required under the Iran, North Korea, and Syria 
Proliferation Act?

    Answer. As you are aware, the Department submitted the 2008 Iran, 
North Korea, and Syria Nonproliferation Act report to Congress on May 
23, 2011. The Department will submit the 2009 and 2010 Iran, North 
Korea, and Syria Nonproliferation Act reports to Congress once it has 
assembled and evaluated all of the reporting information required by 
the act. Currently, the Department is working to finalize the 2009 
report and is simultaneously reviewing cases that meet the criteria for 
reportability for the 2010 report. The Department expects to submit the 
2009 report by the end of this year.

    Question. Has Russia executed a facility-specific safeguards 
agreement with the IAEA for the Bushehr Nuclear Power Plant in Iran?

    Answer. Russia is not required to complete a facility-specific 
safeguards agreement with the IAEA for the Bushehr Nuclear Power Plant. 
Under its existing NPT-mandated safeguards agreement, Iran is required 
to place all nuclear facilities, including Bushehr, under IAEA 
safeguards. In his most recent report to the IAEA Board of Governors, 
the IAEA Director General noted that ``the Agency continues to verify 
the nondiversion of declared material'' at 16 declared nuclear 
facilities, including Bushehr. The IAEA Director General has not noted 
any issues or irregularities with respect to Bushehr in his reports.

    Question. What avenues of cooperation is Russia currently seeking 
with North Korea, particularly after the visit of North Korean 
President Kim Jong-il to Russia?

    Answer. Kim Jong-il's meeting with President Medvedev reportedly 
included discussions on energy deals and economic aid. Press reports of 
that meeting also mentioned North Korea's reported willingness to 
refrain from nuclear tests and missile launches.
    The administration views these reports as a sign of Russia's shared 
commitment to abide by obligations mandated by United Nations Security 
Council resolutions. Russia voted with the United States in the 
Security Council to adopt Resolution 1874, which expanded sanctions 
against North Korea by broadening the embargoes on trade and financing 
that could assist its prohibited weapons programs. Russia remains a 
committed partner in the six-party process, which seeks to accomplish 
the peaceful and verifiable denuclearization of the Korean Peninsula. 
Russia and the United States continue to urge North Korea to comply 
with its commitments under the 2005 Joint Statement of the Six-Party 
Talks, the terms of the Armistice Agreement, and obligations under U.N. 
Security Council resolutions.
    North Korea's disclosure last November of a uranium enrichment 
facility remains a matter of serious concern for the administration. 
This is a clear violation of North Korea's obligations under 
Resolutions 1718 and 1874 and contrary to its 2005 joint statement 
commitments. Russia publicly called on North Korea to comply with 
Resolutions 1718 and 1874, notably during a visit by North Korean 
Foreign Minister Pak Chui Un to Moscow on December 13, 2010. In the 
Deauville G8 Summit Declaration of May 27, President Medvedev joined 
President Obama and their counterparts in condemning North Korea's 
provocative behavior, as well as its continued nuclear weapons, 
ballistic missile, uranium enrichment, and light-water reactor-
construction activities; and urging North Korea to take concrete action 
to demonstrate its readiness to return to the six-party talks.

    Question. At the Peterson Institute on April 15, 2011, you spoke 
about the possible repeal of the Jackson-Vanik amendment with respect 
to Russia. According to the transcript, you stated: `` . . . [L]et's 
have another act. Call it the Jackson-Vanik Act of 2011.'' Do you 
believe that, should Jackson-Vanik be repealed, another piece of 
legislation should be passed in its place? Please describe.

    Answer. Jackson-Vanik served its historic purpose by helping 
thousands of Jews emigrate from the Soviet Union. Since a 1994 
Presidential Determination and subject to ongoing reporting 
requirements, successive U.S. administrations have certified that 
Russia is in compliance with the emigration provisions of Jackson-
Vanik, satisfying a requirement for an annual finding to continue 
providing normal-trade-relation tariff treatment to imports from 
Russia. If Jackson-Vanik is not terminated before Russia joins the WTO, 
U.S. workers, manufacturers, ranchers, and farmers will be prevented 
from joining their competitors in enjoying the full benefits of 
Russia's accession.
    The administration's commitment to pursuing a robust human rights 
policy regarding Russia is strong, and this will continue after the 
proposed termination of Jackson-Vanik. The administration discusses 
human rights concerns openly with Russian officials, including with 
regard to freedom of assembly, ongoing human rights abuses in the North 
Caucasus, and murders and violent attacks on journalists and human 
rights activists. The administration also engages Russian civil society 
and political opposition directly, and fosters contacts between 
American civil society and Russian civil society. I have raised these 
issues in my official meetings, as have Secretary Clinton and President 
Obama, and we will continue to do so. Senior U.S. officials have 
delivered more than 80 public statements on human rights in Russia 
since President Obama took office.
    Since FY 2009, the Obama administration--working closely with the 
U.S. Congress--has provided over $108 million in bilateral assistance 
to support civil society, rule of law, human rights, religious freedom, 
independent media, and good governance in Russia. The administration 
has prioritized support for small, direct grants to Russian civil 
society organizations. Working with Congress, and recognizing today's 
difficult budget environment, the administration continues to seek new 
ways to generate greater support for civil society and human rights in 
Russia.

    Question. You have spoken widely on the need to support civil 
society and the rule of law in Russia. However, the administration's 
request for the ``Governing Justly and Democratically'' Account for the 
Russian Federation for the last 3 years has been approximately the same 
($35,900 for FY 2012, $35,190 for FY 2011, and $35,900 for FY 2010). 
Why has the administration's request remained nearly constant, in light 
of the deterioration of democratic standards in Russia?

    Answer. The administration remains steadfast in its commitment to 
strengthen democracy, human rights, and the rule of law in Russia, 
while also recognizing our deeply constrained budget. Funding for 
``Governing Justly and Democratically'' in Russia remains constant at 
approximately $35 million each year even though the FY 2012 total 
request for Assistance for Europe, Eurasia, and Central Asia (AEECA) 
represents an approximate 10-percent decrease relative to FY 2011 and a 
16-percent decrease relative to FY 2010. That figure represents over 
two-thirds of the total request for AEECA resources for Russia programs 
in FY 2012, and is over 25 percent larger than the funding requested 
for this sector for any other country in the region.

    Question. How much in grants have been provided directly to local 
civil society and NGO groups in Russia during this administration?

    Answer. Since FY 2009, the United States has provided a total of 
over $46 million in bilateral assistance to support civil society in 
Russia. This assistance includes grants provided directly to Russian 
civil society groups to implement initiatives in areas such as human 
rights, the rule of law, and government transparency, as well as 
technical assistance and training to help those groups more effectively 
carry out their work. Last year, the United States provided nearly $6 
million in small grants directly to Russian organizations to carry out 
targeted civic initiatives, and the administration intends to increase 
the proportion of U.S. assistance funds used to support such grants in 
future years. Additionally, nearly half of the funds managed by USAID 
in Russia are allocated to programs implemented by Russian 
organizations, among the highest percentages in the world. This direct 
support for Russian organizations works both to promote democracy and 
assist in the sustainable development of Russian civil society.

    Question. Have Russian or U.S. groups receiving money for civil 
society-related work come under pressure or harassment from Russian 
authorities during your tenure? If so, please describe your responses.

    Answer. Over the years, Russian and American private organizations 
receiving U.S. assistance have experienced pressure or harassment. In 
each case, the United States has been proactive in raising concerns 
with the Russian authorities. For example, last year when Russian law 
enforcement authorities made additional requests for financial and 
other information from nongovernmental organizations receiving foreign 
funding, the administration raised concerns with government officials 
and stayed in contact with civil society actors. Authorities 
subsequently dropped their inquiries. U.S. assistance includes programs 
to improve the regulatory environment for Russian civil society, to 
help Russian civil society groups ensure that they are in compliance 
with Russian law, and to provide legal defense when necessary.

    Question. Reports have indicated that representatives of the 
National Democratic Institute have come under particular pressure from 
Russian authorities. If this is accurate, please describe the 
administration's particular response.

    Answer. Over the years in Russia, NDI staff members have 
experienced harassment ranging from visa problems to intimidation. In 
each case, the United States has been proactive in ascertaining what 
happened, raising our concerns with the Russian authorities, and 
showing solidarity with NDI staff by meeting them frequently, inviting 
them to our public events, and seeking resolution to their problems. 
The administration remains committed to strengthening democratic 
institutions and processes in Russia, including through support for 
NDI's work. The administration continues to consult and coordinate with 
NDI leadership in Washington and NDI staff on the ground in Russia.

    Question. In your testimony, you note that $9 million will be set 
aside for election/civil society work in the runup to the Russian 
elections. From what account will this money come?

    Answer. The United States is committed to encouraging free and fair 
processes for Russia's December 2011 parliamentary elections and March 
2012 Presidential election. This is demonstrated by the 
administration's robust package of over $9 million in nonpartisan 
programs. This package supports domestic monitoring of the campaign 
environment and conduct of the elections, encourages professional and 
unbiased coverage by independent media, and assists civil society 
initiatives to promote civic participation in the electoral process. 
These programs are supported through approximately $8 million in 
Assistance to Europe, Eurasia, and Central Asia (AEECA) account 
resources and over $1 million in Democracy Fund (DF) account resources.

    Question. Do you believe that the current Russia-Georgia WTO 
dispute has legitimate trade components or is it purely a political 
dispute?

    Answer. The Russia-Georgia WTO negotiation does have a legitimate 
trade component. The focus of the current Swiss-led mediation process 
is on facilitating a transparent flow of trade across the 
internationally recognized Russia-Georgia border. The administration 
believes that the Swiss-led efforts to address these issues can succeed 
in a way that is fully consistent with Georgia's sovereignty and 
territorial integrity, which it has and will continue to support.

    Question. Do you believe that Russia is negotiating with Georgia 
constructively and in good faith over the customs issues on Georgia's 
internationally recognized border?

    Answer. Both Russian and Georgian negotiating teams have been 
meeting under Swiss-led mediation since late 2010 in an effort to reach 
an agreement on trade across Georgia's internationally recognized 
border with Russia. Although the United States is not directly involved 
in these talks, the administration strongly supports Switzerland's 
efforts and encourages both Russia and Georgia to deal with these 
issues in good faith and in a flexible and constructive manner. The 
fact that the two countries continue to meet and negotiate leads us to 
believe that Russia and Georgia can reach a workable solution.

    Question. You have noted the benefits to U.S. businesses of 
Russia's WTO accession. Will Russia's WTO accession have any effect on 
the embargoes it currently has against its neighbors, including against 
Georgian water and Moldovan wine?

    Answer. Once Russia is a member of the WTO, it will be required to 
comply with the WTO Agreement on Application of Sanitary and 
Phytosanitary Measures (SPS Agreement). Thus, Russia will have to 
either remove or justify the SPS measures that it currently applies to 
Georgian water according to WTO standards (there is no longer a ban 
against Moldovan wine). If Russia does not take one of those steps, 
Georgia, like all other WTO members, will be able to raise the issue in 
the WTO SPS Committee, and, if necessary, make use of WTO dispute 
settlement procedures. While the WTO will not solve all trade-related 
disputes between Russia and its neighbors, such disputes will no longer 
be just bilateral ones, but multilateral ones involving the full 
membership of the WTO.

    Question. Please describe the role that the Russian Government is 
playing in trying to sway investment decisions in the Shah Deniz II 
fields, future Turkmen natural gas exports, and the Nabucco, ITGI, and 
TAP pipeline proposals. Do you believe that the Russian Government will 
be a roadblock to the creation of a Southern Energy Corridor from the 
Caspian to Central and Eastern Europe?

    Answer. Russia has offered to purchase all of the Shah Deniz II gas 
from Azerbaijan. The administration has no indication the Shah Deniz 
consortium is seriously considering this offer since it is committed to 
exporting its gas through the Southern corridor. The Russian Government 
also has expressed its objections to construction of a Trans-Caspian 
gas pipeline, which could bring Turkmen gas across the Caspian without 
using the existing Russian pipeline network.
    The Shah Deniz consortium is reviewing the proposals it received 
from the Nabucco, Interconnector Turkey-Greece-Italy, and Trans 
Adriatic Pipeline ventures, and hopes to make a decision on which route 
to select by the end of the year. The biggest remaining obstacle is 
finalizing a gas transit agreement between Azerbaijan and Turkey, 
without which none of the projects can proceed. The administration is 
hopeful that will happen in the near future.
    The administration supports any commercially viable Southern 
corridor option that will deliver Caspian gas to Europe, as long as it 
is designed in a way to accommodate future gas production as it becomes 
available.

    Question. Do you believe that other pipelines being considered as 
alternatives to Nabucco (ITGI and TAP) provide the same benefit to U.S. 
strategic interests as the Nabucco pipeline?

    Answer. The administration recognizes that Nabucco may have greater 
strategic importance than the alternative pipelines since it would 
deliver larger volumes of gas to a larger number of countries. However, 
it is not clear that there is adequate gas supply available to make a 
full scale Nabucco pipeline commercially viable. The administration has 
made it clear that we support any commercially viable Southern corridor 
option that will deliver Caspian gas to Europe, as long as it is 
designed in such a way as to accommodate future gas production as it 
becomes available. That could include a scalable Nabucco, ITGI, TAP or 
the Southeast Europe pipeline (which would use existing Turkish 
infrastructure, upgraded as necessary, and with new pipelines in 
Bulgaria, Romania, and Hungary, to deliver all of Azerbaijan's Shah 
Deniz gas to the Balkans).

    Question. Please describe partnerships between Gazprom or other 
Russian energy companies and the partner companies in Nabucco, ITGI, 
and TAP.

    Answer. Gazprom has commercial relationships with most of the 
companies who are partners in the competing Southern corridor projects: 
Nabucco, ITGI, and TAP. For example, Gazprom supplies gas to and has a 
joint venture with Austria's OMV; this joint venture operates the gas 
hub at Baumgarten, through which much of the gas from Nabucco would 
flow. Gazprom also supplies gas to and is considering a power plant 
joint venture with German utility Rheinisch-Westfalisches 
Elektrizitatswerk (RWE). Gazprom is a supplier of gas to Romania, 
Bulgaria, Hungary, and Turkey, all of whom are partners in Nabucco. 
Regarding ITGI, Gazprom is a supplier of gas to DEPA (Greek partner in 
ITGI) and Edison (Italian partner in ITGI); in addition, the French 
company EDF, which now effectively controls Edison, recently joined 
Gazprom's South Stream project. Regarding TAP, Gazprom supplies gas to 
E.ON Ruhrgas (Germany), one of the TAP partners, while Statoil, another 
of the TAP partners, is a partner of Gazprom in the Shtokman gas 
project in Russia.

    Question. What is your view on the European Commission's recent 
examination of anticompetitive practices by Gazprom?

    Answer. The administration supports the EU in its efforts to apply 
its regulatory regime to the energy sector. This includes examination 
of possible anticompetitive actions by both domestic and foreign 
companies operating in the EU on a nondiscriminatory basis.

    Question. What are the chief obstacles for U.S. energy companies 
investing in Russian energy production, local distribution, and export? 
If confirmed, what will you do to improve the domestic investment 
climate for Russia?

    Answer. State dominance, the tax structure, and corruption in the 
energy sector are major obstacles for U.S. companies investing in 
Russia. The Russian mineral tax system makes the development of new 
fields economically unviable for Russian companies and foreign 
investors alike. Of every dollar earned from the sale of a barrel of 
Russian oil, 75 cents go to the state, and taxes are assessed on gross 
revenues, not profits. Russia has recently lowered duties on crude oil 
exports to encourage the development of new fields, but much more needs 
to be done to attract investment.
    In order to maintain current production levels, Russia would 
benefit from collaboration involving sophisticated U.S. technology, 
particularly in developing Arctic fields, deep-water offshore drilling, 
and unconventional oil extraction in its Siberian tight oil fields. 
ExxonMobil's recent $3.2 billion joint venture with Rosneft is 
consistent with our goals of promoting U.S. trade and investment with 
Russia, particularly in areas where the United States has a comparative 
advantage in technical and management expertise.
    If confirmed, I would continue to seek better protection for all 
U.S. investors in Russia. The administration has begun exploratory 
discussions with Russia on a bilateral investment treaty. If confirmed, 
pursuing this and other initiatives to afford high levels of legal 
protections for U.S. investors in Russia will be one of my top 
priorities. A bilateral investment treaty would provide dispute 
resolution mechanisms for U.S. firms, as well as other legal 
protections. The administration will also continue to support 
programs--and bilateral and multilateral diplomatic efforts such as 
encouraging Russia to ratify and implement international treaties in 
this area--to encourage better protection of investor rights and more 
effective combating of corruption, particularly as Russia proceeds with 
plans to join the World Trade Organization. The administration has 
begun to see positive developments in this direction, such as important 
amendments to Russia's laws last year that enabled it to join the 
Working Group on Bribery of the Organization for Economic Cooperation 
and Development (OECD). Russia is now on track to ratify the OECD Anti-
Bribery Convention early in 2012.

    Question. Please characterize the transparency of the Russian 
energy sector in terms of ownership of key companies and management of 
revenues to the government.

    Answer. Russia's energy sector is still dominated by large state-
owned companies and 40 percent of the state's tax revenue comes from 
the energy sector. Rosneft, the state-owned oil company, accounts for 
over a quarter of Russia's oil production, and Gazprom, the state-owned 
gas company, accounts for almost 85 percent of Russia's natural gas 
production. The vast size of Russia's energy sector makes the Russian 
economy and the state's budget heavily dependent on the international 
price of oil and gas. Russia's leadership is keenly aware of this 
vulnerability and is striving to diversify and modernize its economy. 
The administration, together with U.S. investors in Russia, is engaging 
with Russia on a number of fronts, including in innovation and small 
business development, in order to help Russia diversify its economy, 
and at the same time, create more opportunities for American firms.
    In addition, Russia has taken the important step of endorsing the 
Extractive Industries Transparency Initiative in the G8 and the United 
Nations. The Organization for Economic Cooperation and Development, to 
which it is trying to accede, has also endorsed the Extractive 
Industries Transparency Initiative.

    Question. If confirmed, what will you do to promote smooth 
implementation of rules around the extractive industries disclosure 
currently being written by the SEC and under consideration in the 
European Commission?

    Answer. Section 1504 of the Wall Street Reform and Consumer 
Protection Act signed by President Obama last July is a critical 
element in U.S. global leadership in promoting transparency. The United 
States encourages other countries to develop similar disclosure 
requirements. For example, the administration has encouraged other 
participants in the global energy market to participate in the 
Extractive Industries Transparency Initiative, a coalition of 
governments, companies, civil society groups, investors, and 
international organizations that supports improved governance in 
resource-rich countries through the verification and full publication 
of company payments and government revenues from oil, gas, and mining. 
The President's announcement in September in New York that the United 
States, working together with industries and civil society, will 
implement the Extractive Industries Transparency Initiative 
domestically, also provides a major boost to U.S. efforts to advance 
transparency globally.
    Russia has endorsed the Extractive Industry Transparency Initiative 
in the G8, the United Nations, and the Organization for Economic 
Cooperation and Development. If confirmed, I will place a high priority 
on engagement with Russia on implementing these and other transparency 
efforts as a critical step to improve global energy security and to 
encourage more U.S. trade and investment in Russia's energy sector.

    Question. How do you assess the potential of shale gas resources in 
Central and Eastern Europe to provide for greater energy independence 
for this region?

    Answer. Shale gas development could have a significant impact on 
energy security for Central and Eastern Europe, but it should represent 
only one element of a larger sustainable energy security strategy for 
the region. A larger strategy should include the development of 
renewable energy resources, the diversification of natural gas supply 
through pipeline and liquefied natural gas networks, energy market 
reforms, and movement toward a more integrated regional energy network.
    According to a recently released U.S. Energy Information Agency 
study on global shale gas resources, there is considerable potential 
for shale gas development in Central and Eastern Europe. Specifically, 
the report noted significant technically recoverable shale gas 
resources in Poland, Ukraine, Lithuania, Hungary, Romania, and 
Bulgaria. All these countries are in the very early stages of shale gas 
resource assessment and development. Among them, Poland has made the 
most progress in this area.
    Not enough exploration has been done yet to understand the real 
potential of shale gas to bolster the region's long-term energy 
security. Poland, in particular has attracted considerable company 
interest. There have been positive results from the limited exploration 
that's been done, but questions remain about the extent of the 
country's recoverable shale gas resource base.
    Unconventional energy development, especially shale gas, could play 
a key role in helping some Central and Eastern European countries 
increase energy security and reduce carbon emissions. However, there 
are other issues that must be considered. These include environmental 
concerns, especially related to potential impacts on air and water, as 
well as possible technological, political, regulatory, and financial 
constraints.

    Question. What U.S. initiatives are underway to assist Central and 
Eastern Europe in developing its shale gas resources?

    Answer. The U.S. Agency for International Development is planning 
to fund an initial environmental and regulatory assessment for 
unconventional gas development in Ukraine. Specific technical 
counterparts have been established and the required Environmental 
Scoping Statement is being prepared. This is under consideration as a 
model through which engagement on shale gas development issues could be 
expanded to other Central and Eastern Europe countries.
    The State Department's Global Shale Gas Initiative has signed 
agreements to cooperate on shale gas development with Armenia, 
Lithuania, Poland, and Ukraine. This government-to-government program 
works with participant countries through a whole-of-government approach 
to help them better understand the myriad environmental, regulatory, 
legal, and financial issues involved in shale gas development. 
Engagement with Central and Eastern Europe has included visitor 
programs, briefings, field trips and site visits on both sides of the 
Atlantic, and dissemination of important information regarding the 
ongoing domestic efforts on environmentally sound shale gas 
development.
    The U.S. Geological Survey is engaging with Central and Eastern 
European countries, in particular Poland, Ukraine and Armenia, by 
conducting technical shale gas resource identification and assessment 
workshops. Poland has participated in a State Department visitor 
program that included 10 days of meetings with U.S. government agencies 
and state regulators, with a focus on safe and environmentally sound 
shale gas development. There will be a similar Baltic Regional visitor 
program at the end of October which will include representatives from 
Estonia, Latvia, and Lithuania, as well as a second visit of 
stakeholders from Poland in December. The administration is consulting 
with Polish officials on the next phase of our cooperation on this 
issue.
    In February 2011, the United States and Ukraine signed a Memorandum 
of Understanding on unconventional gas resources, and the 
administration has worked closely with Chevron and ExxonMobil to help 
them conclude production sharing agreements with Ukraine. Most 
recently, in October, Richard Morningstar led a meeting of our U.S.-
Russia Energy Security Working Group, which focused on concluding a 
confidentiality agreement between the U.S. Geological Survey and 
Ukraine's Ministry of Ecology and Natural Resources, to assist Ukraine 
in evaluating its potential shale gas resources.

    Question. My understanding is that NATO has not conducted an 
Article Five exercise in nearly a decade. Russia, on the other hand, 
conducts annual Zapad exercises, some of which have reportedly 
simulated a nuclear attack on its neighbors to the west. Have you had 
conversations with your Russian counterparts on the Zapad exercises and 
the detrimental impact they have on regional security?

    Answer. NATO exercises are conducted on a regular basis to ensure 
the alliance is capable and prepared to address the range of security 
challenges we may confront. The United States is an active contributor 
to NATO's exercises and supports the participation of partners, as is 
appropriate.
    The United States routinely stresses to Russia the importance of 
increased transparency on military exercises and activities. Following 
Russia's Zapad exercise in 2009, the United States and its NATO allies 
expressed concern to Russia in the NATO-Russia Council about the 
exercise's provocative scenario and lack of transparency.
    The Chairman of the Joint Chiefs of Staff and the Russian Chief of 
the General Staff have recently agreed to enhance military transparency 
(including with regard to exercises) within the context of their 
Military Cooperation Working Group. This should provide an excellent 
venue for discussing exercise objectives and the need for such 
exercises to reflect improved political realities.

    Question. U.S. investors lost an estimated $12 billion in the 
expropriation of Yukos last decade. Because no U.S.-Russian bilateral 
investment treaty is in force, these investors are left with few 
remedies.

  <bullet> Are you confident that these investors have access to a 
        remedy apart from the prospect of the United States Government 
        espousing their claims?
  <bullet> Are the remaining hurdles for espousal issues of law or 
        issues of policy? Please explain.

    Answer. The administration has raised the issue of American 
shareholders' claims with the Russian Government, both in public and in 
private. In addition, U.S. officials have met several times with 
representatives of American investors to discuss their claims and the 
options for seeking to have them addressed. The administration is still 
in the process of determining if espousal is a legally available 
option, but it is also not clear that espousal would be the most 
effective option. The Yukos shareholder claims involve complex legal 
and financial matters, and raise detailed questions of Russian tax law. 
The effectiveness of any particular option--including potential 
remedies in Russia, in international arbitration, or through 
settlements--will depend principally on Russia's commitment to 
resolving the claims of the American and other foreign shareholders in 
Yukos.
    In connection with these issues, the U.S. Government is closely 
watching the international court and arbitration proceedings concerning 
the significant claims brought by Yukos investors from other countries 
and the Yukos Corporation itself, including the September 20 decision 
from the European Court of Human Rights. Future decisions in that court 
and in arbitral tribunals will continue to inform our position on many 
of the complex legal and factual issues at stake in this matter. These 
international courts and arbitration panels, made up of experts in 
international law, receive the benefit of full briefings, the parties' 
participation in a hearing, and expert opinions. Before making any 
final decisions on the best way to address the claims of American 
investors, the U.S. Government believes it should allow these 
proceedings to fully run their course. Please be assured that the 
administration will continue to coordinate with the representatives of 
American investors in this case.

    Question. Do you support the negotiation of a U.S.-Russian 
bilateral investment treaty? What has prevented progress on this issue 
in the current administration?

    Answer. The administration is continually working to seek better 
protection for U.S. investors in Russia, and negotiation of a new 
bilateral investment treaty is one of our goals. The United States and 
Russia negotiated and signed a bilateral investment treaty in 1992, but 
it never came into force because the Russian Duma never ratified it. 
The administration has begun exploratory discussions on a new treaty, 
and if I am confirmed, pursuing this and other initiatives to afford 
high levels of legal protections for U.S. investors in Russia will be 
one of my top priorities.
    In any bilateral investment treaty concluded with Russia, the 
administration would want a strong, high-standard agreement that would 
level the playing field for U.S. companies in Russia, ensuring that 
they are treated fairly and according to the rule of law. Such a treaty 
would provide benefits for U.S. investors, including: (1) strong 
investor protections, such as protections against discrimination and 
uncompensated expropriation; (2) new market access commitments, which 
would allow U.S. firms to establish operations in Russia on the same 
terms as domestic Russian investors; and (3) a robust investor-state 
arbitration mechanism to ensure that U.S. companies in Russia have 
direct recourse to resolve investment disputes with the Russian 
Government through binding international arbitration. The 
administration believes that this type of agreement would 
simultaneously benefit U.S. companies and help advance many of Russia's 
own policy objectives, including improving its investment climate, 
stimulating innovation, and reducing corruption.
                 missile defense agreement with moscow
    During your testimony before the committee on October 12, you 
stated:

          [W]e very militantly kept out any discussion of missile 
        defense from the New START Treaty negotiations. I [was] 
        personally involved in that from the beginning to the end[.] 
        But that was never an issue and there were no side deals done. 
        And there are no constraints in that treaty whatsoever. . . . 
        So, we're moving forward with or without Russian cooperation on 
        missile defense. And I think it's important for people to 
        understand that. . . . With respect to Russia, we believe that 
        our security, the security of our allies and the security of 
        our partners in Europe can be enhanced through cooperation with 
        Russia. That is our working assumption. And in particular 
        tracking data that Russia has better access to or earlier and 
        the sharing of that data could make both Russia, NATO, and our 
        partners in Europe more secure. And so, that's why we've had a 
        very vigorous program of trying to negotiate to get that 
        started. . . . But of late, the negotiations have been 
        difficult. In particular, they have broken down over Russian 
        requirements--Russian demands that we sign a legally binding 
        agreement that we will not undermine their strategic deterrent. 
        And what we have responded to that is our missile defense 
        systems are not aimed at Russia and we did not seek to 
        undermine strategic stability. And at the same time, we are not 
        going to sign any legally binding agreement that would in any 
        way constrain our missile defense systems. And because Russia 
        believes wrongly in our view, that phase four of the EPAA would 
        be a threat to their ICBMs, we're at an impasse right now on 
        those negotiations. We'll continue to work it. We'll continue 
        to talk to them about its--after all, a lot of this is about 
        physics. This is about perceptions. And you know we'll see what 
        we have as we prepare for the [NATO] summit next May. I am not 
        optimistic right now. But we're going to continue to work this 
        issue.

    In her remarks before the Atlantic Council's Missile Defense 
Conference in Washington, DC, on October 18, Under Secretary of State 
for Arms Control and International Security, Ellen O. Tauscher, stated 
``The missile defense system we are establishing in Europe is not 
directed against Russia. We have said that publicly and privately, at 
many levels. We are prepared to put it in writing.''
    On October 19, Russian President Dmitry Medvedev announced at 
meeting with his supporters that he would be making a statement on 
missile defense. In so stating, he said ``certain conditions must ripen 
for me to make a relevant statement. . . . But I will make it and I 
will do this quite soon.''
    Separately, I am informed by my colleagues that the United States 
may be prepared to offer Russia the ability to, in some manner, observe 
missile defense tests.

    Question. What missile defense talks with Moscow transpired between 
your appearance before the committee on October 12 and Under Secretary 
Tauscher's remarks on October 18?

    Answer. On October 12-13, Under Secretary Ellen Tauscher and Deputy 
Foreign Minister Sergey Ryabkov met in Moscow as cochairs of the Arms 
Control and International Security Working Group of the U.S.-Russian 
Presidential Commission to continue discussions on missile defense 
cooperation.

    Question. Were you aware of the apparent agreement within some 
portion of the U.S.-Russia Bilateral Presidential Commission regarding 
Russian participation in U.S. tests of its missile defense system(s)?

    Answer. The administration believes that missile defense 
cooperation is the best way for Russia to gain the assurance it seeks 
that the European Phased Adaptive Approach (EPAA) is not a threat to 
Russia's strategic deterrent. For this reason, U.S. officials have 
invited Russia to observe a test being carried out as part of the EPAA 
program. Russian participation would be strictly governed by the U.S. 
National Disclosure Policy.

    Question. If you were not [aware of the apparent agreement within 
some portion of the U.S.-Russia Bilateral Presidential Commission 
regarding Russian participation in U.S. tests of its missile defense 
system(s)], are you now, and what agreement was reached, if any, and 
what did the United States offer, regardless of the outcome?

    Answer. U.S. officials have invited Russia to observe certain tests 
of the European Phased Adaptive Approach. This is not a new 
development; this invitation was extended several months ago to Russia 
and all other members of the NATO-Russia Council. Russia has not yet 
responded.

    Question. Please specify the content, legal significance and means 
(diplomatic notes, memoranda of conversations, etc.) through which the 
United States would provide ``in writing'' to Moscow that missile 
defenses in Europe are ``not directed'' against Russia beyond the 
myriad such statements already issued by this administration, and would 
they differ in any way from any of those previous statements.

    Answer. The administration has consistently stated that it cannot, 
and will not, agree to legally binding restrictions or limitations on 
U.S. or NATO missile defenses. The administration has stated, publicly 
and privately, that the missile defense system being established in 
Europe is not directed against Russia. The administration is prepared 
to put the same statement in writing as part of a political framework 
that would open the way for practical cooperation with Russia on 
missile defense. There are a variety of ways to establish such a 
political framework. No agreement has been reached on the content, and 
no decision has been made on a format. The political framework would 
not be a legally binding agreement.

    Question. Would any agreement with Moscow permit or assist, in any 
manner, Russian observation, monitoring, or collection of data on U.S. 
missile defense tests, and if so, would it be done outside any relevant 
provisions of the New START Treaty?

    Answer. The New START Treaty provides for the exchange of 
telemetric information on an equal number of launches of Inter-
Continental Ballistic Missiles (ICBMs) and Submarine-Launched Ballistic 
Missiles (SLBMs), up to five launches each calendar year. This does not 
include launches of missile defense interceptors, because these are not 
ICBMs or SLBMs. The United States will not provide missile defense 
interceptor telemetry to Russia under the New START Treaty. If Russia 
accepts the invitation to observe a missile defense test, it would use 
its own equipment. The U.S. National Disclosure Policy would strictly 
govern any Russian observation of a missile defense test.

    Question. Please specify how Russia, per Under Secretary Tauscher, 
``would continue to be able to confirm that the system is directed 
against launches originating outside Europe and not from Russia.'' Is 
the United States offering to assist Russian monitoring of American 
missile defense tests?

    Answer. The administration continues to believe that the best way 
for Russia to gain confidence in our stated intentions on missile 
defense in Europe is through the missile defense cooperation the 
administration has proposed bilaterally and in the NATO-Russia Council. 
We believe that through day-to-day cooperation Russian experts would be 
able to confirm that the European Phased Adaptive Approach (EPAA) is 
not directed at Russia and that we do not plan EPAA operations against 
Russia. The United States does not consider Russia an adversary, and 
cooperation is the best way for Russia to gain transparency and 
reassurance that this is the case. Missile Defense Agency Director LTG 
O'Reilly offered Russia--as well as any NATO member--the opportunity to 
observe U.S. missile defense tests. The U.S. National Disclosure Policy 
would strictly govern any Russian participation in a missile defense 
test.

    Question. Please confirm that the administration will not assist 
Russian monitoring or collection of information on (a) any missile 
defense interceptor, as defined in paragraph 44 of Part One of the 
Protocol to the New START Treaty; (b) any satellite launches, missile 
defense sensor targets, and missile defense intercept targets, the 
launch of which uses the first stage of an existing type of United 
States ICBM or SLBM listed in paragraph 8 of Article III of the New 
START Treaty; or (c) any missile described in clause (a) of paragraph 7 
of Article III of the New START Treaty. If it would do so, then please 
specify why and how.

    Answer. The administration believes that missile defense 
cooperation is the best way for Russia to gain the reassurance it seeks 
that the European Phased Adaptive Approach (EPAA) is not a threat to 
Russia's strategic deterrent. For this reason, U.S. officials have 
invited Russia to observe a test being carried out as part of the EPAA 
program. Missile Defense Agency Director LTG O'Reilly offered Russia--
as well as any NATO member--the opportunity to observe U.S. missile 
defense tests. U.S. National Disclosure Policy would strictly govern 
any Russian observation of a missile defense test.

    Question. Under Secretary Tauscher also stated ``We welcome an 
opportunity to continue and expand the sharing of technical information 
on the EPAA with Russian experts on an interagency basis, to 
demonstrate what it can and cannot do.''

  <bullet> a. Please specify all technical data (i) shared with Moscow 
        regarding the EPAA; (ii) that would be shared; and (iii) that 
        the United States would not share; or (iv) would not need to 
        share with Moscow regarding the EPAA to confirm what any 
        element of any phase of the EPAA ``cannot do.''

    Answer. U.S. officials have shared unclassified technical 
information on the EPAA with Russian counterparts over the past 2 
years, in order to demonstrate that the EPAA does not threaten Russian 
deterrent forces or undermine strategic stability. In May 2011, U.S. 
officials presented an unclassified briefing to Russia explaining why 
U.S. missile defenses are not a threat to Russia, using physics and 
realistic unclassified performance parameters. U.S. officials also 
presented a similar briefing in June to the NATO-Russia Council. The 
administration is prepared to continue to pursue this dialogue, within 
the bounds of U.S. National Disclosure Policy.

  <bullet> b. The Under Secretary specified such data would be shared 
        on an ``interagency basis.'' Could technical data be shared 
        with Moscow outside of any form of license or authorization 
        under relevant statutes and regulations even if the Defense 
        Technology Cooperation Agreement (DTCA) with Moscow has not 
        entered into force?

    Answer. Exchanges with Russia based on unclassified information on 
the European Phased Adaptive Approach began 2 years ago, shortly after 
the program was announced. These exchanges could be expanded following 
conclusion of a Defense Technology Cooperation Agreement. Negotiations 
on a Defense Technology Cooperation Agreement began during the previous 
administration and are continuing.

    Question. With regard to any element of the EPAA or the two-stage 
Ground-Based Interceptor, is the United States prepared to allow 
Russian access or observation of any flight tests? If so, under what 
conditions and at which sites would such access and observation be 
permitted?

    Answer. The United States has invited Russia to observe an EPAA 
flight test in the Pacific. Russia would use its own equipment. Russian 
participation would be governed by U.S. National Disclosure Policy.

    Question. Under Secretary Tauscher further stated ``through 
cooperation we can demonstrate the inherent characteristics of the 
system and its inability to undermine Russian deterrent forces or 
strategic stability.''

  <bullet> a. Please specify which ``inherent characteristics'' of each 
        element of the EPAA, including those yet to be developed or 
        tested, such as the SM-3 Block IIB, would confirm that such 
        systems do not undermine Russian deterrent forces or, more 
        broadly, strategic stability.

    Answer. The mission of the European Phased Adaptive Approach (EPAA) 
is to counter launches from the Middle East. It is not designed to 
counter Russian strategic forces, nor is it capable of doing so. This 
is true of all four phases, and the administration believes that 
through day-to-day cooperation Russian experts would be able to confirm 
that the EPAA is not directed at Russia and that we do not plan EPAA 
operations against Russia. The United States does not consider Russia 
an adversary, and cooperation is the best way for Russia to gain 
transparency and reassurance that this is the case.

  <bullet> b. In your opinion, would it be unwise to provide any 
        additional, written assurances to Moscow before the operational 
        capabilities and characteristics of any element of the EPAA are 
        known?

    Answer. The way for Russia to gain the assurance it seeks is to 
engage in missile defense cooperation with the United States and NATO.
    As the President stated in his December 18, 2010, letter to 
Senators Reid and McConnell, `` . . . as long as I am President, and as 
long as the Congress provides the necessary funding, the United States 
will continue to develop and deploy effective missile defenses to 
protect the United States, our deployed forces, and our allies and 
partners.''
    If confirmed, I would work with my colleagues in the administration 
to seek a political framework that would open the way for missile 
defense cooperation with Russia, without any limits on our ability to 
develop and deploy missile defenses, so that U.S. missile defenses are 
free to keep pace in response to the evolution of the threat.

    Question. The Russian Ministry of Foreign Affairs (MFA) was quick 
to dismiss Under Secretary Tauscher's remarks, according to Russian 
press. An October 19 Interfax report quoted an MFA official stating 
``We need reliable legal guarantees[.]''
    The Senate made clear (and the President certified) that American 
missile defense systems, including all phases of the Phased Adaptive 
Approach to missile defenses in Europe, the modernization of the 
Ground-Based Midcourse Defense system, and the continued development of 
the two-stage Ground-Based Interceptor as a technological and strategic 
hedge, will not threaten the strategic balance with the Russian 
Federation under Condition 14 of the resolution of advice and consent 
to the New START Treaty.
    Russia is unwilling to accept both cooperation and assurance, 
seeking only legally binding limitations on American missile defenses.
    Since Russia has apparently rejected all efforts to date, and if 
the most recent reports from Moscow are true, then what is the 
administration willing to do to further reassure Moscow regarding each 
of the following:
          (a) All phases of the Phased Adaptive Approach to missile 
        defenses in Europe;
          (b) The modernization of the Ground-Based Midcourse Defense 
        system; and
          (c) The continued development of the two-stage Ground-Based 
        Interceptor as a technological and strategic hedge.

    Answer. The missile defense system being established in Europe is 
not directed against Russia, nor is it capable of countering Russian 
strategic forces or undermining strategic stability. Senior officials 
of the Department of Defense have extensively briefed Russia on why 
U.S. missile defenses are not a threat to Russia, using physics and 
realistic unclassified performance parameters. A similar briefing has 
been presented to the NATO-Russia Council. The administration is 
prepared to continue to pursue this dialogue, within the bounds of U.S. 
National Disclosure Policy. In addition, Missile Defense Agency 
Director LTG O'Reilly offered Russia--as well as any NATO member--the 
opportunity to observe certain U.S. missile defense tests.
    The best way for Russia to gain the assurance it seeks is through 
the missile defense cooperation we have proposed bilaterally and in the 
NATO-Russia Council. As I stated at my hearing, continued Russian calls 
for legally binding assurances, such as those cited in the question, 
are grounds for pessimism.

    Question. In a White House Press Briefing after the bilateral 
meeting between President Obama and President Medvedev, in Deauville, 
France, you were asked for details about a potential political 
agreement on missile defense cooperation between the two countries, to 
which you responded: ``we got a new signal on missile defense 
cooperation that as soon as I'm done here I'll be engaging on that with 
the rest of the U.S. Government.''

  <bullet> What was the nature of that agreement or ``new signal,'' and 
        what are, in fact, the plans for missile defense cooperation 
        and/or data sharing with the Russian Federation?

    Answer. During the meeting between President Obama and President 
Medvedev on the margins of the G8 summit in Deauville, the two 
Presidents agreed to signal to their respective teams their continued 
commitment to missile defense cooperation. They committed to working 
together so that the United States and Russia can find an approach and 
configuration that is consistent with the security needs of both 
countries, maintains the strategic balance, and deals with the 
potential ballistic missile threats that we both share. The 
administration is committed to continuing to work with Russia, in full 
accord with our NATO allies, to explore areas of missile defense 
cooperation that are in our mutual interests.

    Question. In your testimony, you stated before the committee that: 
``For the upcoming parliamentary and Presidential votes in Russia, we 
have allocated $9 million--$1 million more than spent for the previous 
round of national elections in 2007-2008--to support activities 
designed to strengthen free and fair elections.''

  <bullet> a. Are these funds specifically set aside for the 
        parliamentary and Presidential votes, or does this money 
        include general rule-of-law and civil society funding?

    Answer. The United States is committed to supporting those in 
Russia pressing for free, fair, and participatory electoral processes, 
including through over $9 million in assistance programs. Over $8 
million of this total was set aside for political process programs, and 
the balance of approximately $1 million was set aside for civil society 
programs with components related to these elections. An additional $10 
million in FY 2011 programs are dedicated to strengthen the rule of law 
and promote human rights, and these programs do not have specific 
elections components.

  <bullet> b. When was this $9 million allocated?

    Answer. Approximately $8 million was allocated for programs related 
to the upcoming elections that were developed in early 2011. 
Recognizing the importance of these elections, in the summer of 2011, 
the administration allocated another $1 million in additional resources 
for programs targeted to fill gaps in assistance.

  <bullet> c. How, specifically, will this money be used (or has this 
        money been used) ``for the upcoming parliamentary and 
        Presidential votes in Russia''?

    Answer. These funds will be used to support long-term observation 
of the preelection environment by independent Russian civil society 
groups in 48 regions. The intent is for these groups to monitor issues 
such as the use of administrative resources and bias in media coverage 
during the campaign. The United States will also support short-term 
election monitoring in 40 regions by 3,000 Russian observers. U.S.-
supported seminars will encourage professional and unbiased press 
coverage of the elections. The administration is also committed to 
supporting public awareness campaigns, roundtables, internet platforms, 
documentaries and other civil society initiatives that promote public 
debate and engagement in the electoral process. The administration will 
also support public opinion polls that will help to identify the 
electorate's preferences and track trends over time.
                                 ______
                                 

           Responses of Michael McFaul to Questions Submitted
                     by Senator Benjamin L. Cardin

    Question. Having worked for the National Democratic Institute, you 
are well aware that they pioneered the election observation methodology 
that became the OSCE's methodology and the international gold standard 
for observing elections. This methodology and the OSCE's Office of 
Democratic Institutions and Human Rights are under a constant and 
cynical attack from Russia with the tired cry of double standards. What 
can be done at this stage and under these circumstances to improve the 
dynamic between Russia and the ODIHR? Is it too late to influence 
Russia's coming polls for the better? If so, what can be done to 
effectively and credibly document gaps between the reality on the 
ground and Russia's myriad commitments in the area of democratic 
elections?

    Answer. The United States continues to encourage Russia to conduct 
free and fair elections and to focus American assistance to strengthen 
democratic institutions in Russia. The United States strongly supports 
the work of the OSCE's Office of Democratic Institutions and Human 
Rights. President Obama has publicly and privately stressed the 
importance for Russia's future of transparent, accountable, democratic 
government. In the administration's view, it is in Russia's interest to 
address those challenges, and it's in the interest of Americans to 
support political and economic modernization in Russia.
    Domestic and international election monitors play a critical role 
in this process, and the United States has welcomed the invitation by 
Russia's Central Election Commission to international observers, 
including an Election Observation Mission from OSCE's Office of 
Democratic Institutions and Human Rights and the OSCE Parliamentary 
Assembly, for the December 4 parliamentary elections. This indicates an 
improvement from the situation in 2007 and 2008; ODIHR Long Term 
Election Observers will be on the ground in Russia for a total of 5 
weeks before and after election day on December 4, which will enable 
them to assess the political climate and ascertain whether parties are 
granted a level playing field in the runup to election day.
    While the administration welcomes the invitation to ODIHR election 
observers, it is disappointed that the authorities denied registration 
to the Party of People's Freedom (PARNAS), which prevents this party 
from participating in the elections and thus makes the elections less 
competitive from the very start. The administration will continue to 
observe the electoral process in Russia, and looks forward to ODIHR's 
assessment.
    In addition to American support for the ODIHR observation mission, 
the United States is providing over $9 million in nonpartisan 
assistance to encourage free and fair elections. This includes support 
for domestic monitoring of the campaign environment and the conduct of 
the elections in 40 regions by 3,000 Russian observers. In tandem with 
international observers, these domestic monitors will document the 
extent to which Russia fulfills its international commitments to 
democracy.

    Question. Now that the United States has implemented targeted visa 
sanctions in the Magnitskiy case, what steps has the administration 
taken to encourage our European allies to take similar steps in this 
and other cases? What about asset freezes?

    Answer. The administration has made its concerns about the 
Magnitsky case clear at the highest levels of the Russian Government, 
and has demanded that those responsible for his death and detention be 
held accountable. As you are aware, the administration has identified 
grounds of visa ineligibility under U.S. law to bar the entry into the 
United States of persons responsible for the death and detention of 
Sergey Magnitsky. In addition, Presidential Proclamation 8697 issued 
this August provides additional authority to bar admission to serious 
human rights abusers. The proclamation specifically lists arbitrary 
detention as a serious human rights violation.
    The administration regularly discusses the human rights situation 
in Russia--including the Magnitsky case--with our European allies and 
in meetings with the European Union.
    The administration has procedural concerns about requirements that 
would potentially freeze assets in the absence of a strong evidentiary 
standard and limited corroborated information.

    Question. As a native of Montana and a resident of California, you 
have grown up and lived in some of America's most beautiful landscapes. 
Russia also has breathtaking natural beauty and a budding environmental 
movement including those struggling to keep Lake Baikal's waters pure 
and those fighting to save the Khimki Forest in suburban Moscow. What 
ideas do you have for sharing our rich environmental tradition, 
including its art such as the Hudson Valley School, literary figures 
like John Muir, Theodore Roosevelt, and Aldo Leopold, or activists from 
the Sierra Club to Earth First?

    Answer. The United States support for environmental activism and 
community participation is vital to supporting shared environmental and 
conservation goals with Russia. The administration has worked together 
with Russia on issues from tiger conservation to protecting against 
invasive species with nongovernmental and governmental partners. The 
Environment Working Group under the U.S.-Russia Bilateral Presidential 
Commission has raised the profile of these issues on our bilateral 
agenda and increased policy support, dialogue, and, in some cases, 
project funding.
    Recent activities of the Environment Working Group include a U.S. 
Forest Service initiative to set up mobile fire brigades in the Russian 
Far East that protect the habitats of endangered species like the Amur 
tiger and leopard. U.S. Forest Service specialists also have traveled 
to the Lake Baikal area to share expertise and best practices on 
ecotourism, and Russian academics visited Lake Tahoe to exchange 
information with American specialists on water management and 
economical use of water basins with similar climatic and physical 
conditions. Department of Justice experts conducted a seminar in 
Khabarovsk on illegal logging and the U.S. Lacey Act combating 
trafficking in illegal wildlife, fish, and plants. The National Park 
Service also supports scientific and cultural exchanges across the 
Bering Strait each year.
    Through the Environment Working Group, the administration has 
sought to find ways to share our culture of deep environmental 
preservation. For example, a recent U.S. Forest Service exchange 
brought Russian Forest Service professionals to Pennsylvania's Grey 
Towers, the ancestral home of Gifford Pinchot, the first chief of the 
U.S. Forest Service, where they learned about Roosevelt and the legacy 
of Mr. Pinchot in forest management and the establishment of the U.S. 
Forest Service.
                                 ______
                                 

           Responses of Michael McFaul to Questions Submitted
                       by Senator James E. Risch

    Question. What does Prime Minister Putin's announcement that he 
will once again seek the Presidency in 2012 say about the statements 
made by yourself and others, including Vice President Biden, that the 
``reset'' was aimed at building up President Medvedev? How will Putin 
becoming, in effect, president-for-life affect the ``reset''?

    Answer. This administration's policy has always been first and 
foremost about advancing U.S. interests. Since being elected in 2008, 
President Obama has developed an excellent working relationship with 
President Medvedev, who is his direct counterpart as head of state. 
Putin has served as Prime Minister and head of government during the 
entire tenure of the Obama administration. He has been a key part of 
the Russian Government's policy process, and our approach to Russia 
throughout this period has recognized this fact. President Obama and 
Vice President Biden each met with Prime Minister Putin during their 
visits to Russia.
    The question of who will serve as President of Russia is one that 
the Russian people should decide for themselves. The administration 
will continue to build on the progress of the reset regardless of who 
serves as the next President of Russia because it is in the interest of 
the United States to do so, and because the policy is also directed 
more broadly at strengthening the ties between our countries' 
institutions and societies.

    Question. How would you describe the harassment of U.S. Embassy 
personnel by Russian security services? Can you provide a list of 
harassment claims against U.S. personnel committed by Russian security 
services since 2006?

    Answer. The safety of U.S. citizens abroad--including that of 
personnel serving at our diplomatic missions--is of the utmost 
importance to the United States. The administration remains troubled by 
harassment of U.S. mission personnel by Russian security services, and 
has repeatedly expressed these concerns to the Russian Government.
    The details of these incidents are considered classified under U.S. 
law. We would welcome the opportunity to provide a briefing in a 
classified setting.

    Question. Do you believe the supervisor positions in the Foreign 
National Guard Force at U.S. Embassy Moscow should be U.S. citizens or 
Russian nationals? What steps will you take to ensure that the 
supervisors are from the United States?

    Answer. Both the current administration and the previous 
administration have considered the option of American guard supervisors 
to provide 24-hour onsite supervision for the local guard force 
stationed at the outer perimeter of the U.S. Embassy Compound in 
Moscow. The Embassy Compound houses not only the Chancery but housing 
units, the motorpool, cafeteria and other unclassified administrative 
and technical offices. Twenty-four hour access to the Chancery itself 
is controlled exclusively by U.S. Marine Security Guards. The 
classified section of the Chancery has an additional U.S. Marine 
Security Guard post and one of the most robust layered security systems 
of any U.S. diplomatic mission abroad. The U.S. Embassy in Moscow has 
one of the largest U.S. Marine Security Guard presences of any U.S. 
diplomatic mission abroad. The costs and benefits of cleared American 
guard supervisors have been discussed previously with congressional 
committees and the administration is ready to provide a briefing and 
engage in a dialogue on this issue. If confirmed, upon my arrival, I 
will review the option of American guard supervisors for the local 
guard force.

    Question. What is your reaction to the recent Telegraph article 
entitled ``Russia `Gave Agents License To Kill' Enemies of the State.'' 
There have been claims that Russian security services murdered 
Alexander Litvenko in London. What is your take on the situation and 
would they commit a similar act in the United States?

    Answer. As then-Secretary of State Rice said in December 2006, soon 
after Litvinenko's death, ``We've been clear to the Russian Government 
that all of these issues need to be investigated and investigated 
thoroughly . . . and our principal role is to try to be supportive of 
the British Government in any way we can.''
    The murder of Mr. Litvinenko was a horrible crime. Those 
responsible for the poisoning of Alexander Litvinenko must be brought 
to justice. British authorities are currently investigating the case 
and have requested the extradition of Andrei Lugovoi from Russia.
    The administration continues to follow developments in the case. 
The administration is aware of the referenced article in the Telegraph 
but cannot speak to the authenticity of any of the documents referenced 
or comments made in the press.

    Question. What is your opinion of the Russian policy toward Grozny?

    Answer. The human rights situation and level of terrorist activity 
in Chechnya and throughout the North Caucasus remain a cause for 
continuing concern. Chechnya, Dagestan, Ingushetia and Kabardino-
Balkaria have experienced insurgent violence and terrorist attacks. 
Russian security forces' operations in Chechnya have led to 
noncombatant deaths and human rights violations. The human rights 
record of Chechen authorities under Ramzan Kadyrov's leadership is 
especially poor, as the State Department's annual Human Rights Report 
has noted.
    The Russian Government has announced ambitious plans to support the 
economic development of the North Caucasus as a means to countering 
violent extremism. The region remains poor and underdeveloped with a 
high unemployment rate.
    While the regional economy needs attention, it is equally important 
that the Russian Government address the human rights situation, 
particularly rule of law, corruption, and religious freedom.
    The United States overall assistance package for Russia includes an 
$8 million portfolio of programs targeting conflict mitigation, health, 
and democracy and governance activities in the North Caucasus. These 
programs include efforts to increase opportunities for the region's 
youth, monitor and protect human rights, promote entrepreneurship, 
fight corruption, and support journalists.

    Question. How will the upcoming Sochi Olympics impact Russian 
policy to the Caucasus?

    Answer. Preparations for the 2014 Winter Olympic Games in Sochi 
present Russia with an array of political, economic, and security 
challenges. The Krasnodar Krai (region) where Sochi is located will see 
an unprecedented inflow of capital, workers, and international visitors 
during the preparatory period and during the Games themselves. This 
region borders the North Caucasus Federal District, and the security 
situation there will clearly influence Russia's decisions on a wide 
array of issues in the months leading up to the Olympics.
    The administration is in close contact with Russian authorities as 
the preparations go forward to ensure the safest possible environment 
for the American and international athletes, staff, and spectators who 
will be present. In the context of those discussions, we consistently 
represent to the Russian Government our concern that security measures 
be proportional to the threat and respectful of human rights and 
fundamental freedoms.
    If I am confirmed, I will pay close attention to issues involving 
the safety and security of Americans traveling to the Sochi Olympics.

    Question. Recently, the Georgian military suffered from a shortage 
of spare parts (brake pads) for military vehicles, which undermined the 
safety of U.S. military personnel training with the Georgians.

  <bullet> a. What is the reason that the U.S. Ambassador in Georgia 
        needed to personally intervene in getting Washington to 
        authorize the sale of spare parts for military vehicles in 
        Georgia?

    Answer. The Ambassador routinely communicates with his counterparts 
throughout the executive branch on the full range of issues on the 
U.S.-Georgia bilateral agenda. The administration works closely with 
Georgia to ensure that it has the necessary materials and equipment to 
support the International Security Assistance Force (ISAF) in 
Afghanistan.

  <bullet> b. If Russia can provide advanced nuclear technology to 
        Iran, what is the logic behind the U.S. unwillingness to sell 
        Georgia basic military equipment?

    Answer. The administration reviews all requests for export licenses 
and arms transfers individually, assessing legal, technical, and policy 
considerations on a case-by-case basis. Our security assistance and 
military engagement with Georgia is currently focused on two areas. The 
first is comprehensive assistance to support Georgia's defense reform 
and modernization along Euro-Atlantic lines. Second, the United States 
provides training and equipment to enable Georgian forces to operate 
effectively alongside U.S. and NATO forces in the Afghan 
counterinsurgency environment in conjunction with Georgia's generous 
contributions to ISAF operations in Afghanistan.

  <bullet> c. Will you provide for the committee all military Letters 
        of Request (LOR) put forward by the Georgian Government, as 
        well as the responses provided by the U.S. Government?

    Answer. The information you have requested is an internal executive 
branch communication. The State Department's longstanding practice is 
to consider release of internal executive branch communication 
documents when requested by the chair of a committee of jurisdiction. 
Under these circumstances, we respectfully ask that you channel your 
request through the chair of a committee of jurisdiction, at which 
point we would be pleased to respond. The Department is committed to 
providing Congress with the information it needs to fulfill its 
legislative duties.

  <bullet> d. If the Republic of Georgia requested access to antitank, 
        antiair, and antipersonnel weapons tomorrow for the defense of 
        its territory, would you support the approval of licenses for 
        the sale of those weapons?

    Answer. In keeping with standard practice, the administration 
reviews all requests for export licenses and arms transfers 
individually, assessing legal, technical, and policy considerations.

  <bullet> e. Will you provide to the committee all National Security 
        memos on arms sales to Georgia that you either drafted and/or 
        approved/disapproved, especially those based on cables from 
        Ambassador Beyrle in Moscow?

    Answer. The document that you have requested is an internal 
executive branch communication. The State Department's longstanding 
practice is to consider release of internal executive branch 
communication documents when requested by the chair of a committee of 
jurisdiction. Under these circumstances, we respectfully ask that you 
channel your request through the chair of a committee of jurisdiction, 
at which point we would be pleased to respond. The Department is 
committed to providing Congress with the information it needs to 
fulfill its legislative duties.

    Question. As part of congressional action allowing for Russian 
admission to the WTO, would you support a legislative provision 
requiring the President certify that Russia is not militarily occupying 
territory of another WTO member?

    Answer. The United States remains firmly committed to its support 
for Georgia's territorial integrity and sovereignty and to its position 
that Russia should adhere to its 2008 cease-fire commitments and to 
withdraw its forces to preconflict positions. The administration, both 
in bilateral meetings and in multilateral fora, continues to raise 
Russia's militarization and lack of transparency in the separatist 
regions, including the construction of military bases in South Ossetia 
and Abkhazia.
    A consensus decision on the terms of accession to the WTO of any 
country made by WTO member states is based on whether or not that 
country's trade regime is in compliance with WTO rules, or the 
country's government has made the necessary commitments to bring its 
regime into compliance. The administration has based its ``reset'' 
policy with Russia in part on the premise that problems in one area of 
our relationship should not preclude progress in others. The United 
States has disagreements with Russia on a variety of issues, including 
Russia's military occupation of Georgia's separatist regions, but the 
administration has tried to pursue each of these issues on its own 
merits.

    Question. How much time passed between when you learned that a bomb 
was placed in the vicinity of the U.S. Embassy in Georgia and when 
Congress was first briefed?

    Answer. The administration has held a number of discussions with 
Congress on this issue, including classified intelligence briefings.
    Immediately after the incident that occurred near the U.S. Embassy, 
the administration coordinated closely with Georgian law enforcement to 
support their investigation. The administration has also raised the 
allegations by Georgian authorities of Russian involvement directly 
with the Russian Government at high levels and urged the avoidance of 
any actions in Georgia that could impact regional stability and 
security.

    Question. In a White House Press Briefing after the bilateral 
meeting between President Obama and President Medvedev, in Deauville, 
France, you were asked for details about a potential political 
agreement on missile defense cooperation between the two countries, to 
which you responded: ``we got a new signal on missile defense 
cooperation that as soon as I'm done here I'll be engaging on that with 
the rest of the U.S. Government.'' Despite efforts to understand the 
nature of that ``new signal'' we still do not know what was agreed to 
by the two Presidents.

  <bullet> a. Please explain the nature of that agreement or ``new 
        signal,'' and what are the plans for missile defense 
        cooperation and/or data-sharing with the Russian Federation? 
        Can you provide us a record of this discussion?

    Answer. During the meeting between President Obama and President 
Medvedev on the margins of the G8 summit in Deauville, the two 
Presidents agreed to signal to their respective teams their continued 
commitment to missile defense cooperation. They committed to working 
together so that the United States and Russia can find an approach and 
configuration that (1) is consistent with the security needs of both 
countries; (2) maintains the strategic balance; and (3) deals with the 
potential ballistic missile threats that both nations face. The 
administration is committed to continuing to work with Russia, in full 
accord with our NATO allies, to explore areas of missile defense 
cooperation that are in our mutual interests.

  <bullet> b. Please inform the committee when we can have access to 
        the Defense Technical Cooperation Agreement (DTCA) that the 
        administration is negotiating with Russia on U.S.-Russia 
        missile defense cooperation.

    Answer. The Obama administration is committed to keeping Congress 
informed of our missile defense efforts. In keeping with the 
longstanding practice of this and past administrations, the Obama 
administration would be pleased to provide a classified briefing on the 
Defense Technical Cooperation Agreement, including developments from 
the latest round of U.S.-Russia meetings.

    Question. What is the status of NATO-Russia cooperation on missile 
defense and will the administration pledge to share any proposed 
language for the Chicago summit statement regarding such cooperation 
with Congress prior to the summit?

    Answer. At the 2010 NATO-Russia Council (NRC) summit in Lisbon, 
NATO and Russia agreed to resume theater missile defense cooperation 
and develop a comprehensive Joint Analysis of the future framework for 
missile defense cooperation.
    Irrespective of how this cooperation develops, the alliance alone 
bears responsibility for defending NATO's members, consistent with our 
treaty obligations for collective defense. The administration has been 
clear with Russia that we cannot accept any agreement that would limit 
or constrain the deployment of our missile defenses--no nation will 
have veto power over U.S. missile defense efforts--and that NATO will 
be responsible for the defense of NATO territory, while Russia will be 
responsible for the defense of Russian territory.
    To date, no agreement has been reached to hold a NATO-Russia summit 
in Chicago in May 2012. In keeping with longstanding practice, the 
administration would welcome the opportunity to provide a briefing on 
missile defense cooperation between NATO and Russia.

    Question. How would you characterize the state of U.S.-Russian 
cooperation on Iran, especially given Moscow's recent proposal to 
Tehran, not approved by the United States, or other P5+1 partners, to 
begin to remove sanctions if Iran took several small steps to slow its 
nuclear program, all short of suspension of enrichment.

    Answer. The United States and Russia are committed to the dual 
track approach of sanctions in support of diplomacy to resolve our 
serious concerns over Iran's nuclear program. Russia has proven over an 
extended period of time to be an important partner in the development 
and implementation of international sanctions on Iran. In September in 
New York, the P5+1 (including Russia) made clear in the statement 
released by EU High Representative Ashton that we remain ``determined 
and united in our efforts to work toward a comprehensive, negotiated, 
long-term solution.'' The international community will not lift 
sanctions until Iran has fulfilled its international obligations.

    Question. Given that nine parties were denied access to the ballot 
for the December 4 Russian parliamentary elections, does the 
administration view these elections and their results as legitimate?

    Answer. The administration has expressed its strong disappointment 
both publicly and privately in meetings with senior Russian officials 
that the Russian Central Election Commission denied registration to 
these parties, thereby preventing them from fielding candidates in the 
upcoming elections. Access to the ballot is a key part of the 
democratic process, and this makes Russia's parliamentary elections 
less competitive than they could be.
    Russia's Central Election Commission has issued an invitation for 
international observers, including an Election Observation Mission from 
OSCE's Office of Democratic Institutions and Human Rights (ODIHR) and 
the OSCE Parliamentary Assembly, for the December 4 parliamentary 
elections. ODIHR Long-Term Observers will be on the ground in Russia 
for 5 weeks before and after the elections, which will enable them to 
assess the political climate and whether the elections process and the 
elections themselves meet international standards. The administration 
looks forward to ODIHR's assessment, as well as the assessments of 
other international and domestic observers. The United States is 
providing over $9 million in nonpartisan assistance to encourage free 
and fair election processes in Russia. This includes support for 
domestic monitoring of the campaign environment and the conduct of the 
elections in 40 regions by 3,000 Russian observers.

    Question. What will you do to assist the Russian political 
opposition and if confirmed, will you use your platform as U.S. 
Ambassador to meet with leading opposition figures and to hold the 
regime accountable when political parties are not allowed to register, 
journalists threatened, and activists imprisoned?

    Answer. In my current job at the White House, I meet regularly with 
leaders of Russia's political opposition and civil society. The Obama 
administration has raised publicly and privately our concerns about 
democratic violations and human rights abuses. If confirmed, I will 
ensure that the United States continues to use all of the tools at its 
disposal to support those seeking to strengthen democracy in Russia. 
This will include meeting with the full range of political figures, 
raising concerns under the Bilateral Presidential Commission and in 
other fora regarding democratic deficiencies, and promoting civil 
society development, rule of law, human rights, independent media 
development, and good governance through U.S. assistance programs. As 
someone who has worked on these issues for more than a quarter century, 
I have the experience necessary to add vigor to our efforts in Russia, 
and if confirmed, I would use my role as U.S. Ambassador to make 
further progress on democratization and rule of law.

    Question. What do you believe the arrest, detention, and two trials 
of Khodorkovsky, as well as the dismantling of Yukos reveal about the 
rule of law in Russia? Should the United States care about cases like 
this?

    Answer. The United States has closely followed the trials of 
Mikhail Khodorkovsky and the dismantling of Yukos. President Obama, 
Deputy Secretary of State William Burns, and Ambassador John Beyrle 
have spoken about the case in public interviews in Russian media, 
stressing our government's concerns over rule-of-law issues and 
interest in seeing the claims of American investors addressed. U.S. 
officials have also raised the case on multiple occasions in private 
with senior Russian officials.
    Secretary Clinton noted in December that the Khodorkovsky case 
raises serious issues about selective prosecution and the independence 
of the judiciary in Russia. The Russian Government cannot nurture a 
modern economy without also developing an independent judiciary that 
serves as an instrument for furthering economic growth, ensuring equal 
treatment under the law and advancing justice in a predictable and fair 
way. These basic tenets are not only important to the Russian people 
and their country's development, but also to Americans who want to know 
that their investments in Russia are protected as well.

    Question. In December 2010, before a Russian court announced its 
verdict in Khodorkovsky's second trial, Prime Minister Putin called for 
the conviction of Khodorkovsky. President Medvedev said statements like 
this were improper, but it also seems to have affected the verdict when 
one judicial assistant later admitted the verdict was ``directed from 
elsewhere.'' Do you believe the trial was fair and the verdict just?

    Answer. The administration has noted the allegations by individuals 
closely involved in the court proceedings that the process was not a 
proper one. As Secretary Clinton said on December 27, 2010, the guilty 
verdict in the second trial of Mikhail Khodorkovsky and Platon Lebedev 
on charges of embezzlement and money laundering raises serious 
questions about the apparent selective application of the law to these 
individuals. The administration is troubled by the use of the legal 
system to silence the voices of political opposition, and those calling 
for fair dealings and accountability in the Russian economy.

    Question. You mentioned in your testimony that you believe those 
involved in the murder of Sergey Magnitsky should be barred from travel 
to the United States; do you also support freezing their assets?

    Answer. The United States has made its concerns about the Magnitsky 
case clear both publicly and at the highest levels of the Russian 
Government, and demanded that those responsible for his death and 
detention be held accountable. As I noted during my confirmation 
hearing, the administration has identified grounds of visa 
ineligibility under U.S. law to bar the entry into the United States of 
persons responsible for the death and detention of Sergey Magnitsky. In 
addition, Presidential Proclamation 8697 issued this August provides 
additional authority to bar admission to serious human rights abusers 
and the proclamation specifically lists arbitrary detention as a 
serious human rights violation.
    The administration has procedural concerns about requirements that 
would potentially freeze assets in the absence of a strong evidentiary 
standard and limited corroborated information.

    Question. I understand on October 12, 2011, during a visit to 
Moscow, Assistant Secretary of State for Democracy, Human Rights and 
Labor Posner gave an interview with Radio Ekho Moskvy during which he 
questioned the right of Congress to set conditions for visa denials. 
Does the administration share the view of Assistant Secretary Posner 
that Congress does not have the constitutional and legal authority to 
set conditions for visa approval or denial? Could you please clarify 
what Assistant Secretary Posner said, and whether you agree with his 
statement?

    Answer. Assistant Secretary Posner has been a strong proponent of 
sanctioning those involved in Sergey Magnitsky's death. When asked 
about the proposed Magnitsky legislation during the Ekho Moskvy 
interview, Assistant Secretary Posner noted that the administration, 
under existing authority provided by U.S. law, has taken appropriate 
measures to bar entry into the United States of individuals involved in 
the wrongful death of Sergey Magnitsky--thus enactment of the proposed 
legislation is not necessary.
    Assistant Secretary Posner, along with other administration 
officials, is in regular contact with Members of Congress to discuss 
our shared concerns about the lack of accountability in the Magnitsky 
case, and the general human rights situation in Russia, and to consider 
how the U.S. Government can better advance human rights, the rule of 
law, and democratic development in Russia.
    During his recent trip to Moscow, Nizhny Novgorod and Kazan, 
Assistant Secretary Posner met with government officials as well as 
also civil society activists and opposition leaders and discussed the 
full range of our human rights and democracy concerns in Russia.
                                 ______
                                 

            Response of Michael McFaul to Question Submitted
                       by Senator James M. Inhofe

    Question. Before Yukos Oil was seized, American investors 
collectively owned approximately 15 percent of Yukos Oil--or $12 
billion in value today. The American investors in Yukos included 
several public pension funds and more than 70 institutional investors 
in at least 17 States. There were also over 20,000 individual American 
investors who owned Yukos shares directly, in addition to the hundreds 
of thousands who owned shares indirectly through mutual funds.
    The United States has no bilateral investment treaty (BIT) with 
Russia, leaving Americans with no other means to be compensated. Other 
foreign owners of Yukos have been able to initiate BIT claims, and a 
U.K. investor recently won such a case. It is my understanding that 
only through the legal mechanism of espousal by the United States can 
an appropriate and fair resolution be obtained for these U.S. 
investors.
    In June 2008, American investors formally petitioned the State 
Department to undertake government-to-government negotiations with 
Russia to resolve these Yukos claims.

  <bullet> What do you believe the administration should do with this 
        petition?

    Answer. U.S. officials have raised and will continue to raise the 
matter of American shareholders' claims with the Russian Government, 
both in public and in private. Ambassador Beyrle and Deputy Secretary 
of State Burns have spoken about the case in public interviews in 
Russian media, stressing our government's interest in seeing these 
claims addressed. U.S. officials have also met several times with 
representatives of American investors to discuss their claims and the 
options for seeking to have them addressed.
    The administration is closely watching the international court and 
arbitration proceedings concerning the significant claims brought by 
Yukos investors from other countries and the Yukos Corporation itself, 
including the September 20 decision from the European Court of Human 
Rights. Future decisions in that Court and in arbitral tribunals will 
continue to inform the administration's position on many of the complex 
legal and factual issues at stake in this matter. These international 
courts and arbitration panels, made up of experts in international law, 
receive the benefit of full briefings, the parties' participation in a 
hearing, and expert opinions. Before making a decision on espousing the 
claims of American investors, I believe the U.S. Government should 
allow these proceedings to fully run their course.
    The administration will continue to seek better protection for U.S. 
investors, including in Russia. The administration has begun 
exploratory discussions with Russia on a Bilateral Investment Treaty 
and, if confirmed, pursuing this and other initiatives to afford the 
highest level of legal protections for U.S. investors in Russia will be 
one of my top priorities.
                                 ______
                                 

           Responses of Michael McFaul to Questions Submitted
                        by Senator John Barrasso

    Question. Do you believe that Russia's continued militarization of 
the Abkhazia and South Ossetia regions is inconsistent with its cease-
fire commitments?

    Answer. Yes. Such actions are inconsistent with Russia's 2008 
cease-fire commitments and undermine regional security and stability. 
The United States, both in bilateral meetings and in multilateral fora, 
objects to and expresses concern about the continued Russian 
militarization and lack of transparency in the separatist regions, 
including the construction of Russian military bases in South Ossetia 
and Abkhazia. At every opportunity, the administration restates its 
commitment to Georgia's territorial integrity and sovereignty, and 
calls on Russia to adhere to its 2008 cease-fire commitments.

    Question. Have there been any sanctions or other actions taken 
against Russia by the United States due to Russia's continued 
occupation of parts of Georgia?

    Answer. Since the Obama administration took office, it has 
continued to call on Russia to fulfill its obligations under the 2008 
cease-fire agreement, including withdrawal of its forces to preconflict 
positions, and has publicly expressed its support for Georgia's 
territorial integrity and political sovereignty. The administration 
also continues to voice concern directly to Russia at every opportunity 
and at the highest levels regarding its actions in Georgia, including 
during President Obama's visit to Moscow and Secretary Clinton's 
regular meetings with Russian Foreign Minister Lavrov. Since the 2008 
war, the United States has not levied sanctions in response to Russia's 
occupation of Georgian territory.

    Question. What specific efforts has the United States taken to 
support Georgia's sovereignty and territorial integrity?

    Answer. Immediately following the 2008 conflict with Russia, the 
United States pledged $1 billion to aid Georgia's recovery and ensure 
its security. The majority of the post-conflict pledge targeted 
immediate stabilization and reconstruction needs such as supporting 
reintegration of internally displaced persons, and restoring peace and 
security through support for law enforcement and enhanced border 
security. Ongoing U.S. assistance is aimed at helping Georgia solidify 
and advance its economic and democratic reforms of the past 6 years, 
with the ultimate goal of anchoring Georgia in the Euro-Atlantic 
community.
    In addition to our direct assistance to Georgia, the administration 
continues to call on Russia to fulfill its obligations under the 2008 
cease-fire agreement, including withdrawal of its forces to preconflict 
positions. The United States is an active participant in the Geneva 
discussions, working with the cochairs and others in pursuit of a 
resolution to the conflict. The administration continues to voice 
concern directly to Russia at every opportunity and at the highest 
levels regarding its actions in Georgia, including during President 
Obama's visit to Moscow and during Secretary Clinton's meetings with 
Russian Foreign Minister Lavrov. The administration will continue to 
speak out in support of Georgia's territorial integrity, as it did most 
recently in its statement regarding the August 26 ``elections'' in the 
separatist region of Abkhazia. The administration will continue to urge 
other countries to maintain their current nonrecognition of the 
separatist regions.

    Question. How can Russia be held accountable for its violations of 
Georgia's sovereignty and territorial integrity?

    Answer. President Obama, Vice President Biden, and Secretary 
Clinton have been clear with the Russian Government on the need to meet 
its obligations under the 2008 cease-fire agreement and our serious and 
ongoing concern over the Russian military presence in the separatist 
regions of South Ossetia and Abkhazia. The administration has also been 
clear, both publicly and privately, that it supports Georgia's 
territorial integrity and sovereignty. There are no military solutions 
to this impasse, only diplomacy, and the administration has 
participated in multiple rounds of talks moderated by the EU, the U.N., 
and the OSCE in Geneva to encourage dialogue between the parties. If 
confirmed, I will make progress on this issue one of my highest 
priorities.

    Question. Reports indicate that despite the United States expressed 
request that Russia halt their sale of arms to Syria, Russia is 
committed to selling weapons to Syria.

  <bullet> What is the status of Russia's arms sale to Syria?
  <bullet> What type of weapons has Russia sold to Syria this year?
  <bullet> What efforts are being taken by the United States to prevent 
        the sale of arms to Syria by Russia?

    Answer. The United States is always concerned about reports of 
weapons transfers to countries of concern, including Syria. Secretary 
Clinton publicly urged Russia to cease arms sales to Syria on August 
12, 2011. The administration is pressing Russia to cease pending and 
future arms transfers that threaten regional stability, contribute to 
the Syrian regime's violent crackdown, or could be diverted to 
Hezbollah. The administration can provide additional details on this 
issue in a classified format.

    Question. How would you characterize Russia's record on adherence 
to international treaty obligations?

    Answer. While there are areas of concern, Russia takes its legal 
obligations with regard to international treaties seriously. The United 
States concerns regarding Russia's arms control, nonproliferation, and 
disarmament commitments remain the subject of ongoing bilateral 
discussions. These concerns are detailed in the 2010 and 2011 reports 
to Congress on ``Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments'' as well 
as other submitted compliance reports on arms control agreements.
    Over the past 2\1/2\ years, the administration has made progress in 
laying a solid foundation in our engagement with Russia on these 
issues, identifying and expanding areas of common ground, and dealing 
with our differences. Our objective is a strong strategic relationship 
with Russia that is based on transparency, openness, and 
predictability. The administration expects our constructive 
relationship to continue and to work together with Russia on a range of 
international security challenges.

    Question. What have been the most recent examples of Russia's 
violations to international treaty obligations?

    Answer. Administration concerns regarding Russia's arms control, 
nonproliferation, and disarmament commitments, are the subject of 
ongoing compliance discussions between the United States and Russia. 
Examples of unresolved compliance issues include specific issues 
relating to Russia's adherence to the Treaty on Conventional Armed 
Forces in Europe, the Biological and Toxin Weapons Convention, and the 
Chemical Weapons Convention, which are detailed in the 2010 and 2011 
reports to Congress on ``Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments'' as well 
as other submitted compliance reports on arms control agreements.
    Despite these concerns, the administration has made real progress 
in laying a solid foundation in our engagement with Russia on these 
issues, identifying and expanding areas of common ground, and dealing 
with our differences. The objective remains a strategic relationship 
with Russia that is based on transparency, openness, and 
predictability. The administration's renewed focus on improving our 
relations with Russia, including the negotiation and entry-into-force 
of the New START treaty, has led to a greater understanding and 
increased cooperation between the United States and Russia in a number 
of areas, including a joint effort to diplomatically engage Iran and 
North Korea on compliance issues. The administration expects our 
constructive relationship to continue and to work together on a range 
of international security challenges.

    Question. In the Department of State's ``Country Report on Human 
Rights Practices'' for 2010, the report indicates that violations of 
rule of law and due process remain a problem in Russia.

  <bullet> What is your assessment of Russia's commitment to the rule 
        of law today?

    Answer. As the 2010 ``Country Report on Human Rights Practices'' in 
Russia points out, violations of rule of law and due process are 
serious problems in Russia. There are reported cases of arbitrary 
detention and politically motivated imprisonments; lengthy pretrial 
detentions and trial delays; endemic corruption throughout the 
executive, legislative, and judicial branches; and governmental 
restrictions on nongovernmental organizations.
    The administration recognizes that rule of law is critical to 
Russia's economic and political modernization. Promoting democracy and 
rule of law are an integral part of our bilateral dialogue with Russia. 
President Obama has regularly engaged with President Medvedev on 
democracy, human rights, and rule of law issues. The same is true for 
Secretary Clinton when she meets with Foreign Minister Lavrov and other 
senior Russian Government officials. Moreover, U.S. Government 
officials have spoken out publicly and consistently about the erosion 
of democratic institutions, human rights abuses, and rule of law issues 
in Russia, including the arrests of Strategy 31 demonstrators, lack of 
justice and accountability in the Sergei Magnitsky case, and the 
apparent selective application of the law and serious due process 
violations in the Khodorkovsky and Lebedev trials.
    The majority of U.S. bilateral assistance to Russia is dedicated to 
advancing American values by promoting democracy, good governance, 
human rights and the rule of law. The Obama administration--working 
with Congress--has continued to secure funds to support civil society, 
rule of law, human rights, independent media, and good governance in 
Russia. The administration has prioritized support for small, direct 
grants to Russian civil society organizations. Working with Congress, 
the administration will continue to seek new ways to generate greater 
support for civil society organizations in Russia that promote rule of 
law.
    In May 2011 Presidents Obama and Medvedev announced the 
establishment of a Rule of Law Working Group under the Bilateral 
Presidential Commission. The Working Group will be chaired by U.S. 
Attorney General Eric Holder and Russian Minister of Justice Konovalov. 
Through the Civil Society Working Group, our two countries are also 
working together to address the problem of corruption.

  <bullet> Since the WTO is a rules-based global trading system, how 
        confident are you that Russia will abide by the rules, should 
        it become a member of the WTO, given its continued lack of 
        respect for the rule of law?

    Answer. Should Russia become a WTO member, all members applying the 
WTO agreement to Russia would have recourse to WTO mechanisms to raise 
issues regarding Russia's implementation of its obligations. These 
would include raising issues within WTO committees and, if appropriate, 
recourse to the WTO's dispute settlement procedures. Should Russia 
become a WTO member, the administration will use all available 
mechanisms under the WTO agreement to ensure that Russia fully 
implements its obligations.

    Question. For years, the United States poultry, pork, and beef 
exports to Russia have faced significant obstacles due to Russia's use 
of sanitary and phytosanitary measures as nontariff trade barriers. A 
tremendous amount of uncertainty remains concerning Russia's adoption 
of internationally accepted protocols.

  <bullet> How do you plan to engage Russian veterinary authorities on 
        sanitary and phytosanitary issues?

    Answer. The administration has repeatedly expressed concern with 
Russia's use of non-science-based requirements as nontariff barriers to 
U.S. agricultural exports, but has lacked effective tools to address 
these barriers. One of the many reasons the administration has 
supported Russia's WTO accession is that when Russia becomes a WTO 
member, it will be required to comply with the WTO Agreement on 
Application of Sanitary and Phytosanitary Measures as well as other 
SPS-related commitments. Moreover, in the context of its membership in 
the Customs Union with Kazakhstan and Belarus, Russia has adopted a new 
legal framework to comply with its international obligations on SPS 
measures. WTO members that apply the WTO agreement to Russia will be 
able to raise concerns about Russia's implementation of its SPS 
obligations and specific measures that are applied to imports. This 
includes recourse to WTO dispute settlement procedures where 
appropriate.

  <bullet> What assurance do we have that Russia will comply with WTO 
        obligations should it become a member of the WTO?

    Answer. When Russia is a WTO member, all other members already 
applying the WTO agreement to Russia will have recourse through WTO 
mechanisms to raise issues regarding Russia's implementation of its 
obligations. These include raising issues within WTO committees and, if 
appropriate, recourse through the WTO's dispute settlement procedures. 
The administration will actively engage Russia using all available 
mechanisms under the WTO agreement, to ensure that Russia fully 
implements its obligations.

  <bullet> What recourse does the United States have when Russia 
        doesn't abide by the rules? How effective are those options in 
        requiring Russia to abide by its commitments?

    Answer. The United States addresses trade disputes with Russia 
through bilateral diplomatic and technical discussions. Should Russia 
become a Member of the WTO, and the executive branch with congressional 
support decides to apply the WTO Agreement to Russia (which is only 
possible if the United States terminates the application of the 
Jackson-Vanik amendment to Russia), the United States will have many 
more tools to support American producers and help ensure Russia's 
compliance with its WTO obligations. Russia will be subject to WTO 
sanitary-phytosanitary rules and, most importantly, the United States 
will have recourse to the WTO's dispute-settlement procedures if Russia 
fails to comply with those rules and other obligations. The United 
States has been one of the world's most frequent users of WTO dispute-
settlement procedures and has obtained favorable settlements and 
favorable rulings in virtually all sectors, including manufacturing, 
intellectual property, agriculture, and services. These cases cover a 
number of WTO agreements involving rules on trade in goods, trade in 
services, and protection of intellectual property rights, which affect 
a wide range of sectors of the U.S. economy. Should Russia join the 
WTO, Russia will be part of a rules-based system that includes an 
enforcement mechanism--a mechanism not currently available to the 
United States on matters involving Russia. Russia's WTO accession will 
also give our companies, farmers, ranchers, and exporters increased and 
more predictable market access to a large and growing market that we 
can defend under mutually agreed rules.


                             NOMINATIONS

                              ----------                              


                       TUESDAY, NOVEMBER 8, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Roberta S. Jacobson, of Maryland, to be an Assistant 
        Secretary of State for Western Hemisphere Affairs
Hon. Mari Carmen Aponte, of the District of Columbia, to be 
        Ambassador to the Republic of El Salvador
Adam E. Namm, of New York, to be an Ambassador to the Republic 
        of Ecuador
Elizabeth M. Cousens, of Washington, to be Representative of 
        the United States of America on the Economic and Social 
        Council of the United Nations, with the rank of 
        Ambassador; and, to be an Alternate Representative of 
        the United States of America to the Sessions of the 
        General Assembly of the United Nations, during her 
        tenure of service as Representative of the United 
        States of America on the Economic and Social Council of 
        the United Nations
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez presiding.
    Present: Senator Menendez, Cardin, Rubio, Risch, and 
DeMint.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order.
    Today the Senate Foreign Relations Committee considers four 
nominations: the Acting Assistant Secretary, Secretary Roberta 
Jacobson, to be the Assistant Secretary of the Bureau of 
Western Hemisphere Affairs will be our first panel.
    The other nominees are Ambassador Mari Carmen Aponte to be 
the Ambassador to El Salvador, Mr. Adam Namm to be the 
Ambassador to Ecuador, and Ms. Elizabeth Cousens to be the U.S. 
Representative to the Economic and Social Council of the United 
Nations.
    So let us welcome all the nominees and their families.
    I have some brief introductory remarks, and I'll ask 
Senator Rubio for his remarks.
    We'll give each of you an opportunity to make a brief 
opening statement and please feel free to introduce any family 
members you have with you at that time. We certainly would like 
to welcome them.
    Let me congratulate you all on your nominations. If you are 
confirmed, you'll serve the United States and will be called 
upon to implement the policies of the U.S. Government and 
protect and advance the interests of the American people.
    I would encourage you to respond expeditiously to any 
questions that you may receive either through the course of the 
nomination hearing or subsequently from other members, for the 
record, so that the committee can act on your nominations as 
soon as possible. The deadline, for the submission of questions 
for the record for members, is noontime on Wednesday.
    Three of today's nominees are being considered for 
positions related to the Western Hemisphere. The bureau and 
embassies you're being called upon to lead are in the forefront 
of our relationship with the hemisphere, a relationship that 
because of its geographic proximity to the United States and 
our history, our economic and social ties, and even our shared 
problems, demands as much attention and resources as those 
places that seem to dominate the front page of the New York 
Times and the Washington Post.
    The Western Hemisphere is our hemisphere, and its nations 
are our friends, our neighbors, our allies, and our economic 
partners. While America's relationship with our neighbors in 
the region hasn't always been superlative, today I'm pleased to 
describe our relationship as a partnership. It is, in fact, a 
partnership in which the United States has as much to gain from 
its relationship with the region as the region does from its 
relationship with the United States.
    The issues that concern the people of Latin America are the 
same issues that concern the people of the United States--
organized crime, including trafficking in drugs, weapons and 
people; terrorism; environmental degradation; economic 
challenges; high unemployment; health issues. All are 
challenges that we have common cause in seeking to meet.
    March marked the 50th anniversary of President Kennedy's 
Alliance for Progress. At this milestone, most of the countries 
in Latin America, with one very notable exception, are free 
with representative democracies.
    At the Summit of the Americas in Trinidad and Tobago last 
year, the President proclaimed a policy of partnership with the 
Americas, which he began to fulfill during his visit to Brazil, 
Chile, and El Salvador. The President's initiative reflects the 
maturing of our evolving relationship with Latin America.
    For Ambassador Aponte and Mr. Namm, the challenges each of 
you face vis-a-vis your host governments will be unique. If 
confirmed, we are very interested and invested in your success.
    In El Salvador, we see a country that has made great 
economic stride but still faces high levels of poverty and 
violence, often exacerbated by the growing problems of 
narcotrafficking.
    In Ecuador, the political challenges between our countries 
are gradually improving, and our mutual interest in combating 
narcotrafficking and cooperating in Ecuador's strong economic 
development must lead us to continue to strengthen our ties.
    And Ms. Cousens, if confirmed, would have a very important 
position as the U.S. Representative to the Economic and Social 
Council. The council is responsible under the authority of the 
General Assembly for the economic and social programs of the 
United Nations. Its functions include promoting higher 
standards of living, improving conditions of economic and 
social progress, solutions to international economic, social, 
health and related problems, and universal respect for human 
rights and fundamental freedoms for all.
    I also understand from Ambassador Rice that she would very 
much like you to be in position in New York at the U.N. to 
address other issues that threaten the peace and stability that 
the U.N. seeks to achieve. So we are glad we were able to get 
you on to today's agenda.
    I look forward to all of your opening remarks and to our 
dialogue.
    Let me turn to Senator Rubio for his opening comments.

             OPENING STATEMENT OF HON. MARCO RUBIO,
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Chairman.
    And I want to thank the nominees for their continued 
service to our Nation and for their testimony today. I am very 
interested in hearing your perspectives on the countries that 
you've been assigned to and the administration's next step to 
advance U.S. interests in the region and the Western 
Hemisphere. There's no doubt that a prosperous, democratic, and 
stable Western Hemisphere is crucial to the United States, to 
our own safety and to our own prosperity.
    In the past three decades alone, we've seen remarkable 
success stories that underscore the undeniable benefits of a 
greater democracy and transparency. We've seen promarket 
economic policies and security cooperation against 
transnational organized crime.
    But the progress is not evenly spread, unfortunately. There 
are still some nations that have made great strides in some or 
all of these areas, but others have still an uphill climb.
    And today we'll hear about two different nations that, in 
some ways, have headed in opposite directions, in El Salvador 
and Ecuador.
    El Salvador remains a close friend and ally. Its leaders 
have chosen to overcome its governance challenges and the 
legacy of the cold-war-era civil conflict by investing and 
trying to strengthen their democratic institutions, and 
embracing and trying to embrace the benefits of a free and open 
market.
    On the other hand, in Ecuador, its President, Rafael 
Correa, is following a different, more ominous path. He's 
cultivated ties with antidemocratic forces found in the ALBA 
group, particularly Venezuela, Bolivia, Nicaragua, and Cuba, 
and international pariahs such as Iran. Additionally, 
individual freedoms and property rights are being steadily 
eroded there while the government shuns economic policies that 
would foster prosperity through free and open markets.
    American leadership is needed now more than ever to advance 
the forward-looking solutions that strengthen democratic values 
and provide for good governance. If we stick to America's 
principles and follow through on our promises, we really do 
have an opportunity to promote and foster positive change in 
this region.
    The work that we are doing now can and should be laying the 
groundwork for the Western Hemisphere to become the first to be 
wholly led by working democracies, something that will truly be 
a great part of our national legacy.
    So I look forward to hearing today's testimonies, and I 
hope to learn more about some of the specific initiatives and 
the challenges that lie ahead. Thank you.
    Senator Menendez. Thank you.
    So let me recognize Roberta Jacobson, the nominee to be the 
Assistant Secretary of the Bureau of Western Hemisphere 
Affairs. She is currently Acting Assistant Secretary and 
Principal Deputy Secretary of the Bureau at the Department of 
State. She previously served as Deputy Assistant Secretary for 
Canada, Mexico, and NAFTA; Director of the Office of Mexican 
Affairs; Deputy Chief of Mission at the U.S. Embassy in Lima.
    She received a B.A. from Brown University, M.A. from Tufts 
Fletcher School of Law and Diplomacy.
    And with that, we look forward to your testimony.

 STATEMENT OF HON. ROBERTA S. JACOBSON, OF MARYLAND, TO BE AN 
  ASSISTANT SECRETARY OF STATE FOR WESTERN HEMISPHERE AFFAIRS

    Ms. Jacobson. Thank you, Chairman Menendez, Ranking Member 
Rubio, members of the committee.
    I am honored by the confidence that President Obama and 
Secretary Clinton have shown in nominating me to serve as 
Assistant Secretary of State for Western Hemisphere Affairs. If 
confirmed, I look forward to working with Congress, and in 
particular this committee, to advance our interests throughout 
the hemisphere.
    I am also very grateful to the members of my family who are 
here today: my husband, Jonathan, my sons, Gil and Daniel, my 
sister, Caryn, and brother-in-law, Richard.
    I am the daughter of parents who believed there was no 
higher calling than public service and who would be enormously 
proud today.
    Mr. Chairman, when I entered the State Department in 1986, 
I could never have imagined I would be asked to lead the 8,000 
men and women serving in 50 posts in the Western Hemisphere, 
but I am so proud of them. They are among the finest public 
servants and colleagues in the world. I have also been lucky to 
have had remarkable mentors at the State Department.
    Secretary Clinton has noted that although responding to 
threats will always be central to our foreign policy, it cannot 
be our foreign policy. Our foreign policy is also about 
opportunities for the United States in engaging with the world, 
perhaps nowhere more so than in the Western Hemisphere. It is 
vital to our economic interests, to our security and global 
strategic interests, to our core values, and to our society and 
culture.
    This administration has outlined four strategic priorities 
in this hemisphere: effective institutions for democratic 
governance, strengthened citizen security, expanded economic 
and social opportunity, and a clean energy future.
    To advance each of these, we have forged pragmatic 
partnerships with demonstrated results. Strong partnerships in 
the Americas will be essential to meeting the global challenges 
we confront today. Whether in NATO or U.N. peacekeeping, 
climate change negotiations, tackling global hunger or helping 
Haiti rebuild, countries in this hemisphere are leading the 
way.
    Mr. Chairman, democracy and security are fundamentally 
linked to the strength of institutions, particularly the 
judiciary and the police. If I am confirmed, among my highest 
priorities will be to help increase the capacity of those 
democratic institutions and to strengthen the rule of law 
against threats posed by corruption, impunity, and 
transnational criminal organizations.
    Our policy in the hemisphere is firmly rooted in our values 
of democracy and human rights. We condemn actions that limit 
freedom of expression or weaken institutions of democratic 
governance, and we remain steadfast in protecting free and fair 
elections throughout the hemisphere.
    We have expressed our clear concerns with irregularities 
related to the Nicaraguan elections, and we are committed to 
enabling the Venezuelan people to fully express their 
democratic will.
    In Cuba, we are keeping faith with human rights activists 
and dissidents who continue their fight for basic rights, and 
we will never waver in supporting the right of the Cuban people 
to freely determine their own future.
    Despite the progress of millions rising into the middle 
class, Latin America remains one of the most unequal regions in 
the world. If confirmed, I will work to ensure that the United 
States remains at the forefront of promoting economic and 
social inclusion in the hemisphere.
    Our Pathways to Prosperity initiative has identified 
successful models for expanding opportunity that we can adapt 
elsewhere in the Americas.
    Achieving progress in the hemisphere also requires a 
commitment to energy security. Our hemisphere has abundant 
hydrocarbons, and we are advancing the President's Energy and 
Climate Partnership of the Americas to strengthen energy 
security and address the challenges of climate change.
    As you know, Mr. Chairman, many of the citizens of the 
hemisphere lack the skills to take advantage of global 
opportunities. To address this education gap, the President has 
challenged us to expand student exchanges with the 100,000 
Strong for the Americas program.
    The youth demographic also requires that we develop more 
agile and tech-savvy diplomacy, and we are complementing our 
official engagement with NGO outreach and the smart use of 
social media.
    Mr. Chairman, I am confident that the new partnerships we 
are forging are the best way to work with a region where many 
countries now have both the will and the capacity to be equal 
partners. These times demand a different kind of U.S. 
engagement, one that is broader and more direct, younger and 
more global than ever before.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Ms. Jacobson follows:]

               Prepared Statement of Roberta S. Jacobson

    Chairman Menendez, Ranking Member Rubio, members of the committee, 
it is an honor and privilege to be here today as President Obama's 
nominee to be Assistant Secretary of State for Western Hemisphere 
Affairs. I am grateful for the confidence that President Obama and 
Secretary Clinton have shown in nominating me to serve in this 
position. If confirmed, I look forward to working with the Congress, 
and in particular this committee, to strengthen our ties with, and 
advance our interests throughout, the Western Hemisphere.
    I am also very grateful to the members of my family who are here 
today: my husband, Jonathan; sons, Gil and Daniel; and sister, Caryn, 
and brother-in-law, Richard. I am the daughter of parents who believed 
deeply in public service, and who would be enormously proud today. As a 
member of the Senior Executive Service who has truly come up through 
the ranks, I have also been lucky to have had a series of remarkable 
mentors at the State Department, to whom I am deeply indebted. I am 
particularly grateful to Arturo Valenzuela for selecting me as his 
deputy.
    Mr. Chairman, I entered the State Department in 1986 as a 
Presidential Management Intern and have spent my entire career focused 
on this hemisphere. I am so proud to have been asked to lead the 
Foreign Service and Civil Service employees--and Locally Employed Staff 
who represent the United States here in Washington and overseas--they 
are among the finest public servants and colleagues in the world. The 
Bureau of Western Hemisphere Affairs is the second-largest of the 
regional bureaus with over 8,000 employees serving in 50 posts. Of 
course, our work in the Americas is done hand in hand with dedicated 
colleagues from USAID, DOD, DOE, DHS, DOJ, Treasury, USTR and many 
other agencies. This ``whole of government'' approach reflects our 
increasingly broad engagement in the Americas and is critical to 
advancing our core national interests in the region. And among the most 
important of those interests is protecting Americans, whether at home 
or abroad.
    I have worked on U.S policy in the Western Hemisphere for more than 
a quarter century, and I remain passionate about this hemisphere, our 
leadership in it, and the great things we can achieve together. As 
Secretary Clinton has said, the Western Hemisphere is more vital than 
ever to our fundamental interests as a nation. To our economic 
interests, as we rebuild our economy and our competitiveness for a new 
era; to our security and global strategic interests; to our core 
values, as we work to advance democracy and human rights everywhere; 
and to our society and culture, as the profound connections among our 
people make us more vibrant and innovative. Secretary Clinton has 
called this the power of proximity--and she does not just mean 
geographic proximity, but the proximity of our basic interests and 
challenges and what it will take to overcome them.
    This administration has outlined four strategic priorities in this 
hemisphere that guide our policies: effective institutions for 
democratic governance; strengthened citizen security; expanded economic 
and social opportunity for all; and a clean energy future. To advance 
in each of these areas, we have forged pragmatic, flexible partnerships 
with demonstrated results.
    As both the President and Secretary have made clear, we also 
welcome the global engagement of countries across the Americas, and 
constantly work to leverage our regional engagement on a wide range of 
global priorities. First, I would like to start with the global context 
before turning to our current efforts in the hemisphere and the results 
they have yielded. Finally, I want to emphasize the primacy of improved 
education--in both quality and opportunity--as the sine qua non of all 
our policies.

                             global issues
    Strong partnerships in the Americas will be essential in meeting 
the global challenges we confront today. While our diplomats must build 
more robust bilateral ties, they must also construct effective 
multilateral relationships that enable us to work within and across 
regions on complex global issues. The range of hemispheric 
contributions to issues of global importance is striking. Canada 
provided leadership for the NATO effort in Libya; Uruguay is the 
largest per capita contributor to United Nations peacekeeping 
operations in the world; Mexico's astute diplomacy advanced global 
climate change negotiations; Brazil is sharing best practices on 
conditional cash transfer programs and providing assistance in Africa. 
Within the region as well, we have developed innovative partnerships 
for the common good. These include South American leadership in Haiti, 
including in MINUSTAH, after the devastating earthquake, and Colombia 
offering its security expertise to Central America in coordination with 
our efforts to address transnational crime.
    Two key events in the space of a month, thousands of miles apart, 
will highlight the Americas' growing global role. The President 
traveled to France for the G20, and he and Secretary Clinton will soon 
travel to Hawaii to participate in the Asia-Pacific Economic 
Cooperation forum and North American Leaders Summit. In these fora, our 
leaders work to expand economic opportunity for the United States by 
increasing the exports and trade opportunities that will create more 
jobs for Americans. Argentina, Brazil, Canada, and Mexico attended the 
G20; Canada, Mexico, Peru, and Chile will be at APEC to promote free 
trade and economic expansion throughout the Pacific rim. Secretary 
Clinton believes that these countries will ``accept the responsibility 
that comes with the new influence . . . and that they will be fully 
integrated into the international order.'' This is why we engage in 
such robust dialogues with Canada, Brazil, Colombia, Mexico, and 
others. And it is why, in addition to the Department's regular 
exchanges with the European Union, we are engaging an increasing number 
of Asian partners--including China, Korea, Japan, and, soon, India--in 
dialogues on issues related to Latin America and the Caribbean.
    As the countries of the Americas enhance their global profile--a 
trend we support and encourage--and make important strides at home, we 
cannot lose sight of the serious challenges that remain. Transnational 
crime threatens citizens throughout the hemisphere. Continuing 
inequality and poverty limit opportunity. Inadequate education systems 
continue to handicap our most vulnerable citizens. To varying degrees, 
a minority of countries abrogate their citizens' fundamental rights.
         democracy and security: the importance of institutions
    I see democracy and security as being fundamentally linked to the 
strength of hemispheric institutions. Electoral democracy can only 
flourish if citizens and their leaders respect the basic rule of law, 
and pervasive violence and insecurity inevitably threaten fundamental 
freedoms and civil liberties. Achieving both freedom and security 
depends upon the establishment of stronger institutions. This has been 
a core priority of my role as the Bureau's coordinator for Citizen 
Security and will continue to be a priority for me if I am confirmed as 
Assistant Secretary.
    In my current role, I am responsible for coordinating our security 
initiatives in the Western Hemisphere with other bureaus in the 
Department, with our interagency partners, with host nations, and with 
donors. Through this work, it is increasingly clear to me that for our 
efforts to succeed, democratic institutions must be strengthened--
particularly the judiciary and the police. Democracy requires that all 
citizens can seek and find justice as equals before the law. This is 
why we place such importance on programs that aid Honduran law 
enforcement to create task forces to solve and deter crimes against 
journalists, woman, LGBT persons, and human rights activists, and our 
programs in Mexico that support alternative dispute resolution 
mechanisms so that suspects do not spend years awaiting trial. 
Similarly, in Guatemala we are supporting community councils where 
local leaders--often women--channel their concerns about security to 
government leaders, who can then be held accountable.
    If I am confirmed, among my highest priorities will be to increase 
the capacity of law enforcement and judicial institutions and to 
strengthen the rule of law against the threats of corruption and 
impunity. We know that this is a fight we must win for all the citizens 
of the hemisphere, including Americans at home.
    Of course, we recognize that not all countries in the hemisphere 
welcome our policy of pragmatic partnerships. In cases where 
cooperation remains difficult, we will seek areas of convergence and 
remain open to a more positive relationship, within the context of our 
fundamental values on democracy and human rights. That is why, should I 
be confirmed as Assistant Secretary, I will speak out clearly and 
without hesitation when fundamental democratic principles are 
threatened and work closely with our partners in the hemisphere to 
stand together against those threats.
    We condemn governments that limit freedom of expression, weaken 
institutions of democratic governance, centralize power in the 
Executive, and limit the legitimate rights of the political opposition. 
In celebrating the 10th anniversary of the Inter-American Democratic 
Charter, Deputy Secretary Burns noted that ``the obligation to 
democracy neither begins nor ends at the ballot box. Even 
democratically elected governments can threaten democracy if they do 
not respect its safeguards, institutions, rules and values.'' 
Protecting democracy is a hemispheric value. When democracy is 
threatened, we must all speak up. Although we are ready to provide 
leadership, and will not hesitate to do so, the United States can 
defend democracy in the hemisphere most effectively when we are joined 
by our hemispheric partners, including multilateral organizations such 
as the OAS.
    In Cuba, we are working to expand the connections between U.S. and 
Cuban society and open the way for meaningful support of Cubans who are 
striking their own path, while we keep faith with human rights 
activists and dissidents who have fought for basic rights for years. 
With our efforts, more Cubans have access to information and 
independent connections to the American citizens who are the best 
ambassadors of our values. We have never wavered in our support of the 
right of people in Cuba to freely determine their own future--rights 
far too long denied to them. We also continue to seek the unconditional 
release of American citizen Alan Gross, a dedicated development worker 
who has been unjustly imprisoned in Cuba for nearly 2 years.
    Cuba clearly departs most fundamentally from the region's core 
democratic values and elections alone do not constitute a democracy, 
but we remain steadfast in protecting free and fair elections 
throughout the hemisphere. Together with a broad range of partners we 
worked to ensure that Haiti's elections accurately reflected the will 
of the Haitian people. We have expressed our clear concerns with the 
irregularities related to the recent electoral process in Nicaragua, in 
keeping with the Inter-American Democratic Charter, and we are 
committed to doing what we can, in partnership with others in the 
region, to promote the ability of the Venezuelan people to fully 
express their democratic will.
                     social and economic inclusion
    If confirmed, I will work to ensure that the United States remains 
at the forefront of promoting economic and social inclusion in the 
hemisphere. The economic story of many nations in the hemisphere is 
extraordinarily positive: the combined economies of Latin America grew 
6 percent last year, and millions of people are rising out of poverty 
and into the middle class. The passage of the free trade agreements 
with Colombia and Panama represents a major diplomatic milestone and 
they will be an important tool in furthering integration and creating 
the jobs that will offer opportunity and higher standards of living. As 
the State Department focuses on what Secretary Clinton calls economic 
statecraft, the Americas will be a priority, for as she said, ``We 
believe in the power of proximity to turn growth across the Americas 
into recovery and jobs here in the United States.''
    Despite the progress we have seen, Latin America remains one of the 
most unequal regions in the world, where millions of citizens are 
struggling to escape poverty. A key priority of U.S. policy is to 
ensure that the benefits of economic growth are broadly shared 
throughout these societies. Free trade agreements are among the tools 
being harnessed to achieve this.
    In October, the U.S. joined another dozen countries along with the 
OAS, IDB, and others, in the Dominican Republic for the Fourth 
Ministerial for Pathways to Prosperity, our signature initiative to 
share best practices and facilitate economic growth that is more 
socially inclusive, by empowering small business, facilitating trade, 
building a modern workforce, and promoting sustainable business 
practices and environmental cooperation. To promote social and economic 
inclusion, we are also actively engaging with women, persons with 
disabilities, LGBT persons, youth, and members of Afro descendant and 
indigenous communities to ensure that they benefit from this process.
    Nowhere in the hemisphere do our efforts on security, democracy, 
and economic and social inclusion come together more clearly than they 
do in Haiti--one of the President and the Secretary's highest 
priorities. Last year's devastating earthquake did not just reveal 
geological fault lines. Today, as President Martelly's government sets 
about the enormous challenge of creating accountable, transparent 
institutions, and rebuilding to reduce poverty and disease in Haiti, 
our leadership has accomplished a great deal, although there is still 
much more to be done. From rubble removal to increased agricultural 
yields, to the opening of a new industrial park, our regional partners 
have joined with us and the international community to answer the call 
and demonstrate just how much these partnerships can accomplish for the 
people of Haiti.
                                 energy
    Advancing social and economic progress in the hemisphere will also 
require a renewed commitment to energy security. This is especially 
important in the Americas, which supplies over half of our imported 
oil. Not only is the region home to abundant hydrocarbons, but many 
countries are leading in the development of renewable energy, and 
leaders are committed to working together to strengthen energy security 
and address the challenges of climate change. In recognition of this 
reality, the President created the Energy and Climate Partnership of 
the Americas (ECPA) at the last Summit of the Americas. It promotes 
clean energy technologies, low carbon development, reduced emissions 
from deforestation, and climate-resilient planning. ECPA also serves as 
a vehicle for public-private partnerships including the promotion of 
promising, innovative, clean, and renewable energy projects, and 
financing mechanisms that bridge the gap among investors, clean energy 
entrepreneurs, and project developers. Beyond ECPA, we maintain energy 
dialogues with Brazil, Canada, and Mexico. We also have bilateral 
discussions with important regional electricity suppliers, like 
Colombia, which is working to link electricity grids with Panama and 
its Andean neighbors, and increase exports of clean power to its 
neighbors.
    All the themes I've mentioned will be highlighted in the objectives 
that the United States will seek to advance at the upcoming Summit of 
the Americas, scheduled to take place next April in Cartagena, 
Colombia. The summit is an opportunity to reaffirm, reinvigorate, and 
drive our common agenda. The theme of the summit is ``Connecting the 
Americas: Partners for Prosperity'' and this gathering will enable us 
to solidify our achievements over the last 3 years and launch new 
initiatives with partners in the region to achieve our goals.
    Mr. Chairman, I would like to highlight one final topic in 
particular that is central to so much of our strategy in the 
hemisphere: education. Just as judicial systems are central to strong 
democratic institutions, expanding the quality and reach of education 
is also critical to advancing the ambitious project of a prosperous and 
democratic hemisphere.
    The hemisphere's children will grow up in a region that has 
witnessed the rapid proliferation of global business opportunities. But 
many of its citizens lack the education, skills, and training to take 
advantage of this historic shift. Addressing this education gap will be 
crucial to the future competitiveness of the Americas. During his visit 
to Chile in March, President Obama announced a new goal, ``100,000 
Strong in the Americas,'' to increase the number of U.S. students 
studying in Latin America and the Caribbean to 100,000, with the 
reciprocal number of students from the region studying in the United 
States. President Rousseff launched her ``Science without Borders'' 
program to give more Brazilians opportunities, especially in the 
critical fields of science, technology, engineering, and math. We are 
asking the private sector to support exchange programs, finance 
scholarships, and offer internships, training, and mentoring for 
exchange students.
    Through USAID programs, the United States is supporting literacy 
education and increasing access to education opportunities for 
disadvantaged groups. Even our citizen security programs support 
education to provide training and internship opportunities for youth to 
ensure they have alternatives to violence and crime.
    The youth demographic in the Americas will also require the United 
States to develop more agile and tech-savvy diplomacy. We must be as 
good at NGO outreach, citizen-to-citizen exchange, and using social 
media as we are at delivering traditional diplomatic messages. We are 
working with social media leaders to leverage technology to solve real 
world problems. We have organized TechCamps in Santiago and Montevideo 
and are planning another in conjunction with the Summit of the 
Americas. These are examples of government, private sector, and civil 
society coming together to develop innovative ways for technology to 
broaden educational opportunities. If we are to meet the challenges we 
face as a hemisphere, we must fully harness new technologies.
                               conclusion
    Mr. Chairman, during my 25 years working on this region at the 
State Department, I have witnessed this hemisphere undergo dramatic and 
positive changes. I am confident that the new partnerships we are 
forging and leading are the best way to work with a region that is 
rapidly coming into its own, where many countries now have both the 
will and the capacity to be equal partners. These times demand a very 
different kind of U.S. engagement--an engagement that is broader and 
more direct, younger, and more global than ever before.
    Mr. Chairman, this committee has invested heavily in supporting our 
priorities in the Western Hemisphere in recent years and I want to 
thank you for that support. All of you have been among the most 
important advocates for these vital issues and relationships. 
Engagement between the executive and legislative branches is essential 
to achieving our shared objectives. If confirmed by the Senate, I would 
be honored to work with you, your staffs, members of this committee, 
and the Congress, to advance the goals we all share in the Americas. 
Thank you and I look forward to answering any questions you and the 
committee may have.

    Senator Menendez. Well, thank you.
    So we'll start our 7-minute rounds, and we'll see how far 
we go.
    I have consistently raised the concern, and certainly the 
position for which you are nominated for would be important in 
making this concern less of a concern, and that is the funding 
decreases for Latin America.
    We have seen Secretary Clinton focus on the tension in the 
hemisphere in the last months, certainly with her visits to El 
Salvador and Guatemala, which is great. But funding for the 
region suggests that it is not a priority for this 
administration and that we haven't yet made the connection 
between poverty, citizen security, transnational crime, 
narcotics trafficking, and U.S. interests.
    And I see as an example of that a 14-percent decline in our 
assistance to the hemisphere. And I understand the challenge of 
money, but there is just a question of priorities within the 
existing resources.
    I see that the lack of exertion by State and Treasury on 
behalf of a capital increase for the Inter-American Development 
Bank, the only--only--regional bank to not receive the full 
amount of its requested capital increase.
    So I look at the confluence of that funding decrease, the 
only regional bank in the world not to receive its requested 
capital increase, and then I look at our whole area of a 43-
percent decline in counternarcotics. I put some of that toward 
Merida moving along, but not all of it.
    And so I say to myself, where is the importance given to 
this hemisphere? And what will you do, if confirmed, sitting on 
the seventh floor, to play a role in making sure that the 
appropriate allocations commensurate with the importance of the 
hemisphere take place?
    Ms. Jacobson. Thank you, Mr. Chairman. And you have always 
been a stalwart supporter of efforts in this hemisphere, for 
which we're grateful.
    In funding the programs in the hemisphere, we know that, in 
some cases, expenditures are going down because programs are 
proceeding, as you said, in Mexico with Merida. In Colombia, we 
are moving toward nationalization of programs that we have 
supported for a long time.
    But there are many areas in which we've been able to 
continue funding at the same levels or actually increase them, 
such as in the Caribbean and in Central America. And so the 
priority areas that we think need funding, we've been able to 
try and maintain even in an era of very tight budgets.
    Let me also address the IDB issue. The Secretary has been 
very clear with us and working with our colleagues at Treasury 
that we think it's critically important that the IDB get full 
funding, and that overall the President's request under the GCI 
be fully funded. The IDB is a partner in so many areas in the 
hemisphere, most critically perhaps in Haiti, but frankly also 
in the efforts we're making on citizen security in Central 
America.
    Senator Menendez. But you didn't step up to the plate--not 
you personally--but the Department did not step up to the 
plate.
    Ms. Jacobson. Well, we're working----
    Senator Menendez. The only regional bank that did not 
receive--everybody--I heard the voices of the Department as it 
related to everybody else. I didn't hear it about the IDB.
    Ms. Jacobson. Well, I think that if it wasn't made as 
loudly or as clearly as it should have been, we're working with 
our colleagues in Treasury to overcome that, because we do feel 
strongly about that funding.
    Senator Menendez. So if you are to be confirmed----
    Ms. Jacobson. Senator, that will be----
    Senator Menendez [continuing]. You'll do what?
    Ms. Jacobson. That will be an extremely high priority, and 
I will be working both with colleagues in other agencies, but 
also with my own seventh floor, as you note, to be a passionate 
advocate for this hemisphere and to ensure that we get all of 
the resources requested by the President and are able to 
advance those arguments within the U.S. Government and here 
with our colleagues in Congress.
    Senator Menendez. Let's turn to a different topic, 
authoritarian trends in the hemisphere.
    You know, I want an Assistant Secretary in charge of the 
Western Hemisphere who is going to make it very clear in her 
work and with our ambassadors in the hemisphere that democracy, 
human rights, free press are critical elements and a 
significant part of the mission of those who are our 
ambassadors in the hemisphere.
    And I look at a resurgence of authoritarianism combined 
with a tolerance for corruption and resulting weak institutions 
and judiciaries threatening democratic processes, of course, in 
Venezuela, in Bolivia, in Ecuador, in Nicaragua, and even 
Belize and to some degree in Argentina.
    So what role do you see the United States playing in 
providing support to civil society organizations, the 
independent media, and other grassroots groups advocating for 
government transparency, a free press, and judicial reform?
    Ms. Jacobson. Thank you, Senator. I think that you have 
well stated the importance of those efforts.
    We are undertaking a number of programs to work with 
independent journalists, to support journalists who are under 
threat, whether that be from transnational criminal 
organizations or from government restrictions.
    And all of the U.S. Ambassadors in the hemisphere have the 
mandate of strengthening civil society and working with civil 
society just as they work with governments or try and work with 
governments to advance our interests. Because in the end, it is 
not just the institutions of government that provide for a 
democracy, it is strong civil society institutions and the 
ability of people to organize and to convey their views to 
their governments that are critical.
    In some countries, we will work more with civil society 
than we do with governments, depending on the circumstances. So 
that is an incredibly important priority for our ambassadors 
and for me personally.
    Senator Menendez. Well, I just want to close on that note, 
and in terms of what I increasingly sense is a targeting of the 
media. And this is incredibly important if people in the 
hemisphere are to be able to understand what is happening in 
their own countries.
    And I think it is reflective of a sense of crisis, a sense 
of urgency, which I don't sense that we share. But it is 
expressed in an October speech by the president of the Inter 
American Press Association, Gonzalo Marroquin, who said, ``We 
are in a war between authoritarianism and democracy. The free 
press is under increasing attacks, and governments are 
resorting to political prosecutions, restrictive media laws and 
economic pressure to censor independent media outlets.''
    That to me is the beginning of a demise of the essence of 
democracy in those countries. And I hope that we will have a 
heightened sense of that with our embassies in the hemisphere, 
in terms of them both speaking out when it is appropriate, and 
engaging those entities when it is appropriate, in a much more 
robust way. And I would hope that you, as the Assistant 
Secretary, would lead that effort.
    Ms. Jacobson. Thank you, Senator.
    Senator Menendez. Senator Rubio.
    Senator Rubio. Thank you.
    I want to start in Nicaragua.
    Good morning, by the way. Congratulations on your 
nomination.
    We had elections over the weekend in Nicaragua, and the 
Associated Press reports where there was complaints from 
international observers that raised questions about the margin 
of victory. For example, an observer for the OAS said that he 
was blocked from 10 polling stations midway through the voting.
    A European Union team said they faced sometimes 
inexplicable obstacles. My understanding is the Carter Center 
didn't even cooperate in this on the outset.
    What do we know about the elections? What do we know about 
the process? What are we prepared to say, right now? And what 
are we prepared to say ultimately in terms of the validity of 
how it was conducted?
    I think that's critical in terms of--as we move forward in 
our first objective, which is having democratic institutions 
that function.
    Ms. Jacobson. Thank you, Senator.
    In Nicaragua, we have been watching with great concern the 
processes leading up to this election and through the events of 
the weekend. For that reason, frankly, we put out a statement 
on October 31, before the elections, noting our concerns in the 
process and hoping that the election day itself would take 
place freely, fairly, without harassment.
    We were particularly concerned with the rules under which 
electoral observation missions would operate. We were concerned 
with the distribution of identification cards for voters. And 
we have been concerned with the events of November 6 and the 
inability of some of the observers to fully mount their 
missions.
    But in particular, we were concerned about the inability of 
some very important domestic observation groups to observe as 
well in Nicaragua, and that was not overcome as of the day of 
the election.
    So we are, at this point, waiting for the results of both 
the OAS and the E.U. observer missions. We're consulting 
closely with those missions. And we will speak out 
unequivocally about the situation in Nicaragua and the 
processes, which we are very concerned about.
    Going forward, I don't know exactly what our statement will 
be. I don't want to preclude the results of those groups. But I 
do know that we've spoken out clearly up to this point, and we 
intend to continue to do so.
    Senator Rubio. Along those lines, Venezuela is scheduled to 
have elections next year, and there's a lot of back and forth 
going on about who's qualified to run. And apparently, one of 
the candidates is qualified to run, but he's not qualified to 
take office according to the--if he wins.
    That being said, what is our vision in terms of the role we 
intend to play in terms of speaking out on the validity of 
those elections and how those elections need to be respected as 
well. I think potentially next year's elections in Venezuela 
have the potential to be perhaps one of the most important 
events of this decade in the hemisphere, depending on the 
outcome of that election, but more importantly depending on how 
it's conducted.
    So what are our general thoughts about how that's 
progressing, how the opposition seems to be attempting to 
coalesce, the opposition to Chavez that seems to be coalescing, 
and trying to present an alternative on the ballot in 2012?
    We saw them make significant gains in the last election 
cycle. What are your thoughts on where we're headed electorally 
in Venezuela in 2012?
    Ms. Jacobson. Thank you, Senator.
    I think we would agree with you that the elections next 
year in Venezuela have the potential to be an incredibly 
important event for the people of Venezuela and in the 
hemisphere. And we have certainly been clear on the importance 
of the process, a process that led to an increased number of 
opposition members in the national assembly in the last 
election, and a process that we hope, moving forward, will 
truly allow for free and fair elections to take place in 2012.
    We did speak out publicly after the Inter-American Court of 
Human Rights made its decision recently on a Venezuelan, and 
we'll continue to do so. We try and work with groups, in a 
nonpartisan way, on ensuring that the processes are fair. We'll 
work with partners through the OAS, if possible.
    But we agree that those elections are critically important, 
and the process leading up to them just as important.
    Senator Rubio. Over the last 9 months, you've also served 
as the Western Hemisphere Security Coordinator, right? And 
obviously, I know that that involves a lot of transnational 
groups, human trafficking, drug trafficking, et cetera. One of 
the security concerns we should have about the region, however, 
is an increased P.R. offensive at minimum and actual presence, 
in the worst-case scenario, by Iran in the region.
    Can you describe briefly kind of what the threat of that 
is? How would you best describe kind of Iran's attempt at 
growing presence in the Western Hemisphere, and, in particular, 
kind of the thought processes behind what are the consequences 
of that, in terms of our relationship with these countries that 
appear at least to be increasingly embracing pariah states like 
Iran?
    Ms. Jacobson. Senator, Secretary Clinton has been very 
clear in our vision that Iran's presence in the hemisphere is 
neither positive nor benign. Comments that she made in 2009, in 
some ways, look very prescient these days.
    And we certainly take very seriously Iran's activities in 
the hemisphere, so seriously that we have taken action in a 
number of cases where Iranian action with countries in this 
hemisphere has violated either U.S. sanctions or international 
sanctions.
    As you know, earlier this year we took action against 
PDVSA, the Venezuelan oil company, for trade with Iran that 
fell under our CISADA sanctions. We renewed sanctions against 
Venezuelan military industries.
    And we will continue to pay the utmost attention to Iranian 
actions in the hemisphere and to act when we believe it is in 
our interest to do so, to sanction, to speak out, obviously, as 
most recently noted, in the plot against the Saudi Ambassador 
here in Washington.
    And so this administration is committed, and I am 
personally committed, to continuing to make that issue an 
extremely high priority for us.
    Senator Rubio. Just as a segue on that, I know my time is 
about to expire, but concerned, in particular I am personally, 
about reports of flights between Tehran and Caracas. And I'll 
tell you primarily the concern is that the countries in the 
hemisphere, particularly Venezuela, but maybe others, are 
helping Iran to potentially evade international sanctions. 
Obviously, that's of concern, I would imagine, to the 
administration as well.
    Any progress on that, anything you could share with us with 
regard to the efforts we are making now or are willing to make 
in the future to ensure that those in the hemisphere are not 
somehow aiding Iran in evading these international sanctions?
    Ms. Jacobson. Yes, Senator. I think that one of the things 
that we've been very careful is to continue to monitor the 
situation with Iran. We note that since the sanctions were 
announced earlier this year against Venezuela, against PDVSA, 
for violating United States sanctions in trade in oil products 
with Iran, we have not seen a repeat of that activity. And so, 
obviously, all of our efforts are aimed at changing behavior to 
ensure that countries abide by international and U.S. 
sanctions.
    And we will continue to try and monitor most closely and to 
act if we need to, including not taking off of the table any of 
the options available to us for further sanctions should they 
be warranted.
    Senator Menendez. Thank you.
    Let me just have a few other questions since you have the 
whole hemisphere, so it's a little difficult to accomplish in a 
few minutes.
    The Keystone XL pipeline, I gather you have not been 
working on that, but will that be part of your portfolio? Or is 
that at a different level, should you be confirmed?
    Ms. Jacobson. Thank you, Senator.
    As you know, I am recused from that at this time. But if I 
am confirmed, I do expect that to be a high priority--a high 
priority for me and my colleagues in the Department.
    Senator Menendez. If that is the case, would you commit to 
come back to the committe to testify about critical issues that 
have surfaced with the pipeline question? Could we depend upon 
you, if confirmed, to come back to the committee?
    Ms. Jacobson. Absolutely, Senator, at any time.
    Senator Menendez. Let me ask you about Haiti 
reconstruction. The current status of recovery and 
reconstruction efforts as we approach the second anniversary of 
the January 2010 earthquake, what's the status of that, and 
what effect has the political infighting had on President 
Martelly's ability to form a government and begin to address 
the political and legal roadblocks to reform such as land 
titling? Where are we at?
    Ms. Jacobson. Thank you, Senator.
    I think that, as you imply, certainly, the difficulties 
that President Martelly has had in creating a government, in 
getting his nominees through his Parliament, have certainly 
slowed down some of the areas of reconstruction, in particular 
working on governance issues. And we're extremely pleased that 
he now has a Prime Minister and his ministers in place, and 
believe that, at this point, things will move ahead much more 
smoothly in that area.
    However, in other areas, I think that there has been a 
great deal accomplished in the past year, certainly in areas 
such as rubble removal, where we have now more than 50 percent 
of the rubble removed, which is a huge undertaking; one of the 
largest in the world.
    In the issue of agricultural yields, where USAID has been 
present, we've seen a dramatic increase in the issue of 
agricultural yields.
    And obviously, land titling is still an area in which there 
is a great deal of progress that needs to be made, but is a 
high priority and one that we now feel has the attention of the 
Haitian Government.
    Senator Menendez. OK. One final set of questions, Cuba.
    Since the Obama administration has eased restrictions on 
travel and remittances in April 2009, the Castro regime has 
doubled its hard currency deposits in foreign banks. The Bank 
for International Settlements reported banks in 43 countries 
held $5.76 billion in Cuban deposits as of March of this year. 
That's compared with $4.2 billion at the close of 2009 and $2.8 
billion at the close of 2008.
    So hard currency is entering Cuba without limits, being 
exchanged for Castro's worthless currency and whisked abroad by 
the regime.
    Meantime, repression has spiked. Political arrests have 
more than doubled in the last year. We see a policy that 
results in trips featuring salsa dancing, cigar factory tours, 
baseball games, and even visits with Castro's regime's 
neighborhood repression committees, the Committees for the 
Defense of the Revolution, which is pretty outrageous--all 
while an American sits unjustly in prison.
    Can you explain to me how this policy, in any sense, makes 
sense?
    Ms. Jacobson. Senator, our goal in changing the regulations 
was to, and is to, expand the ability of average Cubans to have 
contact with Americans not through their government, to have 
people-to-people contacts.
    In doing so, we certainly recognize that there may be 
economic benefits to the regime, but we believe that they will 
be outweighed by the benefits to individual Cubans of having 
that greater access to information and to Americans.
    In the issue of tourism, let me be very clear about that. 
Tourism is still prohibited even under the regulatory changes 
that the administration has implemented. And the Office of 
Foreign Assets Control at the Treasury Department has reviewed 
and rejected and taken action against some proponents or some 
promoters of activities that do not fall under the regulatory 
changes, including in areas where they have been pointed to 
activities by the State Department. And we'll continue to make 
sure that's understood.
    Senator Menendez. Do you think helping a regime that is 
oppressive of its people; that violates every principle that 
not only we, as Americans, have, but the International Charter 
has; that doubling--doubling--its reserves to $5.7 billion, 
which only gets used in its security apparatus; and that 
permits--permits--interchanges with the Committee to Defend the 
Revolution, which ultimately is a block watch organization that 
oppresses every Cuban in every village, in every hamlet, that's 
good policy?
    Ms. Jacobson. Senator, nothing in our policy is intended to 
help the Government of Cuba in those activities----
    Senator Menendez. Whether it is intended or not--excuse me, 
for interrupting you. But whether it is intended or not, the 
hard facts are, before our policy changes, Cuba had X amount in 
reserves. After our policy changes, it has doubled its amount 
to $5.6 billion in reserves. That's a hard fact. We can say 
that wasn't our intention, but that's the hard fact.
    The second hard fact is, is that we have all types of 
visits going on, including with elements of the Committee to 
Defend the Revolution, which in essence is the people who 
oppresses the Cuban people. How is that people to people?
    Explain to me how that's people to people?
    Ms. Jacobson. Well, that certainly does not fall under what 
we would consider people-to-people exchanges and the benefits 
that Cuban citizens may have of increased access to information 
and the ability to interact with humanitarian groups or church 
groups or academic institutions, which is what the regulations 
are intended.
    Senator Menendez. How do we explain greater repression, 
unimaginable that it could be more repressive, but nonetheless 
that's the reality. And I could introduce into the record a 
whole host of names that are publicly known that have been 
arrested or harassed simply because of their human rights 
activism.
    How do we look at a set of facts in which we double the 
reserve of the Cuban regime, we actually permit visits with 
Committees to Defend the Revolution, there is greater 
repression, and we do all of this while an American is sitting 
in jail unjustly?
    I don't understand how you reward a regime for imprisoning 
an American citizen. I don't get it. I don't get it. And I hope 
someone at the State Department is going to wake up and say, 
``You know what, you don't get anything, and certainly not 
until you release that American!''
    Ms. Jacobson. Senator, I certainly agree that Alan Gross 
has been unjustly imprisoned for almost 2 years now, and we 
will do whatever we can through diplomatic means to try and get 
him home with his family where he deserves to be. And we 
certainly agree that the repression that has taken place, and 
human rights activists and others who have been detained 
recently, is unconscionable.
    And I would hesitate to be able to understand the Cuban 
Government's actions any further.
    Senator Menendez. Well, I don't want to belabor it. I raise 
it because you are going to be the Assistant Secretary. That is 
part of your charge in the Western Hemisphere.
    I just simply say, it seems to me very elemental. You stop 
the money; the regime gets the message. The regime has only 
changed those things that we have found negative for the Cuban 
people, not even in our interests but in the Cuban people's 
interests, out of necessity, not ideological change. They have 
not changed ideologically. It's only when they have necessity 
that they change.
    We double their reserves. We let all types of people go. We 
have an American sitting there. And we don't use all of our 
resources--forget about diplomacy--all of our resources to say, 
you will have nothing to do with us until you release that 
American.
    He's a hostage. They took him particularly because he is, 
in essence, a hostage.
    He is there simply as a tool. Unfortunate for Alan Gross, 
but he is there as a tool, as a pawn, to try to be used. And 
it's pretty amazing to me that we continue a policy that 
ultimately lends itself to that.
    So I hope that when you get confirmed, you know, you take 
this message back to the State Department, that certainly for 
myself I have a very different strong view about you don't 
double their reserves, you don't permit visits for the CDR--the 
Committee to Defend the Revolution. And you certainly do 
everything you can.
    Diplomacy has many tools to it, and it seems to me that a 
whole bunch of those tools aren't being used to have Alan Gross 
freed.
    Ms. Jacobson. Thank you, Senator.
    Senator Menendez. Senator Rubio.
    Senator Rubio. Thank you.
    You outlined in your statement that there are four 
strategic priorities in the hemisphere, the first being--and 
I'm glad to see the first being--effective institutions for 
democratic governance.
    On the issue of Cuba, my hope, and I think the answer is 
``Yes,'' that our real goal there is to ultimately have Cuba 
become a democracy----
    Ms. Jacobson. Absolutely.
    Senator Rubio [continuing]. A functional democracy with 
institutions where people get--so our policies toward Cuba 
should be geared toward accomplishing that.
    And the administration has made a decision that one of the 
ways it wants to do that is it wants to allow Americans both, 
you know, Cuban-Americans traveling back to see families, but 
Americans, through academic institutions, church-based groups, 
and others, travel to Cuba under the notion that access to 
Americans will somehow provide information to the average 
Cuban, and, therefore, further the cause of ultimately creating 
some sort of political opening and a democracy.
    Is that an accurate reflection of our goals as a result of 
the----
    Ms. Jacobson. I think that's correct. We believe that kind 
of purposeful travel is in aid of what we completely agree on, 
which is a free and open Cuba.
    Senator Rubio. But as you've conceded today, there is a 
cost-benefit analysis. We understand that the cost of doing 
that is that it provides hard currency to the regime. The 
regime uses that hard currency not just to further their own 
economic interests as individuals, but also to fund the 
repressive arm of the government.
    We know that political repression has increased. We know 
that there's been an emerging resistance. It's no longer just 
human rights activists or dissidents. There's an open 
resistance in Cuba now; a resistance which is being oppressed 
by political police, basically, and they're funded. And I don't 
think anyone would argue that some of the funding for that 
comes from the hard currency that they now have access to as a 
result of this increased travel.
    That's the cost of doing it, which you've conceded.
    In exchange, though, the administration's position is that 
the benefit of having Americans travel to Cuba outweigh the 
hard currency that's now available to the Castro regime as a 
result of this travel. Is that right?
    Ms. Jacobson. Certain very clearly defined travel, yes.
    Senator Rubio. So, for example, what specific groups have 
traveled to Cuba, say, in the last year that we think have 
helped further the cause of democracy. For example, what 
particular trips or actual missions to Cuba can we point to 
that, for example, have met with some of these resistant 
leaders or have deliverables in terms of actually making 
progress?
    I'm looking for signs that somehow this travel has led to 
advances that we can point to and say this is something that's 
contributing toward democracy being closer for the Cuban 
people. Do we have any groups like that? Do we have any 
specific travel like that, that we think has made that kind of 
progress?
    Ms. Jacobson. Senator, I would have to take a look at which 
specific groups have gone to Cuba very recently. I know that 
since the regulatory changes were made at the end of January, 
and it took us a while to get specific guidelines in place, 
and, obviously, groups are beginning to apply, it's my 
understanding that there have not been a huge number of groups 
that have gone under the new regulations. But, obviously, I'll 
take that back to look at specifically what organizations.
    But we do know that some church organizations and religious 
groups are interested in doing missions, humanitarian work, as 
well as academics who would like to travel to Cuba.
    Senator Rubio. But if our policy, ultimately, is to foster 
democracy, shouldn't these groups be evaluated on the basis of 
what they would do to foster democracy? If a ballet wants to go 
perform in Cuba, if a sports team wants to go play, shouldn't 
we analyze that at least to try to figure out what does this do 
to help foster democracy? Who are you going to get to see, 
where are you going to get to express yourself, what are you 
going to do when you're there that actually fosters our foreign 
policy toward Cuba, which is the hope of a creation of the 
underpinnings for a democratic transition?
    Ms. Jacobson. Right. Well, certainly, Senator, I think that 
the goal in any of these groups going to Cuba is to expose 
average Cubans to as much about the United States and its 
culture, its efforts to assist them individually without the 
intervention of the Cuban Government, as possible. And that may 
take various forms in the travel of groups that go to Cuba. And 
hopefully, all of that would aid in getting information, 
culture, educational materials to the people of Cuba.
    Senator Rubio. But again, and I understand that's the 
theory behind it, but I would just advocate that if indeed 
we're going to allow people to travel to Cuba, and our hope is 
that somehow this travel to Cuba will help foster democracy, 
that somehow there'll be a nexus established between the trip 
that they're taking--because we already have conceded that 
every time they go over there they're turning hard currency 
over to a repressive regime.
    So we've already conceded, the administration has, that 
there's a price to be paid, that we recognize that these trips 
are providing hard currency for a repressive regime.
    So we should at least try to, in each one of these trips, 
establish that at a minimum the cost that we're paying by 
allowing this money to be available to the repressive regime is 
offset by the benefit of that specific trip.
    And I would hope that we would establish a policy that 
clearly creates a nexus between the trips and our foreign 
policy toward the island, which is the hope of advancing 
democracy.
    My hope would be that if, in fact, people are going to 
travel there and organizations are going to travel there, that 
they could somehow show us how traveling there, in addition to 
filling some curiosity, is going to actually provide some 
assistance that will contribute toward the creation of 
democracy in Cuba.
    And my other concern is that Alan Gross was on the island 
for the purpose of fostering access to information. I'm really 
concerned about that, because it shows that there are limits--
in fact, it proves that there are limits as to what the Cuban 
regime is going to tolerate in terms of trip--in essence, 
they're not going to allow people into the island that they 
think are going to undermine their standing.
    It appears to me that they have a filter process in place 
where they're going to deny access. That's the other part of 
this equation that I think has been forgotten. Not anyone can 
just travel to Cuba. If tomorrow someone announced they want to 
travel to Cuba for the purpose of meeting with five of the 
leading resistance members, you're not going to get in. They're 
only going to allow in those people that they think do not 
undermine their activities.
    And we now have evidence of an American citizen that they 
believe undermined them, and the result, he's now sitting in 
jail. I think that has to be a major concern, as well, because 
even though on this side of the equation, things may be very 
well-intentioned, we can't forget that the other side of the 
equation is the Cuban regime. And the Cuban regime is not going 
to openly allow people to come into Cuba that are somehow going 
to undermine them. They're going to select and only allow those 
in that they think don't undermine them.
    Isn't that something we're concerned about?
    Ms. Jacobson. That's certainly something that we are 
concerned about. We're concerned about it, for example, in the 
democracy programs that we have, which are designed, and our 
foreign assistance programs, are designed to increase contact 
or promote information in Cuba.
    We certainly make clear to all Americans going to Cuba in 
all of our public information what the circumstances are in 
Cuba and the risks they may be taking by traveling.
    Senator Rubio. So we make clear to people who are traveling 
to Cuba for people-to-people contact, we make clear to them 
that if they go too far in advocating for democracy or regime 
change that they could go to jail?
    Ms. Jacobson. I think we have a balance and a 
responsibility to American citizens to be clear on what the 
circumstances are in Cuba and what the circumstances of others 
have been.
    Senator Rubio. Right. No, and I think that's the right 
thing to do, to warn them. But my point is that if we tell 
people, ``Hey, if you go to Cuba and you speak out in favor of 
democracy and against the regime, you may go to jail, so really 
the only safe way to go to Cuba is to travel there and not 
really do anything more than, you know, cultural stuff, but 
really don't talk about politics because that could get you in 
trouble.''
    I mean, doesn't that defeat the purpose of the people-to-
people contact that we're trying to--if indeed the purpose of 
people-to-people contact is to further democracy?
    Ms. Jacobson. I think, Senator, that we would probably 
agree that there are lots of different ways we can help the 
Cuban people determine their own future. And we are going to 
use all of the tools that we can to try and give Cubans a 
larger aperture on the world that helps enable them to 
determine their own future, in particular politically.
    Senator Rubio. OK, my last question.
    There were press reports recently about a trip taken by 
Governor Richardson to Cuba. And in that press report, it 
claimed that the United States had made some sort of unilateral 
offers to Cuba in exchange of the release of Alan Gross, that 
we'd offered to, you know, walk away from democracy programs, 
that there have been offers.
    Could you comment on that? Did that happen? Has the United 
States been involved in any unilateral-type negotiations 
promising changes in Cuba policy in exchange for the release of 
Mr. Gross?
    Ms. Jacobson. Senator, we have never offered unilateral 
concessions to the Cuban Government in exchange for Mr. Gross. 
As badly as we would like Mr. Gross returned home, that should 
be unconditional, so he can be with his family.
    Governor Richardson traveled to Cuba as a private citizen, 
and he was not authorized to present any proposals on behalf of 
the U.S. Government.
    Senator Rubio. So just to be clear, we have never offered 
changes in Cuba policy in exchange for the release of Mr. 
Gross?
    Ms. Jacobson. That is correct. We have not.
    Senator Rubio. Thank you.
    Senator Menendez. Thank you.
    Just before I turned to Senator Cardin, who I know was very 
interested in this, let me just make one point that we'd like 
to follow up at a later time.
    The problem with the whole issue with travel, in terms of 
your own stated purpose, is that you are using a general 
license. So there is no real way to track after the initial 
license what it is that people are doing. So they could be 
meeting Comites de Defensa de la Revolucion. You don't know.
    So that is a fundamental flaw in the issue of purposeful 
travel.
    Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman.
    Let me first, if I might, ask consent that a letter 
addressed to the committee from elected officials in Virginia 
and Maryland in support of Ms. Mari Carmen Aponte as U.S. 
Ambassador to El Salvador, including signatures from Ana Sol 
Gutierrez, who is a State representative; Victor Ramirez, a 
state senator; and William Campos, a Prince George County 
councilman, in support of that nomination be made part of our 
record.
    Senator Menendez. Without objection.
    [The letter referred to follows:]

                                                  November 3, 2011.
Senator John F. Kerry,
Chairman, U.S. Senate Committee on Foreign Relations,
Dirksen Senate Office Building,
Washington, DC.

Reference: Nomination of U.S. Ambassador to El Salvador: Mari Carmen 
        Aponte

    Dear Senator Kerry: As Salvadoran-American elected officials 
representing state and local governments in Maryland and Virginia, we 
are writing a joint letter to express our very strong support for the 
nomination of U.S. Ambassador to El Salvador, Mari Carmen Aponte.
    Since she was appointed as ambassador to El Salvador by President 
Obama. Ambassador Aponte has clearly proven her extraordinary ability 
to represent the best interests of the United States while carrying out 
the challenging duties of her office and exemplifying the highest level 
of diplomatic professionalism, effectiveness, and leadership. During 
her brief service to-date, she has established excellent working 
relationships with the Salvadoran government as well as with all key 
sectors of El Salvador's economic, political, and civil society. But 
more importantly, as El Salvador's first Latina ambassador, she has won 
the hearts, minds, and utmost respect of the Salvadoran people, both 
those in El Salvador as well as the thousands of Salvadoran-Americans 
living in the United States.
    As you may be aware, according to the 2010 Census, Salvadoran-
Americans now comprise the third largest Hispanic national group in the 
United States. In Maryland and Virginia, Salvadoran-Americans far out 
number all other Hispanic national groups in the area, and contribute 
significantly to the growth and well being of our States. The 
Salvadoran-American communities that we represent are keenly interested 
and will be closely watching the upcoming confirmation process.
    It is very important to all Salvadoran-Americans to know that the 
United States reaffirms its long-standing commitments and seeks to 
maintain a strong and stable relationship with the government and 
people of El Salvador.
    These are indeed challenging times for El Salvador as it must 
confront difficult problems of poverty, security, growing violence, 
recent natural disasters, stalled economic development, among others. 
Now more than ever, it is critically important to allow Ambassador 
Aponte to continue with her valuable work towards strengthening the 
long-term, close partnership that has been forged between El Salvador 
and the United States.
    We therefore urge you and the Senate Foreign Relations Committee to 
act promptly and positively on behalf of the Administration and the 
American people to confirm Ambassador Aponte so she is able to continue 
her extraordinary diplomatic services.
            Sincerely,
                                   Hon. Ana Sol-Gutierrez,
                                           MD State Delegate, District 
                                               18,
                                           Montgomery County, MD.

                                   Hon. Victor R. Ramirez,
                                           Maryland State Senator, 
                                               District 47,
                                           Prince Georges County, MD.

                                   Hon, William Campos,
                                           County Councilmember,
                                           Prince Georges County, MD.

                                   Hon. J. Walter Tejada,
                                           County Board Member,
                                           Arlington County, VA.

    Senator Cardin. And, Ms. Jacobson, let me welcome you to 
the committee. Thank you for your public service. Thank your 
family for your willingness to continue to serve our country.
    We are particularly proud, because you come from the State 
of Maryland, so we very much welcome you here.
    I want to underscore the message of my two colleagues as it 
relates to Alan Gross. He's also a Marylander. And we have 
tried, through various means, to get the attention of the Cuban 
Government for the release of Mr. Gross, who is being held--I 
think Senator Menendez says, as a hostage. That may very well 
be the case.
    The concern we have is that it looks like we've been trying 
very diplomatic means in a quiet way to get him released, and 
that hasn't worked. I think it's time to elevate this issue.
    This is a gross violation of human rights. Alan Gross 
should be released. There should be no conditions on his 
release. There should be no compromises made by the United 
States that would be inappropriate, because this is a one-sided 
problem. And Cuba needs to recognize that, and there needs to 
be consequences, not just in U.S. policy, but in how America 
handles international issues as it relates to Cuba.
    So I guess my question to you is, Will you assure this 
committee that, if confirmed, the case of Alan Gross will 
remain a very high priority of yours, and that you will work 
with many of us who are prepared to put a spotlight on this 
issue in many of our international participations as well as 
our bilateral relationship with Cuba?
    Many of us hold positions in international organizations. 
We intend to make this case one that is known throughout the 
world, that Cuba is violating the rights of an American, and it 
appears to be solely for trying to get leverage over America, 
which we will not tolerate.
    Ms. Jacobson. Senator, the short answer to your question 
is, yes, absolutely.
    I think that we have always taken our cue from the Gross 
family, and we'll continue to do that. But we do think that it 
is time to speak out very loudly.
    I hope that I am doing that here today, that this is 
absolutely unjustified, that Mr. Gross should be home with his 
family. There are illnesses in his family. His own health has 
deteriorated while held by the Cubans, and he deserves to be 
home immediately.
    So we are grateful for your support and that of the other 
members of the committee.
    Let me also just add that I'm very proud of my adoptive 
State of Maryland, but I do have to mention my New Jersey 
roots, because my New Jersey contingent is here with me today.
    Senator Cardin. I assume you visit Florida every once in a 
while. [Laughter.]
    Ms. Jacobson. I try, sir.
    Senator Menendez. That's why she got nominated. [Laughter.]
    Senator Cardin. Well, thank you for that answer, and I 
appreciate that. And I think this is what we need to do as a 
nation.
    Let me just ask one other question, if I might, on a 
different subject. As the Principal Deputy Assistant Secretary 
of State for Western Affairs, you are the coordinator for 
citizen security initiatives in Latin America. Will you share 
with the committee the challenges that you've had in regards to 
that and where you think we need to make additional progress?
    Ms. Jacobson. Thank you very much, Senator.
    This has been an enormous preoccupation of myself, my 
predecessor, and, frankly, of Secretary Clinton. When we look 
at polls across the hemisphere, 90 percent of the respondents 
in polls in the hemisphere say citizen security is their No. 1 
priority, their No. 1 concern.
    And so we have a series of coordinated efforts in the 
hemisphere that run from Mexico, through Central America, to 
Colombia, and include the Caribbean, that we think work 
together really well and are critically important efforts to 
try and strengthen institutions to resist those transnational 
criminal organizations, whether they are dealing in drugs, 
whether they are gangs, other forms of contraband.
    And, frankly, this is a fight that is not a quick one. It's 
one that we have seen remarkable success on in Colombia, but 
after many years, and one that in some ways is just under way 
in Mexico with very strong efforts by President Calderon, and 
we hope to continue to support that.
    But in Central America and the Caribbean, smaller countries 
have an even tougher time in resisting these criminal 
organizations. And so we need to work in an integrated way 
across the U.S. Government on building up the law enforcement 
and judicial capacity, building civil society, as I mentioned 
before, to resist those organizations and to cooperate with the 
United States in ways that serve both our interests and serve 
our interests on both sides of the border.
    Senator Cardin. I thank you for that response. I look 
forward to working with you.
    And, Mr. Chairman, I'll yield back the balance of my time.
    Senator Menendez. Thank you, Senator Cardin.
    Madam Secretary, thank you for your forthright responses. I 
hope you understand those of us who sought to be on this 
subcommittee, particularly, and as well as the full committee, 
have a passion for the hemisphere. So I'm sure you heard the 
passion through the questions.
    But we appreciate your engagement. And we look forward to, 
if any member has any written questions, you'll respond to it 
quickly.
    And from my own personal view, I look forward to supporting 
your nomination and working with you in the days ahead.
    With that, we're going to excuse you.
    Ms. Jacobson. Thank you, Mr. Chairman.
    Senator Menendez. You're welcome and thank your family for 
being here.
    And we're going to call up our next panel, starting with 
Mari Carmen Aponte. I'll read these as you come forward, so as 
we can save some time.
    Ambassador Aponte was sworn as Ambassador of the United 
States to El Salvador on September 22, 2010. She previously 
worked as an attorney and consultant with Aponte Consulting and 
served on the board of directors of Oriental Financial Group.
    She was the executive director of the Puerto Rican Federal 
Affairs Administration. She has a B.A. in political science 
from Rosemont College, an M.A. from Villanova, and a J.D. from 
Temple University.
    So, welcome, Ambassador, once again before the committee.
    Adam Namm is the director of the Bureau of Overseas 
Buildings Operations of the Department of State. A career 
member of the Senior Foreign Service, Mr. Namm joined the 
Department of State in 1987.
    He has served overseas as a management counselor in 
Islamabad, human resources officer in Bogota, a general 
services office in Santo Domingo, and consular officer in 
Bogota and Santo Domingo.
    He holds a B.A. in international relations from Brown 
University, an M.S. in national security strategy from the 
National War College. And we welcome him.
    Elizabeth Cousens is the Principal Policy Adviser and 
Counselor to the U.S. Permanent Representative to the U.N., 
Ambassador Susan Rice. At the U.N., she has served as the Chief 
of Staff for the U.N. Mission in Nepal and as the Chief of the 
Donor Coordination Unit in the Office of U.N. Special 
Coordinator for the Middle East Peace Process.
    Past experience also includes director of strategy for the 
Centre for Humanitarian Dialogue in New York and senior 
associate and vice president of the International Peace Academy 
in New York.
    She received advanced degrees in international relations 
from the University of Oxford, and a B.A. in history from the 
University of Puget Sound.
    Welcome all.
    In the interest of time we ask that each of you limit your 
testimony to 5 minutes. Your full written testimony, will be 
included in the record.
    And we will proceed with Ambassador Aponte as our first 
nominee.

   STATEMENT OF HON. MARI CARMEN APONTE, OF THE DISTRICT OF 
   COLUMBIA, TO BE AMBASSADOR TO THE REPUBLIC OF EL SALVADOR

    Ambassador Aponte. Thank you very much.
    Mr. Chairman Menendez, Ranking Senator Rubio, I am very 
pleased and grateful for the opportunity to appear before you.
    With me today I have my family, my sister, Tere; and my 
brother-in-law, Arturo; as well as my mother; and two very good 
friends, Felix Rodriguez from Miami, who is a veteran of the 
Bay of Pigs invasion in Cuba, as well as former President of El 
Salvador, Alfredo Cristiani; and some friends from the 
Salvadoran community, from all segments of the Salvadoran 
community.
    I'm very honored and grateful for the trust and confidence 
placed in me by President Obama and Secretary Clinton in 
nominating me to serve as the United States Ambassador to the 
Republic of El Salvador.
    El Salvador is a country with significant ties to the 
United States. One quarter of all Salvadorans live and work 
here in the United States.
    There are very strong economic links between our two 
nations, CAFTA and the free trade that it facilitates between 
the United States and El Salvador, a dollarized Salvadoran 
economy, and the presence of many prominent U.S. companies 
engaged in business in El Salvador.
    El Salvador has also sent troops to Iraq and Afghanistan, 
and presently is the only Latin American country to have sent 
troops to Afghanistan.
    This is significant progress from 20 years ago when a 
bitter 12-year civil war ended and the country began a 
successful transition to a stable democracy. It is vital to 
continue to build on that progress with this important regional 
ally and, if confirmed, I will further the efforts that we have 
made in the last year.
    The administration's priorities and the efforts of our 
mission are centered on the complementary objectives of 
security and economic growth.
    El Salvador has one of the highest homicide rates in the 
world. Drug trafficking through El Salvador continues to 
increase. Gang violence is a daily threat to much of the 
population. The activities of the 18th Street and MS-13 gangs 
extend to the cities and communities of the Americas. As a 
result, helping El Salvador to combat these gangs directly 
impacts our own national security.
    In the economic arena, the transition from 20 years of a 
conservative rule to a new left-leaning administration has 
presented both opportunities and challenges. I have made it my 
priority to build bridges between the government and the 
private sector, to encourage cooperation in helping El Salvador 
to reach its economic potential. And I am proud to say that the 
Ambassador's residence has become a place where both sides feel 
comfortable discussing issues of importance on neutral ground.
    I believe that an important part of diplomacy is creating 
positive conditions which lead to increased understanding and 
cooperation, and I have tried to position the mission as a very 
honest intermediary. If confirmed, I will continue to be an 
advocate and architect for these important bridges to foster 
public/private dialogue.
    In both our key priority areas, security and economic 
growth, President Obama's Partnership for Growth has been a key 
focus of our efforts over the past year. El Salvador was the 
first country to sign a joint action plan with the United 
States in a ceremony in El Salvador just last week. And we look 
forward to continuing to realign our priorities to push forward 
on both of these important issues.
    I believe this is a critical time for U.S. diplomacy. We 
have and we'll continue to reach out to the complete spectrum 
of Salvadoran society, not just government leaders and the 
nation's elite, but to opinion leaders, community leaders, 
youth, and all facets of the civil society.
    We have hosted several joint military exercises with the 
Salvadoran military and sponsored events for local artists and 
women's groups. All this has been with the goal of 
strengthening bilateral ties.
    Diplomacy is critical, and as we face increasing dangers 
throughout the world, I am humbled by the confidence the 
administration has placed in me. During my tenure as Ambassador 
in El Salvador, I have represented the strategic interests of 
the United States to the utmost of my abilities. If confirmed, 
I will continue to do so as I strive to further strengthen the 
ties between the government and people of the United States and 
El Salvador.
    I thank you again for your time and would be pleased to 
respond to any questions.
    [The prepared statement of Ambassador Aponte follows:]

             Prepared Statement of Hon. Mari Carmen Aponte

    Mr. Chairman and members of the committee, I am honored and 
grateful for the trust and confidence placed in me by President Obama 
and Secretary Clinton
in nominating me to serve as United States Ambassador to the Republic 
of El Salvador.
    El Salvador is a country with significant ties to the United 
States. One quarter of all Salvadorans live and work here in the United 
States. There are strong economic links between our two nations: CAFTA 
and the free trade that it facilitates between the United States and El 
Salvador, a dollarized Salvadoran economy, and the presence of many 
prominent U.S. companies engaged in business in El Salvador. El 
Salvador has also sent troops to Iraq and Afghanistan--and is the only 
Latin American country to have sent troops to Afghanistan. This is 
significant progress from 20 years ago, when a bitter 12-year civil war 
ended and the country began a successful transition to a stable 
democracy.
    It is vital to continue to build on that progress with this 
important regional ally and, if confirmed, I will further the efforts 
that we have made in the last year.
    The administration's priorities and the efforts of our mission are 
centered on the complementary objectives of security and economic 
growth. President Obama has placed a high priority on citizen security 
in the region and thus our number one priority in El Salvador has been, 
and will continue to be, security. El Salvador has one of the highest 
homicide rates in the world. Due to its location in the region, drug 
trafficking through El Salvador continues to increase. Gang violence is 
endemic and a daily threat to much of the population with the 
activities of the 18th Street and MS-13 gangs extending to the cities 
and communities of America. Criminal elements in El Salvador have been 
linked to violent crimes committed in the United States.
    President Obama's signature development initiative, Partnership for 
Growth, has identified security as a binding constraint to economic 
growth. As part of this initiative, which has been introduced in only 
four countries worldwide, we are engaging the government and people of 
El Salvador in a dialogue on how the United States and El Salvador can 
work together to improve security, which represents a significant 
constraint to growth and prosperity in many sectors of the economy.
    Partnership for Growth will enhance the way in which the U.S. 
manages its foreign assistance to El Salvador, better supporting USG 
policy interests and fostering more rapid economic growth in El 
Salvador. A collaborative effort, Partnership for Growth, has involved 
a rigorous assessment by a team of economists from both the U.S. 
Government and the Government of El Salvador. The framework requires El 
Salvador to make commitments that will complement the U.S. assistance 
being offered in the areas that have been identified as obstacles to 
growth such as complementary citizen security programs being 
implemented in El Salvador under the Central America Regional Security 
Initiative (CARSI).
    In the area of enhanced citizen security cooperation with the 
Government of El Salvador under CARSI, we have made significant headway 
on establishing an electronic monitoring center that will be an 
important tool in combating organized and transnational crime. For the 
past year, I have worked in close coordination with our law enforcement 
agencies to engage the Salvadoran Government to move this project 
forward and am pleased to note that the new facility is scheduled to 
open by the end of the year.
    Another key administration priority has been economic growth. As I 
mentioned previously, our mission is embracing the opportunity for 
transformation presented by the Partnership for Growth. My team and I 
have worked with the Government of El Salvador, many U.S. agencies 
represented in El Salvador and their counterparts in D.C. to formulate 
a joint action plan with a mix of programs and technical exchanges to 
foster economic growth. If confirmed, I will continue to be an advocate 
and architect for this important initiative and ensure its 
implementation.
    As part of our efforts to encourage more inclusive and effective 
government to achieve broad strategic goals in El Salvador, I made it 
my priority to build bridges between the private sector and the 
government. The transition from 20 years of conservative rule to a new 
left-leaning administration in El Salvador has at times presented both 
opportunities and challenges for the private sector, which has 
traditionally identified with the former ruling party.
    Building trust between the government and the private sector to 
work in partnership for the future of El Salvador is essential. The 
Ambassador's residence has been a place where both sides can feel 
comfortable on neutral ground to discuss issues of importance--yet 
where significant divergence of opinion and approach exists within 
Salvadoran society. We have been able to create a political space in 
the middle for different factions to come together. I believe that an 
important part of diplomacy is creating positive conditions which lead 
to increased understanding and cooperation, and I have tried to 
position the mission as an honest intermediary.
     Another focus has been developing and empowering the staff of the 
Embassy. There are over a dozen agencies represented within the 
Embassy, all with different bureaucratic cultures and specific 
missions, but each with the same overarching goal of advancing the 
interests of the United States. One of my goals in the last year has 
been to develop mission personnel into a more effective and cohesive 
team. I have invited every member of the mission to meet with me and 
with each other at the Ambassador's residence. Likewise, I have 
stressed the importance of investing in human capital by promoting 
training and a strong sense of community, both with our Direct Hire 
American staff and Locally Engaged personnel. These efforts have 
increased mission unity, fostered a positive and collegial work 
environment, and created a more effective team.
    I believe this is a critical time for U.S. diplomacy. We have and 
will continue to reach out to the complete spectrum of Salvadoran 
society, not just government leaders, and the nation's elites, but to 
opinion leaders, community leaders, youth, children and all facets of 
civil society. We have hosted several joint military exercises with the 
Salvadoran military and sponsored events for local artists and women's 
groups. All this has been with the goal of strengthening bilateral 
ties.
    Diplomacy is critical, and as we face increasing dangers throughout 
the world, I am humbled by the confidence the administration has placed 
in me. During my tenure as Ambassador in El Salvador, I have 
represented the strategic interests of the United States to the utmost 
of my abilities. If confirmed, I will continue to do so as I strive to 
further strengthen the ties between the government and people of the 
United States and El Salvador
    I thank you again for your time and hospitality and would be 
pleased to respond to any questions you have.

    Senator Menendez. Thank you very much.
    Mr. Namm.

STATEMENT OF ADAM E. NAMM, OF NEW YORK, TO BE AN AMBASSADOR TO 
                    THE REPUBLIC OF ECUADOR

    Mr. Namm. Well, thank you very much and good morning, Mr. 
Chairman, Ranking Member Rubio.
    I am honored to appear before you today as the President's 
nominee for United States Ambassador to the Republic of 
Ecuador. I am grateful to President Obama and Secretary Clinton 
for the trust and confidence they have placed in me.
    I would like to recognize members of my family that have 
joined me today: my wife, Mei Huang; my daughter, Rebecca Namm; 
my mother, Susan Spencer, a resident of Jupiter, FL; my 
stepmother, Joan Namm; and my sister-in-law, Wei Huang, all of 
whom are great sources of great joy and support.
    On this day, I'm also thinking of my father, Arnold Namm, 
who left us last year, but is still very much with me.
    During my 24-year Foreign Service career, I've been 
privileged to represent our Nation in a diverse group of 
countries--the Dominican Republic, Saudi Arabia, Colombia, and 
Pakistan--as well as serving in multiple positions in 
Washington.
    For the past 2.5 years, I've had the honor of leading the 
State Department's Bureau of Overseas Buildings Operations. 
During my tenure in that Bureau, we opened 16 new diplomatic 
facilities around the world, with another 33 facilities under 
design and in construction.
    In 2008, I had the pleasure of cutting the ribbon on our 
new Embassy compound in Quito, and I am pleased to report that 
the Department will open a new consulate general compound in 
Guayaquil in 2012.
    The United States ties with Ecuador date back to that 
country's independence from Gran Colombia in 1830, and we sent 
our first envoy to Ecuador in 1848. The close links between our 
two countries are evident in the interchange of people. As many 
as 2 million Ecuadorians live in the United States, and Ecuador 
maintains consular offices in 17 U.S. cities.
    For Americans, Ecuador is a popular destination for 
tourism, an attractive place to retire, and a place of 
opportunity for commerce and study. More than 200,000 Americans 
visit Ecuador each year and some 25,000 U.S. citizens reside in 
Ecuador. If confirmed, my top priority will be to ensure the 
well-being of U.S. citizens living in and visiting Ecuador.
    Another priority will be to promote U.S. business 
interests. The United States is Ecuador's largest trading 
partner. In 2010, the United States supplied 25 percent of 
Ecuador's imports with a value of $5.4 billion, and was the 
destination for 35 percent of Ecuador's exports valued at $7.5 
billion.
    Our energy relationship is also vigorous. With the fourth-
largest proven oil reserves in Latin America after Venezuela, 
Brazil, and Mexico, and as a consumer of U.S. petroleum 
products, Ecuador represents an important partner in this vital 
economic sector.
    As this committee knows, our relationship with Ecuador has 
been difficult in recent months, marked by Ecuador's 
regrettable expulsion of our Ambassador. I believe, however, 
that this trying period has only underscored for everyone the 
importance of reinvigorating our countries' bonds.
    By nominating a new Ambassador to Ecuador, the President 
and the Secretary are demonstrating their commitment that the 
United States and U.S. interests be represented at the highest 
level.
    If confirmed, I will be a forceful advocate for our 
interests and values, including democracy, trade, and 
countering the scourge of narcotics trafficking and other 
illicit activity. In advocating for our interests, I will 
engage both the Ecuadorian Government and Ecuadorian civil 
society.
    We have shared commitments on which to build. Ecuador and 
the United States are both signatories to the Inter-American 
Democratic Charter, and so are bound to respect and protect 
fundamental democratic rights and institutions.
    Secretary Clinton, on the 10th anniversary of the charter, 
took note of its first article, saying, ``The peoples of the 
Americas have a right to democracy, and our governments have an 
obligation to promote and defend it.''
    If confirmed, one of my core tasks will be to promote and 
defend the democratic freedoms the peoples of both the United 
States and Ecuador hold dear.
    Thank you for giving me the honor of appearing before you 
today, and I look forward to any questions you may have, and to 
working with you if confirmed.
    [The prepared statement of Mr. Namm follows:]

                   Prepared Statement of Adam E. Namm

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as the President's nominee for United States 
Ambassador to the Republic of Ecuador. I am grateful to President Obama 
and Secretary Clinton for the trust and confidence they have placed in 
me.
    I would like to recognize family members that have joined me today: 
My wife, Mei Huang; my daughter, Rebecca Namm; my mother, Susan 
Spencer; my step-mother, Joan Namm; and my sister-in-law, Wei Huang, 
all of whom are sources of great joy and support. On this day I am also 
thinking of my father, Arnold Namm, who left us last year but is still 
very much with me.
    During my 24-year Foreign Service career, I have been privileged to 
represent our Nation in a diverse group of countries--the Dominican 
Republic, Saudi Arabia, Colombia, and Pakistan--as well as serving in 
multiple positions in Washington. For the past 2\1/2\ years, I have had 
the honor of leading the State Department's Bureau of Overseas 
Buildings Operations. During my tenure in that Bureau, we opened 16 new 
U.S. diplomatic facilities around the world, with another 33 facilities 
under design and construction. In 2008, I had the pleasure of cutting 
the ribbon on our New Embassy Compound in Quito, and I am pleased to 
report that the Department will open a New Consulate General Compound 
in Guayaquil in 2012.
    The United States ties with Ecuador date back to that country's 
independence from Gran Colombia in 1830, and we sent our first envoy to 
Ecuador in 1848. The close links between our two countries are evident 
in the interchange of people: As many as 2 million Ecuadorians live in 
the United States, and Ecuador maintains consular offices in 17 U.S. 
cities. For Americans, Ecuador is a popular destination for tourism, an 
attractive place to retire, and a place of opportunity for commerce and 
study. More than 200,000 Americans visit Ecuador each year and some 
25,000 U.S. citizens reside in Ecuador. If confirmed, my top priority 
will be to ensure the well-being of U.S. citizens living in and 
visiting Ecuador.
    Another priority will be to promote U.S. business interests. The 
United States is Ecuador's largest trading partner. In 2010, the United 
States supplied 25 percent of Ecuador's imports, with a value of $5.4 
billion, and was the destination for 35 percent of Ecuador's exports, 
valued at $7.5 billion. Our energy relationship is also vigorous; with 
the fourth-largest proven oil reserves in Latin America after 
Venezuela, Brazil, and Mexico, and as a consumer of U.S. petroleum 
products, Ecuador represents an important partner in this vital 
economic sector.
    As this committee knows, our relationship with Ecuador has been 
difficult in recent months, marked by Ecuador's regrettable expulsion 
of our Ambassador. I believe, however, that this trying period has only 
underscored, for everyone, the importance of reinvigorating our 
countries' bonds. By nominating a new Ambassador to Ecuador, the 
President and the Secretary are demonstrating their commitment that the 
United States and U.S. interests be represented at the highest level. 
If confirmed, I will be a forceful advocate for our interests and 
values, including democracy, trade, and countering the scourge of 
narcotics trafficking and other illicit activity. In advocating for our 
interests I will engage both the Ecuadorian Government and Ecuadorian 
civil society.
    We have shared commitments on which to build. Ecuador and the 
United States are signatories to the Inter-American Democratic Charter, 
and so are bound to respect and protect fundamental democratic rights 
and institutions. Secretary Clinton, on the 10th anniversary of the 
Charter, took note of its first article, saying, ``The peoples of the 
Americas have a right to democracy, and our governments have an 
obligation to promote and defend it.'' If confirmed, one of my core 
tasks will be to promote the democratic freedoms the peoples of both 
the United States and Ecuador hold dear.
    Thank you for giving me the honor of appearing before you today. I 
look forward to any questions you may have, and to working with you if 
confirmed.

    Senator Menendez. Thank you very much.
    Ms. Cousens.

    STATEMENT OF ELIZABETH M. COUSENS, OF WASHINGTON, TO BE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA ON THE ECONOMIC 
  AND SOCIAL COUNCIL OF THE UNITED NATIONS, WITH THE RANK OF 
   AMBASSADOR; AND, TO BE AN ALTERNATE REPRESENTATIVE OF THE 
    UNITED STATES OF AMERICA TO THE SESSIONS OF THE GENERAL 
ASSEMBLY OF THE UNITED NATIONS, DURING HER TENURE OF SERVICE AS 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA ON THE ECONOMIC 
            AND SOCIAL COUNCIL OF THE UNITED NATIONS

    Ms. Cousens. Thank you very much.
    Chairman Menendez, Ranking Member Rubio, thank you for the 
opportunity to appear before you today as President Obama's 
nominee to be the United States Representative to the Economic 
and Social Council of the United Nations. I am honored by the 
confidence and support that President Obama, Secretary Clinton, 
and Ambassador Rice have shown in nominating me for this 
position.
    Let me briefly acknowledge and thank my family, my parents, 
Frank and Sandy, who unfortunately could not be here, but whose 
love and support I value every day; my husband, Bruce, who is 
here today; and our 2-year-old son, Wyatt, who you might have 
heard earlier this morning and has promised to be on his best 
behavior.
    Senator Menendez. We're family-friendly here, so it's OK. 
[Laughter.]
    Ms. Cousens. We are living in an era of global 
interconnection. The threats we face--nuclear proliferation, 
terrorism, organized crime, environmental degradation, 
infectious disease, to name just a few--cross borders and 
continents freely. But so, too, do our opportunities, from open 
markets and free trade, to the ability of citizens around the 
world to support each other's struggle for dignity, freedom, 
and equality.
    U.S. leadership to strengthen and expand our tools for 
international cooperation will be essential to meeting these 
tests and promoting U.S. interests and values in the 21st 
century. And the United Nations is critical to that task.
    The United States gains from an effective U.N. When U.N. 
peacekeepers help stabilize conflict zones in Sudan, the 
Democratic Republic of the Congo, and Haiti, they do so at a 
fraction of what it would cost to send American troops, and 
they bolster our own security. When UNICEF vaccinates 40 
percent of the world's children, it contributes to the health 
of our own.
    When the World Food Programme, UNHCR, and other 
humanitarian agencies deliver life-saving assistance to the 
tens of millions ravaged by flood, famine, or displacement, 
they strengthen our common humanity.
    I have worked around the U.N. for most of my professional 
life. This has given me a concrete appreciation for the U.N.'s 
potential to advance critical U.S. priorities and values, as 
well as a practical insight into the U.N.'s strengths and its 
limitations. As I have seen firsthand throughout my career, the 
U.N. is far from perfect. Much more needs to be done to improve 
its efficiency, transparency, fiscal discipline, integrity, and 
impact. Key reforms spearheaded by this administration, 
especially in the areas of human resources, ethics, oversight, 
conduct, and discipline, and basic business practices, need to 
be advanced. And no reform agenda is complete without 
addressing the institution's credibility gap, particularly with 
regard to the unfair and disproportionate targeting of Israel 
throughout the U.N. system.
    However, I've also seen firsthand remarkable displays of 
ingenuity, commitment, and courage from U.N. personnel in the 
service of values we all espouse: a peacekeeping battalion in 
Haiti that used sweat equity and spare parts to rebuild schools 
and roads for the community; a civil affairs officer in Bosnia 
who dreamed up the idea of ethnically neutral license plates to 
enable Bosnia's fractured communities to move safely throughout 
the country without fear of reprisal; and the courage of U.N. 
personnel who go to work in conflict zones every day despite 
being targeted.
    I have been proud to serve as Ambassador Rice's Principal 
Policy Adviser and Chief of Staff in New York for the past 3 
years, during which U.S. leadership at the United Nations has 
produced significant, tangible victories for the United States; 
winning important votes condemning the human rights records of 
Iran, Burma, and North Korea by the largest margin ever in the 
General Assembly; securing Israel's inclusion in key 
consultative groups in New York and Geneva; gaining new access 
to audits from U.N. development agencies; and leading the 
establishment of U.N. Women and creation of an office to combat 
sexual violence in situations of armed conflict.
    If confirmed, I will seek to build on these and other 
achievements as U.S. Representative to ECOSOC. Drawing on my 
own U.N. experience, I will work to ensure that U.N. 
humanitarian agencies deliver for those at greatest risk, such 
as in the Horn of Africa where famine threatens millions and 
the United States has provided generous life-saving assistance, 
much of it through U.N. partners. I will work with the 
leadership of U.N. agencies, funds and programs, and member 
states to press for concrete development results, from reducing 
child mortality and combating extreme poverty to supporting 
women entrepreneurs. I will continue to fight for the victims 
of human rights abuse, including through clear and strong 
condemnation of violators. And I will work to strengthen the 
contribution of U.N. agencies to countries like Iraq, 
Afghanistan, South Sudan, and Cote d'Ivoire, as they rebuild 
after war and claim a brighter future for their people.
    And I will work closely with my colleagues leading the 
administration's reform agenda to advance comprehensive and 
meaningful reform at the U.N.
    The United Nations has an indispensable role in promoting 
U.S. priorities for which U.S. leadership is essential. If 
confirmed, it would be an honor and a privilege to serve my 
country in this new capacity, to join my colleagues in working 
to extend U.S. leadership at and through the United Nations.
    And I would look forward to working with the Congress, and 
this committee specifically, to advance our shared priorities.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Ms. Cousens follows:]

               Prepared Statement of Elizabeth M. Cousens

    Chairman Menendez, Ranking Member Rubio, distinguished members of 
the committee, thank you for the opportunity to appear before you today 
as President Obama's nominee to be the United States Representative to 
the Economic and Social Council of the United Nations. I am honored by 
the confidence and support that President Obama, Secretary Clinton, and 
Ambassador Rice have shown in nominating me for this position.
    Let me also acknowledge and thank my family, my parents Frank and 
Sandy who unfortunately could not be here but whose love and support I 
value every day, my husband Bruce, who is here today, and our 2-year-
old son, Wyatt, who has promised to be on his best behavior.
    We are living in an era of global interconnection. The threats we 
face--nuclear proliferation, terrorism and organized crime, 
environmental degradation, and infectious disease, to name just a few--
cross borders and continents freely. But so too do our opportunities, 
from open markets and free trade to the ability of citizens around the 
world to support each other's struggle for dignity, freedom, and 
equality. U.S. leadership to strengthen and expand our tools for 
international cooperation will be essential to meeting these tests and 
promoting U.S. interests and values in the 21st century. The United 
Nations is critical to that task.
    The United States gains from an effective U.N. When U.N. 
peacekeepers help stabilize conflict zones in Sudan, the Democratic 
Republic of the Congo, and Haiti, they do so at a fraction of what it 
would cost to send American troops and bolster our own security. When 
UNICEF vaccinates 40 percent of the world's children, it contributes to 
the health of our own. When the World Food Programme, UNHCR, and other 
humanitarian agencies deliver life-saving assistance to the tens of 
millions ravaged by famine, flood, or displacement, they strengthen our 
common humanity.
    I have worked around the U.N. for most of my professional life. 
This has given me a concrete appreciation of the U.N.'s potential to 
advance critical U.S. priorities and values as well as practical 
insight into the U.N.'s strengths and limitations.
    As I have seen firsthand throughout my career, the U.N. is far from 
perfect. Much more needs to be done to improve its efficiency, 
transparency, fiscal discipline, integrity, and impact. Key reforms 
spearheaded by this administration, especially in the areas of human 
resources, ethics, oversight, conduct and discipline, and basic 
business practices need to be advanced. And no reform agenda is 
complete without addressing the institution's credibility gap, 
particularly with regard to the unfair and disproportionate targeting 
of Israel throughout the U.N. system.
    However, I have also seen firsthand remarkable displays of 
ingenuity, commitment, and courage from U.N. personnel in the service 
of values we all espouse--a peacekeeping battalion in Haiti that used 
sweat equity and spare parts to rebuild schools and roads for the 
community, a New Zealand civil affairs officer in Bosnia who dreamed up 
the idea of ethnically neutral license plates to enable Bosnia's 
fractured communities to move safely throughout the country without 
fear of reprisal, an inventive Nepalese interpreter who created a 
computer program to improve management systems, and the courage of U.N. 
personnel who go to work in conflict zones every day despite being 
targeted.
    I have been proud to serve as Ambassador Rice's Principal Policy 
Advisor and Chief of Staff in New York for the past 3 years during 
which U.S. leadership at the United Nations has produced significant 
tangible victories for the United States: winning important votes 
condemning the human rights records of Iran, North Korea, and Burma by 
the largest margin ever in the General Assembly; securing Israel's 
inclusion in key consultative groups in New York and Geneva; gaining 
new access to audits from U.N. development agencies; and leading the 
establishment of U.N. Women and creation of an office to combat sexual 
violence in situations of armed conflict.
    If confirmed, I will seek to build on these and other achievements 
as U.S. Representative to ECOSOC. Drawing on my own U.N. experience, I 
will work to ensure that U.N. humanitarian agencies deliver for those 
at greatest risk, such as in the Horn of Africa where famine threatens 
millions and the United States has provided over $600 million in life-
saving assistance, much of it through U.N. partners. I will work with 
the leadership of U.N. agencies, funds, and programs and member states 
to press for concrete development results, from reducing child 
mortality and combating extreme poverty to supporting women 
entrepreneurs. I will continue to fight for the victims of human rights 
abuse, including through clear and strong condemnation of violators. I 
will work to strengthen the contribution of U.N. agencies to countries 
like Iraq, Afghanistan, South Sudan, and Cote d'Ivoire as they rebuild 
after war and claim a brighter future for their people. And I will work 
closely with colleagues leading the administration's reform agenda to 
advance comprehensive and meaningful reform at the U.N.
    The United Nations has an indispensible role in promoting U.S. 
priorities for which U.S. leadership is essential. If confirmed, it 
would be an honor and a privilege to serve my country in this new 
capacity, and join my colleagues in working to extend U.S. leadership 
at and through the United Nations. I would look forward to working with 
the Congress, and this committee specifically, to advance our shared 
priorities.
    Thank you. I look forward to answering your questions.

    Senator Menendez. Thank you.
    Thank you all, for your service and your testimony. We 
welcome your families and friends.
    And certainly, we want to acknowledge President Cristiani 
who is with us. Thank you very much for joining us.
    Let me start with you, Ambassador Aponte. I personally 
think you've done an extraordinary job in El Salvador. I want 
to ask you about something that we learned yesterday, that El 
Salvador's Public Security Minister, Manuel Melgar, who the 
United States believes was involved in the murder of four U.S. 
Marines in June 1985, resigned. This is something that I think 
we would applaud.
    What effect will his resignation have on our bilateral 
cooperation now on security issues?
    Ambassador Aponte. Senator, thank you very much for the
 question.
    Definitely, I think it would strengthen and it would make 
much smoother the working relationship between the security 
elements of the two countries.
    While any ministerial changes are an internal matter for El 
Salvador, this change really demonstrates the commitment from 
this government to transformational change in the areas of 
security and economic growth. It has been stated in the 
negotiations that have been undergoing with the United States 
in the Partnership for Growth. And this relationship should now 
take off, and we should do very well.
    Senator Menendez. Let me ask you, in September, President 
Obama included El Salvador in a list of countries designated as 
major drug-producing or drug-transit countries. This is the 
first time that El Salvador has been so designated.
    How would you assess the current level of bilateral 
antidrug coordination and cooperation, and the adequacy of a 
U.S. program in El Salvador?
    Ambassador Aponte. The coordination is very good. The law
 enforcement community and the mission work very well with law 
enforcement in El Salvador, especially at the level of 
narcotrafficking. There is a vetted unit within the police that 
we work very closely with in pursuing narcotraffickers. And we 
have had very, very good success.
    The location of El Salvador makes it a corridor for 
transit. All the narcotrafficking comes from south into the 
north, so their geographical location does not help. However, 
their cooperation has been very good.
    Senator Menendez. One last question.
    I had the opportunity to meet with the First Lady and the 
Secretary of Social Inclusion, Dr. Pignato, last week. She came 
to talk about the flooding consequences in El Salvador.
    What are the implications of the damage for the Salvadoran 
economy and the displacement of people? Can you give me a sense 
of the consequences?
    Ambassador Aponte. Senator, I want to preface this by 
saying that the Government of El Salvador did a very good job 
in damage mitigation during the tropical depression, which 
lasted 10 days. And they minimized, fortunately, loss of life.
    However, the damage to the roads and the infrastructure is 
significant. It is important. The government has estimated 
hundreds of millions of dollars in damages.
    I think the assessment is still ongoing, but I think they 
will suffer losses, especially in crops, with the loss of most 
of their bean crop and their corn crop. And those assessments 
are still ongoing, but they are----
    Senator Menendez. We look forward hearing from you as it 
gets finalized, as to what our assistance might be.
    Mr. Namm, you and I had a chance to talk a little bit. You 
have served in a distinguished capacity in your time in the 
Foreign Service. You haven't had a senior political position in 
the hemisphere.
    And I'm wondering, this particular assignment, the 
expulsion of Ambassador Hodges, when her honest assessment of 
corruption in Ecuador was made public through Wikileaks, it 
caused her expulsion. We haven't had an ambassador since. You'd 
be the person to go there, in the light of that set of 
circumstances.
    Do you feel prepared to enter this highly political 
atmosphere? And, two, do you feel constrained in commenting on 
the government's actions or in defending civil society in the 
media, in the light of her expulsion and the consequences 
present in the environment you'll be entering?
    Mr. Namm. If I could, Mr. Chairman, let me take the second 
part first.
    I will feel, if confirmed, absolutely no constraint about 
speaking out for U.S. interests and U.S. values. The President 
and the Secretary seek to send a new Ambassador to Ecuador 
precisely to elevate U.S. engagement to the highest diplomatic 
level in Ecuador.
    Let me also say that I will absolutely not shy away from 
criticizing the Government of Ecuador, when warranted, simply 
because our last Ambassador, Ambassador Hodges, was expelled.
    And more than that, I would, if confirmed, reach out and 
dialogue not only with the government, but with civil society, 
with human rights groups, with the full range of actors in 
Ecuador. And I would absolutely speak with a full-throated 
voice and represent U.S. interests and U.S. values.
    As to the question about my qualifications, the President 
and the Secretary believe I am qualified for this job. During 
the last 2\1/2\ years, I've run an organization with 1,200 
employees with an annual budget in excess of $2 billion, with 
many challenges, both internal to the State Department 
bureaucratic challenges, but also policy issues outside of the 
State Department dealing, for example, with private 
contractors, dealing in some cases with foreign governments.
    As you know, I have experience in the region, two tours in 
Latin America, two tours working in Washington on Western 
Hemisphere issues. I speak excellent Spanish, and have a real 
passion for Latin America, having sent my daughter, Rebecca, 
who is sitting behind me, to a bilingual Spanish elementary 
school, which she attended for 6 years. So this is an area 
where I do have passion.
    I feel that the experience I've gained through my career 
and especially the last 2\1/2\ years running an organization 
the size of the Bureau of Overseas Buildings Operations, with 
all of the issues there, has given me excellent preparation for 
an assignment as Ambassador.
    Senator Menendez. OK.
    We'll talk to Rebecca later and check her Spanish. 
[Laughter.]
    Just kidding. [Laughter.]
    But if she wants to, it's OK.
    Let me ask you, Ms. Cousens, you are not only going to be 
the ECOSOC Representative, but you're also going to be an 
Alternative Representative to the General Assembly. In that 
regard, I would expect that you would be cooperating with 
Ambassador Rice in that portfolio with respect to the 
Palestinians' efforts to obtain membership in the U.N. and its 
affiliated bodies.
    One, can you verbalize for me what we are telling our 
fellow members of the U.N. about that?
    And second, I saw on ECOSOC that several countries that are 
nondemocratic, including Cuba, have been elected. And I am 
concerned about accreditation of legitimate NGOs being stopped 
by such entities.
    Can you talk to me about those two issues, please?
    Ms. Cousens. Yes. Thank you very much, Mr. Chairman. I'm 
happy to.
    The Palestinian issue is not presently among my 
responsibilities, but, if confirmed, it certainly would be. I 
would join my colleagues in working very actively on this 
issue.
    The administration's position has been extremely clear on 
this issue from the time this situation started. There is 
absolutely no shortcut to a Palestinian state. The only path to 
a Palestinian state is through direct negotiations between the 
parties to resolve all permanent status issues.
    Any action that is taken in New York or Paris or anywhere 
else is a distraction and undermines the prospects for peace, 
and the administration has been extremely clear on that point.
    We've also taken immediate and swift action to adhere to 
the legislation following the vote in UNESCO and ceased all 
funding to UNESCO as a result of that vote.
    Senator Menendez. Can you talk to me about the NGO issue 
that you----
    Ms. Cousens. On the NGO committee that you referenced, the 
administration has been, in fact, extremely effective in recent 
years in working to get democratic and diverse NGOs 
accreditation to the U.N.
    The NGO committee is one of the principal venues in which 
we advance our interests and values, and fight very 
aggressively, working with as many partners as we can, to try 
to see a wide and diverse range of NGOs get access to U.N. 
debates and proceedings.
    In just the last year, we managed successfully to overturn 
a decision to bar three NGOs that we felt deserved access to 
the U.N., and actually won their accreditation through ECOSOC 
and saw that as a real victory.
    There was a democracy promotion NGO; one that dealt with 
Syrian human rights issues; and one that dealt with lesbian, 
gay, bisexual and transgender issues. That was seen, and I 
think widely understood, to be a significant victory for both 
the United States and countries who joined us in seeing that 
happen.
    Senator Menendez. Thank you very much.
    Senator Rubio.
    Senator Rubio. Mr. Chairman, with your indulgence, I'm 
going to allow Senator DeMint to go, because he needs to get to 
a meeting, if that's OK.
    Senator DeMint. Thank you, Senator Rubio. Thank you, Mr. 
Chairman.
    I do want to thank all the witnesses for being here today, 
all the nominees. But I'm going to focus all of my comments on 
the nomination of Ms. Mari Carmen Aponte.
    Last year, every Republican on the Senate Foreign Relations 
Committee voted against moving this nomination forward. The 
White House continually denied reasonable requests from 
Senators on this side of the aisle for access to information, 
forcing Senators to consider a nomination without a clear 
picture of the nominee's background.
    Rather than resolve the issue, President Obama gave Ms. 
Aponte a recess appointment to circumvent the Senate 
confirmation process.
    After being forced to withdraw her first nomination under 
President Clinton and failing to be confirmed last year for a 
second nomination, Ms. Aponte is now before this committee a 
third time.
    The White House again declined to provide information to 
Senators.
    I appreciate Senators Menendez and Kerry's efforts to allow 
me to be briefed on the background summary. However, the 
summary that I reviewed generated more questions than answers, 
and it did not address the fundamental questions that have 
arisen from these hearings.
    I appreciate that the White House has committed to get back 
to me with some additional answers, but the fact that they 
could not answer my questions is disturbing. Instead, what we 
have seen are a series of red flags.
    I would like to ask unanimous consent to submit for the 
record an opinion piece published in El Salvador by Ambassador 
Aponte in June of this year.
    Senator Menendez. Without objection.
    [The op-ed article referred to follows:]
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator DeMint. In her op-ed, Ms. Aponte, presuming to 
represent the views of all Americans and strongly promoting the 
homosexual lifestyle, wrote that everyone has a responsibility 
to inform our neighbors and friends about what it means to be 
lesbian, gay, bisexual, and transgender.
    The op-ed upset a large number of community and pro-family 
groups in El Salvador, who were insulted by Ms. Aponte's 
attempt to impose a pro-gay agenda in their country.
    I would also like to ask unanimous consent to submit for 
the record a response to the op-ed from a coalition of more 
than three dozen groups and a letter from Salvadoran groups to 
the United States Senate, asking the Senate to oppose Ms. 
Aponte's confirmation, and I quote, ``We respectfully request 
that Ms. Aponte be removed from post as soon as possible, so 
that El Salvador may enjoy the benefits of having a better 
person as a government representative of your noble country.''
    Senator Menendez. Without objection.
    [The letters referred to follow:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator DeMint. Thank you, Mr. Chairman.
    I would like to apologize to the Salvadoran people on 
behalf of the United States and reassure them that most 
Americans share their values.
    Ms. Aponte's personal, professional, and political contact 
over many years raises numerous questions of judgment.
    I will vote no on Ms. Aponte's confirmation and strongly 
recommend my colleagues do the same.
    And, Mr. Chairman, I'll just ask one question of Ms. 
Cousens, if I might.
    Ms. Cousens, when you were, I think, making a presentation 
about climate change to the General Assembly, you said that the 
outcome should also substantially scale up financial assistance 
to developing countries and promote technological development 
and dissemination.
    It seems reasonable, except for given our fiscal realities 
that our own country is facing, including high unemployment and 
record Federal deficits, do you believe that substantially 
scaling up financial assistance to other countries for climate 
change is still the appropriate policy to advocate?
    Ms. Cousens. Thank you very much, Senator DeMint.
    I appreciate the question and it obviously raises a very 
complex series of issues that are at stake in international 
climate change negotiations and on the broader climate change 
agenda.
    Although I did deliver that statement, in fact, climate 
change is not one of the issues that I work on presently in 
detail, but it would obviously fall, to the extent that it 
arises in New York, under my portfolio if I were confirmed.
    The question of financial assistance to assist countries in 
meeting either mitigation targets or some of the adaptation 
challenges that they face, particularly the poorest countries 
in the world, is one that is part of the ongoing agenda of 
climate discussions and among the ongoing issues that the 
administration addresses in the context of those discussions.
    The results of the last Conference of Parties in Cancun was 
seen to be a significant achievement in taking a more balanced 
approach to the overall issue of climate change, which included 
this issue and efforts to start to address it, and also a more 
balanced approach to commitments from a full spectrum of 
countries to take action that historically they have not always 
been willing to do.
    This is an issue that I would be happy to work on closely 
and consult closely with you going forward, if I were 
confirmed. I'd seek to have a very open line of communication 
on it going forward.
    Senator Menendez. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you.
    I have a similar question for all three of the nominees, 
and it
 involves trafficking in persons. I'll start in El Salvador 
with Ms. Aponte.
    As you know, El Salvador is a tier-two country, which means 
it's a source, destination, and transit country for human 
trafficking. It's taken many antitrafficking measures, but it's 
struggling to address a lot of the complicated aspects of it, 
in particular the
 involvement of MS-13 in those efforts and others.
    I want to focus on two things. One is the strategies that 
we would pursue with them in terms of helping them, because I 
think they want to get it right. And in particular, I've 
identified a subproblem that--it involves their penal code.
    In those countries, they have the laws, and we praise them, 
but, for example, serious offenses like rape carry up to 20 
years' punishment, whereas human trafficking only has penalties 
of 4 to 8 years.
    So have we had any conversations or--obviously, as you've 
outlined, your ability to communicate with the government there 
as measured by how the mission has become kind of a place where 
they all meet. And obviously, President Cristiani being here 
today shows the kind of broad range of people you've been able 
to talk to.
    What efforts do we have, what thoughts do we have, about 
helping them confront the human trafficking problem that they 
face?
    Ambassador Aponte. Senator, thank you very much for the
 question.
    Partnership for Growth, which is a new initiative that we 
have implemented and signed as recently as last week, is a 
massive transformation effort working in partnership with the 
Salvadoran Government to transform the problems of security and 
to address the issue of economic growth in a very different 
way.
    Over the last 6 months, we have negotiated 20 lines of 
actions, and 14 of them are in the area of security. Among 
those areas, we are taking a look at their penal code, their 
courts, and at issues of transparency. So we're going to be 
working with them in addressing issues such as these to see how 
we can partner with them and help them be more efficient in 
addressing their own priorities.
    Senator Rubio. Mr. Namm, the issue in Ecuador is a little 
bit different. They're also a tier-two watchlist country, 
particularly the focus there is on sex trafficking of girls. 
It's become a major issue in Ecuador. But all forms of 
trafficking, including sex trafficking of boys and adults and 
forced labor, all these are increasingly rampant in Ecuador.
    So the general question is, What thoughts do you have or 
bring to the job in terms of making that a priority of our 
engagement there, a national priority in terms of our policy 
and our diplomatic mission?
    And in particular, something that's concerning, the TIP 
report, and State Department explicitly states that Ecuador 
needs to improve its prosecutions and convictions of 
traffickers, but particularly public officials who are 
complicit in trafficking crimes.
    We have had trafficking victims testify that the police in 
Ecuador inform brothel owners of impending raids and in some 
cases engage in sexual exploitation of the victims.
    And so, two things I'd like to get from you today. No. 1 is 
a clear understanding of whether this is going to be a priority 
for us there. And second, whether given our history with the 
country and the expulsion and so forth, whether that would be 
an impediment to us if evidence is available and present of 
calling out the fact that there are governmental institutions 
like the police who are either protecting brothel owners or in 
fact participating in them themselves.
    Mr. Namm. Well, thank you, Senator. I appreciate the 
question, and I very much appreciate the issue.
    Human trafficking is not only a nasty business, it also has 
the potential to affect our national security. And if 
confirmed, combating human trafficking would be one of my top 
priorities in Ecuador.
    Ecuador, you are correct, isn't enforcing the laws that it 
has on the books. My understanding is that there are laws that 
are good laws, but they are not being enforced.
    I am pleased to say that Ecuador last year set up a special 
police unit to combat human trafficking and that special police 
unit has made some gains. There have been a number of arrests 
in human trafficking.
    However, on the prosecutorial side, Ecuador has not done 
enough. And if confirmed, I would work with the Ecuadorian 
Government, and I will also work with civil society, to raise 
the pressure so that more of these human trafficking cases are 
prosecuted and prosecuted successfully.
    Senator Rubio. Thank you.
    And finally, Ms. Cousens, I would say that as we read 
through the background of the jurisdiction, so to speak, of the 
Economic and Social Council, it's pretty broad. But in 
particular, it focuses on promoting respect for human rights, 
but also the social, cultural, educational, health and related 
matters of the nations.
    Clearly, human trafficking preys on two things. And the 
first thing it preys upon or the first thing it relies upon is 
kind of an environment where people are vulnerable, where, in 
essence, life is bad, and they're looking to be taken somewhere 
else with the promise of a better life. And so some of it is 
just a real lack of information at the victim level of what's 
happening.
    And the second thing that it involves, tragically in many 
places, is a government or governmental institutions that are 
cooperative, that basically look the other way, participate in 
a criminal enterprise, tolerate it within their borders.
    And I guess my question in general is, is this an issue 
that we have raised in the past or look forward to raising in 
the future? Not just in the General Assembly, but as part of 
our human rights agenda, that we continue to raise what an 
important issue this is, and offer our hand and our assistance 
in terms of helping countries that want to deal with this, and 
at the same time being very clear the United States is going to 
be a clear voice condemning this practice and calling out those 
nations and those governments that tolerate this or, worse, 
actually participate in this.
    Ms. Cousens. Thank you very much for the question, Senator.
    As my colleagues have just noted, human trafficking is a 
grotesque practice and something against which the 
administration, and the United States for many years, has been 
a leader in speaking out and trying to identify ways to stop 
human trafficking in all its forms.
    This is an issue that would be in my portfolio, if I were 
confirmed in this position, and I would welcome the opportunity 
to make it a priority and to speak out loudly and clearly.
    There are some new mechanisms in the U.N. system that give 
us an opportunity to be even more forceful as an advocate on 
these issues, including the creation of an important new body 
to deal with women's rights around the world. They can be an 
important new partner for us in this.
    But I would very much welcome the opportunity to make this 
issue one of my priorities going forward.
    Senator Rubio. Just as a side note, and much time has 
expired, and I know that others are waiting.
    Just briefly, I would ask you that, in the process of doing 
this, you'll encounter--obviously, the United States has this 
problem as well, and there are issues in our policies, be it 
our immigration policies or law enforcement policies, that may 
be contributing unwittingly to some of this.
    And so as you encounter this issue on the global stage, I 
would also encourage you to bring back to us any suggestions 
that you may have as to how, you know, how some of our policies 
may in an unintended way be contributing to this problem. We've 
heard testimony about that in the last few weeks, about kind of 
how workers fall prey to some of these foreign worker agencies 
that go out and recruit workers to come in to the United 
States. Obviously, these are groups that are participating 
overseas and recruiting people to come here under false 
pretenses.
    So any suggestions that you would have from your post as to 
what we can do internally would be welcome, because what gives 
us credibility on this issue is the fact that we are addressing 
it in an open and frank way, that we recognize any shortcomings 
we may have on this end of the equation. And if we address 
those in an open and frank way, it gives us more credibility to 
urge and ask others to address it as well.
    So I encourage you to bring that back as well.
    Ms. Cousens. Thank you. I welcome the opportunity to do so. 
Thank you.
    Senator Menendez. Senator Risch.
    Senator Risch. Thank you very much.
    Ms. Aponte, when is your term up, the interim appointment--
the appointment that the President made while we were in 
recess? When does that expire?
    Ambassador Aponte. It expires at the conclusion of this 
congressional session.
    Senator Risch. So that's this year, on December 31?
    Ambassador Aponte. Yes.
    Senator Risch. OK. Thank you very much.
    Mr. Namm, you undoubtedly are aware of the important role 
that Ecuador plays as a stepping stone for narcotics into the 
United States, and also that we have gotten, I would say, less 
than full cooperation from the government, particularly where 
they have refused to renew a lease that we needed to operate 
the counternarcotics efforts from that country.
    What are your thoughts in that regard? What are your plans, 
as far as attempting to address that?
    Mr. Namm. Senator, thank you for the question.
    Narcotics trafficking, along with human trafficking, would 
be one of my highest priorities.
    About 30 percent of the cocaine produced in Colombia, Peru, 
and Bolivia transits Ecuador, so it is a very large problem, 
the transit of narcotics in Ecuador.
    The United States has good cooperation with Ecuador. The 
Ecuadorian authorities, both the police and the military, are 
good partners of the United States.
    Seizures, for example, of cocaine are up in 2011 over 2010. 
There have been some other successes.
    You mentioned the closure of our Forward Operating Location 
in Manta, Ecuador. The Ecuadorians did not renew the lease, the 
10-year lease that we had on that Forward Operating Location, 
which, frankly, was a disappointment to the United States. 
However, as a sovereign country, Ecuador had the right not to 
renew that lease.
    Although we no longer have the Forward Operating Location 
in Manta, we go forward with the programs that we have, 
including some assistance to the Ecuadorian Government in this 
regard. There are now also vetted units again in Ecuador.
    So, through these mechanisms of cooperation, we will work 
together. And if confirmed, I will work with the Government of
 Ecuador to increase our effectiveness in the fight against 
narcotic trafficking.
    Senator Risch. Well, I appreciate that.
    I guess I'm not quite as dismissive or understanding as you 
are about canceling that lease. I mean, the simple answer that 
while they're a sovereign nation, they have the right to do 
that, they certainly do. Having said that, it demonstrates a 
less than enthusiastic support of our efforts to try to reduce 
the--I think they say about 220 metric tons of cocaine are 
going to the country, and about 60 percent of it headed for the 
United States. That is a tremendous amount of drugs that are 
trafficking through there.
    And when you have a country that size, it would seem to me 
that it would be a really appropriate place to try to net this 
down. And their refusal to cooperate with us, if you would, to 
me is more serious than simply an exercise of their sovereign 
rights.
    So I hope you'll carry the message that at least some of us 
up here are substantially more aggravated than just 
disappointed in what they've done.
    Thank you very much, Mr. Chair.
    Senator Menendez. Thank you, Senator Risch.
    Let me return to Ambassador Aponte.
    First of all, I want to make a statement for the record.
    In March 2010, I chaired your first nomination hearing 
before this committee. I want to reiterate what I said then 
today, for the record, that I'm convinced that issues raised by 
some of my colleagues about matters in your personal history 
are a nonissue.
    I went to the extraordinary measure--there has been a 
historical pattern in which only one Democrat and one 
Republican get to review the file of any nominee. I forewent my 
own right to do so based upon a previous review, so that my 
colleague could have that opportunity.
    I read that, and as a Member of the United States Congress 
for nearly 20 years now, I take a backseat to no one in terms 
of my advocacy on the question of promoting human rights and 
democracy in Cuba, and certainly in my concerns of the Castro 
regime's effort to proselytize and infiltrate the United States 
Government.
    And if I thought there was a scintilla of an issue there, 
I'd be the first to oppose your nomination.
    And the reality is that there is not. So, I'll stake my 20-
year history of fighting on this issue on that reality.
    Second, while I respect every colleague's view of any given 
work, I had an opportunity to review the opinion piece you 
wrote which has been submitted to the record, and it has 
various elements to it.
    No. 1, it quotes President Obama who declared June 2011 as 
the month of gay pride. Two, it quotes the Secretary of State, 
who talks about gay rights as human rights. And, three, most 
importantly, it talks about the Human Rights Council of the 
United Nations, the United States, and El Salvador, who with 83 
other countries signed a declaration for the elimination of 
violence against the LGBT community, and particularly talks 
about President Funes' signing of Decree 56, which prohibits 
all forms of discrimination by the Government of El Salvador on 
the grounds of sexual orientation or identity.
    It seems to me a description of the views of the Government 
of the United States, at least in the executive branch, and the 
Government of El Salvador, as well as that of the Human Rights 
Council of the United Nations. But I would be remiss at this 
point in the record if I didn't give you an opportunity to make 
any statement that you want to respond to that statement.
    Ambassador Aponte. Thank you very much, Senator Menendez, 
for the opportunity.
    Precisely, I just wanted to underline that this op-ed piece 
just mirrored the policy of the Obama administration and the 
Salvadoran Government, as well as that of 63 other countries.
    It was not meant to insult anyone. It was calling for the 
end of prejudice wherever it existed. And I thought this is a 
very American value, and that's why I decided to do the op-ed.
    I have done other op-eds during the course of my year 
there, one, for example, when President Obama visited the 
country. So this was not unusual that I would write an op-ed.
    I also would like, if I may, to address the issue of my 
withdrawal from a previous nomination. In 1987, I was honored 
to have been nominated by the Clinton administration to serve 
as Ambassador to the Dominican Republic. I was thoroughly 
vetted and I received the top-secret security clearance at that 
time.
    However, my nomination got stalled. When it became clear 
that my record was going to be distorted to embarrass the 
administration, I voluntarily withdrew.
    Senator Menendez. Thank you.
    Ambassador Aponte. Thank you.
    Senator Menendez. I ask unanimous consent that a letter 
from the president and CEO of the National Council of La Raza 
in support of the nomination of Mari Carmen Aponte be included 
in the record.
    Without objection so ordered.
    [The letter referred to follows:]
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Menendez. Senator Rubio.
    Senator Rubio. Thank you.
    Just briefly, just for the record, I have also reviewed 
that file, Mr. Chairman, and I have nothing to add to what 
you've already said.
    The second thing I would ask, because it might just help in 
terms of--some people in the audience or even watching may 
wonder what we're all talking about, so let me just--I think 
this might help. And it may sound weird to people, I'm asking 
you this when you're going to El Salvador, but let's just do 
this.
    What are your views of the role Cuba plays in the 
hemisphere and the Cuban Government plays in the hemisphere? 
What are your views of the Cuban Government, its nature, and 
the role that it plays in the hemisphere?
    Ambassador Aponte. I think the Cuban Government is a 
totalitarian government. I think that it has sought to 
influence other governments in the hemisphere to follow suit.
    The Government of El Salvador has certainly not done that, 
even though some elements of the FMLN in power have sought to 
radicalize the President and some people in his Cabinet.
    We have worked very hard to make sure that we exert 
influence in support of democracy and stability in El Salvador.
    I have publicly called for President Funes to have a 
conversation with Castro on the issue of the type of democracy 
that elected him and brought him into power.
    Senator Rubio. And just as a followup, in the interest of 
fairness, and I don't want to get into a lot of detail. I just 
don't want to make it more uncomfortable and more difficult for 
anyone.
    Earlier this year, Ambassador Aponte was helpful in our 
efforts to assist someone who was within El Salvador who had 
escaped the Cuban regime, and the Cuban regime was trying to 
get them back and was advocating to the Government of El 
Salvador that this individual be returned to Cuba. And the 
Embassy, under her watch, and her in particular, were very 
helpful in ensuring that that gentleman reached freedom. So I 
want to put that on the record, because I want to be fair.
    The last thing I need to ask you was about the op-ed, just 
kind of elaborate a little bit more as to why you felt it was 
necessary to write that. Why did you feel--it is not--maybe 
it's usual. I haven't seen that in other posts. But why did you 
feel it was necessary to write that, to make that something 
associated with our diplomatic mission in El Salvador?
    Ambassador Aponte. As part of the messages that are 
conveyed in the region, there are certain messages on certain 
issues that ambassadors write about; for example, citizen 
security and human rights. That's how it came about, the human 
rights op-ed. I wrote about the human rights.
    Senator Rubio. Is there anything in Salvadoran society, for 
example, that prompted you to do that? Was this an issue that 
was going on within El Salvador? Was this an issue that was 
being debated publicly? Was it a controversial issue before you 
wrote it or----
    Ambassador Aponte. It became a controversial issue after I 
wrote it. It provoked public debate and----
    Senator Rubio. And here's what I'm trying to get at. I'm 
just trying to deduce your judgment as to why you felt it was 
necessary to write an op-ed about that, as opposed to write an 
op-ed about some other issues. You could write about human 
trafficking, too----
    Ambassador Aponte. It was human rights, and I felt strongly 
about human rights.
    Senator Rubio. OK.
    Ambassador Aponte. And it was human rights month.
    Senator Rubio. Thank you.
    Ambassador Aponte. Thank you.
    Senator Menendez. You wrote this in June 2011. The 
President proclaimed in June 2011 the recognition of the rights 
of individuals of people who are gay and lesbian. So did that 
instigate you to follow suit?
    Ambassador Aponte. Yes, that and Secretary Clinton's 
proclamation as well.
    Senator Menendez. And the fact that President Funes signed 
Decree 56, which prohibited all forms of discrimination by the 
Government of El Salvador on the grounds of sexual orientation 
or identity, was that a motivating factor for you as well?
    Ambassador Aponte. Absolutely, it was.
    Senator Menendez. Thank you.
    Ambassador Aponte. Thank you.
    Senator Menendez. If there are no other questions from 
members of the committee, we thank all of the nominees. If 
there is a question that comes for the record for any of you, 
we ask you to answer it expeditiously, so your nominations 
could be considered.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:58 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


       Responses of Roberta S. Jacobson to Questions Submitted by
              Senators John F. Kerry and Richard G. Lugar

    Your response to Question A.8 of the committee questionnaire 
indicates that since 2007, you have held the following positions in the 
Department of State:

  2007-2010  Deputy Assistant Secretary of State, Bureau of Western 
            Hemisphere Affairs
  2010-present  Principal Deputy Assistant Secretary of State, Bureau 
            of Western Hemisphere Affairs

    In your ethics undertakings letter, you commit that you and your 
spouse will divest of your interests in the following entities within 
90 days of your confirmation to the position to which you have been 
nominated:

    Cenovus Energy, Inc.
    Ecopetrol, S.A.
    ARC
    Calfrac Wells Services Ltd.
    Crescent Point Energy Corp.
    Franco Nevada Corp.
    Spectra Energy Corp.
    Sociedad Quimica Minera de Chile S.A.

    Please respond to the following questions with respect to your 
interests in these entities:

    Question #1. Please indicate the date on which you and/or your 
spouse first acquired an interest in each entity.

    Answer. Cenovus Energy, Inc.--4/30/11, $29,218. Ecopetrol, S.A.--1/
19/10, $9,133; 3/19/10, $1,481. ARC--8/28/09, $5,615; 9/28/09, $2,082. 
Calfrac Wells Services Ltd.--1/19/10, $8,618; Sold in full on 1/12/11 
and 5/16/11. Crescent Point Energy Corp.--12/04/09, $1,843. Franco 
Nevada Corp.--9/08/09, $5,635; 11/4/09, $2,168. Spectra Energy Corp.--
1/19/10, $9,133; 3/19/10, $1,481. Sociedad Quimica Minera de Chile 
S.A.--11/17/08, $6,320.

    Question #2. Please indicate the dates and amounts of any purchases 
or sales you and/or your spouse made of shares in any of these entities 
between 2007 and the present. You may omit transactions involving the 
reinvestment of dividends.

    Answer. Cenovus Energy, Inc.--Purchased: 4/30/11, $29,218. 
Ecopetrol, S.A.--Purchased: 1/19/10, $9,133; Purchased: 3/19/10, 
$1,481. ARC--Purchased: 8/28/09, $5,615; Purchased: 9/28/09, $2,082. 
Calfrac Wells Services Ltd.--Purchased: 1/19/10, $8,618; Sold in full 
on 1/12/11 and 5/16/11. Crescent Point Energy Corp.--Purchased: 12/04/
09, $1,843. Franco Nevada Corp.--Purchased: 9/08/09, $5,635; Purchased: 
11/4/09, $2,168. Spectra Energy Corp.--Purchased: 1/19/10, $9,133; 
Purchased: 3/19/10, $1,481. Sociedad Quimica Minera de Chile S.A.--
Purchased: 11/17/08, $6,320.

    Question #3. Pursuant to 18 U.S.C. 208(a), a federal employee is 
generally prohibited from participating personally and substantially in 
an official capacity in any particular matter in which, to his 
knowledge, he or any person whose interests are imputed to him under 
this statute has a financial interest, if the particular matter will 
have a direct and predictable effect on that interest.
    Please describe the steps you have taken to ensure your compliance 
with 18 U.S.C. 208(a) with respect to the relationship between your and 
your spouse's interests in these entities and the performance of your 
official duties.

    Answer. I am very aware of my outside financial interests, 
including those imputed to me, and am diligent in recusing myself from 
working on any particular matter in my official work having an effect 
on those entities.
    In reviewing my calendar and upcoming travel, I pay close attention 
to the private parties involved in any particular meeting or event to 
avoid any actual or appearance of a conflict. In cases where a meeting 
or event could create an actual or appearance of a conflict, I have 
recused myself.
    While this system has worked well to date, given the greater 
responsibilities of the Assistant Secretary position, within 90 days of 
confirmation, I will divest my financial interest in the above list of 
companies. I will also continue to be diligent about my remaining 
financial interests and will recuse myself as appropriate from any 
matter at work. My executive assistant also helps me screen my 
activities for conflicts purposes.

    Question #4. Please indicate whether you have participated in any 
particular matter affecting your interests in any of these entities 
during the time you have been an official of the Department of State. 
Please describe any such matters in which you have participated, and 
the basis on which your participation was consistent with relevant 
federal ethics law and regulations.

    Answer. As indicated above I have recused myself from participating 
in any matter at work affecting my personal financial interests.

    Question #5. Please indicate whether you consulted with relevant 
federal ethics officials before your initial decisions to invest in 
these entities for advice on whether these investments could create a 
conflict of interest with the performance of your official duties. 
Please describe any guidance you received in any such consultations.

    Answer. While I did not consult with ethics officials before 
investing in these entities, I have been actively aware of the legal 
requirement to recuse myself from participating in any matter that 
could affect my personal financial holdings and have diligently done so 
throughout my career. With respect to the eight specific holdings noted 
in the question above, both the decision to invest and the actual 
purchases were made independently by my financial portfolio manager and 
not by me personally. I was not consulted prior to the purchases. This 
financial manager handles such purchases for all the accounts held by 
myself and two siblings.

    Question #6. Please indicate whether you consulted with relevant 
federal ethics officials at any point subsequent to your initial 
investments in these entities for advice on whether these investments 
created a conflict of interest with the performance of your official 
duties. Please describe any such consultations and any guidance you 
received.

    Answer. Yes. As required by federal ethics rules, I have always 
reported all holdings and transactions on my annual financial 
disclosure forms since their initial investment. I have on several 
occasions discussed my holdings with relevant federal ethics officials 
at the Department of State as part of their review process.
    I estimate that I have had three consultations with relevant ethics 
officials in the Office of the Legal Adviser since joining the Western 
Hemisphere Affairs front office. The substance of these consultations 
included whether my investments created a conflict of interest with the 
performance of my current duties. Up until my nomination to be 
Assistant Secretary of State for Western Hemisphere Affairs, it has 
always been concluded that I could maintain my investments--given the 
low likelihood of my ability to directly affect the financial interests 
of these companies or the sector--provided that I recuse myself on a 
case-by-case basis from any matters that could affect my holdings.
    Per the above discussions, I have always been extremely careful to 
recuse myself whenever necessary. For example, I have recused myself 
from any matter involving the Keystone pipeline, given my investments 
in the region. Similarly, during my September 2011 trip to Brazil, I 
chose not to hold a meeting with U.S. oil and gas companies operating 
there. Additionally, since becoming a Deputy Assistant Secretary of 
State in 2007, as a matter of personal policy I almost always hold 
meetings with Chambers of Commerce when I travel, rather than with one 
particular industry or company.
    Finally, between July 2011 and September 2011 and prior to my 
nomination, I consulted with relevant federal ethics officials 
regarding these entities on approximately 10 occasions. These 
discussions led to the decision to divest these holdings upon 
confirmation.

    Question #7. Please explain why you chose to invest in these 
entities during a period in which you held senior positions responsible 
for formulating and implementing U.S. policy with regard to the Western 
Hemisphere. Please indicate whether you believe these investments 
created the potential for an appearance of a conflict of interest with 
the performance of your official duties.

    Answer. As I noted in my response to question 4, the initial 
investment in these entities was made by my personal financial 
portfolio manager. I did not direct the purchase of these entities. 
Based on previous years financial disclosure reviews, I was actively 
operating under a recusal approach to any investments I held. Prior to 
my nomination to the Assistant Secretary of State position, and as 
outlined above, I participated in a number of consultations with 
relevant ethics officials and ultimately it was determined that it 
would be best if I divested in full those entities given the heightened 
responsibilities of the Assistant Secretary position.
    Furthermore, along with my divesting the entities that I have 
outlined to the committee, I have instructed my financial manager 
moving forward to not purchase individual securities with significant 
operations in the Western Hemisphere, with a strong preference for 
diversified mutual funds in the future.
                                 ______
                                 

       Responses of Roberta S. Jacobson to Questions Submitted by
                        Senator Richard G. Lugar

    Despite the recent passage of free trade agreements with Colombia 
and Panama, U.S. engagement with Latin America has struggled from 
perceptions that our government has neglected the region. Although 
these perceptions may, in some cases, be an oversimplification, U.S. 
involvement with Latin America over the last 2 years has missed 
important opportunities to advance our mutual interests.
    Many Latin American countries, beset in the past by debt defaults, 
currency devaluations and the need for bailouts from industrialized 
countries, are experiencing economic growth. Strong demand in Asia for 
commodities like iron ore, tin, and gold, combined with policies in 
several Latin American economies that help control deficits and keep 
inflation low, are encouraging investment and fueling much of the 
growth. The World Bank forecasts that the region's economy will grow by 
4.5 percent this year.
    The United States is being displaced in South America as the 
preferred and logical trading partner. U.S. market share is being lost 
to China, Brazil, Canada, and other countries that understand that 
Latin America is a fast moving, competitive environment. With this loss 
of market share, we are simultaneously losing influence in the region 
and jobs here at home.
    The delay in concluding trade agreements with Panama and Colombia 
has already resulted in significant loss of U.S. market share in those 
countries. In Panama, large-scale projects, such as the $5.25 billion 
Panama Canal Expansion, the $1.5 billion Panama City Metro, and 
hundreds of millions of dollars in highway expansion contracts have 
been awarded to non-American firms.
    The United States recently lost its position as Colombia's No. 1 
agricultural supplier. Total U.S. agricultural exports to Colombia 
decreased from $1.8 billion in 2008 to $827 million in 2010.
    Now that the free trade agreements with Colombia and Panama are 
concluded, the President should be accelerating the priority of much 
broader trade initiatives like the Trans-Pacific Partnership and a 
revival of the Doha round. If he does not commit the prestige of his 
office to an aggressive campaign to open markets, he will be weakening 
chances for sustained economic growth in our own country.
    In the region, President Obama should propose that we initiate 
negotiations on a market access agreement with MERCOSUL, the Southern 
Common Market, which is led by Brazil. The export potential of such a 
landmark agreement could create enormous job growth in the United 
States and help solidify our political and strategic relations in South 
America. In addition, the President should work toward congressional 
ratification of a Bilateral Tax Treaty with Brazil and Chile that could 
greatly expand our economic links with the region.
    The administration should also consider a free trade agreement with 
Caribbean Nations and Uruguay, and an enterprise fund for Haiti, among 
other important commercial priorities.
    To do this, we must articulate a clear sense of our interests and 
develop a more effective means for advancing those policies.
    I am optimistic about the potential for our relationship with 
countries in the Western Hemisphere. But to be successful, broadly 
speaking, the administration must move beyond rhetoric to construct a 
bold trade, commerce, security and energy agenda with countries in the 
Western Hemisphere.
    With sustained attention, we can work with countries in the region 
to make the most of the mutual opportunities that are emerging in the 
hemisphere to create jobs and safeguard our security. To that effect, 
please respond to the following questions regarding Western Hemisphere 
affairs.

    Question. Over the past 17 years, the United States has entered 
into six free trade agreements covering 11 Latin American countries. 
The following Caribbean countries do not have a free trade agreement in 
force or under consideration with the United States: Anguilla, Antigua 
and Barbuda, Bahamas, Barbados, Belize, Cayman Islands, Dominica, 
Grenada, Guyana, Haiti, Jamaica, Montserrat, St. Kitts and Nevis, St. 
Lucia, St. Vincent and the Grenadines, Suriname, and Trinidad and 
Tobago.
    In South America, these countries include: Argentina, Brazil, 
Paraguay, and Uruguay. Are there any plans to enter into any of the 
following trade and investment arrangements with the above listed 
countries: free trade agreements (FTAs), unilateral preferential tariff 
arrangements, bilateral investment treaties (BITs), and trade and 
investment framework agreements (TIFAs)? If yes, which countries are 
being targeted and why? Broadly speaking, what is the administration's 
agenda for trade expansion in the Western Hemisphere?

    Answer. In 1991, the United States entered into an Agreement 
Concerning a Council on Trade and Investment with the Member States of 
CARICOM. USTR is leading negotiations with CARICOM to update this 
agreement. The Caribbean Basin Initiative (CBI) provides unilateral 
trade preferences to 17 beneficiary countries.
    The United States and Jamaica have a Bilateral Investment Treaty 
(BIT), which entered into force on March 7, 1997. The United States and 
Trinidad and Tobago have a BIT, which entered into force on December 
26, 1996.
    The United States and Uruguay have a BIT, which entered into force 
on November 1, 2006. In January 2007 the United States and Uruguay 
signed a Trade and Investment Framework Agreement (TIFA), followed by 
substantive annexes on the environment and trade facilitation signed in 
October 2008.
    The United States and Argentina have a BIT, which entered into 
force in 1994. We have a U.S.-Paraguay Joint Commission on Trade and 
Investment, established in 2004.
    USTR has the lead on trade policy, with strong support from the 
State Department and other U.S. agencies. The State Department sees the 
recently concluded free trade agreements with Panama and Colombia as 
moving us closer to a hemispheric trade partnership reaching from the 
Arctic to the tip of South America. USTR is working to complete the 
Trans-Pacific Partnership negotiations, which involve two Western 
Hemisphere countries, Chile and Peru. Other countries may seek to join 
the TPP process as well. We also continue to explore ways to deepen 
regional integration through our existing bilateral trade agreements.

    Question. Similarly, a market access agreement with MERCOSUL, the 
Southern Common Market, would create a key market for U.S. exports, 
which would strengthen regional ties and promote job growth in the 
United States. Does the administration plan to negotiate a market 
access agreement with MERCOSUL? Why or why not? If so, at what stage in 
the process are negotiations?

    Answer. USTR has the lead on trade policy issues, with support from 
the Department of State and other agencies.
    The United States has significant trade engagement with the 
MERCOSUL countries. We have Bilateral Investment Treaty (BITs) with 
Argentina and Uruguay. In addition, the United States and Uruguay 
signed a Trade and Investment Framework Agreement (TIFA) in 2007, and 
subsequently agreed to substantive annexes on environment and trade 
facilitation. With Paraguay, we have a Joint Commission on Trade and 
Investment. During his visit to Brazil in March 2011, President Obama 
announced the creation of the U.S.-Brazil Commission on Economic and 
Trade Relations, under the Agreement on Trade and Economic Cooperation. 
This Commission replaced the U.S.-Brazil Bilateral Consultative 
Mechanism, and will facilitate future cooperation on trade and energy 
issues, among others, opening up additional possibilities for closer 
economic ties.
    We will continue working with our partners in MERCOSUL to deepen 
existing agreements as well as pursue cooperation in areas of mutual 
interest through established mechanisms such as the Commission on 
Economic and Trade Relations and the Economic Partnership Dialogue with 
Brazil.
    MERCOSUL has been pursuing free trade agreements with the EU and 
Canada, but both negotiations have stalled over many of the same issues 
that we would likely encounter if MERCOSUL and the United States were 
to seek an agreement--notably, market access and agriculture.

    Question. On March 18, 2011, I introduced a Senate resolution 
calling for a U.S.-Brazil tax treaty to strengthen investment relations 
between the two countries. Brazil is the largest economy with which the 
United States does not currently have a bilateral tax treaty.
    A tax treaty based on OECD Model Tax Convention principles would 
provide a solid basis for investment between these two countries 
because these principles would apply to transfer pricing, information 
exchange, tax dispute resolution, and withholding rates. Overall, a 
bilateral tax treaty would strengthen investment relations and increase 
economic output in both nations. Does the administration plan to 
establish a bilateral tax treaty with Brazil? If not, what is the 
reasoning for not pursuing a tax treaty at this time? If so, what are 
the next steps to be taken in the tax treaty process?

    Answer. I appreciate your leadership on this issue. The 
administration remains interested in concluding a bilateral tax treaty 
with Brazil that would be consistent with international standards and 
provide meaningful tax benefits to cross-border investors. The United 
States and Brazil have held a number of consultations since 2006 to 
determine the feasibility of concluding such an agreement, and will 
continue these discussions. In addition, the United States signed a Tax 
Information Exchange Agreement (TIEA) with Brazil in 2007. The TIEA was 
approved by Brazil's House of Representatives in February 2010 and is 
awaiting approval by Brazil's Senate, which is required in order to 
bring the agreement into force.

    Question. Similarly, a bilateral tax treaty with Chile based on 
OECD Model Tax Convention principles would improve investment relations 
between the United States and Chile and make U.S. businesses more 
competitive in Chile. The United States and Chile signed a tax treaty 
in February 2010, but President Obama has not yet submitted it to the 
Senate for advice and consent. Why hasn't the administration submitted 
the Chile tax treaty to the Senate for advice and consent? When does it 
expect to do so? Are there any additional Latin American countries with 
which the United States is considering a tax treaty?

    Answer. Bringing the U.S.-Chile tax treaty into force is an 
important U.S. policy objective, and we look forward to transmitting 
this tax treaty to the Senate for its advice and consent to 
ratification. The administration continuously evaluates the 
possibilities to conclude comprehensive bilateral tax treaties with our 
significant Latin American trading partners that would follow 
international standards and provide meaningful tax benefits to cross-
border investors.

    Question. In May 2011, I introduced legislation that would lead to 
the establishment of the Haitian-American Enterprise Fund to strengthen 
the private sector, to create jobs, and to establish sustainable 
revenue streams to ensure long-run economic progress in post-earthquake 
Haiti. The Haitian-American Enterprise Fund is modeled after successful 
post-cold-war enterprise funds that were originally introduced by 
Senator Lugar over 20 years ago. At my request, six former directors of 
enterprise funds for Eastern Europe and the former Soviet Union 
traveled to Haiti in April 2011 to assess the status of the private 
sector and to determine if an enterprise fund model would work in 
Haiti. Following their trip, these former directors unanimously agreed 
that Haiti would benefit from an enterprise fund. Do you support the 
Haitian-American Enterprise Fund model to spur private sector growth in 
Haiti? Why or why not?

    Answer. Thank you for your constant support for Haiti recovery 
efforts and for your focus on the long-term challenge of economic 
development in Haiti. We are directly supporting several promising 
efforts to spur private sector growth by helping Haitian banks increase 
access to credit for micro, small, and medium-sized enterprises 
(MSMEs); promoting agricultural value chains; and opening a new 
opportunity for light industry at the Carocol Industrial Park. The 
administration would welcome the authority to further promote private 
sector growth in Haiti--including authority to establish a Haiti 
Enterprise Fund.

    Question. Given Brazil's status as the largest economy in Latin 
America and one of the largest democracies in the world, U.S.-Brazilian 
relations are important to Western Hemisphere economic and security 
issues, especially. Nevertheless, during the course of the last 2 years 
the United States and Brazil have failed to agree on several key 
issues, from trade to narcotrafficking cooperation, to climate change. 
And, seemed to be working at cross-purposes regarding policies relating 
to Iran, Honduras, and Venezuela, among others. In some regards, Brazil 
has become a contrarian to the U.S.'s role in Latin America and the 
world, and seems to aspire to minimize U.S. influence.

  <bullet> Please assess the current U.S. relationship with Brazil and 
        explain our foreign policy to Brazil. How is the United States 
        working with Brazil throughout Latin America and the world? 
        What is the administration's view regarding Brazil's global 
        ambitions? Does Washington regard Brasilia as a partner in 
        regional affairs and global affairs?

    Answer. The United States and Brazil enjoy a close, rapidly 
expanding, and deepening partnership. President Obama's visit to Brazil 
in March highlighted the depth of the relationship between Brazil and 
the United States, which is based on shared values and the ties of 
friendship. Our countries reached a series of important agreements and 
understandings during the visit, including an Agreement on Trade and 
Economic Cooperation, an Agreement on Air Transportation and associated 
Memorandum of Consultations on Air Transportation, and a Memorandum of 
Understanding on programs that will promote decent work conditions in 
third countries.
    Our bilateral and multilateral cooperation with Brazil is advanced 
through three Presidentially mandated dialogues--the Global Partnership 
Dialogue, Strategic Energy Dialogue, and Economic and Financial 
Dialogue--as well as other ministerial dialogues, including the U.S.-
Brazil Commercial Dialogue, Economic Partnership Dialogue, Political-
Military Dialogue, Defense Bilateral Working Group, Bilateral Consular 
Dialogue, U.S.-Brazil CEO Forum, and U.S.-Brazil Commission on Economic 
and Trade Relations.
    In addition, we partner with Brazil on a host of regional and 
global issues. We engage with Brazil in development and food security 
cooperation in Africa and have excellent ongoing cooperation in Haiti 
where Brazil leads the United Nations Stabilization Mission in Haiti. 
We jointly cooperate on renewable energy, including on biofuels 
research, standards, and the promotion of clean biofuels' use in third 
countries. We collaborate on sustainable urban development and planning 
issues and promote educational and scientific exchanges, and we share a 
commitment to combat racial discrimination, advance the empowerment of 
women, and fight exploitative child and forced labor. In these and 
other areas, the U.S.-Brazilian partnership can have a major positive 
global impact.

    Question. Brazil reportedly will make local content rules stricter 
in regard to development of its offshore energy production. According 
to one estimate, such a rule could reach 95 percent by 2017. What is 
your view on the risks and benefits of such a strategy? If confirmed, 
what will you do to promote U.S. participation in the energy sector 
supply chain?
    In the 1990s, Petrobras was part-privatized, a crucial step that 
has facilitated Petrobras rise as a prominent global oil and gas 
producer. In development of the pre-salt oil production, however, the 
Government of Brazil seems to have reversed position, establishing Pre-
Sal Petroleo and requiring that Petrobras be the operator of all 
development. If confirmed, what message would you deliver to the 
Government of Brazil on foreign company access to new oil developments?

    Answer. We appreciate, and have shared our view with Brazilian 
authorities, that excessive local content requirements run the risk of 
hampering efficient exploration and development and reducing the 
overall capacity for the safe extraction of oil and gas. Brazilian 
officials say the intent of such a policy is to help the economic and 
industrial growth of Brazil while creating opportunities for oil 
development. If confirmed, I intend to support the Department's 
involvement in key energy cooperation mechanisms with Brazil, notably 
the Strategic Energy Dialogue. The dialogue provides an excellent 
opportunity to ensure the best possible communication with the 
Brazilian Government on energy matters, including to express our 
concerns about increased local content requirements. We also intend to 
use the dialogue and other opportunities for engagement with public and 
private sector stakeholders to find more ways to provide opportunities 
for U.S. businesses.
    It's important to note that while the Government of Brazil has 
designated Pre-Sal Petrolero and Petrobras as the primary drivers of 
pre-salt oil development, the implementation and implications of the 
law are still being determined. Regardless of such advantages, 
Petrobras can and often does partner with other foreign and domestic 
oil and gas companies to develop oil and gas blocks. In addition to the 
potential for partnership and for service-provision, there are 
considerable opportunities for U.S. companies to bring their technical 
expertise to Brazil. Several collaborative technology centers-of-
excellence are being established in Rio de Janeiro by leading 
international firms, including notable U.S. companies. These projects 
aim to address safety, accelerate deepwater field development, optimize 
production from mature fields, and develop cost-effective technology 
for drilling and geosciences. If confirmed, I will convey to the 
Government of Brazil the view that participation from a variety of 
highly competent and experienced entities, including American firms, 
will be important to the long-term success of the oil and gas industry 
in Brazil and the expeditious development of oil production, which will 
help supply global oil markets over the medium term.

    Question. Is the administration interested in seeking congressional 
support to devise a comprehensive framework regarding trade, energy, 
and cooperation to fight drug trafficking in South America and Africa, 
with Brazil?

    Answer. We welcome and deeply appreciate congressional views and 
collaboration with respect to policies and programs in the region. If 
confirmed, I look forward to continued support in this regard from 
Members of Congress and their staff.
    During the President's trip to Brazil in March, he and President 
Rousseff laid out a framework for our bilateral relationship composed 
of dialogues, which both countries coordinate at the ``Presidential 
level,'' though Presidents have delegated the responsibility for the 
meetings to the appropriate Cabinet members. These include, the Global 
Partnership Dialogue, led by the Department of State; the U.S.-Brazil 
Economic and Financial Dialogue, led by the Department of the Treasury; 
and the U.S.-Brazil Strategic Energy Dialogue, led by the Department of 
Energy, and are all considered Presidential under this rubric.
    The Global Partnership Dialogue (GPD), which last occurred on May 
31 and June 1 and which was chaired by Secretary Clinton and Foreign 
Minister Patriota, reflects the increasingly global nature of the U.S.-
Brazil relationship and provides for engagement on economic 
cooperation, energy, counternarcotics, multilateral and trilateral 
cooperation, innovation, human rights, and hemispheric issues.
    There were a number of significant outcomes from the productive 
discussions during the last GPD, including:

  <bullet> Both sides welcomed progress on the Memorandum of 
        Understanding to advance biofuels cooperation, including the 
        aviation biofuels partnership, sustainability indicators for 
        bioenergy under the Global Bioenergy Partnership, and the 
        provision of a $3 million grant through the Organization of 
        American States to deepen cooperation with third-country 
        partners.
  <bullet> The United States and Brazil committed to advancing 
        technical collaboration on science, technology, innovation, the 
        environment, and natural disaster response.
  <bullet> The United States and Brazil also discussed political and 
        security issues, including counternarcotics cooperation in 
        Bolivia, the Central American Citizen Security Initiative, and 
        law enforcement training.

    Question. With both the Olympics and World Cup being held in Brazil 
in coming years, myriad commercial opportunities exist to build 
infrastructure in Brazil and create U.S. jobs. What steps has the State 
Department taken, if any, to facilitate American entrepreneurs 
interacting with Brazilian interlocutors to build this infrastructure?

    Answer. Although Brazil has had experience with major events such 
as the Pan American Games, the world sporting events that Brazil will 
host every year from 2011 to 2016 will present unprecedented 
challenges, particularly with respect to infrastructure development and 
creation of complex systems, areas in which U.S. firms excel. The steps 
Brazil is taking to successfully surmount these challenges will offer 
numerous trade and investment opportunities for U.S. companies in a 
wide variety of sectors, including construction and engineering, 
advanced technologies (including green technologies), services (such as 
financial and legal services, insurance, and leasing) and security 
systems.
    Tenders related to the Olympic Games are still in their initial 
stages and thus procurement directly related to the Olympic Games has 
not yet begun full-force. In addition to procurement by the Brazilian 
Olympic Public Authority, Rio de Janeiro's city and state governments, 
and the Brazilian arm of the International Olympic Committee will also 
issue public tenders to procure goods and services. These projects, 
many of which will be public-private partnerships, are still in the 
planning phase and must be approved by the International Olympic 
Committee. Tenders for these projects and activities are expected to 
open after the 2012 London Olympic Games. Along with our colleagues at 
the Department of Commerce's Foreign Commercial Service, with the 
support of the White House, the Department of State is starting now to 
ensure that U.S. companies get the access, information, and exposure 
they need to tap into this market in formation.
    To set the stage for bilateral cooperation in preparation for the 
games and for U.S. companies' investments, during President Obama's 
March visit to Brazil, a memorandum of understanding was signed on 
cooperation was signed on the upcoming global sporting events hosted by 
Brazil, aimed at intensifying bilateral cooperation, particularly on 
infrastructure, safety, and security. During that visit our governments 
also signed an ``Open Skies'' agreement which expands international 
commercial air transport services between our two countries, which 
could be advantageous for U.S. airlines in the context of anticipated 
greater flows of individuals to attend the games.
    The Department of State is also collaborating closely with other 
agencies on initiatives that foster cooperation with Brazil on the 
upcoming Major Events. With the support of the Department of State and 
in support of the Energy and Climate Partnership of the Americas, the 
Environmental Protection Agency is leading for the U.S. Government the 
Joint Initiative on Urban Sustainability, an ambitious effort in 
collaboration with the Government of Brazil to encourage that games-
related infrastructure investments are sustainable, which creates new 
opportunities for U.S. companies in the energy-efficient technologies 
and green building materials sectors. Additionally, the Department of 
Commerce's Foreign Commercial Service and Mission Brazil are 
participating in National Export Initiative events in the United States 
to promote investments in Brazil in preparation for the games and are 
organizing numerous State-level trade missions.
    Finally, the Department and other U.S. agencies are supporting the 
trade promotion activities of U.S. States. In October, the Governor of 
Florida led a delegation of more than 200 companies to Sao Paulo to 
explore commercial opportunities and contacts. Mission Brazil will host 
additional trade missions from Maine, Massachusetts, and Idaho before 
the end of 2011.

    Question. Please explain your views regarding the domestic security 
challenges that Brazil must overcome to ensure that the Olympics and 
World Cup occur smoothly and that U.S. and international visitors to 
Brazil do not face robberies, petty crime, or personal injury. How is 
the United States working with Brazilian security forces in the 
security preparations for these events?

    Answer. We believe that the Government of Brazil takes seriously 
its responsibility to provide safe and secure venues for the increasing 
number of international events held in Brazil. To enhance security 
arrangements for the major sporting events, Brazil has established a 
Security Secretariat for Special Events to serve as a hub for national, 
state, and local security efforts. At Brazil's request, U.S. security 
officials are in direct and regular contact with the Secretariat to 
share best practices and real-time information regarding potential 
threats to the safety of players, organizers, audience members, 
travelers to Brazil, and the general public.
    The U.S. Government has developed a robust strategy to help Brazil 
prepare for events such as the 2014 World Cup and 2016 Olympic Games. 
Through the State Department's Anti-Terrorism Assistance program, 
Brazilian Federal and State Police Officers attended seven courses on 
major security events in FY 2011. The courses cover topics such as 
Quality Control in Civil Aviation Security, Preventing Attacks on Soft 
Targets, Chemical, Biological, Radiological, & Nuclear Hospital-Based 
Management of Mass Casualty Incidents, Critical Incident Management, 
VIP Protection, Fraudulent Document Recognition and Tactical Management 
of Special Events, Police Leaders Role in Combating Terrorism, and 
Senior Crisis Management.
    In addition, we have developed a Voluntary Visitor Exchange Program 
and three International Visitor Leadership Programs for officials 
tasked with planning and providing security at major events. These 
programs provide opportunities for senior officials from the Brazilian 
State Security Secretariats that will host World Cup matches to meet, 
liaise, and share best practices with U.S. Federal, State, and local 
law enforcement authorities experienced in providing security for major 
events.

    Question. It is my understanding that the Government of Argentina 
has recently become the first country in the 30-year history of the 
ICSID Convention--the most widely used international arbitral body in 
the world--to refuse voluntary payment of ICSID awards. Argentina's 
actions are not only harming U.S. companies that have invested in 
Argentina, the Argentines are establishing a dangerous precedent that 
other countries may follow. What actions has the U.S. Government taken, 
to encourage Argentina to abide by the ICSID Convention?

    Answer. The United States has repeatedly raised the final and 
enforceable International Centre for the Settlement of Investment 
Disputes (ICSID) awards against Argentina with Argentine Government 
officials at the highest levels, and will continue to do so in the 
future. The United States will continue to remind the Government of 
Argentina of its international obligations, stress the importance of 
maintaining a fair and transparent investment climate that includes 
functional dispute resolution mechanisms, and underscore the extent to 
which foreign investment is critical to Argentina's economy. In 
addition, the administration is now reviewing two petitions filed by 
U.S. companies that seek the removal of Argentina's eligibility from 
the Generalized System of Preferences based on the Argentine 
Government's alleged failure to act in good faith in recognizing as 
binding or in enforcing arbitral awards owed to the petitioners.
    In September 2011, due in part to these concerns, the Treasury 
Department began instructing the U.S. Executive Directors at the World 
Bank and Inter-American Development Bank to vote against all loans to 
Argentina. The Treasury Department may make exceptions when programs 
effectively target very poor and vulnerable populations, because the 
administration does not believe these populations should be denied 
assistance as a result of their government's policy choices. As noted, 
this new policy responds to serious concerns about Argentina's failure 
to resolve pending ICSID arbitral claims and take the necessary steps 
to fully and conclusively normalize relations with its creditors.

    Question. During the September 21st House Financial Services 
Committee hearing on multilateral development banks, Marisa Lago, 
Treasury's Assistant Secretary for international markets and 
development, announced that the administration will oppose all loans 
from multilateral development banks to Argentina. This policy was 
adopted by the Department of Treasury in response to Argentina's 
repeated failure to respect more than 100 U.S. court judgments in favor 
of U.S. creditors against Argentina. Does the State Department share 
the Treasury Department's concerns? In what ways will the State 
Department implement this policy?

    Answer. The Treasury Department has the lead on U.S. Government 
policies toward the Multilateral Development Banks. In September, 
Treasury instructed U.S. Executive Directors at the Inter-American 
Development Bank and the World Bank to vote against all loans to 
Argentina. The Treasury Department may make exceptions when programs 
effectively target very poor and vulnerable populations, because the 
administration does not believe these populations should be denied 
assistance as a result of their government's policy choices.
    The Department of State shares the serious concerns about 
Argentina's failure to pay outstanding final International Centre for 
the Settlement of Investment Disputes arbitral awards and take the 
necessary steps to fully and conclusively normalize relations with its 
creditors. For our part, we continue to use diplomatic channels to 
encourage the Government of Argentina to address these issues.

    Question. It was reported that during President Kirchner's recent 
meeting with President Obama at the G20 summit (November 4, 2011), 
President Kirchner expressed that she only intends to offer the 
``holdout'' bondholders the same deal Argentina offered in the April 
2010. Are these reports correct? If so, what is the Department of 
State's reaction to this news?

    Answer. In the November 4 meeting, President Obama underscored the 
importance of Argentina addressing its outstanding issues with 
international creditors. There was no discussion of specifics of how 
Argentina should do that.
    The United States will continue to raise this issue with Argentine 
officials at the highest levels, stressing that reaching agreement with 
its creditors is an important step in creating a favorable climate for 
attracting foreign investment.

    Question. How concerned should Americans be of the fact that 
Venezuela seems to have developed all the characteristics of a 
narcostate? Seeing the everyday violence throughout Mexico, do you 
think Venezuela might, in the near future, exhibit the patterns of 
drug-propelled violence we are witnessing in Mexico?

    Answer. Since 2005, and in every subsequent year, the United States 
has found that Venezuela has failed demonstrably to meet its 
international counternarcotics obligations. The United States has also 
taken action by identifying senior Venezuelan officials as having 
assisted narcotrafficking efforts. The Department of the Treasury's 
Office of Foreign Asset Control (OFAC) designated four high-level 
Venezuelan officials, including an army two-star general, in September 
2011 for materially assisting the narcotics trafficking activities of 
the FARC. These four join other former and current Venezuelan officials 
previously designated by OFAC.
    Venezuela has engaged in some limited cooperation on 
counternarcotics matters, including increasing its dialogue with 
Colombian authorities and, on some occasions, deporting members of the 
Revolutionary Armed Forces of Colombia (FARC) and the National 
Liberation Army (ELN) back to Colombia. Venezuela has also coordinated 
the deportation of fugitives wanted for drug trafficking to the United 
States and has participated in occasional maritime interdictions with 
the U.S. Coast Guard.
    We have clearly stated for years that we are open to increasing 
cooperation with the Venezuelan Government to fight the increasing flow 
of illegal drugs in the region and globally.

    Question. According to reports, President Chavez has an aggressive 
form of cancer which many speculate will compromise his ability to 
govern Venezuela in the near term. Is the United States Government 
prepared for the aftermath of his rule in Venezuela? Is the United 
States prepared to deal with the implications of President Chavez 
having welcomed narcotraffickers and foreign agents from countries with 
motives contrary to law abiding, democratic countries to operate freely 
in Venezuela, and in countries who share the interests and aspirations 
of the Bolivarian Movement?

    Answer. We do not have any specific information about President 
Hugo Chavez' health condition beyond what the Venezuelan Government has 
publicly reported. We closely monitor the situation in Venezuela and 
stand ready to calibrate our policy as appropriate. As stated in the 
Inter-American Democratic Charter, the people of Venezuela, like those 
of other hemispheric nations, have a right to democracy. This 
commitment to democracy forms a critical foundation of our foreign 
policy throughout the hemisphere and, if confirmed, it will be a 
central focus of my efforts with respect to our policy toward 
Venezuela.
    The United States has expressed our concern about Venezuelan 
policies with respect to support for international efforts to confront 
terrorism and narcotrafficking. Every year since 2006, the President 
has determined that Venezuela is ``not cooperating fully with U.S. 
antiterrorism efforts,'' a determination made under section 40A of the 
Arms Export Control Act. Each year since 2005, we have determined that 
Venezuela has ``failed demonstrably'' to meet its international 
counternarcotics obligations, a determination made under section 706 of 
the Foreign Relations Authorization Act. We will continue to monitor 
Venezuela for activities that would indicate a pattern of support for 
acts of international terrorism, narcotrafficking, or other activities 
that might harm U.S. national interests, and take appropriate action 
when warranted.
    We have been able to work effectively with many nations in the 
hemisphere who share our vision of inclusive growth, strong commitment 
to democratic values, and a cooperative combined effort to provide for 
citizen security.

    Question. Technology (``Tech'') companies are interested in 
training the world's best ``Tech'' talent in U.S. universities, but are 
tired of seeing the individuals that receive this training being forced 
to work for foreign competitors because they have been denied H1-B 
visas. In the Western Hemisphere, as illegal immigration to the United 
States diminishes what will the administration do to ensure that 
sufficient legal opportunities to work and live in the United States, 
such as H1-B visas and formal immigration options, remain open to the 
many skilled workers from the region who are so critical to the growth 
of the U.S. economy?

    Answer. The Department of State works hard to ensure the prompt 
issuance of employment visas to all qualified applicants in accordance 
with immigration law. H-1B visas are numerically limited based on the 
law, capped at a maximum of 65,000 per year, with an additional 20,000 
above the cap for recipients of a U.S. master's degree or higher. There 
is also unlimited H-1B availability for workers employed by or at a 
higher education or research institute. The numerical limits are 
worldwide and not specified for specific geographical regions.
    All U.S. embassies and consulates have established procedures to 
expedite interview appointments for business travelers, including H1-B 
applicants. We will continue to explore ways to improve those 
procedures at our embassies and consulates throughout the hemisphere. 
U.S. officials work closely with American Chambers of Commerce in more 
than 100 countries around the world, and in each of our 50 missions in 
the hemisphere, to streamline the visa process for business travelers. 
We are continually working with interagency partners to improve and 
make more efficient the process to ensure it best serves the interests 
of the United States.

    Question. Much has been made about reports of Chinese commercial, 
energy, and security investments in Latin America. Please describe 
these interests. What are they? Please explain the motivation for 
Chinese interests in the region. Is an enhanced presence of China in 
the Western Hemisphere a threat to U.S. interests?

    Answer. China's economic engagement in the hemisphere is not 
necessarily a cause for friction between the United States and China. 
The United States remains the region's largest trading partner. China's 
trade, mainly from commodity purchases and exports of manufactured 
goods, reached $178 billion with Latin America in 2010 compared to $661 
billion in trade between the United States and Latin America. China's 
trade presence and investment are focused mainly on satisfying its 
domestic demand for fuels, mineral resources and agricultural products. 
We recognize that China's growing economic influence has become 
important to many countries in the region, but the United States trade 
with the region remains far larger, more diverse, and is also growing 
rapidly. The recent passage of the Colombia and Panama Free Trade 
Agreements will help to maintain U.S. economic leadership in the 
hemisphere.
    The primary goal of U.S. policy is to encourage a responsible role 
of China in the development of the region's economic prosperity.

    Question. Currently the United States and Mexico are negotiating an 
agreement to cooperate on offshore transborder oil and natural gas 
production. Such an agreement is touted as facilitating joint 
production operations between PEMEX and U.S. energy companies.
    If such an agreement is successful, please describe what, if any, 
additional constitutional, legal, or regulatory steps will be necessary 
for PEMEX to be able to participate in production sharing agreements 
with U.S. companies. What steps has the Government of Mexico committed 
to in fulfilling those steps?
    Given that PEMEX is reportedly suffering from inadequate capital 
for investment, why is it to the benefit of the United States enable 
joint ventures instead of simply allowing leasing on the U.S. side of 
the border?
    Please characterize the current state of technical information on 
economically accessible oil and natural reserves along the U.S.-Mexico 
offshore border.

    Answer. On June 23, 2010, the Governments of the United States and 
Mexico jointly announced their intention to negotiate an agreement 
governing the disposition and regulation of hydrocarbon reservoirs that 
cross our international maritime boundary. Since that time, negotiating 
teams have carried out issue-specific workshops, informal 
consultations, and several rounds of formal negotiations. Work on the 
agreement is ongoing, and a final text is not yet agreed upon.
    Mexico's Constitution places restrictions on the ability of 
Mexico's national oil company, Petroleos Mexicanos (PEMEX), to enter 
into business relationships with foreign companies. While there has 
been no change to the constitutional restriction on foreign investment 
in the oil sector, reforms undertaken in 2008 did open the possibility 
that hydrocarbon reservoirs that crossed the maritime boundary could be 
exploited in accordance with the provisions of a bilateral treaty that 
the Mexican Government could negotiate and submit to the Mexican senate 
for ratification. One of the objectives of the bilateral agreement we 
are currently negotiating, if concluded and brought into force by each 
side's respective ratification procedures, is to give PEMEX greater 
flexibility in carrying out cooperative transboundary projects with 
U.S. companies.
    Leasing on the U.S. side of the maritime boundary has occurred, and 
some commercial activity has taken place in those lease blocks. This 
agreement, if concluded and brought into force, would establish an 
international legal regime to govern activities in the boundary area.
    No transboundary reservoir has yet been discovered. Some technical 
information does exist regarding potential economically recoverable oil 
and natural reserves along the boundary. Should cooperative projects 
become more likely, we anticipate that additional exploration in the 
region would produce more and higher quality technical information on 
potential transboundary deposits.

    Question. From a standpoint of transatlantic economic and energy 
security, especially considering likely nuclear power phaseouts in 
Germany, Belgium, and possibly additional nations, would trade in 
liquefied natural gas (LNG) exports from the United States to Europe be 
in the national interest and support of U.S. foreign policy toward 
Europe? Absent any LNG exports from the United States, what nations in 
the Western Hemisphere are likely to supply natural gas to European 
nations? Please describe the State Department's interaction with the 
Department of Energy in consulting on LNG export license applications.

    Answer. The diversification of energy sources is vital as a means 
to protect consumers from price volatility, ensure adequate and secure 
supplies and, to mitigate climate change by increasing the use of lower 
carbon fuel sources. Additional global LNG, whether exported from the 
United States or from any other source, would advance a pillar of the 
U.S.'s Eurasian foreign policy objective to promote new, diversified, 
and clean sources of energy supplies for Europe. Domestically, 
potential future exports of LNG could create much needed jobs in our 
own country.
    In the Western Hemisphere, Trinidad and Tobago and Peru currently 
export LNG to Europe, but most gas imports going to European markets 
come from Eurasia, North Africa, and the Middle East. Gas rich nations 
in the Western Hemisphere potentially looking to export LNG in the 
future include Colombia, Venezuela, and Bolivia.
    Authorization to grant LNG export licenses is the sole 
responsibility of the Department of Energy's Office of Fossil Energy.

    Question. Recently the Inspector General of the State Department 
announced an inquiry related to the Keystone XL pipeline permit 
application.

  <bullet> Please describe the scope of that investigation. 
        Specifically, will it examine the merits of the permit 
        application itself?
  <bullet> Will the decision on the Keystone XL permit application be 
        delayed to wait for the outcome of the inspector general's 
        investigation?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
On the scope of the investigation, I would refer you to the Department 
of State's Office of the Inspector General.

    Question. Tight oil, or oil shale, production in the North Dakota 
region is rapidly expanding. Several reports have indicated logistical 
challenges in exporting production from North Dakota to refineries in 
the United States.

  <bullet> Please describe the proposed ability of the Keystone XL to 
        also transport oil from the northern U.S. Great Plains. What 
        economic benefit would that have in those U.S. areas of 
        production?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
Since 2008, the Department has been conducting a transparent, thorough, 
and rigorous review of TransCanada's application for the proposed 
Keystone XL Pipeline project. As a result of this process, given the 
concentration of concerns regarding the environmental sensitivities of 
the current proposed route through the Sand Hills area of Nebraska, the 
Department has determined it needs additional information and will 
undertake an in-depth assessment of potential alternative routes in 
Nebraska.
    After obtaining the additional information, the Department will 
determine, in consultation with the eight other agencies identified in 
Executive Order 13337, whether the proposed pipeline was in the 
national interest, considering all of the relevant issues together. 
Among the relevant issues that will be considered are environmental 
concerns (including climate change), energy security, economic impacts, 
and foreign policy.
    Because this National Interest Determination process has not been 
completed, the administration has not yet completed its analysis of the 
issues raised by your specific questions and is therefore unable to 
provide authoritative answers at this time. The Environmental Impact 
Statement (EIS) included information indicating that the proposed 
Keystone XL pipeline would provide up to 100,000 barrels per day of 
shipping capacity for crude oil produced in North Dakota and Montana. 
Based on information from the North Dakota Pipeline Authority, the 
projections of combined shipping capacity by pipelines and rail out of 
the Bakken region of North Dakota and Montana is greater than the 
projections of production, even without the proposed Keystone XL 
pipeline. This information is summarized in Figure 3.14.2-2 of the 
final EIS.
    We remain committed to engaging with you and your staff as the 
process unfolds and to keeping you informed as the integrity of our 
regulatory process permits.

    Question. Executive Order 13337 requires the State Department to 
offer other U.S. Federal agencies a 90-day period to comment as part of 
a National Interest Determination process and a further 15 days to 
issue a permit decision.

  <bullet> Is it your opinion that the procedures elaborated in the 
        E.O. 13337 are binding on the State Department?
  <bullet> Is the current review period and decision process on track 
        to meet those deadlines?
  <bullet> If the permit review process is not on schedule meet the 
        time requirements of Executive Order 13337, what are the 
        obstacles and how are they justified within the bounds of 
        applicable Executive orders and statute?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
As an executive branch agency, the Department is required to follow 
procedures laid out by the President under E.O. 13337. The Executive 
order does not set a time limit as to when the Department must make a 
decision on a permit application once it has received the 
recommendations of at least the eight named agencies in the order. Our 
review process is currently being conducted in conformity with the 
provisions of the Executive order.

    Question. Recent press reports have indicated a confused 
decisionmaking process on the Keystone XL permit application at the 
State Department vis-a-vis the White House. White House spokesman Jay 
Carney has reaffirmed that the decision lies at the State Department, 
whereas it is reported that President Obama indicated to Nebraska 
reporters that he will be taking a personal role: ``. . . I'll be 
measuring these recommendations when they come to me.''

  <bullet> What roles are White House officials playing in the Keystone 
        XL permit application review process?
  <bullet> Have White House officials identified a position on Keystone 
        XL or otherwise given guidance to the State Department beyond 
        procedures in existing Executive orders as to how a national 
        interest determination and final decision shall be made?
  <bullet> Will the Secretary of State issue a permit decision under 
        authority delegated to her, which may or may not subsequently 
        be reviewed by the White House, or will the Secretary of State 
        make a recommendation to the President for his decision?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
The review of the Keystone XL permit application is being conducted in 
accordance with the procedure outlined in Executive Order 13337. The 
Executive order authorizes the Department (the Secretary of State or 
her designee) to determine whether granting a Presidential Permits 
authorizing a petroleum pipeline at the border is in the national 
interest. The Executive order outlines a procedure that requires the 
Department to seek the views of at least eight other federal agencies 
before making a proposed determination. Under the Executive order, a 
permit determination is only referred to the President for decision if 
one of the eight listed agencies objects to the Department's proposed 
determination. There has been no change to the process outlined in that 
Executive order.

    Question. The negative national security impacts of overdependence 
on oil imports from unstable regions and difficult governments are well 
established and reaffirmed by the Secretary of State and President.

  <bullet> Please describe how oil trade with Canada fits into the 
        State Department's strategy to diversify and reduce 
        geopolitical risks inherent to the current oil import 
        portfolio.
  <bullet> What potential do oil sands imports from Canada have to 
        reduce need for oil from Venezuela?
  <bullet> What would be the energy security, economic, and foreign 
        policy implications of halting all future oil sands import 
        growth from Canada?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
Since 2008, the Department has been conducting a transparent, thorough, 
and rigorous review of TransCanada's application for the proposed 
Keystone XL Pipeline project. As a result of this process, given the 
concentration of concerns regarding the environmental sensitivities of 
the current proposed route through the Sand Hills area of Nebraska, the 
Department has determined it needs additional information and is 
undertaking an in-depth assessment of potential alternative routes in 
Nebraska.
    After obtaining the additional information, the Department will 
determine, in consultation with the eight other agencies identified in 
Executive Order 13337, whether the proposed pipeline was in the 
national interest, considering all of the relevant issues together. 
Among the relevant issues that will be considered are environmental 
concerns (including climate change), energy security, economic impacts, 
and foreign policy.
    Because this National Interest Determination process has not been 
completed, the administration has not yet completed its analysis of the 
issues raised by your specific questions and is therefore unable to 
provide authoritative answers at this time. However, we remain 
committed to engaging with you and your staff as the process unfolds 
and to keeping you informed as the integrity of our regulatory process 
permits.

    Question. The Government of Canada has clearly stated their support 
for approval of Keystone XL.

  <bullet> In your view, what impact would approval or disapproval of 
        Keystone XL have on the bilateral relationship between Canada 
        and the United States?
  <bullet> How is a rejection of the Keystone XL permit likely to be 
        perceived by the Canadian Government?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
Since 2008, the Department has been conducting a transparent, thorough, 
and rigorous review of TransCanada's application for the proposed 
Keystone XL Pipeline project. As a result of this process, given the 
concentration of concerns regarding the environmental sensitivities of 
the current proposed route through the Sand Hills area of Nebraska, the 
Department has determined that it needs additional information and will 
undertake an in-depth assessment of potential alternative routes in 
Nebraska.
    After obtaining the additional information, the Department will 
determine, in consultation with the eight other agencies identified in 
Executive Order 13337, whether the proposed pipeline was in the 
national interest, considering all of the relevant issues together. 
Among the relevant issues that will be considered are environmental 
concerns (including climate change), energy security, economic impacts, 
and foreign policy.
    Because this National Interest Determination process has not been 
completed, the administration has not yet completed its analysis of the 
issues raised by your specific questions and is therefore unable to 
provide authoritative answers at this time. However, we remain 
committed to engaging with you and your staff as the process unfolds 
and to keeping you informed as the integrity of our regulatory process 
permits.

    Question. Robust and expanding trade is a longstanding pillar of 
our bilateral relationship with Canada. Energy trade is a fundamental 
part of that relationship, including oil as well integration of our 
electric grids. Energy trade was deemed to be of sufficient importance 
to also have a special and protected status within NAFTA.

  <bullet> (a) Please elaborate on the criteria by which the United 
        States may block energy trade with Canada.
  <bullet> (b) In your view, would rejection of Keystone XL be a 
        setback to longstanding trade promotion with Canada?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
USTR is the lead on trade issues and I would defer to that agency. 
Regarding part (b), this question requests information that may be 
relevant to the Department's National Interest Determination under 
Executive Order 13337, and therefore, in order to protect the 
impartiality and integrity of the Department's deliberative process 
under the Executive order, the Department is not in a position to 
address this question at this time.

    Question. Americans benefit from robust market-driven trade in 
global oil markets, which gives supply flexibility that can help smooth 
price volatility. Unfortunately, many governments and in particular 
OPEC members engage in cartel behavior to limit supply and boost 
prices. The U.S. Government through the IEA and bilaterally promotes 
freer trade in energy. Rejection of free energy trade within North 
America could be seen as hypocritical and dampen our efforts elsewhere.

  <bullet> In your view, how important is it to ``practice what you 
        preach'' in energy trade?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
The specific question posed addresses an issue that may be relevant to 
the Department's National Interest Determination under Executive Order 
13337, and therefore, in order to protect the impartiality and 
integrity of the Department's deliberative process under the Executive 
order, the Department is not in a position to address this question at 
this time.
    Since 2008, the Department has been conducting a transparent, 
thorough, and rigorous review of TransCanada's application for the 
proposed Keystone XL Pipeline project. As a result of this process, 
given the concentration of concerns regarding the environmental 
sensitivities of the current proposed route through the Sand Hills area 
of Nebraska, the Department has determined it needs additional 
information and is undertaking an in-depth assessment of potential 
alternative routes in Nebraska.
    After obtaining the additional information, the Department will 
determine, in consultation with the eight other agencies identified in 
Executive Order 13337, whether the proposed pipeline was in the 
national interest, considering all of the relevant issues together. 
Among the relevant issues that will be considered are environmental 
concerns (including climate change), energy security, economic impacts, 
and foreign policy.
    Because this National Interest Determination process has not been 
completed, the administration has not yet completed its analysis of the 
issues raised by your specific questions and is therefore unable to 
provide authoritative answers at this time. However, we remain 
committed to engaging with you and your staff as the process unfolds 
and to keeping you informed as the integrity of our regulatory process 
permits.

    Question. The share of U.S. oil imports coming from Canada has 
increased as oil sands production has increased, and Canada is now the 
single largest foreign oil supplier to the United States. IHS CERA 
consultants have estimated that this proportion could increase to 36 
percent of imports.

  <bullet> How would the decision to permit Keystone XL affect the 
        ability to reach this potential growth in secure imports from 
        Canada?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
The specific question posed addresses an issue that may be relevant to 
the Department's National Interest Determination under Executive Order 
13337, and therefore, in order to protect the impartiality and 
integrity of the Department's deliberative process under the Executive 
order, the Department is not in a position to address this question at 
this time.
    Since 2008, the Department has been conducting a transparent, 
thorough, and rigorous review of TransCanada's application for the 
proposed Keystone XL Pipeline project. As a result of this process, 
given the concentration of concerns regarding the environmental 
sensitivities of the current proposed route through the Sand Hills area 
of Nebraska, the Department has determined it needs additional 
information and is undertaking an in-depth assessment of potential 
alternative routes in Nebraska.
    After obtaining the additional information, the Department will 
determine, in consultation with the eight other agencies identified in 
Executive Order 13337, whether the proposed pipeline was in the 
national interest, considering all of the relevant issues together. 
Among the relevant issues that will be considered are environmental 
concerns (including climate change), energy security, economic impacts, 
and foreign policy.
    We remain committed to engaging with you and your staff as the 
process unfolds and to keeping you informed as the integrity of our 
regulatory process permits.

    Question. In many of the world's largest oil production countries, 
such as Russia, Saudi Arabia, Iran, and Venezuela, state-controlled 
firms (or quasi-state controlled firms) dominate oil production. The 
United States and Canada are also among the largest oil producers in 
the world, but those governments allow publicly traded firms, many of 
which are listed on U.S. stock exchanges, and private firms to engage 
in production.

  <bullet> Has Canada in any way restricted access to U.S. investment 
        in oil sands production?
  <bullet> What magnitude of economic benefit to U.S. companies and 
        their shareholders would you estimate for existing and planned 
        future oil sands production?
  <bullet> Approximately how much tax revenue does the U.S. Government 
        receive from profits repatriated from oil and gas production in 
        Canada?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
The specific question posed addresses an issue that may be relevant to 
the Department's National Interest Determination under Executive Order 
13337, and therefore, in order to protect the impartiality and 
integrity of the Department's deliberative process under the Executive 
order, the Department is not in a position to address this question at 
this time.
    Since 2008, the Department has been conducting a transparent, 
thorough, and rigorous review of TransCanada's application for the 
proposed Keystone XL Pipeline project. As a result of this process, 
given the concentration of concerns regarding the environmental 
sensitivities of the current proposed route through the Sand Hills area 
of Nebraska, the Department has determined it needs additional 
information and is undertaking an in-depth assessment of potential 
alternative routes in Nebraska.
    After obtaining the additional information, the Department will 
determine, in consultation with the eight other agencies identified in 
Executive Order 13337, whether the proposed pipeline was in the 
national interest, considering all of the relevant issues together. 
Among the relevant issues that will be considered are environmental 
concerns (including climate change), energy security, economic impacts, 
and foreign policy.
    Because this National Interest Determination process has not been 
completed, the administration has not yet completed its analysis of the 
issues raised by your specific questions and is therefore unable to 
provide authoritative answers at this time. However, we remain 
committed to engaging with you and your staff as the process unfolds 
and to keeping you informed as the integrity of our regulatory process 
permits.

    Question. The current United States unemployment rate is 9.0 
percent.

  <bullet> Please characterize estimates of job creation in the United 
        States that could be attributed to construction of the Keystone 
        XL pipeline?
  <bullet> If completed, are these jobs likely to be filled by 
        Americans or filled offshore?
  <bullet> What is the estimated value of piping and other durable 
        materials that would be required to construct the pipeline?
  <bullet> What quantity of these materials is estimated to be sourced 
        in the United States?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
Since 2008, the Department has been conducting a transparent, thorough, 
and rigorous review of TransCanada's application for the proposed 
Keystone XL Pipeline project. As a result of this process, given the 
concentration of concerns regarding the environmental sensitivities of 
the current proposed route through the Sand Hills area of Nebraska, the 
Department has determined it needs additional information and is 
undertaking an in-depth assessment of potential alternative routes in 
Nebraska.
    After obtaining the additional information, the Department will 
determine, in consultation with the eight other agencies identified in 
Executive Order 13337, whether the proposed pipeline was in the 
national interest, considering all of the relevant issues together. 
Among the relevant issues that will be considered are environmental 
concerns (including climate change), energy security, economic impacts, 
and foreign policy.
    The Environmental Impact Statement (EIS) includes information 
relevant to the questions asked. Section 3.10 of the EIS notes that the 
construction workforce for the proposed Keystone XL pipeline would 
consist of approximately 5,000 to 6,000 workers over the 2-3 years 
required to construct the pipeline. EIS 3.10-55. The EIS also notes 
that the total project cost (in the United States and Canada) is 
approximately $7 billion, with approximately $6.58 to $6.65 billion 
being spent on materials, supplies, easements, engineering, and other 
costs. EIS 3.10-58.
    Because this National Interest Determination process has not been 
completed, the administration has not yet completed its analysis of the 
issues raised by your specific questions. As part of the National 
Interest Determination process, the Department has been and will be 
consulting with other agencies to further consider the information from 
the EIS, as well as information from other sources (particularly 
comments received from the public during the National Interest 
Determination comment process). Therefore unable to provide 
authoritative answers at this time. However, we remain committed to 
engaging with you and your staff as the process unfolds and to keeping 
you as the integrity of our regulatory process permits.

    Question. Previous pipeline permit applications have been 
relatively routine and uncontroversial, but the Keystone XL pipeline 
has become highly politicized.

  <bullet> Please compare the timeline for consideration of the 
        Keystone XL permit application to similar projects previously 
        approved or rejected to the State Department.
  <bullet> How frequently are oil and gas pipeline permit applications 
        rejected by the State Department? What have been the principle 
        reasons for their rejection?
  <bullet> Please identify all opportunities for public comment that 
        have been established by the State Department in consideration 
        of the Keystone XL pipeline permit application.
  <bullet> How does the public comment process for Keystone XL compare 
        to earlier pipeline permit comment periods?

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
The application for a Presidential permit for the original Keystone 
pipeline was submitted on April 19, 2006; the Department issued a 
permit for this pipeline on March 11, 2008. The application for a 
Presidential permit for the Alberta Clipper pipeline was submitted on 
May 15, 2007; the Department issued a permit for this pipeline on 
August 20, 2009. The application for a Presidential permit for the 
Keystone XL pipeline was submitted on November 4, 2008; the matter is 
still pending.
    Since 2000 the Department has not approved both previous 
applications for new, major, cross-border oil facilities. Because there 
has been significantly more public interest and participation in the 
process for the Keystone XL review, the public comment procedures for 
this permit application were more extensive than than previous recent 
applications. The Department issued the following Federal Register 
notices regarding the process for consideration of the Keystone XL 
application: 73 Fed. Reg. 65713; 74 Fed. Reg. 5019, 6687, and 12172; 75 
Fed. Reg. 19969, 20653, 22890 and 33883; 76 Fed. Reg. 8396, 22699, 
22744, 53525, 54767, 55155, 55157. The Department held a total of 50 
public meetings, both in states through which the pipeline would pass, 
if approved, as well as in Washington, DC. The various comment periods 
and public meeting times were also noted on the Web site the Department 
maintains on this issue:

http://www.keystonepipeline-xl.state.gov/clientsite/keystonexl.nsf?Open

    The Web site also provides information about the project (including 
the final Environmental Impact Statement (FEIS)) and a mechanism for 
submission of comments over the Internet and other means.
    The timeframes for the Keystone XL review compared to the two most 
recent pipeline reviews are as follows:

    Keystone I--Application: April 19, 2006; Permit Issued: March 11, 
2008.
    Alberta Clipper--Application: May 15, 2007; Permit Issued: August 
20, 2009.
    Keystone XL--Application: November 4, 2008; Still under 
consideration.

    Question. In evaluating permit applications such as that by 
Keystone XL, rigorous environmental analysis is necessary to make an 
informed judgment of risks inherent to any project and steps needed to 
help mediate those risks to an acceptable level.

  <bullet> Please describe the process by which the environmental 
        impact assessment was conducted.
  <bullet> Please describe any environmental and safety precautions in 
        excess of those required by U.S. law that the Keystone XL 
        pipeline would implement.

    Answer #1. Given my current recusal from participation in matters 
that affect Keystone XL and the oil industry in Canada and to avoid 
even the appearance of partiality, I regret that I am unable to respond 
to this question. As I stated during my hearing, if I am confirmed, it 
would be my intention to resolve my recusal and I would then be 
available to address the committee's concerns to the extent possible. 
Another Department of State official will address this question 
promptly.

    Answer #2. (Response by OES on behalf of the Department of State): 
These issues are addressed in the final Environmental Impact Statement, 
particularly the Introduction, Section 3.13, and Appendix U, available 
at: http://www.keystonepipeline-xl.state.gov/clientsite/
keystonexl.nsf?Open.
                                 ______
                                 

       Responses of Roberta S. Jacobson to Questions Submitted by
                        Senator Robert Menendez

    Question. U.S. Development Assistance to Latin America and the 
Caribbean: Assistance fell from almost $421 million in FY 2010 to an 
estimated $362 million in FY 2011, a 14 percent decline. U.S. 
assistance to Latin America is declining and proportionally, the region 
is receiving less and less of the total assistance pie. In 2006, Latin 
America received 11 percent of the regional distribution of U.S. 
Foreign Assistance, by 2011 that percentage had shrunk to 8 percent of 
the pie. The Western Hemisphere is the region of the world with the 
greatest potential to affect our Nation--positively, through enhanced 
trade relations, and negatively through undocumented immigration feed 
by social unrest, insecurity, and lack of opportunity.

  <bullet> How does the administration prioritize funding by regions? 
        What role will you play in 7th-floor decisions about regional 
        allocations?
  <bullet> Do you anticipate further decreases in U.S. assistance to 
        the region based on overall decreases in U.S. foreign 
        assistance?

    Answer. In the current lean budget environment, we have carefully 
coordinated our requests for foreign assistance to Latin America and 
the Caribbean with our embassies, USAID missions, and the U.S. 
interagency. While funding in Latin America and the Caribbean has been 
reduced at a slightly faster rate than other regions, some of this 
reduction was made possible by the real successes achieved in the 
region, notably our efforts with Colombia to nationalize security 
programs. Our assistance programs are designed to enhance our 
partnerships in the region and spread the responsibility for success. 
Our request levels reflect a recognition of the emerging global 
leadership of countries like Colombia, Brazil, and Chile, which 
complement U.S. priorities and are increasingly contributing foreign 
assistance in the region and around the world. We have concentrated our 
assistance in those regions of the hemisphere where it is most 
effective and advances U.S. interests--especially in Central America 
and the Caribbean. Our cooperation with Mexico reflects its strategic 
position along our southern border.
    My familiarity and long experience with U.S. foreign assistance in 
the hemisphere, and my role in the Department's internal assistance 
allocation process allows me to influence these decisions, and to have 
a seat at the table as global level decisions are made. I can assure 
you that with my deep understanding of the region and my passion for 
its importance to the United States, if confirmed, I will be a forceful 
advocate for robust and productive engagement, including with respect 
to assistance. Our conversations with the Secretary and other 
Department and U.S. Government leaders are continuous, and always aimed 
at achieving an assistance level for the Western Hemisphere that is 
consistent with our interests, takes into account the needs of our 
partner nations, as is cognizant of the difficult budget environment we 
face.
    If confirmed, I will continue to advocate for resources that 
advance our stated goals of citizen security, strong institutions of 
democratic governance, reducing social inequality and increasing 
economic opportunity, securing a clean energy future and mitigating the 
effects of climate change.

    Question. U.S. Counternarcotics Spending: As outlined in the State 
Department's FY 2012 Congressional Budget Justification for Foreign 
Operations, U.S. counternarcotics aid to Latin America amounted to 
almost $747 million in FY 2010 while the FY 2012 request is for $424 
million. I presume the 43 percent decline in counternarcotics 
assistance for the region reflects past funding for substantial 
equipment sales to Mexico as a part of Merida, but I'm also wondering 
why there is such a precipitous decrease when the needs in Central 
America are still so significant?

    Answer. Countering the threats posed by drug trafficking and 
transnational crime remains a high priority area for U.S. foreign 
assistance to the Western Hemisphere, particularly Mexico, Colombia, 
Central America, and the Caribbean.
    In Mexico, our Merida Initiative assistance is shifting toward 
relatively lower cost capacity and institution-building efforts that we 
and our Mexican partners believe are critical to address the underlying 
causes of the challenge facing Mexico. In Colombia, substantial savings 
are realized as we nationalize some counternarcotics programs in a 
gradual and predictable way. Colombia's ability to take over these 
programs reflects the success of our prior year investments and is a 
concrete demonstration of the growing capacity and effectiveness of our 
Colombian partners. For Central America and the Caribbean, we have 
maintained or increased citizen security funding levels consistent with 
prior years, particularly for the Central America Regional Security 
Initiative and the Caribbean Basin Security Initiative, to respond to 
sustained security threats to those regions and to increase partner 
nation capacity to administer the rule of law.

    Question. Colombia: What effect will last Friday's death in combat 
of the FARC leader, Alfonso Cano, have on the FARC's ability to 
function? Is this a major setback for FARC or is there a secondary or 
tertiary leader who can step in?

    Answer. At the time of his death, Alfonso Cano was the leader of 
the terrorist organization the Revolutionary Armed Forces of Colombia 
(FARC). Since taking over the FARC in September 2010 after the death of 
Mono Jojoy, Cano increasingly turned the FARC to asymmetrical warfare, 
including the use of assassinations, kidnapping, and IEDs.
    The stated goal of the FARC is the violent overthrow of the 
Government of Colombia. Cano's death is an important victory for 
Colombia and represents a major blow against the largest terrorist 
organization in this hemisphere. The FARC engages in narcotics 
trafficking, kidnapping, and extortion, and there are regular clashes 
between the FARC and Colombian security forces. Cano is the fourth 
member of the FARC's General Secretariat to have been killed in the 
past 3 years, and the second Supreme Commander to die in that time 
period.
    Cano's death could demoralize the FARC, and disrupt its 
decisionmaking, at least in the short term. However, the FARC has 
several senior ranking members available to step in as leader. At this 
moment, we cannot predict who that will be and therefore cannot 
speculate as to how this might affect the FARC's ability to function.
    The Santos administration has stated on numerous occasions that it 
is prepared to consider negotiations with the FARC, once the FARC 
releases all hostages, agrees to a cease-fire, and terminates illicit 
activities.

    Question. Inter-American Development Bank: What is the Department's 
position on funding the capital increase for the Inter-American 
Development Bank (IDB)? What impact will a partial increase--25 percent 
of the request--have on the Bank's lending portfolio? On contributions 
from other countries? Do you anticipate the Bank being able to maintain 
its commitment to Haitian reconstruction and development if the Bank's 
capital increase is short-changed?

    Answer. The Department strongly supports the President's request 
and the U.S. commitment to the IDB General Capital Increase (GCI). We 
believe that failure to honor our full obligations to the IDB would 
seriously weaken U.S. influence in Latin America and the Caribbean at 
the same time that other emerging donor countries like China are 
increasing their presence.
    We are in close contact with the Treasury Department, which is the 
lead agency on multilateral development bank policy, to coordinate and 
support our efforts to secure funding for the GCI request.
    Full funding of the President's request for multilateral 
development banks would allow the United States to proceed with the 
full subscription of callable capital and a partial contribution of our 
paid-in capital commitments, and therefore allow the GCI to proceed.
    The IDB is a key partner for the United States in the region, in 
our efforts on citizen security in Central America, and particularly in 
Haiti, the poorest country in the hemisphere. After the 2010 
earthquake, the IDB cancelled all of Haiti's outstanding debt and 
converted undisbursed loan balances into grants. At the urging of the 
U.S. Government, the IDB also pledged to provide Haiti $2 billion in 
grants over the next decade to fund its recovery efforts and long-term 
development plans as part of the GCI. Although a temporary shortfall in 
the United States paid-in capital contribution should not affect the 
IDB's financial capacity to meet the commitment to Haiti, there is risk 
that the IDB's Board of Governors, which must approve the transfer of 
funding for Haiti on an annual basis, would reject the transfer if the 
United States falls short of its GCI contribution.

    Question. Authoritarian Trends in the Hemisphere: While democracy 
has been solidly consolidated in many countries in the region, a 
resurgence of authoritarianism, combined with tolerance for corruption 
and resulting from weak institutions and judiciaries threatens 
democratic progress in Venezuela, Bolivia, Ecuador, Nicaragua, and even 
Belize and Argentina. What role do you see the United States playing in 
providing support to civil society organizations, the independent media 
and others grassroots groups advocating for government transparency, 
free media, and judicial reform?

    Answer. Our commitment to democracy and protection of human rights 
forms the foundation of our foreign policy throughout the hemisphere. 
As a matter of principle and longstanding policy, the United States 
believes that representative democracies require strong institutions, a 
robust and authentically independent judiciary, vibrant civil society, 
and free and independent media.
    Our diplomats engage constantly with governments, addressing issues 
of democracy and human rights both publicly and privately. In bilateral 
and regional meetings, we press all governments to fulfill their 
commitments under the Inter-American Democratic Charter and other 
international conventions and treaties to which they are signatories. 
We have spoken out strongly, both in international fora and directly to 
governments, against corruption, lack of justice, and election 
irregularities in Nicaragua; against severe restrictions on civil 
society and freedom of expression in Venezuela, and in defense of media 
freedom in Ecuador and elsewhere.
    We also engage consistently with grassroots civil society 
organizations and independent media that seek to promote and protect 
fundamental freedoms. Our democracy and human rights programs support 
civil society by providing them with the knowledge base and the tools 
to lay the groundwork for a better future.
    If confirmed, this strong and longstanding commitment to democracy 
and protection of human rights will continue to guide my approach to 
relations with these countries and support for civil society. I intend 
to be a strong advocate for the democratic principles that guide our 
Nation and that are at the heart of the hemisphere's vision for 
governance.

    Question. Freedom of the Press: In which countries are freedom of 
expression most at risk and what are main factors accounting for the 
deterioration of press freedom in several Latin American countries in 
recent years? To what degree have executive abuse of power and 
organized crime and violence been factors in the deterioration of 
freedom of expression? How does U.S. policy call attention to concerns 
about freedom of expression, and what can be done to counter the 
deterioration of freedom of expression in some countries in the 
hemisphere?

    Answer. We are concerned about recent trends that present risks to 
media freedom in the Western Hemisphere. Department of State Country 
Reports on Human Rights practices, NGO reports, and other data document 
challenges to open media, including crime-driven violence and 
intimidation directed at journalists; government-instigated pressure, 
ranging from physical violence to legal and administrative harassment; 
excessive government use of privately owned media to carry government 
propaganda; and, the creation of government-controlled media to compete 
with independent voices.
    Government control of traditional media in Cuba (press, television, 
radio) is complete, leaving Cubans isolated and eager for unfiltered 
news from outside the island, and for unbiased information about events 
on-island and worldwide. Cuba has one of the lowest levels of Internet 
penetration in the world, and the Cuban Government continues to create 
legal and technical obstacles preventing the vast majority of the 
populace from gaining unfettered access to the Web. Moreover, the level 
of self-censorship among the Cuban population is extremely high due to 
real and perceived threats if they speak candidly and on the record. 
Some Cuban activists who are also independent journalists have been 
imprisoned for their activities.
    Venezuela's Government routinely harasses and threatens media 
organizations and journalists which present coverage deemed by the 
government to be in opposition to its policies or in support of the 
democratic opposition. Over the last several years, it has used 
administrative procedures to close 34 radio stations, as well as RCTV, 
the nation's oldest television network, in 2007. Venezuela uses the 
threat of withdrawing broadcast licenses from remaining media and a 
stringent media law to constrain media outlets and journalists, 
contributing to a palpable culture of self-censorship. These practices 
are inconsistent with the hemispheric vision of freedom of expression. 
For example, in October, Venezuela's telecommunications regulator fined 
independent news broadcaster ``Globovision'' the equivalent of more 
than $2 million for covering a prison riot, claiming the coverage made 
an ``apology for crime'' and fomented ``the anxiety of the citizenry.''
    In countries as diverse as Ecuador, Guyana, Nicaragua, and Panama, 
government attempts to influence media, and to silence media outlets 
deemed hostile to the government, concern us. Among the techniques used 
are denunciation of purported antigovernment posture of media outlets, 
the creation of restrictive legal frameworks and the denial or 
suspension of licenses to broadcast or publish. In July, an Ecuadorian 
court ruling in a civil case lodged by the President sentenced the 
editor and two directors of the newspaper El Universo to 3 years in 
prison and levied $30 million in fines for libeling the President. This 
case, which has drawn expressions of deep concern from press freedom 
organizations, is on appeal. In Nicaragua, President Ortega has called 
on his supporters to stop media from working to ``wear down his 
administration's image.'' The government has used harassment, 
censorship, and arbitrary application of libel laws to suppress 
reporting, and withholds government advertising contracts from 
independent media.
    Violence related to organized crime, particularly in Mexico and 
Central America, has taken a heavy human toll on journalists, and has a 
chilling effect on media coverage of crime, as well as on efforts to 
galvanize public support for anticrime programs.
    Through diplomatic engagement, work with civil society, and public 
statements, the Department of State calls attention to the obstacles to 
freedom of expression and conveys support for those who strive to 
protect it. This engagement is in accordance with the Secretary's 
strong commitment on freedom of expression, including the Internet. It 
is also part of our commitment to hemispheric instruments, including 
the Inter-American Democratic Charter, as Deputy Secretary Burns noted 
in September at the Charter's 10-year anniversary. The United States 
actively supports the Special Rapporteur for Freedom of Expression of 
the Inter-American Commission on Human Rights and sponsored an 
Organization of American States General Assembly resolution, adopted in 
El Salvador in June 2011, related to promotion of freedom of expression 
in the Americas.
    Our embassies engage deeply and continuously with media 
organizations, human rights groups, and governments wherever and 
whenever freedom of expression is under threat. We are enhancing our 
public diplomacy programs and exchanges focused on journalist education 
and safety, and on social media's capacity to buttress freedom of 
expression. We emphasize professional development for journalists to 
help them develop skills such as investigative reporting so they can 
move beyond official government pronouncements and develop broad-based, 
balanced coverage. U.S. human rights promotion programs seek to 
strengthen independent media and increase awareness of the importance 
of freedom of expression. The U.S. Interests Section in Cuba uses 
distance learning and technology channels to offer independent 
journalists professional development and opportunities to disseminate 
their stories.
    Our support for freedom of expression reflects deep values our 
people hold, because it reflects our strong conviction that a vibrant 
and free media is essential to the development of fully effective 
representative democracy in the Americas.

    Question. In October, the Venezuelan Government imposed on 
outrageous fine on Globovision for coverage of last summer's prison 
riots--a fine up to 7.5 percent of its gross earnings for 2010, which 
could amount to $2.1 million. A fine clearly intended to put the 
company out of business. Has the State Department contacted the 
Venezuelan Authorities regarding this issue?

    Answer. Venezuela's Government routinely harasses and threatens 
media organizations and journalists which present coverage deemed by 
the government to be in opposition to its policies or in support of the 
democratic opposition. Over the last several years, it has used 
administrative procedures to close 34 radio stations, as well as RCTV, 
the nation's oldest television network, in 2007. Venezuela uses the 
threat of withdrawing broadcast licenses from remaining media and a 
stringent media law to constrain media outlets and journalists, 
contributing to a palpable culture of self-censorship. Venezuela's 
media laws also create vague categories of impermissible coverage, 
further contributing to an aura of uncertainty about reportage which is 
inconsistent with the hemispheric vision of freedom of expression. In 
response to the October fine made by Venezuela's telecommunications 
regulator, against independent news broadcaster, Globovision, for 
covering a prison riot, claiming the coverage made an ``apology for 
crime'' and fomented ``the anxiety of the citizenry,'' the Department 
of State publicly urged the Venezuelan Government to uphold its 
obligations under the Inter-American Democratic Charter (IADC), 
including the principle that freedom of expression is essential for 
representative democracies. If confirmed, I will continue to urge the 
Venezuelan Government to uphold its obligations under the IADC.. Media 
outlets must be guaranteed the freedom to independently cover important 
news stories, including controversial stories, without fear of 
government reprisal. Freedom of expression is a fundamental freedom 
vital to the health and proper functioning of any democracy.

    Question. Citizen Security in the Americas: Looking ahead, what are 
the most significant challenges for Citizen Security Initiatives in the 
region in the next few years? Do you anticipate shifting greater 
attention and resources toward Central America and the Caribbean to 
address the immense organized crime and security crisis in Central 
America and the overflow into the Caribbean? Do you share A/S 
Brownfield's concerns that drug cartels will ramp up their transit 
routes through the Caribbean?

    Answer. Weak rule of law institutions will continue to be at the 
center of our citizen security challenges in the region. The inability 
of governments to exercise the rule of law and provide services to 
citizens, beginning with security, will slow their efforts to improve 
citizen security, reduce inequality, and foster development in the 
region. We will continue to work with regional governments as they 
strengthen their institutions and secure their streets, waters, remote 
regions, and vulnerable populations. Stronger communities with vibrant 
civil society organizations that can resist the transnational criminal 
organizations are also critically important--especially as partners 
with governments against crime.
    While we have made good initial progress, there is much to be done, 
and we must ensure that the progress made by our partner governments 
becomes more systematic and institutionalized.
    We are urging our partners in Central America--which have some of 
the lowest tax collection rates in the world--to invest more in their 
own security. We are continuing to provide critical targeted assistance 
through the Central American Regional Security Initiative and the 
Caribbean Basin Regional Security Initiative. Central America and the 
Caribbean are already high priorities, as evidenced by the Secretary's 
frequent travel to both regions and our assistance within both 
programs--which we hope to maintain at consistent levels in the coming 
years. As drug trafficking organizations have repeatedly demonstrated 
their adaptability, we will continue to be particularly alert for any 
``balloon effect'' increasing the flow of drugs through Central America 
and/or the Caribbean as Colombia and Mexico continue to pressure drug 
trafficking organizations and current trafficking patterns. We must not 
allow success in one part of the hemisphere to increase the threat to 
other parts of the hemisphere.

    Question. Barriers to Market Access in Argentina and Brazil: USTR's 
2011 National Trade Estimate maintains that both Argentina and Brazil 
have barriers that can impede U.S. imports. Since 2008, Argentina has 
imposed a growing number of customs and licensing procedures and 
requirements that make importing U.S. products more difficult, 
including nonautomatic import licenses, minimum pricing, and import-
export swap arrangements, in addition to intentionally slow processing 
virtually all imports. Argentina has now applied these restrictions to 
imports of virtually all U.S. products. Meanwhile, Brazil has started 
to follow in the footsteps of its southern neighbor, starting in 2009 
with increased import tariffs on hundreds of industrial products and 
application of a variety of federal and state taxes on imports that 
effectively double the cost of imported products. Recently, Brazil has 
expanded the number of new restrictions a wide range of imports of U.S. 
goods, including additional import monitoring, enhanced inspections, 
and delayed release of targeted goods. Brazil also recently imposed new 
increases in customs fees on imports a wide range of products.

  <bullet> What efforts are being made with Argentina and Brazil to 
        address barriers to U.S. exports to these countries and to 
        ensure that these countries are living up to their bilateral 
        and international trade commitments?

    Answer. The Department and our Embassy in Buenos Aires speak 
directly to the Argentine Government to register concerns with 
Argentina's import licensing procedures which restrict imports of U.S. 
goods. We also work closely with USTR, the lead U.S. agency at the WTO 
Committee on Import Licensing Procedures at the Council for Trade in 
Goods. In these meetings, the United States, joined by other WTO 
members, have raised concerns regarding Argentina's practices, 
including the legal basis under the WTO for its use of these import 
licensing procedures. We have also sought further clarification 
regarding the time period for approving licenses, and the reported 
requirement that companies commit to exporting or establish production 
facilities in Argentina in order to obtain an import license. We 
continue to insist that the Government of Argentina explain how such 
requirements are consistent with WTO rules.
    We agree that Argentina's import licensing procedures are hurting 
U.S. companies' ability to export to Argentina. Not only are our 
companies concerned about the added costs and uncertainty associated 
with these measures, they are also concerned about the negative effects 
of products being sold increasingly on the gray market due to 
distortions created by Argentina's import procedures.
    With respect to Brazil, we monitor closely what appears to be an 
increase in import duties on foreign goods and the promotion of 
products manufactured in Brazil through trade-distorting measures. We 
have broached this in our bilateral discussions with Brazil and we are 
working closely with USTR to advocate our interests in WTO 
negotiations.
    We have established high-level trade, economic, and commercial 
dialogues with Brazil to promote the free flow of goods, services, and 
investment between the two countries. As a result, U.S. exports to 
Brazil are booming.
    Our discussions include private sector input which is essential for 
identifying areas of opportunity for greater cooperation, as well as 
impediments to a level playing field for international trade. Business 
groups in both countries discuss opportunities to foster understanding 
and advance commercial priorities between the two countries. Trade 
missions also provide important channels for U.S. companies to meet 
with Brazilian Government officials to discuss and better understand 
the business climate.

    Question. China's Interest in Latin America. China's linkages with 
the region, including trade, investment, and political relations, have 
grown significantly over the past several years. What are China's 
reasons for expanding its economic and political linkages with Latin 
American and Caribbean countries? What are the implications of China's 
engagement with Latin America and the Caribbean for U.S. policy toward 
the region?

    Answer. China's economic engagement in the hemisphere is not 
necessarily a cause for friction between the United States and China. 
The United States remains the region's largest trading partner. China's 
trade, mainly from commodity purchases and exports of manufactured 
goods, reached $178 billion with Latin America in 2010 compared to $661 
billion in trade between the United States and Latin America. China's 
trade presence and investment are focused mainly on satisfying its 
domestic demand for fuels, mineral resources, and agricultural 
products. We recognize that China's growing economic influence has 
become important to many countries in the region, but the United States 
trade with the region remains far larger, more diverse, and is also 
growing rapidly. The recent passage of the Colombia and Panama Free 
Trade Agreements will help to maintain U.S. economic leadership in the 
hemisphere.
    The primary goal of U.S. policy is to encourage a responsible role 
of China in the development of the region's economic prosperity.

    Question. Haiti Reconstruction: What type of international support 
would be needed to improve Haiti's economic development prospects over 
the long term? Other than France, what countries are still providing 
disaster assistance to Haiti? Job creation is vitally important for 
Haiti's economic recovery to take hold, but are you concerned that U.S. 
development projects like the North Industrial Park will have negative 
effects on those companies that are already in Haiti? What is the 
status of President Martelly's ability to address the political and 
legal roadblocks to reform, such as land titling?

    Answer. Haiti will need sustained international donor attention 
over the next decade not only to provide development assistance, but 
also to advocate for the reforms that will enable sustainable economic 
growth. Several nations contribute to disaster assistance in Haiti. The 
Office of the U.N. Special Envoy provides the most regularly updated 
and comprehensive information about the contributions of donors to 
Haiti at www.haitispecialenvoy.org--specifically the data sheet under 
the section labeled ``assistance tracker.''
    The North Industrial Park is part of a comprehensive northern 
region development initiative ably coordinated by the Inter-American 
Development Bank (IDB). Joint efforts in the north are designed to 
improve the conditions for all companies in the region--enhancing the 
infrastructure, including roads, shelter, and electricity generation, 
and providing workforce vocational training that will ultimately 
benefit not just one industrial park, but several industries throughout 
the region.
    President Martelly has shown an early commitment to systemic 
reforms--including by strengthening a working group to deal with land 
titling issues, bringing together NGOs, donors, and the various 
government agencies that have some responsibility for housing in Haiti. 
With respect to judicial reform roadblocks, President Martelly has 
filled three long-vacant positions at Haiti's Supreme Court, enabling 
that key branch of government to finally begin to play its 
constitutional role.

    Question. Following several years of political animosity, 
yesterday, the United States and Bolivia signed a framework agreement, 
pledging to work together in the areas of trade, development 
assistance, and counternarcotics. What does the United States hope to 
get out of the framework? Do you expect to see a decrease in anti-
American rhetoric by the Bolivians and enhanced cooperation, 
particularly in the area of counternarcotics?

    Answer. The signing of the Framework Agreement is the first step 
toward more normal relations between the United States and Bolivia. We 
believe increased dialogue, resulting in part from the forums 
established by the agreement, will help achieve concrete improvements 
in counternarcotics cooperation, development assistance, and trade. 
However, both governments recognize that successful implementation will 
require substantial engagement and dialogue.
    In addition to discussions in the working groups established by the 
Framework Agreement, our governments will work toward the restoration 
of diplomatic representation at the ambassadorial level. The exchange 
of Ambassadors will permit the United States to engage the Bolivian 
Government, and wider Bolivian civil society, at the highest level.
    By channeling both nations' desire to return to a functional 
relationship based on our mutual interests, the agreement sends a 
powerful signal as to the desired direction of the bilateral 
relationship, which includes effective counternarcotics cooperation.
                                 ______
                                 

     Responses of Hon. Mari Carmen Aponte to Questions Submitted by
                        Senator Robert Menendez

    Question. Flooding: Last week, the First Lady of El Salvador and 
the Secretary of Social Inclusion, Dr. Vanda Pignato, met with a number 
of Senators to discuss U.S. flood assistance to the country. What will 
the United States be doing down the road to assist the Salvadoran 
people? What are the implications of the damage for the Salvadoran 
economy? Are you concerned that this event might increase undocumented 
immigration to the United States if jobs become few and food becomes 
too expensive?

    Answer. In response to tropical depression 12-E, the U.S. 
Government has provided $409,231 in disaster assistance. Humanitarian 
assistance included funds from USAID and the Defense Department for 
transportation support, toolkits, medicine, food, hygiene kits, and 
supplies for emergency relief projects and rescue operations. USAID 
continues to coordinate closely with the Government of El Salvador and 
the international donor community to identify areas in which we can 
further assist El Salvador in disaster recovery, including 
infrastructural and agricultural needs. USAID is reviewing its programs 
to determine if funds can be redirected to meet recovery priorities 
identified by the Government of El Salvador.

    Question. Counternarcotics Cooperation: On September 16, 2011, 
President Obama included El Salvador on the list of countries 
designated as ``major'' drug-producing or ``drug-transit'' countries, 
the first time the country has received such a designation. What 
evidence supports El Salvador's designation as a major drug transit 
country? How would you assess the current level of bilateral antidrug 
cooperation and the adequacy of U.S. counternarcotics assistance to El 
Salvador (both bilateral aid and assistance provided through CARSI)?

    Answer. The countries of Central America are increasingly used for 
trafficking of cocaine and other drugs primarily destined for the 
United States. As a result, crime and insecurity are increasing 
throughout the region. El Salvador forms part of the ``Northern 
Triangle'' along with Guatemala and Honduras, where international 
criminal syndicates are transiting illegal drugs headed to the United 
States from South America.
    El Salvador and the United States enjoy close cooperation on 
counternarcotics issues. Bilateral counternarcotics cooperation funded 
under the Central America Regional Security Initiative (CARSI) focuses 
on projects designed to reduce the flow of illegal narcotics and other 
contraband through El Salvador's territory and its littoral waters. 
Projects include support for police professionalization, assistance for 
interdiction efforts at borders and checkpoints, and equipment and 
technical assistance for the country's police, immigration, and 
security services.
    Additional CARSI assistance is being provided to the Government of 
El Salvador to support the implementation of recently passed 
legislation related to wiretapping, electronic intercepts, and asset 
forfeiture. These laws, and related U.S. assistance, will enable the 
Government of El Salvador to more effectively investigate complex 
transnational crimes, including narcotics trafficking, and to seize, 
sell, and monetize property and assets seized in conjunction with 
narcotics arrests and to use the profits for counterdrug efforts.
    To enhance the delivery of U.S. Government counternarcotics and 
related citizen security assistance to the Government of El Salvador, 
the Department has decided to open a full-fledged Narcotics Affairs 
Section within the Mission, which will bring additional management, 
procurement and planning resources to bear in support of our 
engagement.

    Question. Violence/Gangs: How has the Funes government's approach 
to addressing gangs and other public security challenges differed from 
that of previous ARENA governments? How likely is it that the 
government will be able to implement some sort of security tax to 
increase funds for efforts to deal with gangs and crime? How well is 
U.S. assistance (both bilateral aid and assistance provided through 
CARSI) supporting those efforts and how might that assistance be 
targeted more effectively?

    Answer. Across the political spectrum in El Salvador, there is 
agreement that gangs operating in El Salvador, whether transnational in 
scope, such as the 18th Street Gang or MS-13, or not, represent one of 
the most visible, pressing threats to the citizens of El Salvador. As 
such, the Farabundo Marti National Liberation Front (FMLN) government 
of President Funes has continued the efforts of former ARENA 
governments to investigate and dismantle these criminal organizations, 
including by prosecuting gang members.
    President Funes took the additional step of allocating military 
resources to supplement the police in June of 2010, and up to half the 
military remains engaged in street patrols, border security, and 
guarding the prisons. This move has been widely supported by a public 
concerned with rising crime; polls show the military is the most highly 
respected government institution.
    The Funes government has welcomed collaborative antigang efforts 
with the U.S. Government, aimed at dismantling those gangs which have a 
nexus to the United States. Central America Regional Security 
Initiative (CARSI) funded cooperation supports the FBI-led 
Transnational Anti-Gang Unit (TAG) in San Salvador, and an Immigration 
and Customs Enforcement Vetted Unit that addresses gang-related 
smuggling activities, and provides assistance to segregate gang members 
incarcerated in El Salvador's prisons. CARSI also provides funding for 
USAID programs to identify youth and communities at-risk to provide 
educational, training, and related services to mitigate risks in these 
affected areas, in coordination with the Government of El Salvador.
    Additional CARSI assistance is being provided to the Government of 
El Salvador to support the implementation of recently passed 
legislation related to wiretapping, electronic intercepts, and asset 
forfeiture. These laws, and related U.S. assistance, will enable the 
Government of El Salvador to more effectively investigate gang 
activities, to seize, sell, and monetize property and assets seized in 
conjunction with gang arrests, and to use the profits for gang and 
citizen security efforts.
    President Funes has sought additional national funds for this 
effort. He has been negotiating with the private sector over a security 
tax that would generate additional resources to be directed at 
improving citizen security. So far, that effort has not achieved 
consensus. Consequently, President Funes did not include a security tax 
in the FY 2012 budget he submitted to the legislature on September 30. 
The U.S. Government supports efforts in El Salvador and throughout the 
region to generate resources that would bolster the capacity of law 
enforcement institutions to combat criminal gangs and drug cartels and 
reduce reliance on foreign assistance.
    To enhance the delivery of U.S. Government citizen security 
assistance to the Government of El Salvador, the Department has decided 
to open a full fledged Narcotics Affairs Section within the Mission, 
which should bring additional management, procurement, and planning 
resources to bear in support of our engagement. The Department's Bureau 
of International Narcotics and Law Enforcement Affairs also maintains a 
Regional Gang Advisor in San Salvador to coordinate antigang assistance 
being provided to the Government of El Salvador.

    Question. Economic Issues: A joint U.S.-Salvadoran assessment 
published in July 2011 as part of the Partnership for Growth (PFG) 
Initiative identified the two greatest constraints on growth in the 
country as crime and insecurity and a lack of competitiveness in the 
``tradables'' sector of the economy. To what extent have those barriers 
inhibited El Salvador from receiving the full benefits of its 
participation in DR-CAFTA Agreement? To what extent, if at all, has 
dollarization inhibited El Salvador's ability to remain competitive 
with other countries? How much support are government reform efforts 
receiving from the private sector? What type of U.S. support could be 
useful?

    Answer. The two constraints identified by the joint analysis do 
limit El Salvador's ability to fully benefit from the DR-CAFTA. The 
World Bank estimates the costs associated with mitigating the effect of 
crime and insecurity add at least 10 percent to the cost of doing 
business for firms in El Salvador. The joint U.S.-Salvadoran assessment 
indicates that El Salvador may be losing 8 percent of its GDP, compared 
to other CAFTA countries, due to the productivity constraint in 
tradables. Relieving these constraints will allow El Salvador to more 
fully benefit from the opportunities created by the DR-CAFTA. 
Dollarization has protected El Salvador from inflationary shocks that 
were common with the Colon, and it prevents speculation against the 
local currency, which can put pressure on the government's reserves and 
cash flow. Dollarization also benefits Salvadorans living in the United 
States by making their remittance transfer costs cheaper.
    The private sector is playing a constructive role in support of 
reform efforts. For example, banks and power distribution companies 
worked together with the Salvadoran Government to restructure natural 
gas subsides. Under the Partnership for Growth, the private sector also 
makes up one-half of the newly installed Council for Growth, which will 
work to address competitiveness issues in El Salvador. Continued strong 
U.S. support through the Partnership for Growth will help El Salvador 
overcome obstacles related to sustained broad-based economic growth. 
Funding the various lines of action and accelerating the development of 
our PFG and other programs will help us apply maximum political and 
diplomatic tools in support of President Funes and his government.
                                 ______
                                 

      Responses of Elizabeth M. Cousens to Questions Submitted by
                        Senator Robert Menendez

    Question. Palestinian U.N. Membership: In addition to serving as 
the U.S. Representative to ECOSOC, you are also nominated to serve as 
an alternative representative to the General Assembly and in that 
context you are a part of our USUN team in New York, advocating for the 
broad spectrum of U.S. interests. With respect to the Palestinians' 
efforts to obtain membership in the U.N. and its affiliated bodies, 
what is the latest state of play? What is the earliest date that UNSC 
will have to take up this issue? Have the Palestinians communicated 
through official channels that they do not intend to apply for 
membership at any other U.N. bodies, as has been reported in the press? 
Has the mission made clear to other countries and to General Secretary 
Ban Ki-moon that the United States will not pay its contribution to 
UNESCO? Is USUN privy to any discussions to continue U.S. contributions 
to UNESCO by other means, for example, by paying for related programs 
in countries where UNESCO is currently working?

  <bullet> With respect to the Palestinians' efforts to obtain 
        membership in the U.N. and its affiliated bodies, what is the 
        latest state of play?

    Answer. With respect to the Palestinian application for U.N. 
membership, the U.N. Security Council Admissions Committee is currently 
reviewing a draft report circulated by Portugal as the chair. 
Consistent with longstanding precedent, the report summarizes the 
discussions of the Admission Committee over the last several weeks, 
including the various positions of the committee members. We anticipate 
the committee will adopt the report on November 11 and that it will be 
submitted to the Security Council. If a member of the UNSC, at the 
behest of the Palestinians, calls for a vote, such a vote could be held 
as early as the week of November 14. The United States has made clear 
it will not support any such initiative in the Council, vetoing it if 
necessary. Our view is that Palestinian moves to join U.N. bodies 
undermine the prospects for peace, delay their quest for an independent 
state, and damage the U.N. entities they seek to join--and as a result 
undermine U.S. security interests.

    Question. What is the earliest date that UNSC will have to take up 
this issue?

    Answer. A member of the Council could introduce a draft resolution 
recommending Palestinian admission and call for a vote at any time 
after November 11.

    Question. Have the Palestinians communicated through official 
channels that they do not intend to apply for membership at any other 
U.N. bodies, as has been reported in the press?

    Answer. The Palestinians have indicated publicly that they won't 
pursue membership in other U.N. entities for the time being.

    Question. Has the mission made clear to other countries and to 
Secretary General Ban Ki-moon that the United States will not pay its 
contribution to UNESCO?

    Answer. We have been very clear in public, in all our exchanges 
with the Palestinians, and in senior-level engagement with governments 
worldwide that Palestinian membership as a state in UNESCO triggers 
longstanding provisions of U.S. law that prohibit the United States 
from making assessed or voluntary contributions to UNESCO.

    Question. Is USUN privy to any discussions to continue U.S. 
contributions to UNESCO by other means, for example, by paying for 
related programs in countries where UNESCO is currently working?

    Answer. We have already withheld contributions to UNESCO following 
the vote to approve the Palestinian application. I am not aware of any 
consideration of plans to continue contributions to UNESCO by other 
means.
                                 ______
                                 

          Responses of Adam E. Namm to Questions Submitted by
                        Senator Robert Menendez

    Question. Freedom of Expression: What do you believe will be the 
impact on Ecuador's press from the government's successful lawsuit and 
judgment against the leading opposition newspaper? What are the 
repercussions of a new communications law in Ecuador as the law is 
environed pursuant to the May referendum? What steps, if any, would you 
take to encourage freedom of the press in Ecuador if appointed 
Ambassador?

    Answer. As a matter of principle and longstanding policy, the 
United States upholds freedom of the press as a vital element of a 
representative democracy. All signatory nations to the Inter-American 
Democratic Charter, including Ecuador, are committed to uphold the 
democratic practices and institutionality.
    In July, an Ecuadorian court ruled in favor of Ecuador's President 
Correa in a civil suit, convicting the editor and two directors of the 
second-largest national daily, El Universo, of libel, for an editorial 
criticizing President Correa for the events surrounding police protests 
of September 30, 2010. Immediately following the verdict, we joined the 
Inter-American Press Association, the Committee to Protect Journalists, 
and others in expressing concern over the sentence. We understand the 
case is under appeal, and are following that process closely.
    The May Referendum, approved by popular vote, included a proposal 
for a new Communications Law, which is still under debate in Ecuador's 
National Assembly. The implementation of these revisions, including the 
Communications Law, deserves careful scrutiny and analysis within 
Ecuador, by civil society, and by other nations that, like Ecuador, are 
signatories to the Inter-American Democratic Charter, which commits 
them to uphold strong democratic principles.
    U.S. engagement with and assistance to Ecuador include an important 
and enduring focus on strengthening democratic institutions, including 
a free press, an independent and vigorous judiciary, and vibrant civil 
society organizations. If confirmed, I will speak out publicly and 
forcefully on these points, engage with the Ecuadorian Government at 
the highest levels, and work with Ecuador's civil society to further 
these U.S. policy priorities.

    Question. Investment Climate: Private companies have long 
experienced problems in Ecuador's oil and mining industries. How would 
you describe the current investment climate in Ecuador and how might it 
be improved? How would you assess the Correa government's efforts to 
attract much-needed foreign investment and how might they be improved? 
To what degree are U.S. companies welcome to invest and operate in 
Ecuador?

    Answer. The United States and Ecuador have maintained a strong 
commercial relationship in Ecuador dating that country's independence 
from Gran Colombia in 1830. The United States remains Ecuador's largest 
trading and an important investment partner. The Ecuadorian Government 
and private sector have expressed interest in strengthening the 
bilateral commercial relationship with the United States. Taking into 
consideration specific areas for improvement in attracting foreign 
investment, we will look to engage with Ecuador to promote U.S. 
interests and protect U.S. investments.
    Ecuador's investment climate includes a number of contrary factors, 
not least of which is the task of implementing provisions precipitated 
by Ecuador's 2008 constitution which could impact investment. Ecuador's 
stated intention to withdraw from bilateral investment treaties, 
including with the United States, has increased uncertainty.
    Despite these challenges, Ecuador is relatively open to foreign 
investment, including from the United States, and is cognizant of the 
need to attract foreign investment as it looks to expand its petroleum 
and mining sectors. The Ecuadorian Government announced that it plans 
to make available new oil concessions in the southwestern portion of 
the country. It is currently negotiating large-scale mining contracts 
with a number of foreign investors to move the sector from exploration 
to production in order to exploit the country's untapped yet 
substantial reserves. In addition, the government has sought to 
generate investment in small and medium-sized firms through a newly 
adopted ``Production Code,'' which includes tax incentives to encourage 
investment in key sectors.
    The Ecuadorian Government has expressed hope for an improved 
commercial relationship with the Unites States in the future. The 
United States funds assistance programs aimed at aiding Ecuadorian 
efforts to fight corruption, address rule of law and overall security 
concerns, and in general improve the judicial system. Such steps could 
be helpful in terms of the investment climate. If confirmed, I would 
commit my efforts and those of the Embassy to engage with the 
Ecuadorian Government and with the private sector to raise any concerns 
about the business and investment climate, to seek U.S. investment in 
Ecuador, and to ensure that U.S. investors are treated fairly and 
equitably under the law.

    Question. Non-Tariff Barriers/WTO: Ecuador maintains a number of 
WTO-illegal safeguards measures against imports of U.S.-made and U.S.-
branded products including textiles, tires, windshields, apparel, 
footwear, and television sets as well as very restrictive and 
nontransparent tariff-rate quotas (TRQs) on imports of most U.S. 
agricultural products. What efforts are being made with Ecuador to 
address barriers to U.S. exports, especially as the World Trade 
Organization plans its next biennial Trade Policy Review of Ecuador 
later this month?

    Answer. USG officials in Washington, Quito, and elsewhere have 
raised concerns with the Ecuadorian Government that a number of its 
trade policies may not be consistent with its WTO obligations. We 
continue to urge Ecuador to comply fully with its WTO commitments, and 
are working to mitigate the adverse impact of Ecuadorian trade 
restrictions on U.S. interests by engaging with the Ecuadorian 
Government directly through frank discussions on these issues. We also 
plan to raise our concerns at the next World Trade Organization 
biennial Trade Policy Review of Ecuador and utilize all other 
mechanisms at our disposal to address concerns of barriers to U.S. 
exports.
    Despite these restrictions, the Department, USTR, and our Embassy 
in Quito have been instrumental in successfully advancing and promoting 
U.S. economic and commercial interests in Ecuador. In July 2010, as a 
result of our Embassy and USTR efforts, the Government of Ecuador 
eliminated balance of payments safeguards that had negatively affected 
U.S. exports. In addition, the Ecuadorian Government lifted its 
Sanitary and Phyto-Sanitary agreement ban on poultry imports from West 
Virginia and Arkansas. In 2010, the United States registered a 30-
percent increase in exports to Ecuador.
    Among the Embassy's advocacy successes is the New Quito 
International Airport project, which was successfully renegotiated and 
includes $264 million in lending from U.S. Government agencies and $685 
million in U.S. exports of goods and services over the project life.
    If confirmed, it will be a priority for me to engage, along with my 
colleagues from the Foreign Commercial Service and USDA, with Ecuador's 
Coordinating Ministry for Production, Ministry of Industries, Ministry 
of Agriculture, National Customs Service, and Foreign Trade Committee 
to facilitate imports of U.S. products and services. Likewise, if 
confirmed, I will work to advance further the Embassy's Economic and 
Commercial sections' efforts with Ecuador's Intellectual Property 
Institute to promote awareness of Intellectual Property Rights (IPR) 
issues through educational campaigns and to promote increased IPR 
enforcement.
                                 ______
                                 

       Responses of Roberta S. Jacobson to Questions Submitted by
                          Senator Marco Rubio

    Question. For more than three decades, the State Department has 
designated Cuba as a State Sponsor of Terrorism. Last month, there were 
troubling reports that the administration could be considering removing 
Cuba from the list in exchange of Mr. Alan Gross' release.

  <bullet> Can you confirm whether the administration has ever 
        considered removing Cuba from the State Sponsors of Terrorism 
        list in exchange for Mr. Gross' release?
  <bullet> Under what conditions would the administration consider 
        removing Cuba from this list?
  <bullet> Do you envision brokering any additional deals with the 
        Government of Cuba that involves their status as a terrorist 
        supporting state?

    Answer. At no time has the administration considered removing Cuba 
from the State Sponsors of Terrorism list in exchange for Mr. Alan 
Gross' release. There is an established series of requirements 
necessary for a country to be removed from the State Sponsors of 
Terrorism list, and the Government of Cuba is well aware of these 
requirements.
    The conditions/requirements under which Cuba could be considered 
for removal from the State Sponsors of Terrorism are as follows:
    In the absence of a fundamental change in the leadership and 
policies of the Cuban Government, in order to rescind Cuba's 
designation as a State Sponsor of Terrorism, the law requires the 
President to first submit a report to Congress justifying the 
rescission and certifying that:

  <bullet> The Government of Cuba has not provided any support for 
        international terrorism during the preceding 6-month period, 
        and,
  <bullet> The Government of Cuba has provided assurances that it will 
        not support acts of international terrorism in the future.

    We have not brokered any deals with the Government of Cuba that 
involve their status on the State Sponsor of Terrorism list, and we do 
not envision brokering any such deals at this time.

    Question. I understand that our policies in Cuba are based on a 
cost-benefit analysis that balances accomplishments in democracy 
promotion versus the financial resources that will go to the Castro 
regime and indisputably enhance the regime's capacity for repression. 
We now know that since the Obama administration eased restrictions on 
travel and remittances in April 2009, the regime has doubled its hard 
currency deposits in foreign banks. The Bank for International 
Settlements reported banks in 43 countries held $5.76 billion in Cuban 
deposits as of March of this year, compared with $4.285 billion at the 
close of 2009 and $2.849 billion at the close of 2008.

  <bullet> Can you provide detailed examples of what has been achieved 
        in terms of democracy promotion in Cuba since April 2009 that 
        outweigh the financial gains to the regime?
  <bullet> Political repression by the regime has more than doubled 
        this year, reaching the worst documented level of repression in 
        30 years. How is this increase in funds helping the regime's 
        repressive apparatus?

    Answer. The increase in Cuban bank account balances from 2008-2011 
is most likely the result of substantial third-country lines of credit, 
petroleum subsidies, import reduction efforts, and remittances from 
other countries. We do not believe it is likely the direct result of 
increased U.S.-based remittances or travel activities to the island.
    Regulatory changes announced in April 2009 and January 2011 were 
designed to enhance the free flow of information to, from, and among 
the Cuban people and promote their independence from the Cuban state. 
These measures do not allow for tourist travel, which is against the 
law and will not be authorized under these regulations. We work very 
closely with the Treasury Department's Office of Foreign Assets Control 
(OFAC) to prevent the misuse of these measures to promote tourism. We 
believe the Cuban people's gain through the people-to-people measures 
outweigh any potential benefit to the Cuban regime.
    In addition to expanding people-to-people contact, our democracy 
and human rights programs complement our efforts to support the Cuban 
people by providing them with the knowledge base and the tools to gain 
greater freedom. Our Interests Section in Havana meets frequently with 
dissidents and we have trained hundreds of independent journalists 
whose work has appeared in major international news outlets. Human 
rights groups trained by our grantees have also documented human rights 
abuses for submission to international human rights bodies at the 
United Nations and Organization of American States and our diplomats 
work tirelessly to keep attention focused on Cuba's human rights 
record.

    Question. Over the last 9 months, you have also served as the 
Western Hemisphere Security Coordinator at the State Department, 
coordinating U.S. security cooperation across the region and U.S. 
Federal agencies.

  <bullet> How often did you hold coordination meetings with agencies 
        outside of the State Department?
  <bullet> What concerns and complaints did U.S. federal agencies 
        express to you regarding coordination of State Department 
        projects?
  <bullet> How could U.S. cross-agency coordination better work to 
        address the increased security challenges in this complex 
        environment along our southern border?
  <bullet> As Western Hemisphere Security Coordinator, how often did 
        you brief the U.S. Congress on the interagency and interprogram 
        coordination strategy and developments?
  <bullet> How often did you brief other agencies on delays or 
        coordination challenges that arose in relation to any of the 
        security programs in the region? Please list date and general 
        content of discussion.
  <bullet> Are there examples of successful cross-agency coordination 
        for State Department led initiatives that were carried out by 
        the Under Secretary for Political Affairs? What is the benefit 
        to having a high-level career officer hold this role?

    Answer. The coordinator on citizen security initiatives is 
responsible for ensuring necessary coordination among our citizen 
security initiatives in the hemisphere, and among the agencies that 
execute them. In this capacity, it has been my responsibility to ensure 
that the appropriate WHA offices were in regular contact with their 
interagency interlocutors. I facilitated coordination within WHA, with 
partner bureaus in the State Department, and throughout the interagency 
community. During the period in question, I chaired or cochaired large, 
high-level interagency meetings on April 1 and on May 26, 2011, and 
attended at least a half dozen interagency policy committee meetings 
during which such coordination took place. While these larger meetings 
are of significant value, I would also note the very intense 
coordination on the citizen security initiatives in the Western 
Hemisphere that take place every day in smaller, more informal meetings 
and at the working level.
    Interagency discussions focused not only on the implementation of 
State Department programs but more importantly also on the critical 
effort to ensure the best possible coordination among the various 
programs executed by our interagency partners. For example, security 
programs and development programs often had to be sequenced to ensure 
maximum effectiveness.
    As one example, through our broad engagement with Mexico on the 
full range of important security, economic, and border management 
issues, we are enhancing U.S. interagency coordination and information 
sharing to address the increased security challenges along our southern 
border. For example, the ``National Southwest Border Counternarcotics 
Strategy'' was updated by the Office of National Drug Control Policy on 
July 7, 2011, to better guide national efforts focused on reducing the 
flow of illicit drugs and drug proceeds across the Southwest border. 
Other mechanisms to improve coordination include the Executive Steering 
Committee on 21st Century Border Management and the Mexico Merida High 
Level Consultative Group.
    Alone, and with other State Department officials from multiple 
bureaus, I have briefed Members of Congress and their staff on our 
citizen security initiatives, our budget requests, and overall strategy 
on many occasions, as requested. I testified before the U.S. Senate 
Caucus on International Narcotics Control on May 25, 2011, on our 
Central America Regional Security Initiative (CARSI) in a hearing 
titled ``Combating Drug Violence in Central America.'' Our efforts to 
improve coordination were both integrated into the initiatives 
themselves and regular briefings and conversations regarding the 
initiatives between WHA and Congress.
    On the matter of coordinating delivery of U.S. assistance, I and my 
staff were in constant coordination with the Bureaus of International 
Narcotics and Law Enforcement Affairs and Political-Military Affairs 
(INL and PM), our embassies, interagency colleagues, and host 
governments concerning the details of implementation, seeking the best 
possible information, and to ensure an integrated and effective effort. 
These meetings occurred virtually every day. We developed improved 
mechanisms to speed the delivery of assistance and developed best 
practices to help to alleviate future delays and coordination 
challenges. For example, as a result of interagency coordination and 
the intervention of the most senior levels of the State Department, we 
were able to overcome early challenges in the delivery of UH-60 
helicopters to the Mexican Navy and accelerate the manufacturer's 
schedule to meet the initiative's requirements.
    Various Under Secretaries have very effectively coordinated 
Department-led initiatives. The Under Secretary for Global Affairs will 
become the Under Secretary for Civilian Security, Democracy, and Human 
Rights, and will have a key role in coordinating and overseeing 
civilian security efforts, including by ensuring coordination of cross-
cutting initiatives and global or multiregion initiatives. That said, 
we take advantage of the enormous expertise involved in coordinating 
implementation of bilateral and subregional citizen security 
initiatives which exists within State's regional bureaus. The 
relationship between the Western Hemisphere Bureau and the functional 
experts within INL, PM, DRL and other Bureaus continues to be extremely 
positive and results-oriented.

    Question. Regarding Daniel Ortega's reelection in Nicaragua. What 
are the implications of his reelection--and the process leading up to 
it--for the democratic consensus in Central America and the broader 
Western Hemisphere?

    Answer. The Nicaraguan elections were marred by irregularities and 
lack of transparency. The government failed to accredit some credible 
domestic organizations as observers, voters faced difficulties in 
obtaining proper identification, and Nicaraguan authorities declared 
that electoral candidates could be disqualified after the elections.
    We view this as an exception rather than the rule in Central 
America and in the hemisphere more broadly. The region's commitment to 
democratic development is widespread and strong. The Organization of 
American States can help support the hemisphere's democratic progress, 
especially as we work to implement fully the unique Inter-American 
Democratic Charter which enshrines the duties of our governments to 
protect and promote our citizens' right to democracy.
    Through our statements, our bilateral diplomacy, and our 
multilateral diplomacy, if confirmed, I will remain committed to 
defending democratic processes and universal human rights, during 
electoral processes and beyond, and addressing threats to democratic 
institutions as they arise.

    Question. What measures has the administration taken to lead a 
robust debate at the OAS on the irregularities and violations of the 
Nicaraguan Constitution that took place leading up to the November 6 
election?

    Answer. We have spoken out publicly about the elections, agreeing 
with the European Union electoral mission that the Supreme Electoral 
Council did not operate in a fair and impartial manner, including in a 
public statement on November 10. We also share the concerns of the OAS 
electoral mission regarding irregularities in the electoral process, 
and we join the OAS in calling upon Nicaraguan authorities to 
investigate acts of violence perpetrated on election day.
    The United States--and other member states--also expressed concern 
with the initial press release issued by the OAS which spoke of 
democracy advancing through the elections. This quote was later removed 
by the OAS.
    In our ongoing discussions with OAS Secretary General Insulza, 
Chief of Mission of the OAS Electoral Mission Dante Caputo, OAS member 
states, and other donors, we have underscored the importance of 
ensuring that the OAS take into consideration preelectoral issues 
impacting democratic institutions in Nicaragua. We will continue to 
raise our concerns on these points when the preliminary report of the 
OAS Electoral Mission is presented to the OAS Permanent Council.
    The United States remains committed to defending democratic 
processes and universal human rights in the OAS. This is fully 
consistent with our common commitment to representative democracy, as 
expressed in the Inter-American Democratic Charter.

    Question. What steps is the administration taking or is prepared to 
take to ensure the constitutional and electoral irregularities that 
have taken place in Nicaragua receive a robust response at the OAS, 
consistent with previous decisions regarding constitutional disruptions 
elsewhere in Central America?

    Answer. The administration is working tirelessly with our partners 
in the region to ensure that the OAS addresses the irregularities 
observed in the Nicaraguan election, consistent with the shared 
commitment of all OAS member states to representative democracy, as 
expressed in the Inter-American Democratic Charter. As Article One of 
the Charter clearly states, ``the peoples of the Americas have a right 
to democracy and their governments have an obligation to promote and 
defend it.''
    The United States is committed to defending democratic processes 
and universal human rights and continues to urge the OAS to take steps 
to address the irregularities in a transparent and open manner. The 
United States has been working closely with the OAS Secretary General, 
Chief of Mission of the OAS Electoral Mission Dante Caputo, and other 
donors to review the irregularities in the Nicaraguan elections and 
ensure appropriate followup by the OAS Permanent Council. A preliminary 
report will be made to the OAS Permanent Council in the coming days by 
Mr. Caputo, and we look forward to a robust discussion of the findings.
    The mission's report will address concerns regarding the identity 
card process, the makeup of the polling committees or ``Juntas 
Receptoras de Votos,'' the accreditation of political party observers 
(``testigos'') and the fulfillment of procedures related to the 
activities of international observers. The OAS Electoral Mission has 
also expressed concern regarding irregularities in the electoral 
process, as well as different acts of violence perpetrated on election 
day. We fully support the Electoral Mission's call on Nicaraguan 
authorities to fully investigate and clarify these events.
    We will continue to press the OAS to take all necessary steps to 
promote free and fair elections in all countries in the hemisphere. We 
remain steadfast in our commitment and will continue to raise our 
concerns at the highest levels of the OAS.

    Question. As you know, the administration has announced that it 
will oppose all loans from multilateral development banks to the 
Government of Argentina until the Argentine Government respects its 
obligations under the International Centre for Settlement of Investment 
Disputes (ICSID) Convention. I understand that the administration is 
also considering the prohibition of trade benefits to Argentina 
currently granted under the Generalized System of Preferences, until 
that country comes into compliance with its ICSID obligations.

  <bullet> When do you expect a decision on the GSP measures? Are there 
        other steps that the U.S. Government can take to protect 
        American investors affected by Argentina's behavior on this 
        matter?

    Answer. The Department of State is pleased that the Generalized 
System of Preferences (GSP) program was recently reauthorized.
    The Department of State is one of several executive branch agencies 
on the GSP Subcommittee of the Trade Policy Staff Committee, led by 
USTR. The subcommittee has two petitions under review seeking 
Argentina's removal from the GSP program based on alleged 
nonconformance with certain GSP eligibility criteria. Each of the 
petitions alleges that the Argentine Government has failed to act in 
good faith in recognizing as binding or in enforcing an arbitral award 
owed to the petitioner. On September 28, 2010, the GSP Subcommittee 
held a public hearing on these two petitions.
    Following the hearing, the subcommittee undertook a review of the 
hearing testimony, public comments, and other information in order to 
consider whether the circumstances warrant any changes to Argentina's 
GSP eligibility. When authorization for the GSP program expired, on 
January 1, 2011, review of this and other petitions was suspended, 
pending reauthorization of the program. In October 2011, Congress 
passed, and the President signed into law, legislation reauthorizing 
the GSP program. As a result, the GSP Subcommittee has resumed its 
review and is now considering next steps with respect to the petitions. 
Any change to the list of GSP beneficiaries would require a 
determination by the President.
    The United States has repeatedly raised Argentina's final and 
enforceable International Centre for the Settlement of Investment 
Disputes (ICSID) awards with Government of Argentina officials at the 
highest levels and will continue to do so in the future. The United 
States will continue to remind the Government of Argentina of its 
international obligations, stress the importance of maintaining a fair 
and transparent investment climate that allows for effective dispute 
resolution, and underscore the extent to which foreign investment is 
critical to Argentina's economy.
    The new multilateral development bank lending policy responds to 
serious concerns about Argentina's failure to pay outstanding final 
ICSID arbitral awards and also to take the necessary steps to fully and 
conclusively normalize relations with its creditors.
                                 ______
                                 

     Responses of Hon. Mari Carmen Aponte to Questions Submitted by
                          Senator Marco Rubio

    Question. Mexico has had some success in combating how the cartels 
and Drug Trafficking Organizations (DTOs) finance themselves by 
limiting one-time cash deposits into a Mexican bank account to $10,000. 
This has driven the DTOs into Guatemala and El Salvador, where 
regulations are much weaker and they can open bank accounts with huge 
sums of cash.

  <bullet> Can you describe your work with Salvadoran authorities to 
        encourage banking regulations and reforms that will target the 
        cartels and DTOs that are bringing violence into Central 
        America?

    Answer. U.S. agencies are currently working with the National 
Civilian Police to create a vetted unit that will focus on money 
laundering and other related criminal activities. Under President 
Obama's Partnership for Growth, we will also create a committee 
comprised of experts from El Salvador and the United States to 
encourage the approval and implementation of a complete asset 
forfeiture law as well as improvements to legislation to combat money 
laundering. The committee will use a portion of the forfeited assets to 
fund crime prevention programs. Additionally, we will work with the 
Salvadoran Government to strengthen units in charge of financial 
investigation in the Police Force and Attorney General's Office.

    Question. Our cooperation with Mexico has been affected by 
bureaucratic delays in the delivery of key equipment. Have you 
identified similar delays affecting the timely and efficient delivery 
of our security cooperation programs in El Salvador?

    Answer. Mexico had significant national resources available to 
support, sustain, and expand upon the equipment purchased through our 
security programs. Central American nations, including El Salvador, 
lack the capacity to provide similar levels of support for large 
equipment purchases, such as helicopters, planes, and advanced 
nonintrusive inspection equipment (NIIE). Therefore, CARSI's focus is 
heavily oriented toward training, mentoring, and professionalization 
versus the acquisition of equipment. As required, and based upon 
assessments of El Salvador's needs and capabilities, we are supporting 
the acquisition of limited quantities of equipment for El Salvador that 
is easy to maintain, requires little additional host-nation maintenance 
to sustain the capability, and require limited training. Examples of 
this equipment include bullet proof vests, communications equipment, 
and hand-held nonintrusive inspection equipment, such as fiber optic 
scopes.
    To enhance the delivery of citizen security assistance to the 
Government of El Salvador, the Department has decided to open a full-
fledged Narcotics Affairs Section within the Mission, which should 
bring additional management, procurement and planning resources to bear 
in support of our engagement. To ensure that we are providing a whole-
of-U.S. Government approach to citizen security in El Salvador, the 
Mission coordinates all citizen security efforts of all U.S. agencies 
involved in delivering prevention, law enforcement, rule of law, and 
security assistance (relevant agencies include Bureau of Alcohol, 
Tobacco, Firearms and Explosive, Drug Enforcement Administration, 
Federal Bureau of Investigation, Immigration and Customs Enforcement, 
the Military Group, and U.S. Agency for International Development).
    To increase the impact of our efforts, the mission is also leading 
a ``Group of Friends of El Salvador'' with like-minded donors, 
international financial institutions and multilateral organizations to 
avoid duplicative programming and seek leveraging opportunities to 
collaborate with other partners on El Salvador's most pressing citizen 
security challenges.
                                 ______
                                 

          Responses of Adam E. Namm to Questions Submitted by
                          Senator Marco Rubio

    Question. What is your assessment of the current state of 
democratic institutions in Ecuador, specifically regarding government 
controls over the media, government regulations over civil society, and 
the consolidation of legislative and judiciary power under the 
executive branch?

    Answer. The Ecuadorian Constitution of 2008 and a May 2011 
referendum mandated a substantial restructuring of a number of 
Ecuadorian governmental institutions. Both measures were approved by 
popular vote. The referendum directed changes to Ecuador's judicial 
system and a new Communications Law. Both the judicial restructuring 
and the new Communications Law are still under debate in Ecuador's 
National Assembly.
    Ecuadorian and international civil society have expressed concern 
about the referendum, particularly the possibility that the judicial 
reform would result in effective executive control over the judiciary. 
Similarly, a civil suit lodged by President Correa against the El 
Universo newspaper that resulted in a very large fine being assessed to 
El Universo has raised concerns about media freedom. The State 
Department expressed similar concerns.
    As a matter of principle and longstanding policy, the United States 
believes that representative democracies require strong democratically 
established institutions, a robust, independent judiciary, and vibrant 
and independent media. It is for this reason that implementation of 
these revisions deserves careful scrutiny and analysis within Ecuador, 
by civil society, and by other nations that, like Ecuador, are 
signatories to the Inter-American Democratic Charter, which commits 
them to uphold strong democratic principles.
    Secretary Clinton has stated publicly that free press, freedom of 
expression, and a vibrant civil society are critical elements of 
democratic governance. If confirmed, I will continue to communicate the 
importance of these irreplaceable democratic values and universal human 
rights to the Ecuadorian Government and ensure that we follow closely 
any restructuring of Ecuador's institutions.

    Question. What are your greatest concerns regarding the growing 
ties between the government of Rafael Correa and Iran?

    Answer. We are fully aware of the Iranian Government's flouting of 
international standards, including defiance of United Nations Security 
Council resolutions. Secretary Clinton said in 2009 that Latin American 
nations should therefore ``think twice'' about engaging with Iran.
    The focus of the Ecuador-Iran relationship has largely focused on 
diplomatic and some commercial ties. Both governments have discussed 
closer cooperation and have signed a number of agreements, but to date, 
there have been few concrete results, if any, from such projects.
    For our part, we carefully monitor Iranian activities in Latin 
America to ensure that violations of U.S. law or international 
sanctions are quickly detected and appropriate actions taken. The 
United States, when merited, has taken specific and effective actions 
concerning other countries in the region to address violations of U.S. 
statute or regulation with respect to dealings with Iran. We would do 
the same in the case of similar violations involving Ecuador or any 
other country in the region.
    We have expressed to the Ecuadorian Government our concerns over 
Iran's support for terrorism, human rights violations and 
nonproliferation activities, U.S. policy designed to address this 
threat, and the importance of complying with international sanctions 
intended to deprive funding for entities involved in these activities. 
In 2009, the Export Development Bank of Iran, which was and is 
designated by Treasury's Office of Foreign Assets Controls, indicated 
publicly that it had reached agreement to operate in Ecuador. At the 
time, and since, we have continued to reiterate the risks that 
financial institutions, both private and public, run, should they 
engage in transactions with U.S.-sanctioned entities, such as the 
Export Development Bank of Iran.
                                 ______
                                 

      Responses of Elizabeth M. Cousens to Questions Submitted by
                         Senator John Barrasso

    Question. In your speech on November 19, 2009 at the Informal 
Meeting of the General Assembly on Climate Change, you stated that 
``one of mankind's greatest challenges'' is ``sustainable, climate-
friendly development.''

  <bullet> You also stated, ``We have in Copenhagen the opportunity to 
        reach a deal that can spur us on this path immediately and 
        speed the transition to a low-carbon global economy.''

  <bullet> If confirmed, will you promote sustainable, climate-friendly 
        development over all other forms of development?
  <bullet> Do you believe U.S. taxpayers should pay billions in climate 
        change adaptation assistance to developing countries?

    Answer. The new Presidential Policy Directive (PPD) on Global 
Development recognizes that development is vital to U.S. national 
security and a strategic imperative for the United States. It calls for 
a new focus on sustainable outcomes and a more strategic approach to 
development policy and assistance. The strategic approach focuses on 
the key drivers of broad-based economic growth and democratic 
governance, innovative solutions to longstanding development 
challenges, stabilization of countries emerging from crisis or 
conflict, and a new emphasis on holding all recipients of U.S. 
assistance accountable for development results. Climate change 
considerations are integrated in this policy as one important factor 
for countries' long-term economic growth prospects and resilience.
    As I have understood from colleagues in the Office of the Special 
Envoy for Climate Change, part of what made the Copenhagen and Cancun 
agreements possible was a commitment, in the context of meaningful 
mitigation commitments and transparency by developing countries, to 
assist poor countries--particularly the least developed countries who 
are some of the most vulnerable to climate change impacts--in both 
their adaptation to the effects of climate change and in their own 
efforts to limit carbon emissions. There was also an understanding that 
resources for adaptation assistance would need to be mobilized from a 
wide variety of sources, including the private sector. I believe that 
such a balanced approach to climate change is very much in U.S. 
national interest and bolsters U.S. leadership. It can also contribute 
to our own economic growth and help build a clean-energy world that is 
more resilient to the challenges presented by climate change, helping 
to decrease the costs of disaster assistance in the future.
    Many countries around the world, from least developed countries to 
some of our longest standing allies see climate change as one of the 
fundamental challenges facing their populations. It is vital to U.S. 
diplomatic leverage generally, and to long-term U.S. interests, to 
remain internationally engaged on these issues.
    Our programs are already making a difference on the ground. For 
example, in northern Uganda, we have worked to replace costly and 
inefficient diesel-powered water pumps at schools and health centers 
with solar energy systems. In the country of Georgia, the United States 
is promoting energy efficiency and renewable energy demonstration 
projects in sectors and buildings typically short of funding and 
lacking in donor support for energy improvements, such as hospitals. 
These kinds of programs, along with those of our partners around the 
world, make a difference not only in the effort to address climate 
change, but also in the lives and economies of the communities in which 
we work.

    Question. India and China are growing rapidly as a result of 
affordable power, primarily from coal. Broader economic improvements in 
poor countries have been bringing real living improvements to people.

  <bullet> Given your previous statement in support of sustainable, 
        climate-friendly development, do you believe poor countries 
        should not be allowed to improve their standard of living by 
        using affordable power derived from coal?

    Answer. Every country has unique energy needs and energy options. A 
clean and secure energy future that allows for sustained economic 
growth over the long-term must therefore include many options and 
incorporate a diversity of energy sources over time. In many contexts, 
traditional energy sources such as coal will remain an important part 
of a country's energy portfolio in the short and medium term. However, 
the administration's energy policy is focused on diversifying sources 
beyond traditional fossil fuel energy as part of a comprehensive, long-
term strategy for energy independence. This includes expanding cleaner 
sources of electricity, including from renewable resources, nuclear 
power, and cleaner fossil fuels, such as natural gas, as well as energy 
efficiency measures.
    Through the Global Climate Change Initiative (GCCI), the United 
States will integrate climate change considerations, as appropriate, 
into other considerations of law and policy guiding foreign assistance 
to foster low emissions development strategies and enable developing 
countries to explore energy solutions path that are commercially viable 
as well as environmentally sustainable.


                              NOMINATIONS

                              ----------                              


                       THURSDAY, DECEMBER 8, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Tara D. Sonenshine, of Maryland, to be Under Secretary of State 
        for Public Diplomacy
Earl W. Gast, of California, to be an Assistant Administrator 
        of the United States Agency for International 
        Development
Anne Claire Richard, of New York, to be Assistant Secretary of 
        State for Population, Refugees, and Migration
Robert E. Whitehead, of Florida, to be Ambassador to the 
        Togolese Republic
                              ----------                              

    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, presiding.
    Present: Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, good morning, everyone. The Senate 
Foreign Relations Committee will come to order.
    I want to thank Senator Kerry for allowing me to chair this 
particular hearing on the nominees.
    I noticed Senator Corker was here a little bit earlier and 
greeted our nominees.
    And I am going to apologize in the beginning because there 
is a scheduled vote at 10:30 this morning which may require us 
to take a brief recess. But we will try to get this hearing 
done as efficiently as possible. There may be additional 
questions that are asked for the record, and I would just 
encourage the nominees to respond to those questions submitted 
for the record as promptly as possible.
    So let me welcome you all here. It is nice to have Mr. Earl 
Gast, who has been nominated to the Assistant Administer of the 
United States Agency for International Development; Ms. Tara 
Sonenshine, to be Under Secretary of State for Public Diplomacy 
and Public Affairs; Ms. Anne Richard, to be Assistant Secretary 
of State for Population, Refugees, and Migration; and Mr. 
Robert Whitehead, to be United States Ambassador to Togo.
    We thank all of you for your willingness to serve in these 
public positions during these extremely challenging times, and 
we thank not only you, but we thank your families because we 
know this is not something that you can do without the support 
of your families. And we do thank you for this and we 
appreciate very much your willingness, in many cases, to 
continue in public service.
    Mr. Gast and Mr. Whitehead have over a half a century of 
public service between the two of you. Both will work on 
critical issues in Africa, including economic development, 
human rights, and support of democracy.
    Mr. Gast, as USAID's Assistant Administrator for Africa, 
you will be responsible for nearly 40 percent of the USAID's 
budget. As you know, this is a continent that suffers from food 
insecurity and mounting humanitarian crises, staggering gender 
inequalities, epidemics, extremism, crippling poverty, and 
climate change, just to mention a few of the challenges that we 
will be expecting you to deal with in this new position.
    Our development assistance works with people and 
governments of Africa to strengthen democratic institutions, 
foster broad-based and sustainable economic growth, combat 
disease, and improve public health, promote the rights of 
women, prevent, mitigate, and resolve armed conflict, and 
address transnational threats and challenges.
    There are some in the Congress today who question the 
utility of this aid and often imply that perhaps it is not in 
America's strategic interest to provide this assistance. I 
could not disagree more. We must never forget, or let others 
forget, that our development assistance constitutes less than 1 
percent of the Federal budget. Disproportionate cuts in these 
programs will not solve our budget crisis but will have a 
catastrophic result in the pursuit of our national security and 
our economic goals.
    Mr. Whitehead, as U.S. Ambassador to Togo, if confirmed, 
you will represent the President in West Africa among an ally 
who has a mixed record on democratic rule. I urge you to do 
your utmost to encourage stability in economic development, 
improve health care and personal freedoms to the government so 
that the Togolese themselves can begin to fully enjoy the 
fruits of democracy.
    I also expect that you will make a concerted effort to 
engage the ministers who will represent Togo at the United 
Nations Security Council so they are fully informed about the 
consequences of their votes as it relates to international 
events and U.S. interests.
    And now for our two Marylanders. The two Marylanders will 
have an easier time today. [Laughter.]
    I am very proud of both of our Maryland residents who are 
here today. Ms. Sonenshine, you bring an impressive 
qualification to this role of Under Secretary for Public 
Diplomacy and Public Affairs. Certainly your years of 
experience at ABC, including 10 Emmy Awards, Newsweek, and most 
recently the U.S. Institute of Peace have exposed you to both 
the intricacies of the press and a broader peace agenda. I look 
forward to hearing more about your ideas as to how to adapt our 
traditional methods of messaging to today's increasingly 
connected world and how you plan to expand not only the use of 
new technology, but also good, old-fashioned people-to-people 
exchanges.
    Under your jurisdiction will be many important functions, 
including the educational and cultural affairs. I have found, 
from my own experience, most of the foreign leaders with whom I 
have had the most rapport often are those who have studied or 
visited the United States. The programs that come under your 
role allow for that type of contact to continue. I can tell you 
that this is money well spent, but we want to make sure that we 
get the maximum benefits from these types of public 
investments.
    Ms. Richards, I have to tell you that the bureau that you 
will lead, if confirmed, has a mighty task. You will be deeply 
involved in the politics of your issue but also have 
programmatic responsibility to address individual needs. With 
your extensive background in previous State Department roles 
and at the International Rescue Committee, you know that this 
role for which you are nominated will put you as one of the 
champions of the world's most vulnerable population. The 
Population, Refugees, and Migration Bureau deals with the 
plight of refugees worldwide, as well as conflict victims, 
those displaced by natural disasters, and populations of 
concern to the United Nations High Commissioner for Refugees.
    In your new role, you will also provide a range of services 
addressing basic needs, community services, tolerance-building, 
and dialogue initiatives and take the lead on refugee 
protection and resettlement in the United States. Your staff 
members are often among the first Americans to come into 
contact with refugees who, in time, will also become Americans. 
The humanitarian nature of your work has got to be among the 
most fulfilling tasks of the State Department, in an area that 
is very close to my heart and the priorities that I have 
proposed as U.S. Senator.
    Once again, I thank all four of you for being willing to 
serve in critically important public positions, but ones which 
get a lot of attention and are not always well understood. We 
appreciate that willingness and we look forward to hearing your 
testimony today.
    With that, we will start. Mr. Gast, you can start. I will 
be glad to hear your comments, and we will follow that up with 
some questions.

 STATEMENT OF EARL W. GAST, OF CALIFORNIA, TO BE AN ASSISTANT 
  ADMINISTRATOR OF THE UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Gast. Thank you, Mr. Chairman. And I would like to 
start by saying that I was born in Maryland. [Laughter.]
    And I am very thankful that my family is here today and 
they are all Marylanders as well.
    Senator Cardin. Well, that is very good. Do you want to 
make any confessions here about your connections? [Laughter.]
    Mr. Gast. It is an honor to appear before you today as the 
nominee to be USAID's next Assistant Administrator for Africa.
    I want to express my appreciation for the trust and 
confidence that President Obama has placed in me by nominating 
me for this very important position and for the strong support 
of Secretary Clinton and Administrator Shah. I would also like 
to thank Sharon Cromer, a dedicated senior Foreign Service 
officer and a good colleague of mine, who has ably led the 
Bureau over the past year. And finally, I would like to 
recognize my predecessor in the Africa Bureau, Kate Almquist, 
whose expertise gave me an invaluable initiation to the region.
    After more than 20 years in the Foreign Service, I have 
seen development improve people's lives and help countries 
grow, but I have also seen it fail to live up to our 
expectations and our hope. Nowhere does development show more 
promise, yet pose such challenge than it does in Africa today.
    Many Americans see only Africa's seemingly intractable 
problems, but the remarkable progress on the continent is the 
often untold side of the story. Ghana and Tanzania are leading 
their own development plans that we contribute to, not direct. 
Liberia and Sierra Leone are quietly reaping the dividends of 
peace after a brutal civil war. Our response to the crisis in 
the Horn of Africa is providing emergency food, health care, 
and other lifesaving services to millions, and perhaps most 
extraordinary, millions of South Sudanese citizens came 
together to vote against war in favor of a peaceful 
independence from Sudan.
    U.S. support helped to create the environment where the 
Sudanese people were able to make their voices heard. This is a 
powerful illustration of what we can achieve in Africa and how 
continued United States involvement is critical to supporting 
African progress. There is no denying Africa's importance to 
the United States, both for our moral imperative to help solve 
the world's biggest development challenges and for the 
imperative to protect the United States own national security 
and economic growth. USAID Forward is improving the impact, the 
cost-effectiveness, and sustainability of our programs. And if 
confirmed, Senator, I am eager to advance this new approach to 
doing business.
    I would also look forward to deepening our relationship 
with Congress whose bipartisan support and commitment to Africa 
has provided the foundation for our programs and the 
springboard for our success.
    I am honored to be considered for this position, and if 
confirmed, I look forward to advancing the United States 
interests to help build a better future for all Africans.
    Thank you for the opportunity to appear before you today. I 
welcome any questions.
    [The prepared statement of Mr. Gast follows:]

                   Prepared Statement of Earl W. Gast

    Mr. Chairman, Ranking Member, distinguished members of the 
committee, it is an honor to appear before you today as the nominee to 
be the next Assistant Administrator for Africa at the United States 
Agency for International Development.
    I want to express my appreciation for the trust and confidence that 
President Obama has placed in me by nominating me for this important 
position, and for the strong support of Secretary Clinton and 
Administrator Shah. I would also like to thank Sharon Cromer, an 
extremely dedicated senior officer who has ably led the Bureau for 
Africa across the past year. Her leadership has been invaluable, 
especially as the Agency began implementing key foreign assistance 
reforms.
    My own professional life has been devoted to improving the lives of 
others. In the aftermath of the People Power Revolution, I went to the 
Philippines to support the restoration of democratic values and 
economic opportunity. I worked in Russia, Ukraine, and Georgia after 
the collapse of the Soviet Union to help build new nations, and I 
served in Kosovo and Iraq during conflict and war to help implement our 
reconstruction efforts. During 2 years as Senior Deputy Assistant 
Administrator and then Acting Assistant Administrator for USAID's 
Africa Bureau, I got to know the complex fabric that makes up the 
continent's 48--now 49--countries. And most recently, I completed a 
tour in Afghanistan, where I led USAID's efforts during the U.S. 
Government's civilian surge. All of my assignments have been 
challenging--some more than others. But I have always willingly 
committed myself to serving the U.S. Government's efforts to confront 
those challenges.
    If confirmed, another important challenge awaits me. After more 
than 20 years in the Foreign Service, I've seen development improve 
people's lives and help countries grow, but I've also seen it fail to 
live up to our hopes and expectations. Nowhere does development show 
more promise yet pose such challenge than it does today in sub-Saharan 
Africa, and nowhere can we more effectively apply the lessons we've 
learned from both our successes and our failures. If confirmed, I look 
forward to working with my talented colleagues at USAID, our partners 
throughout the U.S. Government, the private sector, multilateral and 
nongovernmental organizations, and our counterparts in Africa to 
address critical development and humanitarian needs on the continent. I 
also look forward to deepening our relationship with Congress, whose 
long-time bipartisan commitment to the African people has provided the 
foundation for our programs and the springboard for our success. 
Whether meeting with you here in Washington or at our missions 
overseas, we always value the opportunity to discuss our work with you 
and demonstrate how our investment there is making a difference in 
people's lives.
    Africa's future is bright. Our investments in its future are paying 
off, and the administration has plotted a path for our long-term 
support that capitalizes on the region's emerging opportunities.
    Many Americans see only Africa's seemingly intractable problems. 
But the remarkable progress on the continent is the often untold side 
of the story. Ghana and Tanzania are stable democracies leading their 
own development plans that we contribute to, not dictate. Kenya, in its 
recovery from post-election violence, has created a coalition 
government that is working to reconcile differences that stretch back 
decades before 2007. Liberia and Sierra Leone are quietly reaping the 
dividends of peace after their brutal civil wars, building sustainable 
institutions that provide their people with social services. Our 
response to the crisis in the Horn of Africa is providing emergency 
food, health care, and other lifesaving services to millions of people 
suffering from the region's historic drought. And perhaps most 
extraordinary, millions of South Sudanese citizens came together to 
vote against war in favor of a peaceful independence from Sudan.
    U.S. support helped to create that environment in which the 
Sudanese people were able to conduct a free and fair referendum. This 
is a potent illustration of what diplomacy and assistance can achieve 
in Africa and how continued U.S. involvement is critical to supporting 
African progress. There is no denying Africa's importance to the United 
States, both for our moral imperative to help solve the biggest 
development challenges on the planet, and for the imperative to protect 
the United States own national security and economic growth. Through 
USAID Forward, Administrator Shah's comprehensive reform agenda, the 
Agency is improving the impact, cost-effectiveness, and sustainability 
of development programs. Our work with local organizations is helping 
to build home-grown capacity that will continue to thrive long after 
USAID achieves its goals. USAID is also committed to collaborating with 
other donors, private sector partners, and faith-based organizations to 
leverage our relative strengths and amplify the effect of U.S. 
investments in development. These efforts are already having an effect 
on our work in Africa, and if confirmed, I am eager to advance this new 
approach to doing business.
    On a personal note, I am honored to be considered for this position 
and to contribute to the goal of improving democratic systems, 
security, economic opportunity, health, food security, and education 
for Africans. I am deeply committed to USAID's goals and the integrated 
role that it plays with the Department of State and the Department of 
Defense in advancing U.S. policy and national security objectives, and 
if confirmed, I will work diligently toward advancing these goals.
    Thank you for the opportunity to appear before you today. I welcome 
any questions you might have.

    Senator Cardin. Well, thank you very much.
    Ms. Sonenshine.

   STATEMENT OF TARA D. SONENSHINE, OF MARYLAND, TO BE UNDER 
   SECRETARY OF STATE FOR PUBLIC DIPLOMACY AND PUBLIC AFFAIRS

    Ms. Sonenshine. Thank you, Senator. And it is with great 
respect and humility that I come before you and the committee 
seeking your support for my nomination as Under Secretary of 
State for Public Diplomacy and Public Affairs. I thank my 
family members--my husband, Gary Friend, and my sons, Jordan 
and Yale--for their constant support. I thank President Obama 
and Secretary of State Clinton for the confidence in me. And I 
thank this committee for its steadfast support of public 
diplomacy.
    Much of my career has been at the intersection of foreign 
policy and communications; that intersection of public 
diplomacy.
    Let me stress at the outset that I view public diplomacy as 
a profession, and I view public diplomacy skills as vital to 
advancing our national interests. As we sit here today, all 
around the world Americans and their host country partners are 
working to support public diplomacy in embassies, in 
consulates, at missions, at bases. Their work and the work of 
American citizen diplomats and volunteers are helping to build 
strong civil societies through engagement. Public diplomacy 
practitioners wherever they are, virtual or physical, deserve 
our leadership and support.
    Public diplomacy is a shared means to a shared goal of 
extending America's reach and security by influencing how 
individuals around the world come to know us and understand us. 
It is about the advancement of our foreign policy goals through 
people-to-people connections in a complex, global networked 
society.
    So what does it take to succeed at public diplomacy today? 
One starts with fundamental notions.
    First, public diplomacy today is inextricably linked to 
national security. It is a critical part of 21st century 
statecraft because how safe we are at home and abroad is a 
reflection of a global community's shared interests and values, 
and it leads to a common understanding of shared burdens and 
responsibilities.
    Two, public diplomacy increases economic security through 
global engagement because it keeps us competitive in the 
marketplace of ideas. We live in a world of transactions not 
just in goods and services, but in ideas and innovation, and we 
can use public diplomacy exchanges, engagement, and dialogue to 
advance scientific, health, and development policies, to spark 
discoveries, to open markets, to unleash the economic power of 
young people and women, to spur entrepreneurism, to encourage 
professional and private sector exchanges, and to diffuse 
conflicts.
    Third, public diplomacy today must be agile and adaptive in 
using state-of-the-art information technologies, for 
information today is like oxygen; it is part of how a society 
breathes. We are important players in the global public square 
where information
access is still, in parts of the world, restricted or 
restrained. There are still barriers to information for some. 
Control of information abused by others. Restrictive 
governments will still try to control information, but citizens 
are proving the power of information in the public square.
    So for public diplomacy to succeed in the 21st century, it 
must be strategic in how it engages stakeholders and tactical 
in the use of new tools. Public diplomacy must be like America, 
robust and resilient, consistent, transparent, and resourceful. 
Especially at a time when global resources are tight, tied to 
foreign policy goals and priorities, integrated into a 
strategic whole of foreign affairs, it is critical that public 
diplomacy show results through monitoring and evaluation.
    Technology is powerful, but so is human capacity, and there 
is no substitute for having that student from another country 
at your dinner table, in a classroom, or seeing our 
institutions at work. We need exchanges that make connections 
with civil society across many fields and to identify the next 
generation of leaders.
    I am fortunate. My predecessors in this job laid a strong 
foundation, including a strong strategic framework developed by 
my immediate predecessor, Under Secretary Judith McHale. I am 
fortunate because, if confirmed, I will be working with 
Secretary of State Clinton who truly understands smart power 
and public diplomacy. As the Secretary has said, ``we must be 
out there in as many ways as possible and at every hour of 
every day.''
    I look forward, if confirmed, to working with you and the 
committee, and I look forward to any questions you may have.
    [The prepared statement of Ms. Sonenshine follows:]

              Prepared Statement of Tara Diane Sonenshine

    Thank you, Senator Cardin, Senator Corker, and members of the 
committee. It is with respect and humility that I come before you 
seeking your support for my nomination as Under Secretary of State for 
Public Diplomacy and Public Affairs. I thank my family members, my 
husband, Gary Friend, and my sons, Jordan and Yale, for their constant 
support. I thank President Obama and Secretary of State Clinton for 
their confidence in me. And I thank this committee for its steadfast 
support of public diplomacy.
    Much of my career has been at the intersection of foreign policy 
and communications--that intersection of public diplomacy.
    Let me stress at the outset that I view public diplomacy as a 
profession, and I view public diplomacy skills as vital to advancing 
our national interests. As we sit here today, all around the world 
Americans and their host country partners are working to support public 
diplomacy in embassies, in consulates, at missions, at bases. Their 
work and the work of American citizen diplomats and volunteers are 
helping to build strong civil societies through engagement. Public 
diplomacy practitioners wherever they are--virtual or physical--deserve 
our leadership and support.
    Public diplomacy is a shared means to a shared goal of extending 
America's reach and security by influencing how individuals around the 
world come to know and understand us. It is about the advancement of 
our foreign policy goals through people-to-people connections in a 
complex, global networked society.
    To succeed at public diplomacy one starts with fundamental notions:
    1. Public Diplomacy today is inextricably linked to national 
security--it is a critical part of 21st century statecraft because how 
safe we are at home and abroad is a reflection of a global community's 
shared interests and values that lead to a common understanding of 
shared burdens and responsibilities.
    2. Public Diplomacy increases economic security through global 
engagement because it keeps us competitive in the marketplace of ideas. 
This is a world of transactions--not just in goods and services, but in 
ideas and innovation. We can use public diplomacy exchanges, 
engagement, and dialogue to advance our scientific, health, and 
development policies, to spark discoveries, to open markets, to unleash 
the economic power of young people and women, to spur entrepreneurism, 
to encourage professional and private sector exchanges, and to diffuse 
conflicts.
    3. Public diplomacy today must be agile and adaptive in using state 
of the art information technologies. Information today is like oxygen--
it is part of how a society breathes. We are important players in the 
global public square where information access is still, in parts of the 
world, restricted or restrained--where there are still barriers to 
information for some--or where control of information is abused by 
others. Restrictive governments will still try to control information--
but citizens are proving the power of information in the public square.
    For public diplomacy to succeed in the 21st century, it must be 
strategic in how it engages stakeholders and tactical in the use of new 
tools. Public diplomacy must be like America--robust and resilient--
consistent, transparent, and resourceful especially at a time when 
global resources are tight. Tied to foreign policy goals and 
priorities, integrated into a strategic whole of foreign affairs--it is 
critical that public diplomacy show results through monitoring and 
evaluation. Technology is powerful but so is human capacity. There is 
no substitute for having a student from another country at your dinner 
table, in a classroom, seeing our institutions at work. We need 
exchanges that make connections with civil society across many fields 
and help us identify the next generation of leaders.
    I am fortunate. My predecessors in this job laid a strong 
foundation, including a very strong strategic framework developed by 
Under Secretary Judith McHale. I am fortunate because, if confirmed, I 
will be working with Secretary of State Clinton, who truly understands 
smart power and public diplomacy As the Secretary has said, ``We must 
be out there in as many ways as possible and at every hour of every 
day.''
    Twenty-first century statecraft demands that we stay current and 
that our public diplomacy match our policies, priorities, and values of 
open access to information including unfettered access to the Internet. 
The Secretary of State has made it clear how committed she is to 
Internet Freedom and to working with the private sector on solutions to 
prevent countries from jamming our broadcasts or blocking Internet 
access. If confirmed, I look forward to working with the Broadcast 
Board of Governors and others on this vital challenge of advancing the 
freedom of information and open access to information.
    Part of 21st century statecraft is using information tools like 
social networking to understand what is happening on the ground in 
societies around the world so that we can better predict trends and 
analyze events--because often what happens in the public square 
determines what happens at the highest levels of diplomacy. I will pay 
close attention to the world's newest democracies and emerging powers 
as information is critical to building tolerance and understanding with 
other countries.
    If confirmed, I will also be mindful of resources. There is no 
doubt that public diplomacy, like every facet of American Government 
and American life, will have to do its work in ways that save costs. 
The former Under Secretary for Public Diplomacy and Public Affairs, 
Judith McHale, did groundbreaking work in leading a comprehensive 
strategic review of Public Diplomacy resources to ensure alignment 
among resources, planning and current foreign policy objectives. This 
includes shifting base resources to higher priority countries and 
issues as well as monitoring and evaluation of public diplomacy to make 
sure that we can show results. It means working with our embassies and 
missions, our cultural affairs officers and public affairs experts, and 
it means working with universities and organizations in the public 
square. Long-range planning, matching programs with resources tied to 
our policies and priorities, and tracking results will be critical 
aspects of my approach to the position.
    Public diplomacy is about facilitating direct contact with people. 
Part of my job will include looking at our various types of American 
spaces overseas and ensuring they are effective. I plan to build teams 
to shape how we convey ideas and express ourselves, and create greater 
mutual understanding through such important means as educational and 
cultural exchanges and international programs. I would like, if 
confirmed in this new role, to focus on a few important areas.
    First, as I said at the outset, it is important to stress the 
importance of public diplomacy as a profession and to garner respect 
for its mission and for those who carry it out. We need a strong, 
diverse, robust corps of public diplomacy officers to succeed.
    Second, I will continue to focus on how public diplomacy can help 
to counter violent extremism, including outreach to young people as 
their ideas fully take shape. One of the most important jobs of 
American Public Diplomacy is to contribute to the security of the 
people of the United States. By highlighting the inherent flaws in the 
extremist message, and by telling America's story, we can help to 
discourage new recruits to organizations committed to violence. Their 
message of hate and destruction is resonating less and less as millions 
of people around the world demand full participation in their societies 
through genuine democratic structures. I look forward to working 
closely with the interagency Center for Strategic Counterterrorism 
Communications, a key instrument for realizing this goal. As my 
predecessor emphasized, public diplomacy must be integrated into the 
whole of government, through interagency coordination of strategy, 
messaging, communications--it is about team-building and cooperative 
ventures to reach across departments, agencies, and to work with all 
branches of government and civil society on better coordination of 
global messaging.
    Third, I will help to further a youth and democracy Public 
Diplomacy Initiative--getting more young people positively engaged as 
the youth bulge around the world continues to challenge us. I hope to 
build on the great work that State is doing now with programs that 
engage youth from sports to culture to academic exchanges including the 
Kennedy-Lugar YES program.
    I also remain committed to the issues facing global women. Women 
are half the world and they need more resources, training, and 
engagement. Our public diplomacy must include messaging to them and 
engagement with them. They are part of the future of a more secure 
world. If confirmed, I hope to build on the strong work throughout the 
government to ensure that women throughout the world continue to get 
support in the economic, cultural, social, and foreign policy arenas. 
Indeed, all of the work of public diplomacy can support America's 
economic statecraft agenda. There is great potential in the nexus 
between business and public diplomacy--having government use its 
convening power to open doors so that individuals can invest in one 
another's ideas and businesses to spur innovation and entrepreneurism 
and help identify a new generation of leaders.
    This is a time of incredible transition and opportunity for the 
work of public diplomacy, to leverage the power of technology and 
increase understanding of America's values around the world. As nations 
and people, we are more dependent on each other than ever before and 
what happens in one part of the world affects another and ultimately 
affects our way of life. This is a historic time for public diplomacy. 
If confirmed, I will seize the moment.

    Senator Cardin. Well, thank you very much for your 
testimony.
    Ms. Richard.

STATEMENT OF ANNE CLAIRE RICHARD, OF NEW YORK, TO BE ASSISTANT 
   SECRETARY OF STATE FOR POPULATION, REFUGEES, AND MIGRATION

    Ms. Richard. I am honored to appear before you today as the 
President's nominee to be Assistant Secretary of State for the
 Bureau of Population, Refugees, and Migration, or PRM. I thank 
the President and Secretary of State Clinton for their trust 
and confidence. If confirmed by the U.S. Senate, I will bring 
to this position years of practical experience in Government 
and in a leading relief agency, and an absolute dedication to 
my country and to the life and death humanitarian issues that 
are the responsibility of this Assistant Secretary.
    I am joined this morning by my husband, Will Davis; my 
children, Ellie and Max, who are so sad to be missing out on a 
day in Montgomery County schools. [Laughter.]
    And I am also joined by my sister, Christine Palmer, her 
husband, Tim, and their children, and my cousin, Beth Dugan, in 
addition to several longtime friends. I have a caring extended 
family that has taken an interest in and supported my 
professional career, and I understand my mother, brother, and 
other relatives are watching this morning over the Web.
    The United States provides humanitarian aid to tens of 
millions of people whose lives hang in the balance due to 
persecution, oppression, and conflict, thus expressing our 
highest American values and demonstrating our global 
leadership.
    I have been involved in these issues for much of my 
professional life. Over the past decade, I have traveled to 
countries suffering from conflict and its aftermath, including 
South Sudan, Afghanistan, Burma, the Democratic Republic of 
Congo, Uganda, and Liberia. I have talked to refugees where 
they have sought safe haven, meeting Somalis in Kenya, Burmese 
in Thailand, Iraqis in Jordan and Syria, and Afghans in 
Pakistan. In trips abroad, I am repeatedly impressed by the 
courage and resilience of refugees and other uprooted people. 
Despite all that they have endured, most of them long to regain 
control of their lives and become self-sufficient again. They 
ask only for a little bit of help and a small share of our 
attention. And I have seen how modest investments of our know-
how and resources can, indeed, bring about major improvements 
in their lives.
    Secretary Clinton has consistently demonstrated over the 
past 3 years that meeting the world's humanitarian challenges 
is a Department priority. The Bureau I have been nominated to 
lead supports protection measures which seek to maintain safe 
places of refuge and prevent and respond to gender-based 
violence. PRM aid also includes clean water, sanitation, 
immunization and other health care, shelter, and items like 
bedding, pots and pans, and seeds and tools to grow food. It 
includes services such as treatment of HIV/AIDS, counseling on 
voluntary family planning, and other measures to reduce 
maternal mortality. PRM works through well regarded and highly 
accountable multilateral and nongovernmental organizations to 
reach millions and protect them from diverse threats, ranging 
from armed militias to cholera. It also promotes best practices 
in humanitarian response and ensures that humanitarian 
principles are integrated into U.S. foreign and national 
security policy.
    If confirmed, I would place special emphasis on three PRM 
responsibilities. These are described in my written statement, 
and I would be happy to expand on them during the question and 
answer part of this hearing. But they can be summarized as: 
first, persistent humanitarian diplomacy to yield results in 
crisis zones such as needed now in the Horn of Africa; second, 
working with other parts of the U.S. Government to ensure that 
our country sustains a vibrant refugee admissions program while 
carrying out effective security screening; and third, 
continuing to emphasize the need to protect vulnerable 
populations, particularly women and girls.
    In conclusion, the staff of the PRM Bureau brings 
extraordinary dedication and expertise to assisting people in 
distress and advocating on their behalf. If confirmed, I will 
seek to bring to the Bureau all the knowledge and insights 
gained during my career, including an understanding of the 
importance of U.S. assistance and diplomatic engagement.
    I am thankful to the President for nominating me to lead 
this Bureau, grateful for the opportunity to serve under 
Secretary Clinton, and appreciate the Senate's careful 
consideration of my nomination. Thank you, and I look forward 
to answering your questions.
    [The prepared statement of Ms. Richard follows:]

                 Prepared Statement of Anne C. Richard

    I am honored to appear before you today as the President's nominee 
to be Assistant Secretary of State for the Bureau of Population, 
Refugees, and Migration or ``PRM.'' I thank the President and Secretary 
of State Clinton for their trust and confidence. If confirmed by the 
U.S. Senate, I will bring to this position years of practical 
experience in government and in a leading relief agency, and an 
absolute dedication to my country and to the life-and-death 
humanitarian issues that are the responsibility of this Assistant 
Secretary.
    I am joined this morning by my husband, Will Davis, and our two 
children, Ellie and Max. I am also joined today by my sister, Christine 
Palmer, her husband, Tim, and their children and my cousin, Beth Dugan, 
in addition to several long-time friends. I have a caring extended 
family that has taken an interest in and supported my professional 
career, for which I am profoundly thankful. Friends and professional 
colleagues also join us here today and I thank them.
    The United States provides humanitarian aid to tens of millions of 
people whose lives hang in the balance due to persecution, oppression, 
and conflict. Our Nation's helping hand to refugees, victims of 
conflict, the uprooted, and the stateless expresses our highest 
American values and demonstrates our global leadership.
    I have been involved in these issues for much of my professional 
life. Over the past decade, I have traveled to countries suffering from 
conflict and its aftermath, including South Sudan, Afghanistan, Burma, 
the Democratic Republic of Congo, Uganda, and Liberia. I have talked to 
refugees where they have sought safe haven, meeting Somalis in Kenya, 
Burmese in Thailand, Iraqis in Jordan and Syria, and Afghans in 
Pakistan. In trips abroad, I am repeatedly impressed by the courage and 
resilience of refugees and other uprooted people. Despite all that they 
have endured, most of them long to regain control of their lives and 
become self-sufficient again. They ask only for a little bit of help, 
and a small share of our attention. And I have seen how modest 
investments of our know-how and resources can indeed bring about major 
improvements in their lives.
    Secretary Clinton has consistently demonstrated over the past 3 
years that meeting the world's humanitarian challenges is a Department 
priority. The Bureau I have been nominated to lead is central to that 
effort as its mission is ``to provide protection, ease suffering, and 
resolve the plight of persecuted and uprooted people around the world 
on behalf of the American people.'' PRM supports protection measures 
which seek to maintain safe places of refuge, address gender-based 
violence, ensure that refugees have appropriate documentation of their 
status, and that their newborn children are registered. PRM support 
includes clean water, sanitation, immunization and other health care, 
shelter, and items like bedding, pots and pans, sanitary supplies, and 
seeds and tools to grow food which increases self-sufficiency. It 
includes services such as treatment of HIV/AIDS, counseling on 
voluntary family planning, and other measures to reduce maternal 
mortality. PRM works through well-regarded and highly accountable 
multilateral and nongovernmental organizations to reach millions and 
protect them from diverse threats, which range from armed militias to 
cholera. It also promotes best practices in humanitarian response and 
ensures that humanitarian principles are integrated into U.S. foreign 
and national security policy. That is an ambitious agenda and a weighty 
responsibility that I would embrace without reservation.
    If confirmed, I would place special emphasis on three PRM 
responsibilities. First, I salute the vigorous humanitarian diplomacy 
practiced by the Bureau's most recent Assistant Secretary, Eric 
Schwartz. He recognized that PRM has a valuable perspective: it is 
deeply involved in the delivery of aid through partners while also 
sending U.S. teams to engage with other governments on crucial issues 
to resolve crises and to find solutions. Because of this, it has a 
unique vantage point--at the intersection of humanitarian, human 
rights, and political issues--from which to inform and help shape U.S. 
foreign policy and the policies of foreign governments and 
international bodies. We know that persistent humanitarian diplomacy 
can eventually yield results. In the Balkans, for example, the State 
Department's efforts have helped to facilitate a landmark agreement 
this year which, when fully implemented, will provide housing solutions 
for as many as 74,000 refugees and internally displaced persons. This 
is a major step forward to bringing a permanent resolution to the 
Balkans' protracted refugee and IDP problem. We should continue to 
engage in humanitarian diplomacy that holds governments accountable for 
fulfilling their international obligations and emphasizes the hard 
truth that complex humanitarian emergencies ultimately require 
political solutions.
    Nowhere is this truth more painfully evident in today's world than 
in Somalia, where tens of thousands have died and hundreds of thousands 
are at risk of death. Even as Somalis flee, there is no quick 
humanitarian solution to a famine being fueled by conflict and 
political instability. If confirmed, I would work with the Bureau of 
African Affairs, the U.S. Agency for International Development, and 
others in the U.S. Government to address the crisis in the Horn of 
Africa.
    Second, the U.S. Refugee Admissions Program annually welcomes a 
fraction of the world's refugees into our country for resettlement. 
This is a great American tradition that not only saves lives and lets 
families thrive but also enriches the fabric of our Nation. This 
program, like others PRM oversees or manages, is a public-private 
partnership with organizations working at the local level. During the 
past decade it has been my privilege to visit refugees resettled in 
cities from Baltimore and New York to San Francisco and Salt Lake City. 
I never fail to be impressed by the hospitality and support new 
arrivals receive from local communities and by the energy refugees 
bring to their new lives in the United States. You may know that delays 
related to new security checks, unrest in Syria, and insecurity in 
Yemen have resulted in fewer refugees arriving in the United States 
over the past fiscal year. If confirmed, I will work with other parts 
of the U.S. Government to ensure that our country sustains a vibrant 
refugee admissions program while carrying out effective security 
screening.
    Third, if confirmed, I will continue to emphasize the need to 
protect vulnerable populations, particularly women and girls. 
Protection of the vulnerable is the core principle of international 
refugee law and should always be PRM's primary goal. Refugee women and 
children are particularly in danger of sexual violence, physical abuse 
and exploitation, and separation from families--among other threats. 
Secretary Clinton has long championed women's rights worldwide, and 
PRM's programs have helped hundreds of survivors of gender-based 
violence in places like Colombia and Kenya. More followthrough is 
needed so that our best practices in protecting and empowering women 
and girls are employed every time they should be.
    In conclusion, I have been a fan of the PRM Bureau for many years. 
Its staff brings extraordinary dedication and expertise to assisting 
people in distress and advocating on their behalf. If confirmed, I will 
seek to bring to the Bureau all the knowledge and insights gained 
during my career, including an understanding of the importance of U.S. 
assistance and diplomatic engagement, and will be steadfastly committed 
to fulfilling the responsibilities entrusted to the Assistant 
Secretary. I am thankful to the President for nominating me to lead 
this Bureau, grateful for the opportunity to serve under Secretary 
Clinton, and appreciate the Senate's careful consideration of my 
nomination.
    Thank you, and I look forward to answering your questions.

    Senator Cardin. Thank you very much.
    Mr. Whitehead.

STATEMENT OF ROBERT E. WHITEHEAD, OF FLORIDA, TO BE AMBASSADOR 
                    TO THE TOGOLESE REPUBLIC

    Mr. Whitehead. Thank you, Chairman Cardin. It is a great 
honor to appear before you today as the nominee to be the next 
United States Ambassador to the Togolese Republic. I am 
grateful for the confidence the President and Secretary of 
State have shown in me through this nomination, as well as for 
the support of Assistant Secretary of State for African 
Affairs, Johnnie Carson. If confirmed by the Senate, I will do 
my utmost to uphold this trust.
    Mr. Chairman, please allow me to acknowledge family members 
who are here today, especially my wife, Agathe, who, along with 
our children, has over the course of 30 years borne the 
sacrifices and separations required by this profession. I would 
also like to thank colleagues and friends present today who 
have offered both encouragement and counsel that have smoothed 
the course of both my professional career and my personal life.
    Finally, I would like to mention two individuals who could 
not be here in person: my mother, Lucretia, who was unable to 
make the trip, and my son, Wesley, who is currently deployed in 
Afghanistan.
    Mr. Chairman, with a population of more than 6 million 
inhabitants, the Togolese Republic lies north of the Bight of 
Benin in the middle of a region of Africa that is important to 
the energy security of the United States and with which the 
United States has longstanding cultural ties. If confirmed, I 
would count it a great privilege to lead the Embassy in Lome 
and its interagency team of Foreign Service, civil service, 
locally employed staff, and family members as we seek to 
advance U.S. bilateral and regional interests. I am confident 
that my previous experience as charge d'affaires in Khartoum; 
consul general in Juba, Southern Sudan; and deputy chief of 
mission in Harare, Lusaka, and Bangui, in all, a total of more 
than 2 decades on the ground in sub-Saharan Africa, will serve 
me well.
    Mr. Chairman, our principal concerns in Togo are the 
welfare of Americans located there, the promotion of democracy 
and good governance, the improvement of basic health services, 
maritime security in the Gulf of Guinea, human rights, and the 
advancement of economic prosperity. To achieve these goals, the 
United States has a range of modest programs supporting 
democracy, economic development, security sector reform, and 
peacekeeping. Given budget realities overlaid on global 
priorities, I realize that we will need to work collaboratively 
and creatively with other countries and international 
organizations involved in Togo to leverage progress in all of 
the areas listed above. If confirmed, I commit to work closely 
with our international partners to help the Togolese Republic 
promote empowerment and prosperity for all Togolese regardless 
of ethnic, religious, regional, or political affiliations.
    Mr. Chairman, as you know, Togo passed through a period of 
internal upheaval from which it began to emerge just a few 
years back. The country is presently at peace. Democratic 
legislative and Presidential elections, held respectively in 
2007 and 2010, were judged credible by both local and 
international observers. Legislative elections and perhaps 
local ones are scheduled to take place in 2012, and should I be 
confirmed, one of the Embassy's top priorities will be to 
support a peaceful, transparent, and fair electoral process, 
thereby consolidating and expanding on the democratic gains of 
the past 5 years.
    A healthy economy provides fertile ground in which 
democracy and good governance can flourish, and the growth of 
the Togolese economy over the past decade is a positive 
portent. If confirmed, I will take advantage of available 
initiatives to support this trend, including identification of 
public-private partnerships that include American companies and 
that enjoy U.S. Government guarantees. The Embassy will look to 
use regional USAID programs to strengthen the Togolese 
Republic's role as a regional trade hub and help ensure that 
the country makes the most of Lome's deepwater port and can 
better manage land transportation infrastructure. All of these 
are important to efficient trade and shipping with landlocked 
Sahelian countries to the north. If confirmed, I will encourage 
the Togolese Government and Togolese entrepreneurs to take 
greater advantage of the opportunities the American Growth and 
Opportunities Act affords.
    If confirmed, I will look to employ existing initiatives, 
including the multilateral partnership of the Global Fund, to 
assist the Togolese Ministry of Health in improving basic 
public health programs and treating and eradicating disease. 
The Embassy in Lome will look to continue to support a robust 
Peace Corps presence in the country with a programmatic focus 
on health, especially on HIV/AIDS awareness and prevention.
    A stable, prosperous, and healthy Togolese Republic serves 
American values and interests and expands Togo's ability to 
contribute to stability on the African Continent. If confirmed, 
I look forward to collaborating with the Togolese authorities 
through regional initiatives to strengthen their capacity to 
police and to regulate Togolese waters in the Gulf of Guinea. 
The U.S. Embassy will look to use existing programs to help 
protect Togolese maritime resources, to regulate legitimate 
licensed trade, to combat the scourge of narcotics smuggling 
into and transshipment through Togo, and to prevent trafficking 
in persons. If confirmed, we will look to continue to encourage 
and support expanded Togolese Government's participation in 
U.N. peacekeeping missions in Africa through the Africa 
Contingency Operations Training Assistance Program, which has 
been active in Togo since 2009, and which has assisted with 
training and deployment of Togolese peacekeeping forces to Cote 
d'Ivoire, Sudan, Chad, and the Central African Republic.
    Mr. Chairman, thank you again for the opportunity to appear 
before you today. I would be pleased to answer any questions 
you may have.
    [The prepared statement of Mr. Whitehead follows:]

               Prepared Statement of Robert E. Whitehead

    Chairman Cardin, Ranking Member Corker, and members of the 
committee, it is a great honor to appear before you today as the 
nominee to be the next United States Ambassador to the Togolese 
Republic. I am grateful for the confidence that the President and 
Secretary of State have shown in me through this nomination, as well as 
for the support of Assistant Secretary of State for African Affairs 
Johnnie Carson. If confirmed by the Senate, I will do my utmost to 
uphold this trust.
    Mr. Chairman, please allow me to introduce family members who are 
here today, especially my wife, Agathe, who, along with our children, 
has over the course of 30 years borne the sacrifices and separations 
required by this profession. I would also like to thank colleagues and 
friends present today, who have offered encouragement and counsel that 
have smoothed the course of both my professional career and my personal 
life. Finally, I would like to mention two individuals who could not be 
here in person, my mother, Lucretia, who was unable to make the trip, 
and my son, Wesley, who is currently deployed in Afghanistan.
    Mr. Chairman, with a population of more than 6 million inhabitants, 
the Togolese Republic lies north of the Bight of Benin in the middle of 
a region of Africa that is important to the energy security of the 
United States, and with which the United States has longstanding 
cultural ties. If confirmed, I would count it a great privilege to lead 
the Embassy in Lome and its interagency team of Foreign Service, civil 
service, locally employed staff, and family members as we seek to 
advance U.S. bilateral and regional interests. I am confident that my 
previous experience as Charge d'Affaires in Khartoum, Consul General in 
Juba, and Deputy Chief of Mission in Harare, Lusaka, and Bangui--in 
all, a total of more than two decades on the ground in sub-Saharan 
Africa--will serve me well.
    Mr. Chairman, our principal concerns in Togo are the welfare of 
Americans located there, the promotion of democracy and good 
governance, the improvement of basic health services, maritime security 
in the Gulf of Guinea, human rights, and the advancement of economic 
prosperity. To achieve these goals, the United States has a range of 
modest programs supporting democracy, economic development, security 
sector reform and peacekeeping. Given budget realities overlaid on 
global priorities, I realize that we will need to work collaboratively 
and creatively with other countries and international organizations 
involved in Togo to leverage progress in all of the areas listed above. 
If confirmed, I commit to work closely with our international partners 
to help the Togolese Republic promote empowerment and prosperity for 
all Togolese, regardless of their ethnic, religious, regional or 
political affiliations.
    Mr. Chairman, as you know, Togo passed through a period of internal 
upheaval from which it emerged just a few years back. The country is 
presently at peace. Democratic legislative and Presidential elections, 
held respectively in 2007 and 2010, were judged credible by 
international observers. Legislative elections, and potentially local 
ones, are scheduled to take place in 2012, and, should I be confirmed, 
one of the Embassy's top priorities will be to support a peaceful, 
transparent, and fair electoral process, thereby consolidating and 
expanding on the democratic gains of the past 5 years.
    A healthy economy provides fertile ground in which democracy and 
good governance can flourish, and the growth of the Togolese economy 
over the past decade is a positive portent. If confirmed, I will take 
advantage of available initiatives to support this trend, including 
identification of public-private partnerships that include American 
companies and that enjoy U.S. Government guarantees. The Embassy will 
look to use regional USAID programs to strengthen the Togolese 
Republic's role as a regional trade hub and help ensure that the 
country makes the most of Lome's deepwater port, and can better manage 
land transportation infrastructure; all are important to efficient 
trade and shipping with landlocked Sahelian countries to the north. If 
confirmed I will encourage the Togolese Government and Togolese 
entrepreneurs to take greater advantage of the opportunities AGOA 
affords.
    If confirmed, I will look to employ existing initiatives, including 
the multilateral partnership of the Global Fund, to assist the Togolese 
Ministry of Health in improving basic public health programs and 
treating and eradicating disease. The Embassy in Lome will look to 
continue to support a robust Peace Corps presence in-country with a 
programmatic focus on health, especially on HIV/AIDS awareness and 
prevention.
    A stable, prosperous, and healthy Togolese Republic serves American 
values and interests and expands Togo's ability to contribute to 
stability on the African Continent. If confirmed, I look forward to 
collaborating with the Togolese authorities through regional 
initiatives to strengthen their capacity to police and regulate 
Togolese waters in the Gulf of Guinea. The U.S. Embassy will look to 
use existing programs to help protect Togolese maritime resources, to 
regulate legitimate licensed trade, to combat the scourge of narcotics 
smuggling into and transshipment through Togo, and to prevent 
trafficking in persons. If confirmed, we will look to continue to 
encourage and support expanded Togolese Government's participation in 
U.N. Peacekeeping Missions in Africa through the Africa Contingency 
Operations Training Assistance program, which has been active in Togo 
since 2009, and which has assisted with the training and deployment of 
Togolese peacekeeping forces to Cote d'Ivoire, Sudan, Chad, and the 
Central Africa Republic.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to appear before you today. I would be pleased to answer 
any questions you may have.

    Senator Cardin. Well, once again, let me thank all four of 
you for your being here, your testimony, and for your service, 
and I want to underscore the importance of the families that 
are here. We will write the necessary notes to the Montgomery 
County school system to take care of it. [Laughter.]
    We think we can take care of that today.
    You are each seeking different positions, but there is a 
lot of common agenda items in the four positions that are being 
nominated to be filled here today. I want to talk about an area 
of personal interest to me and part of my responsibilities. I 
not only serve on the Senate Foreign Relations Committee, I 
chair the Subcommittee on International Development Assistance 
which, Mr. Gast, you and I have had a chance to talk about 
that. I also am the Senate chair of the U.S. Helsinki 
Commission which deals with a variety of issues, but it is best 
known, I think, for its human rights basket.
    So I want to ask all four of you a common question, and 
that is, how do you intend to make the advancement of human 
rights a top priority of your office?
    I might point out that President Obama has made it clear, 
internationally, that the United States in its international 
bilateral and regional relations will insist upon basic human 
rights advancements.
    Secretary Clinton has been extremely articulate 
particularly on gender equality issues but also on broader 
human rights issues and I noticed in this morning's paper 
getting the wrath of President Putin because of her support for 
the legitimate protests of the people of Russia with the fraud 
that was committed in their most recent elections.
    On the refugee issue, human rights is critically important. 
We know a lot of the trafficking matters come out of the 
migration issues, and I would be interested in that. And of 
course, the bilateral with Togo--it has gone through a 
transition, but its record on human rights is far from clear.
    So I would welcome your thoughts how you would use public 
diplomacy to advance these issues knowing that there have been 
efforts made in many of the countries around the world to block 
international access to how human rights are viewed. So, Ms. 
Sonenshine, we will start with you this time and just work your 
way down as to how you would make human rights advancements a 
priority in the office.
    Ms. Sonenshine. Thank you very much for the question.
    I share the concern that we really advance the democracy 
agenda and human rights as a cornerstone of that.
    There are three things, Senator, that if confirmed, I would 
want to work on. One is strengthening the American narrative 
and weaving human rights into, as the Secretary has done, the 
tapestry of all of our messaging overseas. The second is to 
continue the support for media on the ground. The training of 
local indigenous media is critical to an open society. The 
third is, I think, what we are doing in nonpermissive 
environments such as Iran where we do not have a presence, but 
we can create a virtual embassy. We can leverage technology 
today such that the electronic curtain that is often put up 
around citizens--that we can get around it.
    So I think the continuation of these values through our 
programs, through our assistance, through our messaging, and 
through our narrative, that this will be an important part of 
my responsibilities, and I would look forward to working with 
you and the committee on that.
    Senator Cardin. Mr. Gast, we will just work our way down.
    Mr. Gast. Senator, I had the pleasure of working with the 
Helsinki Commission on issues related to Belarus in the past, 
and I know the good work of the commission quite well.
    Supporting human rights is a critical component of our 
development assistance programs. President Obama has made it 
clear. Secretary Clinton and Administrator Shah have all made 
it clear that it is to be a critical component.
    With regard to development assistance, we support civil 
society organizations throughout the continent of Africa, and 
we will continue to intensify those efforts. But they are also 
critical components, not stand-alone activities of some of the 
major initiatives that we have now. So, for example, the Global 
Health Initiative, is making sure that we are supporting 
women's rights, rights to health care, persons living with HIV/
AIDS, et cetera. So I would see, if confirmed, Senator, that we 
would intensify those efforts.
    Senator Cardin. Thank you.
    Ms. Richard.
    Ms. Richard. Thank you for your question, Senator.
    You will notice that when staff from the Population, 
Refugees, and Migration Bureau speak about the services that 
are undertaken by PRM, it is not just aid and it is not just 
the delivery and distribution of things, but it is also 
protection. And when we talk about protection, we mean physical 
protection, but we also mean protection of rights. And in terms 
of rights, we are talking about refugee rights, but also human 
rights, the most basic and fundamental human rights.
    I can commit to you that I will work very hard, if 
confirmed, to pursue an agenda that fosters and preserves human 
rights around the world. And one reason I feel so confident in 
saying that is that I know already the work of colleagues like 
Michael Posner, who is the Assistant Secretary for Democracy, 
Human Rights, and Labor, and Harold Koh, with whom I met 
recently, who is the Secretary's legal adviser and who is 
himself a great human rights leader.
    And I also will continue to have, as I do now, good 
relations with leading experts from human rights 
nongovernmental organizations such as Amnesty International, 
Human Rights Watch, Human Rights First, and Freedom House. And 
so I would continue the pattern set by the most recent 
Assistant Secretary, Eric Schwartz, in having a very vigorous 
dialogue with leading experts in human rights in the United 
States.
    Senator Cardin. Thank you.
    Mr. Whitehead.
    Mr. Whitehead. Thank you, Mr. Chairman.
    I think you hit the nail right on the head when you got to 
human rights. As you know, Togo from about 1990 to 2005 went 
through a very difficult period, a lot of internal turmoil, 
instability; 2005 with the change of the head of state. It 
began in a rather awkward fashion with a sort of an extra-
constitutional promotion of a President. Since then, however, 
the trend lines have been encouraging. There has been a 
concerted effort in reform in a number of areas. In terms of 
human rights, I would probably pick four areas as priorities 
that I would focus on, were I confirmed.
    The first one I mentioned already, which is the democratic 
selection of a government, that it will be key in 2012 that the 
legislative elections are perceived to be free and fair. There 
are a number of issues surrounding them, including the need for 
redistricting based upon the most recent census, what have you. 
And I would commit, if confirmed, to work carefully and closely 
with the government to see that we make progress in these 
areas.
    Another area of importance is the freedom of the press. I 
think this ties again into our public diplomacy, and it is a 
basic right. Recently, in fact, the press in Togo has sort of 
come out of its catatonic state. You have over 20 newspapers, 
probably 50 radio stations, several private television 
stations. The media has been confident enough to be critical of 
the various institutions, the President, the judiciary. None 
has been intimidated physically. No journalists are in prison. 
However, it is still very weak in terms of training, financing, 
what have you. The Embassy has provided programming to train 
and to improve the quality of journalism. If confirmed, I would 
commit to continue with that.
    Another specific area is child labor. Togo has been 
identified as a country that has a problem with this, a large 
number of young children involved, about half of them in 
agricultural pursuits, about a quarter in domestic within the 
country. The Togolese Government has taken steps to form a 
national plan to work and try to resolve these issues. The 
Department of Labor has provided some grants to work with them. 
And I would commit again to work in this area.
    Thank you.
    Senator Cardin. Well, thank you for that--all four of you 
for those answers.
    We are going to take a brief recess, approximately 15 
minutes, so that we will reconvene in 15 minutes. There is a 
vote on the floor of the Senate dealing with the confirmation 
of a nominee. So I think it is important for me to go over and 
vote, and I will be back in about 15 minutes.

    [Recess.]

    Senator Cardin. Once again, I apologize for the 
inconvenience of the recess, but that is the way the Senate 
schedule operates. The hearing will come back to order.
    I am going to follow up a little bit on the human rights 
issues. So if I might start again with Ms. Sonenshine. One of 
the challenges of your position is that for public diplomacy to 
work, people have to be able to communicate, and modern 
communications are through the Internet in which many of the 
countries that we have incredible interest in try to block the 
access to that type of information. It has had limited success. 
We have seen during Arab Spring and during now what is 
happening in Russia that people find a way to get their 
information out. But under the responsibilities of the agency 
that you would head, it is critically important to use, as you 
pointed out in your statement, modern ways of communicating.
    So what do you do about those countries who are trying to 
block access to their citizens of getting information not just 
from the outside world, but from their own people?
    Ms. Sonenshine. Thank you very much for the question.
    I honestly believe that public diplomacy's first mandate is 
to stay in it for the long haul. It is very easy to recede 
during difficult information periods from a country. I think 
Burma is the most recent example of if you stay with something 
long enough. The extension of our values now include the right 
to connect, and that is sort of a new human right, the right to 
be informed, the right to connect, the right to have open 
access to information. In very closed regimes, Cuba in 
particular, we have to continue to try SMS texting, sometimes 
reverting to DVD's and more traditional means of getting 
information in. And where we are stymied as again in Iran, one 
has to believe that individuals--and we saw this yesterday with 
the virtual embassy--find a way around these blockades. The 
amazing thing about the Arab Spring is that despite all 
attempts to block information, individuals are very 
resourceful. And so if we have the staying power, if we have 
the sustainability, we can actually rely on new technologies to 
circumvent technology and we can rely on the willpower of 
individuals to find us if we are out there. If we are not out 
there with the information, then sadly others will fill the 
void that we leave behind.
    Senator Cardin. I agree with that. You mentioned Cuba. Of 
course, there is another Marylander, Alan Gross, who is in 
prison in Cuba working for our Government. Although all the 
facts are not exactly understood, we believe that it was an 
effort so the people of Cuba could get information, making the 
position that you seek to fill a little bit easier, and yet he 
is in prison today and it is a major human rights violation. So 
there are clearly challenges to open up the channels of 
communication, but I do think that public diplomacy very much 
depends upon an aggressive, long-term commitment to make sure 
that it is easier rather than more difficult for people to get 
access to information.
    Mr. Gast, we have talked frequently about the fact that 40 
percent of the aid of USAID is in Africa. Most of that funds go 
toward humanitarian health-related type programs. We need to 
get more involved in economic development issues. But Africa 
has a huge problem on human rights. I have gone over the 
mineral extractive industry issues and whether those funds are 
used for finance corruption rather than for the people of the 
country itself. The gender issues there are huge. Land rights. 
You can do all the type of agricultural reforms. If you do not 
have the land reform, it is not going to work.
    So how do you leverage what is a significant part of our 
foreign assistance budget, but a relatively modest amount of 
money generally? How do you leverage that to advance the basic 
sustainability of African countries putting in place the basic 
rights, try to avoid corruption, and make it clear that gender 
equality is mandatory?
    Mr. Gast. Senator, we have shared in Africa's success over 
the last 15 to 20 years, and as you rightly point out, the 
gains that we have made working with African institutions and 
states and civil society organizations in democracy and 
governance, in health indicators, in education--they can only 
be sustained through economic growth. And so one of our first 
priorities, of course, will be to emphasize economic growth 
throughout the continent, equitable economic growth because in 
the end, that will lessen their dependence on assistance.
    But what is also very critical to our efforts in Africa is 
supporting good governance. All three of the major initiatives 
that we have in Africa--and as you rightly point out, most of 
the resources are going into health. We also have the Feed the 
Future initiative and also the climate change initiative. They 
all contain elements of good governance, and that means 
building institutions, making sure that those institutions are 
accountable, that they are transparent, and then also building 
up the capacity of civil society to hold government accountable 
for the spending of resources and for delivering services to 
the people. So you have my assurance that as we move forward 
and if I am confirmed, that good governance will be at the 
forefront of our development efforts.
    Senator Cardin. And we would also ask you to keep us 
informed as to the progress we are making on extractive 
industry transparency. Senator Lugar and I have offered a 
change in U.S. law that now is the law supported by the 
administration to put a focus on the mineral companies to make 
sure that those revenues are held accountable to the country in 
which these minerals reside. You can play an important role in 
making this a priority as you develop strategies on the 
continent, and we would ask that you make this a priority and 
you keep us informed.
    Mr. Gast. You have my assurance.
    Senator Cardin. Thank you.
    Ms. Richard, there is an area of great interest to us that 
we have worked on for a long time, the special immigrant visas. 
Congress on two occasions has passed laws to provide special 
visas for those who helped us in Iraq. These are people whose 
lives are at risk because they helped us. And we are not 
satisfied with the progress that has been made to date. Let me 
just make that conclusive statement first. It is taking too 
long. It appears like restrictions are being imposed so that if 
there are other potential alternatives, that they are being 
used to delay the safe exit of individuals whose lives are at 
risk. There is a different standard being used for those who 
helped us through third parties than directly. We do not quite 
understand that distinction quite frankly. But we do know that 
come the end of this year, the U.S.'s ability to protect those 
who helped us in Iraq will become much more marginalized. So 
time is of the essence. And I said Congress has acted on 
several occasions making it clear that we want this policy 
implemented.
    How can you help us or what can you do, if confirmed, to 
move this process forward?
    Ms. Richard. Thank you, Senator, for raising this question.
    I, like you, am very interested in the situation that Iraqi 
refugees are facing. I have met with Iraqi refugees in the 
United States in Baltimore and in San Francisco, and elsewhere 
around the United States, and also in Jordan and in Syria.
    As part of my briefings, I asked about the special 
immigrant visa program which, as you know, was set up to help 
Iraqis who had worked for U.S. forces or the U.S. Government--
and yet were under threat because of that service--and get them 
a swift entry into the United States. So in looking into the 
situation, it may be that the SIV program is not being fully 
used because there is a complicated applications process. I 
will, if confirmed, work very closely with the Consular Affairs 
Bureau at the State Department to examine that and consider if 
that is part of the reason for the holdup.
    Another aspect of this is that if one comes to the United 
States as a refugee, one can bring more family members than 
under the current SIV program.
    So it is not completely clear to me what the problem is, 
but if confirmed, I would definitely commit to working on this 
problem.
    Senator Cardin. Well, thank you. I appreciate that.
    The information we have--the concerns are more of the 
complicated application process and review process not the 
number and family under the different status of refugee or 
special program. So I would welcome your assessment of that. 
Our bottom line is that it is getting more and more difficult 
to protect those who helped us.
    You have visited the refugees and I have too. I have been 
in Syria and I have been in Jordan, and I have visited Iraqi 
refugee facilities in those countries and know the numbers that 
have been dislocated as a result of the war and look at what 
different countries have done in accepting Iraqi refugees and 
then look at the numbers in the United States. Since we were 
the principal player in this campaign, the numbers in America 
are so small compared to the total numbers. Here we are talking 
about people who put their lives on the line to help America's 
mission in Iraq.
    And Congress, again, does not always agree on policy 
rapidly. This is one time we did. So I would just urge you to 
give this the highest priority because of the timing issue 
here.
    Mr. Whitehead, Togo is going to be on the Security Council 
of the United Nations. At least that is the information that we 
have. That changes the composition of the Security Council. And 
to say the least, there have been a lot of disappointing votes 
in the United Nations as it relates to U.S. positions. And at 
times, we think that is mainly because of the populist 
sentiment of a particular issue. When you are dealing with the 
Middle East, it sometimes appears to be more populist to be 
with the multitude of Arab States rather than the state of 
Israel, which has caused many countries to feel like this is 
just a free vote. You might as well vote the populist 
sentiment.
    The Obama administration developed a strategy in the 
Security Council as it related to the most recent problems of 
the unilateral efforts for declaration of statehood by the 
Palestinians and was able to maintain the necessary votes on 
the Security Council so that could not move forward. And there 
are many other issues, Iran sanctions. The list goes on and on 
and on where the Security Council becomes a dominant player in 
international diplomacy.
    It is important that countries understand that the United 
States has a strong interest in a particular issue. It is not 
to say that countries will not exercise their independent 
judgment. They will exercise their independent judgment. But 
they need to know the U.S. position and know how we feel about 
certain matters and the consequences of U.N. action as it 
relates to U.S. policy.
    Can you assure this committee that as the United States 
representative in Togo, should you be confirmed, that that 
message will be unambiguous and clear to the Togolese 
Government about the importance of their role on the Security 
Council?
    Mr. Whitehead. Yes. Thank you, Mr. Chairman. You have my 
unambiguous commitment that, if confirmed, one of my top 
priorities, of course, is going to be to identify who the key 
policymakers are in the various decisions that come before the 
United Nations Security Council and being certain that they 
understand clearly our position, why we are taking that 
position, and the stakes that are involved. I will give my 
utmost to do this on whichever issue should happen to come up 
during the 2 years in which Togo has the seat.
    Senator Cardin. I thank you for that. You are going to be 
hearing from us on this, and I really do applaud the Obama 
administration and Secretary Clinton particularly, because the 
issue of the U.N. votes have been on a lot of bilateral agendas 
of meetings taking place between the United States and other 
countries, not just those who are members of the Security 
Council, but the General Assembly as well. So it is becoming 
more and more relevant that we think that we can make progress. 
But it depends upon all of our assets being focused on letting 
other governments know how important this is. So we appreciate 
your making the points known, should you be confirmed.
    Mr. Whitehead. Thank you, sir.
    Senator Cardin. I want to get back, Ms. Richard, to an 
issue that is also of great interest to the Helsinki 
Commission, but the Congress of the United States as well, and 
that is the trafficking issue and how it affects the migration 
and the agenda that you deal with. The United States has been 
the leader internationally in dealing with this form of modern 
slavery. As you know, we have the TIP reports, the Trafficking 
in Persons annual report, that is done by the State Department. 
We have invested a great deal of resources into having zero 
tolerance. It is not just the countries of origin. It is the 
transit and the receiving countries.
    How do you intend to deal with this issue, should you be 
confirmed?
    Ms. Richard. Thank you for shining a light on this 
important issue, Senator.
    I have some familiarity with the issue because the 
International Rescue Committee is partnered with the U.S. 
Government in our Miami office and in our Phoenix office trying 
to help people who have been trafficked and trying to get to 
them and make sure they know that they can step out of the 
exploitive situations they are in.
    The other thing I am aware of with this issue is that there 
is a great deal of bipartisan support for doing something about 
it. I guess it is a scarce word these days. So from my way of 
thinking, when you have the attention of both sides of the 
aisle for such an important human rights issue, we need to move 
with alacrity to build on that and to do a lot about it.
    I am glad to tell you that in my courtesy calls on 
different regional bureau assistant secretaries, almost every 
one of them has mentioned the problem of trafficking in 
persons. So, if confirmed, I will work very closely with these 
colleagues in the State Department, as well as colleagues in 
other U.S. Government agencies, to tackle this problem. But a 
big piece of that I think will be staying in touch with 
Congress about it, given that we are pushing on an open door up 
here. There is so much interest.
    Senator Cardin. Thank you.
    Mr. Gast, would you want to fill us in on what you think we 
should be doing in the Horn of Africa where opportunities are? 
The humanitarian crisis there continues. What can we do to be a 
responsible international player and leader in this area?
    Mr. Gast. Senator, as a result of the drought, close to 13 
million persons are in dire need of emergency food assistance. 
It could have been much worse than it is. Fortunately, the U.S. 
Government, with your support, with the support of Congress, as 
well as the administration, understood more than a year ago 
that the region was facing a severe drought and, as a result, 
took measures. Some of the measures included prepositioning 
food in various areas located close to the Horn of Africa so 
that if the emergency were to arise, we would be able to 
respond very, very quickly. And as a result, we were able to do 
that.
    But one of the priorities, Senator, will be to support 
resiliency strategies in the Horn of Africa. We know that 
drought has been a problem for years. It will continue to be a 
problem. But what we have seen in some of the resiliency 
strategies that we have implemented in Ethiopia over the past 
few years is that the Ethiopian Government has led them itself 
with support of other donors. By their productive safety net 
program, some 7.5 million persons who previously were receiving 
emergency assistance no longer require that. And so we are in 
the process now, I understand, and if confirmed, you have my 
assurance that I will be very much involved in developing 
resiliency strategies throughout the Horn of Africa, similar to 
the success that we have had in Ethiopia.
    With regard to Somalia, it is extremely difficult, and the 
situation is very dire. And one does not know when al-Shabaab 
will allow emergency food assistance to enter the country, and 
as a result, significant numbers of Somalis are suffering and 
many are trying to flee the country.
    Senator Cardin. Are you up to date as to the current status 
of border crossings as to whether Somalians are able to get out 
of Somalia?
    Mr. Gast. I do not have the up-to-date information on that, 
Senator.
    Senator Cardin. That has been one of the areas that we have 
been able to effectively provide some relief. It is really a 
challenge. I mean, it is a dilemma we face. You know, I have 
talked about this. You have got to be able to effectively 
provide help when you have a humanitarian crisis, and if you do 
not have the cooperation of the host government, it becomes 
extremely challenging. We have been able to do some work 
through NGO's, but at times even that becomes a matter of great 
risk and uncertainty. So we have a responsibility to make sure 
there is accountability. So we welcome your honest assessments 
of these types of challenges. We obviously will not abandon the 
people in that region. It is a desperate need.
    Ms. Sonenshine, we talked a little bit about the Bureau of 
Educational and Cultural Affairs. You talked about it in 
glowing terms. I strongly support the program.
    What can we do to make sure that these programs are more 
beneficial and safe for the participants? There have been some 
concerns expressed. Do you have thoughts as to what we should 
be looking at?
    Ms. Sonenshine. Yes. Thank you for the references to the 
security and safety of students.
    First, in my view anytime an international student is 
coming to the United States on whatever program--and there are 
many programs--we have a responsibility to make sure that it is 
a positive cultural engagement experience and that that student 
is safe, secure, educated, and that we are responsible for 
their welfare here.
    I have looked into--I know some of the issues around the 
summer work travel program. I am very heartened to see that the 
State Department and the Secretary are looking at that 
particular program with great seriousness and great urgency, 
and there are reforms underway.
    What I would also say is we always have to go back to the 
spirit and purpose and mission of these programs. We are 
exposing our students overseas and international students here 
to our way of life, our values, and our democracy. I also think 
we have to remind each other that the real values are sometimes 
not quantitative; they are qualitative. Although there is data, 
more and more now--700,000 students came here last year from 
overseas. That international education contributed over $20 
billion to the U.S. economy. So for those who suggest that 
there are not real numbers attached, there are.
    I am also inspired by the fact that of the Nobel laureates 
in this world, 40 of them came from Fulbright programs. So we 
have invested many heads of state, many officials, many Nobel 
Prize winners around the world with those exchanges and we have 
to tell that story.
    Senator Cardin. Thank you.
    Ms. Richard and Mr. Gast, we have talked about this, but I 
just want to put a spotlight on this for a moment. When there 
is a humanitarian crisis, women are more vulnerable. We have 
seen that. We have seen that with refugees. Women are more 
likely to be abused and could be subject to trafficking. We see 
that in the health and food crisis around the world. Women are 
generally more vulnerable.
    So how do we take that into consideration in our 
strategies? What do we do about that? Either one.
    Ms. Richard. Well, Senator, you will have seen in my 
testimony that I put down the welfare of women and girls in 
refugee and displaced situations as one of my top priorities 
should I be confirmed and undertake the job of Assistant 
Secretary.
    There already is a great deal of thought that has been 
given to this by leaders at the State Department and leaders 
among the humanitarian community. And I think the particular 
challenge we have now is not to realize the problem, because I 
think it has been very well articulated by Secretary Clinton 
and others, but I think what we have to do now is to follow 
through in the field and make sure that our operations live up 
to the best standards and practices to protect and aid women 
and girls. So that means working very closely with our 
partners. As you probably know, the Population, Refugees, and 
Migration Bureau works very closely with the U.N. High 
Commissioner for Refugees, the International Organization for 
Migration, the International Committee of the Red Cross. And 
through those relationships, I think we have to make sure that 
our best intentions are followed through with and that the best 
practices, that we know now what they are, take place on the 
ground.
    Mr. Gast. Senator, in areas where women are abused during
 humanitarian crises, we need separate strategies to protect 
women. So, for example, in the early period of Darfur, I 
traveled there and heard the abuses of many women, and it was 
very clear that we needed to develop separate programs and 
separate strategies to protect them, even some things as basic 
as providing them with more fuel-efficient stoves, for example, 
because the women frequently traveled outside of the camp to 
gather wood and that is when they were abused.
    It also requires all the tools of government and 
international organizations. Certainly PRM is a valued partner 
with USAID. So, for example, in eastern DRC, Congo, where women 
are being abused to this day, it is making sure that the 
security forces, the MONUSCO, are trained in how to deal with 
women's issues, that the government's own security forces are 
trained, that we assist the government to bring into the police 
and military trained female officers, and that we provide 
direct services to women and also try to support prevention. 
And we try to support prevention through public education and 
public information.
    Senator Cardin. I was impressed by all four of your resumes 
and background and references before today's hearing, and I 
tell you, it has only been reinforced by your statements and 
your response to questions. So I look forward to supporting 
your nominations and hopefully to move them as promptly as we 
can through the Senate. Now, moving promptly through the Senate 
is always relative. [Laughter.]
    Senator Cardin. So we will do the best we can to bring 
these up in a timely fashion.
    The committee record will remain open until close of 
business tomorrow. As I indicated earlier, some of our 
colleagues may have questions for the record, and we would 
encourage you to respond to them as quickly as possible.
    And with that, if there is no further business, the 
committee will stand adjourned. Thank you all very much.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


            Responses of Anne Richard to Questions Submitted
                        by Senator John F. Kerry

    Question. The Bureau of Population, Refugees, and Migration 
coordinates efforts with USAID to provide assistance to people in 
emergency conflict situations. What are some actions you would take to 
improve and increase coordination and a clear delineation of 
responsibilities?

    Answer. If confirmed, I will work to strengthen coordination 
between the Department's Bureau of Population, Refugees, and Migration 
(PRM) and USAID. I will be in regular, often daily, contact with the 
USAID Assistant Administrator for Democracy, Conflict, and Humanitarian 
Assistance (DCHA) Nancy Lindborg, whom I know well and respect 
immensely, and other members of her team. I will encourage State/PRM's 
Refugee Coordinators in the field to continue to consult closely with 
USAID/DCHA's overseas humanitarian and food aid advisors on 
programmatic and policy issues. I am also eager to explore the 
possibility of staff exchanges between State/PRM and USAID/DCHA and to 
build upon existing opportunities for reciprocal staff training.
    Global humanitarian needs are far greater than what State and USAID 
collectively can address. For this reason, State and USAID personnel 
must work closely together to ensure U.S. Government resources are used 
effectively to address top priorities, consider neglected aspects of 
crises, and fill gaps. State/PRM and USAID/DCHA adhere to written 
``Coordination and Funding Guidelines'' that have helped to facilitate 
an effective division of funding responsibilities to meet critical 
needs throughout the world. Regional offices within State/PRM confer 
regularly with regional counterparts within USAID in Washington and in 
the field.
    In recent large-scale crises, I understand that State/PRM has 
coordinated closely within the Interagency, including through active 
participation in daily Interagency calls and/or video conferences among 
field staff, the Department, USAID, the Pentagon and combatant 
commands, National Security Staff, and other agencies. This has proven 
to be enormously useful to share the latest information from the field, 
flag emerging policy issues, and resolve operational challenges using 
whole-of-government resources.
    During the past year, State/PRM, USAID/DCHA, and the State 
Department's International Organization Affairs Bureau have established 
a Humanitarian Policy Working Group (HPWG). The HPWG meets monthly at 
senior levels to address high-priority humanitarian policy issues, such 
as U.S. Government advocacy on U.N. humanitarian reforms, outreach to 
emerging donors, and guidelines for improved civil-military 
coordination in humanitarian response, in a collective and strategic 
manner. If confirmed, I look forward to participating in this group and 
ensuring that it moves key humanitarian policy issues forward. I will 
make strengthened coordination with USAID a top priority.

    Question. During your nomination hearing, you mentioned your focus 
on the protection of women and girls in the refugee context. If 
confirmed, what steps would you take to address and ensure the 
protection of women, who are considered most vulnerable in such 
scenarios? Despite the strong advocacy by operational organizations on 
the need to plan emergency response with the specific needs of women 
and girls in mind, we continue to see camps hastily arranged, resulting 
in a situation where women and girls are at risk. How would you improve 
this?

    Answer. The protection of women and girls in conflict settings is a 
priority for the Obama administration, and if confirmed, I would ensure 
that the Bureau of Population, Refugees, and Migration's (PRM) 
leadership on this front remains strong. Refugee women, children, and 
youth populations have special protection needs that we are committed 
to addressing not only through funding support, but also through 
advocacy and diplomacy. Since State/PRM began its special initiative 
for prevention and response to gender-based violence (GBV) in 2000, 
State/PRM has contributed more than $62 million worldwide in countries 
such as Afghanistan, Pakistan, Colombia, Kenya, the Democratic Republic 
of Congo (DRC), and Thailand.
    If confirmed, I will ensure that PRM continues to strongly 
encourage international and nongovernmental organizations to develop 
and implement programs and policies that protect and assist refugee 
women, children, and youth. For example, State/PRM has urged the World 
Food Programme (WFP) and the Office of the U.N. High Commissioner for 
Refugees (UNHCR) and their implementing partners to involve women and 
children in the programming and delivery of supplies to refugees, 
especially food. State/PRM has also encouraged partners to include 
gender issues in their programs and policies as a matter of course, 
because involving women in the design of camps and assistance programs 
can help reduce protection risks.
    State/PRM works closely with USAID, NGO, and IO partners to develop 
best practices, guidelines, and training to strengthen the humanitarian 
community's capacity to address GBV and other gender issues throughout 
the humanitarian response. State/PRM actively engages with NGO partners 
to prevent sexual exploitation and abuse, encouraging partners to 
implement policies and procedures, rather than simply signing a code of 
conduct. State/PRM also emphasizes the importance of education in 
emergencies as a critical protection tool. The Bureau works closely 
with USAID and the Center for Disease Control, as well as UNHCR and 
UNFPA, to promote access to reproductive health care in emergencies. 
And PRM will continue to play a critical role in the Department of 
State in developing and implementing the U.S. National Action Plan on 
Women, Peace and Security.
    If confirmed, I intend to build on the experiences and lessons 
learned over the past years to strengthen our efforts to better protect 
women and girls, working closely with colleagues across the U.S. 
Government, civil society, and international organizations. I will 
devote special attention to these matters during visits to the field 
and will ask PRM colleagues to do the same. I will also engage with 
other senior policymakers and leaders to ensure that they make 
protecting women and girls a top priority.

    Question. With the U.S. military drawdown from Iraq, what 
challenges will arise with respect to addressing the needs and concerns 
of Iraqi refugees? As you know, the number of Iraqis coming to the 
United States through the Special Immigrant Visa (SIV) program is very 
low, as are the numbers of refugees. You mentioned in your confirmation 
hearing that this would be of utmost importance to you. Please describe 
the efforts you would take, if confirmed, with other U.S. agencies to 
improve the resettlement to the United States of eligible Iraqi 
refugees and SIVs.

    Answer. Iraqi refugees and internally displaced persons will 
require continued support from the United States and the international 
community as solutions to displacement are identified--voluntary return 
to their former communities, local integration in areas of 
displacement, and resettlement elsewhere. Countries in the region 
hosting Iraqi refugees continue to offer asylum to Iraqis, and we do 
not expect the withdrawal of U.S. troops to affect their continued 
generosity. If confirmed, I will work to maintain our diplomatic 
engagement with the Government of Iraq and refugee-hosting countries 
and to sustain humanitarian support for Iraqi refugees and internally 
displaced persons.
    I am also committed to maintaining the Bureau of Population, 
Refugees, and Migration's refugee resettlement programs that serve 
Iraqi refugees, those who have assisted the U.S. Government as well as 
other vulnerable Iraqis in need of resettlement. Since 2007, the United 
States has resettled more than 62,000 Iraqis as refugees, including 
over 7,800 from the U.S. facility in Baghdad. A new security check 
implemented in late 2010 caused a slow-down in refugee arrivals in FY 
2011 to the United States, particularly for Iraqi refugees. This 
security check, a fundamental safeguard for our country, has equally 
affected the Special Immigrant Visa (SIV) program managed by the 
Department's Bureau of Consular Affairs. While I understand the 
Departments of State and Homeland Security, along with numerous 
intelligence agencies, are already reviewing this new check in order to 
gain efficiencies, it is one of my top priorities to engage at senior 
levels to resolve processing impediments caused by this new check while 
ensuring an effective system of security checks.

    Question. I read with some alarm that the Governments of Bangladesh 
and Burma are in discussions regarding the possible return of Rohingya 
refugees currently residing in Bangladesh. As you know, this population 
is of great concern to me. The Bureau of Population, Refugees and 
Migration and the U.S. Embassy in Dhaka have both worked hard to 
champion the rights of the Rohingya. What will you do, if confirmed, to 
restart the resettlement of Rohingya from Bangladesh to the United 
States and to improve their conditions in Bangladesh?

    Answer. The Bureau of Population, Refugees, and Migration (PRM) is 
closely following the situation of the Rohingya in Bangladesh and 
elsewhere in the region. There has been no progress by the Government 
of Bangladesh on the formation of a coherent national refugee policy 
since the October 2010 interministerial meeting, which placed all 
Rohingya-related issues on hold for a policy review. Third-country 
resettlement of the most vulnerable people from camps is still 
suspended and international NGOs continue to face difficulty obtaining 
legal permission to operate and provide life-saving humanitarian 
assistance. The U.S. Government and UNHCR have engaged in humanitarian 
diplomacy and advocacy at senior and working levels on numerous 
occasions since October 2010.
    During the recent official visit by Bangladesh Prime Minister 
Sheikh Hasina to Burma, she announced that Burma President Thein Sein 
agreed to the repatriation of Rohingya. Embassy Dhaka has been 
reassured that only willing refugees will be considered for 
repatriation and there is no established timeline. UNHCR is engaged 
with both governments and has a role in determining voluntariness and 
appropriate conditions in Burma for return. The eventual voluntary 
repatriation of Burmese refugees in safety and dignity, when conditions 
allow, is a solution which the U.S. Government and international 
community support.
    If confirmed, I will work with the international community to press 
both Burma and Bangladesh to improve conditions for the Rohingya and 
will reiterate U.S. support for long-term solutions, if and when 
appropriate. I will emphasize our commitment to work with Bangladesh to 
provide assistance to and identify durable solutions for the Rohingya, 
including resettlement of the most vulnerable. Our humanitarian 
assistance is part of the U.S. commitment to seek a comprehensive 
solution for refugees from Burma in Bangladesh and the Southeast Asian 
region.
                                 ______
                                 

         Responses of Tara D. Sonenshine to Questions Submitted
                        by Senator John F. Kerry

    Question. I commend the State Department for implementing reforms 
for the Summer Work and Travel J1 visa program, and look forward to 
working with the Bureau of Educational and Cultural Affairs as your 
monitoring efforts move forward. On secondary school exchanges, both 
grants-based and private sector, what reforms do you feel are necessary 
to ensure that international students who come to the United States 
have a safe, educational, and fun experience?

    Answer. ECA's senior leadership has made it a top priority to 
strengthen and enforce regulatory oversight of all youth exchange 
programs. I intend to follow through on the current initiatives. The 
health, safety, and welfare of international students in the United 
States are top priorities for the State Department, and I will work 
energetically to ensure that it remains so.
    ECA has increased staff in its Youth Programs Division, hired 
participant monitoring specialists and dramatically increased the 
number of visits and interviews with exchange students, host families, 
schools, and local coordinators.
    In October 2010, ECA published new and more stringent regulations, 
including tighter family screening that includes: photographs of the 
host family home; an annual criminal background check; and a check of 
the National Sex Offender Registry for all host family adults and local 
coordinators.
    Local Coordinators are now required to pass a training course and 
test on the program's purpose and regulations. Over 15,000 local 
coordinators have taken and passed the course.
    In fall 2010, ECA/EC staff completed on-site inspections of the 39 
largest fee-charging program sponsors and followed these inspections 
with sanctions of 15 sponsors and termination of 1.

    Question. The Under Secretary for Public Diplomacy traditionally 
represents the Secretary of State at meetings of the Broadcasting Board 
of Governors, liaising between the BBG and the State Department.

  <bullet> What will be your top priorities regarding your role with 
        the BBG? What efforts will you promote?
  <bullet> In your assessment, what challenges does the BBG face in the 
        field of public diplomacy as it competes with similar efforts 
        of other countries, including but not limited to China? How 
        would you address these challenges?
  <bullet> How will you reduce the overlap and redundant programming 
        between BBG and public diplomacy?

    Answer. The Under Secretary for Public Diplomacy and Public Affairs 
is the Secretary's designated representative to the BBG. In that role, 
as in all others, I would give top priority to working across agencies 
in a whole-of-government approach that creates synergies, leverages 
talent and makes the most of limited resources.
    The State Department and the BBG share a commitment to promoting 
freedom of the press and open access to information around the world as 
a fundamental tenet of our democratic values. I would seek to foster 
ongoing dialogue between the Department and the BBG to ensure that we 
are reinforcing those messages while being respectful of the 
``firewall'' that safeguards the independence of U.S. international 
broadcasting. I also would look forward to drawing upon my 25 years of 
media experience--including with ABC NEWS, Newsweek, and other 
outlets--to contribute ideas to the BBG on its reform efforts.
    These efforts have been geared in part toward increasing U.S. 
international broadcasting's audience in an ever-growing global media 
marketplace. The ascendancy of government-supported international media 
on multiple platforms in other countries, including China, has created 
new competition for audiences--a point to which Secretary Clinton spoke 
earlier this year in testimony before the Senate Foreign Relations 
Committee. Concerns have been raised in particular over media backed by 
governments with views that are at odds with those of the United 
States. If confirmed, I will strongly support the BBG's work to improve 
its competitive edge.
    Additionally, in a number of countries the BBG and its grantee 
organizations face challenges of government-restricted audience access 
to broadcast programs and products through signal jamming, as well as 
barriers to Internet usage and the distribution of content. The State 
Department has worked with the BBG to help overcome these restrictions, 
and if confirmed, I will ensure that this interagency coordination 
receives all the institutional backing that it needs.
    The situation involving broadcasting and China is exacerbated by 
limits that the Chinese Government places on the number of visas 
granted to journalists working for U.S. international broadcasting 
entities. The State Department frequently raises this issue with the 
Chinese Government--via their Embassy in Washington, the U.S. Embassy 
in Beijing, and at various high-level meetings. As Under Secretary for 
Public Diplomacy and Public Affairs, I would lend my full support to 
finding a solution to this challenge.
    With respect to any redundancies in programming, I will look to 
eliminate needless duplication, particularly given the tight budget 
environment in which the U.S. Government operates, by reviewing any 
areas where BBG and State Department activities appear to overlap. But 
I would also work to create synergies drawing on the strengths of 
public diplomacy and BBG programming to ensure that we reach the 
broadest possible audience using a range of tools that complement one 
another, such as opinion research and audience metrics.

    Question. Online exchanges, or ``Exchange 2.0''
    a. Online exchanges, or ``Exchange 2.0,'' are heralded by some as 
low-cost and effective means for advancing intercultural and 
international engagement.

  <bullet> In a period of fiscal austerity and dwindling resources, 
        what steps would you take to strengthen the efficacy of online 
        exchanges and increase both Americans' and other nationals' use 
        of such programs?

    b. Others say ``Exchange 2.0'' cannot substitute for traveling to 
other countries and directly experiencing other cultures. The State 
Department has many programs through which foreign professionals and 
students come to the United States for immersion and cultural exchange 
purposes. But it is also very important for Americans of all 
demographics to explore other countries and serve, however indirectly, 
whether through volunteer or teaching programs, as citizen ambassadors 
of the United States.

  <bullet> If confirmed, keeping in mind the economic climate, what 
        measures might you take to encourage more Americans to travel 
        overseas and learn about other societies? How would you 
        envision your role in this, and how would you work throughout 
        government on this issue?

    Answer. Online or virtual exchange offers a cost-effective, 
meaningful, and scaleable complement to in-person exchanges, especially 
among youth. However, they are not a substitute for direct people-to-
people exchanges. That said I will work on exploring how to support 
more of these sorts of exchanges around the world.
    Impact and sustainability is increased by adding virtual exchange 
programs to currently funded activities. The projects are able to 
further educational reform through project-based learning, 
interdisciplinary education, and student teamwork. Also, virtual 
exchanges between international students and American students help 
share American values through selected activity themes, such as freedom 
of the press or human rights, as the students research and report on 
the themes.
    I am a strong advocate for the importance of Americans engaging in 
meaningful experiences abroad, and will work with colleagues across 
government as well as educators, artists, scientists, business leaders 
and others in the nongovernmental community to convey this message. In 
order for the United States to compete and lead, we must ensure that 
our people are equipped with the skills and understanding necessary to 
succeed in a global environment. The Department of State's 
international exchange programs fulfill the nation's priorities and 
serve as models in their emphasis on increasing participation by 
underserved populations, fostering language learning, and supporting 
career-relevant experiences and exchanges that promote leadership 
development.

    Question. Over the last few months, we have witnessed the slow but 
hopeful liberalization of Burmese politics. Should Burma takes further 
steps to become a more open society, how do you envision increasing 
cooperation with that country to enhance people-to-people exchanges?

    Answer. People-to-people exchange has been and will continue to be 
an important part of U.S. efforts to bring about political reform in 
Burma. Initiatives such as English teaching and other programs for 
Burmese citizens organized by the American Center in Rangoon, visits by 
journalists and other important figures from Burma to the United States 
in State Department exchange programs, have all contributed to the 
gradual development of civil society in Burma. Should Burma take 
further steps to become a more open society, the State Department will 
use the full range of public diplomacy tools at our disposal to expand 
people-to-people ties with Burma, including increasing youth, student, 
and professional exchanges.

    Question. During your nomination hearing you said that public 
diplomacy is something for which engagement requires being ``in it for 
the long haul.'' You also mentioned as an example of public diplomacy 
the recently launched U.S. Virtual Embassy in Iran. There are reports 
that already the Iranian Government has blocked Iranian citizens from 
accessing the Virtual Embassy Web site.

  <bullet> What are all the tools available to the U.S. Government 
        committed to public diplomacy in the long haul, to address 
        challenges, such as blocked Internet access and hampered 
        communication, as it pursues several mediums by which to engage 
        people around the world and explain or demonstrate to them what 
        America is about? How would you prioritize those tools?

    Answer. Virtual Embassy Tehran has not been shut down. In fact, it 
has gone viral, rapidly approaching 1 million page-hits within the 
first week. After the site was ``blocked'' inside Iran, many of the 
Persian-language page-views originated from countries where the 
Persian-speaking community is negligible or nonexistent--
a strong indicator that Iranians are using proxy software and/or 
Virtual Private Networks (VPNs) that mask IP addresses.
    While we cannot exactly quantify the number of hits from inside 
Iran, Iranians have long found creative ways to get around the regime's 
attempts to stop them from controlling the information they see. 
``Blocking a site'' does not equate to ``making that side 
inaccessible.''
    While Facebook has never officially confirmed the number of Iranian 
users, the Iranian Government itself has estimated that more than 17 
million Iranians have Facebook accounts--despite the fact that Facebook 
is one of those blocked Web sites.
    Secretary Clinton has made clear that Virtual Embassy Tehran is 
just one step in what will be a sustained U.S. effort to pierce the 
``Electronic Curtain'' Iran is attempting to place around its people. 
As part of this effort, we are increasing our communication efforts in 
the Persian-language through all available media (online, broadcast, 
print, etc.) to counter disinformation and persistent myths about the 
United States and our policies. We are exploring additional ways to 
make broadcast content available to Iranian audiences by countering 
Iranian jamming of foreign broadcasts. We will continue to explore 
innovative ways to put hardware, software, and expertise in the hands 
of Iranian citizens and assist them in bypassing their own government's 
censorship.
    Finally, we are raising greater awareness for Iran's systemic 
efforts to deny information to its people. These efforts to control 
what the Iranian people see, hear, think, and feel are both a 
significant human rights violation and an approach that runs counter to 
the historical role successive Persian empires have played as a 
crossroads of civilizations.
    We share internally best practices and employ similar tactics in 
other countries where systematic censorship and control of information 
challenge our diplomacy.

    Question. With the U.S. military drawdown in Iraq, how would you 
increase public diplomacy efforts in that country to build on and 
improve America's relationship with Iraq and its citizens?

    Answer. There is currently in place and underway a wide-ranging 
transition plan to enhance our public diplomacy efforts in Iraq. It 
includes both expanded communications with the Iraqi people and 
expanded educational and cultural programs to enhance direct engagement 
between Iraqis and Americans. If confirmed, I pledge to work with the 
Congress to extend the full range of our Nation's substantial public 
diplomacy abilities and tools to broaden understanding in Iraq of the 
new U.S.-Iraq civilian partnership, enshrined in the Strategic 
Framework Agreement (SFA).
    The past decade has seen a major expansion of media outlets in Iraq 
and the arrival of broadly available cellular phone communications and 
open Internet access. If confirmed, I will work with our mission to 
vigorously leverage broadcast and new media--as well as press 
engagement--to project a bilateral partnership based on mutual 
interests and values, consistent with the evolving relationship. Our 
team of Arabic-speaking officers will be asked to conduct regular radio 
and TV interviews on Iraqi and pan-Arab television and will seek other 
creative means of leveraging the reach of television, the most common 
news source for Iraqis, to reinforce key themes. Embassy Baghdad will 
utilize its growing Facebook and YouTube presence to highlight the many 
partnership bilateral partnership activities under the SFA. I am a 
strong advocate for the effective use of social media and outreach 
programs that will include regular discussions with youth, women, and 
young professionals on a wide range of topics.
    Our public diplomacy activities will support no less than six 
elements of the Strategic Framework Agreement. It is my hope to see 
that our engagement with Iraq effectively underscores the shared values 
and goals of our bilateral partnership.
    The Bureau of Educational and Cultural Affairs currently operates a 
broad range of academic and professional exchanges with Iraq, including 
the ones with which you are most familiar--the Fulbright Program, 
International Visitor Leadership Program (IVLP), Hubert H. Humphrey 
Fellowships. These and other exchanges focus on education, English 
teaching, rule of law, entrepreneurship and economic growth, urban 
planning, public health, scientific research, and human rights.
    We must do as much as we can to promote deep engagement between 
Iraqi and American educational institutions as a way of nurturing 
stronger people-to-people relations. Our public diplomacy program 
oversees seven university linkage programs that support exchanges 
between American and Iraqi universities. We will be continuing to make 
substantial investments in English teaching programs in Iraq to 
facilitate communication with and understanding of the United States. 
Our academic advising programs will promote U.S. study by Iraqis--a 
growing number of whom are funded by the Iraqi Government.
    The United States has earned much good will through our efforts to 
support the preservation of Iraq's cultural and artistic legacy. 
Cultural heritage initiatives, including improved professional capacity 
in object conservation, historic preservation, and archaeology, 
continue to be an important part of our bilateral dialogue and will be 
supported to the best of our ability.
                                 ______
                                 

        Responses of Robert E. Whitehead to Questions Submitted
                        by Senator John F. Kerry

    Question. Given your previous experience as Chief of Mission in 
Khartoum and Deputy Chief of Mission (DCM) in Zimbabwe, Zambia, and the 
Central African Republic, what lessons have most significantly shaped 
your approach to managing a post like Togo?

    Answer. As Charge d'Affaires in Khartoum and as DCM in Zimbabwe and 
the Central African Republic, I learned to anticipate what issues might 
arise in a very fluid political and social environment characterized by 
negative trend lines. During my tenure in these three countries, crisis 
management of unanticipated situations was often the rule. The 
situation in Togo, on the other hand, is more akin to what I 
experienced in Zambia, where the trend lines were largely positive. 
Togo currently appears well positioned to achieve a general improvement 
of the political, social,
and economic environment. If confirmed, I will work with the Embassy 
country team, and through our bilateral and multilateral relationships, 
to harness the possibilities for improved governance, strengthened rule 
of law and accelerated economic liberalization.

    Question. In your testimony, you noted that maritime security in 
the Gulf of Guinea is one of our principal concerns in Togo and that 
the U.S. Embassy will look to use existing programs to help assist 
Togolese efforts. Piracy off the coast of Somalia, which has had a much 
larger economic impact and received far more attention, tends to be 
viewed often as primarily a naval problem, but its origins--and likely 
resolution--are found on land. How would you approach the question of 
piracy and maritime security, if confirmed?

    Answer. Banditry, piracy, and armed robbery at sea are a crucial 
concern in the region and especially for a country like Togo, which 
benefits greatly from the port revenue from the transshipment of goods 
to the land-locked Sahelian countries to the north. Maritime insecurity 
is a threat not only to economic growth, but also national and regional 
security and stability. The maritime domain in the Gulf of Guinea is 
vulnerable to a wide array of threats that have significant land-based 
dimensions, whether related to the origin of the threat, the locus of 
its effects, or the land-based capabilities required for preventive or 
enforcement interventions. As a result, land-based actors and 
capabilities are as important to maritime security as the sea-based 
actors and capabilities. Most attacks at sea against maritime commerce 
in the Gulf of Guinea do not meet the definition of piracy, since they 
largely occur within national or territorial waters. As such, the 
problem requires a different approach than that employed in the Gulf of 
Aden. We must invest in smart and targeted engagements that capitalize 
on local political will and nationally owned initiatives with regional 
consequences. If confirmed, I will work with the Togolese authorities 
to strengthen their capacity to patrol the coastline and police 
Togolese territorial waters. The United States has provided two 
Defender patrol boats to aid the Togolese Navy in these efforts. I will 
continue to use existing programs such as Africa Command's African 
Partnership Station to build the capacity of Togo and neighboring 
littoral states in this domain. Understanding that this is a regional 
issue, I will encourage President Faure to engage in consultations with 
neighboring coastal countries of the Economic Community of West African 
States to develop a joint plan to respond to this growing threat.
                                 ______
                                 

             Responses of Earl Gast to Questions Submitted
                            by John F. Kerry

    Question. As you know, we are currently in a very difficult fiscal 
situation. If the global foreign assistance budget is subject to cuts 
in FY 2012 and FY 2013, how will USAID approach this process in terms 
of its Africa programming? What priorities would guide the agency's 
thinking, particularly with regard to development outcomes and 
bilateral relationships?

    Answer. Although the budget climate is challenging, USAID, in 
collaboration with our interagency partners, will prioritize 
implementing the Obama administration's Presidential Initiatives, 
combating major humanitarian crises and assisting those recovering from 
serious conflict, and advancing regional security, democracy and 
governance, and economic growth. By focusing our programming on these 
priorities, measuring outcomes, and working collaboratively with host 
governments, civil societies and private sector partners on the ground, 
we will help to resolve conflict, maintain stability, and promote 
development.
    In particular, Africa's democratic gains cannot be taken for 
granted as democratic institutions across the continent have not been 
fully consolidated and remain fragile and vulnerable to authoritarian 
leaders and unconstitutional changes of government. In addition to 
supporting strong democracy programs throughout Africa, the Agency has 
a special focus on strengthening elected municipal-level governance and 
civil society counterparts in relatively well-performing African 
countries in order to deepen democratic governance and build systems of 
accountability.

    Question. In your testimony, you noted that USAID is currently 
improving the impact, cost-effectiveness, and sustainability of 
development programs. What are the best ways to measure aid 
effectiveness and what mechanisms are currently in place or being 
considered in order to measure the medium- or long-term impact of 
completed U.S. programs?

    Answer. USAID's newly adopted evaluation policy offers a 
comprehensive approach designed to set the standard for measuring the 
results and impact of our programming on the ground. These efforts 
focus not just on the imputs that are provided or even the outputs 
achieved, but on accountable measures of development outcomes. Through 
the implementation of this policy--a key pillar of Administrator Shah's 
USAID Forward reform agenda--the Agency will more effectively determine 
where we are seeing results and intensify or scale up interventions as 
appropriate, as well as those areas where we need to modify or scale 
back our investments. The policy will improve the quality of our 
monitoring and evaluation agenda and guide our program strategies, 
program design, and resource allocation decisions.

    Question. During your nomination hearing, you discussed the 
importance of supporting good governance in Africa. In countries where 
we have not seen progress in democracy and human rights, and 
particularly in countries where we've seen a backsliding in critical 
elements of good governance, how should this affect U.S. aid funding 
and in what ways would you recommend re-thinking existing assistance 
programs?

    Answer. U.S. support for democracy, human rights, and governance 
(DRG) is central to protecting our national security, promoting our 
national values, and furthering U.S. interests (including economic) in 
Africa. Failed or authoritarian states pose a threat to the physical 
security of the United States through potential trafficking in drugs, 
persons, and weapons, and providing safe haven to those who wish our 
harm.
    During the past decade, Africa has made significant progress in 
democratization, including the birth of a new democratic state of South 
Sudan, recent democratic elections in Zambia, and democratic 
transitions in Cote d'Ivoire, Guinea, and Niger. Since 1998, dozens of 
African countries have embraced democratic rule. This is a remarkable 
achievement given that 30 years ago military dictatorships and one-
party states dominated the landscape. However, significant challenges 
remain, including persistent instability in Somalia, restrictions on 
civil society in Ethiopia, and the continued political crisis in 
Madagascar.
    Strategic investments in DRG can make a big difference in whether a 
country progresses or backslides. Our assistance targets windows of 
opportunity for strengthening representative and responsive governance 
and civil society institutions, and to work across sectors--agriculture 
and food security, in education, in health, and in climate change--in 
increasing African partners' capacity for transparent and accountable 
governance.
    In countries where engagement with central governments remains 
unproductive or not possible, efforts at the grassroots level to foster 
citizen demand for better governance and to facilitate tangible gains 
in local service delivery are important. USAID plays an important role 
in supporting civil society organizations delivering health, education, 
and other services while also supporting human rights and democratic 
activists outside of government and, when possible, reformers within 
government. Democracy, human rights, and governance programs have also 
been refocused more directly on promoting democratic principles in the 
delivery of services by integrating these principles through civil 
society support across several development sectors to build 
understanding of and demand for democratic governance at the local 
level.

    Question. Please highlight what you consider to be three of USAID's 
most significant programming successes in Africa in recent years. What 
made these programs successful?

    Answer. Among the many USAID success stories in Africa, three stand 
out as potent illustrations of what U.S. foreign assistance and 
priorities can accomplish: progress in addressing the scourge of HIV/
AIDS, improved food security in Ethiopia, and the peaceful secession of 
South Sudan.
    For over 20 years, one of the most significant health challenges 
facing Africa has been the rise and spread of the HIV epidemic. In 
addition to dire health consequences on affected individuals and 
families, the disease also places considerable demands on community 
resources and stunts economic growth. But according to a recent U.N. 
report, in 2010, new HIV/AIDS infections worldwide had dropped to their 
lowest levels since the peak of the epidemic, and treatment mobilized 
by the international community has saved the lives of 2.5 million 
people in poor countries worldwide since 1995. In 22 African countries, 
the rate of new HIV infections fell by more than 25 percent and AIDS-
related deaths have dropped 21 percent between 2001 and 2009, largely 
as a result of international investments and coordination.
    Through the U.S. President's Emergency Plan for AIDS Relief 
(PEPFAR), USAID and its interagency partners have worked together to 
make major strides in addressing and mitigating the effects of the 
disease. Today, PEPFAR is providing life-saving antiretroviral drugs to 
more than 3.8 million HIV-positive Africans, and care and treatment to 
over 10 million. USAID is the major implementer of PEPFAR throughout 
the world. PEPFAR is increasingly trying to link its efforts to other 
health programs in order to improve the efficiency, effectiveness, and 
impact of their programs, It has also targeted efforts toward women, 
who comprise the majority of people infected by HIV, and preventing 
mother-to-child transmission, which has allowed millions of babies to 
be born HIV-free.
    In Ethiopia, USAID is partnering with the World Bank and other 
organizations to support the Government of Ethiopia's Productive Safety 
Net Program. For the last 5 years, the Agency's programs have worked to 
shift Ethiopia away from dependence on emergency food aid and toward 
long-term self-sufficiency and food security. This involved resiliency 
programs that introduced drought-resistance seeds, constructed wells 
and catchment areas, strengthened livestock health, and promoted good 
sanitary practices. We have seen striking results of these efforts this 
year, when, despite Ethiopia's experiencing its worst drought in 60 
years, more than 7.5 million fewer Ethiopians required emergency food 
assistance than did during the country's last drought.
    USAID has prioritized investments in the Productive Safety Net 
Program--implementing market-driven approaches to diversify 
livelihoods, build markets, and build stronger links among farmers, 
markets, and financial services. Additionally, the President's Feed the 
Future initiative is capitalizing on the lessons learned through this 
program and others to build country-led approaches in Africa that 
increase food security, improve household incomes and nutrition, and 
reduce poverty by investing in the main engine of Africa's economies: 
agriculture.
    This past year, South Sudan emerged as the world's newest nation 
following a peaceful, transparent, and open referendum process 
stipulated by the 2005 Comprehensive Peace Agreement that ended the 
country's 22-year civil war. While South Sudan's challenges hardly 
ended with independence, the Government of South Sudan (GOSS), with 
USAID support, has built roads to facilitate trade with its neighbors; 
established systems to provide health care and education for its 
people; installed checks that ensure transparent management of its 
resources; and developed policies to protect its extraordinary natural 
resources. USAID continues to work with its institutions at all levels 
to sustain and deepen these accomplishments, including through the 
recent U.S.-sponsored international engagement conference for the 
Republic of South Sudan. USAID has been a strong partner of the GOSS 
since its inception, and that partnership continues today.
    As you know, millions of Sudanese came together to vote against war 
for a peaceful independence. U.S. support helped to create the 
environment that led up to that extraordinary moment--a potent 
illustration of what diplomacy and development can achieve in Africa 
and how continued U.S. involvement is critical to supporting African 
progress. If confirmed, I look forward to working with my interagency 
partners to strengthen our relationship with South Sudan and assist the 
Sudanese people in meeting the various challenges impacting our newest 
democracy.

                                  <all>

</pre></body></html>
